<html>
<title> - AN OVERVIEW OF THE FARMERS TO FAMILIES FOOD BOX PROGRAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
        AN OVERVIEW OF THE FARMERS TO FAMILIES FOOD BOX PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON NUTRITION, OVERSIGHT, AND DEPARTMENT OPERATIONS

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2020

                               __________

                           Serial No. 116-34
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-613 PDF            WASHINGTON : 2020                          
                         
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California            CHRIS JACOBS, New York
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa
XOCHITL TORRES SMALL, New Mexico

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

    Subcommittee on Nutrition, Oversight, and Department Operations

                      MARCIA L. FUDGE, Ohio, Chair

JAMES P. McGOVERN, Massachusetts     DUSTY JOHNSON, South Dakota,  
ALMA S. ADAMS, North Carolina        Ranking Minority Member
JAHANA HAYES, Connecticut            SCOTT DesJARLAIS, Tennessee
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
AL LAWSON, Jr., Florida              TED S. YOHO, Florida
JIMMY PANETTA, California            DON BACON, Nebraska
----                                 CHRIS JACOBS, New York

             Jasmine Dickerson, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     8
    Joint submitted statement; on behalf of Mollie Van Lieu, 
      Senior Director, Nutrition Policy, United Fresh Produce 
      Association................................................    73
    Submitted letter.............................................    76
    Submitted fact sheet.........................................   110
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  submitted letter...............................................    75
Fudge, Hon. Marcia L., a Representative in Congress from Ohio, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Supplementary material.......................................    55
Johnson, Hon. Dusty, a Representative in Congress from South 
  Dakota, opening statement......................................     4
    Joint submitted statement; on behalf of Mollie Van Lieu, 
      Senior Director, Nutrition Policy, United Fresh Produce 
      Association................................................    73
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, submitted letters and articles; on behalf of 
  Hon. Lloyd Doggett, a Representative in Congress from Texas....    56
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     6
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, submitted letters....................................    70
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, submitted comments...............................   112

                               Witnesses

Ibach, Hon. Greg, Under Secretary, Marketing and Regulatory 
  Programs, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Bruce Summers, Administrator, Agricultural 
  Marketing Service, USDA........................................     9
    Prepared statement...........................................    10
    Submitted questions..........................................   112
Cooper, Eric S., President and Chief Executive Officer, San 
  Antonio Food Bank, San Antonio, TX.............................    38
    Prepared statement...........................................    40
Habash, Matt, President and Chief Executive Officer, Mid-Ohio 
  Foodbank, Grove City, OH.......................................    42
    Prepared statement...........................................    44


        AN OVERVIEW OF THE FARMERS TO FAMILIES FOOD BOX PROGRAM

                              ----------                              


                         TUESDAY, JULY 21, 2020

                          House of Representatives,
      Subcommittee on Nutrition, Oversight, and Department 
                                                Operations,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
Room HVC-210 of the Capitol Visitor Center, Hon. Marcia L. 
Fudge [Chair of the Subcommittee] presiding.
    Members present: Representatives Fudge, McGovern, Adams, 
Hayes, Schrier, Panetta, Costa, Spanberger, Pingree, 
O'Halleran, Peterson (ex officio), Johnson, Davis, Bacon, 
Hagedorn, Thompson, Austin Scott of Georgia, Hartzler, Kelly, 
and Conaway (ex officio).
    Staff present: Lyron Blum-Evitts, Jasmine Dickerson, 
Grayson Haynes, Ross Hettervig, Chu-Yuan Hwang, Anne Simmons, 
Anna Brightwell, Emily Hytha, Matthew S. Schertz, Ricki 
Schroeder, Patricia Straughn, Jennifer Tiller, John Konya, Dana 
Sandman, and Justina Graff.

OPENING STATEMENT OF HON. MARCIA L. FUDGE, A REPRESENTATIVE IN 
                       CONGRESS FROM OHIO

    The Chair. This hearing of the Subcommittee on Nutrition, 
Oversight, and Department Operations entitled, An Overview of 
the Farmers to Families Food Box Program, will come to order. 
Welcome and thank you for joining today's hearing with the 
Under Secretary, Mr. Ibach, President and CEO of the San 
Antonio Food Bank, Mr. Eric Cooper, and the President and CEO 
of the Mid-Ohio Food Bank, Mr. Habash. After brief opening 
remarks, the hearing will be open to questions. Members will be 
recognized in the order of seniority, alternating between 
Majority and Minority Members. When you are recognized, you 
will be asked to unmute your microphone, and you will have 5 
minutes to ask your questions or make a comment. In order to 
get to as many questions as possible, the timer will stay 
consistently visible on your screen.
    Good afternoon, and thank you for joining us today for the 
House Agriculture Committee's first hybrid hearing during this 
unprecedented time in our nation's recent history. The COVID-19 
pandemic has brought with it an economic toll that has left 
millions of Americans jobless, and without the basic income 
needed to purchase food for their families. More than 40 
million Americans have applied for unemployment as a result of 
pandemic related job losses. At one point, 40 percent of 
Americans making less than $40,000 a year lost their jobs. In 
my State of Ohio, SNAP caseloads increased by 21 percent from 
February to May. According to Feeding America, which represents 
200 food banks across the nation, demand has increased an 
average of 70 percent.
    Many have read the heartbreaking stories about the 
thousands of people across the country who lined up for miles 
to receive food, many of them people who had never experienced 
visiting a food bank. We also heard stories about milk dumping, 
and backups along the hog and poultry supply chains, forcing 
farmers to make excruciatingly difficult choices. Congress 
passed several bipartisan pieces of legislation that were 
signed into law, and helped expand aid to distressed farmers, 
rural businesses, and small towns, and provided food assistance 
to vulnerable children and families. We can all agree that 
additional help was, and still is, needed to assist our 
farmers, businesses, and vulnerable people experiencing 
hardship as COVID-19 cases continue to rise, and the economic 
damage that comes with that. Today's hearing is focused on the 
Administration's $3 billion program intended to quickly deliver 
fresh food to those in need.
    On April 17, 2020, Secretary of Agriculture Sonny Perdue 
announced the creation of the Coronavirus Food Assistance 
Program, known as CFAP, to provide $19 billion in financial 
relief to farmers, ranchers, and consumers. This includes $16 
billion in direct payments to producers impacted by the drop in 
commodity prices and the disruption in food supply chains. It 
also includes the Farmers to Families Food Box Program, which 
provides $3 billion in fresh produce, dairy, and meat product 
purchases for distribution through food banks and other 
nonprofit organizations. However, despite some reports of 
nonprofits successfully receiving and delivering food to people 
in need, including in my district, the effort is clearly not 
working for everyone.
    Since the Farmers to Families Food Box Program was 
announced on April 17, several issues have been raised 
regarding the program's implementation and delivery. It has 
been broadly reported that the program fell well short of its 
initial commitment to providing 40 million boxes of food to 
food banks, churches, and other nonprofit organizations by the 
end of June 2020. We have seen reports of companies awarded 
contracts with little to no experience in the timely sourcing 
and distribution of food, including nearly $40 million to a 
Texas wedding planner. A contractor committed to providing 
750,000 boxes of food. To date, it has distributed fewer than 
\1/3\ of their promise. Our Ranking Member frequently complains 
about what he sees as waste, fraud, and abuse in our anti-
hunger programs, but I would like to know if he is concerned 
about the egregious failures in his own backyard.
    Some awardees have no prior experience working with food 
banks, or even wholesale food distribution. Other contract 
recipients have reportedly spent money on lobbying and PR 
instead of diverting the money into more food for the hungry. 
We have heard about inconsistencies in the coordination between 
distributors and nonprofits on the amount of food a nonprofit 
can handle, resulting in food spoiling in 90 weather. We have 
heard from food banks which have historically enjoyed a good 
working relationship with USDA's Food and Nutrition Service 
that there are no clear points of contact within the 
Agricultural Marketing Service to submit complaints or ask 
questions.
    This Committee requested, and to date has not received, any 
information on how USDA and distributors are tracking which 
nonprofits are receiving food boxes. USDA has also failed to 
provide sufficient rationale for how it determined regional 
food distribution such that Puerto Rico is in the same region 
as Pennsylvania, and the Virgin Islands is in the same region 
as Maine. Nor has USDA responded to public criticism by 
publishing information on how they are ensuring only legitimate 
and experienced nonprofits participate in the program. In my 
district in Cleveland, Ohio, our food banks and nonprofits have 
the benefit of working with a seasoned distributor that has 
served local emergency food providers for over 100 years. 
However, if the stated mission of the Families to Food Box 
Program is not being accomplished everywhere, either through 
misspent funds, mismanagement, or inconsistent operations, then 
this program is creating hardships instead of relieving them.
    It is clear greater transparency and oversight are needed 
to shed light on a program designed in the dark by USDA, 
outside of the farm bill, in the absence of input from 
Congress, or experienced agriculture stakeholders and emergency 
food providers. A program intended to feed the hungry that 
fails to operate consistently and equitably for all people 
across this nation is unacceptable. That is not good 
government, and only lends itself to fraud, waste, and abuse of 
taxpayers' dollars.
    Today's hearing is only the beginning. I intend to closely 
review this program to ensure that it meets its intended policy 
goals and operates efficiently for all those depending on its 
promised success.
    I will recognize my colleague, Mr. Johnson, but let me just 
make this one statement, Mr. Johnson. Because we are in votes, 
and a lot of things are happening, without objection, the Chair 
is authorized at any time to declare the Committee in recess, 
subject to the call of the chair. Without objection, thank you.
    [The prepared statement of Ms. Fudge follows:]

    Prepared Statement of Hon. Marcia L. Fudge, a Representative in 
                           Congress from Ohio
    Good afternoon, and thank you for joining us today for the House 
Agriculture Committee's first hybrid hearing during this unprecedented 
time in our nation's recent history.
    The COVID-19 pandemic has brought with it an economic toll that has 
left millions of Americans jobless and without the basic income needed 
to purchase food for their families.
    More than 40 million Americans have applied for unemployment as a 
result of pandemic-related job losses.
    At one point, \1/3\ of Americans making less than $40,000 a year 
lost their jobs.
    In my State of Ohio, SNAP caseloads increased by 21 percent from 
February to May.
    According to Feeding America, which represents 200 food banks 
across the nation, demand has increased an average of 70 percent.
    Many have read the heartbreaking stories about the thousands of 
people across the country who lined up for miles to receive food, many 
of them people who have never experienced visiting a food bank.
    We also heard stories about milk dumping and backups along the hog 
and poultry supply chains, forcing farmers to make excruciatingly 
difficult choices.
    Congress passed several bipartisan pieces of legislation that were 
signed into law and helped expand aid to distressed farmers, rural 
businesses, and small towns, and provided food assistance for 
vulnerable children and families.
    We can all agree that additional help was--and still is--needed to 
assist our farmers, businesses, and vulnerable people experiencing 
hardship as COVID-19 cases continue to rise, and the economic damage 
that comes with that.
    Today's hearing is focused on the Administration's $3 billion 
program intended to quickly deliver fresh food to those in need.
    On April 17, 2020, Secretary of Agriculture Sonny Perdue announced 
the creation of the Coronavirus Food Assistance Program, known as CFAP, 
to provide $19 billion in financial relief to farmers, ranchers, and 
consumers.
    This includes $16 billion in direct payments to producers impacted 
by the drop in commodity prices and the disruption in food supply 
chains.
    It also includes the Farmers to Families Food Box Program, which 
provides $3 billion in fresh produce, dairy, and meat product purchases 
for distribution through food banks and other nonprofit organizations.
    However, despite some reports of nonprofits successfully receiving 
and delivering food to people in need, including in my district, the 
effort is clearly not working for everyone.
    Since the Farmers to Families Food Box Program was announced on 
April 17, several issues have been raised regarding the program's 
implementation and delivery.
    It has been broadly reported that the program fell well short of 
its initial commitment of providing 40 million boxes of food to food 
banks, churches, and other nonprofit organizations by the end of June 
2020.
    We've seen reports of companies awarded contracts with little-to-no 
experience in the timely sourcing and distribution of food, including 
nearly $40 million to a Texas wedding planner.
    Some awardees have no prior experience working with food banks or 
even wholesale food distribution.
    Other contract recipients have reportedly spent money on lobbying 
and PR instead of diverting that money into more food for the hungry.
    We've heard about inconsistencies in the coordination between 
distributors and nonprofit on the amount of food a nonprofit can 
handle, resulting in food spoiling in 90 weather.
    To date, this Committee has not received any information on how 
USDA and distributors are tracking which nonprofits are receiving food 
boxes and how they are ensuring only legitimate and experienced 
nonprofits participate in the program.
    If the stated mission of the Families to Food Box Program is not 
being accomplished everywhere--either through misspent funds, 
mismanagement or inconsistent operations--then this program is creating 
hardship instead of relieving it.
    In my district in Cleveland, Ohio, our food banks and nonprofits 
have the benefit of working with seasoned distributors who have been 
serving local emergency food providers for over 100 years.
    However, a program intended to feed the hungry that fails to 
operate consistently and equitably for all people across this nation, 
is unacceptable.
    It is clear greater transparency and oversight are needed to shed 
light on a program designed in the dark by USDA, outside of the farm 
bill, in the absence of input from Congress, or experienced agriculture 
stakeholders and emergency food providers.
    That is not good government and only lends itself to fraud, waste, 
and abuse of taxpayer dollars.
    Today's hearing is only the beginning. I intend to closely review 
this program to ensure that it meets its intended policy goals and 
operates efficiently for all those depending on its promised success.
    I now recognize my colleague, Mr. Johnson of South Dakota, for any 
opening remarks he'd like to make.

    The Chair. I now recognize my colleague, Mr. Johnson of 
South Dakota, for any opening remarks he would like to make.

 OPENING STATEMENT OF HON. DUSTY JOHNSON, A REPRESENTATIVE IN 
                   CONGRESS FROM SOUTH DAKOTA

    Mr. Johnson. Thank you, Madam Chair. Good afternoon. Of 
course, I want to thank our witnesses on both panels for their 
participation today. When Secretary Perdue announced the 
creation of the Farmers to Families Food Box Program, I will 
admit I was excited. This was a way to expeditiously assist 
producers, some of whom were, as the Chair mentioned, plowing 
over crops, dumping milk, because of supply chain disruptions, 
as well as an opportunity to help consumers who had found 
themselves in circumstances beyond their control, and many of 
them in very great need.
    USDA's promise to purchase fresh produce, dairy, and 
certain meat products was indeed welcome news, and to date 
their purchases have far exceeded their own goals. Since May 
15, Feeding South Dakota, who I talked to just the other day, 
has accepted 95,241 boxes. To put that into context, that is 
more than 1.5 million pounds of food. These boxes have included 
a combination of produce, fluid milk, protein, and mixed dairy, 
and, again, my reports from the field are that the quality of 
those boxes have been excellent. Almost 100 communities 
throughout South Dakota have benefited from the Farmers to 
Families Program.
    Now, let us be clear, no program, particularly of this size 
and scope, is ever without growing pains, and indeed I wrote to 
the Secretary on May 22 to further understand some of the 
things I was reading, and some of the things I was hearing 
about. The Secretary responded, explaining everything from the 
contracting flexibilities under the Federal Acquisition 
Regulation Part 18, to PACA licenses to further awards, and I 
thought it was instructive and important data. And here we are, 
90 days after the initial announcement of this program, and I 
get the sense that we are focusing more on the fault in details 
instead of, at the same time, also celebrating the bold effort, 
and largely successful effort to feed those in need. What has 
been accomplished really is worthy of celebration, and that 
would be true regardless of what Administration is in charge. 
Farmers to Families works. It has been successful, and it is 
doing exactly what it was intended to do, connecting farmers to 
families in need.
    But instead of applauding the efforts of the Department and 
the Administration, we sit here--and, again, I get the sense 
that we will be cherry picking challenges that certain areas of 
the country have faced. Meanwhile, and of great concern to me, 
the other part of CFAP receives almost no attention from this 
Committee. On April 1, I helped lead a bipartisan, bicameral 
group of over 140 Members urging targeted, temporary, and 
equitable relief for cattle producers. And, from what I see, 
and this has been consistent for weeks and weeks, there has 
been no greater push for assistance than for cattle country. 
But the CFAP Program still came up short, as producers who sold 
livestock after April 15 only received a fraction of those who 
sold thereafter. As the pandemic carried on, and the situation 
deteriorated for pork producers, we followed up with other 
strong, bipartisan letters urging support for producers who had 
been feeling the economic impact of shrinking shackle space.
    We appreciate the hard work of the Department, and I want 
to make it clear that much of what I am talking about is not 
USDA's fault. As Congress, we have failed to deliver the 
resources necessary to properly aid our farmers and ranchers. 
We had to fight hard for that $23.5 billion, and that was a 
fight to back the efforts of those who are working so hard 
every day to ensure our food supply chain remains 
uninterrupted, and our store shelves remain stocked. And I 
would like to remind Members, and those viewing at home, that 
in the early days of the pandemic Republicans asked for $50 
billion in dedicated agricultural funding.
    My hope is that we can come together and fight for enough 
funding for agriculture in this next package that is going to 
need to come together in the next week or 2. We need to provide 
resources to both extend coverage for our cattlemen who sold at 
the bottom of the market after April 15, and our pork 
producers, who creatively found markets for hogs, but many of 
them, I am sorry to say, suffered huge losses to avoid 
euthanizing their livestock. A hearing on that topic would be 
very much welcome, at least by me.
    With that, Madam Chair, I yield back.
    The Chair. Thank you, Mr. Johnson. And, prior to 
recognizing Mr. Peterson, I just want to make you aware that, 
in consultation with the Ranking Member, and pursuant to Rule 
XI(e), I want to make Members of the Subcommittee aware that 
other Members of the full Committee may join us today.
    I now recognize Chairman Peterson for any opening comments 
he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Madam Chair, and thank you for 
your leadership. Mr. Johnson, you as well. As we all know, the 
pandemic has really exposed a lot of things in agriculture. Not 
only in production agriculture, but also in the distribution of 
food, and I hope that we are going to spend quite a bit of time 
on this Committee following up on that, and trying to get in 
position where we are not going to have this kind of problem in 
the future, where we are kind of ahead of the curve, if you 
will.
    Mr. Johnson, I don't know exactly what he was referring to, 
but one of my concerns--and I appreciate the money that's been 
allocated out of the CCC, but I just think that this idea that 
we are going to give more money to the CCC, where we are really 
having no kind of oversight, no kind of involvement in it 
whatsoever, is not a good idea in the long-term, because you 
are basically taking the Agriculture Committee out of this 
whole situation. One of the things that I am going to--hope we 
can do is, as we look at ways to deal with these challenges, 
that we make sure that this money comes out of the CCC to take 
care of these challenges. I am all for that, but just to have 
an open-ended check I don't think is necessarily a good idea, 
and maybe some of the stuff that has happened the last couple 
years is going to come back and haunt us. Even though it has 
been a welcome thing, I understand that, and producers needed 
it, but I am not sure this is the right way for us to go. And 
we will have discussions about that, I am sure.
    When I was back a couple weeks ago, I went over to my local 
food bank, and I was shocked to find out that their caseload is 
57 percent of what it was at this time last year. They are way 
below what they were a year ago, and it has been that way for 2 
or 3 months. And it is not only in my hometown, it is in that 
whole area. And I said, ``Well, what do you think is going on 
here?'' And he says, ``Well, we are not exactly sure, but maybe 
it is the unemployment benefits that are being paid,'' which 
are more than--the $600 is more than the average net take home 
pay of people in my district. They get these $1,200 checks, 
they get $600 unemployment. Maybe that is it, we don't know; 
but, we need to look into why it is in our area we are down, 
and why we have actually more food in there than they can 
store, and then in Marcia's area, and places like that, we have 
lines around the block, right? Marcia tried to get into these, 
so we need to look at what is going on here, and why is there a 
disparity between different regions of the country, and see if 
there is something we can do to help resolve that.
    In regard to this Food Box Program, I don't know if I have 
a problem with this, but what I am concerned about is are we, 
in fact, getting the best bang for our buck with this program? 
And I talked to the Secretary earlier, Under Secretary, and 
they are doing competitive bidding, and they claim they are 
making sure that they get the best price, and we need to do 
oversight, Marcia, to make sure that is actually happening, 
look into how this competitive bidding is going, and how much 
we are paying for some of these things, because my sense is 
that you are probably getting a better deal through SNAP than 
we are through these food boxes. I don't know if that is true 
or not, but we need to figure it out, and need to take a look 
at it.
    The bottom line, though, I mean, we need to make sure that 
people that are unemployed, people that are having a tough 
time, have enough food to take care of their kids, that is very 
important, but we also need to make sure that we don't have 
bureaucracy getting in the way, or we don't have mismatches in 
the situation. I was getting complaints from some areas where 
they said they couldn't get the stuff they were buying from the 
farmers into the food bank, and found out that there is some 
kind of a third party in some of these food banks where you 
can't actually give the money directly--or give the food to the 
food bank, you have to go through this third party in order to 
get qualified, and it takes 5 months to do it. Well, does that 
make any sense, and is that something that we should take a 
look at as well? I think the Department is doing as good a job 
as they can under the circumstances. We are in a crisis, we 
understand that, but let us take this time over the next few 
months to look at what has been happening, see if there are 
things that we can do to streamline it, and to make sure that 
the taxpayers' money that is going into this is spent in the 
best way.
    On top of all of that, the talk about some people 
complaining about the error rate in SNAP and so forth, I just 
had my staff pull together information on the food bank system, 
and in 95 percent of the cases these are self-certified and 
really, from what I can tell, nobody is checking anything. If 
people show up, then they get served. In a lot of cases, the 
income limit, if it even was followed, is 200 percent or 300 
percent of poverty, as opposed to 130 for SNAP, I guess that is 
fine in an emergency, but does that make sense, for us to have 
such strict rules on one program, and kind of have an open-
ended situation on another? I don't know. Maybe that makes 
sense, but those are some of the things we need to look at.
    So, with that, Madam Chair, I appreciate your leadership, 
and look forward to hearing the witnesses' testimony.
    The Chair. Thank you very much. I now recognize Ranking 
Member Conaway for any opening comments he would like to make.
    Ms. Schrier. Madam Chair? I apologize for interrupting. 
Several Members of the Committee are not wearing masks. That is 
required in Committee meetings, and it is a sign of respect, 
and, frankly, as a doctor, it is a good health practice to have 
a mask on at a time of a pandemic.
    The Chair. If all of the Members would please wear your 
masks? Mr. Conaway, you are recognized.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Thank you, Madam Chair. Thank you for holding 
this hearing, which, quite frankly, is the first since March 
the 10th for our Committee. In fact, the Agriculture Committee 
is the last standing committee to have a hearing since the 
pandemic started, and that is really disappointing. However, 
based on my good colleague, the Chairman's remarks about need 
for oversight across a broad spectrum of things, I am hopeful 
that that gets translated into a lot more aggressive committee 
activity so that we could actually get to the answers to the 
questions that he posed. And, Madam Chair, thank you for 
breaking the chain of no hearings for a long, long time, so I 
appreciate that.
    We are here today, well, some of us are here. The folks on 
the screen over there, they are here as well, to--not to 
discuss the litany of issues impacting farm country that this 
Committee continues to ignore, but to discuss a program that is 
popular, effective, and working as intended, a program that is 
meant to supplement, not supplant, the vast nutrition safety 
net that USDA is responsible for administering for our friends 
and neighbors in need. Farmers to Families is doing exactly 
what the Secretary wanted it to do, connect farmers with 
families impacted by this crisis. This program not only helped 
producers who found themselves in the middle of major shifts in 
the supply chain, but consumers who fell victim to 
unprecedented circumstances.
    I am also frustrated with our witness list today. We have 
two witnesses whose testimony is darn near identical coming 
from backgrounds that are almost identical, from the food 
banks, but we are not hearing from witnesses associated with 
the hundreds of not-for-profits and community-based 
organizations out there who have actually been in the fight 
getting these boxes out to the consumers. I would prefer to 
hear from somebody like that, as well as the folks that we are 
likely to hear from. So, that said, I also appreciate Secretary 
Ibach for coming, and I will look forward to hearing from Mr. 
Cooper and Mr. Habash when they get here for their panel, but 
our panel should have been a little broader spectrum for the 
testimony today. So, with that, Mr. Chairman--Madam Chair, I 
yield back.
    The Chair. Thank you very much. And, for the record, you 
had an opportunity to put a witness on this panel, and chose 
not to do so. The chair would request that other Members submit 
their opening statements for the record so witnesses may begin 
their testimony to ensure that there is ample time for 
questions.
    With that, I would welcome our first panel. I thank you for 
being here today. At this time I will introduce our first 
witness, Under Secretary Greg Ibach. The Under Secretary was 
confirmed by the Senate and sworn in as Under Secretary for 
Marketing and Regulatory Programs on October 30, 2017. In his 
role as Under Secretary, Mr. Ibach is responsible for carrying 
out MRP mission area, which is comprised of the Agricultural 
Marketing Service agency, and the Animal and Plant Health 
Inspection Service agency. He is accompanied today by 
Administrator Bruce Summers. Sir, you may begin. You have 5 
minutes.

        STATEMENT OF HON. GREG IBACH, UNDER SECRETARY, 
            MARKETING AND REGULATORY PROGRAMS, U.S. 
         DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.; 
         ACCOMPANIED BY BRUCE SUMMERS, ADMINISTRATOR, 
              AGRICULTURAL MARKETING SERVICE, USDA

    Mr. Ibach. Chair Fudge, Ranking Member Johnson, as well as 
the full Committee, thank you for the opportunity to appear 
before you today to discuss the Farmers to Families Food Box 
Program. I am Greg Ibach, the Under Secretary for Marketing and 
Regulatory Programs in the USDA's mission area. With me today 
is Bruce Summers, Administrator for the Agricultural Marketing 
Service, the agency which implements the Food Box Program.
    Before I begin, Chair Fudge, I want to thank your 
constituents at the Cleveland Food Bank and the Sanson Company 
for hosting me in Cleveland to discuss the impact this program 
has in your community. We were also joined by Produce One and 
Wiers Farms, two other local food box distributors, and the 
Grace Christian and Missionary Alliance Church. I am pleased to 
report what I saw firsthand in your district. As a result of 
this program, the Cleveland Food Bank is delivering boxes of 
fresh fruits, vegetables, dairy, and meat to 25,000 newly food-
insecure families. The Sanson Company hired, or re-hired, 
dozens of employees, and the Grace Christian and Missionary 
Alliance Church shared that distributing boxes to families in 
need has given the congregation a renewed sense of purpose in 
these trying times. Wherever I visit, distributors and food 
banks share handwritten notes from families who consider the 
Farmers to Families Food Box Program a lifeline during this 
crisis. I brought several letters today written by families in 
Cleveland.
    Today, I would like to provide you with background of how 
we formulated the program in its current status and next steps. 
As part of the Coronavirus Food Assistance Program Secretary 
Perdue announced on April 17, USDA utilized authority under the 
Families First Coronavirus Response Act to purchase and 
distribute up to $3 billion in fresh produce, dairy, and meat 
products. The program supplies boxes packaged with fresh fruits 
and vegetables, dairy products, meat products, and a 
combination box of produce, dairy, or meat products. Local and 
regional suppliers package these products into family-sized 
boxes, and then transport them to food banks, community and 
faith-based organizations, and other nonprofits serving 
Americans in need. This multi-billion dollar program, stood up 
in a short period of time, addresses three critical needs. One, 
providing markets for farmers faced with declining demand, and 
the crisis of food rotting in fields, and not being wasted. 
Two, supplying food to newly unemployed Americans, and three, 
utilizing the idle food distribution infrastructure. Employees 
have been called back to work, and even new employees hired, 
many of whom lost their jobs in other industries.
    Applicants to the program had to demonstrate capabilities 
regarding commercial experience, business ethics and integrity 
standards, food safety and/or experience with regulatory 
audits, inspections, certifications, and approvals, and 
financial performance. The amounts and locations awarded were 
based on the offers received, and the evaluation of those 
offers. I would like to stress two important points. One, all 
commodities purchased, packaged, and delivered are 100 percent 
domestic origin, and two, no vendor is paid until proof of 
delivery and compliance with the contract is confirmed.
    Oversight of the program is ongoing. This program assists 
in safeguarding U.S. taxpayers' funds and ensuring relevant 
laws and regulations are followed. Audits are performed to 
ensure that safe, high-quality, domestically-produced products 
are delivered to food banks and nonprofit community and faith-
based organizations. Later this week USDA will announce an 
opportunity for new and current vendors to submit proposals to 
utilize approximately $500 to $700 million that will be 
remaining when current contracts expire.
    In summation, tens of millions of boxes have been 
delivered, resulting in hundreds of millions of meals being 
provided to Americans in need. As Secretary Perdue has stated 
on multiple occasions, the program is a win-win-win. While the 
feedback received by the Department has been overwhelmingly 
positive, we are constantly evaluating program operations, and 
inviting input to ensure the program continues to have the most 
positive impact possible, as we at USDA strive to do right and 
feed everyone. Again, thank you for the opportunity to be here 
today. I am happy to answer any questions you might have.
    [The prepared statement of Mr. Ibach follows:]

 Prepared Statement of Hon. Greg Ibach, Under Secretary, Marketing and 
 Regulatory Programs, U.S. Department of Agriculture, Washington, D.C.
    Chair Fudge, Ranking Member Johnson, and Members of the 
Subcommittee and full Committee, thank you for the opportunity to 
appear before you today to discuss the Farmers to Families Food Box 
Program (FFFBP). I am Greg Ibach, Under Secretary for USDA's Marketing 
and Regulatory Programs mission area. With me today is Bruce Summers, 
Administrator for the Agricultural Marketing Service (AMS), the agency 
which implements the FFFBP.
    Today, I would like to provide you with background on the 
formulation and implementation of the program, the current status of 
activities, AMS' contracting and oversight of the program, and next 
steps.
Background
    As part of the Coronavirus Food Assistance Program Secretary Perdue 
announced on April 17, USDA utilized authority under the Families First 
Coronavirus Response Act to purchase and distribute agricultural 
products to those in need. Through FFFBP, AMS partners with national, 
regional and local suppliers, whose workforce has been significantly 
impacted by the closure of restaurants, hotels and other food service 
businesses, to purchase up to $3 billion in fresh produce, dairy and 
meat products. Specifically, the announced objective of the program was 
to purchase an estimated $100 million per month in fresh fruits and 
vegetables, $100 million per month in a variety of dairy products, and 
$100 million per month in meat products. The program supplies boxes 
packaged with fresh fruits and vegetables, dairy products, meat 
products and a combination box of fresh produce, dairy or meat 
products. Suppliers package these products into family-sized boxes, 
then transport them to food banks, community and faith-based 
organizations, and other nonprofits serving Americans in need.
    In just a few short weeks, USDA stood up FFFBP as a new and 
innovative multi-billion-dollar COVID response program to address three 
critical needs simultaneously: to provide markets for farmers faced 
with declining demand and the crisis of food rotting in fields and 
animals being euthanized; the food needs of newly unemployed Americans; 
and helping put suppliers and distributors back to work. I would like 
to stress two important points: all commodities purchased, packaged, 
and delivered are of 100 percent domestic origin and no vendor is paid 
until proof of delivery and compliance with the contract is confirmed.
Current Status
    The first round of purchases, for which $1.2 billion was allocated, 
occurred from May 15 through June 30, 2020. USDA received approximately 
550 bids and awarded 198 contracts just 1 week after the bids were due. 
During this first round, 35.5 million food boxes were delivered to over 
10,000 nonprofit organizations across the United States including Guam, 
and Puerto Rico. These boxes provided hundreds of millions of meals to 
needy Americans.
    On July 1, 2020, USDA announced the approval up to $1.27 billion in 
189 extended contracts and up to $218 million in 17 new contracts to 
support American producers and communities. In this second round of 
purchases, the program will purchase $523 million in fresh fruits and 
vegetables, $288 million in a variety of dairy products, $233 million 
in meat products and $444 million in a combination box of fresh 
produce, dairy or meat products.
    As a part of the original request for proposal, USDA provided an 
option for vendors to offer delivery of boxes from July 1-Aug[.] 30. 
USDA exercised this option for the next performance period, however, 
vendor performance was critical to receiving a contract extension. 
Evaluation criteria for contract extensions included successful 
delivery of promised boxes, product quality, and safety, among other 
factors. Additionally, some contracts were not extended at the vendors' 
request or reduced based on information provided by the contractor.
    USDA approved up to $218 million in new contracts, via a new 
acquisition activity, with select vendors whose offers were not 
previously accepted due to various issues in their proposals. These 
distributors will help direct food to under-served areas and will have 
an increased focus on Opportunity Zones in order to direct food to 
reach under-served areas, places where either no boxes have yet been 
delivered, or where boxes are being delivered, but where there is 
additional need. A full, updated, list of current suppliers is 
available on the AMS website.
    As of July 17, 2020, 43.5 million food boxes have been invoiced.
    In addition, a survey was conducted during the week of June 22-26, 
2020, of contractors participating in the program focused on the impact 
of their ability to retain, recall, or hire employees and on the extent 
FFFB[P] helped to offset losses caused by COVID-19 mitigation efforts. 
Approximately 70 percent of the contractors provided feedback on a 
series of questions.
    Responders were asked to rate the impact of the program on their 
company using a scale of 1 to 10 with 1 having no impact and 10 having 
the greatest impact. All 135 responders provided feedback with just 
over half (55 percent) giving the program the maximum rating of 10. 
Fully 85 percent rated the program as 8 or higher with 13 percent 
scoring it between 5 and 7 and just over one percent rating the program 
less than 3.
    Another question sought to gauge the effect of FFFBP on the 
contractor's ability to avoid furloughs, layoffs, or other such 
actions. Of the 100 responses received, 72 percent indicated that FFFBP 
did have a positive effect on their ability to retain staff. 
Respondents collectively identified that they either retained or 
created over 5,000 jobs.
    When asked if their participation in FFFBP helped them to offset 
losses caused by COVID-19 mitigation efforts, of the 135 who responded, 
95 percent said that it did. Of those surveyed, 96 percent indicated 
that participation in FFFBP helped them to form new relationships with 
nonprofit, community organizations, or religious organizations with the 
same percentage indicating that they intend to maintain these new 
relationships.
Contracting and Oversight
    Utilizing contracting flexibilities provided by Federal Acquisition 
Regulation (FAR) Part 18 during an emergency declaration, USDA designed 
a process to rapidly vet and approve contractors to participate in the 
program. The vetting process relied on answers to a Request for 
Proposals. Offerors described the capabilities they had for achieving 
performance under the contract.
    Like other Federal contracts administered by USDA, FFFBP and its 
awardees must adhere to FAR and other regulations. All proposals were 
carefully reviewed by a team of approximately 18 contracting and 
technical experts, and contracts were made accordingly. Proposals for 
the FFFBP were evaluated by (in descending order of importance) the 
technical information; past performance of the offeror; the offeror's 
capability to perform; and the prices offered. The requirement of the 
RFP was to submit a price per box to the government, which was all 
inclusive, including product, boxes, assembly of the boxes, and 
transportation to the distribution site. Prices were evaluated in 
accordance with contracting regulations to ensure fair and reasonable 
pricing. Prices per box varies based on size and contents, but the 
average value is approximately $30 per box. Offerors must have met all 
criteria in order to be competitive and must have, or be able to 
acquire, a Perishable Agricultural Commodities Act (PACA) license to 
comply with the contractual requirement. All current contractors have 
valid PACA licenses.
    As part of the proposal, applicants described their capabilities 
for achieving performance under the contract. Demonstrations of this 
capability included, but were not limited to, commercial experience; 
business ethics and integrity standards; food safety and/or regulatory 
audits, inspections, certifications and approvals; and a demonstration 
of financial capability to perform. Each vendor awarded a contract 
provided three past performance references for similar contract/orders 
completed within the past 3 years (or contracts and orders which were 
currently being completed). The amounts and locations awarded were 
based on the offers received and the evaluation of those offers.
    Regarding oversight, there are safeguards in place to protect 
taxpayers' funds and ensure that relevant laws and regulations are 
followed. USDA provides oversight throughout the contract period, 
conducting robust audits to ensure food safety plans are followed, that 
only domestic produce is provided, and that quality products are 
delivered, among other contract administration matters. Contracts 
require suppliers to source food from producers, prepare the boxes of 
items identified in their proposal, and deliver the boxes to nonprofit 
organizations on a mutually agreeable, recurring schedule, while 
adhering to the high USDA food safety protocols. Payment is only made 
upon the submission of an invoice documenting evidence of delivery and 
adherence to the contractual requirements.
    In addition, the Contracting Officer is responsible for monitoring 
the performance of all contractors. If there are concerns, contractual 
remedies may be used, which could include termination. USDA has chosen 
to exercise this right in two situations. As with any new program, 
evaluations are ongoing to assist USDA in determining whether any 
adjustments are needed.
Next Steps
    The program was designed to put American farmers and distributors 
of all sizes back to work while supporting over-burdened food banks; 
community and faith-based organizations; and other nonprofits serving 
Americans in need. USDA continues to prioritize working with impacted 
businesses of all sizes and across all regions of the United States, to 
ensure maximum positive impact of the program during the COVID-19 
pandemic.
    USDA also understands that challenges and lessons learned have been 
identified throughout the current program.
    Some of these challenges and lessons learned include:

  <bullet> Last mile distribution and the costs associated with that 
        distribution;

  <bullet> Nonprofit access to all types of food boxes; and

  <bullet> Variation in box size and contents.

    While I cannot provide specific details on how each of these 
challenges will be addressed because this is a Federal contract 
activity, later this week, USDA will announce an opportunity for new 
and current vendors to submit proposals to utilize approximately $500-
$700 million that will be remaining when current contracts expire on 
August 31.
Conclusion
    In the early days of the pandemic in March and April, USDA 
recognized the impacts to farmers, families, and sectors of the 
agricultural supply chain and responded by establishing this new 
program in a relatively short period of time. Tens of millions of boxes 
have been delivered resulting in hundreds of millions of meals being 
provided for needy Americans. As Secretary Perdue has stated on 
multiple occasions, the program is a ``win-win-win.'' While the 
feedback received by the Department has been overwhelmingly positive, 
we are constantly evaluating program operations and inviting input in 
order to ensure the program continues to have as positive an impact as 
possible. Again, thank you for the opportunity to be here today and I 
am happy to answer any questions you may have.

    Mr. Peterson [presiding.] I thank the Under Secretary for 
his testimony, the Chair went up to vote, and so I will just 
take care of this until she gets back.
    So the question I have regards--one of the questions 
regards what I talked about earlier, and that is the self-
certification issue. Is there nobody from the IG, or from the 
GAO, or anybody to check any of that stuff? It is all just 
hearing or taking peoples' word for it?
    Mr. Ibach. The Farmers to Families Food Box Program was 
authorized by Congress under the Families First Coronavirus 
Response Act, which I believe was the second Act that was 
passed to address the coronavirus.
    Mr. Peterson. CARES Act, yes.
    Mr. Ibach. Under that, Congress authorized USDA to access 
such funds as necessary to address the newly unemployed. It 
does not necessarily fall under the same rules and regulations 
that FNS's programs does.
    And so it was designed not to need to be means-tested, and 
so there is a difference there between the Farmers to Families 
Box Program and the other----
    Mr. Peterson. If we weren't in this situation, there might 
be some kind of auditing going on if we were in a normal kind 
of situation?
    Mr. Ibach. At the time that the program was designed, we 
were hearing from food banks that they were under such need 
that they didn't have time to go through income verification, 
or means-testing, and so it was intentionally designed----
    Mr. Peterson. Yes.
    Our discussion we had earlier here about the--how you 
acquire the dairy, and produce, and so forth, this is all done 
on competitive bids?
    Mr. Ibach. Again, the Section 32 purchases, and all the 
purchases we make under the other FNS feeding programs are done 
under competitive bid. The Farmers to Families Food Box 
Program, because we needed to address getting food out faster, 
competitive bid wasn't part of the consideration. It was some 
of the other factors are they able to prove that they have 
experience doing this? Are they financially able to do this? 
Price competitive was not our number one consideration.
    Mr. Peterson. But you must be doing some oversight over 
that? You are not just letting it be wide open?
    Mr. Ibach. We are doing oversight. We do know the average 
price of each category of boxes. We can compare that to the 
marketplace. But there is a difference, and we wanted also to 
be able to free our contractors to be able to purchase from 
farmers in the region where they were going to be distributing 
the boxes to make sure the fresh fruits and produce in that 
region that were being wasted were able to be incorporated into 
the Food Box Program.
    Mr. Peterson. Under normal circumstances, though, there 
would be some kind of auditing of that process, the competitive 
bidding and so forth?
    Mr. Ibach. Yes. And as we move forward with the second 
phase that I suggested in the testimony that we would be 
announcing later this week, a new competitive process, we are 
going to elevate the value consideration in our evaluation of 
those proposals that are forwarded to USDA.
    Mr. Peterson. The gentleman from South Dakota?
    Mr. Johnson. Thank you very much, Mr. Chairman, I 
appreciate it. Thanks, Mr. Ibach. I want to start by just 
highlighting some of the positive feedback that I have heard in 
South Dakota about this program. Of course, no program is 
perfect, but Ms. Katherine Anderson of Aberdeen sent the 
following note of thanks, and I will make sure that this gets 
entered into the record of the hearing. ``To Farmers to 
Families, I am thanking you for the generous boxes I received 
in Aberdeen, South Dakota. I shared with a divorced friend who 
cares for an adult disabled son. We were both flabbergasted at 
the contents of the boxes. It was Christmas in July. Please 
forward my thank you to any producers, organizers, secretaries, 
et cetera that you can. You made a whopping difference to this 
person.'' Logistically, when I consider everything that the 
Department has done, that the distributors have done, and that 
the food banks who ultimately help to finish that last mile 
have done, It is remarkable. It is remarkable how much food has 
been sent out there, so thank you for the efforts of the 
Department.
    There has been some data I have reviewed that has shown the 
disparities, state by state, of how many dollars have actually 
hit per million people. I think that is been put together by 
your agency. What drives those differences in numbers?
    Mr. Ibach. Excuse me. One of the pillars of the program is 
that contractors had to offer to participate in the program, 
and so there were certain regions of the country where less 
people offered to become our contractors, which created--which 
we were able to analyze and identify as under-served areas in 
certain places of the United States. We have gone to direct 
contracting, and we have invested $218 million in direct 
contracting to try to address those under-served areas.
    Mr. Johnson. I know there was a phase two. A relatively 
small number of new contracts were issued as part of phase two. 
Did you have any attempts to try to balance some of those 
regional disparities?
    Mr. Ibach. That direct contracting, the $218 million, was 
used as part of phase two to go directly to those under-served 
areas. Under phase two we have also extended a vast majority of 
the original contracts because of the success those contractors 
enjoyed in supplying food boxes to families.
    Mr. Johnson. I know it was in your written testimony, which 
I reviewed, you may have said it when I ran out to the floor to 
vote, but I just want to highlight, because we have had some 
legitimate questions about accountability. In your written 
testimony, at the very least, you noted that a couple of 
contracts have been terminated, and I suspect there are tools 
in USDA's toolbox outside of termination that you are also able 
to use to try to make sure that people are holding up their end 
of the bargain, is that right?
    Mr. Ibach. There were 198 contracts awarded out of the 
nearly 600 contracts offered to USDA. We had one contractor 
that, after being selected, decided they did not want to 
participate, so that contract was terminated. We had another 
contractor whose circumstances represented in their offer did 
not hold up after they were awarded the contract, so that 
contract was terminated. We have had numerous oversight 
activities on other contracts that were identified as high-risk 
contracts, or gained media attention to assure that those 
contracts were being responsibly administered.
    Mr. Johnson. To shift a half a step in a different 
direction, sir, I mean, you have been overseeing an 
investigation for almost a year now on inefficiencies, or 
disruptions, or concerns in the cattle market. Do you have 
anything--any updates for us today?
    Mr. Ibach. I think that we are nearing conclusion of that 
process, and we look forward to being able to release a report 
from USDA in the very near future.
    Mr. Johnson. Well, maybe after that is released it will 
make sense for some subcommittee, the Agriculture Committee, to 
have another hearing, but as long as I have you in the hot 
seat, I mean, does packers and stockyards--do you all have the 
resources that would be needed to follow up from anything that 
would come from that report?
    Mr. Ibach. I think that there are going to be several 
things that come out of that report that Members of the 
Committee, as well as the industry, will want to consider and 
discuss, and there may be actions that the Committee and the 
industry may want to consider as a result of that report.
    Mr. Johnson. Okay. Well, with the little time I have left, 
I am sure it is a bill you are aware of, but some of us, in a 
bipartisan way, have introduced H.R. 7425, DIRECT Act (Direct 
Interstate Retail Exemption for Certain Transactions Act). I 
think this is an opportunity to try to make sure that state 
inspected facilities have an opportunity to sell across state 
lines direct to consumer. This is, of course, not as flexible 
as some people want it, but it is laser focused. It is tailored 
to make sure we don't run afoul of food safety concerns, or of 
trade concerns with other countries. Any observations that you 
would have on the DIRECT Act? I mean, we want to try to add 
more capacity to the interstate system. Did we calibrate our 
approach right, in your opinion?
    Mr. Ibach. That authority would be within Under Secretary 
for Food Safety, or the Office for Food Safety.
    Mr. Johnson. Dr. Brashears.
    Mr. Ibach. Dr. Brashears, and so it would be more 
appropriate for her to interact with you on answers to those 
specific questions.
    Mr. Johnson. Well, and it won't surprise you at all to know 
that I have lots of conversations with her, but given your 
experience in the marketplace, I wanted to try to put you on 
the spot anyway.
    Mr. Ibach. Okay.
    Mr. Johnson. Thank you very much, ma'am. I yield back.
    The Chair [presiding.] Thank you very much. I will 
recognize myself for 5 minutes.
    Mr. Ibach, you, in your statement, indicated that you 
awarded up to $1.2 billion in the first round of contracts. How 
much money has the Department actually paid out for invoices in 
that first round?
    Mr. Ibach. I will maybe refer to Administrator Summers to 
give some of those specifics, but first of all I would like to 
just hit a couple statistics there: 77 percent of the 
contractors that we entered into agreements with delivered 90 
percent or more of the volume they----
    The Chair. Sir, I only have 5 minutes, I just want to know 
how much has been paid.
    Mr. Summers. At this point--sorry. Good afternoon. At this 
point we have delivered 35 million boxes at the value of about 
$900 million.
    The Chair. Is that what you have paid out? The $900 million 
that is my question.
    Mr. Summers. Yes, ma'am.
    The Chair. Okay. Second, how is the Department verifying 
these invoices for accuracy?
    Mr. Ibach. Go ahead.
    Mr. Summers. The invoices are accompanied with delivery 
documents showing how many boxes were delivered to which 
nonprofit organizations. The invoice comes in with an amount, 
but then has to be backed up by delivery receipts that are 
signed by the recipient organization.
    The Chair. Do you have direct contact with the nonprofit 
organization that is receiving them?
    Mr. Summers. Generally not, unless we have a question.
    The Chair. How many invoices have been rejected?
    Mr. Summers. None have been rejected outright. They will be 
paid once the appropriate documentation is supplied. At one 
point there were about 400 that we were working on. That number 
has come down significantly since then. But, again, if an 
invoice comes in, doesn't have the appropriate documentation.
    The Chair. So, every invoice that has been submitted to 
you, you have paid?
    Mr. Summers. Basically, yes.
    Mr. Ibach. I think it has been possible----
    Mr. Summers. There may be a few that are pending payment 
right now, but not very many, because round one is basically 
over.
    The Chair. Okay. Does USDA have a publicly available list 
of participating nonprofits and/or food banks by the region and 
supplier?
    Mr. Summers. We have that for the contractors, the 
distributors that we are contracting with. We don't have a 
publicly available list of all of the nonprofits that are 
working with the distributors that we contracted with.
    The Chair. We would like to see that.
    Mr. Summers. The list of the contractors?
    The Chair. Yes.
    Mr. Summers. Yes, absolutely. That is on our website.
    The Chair. Okay.
    Mr. Summers. And we could provide----
    The Chair. It is publicly available?
    Mr. Summers. Yes, ma'am.
    The Chair. Okay.
    Mr. Summers. It has been updated now, it is now updated to 
reflect the new contracts under round two as well.
    The Chair. Okay. What were the eligibility requirements for 
individuals to receive Farmers to Families food boxes?
    Mr. Ibach. I will let you keep going.
    Mr. Summers. We put out a request for proposals, based on a 
series of criteria, and, as the Under Secretary said, we 
received 600 proposals in response. We evaluated those criteria 
on a number of factors, including the ability to partner with 
nonprofit organizations to deliver food to Americans in need. 
It also looked at past business experience, financial ability 
to meet the needs of the program, as well as price. It was a 
series of criteria that we used.
    The Chair. So, how do we end up with a wedding planner?
    Mr. Summers. Every firm, including that one, provided 
information in their proposal that showed that they had been 
involved in the distribution of food, and then had the ability 
to go out, procure food, pack it in boxes, and deliver it to 
nonprofit organizations.
    The Chair. But that proved not to be accurate, didn't it?
    Mr. Summers. No, ma'am. They supplied about 500,000 boxes. 
They did not supply the entire amount of their contract. I 
think it was 60, almost 70 percent.
    The Chair. And just to your answer right before this, it is 
my understanding that on your website you have a list of the 
suppliers, but not the nonprofits you supplied to?----
    Mr. Summers. Yes, right.
    We don't have the nonprofits. We have the list of the folks 
we have----
    The Chair. I would like to see the nonprofits that were 
supplied.
    Mr. Summers. Okay. We will have to compile that. It is 
many, many thousands.
    The Chair. Okay. I yield back. Thank you. I would now 
recognize Mr. Conaway for 5 minutes.
    Mr. Conaway. Thank you, Madam Chairman. I have a letter 
here from Borden Company, which is located in Dallas, and 
services an awful lot of Texas. I would like to read a couple 
of comments. ``When COVID-19 began making its impact in the 
U.S., Borden lost approximately 30% of its business virtually 
overnight due to school and restaurant closures. The contract 
Borden was awarded through the Farmers to Families Food Box 
Program enabled us to preserve employment and benefits for our 
people. The opportunity has reinvigorated our employees to 
fulfill this important mission of providing nutrition for 
American families.'' It also states, ``More importantly, Borden 
has supplied or scheduled donations for nearly 1,000 charitable 
organizations across the country. By August 31, we anticipate 
we will have provided more than 11 million free gallons of milk 
to people in need.'' Borden, by the way, is in bankruptcy 
reorganization, but at the same time they are fulfilling this 
wonderful work. I ask unanimous consent, Madam Chair, to submit 
into the record the letter, the various social media praises, 
photos from recipient organizations.
    [The letter referred to is located on p. 76.]
    Mr. Conaway. Thank you, ma'am.
    Secretary Ibach, you said that there was a survey done of 
the contractors on the 22nd and 26th of June. Has the 
Department given any thought to surveying recipients, recipient 
entities, those that the Chair has asked to give you a list of? 
Have you got a survey of those folks to see what insights you 
might get from them?
    Mr. Ibach. As we have had the program develop, have been 
open to input from the recipient organizations, the food banks, 
as well as the nonprofits and faith-based organizations, and we 
have worked with them to help them understand what our 
contractors are required to do under their contracts, and in 
some cases that has helped smooth some of the misunderstandings 
about the delivery, and the coordination between the 
contractors and those recipients.
    Mr. Conaway. All right. Do you think a survey of the folks 
would be helpful?
    Mr. Ibach. Yes, we can continue to do that and that would 
be helpful.
    Mr. Conaway. Okay.
    Madam Chair, the clock is now running, but I will ask one 
more real quick question. Mr. Ibach, the vaccine bank recently 
announced some activity there. Would you give us a quick 
summary? I know that is off topic, but would you give a quick 
response, since I have you.
    Mr. Ibach. Yes. We announced that we invested about $27.1 
million of the sums that you had made available in the 2018 
Farm Bill. With that, we purchased 47 million doses of foot-
and-mouth vaccine. During the negotiation process, we were able 
to extend the effective date on the vaccine from 5 years to 10 
years, so we feel that we almost got a twofer in our purchase 
there.
    Mr. Conaway. That was code for the shelf life of the 
vaccine? When expired, will they sit on our shelves? You will 
rotate that stock through so that you maintain standard life 
already, but then at the end of 10 years you will have some 
program in place to use what was there?
    Mr. Ibach. Yes. We have worked with them, and have 
something that we feel very good about.
    Mr. Conaway. All right. Thank you. Madam Chair, I yield 
back.
    The Chair. Thank you very much. Mr. McGovern, you are 
recognized for 5 minutes.
    Mr. McGovern. Thank you, Madam Chair, I appreciate it. Let 
me just state at the outset that even before this COVID-19 
public health crisis we had a hunger problem in the United 
States of America. And since the onset of the crisis, that 
hunger problem has gotten a whole hell of a lot worse. In 
Massachusetts, where I represent, before the COVID-19 public 
health crisis, more than 600,000 people experienced food 
insecurity. Recent projections from Feeding America estimate 
somewhere in the excess of 940,000 people. But despite the 
Northeast region representing one of the highest numbers of 
COVID-19 cases in the country, and ten percent of the country's 
population, we received the second-lowest allocation of any 
geographic region, only $46 million, or 4.4 percent, of the 
total $1.2 billion made in the first round of USDA's 
distributions, and only $57.5 million, less than four percent 
of the total $1.5 billion awarded by USDA in the second round 
of distribution.
    Mr. Summers, on July 2 the Food Bank of Western 
Massachusetts, which I represent, wrote you a letter listing 
some of the challenges that they have experienced with the 
Farmers to Families Program. Are you familiar with the letter 
at all?
    Mr. Ibach. Yes, we are familiar with, this is Under 
Secretary Ibach, and I will take this question, if you will 
indulge me, we are familiar with some of the communication that 
we have received. We also are familiar with the fact that we 
did not have as many offers from the Northeast region of the 
United States as we had hoped that we would, and so that is 
partially why we were unable to award larger sums to the 
northeastern portion of the United States. We did invest $218 
million to try to address areas that we felt were under-served 
through direct contracting, where we reached out to suppliers 
to try to enhance the Farmers to Families Food Box Program in 
the Northeast. This isn't the only program that we run.
    Mr. McGovern. I have 5 minutes, then I get cut off. With 
respect, I think the view in my state, in New England, that we 
were not sufficiently provided with the food that, quite 
frankly, we needed. And so maybe my question should be, how 
does AMS process feedback from food banks and contractors on 
how the Farmers to Families Program is going? I mean, what has 
AMS done to facilitate communication between contractors and 
food banks to make sure that the program is working as 
intended? Because the goal here should be to make sure no one 
goes hungry.
    Now, before the pandemic a criticism of the Administration 
was that they were indifferent to the plight of people who are 
hungry in this country. I still feel that way, and here is a 
program that is supposed to provide some relief, and yet it 
didn't live up to its expectation. I will associate myself with 
the remarks of Mr. Peterson by saying we ought to be expanding 
SNAP at this particular point. Unfortunately, that has become a 
political football, with this Administration, but if you could 
answer my question, how do you process this, and how do you 
communicate with food banks, and how do you know whether or not 
areas are being shortchanged?
    Mr. Ibach. We are going to have a new announcement of 
availability of proposals that we are going to announce later 
this week that will make available an additional $500 to $700 
million. We plan to host a webinar to help contractors that 
would be making proposals understand the rules, and we hope by 
doing that we will encourage more participation in the 
Northeast part of the United States. We also hope to make food 
available to the northeastern portion of the United States 
through our trade mitigation purchases that are made available 
for food banks to order the food that they need, and that they 
anticipate they need, and we also are working as partners with 
FNS as they invest the $850 million of additional funding to 
purchase food that Congress allocated FNS through the 
coronavirus relief programs that, again, are distributed based 
on the orders that we receive from the states and the food bank 
system.
    Mr. McGovern. And you received the letter from the food 
bank, and I am sure from others in the Northeast. Do you follow 
up? Have you talked to these people? Have you tried to work 
with them to see where some of the challenges are? I mean, the 
bottom line is there is hunger in this country, food 
insecurity, is exploding. This is a humanitarian crisis, and 
again, any little crumbs that we can get from the 
Administration to try to address this, we want to make sure 
that we are utilizing it.
    And, I appreciate--do a webinar at some point, but have you 
been in touch with the Food Bank of Western Massachusetts, or 
have you contacted any of the food banks in the Northeast? 
Given the fact that I think we could all acknowledge what was 
necessary to get there, in order to make a dent into this 
problem, didn't get there. I mean, is there direct 
communication like that, or is it just tune into a webinar on a 
date-certain?
    Mr. Ibach. Definitely USDA has multiple mission areas that 
are working on hunger. FNS would work more directly with those 
food banks to assess their needs to help them understand the 
food that is available to request and purchase, as well as AMS 
would then purchase the food that is being offered and being--
offered to and ordered by those food banks. Yes, we are working 
directly with food banks, as well as state feeding programs to 
understand what their needs are.
    The Chair. Thank you. Mr. Bacon, you are recognized for 5 
minutes.
    Mr. Bacon. Thank you, Madam Chair. I want to just also note 
here that Mr. Ibach is from Nebraska, one of our favorite sons, 
so thank you for being here today. You may have mentioned this, 
but I had to go vote twice, so I apologize if you are repeating 
this. Can you just explain a little bit how the farmers are 
compensated? How do you determine the compensation for each 
box? How does that work?
    Mr. Ibach. Most of the food boxes are put together by 
distributors or contractors that had experience in distributing 
food. Obviously, that in most cases was not a farmer himself, 
but it has been encouraged, and was part of the solicitation 
that they try to source the food products locally or 
regionally, and so those distributors that are putting together 
the food boxes would reach out to the farmers themselves to 
purchase the items to put it in the box.
    Mr. Bacon. It tends to be a standard rate for whatever the 
food is?
    Mr. Ibach. Yes. They would probably go to the marketplace 
and look at what the price was, and what the farmer was asking 
for that.
    Mr. Bacon. Is there a particular favorite with the 
recipients? Is there, like, the fastest moving kind of produce, 
or what is the best ticket item?
    Mr. Ibach. I have been to Montana, I have been to 
Philadelphia, I have been to New Jersey, and I have been to 
Ohio and looked at food boxes. The Secretary has been even more 
places and looked at food boxes. There is huge variety. I 
looked at one in Cleveland yesterday that was being put 
together that had 15 different items in it. Those items vary 
each week that they put the box together, and so there is great 
variety between fruits and vegetables in most of these boxes. 
And then, as we move into the dairy products, I also saw a box 
that had fluid milk, cottage cheese, several different flavors 
of block cheese, as well as yogurt, a lot of variety.
    Mr. Bacon. One last question. Have you heard concerns, 
like, the local grocers, does this impact their business? 
Because, you have the access to the SNAP Program, so is there a 
little bit of give and take here, or what kind of feedback are 
you getting?
    Mr. Ibach. Actually, there has been some concern, 
especially in the dairy sector, as the dairy sector struggled 
at the time that we had milk being wasted, and so the way the 
program was designed, and the prices that were reflected for 
cheese and milk at that time were very low. As the distribution 
system has adjusted, and demand has remained strong at retail, 
the price of cheese has steadily increased, and so the Box 
Program actually provides an opportunity for contractors to 
come to USDA and say, ``Hey, the retail market is demanding 
this product, can we adjust our box,'' and we have a process to 
go through to allow that to happen.
    Mr. Bacon. Thank you very much. Thanks for coming in. Good 
to see one of our favorite sons here. Madam Chair, I yield 
back.
    The Chair. Thank you very much. The chair now recognizes 
Ms. Adams, for 5 minutes.
    Ms. Adams. Thank you, Madam Chair. Can you hear me?
    The Chair. Yes.
    Ms. Adams. Okay.
    The Chair. Yes, we can hear you.
    Ms. Adams. Well, okay. Thank you. Thank you, Chair Fudge, 
and Ranking Member Johnson, for holding the hearing, and, Under 
Secretary, thank you for being here.
    First let me thank you for the work on this program. Food 
banks in my district have received over 1 million pounds of 
food so far. We have a lot of struggling families there, but it 
is urgent that we help Americans facing food insecurity, and 
farmers who are hurting because of this pandemic, and that is 
what the program aims to do. I do have a few questions to 
ensure that USDA is working to incorporate feedback from folks 
on the ground.
    Now, according to USDA's website, 44 contracts have been 
issued for the Southeast region so far, totaling about $364 
million, and North Carolina vendors only received five of those 
contracts, totaling about $8 million, which is about two 
percent of the funding for our region. At the same time, nine 
contracts totaling $155 million were given to vendors 
headquartered in states well outside of our region, like 
Washington, Pennsylvania, and Colorado. My first question is, 
did the USDA contracting process include any consideration for 
sourcing from nearby vendors, keeping foods within or close to 
their home state or region?
    Mr. Ibach. Yes, the contracting process did emphasize, or 
encourage contractors to source food locally, as well as from 
small and medium-sized producers, or farmers, if you will, and 
so there was a provision for that. Thank you.
    Ms. Adams. Okay. Well, nonprofits and food banks 
participating in the program in my state, they have told me 
that they are having to pay for the storage and the delivery of 
perishable foods that they receive. Unlike TEFAP, this program, 
is providing food without covering any administrative costs, 
and so that leaves a lot of food banks high and dry, especially 
those servicing smaller areas with less existing capacity to 
store large quantities of food. To what extent is USDA able to 
assist nonprofits and food banks with these challenges, such as 
the ability to store perishable foods, and procure 
transportation to pick up the food boxes?
    Mr. Ibach. Under this program, the food banks and the 
nonprofits actually are in the driver's seat, and have the 
power to refuse delivery, and it is incumbent upon the 
contractor to work with the food bank to be able to take 
deliveries when they are able to either distribute the food 
directly, or when they have the storage ability.
    Ms. Adams. Okay. Does USDA have a mechanism in place for 
nonprofit food banks to provide complaints or feedback about 
the suppliers that they are working with?
    Mr. Ibach. We have many different points of entry for 
people to be able to supply USDA with feedback about the 
program, and we actually welcome the feedback that we would 
receive, because we want to continue to improve the program, 
and in some cases the feedback has allowed us to reach out to 
the contractor to remind them of their responsibility under the 
contract to work more directly and in a more accommodating 
fashion with the recipient of the boxes.
    Ms. Adams. All right. Well, thank you very much. Thank you, 
Madam Chair. I yield back.
    The Chair. Thank you very much. Mr. Hagedorn, you are now 
recognized for 5 minutes.
    Mr. Hagedorn. Thank you, Madam Chair, I appreciate that. It 
is great to see the witnesses, Mr. Secretary. Since you are 
here, I want to reiterate what you know, that our farmers, 
particularly in southern Minnesota, I can attest to them going 
through tough times since they closed down the restaurants, and 
the futures markets went through the tank, and the packing 
plants were disrupted, so I appreciate what you, and the 
Department, and Secretary, everybody is doing to help them, but 
we need to do more, and we are all committed to that, so keep 
working with you on that.
    We have a regional food bank, Channel One, in our district 
that is distributed about $370,000 worth of food to people. 
This program is working for folks, and I can also testify on 
some of the senior nutrition programs that they are working--I 
was just in Austin less than a couple weeks ago helping to 
distribute meals at lunch, and they are getting out 500 or more 
meals just in Austin, Minnesota every day, so it is making a 
big difference, and we appreciate it.
    One of the folks that has been involved in this is 
Northview Church, which distributes meals into Minnesota, in 
Chairman Peterson's district, but they write--one result of 
these events has been the founding of Reach of the Heart, a 
service-minded entity through which we recently distributed 
75,000 pounds of food to those of need of our community, all 
because of the food provided by Farmers to Families. These 
events, conducted in June, went a long way toward promoting 
community unity at a time when civil unrest was stirring in our 
area. I was pleased that we were able to distribute food to 
diverse groups, including those who came to the United States 
from Nepal, Haiti, Sudan, Ivory Coast, and Bosnia, just to name 
a few.
    There are some great stories out there of what is being 
done. I would like, Madam Chair, to submit this letter for the 
record, if that is okay? I ask unanimous consent to do that.
    [The letter referred to is located on p. 106.] *
---------------------------------------------------------------------------
    * Editor's note: the letter referred to is part of the Attachment 
to the letter submitted by Mr. Conaway.
---------------------------------------------------------------------------
    The Chair. Without objection.
    Mr. Hagedorn. And there is one specific case, Mr. 
Secretary, that has come before me that I would like an 
explanation, and it has to do with a vendor in San Antonio. Can 
you walk me through that a little bit, and tell me how that one 
was handled? And maybe some of the facts that are out there 
aren't exactly accurate.
    Mr. Ibach. I would assume that you are referencing the 
contractor that the Chair has referenced several times as well, 
and so, with that assumption, I won't necessarily say the name, 
but, yes, we became aware of the concern that surfaced among 
Congress, among the media about that contractor. We spent time 
with that contractor to make sure that we re-verified that they 
were capable of trying to fulfill their contract. We visited 
their facilities, and talked to the management of that group, 
and, as a result of that, they had the opportunity to deliver 
up to 750,000 boxes. They did deliver 500,000 boxes. They were 
only paid for the amount of boxes that they actually delivered, 
and so the fact that they maybe came up a little bit short on 
their numbers, they were not awarded--rewarded financially for 
not delivering those boxes.
    Mr. Hagedorn. I appreciate the clarification on that. And 
this is like a lot of different programs that have been 
authorized and appropriated here recently. Obviously we had a 
crisis situation, we put things together, rules are written 
very quickly. We are trying to get, whether it is money or 
food, out the door and help the American people, and it is good 
to know that you are going to provide the type of oversight 
that we need on this to make this right as we move forward. 
Thank you, I appreciate your testimony, and I yield back.
    The Chair. Thank you. The chair now recognizes Ms. Schrier. 
You are recognized for 5 minutes.
    Ms. Schrier. Thank you. And, Under Secretary Ibach, thank 
you so much for having a conversation with me back in April 
about specialty crops. I very much appreciated that, and I 
appreciate your being here today with us. I also want to say 
that, in my state, farmers and food banks very much appreciate 
this program. That said, it is very hard to do a program this 
big from 30,000 feet, and that is really where my questions are 
going today.
    I recently spoke to a medium-sized co-op who has a contract 
in my state, and he indicated that the USDA is by far his 
largest customer, and that the Farmers to Families Food Box 
Program is keeping the bills paid for dozens of their grower 
members, and that is fantastic. The issue he wanted to raise 
was the issue of pricing. The price of a box depends on what is 
in it, and the transportation, and the storage, which 
incentivizes, essentially, if you have a distributor in 
Seattle, they can price much more competitively if they only 
deliver within 50 miles of Seattle, which really leaves our 
rural communities disadvantaged once again. And so I was 
wondering, in order to serve our rural communities, and still 
take into account pricing for these distributors, whether the 
USDA will give any consideration to changing that policy, or at 
least to look at distance traveled in evaluating that.
    Mr. Ibach. Definitely, for phase one, pricing wasn't our 
number one consideration because we realized that there were 
going to be, in rural areas especially, more costs associated 
with that distribution. Storage and distribution is something 
that the contractor is able to build into their box price, and 
when I was in Cleveland yesterday, one of the participants, 
Wiers Farms, actually gave $1 per box to the food bank itself, 
or their co-operator that was to aid in the distribution, and 
that was an eligible expense to be bid into the process. 
Definitely delivery and storage, and that is why we didn't want 
to necessarily have them compete against each other just based 
on price, because that would have made it more difficult for 
those rural areas to be served, and so we want to continue to 
try to make sure we are getting value, but not eliminate 
people, because the overhead costs do vary.
    Ms. Schrier. But here is another quick question about 
overhead is that a lot of the small to medium farmers don't 
have the GAP (Good Agricultural Practices) certification, and 
they would love to participate. I mean, if the idea is to keep 
food local, and support our small farmers, would you give 
consideration to not having to have that GAP certification?
    Mr. Ibach. One of our major concerns was maintaining food 
safety throughout this process. The worst thing that could 
happen is that we have a food safety slip through this, and 
make people ill as a result of our distribution program, so we 
tried to enforce the same food safety standards that we had in 
place for our other feeding programs to keep that consistency, 
and also make sure we kept that standard available. I think we 
would want to continue to elevate food safety as we move 
through this.
    Ms. Schrier. That makes sense. If I could ask one more 
thing, that is one of the reasons, actually, that I introduced 
a bill called H.R. 6725, the Farmers Feeding Families 
Coronavirus Response Act, which really gets the state in there, 
so you could have the non-GAP (Good Agricultural Practices) 
certified farmers, the small, medium, farmers' market type 
farmers involved, and you could bring this down to the state 
level, where they really are used to dealing with small 
farmers, small food banks. If the program is really about 
helping food stay local, working with local and small growers 
and regional distributors, can we give more of this 
responsibility and ownership to the states? Because I know 
Washington State's Department of Agriculture could be a very 
nimble aid in distributing these boxes.
    Mr. Ibach. And I worked at the beginning of the program 
with Director Sandison, and we had some conversations about how 
he might be able to reach out to some of the people that were 
awarded contracts to be able to help them understand who in 
their vicinity might be able to supply him, to try to connect 
those small and medium sized farmers, or the farmers' market 
vendors to those programs, and continue to want to do that. 
There are various programs that USDA has that we are trying to 
implement and use to cover the whole need that is out there, 
because the need for food is great.
    Ms. Schrier. Thank you. I would love to help our small 
farmers. Thank you very much. Yield back.
    Mrs. Hayes [presiding.] Okay. I now recognize Mr. Davis for 
5 minutes. Thank you. I guess I recognize myself for 5 minutes.
    Thank you, Mr. Ibach, for being here today. I come from the 
State of Connecticut, and we have been one of the states that 
was hit hard by COVID-19 in the very early stages. We have seen 
over 400,000 cases of the virus, and over 4,000 deaths in my 
state. In addition to threatening the health of our residents, 
COVID-19 has decimated our economy, and further destabilized 
Americans' steady access to nutritious meals.
    Early in the pandemic I heard from farmers in my district 
that they were having to dump milk and discard other products 
due to business interruption with restaurants and school 
districts. At the same time, I was hearing from food banks that 
lines were stretching around buildings, while donations were 
dwindling. The Farmers to Families Food Box Program was billed 
as a solution to this pressing issue, a way for farmers 
experiencing those difficulties to partner with food banks, and 
ensure families were fed. In my district, it is home to many 
small farmers, rather than the large industrial farm operations 
that we often hear about. Although our farms have great 
relationships with local food banks, they were completely left 
out of this program for a variety of foreseeable reasons. 
First, not only did the Department's application process have a 
very short turnaround time for interested contractors, but they 
conducted a regional open competition process in order to 
select those contractors once they applied. Mr. Ibach, why did 
the Department decide to have a completely open regional 
competition process, rather than one with set-asides for small 
farmers, minority farmers, or new and beginning farmers who 
were disproportionately suffering due to the economic crisis of 
COVID-19?
    Mr. Ibach. Implementing the program in a speedy fashion was 
one of our major considerations because of the crisis that we 
were hearing from the fruit and vegetable industry about the 
waste of food occurring there, as well as the waste of milk and 
dairy products that was occurring. And so, while we conducted 
webinars, the opportunities to try to inform people about the 
parameters of becoming involved with the program, it did 
proceed very quickly, and we know that there were people that 
weren't able to react fast enough to be able to embrace the 
program. And we are going to open again another bid process at 
the end of this week, and we are going to--we are committed to 
trying to provide informational sessions to be able to help 
more people be able to bid competitively.
    Mrs. Hayes. Okay, good. Is there any opportunity for either 
set-asides or consideration for small farmers, especially in 
the Northeast regions like I am talking about? Because an open 
competition process is just disproportionate, when you think 
about it, as a regional effort.
    Mr. Ibach. Within the bidding, and selection, and 
evaluation process there was priority given to those 
contractors that talked about sourcing local and embracing the 
agriculture that was near their vicinity. While that wasn't a 
set-aside, we believe it somewhat influenced that ability for 
those smaller farmers. But, no, we weren't able to provide a 
set-aside during that first bid process.
    Mrs. Hayes. Considering that only about four percent of 
small farms received access to the program, have you considered 
doing anything differently with your application process, or 
even the way, initially you said the turnout was low, but now 
that you have seen the problems, I understand we tried to 
implement a lot of things very quickly, but now that we have 
identified the problems, in the next rollout, have you 
specifically addressed any of the challenges that are faced by 
farmers in my community, or small farmers across the United 
States?
    Mr. Ibach. We have tried to adjust the program and the 
contracting process to be able to meet some of the problems 
that we identified. We still will not be able to go so far as 
to be able to implement a set-aside in the time that we have 
available to get food to people.
    Mrs. Hayes. And I guess just the last thing, I would say we 
have heard a lot of conversation about it today, but I 
recognize the efforts of the Department to solve a problem that 
was happening in real time, but you have to understand the 
concern that we are experiencing when we see that a wedding 
planner received funds, or access to the program when local 
farmers, with established relationships to food banks, were 
left out of consideration. I just hope that in the next phase, 
or even moving forward, that, now that we have seen it, and we 
have experienced it, that we can work hard to mitigate the 
problem and ensure it doesn't happen again.
    Mr. Ibach. Yes, and we appreciate that, and we will do 
that, but also part of the program was to be able to make 
access available to the most amount of people to enter into the 
program because we knew that the need was great for people to 
participate to be able to distribute as much food as possible.
    Mrs. Hayes. Thank you. I yield back. I now recognize Mr. 
Davis.
    Mr. Davis. Thank you, Madam Chair, and I appreciate the 
opportunity to be here. Sorry I wasn't ready right off the bat, 
but here I am. Let me pull my notes out, and I want to tell 
you, though, Mr. Secretary, it has been great to talk to you 
via conference call during this pandemic, talk about what the 
Farmers to Families Food Box Program has done. I was very proud 
to see, when the first boxes arrived at the Taylorville Food 
Pantry in my hometown of Taylorville, that we immediately put 
it out on social media. And I can tell you personally, and you 
have heard me say this to you via phone call, that the line at 
the Taylorville Food Pantry in my hometown of 11,000 people has 
grown exponentially throughout this pandemic. I can't go into 
town from where I live without driving by and seeing that line 
on the days that they are distributing, so we appreciate the 
investment, and we appreciate the opportunity to talk about it 
here.
    Also in my district, Vermilion Valley, a central Illinois 
produce company, was awarded a contract that has since been 
extended. It has provided approximately 350,000 boxes to tens 
of thousands of families filled with locally grown produce and 
dairy from nearby producers like Ropp Jersey Cheese in 
Bloomington, Illinois, and also Prairie Farms in my district. 
John Rollins, their President and CEO, wrote a letter to the 
Chair and the Ranking Member of this Committee, outlining the 
many successes of the program, and I would like to ask 
unanimous consent to submit this letter in its entirety for the 
record.
    Mrs. Hayes. So ordered.
    [The letter referred to is located on p. 75.]
    Mr. Davis. Thank you. These contracts have allowed 
Vermilion Valley to hire back workers who were laid off due to 
the lack of business, and to state-mandated closures. It also 
allowed many of our local nonprofits to continue their outreach 
in our local communities too. Separately I recently introduced 
a bill called the, H.R. 6968, Meals on Wheels For Kids Act of 
2020, which, like Farmers to Families, would innovate the way 
we carry out existing programs by creating more partnerships 
between existing community organizations to deliver healthy 
meals to kids during the summer months, especially in rural 
areas, who live miles away from the congregate sites that you 
have helped to establish. With that in mind, I think these are 
some innovative solutions that we need.
    And, Under Secretary Ibach, a quick question, what are your 
plans to continue the program? And I know everybody has 
probably asked what type of funding measures that we can put 
forth, but how does this program, going into the future, past 
this pandemic, how does it coincide with our congregate 
programs, and how can we provide the long-term sustainable 
funding to continue to get box foods like this, and really 
integrate it with our senior Meals on Wheels Programs so that 
we have the volunteers, and we have the outreach already 
getting into some of our most under-served, inaccessible areas? 
There is no more time that we have seen the importance of 
feeding hungry kids. Let us make sure we develop the plans to 
do it after the pandemic too.
    Mr. Ibach. The funding to pay for the Farmers to Families 
Food Box Program came as a result of the Families First 
Coronavirus Response Act that was the second coronavirus relief 
program that Congress passed. In that, Congress provided USDA 
funds as necessary to implement programs to feed Americans that 
were in need. We feel, and Congress, you would feel the same 
way, that that money expires with the fiscal year, and so the 
$3 billion that we have invested, or committed, or asked for so 
far, $1.3 million of which, about $900,000 was actually 
requested in payment. We had about the same amount of money 
that is in the second phase that has been authorized, and we 
plan on trying to take bids to fulfill or invest the rest of 
the money that would have food boxes going out through the 
month of October. After that, we wouldn't have funding 
available without authorization from Congress.
    Mr. Davis. As--okay. Well, I understand that. On an annual 
basis you are going to get an appropriations, but how can we 
work together to make the feeding programs in the post-pandemic 
work even better, especially in the rural areas, where we know 
so many kids are still left behind because they don't have that 
congregate opportunity? Let us continue to work together to 
come up with some solutions, because it is not about just 
feeding kids who can come to the congregate centers, which do a 
great job in my larger communities, but I know there are a lot 
of communities that don't have gas stations, they don't have 
grocery stores, they don't have food in their fridge when those 
kids are home for the summer. So let us work together and 
integrate some existing programs. And with that, Madam Chair, I 
yield back.
    The Chair [presiding.] Thank you. The chair now recognizes 
Mr. Panetta, for 5 minutes.
    Mr. Panetta. Thank you, Madam Chair, I appreciate this 
opportunity to be here to have this hearing. Gentlemen, thanks 
for being here. I appreciate it as well. Thank you for dealing 
with the ups and downs of this pandemic, be it this hearing, be 
it the administration of the CFAP, so I appreciate that.
    Secretary Ibach, it was good to talk to you about a month 
ago where we were able to talk about the CFAP, and the USDA's 
release of the CFAP, so I appreciate that opportunity. I am 
also glad that both of you are here today so that we can, 
obviously, learn more about how the USDA has administered the 
purchase component of the CFAP. And that being, obviously, the 
Farmers to Families Food Box Program. Given the obvious 
unfortunate realities of this pandemic, that box was--obviously 
heartened many people, and we had high hopes for it. However, 
from my conversations, as you are hearing today, and as I am 
sure you have heard over and over, there are some significant 
issues that clearly need to be addressed, and that is why I 
appreciate having this opportunity to talk to you today. But 
obviously, as my good friend Mr. Davis just said, we want to be 
able to work with you on it to make it better, because we do 
know that there is a lot of potential there for it to be 
better, and for it to help so many people of all backgrounds.
    Now, the issue that I have heard over and over is based on 
the fact that this program is centered around distributors, and 
this has led to some serious issues, logistical issues, as well 
as some issues of equity as well. And by asking distributors to 
reach out to food banks and other nonprofits, it seems that 
there were certain vulnerable communities, our most vulnerable, 
that weren't getting the necessary distribution of these types 
of benefits. In some cases we felt like we were working 
against, rather than with, existing local relationships, and 
that led to a failing to address critical last mile issues to 
ensure that the food actually got from the farmer to the 
family. But, like I said, I do appreciate all the work that you 
have put into this program, and I do want to work to help to 
share some stories from my communities, and ultimately make 
this program better and stronger. We all do, and that is 
definitely one of the main purposes of this hearing.
    Under Secretary Ibach, can you speak to how USDA worked to 
ensure equitable access to this program? Not just across 
regions, but within certain communities?
    Mr. Ibach. I think that is an area that, in the speed that 
we tried to roll out the program, putting emphasis on the 
things we did, the capability of actually the contractor to 
pack a food box, acquire food, pay for food, and do that, and 
expected them to identify those people to distribute through or 
to work with through the distribution that some contractors did 
a great job of trying to blanket the areas. Others picked the 
easy fruit, and that is an area that we could work together 
with the contractors, as we identify people that want to 
participate, to try to point them in the future, and do better 
there.
    Mr. Panetta. Was there any sort of focus on under-served 
areas, and how you would actually distribute to those 
particular areas?
    Mr. Ibach. Probably not specifically the way you are 
asking. Once we did see the contracts that were awarded, and 
evaluated where they planned to distribute, we were able to 
identify regions of the country, or states, or parts of states 
that were under-served, and so we took steps. We allocated just 
recently 16 different contracts representing $218 million that 
we directly went out and made direct contracting with, not 
through an offer system, to say, please serve those areas.
    Mr. Panetta. I got you. The program is not formula-based, 
correct?
    Mr. Ibach. No.
    Mr. Panetta. Okay. Now, is it possible, and you may not 
have this now, but could you provide a breakdown of the funding 
that went to each food bank or nonprofit within each region?
    Mr. Ibach. We would be able to provide a breakdown, very 
easily, of which contractors participated in the program. We 
would have to go to the contracts themselves to extract the 
specific food bank or nonprofit that received those, if they 
were enumerated in the contract. They could have just been 
enumerated as eligible recipients, but we could do polling to 
figure out who all received food.
    Mr. Panetta. Understood, understood. Now, one thing I have 
realized in going out and visiting each of my food banks 
basically every week and helping with the food distribution is 
not all food banks, even in my district, are the same. Some 
have, like, Monterey County has a food bank cold storage of 
30,000 capacity, whereas San Benito County doesn't have one 
nearly close to that big. Did you guys take that into account 
in working with distributors, and how they would bring certain 
types of food to certain food banks?
    Mr. Ibach. One of the things that we have identified as 
something that we need to continue to work on is communicating 
to the food banks, or to the recipients of the boxes, that they 
actually have the power within this equation to tell the person 
that is contracting with us to put together the food box what 
they want, when they want it, and how they will take it. They 
do not have to provide the cold storage, or the last mile 
distribution if they don't want to, but it would affect the 
ability of the contractor to put together the number of boxes 
they offered us, and they are only paid based on the boxes that 
they actually deliver successfully.
    Mr. Panetta. Understood. I am out of time.
    The Chair. Thank you.
    Mr. Panetta. Gentlemen, thank you. I yield back.
    The Chair. Mr. Thompson is not with us. Mr. Scott, you are 
recognized for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Madam Chair. 
Gentlemen, thank you for being here today, and I want to tell 
you, more has gone right than wrong with the food distribution 
in the last several months. Nobody could have prepared for 
this, unless they had already been through it before, and we 
haven't been through this before. I want to give a lot of 
credit to a couple of people. Chef V in Tift County Schools, 
Ms. Vanessa Hayes, she did a wonderful job of keeping people 
fed. We have also got a great mission there called Peanut 
Butter and Jesus. Tony McBrayer would be embarrassed that I 
mentioned his name with that, but I will tell you, in Tift 
County, and the key to feeding especially the kids was the 
coordination among the school systems and the other not-for-
profits that were out there working. And so, if you had a 
community that was a close--that was close, within walking 
distance to school in Tift County, those who had vehicles and 
were carrying--would carry the food into the other communities, 
and that is something that I am very proud of my hometown and 
my local community, for how they worked together with the 
school system and the other not-for-profits to carry out the 
mission.
    I am also proud of Second Harvest. I know that something 
was said about the accuracy of the food box distribution. And, 
obviously, this is a pretty big food bank, and when they pack 
those boxes, they are packed with canned fruits, canned 
vegetables, rice, other things. All that we would buy and feed 
our family, but not necessarily, but it wasn't fresh, it was 
all packaged. One of the things that they asked for, and were 
given, that helped expedite the food delivery was the simple 
waiver of the signature when they hand somebody a box, that you 
don't have to sign saying that you are eligible. And I can tell 
you, as many people as we had in my part of the world that were 
needing those boxes, where literally we had the Georgia 
National Guard out handing out the boxes, the ability to hand 
the family the box, and then to let them drive on off in their 
vehicle, it helped expedite the process. Whatever the error 
rate may be is much offset by how fast it allowed us to get 
people the food. And I can tell you the majority of the people 
in those lines that were long enough would not have waited had 
they not needed the food, whether they were technically 
eligible for it or not, so I appreciate that.
    The difference I see in the farmers' market boxes, that is 
exactly what anybody with unlimited resources, if they went 
into the fanciest grocery store in America, would buy and take 
home to feed their family. And so I looked at those boxes, went 
to Atlanta with Secretary Perdue, I was very proud of what was 
happening there too. At the same time, it breaks my heart to 
know that dairy farmers that I know were dumping thousands of 
gallons of milk. Vegetable farmers literally couldn't get paid 
enough for the labor to harvest the crops. And what we have to 
do is recognize we have had a tremendous supply chain breakdown 
in this country, and we need to make sure that we learn from 
that.
    And I want to say one final thing. The American farmer gets 
about 10 on the dollar of what we spend on our groceries. When 
you look at the price of the current commodities that are 
sitting out there today, I think that we have the potential of 
widespread bankruptcies among the American farmers over the 
next several months if something is not done in the next 
coronavirus package. Corn is $3 a bushel. I mean, 5 years ago 
it was $6. If you look at the price of cotton, if you look at 
every single commodity group out there, everything we eat 
starts with the farmer. And of what has been done in the $4 
trillion that has been either done by the Fed, or done by us in 
Congress, the American farmer, of that $4 trillion, it was 
somewhere around $20 billion total. Now, you do that math, and 
that comes out to about \1/2\ of 1 percent, if I am not 
mistaken. And so I am very concerned that, as we go forward 
through the end of the year, if there is not a bounce back in 
commodity prices, and we haven't done something as Congress, 
that we are going to go into the 2021 year with a lot fewer 
farmers, and a lot fewer people planting those crops that we 
depend on, regardless of what your income level is.
    With that, Madam Chair, I appreciate what you have done, I 
appreciate this Committee and the work on feeding people, and 
as I look forward, I hope that we learn from the challenges 
that we have been through.
    Mr. Ibach. Thank you, sir.
    The Chair. Thank you. Mr. Costa, you are recognized for 5 
minutes.
    Mr. Costa. Thank you very much, Madam Chair, for this 
important Subcommittee hearing, and to be sitting in on--just 
to take off on our last colleague's comments, in H.R. 6800, 
HEROES Act (Health and Economic Recovery Omnibus Emergency 
Solutions Act) we do have an additional $16\1/2\ billion to 
provide support, which would put us, the way I add numbers up, 
from what we have done thus far, about $40 billion in total, 
although I have told the Secretary of Agriculture, Mr. Perdue, 
that somewhere in the neighborhood of 60+ as we try to do a 
safety net over the next year, because this is going to last 
for the next year. Anybody who thinks otherwise is fooling 
themselves. Included in that is funding for farmworkers for 
safety, and those workers, essential workers all of them, in 
our food processing facilities, whether they be our meat, 
poultry, or whether they be in packing houses, or other 
processing facilities. Without the workers, we can't provide 
food on America's dinner table, and we must be mindful of that. 
The workers are essential, and we know the parlance.
    But, I want to talk about the issue of the regional 
disparities with the Food Box Program. We think in the West 
there has been not as much access to meat and dairy. Half the 
West's allocation was in fresh produce. Of course, we grow half 
the nation's fresh produce, so that is to be understood, but we 
are also, in California, the number one dairy state, with 20 
percent of the dairy production. I have been, anecdotally, 
hearing some people say on the Food Box Program that, while we 
produce a great deal of milk products, that they are selling 
milk there that is produced in Oregon. And I like Oregonians, 
but we have had our own supply problems.
    The contractor contact information publicly available to 
producers to get in touch and work collaborative with getting 
the products included in the box has been lacking, even though 
the program was advertised to help producers in the first 
place. What, under the lessons learned, can you see that we can 
do that? And, if there is a second allocation of CFAP 2.0, will 
that be included in the Food Box Program?
    Mr. Ibach. First of all, to maybe address your question 
about dairy, that is probably, if we looked at the categories 
of boxes, that would be the category of boxes that are least 
fulfilled, based on what we had allocated to those contractors.
    Mr. Costa. Are we looking to address that in the second 
round?
    Mr. Ibach. Part of that, though, isn't necessarily that 
they failed to execute their contracts. Part of it is the 
marketplace changed, the price of milk and cheese changed, and 
the retail industry pulled those products out of where they 
were accessible to our contractors, and demanded them in the 
retail space. And so we need to figure out how we provide the 
necessary dairy products, but also not disrupt the regular 
marketplace. And so we are working on that, and we continue to 
want to do that.
    Mr. Costa. And we have experiences where we have large 
experienced packers and shippers that have tried to apply, but 
we have only had one mid-sized shipper that got a contract in 
our area. Are you trying to provide greater opportunities for 
that to happen?
    Mr. Ibach. I think that is partly providing more time for 
people to apply, and their--and to put together their 
proposals. Also we plan to do at least two webinars, I believe, 
in the upcoming bid process to help people understand the 
program. I think some of the----
    Mr. Costa. My time is going.
    How about under the Good Agricultural Practices, that 
certification progress? Many feel--burdensome for farmers to 
get a chance to participate.
    Mr. Ibach. GAP certification is part of a food safety 
concern that we have to make sure that we continue to assure 
that any products distributed would be safe.
    Mr. Costa. You looking to make any adjustments?
    Mr. Ibach. I think that food safety will continue to be a 
priority and emphasis.----
    Mr. Costa. It should be.
    Yes. I don't think anybody disagrees there. On the USDA 
requirement program, the offer should describe it is intended 
to engage small farmers for those farms servicing local and 
regional interests. My concern is that there really hasn't been 
metrics that have been engaged here, and I don't know how you 
can re-evaluate the effort without some level of metrics to 
evaluate how and what assurances are provided. What are you 
looking for in trying to develop in this next effort?
    Mr. Ibach. Some of the other Members have asked, we do set-
asides for small or medium. We set some incentives within the 
contracting process for them to source locally, which we 
thought would help with that. But the main focus of the program 
was to put a program together quickly that got food out 
quickly, and so attending to all those details was impossible.
    Mr. Costa. But are you looking at which farmers are helping 
in what region by region basis, in terms of trying to make sure 
that that product is being availed?
    Mr. Ibach. We try to set within the contracting parameters 
encouragement for them to source locally when possible. 
Understanding that, at the time the program started, California 
and the South had great access to crops that were growing in 
the fields. The northern part of the U.S., obviously, their 
season is behind, they didn't have the same access at that 
time.
    The Chair. Thank you. The gentleman's time has expired. 
Thank you, Mr. Costa.
    Mr. Costa. Thank you, Madam Chair.
    The Chair. Mr. Kelly, you are recognized for 5 minutes. Mr. 
Kelly, you are recognized for 5 minutes.
    Mr. Kelly. Thank you, Madam Chair. The Ranking Member 
mentioned Borden Dairy. I want to bring light to the fact that 
Extra Table, an organization in Mississippi, relayed that this 
is the first year in its history that it was able to provide 
fresh milk to the food banks and soup kitchens it serves 
throughout Mississippi.
    First and foremost, Mr. Under Secretary, thank you for 
taking the time to come to my home state in November of 2018 
and 2019. We appreciate your time and interest in the 
commodities that we grow in Mississippi. I also appreciate you 
taking time to be here today.
    Farmers to Families works, and my colleagues have pointed 
this out repeatedly. I would like to switch gears and talk a 
little bit about other areas of CFAP that are important to my 
state. We appreciate the work that USDA is doing to implement 
the intent of Congress in helping our farmers and ranchers 
feeling the impact of COVID-19 on their operations throughout 
CFAP. This program has been a lifeline for many farms that have 
been dealt a horrible blow. One of your USDA mission agencies, 
Agricultural Marketing Services, is heavily involved in working 
with the Farm Service Agency, as they implement the specialty 
crop segment of this important program.
    The sweet potato industry in Mississippi is a major 
economic engine in our state, located mostly in my 
Congressional district. Many of my sweet potato farmers had 
contracts to sell the 2019 crops to wholesalers and restaurants 
that were canceled before April 15 due to the impact of 
coronavirus, and now they have no market to sell their produce. 
USDA has told these farmers that they do not qualify for CFAP 
because the potatoes did not perish immediately because they 
were in storage at the time. As the 2020 crop is quickly 
approaching, these farmers are about to have to destroy their 
2019 crops in storage to make room for their 2020 harvest 
seasons. To me, it makes no difference whether it perished at 
the time, or there is no market, and we have to throw it away. 
Can you tell me if USDA will re-look at this rule and do what 
is right by my farmers in my district?
    Mr. Ibach. There was the original prices that we were able 
to analyze to determine loss or damage, and we published those 
to make those crops eligible. Since then there has been a NOFA 
process, where different commodities could apply through the 
NOFA process. I don't know where we are at, necessarily, I 
apologize, on sweet potatoes, whether or not their NOFA has 
been completely analyzed, and what determination has been made. 
I will get back to you on that.
    Mr. Kelly. Yes, and please do, Mr. Secretary, because the 
net effect is they had potatoes, they store for a long time, 
but the next crop is coming in, which means they eat the entire 
year's crop, and so any help, I mean, that meets the intent of 
what we are trying to do with CFAP, and sometimes our rules and 
regulations, and we have to look and, listen, I have been in 
the Army a long time, and I have been around government 
bureaucracy, and sometimes we look at things, but we have to 
get to the intent of the law, and I would really appreciate 
that.
    I do thank you for your service. It is working. It is not 
perfect, but I appreciate you being on the conference calls, 
and being here today, and visiting my state. You guys are doing 
a great job, just keep it up, unless--as an old general told me 
a long time ago, General Scott, who was the Assistant Division 
Commander of the 1st Cavalry Division, he said, ``Good, better, 
best, good get better, and better get best.'' And, Mr. Under 
Secretary, we hope USDA will keep getting good, better, and 
best. And thank you, and I yield back.
    The Chair. Thank you. Ms. Spanberger, you are recognized 
for 5 minutes.
    Ms. Spanberger. Thank you, Chair Fudge, for allowing me to 
waive onto the Subcommittee today for this important oversight 
hearing. Mr. Ibach, I want to thank you by expressing my 
appreciation for the speed with which USDA implemented the 
Farmers to Families Food Box Program. Not only has the program 
alleviated food waste, but it has helped those facing food 
insecurity receive aid at this critical moment. That said, I am 
concerned about some of the ways in which this program has been 
implemented, and on June 15 I sent a letter to Secretary Perdue 
regarding the geographic disparities present in the program's 
rollout during the first wave of contracts. Madam Chair, I ask 
unanimous consent to enter a copy of that letter, and the June 
29 response from Secretary Perdue, into the record.
    The Chair. Without objection.
    [The letter referred to is located on p. 70.]
    Ms. Spanberger. Under the first rounds of awards, Virginia 
received nearly 3 million fewer pounds of food than would have 
been expected if the program had been administered under the 
formula utilized by TEFAP, which distributes food relief 
proportionately to a state's needs. While it is my 
understanding that the agency is doing more to address these 
discrepancies, I was concerned to see that not acknowledged is 
one of the challenges and lessons learned that you identified 
in your testimony. For my constituents this issue is a looming 
one, and remains so, and according to USDA provided statistics, 
Virginia remains near the bottom of states in terms of food 
delivered per person.
    I know many of my colleagues have asked about this question 
so far today, so I don't want to revisit some of the 
discussion, and I thank you for bringing forward your answers 
to their questions. But I do want to specifically ask, why did 
USDA elect not to utilize a need-based formula like the one 
used under TEFAP when distributing this aid?
    Mr. Ibach. That is an excellent question, and it was a new 
program that, from inception, or our first thought about it, to 
when the first food box was being distributed was about 40 days 
and 40 nights, Bruce likes to say, with an intended reference 
there. But, we did it quickly. Our concern, or our wonder was 
who would apply, would we have a sufficient amount of 
contractors that wanted to participate in the program? And so, 
rather than set regional or state thresholds, we wanted to be 
able to get food out.
    As a commodity farmer, I realize that a bushel of displaced 
corn, whether it is sold out of Nebraska or sold out of 
California, is a bushel of displaced corn, and it works the 
same way in the fruit and vegetable industry. And our goal was 
to get food circulating in the system to try to stabilize 
prices for farmers, to try to stop waste, and have food moving 
as we fed families. And so it was imperfect in its design, but 
our goal and intent was pure, and I hope noble.
    Ms. Spanberger. Thank you very much for that answer. And, 
following up, to be clear, I appreciate the program very much. 
It has helped many hungry Americans, as well as farmers and 
producers, but to follow up on the discussion, and in your 
answer you were discussing the concern about who might apply, 
what contractors might apply to participate in the program. 
Before the rounds of contracts went out, did USDA conduct any 
outreach to individual food banks, or food bank networks, to 
assess their needs, level of increased demands, or any other 
concerns? And, recognizing the 40 days, 40 nights, now that the 
program has been implemented, we have a little bit of time and 
space, what has USDA done since then with any additional 
outreach to food banks, including those particularly hard 
impacted, under-served areas?
    Mr. Ibach. We did reach out, as we were designing the 
program, to the fruit and vegetable industry, to the dairy 
industry, to understand how they might perceive this type of a 
program to work for them. We also worked with them as they 
reached out to food banks to say, ``We would like to work with 
you on this program.'' We had conversations with food banks as 
well in that process. We have learned a lot in the input we 
have had as we have gone through this. Part of it is the 
education process for understanding that the people receiving 
the boxes, that wanted to participate in distributing the 
boxes, had more power in that process than sometimes they 
exerted, and we want them to continue to know that they do have 
the ability to influence their service, and how they are 
served, by accepting or not accepting the boxes.
    Ms. Spanberger. And, Mr. Ibach, thank you for being here. I 
am running out of time, but I do want to implore you that, in 
the future, to engage a little bit more aggressively than what 
we have seen in the immediacy of the crisis, particularly with 
food banks and our food bank networks. From what we are hearing 
in Virginia, that would be really helpful on the ground. Thank 
you for your work thus far, and I look forward to seeing 
greater contact with those entities. Thank you.
    Mr. Ibach. Well, we definitely wanted to engage food banks, 
but we also wanted to provide opportunities for community-based 
organizations, faith-based organizations, and other 
organizations that we knew would be in contact with needy 
people to be able to participate too on a level field with the 
food banks.
    Ms. Spanberger. Absolutely. Thank you, sir.
    The Chair. Ms. Pingree, you are recognized for 5 minutes.
    Ms. Pingree. Thank you very much, Madam Chair. First, thank 
you for holding this hearing. It has been a great opportunity 
to hear how this program has been working. And, to Secretary 
Ibach, thank you for being with us today, and to your many 
answers for questions. I wanted to start by saying I share so 
many of the things that my colleagues have already said, 
questions too that you have answered. I, like Mr. Peterson, 
think we should have just done a SNAP increase all along. It 
would have been more efficient, and certainly it allows more 
dignity for the families who are allowed to go shopping on 
their own. I also had hoped that we could have just directed 
this money to the food banks. They are better able to deal with 
many of the problems that we have been talking about today, and 
also to make sure, when it comes to procuring from the farmers, 
that they know who to get their food from. Maine, as you know, 
and we have heard from other New Englanders, did not get any 
food in the first round, and we are able, thank you, to have 
another round, and so now we do have two contractors serving 
Maine, but we are still third from the bottom on the list in 
number of customers served, and that continues to be a concern. 
I hope that progress can be made in that, given that there are 
now more contracts.
    I want to just focus my concern on the farmers. Part of the 
reason this program is there is because of the huge challenges 
with the supply chain that many others have mentioned, and the 
idea was to make sure that farmers who had big surpluses were 
getting their food into these boxes. Also, as you mentioned, 
there was criteria in making sure that local farmers were able 
to participate. We have heard a lot about that not being 
followed, and so one of my questions is whether you have data 
on who was actually awarded, who did the contractees purchase 
from? I know you have said, and I know that was part of the 
criteria, that they had to look at local and engaging small 
farmers, but we don't have any data at this point to know if 
that happened. Do you collect that data? Is there more 
information we could receive?
    Mr. Ibach. We have not collected that data as part of our 
verification process at this time. I do know anecdotally, when 
I was at the different places that I visited that actually had 
a growing seasons that was harvesting, that there has been an 
attempt made by those people constructing the boxes to include 
local fruits and vegetables at that time.
    The contract does not require them to tell us who they are 
purchasing the food from. We can survey to be able to, and many 
of the cooperators and contractors are very cooperative about 
working with us, and being transparent, and helping us 
understand how they put together their boxes. They are very 
proud of their boxes in many cases, and so we could do some 
work there over time to help understand that better.
    Ms. Pingree. Well, thank you for that response. I guess I 
would just put in a plug for the Committee to ask for that, and 
for you to consider doing that. And perhaps in future contracts 
there would be an appropriate way to have some oversight on 
that, because, again, this program was based on making sure 
that where we had surpluses, that food was going to go into 
these boxes, and in my region, one of the things we are 
particularly concerned about is we have a lot of small to 
medium-sized farmers who weren't able to get the direct 
assistance due to a whole variety of things, and the 
seasonality of their harvest, and so it didn't work into the 
money that came from the USDA, so this seemed like a pretty 
good opportunity for them to be able to supply this food. I 
would encourage you to do that surveying so that we can look 
into the future, have a better idea of how much local food was 
accessed, and also to make sure that, where there was the 
greatest need and oversupply, it was going to the right places.
    Just one other thing that we heard from some of the food 
banks. Because local farmers weren't as engaged, and many of 
them procure from local farmers for their food banks, and have 
funding for that, there have been certain amounts of oversupply 
as the food is now coming in through the food boxes because it 
is not calculated to sort of take into account what is 
plentiful in our area at the same time, so I guess I want to 
mention that. I also just will use my last 20 seconds to put in 
a plug for something that other Members have asked for, and 
that is to understand better what nonprofits and food banks did 
get this food to make sure that they were all legitimate, using 
criteria, but also it would be important information to have 
out there so that people in need who wanted to access the food 
banks knew where to go. And, since that is not readily 
available, I hope that that will be something else you provide. 
With that, I yield back, and I thank you, and I thank again the 
Chair for having this hearing.
    The Chair. Thank you very, very much. We want to thank you 
for your testimony today. Mr. Johnson, do you have any closing 
comments?
    Mr. Johnson. Yes, a few things, thank you, ma'am. First 
off, I would just say continue to use your audit and 
accountability functions to make sure that we are getting a 
good result. I mean, I have heard from the field concerns about 
that last mile delivery system by the distributor, particularly 
in rural areas. Some of these folks bit off maybe a bit more 
than they realized, so continue to make progress on that.
    For my colleagues that are calling for, that we shouldn't 
have done this box program, we should have done SNAP, well, 
SNAP is a tremendous program, and it has a huge role to play 
here, but it is important during these unprecedented emergency 
times that we deploy a diverse set of tools. SNAP is incredibly 
helpful. We know that SNAP has scaled. We know that six million 
more people got on SNAP from February to April, and we know the 
spend is up, so SNAP can meet a portion of this demand, but it 
can't meet it all, we have been talking about farmers dumping 
milk. They weren't dumping milk because there wasn't demand. 
They were dumping milk because traditional distribution systems 
were broken. As we have talked about, the food supply chain was 
strained, and in some ways broken, and if we wanted to reduce 
food waste, and we do, and if we want to drive down hunger, and 
we do, we couldn't just rely on the same grocery story system 
that was strained and was breaking.
    And so, to those of you at USDA, you provided another 
diverse set, or another opportunity to help producers, and to 
help hungry Americans. And you talk about 40 days and 40 
nights, and as you alluded to, some of those nights probably 
were working nights rather than resting nights, and in the days 
since then your efforts have made a real impact. I will just 
close by saying this. There is still tremendous economic 
uncertainty in farm and ranch country, and throughout America 
for families. That economic uncertainty is lower today than it 
would have been but not for your efforts, so thank you.
    The Chair. Thank you, and I will close as well. I just am 
confused about the people who sit on the other side of the 
aisle. They are just being so nice about there being no 
accountability. We have no idea whether these people have done 
what they were supposed to do, but they are all, it doesn't 
cease to amaze me the hypocrisy that I listen to. When I ask 
about accountability in another program, they will say it is 
freedom, just freedom. Now, that doesn't count when people are 
hungry or needy, this whole freedom idea. We talk about less 
government. Now we have more government than we have ever had. 
We create a whole other bureaucracy. We tell them what they can 
and cannot eat in SNAP. Now we are going to give them what we 
want to give them in boxes. I am confused, I really am, because 
I do not understand how they can sit here straight-faced and 
tell you how wonderful this is. We have no idea what you are 
doing, nor do you, because you can't answer the questions.
    So, I would just suggest if we are going to continue to do 
this program, at least be able to give us some answers. Who is 
getting the food? Are they giving them rotten food, which is 
what I am hearing in some of these instances. Are you paying 
for somebody to really give it to people who should have it? We 
have none of those answers. This is fraught with waste, fraud, 
and abuse. And so I am hopeful just as we go forward that you 
can at least give us some of the answers we asked you for 
today, and understand that even people who are poor or who are 
hungry still have dignity, and they should be allowed to buy 
and feed their families what they choose.
    And so, I would think that you might want to think about 
maybe just increasing SNAP a little bit more. We have kids who 
are not in school--not that I think it probably is that bad 
because you don't allow us to put nutritious food into 
schools--but we want less government.
    With that, I will close and end this panel. Thank you so 
much.
    Ms. Hayes. [presiding.] The Subcommittee will stand at 
recess pending technical issues.
    [Recess]
    Ms. Hayes. The recess is ended, the hearing will come to 
order. Mr. Cooper?
    Mr. Cooper. Yes, ma'am?
    Ms. Hayes. Hi. Thank you. Please begin with your testimony.

       STATEMENT OF ERIC S. COOPER, PRESIDENT AND CHIEF 
         EXECUTIVE OFFICER, SAN ANTONIO FOOD BANK, SAN 
                          ANTONIO, TX

    Mr. Cooper. You bet. Thank you. Distinguished Members of 
the Committee, my name is Eric Cooper. I am the President and 
CEO of the San Antonio Food Bank. I am one of the food banks in 
the Feeding America and Feeding Texas food bank networks. I 
serve a large section of southwest Texas, where I have the 
privilege of partnering with well over 500 different nonprofit 
charities, of which the majority are faith-based organizations. 
We also work with school districts and other organizations in 
feeding, pre-COVID, about 60,000 people each week. Now, at the 
onset of the COVID-19 crisis that number moved to 120,000 
people a week. Now, we feed those families through our partner 
pantries, and then our pop-up distributions. It is these pop-up 
distributions that the truck to trunk model was based on. They 
are significant events, and take lots of logistics. You could 
imagine the coordination of bringing some extra gas and gas 
cans for cars that run out of fuel, jumper cables for cars that 
break down, making sure that you have hydration stations in the 
heat of south Texas, port-a-potties, lots and lots of 
volunteers, and then serving thousands of families. I want to 
thank our local Congressional delegation, who has shown up in 
big ways to help us with these distributions, and our outgoing 
Congressman Hurd has loaded a lot of trunks, and he will be 
missed.
    When I am at those distributions, and see the great work 
that is coming from our community to feed these families, I 
check in with our staff and volunteers, but then I walk the 
lines to greet the families. Many of these families lost their 
jobs in our hospitality industry. One couple met at the hotel 
where they both worked. They were called in to work on the same 
day, and let go. They and their three children, not knowing how 
they are going to nourish their kids, were in that line to get 
food.
    The program to rescue the food service supply chain and to 
help families should be applauded. I am personally grateful for 
USDA in initiating this program because I do believe it is a 
huge success, but there is some opportunity to tighten up, some 
opportunity to improve, and in two specific areas it would be 
in equity and accountability. When it comes to equity, it is 
equity between those that got food and those that didn't, 
equity between those that got paid and those that didn't. Some 
areas got a lot of produce, some got zero. Some got dairy, some 
got none. Having no distribution plan, with just a thought to 
work with any 501(c)(3), seemed a little willy-nilly. It does 
not honor the planning and logistics that go into these last 
mile distributions, the food safety that goes along with it, 
and the expenses. Many Feeding America food banks had to raise 
funds from private philanthropy to support this public program.
    Specifically, when it comes to accountability, food banks 
in the Feeding America network know how to read a bill of 
lading. They understand audits. From many of the contractors 
there wasn't significant data on the bill of lading to know 
what you would be signing for and what you were not. Working 
with a local contractor here in San Antonio, we struggled to 
meet basic things, like labeling. Some of the protein boxes, 
which should have been a diverse variety of protein, contained 
five 5 pound boxes of peppered chicken labeled for commercial 
use. Families didn't know the heating instructions. We had to 
reach out to the manufacturer, which was in California, to get 
heating instructions to include in all the boxes we 
distributed.
    Oftentimes details come down to the corrugated box. The box 
didn't have enough air, so the produce rotted. Onions competed 
with cantaloupes, and many of the cantaloupes were rotten. We 
wish the contractor would have substituted those cantaloupes 
with some of those sweet potatoes mentioned earlier, or they 
just pulled out the cantaloupe. More opportunity to get 
families out of the parking lot and into grocery stores is 
ultimately what is needed, and this will happen when the 
economy strengthens, and people go back to living wages. But 
until then, I would encourage boosting SNAP 15 percent. The 
heat of south Texas has families struggling in these parking 
lots, and we would all be better served to move them out of 
these parking lots and into grocery stores, where they can shop 
for the nutritious food.
    Thank you so much for the opportunity to share some thought 
on this matter. From all of us in San Antonio, muchas gracias.
    [The prepared statement of Mr. Cooper follows:]

  Prepared Statement of Eric S. Cooper, President and Chief Executive 
            Officer, San Antonio Food Bank, San Antonio, TX
Coronavirus Food Assistance Program's Farmers to Families Food Box 
        Delivery to Nonprofits
    Dear Chair Fudge, Ranking Member Johnson, and distinguished Members 
of the Committee:

    Thank you for the opportunity to share testimony on our experience 
with the Farm[ers] to Families Food Box Program. My name is Eric 
Cooper. I am the President and CEO of the San Antonio Food Bank, in San 
Antonio Texas. I represent one of the food banks in the Feeding America 
and Feeding Texas networks. We serve a large section of Southwest Texas 
where we provide food to well over 500 organizations and programs.
    At the onset of the COVID-19 Crisis, we went from feeding 60,000 
people per week to now feeding 120,000 people a week. The reality of 
the demand was captured in a photograph in the San Antonio Express News 
of our April 5th distribution at Traders Village. Over 10,000 families 
struggling to get food needed help. It has been this unprecedented 
demand that food banks across the nation have been working hard to 
feed.
    It has taken an unprecedented response to meet that demand and we 
are grateful to the Companies, Foundations, Churches, and Individuals 
who have donated and volunteered. Their immediate action helped to 
bridge the gap until the public support started to arrive. I want to 
thank our Local Federal Delegation for volunteering at our 
distributions and advocating for support. Had it not been for the Texas 
Department of Emergency Management, FEMA, and USDA we would have run 
out of food.
    Meeting this demand has been a daily challenge. Food insecurity is 
getting worse as unemployment rises across the country as more and more 
states look at needing to close again. Feeding America's research team 
has projected an additional 17.1 million individuals will be food-
insecure in 2020 as a result of the economic fallout from COVID-19.
    The San Antonio Food Bank, and the entire food bank network, is 
grateful for the additional funding for TEFAP, TEFAP Storage and 
Distribution, Pandemic-EBT, and SNAP emergency allotments provided in 
the Families First and CARES Act. This has immensely helped food banks 
and those they serve in communities across the country, and in 
particular the additional food will help provide a backstop this fall 
and winter.
    Food banks across the country viewed USDA's announcement of the 
Farmers to Families Food Boxes as an innovative solution to the supply 
chain challenges many growers and producers are experiencing due to 
COVID-19, and a solution that would also help connect additional food 
with communities in need. USDA took a chance on standing up an entirely 
new purchasing system in a very fast turnaround time to address the 
food that many farmers were forced to plow under as buyers canceled 
contracts.
    However, this haste did cause some unevenness in the bidding and 
contracting process. Many contractors did not have time to identify and 
negotiate distribution and delivery agreements with nonprofits ahead of 
time. This led to some speed bumps once contracts were awarded to avoid 
duplication of deliveries in certain areas. It also resulted in food 
banks shouldering more of the distribution burden than USDA had 
intended. Many food banks have hired additional staff, rented warehouse 
and refrigeration space, and rented trucks to handle the additional 
food. Other food banks have not been able to afford to invest in these 
additional capabilities and have had to turn some of the food offered 
through the program down due to lack of capacity.
    Bolstering TEFAP will also help to offset deep declines in retail 
and other food donations, especially as food banks face extra costs 
related to new food delivery models that align with guidance from 
health professionals. With the increase in food moving through the 
network from USDA's Food Purchase and Distribution Program and the 
[Farmers] to Famil[ies] Program, a strain is being placed on the food 
bank infrastructure.
    The San Antonio Food Bank cannot work alone in providing the 
support our community needs during this critical time. We need an 
increase in SNAP to help with the increased demand. SNAP has proven to 
be key to safeguarding the food security of Americans who are low-
income in times of need for decades, and its strength is unparalleled. 
Strengthening SNAP will help make the program even more responsive to 
the economic downswing the nation is presently facing. It will assist 
in moving families from our parking lots and into grocery stores.
    To meet this increased level of need it is crucial that funding be 
included in future legislation that increases access to food through 
SNAP, TEFAP, and child nutrition programs.

    On behalf of Feeding America and Food-Insecure Families we ask:

  <bullet> Increase the maximum SNAP benefits for all recipients by 
        increasing the Thrifty Food Plan by at least 15 percent for as 
        long as the economy is weak. This will help food banks that are 
        seeing large increases in demand and also will help promote 
        economic stimulus during this economic downturn.

  <bullet> Increase the SNAP minimum benefit from $16 to $30 for the 
        duration of the economic downturn.

  <bullet> Extend Pandemic-EBT authority provided in earlier 
        legislation to ensure USDA has the authority needed to continue 
        this important program through the summer and into the next 
        school year as needed.

  <bullet> Provide $500 million for TEFAP food purchases to follow the 
        increases included in previous legislation as well as funding 
        for storage and distribution needs to help our food bank 
        network continue to meet the unprecedented demand in our 
        communities.

  <bullet> Provide $543.25 million for food bank infrastructure 
        capacity needs to support the rental, lease, or purchase of 
        essential assets such as refrigeration and transportation 
        equipment across the network of food banks and partner 
        distribution agencies.
Recommendations for Improving CFAP
    We applaud the investment of $3 Billion to procure surplus 
agriculture, strengthen food industry vendors, and feed families. Not 
having a strong distribution plan and allowing awarded contractors 
determine who and how much each nonprofit [501(c)(3)] challenged the 
equity and accountability of the Farm[ers] to Families Food Box 
Program.

  <bullet> Food Access: We recommend that USDA expands the reach of the 
        program so that all communities and states are able to 
        participate equitably in the program. Several states were left 
        with few to no food boxes while others received one type of box 
        (i.e., produce) while receiving none of the other varieties 
        (i.e., dairy and meat). This could also create opportunities 
        for national and local partners with experience distributing 
        food.

  <bullet> Contractor Support and Compliance: We recommend that USDA 
        increase technical assistance to contractors to ensure 
        familiarity with USDA contract requirements and successful 
        execution of the contract. Some contractors have experienced 
        difficulties that fall into these common areas:

    <ctr-circle> The contractor did not secure agreement with 
            nonprofits for all the food they are contracted to deliver 
            prior to submitting a bid.

    <ctr-circle> The contractor does not have the equipment needed to 
            deliver to distribution sites. This negates the ability of 
            the contractor to provide ``Truck to Trunk'' delivery to 
            distribution sites and means the food bank must take on the 
            expense to do so.

  <bullet> ``Last Mile'' Distribution Costs: We recommend that USDA 
        support contractors in accurately assessing commodity and 
        delivery costs. Many contractors may not have known the true 
        distribution costs in the initial plans submitted to USDA; 
        allowing consideration of additional expenses will help 
        contractors either shoulder more of the distribution costs as 
        USDA intended in the RFP or compensate nonprofits for the last 
        mile delivery to clients. This will increase the reach of the 
        program.

  <bullet> Local Coordination: We recommend that USDA encourage 
        contractors to strengthen coordination with food banks and 
        other nonprofits. We have seen many instances where contractors 
        do not coordinate among the ``network'' of nonprofits for 
        delivery, resulting in some smaller nonprofits receiving food 
        they cannot safely distribute or store and then asking the food 
        bank to urgently pick up perishable food that has not be 
        handled according to proper food safety guidelines.
Closing Ask of USDA/Congress
  <bullet> We encourage the Committee on Agriculture along with USDA to 
        ensure the Farmers to Families Food Box Program can provide a 
        nationwide resource to individuals during this crisis and can 
        provide food to communities in need through all four phases of 
        the program (May-December) as announced by USDA in April.

  <bullet> We also encourage USDA and Congress to continue the success 
        of other USDA food purchase programs like the Food Purchase and 
        Distribution Program, which has provided over 2 billion pounds 
        of nutritious food to food banks over the last 2 years. 
        Unfortunately, this food is slated to end in December 2020, 
        creating a very large ``commodity cliff'' that will result in a 
        significant reduction in food purchases for food banks. We 
        believe another year of a planned food purchase program would 
        provide U.S. growers and producers as well as food banks 
        certainty and a steady supply of food to assist families and 
        individuals in need.

    Thank you again for allowing me to give written testimony on our 
direct experience. We are grateful to the Committee and USDA for making 
sure families are nourished.
    May God bless you all for serving our great nation in this time of 
need!

    Ms. Hayes. Thank you very much for your testimony. Mr. 
Habash, please begin when you are ready.

    STATEMENT OF MATT HABASH, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, MID-OHIO FOODBANK, GROVE CITY, OH

    Mr. Habash. Thank you, and good afternoon, Members of the 
Committee. My name is Matt Habash, and I serve as the CEO of 
the Mid-Ohio Food Collective, one of the largest hunger relief 
organizations in the country, and the largest here in Ohio. We 
serve a blended footprint of 20 counties in central and eastern 
Ohio, which includes urban, rural, and Appalachia. Over the 
past year we have served about 600,000 of our neighbors and 
distributed almost 75 million pounds of food through a network 
of 680 partner agencies. From March to June we distributed 
almost 30 million pounds of food, a 30 percent increase in 
comparison to the same time last year. We also had over 396,000 
visits, including nearly 25,000 new families who have never 
asked for help before--all made possible by the fact that 95 
percent of our agencies remained open.
    To highlight our relationship with the USDA, this past 
fiscal year we distributed almost 20 million pounds of food 
through TEFAP, CSFP, and ESFP. This is a testament to our 
partnership, and a strong one. Thank you, also to Under 
Secretary Ibach, who visited us yesterday to see our work. To 
date, we have received 42,590 boxes, about 1.1 million pounds 
of milk, dairy, vegetables, and fruit. I never got offered the 
meat that Eric did. We are scheduled through August 2020 for 
95,000 boxes and 2\1/2\ million pounds. While coordinating 
deliveries in all 20 counties, we are particularly focused on 
the rural counties. All the pre-planning in this program for us 
was around identifying a single agency in the 18 counties that 
we have outside of central, or right here in Columbus for local 
distribution. Unfortunately, that didn't happen.
    We are grateful to the suppliers and USDA for the amount 
of, and the quality of, the products. CFAP has also helped in 
supporting our food as health strategy to provide nutritious 
food to customers as part of an overall health care. Along with 
ensuring less food waste, the efficiencies of having food 
packed and ready for delivery is key to a touch free system to 
mitigate COVID-19 exposure. Transparency, there have been 
certain issues with the program. Not all distributors can pack 
and deliver the food as promised. When there are coordination 
issues, it increases costs to food banks for storage and 
distribution, straining the resources of food banks even more 
when already working hard to provide the rapid response to the 
30 percent increase in demand caused by COVID.
    And also concerning is the fact it has been inequitable, in 
access, in process, and in distribution around the country. 
Frankly, many vendors are failing to adhere to their contracts, 
creating logistical difficulties, and contributing to the 
inequity. In addition, utilizing nonprofits outside of the food 
distribution chain adds to coordination issues and creates 
confusion, and I would say you heard a lot already in the 
earlier panel about safety, and we are equally concerned about 
that as well. Moving forward it is incumbent on USDA to 
strengthen its communications with partners to streamline the 
process and ensure success, a goal we all seek. In my written 
testimony I have included national information to provide a 
larger context.
    In short, incorporating more streamlined coordination, 
transparent communications, and deeper accountability of the 
program will go a long way in our collective efforts to help 
feed families who are struggling to put food on their tables. 
Looking at hunger relief overall, we know the most efficient 
way to address food insecurity during this crisis is to 
increase SNAP benefits. Increasing the SNAP Thrifty Food Plan 
by at least 15 percent, and a minimum benefit from $16 to $30 
for the duration of this public health threat will provide 
economic boosts while fighting food insecurity. Extending the 
P-EBT authority into the next school year, and extending the 
multiple waivers and declarations tied to all anti-hunger 
programs will help ensure access to food for families. 
Providing an additional $500 million for TEFAP food storage and 
distribution will help food banks continue to meet 
unprecedented demand. And providing an additional $540 million 
to support acquisition of essential equipment will ensure safe 
food receipt and delivery. It is also imperative that National 
Guard deployment at food banks continue. The pandemic decimated 
our volunteer base that was 13,000 strong, and committed nearly 
75,000 hours of service in our facility.
    We are ready to help expand the CFAP's reach. Our 
recommendations are, one, focus on strengthening food access. 
This is not an equitable program. You heard from many parts of 
the country who got a lot of food, and other parts of the 
country who got next to none. Provide clarity on distribution 
costs and responsibility of contractors. When it says truck to 
trunk, that means take it to the site that it is supposed to, 
not give it to the food bank. We don't--necessarily can say no 
because of the fact that some food banks don't have the 
resources to transport the food across their service 
territories, especially given what is going on right now. And 
continue to provide contract oversight to encourage contractors 
to coordinate the work among nonprofit pantries to avoid 
duplication of services.
    We encourage Congress and the USDA to ensure this program 
provides food for all four phases of the program. We stand 
ready to support, and on behalf of the 600,000 people we help, 
thank you.
    [The prepared statement of Mr. Habash follows:]

   Prepared Statement of Matt Habash, President and Chief Executive 
               Officer, Mid-Ohio Foodbank, Grove City, OH
Coronavirus Food Assistance Program's Farmers to Families Food Box 
        Delivery to Nonprofits
    Dear Chair Fudge, Ranking Member Johnson, and distinguished Members 
of the Committee:

     Thank you for the invitation to testify at today's hearing on how 
USDA's Coronavirus Food Assistance Program's Farmers to Families Food 
Box Program is working in Ohio. My name is Matt Habash and I serve as 
the CEO for the Mid-Ohio Food Collective, the largest hunger relief 
organization in Ohio. To put our work in context, the Mid-Ohio Food 
Collective, a customer-centric organization, is comprised of five 
assets: Mid-Ohio Foodbank (its anchor asset), Mid-Ohio Farmacy, Mid-
Ohio Farm, Mid-Ohio Kitchen and Mid-Ohio Markets--all intended to meet 
customers where they are. As the 12th largest food bank in the country, 
we serve a blended footprint of 20 counties in central and eastern Ohio 
that includes urban, rural, and Appalachian areas. Over the past year, 
the Mid-Ohio Collective served about 600,000 of our neighbors, 
distributing a record high, almost 75 million pounds of food through a 
network of more than 680 partner agencies.
    Since the onset of the COVID-19 pandemic, our food bank has seen 
continued and unprecedented demand, like our partner food banks across 
the country. As so many Ohioans are seeking food assistance for the 
first time in their lives, the Mid-Ohio Food Collective is working in 
whole new ways to connect nutritious food to struggling families, 
displaced workers, children who depended on meals at school, isolated 
and health-compromised seniors, and to homeless men, women, and 
children. Since the beginning of March through June 30, 2020, we have 
responded to 396,367 visits across our 20 county urban, rural, and 
Appalachia footprint, including, providing a rapid response in serving 
an increase of 24,783 new families seeking nutritious food to feed 
themselves and their families. Additionally, our food bank has 
distributed 29.04 million pounds of food from March through June, a 30 
percent increase from the same period last year, breaking record after 
record in food provided to our neighbors and will end its fiscal year 
with a distribution of more than 73 million pounds of food. Based on 
the current trajectory, we expect food insecurity to continue to rise 
as the coronavirus continues to greatly impact our day-to-day lives. 
According to research projections by Feeding America, our service area 
will most likely experience a 38 percent increase in food insecurity 
due to the economic impact of COVID-19.
    While we have taken aggressive steps to ensure an adequate supply 
of food, such as early acquisitions and utilization of offsite storage 
units, we understand that COVID-19 is a marathon as well as a sprint, 
and that we need to secure business, community, and government partners 
to meet and sustain what we know will be a significant increased demand 
for food--the most fundamental of basic needs. COVID-19 has caused 
unprecedented supply chain disruptions as consumers shift to preparing 
and eating food at home. This has resulted in significant food loss 
from farmers, dairy producers and other food producers as consumers 
shelter-at-home, purchasing more food from groceries, and restaurants 
that normally purchase their food have experienced significantly 
reduced demand or have closed. Due to these disruptions in the supply 
chain, it is critical that the Federal nutrition programs continue to 
be well-funded and strengthened in order to serve our customers and 
food-insecure children, seniors, veterans and those struggling with 
disabilities nationwide. The increases and program flexibility changes 
in the CARES Act and Families First Act in TEFAP, SNAP and the child 
nutrition programs meant that we are able to serve our neighbors in 
safe and effective ways.
    USDA and food banks frequently work together to connect surplus 
food with individuals and families in need when USDA makes market 
support commodity purchases through Section 32 and distributes the food 
through The Emergency Food Assistance Program (TEFAP). Last year, USDA 
commodities from Section 32 market support purchases, the Food Purchase 
and Distribution Program, and TEFAP entitlement funding provided in the 
farm bill resulted in 20.283 million pounds of food distributed through 
our food bank. This is the backbone of our food supply, and without 
TEFAP and USDA foods, we would not have been able to respond as we did 
to the increased need caused by COVID-19. USDA's announcement of the 
Farmers to Families Food Box program in May meant we would have an even 
greater ability to get nutritious food onto the tables of those 
individuals and families who need it most.
CFAP Experience at Mid-Ohio
    We are incredibly grateful to have partnered with USDA over the 
decades to ensure that no one in our communities go hungry. Regarding 
CFAP specifically, we have worked with select partner food agencies in 
our service area to distribute the CFAP food boxes. To date, we have 
received 42,590 boxes equaling 1.115 million pounds of food, receiving 
our first box on June 1st; through the next round of scheduled 
deliveries for July-August, we expect to receive and distribute 95,710 
boxes equaling 2.515 million pounds of fresh food. We have largely 
focused on our rural and Appalachian counties, identifying a key agency 
in 18 of our 20 counties to distribute the food boxes. Both the partner 
agencies in our network and our customers appreciate the amount and 
freshness of the food. The CFAP initiative has been helpful in 
supporting our ``food is health,'' strategy--a high-value, low-cost 
healthcare solution--to enhance access and provide nutritious food to 
our customers. Along with ensuring less food waste, the efficiencies of 
having the food packed and ready for delivery has been key as we 
continue with a ``touch free'' system to mitigate COVID-19 exposure for 
associates and customers.
    Having said the above, there have also been a number of ``hiccups'' 
with the program--namely around program coordination, accountability, 
and communications. Not all distributors are able to pack and deliver 
the food as promised and while the food is appreciated, it does not 
account for health concerns including allergies and other common 
issues. Where there are coordination issues for packing and delivery of 
the food, it actually has increased cost to the food banks for storage 
and transportation, straining valuable resources. Moreover, more 
accountability to ensure that the right food is getting to the right 
place at the right time by the right entity will not only strengthen 
the program but will give added confidence in the intention behind the 
program. Moving forward, it will be incumbent on USDA to be transparent 
and more robust in their communications with all partners engaged in 
the program in an effort to streamline the process and ensure the 
program's success--a goal that we are all seeking to reach. If the CFAP 
program was administered via existing, experienced networks within 
USDA, these frustrations would most likely have been mitigated and the 
program overall, would have been more efficient and realize more 
substantive results.
National Information
    It's also important to note that we do not work in isolation to 
address food insecurity in Ohio or across the country. The Mid-Ohio 
Food Collective is a part of 13 food banks serving the state of Ohio, 
and the 200 Feeding America-affiliated food banks in the United States, 
working to serve the communities in which they live. Food banks have 
seen an increase in demand during the COVID-19 pandemic, with an 
average increase of 60 percent, and are experiencing similar challenges 
and hurdles as you have heard here today. From March 1 to May 24, the 
food banks in the Feeding America network distributed an estimated 1.3 
billion meals to people facing hunger in the United States.
    CFAP has created another option to get food to individuals across 
the country, and to provide additional support to growers and producers 
who are hurting due to the disruption in the food supply chain. As with 
any new program this one has experienced some challenges as reported by 
a number of food banks from the program's onset. Some food banks have 
confirmed a lack of nationwide access to food, particularly in rural 
areas thereby reducing the reach of CFAP into rural areas that have 
been affected by the pandemic. Other food banks are successfully 
working with local producers to get fresh produce to food banks. 
Additionally, the consistency of the contractors of CFAP has led to 
varying degrees of success nationwide. Contractors in some regions have 
struggled with providing truck to trunk services and may have never 
been a part of a large-scale food distribution before. Overwhelmingly, 
the food banks that are receiving food through the Farmers to Families 
Food Box Program are thankful for the additional food provided and ask 
that USDA continue to provide nutritious food for food-insecure 
individuals and families and continue to improve this program to assist 
individuals for the duration of the year.
    This program has the opportunity to play a crucial role alongside 
TEFAP and SNAP to feed families we serve every day, while also 
supporting U.S. agriculture.
Key Recommendations for the Next Stimulus Package
    The food bank network is a critical part of the response to hunger 
in our country, but we also know that the most efficient way to address 
food insecurity during this crisis is to increase SNAP benefits for the 
duration of the economic recovery. Before COVID-19, for every meal the 
Feeding America network of food banks distributed on average, SNAP 
provided nine. In these uncertain times, SNAP can help people 
immediately while also providing an economic stimulus to local 
economies, helping people and communities get back on their feet so 
they don't have to rely on charitable or government assistance any 
longer than necessary.

  <bullet> Increase the maximum SNAP benefits for all recipients by 
        increasing the Thrifty Food Plan by at least 15 percent for as 
        long as the economy is weak. This will help food banks that are 
        seeing large increases in demand and also will help promote 
        economic stimulus during this economic downturn.

  <bullet> Increase the SNAP minimum benefit from $16 to $30 for the 
        duration of the economic downturn.

  <bullet> Extend Pandemic-EBT authority provided in earlier 
        legislation to ensure USDA has the authority needed to continue 
        this important program through the summer and into the next 
        school year as needed.

  <bullet> Provide $500 million for TEFAP food purchases to follow the 
        increases included in previous legislation as well as funding 
        for storage and distribution needs to help our food bank 
        network continue to meet the unprecedented demand in our 
        communities.

  <bullet> Provide $543.25 million for food bank infrastructure 
        capacity needs to support the rental, lease, or purchase of 
        essential assets such as refrigeration and transportation 
        equipment across the network of food banks and partner 
        distribution agencies.
Key Recommendations for Improving CFAP
    With any new program, there are opportunities to improve. We are 
ready to help expand the program's reach through partnerships between 
experienced food industry providers and food banks across the U.S. 
Although the Farmers to Families Food Box Program is meant to be a 
temporary program lasting May-December to address critical food supply 
chain imbalances, we stand ready to work with USDA and contractors on 
ways to strengthen this temporary program.
    Our suggestions to USDA are to focus on strengthening food access, 
provide clarity on distribution cost and responsibility of contractors, 
and continue to provide contract oversight to encourage contractors to 
coordinate among nonprofit partners to avoid duplication of food 
distributions.

  <bullet> Food Access: We recommend that USDA expands the reach of the 
        program so that all communities and states are able to 
        participate equitably in the program. Several states were left 
        with few to no food boxes while others received one type of box 
        (i.e., produce) while receiving none of the other varieties 
        (i.e., dairy and meat). This could also create opportunities 
        for national and local partners with experience distributing 
        food.

  <bullet> Contractor Support and Compliance: We recommend that USDA 
        increase technical assistance to contractors to ensure 
        familiarity with USDA contract requirements and successful 
        execution of the contract. Some contractors have experienced 
        difficulties that fall into these common areas:

    <ctr-circle> The contractor did not secure agreement with 
            nonprofits for all the food they are contracted to deliver 
            prior to submitting a bid.

    <ctr-circle> The contractor does not have the equipment needed to 
            deliver to distribution sites. This negates the ability of 
            the contractor to provide ``Truck to Trunk'' delivery to 
            distribution sites and means the food bank must take on the 
            expense to do so.

  <bullet> ``Last Mile'' Distribution Costs: We recommend that USDA 
        support contractors in accurately assessing commodity and 
        delivery costs. Many contractors may not have known the true 
        distribution costs in the initial plans submitted to USDA; 
        allowing consideration of additional expenses will help 
        contractors either shoulder more of the distribution costs as 
        USDA intended in the RFP or compensate nonprofits for the last 
        mile delivery to clients. This will increase the reach of the 
        program.

  <bullet> Local Coordination: We recommend that USDA encourage 
        contractors to strengthen coordination with food banks and 
        other nonprofits. We have seen many instances where contractors 
        do not coordinate among the ``network'' of nonprofits for 
        delivery, resulting in some smaller nonprofits receiving food 
        they cannot safely distribute or store and then asking the food 
        bank to urgently pick up perishable food that has not be 
        handled according to proper food safety guidelines.
Closing Ask of USDA/Congress
  <bullet> We encourage the Committee on Agriculture along with USDA to 
        ensure the Farmers to Families Food Box Program can provide a 
        nationwide resource to individuals during this crisis and can 
        provide food to communities in need through all four phases of 
        the program (May-December) as announced by USDA in April.

  <bullet> We also encourage USDA and Congress to continue the success 
        of other USDA food purchase programs like the Food Purchase and 
        Distribution Program, which has provided over 2 billion pounds 
        of nutritious food to food banks over the last 2 years. 
        Unfortunately, this food is slated to end in December 2020, 
        creating a very large ``commodity cliff'' that will result in a 
        significant reduction in food purchases for food banks. We 
        believe another year of a planned food purchase program would 
        provide U.S. growers and producers as well as food banks 
        certainty and a steady supply of food to assist families and 
        individuals in need.

    Making real progress towards reducing COVID-19's impact on food 
insecurity will require investing new resources toward increasing 
access to food and allowing flexibilities within existing programs. I 
encourage the Committee on Agriculture along with USDA to ensure the 
Farmers to Families Food Box Program can provide a state by state, 
nationwide resource to individuals during this crisis and can provide 
food to communities in need through all four phases of the program as 
announced by USDA in April. I also ask Congress to strengthen Federal 
nutrition programs like SNAP and TEFAP for families affected by this 
public health crisis. It has been my honor to testify today on behalf 
of everyone we serve through the Mid-Ohio Food Collective and all of 
its assets. We look forward to working with this Committee to ensure no 
one goes to bed hungry. I look forward to answering your questions.
    Thank you.

Matt Habash,
CEO, Mid-Ohio Food Collective.

    The Chair [presiding.] Thank you. Let us see, where are we? 
We will now begin Member questions. We will begin with Ms. 
Adams. You are recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chair.
    The Chair. I am sorry, 3 minutes, Ms. Adams. 3 minutes. 
Thank you.
    Ms. Adams. Okay. Can you hear me? Thank you. Thank you to 
our panelists today. I have heard from North Carolina 
nonprofits and food banks, and, despite the Farmers to Families 
Food Box Program being billed as a truck to trunk, vendors are 
not necessarily storing and distributing the food provided, so, 
as a result, these banks have been handling the logistics of 
solving the costs of storage, et cetera. Are your organizations 
handling the distribution and storage of the food boxes that 
you have received, and have they, in terms of participating in 
the program, had any impacts on their orders and other 
programs? Can you hear me?
    Mr. Habash. Yes, I could hear you.
    Ms. Adams. Okay.
    Mr. Habash. This is Matt, from Columbus, Ohio, the Mid-Ohio 
Food Bank. We are taking in all the product, and we didn't have 
any contractor that was willing to deliver to the 18 sites. We 
have nine Appalachian counties that we serve, as well as 
Columbus, and they were unwilling to do that, to say we could 
have said no means people don't get food. Nobody is paying us, 
with the exception of what was mentioned. Wiers Farms up in 
northern Ohio was paying us a dollar a box. That is the only 
vendor who has agreed to pay any money in our program so far.
    Ms. Adams. Okay. So, based on the recent rise in cases of 
COVID, how many pounds of food do you anticipate distributing 
in the coming months?
    Mr. Habash. Well, we normally do about 75 million pounds a 
year, and that was already up from about 63 million the year 
before, and we are anticipating probably closing in on 100 
million pounds of food, if we can find the food. It is just 
that demand is up 30 percent.
    Ms. Adams. Okay. Was the food that you received from the 
program from a national, regional, or local producer, and do 
you think that this impacted your experience with the program?
    Mr. Habash. Well, Eric, do you want to go ahead and chime 
in, or do you want to----
    Mr. Cooper. Yes. I think the challenges with the program is 
it is just not providing enough volume, and many families are 
going away hungry, if you will, because the supply is not 
meeting the demand. And then the challenges around the 
logistics and the expenses associated, the thought that food 
banks have the power to negotiate, it really is powerless, you 
either accept the food or you don't, the contractor's going to 
move that product to some other community, and you would miss 
out. And so we need the food. Ultimately, the line of families 
need nourishment, and we are, in a way, we will take the food 
and--raise to cover the expenses if we have to.
    Ms. Adams. Very--thank you very much, and thank you very 
much for being here. I yield back, Madam Chair.
    The Chair. Thank you so much. Ranking Member Conaway, you 
are recognized for----
    Mr. Conaway. Thank you, Madam Chair. Eric, the dramatic 
photograph from early April of cars lined up at your facility, 
has that happened every single day?
    Mr. Cooper. We have about 20 of those distributions a week. 
Now, that photograph was at the largest distribution, which 
occurred at the onset of the crisis, where 10,000 families came 
to get food. Our average distributions are about----
    Mr. Conaway. But you pass out food every day at that site?
    Mr. Cooper. No. We rotate throughout south Texas at 
multiple sites.
    Mr. Conaway. All right. I have a note here from Libby 
Campbell, one of your cohorts, that I have the pleasure of 
representing. She got 1,200 boxes yesterday of cheese, butter, 
produce, and cream, and it is all out in the hands of consumers 
in less than 24 hours, so I need to brag on Libby and her team 
over in Midland and Odessa for making that happen.
    Fellows, both of your testimony is almost exactly the same 
thing. Did Feeding America give you that testimony?
    Mr. Cooper. Absolutely, we are all connected with Libby, 
she is a great.
    Mr. Conaway. Okay. Eric, yes, I have a limited amount of 
time, Eric, I am going to be a little abrupt. I apologize for 
that. Are you free to disagree with that testimony?
    Mr. Cooper. Absolutely.
    Mr. Conaway. Did your board, did they go through with you 
and adopt that, or is that--you and Matt put that out on behalf 
of San Antonio-Ohio?
    Mr. Cooper. Yes.
    Mr. Habash. Go ahead, Eric.
    Mr. Cooper. Our board supports us in that, and, again, 
congratulations on working with Libby. I know last time we were 
together, Congressman, it was in Midland, and I know that was 
the first truckload of CFAP boxes that they received there in 
that community.
    Mr. Conaway. Well, thanks----
    Mr. Habash. Congressman?
    Mr. Conaway. Yes, Matt?
    Mr. Habash. This is Matt, and my testimony is my own. It 
was not written by Feeding America. It is what we experienced 
here in central and eastern Ohio.
    Mr. Conaway. Yes, Matt. The recommendations, though, appear 
almost word for word with Eric's, so I don't know where either 
one of you got it, but it came off of Feeding America, which is 
fine, in that regard. But, do you guys pay fees to Feeding 
America to belong to their organization?
    Mr. Cooper. They actually support us with food and funds 
across the United States. The network works very, very well 
together to make sure that----
    Mr. Conaway. But you don't pay Feeding America an annual 
fee?
    Mr. Cooper. I mean, we have some dues that we pay, but not 
in any comparison to the support that we get.
    Mr. Conaway. Yes. Well, I thank you guys. I appreciate that 
with the limited amount of time. The Chair made some 
interesting comments about being anxious about the potential 
waste in this food program. I would hope that the other side 
would be just as indignant in the waste in the food stamp 
program, because they tolerate a $37 error rate in the over and 
under payments as if that doesn't happen at all, and billions 
are lost in these improper payments, and I don't hear the same 
kind of righteous indignation associated with those error rates 
as the potential, or alleged, errors within this program. With 
that, I yield back.
    The Chair. I am concerned about every error in every 
program. Mrs. Hayes, you are recognized for 3 minutes.
    Mrs. Hayes. Thank you. Mr. Cooper or Mr. Habash, I heard 
your concerns about the fact that some of your producers were 
not local, and didn't really know the area that they were 
expected to provide products for. Had you created the 
application process for the Farmers to Families Food Box, is 
there anything that you would have done differently that would 
have helped to improve your experience?
    Mr. Cooper. Yes, I will go first, Eric from San Antonio. It 
is really a coordinated distribution plan. I know, Congressman 
Conaway, maybe we are similar food banks, and part of the same 
network, but we represent diverse parts of the country, and a 
diverse network of nonprofit organizations. Again, for us in 
San Antonio, over 500 different organizations that are feeding 
the 120,000 people each week. And coordinating those families 
to make sure that, one, they can be at the distribution, the 
amount of time it takes, the food safety aspects to keep the 
product under refrigeration, having the right equipment, and 
just making sure that families are fed in an equitable way, 
that you don't have families showing up and walking away 
without anything, that takes planning and logistics.
    I think a little more effort in the coordination of that 
distribution plan to make sure that there is not duplication, 
nonprofits running into each other, organizations taking more 
food than they know--many of the contractors only would ship a 
full truckload, so some of these churches were overwhelmed with 
the sheer volume, and many Feeding America food banks were 
having to go and rescue that food, pick it up at the 
distribution site, to take it back to their warehouse to get 
the product under cold storage. That is where waste occurs, 
that is where food safety is compromised, and that is what I 
would do to strengthen some of the aspects of the program.
    Mrs. Hayes. Did you hear from local farmers about their 
involvement in being part of the production line?
    Mr. Habash. This is Matt----
    Mr. Cooper. Many of our local farmers throughout the Winter 
Garden in southwest Texas were frustrated just because they 
didn't feel like they were a part of the program. Some local 
cooperatives put in bids, but were not awarded.
    Mr. Habash. We had a similar experience here in Columbus, 
where we had very--none of our local contractors got any bids, 
and so we had to depend on vendors willing to drive much larger 
distances to get any food at all in the beginning. The other 
suggestion--we organized ourselves through the Ohio Association 
of Food Banks to work on this program collectively for all 
small food banks, and you have Feeding America, with 200 food 
banks across the country, and thousands and thousands of 
agencies that are all doing this every day, so that system 
works really well in this country.
    Mrs. Hayes. Thank you. My time has expired, but I just have 
one last question, if you could just say yes or no? Connecticut 
received boxes as part of this program, but everyone I have 
talked to says that the best way for government to keep 
families fed is to bolster the SNAP Program by 15 percent. Do 
you agree?
    Mr. Cooper. Yes.
    Mrs. Hayes. Thank you.
    Mr. Habash. Absolutely.
    Mrs. Hayes. I yield back. Thank you.
    The Chair. Thank you. Mr. Bacon, you are recognized for 3 
minutes.
    Mr. Bacon. Thank you, Madam Chair. Mr. Cooper, would you 
say the Farm to Table Program is doing a good job alleviating 
hunger in your area?
    Mr. Cooper. Yes. It is a fabulous program to be able to get 
the type of dairy, protein, and produce to families.
    Mr. Bacon. Would you like more of it?
    Mr. Cooper. Absolutely. It is not meeting the demand that 
we see in our lines.
    Mr. Bacon. Mr. Cooper, same questions. Is it alleviating 
hunger, and would you like more of it?
    Mr. Habash. You mean Matt?
    Mr. Bacon. Or Mr. Habash, sorry. My fault.
    Mr. Habash. Thank you, Congressman. Yes, the answer is yes. 
I mean, without a doubt, we need the food stamp program, and we 
need additional food, people that don't qualify for food stamps 
that are asking for help, so what are we supposed to do? We 
need the food. The answer is yes, we can use it. We are big 
into food as help as a strategy. This program helps do that.
    Mr. Bacon. There were some comments that some of the food 
comes in a little old. Would you say that a lot of the food, 
though, was more fresh than maybe you get at the grocery store, 
being that it is coming straight from the farmer? I will ask 
you both. Thank you.
    Mr. Cooper. Yes. I think mostly the same quality. It is 
just it was super convenient to have the produce packed in the 
boxes, but not all contractor's were equal. Some of those 
boxes, they weren't packed very full, and so, once they were 
stacked on top of each other, the boxes would crush, the 
produce would get crushed, the pallets would turn over in the 
truck that was delivering it to us. They would be all falling 
over. And so just some consistencies and tightening up some of 
those processes could really improve the program, and we hope 
that USDA would consider having the contractors do that.
    Mr. Bacon. I have no doubt there could be ways to tighten 
the program. I used to live on a farm until I joined the Air 
Force, and I can tell you, there is nothing better than fresh 
tomatoes, and sweet corn, and so forth. But one last question, 
what would you say is the percentage of the produce that you 
get is actually given to people in need? Is it 90 percent, 95 
percent, 98? What would you say? Just trying to get a rough--
because, to me, that is a good gauge of success.
    Mr. Cooper. One hundred percent of the produce that we are 
receiving is going to families.
    Mr. Habash. I would say the same thing, Congressman. If it 
has come directly from a farm, it is absolutely 100 percent of 
the food. If it comes from a retail outlet that has leftovers 
that are pulling off the shelves, then you have a little bit 
of--basically shrink--that isn't going to be usable. But, come 
straight from the farms, we love product directly from the 
farms. It is in and out of our door in 24 hours.
    Mr. Bacon. That is good, because what I am hearing is there 
is not much being thrown out in that situation. What I am 
hearing is you are giving out about 100 percent of the produce, 
it is helping alleviate hunger, and you would like more. I 
appreciate your great feedback, and I yield back, Madam Chair. 
Thank you.
    The Chair. Thank you. Mr. Panetta, you are recognized for 3 
minutes.
    Mr. Panetta. Thank you, Madam Chair. I appreciate this 
opportunity. Gentlemen, thank you for your service, and I 
apologize for you not being here in front of us, but know you 
are doing a lot better job, and a lot more to the people that 
you serve than being here. I appreciate you being there, so 
thank you very much.
    Quickly, I know one of you mentioned the National Guard, 
and the benefits that they are providing there. Can you go into 
that a little bit more?
    Mr. Habash. Sure. We, very early, in Ohio asked our 
governor for National Guard support, so this is early March. We 
were lucky, as the State Association of Food Banks told us--
made a direct request for all of us. I asked for 100 National 
Guards-people. They have been here since the later part of 
March. They are scheduled to expire on August the 7th, then 
they have 2 weeks of furlough, the money has run out. We could 
not get volunteers. I have 754 volunteer slots a week to fill. 
They have filled those, they have delivered meals to seniors, 
they have stepped in and packed 27,000 emergency boxes. They 
have delivered these CFAP boxes. They are running our pantry, 
which went from 100 families a day to 700 families a day 
because of this. They have been a godsend to us, and we would 
love to keep them, because right now--well, you have to 
remember it is not all senior citizens for volunteers, some it 
is corporate, and there are corporations that are not willing 
to come back, particularly when the pandemic is rising here in 
Ohio.
    Mr. Panetta. Understood.
    Mr. Cooper. Yes, we too have gotten National Guard, and 
would not be able to maintain as many distributions as we are 
doing without them. Just because of the spike of cases, a lot 
of our volunteers are seniors, so it has been an incredible 
backbone of strength to get these food boxes to families.
    Mr. Panetta. Good, and that is exactly what I see out on 
the Central Coast of California, every week I go out to food 
distribution sites, and let me tell you, going to the sites 
that have the National Guard make it a little bit easier, a 
little smoother, and let me tell you, the people that work for 
the food banks are very thankful for their participation, so we 
will hopefully continue to work our governor to make sure that 
they stay there in California as well.
    Talk to me about the percentage of new recipients you are 
seeing come to your food banks. I know in my area it is about 
40 percent new recipients from the COVID pandemic. What are you 
guys seeing?
    Mr. Cooper. Because of our significant hospitality industry 
in San Antonio, about 50 percent of who were receiving were 
first time recipients of our food bank, and it caused us to 
really partner with hotels, restaurant associations to do some 
outreach to connect to their furloughed workers. But it is 
about 50 percent.
    Mr. Habash. Our is a little lower than that, but we can 
tell you exactly that, as of today, 27,430 new families have 
shown up that have never asked for help. We have a data 
tracking system that goes back 10 years. These are new families 
to our system that have never asked for help ever before.
    Mr. Panetta. Okay. Let me just ask this real quick question 
before my time runs out. In your opinion, what Federal food 
program has the most impact on people receiving these types of 
benefits, in your opinion?
    Mr. Cooper. The Supplemental Nutrition Assistance Program, 
SNAP, is the first line of defense, and really is super 
efficient, because it capitalizes on the existing 
infrastructure of grocery stores in rural communities and 
urban, and that is what can strengthen households' nutrition.
    Mr. Habash. Congressman, we have said here that we are not 
going to food bank our way out of hunger. At the end of the 
day, the SNAP Program is the number one. And then, as you look 
at who else doesn't qualify for SNAP because their income is 
above that, food banks are--and the pantries that we have are 
the only line of defense for them as well.
    Mr. Panetta. I appreciate that, I appreciate your service. 
I yield back. Thank you, Madam Chair.
    The Chair. Thank you. Ranking Member Conaway, in the 
absence of Mr. Johnson, do you wish to make any closing 
comments?
    Mr. Conaway. No, ma'am. I am good to go. Thank you.
    The Chair. All right. As we close, let me just ask one 
question to you both. Did you say anything today that was not 
accurate? To the best of your knowledge?
    Mr. Cooper. No.
    Mr. Habash. No.
    The Chair. So, no matter who wrote it, it was accurate?
    Mr. Habash. I guarantee we wrote it, for starters, but the 
second point is, yes, everything we have said is accurate. I 
was trying not to use any anecdotal information from anybody, 
only direct things that we knew from ourselves and the 
testimony.
    The Chair. Thank you very much. As we prepare to adjourn, 
let me just say that under the Rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional material and supplementary written 
responses from the witnesses to any question posed by a Member. 
This hearing of the Subcommittee on Nutrition, Oversight, and 
Department Operations is adjourned, and thank you all so much 
for being here today.
    Mr. Cooper. Thank you.
    [Whereupon, at 4:07 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      Supplemental Material Submitted by Hon. Marcia L. Fudge, a 
                  Representative in Congress from Ohio
[https://www.ams.usda.gov/selling-food-to-usda/farmers-to-families-
food-box/approved-contractors]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Approved Contractors for the Farmers to Families Food Box Program
    The Department of Agriculture (USDA) purchased fresh produce, 
dairy, and meat products under the Farmers to Families Food Box 
Program. We extend our appreciation to all those who submitted offers 
in support of this program.*
---------------------------------------------------------------------------
    * Editor's note: all hyperlinked items are retained in Committee 
file.

  <bullet> New Vendors for Round 2, July 1-Aug. 30 (pdf) (https://
        www.ams.usda.gov/sites/default/files/media/
---------------------------------------------------------------------------
        Round2AnnouncementofContractAwards.pdf)

  <bullet> Extended Contracts for Round 2, July 1-Aug. 30 (pdf) 
        (https://www.ams.usda.gov/sites/default/files/media/
        Round2AnnouncementContractTermExtension.pdf)

  <bullet> Contract Awards for Round 1, May 15-June 30 (pdf) (https://
        www.ams.usda.gov/sites/default/files/media/
        AnnouncementofContractAwards.pdf)
Farmers to Families Food Box Program Stickers and Banner
    Available for use by program participants.

  <bullet> Sticker (pdf) (https://www.ams.usda.gov/sites/default/files/
        media/Farmers
        toFamiliesFoodBoxSticker.pdf)

  <bullet> Banner (pdf) (https://www.ams.usda.gov/sites/default/files/
        media/Farmers
        toFamiliesFoodBoxBanner.pdf)
Map of Regions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Contracted Suppliers, By Region:

  <bullet> Mid-Atlantic Region (https://www.ams.usda.gov/selling-food-
        to-usda/farmers-to-families-food-box/approved-contractors/mid-
        atlantic)

  <bullet> Mid West Region (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/mid-
        west)

  <bullet> Mountain Plains Region (https://www.ams.usda.gov/selling-
        food-to-usda/farmers-to-families-food-box/approved-contractors/
        mountain-plains)

  <bullet> Multi-Regional (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/multi-
        regional)

  <bullet> North East Region (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/north-
        east)

  <bullet> South East Region (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/south-
        east)

  <bullet> South West Region (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/south-
        west)

  <bullet> Western Region (https://www.ams.usda.gov/selling-food-to-
        usda/farmers-to-families-food-box/approved-contractors/western)

    [Accessed August 3, 2020.]
                                 ______
                                 
      Submitted Letters and Articles by Hon. James P. McGovern, a 
Representative in Congress from Massachusetts; on Behalf of Hon. Lloyd 
            Doggett, a Representative in Congress from Texas
Letter 1
May 26, 2020

    Hon. Sonny Perdue,
    Secretary,
    U.S. Department of Agriculture
    Washington, D.C. 20250

    Dear Secretary Perdue:

    I write to express my strong objection to the U.S. Department of 
Agriculture's (USDA) decision to award Farmers to Families Food Box 
Program distribution contracts to entities lacking the operational 
capability to receive, store, and distribute requested food for 
families struggling with food insecurity.
    I am specifically requesting that you immediately issue a stop work 
order for CRE8AD8 in San Antonio, as you have reportedly already done 
with California Avocados Direct, and that thereafter you promptly 
cancel this contract. This contract was issued without a credible 
background check with a company not licensed to perform and with no 
work history indicating a capacity to perform at a time of urgent 
public need for competent delivery. CRE8AD8 was given until June 30 to 
complete distribution of the 750,000 boxes in a seven-state region, but 
to date it has apparently failed to distribute a single box.
    Images from San Antonio brought national attention to the record 
number of families facing food insecurity as a result of the economic 
fallout of the ongoing pandemic. Those with children represent some of 
the most impacted--recent reports show two in five households with 
children 12 and under are food-insecure. At a time when families need 
help the most, USDA should be prioritizing funding for experienced 
contractors with established community relationships to ensure there 
are no unnecessary delays to much needed support. A family cannot eat 
an IOU. Poor performing, inexperienced contractors risk delaying food 
delivery or even delivering spoiled dangerous food to families who need 
help now.
    USDA awarding 198 contracts in a week involved a process which 
failed to protect taxpayers, the hungry, and producers with food going 
to waste. In addition to seeking prompt answers to all of the questions 
raised by House Agriculture Subcommittee Chairs Rep. Stacey Plaskett, 
Rep. Jim Costa, and Rep. Marcia Fudge in their May 22 letter expressing 
similar concerns, I seek your responses to the following in order to 
determine how you are assuring that flaws with other companies do not 
create similar problems:

  1.  How did USDA ensure awardees had established relationships with 
            other supply chain subcontractors needed to execute the 
            Farmers to Families Food Box Program? Describe in full the 
            background check done for each awardee and provide the 
            specific results of your background check on CRE8AD8.

  2.  Prior to awarding contracts, what specific steps, if any, did 
            USDA take to ensure awardees had secured facilities to 
            protect food safety, including refrigerated transportation 
            and storage?

  3.  What is USDA doing now to ensure food safety during the contract 
            period?

  4.  What actions has USDA taken for awardees who are not fulfilling 
            contractual obligations?

  5.  Which Farmers to Families Food Box Program distribution contracts 
            have already been terminated?

  6.  Under the contract awarded to CRE8AD8, was there a daily and 
            weekly distribution requirement to ensure families are not 
            waiting on food throughout the approximately 6 week 
            contract period?

  7.  What steps have already been undertaken, if any, to ensure that 
            families receive the food that CRE8AD8 has been unable to 
            deliver since the program's distribution period began May 
            15?

    For the sake of those Texans who through no fault of their own rely 
on these meals, I look forward to your prompt action on this important 
matter.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Lloyd Doggett.
Letter 2
June 10, 2020

    Hon. Sonny Perdue,
    Secretary,
    U.S. Department of Agriculture
    Washington, D.C. 20250

    Dear Secretary Perdue:

    In the midst of the coronavirus pandemic, so many Texas families 
continue to rely on food banks for meals. I write regarding your 
unexplained failure to respond to my urgent May 26 inquiry concerning 
the Farmers to Families Food Box Program and the contract awarded to 
unqualified and unprepared San Antonio-based company, CRE8AD8. Despite 
repeated comments by your Congressional Relations office that you are 
``prioritizing a response,'' I have not received one.
    I have enclosed a San Antonio Express-News report for your review. 
As of Saturday, June 6, only the San Antonio Food Bank had received 
shipments from CRE8AD8 within the seven-state contract area that 
includes Arizona, Arkansas, Louisiana, New Mexico, Oklahoma, and Utah 
as well as Texas. Other food banks in the Southwest Region have not 
received any of the 469 total truckloads they desperately need, 
including the Central Texas Food Bank in Austin, whose inquiries to 
CRE8AD8 were ignored.
    This contract requires delivering 750,000 boxes by the end of this 
month. Recent reporting of delays and mismanagement indicate that this 
will not come close to being achieved. As I requested previously, you 
should immediately issue a stop work order, cancel the contract, and 
instead ensure that hungry families get the food they need. For the 
sake of those Texans who through no fault of their own rely on these 
meals, I look forward to your immediate action and response to my 
specific questions about the mismanagement of this matter by USDA.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Lloyd Doggett.
                               attachment
[https://www.expressnews.com/news/local/article/Food-banks-in-other-
cities-states-disappointed-15322452.php]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Food banks in other cities, states disappointed by San Antonio's 
        CRE8AD8 lack of performance
Tom Orsborn (https://www.expressnews.com/author/tom-orsborn/) June 7, 
2020 Updated: June 7, 2020 11:42 a.m.

    Food bank administrators in Texas and surrounding states are 
baffled by the lack of communication and food boxes from a San Antonio 
events planning company that landed a $39 million Federal contract to 
provide food relief.
    While many U.S. Department of Agriculture contractors in the 
agency's Farmers to Families Food Box Program began making shipments 
shortly after the start of the distribution period on May 15, the first 
delivery from Gregorio Palomino's CRE8AD8--pronounced ``create a 
date''--didn't come until May 28.
    After the completion of that first delivery--235 boxes out of a 
total of 750,000 required under the contract--Palomino posted on his 
personal Facebook page that ``tens of thousands'' of food boxes would 
be ``landing next week throughout TX, UT, AZ, OK, LA, AR & NM!''
    It didn't happen.
    ``They were supposed to ramp up right away, and here we are almost 
3 weeks after the start time and we've got nothing,'' said Tom Kertis, 
President and CEO of St. Mary's Food Bank in Phoenix. ``All this money 
was poured into one provider, and they are not delivering.''
    ``In the meantime, people aren't getting food because (CRE8AD8) 
wasn't prepared.''
    As of Saturday, only the San Antonio Food Bank had received 
shipments from CRE8AD8, which has until June 30 to deliver all 750,000 
food boxes within a seven-state area that includes Arizona, Arkansas, 
Louisiana, New Mexico, Oklahoma and Utah as well as Texas.
    Through Saturday, the San Antonio Food Bank has received 4,121 
total boxes: 2,747 filled with fruits and vegetables from San Antonio's 
Avila Produce and 1,374 containing precooked chicken from Gourmet Foods 
of Rancho Dominguez, Calif., according to bills of lading.
    Of the 469 truckloads of food CRE8AD8 is contracted to deliver in 
the seven-state region, the San Antonio Food Bank is scheduled to 
receive 57. The boxes typically weigh between 17 and 25 pounds each.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          San Antonio Food Bank employee Victor Mariscal unloads 
        pallets of produce boxes delivered by Avila Produce, Friday, 
        June 5, 2020. The delivery is part of CRE8AD8's $39 million 
        Federal contract to deliver 750,000 boxes of produce, dairy and 
        protein by the end of June to a seven-state area. Friday's 
        shipment brought the total to 4,121 boxes delivered to the food 
        bank so far; no boxes have been sent to food banks in other 
        cities yet.
          Photo: Jerry Lara/San Antonio Express-News.

    The Food Bank is scheduled to receive more boxes of protein from 
CRE8AD8 next week.
    ``We are 3 weeks into the 6 week program and we have received 3\1/
2\ truckloads of the 57 we hope to use to feed our families,'' said 
Eric Cooper, President and CEO of the Food Bank. ``I guess we are lucky 
to have received the 3\1/2\ as the other food banks in the Southwest 
Region have not received any of the 469 they desperately need.''
    Palomino, who has boasted of heading ``an internationally 
recognized'' business ``with a global footprint,'' did not respond to 
requests for comment.
    Lauren Lear, identified as CRE8AD8's ``dispatch manager'' on a bill 
of lading, also declined interview requests.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          CRE8AD8 Dispatch Manager Lauren Lear, left, talks with Dayna 
        Robokowski, the San Antonio Food Bank produce procurement 
        manager, after delivering several pallets of produce boxes at 
        the Food Bank on Friday, June 5, 2020.
          Photo: Jerry Lara/San Antonio Express-News.

    Palomino traveled to California last week to broker deals with food 
purveyors. CRE8AD8's credit payment terms have ranged from 30 to 60 
days, said purveyors in Texas who had preliminary negotiations with the 
company but declined to go forward because they didn't want to extend 
credit to an inexperienced company and other reasons.
    ``Many of these people want everything up-front,'' Palomino wrote 
in an email to a consultant in Arizona who shared it with the Express-
News. ``I'm not against it, but people think that we just have money in 
the bank like that.''
    The USDA required that bidders show proof of ``adequate financial 
resources to perform the contract or the ability to obtain them.'' A 
USDA spokesperson said contractors are paid ``upon the submission and 
approval of an invoice evidencing delivery.''
    The Federal agency handed out nearly 200 contracts worth $1.2 
billion for the food box program, which calls for contractors to buy up 
surplus food from farmers and ranchers, pack it into boxes and deliver 
it to food banks and other nonprofits to assist people reeling from the 
COVID-19-triggered recession.
    CRE8AD8 won the contract despite having no experience in food 
distribution and lacking a Perishable Agricultural Commodities Act 
(PACA) license, which the USDA likens to a driver's license for 
operating a produce business.
    CRE8AD8 has since acquired a PACA license, receiving it just days 
after it submitted an application. The process usually takes weeks to 
complete, industry veterans said.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          A box of produce filled with white onions, oranges, zucchini 
        and other vegetables and fruits is part of a shipment of 
        produce delivered by Avila Produce to the San Antonio Food Bank 
        on Friday, June 5, 2020. The delivery is part of San Antonio 
        CRE8AD8's $39 million USDA contract to deliver 750,000 boxes of 
        produce and protein by the end of June to a seven-state area as 
        part of a new food relief program.
          Photo: Jerry Lara/San Antonio Express-News.

    With CRE8AD8 lacking contacts within the food bank industry, Cooper 
helped the company develop a distribution schedule. On May 15, he 
presented CRE8AD8 with a plan calling for deliveries to 23 food banks 
in Texas, Arizona, Arkansas, Louisiana, New Mexico, Oklahoma and Utah.
    ``The USDA is bringing these non-industry partners to the table, 
and we are having to help them with the learning curve,'' Cooper said.
    Cooper's plan included the number of truckloads for each food bank; 
the number of boxes in each of the produce, protein and dairy 
categories; addresses and contact information for food bank employees.
    After receiving input from CRE8AD8, the plan was revised ``several 
times'' before it was ``finalized'' May 27, Cooper said. The revisions 
centered on overcoming logistical challenges, mainly involving what is 
known in the food bank industry as ``last-mile issues,'' Cooper said.
    ``They were supposed to then reach out to the (food banks) and 
coordinate the deliveries,'' Cooper said of CRE8AD8.
    But food bank administrators throughout the seven-state region that 
should be served by CRE8AD8 said they have not heard from the company.
    ``I've moved on and I am working with those vendors who are 
communicating with me,'' said Denise Blok, chief operating officer of 
the Central Texas Food Bank in Austin, which is supposed to receive 
three truckloads from CRE8AD8.
    Blok said she called CRE8AD8 shortly after the USDA announced May 8 
it had given the company the contract.
    ``Nobody has ever gotten in touch with us,'' Blok said ``There is 
frustration, especially because it is someone that is (geographically) 
close to us. To not hear from a single person from the company, that is 
a little discouraging.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          San Antonio Food Bank warehouse receiver Servando Ramirez 
        checks out a load of produce delivered by Avila Produce on 
        Friday, May 5, 2020. The delivery is part of CRE8AD8's $39 
        million Federal contract to deliver 750,000 boxes of produce 
        and protein by the end of June to a seven-state area.
          Photo: Jerry Lara/San Antonio Express-News.

    Trisha Cunningham, President and CEO of the North Dallas Food Bank 
in Plano, described a similarly frustrating experience with CRE8AD8. 
The North Dallas Food Bank should receive nine truckloads from CRE8AD8.
    ``The (North Dallas Food Bank) has requested food from the company, 
but to date, we have not received any product,'' Cunningham said. ``We 
are hopeful they will be able to deliver on the requested product so we 
can use this food to feed our community.''
    St. Mary's Food Bank in Phoenix was told it would receive 24 
truckloads from CRE8AD8. In need of protein boxes, Kertis said he 
reached out to Gourmet Foods to see if CRE8AD8 could provide it with 
boxes of precooked chicken.
    Gourmet Foods' reply left Kertis crestfallen.
    ``I was told they are going to focus on Texas, and they might 
schedule a load for (delivery to Phoenix) at the end of the month,'' 
Kertis said. ``The program ends at the end of the month, so in effect 
we have virtually no meat items.''
    Kertis said he's puzzled as to why CRE8AD8 is focused on delivering 
so many boxes of chicken and pork to Texas when it would be cheaper to 
ship to Phoenix.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          CRE8AD8 Dispatch Manager Lauren Lear, second from right, 
        talks with Dayna Robokowski, the San Antonio Food Bank produce 
        procurement manager, second from left, as pallets of produce 
        boxes are unloaded, Friday, June 5, 2020. The delivery is part 
        of the CRE8AD8's $39 million USDA contract to deliver 750,000 
        boxes of produce, protein and dairy by the end of June in a 
        seven-state area for a new national food relief program.
          Photo: Jerry Lara/San Antonio Express-News.

    ``They are coming out of L.A., and it's about a 6 to 7 hour drive 
out of L.A.,'' he said. ``The cost would be lower, and they would 
spread the wealth around a little bit. But it doesn't sound like they 
want to do it. It's unfortunate.''
    Eric Kopelow, chief operating officer for Gourmet Foods, said the 
company's ``first obligation is to the San Antonio Food Bank,'' 
according to its agreement with CRE8AD8.``Phoenix is a secondary 
location,'' Kopelow said.

          Tom Orsborn covers sports news in the San Antonio and Bexar 
        County area. To read more from Tom, become a subscriber. 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="45312a3736272a372b05203d3537203636682b2032366b2b2031">[email&#160;protected]</a> D Twitter: @tom--orsborn.
Letter 3
June 15, 2020

    Hon. Lloyd Doggett,
    U.S. House of Representatives,
    Washington, D.C. 20515

    Dear Congressman Doggett:

    Thank you for your letter of May 26 and June 10, 2020, with 
questions about the U.S. Department of Agriculture's (USDA) Farmers to 
Families Food Box Program (FFFBP). The following is background about 
the program and answers to your specific questions.
    FFFBP is a new, innovative program designed to provide critical 
support to American farmers and families in response to the COVID-19 
pandemic. To address the immediate food needs of newly unemployed 
Americans and respond to the crisis of food rotting in fields and 
animals being euthanized, USDA moved expeditiously to stand up the 
program and begin new pipelines of support to communities across the 
nation.
    The goal of FFFBP is to allow producers to sell food previously 
destined for restaurants and other bulk purchasers to suppliers--
preventing waste--while helping Americans in need during the COVID-19 
pandemic. The program is designed to put American farmers and 
distributors of all sizes back to work while supporting burdened food 
banks, community and faith-based organizations, as well as other 
nonprofits serving Americans in need. USDA prioritized working with 
impacted organizations of all sizes and across all regions of the 
United States to ensure maximum positive impact of the program.
    USDA is committed to ensuring the integrity of the program and 
administrating it in an efficient and cost-effective way. Outlined 
below is information about the structure of the purchase program and 
the safeguards put in place to protect taxpayers' funds and ensure that 
relevant laws and regulations are being followed.
    Utilizing contracting flexibilities provided by Federal Acquisition 
Regulation (FAR) Part 18 during an emergency declaration, USDA designed 
a process to rapidly vet and approve contractors to participate in the 
program. The vetting process relied on answers to a Request for 
Proposals. Offerors described the capabilities they had for achieving 
performance under the contract.
    Demonstrations of this capability included, but were not limited 
to, commercial experience; business ethics and integrity standards; 
food safety and/or regulatory audits; inspections, certifications and 
approvals; and a demonstration of financial capability to perform.
    USDA evaluated the offeror's ability to responsibly execute the 
requirements of the contract as they pertain to administrative, 
ethical, safety, compliance, and financial prowess of the offeror. As 
part of USDA's standard internal controls, the acquisition will be 
reviewed for compliance to the solicitation and Federal regulations.
    In addition, the Contracting Officer is monitoring the performance 
of the contractors. If there are concerns, contractual remedies may be 
used, which could include termination. USDA has chosen to exercise this 
right in at least two situations and will not hesitate to do so if 
circumstances warrant such a response.

  1.  How did USDA ensure awardees had established relationships with 
            other supply chain subcontractors needed to execute the 
            Farmers to Families Food Box Program? Describe in full the 
            background check done for each awardee and provide the 
            specific results of your background check on CRE8AD8.

        Like other Federal contracts administered by USDA, the FFFBP 
            and its awardees require strict adherence to the FAR and 
            other regulations. All proposals were carefully reviewed by 
            a team of contracting and technical experts, and contracts 
            made accordingly.
        Proposals for the FFFBP were evaluated by (in descending order 
            of importance) the technical information; past performance 
            of the offeror; the offeror's capability to perform; and 
            the prices offered. Offerors must have met all criteria in 
            order to be competitive and must have, or be able to 
            acquire, a Perishable Agricultural Commodities Act (PACA) 
            license to comply with the contractual requirement.
        As part of the proposal, offerors, including CRE8AD8, described 
            their capabilities for achieving performance under the 
            contract. Demonstrations of this capability included, but 
            were not limited to, commercial experience; business ethics 
            and integrity standards; food safety and/or regulatory 
            audits, inspections, certifications and approvals; and a 
            demonstration of financial capability to perform.
        Each awarded offeror provided three past performance references 
            for similar contract/orders completed within the past 3 
            years (or contracts and orders which were currently being 
            completed).
        The program was dependent upon relationships between 
            contractors, subcontractors, nonprofit and other 
            governmental organizations, taking advantage of the 
            marketplace and natural supply chains.
        An important point to make about the program is that 
            contractors are only paid for the food boxes they 
            successfully deliver. Each offeror provided an estimate of 
            how many boxes they could assemble and deliver. If the 
            entity falls behind in the volume promised, USDA 
            contracting staff have the ability to take appropriate 
            action.

  2.  Prior to awarding contracts, what specific steps, if any, did 
            USDA take to ensure awardees had secured facilities to 
            protect food safety, including refrigerated transportation 
            and storage?

        The prime contractor receiving an award is responsible for all 
            aspects of contract performance. The aspects of performance 
            include, but are not limited to, sourcing product for 
            inclusion in boxes; conducting all aspects of preparing the 
            boxes; sourcing and communicating with nonprofits; and 
            transporting and delivering of boxes to the nonprofit on a 
            mutually agreeable, recurring schedule. It was anticipated 
            that a number of firms would need to subcontract some 
            element of their plan, including supply, handling or 
            delivery. Please see answers to Question 3 for additional 
            information about oversight.

  3.  What is USDA doing now to ensure food safety during the contract 
            period?

        As previously mentioned, as part of the proposal, offerors 
            described their capabilities for achieving performance 
            under the contract. Demonstrations of this capability 
            included, but were not limited to, commercial experience; 
            business ethics and integrity standards; food safety and/or 
            regulatory audits, inspections, certifications and 
            approvals; and a demonstration of financial capability to 
            perform.
        Ensuring that the food for the FFFBP is handled in a safe 
            manner is critical to the success of the program. USDA will 
            provide oversight throughout the contract period, 
            conducting audits to ensure food safety plans are followed, 
            contract terms are fulfilled, and only quality domestic 
            produce is provided and delivered to nonprofits and 
            governmental agencies in support of Americans in need. 
            There are multiple actions available to the Contracting 
            Officer for non-conformance, including contract 
            termination.

  4.  What actions has USDA taken for awardees who are not fulfilling 
            contractual obligations?

        A key performance indicator in which contractors will be 
            measured is successful delivery of quality food boxes. If 
            contractors are not meeting their commitments, the 
            contracting staff has the ability to adjust the contract 
            accordingly, including termination of the contract.

  5.  Which Farmers to Families Food Box Program distribution contracts 
            have already been terminated?

        USDA has terminated two contracts to date. The contracts were 
            with Ben Holtz Consulting and Fossil Creek Farms.

  6.  Under the contract awarded to CRE8AD8, was there a daily and 
            weekly distribution requirement to ensure families are not 
            waiting on food throughout the approximately 6 week 
            contract period?

        There were no daily or weekly contractual requirements for 
            delivery; however, the contractor is required to deliver 
            the product within the 6 week delivery period. The 
            expectation is that the contractor will work with the 
            recipients to ensure deliveries are made on a mutually 
            agreeable schedule. If contractors do not meet promised 
            delivery schedules, contracting staff have remedies 
            available, including contract termination.

  7.  What steps have already been undertaken, if any, to ensure that 
            families receive the food that CRE8AD8 has been unable to 
            deliver since the program's distribution period began May 
            15?

        It is important to note that more than 1.126 million boxes have 
            been delivered to various parts of Texas as of June 1, 
            2020. However, as USDA looks ahead to the end of the 
            initial round of the FFFBP contracts worth $1.2 billion on 
            June 30, 2020, USDA is exploring options to continue 
            serving American farmers and families up to the program's 
            $3 billion authorization. USDA may extend current contracts 
            or award additional contracts to ensure that under-served 
            areas are provided an opportunity to participate in the 
            program. Some contracts may not be extended based on vendor 
            performance.

    Initial program feedback has been incredibly positive. USDA is 
committed to the program's success and is optimistic it will have 
meaningful impact for the many customers it serves. I look forward to 
keeping you and your Congressional colleagues updated on its 
contributions.
    If you have any further questions, please have a member of your 
staff contact the Office of Congressional Relations and 
Intergovernmental Affairs at [Redacted].
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Sonny Perdue,
Secretary.
Article 1
[https://www.expressnews.com/opinion/editorials/article/Editorial-
Investigate-USDA-food-box-contracts-15278828.php]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Editorial: Investigate USDA food box contracts
Express-News Editorial Board May 18, 2020
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Gregorio Palomino, CEO of CRE8AD8, received a $39 million 
        Federal contract to create and distribute food boxes to food 
        banks and nonprofits--but failed to deliver. A reader wonders 
        how much of that contract he received.
          Photo: Bob Owen/Staff photographer.

    Although it has just begun, the USDA's Farmers to Families Food Box 
Program is off to a disturbing start, one that appears to be a betrayal 
of taxpayers and unlikely to deliver for Americans in need.
    Many questions have been raised about the contracts the U.S. 
Department of Agriculture has awarded to companies to package and 
distribute produce, dairy and meat to food banks across the nation. 
Questions that are, unfortunately, best reflected in the awarding of a 
$39.1 million contract to a San Antonio-based event planning company, 
CRE8AD8 LLC (pronounced Create a date).
    Has CRE8AD8 ever distributed wholesale food to food banks and 
nonprofits? No, owner Gregorio Palomino told Express-News reporter Tom 
Orsborn.
    Does CRE8AD8 have a Perishable Agricultural Commodities ACT, or 
PACA, license?
    ``It's been applied for,'' Palomino said.
    Can CRE8AD8 hit the ground running, getting food boxes to families 
in need as quickly as possible?
    Nope. Palomino is scrambling to hire people, and hopes to be up and 
running in June.
    Does CRE8AD8 have the warehouse and logistics operations to supply 
the massive Southwestern Region, which stretches across Texas, 
Arkansas, Arizona, Louisiana, New Mexico, Oklahoma and Utah.
    We don't think so.
    ``We knew that we easily could do this because instead of putting 
tchotchkes in a bag that is going to go to a conference attendee, this 
is the same exact thing except it's just food going into a box,'' 
Palomino said.
    In principle, the Farmers to Families Food Box Program is a worthy 
idea. With the closure of restaurants and schools during the pandemic, 
the program purchases surplus dairy, meat and produce. The idea is to 
package this food into family-sized boxes and then distribute it to 
food banks. So, why not contract with known food distributors instead 
of doling out millions to an event planner?
    Other questionable awards in the $1.2 billion program include 
contracts for two meat processors under investigation and a bankrupt 
dairy producer. A number of contracts went to companies outside the 
regions they are supposed to serve.
    It's almost as if USDA doesn't care if the food makes it to those 
in need. When an event planner secures a contract like this, it's time 
for Congress to investigate.
Article 2
[https://www.expressnews.com/opinion/editorials/article/Editorial-In-
aftermath-of-CRE8AD8-failure-pain-15385155.php]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Editorial: In aftermath of CRE8AD8 failure, pain for families
Express-News Editorial Board July 4, 2020
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          CRE8AD8 owner Gregorio Palomino walks out of the San Antonio 
        Food Bank after he delivered five pallets of food boxes, 
        Thursday, May 28, 2020.
          Photo: Jerry Lara, Staff/San Antonio Express-News.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          How was Gregorio Palomino, an event planner, chosen to 
        receive a $39 million Federal contract to create and distribute 
        food boxes to food banks and nonprofits? *
---------------------------------------------------------------------------
    * Editor's note: the submitted print copy and the online version of 
this article differ in that this is the picture used for the online 
version. Both have been included in this publication.
---------------------------------------------------------------------------
          Photo: Bob Owen/Staff photographer

    Let's remember, the USDA should never have awarded a $39 million 
contract to CRE8AD8, a San Antonio event planner we wouldn't entrust 
with putting tchotchkes in a bag, let alone delivering food for 
struggling families.
    While it is welcome news the USDA won't renew its contract with 
CRE8AD8--as in ``Create A Date''--and its assailable owner, Gregorio 
Palomino, this is only a decision that prevents future harm.
    It does nothing to ease the pain Palomino's abject failure has 
created for families and communities across Texas and beyond.
    It does nothing to explain how an event planner with no experience 
in food distribution, who has misrepresented himself to the public, 
would land such a large contract at such a critical moment.
    What does harm look like? In this case, it looks like the number 
zero, which is exactly how many food boxes CRE8AD8 delivered to the 
North Texas Food Bank in Plano, and the Southeast Texas Food Bank in 
Beaumont, and the West Texas Food Bank in Odessa, and the Community 
Food Bank of Southern Arizona in Tucson, and the Utah Food Bank in Salt 
Lake City.
    ``We have received zero loads, zero boxes, zero of anything'' from 
CRE8AD8, Libby Campbell, executive director of the West Texas Food 
Bank, told Express-News reporter Tom Orsborn.
    Even in those instances when CRE8AD8 delivered something, it was 
inadequate. At the San Antonio Food Bank, which has been serving 
120,000 people a week in this crisis, CRE8AD8 was supposed to deliver 
57 truckloads of food. It delivered an estimated 22.
    Likewise, it was supposed to deliver 87 truckloads to the Houston 
Food Bank, but it only came through with 15.
    Every failure by CRE8AD8 had the potential to leave someone hungry. 
This was a contract for 750,000 boxes of food through the USDA's deeply 
flawed $3 billion Farmers to Families Food Box Program. It should have 
gone to a proven supplier, and our Congressional delegation needs to 
keep pressing on why it didn't.
    As we have learned since the contract was awarded in May, Palomino 
has brazenly misrepresented himself and his company, claiming 
associations that were not true--and were easily checked.
    We learned this thanks to dogged reporting from Orsborn, who in 
normal times covers sports, but in this moment of crisis has chronicled 
food insecurity. Stories like these are why local news matters.
    Bigger picture, we can't help but wonder if the Farmers to Families 
Food Box Program is really the best approach to feeding the hungry. 
With schools and restaurants closing during this pandemic, the program 
purchases surplus dairy, meat and produce. These items are packaged 
into family-size boxes and then distributed to food banks.
    While that sounds promising, it has opened the door to questionable 
contracts. Besides, if the primary goal is to feed the hungry and ease 
overburdened food banks, it would make more sense to funnel these funds 
to the Supplemental Nutrition Assistance Program, providing direct 
support to families and allowing them to shop at grocery stores rather 
than wait in distribution lines.
    We're relieved CRE8AD8's contract wasn't renewed. But if feeding 
families is the priority, how on earth did Palomino land this contract?
                                 ______
                                 
Submitted Letters by Hon. Abigail Davis Spanberger, a Representative in 
                         Congress from Virginia
                                letter 1
June 15, 2020

  Hon. Sonny Perdue,
  Secretary,
  United States Department of Agriculture
  Washington, D.C.

    Dear Secretary Perdue,

    We write today to express our grave concerns about the distribution 
of contracts under the Farmers to Families Food Box Program. While we 
sincerely appreciate USDA's efforts to quickly provide relief to 
farmers and those without adequate access to food through the creation 
of the program, we are concerned that the Commonwealth of Virginia has 
received a disproportionately small share of food through this program 
under the contracts awarded to date.
    Under contracts awarded by the program, it is our understanding 
that the Feeding America food bank network in Virginia is only expected 
to receive 2.3 million pounds of food relief. This quantity is far less 
than the amount that would be allocated if the program were 
administered under the same formula utilized by The Emergency Food 
Assistance Program (TEFAP), which distributes food relief proportional 
to each state's needs. Had aid been allocated under the TEFAP formula, 
we would expect Virginia to receive approximately 5.3 million pounds 
out of the 264 million pounds of product distributed in the first 
contract period.
    We are also deeply concerned that only one food distributor in the 
state, DeLune Corp, was awarded a contract through the program in the 
first round of approvals. While we are grateful for the speed with 
which the first round of awards was distributed, we are concerned that 
Virginia is currently under-serviced by participating distributors. 
Food banks across Virginia have reported difficulty receiving aid 
through the program, especially in our rural communities, even as 
demand for food assistance continues to rise alongside growing 
unemployment, economic uncertainty, and the ongoing public health 
crisis.
    Given these concerns, we ask that you provide answers to the 
following questions:

  1.  1. What formula did USDA use to decide how to allocate food under 
            the Farmers to Families Food Box Program? Why did USDA 
            choose not to utilize the existing need-based method used 
            by the TEFAP Program?

  2.  In awarding the first round of contracts, what steps, if any, did 
            USDA take to ensure that all geographic areas were 
            serviced? Will USDA commit that when awarding future rounds 
            of contracts, steps are taken to ensure that all geographic 
            regions are served by the program and receive aid 
            proportional to the region's need?

  3.  Before the first round of contracts, did USDA conduct any 
            outreach to individual food banks or food bank networks to 
            assess their needs, level of increased demand, or any other 
            concerns they might have about the program's 
            administration? Will USDA commit to conducting outreach to 
            food banks to assess their needs ahead of any future rounds 
            of funding?

    We are truly grateful for the USDA's swift actions to set up the 
Farmers to Families Food Box Program. Like many regions, Virginia has 
seen dramatic increases in the number of those suffering from food 
insecurity. We believe that the Farmers to Families Food Box Program 
can be an essential lifeline for those who need it, and we stand ready 
to help ensure that this critical relief program is administered in a 
manner that is fair, equitable, and best reflects the needs of 
communities across the country.
    We thank you for your attention to this important matter and look 
forward to your response.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Abigail D. Spanberger,
Member of Congress.

    Other members signing this letter:

/s/
Hon. Elaine G. Luria,
Member of Congress

/s/
Hon. A. Donald McEachin,
Member of Congress

/s/
Hon. Gerald E. Connolly,
Member of Congress

/s/
Hon. Robert C. ``Bobby'' Scott,
Member of Congress

/s/
Hon. Jennifer Wexton,
Member of Congress.
                                letter 2
June 29, 2020

  Hon. Abigail Davis Spanberger,
  Member,
  U.S. House of Representatives,
  Washington, D.C.

    Dear Congresswoman Spanberger:

    Thank you for your letter of June 15, 2020, cosigned by your 
colleagues, with questions about the U.S. Department of Agriculture's 
(USDA) Farmers to Families Food Box Program (FFFBP). Provided below is 
background information about the program and answers to your specific 
questions.
    FFFBP is a new, innovative program designed to provide critical 
support to American farmers and families in response to the COVID-19 
pandemic. To address the immediate food needs of newly unemployed 
Americans and respond to the crisis of food rotting in fields and 
animals being euthanized, USDA moved expeditiously to stand up the 
program and begin new pipelines of support to communities across the 
Nation.
    The goal of FFFBP is to allow producers to sell food previously 
destined for restaurants and other bulk purchasers to suppliers-
preventing waste-while helping Americans in need during the COVID-19 
pandemic. The program is designed to put American farmers and 
distributors of all sizes back to work while supporting burdened food 
banks, community and faith-based organizations, as well as other non-
profits serving Americans in need. USDA prioritized working with 
impacted organizations of all sizes and across all regions of the 
United States to ensure maximum positive impact of the program.
    Utilizing contracting flexibilities provided by Federal Acquisition 
Regulation (FAR) Part 18 during an emergency declaration, USDA designed 
a process to rapidly vet and approve contractors to participate in the 
program. The vetting process relied on answers to a Request for 
Proposals. Offerors described the capabilities they had for achieving 
performance under the contract.
    Demonstrations of this capability included, but were not limited 
to, commercial experience; business ethics and integrity standards; 
food safety and/or regulatory audits; inspections, certifications and 
approvals; and a demonstration of financial capability to perform.
    USDA evaluated the offeror's ability to responsibly execute the 
requirements of the contract as they pertain to administrative, 
ethical, safety, compliance, and financial prowess of the offeror. As 
part of USDA's standard internal controls, the acquisition will be 
reviewed for compliance to the solicitation and Federal regulations.
    An important point to make about the program is that contractors 
are only paid for the food boxes they successfully deliver. Each 
offeror provided an estimate of how many boxes they could assemble and 
deliver. If the entity falls behind in the volume promised, USDA 
contracting staff have the ability to take appropriate action.

  1.  What formula did USDA use to decide how to allocate food under 
            the Farmers to Families Food Box Program? Why did USDA 
            choose not to utilize the existing need-based method used 
            by the TEFAP Program?

        Proposals for the FFFBP were evaluated by (in descending order 
            of importance) the technical information; past performance 
            of the offeror; the offeror's capability to perform; and 
            the prices offered. Offerors must have met all criteria in 
            order to be competitive and must have, or be able to 
            acquire, a Perishable Agricultural Commodities Act (PACA) 
            license to comply with the contractual requirement.
        As part of the proposal, offerors described their capabilities 
            for achieving performance under the contract. 
            Demonstrations of this capability included, but were not 
            limited to: commercial experience; business ethics and 
            integrity standards; food safety and/or regulatory audits, 
            inspections, certifications and approvals; and a 
            demonstration of financial capability to perform.
        Each vendor awarded a contract provided three past performance 
            references for similar contract/orders completed within the 
            past 3 years (or contracts and orders which were currently 
            being completed). The amounts and locations awarded were 
            based on the offers received and the evaluation of those 
            offers.

  2.  In awarding the first round of contracts, what steps, if any, did 
            USDA take to ensure that all geographic areas were 
            serviced? Will USDA commit that when awarding future rounds 
            of contracts, steps are taken to ensure that all geographic 
            regions are served by the program and receive aid 
            proportional to the region's need?

        USDA is exploring options to continue serving American farmers 
            and families up to the program's $3 billion authorization. 
            USDA plans to extend current contracts and award additional 
            contracts to ensure that under-served areas are provided an 
            opportunity to participate in the program. Using emergency 
            procedures for under-served areas, USDA plans to issue 
            additional contracts by drawing on the pool of original 
            proposals submitted.

  3.  Before the first round of contracts, did USDA conduct any 
            outreach to individual food banks or food bank networks to 
            assess their needs, level of increased demand, or any other 
            concerns they might have about the program's 
            administration? Will USDA commit to conducting outreach to 
            food banks to assess their needs ahead of any future rounds 
            of funding?

        FFFBP provides a new approach to support American farmers and 
            families, and USDA moved as expeditiously as Federal 
            procurement rules allow to stand up the program and solicit 
            offers. While many conversations took place with nonprofit 
            organizations during the 3 weeks between the announcement 
            of the program and the award of contracts, the short 
            timeframe to begin much needed shipments of produce did not 
            allow for extensive dialogue. Nonprofit organizations will 
            work directly with suppliers to determine details regarding 
            delivery, including volume and delivery schedules.
        Any entity that provides to their local supplier proof of its 
            501(c)(3) tax exempt status or is a government entity 
            (e.g., school food authority, Indian Tribe, etc.) and who 
            can demonstrate that they have the operational and 
            financial capability to receive, store, and distribute 
            requested food items is eligible to participate. Nonprofit 
            organizations can contact the supplier that has been 
            awarded the contract for their service area to see if they 
            can partner and participate in the program. The list of 
            suppliers that have been awarded contracts is available on 
            USDA's website.

    Initial program feedback has been incredibly positive. USDA is 
committed to the program's success and optimistic it will have 
meaningful impact for the many customers it serves. I look forward to 
keeping you and your Congressional colleagues updated on its 
contributions.
    If you have any further questions, please have a member of your 
staff contact the Office of Congressional Relations and 
Intergovernmental Affairs at [Redacted]. A similar letter has been sent 
to your colleagues.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Sonny Perdue,
Secretary.
                                 ______
                                 
Submitted Statement by Hon. Dusty Johnson, a Representative in Congress 
  from South Dakota and Hon. K. Michael Conaway, a Representative in 
  Congress from Texas; on Behalf of Mollie Van Lieu, Senior Director, 
           Nutrition Policy, United Fresh Produce Association
Review USDA's Farmers to Families Food Box Program
    When COVID hit the U.S. in March, it brought with it an 
unprecedented scenario: a dramatic increase in the number of vulnerable 
and hungry people, food banks struggling to meet the demand to feed 
them, and an overnight disruption in the fresh produce supply chain 
with the closures of restaurants, schools, and food-service which wiped 
out the customer base of 40 percent of fresh produce. As food banks 
worked tirelessly privately to serve clients, and the industry worked 
to divert highly perishable produce to food banks and grocery stores, 
it became clear that the Federal Government was not equipped to provide 
immediate assistance to this devastating situation.
    Over the course of next 2 months, USDA developed a program to 
deploy a supply chain that has worked behind the scenes for years in 
getting Americans and the world fresh, nutrition produce; growers 
provide their fresh fruits and vegetables to distributors that pack and 
deliver consumer-ready fresh produce to the end-user. In the case of 
Farmers to Families, the consumer was food banks and other emergency 
feeding nonprofits, which could then distribute the family-style boxes 
directly to clients in need. What resulted was not perfect but 
represents a historic investment in fresh produce purchases by the 
Federal Government.
    Given the speed in which the government created a program, and its 
relative inexperience with working with the full supply chain--there 
were instances where the bidding did not work as it should. For 
example, companies with no prior experience doing this highly 
specialized work were awarded contracts in award amounts that would 
have been better utilized spread across several companies. Highly 
qualified companies that continue to face devastation have not been 
awarded. In other cases, food banks were left shouldering costs they 
did not anticipate. However, by the end of this summer, USDA will have 
purchased $1.7 billion in domestic fresh produce and fresh produce 
mixed boxes. This represents a larger purchase in 4 months than USDA 
has made on fresh purchases in the past several years--combined.
    As told in the attached letter by a number of awarded Farmers to 
Families companies that the Agriculture Committee represents, when the 
program is executed as intended--it is a win, win, win for the supply 
chain, food banks, and the clients they serve. COVID has brought--and 
continues to bring--exceptional challenges to the supply chain that 
Farmers to Families cannot alone fix. But it has provided a lifeline to 
many distributors and a customer base for domestic growers that 
continue to struggle.
    We are hopeful that this initiative continues to evolve and improve 
so that we are better prepared should an emergency like this occur 
again. When implemented as a complement to the SNAP program, a program 
like this serves to help stabilize the supply chain while also 
diverting food to those in need. It has shown that there is an 
incredible demand for this high-quality, nutrient-dense food, and that 
the nation has the supply chain in place to serve our nation's most 
vulnerable, even beyond this crisis, to help ensure that all Americans 
have access to fruits and vegetables.
                               attachment
July 27, 2020

 
 
 
Hon. Collin C. Peterson,             Hon. K. Michael Conaway,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.;
 
Hon. Marcia L. Fudge,                Hon. Dusty Johnson,
Chair,                               Ranking Minority Member,
Subcommittee on Nutrition,           Subcommittee on Nutrition,
 Oversight, and Department            Oversight, and Department
 Operations,                          Operations,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Peterson, Ranking Member Conaway, Chair Fudge, and 
Ranking Member Johnson:

    On behalf of the undersigned distributors participating in the 
Farmers to Families Program that are constituents of Members of the 
House Agriculture Committee--we wish to thank you for your efforts to 
ensure the program is run efficiently and effectively and share your 
commitment to the u[t]most accountability of the program. Additionally, 
we also share your belief that this program alone cannot solve hunger 
and, accordingly, support an increase in SNAP benefits.
    When COVID-19 closures hit restaurants, schools, and food-service 
in March--the industry faced an emergency overnight--as 40 percent of 
fresh produce goes to these sectors. The fresh produce supply chain 
already runs on razor thin margins, and given that many of us primarily 
serve food-service customers, this was devastating. While we worked 
privately to divert product to retail and direct-to-consumer to retain 
our workforce and continue to support growers, it was clear that the 
private-sector alone could not address the crisis and the Federal 
Government did not have a turnkey solution to address highly perishable 
products like ours.
    At the same time, unemployment was rising and our neighbors were 
facing growing food insecurity, putting immense pressure on our local 
food banks. Our companies represent a critical part of the supply chain 
that--until recently--was mostly hidden from the public eye despite our 
role in getting farm-fresh produce to consumers 365 days a year. Most 
fresh produce distributors are small businesses with deep commitments 
to our communities.
    When the Farmers to Families program was launched nearly 2 months 
later, it provided an unprecedented lifeline for our businesses and an 
opportunity to support our neighbors. The bidding process was lightning 
fast and was not without its challenges and shortcomings. Many of our 
peers that were just as deserving were not awarded, and in most cases, 
the demand for food at food banks surpasses the awards that were given 
to us by USDA. Despite those facts, the impact that these awards have 
had on our businesses and communities cannot go understated. We have:

  <bullet> delivered an unprecedented amount of nutrient-dense fresh 
        produce that has never been available through USDA purchasing 
        programs previously (More than 95% of USDA purchases are non-
        fresh)

  <bullet> hand-packed and delivered consumer-ready boxes to minimize 
        food banks' and their clients' physical contact

  <bullet> supported domestic and local growers

  <bullet> retained and hired employees

  <bullet> fed hundreds of thousands of families during a time where 
        many had few options of where to turn in their time of need
Provides Efficient, Effective, and Safe Delivery
    Our companies are highly skilled at procuring, packing, and 
distributing fresh produce. As Eric Cooper from the San Antonio Food 
Bank so eloquently stated at the July 21, 2020 hearing ``not all 
contractors are equal''. In about a week's time from being notified 
that we were awarded, our companies were able to deliver our first 
round of deliveries. This is because we had existing relationships with 
growers, our own facilities, established skill-sets, delivery vehicles, 
and a talented workforce. Our employees are highly trained at food 
safety measures and moving perishable food efficiently and effectively 
and we believe the end product that we are delivering to food banks and 
nonprofits reflects this. Contrary to some statements at the July 21, 
2020 hearing, most of us are making direct deliveries to sites per the 
mutually-agreeable terms of the contract.
    To date, our companies have delivered more than one million boxes 
with commodities including fresh apples, blueberries, butternut squash, 
kale, strawberries, parsnips, peaches, sweet corn, sweet potatoes, 
onions, romaine lettuce, honeydew, nectarines, radishes, artichokes, 
and so much more.
Supports Local Jobs and Economy
    As previously stated, most of us are small businesses with deep 
roots in our community. Our employees are valued members and keeping 
them employed was top priority. The Farmers to Families program allowed 
us to retain and, in some cases, hire employees.
Supports Farmers
    We of course are just one piece in this puzzle. Our valued grower 
partners have also faced devastation as a result of the shutdown of 
restaurants, schools, and food-service and we are proud to work with 
them to help pack and deliver their produce to those in need. As 
seasonally and geographically available, we make every effort to 
procure local produce. All boxes are filled with domestic, American-
grown fruits and vegetables. The type of commodities included in our 
boxes evolve as the growing season provides additional variety, 
allowing for more access to locally grown produce.
    Farmers to Families has provided a direct solution for some growers 
that would have otherwise disked up their fields. In some instances, 
small, local growers that are dependent on farmers' markets and white 
tablecloth restaurants that shuttered were making plans to close down 
their farm operations before Farmers to Families provided them an 
avenue for their harvests.
Supplement not Supplant SNAP
    During this unique crisis, we were deployed because our existing 
skill-set was underutilized as a result of the food-service shutdown at 
a time when food banks experienced historic levels of demand with 
reduced storage, packing, and volunteer capacity. Despite the historic 
investment by USDA in fresh produce, it is still not enough to solve 
hunger. Our food bank and nonprofit partners cannot do it alone and we 
do not believe that hungry Americans only option should be food banks. 
Accordingly, we view the Farmers to Families program as an opportunity 
to support agriculture and our local food banks during this time, but 
not supplant SNAP. We support an increase in SNAP benefits during this 
emergency.
    We thank you once again for your commitment to agriculture, 
nutrition, and hunger relief and ensuring the Farmers to Families 
program keeps quality and integrity at the forefront. We would welcome 
any Members of the Committee to visit our facilities and would be happy 
to provide any additional information. We believe that this program has 
value in helping Americans reach dietary guidelines recommendations for 
fruit and vegetable consumption and we look forward to working with you 
in the years to come to ensure that all Americans have access to fresh, 
affordable fruits and vegetables.
            Sincerely,

 
 
 
Doug Peterson, CEO, Aggrigator,      Salvatore Zingale, President,
 Inc., Salinas, CA                    Sanson Produce, Cleveland, OH
Christian Comito, CEO; Brendan       Rob Nairn, Owner/CEO, Ag Link,
 Comito, COO, Capital City Fruit,     Inc., Ballico, CA
 Co., Norwalk, IA                    Jeremy Vrablik, Owner, Cascadia
                                      Produce, Aurora, WA
Thomas Riggan, CEO, ALTAFRESH, LLC   Mike McGee, VP, Finance, L&M
 dba Chelan Fresh, Chelan, WA         Companies, East Palatka, FL
Julia Coffey, Owner, Mycoterra       Ervin Pavlofsky, Chief Development
 Farm, Mass Food Delivery, South      Officer, Premier ProduceOne,
 Deerfield, MA                        Cleveland, OH
                                     Bill Stern, President, Stern
                                      Produce, Phoenix, AZ
 

Cc: House Agriculture Committee Members
                                 ______
                                 
  Submitted Letter by Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
July 20, 2020

 
 
 
Hon. Collin C. Peterson,             Hon. K. Michael Conaway,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Peterson and Ranking Member Conaway,

    On behalf of Vermilion Valley Produce DBA Central Illinois Produce, 
I write to you to highlight the success of the United States Department 
of Agriculture's (USDA) Farmers to Families Food Box Program. During 
this time of crisis due to the Coronavirus Pandemic, this program has 
fulfilled a unique need within our local community and has continued to 
build on the unique partnerships we've long held to help serve our 
neighbors that have been negatively affected by job losses and state 
mandated closures of local businesses,
    We are a long-standing partner with many local food banks and 
nonprofit organizations in central and southern Illinois including the 
Eastern Illinois Foodbank in Champaign and Peoria and Midwest Foodbank 
in Peoria, Bloomington, Fairfield, and Indianapolis, along with 
nonprofit organizations like the Don Moyer's Boys and Girls Club of 
Champaign and the United Way of Southern Illinois who coordinates with 
hundreds of other nonprofits throughout southern Illinois. Through our 
consistent work with these organizations that supply food to those in 
need throughout the State of Illinois, we have established an 
exceptional reputation for providing families with much needed, healthy 
food.
    On May 8, 2020 USDA announced that we would receive a contract for 
$8.5 million. Since then we have been able to provide approximately 
350,000 boxes of produce and dairy to tens of thousands of families. We 
currently produce on average over 30,000 boxes of produce and dairy 
boxes each week. We have been able to provide these boxes to families 
throughout central and southern Illinois to cities as far reaching as 
Cairo, Illinois. Recently we were notified that our contract was 
extended through August 31, 2020,
    Additionally, the Farmers to Families Food Box Program has also 
been an intense success in terms of the number of employees we have 
been able to safely retain and hire back in order to carry out the 
program. Prior to the [COVID]-19 pandemic, we employed more than 130 
full and part time employees in central Illinois; at the height of the 
pandemic, prior to our contract for the Farmers to Families Food Box 
Program contract, we were forced to cut our workforce nearly in half.
    Because of this program, we have since rehired 16 employees who 
were willing to come back to work despite the additional $600 weekly 
Federal Government unemployment benefit which has created hiring 
challenges for our box program. Thankfully we have worked with 
employment agencies and currently have over 30 temporary employees on 
staff helping to make the boxes, swelling our overall employment to 
over 110 employees.
    We are thrilled to be able to continue building on this successful 
program and working to provide potatoes, onions, apples, oranges, 
strawberries and locally grown lettuce, zucchini, cucumbers, peaches 
and cantaloupes just to name some of the produce items we are putting 
in the box. Our dairy box is almost all local producers including Ropp 
Cheese in Bloomington, Kilgus Farms in Fairbury, and Prairie Farms in 
Peoria providing blocks of cheese, yogurt, milk, cottage cheese and 
butter to families in our community.
    This program is a prime example of the success of well thought out 
public-private partnerships filling important gaps in our communities. 
As we work to consistently improve and serve more families through this 
program, we are hopeful that we can continue such partnerships and use 
this program as a model for success in the future.
    We respectfully ask for your continued support of USDA's Farmers to 
Families Food Box Program as we work to feed hungry families throughout 
central and southern Illinois, and ask that you work to bolster and 
enhance this program as we move through and past this pandemic.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
John Rollins,
President and CEO,
Venuilion Valley Produce DBA Central Illinois Produce.
                                 ______
                                 
   Submitted Letter by Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    U.S. House Committee on Agriculture,
    Washington, D.C.;

    Hon. Michael K. Conaway,
    Ranking Minority Member,
    U.S. House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    As President of Borden Dairy Company, I am writing to express 
gratitude for the Farmers to Families Food Box Program as well as 
encouragement for your continued support and advocacy of this critical 
initiative.
    Based in Dallas, Borden has been in business since 1857 and employs 
3,200 people who work to keep America fed. We operate 12 manufacturing 
plants and nearly 100 distribution branches. Borden produces 35+ 
products enjoyed by millions of people every day, including children at 
9,000 schools nationwide. Mid-size companies like ours employ more than 
\1/4\ of our nation's workforce.
    When COVID-19 began making its impact in the U.S., Borden lost 
approximately 30% of its business virtually overnight due to school and 
restaurant closures. The contract Borden was awarded through the 
Farmers to Families Food Box Program enabled us to preserve employment 
and benefits for our people. The opportunity has reinvigorated our 
employees to fulfill this important mission of providing nutrition for 
American families.
    More importantly, Borden has supplied or scheduled donations for 
nearly 1,000 charitable organizations across the country. By Aug. 31, 
we anticipate we will have provided more than 11 million free gallons 
of milk to people in need. These donations are reaching a wide range of 
organizations, from large food banks in major metropolitan areas to 
small town community churches and nonprofit organizations. As an 
example, thanks to this program, the Extra Table organization in 
Mississippi let us know that this is the first year in its history that 
it has been able to provide fresh milk to the food banks and soup 
kitchens it serves throughout the state. In addition, it is worth 
noting that Congressman Conaway's constituents have likely benefited 
from the 6,850 gallons of milk provided to the Food Bank of West 
Central Texas.
    Enclosed with this letter are a few messages we have received from 
other recipient organizations and consumers in response to these 
donations. As you will see from these messages--along with the hundreds 
of news stories that have been published about Borden's involvement 
with the Farmers to Families Food Box Program--the program's impact is 
incredibly meaningful.
    We urge you to continue supporting this initiative that is helping 
so many Americans who are food-insecure as a result of this global 
pandemic. Please do not hesitate to contact me at [Redacted] or 
[Redacted] if you would like to discuss our experience with this 
program in greater detail.
    In the meantime, the Borden team continues to seek out and serve 
additional organizations in need as the word spreads about this 
terrific Federal Government program. The needs of the communities we 
serve continue to grow, and we are here to help.
    Thank you for your leadership and support of farmers, food 
manufacturers and families in this time of crisis.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Pat Boyle,
President,
Borden Dairy Company.
                               attachment
Messages from Donation Recipients
    Name: Becky
    Are you a: Consumer
    City: Fostoria
    State: Ohio
    Inquiry Category: Feedback

    Message: I just wanted to say Thank you for giving the milk to the 
food program. At the present time I have had to depend on the food 
pantries and they have helped since I have the grand kids living here 
they will drink 3 gallons a week having this extra milk sure helps. I 
just wanted to say Thanks and my family greatly appreciates what your 
company has been doing. I know it sure helps the farmers from dumping, 
even thou[gh] I hate seeing them loosing money at this time since being 
raised on a farm myself it is a lot of work and sometimes a big loss I 
pray that all the farmers can start coming out of the loss they have 
been seeing. Thanks again, McConaha family.

    Name: Tammy
    Are you a: Consumer
    City: Gary
    State: IN
    Inquiry Category: Community Relations

    Message: I would like to say Thank you for donating Milk to the 
food bank of northwest IN. I was able to get a couple gallons. In these 
uncertain times it really helped my son and me. He loves his milk (we 
call it Mikey's milk). I will continue support with purchasing Borden 
Products. Thank you so much for a blessing.

    From: Jim Macphearson
    Sent: Thursday, July 9, 2020 12:29 p.m.
    To: Crichton, Gretchen; Kristin Savage
    Cc: Julie Butner

    Subject: Milk and Transportation
    Warning: This message originated outside the Borden Network.

    Good afternoon Gretchen and Kris,

    We wanted to take a breathe to stop and say thank you again! You 
probably saw all three of our large scale distributions over the last 3 
weeks! Each event increased in scope from 100% to 50%! And thanks to 
your product, efforts and financial support family was provide fresh 
milk. And as we all know milk goes a long way from a refreshing 
glassful, poured over cereal or an essential ingredient to some many 
recipes!
    Thank you again to both DairyMax and Borden for collaborating with 
us on these special occasions!
    Stay safe and well! I should mentioned the many smiles you missed 
seeing as a member of the Air National Guard placed a gallon or 2 of 
milk in their car!
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Dairy Alliance distributed hundreds of gallons of milk to the community
          Editor's note: the attachment was a picture of the front page 
        of the Montgomery Advertiser. The text and the two images shown 
        are incorporated here. The online version includes 15 
        additional images. The online version of the article is 
        retained in Committee file and is available at https://
        www.montgomeryadvertiser.com/story/news/2020/07/14/dairy-
        alliance-borden-dairy-company-distribute-gallons-milk-free/
        5433756002/.

Kirsten Fiscus, Montgomery Advertiser
Published 2:04 p.m. CT July 14, 2020
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Volunteer Guy Hall, area organizations director for Alfa, 
        hands out milk outside Garrett Coliseum in Montgomery, Ala., on 
        Tuesday, July 14, 2020.
          Jake Crandall/Advertiser.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Volunteers hand out milk outside Garrett Coliseum in 
        Montgomery, Ala., on Tuesday, July 14, 2020. The Dairy 
        Alliance, Borden Dairy and Alfa teamed up to hand out 4,000 
        gallons of milk
          Jake Crandall/Advertiser.

    In the Alabama heat Tuesday, volunteers and milk jugs sweat as 
hundreds of gallons were handed out for free.
    A red tractor-trailer emblazoned with the Borden smiling cow 
sheltered the crates of milk as volunteers distributed the drink. In a 
drive-through style pickup, motorists pulled through the line as they 
were handed gallons through windows and milk was put in their trunks.
    The Dairy Alliance, a nonprofit that represents dairy farmers 
across the southeast, partnered with Borden Dairy Co. to provide the 
milk free of charge to community members at Garrett Coliseum.
    Borden was awarded the U.S. Department of Agriculture's largest 
contract through its Farmers to Families Food Box Program as part of 
the Coronavirus Farm Assistance Program. The contract enables Borden to 
supply 700 million servings of milk for free to qualifying nonprofits 
like the Dairy Alliance.

          Contact Montgomery Advertiser reporter Kirsten Fiscus at 334-
        318-1798 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c676a455f4f595f6c4b4d4242495858024f434102">[email&#160;protected]</a> Follow her on Twitter 
        @KDFiscus
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          [https://pbs.twimg.com/media/EbIvpYLWAAEy7CV?format=jpg&name
        =small].
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Editor's note: the video above is retained in Committee file 
        and is available at: https://twitter.com/i/status/
        1275181190442618887.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          [https://pbs.twimg.com/media/EavdPlTX0AM9PNP?format=jpg&name
        =360x360].
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          [https://pbs.twimg.com/media/Eao0460XsAMAiM9?format=jpg&name
        =small].
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Editor's note: the video above is retained in Committee file 
        and is available at https://twitter.com/i/status/
        1270901600299737089.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          [https://pbs.twimg.com/media/EaJTINeXQAEQB74?format=jpg&name
        =small].
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          [https://pbs.twimg.com/media/EZSgGCFXsAACLfZ?format=jpg&name
        =small].
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Left to right: [https://pbs.twimg.com/media/
        EY9n09gWkAE9Soy?format
        =jpg&name=360x360], [https://pbs.twimg.com/media/
        EY9n09gWAAAOo22
        ?format=jpg&name=360x360], [https://pbs.twimg.com/media/
        EY9n09gXs
        AICo_m?format=jpg&name=360x360], [https://pbs.twimg.com/media/
        EY9n
        09kXYAAI7h7?format=jpg&name=360x360].

May 29, 2020

    Borden Dairy
    Cowarts, AL

    Dear Borden Dairy,

    Thank you so much for your generous donation of 9,600 pounds of 
milk to Prodisee Pantry. As you know, it's about hunger at Prodisee 
Pantry. The COVID-19 Pandemic has us following our Emergency Operations 
plan for Mass Emergency Food Distribution for Baldwin County families 
in need. Since March 24th, our compassionate volunteers and caring 
community have allowed us to distribute 5,966 family food units. That 
is 135 tons of food provided to Baldwin County families to insure they 
have food on the table and hope in their hearts. We will continue these 
large-scale distributions as long as needed. Your support and prayers 
makes this possible.
    Please use this thank you as a tax deductible acknowledgement of 
you contribution in which no goods or services were received by the 
donor as a result of this gift. Let me know if you need any other 
documentation. A heartfelt thanks for helping us fulfill our mission 
found in Matthew 25:35[:] ``I was hungry and you gave me food, I was 
thirsty and you gave me something to drink, I was a stranger and you 
welcome me.''
            Blessings,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Deann Servos,
Executive Director.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    GA Foods is a specialized maker of nutrition-driven meals serving 
the distinct nutritional needs of healthcare patients, seniors, 
children, the military, and those affected by disasters. Our products 
are marketed under the SunMeadow<SUP>'</SUP> brand name and are 
available nationally through Meals on Wheels-type programs and health 
insurance providers.
    We believe that our mission is much larger than ``just food'' and 
is best described as Nourishment. Delivered. Providing nourishment 
includes food's vital nutrition and sustenance for life and the 
strengthening and building up of one in need. This is who we are and 
what we do. We include ``delivered'' in our mission because we, 
literally, deliver our meals right to the kitchen of seniors and 
healthcare patients. We also take pride in ``delivering'' when there is 
a natural disaster, a tough situation, or even active combat locations 
for our military.
    My name is Ken LoBianco, and I founded GA Foods with my brother Jim 
in 1973. We remain a family business with myself and my two sons 
actively working in the business every day. With the pandemic outbreak, 
senior centers across the country were forced to close to prevent 
spreading the virus to their vulnerable population. Elective surgeries 
were also delayed. Both disrupted demand for our services and products. 
I am writing today to support the Farmers to Families Food Box Program, 
which has allowed our company to retain our staff at 14 locations and 
employ an additional 500 temporary workers since April.
    Additionally, our team has seen firsthand how this program enabled 
nonprofit organizations to meet the needs of so many in our community. 
At each of the distribution sites, there were lines of cars with 
families who, without your support, may not have had food for their 
table.
    The Farmers to Families Food Box Program perfectly combines 
solutions to two problems: protecting vulnerable families while 
providing an outlet for agricultural products that could have otherwise 
gone to waste. I wholeheartedly support the program and appreciate 
everyone involved in making it a reality.
            Respectfully,

Ken LoBianco,
GA Foods,
St. Petersburg, FL.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Charlene Johnson and I'm the executive director for 
Plenty Doors Community Development Corporation (Plenty Doors CDC) on 
the Crow Indian Reservation in southeast Montana. Plenty Doors CDC is a 
[501(c)(3)] nonprofit organization that focuses on building a thriving 
community by diversifying the economy and building individual and 
community capacity.
    Plenty Doors CDC had to shift it's focus to responding to the local 
COVID response in March 2020. The Crow Reservation has been designated 
as a persistent poverty area for decades. The primary industry was coal 
and the Tribe was heavily dependent on the revenue from their coal 
mines. The decline in the coal industry forced the Tribe to lay off 
over 1,000 employees in 2017. In the spring of 2018, a fire damaged the 
only local full service grocery store in Crow Agency. Access to 
affordable groceries is at least 50 miles away, one way. This is an 
issue with those without reliable transportation. Our communities had a 
high unemployment and poverty rates prior to the pandemic. The pandemic 
made a difficult situation even more difficult.
    The food boxes from Farmers to Families have helped tremendously. 
They provide our families with fresh good quality produce and protein 
that families do not have access to due to lack of transportation and/
or inability to purchase.
    Plenty Doors CDC supports the continuation of the Farmers to 
Families Food Box Program. Many of our families will be without food 
especially good quality produce and protein if this program is 
discontinued.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Charlene Johnson,
Plenty Doors Community Development Corporation,
Crow Agency, MT.

7-18-2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Sirs:

    We are a group of growers in Rick Hill, Mo. I am writing on the 
behalf and show our support to the Farmers to Families Food Box 
Program.
    We work with C+C Produce which uses a lot of our produce in these 
boxes. We have had a good year thus far and working with C+C we have 
been able to sell our produce.
    We support this program so we need to keep this program growing so 
we can feed our families, also so that we can help feed the hungry 
which lost their income through this coronavirus pandemic.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Abe Hoover,
Bates County Produce.

July 17, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    Missouri Baptist Disaster Relief is a faith-based nonprofit 
ministry of the Missouri Baptist Convention. We have served disaster 
survivors since 1986 by providing, hot meals, flood and storm cleanup, 
chaplaincy, temporary childcare, hot showers, clean laundry and other 
ministry as needed. Approximately 2,000 volunteers are trained to serve 
disaster survivors without discrimination, and we never charge for the 
work because of the support from churches and donors.
    I became aware of the USDA Farm[ers] to Famil[ies] program via a 
local food supplier with whom I had been working. In addition, Missouri 
State Emergency Management was helpful in pointing us toward ways we 
could serve during the [COVID-19] crisis.
    Thanks to the ease by which the USDA Farm[ers] to Famil[ies] Food 
Box plan was implemented, over 97 churches and ministry agencies served 
19,120 fresh produce boxes since June 15, 2020 in 32 Missouri counties. 
The majority of the 75 cities we are serving are considered rural, 
where access to food is more difficult than in the urban centers. 
Recently, we gave several boxes of fresh produce to four families 
living in one home. The demand for food is projected to increase, while 
the national food supply chain is projected to continue at pre-[COVID] 
levels.
    I have told many of my colleagues and constituents that the USDA 
Farm[ers] to Famil[ies] Food Box Program is one of the best I have 
seen. It helps the farmer sell product, leverages the food supplier 
network, provides a way for the nonprofit to serve, and best of all the 
people get to eat! Thank you for creating an accessible program that is 
simple with effective results.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Gayton Moss,
Disaster Relief Director.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Nick Conforti and I am one of the owners of C&C Produce 
in Kansas City, Missouri. We have been a fresh fruit and vegetable 
wholesale distributor since 1992. Our company was fortunate to receive 
a contract with the USDA Farmers to Families Food Box Program this 
year. C&C Produce is not new to government contracts and I felt it 
important to share some firsthand experiences and insights with 
Congress.
    As a business where nearly $70,000,000 of our revenue comes from 
restaurants, business cafeterias, and related food service 
organizations, C&C Produce was hit hard when COVID-19 struck and cities 
around the country instituted stay-at-home orders. We had perishable 
product go to waste, our 250 employees were concerned about their job 
security, and our growers feared for the crops that had already been 
planted. In one swift motion, the Farmers to Families Food Box Program 
solved all of these issues.
    From the outside looking in, it is easy to see the USDA only 
distributing 25 million packages of food as a failure; however, when 
you consider the monumental supply chain activities that took place, it 
should be considered as an incredible government success. First, the 
USDA should be commended for the speed in which they acted. The program 
went from RFP to contract awards in just 2 weeks, a pace that is 
unheard of in government contracts. Second, awarded companies had to 
source product, create packing lines to make the boxes, staff those 
packing lines, find nonprofit organizations that had the capacity to 
receive and distribute the product, and arrange transportation to get 
the product to the organizations. This type of program was new to the 
entire industry, to expect for this program to roll out flawlessly and 
at full capacity would be irresponsible.
    I want to share some numbers that reflect the positive impact the 
Farmers to Families program has had. To date, C&C Produce has 
distributed nearly 900,000 boxes of fresh produce under this program. 
That is 22,500,000 pounds of fresh produce to an average of 2,826,000 
people (assuming the average family size is 3.14 persons) in need 
across nine states with the help of over 300 nonprofit organizations. 
These boxes haven't just gone to major food banks in large metropolitan 
areas, they are going to hubs that are distributing to dozens of other 
organizations that stretch across the region. They are going to rural 
churches who are serving populations that have no other outlet to find 
help. They are going to small organizations that deliver boxes door to 
door to the elderly or those that cannot afford transportation to pick 
them up. They are going to Tribal Reservations to help the Native 
American populations. They are going to inner city areas designated as 
food deserts where there is little to no access to healthy foods. Just 
as no subset of the population was left unimpacted by the COVID crisis, 
no subset of the population has been left unaided by the Farmers to 
Families program.
    I believe one of the biggest benefits of this program has yet to be 
seen. I ask that Congress consider the potential long-term outcomes of 
providing fresh, healthy food to people in need. Unarguably, fruits and 
vegetables have a positive impact on an individual's health. What will 
the savings to Medicare and Medicaid look like after just 6 months of 
having regular access healthy food?
    In addition to the direct help of people in need, America's farmers 
have found help and confidence in the Farmers to Families program. When 
COVID caused restaurants to close, countless growers were terrified 
that their entire crop could be lost. Frequently, small growers invest 
their future in what they plant. If there was suddenly no one to buy 
that product, their future could be devastated. Because of this 
program, farmers have an outlet for their products and the confidence 
to continue planting. Furthermore, because they have the confidence to 
continue planting, the produce industry will avoid a catastrophe that 
would have happened if growers would have stopped growing resulting in 
huge shortages and inflated prices causing even fewer people to have 
access to fresh food.
    The impact for C&C Produce has helped our community as well. 
Because of the Farmers to Families program, we have been able to add 
nearly 100 jobs at our facility. We market these jobs to people who are 
temporarily out of work because of business closures. Additionally, we 
fulfilled and added to our purchasing commitments to small, local 
growers. And we have been fortunate enough to witness first-hand how 
many organizations and volunteers there are willing to come together to 
help their neighbors in need.
    In closing and on behalf of over 2.8 million people C&C Produce has 
been able to help, I want to thank Congress and the USDA for making the 
Farmers to Families Food Box Program available. I hope my writing 
highlights how much of a positive impact you have made on so many 
people who are struggling in these difficult times. We continue to see 
the need for this program grow each week and we urge Congress to 
continue to provide people the means to access healthy food. Thank you 
for your consideration.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Nick Conforti,
C&C Produce,
Kansas City, MO.

July 17, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Mark Blomberg and I am the President of Western Missouri 
Fruit Sales, Inc. in Waverly, Missouri. We are a MO Apple Shipper/
Exclusive Sales Agent for two family owned orchards in MO. One of those 
being the largest in the state, Peters Orchards, as well as Rasa 
Orchards. We started our company in 1989. Peters Orchards has been in 
business since 1908, who currently have 20+ full time employees and 
more than 120 employees during harvest/packing. Rasa Orchards has been 
in business for 75+ years and currently have 10+ full time employees 
and more than 60 employees during harvest/packing.
    I am writing today in support of the Farmers to Families Food Box 
Program, which has helped our company get through this global pandemic 
and economic crisis we have all been battling. The importance of this 
program cannot be overstated. No matter who you are, what line of work 
you are in or where you live, coronavirus has affected you. As a member 
of a rural community, business owner and husband/father of five, I 
support this program because I know that our apples are going to 
families who are struggling during these times and might not be able to 
afford food for their families, let alone fresh produce without this 
program. I also support this program because it keeps a market for our 
apples and more importantly, keeps food on the table and a roof over 
the head of not only my family but my fellow employees' families as 
well. Farmers to Families is helping companies like ours to keep our 
business running through this pandemic.
    When this pandemic hit in mid-March, our business almost came to a 
standstill. With schools closing early, restaurants/food-service 
closing and grocers trying to keep their inventory to absolute minimums 
in fear of being forced to close, we had nowhere to go with our apples. 
We did not know if we would be able to keep our business afloat. Our 
growers were doing everything they could to keep their employees busy 
while trying to decide if they should continue caring for the upcoming 
new crop of apples or bite the bullet and quit while they were ahead.
    Thankfully one of our long-standing and loyal customers, C&C 
Produce, Inc. out of Kansas City, Missouri, was awarded a contract for 
the Farmers to Families Food Box Program. They were gracious enough to 
offer us a bid to sell our apples to them for the food boxes. We were 
amazed at the sight of their organized and highly efficient packing 
line they have designed for these boxes when we recently visited their 
facility. Seeing our fruit packed alongside the other quality produce 
they have procured to fill these boxes makes us proud to be a part of 
their operation and more importantly to serve those in need.
    The Farmers to Families Food Box Program has been a blessing to so 
many struggling families by connecting farmers with food banks and 
hungry families that need help and support. I support this program and 
am thankful to be a part of a solution to meet such a pressing need 
during these unpredictable times.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Mark Blomberg,
Western Missouri Fruit Sales, Inc.,
Waverly, MO.

June 9, 2020

    Pauline Mollette
    The Sanson Company
    Cleveland, OH

    Dear Pauline,

    Feeding Medina County is so very grateful for your donation of 
13,750 pounds of produce and dairy products, valued at $23,375.00, 
which we received in May. Your donation will make a huge impact in the 
lives of so many Medina County residents.
    Your personal commitment to Feeding Medina County will go a long 
way to helping us end child hunger through our Weekenders program. 
Additionally, your gift helps us provide food to low-income seniors in 
our Staples for Seniors program, as well as, deliver food to 24 food 
pantries across the county.
    Feeding Medina County is a nonprofit organization, Federal Tax ID 
[Redacted]. Since you did not receive any goods or services in exchange 
for this donation, the donation may be tax deductible according to 
state and Federal tax laws. Please consult your tax preparer for 
advice.
    Thank you again for your support.

          Pauline,
          Please let your management know what a hug impact the 
        donation has made to the people of Medina County who are 
        struggling during this time!

        Sandy.

            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Sandy Hinkle,
Executive Director.

June 2020

    Dear Sanson Company:

    To all the persons with caring hearts and with expertise to shove 
seven tons of fresh nutritious, carefully packed and expertly delivered 
food to us----

    Thank You!!!

    May the goodness you give return to you 100-fold.
            With gratitude, with love,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Sister Alice.

    Dear all of you at the Sanson Co.,

    Thank you so much for your generous donation of fruits, vegetables, 
and dairy products!
    I appreciate your kindness,
    Blessings to all of you.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Julia Smith.

    To all at Sanson,

    Many thanks for your food donations to us at Jennings Notre Dame 
Village.

          Kindness shared is heaven's art that softens life and warms 
        the heart.

    The fruits and vegetables were very welcomed and so fresh and 
tasty.
    You will be remembered in all our prayers that you stay well.
            God bless,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Sr. Celeen Skult,
SND.

    Dear Sanson Co. Staff,

          . . . for the special things you do!

    Thank you for the fresh Farmer[s'] Market Boxes of produce, fruit + 
dairy products. What a wonderful surprise! All was so beautifully 
packed + efficiently delivered. God bless your thoughtfulness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Rosemary Janegic,
NDV, SND.

July 19, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is John Zombolas and I am President of Mc[F]arling Foods in 
Indianapolis, one of the proud partners in the USDA Farmers to Families 
Food Box Program. Locally owned and operated since 1948, McFarling 
Foods is an employee-owned, full-service broadline food distributor 
serving restaurants, institutional food service operations, and 
community organizations within a 2 hour radius. We have a proud history 
of offering our customers the freshest ingredients necessary to remain 
and become successful in the food service industry. We take every 
opportunity to support local growers and domestic manufacturers in 
delivering products to our network of customers and have nurtured long 
standing relationships with producers who are focused on quality.
    I am writing today in support of the Food Box Program, which has 
helped our Company endure the operational and economic challenges of 
the pandemic while affording us the privilege of getting food to those 
families who very much need support during these times. McFarling Foods 
felt the full weight of the pandemic crash down upon us as most of the 
customers we serve are restaurants, all of which have been forced to 
curtail operations in one form or another for protracted periods. 
Although our business suffered as a result, we chose to use our time to 
reach out to those in our community and supported many charitable 
endeavors early on to help stock food pantries, churches, and other 
charitable organizations. While these actions galvanized my employees 
and united them in rising above our own misfortune through service to 
individuals in our communities with greater need, our reach was limited 
by our limited resources. We did the best we could do on our own, but 
still had to look ahead to how we would weather the storm ourselves and 
keep all of our team members employed when many other companies in our 
industry were furloughing or terminating 40-50% of their workforce. 
Being granted the award to participate in the Food Box Program gave us 
the opportunity to do what we know we can do very well--distribute 
food--with a combination box comprised of items sourced from domestic 
producers with whom we have a long history. We wanted to include as 
many producing partners we could in order to build a box with a variety 
of food items that would substantially feed a family for several days. 
This Program allowed us to reach far more families in need and develop 
new charitable relationships than we ever could have accomplished on 
our own.
    The importance of this program cannot be overstated. Our business 
was thrown an important lifeline when we needed it most. I was able to 
keep all of my 100 employees gainfully employed and have been able to 
offer work to even more individuals, both on a temporary and permanent 
basis. My McFarling Foods team members have found the work to be very 
gratifying and this program has engendered a feeling of solidarity by 
providing these food boxes, while we also work diligently to support 
our core customers as they struggle to contend with the operational 
challenges the coronavirus has forced upon them. Most importantly, we 
are humbled that we can be part of an effort that demonstrates how 
adversity can bring out the best in people who genuinely want to help 
one another find a way through these unprecedented obstacles . . . 
together.
    Over the past several weeks that the Food Box Program has been 
running, we have received countless indications of gratitude from the 
charitable sponsors with whom we partner to distribute these boxes, and 
the individual recipients themselves. The response has been 
resoundingly positive. Without question, the Farmers to Families Food 
Box Program has been a blessing to so many struggling families by 
connecting farmers with food banks and the families that need help now 
more than ever before. I support this program wholeheartedly and am 
thankful to be a small part in meeting such a pressing need during this 
crisis.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
John Zombolas
President,
McFarling Foods Inc.,
Indianapolis, IN.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    Our team at Operation Food Secure (a joint effort of the Topeka 
Rescue Mission, the United Way of Greater Topeka, and the City of 
Topeka) would like to share our support and appreciation for the USDA 
Farmers to Families Food Box Program. In just a few weeks, we have 
joined hands with thirty partner organizations to distribute over 7,000 
boxes of fresh produce, dairy products, and fluid milk across five 
northeast Kansas counties.
    These boxes come from hardworking American farmers and farmworkers, 
who originally raised the food for a different segment of the supply 
chain. Farmers to Families, authorized by the CARES Act, purchases food 
that would otherwise be wasted and redistributes it to nonprofits like 
ours that are providing hunger relief.
    We have joined forces to engage social service organizations, 
churches, neighborhood improvement associations, and other community 
groups to move food into areas that need it most. Our local U.S. Foods, 
Reser's Fine Foods, and Mars plants have donated refrigerated trailers 
for us to receive, store, and redistribute 1,760 food boxes each week. 
We have also developed new relationships with dozens of volunteers who 
wholeheartedly support the vision of this program.
    The pandemic has left so many families struggling with hunger and 
food insecurity. Furthermore, many of our rural communities and Tribes 
face additional barriers to food access like pervasive food deserts, 
food cost disparities, and transportation challenges. These struggles 
can hamper healthy eating habits and create nutritional inequity in 
states like ours. Some of our partner organizations transport food over 
40 miles outside of Topeka to provide fresh food to rural families. 
Farmers to Families presents an exciting opportunity to bring fresh 
fruits, vegetables, and dairy products to the doorstep of small-town 
America.
    We've come to find this effort is about so much more than food. 
These food boxes have served as a vehicle to strengthen the community, 
build new relationships, and sow seeds of hope amidst the storm of this 
pandemic.
        Sincerely,
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Barry Feaker,
Executive Director, Topeka Rescue Mission Ministries;
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Jessica Lehnherr,
President and CEO, United Way of Greater Topeka;

City of Topeka, Department of Neighborhood Relations.

7/20/2020

 
 
 
Hon. Collin C. Peterson,             Hon. Jim Hagedorn (MN-01),
Chairman,                            Representative,
United States House Committee on     Agriculture Legislative Asst.:
 Agriculture,                         Turner Bridgforth,
Washington, D.C.;
 
Hon. K. Michael Conaway,             Hon. Rodney Davis (IL-13),
Ranking Minority Member,             Representative,
United States House Committee on     Agriculture Legislative Asst.:
 Agriculture,                         Janie Costa,
Washington, D.C.
 

    Dear Chairman Peterson, Ranking Member Conaway, Representative Jim 
Hagedorn and Turner Bridgforth and Representative Rodney Davis and 
Janie Costa:

    Prairie Farms Dairy has been a Farmer-Owned Cooperative since 1938, 
with over 825 farm families.
    Prairie Farms has been proud to partner with the USDA on the 
Farmers to Families Program. We have seen first-hand the incredible 
impact this program has had on our local communities. We have received 
hundreds of calls and emails from individuals thanking us for our 
participation and sharing their personal stories with us. It is evident 
that food insecurity is a prevalent issue during these unprecedented 
times and this program has provided those in need with a way to 
overcome some of that difficulty.
    For Prairie Farms Dairy, this program has been a bright spot in a 
very challenging time. This program has had a positive impact on 
Prairie Farms Dairy in a variety of ways. First, it has provided an 
outlet for our dairy products. With most schools and restaurants 
closed, the demand for a lot of our items has been reduced 
significantly. This program has offset that dip in demand and allowed 
us to put that milk to good use.
    The program has also allowed us to maintain, or even expand, our 
workforce. The dairy variety box concept is a new and very innovative 
opportunity for the dairy industry. This innovative program has allowed 
us to maintain our workforce at our production facilities and, in some 
cases, we've been able to hire additional help in order to fulfill this 
opportunity.
    We experienced historic decreases in the dairy markets at the start 
of the coronavirus. For many of our farmer owners, this presented them 
with substantial financial difficulty. Ongoing months with market 
losses and low prices would have caused many of them to face serious 
financial hardship. This program has played a significant role in 
stabilizing the dairy markets and bringing pricing back to levels where 
our farm families can earn a living, while also providing much needed 
food for those without jobs.
    Prairie Farms Dairy has had a relationship with the USDA for 
several years and has been part of many of their purchasing programs. 
Because of this ongoing relationship, when we saw the announcement of 
the Farmers to Families Program, we knew that we would be the perfect 
fit for this type of program.
    We are already so connected to the communities that we serve, we 
felt we had an obligation to rise to this challenge to make sure those 
communities were provided for in these challenging times.
    Prairie Farms Dairy has seen firsthand the benefit that this 
program has been to local communities and agriculture professionals 
across the country. We support this program and everything that it has 
accomplished in a very short amount of time. We look forward to 
continuing our partnership with the USDA on this program and making 
sure that those struggling during these difficult times are provided 
for.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Ed Mullins,
CEO,
Prairie Farms Dairy,
Edwardsville, IL.

    Editor's note: the July 20, 2020 letter from John Rollins has also 
been submitted by Hon. Rodney Davis and is located on p. 72. It will 
not be duplicated here.

    Dear Chairman Peterson and Ranking Member Conaway:

    Citygate Network is North America's oldest and largest community of 
independent, faith-based crisis shelters and life-transformation 
centers. In most U.S. cities, a member of Citygate Network is the most 
comprehensive homeless services provider, and in some cities, it is the 
only homeless services provider. With that background, I'd like to 
share my perspective and support for the Farmers to Families Food Box 
Program (F2F).
    When we first introduced F2F to our members--approximately 300 
rescue missions and similar ministries--they had many questions about 
the feasibility of such a massive undertaking. The questions came from 
a desire (actually a commitment) to serve with excellence and not 
under-deliver. Our members regularly step into difficult roles as an 
extension of their faith; however, the COVID-19 crisis required an all-
hands-on-deck approach to their already stretched programs. While some 
organizations with limited resources had to bow out to prioritize 
keeping their vulnerable guests safe, housed, fed, and healthy, others 
with more capability stepped up to the plate, boldly trusting the 
vision of the program.
    The role of Citygate Network has always been to provide its members 
with leadership and representation that inspires, advocates, educates, 
and represents their interests so they can lead life transformation 
ministries. For more than 100 years, we've faithfully served in this 
capacity and witnessed amazing results. Informing and encouraging our 
members to embrace the F2F program was a natural fit with results that 
far exceeded our expectations.
    So many of the USDA programs provide vital lifelines to food 
service providers, but not one of them can work efficiently on their 
own. The F2F program facilitated the delivery of life-sustaining food 
boxes to needy families across the country. In many cases, this 
distribution system reached vulnerable families and individuals in dire 
need, creating new relationships and opening doors to other community 
services.
    While we have been doing this work for a long time, it never gets 
old to see broken people filled with new hope, like they were when they 
received F2F food boxes. Communities have come together around this 
visionary program and lives have been impacted in their greatest hour 
of need.
    Creative solutions like F2F compliment the many Federal and local 
programs available, closing the gaps that poverty leaves. In this case, 
we've learned a lot about meeting needs in hard to reach places, and 
neighbors willing to drive that last mile to make sure someone gets 
fed. The Farmers to Families program provides a unique and healthy way 
to make a difference across the country, and we encourage you to 
continue supporting this innovative approach.
            Respectfully,

John Ashmen,
President.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    I'd like to share with you about two of our smallest ministry 
members. Both have participated in the Farmers to Families Food Box 
Program (F2F) and their results are encouraging. One is located in a 
very rural part of North Carolina and the other provides services in 
the heart of downtown San Antonio, Texas. Each has a heart for service 
that is unique to their community. The Brunswick County Recovery Center 
(BCRC) in Ash, NC offers addiction programs to men and women on 
separate campuses with a deep dedication to gospel-powered life 
transformation. The Church Under the Bridge (CUB) ministry in San 
Antonio is primarily an outreach and emergency shelter program that 
provides public dinners and a church home to San Antonio's 
impoverished.
    When the F2F program was first introduced to Citygate Network 
members, the leaders at BCRC said, ``We absolutely need to do this for 
our community.'' I asked them if they had adequate space to meet the 
requirements and they said, ``No, but through our partners at the local 
police and fire departments, the school district, the churches, the 
medical centers, and the many eldercare partners we work with, it'll be 
a cinch.'' Admittedly, I had my doubts, but figured it couldn't hurt 
for them to give it their best shot. As it turns out, thanks to their 
healthy partnerships, they were able to deliver a seemingly endless 
supply of food boxes to their community in a single day! Lines formed 
from multiple community hubs where families could pick up groceries, 
while other volunteers took boxes directly to residences without any 
form of transportation. Since that first day, they've received 
additional deliveries and have continued to bridge hunger gaps while 
expanding partnerships in their community to address needs.
    Because of their relatively small size, The Church Under the Bridge 
(CUB) in San Antonio did not sign up to participate in the F2F program 
at first. However, when a full truck was stuck in San Antonio with no 
place to deliver, we reached out to CUB and they coordinated 200 
volunteers to help deliver and distribute every box within a matter of 
hours.
    These two organizations demonstrate the importance of empowering 
community effort. Neighbors serving neighbors to bring about family 
stability. The visionary solutions of F2F have brought the right people 
together and created opportunities for meaningful partnerships to form. 
Some of the relationships built will serve as a portal into the most 
vital programs of the community and eventually bring about stability. 
Others form caring relationships that inspire hope. F2F is an 
affordable option allowing every community to engage in the fight 
against hunger and poverty. I urge you to do what it takes to keep this 
innovative program alive and well for years to come.
            Faithfully yours,

Sam Edwards,
Director of Member Engagement,
Citygate Network.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

July 19, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    I wanted to take a moment and thank you on behalf of the 33,674 
people that received roughly 444,000 pounds of food over the past 
several weeks. Our organization, Love Has No Limits Inc., was created 
to serve individuals in Los Angeles, CA and across the United States. 
Our organizations specializes in unifying thousands of faith 
communities and charities through unified events that produce lasting 
change.
    Hundreds of our communities across southern California have been 
impacted by COVID-19 and as a result organizations have rolled up their 
sleeves to serve those in our community who need it most. I can speak 
for thousands of families when I tell you that this program has changed 
lives across southern California. Every week we have precious families 
who arrive and wait for hours in the hopes of receiving aid, and when 
they receive it, their gratitude and thankfulness is hard to describe.
    We are so grateful for all that you have done to make this program 
a reality and look forward to continuing the work we have started.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Gabe Bahlhorn,
Love Has No Limits Inc.,
Dana Point, CA.

7/21/2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Al Ferry and I'm the Associate Pastor at the Living 
Waters Oildale Seventh Day Adventist Church in Bakersfield, Ca. Our 
church is currently comprised of many members that have been in 
attendance for decades. The community our church is located in is a 
residential neighborhood of poor to low-income families.
    The location we occupy presents a high need of concerned help to 
our neighbors, spiritually as well as materially. Because of COVID-19, 
we have realized a greater financial loss in our area. Loss of work has 
brought a tremendous need for feeding our local families, wherever 
possible.
    The Farmers to Families program has brought an overwhelming, 
positive response. Receiving fresh fruit and vegetables, delivering 
these to those that are hurting, has brought great joy, not only to our 
neighbors but to all of our involved church members as well. It's 
exciting to see hope fulfilled.
    I received a letter of gratitude, from one family that I believe 
would prove the happiness that has blossomed throughout our area. It's 
from Mr. and Mrs. Robert Canley. This couple has adopted two of their 
nieces, out of necessity and both Mr. and Mrs. are both retired, with a 
limited income. Mrs. (Cathy) wrote, ``Thank you! Thank you! Thank 
you!!! These words are not enough for all the blessings you've poured 
out on me and my family. You've taught us that giving is such an 
important part of helping others. Even when it's hot, all of you have 
been out there carrying and delivering these wonderful boxes of food. 
One of our neighbors, Gus, his wife and five kids, told us they all run 
out when they see your people coming. He said there's so much laughing 
and they're so thankful for what your church does. I've seen Gus and 
most of the time there are tears running down his cheeks.''
    We are praying that the Farmers to Families program won't end, at 
least until things get much better. I'm sure what your doing has 
brought much happiness to people, wherever this program is implemented. 
Thank you for allowing our church to be a part of this. Our prayers are 
with you.
            Sincerely,

Al Ferry,
Living Waters,
Oildale Seventh Day Adventist Church,
Bakersfield, CA.

07-18-2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Jim Craig and I am the Associate Pastor at the Living 
Waters Assembly of God in Lamont, California. Our church is comprised 
of mostly poor, farm laborers, and small business owners from Lamont 
and the surrounding areas. Most of our congregation are elderly and are 
part of the history of this area and our great nation.
    Our community is mostly Hispanic and most speak little or no 
English. But they are proud to be living in Lamont and be a part of the 
United States of America. The people here are hardworking and 
respectful and proud of the work they are doing.
    The Farmers to Families program has been a blessing to so many 
families in our area. These are families who live from payday to payday 
and often must scrounge for everything they have. That is why they are 
so proud of what they do have.
    When we show up at a family's doorstep with a box of produce, the 
entire family usually greets us at the door with huge smiles. Because 
of the pandemic, we have to resist the urge to give and receive hugs 
from the entire family.
    The pandemic has affected our church tremendously because most 
churches are almost family outings. It has scared many of them into 
becoming hermits and living in fear in their homes. Afraid and alone, 
and most have lost hope.
    These are the people we reach out to. We have many people we 
purposely take food boxes to weekly. Some we have met simply by 
knocking on their door and showing them love.
    We listen to people. To their fears. To their concerns. To their 
hearts. Some tell us about other families that may be in greater need. 
We visit that family. We help them with food. We help them with 
physical needs. We are there for them spiritually. We are there to show 
them love.
    Some of these families are family members (children) of felons who 
are incarcerated and we make sure those children are able to have 
Christmas despite the fact there parent(s) may be locked up during this 
time. We visit these families also and supply them with boxes of 
produce from the Farmers to Families program.
    These boxes enable us to reach out to families who may feel alone 
and unwanted, and not sure of how they can make ends meet. Because of 
the generosity of this program, they get more than they ever expected. 
They get love and concern from a church family they never knew they 
had.
    It is never just a box of produce. It is a whole lot more.
    One lady lost her husband a year or so ago. She has four (4) 
children. She works in the field. We showed up at her house and brought 
her a box of produce. She could not talk. She could only cry. Then she 
told us her story. She went from being some lady to being Adriana.
    We take her boxes when we receive them. We have gone from being 
strangers alone in our community to being family. All because of a box 
of produce.
    I have given you one example of how a box of produce has changed a 
life. However, I have a whole lot more stories like this. I feel like I 
am the luckiest man on Earth. I get to go out into my community and 
shower people with love. And sometimes change their lives. All because 
of a box of produce.
    Thank you for making this happen. Your generosity has made so many 
great things happen in our community. I spent twenty-seven years with 
the Kern County Sheriff's Office and felt I made a huge difference in 
so many lives, but that pales in comparison with the opportunities you 
have provided--with a box of produce.
            Sincerely,

James B. Craig,
Associate Pastor,
Living Waters Assembly of God,
Lamont, CA.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Troy Singleterry, and I'm the Lead Pastor of City View 
Church which is comprised of English, Spanish and Ethiopian speaking 
congregations. Nestled in the heart of San Diego, CA, our 
multigenerational and multi-ethnic congregations reach people from all 
walks of life, including many military families, throughout San Diego 
County.
    The COVID-19 pandemic has caused many families in our church and 
community to lose jobs or have work hours cut, which in turn has 
dramatically reduced their resources. This has left them worried and 
hopeless mentally, financially, and physically. Our volunteers, not 
only from our church but occasionally others from local businesses, 
military personnel, and political leaders and staff, serve with hearts 
of compassion and a desire to make every person who comes to get a box 
of food feel valued, loved and accepted. How fulfilling it has been to 
witness the joy on people's faces, the hope kindled in their spirits, 
and hear the appreciation they have expressed for these boxes of 
quality food.
    As a HUB for San Diego County, we not only have reached thousands 
in our community, but we also partner with about 30 local churches and 
para ministry organizations to reach our county and help those in need. 
Since May 29, we've been able to distribute over 26,500 boxes of food 
to people here in San Diego County.
    Compassion is breeding compassion as people serve their neighbors, 
families, and friends. Thank you so much for launching this much-needed 
program during these trying times for America. It has been our highest 
honor and privilege to serve our community through the Farmers to 
Families Food Box Program.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Pastor Troy Singleterry,
Lead Pastor, City View Church.

July 18, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Karl Hargestam and I am the Executive Director of 
CityServe Network, based in Bakersfield, CA. We are a collaborative 
network of churches and community leaders connected to overcome despair 
in the community. The network expands throughout southern California 
and extends to Washington and Nevada. Currently, the network is made up 
of 38 HUBs who receive, sort, and distribute food and other necessities 
to 1,000+ PODs (point of distribution). CityServe PODs take the 
resources into their neighboring communities and deliver them to the 
most vulnerable people in need.
    When the pandemic hit we knew the CityServe HUB/POD distribution 
model, which was in place prior to the crisis, could reach families 
that are affected most by the shifted economy. More often than not, 
food is being delivered through, what we call, the ``Last Mile of 
Need.'' Households in the ``Last Mile of Need'' are families with food 
needs that are often unmet for a variety of reasons. The deficiency of 
government agencies and most nonprofits to reach these households, 
mostly due to program capacity, creates a risk of malnutrition and 
starvation--which is particularly true for households with young 
children.
    I'm writing to you today to express my support of the USDA Farmers 
to Families Food Box Program and ask that it continues forward during 
this challenging time. We have seen in various ways how this program 
has been a unique solution to the many problems brought on by the 
COVID-19 pandemic. Low-income families who were working hard to make 
ends meet in their homes before the pandemic are now having to make 
hard decisions on whether their household funds go towards food or 
shelter.
    These families are scared and are losing hope. They shouldn't have 
to feel this way when we live in the greatest country with an abundance 
of fresh, nutritious foods. The alarming amount of food that has been 
wasted because of the abrupt halt in our national food supply is not 
necessary and is why the food box program is an excellent solution.
    The food box program is feeding hungry families but it is also 
providing hope during the darkest time the world has ever seen. One of 
our church PODs in Bakersfield shared a story of a man who had reached 
a dark point of depression. With young children at home, the man was 
overcome with despair because of the loss of a job, money, and food and 
was about to take his own life. But he saw the church sign that read 
``FREE FOOD'' and it gave him hope. The man did not turn to suicide for 
the answer. He got food for his family and connects with the church 
congregation on a regular basis for resources from the food box 
program.
    We know the Farmers to Families Food Box Program is making a 
difference in the lives of millions of families. CityServe Network 
supports this program because it supplies food in the ``Last Mile of 
Need,'' it offers hope during this tragic season, and it demonstrates 
our country's resiliency and ability to come together and triumph in 
the midst of chaos.
            Sincerely,

Karl Hargestam,
Executive Director,
CityServe Network,
Bakersfield, CA.

July 19, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Susana Beltran and I'm an Associate Pastor at El Buen 
Pastor Church in McFarland, California. Our church is comprised of 
mostly Hispanic families in a small community of predominantly Hispanic 
farmworkers.
    The Farmers to Families has been a blessing to our church and 
community. We have seen many families hit hard financially during this 
[COVID-19]/quarantine time and the produce & protein boxes we have been 
able to distribute have helped the situation greatly.
    It might be easy to think that the affect of this pandemic is not 
as bad as we think but the numbers do not lie. Even in our small 
community, week after week, we see over 250 to 300 people drive thru to 
receive help in the form of the produce & protein boxes. This pandemic 
does not discriminate: Everyone need help.
    We had a lady drive thru at a recent distribution who would seem 
out of place at a food giveaway. She rolled in on a SUV & as she drove 
thru the line, the tears started to fall. She never expected to 
``need'' the help but the pandemic had touched her family & she wasn't 
sure where her next meal would come from. The financial weight the 
pandemic had caused was made a little lighter knowing that she wouldn't 
have to worry for a meal for her family for at least 2 weeks.
    During another distribution, towards the end of our time out there, 
a car full of farmworkers pulled up. As we loaded their trunk with the 
protein boxes, they expressed their gratitude & told us they were just 
notified it was their last day at work so they were grateful to not 
have to worry about a meal.
    We know that Farmers to Families has truly been a blessing to every 
single person that comes through & it has also been a blessing to every 
single one of our Ministry Volunteers. Thank you to everyone involved 
in the Farmers to Families Food Box P[r]ogram. We hope you continue the 
amazing work that has been of great help to so many.
            Sincerely,

Susana G. Beltran.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Honorable Chairman Peterson and Ranking Member Conaway:

    I am writing in regards to the Farmers to Families Food Box Program 
that has helped hundreds of families receive food in my district and 
thousands throughout our region.
    As you know, the COVID-19 pandemic has resulted in severe job loss 
and disruption throughout our nation. Thankfully, City View Church head 
pastor Troy Singleterry and his congregation has stepped up during this 
crisis to serve as a hub for this program in San Diego County. The 
church has tirelessly organized 35 other local churches and 
organizations to distribute over 26,000 boxes of food to struggling San 
Diego families.
    Through the Farmers to Families Food Box Program and City View 
Church's hard work, the hub has become a vital resource for our region. 
If the programs discontinues, it would create severe distress to 
working families already struggling to tread water during this 
unprecedented pandemic.
    I respectfully request your strong consideration to continue this 
vital food program during these hard times. For any questions or 
comments, please don't hesitate to contact me personally at [Redacted] 
or email at [Redacted].
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Scott Sherman.

Monday, July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Rich Shepherd and I'm the Campus Pastor at Canyon Hills 
in San Luis Obispo, CA. Our church is comprised of many different age 
ranges and social backgrounds. We would be considered a college town, 
but also a town of young families and the elderly.
    The reason that I support the Farmers to Families program is 
because of its dedication to help those in need. We have been blown 
away by the response of our community and in the 2 short weeks doing 
it, have ran out. The need is so big. I've seen countless families come 
through and with tears in their eyes share just how much this helps 
them. Because of schools being shut down, families not receiving lunch 
meals for their kids have said this is such a help.
    This pandemic has affected our town so much because it is built on 
small business and travel. Because of that, many hotel, restaurant, and 
customer service business have closed and these families have felt the 
impact of it.
    One thing that stands out to me is the people who have stepped up 
to serve these families. Volunteers have come to give 6 hours of their 
time to help. Because of that, they have looked into the eyes of those 
people and have acquired a greater compassion level for those in need. 
Truly irreplaceable! Our mayor has joined us for 2 straight weeks and 
can't get enough of it.
    I cannot stress enough how much this program has impacted our city. 
Our mayor and town officials have been blown away by the response as 
well as the news media as they have come out and witnessed the lines 
backing up onto other streets. I support and commend the Farmers to 
Families Food Box Program and can't thank them enough!
            Sincerely,

Rich Shepherd,
Canyon Hills San Luis Obispo,
San Luis Obispo, CA.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Rod Haro and I'm the Lead Pastor at the Fowler Worship 
Centre church in Fowler, Ca. We are a rural church located in the heart 
of an agricultural community. Our church is multi-cultural and the 
economic demographic is low-income to middle class. We are a community-
minded church with a great emphasis on compassion ministry. We have six 
other Worship Centre campuses that are located in more impoverished 
rural communities.
    Our community and the Central Valley has been hit extremely hard by 
the current pandemic crisis. Many families have lost their jobs and are 
experiencing such challenging times economically. We as a church have 
been working hard to secure the one thing that these families need most 
. . . food to feed their families.
    Farmers to Families Food Box Program has been a invaluable resource 
and a tremendous blessing to our community. Because of this program we 
are able to supply thousands of families all over this valley with 
fresh, quality produce. People are lined up hours in advance at our 
weekly food outreach because of the great need for food. In addition we 
are able to service 20 other local churches and community outreach 
partners as they in turn resource their communities and neighborhoods.
    The Farmers to Families program in a very practical way is what the 
spirit of America is all about. People helping people in their times of 
need. It creates a spirit of unity and connection as those less 
fortunate realize that others care and that their needs are important 
to those in their society.
    Thank you to the Farmers to Families program for making such an 
impact on so many peoples lives in this most trying of times in our 
nation. The people who receive these much needed resources thank you 
and our prayer is that this program will continue to be available to 
those who truly depend on this program.
            Sincerely,

Rev. Rod Haro,
Fowler Worship Centre Church
Fowler, CA.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Jared Waterfield and I am the Director of Marketing for 
Military Produce Group located in Norfolk, Virginia. We are proud 
partners of the United States Military community, having enjoyed 2 
decades of distributing fresh fruits and vegetables to the Defense 
Commissary Agency. In addition to our facility in Norfolk, we operate 
fresh produce distribution centers in Birmingham, Alabama and Savannah, 
Georgia. This geographical footprint enables us to place great emphasis 
on supporting local and Veteran owned farms throughout the eastern 
United States. When the opportunity to support communities within our 
reach arose in the form of the Farmers to Families program, we knew we 
were not only built for the mission, but that we had a duty to do our 
part in helping to ensure it is successful.
    The USDA Farmers to Families Food Box program has had such a 
positive impact on all aspects of the produce supply chain. For the 
American farmer, it has provided a much-needed outlet for their produce 
to reach the community. Product originally destined for restaurants and 
food service, that would otherwise go to waste, is now available to the 
dinner tables of families in need. For distributors, the Farmers to 
Families program has kept packing lines operational, distribution 
centers running, and supported ongoing employment in the agriculture 
industry. But most importantly, this program has helped fragile 
communities impacted by the pandemic, preventing them from falling into 
a ``food desert'' in their own towns. Through the Farmers to Families 
Food Box program, Military Produce Group has been empowered to help 
these communities, no matter how out of reach they may appear, ensuring 
that nutritious food options are not limited only to families who 
remain financially fortunate.
    We are grateful for the opportunity that Farmers to Families has 
provided and humbled by the ground floor stories we have heard from 
community leaders while supporting the initiative. When we received 
notice that we were awarded a contract within the program, we worked 
quickly to contact food banks, nonprofits, and faith-based entities 
that were experienced in serving communities in need. Partnerships were 
swiftly developed and communication between our team and local 
organizations became ever-increasing. We heard stories of families that 
had not had fresh vegetables in weeks and communities with thousands of 
people lining up hours in advance of a distribution event, just to 
ensure they received fresh food while it was available for a limited 
time. Frequently after making our first food box deliveries, we were 
asked to increase both the frequency and number of boxes we were 
delivering due to increasing and unprecedented demand. It became clear 
that organizers were doing a fantastic job of spreading the word that 
these boxes were available and coordinated ever-growing, ever-improving 
events to ensure distributions were efficient. Food-insecure 
communities were further identified through reaching out to 
organizations such as Convoy of Hope, Community Foodbanks of NJ, the 
Federation of Virginia Food Banks, and the North Carolina Dept. of 
Agriculture. Each partnership helped to identify more areas of need and 
more stories of hardship wrought on rural America.
    As we continue to support the Farmers to Families program, we 
maintain our lines of communication with the organizers and 
representatives throughout the communities we serve. We have seen 
photos from events large and small, full of volunteers unloading 
thousands of boxes by hand. Videos of cars lined up for miles waiting 
for a food distribution to begin. Letters and phone calls from 
representatives telling us of their efforts and the community response 
while requesting additional distributions. Throughout every area the 
feedback has been the same--grateful communities, desperate for 
nutritious food, are coming together to do everything they can to 
support each other.
    The Farmers to Families Food Box program continues to be essential 
in keeping towns like those described here from falling apart during 
the pandemic. Through this program farmers, distributors, nonprofits, 
and American communities have created a network that ensures our food 
supply is directed to those who benefit most. Providing this necessary 
food supply chain for impacted families ensures we can keep our nation 
healthy, our children fed, and families free from the fear of food 
insecurity. Military Produce Group is proud to participate in such an 
initiative and encourages the ongoing support and funding for the 
Farmers to Families Food Box program.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Jared C. Waterfield,
Military Produce Group,
Norfolk VA.

July 20, 2020

    Hon. K. Michael Conaway,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Representative Conaway,

    Thank you for your leadership on behalf of America's farmers and 
ranchers, especially in such trying times.
    As you work to develop Phase IV legislation to respond to COVID-19 
impacts on the U.S. economy, including agriculture, I would like to 
encourage you to continue the highly successful Farmers to Families 
Food Box Program.
    While my bid to participate in round one of the program was not 
accepted, I was able to cure the defects in my bid in order for it to 
be accepted in the second round. Despite the early setback, I am very 
proud to be a part of a program that has provided 41.5 million food 
boxes to food banks, community and faith-based organization, and other 
nonprofits serving Americans in need. Just last week we packed and 
shipped 38,000 20 pound boxes of fruits and vegetables throughout the 
Southeast.
    Titan Farms primarily grows peaches, bell peppers, and broccoli and 
my family and I are truly grateful for the opportunity the Farmers to 
Families Food Box Program afforded us to share the bounty of our family 
farm with Americans in need during the ongoing pandemic. Healthy diets, 
including fruits and vegetables, promote healthy immune systems and 
that could not be more important than it is right now.
    I hope you will continue to support the Farmers to Families Food 
Box Program as part of the nation's COVID-19 relief efforts.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Chalmers R. Carr III,
President.

July 19, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    By way of introduction, my name is Bob Ona, and I serve as the Lead 
Pastor of Northview Church in the Fargo/Moorhead area, which are border 
cities in North Dakota and Minnesota.
    Our church has worked at founding civic activities that benefit our 
area, which has resulted in unity events involving community and 
municipal organizations that highlight building bridges between local 
police forces and ethnic enclaves in various parts of our metroplex. 
Typically we work with multiple entities to stage outdoor events with 
sound systems and platforms, mass barbecues, games, dunk tanks, prizes, 
food distribution and in general create a carnival atmosphere that 
builds community esprit de corps.
    One result of these events has been the founding of Reach the 
Heart, a service minded entity through which we recently distributed 
75,000 pounds of food to those in need of our community, all because of 
the food provided by Farmers to Families. These events, conducted in 
June, went a long way toward promoting community unity at a time when 
civil unrest was stirring in our area.
    I was pleased that we were able to distribute food to diverse 
groups including those who came to the United States from Nepal, Haiti, 
Sudan, Ivory Coast, and Bosnia to name a few.
    One young man called me to ask if he could help distribute food 
even though:

  <bullet> He did not go to my church. Answer: ``Yes''.

  <bullet> He was not a Christian. Answer: ``Yes''.

  <bullet> He was a Muslim. Answer: ``Are you a hungry Muslim?'' We 
        both laughed and he promised to show up.

    One further bright spot is that we linked the food distribution to 
the first of several relational events called, ``Selah listening 
Circles.'' The object is to bring together those who are considered 
minorities so that others can hear their stories and build community. 
Our first session went exceptionally well, with more to come.
    As a result of the efforts mentioned above, people in smaller 
communities have touched base with us in the hopes that we could help 
them do similar events in their relatively distant locales. Of course 
we would be happy to help if we have the opportunity.
    I deeply appreciate how the food box program through Farmers to 
Families gave us a mechanism to reach out into our community and build 
good will. Hopefully we will be able to repeat the experience and help 
others in more remote locations to do more of the same.
    Thank you for your leadership.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Bob Ona, D.Phil.,
Lead Pastor.

July 18, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Calvin Thompson and I serve as the Director of Reach the 
Heart Ministries. I also serve as Outreach Pastor with Northview Church 
in Fargo, ND.
    Northview Church and community is comprised of people from numerous 
backgrounds and we have a large number of people from a variety of 
different countries who now reside in this area.
    Over the last 28 years, I served Northview Church (formerly First 
Assembly) as Youth Pastor and have been involved with many community 
events that included volunteering in area Middle Schools and High 
Schools of the Fargo, ND, West Fargo, ND, and the Moorhead, MN 
communities.
    When the opportunity was presented to provide families with fresh 
produce through this difficult time, it was a nobrainer for me to want 
to participate. As we prepared for our first distribution on Saturday 
June 13th; we scheduled to distribute boxes of food from 8 a.m. to 2 
p.m. Quickly, many volunteers stepped forward to participate. During 
the first week we were able to distribute approximately 950 boxes of 
food before 1 p.m.
    Throughout the morning many people expressed their appreciation for 
what we were doing throughout the day. Several of those individuals 
were literally on the verge of tears and thankful. It was amazing!
    At our second distribution day June 27th; we distributed two semi-
truck loads of produce. Our plan that day was also to distribute from 8 
a.m. to 2 p.m. However, by 1 p.m. we had given out almost 1,900 boxes 
of food.
    That day, I personally had several folks ask how they could be 
involved and expressed how much it meant to have us providing so much 
food to people needing assistance. Several persons even offered to 
deliver boxes of produce to elderly individuals who could not come to 
pick up a box. We had already set up though several organizations and 
people to do just that.
    For many, the pandemic has affected a family's level of income. By 
providing numerous families with a box of produce it gave each family a 
little extra money to be available for other needs.
    Our community, like many other communities during this time has 
seen the shutdown of their places of employment. Several individuals 
would even get out of their vehicle in order to give me a fist bump or 
an elbow hit and to let me know how incredible this gift will be for 
their family.
    One huge take away from this time was to be able to watch as 
volunteers worked so hard; placing a box of produce in a vehicle; and 
then taking a moment to offer a word of encouragement to each person. 
Several families who were assisting to hand out the boxes, indicated 
that they had one of the greatest family experiences by having their 
children involved as well.

    Knowing that lives were changed and blessed has made this 
experience so incredible.

    When I was looking for assistance to put this event together, 
several very key persons came on board immediately to assist with the 
organization and flow of the day. It amazes me how ready people are to 
help with an opportunity to bless others.
    In doing this event, I knew we would also need a refrigerated truck 
in order to keep the produce cool throughout the morning. A local 
businessman who owns a produce company provided us with a refrigerator 
trailer at no cost for both our events and came by a couple times to 
observe. Also, another individual's business provided us with a 
forklift to make it easier to lift the pallets of produce out of the 
truck.
    Finally, here is a message a mom shared on my Facebook page from 
her experience that day. She brought her two children with her to 
volunteer the entire morning.

          ``I told my girls that volunteering is like veggies for the 
        soul and for our community. It may not be something you crave 
        right away, but the more you do it, the healthier you are, the 
        more you'll want to do it. AND the ranch you put on it to make 
        it taste even better are things like your attitude, music, 
        togetherness, and laughter. I had mixed reviews on my analogy, 
        but because I'm a good mom (not always a popular mom) I'm happy 
        to let that marinate. A #eatyourvegqies #bekind''

    I have so many other responses I could share if I had the time; but 
I want to thank you for making this opportunity a reality for the 
community. If other opportunities are provided, I plan to do this event 
again and I have been talking with several other Pastors in the state 
to see if we could assist them with an opportunity in the future as 
well.
            Sincerely,

Calvin Thompson,
Director of Reach the Heart,
South Fargo ND.

July 20, 2020

    Hon. Collin C. Peterson,
    Chairman,
    United States House Committee on Agriculture,
    Washington, D.C.;

    Hon. K. Michael Conaway,
    Ranking Minority Member,
    United States House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Peterson and Ranking Member Conaway:

    My name is Lori McAfee and I'm the President at Wings As Eagles 
Ministries on the Pine Ridge Indian Reservation, SD. Our ministry is 
comprised of three reservations including Pine Ridge Reservation as 
well as Rosebud, SD, Northern Arapaho Reservation, WY. It has been an 
amazing program to bring much needed fresh food to a forgotten people 
group.
    The poorest of the poor on these reservations have been excited to 
receive fresh fruit and vegetables. The families do not receive fresh 
fruit or vegetables even on a good day. One family cried when they 
received a box. Two Lakota children from the Pine Ridge Reservation ate 
a whole bag of apples!
    With gatherings not permitted on the reservations due to an 
increase of cases this program has made all the difference to the 
people.
    We are grateful and thankful for this fresh food program. Many of 
the forgotten areas of the country are now receiving quality food.
            Sincerely,

Lori McAfee,
Wings As Eagles Ministries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Submitted Fact Sheet by Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Farmers to Families Food Box Program
Claim vs. Fact
July 2020
    Claim: The Farmers to Families Food Box Program (FFFBP) was the 
victim of a rushed process that included no engagement with current 
distributors and nonprofits and resulted in cherry-picked contractors 
who were not qualified.
    Fact: Utilizing contracting flexibilities provided by Federal 
Acquisition Regulation (FAR) Part 18 during an Emergency Declaration, 
the United States Department of Agriculture (USDA) designed a process 
to rapidly vet and approve contractors to participate in the program. 
The vetting process relied upon answers to a Request for Proposals 
(RFP). Offerors described the capabilities they had for achieving 
performance under the contract.
    Demonstrations of this capability included, but were not limited 
to, commercial experience; business ethics and integrity standards; 
food safety and/or regulatory audits; inspections, certifications and 
approvals; and a demonstration of financial capability to perform. USDA 
evaluated the offeror's ability to responsibly execute the requirements 
of the contract as they pertain to administrative, ethical, safety, 
compliance, and financial prowess of the offeror. As part of USDA's 
standard internal controls, the acquisition will be reviewed for 
compliance to the solicitation and Federal regulations.
    Like other Federal contracts administered by USDA, FFFBP and its 
awardees require strict adherence to the FAR and other regulations. All 
proposals were carefully reviewed by a team of approximately 18 
contracting and technical experts, and contracts were made accordingly.
    Proposals for the FFFBP were evaluated by (in descending order of 
importance) the technical information: past performance of the offeror, 
the offeror's capability to perform, and the prices offered. Offerors 
must have met all criteria in order to be competitive and must have, or 
be able to acquire, a Perishable Agricultural Commodities Act (PACA) 
license to comply with the contractual requirement. All current 
contractors have valid PACA licenses.
    Each vendor awarded a contract provided three past performance 
references for similar contract/orders completed within the past 3 
years (or contracts and orders which were currently being completed). 
The amounts and locations awarded were based on the offers received and 
the evaluation of those offers.
    Claim: There is no accountability in FFFBP.
    Fact: USDA provides oversight throughout the contract period, 
conducting robust audits to ensure food safety plans are followed, that 
only domestic produce is provided, and that quality products are 
delivered, among other contract administration matters. Contracts 
require suppliers to source food from producers, prepare the boxes of 
items identified in their proposal, and deliver the boxes to nonprofit 
organizations on a mutually agreeable, recurring schedule while 
adhering to food safety protocols. Payment is only made upon the 
submission of an invoice documenting evidence of delivery and adherence 
to the contractual requirements. In addition, the Contracting Officer 
is responsible for monitoring the performance of all contractors. If 
there are concerns, contractual remedies may be used, which could 
include termination. USDA has chosen to exercise this right in two 
situations. As with any new program, evaluations are ongoing to assist 
USDA in determining whether any adjustments are needed.
    Claim: Increasing the benefits associated with the Supplemental 
Nutrition Assistance Program (SNAP) or increasing funding for The 
Emergency Food Assistance Program (TEFAP) would have been a smarter 
policy solution.
    Fact: Increases to SNAP or TEFAP are subject to Congressional 
action. Unlike these programs, there are no hurdles to households 
seeking food from FFFBP. This program provides food to any family in 
need regardless of income, employment, immigration status, etc.
    Further, in addition to supplying food to families in need, the 
program was crafted in response to unprecedented global and domestic 
disruption to the food supply chain. FFFBP serves three objectives 
unique to the program:

  <bullet> Provides an alternative market for food intended for 
        restaurants and food service, creating outlets for supply 
        chains that could not be easily realigned to retail markets 
        quickly enough to prevent spoilage.

  <bullet> Provides fresh products in greater quantity than suitable 
        for traditional emergency feeding programs--items such as 
        dairy, fluid milk and cooked meat--which present unique 
        logistical challenges for distribution.

  <bullet> Re-employ workers in the commercial food distribution 
        sector, whose work was idled by the closure of restaurants, 
        hotels, and other food service businesses.

    Claim: Increasing SNAP benefits is the only viable approach to meet 
the nutrition needs of Americans.
    Fact: The COVID-19 pandemic brought unprecedented challenges to our 
nation's food supply system. Simply providing more money for use in 
retail venues, while many retailers were facing historic demand:

  <bullet> Would not have moved excess product that had been intended 
        for non-retail buyers;

  <bullet> Would not have put Americans to work, and most importantly;

  <bullet> Would not have distributed nutritious and abundant fresh 
        food to Americans most in need during this crisis.

    The pandemic and the FFFBP have made clear that we need to address 
food insecurity in creative ways that leverage public and private 
capabilities to America's nutrition needs.
    Claim: The program only serves limited areas and did not take into 
consideration those areas with the most need.
    Fact: On July 1, 2020, USDA announced $202 million in new 
contracts, via a new acquisition activity, with select vendors whose 
offers were not previously accepted due to various minor technical 
issues in their proposals. These distributors will help direct food to 
under-served areas and will have an increased focus on Opportunity 
Zones in order to direct food to reach under-served areas, places where 
either no boxes have yet been delivered, or where boxes are being 
delivered but where there is additional need. Original RFP offerors do 
not need to submit additional or revised information unless asked to do 
so by the Contracting Officer.
    Claim: USDA fell woefully short of their commitment to deliver 40 
million boxes to people in need by June 30, 2020.
    Fact: As of July 22, 2020, USDA has invoiced 35.4 million boxes for 
the period ending June 30, 2020. While deliveries from the base period 
of performance have ceased, AMS continues to receive and process 
invoices, leaving the total amount of boxes delivered subject to 
change. Critics of the program essentially want to tell you the final 
score of the game before it is over!
    Additionally, FFFBP has far exceeded USDA's April estimate that the 
program would procure $300 million per month in fresh fruits, 
vegetables, meat, and dairy. The value of the 35.4 million boxes 
invoiced so far in May and June is more than $940 million.
    Claim: There are no clear points of contact within the Agricultural 
Marketing Service (AMS) to submit complaints or ask questions.
    Fact: The FFFBP website via AMS has a specific email address that 
allows USDA internal teams to triage inquiries. AMS's contracting team 
fields inquiries from recipients and contractors on a regular basis 
through this channel.
    Claim: USDA has not explained their rationale for the various 
regions (e.g., Puerto Rico being part of the Mid-Atlantic Region).
    Fact: USDA used the identical regional breakdown used by Food, 
Nutrition, and Consumer Services (FNCS). Applying these existing 
regional boundaries allowed USDA to quickly delineate areas for local 
and regional procurement of food and distribution of boxes--a stated 
objective of the program.
    Claim: Some contractors fell short of the number of boxes they were 
contracted to deliver.
    Fact: The following cannot be stressed enough: no vendor is paid 
until proof of delivery and compliance with the contract is confirmed.
    Contracts included not-to-exceed volumes, but did not stipulate a 
minimum performance level, allowing flexibility under changing market 
conditions. Fluid milk is a good example of the soundness of this 
approach:

  <bullet> Demand and pricing for cheese increased throughout the 
        contract period;

  <bullet> Milk was directed to the processing of cheese; and

  <bullet> Less fluid milk was available in certain areas as a result.

  <bullet> Therefore, a contract for specific volumes would have 
        negatively impacted the dairy industry.

    Remaining funds not paid against contracts in the first round were 
used to augment the program in the second round. Any funds remaining 
from the second round will be applied to the new round of vendor 
solicitations for deliveries through October, which USDA will announce 
shortly.
                                 ______
                                 
Submitted Comments by Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
          ``These have been great for the families that we are serving 
        mainly because these are items that with limited incomes most 
        people aren't able to purchase due to getting other basic foods 
        that they need. The popularity has been outstanding, the 
        product has been great, and I only wish I was able to get more. 
        The food chain per say is still tight in most stores and people 
        are trying to stretch their dollars as much as they can. I am 
        getting most of these boxes from the Central PA Food Bank and I 
        did get some from Ryan Campbell Farms, but not been able to 
        receive more from them.''
               Mel Curtis, YMCA of Centre County, Anti-Hunger Director.
          ``Fresh produce boxes were received and weighed approximately 
        20lbs each I and other volunteers were amazed at the variety of 
        fresh produce. They were amazing. Quality, excellent. No 
        spoilage that I could see or heard from anyone. Received some 
        comments second hand that clients were very appreciative and 
        amazed at the quantity and variety.
          One client, no two clients, commented to me directly that 
        they were going to make homemade vegetable soup. They were 
        excited actually.
          My opinion. To be able to distribute these emergency [boxes] 
        to each and every client was a `God'send. Both types were well 
        received and would be great to continue to distribute to all 
        during these difficult times.''
                               John, Christian Food Bank of Elk County.
          ``The USDA Farm[ers] to Families Food Box Program has been a 
        blessing to the Food for Friends Food Bank in Columbia County, 
        Pa. The quality of the produce is very good and the variety of 
        fruits and vegetables is excellent. The people we serve look 
        forward to receiving the items every other week. I hope the 
        program is able to continue till the end of the year.''
             John Trathen, Food for Friends Food Bank Committee Member.
          ``We are receiving and distributing dairy boxes and half 
        gallons of 2% milk from Schneiders' and Turner Dairy. We can 
        get all the milk we need, but the dairy boxes are limited. 
        Dairy boxes contain cheese, yogurt, butter, etc., as well as 
        milk. The boxes are easy to distribute when we have drive-thru 
        distributions because we can safely load them directly into 
        clients' trunks. We also receive all the produce boxes we need 
        that contain potatoes, carrots, cabbage, onions, fruit, etc. 
        Because these items are already boxed, it is easy for us to 
        distribute them. The Farm to Families program has enabled us to 
        distribute healthy food to families in need, and it would be 
        important to continue it during this pandemic.''
                 Sister Karen Kosin, Second Harvest Food Bank of NW PA.
                                 ______
                                 
                          Submitted Questions
Responses from Hon. Greg Ibach, Under Secretary, Marketing and 
        Regulatory Programs, U.S. Department of Agriculture
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. For Rounds 1 and 2 of FFFBP, what is USDA doing to 
ensure that all the food in the boxes, including processed foods like 
cooked chicken and pork and dairy products, can be traced back to 
domestic producers?
    Answer. USDA provides oversight throughout the contract period, 
conducting robust audits to ensure food safety plans are followed, that 
only domestic produce is provided, and that quality products are 
delivered, among other contract administration matters. Outlined below 
and attached is the relevant contract requirements specific to domestic 
origin. (See attached domestic origin certification that must be 
submitted by all vendors [Attachment 1].
    Agricultural Marketing Service (AMS) technical staff conduct 
reviews of all vendor proposals to assist AMS contracting staff 
determine vendor eligibility for the Base and Option 1 food box 
purchases, including confirmation of domestic origin of product 
provided.
    Agency technical experts also complete vendor verification reviews 
and audits, including domestic origin in support of the USDA Farmers to 
Families Food Box Program (FFFBP). Additional information about the AMS 
Domestic Origin Verification (DOV) program can be found at 
www.ams.usda.gov.
    Contracting staff is responsible for monitoring the performance of 
all contractors. If there are concerns, contractual remedies may be 
used, which could include termination.

    Question 1a. Has USDA confirmed that all contractors, including 
those with little to no experience in food distribution, have the 
necessary documentation describing where they sourced their food? Has 
USDA paid any contractors without confirming such documentation?
    Answer. USDA provides oversight throughout the contract period, 
conducting robust audits to ensure food safety plans are followed, that 
only domestic produce is provided, and that quality products are 
delivered, among other contract administration matters. Contracts 
require suppliers to source food from producers, prepare the boxes of 
items identified in their proposal, and deliver the boxes to nonprofit 
organizations on a mutually agreeable, recurring schedule, while 
adhering to the high USDA food safety protocols. Payment will be made 
upon the submission of an invoice documenting evidence of delivery and 
adherence to the contractual requirements. The Federal Acquisition 
Regulation Part 49 provides guidance regarding termination of Federal 
contracts, including contracts approved for the FFFBP.
    As part of their proposal, offerors described their capabilities 
for achieving performance under the contract. Demonstrations of this 
capability included but were not limited to: commercial experience; 
business ethics and integrity standards; food safety and/or regulatory 
audits; inspections; certifications and approvals; and a demonstration 
of financial capability to perform. USDA evaluated the offeror's 
ability to responsibly execute the requirements of the contract as they 
pertain to administrative, ethical, safety, compliance, and financial 
prowess of the offeror.
    As part of the technical review prior to contract award, USDA 
contracting staff reviewed subcontracting plans of all suppliers. In 
addition, during the execution of the food box program, desk audits. 
and in some cases when safety allows it, on-site audits are being 
conducted to verify contracting terms are being met.

    Question 2. Please provide the number of individuals at USDA, as 
well as the number of FTEs, ensuring that the FFFBP contractors are in 
compliance with the terms of the contracts in Rounds 1 and 2. Please 
provide the job title for each individual and describe the 
responsibilities for each individual, as it relates to ensuring 
compliance with the Food Box contract.
    Answer. USDA has designated a team of specialists and contracting 
officers to assist in the administration of the FFFBP purchases. 
Purchases were awarded by region. There are eight regions covering the 
country and territories including one designated as multi-regional. 
Each region has a specialist assigned to it to assist with questions, 
logistics and to monitor pricing and payments.
    The USDA team is being led by a GS15 Agricultural Marketing 
Specialist (Division Director) responsible for overall team planning 
and project execution. Contracting activity was led by a GS14 
Contracting Officer (CO) responsible for development of the purchase 
strategy, solicitation design and submission review, contract award and 
compliance supported by a team of contract specialists. In addition, 
the team consists of five 1102's at the GS12 level and two 1146's, one 
at the GS12 and the other at the GS11 level. 1102's are Contract 
Specialists and 1146's are Agricultural Marketing Specialists.
    The contracting team is being assisted by a group of four from 
across the Agency with expertise to review proposal submissions for 
technical sufficiency and to conduct food safety and Domestic Origin 
Verification audits.
    A team from the Web Based Supply Chain Management (WBSCM) group and 
data analytics assisted in contractor training and report development. 
A GS13 Program Analyst, and two GS12 Agricultural Marketing Specialists 
assisted in these activities.

    Question 3. During the hearing, I had requested a list of all the 
nonprofits receiving food boxes from FFFBP contractors in Rounds 1 and 
2.
    Please provide a list of those nonprofits, as well as any 
governmental entities, the address of each entity, and how many boxes 
each entity received.
    Answer. Yes, we are providing a list of entities receiving boxes, 
[see Attachment 2]. We are not capturing addresses and box counts.

    Question 4. Just 3 days after the hearing, USDA announced a third 
round of FFFBP contracts and significant changes to the Program in the 
third round.
    Why did USDA decide not to extend any of the existing contracts 
into Round 3?
    Answer. On August 25, 2020, USDA announced it has begun issuing 
agreements for distribution of Food Boxes in the upcoming third round 
of solicitations. Issuing new agreements for distribution in the in the 
third round using Basic Ordering Agreements (BOA) gives USDA greater 
flexibility to ensure contracted entities provide adequate coverage 
throughout the states and territories. In addition, the new agreements 
incorporate feedback received during the first two rounds, including 
placing more emphasis on food insecurity by seeking entities that 
provide combination boxes and requiring distributors to illustrate how 
they will provide coverage to areas identified as opportunity zones, 
detail subcontracting agreements, and address the ``last mile'' 
delivery of product into the hands of the food-insecure population.

    Question 4a. The solicitation for the third round notes that 
offerors ``must self-certify that nonprofits have the capability to 
ensure that only needy people, or the food-insecure population, will 
receive the food boxes,'' and that the offerors must address their 
ability to ensure this requirement is enforced and validated. Please 
explain in detail what information USDA would consider sufficient to 
demonstrate the nonprofit's capability and how it expects offerors to 
enforce and validate the requirement.
    Answer. An offeror's nonprofit partners must comply with AMS Doc. 
No. AMS-CP-20-0040. An offeror must self-certify that their nonprofit 
partner has the capability to ensure that only needy people, or the 
food-insecure population, will receive the food boxes through this 
Program. As part of the BOA proposal submission narrative, offerors 
shall address their ability to ensure that the aforementioned 
requirements are enforced and validated. The offeror is also required 
to affirm this via the Section E.2, BOA Submission Spreadsheet tab 
B.4.a-d `Required Performance Elements/Affirmation.' USDA contracting 
staff is responsible for monitoring the performance of all contractors. 
If there are concerns, contractual remedies may be used, which could 
include termination.

    Question 5. The Federal Procurement Data System (FPDS) is the 
Federal Government's central database of information on Federal 
procurement actions. Federal regulations require Federal agencies to 
report procurement actions, such as FFFBP contract awards, to FPDS.
    Can USDA please explain the numerous inconsistencies between the 
list of contractors posted on USDA's FFFBP website and the information 
in FPDS, and commit to ensuring that the correct information is posted 
on both websites? For example, USDA's website shows that Borden Dairy 
Co. was awarded a contract of $146.9 million in the first round. FPDS 
shows that Borden Dairy Co. was awarded a contract of $36.7 million in 
the first round and had its contract extended for $36.16 million in the 
second round.
    Answer. Awards were based on contractors stated ability to deliver 
specific amounts of food boxes. Upon award and based on discussions 
with offerors, it was occasionally decided that a different amount of 
boxes were going to be delivered for various reasons, thus the 
discrepancy. Contracts were awarded on a ``Not to Exceed'' basis. The 
AMS website shows the NTE and FPDS is the actual amount the contractor 
agrees to deliver. Contractors are only paid for what they deliver.

    Question 6. Please describe in detail the economic analysis used by 
USDA to determine purchases in the Trade Mitigation Food Purchase and 
Distribution Program.
    For example, how does that economic analysis justify USDA's 
purchase of canned vegetable soups, such as cream of mushroom soup, for 
the Trade Mitigation Food Purchase and Distribution Program?
    Answer. An economic assessment of trade damage conducted by USDA's 
Office of the Chief Economist identified a variety of processed foods 
negatively impacted by retaliatory tariffs. These processed food 
products included tomato sauces, canned tomatoes, pasta, prepared 
cereals, soups/broths, and other food products commonly purchased for 
USDA feeding programs. A link to the reports that outline the 
methodology used to estimate trade damages can be found here:

          https://www.usda.gov/sites/default/files/documents/
        USDA_Trade_Method
        ology_Report_2018.pdf [Attachment 3]
          https://www.usda.gov/sites/default/files/documents/
        USDA_Trade_Method
        ology_Report_2019.pdf [Attachment 4]

    Question 7. On July 30th, the Food and Nutrition Service (FNS) 
announced a nearly $1 million award under the Healthy Fluid Milk 
Incentive (HFMI) Project to the Baylor University Collaborative on 
Hunger and Poverty. This is in addition to FNS's September 2019 grant 
of $5 million to Baylor University and FNS's March 2020 collaboration 
with Baylor University to deliver food boxes to children.
    How many other entities submitted applications for an HFMI award?
    Question 7a. Can USDA provide the points awarded for each submitted 
HFMI application, broken down by evaluation factor?
    Question 7b. How much funding has Baylor University received from 
FNS for each of Fiscal Years 2009 through 2020?
    Answer 7-7b. The information requested is outside the purview of 
the Marketing and Regulatory Programs Mission Area. As such, we cannot 
offer further insight, and would respectfully encourage the 
Representative to engaged directly with the Food and Nutrition Service.
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question 1. My food bank in Monterey County is receiving dairy and 
produce boxes from the Central Valley. They are partnering with some 
wonderful distributors, but I have asked myself, why is a food bank in 
the Salad Bowl of the World receiving produce from a different region? 
From conversations with the California Association of Food Banks, I 
understand that this example is a microcosm of what is happening up and 
down the state.
    In agricultural hubs like my district, what is USDA doing to ensure 
local produce reaches local food banks and nonprofits?
    Answer. For Round 3 solicitations, USDA is requiring offerors to 
include a written narrative describing their role in support of 
American agriculture. The offeror should address how their 
participation supports the mission of facilitating agricultural 
markets. The offeror should also describe how they intend to engage 
small farmers (e.g., those farms servicing local and regional interests 
and farmers markets). If this is not addressed, USDA will not consider 
the proposal. USDA is specifying that one or two locally grown fruit or 
vegetable items, as available, be included in the produce and 
combination box.

    Question 2. From stories I have heard from my food banks, I am 
aware that some of the food boxes are full of nutritious fruits and 
vegetables or dairy products, while others are less than ideal--maybe 
some onions and carrots.
    Is every food box supposed to be equal to another in the same 
category?
    Answer. USDA understands that the value of a food box will depend 
on the product it contains. However, USDA has attempted to provide 
equal volume of food by requiring about 15-20 pounds each of produce, 
meat and dairy in individual boxes and the combination box.

    Question 2a. What are you doing to ensure the nutritional value of 
food boxes?
    Answer. A primary driver of the emphasis on combination boxes for 
the next round of solicitations is the need to provide a nutritionally 
balanced food box. USDA has specified a certain amount of food in each 
category of product as illustrated in the excerpted solicitation 
language below.

          [b.] Contents of boxes are limited to the items described 
        herein.
          c. Boxes with a net weight ranging from 30-40 lbs are 
        required.
          d. Boxes must contain, at a minimum;

                  1) Fresh Fruit and vegetable (F&V) content:

                          i. 2-4 lbs. of root vegetables such as 
                        potatoes, yams, carrots, onions, etc.
                          ii. 2-4 lbs. of fruits with longer storage 
                        life such as stone fruits, citrus, apples, or 
                        melons.
                          iii. 1 or 2 locally grown fruit or vegetable 
                        items, as available, and if none available, add 
                        additional items of vendors choice or increase 
                        the fruit or vegetables to meet a minimum F&V 
                        weight range of 10 to 12lbs.

                  2) Dairy content:

                          i. 5-6 lbs of at least 2 dairy items 
                        including at least one from group A and one 
                        from group B plus the equivalent of 1 gal of 
                        milk (2 percent or whole)

------------------------------------------------------------------------
              Group A                              Group B
------------------------------------------------------------------------
Cheddar Cheese                       Cottage Cheese
Swiss Cheese                         Cream Cheese
Pepperjack Cheese                    Yogurt
Mozzarella Cheese                    Butter
                                     Sour Cream
------------------------------------------------------------------------

                  3) Meat and Egg or Egg Products (meat must be pre-
                cooked) content:

                          i. 5-6 lbs of at least 2 pre-cooked frozen or 
                        refrigerated meat items. No more than 1 lb. of 
                        lunch meat item is permitted.

                  4) Meat and dairy must have combined weight of at 
                least 10 lbs
                  5) Fluid milk or other temperature sensitive items 
                may be provided either physically in the box or 
                provided simultaneously with the other box contents 
                (for the purposes of delivery confirmation and 
                invoicing, all the required components are considered a 
                single box, even if delivered simultaneously outside 
                the box). All the materials specified above must be 
                given simultaneously to an end-user. The contractor is 
                responsible for ensuring appropriate packaging[ . . . ] 
                *
---------------------------------------------------------------------------
    * Editor's note: the excerpt is from Combined Synopsis/
Solicitation--12-3J14-20-B-0588--Families to Farmers Food Boxes and is 
available at: https://www.ams.usda.gov/sites/default/files/media/
FFFB_solicitationRound3.pdf.

    Question 2b. Why have frozen fruits and vegetables, which are often 
harvested from the same fields as fresh produce and have the same 
nutritional content, excluded from this program? Does USDA plan to 
incorporate these products into the Farmers to Families Food Box 
Program in the future?
    Answer. At the time of program development, the fresh produce, 
dairy, chicken and pork industries were negatively impacted by COVID-19 
and subsequently selected as the product categories for the program. 
Fresh produce farmers in particular were impacted as product was being 
left in the field to rot as distributors lost their traditional 
restaurant and hotel business.
    Other USDA purchase programs outside of the Farmers to Families 
Food Box Program are having a positive impact on the frozen produce 
industry. USDA purchases a significant amount of frozen product each 
year with Section 32 and other funds for distribution to food banks and 
other outlets.

    Question 3. When contracts are canceled for various reasons, is the 
money allocated to that contract reallocated to distributors in the 
same region? For example, if a contract in California was canceled, is 
the unspent money reallocated to another distributor in the Western 
Region?
    Answer. USDA collects and displays in map, chart and other formats 
data illustrating coverage of the box program. USDA knows at any time 
how many boxes, what kind of boxes, and the value of boxes delivered to 
each state and territory. Utilizing this data as well as continual 
feedback from governmental entities, industry groups as well as 
nonprofit organizations, USDA is continuing to develop plans and 
execute contracts to help better serve under-served areas. For example, 
to date, 16 contractors have been added to the program and have 
delivered an extra 2.849 million boxes to under-served areas such as 
Maine, Alaska and North Dakota that had previously received few or 
none. There are currently 20 contractors serving CA alone with others 
covering the rest of the West Coast.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. Many food banks have existing relationships with local 
farmers. In Maine, some food pantries have gone from having no fresh 
produce to an oversupply, as boxes arrive at the same time as product 
from local farmers.
    What changes will you make in the next round of the program to 
ensure that the food boxes are better complementing these existing 
partnerships?
    Answer. For the third round of solicitations the Department has 
made a decision to refine the program to include more of an emphasis on 
food insecurity and nutrition and less on surplus removal. The delivery 
record of almost 70 million boxes as of Aug. 21 in the first two rounds 
of solicitations is a testament to the strength of the existing network 
of contractor and nonprofit relationships. However, to further 
strengthen this network USDA is expecting offerors to have a more 
robust relationship established with nonprofit recipients. Offerors 
must provide a written and signed agreement between themselves and the 
nonprofit (if a subcontracted nonprofit is part of the offerors supply 
chain). At a minimum, the agreement must confirm that a mutually agreed 
to delivery schedule and approach have been agreed upon. The agreement 
must explain how the two parties intend to ensure last mile delivery 
and to avoid delivering product that may not be needed.
    Offerors are required to identify and explain the distribution plan 
for their food boxes; this would include the scope and extent of 
subcontracts (including any potential nonprofit agreements). The prime 
contractor is solely responsible for ensuring truck to trunk model, 
last mile delivery and aspects pertaining to means testing.

    Question 2. The Farmers to Families Food Box Program was intended 
to divert food that would otherwise be wasted due to supply chain 
disruptions and processing bottlenecks to families in need. However, it 
doesn't seem that USDA has a mechanism to help distributors identify 
this soon-to-be wasted food, or to assist farmers with excess supply in 
finding a contracted distributor.
    Did USDA provide any guidance to approved contractors on the 
products they should purchase in order to minimize food waste? If not, 
why not?
    Answer. During the planning stages of the food box program, USDA 
staff consulted with numerous trade associations, companies and other 
stakeholder groups to identify agricultural products that were in 
oversupply due to supply chain disruptions. As a result, requirements 
were developed for boxes to contain a variety of fruits and vegetables, 
milk, other dairy products, pork and chicken.

    Question 2a. If a farmer has excess product, who should they 
contact at USDA to be matched with a buyer for this program?
    Answer. USDA has posted a complete list of contractors to its 
website to enable farmers to reach out to establish business 
connections.

    Question 3. Food bank representatives testified at the hearing that 
some of the boxes were assembled in ways that contributed to food 
waste. For example, onions packed with melons resulted in the contents 
of the boxes quickly rotting.
    What new guidance will you provide to contractors in the next round 
to ensure that the food purchased for this program is not wasted?
    Answer. Recipient organizations have been instructed to not accept 
delivery of boxes containing product of low quality. USDA contracting 
staff occasionally receive complaints and immediately follow up with 
the contractor to remedy the situation.
    In addition, the government reserves the right to perform quality 
assurance at source; source includes, but is not limited to, 
contractor's manufacturing facility, packaging facility, warehouse, in-
house laboratory, subcontractor's facilities, etc. USDA has exercised 
this right in a number of situations to ensure the quality of boxes 
being provided through the program.

    Question 4. You mentioned that USDA collects data on the nonprofits 
that receive the food boxes but does not currently provide this data 
publicly.
    If a family in need would like to receive a food box, how should 
they find which nonprofits are distributing them in their community?
    Answer. USDA maintains a list of nonprofit recipients to facilitate 
confirmation of delivery. At this time, USDA does not have a matching 
mechanism for individual recipients to find details about food box 
distribution events. Since contractors have the most readily available 
schedule and nonprofit contact, recipients are being directed to the 
list on our website.

    Question 5. You testified at the hearing that USDA had not rejected 
any invoices for food boxes provided under this program.
    How many invoices has USDA now received to date? How many have been 
paid? How many have been rejected?
    Answer. As of August 21, USDA has received 105,925 invoices for 
payment. A little over 730 have been rejected for further review for a 
variety of reasons, including incomplete supporting documentation. 
Payment will be made only upon the submission of an invoice documenting 
evidence of delivery and adherence to the contractual requirements.
Question Submitted by Hon. Jim Hagedorn, a Representative in Congress 
        from Minnesota
    Question. Under Secretary Ibach, thank you for spending time with 
the Committee last week in defense of the Farmers to Families Food Box 
Program. While MN and my district have benefitted from the program, our 
dairy processing industry has faced some issues with procuring raw 
materials. It seems there is an unintended consequence to the surge of 
cheddar and mozzarella purchases by USDA. The milk market itself, which 
cheese companies in my district rely on to plan, has seen unprecedented 
swings in pricing over the past 3 months. An example, block cheddar 
went from a low in April of $1.00 to an all-time high of $3.00 in July. 
The last time there was a spike like that was in 2014, and July's price 
is 22% higher than 2014. On the flip side, there are other cheeses such 
as swiss, jack cheese, and aged cheeses that are in oversupply.
    Would USDA consider diversifying their cheese purchases in upcoming 
solicitations to give the market time to correct itself?
    Answer. Yes, USDA has expanded the allowable cheese products in the 
food box for Round 3 solicitations given ever evolving market 
developments to include . . .

          Dairy Box:

                  1. 8-12 lbs. of at least 2 dairy items including at 
                least one from group A and one from group B plus the 
                equivalent of 1-2 gallons, of milk (2 percent or whole)
                  2. Total Box Weight including Fluid Milk must be 
                between 17-21 lbs.

------------------------------------------------------------------------
              Group A                              Group B
------------------------------------------------------------------------
Cheddar Cheese                       Cottage Cheese
Swiss Cheese                         Cream Cheese
Pepperjack Cheese                    Yogurt
Mozzarella Cheese                    Butter
Other hard, semi-firm or semi-soft   Sour Cream
 cheese
------------------------------------------------------------------------

          Updates to the Combination Box:

------------------------------------------------------------------------
 1.1.1 D. (2) (i)--Dairy Content Group
                   A                                 Group B
------------------------------------------------------------------------
Cheddar Cheese                          Cottage Cheese
Swiss Cheese                            Cream Cheese
Pepper Jack Cheese                      Yogurt
Mozzarella Cheese                       Butter
Other hard, semi-firm or semi-soft      Sour Cream
 cheese
------------------------------------------------------------------------

                             attachment [1]
Exhibit 3--Domestic Origin Certification
    This form must be completed by an authorized company official or 
their designee for each contract/purchase order delivery awarded. The 
completed form must be presented to a representative of the USDA, 
Agricultural Marketing Service (AMS), certification agent at the 
processing facility; the completed form must also be presented to the 
USDA Contracting Officer or agent thereof upon request. If imported 
product is brought into the facility during the production and shipment 
of product for this contract, it is the contractor's responsibility to 
notify the applicable certification branch. Each contractor and/or 
processing facility under this contract must have a copy of this form 
on file.
    Solicitation Number: 
________________________________________________
    Contract/Purchase Order Number: 
________________________________________________
    Product: ________________________________________________
    Does your company process or handle products originating from 
sources other than the United States, its territories or possessions, 
Puerto Rico, or the Trust Territories of the Pacific Islands?
    
     Yes 
     No  If yes, attach a copy of your segregation plan explaining how 
such product is stored and processed separate from domestic product.
    Do any of your Subcontractor/Suppliers process or handle products 
originating from sources other than the United States, its territories 
or possessions, Puerto Rico, or the Trust Territories of the Pacific 
Islands?
    
     Yes 
     No  If yes, attach a copy of each subcontractor's/supplier's 
segregation plan explaining how such product is stored and processed 
separate from domestic product.
    I certify that all products sold to the Department of Agriculture 
are of 100 percent domestic origin and that all above statements are 
true. I further certify that traceability documentation will be made 
available to USDA, Agricultural Marketing Service representatives upon 
request. Warning: 18 U.S.C. Part 1, Chapter 47, Section 1001 states 
that ``Except as otherwise provided in this section, whoever, in any 
manner within the jurisdiction of the executive, legislative, or 
judicial branch of the Government of the United States, knowingly and 
willfully (1) falsifies, conceals, or covers up by any trick, scheme, 
or devise a material fact; (2) makes any materially false, fictitious 
or fraudulent statement or representation; or (3) makes or uses any 
false writing or document knowing the same to contain materially false, 
fictitious, or fraudulent statement or entry; shall be fined under this 
title or imprisoned not more than 5 years, or both.''
    Knowingly and willingly making false statements may also constitute 
a violation of the Perishable Agricultural Commodities Act (7 U.S.C., 
499a-499t), and may result in monetary penalties or license suspension 
or revocation.
    Signature: ________________________________________________
                        Print and Sign Name (Only authorized 
                        signatures)
    Title: ________________________________________________
    Company: ________________________________________________
    Date: ________________________________________________
                             attachment [2]

     Farmers To Families Food Box Program--Recipient Information for Base Period Only (May 15-June 30, 2020)
----------------------------------------------------------------------------------------------------------------
                                                                               Food
                                   Food Box Ship    Food Box     Food Box      Box       Del.     Food Box Value
  Recipient Name    Food Box Type     To Region     Ship  To     Ship  To      Ship     Quan.       Delivered
                                                      City         State      To ZIP
----------------------------------------------------------------------------------------------------------------
10 Learn North      Combination    Midwest        North        IL              60064        100        $6,718.00
 Chicago             Box                           Chicago
10 Learn North      Fresh Fruit/   Midwest        North        IL              60064        100        $6,406.00
 Chicago             Vegetable                     Chicago
                     Box
11th & Pike Mobile  Dairy          Mid-Atlantic   Reading      PA              19608        240        $9,600.00
 Site                Products Box
121 Community       Combination    South West     Grapevine    TX              76051      2,000       $69,940.00
 Church              Box
121 Community       Dairy          South West     Grapevine    TX              76051      1,600       $73,216.00
 Church              Products Box
121 Community       Fluid Milk     South West     Grapevine    TX              76051      1,800        $5,256.00
 Church
121 Community       Fresh Fruit/   South West     Grapevine    TX              76051        400        $9,320.00
 Church              Vegetable
                     Box
18 Reasons          Fresh Fruit/   Western        San          CA              94112      1,400       $35,200.00
                     Vegetable                     Francisco
                     Box
180 Disaster        Precooked      South West     Jenks        OK              74037      1,536      $158,438.40
 Relief              Meat Box
1st Baptist Church  Fresh Fruit/   South East     Melbourne    FL              32904      1,512       $37,044.00
 of Melbourne        Vegetable
                     Box
1st Baptist of      Fresh Fruit/   Midwest        Holly        MI              48442      1,800       $26,910.00
 Holly               Vegetable
                     Box
1st Step/           Fluid Milk     South East     Daytona      FL              32124        200          $758.00
 Shfbvc3889                                        Beach
242 Community       Dairy          Midwest        Brighton     MI              48114      1,300       $31,551.00
 Church              Products Box
242 Community       Fresh Fruit/   Midwest        Brighton     MI              48114      3,300       $66,321.00
 Church              Vegetable
                     Box
242 Community       Precooked      Midwest        Brighton     MI              48114      1,500       $60,010.00
 Church              Meat Box
2nd Harvest of CF   Fresh Fruit/   South East     Palm Bay     FL              32907      9,072      $222,264.00
 Hands for Healing   Vegetable
                     Box
2nd Harvest of CF   Fresh Fruit/   South East     Titusville   FL              32780      8,064      $197,568.00
 Hummingbird         Vegetable
                     Box
2nd Liners Sue      Fresh Fruit/   South East     Moss Point   MS              39563        400       $24,000.00
 Ellen Community     Vegetable
 Cen.                Box
2nd Mt. Moriah      Fresh Fruit/   South East     Panama City  FL              32401        900       $26,100.00
 Missionary          Vegetable
 Baptist Ch.         Box
3 Circles Church    Fresh Fruit/   South East     Fairhope     AL              36532        250        $7,250.00
 of Fairhope         Vegetable
                     Box
3 Crosses Church    Fresh Fruit/   Western        Castro       CA              94546      4,200       $88,290.00
                     Vegetable                     Valley
                     Box
3 Delta Hand of     Fluid Milk     South East     Shaw         MS              38773        230          $871.70
 Hope
3 O'clock Food      Fluid Milk     South West     Baton Rouge  LA              70809     43,200      $126,144.00
 Proj.
4 My City Inc.      Fluid Milk     Mid-Atlantic   Windsor      MD              21244     10,606      $263,293.92
                                                   Mill
4 My City Inc.      Fresh Fruit/   Mid-Atlantic   Windsor      MD              21244    165,227    $4,617,681.44
                     Vegetable                     Mill
                     Box
4 Saints Episcopal  Fresh Fruit/   South West     Fort Worth   TX              76103        736       $12,504.64
 Food Pantry         Vegetable
                     Box
4:19 Food Pantry    Fresh Fruit/   South West     Red Oak      TX              75154        256        $4,349.44
 Faith Bapti         Vegetable
                     Box
412 Food Rescue     Dairy          Mid-Atlantic   Pittsburgh   PA              15206     10,200      $199,890.00
                     Products Box
412 Food Rescue     Dairy          Mid-Atlantic   Pittsburgh   PA              15220      5,824      $188,814.08
                     Products Box
412 Food Rescue     Fluid Milk     Mid-Atlantic   Pittsburgh   PA              15206      3,057       $34,257.30
412 Food Rescue     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15204      1,862       $30,201.64
                     Vegetable
                     Box
412 Food Rescue     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15206     23,033      $406,783.07
                     Vegetable
                     Box
412 Food Rescue     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15220        819       $15,520.05
                     Vegetable
                     Box
412 Food Rescue     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15222      3,150       $59,692.50
                     Vegetable
                     Box
412 Food Rescue @   Dairy          Mid-Atlantic   Cranberryto  PA              16066        951       $10,461.00
 Victory Family      Products Box                  wnship
 Church
412--Covention      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15222        800       $15,264.00
 Center              Vegetable
                     Box
412--Ethnan Temple  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15221        400        $7,632.00
                     Vegetable
                     Box
412--Groveton       Fresh Fruit/   Mid-Atlantic   Coraopolis   PA              15108         69        $1,316.52
 Village             Vegetable
                     Box
412--Hawkins        Fresh Fruit/   Mid-Atlantic   Rankin       PA              15104        380        $7,250.40
 Village             Vegetable
                     Box
412--Hayes Manor    Fresh Fruit/   Mid-Atlantic   McKees       PA              15136        138        $2,633.04
                     Vegetable                     Rocks
                     Box
412--Mapleview      Fresh Fruit/   Mid-Atlantic   Braddock     PA              15104         60        $1,144.80
 Terrace             Vegetable
                     Box
412--McKees Rocks   Fresh Fruit/   Mid-Atlantic   McKees       PA              15136        247        $4,712.76
                     Vegetable                     Rocks
                     Box
412--Orchard Park   Fresh Fruit/   Mid-Atlantic   Duquesne     PA              15110         85        $1,621.80
                     Vegetable
                     Box
412--Pleasant       Fresh Fruit/   Mid-Atlantic   McKees       PA              15136        181        $3,453.48
 Ridge               Vegetable                     Rocks
                     Box
412--Prospect       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15112        188        $3,587.04
 Terrance            Vegetable
                     Box
412--UANSA          Fresh Fruit/   Mid-Atlantic   McKees       PA              15136         37          $705.96
                     Vegetable                     Rocks
                     Box
4Mycity Inc.        Fresh Fruit/   Mid-Atlantic   Randallstow  MD              21133      3,182       $57,276.00
                     Vegetable                     n
                     Box
5 Loaves Food       Fluid Milk     South West     Sachse       TX              75048        836        $2,441.12
 Pantry
501C3 De Marc       Combination    Mid-Atlantic   San Juan     PR              00920      4,032      $349,776.00
 Ministry            Box
5U46 Commissary on  Fresh Fruit/   Midwest        Elgin        IL              60123        500       $13,750.00
 Bowes               Vegetable
                     Box
6 Learn North       Combination    Midwest        Great Lakes  IL              60088        200       $13,436.00
 Chicago             Box
6 Learn North       Combination    Midwest        Great Lakes  IL              60088        100        $6,718.00
 Chicago             Box
7th Day Advent      Fluid Milk     Mountain       Centralia    MO              65240        216          $486.00
 Pantry                             Plains
7th Police          Fresh Fruit/   Midwest        Chicago      IL              60636        189        $6,800.22
 District            Vegetable
                     Box
7th Police          Precooked      Midwest        Chicago      IL              60636        216       $17,521.92
 District            Meat Box
7th Police          Dairy          Midwest        Chicago      IL              60636        210        $5,250.00
 District            Products Box
7th Street Food     Fresh Fruit/   South West     Phoenix      AZ              85040      1,200       $33,000.00
 Pantry              Vegetable
                     Box
8 Learn Herro       Fresh Fruit/   Midwest        Chicago      IL              60612        200       $12,812.00
 Campus              Vegetable
                     Box
8 Learn Herro       Combination    Midwest        Chicago      IL              60612        300       $20,154.00
 Campus              Box
9 Learn North       Combination    Midwest        Chicago      IL              60085        150       $10,077.00
 Chicago             Box
9 Learn North       Combination    Midwest        Waukegan     IL              60085        150       $10,077.00
 Chicago             Box
9 Million Reasons   Fresh Fruit/   North East     Long Island  NY              11101        800       $21,280.00
 Food Pantry         Vegetable                     City
                     Box
A Christian Food    Fresh Fruit/   South West     Plano        TX              75074        320        $5,436.80
 Pantry & Thri       Vegetable
                     Box
A Just Harvest      Fresh Fruit/   Midwest        Chicago      IL              60626        189        $6,800.22
                     Vegetable
                     Box
A Just Harvest      Precooked      Midwest        Chicago      IL              60626        216       $17,521.92
                     Meat Box
A Place in Time     Fresh Fruit/   South East     Pembroke     FL              33029        105        $1,260.00
 Christian           Vegetable                     Pines
 Ministries Inc.     Box
A Sacred Passing    Fresh Fruit/   Western        Seattle      WA              98108        300        $8,250.00
                     Vegetable
                     Box
A Safe Haven        Fluid Milk     Midwest        Chicago      IL              60608      1,260        $4,183.20
A Touch of          Fluid Milk     South East     Spring Hope  NC              27882      3,240       $12,668.40
 Father's Love
A Touch of          Fresh Fruit/   South East     Spring Hope  NC              27882      1,200       $13,800.00
 Father's Love       Vegetable
                     Box
A2H Food Bank of    Fluid Milk     Midwest        Muncie       IN              47303     25,312      $101,248.00
 Ctr. IN
AA CO Partnership   Fresh Fruit/   Mid-Atlantic   Glen Burnie  MD              21060        250        $5,237.50
                     Vegetable
                     Box
Aashirvad Inc.      Dairy          Mid-Atlantic   Chalfont     PA              18914        650       $21,931.00
                     Products Box
Aashirvad Inc.      Fluid Milk     Mid-Atlantic   Robbinsvill  NJ              08561        770       $24,948.00
                                                   e
Aashirvad Inc.      Fluid Milk     Mid-Atlantic   Chalfont     PA              18914      1,155       $37,422.00
Aashirvad Inc.      Fresh Fruit/   Mid-Atlantic   Chalfont     PA              18914        360        $8,272.80
                     Vegetable
                     Box
ABC Adolescent      Fresh Fruit/   South West     Little Rock  AR              72206      3,904       $66,328.96
 Center              Vegetable
                     Box
ABC Adolescent      Fresh Fruit/   South West     Eudora       AR              71640      7,104      $120,696.96
 Eudora              Vegetable
                     Box
Abiding Him Anoint  Fluid Milk     South East     Winter       FL              33884        258        $1,009.22
                                                   Haven
Abiding Life        Fresh Fruit/   South West     Pasadena     TX              77504        752       $12,776.48
 Church              Vegetable
                     Box
Abountin in Faith/  Fluid Milk     South East     Eagle Lake   FL              33839      1,000        $3,906.00
 M
About Fresh         Fresh Fruit/   North East     Boston       MA              02119      2,100       $37,800.00
                     Vegetable
                     Box
Above All Things    Fluid Milk     South West     Anna         TX              75409        432        $1,261.44
Above All Things    Fluid Milk     South West     McKinney     TX              75069        440        $1,284.80
Abundant Faith      Fresh Fruit/   Midwest        Detroit      MI              48215        200        $5,750.00
 Cathedral           Vegetable
                     Box
Abundant Life       Fluid Milk     Midwest        Chicago      IL              60636        180          $597.60
Abundant Life       Dairy          Midwest        Benton       MI              49022        300        $8,700.00
 Cogic               Products Box                  Harbor
Abundant Life       Fresh Fruit/   Midwest        Benton       MI              49022        700       $14,875.00
 Cogic               Vegetable                     Harbor
                     Box
Abundant Life       Fresh Fruit/   Mid-Atlantic   Beverly      NJ              08010        567       $10,744.65
 Community Dev.      Vegetable
                     Box
Abundant Life Day   Fresh Fruit/   South West     Tahlequah    OK              74464        627       $14,609.10
 Center              Vegetable
                     Box
Abundant Living     Fresh Fruit/   South West     Lockhart     TX              78644      4,608       $78,289.92
 Faith Center        Vegetable
                     Box
Abundant Living     Combination    Western        Rancho       CA              91730      9,250      $252,062.50
 Family Church       Box                           Cucamonga
Abundant Living     Dairy          Western        Rancho       CA              91730        150        $4,800.00
 Family Church       Products Box                  Cucamonga
Abundant Living     Fluid Milk     Western        Rancho       CA              91730      2,160       $10,260.00
 Family Church                                     Cucamonga
Abundant Living     Fresh Fruit/   Western        Rancho       CA              91730        100        $2,475.00
 Family Church       Vegetable                     Cucamonga
                     Box
Abundant Living--   Fluid Milk     South West     El Paso      TX              79907      9,600       $47,040.00
 East
Abundent Harvest    Combination    Mountain       Emporia      KS              66801      2,496       $87,285.12
                     Box            Plains
Abundent Harvest    Dairy          Mountain       Emporia      KS              66801      1,632       $74,680.32
                     Products Box   Plains
Abundent Harvest    Fluid Milk     Mountain       Emporia      KS              66801      1,529       $36,604.26
                                    Plains
Abundent Harvest    Fresh Fruit/   Mountain       Emporia      KS              66801      2,967       $51,270.90
                     Vegetable      Plains
                     Box
Abundent Life Just  Fluid Milk     South West     Rayne        LA              70578      1,620        $4,730.40
Academia            Combination    Mid-Atlantic   Carolina     PR              00979      1,920      $166,560.00
 Presbiteriana       Box
Academy for         Fresh Fruit/   Midwest        Dearborn     MI              48126        252        $9,066.96
 Business &          Vegetable
 Technology          Box
 Elementary
Academy of the      Fresh Fruit/   Midwest        Detroit      MI              48210        150        $2,242.50
 Americas            Vegetable
                     Box
Academy of Warren   Fresh Fruit/   Midwest        Warren       MI              48089        100        $1,495.00
                     Vegetable
                     Box
Acadiana Cares      Fluid Milk     South West     Lafayette    LA              70501        216          $630.72
ACC                 Fresh Fruit/   Midwest        Detroit      MI              48203        600       $17,250.00
                     Vegetable
                     Box
ACCE                Fresh Fruit/   Western        Richmond     CA              94804        122        $3,416.00
                     Vegetable
                     Box
Access Chicago      Fresh Fruit/   Midwest        Chicago      IL              60411        252        $9,066.96
 Heights             Vegetable                     Heights
                     Box
Access Food Share   Combination    Western        Medford      OR              97504      2,820       $98,700.00
                     Box
Access Food Share   Dairy          Western        Medford      OR              97504         50        $1,500.00
                     Products Box
Access Food Share   Fresh Fruit/   Western        Medford      OR              97504        720       $19,440.00
                     Vegetable
                     Box
Access To Excess    Fresh Fruit/   Midwest        Dayton       OH              45405      1,152       $22,464.00
                     Vegetable
                     Box
Accion Comunitaria  Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
 Por Puerto Rico     Box
Accion Social De    Combination    Mid-Atlantic   Ponce        PR              00716        672       $66,528.00
 Puerto Rico         Box
Accion Social De    Combination    Mid-Atlantic   San Juan     PR              00927        672       $66,528.00
 Puerto Rico         Box
Accion Social San   Combination    Mid-Atlantic   Luquillo     PR              00773        672       $58,296.00
 Jose                Box
Accord              Fresh Fruit/   North East     Belmont      NY              14813        150        $3,427.50
                     Vegetable
                     Box
ACOG                Precooked      Midwest        Chicago      IL              60637        432       $35,043.84
                     Meat Box
Action Ministries   Fluid Milk     South East     Covington    KY              41015        588        $1,952.16
Action Ministries   Fresh Fruit/   South East     Adairsville  GA              30103      1,152       $23,040.00
                     Vegetable
                     Box
Action Ministries-- Fresh Fruit/   South East     Rome         GA              30161        864       $17,280.00
 Roma GA             Vegetable
                     Box
Action Ministries-- Fresh Fruit/   South East     Tucker       GA              30084        400       $11,200.00
 Slsk. Tucker        Vegetable
                     Box
Action Ministries-- Fresh Fruit/   South East     Atlanta      GA              30349      1,100       $30,800.00
 Volunteer Center    Vegetable
                     Box
Action Ministries-- Dairy          South East     Atlanta      GA              30303        216        $7,128.00
 Welcome House       Products Box
Action Ministries-- Fresh Fruit/   South East     Atlanta      GA              30303        210        $6,300.00
 Welcome House       Vegetable
                     Box
Active Faith Comm.  Fresh Fruit/   Midwest        South Lyon   MI              48178        200        $5,750.00
 Service             Vegetable
                     Box
Acton High School   Fresh Fruit/   North East     Acton        MA              01720        329        $7,221.55
                     Vegetable
                     Box
Acts                Fresh Fruit/   Mid-Atlantic   Dumfries     VA              22026        750       $15,000.00
                     Vegetable
                     Box
Acts                Fresh Fruit/   Midwest        Mount        OH              43050        128        $2,496.00
                     Vegetable                     Vernon
                     Box
Acts Northern       Fluid Milk     Mid-Atlantic   Manassas     VA              20110      2,880       $53,683.20
 Virginia
Acts Northern       Fresh Fruit/   Mid-Atlantic   Manassas     VA              20110     12,994      $259,372.30
 Virginia            Vegetable
                     Box
Actuas Villa Calma  Combination    Mid-Atlantic   Toa Baja     PR              00949      2,066      $182,092.00
                     Box
Acushnet Public     Fresh Fruit/   North East     Acushnet     MA              02743        658       $14,443.10
 Schools             Vegetable
                     Box
Adairsville Elem    Fresh Fruit/   South East     Adairsville  GA              30103        240        $4,545.60
 School              Vegetable
                     Box
Adairsville Middle  Fresh Fruit/   South East     Adairsville  GA              30103      2,030       $38,448.20
 School              Vegetable
                     Box
Adam Street         Fresh Fruit/   South East     Saint        SC              29920        985       $29,550.00
 Baptist Church      Vegetable                     Helena
                     Box                           Island
Adams Centre        Dairy          Mid-Atlantic   Sterling     VA              20164      2,000       $37,656.50
                     Products Box
Adams Centre        Fluid Milk     Mid-Atlantic   Sterling     VA              20164        960       $17,894.40
Adams Centre        Fresh Fruit/   Mid-Atlantic   Sterling     VA              20164      1,200       $39,852.00
                     Vegetable
                     Box
Adams--Friendship   Fresh Fruit/   Midwest        Adams        WI              53910        600        $7,770.00
 Area School         Vegetable
                     Box
Adamson HS          Combination    South West     Dallas       TX              75203        500       $17,485.00
 Brighter Bites      Box
Adamson HS          Fresh Fruit/   South West     Dallas       TX              75203      2,830       $54,712.20
 Brighter Bites      Vegetable
                     Box
Adamsville Seven    Fresh Fruit/   South East     Adamsville   AL              35005      2,250       $58,387.50
 Day Adventist       Vegetable
                     Box
Addison Community   Dairy          Midwest        Addison      MI              49220         75        $1,820.25
 Schools             Products Box
Addison Community   Fresh Fruit/   Midwest        Addison      MI              49220        650       $21,554.00
 Schools             Vegetable
                     Box
Addison Twsp        Fresh Fruit/   Midwest        Addison      IL              60101      3,780      $136,004.40
                     Vegetable
                     Box
Adel Food Bank      Fresh Fruit/   Midwest        Adel         IA              50003        180        $2,610.00
                     Vegetable
                     Box
Adelante Alabama    Fresh Fruit/   South East     Hoover       AL              35216        240        $6,228.00
                     Vegetable
                     Box
Adelphi Spanish     Fresh Fruit/   Mid-Atlantic   Hanover      MD              21076        100        $2,800.00
 Foursquare          Vegetable
                     Box
Adena SD            Fresh Fruit/   Midwest        Frankfort    OH              45628         64        $1,248.00
                     Vegetable
                     Box
Adopt Cause         Fresh Fruit/   Midwest        Des Moines   IA              50315        400        $5,800.00
                     Vegetable
                     Box
ADRASS              Combination    Mid-Atlantic   Arecibo      PR              00612        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   Bayamon      PR              00958        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   Canovanas    PR              00729      6,048      $516,432.00
                     Box
ADRASS              Combination    Mid-Atlantic   Catano       PR              00962        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   Cayey        PR              00736      2,688      $233,184.00
                     Box
ADRASS              Combination    Mid-Atlantic   Fajardo      PR              00738        300       $29,700.00
                     Box
ADRASS              Combination    Mid-Atlantic   Guaynabo     PR              00965        300       $29,700.00
                     Box
ADRASS              Combination    Mid-Atlantic   Humacao      PR              00791      2,016      $150,192.00
                     Box
ADRASS              Combination    Mid-Atlantic   Las Piedras  PR              00771      1,848      $166,488.00
                     Box
ADRASS              Combination    Mid-Atlantic   Loiza        PR              00772      8,736      $757,848.00
                     Box
ADRASS              Combination    Mid-Atlantic   Manati       PR              00674      2,016      $174,888.00
                     Box
ADRASS              Combination    Mid-Atlantic   Mayaguez     PR              00680      2,016      $174,888.00
                     Box
ADRASS              Combination    Mid-Atlantic   Moca         PR              00676      1,344      $116,592.00
                     Box
ADRASS              Combination    Mid-Atlantic   Naguabo      PR              00718      1,848      $166,488.00
                     Box
ADRASS              Combination    Mid-Atlantic   Palmer       PR              00721      1,344       $83,664.00
                     Box
ADRASS              Combination    Mid-Atlantic   Patillas     PR              00723      1,176      $108,192.00
                     Box
ADRASS              Combination    Mid-Atlantic   Ponce        PR              00716      1,344      $116,592.00
                     Box
ADRASS              Combination    Mid-Atlantic   San Lorenzo  PR              00754        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   San          PR              00685      1,344      $116,592.00
                     Box                           Sebastian
ADRASS              Combination    Mid-Atlantic   Toa Alta     PR              00953      1,344      $116,592.00
                     Box
ADRASS              Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   Yabucoa      PR              00767        672       $58,296.00
                     Box
ADRASS              Combination    Mid-Atlantic   Yauco        PR              00698      1,344      $116,592.00
                     Box
Adrian Drager       Fresh Fruit/   Midwest        Adrian       MI              49221        575        $8,596.25
 Education Center    Vegetable
                     Box
Adrian High School  Fresh Fruit/   Midwest        Adrian       MI              49221      1,250       $18,687.50
                     Vegetable
                     Box
Adult & Teen        Fluid Milk     South West     San Antonio  TX              78264        159          $464.28
 Challe
Adult Teen          Fresh Fruit/   Mountain       Cape         MO              63701        750       $20,625.00
 Challenge           Vegetable      Plains         Girardeau
                     Box
Advanced            Dairy          Midwest        Dearborn     MI              48126        300        $8,700.00
 Technology          Products Box
 Academy
Advanced            Fresh Fruit/   Midwest        Dearborn     MI              48126        925       $18,593.75
 Technology          Vegetable
 Academy             Box
Advent Health--     Combination    South East     Kissimmee    FL              34746      8,064      $613,267.20
 Kissimmee           Box
Advent Health       Combination    Mountain       Overland     KS              66204         60        $2,098.20
 Foundation          Box            Plains         Park
Advent Health       Dairy          Mountain       Overland     KS              66204         60        $2,745.60
 Foundation          Products Box   Plains         Park
Advent Health       Fresh Fruit/   Mountain       Overland     KS              66204         10          $191.00
 Foundation          Vegetable      Plains         Park
                     Box
AdventHealth        Combination    South East     Apopka       FL              32703      5,152      $391,809.60
 Apopka Hub          Box
AdventHealth East   Combination    South East     Orlando      FL              32807      5,376      $408,844.80
 Orlando Hub         Box
AdventHealth        Combination    South East     Orlando      FL              32810      9,408      $715,478.40
 Orlando Hub         Box
AdventHealth        Combination    South East     Poinciana    FL              34759      6,720      $511,056.00
 Poinciana Hub       Box
Adventist           Fresh Fruit/   Midwest        Jackson      MI              49201        350       $12,593.00
 Community Service   Vegetable
 Center              Box
Adventist           Fresh Fruit/   Midwest        Jackson      MI              49203         70        $2,518.60
 Community Service   Vegetable
 Center              Box
Adventist           Fresh Fruit/   Mid-Atlantic   Silver       MD              20910      3,500       $70,000.00
 Community           Vegetable                     Spring
 Services of Gre     Box
Adventist Pantry    Fluid Milk     Midwest        Cincinnati   OH              45229        540        $1,792.80
Adventista De       Combination    Mid-Atlantic   Vieques      PR              00765        300       $29,700.00
 Vieques             Box
Aeyl                Dairy          South West     McKinney     TX              75069        200        $9,152.00
                     Products Box
Affton High School  Fresh Fruit/   Mountain       St. Louis    MO              63123        288        $9,216.00
                     Vegetable      Plains
                     Box
Afghan American     Combination    Western        Renton       WA              98056         60        $2,100.00
 Community of        Box
 Washington
Afghan American     Dairy          Western        Renton       WA              98056        600       $18,000.00
 Community of        Products Box
 Washington
Afghan American     Fresh Fruit/   Western        Renton       WA              98056        600       $16,275.00
 Community of        Vegetable
 Washington          Box
African Cultural    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19143        420        $8,400.00
 Alliance            Vegetable                     a
                     Box
African Fellowship  Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21239        600       $12,285.00
                     Vegetable
                     Box
African People      Fresh Fruit/   Mountain       St. Louis    MO              63120      1,400       $27,958.00
 Organization        Vegetable      Plains
                     Box
AFSCME Ohio         Fresh Fruit/   Midwest        Cincinnati   OH              45229        108        $1,350.00
 Council             Vegetable
                     Box
After 3 and Me      Fluid Milk     Mid-Atlantic   Philadelphi  PA              19132        367        $9,456.24
                                                   a
After the Harvest   Fresh Fruit/   Mountain       Kansas City  MO              64111        336        $6,417.60
                     Vegetable      Plains
                     Box
Agana Heights       Fresh Fruit/   Western        Agana        Guam            96919      1,108       $66,480.00
 Mayor's of fice     Vegetable                     Heights
                     Box
Agape Conect        Fluid Milk     South West     Irving       TX              75061      7,440       $22,768.80
Agape Distribution  Dairy          Midwest        Sidney       OH              45365      4,160      $124,413.12
                     Products Box
Agape Distribution  Fluid Milk     Midwest        Sidney       OH              45365      2,430        $9,720.00
Agape Love From     Fresh Fruit/   Mid-Atlantic   Bloomsburg   PA              17815      3,675       $91,875.00
 Above To Our        Vegetable
 Community           Box
Agape United        Dairy          Mid-Atlantic   Purcellvill  VA              20132      2,000       $37,520.00
 Methodist Church    Products Box                  e
Agape Worship       Fresh Fruit/   South East     Birmingham   AL              35215      1,400       $36,330.00
 Ministries          Vegetable
                     Box
Agape Youth         Fresh Fruit/   Midwest        Detroit      MI              48204        200        $5,750.00
 Empowerment         Vegetable
                     Box
Agat Mayor's of     Fresh Fruit/   Western        Agat         Guam            96928        600       $36,000.00
 fice                Vegetable
                     Box
Agencia De          Combination    Mid-Atlantic   Aguadilla    PR              00603        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Arecibo      PR              00612        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Caguas       PR              00725      1,344      $116,592.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Camuy        PR              00627        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Humacao      PR              00791        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Manati       PR              00674        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Mayaguez     PR              00680        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Orocovis     PR              00720        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Rio Grande   PR              00721        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Salinas      PR              00751        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   San          PR              00685        672       $66,528.00
 Servicios           Box                           Sebastian
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Utuado       PR              00641        672       $58,296.00
 Servicios           Box
 Sociales
 Pentecostales
Agencia De          Combination    Mid-Atlantic   Villalba     PR              00766        672       $66,528.00
 Servicios           Box
 Sociales
 Pentecostales
Aging Best          Fluid Milk     Mountain       California   MO              65018      2,176        $4,896.00
 California                         Plains
Aging Best Camd.    Fluid Milk     Mountain       Camdenton    MO              65020      2,676        $6,021.00
 Sr. Ctr.                           Plains
Agua Fria Food      Fluid Milk     South West     Avondale     AZ              85323        432        $2,030.40
 Bank
Agudath Israel      Fresh Fruit/   Midwest        Chicago      IL              60645      1,430       $41,112.50
                     Vegetable
                     Box
Agudath Israel      Fresh Fruit/   Midwest        Southfield   MI              48076        800       $23,000.00
 Michigan            Vegetable
                     Box
Agudath Israel of   Fluid Milk     Midwest        Chicago      IL              60645      2,082       $62,439.18
 Illinois
Agudath Israel of   Fresh Fruit/   Midwest        Chicago      IL              60645      1,500       $43,125.00
 Illinois            Vegetable
                     Box
Agudath of Israel   Fluid Milk     Midwest        Chicago      IL              60645        175        $5,248.25
Agudath--Israel--O  Fresh Fruit/   Midwest        Chicago      IL              60645      3,450       $99,187.50
 f--Illinois         Vegetable
                     Box
Ahoskie Food        Fresh Fruit/   South East     Ahoskie      NC              27910        710       $25,354.10
 Pantry              Vegetable
                     Box
Aid Elgin           Fresh Fruit/   Midwest        Elgin        IL              60123         80        $2,200.00
                     Vegetable
                     Box
Aids Alabama        Fresh Fruit/   South East     Birmingham   AL              35233      1,275       $33,086.25
                     Vegetable
                     Box
Aids Food Store     Combination    Western        Long Beach   CA              90806      1,150       $31,337.50
                     Box
Aids Outreach       Fresh Fruit/   South West     Fort Worth   TX              76111        256        $4,349.44
 Center              Vegetable
                     Box
Aids Outreach       Fresh Fruit/   South West     Haltom City  TX              76111        128        $2,174.72
 Center              Vegetable
                     Box
Aids Taskforce of   Dairy          Midwest        Cleveland    OH              44115        125        $3,125.00
 Greater             Products Box
Aina Hookupu O      Fresh Fruit/   Western        Kilauea      HI              96754      1,790       $69,810.00
 Kilauea             Vegetable
                     Box
Air Force Enlisted  Fresh Fruit/   South East     Pensacola    FL              32505         50        $1,450.00
 Village Inc.        Vegetable
                     Box
Air Force Enlisted  Fresh Fruit/   South East     Shalimar     FL              32579        250        $7,250.00
 Village Inc.        Vegetable
                     Box
Akins High School   Fresh Fruit/   South West     Austin       TX              78748      4,608       $78,289.92
                     Vegetable
                     Box
Akron Education     Precooked      Midwest        Akron        OH              44304      2,980      $122,004.20
                     Meat Box
Akron School        Fresh Fruit/   North East     Akron        NY              14001      1,200       $27,420.00
 District            Vegetable
                     Box
Akron--Canton       Dairy          Midwest        Akron        OH              44307      4,580      $113,420.00
 Regional Food       Products Box
 Bank
Akron--Canton       Fresh Fruit/   Midwest        Akron        OH              44307     18,000      $309,000.00
 Regional Food       Vegetable
 Bank                Box
Akron--Canton       Precooked      Midwest        Akron        OH              44307     13,043      $531,433.53
 Regional Food       Meat Box
 Bank
Al Holmes Academy   Fresh Fruit/   Midwest        Detroit      MI              48213         75        $1,121.25
                     Vegetable
                     Box
Al Ihsan Community  Fresh Fruit/   Midwest        Detroit      MI              48227        200        $5,750.00
                     Vegetable
                     Box
Al Rahma Food Bank  Fresh Fruit/   Western        Moreno       CA              92557        339        $9,831.00
                     Vegetable                     Valley
                     Box
Alabama             Fresh Fruit/   South East     Huntsville   AL              35816      1,862       $27,241.06
 Association for     Vegetable
 the Art             Box
Alabama Childhood   Fluid Milk     South East     Sylacauga    AL              35151      2,020        $8,059.80
 Food Solutions
Alabama Childhood   Fresh Fruit/   South East     Sylacauga    AL              35151      3,160       $82,002.00
 Food Solutions      Vegetable
                     Box
Alabaster Church    Fluid Milk     South East     Alabaster    AL              35007        400        $1,516.00
 of God
Alabaster Church    Fresh Fruit/   South East     Alabaster    AL              35007        400       $10,380.00
 of God              Vegetable
                     Box
Alameda County      Combination    Western        Oakland      CA              94621     15,094      $489,550.50
 Food Bank           Box
Alameda County      Fresh Fruit/   Western        Oakland      CA              94621     43,488      $928,394.40
 Food Bank           Vegetable
                     Box
Alameda Food Bank   Fresh Fruit/   Western        Alameda      CA              94501      5,320       $74,480.00
                     Vegetable
                     Box
Alamo Community     Fluid Milk     South West     Alamo        TX              78516      1,512        $4,415.04
 Church
Alamo Community     Fresh Fruit/   South West     Alamo        TX              78516      6,880      $116,891.20
 Church              Vegetable
                     Box
Alamo First         Fresh Fruit/   South East     Alamo        TN              38001      1,026       $25,137.00
 Christian--C/O      Vegetable
 Mid South Food      Box
 Bank
Alba Firefighters   Fresh Fruit/   Midwest        Elmira       MI              49730        504       $18,133.92
                     Vegetable
                     Box
Albany Civic        Fresh Fruit/   South East     Albany       GA              31701      1,920       $36,364.80
 Center              Vegetable
                     Box
Albion Food Hub     Dairy          Midwest        Albion       MI              49224        600       $17,400.00
                     Products Box
Albion Food Hub     Fresh Fruit/   Midwest        Albion       MI              49224      1,260       $26,565.00
                     Vegetable
                     Box
Albion Hope Center  Fresh Fruit/   Midwest        Albion       IL              62806         70        $1,925.00
                     Vegetable
                     Box
Albion Main St.     Dairy          North East     Albion       NY              14411        600       $26,520.00
 Store               Products Box
Albion Main St.     Dairy          North East     Holley       NY              14470        315       $13,923.00
 Store               Products Box
Albion Main St.     Dairy          North East     Medina       NY              14103        300       $13,260.00
 Store               Products Box
Albion Main St.     Dairy          North East     Orleans      NY              14411        360       $15,912.00
 Store               Products Box
Albion Main St.     Precooked      North East     Albion       NY              14411        672       $36,691.20
 Store               Meat Box
Albion Main St.     Precooked      North East     Holley       NY              14470        315       $17,199.00
 Store               Meat Box
Albion Main St.     Precooked      North East     Medina       NY              14103        336       $18,345.60
 Store               Meat Box
Albion United       Dairy          Midwest        Albion       IL              62806         50        $1,487.50
 Methodist           Products Box
Albion United       Fresh Fruit/   Midwest        Albion       IL              62806         50        $1,375.00
 Methodist           Vegetable
                     Box
Alderman Derrik     Fresh Fruit/   Midwest        Chicago      IL              60652      1,420       $90,965.20
 Curtis              Vegetable
                     Box
Aldersgate United   Fresh Fruit/   Midwest        Toledo       OH              43613        234        $2,925.00
 Mthdst              Vegetable
                     Box
Aldine Greenspoint  Fresh Fruit/   South West     Houston      TX              77067      6,138       $96,630.12
 Family YMCA         Vegetable
                     Box
Alger Commission    Dairy          Midwest        Munising     MI              49862        200        $5,800.00
 on Aging            Products Box
Alger Commission    Fresh Fruit/   Midwest        Munising     MI              49862        200        $4,050.00
 on Aging            Vegetable
                     Box
Alianza Cristiana   Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $133,056.00
 Y Misionera         Box
Alianza De          Combination    Mid-Atlantic   Luquillo     PR              00773        672       $66,528.00
 Juristas            Box
 Cristianos
Alice Real          Fresh Fruit/   South West     Alice        TX              78332        420       $10,500.00
                     Vegetable
                     Box
Alicia House        Fresh Fruit/   Midwest        Chicago      IL              60411        252        $9,066.96
                     Vegetable                     Heights
                     Box
Alicia House        Precooked      Midwest        Chicago      IL              60411        216       $17,521.92
                     Meat Box                      Heights
Alicia House Box    Dairy          Midwest        Chicago      IL              60411         75        $1,875.00
                     Products Box                  Heights
Alief Family YMCA   Fresh Fruit/   South West     Houston      TX              77082      4,400       $80,086.00
 Brighter Bites      Vegetable
                     Box
Alive Church        Fresh Fruit/   South West     Conroe       TX              77301      1,536       $26,096.64
                     Vegetable
                     Box
Alive Church        Fresh Fruit/   South West     New Waverly  TX              77358      3,072       $52,193.28
                     Vegetable
                     Box
Alive!              Fresh Fruit/   Mid-Atlantic   Alexandria   VA              22314      1,050       $21,000.00
                     Vegetable
                     Box
Alk Clay Platte     Fresh Fruit/   Mountain       Platte City  MO              64079        120        $3,108.00
 County Dss          Vegetable      Plains
                     Box
Alkc Clay County    Fresh Fruit/   Mountain       Liberty      MO              64068        320        $8,288.00
 Dss                 Vegetable      Plains
                     Box
Alkc Kearney        Fresh Fruit/   Mountain       Kearney      MO              64060         40        $1,036.00
                     Vegetable      Plains
                     Box
All Faith           Dairy          South West     Buckeye      AZ              85326        540       $14,310.00
 Community           Products Box
 Services
All Faith           Fresh Fruit/   South West     Buckeye      AZ              85326        734       $16,037.90
 Community           Vegetable
 Services            Box
All Faiths Food     Fluid Milk     South East     Sarasota     FL              34240     19,776       $77,216.64
 Bank
All Faiths Food     Fresh Fruit/   South East     Sarasota     FL              34140      6,048      $148,176.00
 Bank                Vegetable
                     Box
All Nations House   Fresh Fruit/   South East     Memphis      TN              38111        270        $6,615.00
 of Prayer--C/O      Vegetable
 Mid South Food B    Box
All Saints Church   Combination    Western        Portland     OR              97232        120        $4,200.00
 USDA                Box
All Saints House    Fresh Fruit/   South East     Grenada      MS              38901        257        $5,127.15
                     Vegetable
                     Box
All Saints          Fluid Milk     Midwest        Palatine     IL              60074        180          $597.60
 Lutheran
All Saints          Fresh Fruit/   Midwest        Palatine     IL              60074        567       $20,400.66
 Lutheran Church     Vegetable
                     Box
All Things Through  Precooked      Midwest        Chicago      IL              60636        504       $40,884.48
 Christ              Meat Box
All Tribes Worship  Fresh Fruit/   South West     Kilgore      TX              77662      3,072       $52,193.28
 Center              Vegetable
                     Box
Alleghany West/     Fluid Milk     Mid-Atlantic   Philadelphi  PA              19132         48          $946.56
 Council                                           a
Allegheny Co.       Fresh Fruit/   Mid-Atlantic   Mckees       PA              15136        750       $12,000.00
 Housing Authority   Vegetable                     Rocks
 McKees Rocks        Box
Allegheny Co.       Dairy          Mid-Atlantic   Rankin       PA              15104      1,500       $16,500.00
 Housing Authority   Products Box
 Hawkins Village
Allegheny Co.       Fluid Milk     Mid-Atlantic   Rankin       PA              15104        150        $1,650.00
 Housing Authority
 Hawkins Village
Allegheny Co.       Fresh Fruit/   Mid-Atlantic   Rankin       PA              15104      1,200       $19,200.00
 Housing Authority   Vegetable
 Hawkins Village     Box
Allegheny Co.       Dairy          Mid-Atlantic   North        PA              15104        200        $2,200.00
 Housing Authority   Products Box                  Braddock
 Maple View
Allegheny Co.       Combination    Mid-Atlantic   Clairton     PA              15025         74        $3,700.00
 Housing Authority   Box
 Millvue Acres
Allegheny Co.       Dairy          Mid-Atlantic   Natrona      PA              15065      1,000       $11,000.00
 Housing Authority   Products Box                  Heights
 Sheldon Park
Allegheny Co.       Fresh Fruit/   Mid-Atlantic   Natrona      PA              15065        400        $6,400.00
 Housing Authority   Vegetable                     Heights
 Sheldon Park        Box
Allen Community     Fluid Milk     South West     Allen        TX              75002      1,316        $3,842.72
 Out
Allen Place         Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15214        960       $28,800.00
 Community           Vegetable
 Services            Box
Allen Village       Fresh Fruit/   Mountain       Kansas City  MO              64111        880       $22,792.00
                     Vegetable      Plains
                     Box
Allendale           Fresh Fruit/   Midwest        Melvindale   MI              48122      1,600       $33,039.00
 Elementary          Vegetable
                     Box
Allentown YMCA      Fresh Fruit/   Mid-Atlantic   Allentown    PA              18102        560       $11,200.00
                     Vegetable
                     Box
Alliance for        Fresh Fruit/   Mid-Atlantic   Butler       PA              16001        952       $18,164.16
 Nonprofit           Vegetable
                     Box
Alliance M.         Fresh Fruit/   South West     Eagle Lake   TX              77434        512        $8,698.88
 Baptist Church      Vegetable
                     Box
Alma Community      Fresh Fruit/   South West     Alma         AR              72921      2,085       $32,160.90
 Outreach            Vegetable
                     Box
Alma School         Combination    South West     Alma         AR              72921        384       $13,428.48
 District            Box
Alma School         Fluid Milk     South West     Alma         AR              72921        514       $12,305.16
 District
Alma School         Fresh Fruit/   South West     Alma         AR              72921      3,714       $66,425.40
 District            Vegetable
                     Box
Almeria MS          Fresh Fruit/   Western        Coachella    CA              92236        400       $10,000.00
                     Vegetable
                     Box
Almeria MS          Fresh Fruit/   Western        Fullerton    CA              92236        800       $20,000.00
                     Vegetable
                     Box
Almont Community    Fresh Fruit/   Midwest        Almont       MI              48003        567       $20,400.66
 Schools             Vegetable
                     Box
Aloha Harvest       Fluid Milk     Western        Honolulu     HI              96816      3,744       $15,649.92
Aloha Harvest       Fresh Fruit/   Western        Honolulu     HI              96816      3,600      $129,600.00
                     Vegetable
                     Box
Aloha Harvest       Precooked      Western        Honolulu     HI              96816      1,297       $51,880.00
                     Meat Box
Aloha High School   Combination    Western        Aloha        OR              97078      1,200       $42,000.00
                     Box
Aloha High School   Fresh Fruit/   Western        Aloha        OR              97078      1,140       $30,780.00
                     Vegetable
                     Box
Alpena Area Sr.     Dairy          Midwest        Alpena       MI              49707        220        $5,812.40
 Citizen Fdng.       Products Box
 Prog.
Alpena Area Sr.     Fresh Fruit/   Midwest        Alpena       MI              49707        194        $3,957.14
 Citizen Fdng.       Vegetable
 Prog.               Box
Alpena Area Sr.     Fresh Fruit/   Midwest        Alpena       MI              49710          8          $190.08
 Citizen Fdng.       Vegetable
 Prog.               Box
Alpena Area Sr.     Precooked      Midwest        Alpena       MI              49707        102        $4,334.40
 Citizen Fdng.       Meat Box
 Prog.
Alpena Area Sr.     Precooked      Midwest        Alpena       MI              49709          6          $186.30
 Citizen Fdng.       Meat Box
 Prog.
Alta Mira Family &  Fresh Fruit/   Western        Hayward      CA              94544        194        $3,977.00
 Senior              Vegetable
                     Box
Altamesa            Fresh Fruit/   South West     Fort Worth   TX              76133        512        $8,698.88
 Neighborhood        Vegetable
 Needs               Box
Alto Food Pantry    Fluid Milk     South West     Alto         TX              75925        180          $525.60
Altrusa             Combination    Mid-Atlantic   Hormigueros  PR              00660        672       $66,528.00
 Internacional       Box
 Distrito Catorce
Altrusa             Combination    Mid-Atlantic   Isabela      PR              00662        672       $66,528.00
 Internacional       Box
 Distrito Catorce
Altrusa             Combination    Mid-Atlantic   Ponce        PR              00716        672       $66,528.00
 Internacional       Box
 Distrito Catorce
Amazing Grace       Fluid Milk     South West     Wylie        TX              75098      1,260        $3,783.60
Amcab Lost Creek    Precooked      Midwest        Marquette    MI              49855         64        $2,268.30
                     Meat Box
American Dairy      Fluid Milk     Midwest        Greenwood    IN              46142      4,250       $17,000.00
 Assoc
American Dairy      Fluid Milk     Midwest        Scherervill  IN              46375      1,000        $4,000.00
 Assoc                                             e
American Indian     Fresh Fruit/   Midwest        Chicago      IL              60625      2,178       $62,200.44
 Center              Vegetable
                     Box
American Indian     Precooked      Midwest        Chicago      IL              60625        288       $23,362.56
 Center              Meat Box
American            Fresh Fruit/   Midwest        Inkster      MI              48141        504       $18,133.92
 International       Vegetable
 Academy             Box
American Legion     Fresh Fruit/   South East     Adamsville   AL              35005      1,080       $28,026.00
 Greysville          Vegetable
                     Box
American Legion     Combination    Western        Challis      ID              83226         55        $2,420.00
 Hall                Box
American Legion     Fresh Fruit/   Western        Challis      ID              83226         55        $1,430.00
 Hall                Vegetable
                     Box
American Lunch      Fresh Fruit/   South East     Destin       FL              32541      1,200       $34,800.00
 Inc.                Vegetable
                     Box
American            Fresh Fruit/   Midwest        Westland     MI              48185        594       $21,372.12
 Montessori          Vegetable
 Academy             Box
American Resuce     Fresh Fruit/   Mid-Atlantic   Hollidaysbu  PA              16648         50        $1,250.00
 Workers             Vegetable                     rg
                     Box
America's Second    Combination    South East     Brunswick    GA              31525      5,040      $383,292.00
 Harvest             Box
America's Second    Fresh Fruit/   South East     Brunswick    GA              31525      6,307      $148,782.13
 Harvest             Vegetable
                     Box
Americas Second     Combination    South East     Tallahassee  FL              32310      6,720      $511,056.00
 Harvest of the      Box
 Big Bend
Americas Second     Fluid Milk     South East     Tallahassee  FL              32310     19,440       $77,565.60
 Harvest of the
 Big Bend
Americas Second     Fresh Fruit/   South East     Tallahassee  FL              32310     12,888      $335,916.00
 Harvest of the      Vegetable
 Big Bend            Box
Amg. Edu. Corp.     Fresh Fruit/   South East     Biloxi       MS              39530        280       $16,800.00
                     Vegetable
                     Box
Amg. Edu. Corp.     Fresh Fruit/   South East     Biloxi       MS              39530        400       $24,000.00
 Frank Gurich        Vegetable
 Community           Box
Amherst Central     Fresh Fruit/   North East     Eggertsvill  NY              14226         70        $1,599.50
 Schools             Vegetable                     e
                     Box
Amherst COA         Combination    North East     Amherst      MA              01002         90        $2,952.00
                     Box
Amherst COA         Precooked      North East     Amherst      MA              01002         20        $1,086.00
                     Meat Box
Amigo Kidney        Fresh Fruit/   South West     El Paso      TX              79902        565       $11,017.50
 Foundation          Vegetable
                     Box
Amigo Kidney        Fresh Fruit/   South West     El Paso      TX              79925        140        $2,730.00
 Foundation          Vegetable
                     Box
Amigo Kidney        Fresh Fruit/   South West     Socorro      TX              79927         45          $877.50
 Foundation          Vegetable
                     Box
Amigos Con Otro     Combination    Mid-Atlantic   Naguabo      PR              00718        672       $66,528.00
 Flow                Box
Amistad Apartments  Fresh Fruit/   South East     Miami        FL              33130        120        $2,010.00
                     Vegetable
                     Box
Amite River Assoc   Fluid Milk     South East     Liberty      MS              39645        384        $1,455.36
Amor De Dios        Fresh Fruit/   Midwest        Chicago      IL              60623        945       $34,001.10
                     Vegetable
                     Box
Amor De Dios        Precooked      Midwest        Chicago      IL              60623      2,376      $192,741.12
                     Meat Box
Amory Food Pantry   Dairy          South East     Amory        MS              38821        360        $9,000.00
                     Products Box
Amos House          Fresh Fruit/   North East     Providence   RI              02907        224        $4,032.00
                     Vegetable
                     Box
Amudipes            Fresh Fruit/   Mid-Atlantic   Clifton      PA              19018        700       $14,000.00
 Residential and     Vegetable                     Heights
 Day Treatment       Box
Amy Grim            Fresh Fruit/   South West     Grapevine    TX              76051         50          $955.00
                     Vegetable
                     Box
Anchor Bay High     Fresh Fruit/   Midwest        Fair Haven   MI              48047        250        $3,737.50
 School              Vegetable
                     Box
Anchor Point        Fresh Fruit/   South East     Foley        AL              36535        800       $23,200.00
 Church              Vegetable
                     Box
Anchorpointe        Fresh Fruit/   South East     Glennville   GA              30427      1,920       $36,364.80
 Church              Vegetable
                     Box
Anderson County TN  Fresh Fruit/   South East     Clinton      TN              37716        400        $8,000.00
 Schools             Vegetable
                     Box
Anderson UMC--      Fluid Milk     South East     Jackson      MS              39206        960        $7,046.40
 Parking Lot
Anderson UMC--      Fresh Fruit/   South East     Jackson      MS              39206      1,648       $27,851.20
 Parking Lot         Vegetable
                     Box
Andover High        Fresh Fruit/   North East     Andover      MA              01810      1,120       $24,584.00
 Shcool              Vegetable
                     Box
Andover School      Fresh Fruit/   North East     Andover      NY              14806        500       $11,425.00
                     Vegetable
                     Box
Angel Network       Fluid Milk     Western        Honolulu     HI              96821      2,016        $8,426.88
 Charities Inc.
Angels on Earth/    Fresh Fruit/   South East     Pennington   AL              36916      1,680       $43,596.00
 Pennington Town     Vegetable
 Hall                Box
Angels Wings        Combination    Mid-Atlantic   Aguas        PR              00703        576       $49,968.00
                     Box                           Buenas
Angels Wings        Combination    Mid-Atlantic   Caguas       PR              00725      1,728      $149,904.00
                     Box
Angels Wings        Combination    Mid-Atlantic   Canovanas    PR              00729        672       $58,296.00
                     Box
Angels Wings        Combination    Mid-Atlantic   Cayey        PR              00736      7,488      $649,584.00
                     Box
Angels Wings        Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
                     Box
Angels Wings        Combination    Mid-Atlantic   Rincon       PR              00677      2,880      $249,840.00
                     Box
Angels Wings        Combination    Mid-Atlantic   San Juan     PR              00920        576       $49,968.00
                     Box
Angels Wings        Combination    Mid-Atlantic   San Juan     PR              00921      1,728      $149,904.00
                     Box
Angels Wings        Combination    Mid-Atlantic   Trujillo     PR              00976      1,728      $149,904.00
                     Box                           Alto
Ann Arbor Public    Fresh Fruit/   Midwest        Ann Arbor    MI              48103      1,386       $49,868.28
 Schools             Vegetable
                     Box
Annam Community     Fluid Milk     South West     Houston      TX              77086      7,920       $23,126.40
 Ctr.
Annapolis High      Fresh Fruit/   Midwest        Dearborn     MI              48125        300        $6,337.50
 School              Vegetable                     Heights
                     Box
Anne Arundel        Fluid Milk     Mid-Atlantic   Crownsville  MD              21032      8,640       $28,684.80
 County Food Bank
Anne Arundel        Fresh Fruit/   Mid-Atlantic   Crownsville  MD              21032      6,250      $125,000.00
 County Food Bank    Vegetable
                     Box
Annointed           Precooked      Midwest        Tinley Park  IL              60487        144       $11,681.28
                     Meat Box
Annointed Word      Precooked      Midwest        Tinley Park  IL              60487        144       $11,681.28
                     Meat Box
Annoited Word       Precooked      Midwest        Tinley Park  IL              60487        144       $11,681.28
                     Meat Box
Antelope Valley     Fluid Milk     Western        Lancaster    CA              93535      2,592       $25,894.08
 Sda Church
Antioch Baptist     Fresh Fruit/   Mountain       Omaha        NE              68105        640       $16,576.00
 Church              Vegetable      Plains
                     Box
Antioch Church      Fresh Fruit/   Mountain       Overland     KS              66203      1,320       $34,188.00
                     Vegetable      Plains         Park
                     Box
Antioch for Youth   Combination    South West     Fort Smith   AR              72901      1,440       $50,356.80
 and Family          Box
Antioch for Youth   Dairy          South West     Fort Smith   AR              72901      2,112       $96,645.12
 and Family          Products Box
Antioch for Youth   Fluid Milk     South West     Fort Smith   AR              72901      1,011       $24,203.34
 and Family
Antioch for Youth   Fresh Fruit/   South West     Fort Smith   AR              72901      3,212       $60,478.00
 and Family          Vegetable
                     Box
Antioch Middle      Fresh Fruit/   Mountain       Gladstone    MO              64118        500       $12,950.00
 School              Vegetable      Plains
                     Box
Antioch Middle      Fresh Fruit/   Mountain       Kansas City  MO              64119      1,000       $25,900.00
 School              Vegetable      Plains
                     Box
Antioch             Fresh Fruit/   Mountain       Kansas City  MO              64119        280        $7,252.00
 Middle.Chapel       Vegetable      Plains
 Hill                Box
Antioch Unified     Fresh Fruit/   Western        Antioch      CA              94509      2,484       $74,553.72
 School District     Vegetable
                     Box
Antioch Urban       Fresh Fruit/   South East     Atlanta      GA              30318      2,800       $53,032.00
 Ministries          Vegetable
                     Box
AOA Bryan Senior    Fresh Fruit/   Midwest        Bryan        OH              43506        585        $7,312.50
 Ctr.                Vegetable
                     Box
AOA Community       Fresh Fruit/   Midwest        Sandusky     OH              44870        540        $6,750.00
 Action              Vegetable
                     Box
AOA Defiance        Fresh Fruit/   Midwest        Defiance     OH              43512        351        $4,387.50
 County              Vegetable
                     Box
AOA Fulton County   Fresh Fruit/   Midwest        Wauseon      OH              43567        702        $8,775.00
                     Vegetable
                     Box
AOA Henry County    Fresh Fruit/   Midwest        Napoleon     OH              43545        468        $5,850.00
                     Vegetable
                     Box
AOA Margaret Hunt   Fresh Fruit/   Midwest        Toledo       OH              43614      4,500       $56,250.00
 Sr. Ctr.            Vegetable
                     Box
AOA Ottawa          Fresh Fruit/   Midwest        Oak Harbor   OH              43449        216        $2,700.00
 Riverview           Vegetable
                     Box
AOA Paulding        Fresh Fruit/   Midwest        Paulding     OH              45879        234        $2,925.00
 County              Vegetable
                     Box
AOA Sandusky        Fresh Fruit/   Midwest        Fremont      OH              43420        832       $10,400.00
 County              Vegetable
                     Box
AOA Westhaven       Fresh Fruit/   Midwest        North        OH              45872        540        $6,750.00
 Aprtmnts            Vegetable                     Baltimore
                     Box
AOH Cathedral of    Fresh Fruit/   South East     Birmingham   AL              35215      6,729      $174,617.55
 the Cross Church    Vegetable
                     Box
Apache Junction HS  Fresh Fruit/   South West     Apache       AZ              85120      1,460       $40,150.00
                     Vegetable                     Junction
                     Box
Apostolic Assembly  Dairy          Western        Calexico     CA              92231      2,400       $70,128.00
 of the Faith in     Products Box
 Christ Church
Apostolic Assembly  Fluid Milk     Western        Calexico     CA              92251      6,300       $62,937.00
 of the Faith in
 Christ Church
Apostolic Faith     Dairy          Midwest        Cleveland    OH              44108         65        $1,625.00
 Tabernacle          Products Box
Apoyo Empresarial   Fresh Fruit/   Mid-Atlantic   San Juan     PR              00926      2,688      $107,520.00
 Cantera Inc.        Vegetable
                     Box
Appalachian         Fresh Fruit/   Mid-Atlantic   Duffield     VA              24244      1,568       $29,917.44
 Harvest             Vegetable
                     Box
Applewood Centers   Dairy          Midwest        Cleveland    OH              44102        180        $4,338.00
                     Products Box
Applewood Centers   Fresh Fruit/   Midwest        Cleveland    OH              44102        180        $4,770.00
                     Vegetable
                     Box
APS--Douglas High   Fresh Fruit/   South East     Atlanta      GA              30318        150        $3,187.50
 F2F                 Vegetable
                     Box
APW School          Dairy          North East     Parish       NY              13131        324       $13,996.80
 District            Products Box
APW School          Fresh Fruit/   North East     Parish       NY              13131        420        $9,240.00
 District            Vegetable
                     Box
APW School          Precooked      North East     Parish       NY              13131        367       $19,671.20
 District            Meat Box
AR Delta Network    Fluid Milk     South West     Pine Bluff   AR              71603        495       $11,850.30
AR Delta Network    Fresh Fruit/   South West     Pine Bluff   AR              71603        539       $12,558.70
                     Vegetable
                     Box
Arab American and   Fresh Fruit/   Midwest        Detroit      MI              48203        150        $4,312.50
 Chaldean Council    Vegetable
                     Box
Arab American       Combination    Midwest        Worth        IL              60482      1,257      $128,058.00
 Family Services     Box
Arab American       Fresh Fruit/   Midwest        Worth        IL              60482        253        $9,614.00
 Family Services     Vegetable
                     Box
Arabia Shriners     Combination    South West     Houston      TX              77036      3,200      $111,904.00
                     Box
Arabia Shriners     Fluid Milk     South West     Houston      TX              77036        200        $4,788.00
Arabia Shriners     Fresh Fruit/   South West     Houston      TX              77036      3,600       $71,280.00
                     Vegetable
                     Box
Archdiocese of      Fresh Fruit/   Midwest        Chicago      IL              60611        320        $5,760.00
 Chicago             Vegetable
                     Box
Archdiocese of      Fresh Fruit/   Midwest        Chicago      IL              60611        958       $17,244.00
 Chicago             Vegetable
                     Box
Arcola--Washington  Fresh Fruit/   South East     Arcola       MS              38722        288        $4,867.20
 Commun              Vegetable
                     Box
Area 5 Agency       Fluid Milk     Midwest        Logansport   IN              46947        720        $2,880.00
 Logansport
Area Congregations  Fresh Fruit/   South East     Oxford       NC              27565      1,266       $32,169.06
 Ministry            Vegetable
                     Box
Arizona             Dairy          South West     Globe        AZ              85501         96        $2,544.00
 Reservation         Products Box
 Ministries
Arizona             Dairy          South West     San Carlos   AZ              85550        153        $4,054.50
 Reservation         Products Box
 Ministries
Arizona             Fresh Fruit/   South West     Globe        AZ              85501        400        $8,740.00
 Reservation         Vegetable
 Ministries          Box
Arizona             Fresh Fruit/   South West     San Carlos   AZ              85550        140        $3,059.00
 Reservation         Vegetable
 Ministries          Box
Ark Dothan Inc.     Fluid Milk     South East     Dothan       AL              36301        800        $3,112.00
Ark Grace Harvest   Fresh Fruit/   South East     Dothan       AL              36301      1,200       $34,800.00
 Church              Vegetable
                     Box
Ark of Deliverance  Fresh Fruit/   Midwest        Detroit      MI              48204        100        $2,875.00
                     Vegetable
                     Box
Ark of S. Cheatham  Fluid Milk     South East     Peagram      TN              37143      1,575        $3,543.75
Arkansas Food Bank  Combination    South West     Little Rock  AR              72209     10,752      $246,758.40
                     Box
Arkansas Food Bank  Dairy          South West     Little Rock  AR              72209      4,800      $219,648.00
                     Products Box
Arkansas Food Bank  Fluid Milk     South West     Little Rock  AR              72209     12,826      $210,194.28
Arkansas Food Bank  Fresh Fruit/   South West     Little Rock  AR              72209     18,273      $609,477.38
                     Vegetable
                     Box
Arkansas Food Bank  Precooked      South West     Little Rock  AR              72209     24,286    $1,034,901.65
                     Meat Box
Arkansas Food Bank  Combination    South West     Warren       AR              71671      1,440       $50,356.80
 Warren Branch       Box
Arkansas Food Bank  Dairy          South West     Warren       AR              71671        576       $26,357.76
 Warren Branch       Products Box
Arkansas Food Bank  Fluid Milk     South West     Warren       AR              71671        589       $14,100.66
 Warren Branch
Arkansas Food Bank  Fresh Fruit/   South West     Warren       AR              71671      3,404       $56,783.80
 Warren Branch       Vegetable
                     Box
Arkansas Food Bank  Precooked      South West     Warren       AR              71671      3,119      $132,713.45
 Warren Branch       Meat Box
Arlington           Fresh Fruit/   South West     Arlington    TX              76015        512        $8,698.88
 Charities           Vegetable
                     Box
Arlington Chinese   Combination    South West     Arlington    TX              76012        400       $13,988.00
 Church              Box
Arlington Chinese   Dairy          South West     Arlington    TX              76012        800       $36,608.00
 Church              Products Box
Arlington Comm.     Combination    Western        Arlington    WA              98223        900       $31,500.00
 Food Bank           Box
Arlington Comm.     Dairy          Western        Arlington    WA              98223        750       $22,500.00
 Food Bank           Products Box
Arlington Comm.     Fresh Fruit/   Western        Arlington    WA              98223        720       $19,440.00
 Food Bank           Vegetable
                     Box
Arlington           Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215      1,050       $21,000.00
 Elementary School   Vegetable
                     Box
Arlington Food      Fresh Fruit/   Mid-Atlantic   Arlington    VA              22206      3,600       $72,000.00
 Assistance Center   Vegetable
                     Box
Arlington Seventh   Fluid Milk     South West     Arlington    TX              76017        216          $630.72
 Day Adventis
Arlington Seventh   Fresh Fruit/   South West     Arlington    TX              76017        256        $4,349.44
 Day Adventis        Vegetable
                     Box
Arm In Arm          Fresh Fruit/   Mid-Atlantic   Trenton      NJ              08608        490        $9,800.00
                     Vegetable
                     Box
Armor De Dios       Fresh Fruit/   Midwest        Chicago      IL              60623        441       $15,867.18
                     Vegetable
                     Box
Armour Square       Fresh Fruit/   Midwest        Chicago      IL              60616        189        $6,800.22
 Apartments          Vegetable
                     Box
Armour Square       Fresh Fruit/   Midwest        Chicago      IL              60616        189        $6,800.22
 Apartments Ii       Vegetable
                     Box
Armourdale Renewal  Combination    Mountain       Kansas City  KS              66105        240        $8,392.80
 Association         Box            Plains
Armourdale Renewal  Dairy          Mountain       Kansas City  KS              66105        489       $22,376.64
 Association         Products Box   Plains
Armourdale Renewal  Fresh Fruit/   Mountain       Kansas City  KS              66105        753        $9,128.70
 Association         Vegetable      Plains
                     Box
Arms of Hope        Fluid Milk     South West     Medina       TX              78055        432        $1,386.72
Arms of Hope--      Fluid Milk     South West     Quinlan      TX              75474        588        $1,716.96
 Boles
Army National       Fluid Milk     South East     Linden       AL              36748      7,200       $28,008.00
 Guard
Arnett Chapel Ame   Fresh Fruit/   Midwest        Chicago      IL              60643        756       $27,200.88
                     Vegetable
                     Box
Arnold Center       Fresh Fruit/   Midwest        Midland      MI              48640        800       $23,000.00
                     Vegetable
                     Box
Arnold Food Pantry  Fresh Fruit/   Mountain       Arnold       MO              63010        590       $16,225.00
                     Vegetable      Plains
                     Box
Arrowhead Economic  Fresh Fruit/   Midwest        Virginia     MN              55792      7,172      $103,994.00
 Opportunity         Vegetable
                     Box
Arsola's Dist.      Fresh Fruit/   Western        Oakland      CA              94603     15,275      $344,402.00
 Center              Vegetable
                     Box
Artesia Public      Fresh Fruit/   South West     Artesia      NM              88210      1,560       $39,000.00
 Schools             Vegetable
                     Box
Arts Ranch          Fresh Fruit/   Western        Oxnard       CA              93033        700       $15,400.00
                     Vegetable
                     Box
Asamblea            Combination    Mid-Atlantic   Cabo Rojo    PR              00623        374       $37,026.00
 Espiritual Baha'i   Box
 De Puerto Rico
Asamblea            Combination    Mid-Atlantic   Mayaguez     PR              00680        224       $22,176.00
 Espiritual Baha'i   Box
 De Puerto Rico
Asamblea            Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Espiritual Baha'i   Box
 De Puerto Rico
Asan Maina Mayor's  Fresh Fruit/   Western        Asan Maina   Guam            96910        960       $57,600.00
 of fice             Vegetable
                     Box
Asbury United       Combination    South West     Tulsa        OK              74133      4,320      $151,070.40
 Methodist Church    Box
Asbury United       Dairy          South West     Tulsa        OK              74133        576       $26,357.76
 Methodist Church    Products Box
Asbury United       Fresh Fruit/   South West     Tulsa        OK              74133      1,056       $10,243.20
 Methodist Church    Vegetable
                     Box
Ascension USDA      Combination    Western        Portland     OR              97215        420       $14,700.00
                     Box
Ascension USDA      Dairy          Western        Portland     OR              97215        250        $7,500.00
                     Products Box
ASFSCME Local 4023  Fluid Milk     Midwest        Cincinnati   OH              45229        180          $597.60
Ash of Coastal GA   Fluid Milk     South East     Savannah     GA              31404     15,552       $58,942.08
Asha's Refuge       Fresh Fruit/   South East     Memphis      TN              38112        108        $2,646.00
                     Vegetable
                     Box
Ashburnham COA      Combination    North East     Ashburnham   MA              01430         20          $760.00
                     Box
Ashburnham COA      Precooked      North East     Ashburnham   MA              01430         20        $1,086.00
                     Meat Box
Ashland Council on  Dairy          Midwest        Loudonville  OH              44842        660       $16,500.00
 Aging               Products Box
Ashland High        Fresh Fruit/   North East     Ashland      MA              01721        441        $9,679.95
                     Vegetable
                     Box
Ashland Kitchen     Dairy          Midwest        Toledo       OH              43620        240        $5,824.80
 VOA                 Products Box
Ashland Kitchen     Fresh Fruit/   Midwest        Toledo       OH              43604        120        $2,424.60
 VOA                 Vegetable
                     Box
Ashland Kitchen     Fresh Fruit/   Midwest        Toledo       OH              43620        420        $8,272.80
 VOA                 Vegetable
                     Box
Ashland Kitchen     Precooked      Midwest        Toledo       OH              43620        336       $11,397.36
 VOA                 Meat Box
Ashland Kitchen     Precooked      Midwest        Toledo       OH              43623         24          $745.20
 VOA                 Meat Box
Ashland School      Fresh Fruit/   Western        Ashland      OR              97520      2,050       $79,437.50
 District            Vegetable
                     Box
Ashtabula Dream     Precooked      Midwest        Ashtabula    OH              44004        135        $6,124.15
 Center              Meat Box
Ashtabula Towers    Dairy          Midwest        Ashtabula    OH              44004        125        $3,125.00
                     Products Box
Asian Pacific       Fresh Fruit/   Western        Richmond     CA              94805         52        $1,456.00
 Environmental       Vegetable
 Network             Box
Asian Pacific       Fresh Fruit/   Western        Richmond     CA              94805         95        $2,660.00
 Environmental       Vegetable
 Network             Box
Asian Resources     Fresh Fruit/   Western        Sacramento   CA              95824      1,568       $31,124.80
                     Vegetable
                     Box
Asian Resources     Fresh Fruit/   Western        Sacramento   CA              95824      7,154      $144,682.30
                     Vegetable
                     Box
Askew/Ge Patterson  Fresh Fruit/   South East     Memphis      TN              38126        108        $2,646.00
 Pointe--C/O Mid     Vegetable
 South Food Ban      Box
Asoc. Cristiana     Fresh Fruit/   Mid-Atlantic   San Juan     PR              00907         70        $2,730.00
 Mujeres Jovenes     Vegetable
 Prywca              Box
Asociacion          Combination    Mid-Atlantic   Guanica      PR              00653         84        $6,258.00
 Comunitaria         Box
 Parguera
Asociacion          Combination    Mid-Atlantic   Caguas       PR              00725         84        $8,316.00
 Condomines          Box
 Apartamentos
 Boriken
Asociacion De       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19111         96        $1,893.12
 Cosmetogas De PA                                  a
Asociacion De       Combination    Mid-Atlantic   Humacao      PR              00771        672       $58,296.00
 Residentes          Box
 Urbanizacion
 Vistas Del R
Asociacion Enlance  Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $58,296.00
 Asuntos             Box
 Comunitario De
 Saba Sec
Asociacion          Combination    Mid-Atlantic   Catano       PR              00962      1,152      $114,048.00
 Juventud Pro Bo     Box
 Palmas
Asociacion          Combination    Mid-Atlantic   Mayaguez     PR              00681      1,920      $166,560.00
 Mayaguezana De      Box
 Personas Con
 Impedimento
Asociacion No       Combination    Mid-Atlantic   San Juan     PR              00924        168        $8,400.00
 Videntes            Box
Asociacion Pro      Combination    Mid-Atlantic   Catano       PR              00962      1,152       $99,936.00
 Juventud Barrio     Box
 Palmas
Asociacion          Combination    Mid-Atlantic   Vega Alta    PR              00692        672       $58,296.00
 Recreativa Civica   Box
 Y Cultural Del
 Barrio
Aspira Net Turlock  Combination    Western        Turlock      CA              95382        420       $22,024.80
                     Box
Aspira Net Turlock  Fresh Fruit/   Western        Turlock      CA              95380        140        $5,156.20
                     Vegetable
                     Box
Aspira Net Turlock  Fresh Fruit/   Western        Turlock      CA              95382         77        $2,073.61
                     Vegetable
                     Box
Assembly Hall of    Dairy          North East     West         NY              14586        405       $17,901.00
 Jehovahs            Products Box                  Henrietta
Assembly Hall of    Fresh Fruit/   North East     West         NY              14586        135        $3,105.00
 Jehovahs            Vegetable                     Henrietta
                     Box
Assembly Hall of    Precooked      North East     West         NY              14586        495       $27,027.00
 Jehovahs            Meat Box                      Henrietta
Assembly of God     Fresh Fruit/   South West     Thornton     TX              76687      1,536       $26,096.64
                     Vegetable
                     Box
Associate of        Fluid Milk     Mid-Atlantic   Philadelphi  PA              19121        288        $5,679.36
 Former Gang                                       a
 Members
Astegos Inc.        Combination    Western        Boise        ID              83709        800       $35,200.00
                     Box
Astegos Inc.        Fresh Fruit/   Western        Boise        ID              83702        200        $5,200.00
                     Vegetable
                     Box
Astegos Inc.        Fresh Fruit/   Western        Boise        ID              83709        200        $5,200.00
                     Vegetable
                     Box
Atchison Public     Dairy          Mountain       Atchison     KS              66002        480       $21,964.80
 Schools             Products Box   Plains
Atchison Public     Fresh Fruit/   Mountain       Atchison     KS              66002      1,890       $37,965.00
 Schools             Vegetable      Plains
                     Box
A-Tech              Dairy          Midwest        Jefferson    OH              44047        500       $12,500.00
                     Products Box
Athens High School  Fresh Fruit/   Midwest        Troy         MI              48085        720       $14,580.00
                     Vegetable
                     Box
Athey Creek         Combination    Western        West Linn    OR              97068      1,260       $44,100.00
                     Box
Athey Creek         Dairy          Western        West Linn    OR              97068        250        $7,500.00
                     Products Box
Athey Creek         Fresh Fruit/   Western        West Linn    OR              97068        360        $9,720.00
                     Vegetable
                     Box
Athol Community     Fresh Fruit/   North East     Athol        MA              01331        658       $14,443.10
 Sch.                Vegetable
                     Box
Athol Senior        Precooked      North East     Athol        MA              01331         44        $2,389.20
 Center              Meat Box
Atkinson County     Fresh Fruit/   South East     Pearson      GA              31642        960       $18,182.40
 High School         Vegetable
                     Box
Atkinson County     Fresh Fruit/   South East     Pearson      GA              31642        960       $18,182.40
 Youth               Vegetable
                     Box
Atl Community Food  Fresh Fruit/   South East     College      GA              30349      1,050       $19,887.00
 Bank                Vegetable                     Park
                     Box
Atl Dev             Fresh Fruit/   South East     East Point   GA              30344        268        $5,360.00
 Partnership--Delo   Vegetable
 we                  Box
Atlanta Community   Combination    South East     Atlanta      GA              30344     29,792    $1,580,241.60
 Food Bank           Box
Atlanta Community   Combination    South East     East Point   GA              30344        620       $22,692.00
 Food Bank           Box
Atlanta Community   Dairy          South East     Atlanta      GA              30344     13,621      $435,505.95
 Food Bank           Products Box
Atlanta Community   Fluid Milk     South East     Atlanta      GA              30344    105,888      $413,142.72
 Food Bank
Atlanta Community   Fresh Fruit/   South East     Atlanta      GA              30344     72,500    $1,511,384.00
 Food Bank           Vegetable
                     Box
Atlanta Community   Precooked      South East     Atlanta      GA              30344      6,807      $156,315.81
 Food Bank           Meat Box
Atlanta Housing     Fresh Fruit/   South East     Atlanta      GA              30310        810       $16,200.00
 Authority Gateway   Vegetable
 Capital Apartme     Box
Atlanta Housing     Fresh Fruit/   South East     Atlanta      GA              30312        389        $7,780.00
 Authority Martin    Vegetable
 Street Plaza        Box
Atlanta Housing     Fresh Fruit/   South East     Atlanta      GA              30309        224        $4,480.00
 Authority           Vegetable
 Westminister        Box
 Avenue Apa
Atlantic Care       Dairy          Mid-Atlantic   Pomona       NJ              08205        520       $16,858.40
                     Products Box
Atlantic City       Fresh Fruit/   Mid-Atlantic   Penns Grove  NJ              08069        504        $9,550.80
 Electric            Vegetable
                     Box
Atrium on James     Combination    Western        Kent         WA              98032        420       $14,700.00
 Apt.                Box
Atrium on James     Dairy          Western        Kent         WA              98032        800       $24,000.00
 Apt.                Products Box
Atrium on James     Fresh Fruit/   Western        Kent         WA              98032        840       $22,680.00
 Apt.                Vegetable
                     Box
Attica Central      Fresh Fruit/   North East     Attica       NY              14011        300        $6,855.00
 Schools             Vegetable
                     Box
Attica United       Fresh Fruit/   Midwest        Attica       MI              48412        200        $5,750.00
 Methodist           Vegetable
                     Box
Attleboro High      Fresh Fruit/   North East     Attleboro    MA              02703        448        $9,833.60
 Sch.                Vegetable
                     Box
Atwater High        Combination    Western        Atwater      CA              95301        140        $7,341.60
 School              Box
Atwater High        Fresh Fruit/   Western        Atwater      CA              95301         70        $2,578.10
 School              Vegetable
                     Box
Auburn Dream        Fresh Fruit/   South East     Auburn       AL              36830        550       $14,272.50
 Center              Vegetable
                     Box
Auburn Gresham      Precooked      Midwest        Chicago      IL              60620      1,008       $81,768.96
                     Meat Box
Audbon Park Civic   Fresh Fruit/   South West     Humble       TX              77396        384        $6,524.16
 Center              Vegetable
                     Box
Audreys Outreach    Fluid Milk     Midwest        Brookpark    OH              44142      1,080        $3,585.60
Auntie Nas          Fresh Fruit/   Midwest        Detroit      MI              48201        600       $12,000.00
                     Vegetable
                     Box
Auntie Nas          Fresh Fruit/   Midwest        Detroit      MI              48204      1,200       $24,000.00
                     Vegetable
                     Box
Aurora Food Pantry  Combination    Midwest        Aurora       IL              60506      4,860      $310,100.40
                     Box
Aurora Food Pantry  Dairy          Midwest        Aurora       IL              60506      3,000      $195,450.00
                     Products Box
Aurora Food Pantry  Dairy          Midwest        Aurora       IL              60506      3,240      $194,724.00
                     Products Box
Aurora Food Pantry  Fluid Milk     Midwest        Aurora       IL              60506      3,000      $105,150.00
Aurora Food Pantry  Fluid Milk     Midwest        Aurora       IL              60506      9,000      $285,090.00
Aurora Food Pantry  Precooked      Midwest        Aurora       IL              60506      2,400      $159,624.00
                     Meat Box
Aurora Interfaith   Combination    Midwest        Aurora       IL              60506      1,797       $42,175.59
 Food Pantry         Box
Austin Achieve      Fresh Fruit/   South West     Austin       TX              78723      4,496       $76,387.04
 Elementary          Vegetable
                     Box
Austin Coming       Precooked      Midwest        Chicago      IL              60644      2,991      $242,629.92
 Together            Meat Box
Autism Trt. Ctr..   Fluid Milk     South West     San Antonio  TX              78247        240          $700.80
Avon Park           Combination    South East     Avon Park    FL              33825      1,344      $102,211.20
 Community Center    Box
Avondale Farms      Combination    South West     Haslet       TX              76052        300       $10,491.00
                     Box
Avondale High       Fresh Fruit/   Midwest        Auburn       MI              48236        100        $1,495.00
 School              Vegetable                     Hills
                     Box
Avondale Samaritan  Fluid Milk     South East     Birmingham   AL              35222      1,000        $3,790.00
 Place
Avondale Samaritan  Fresh Fruit/   South East     Birmingham   AL              35222      2,000       $56,000.00
 Place               Vegetable
                     Box
Ayani               Combination    Mid-Atlantic   Moca         PR              00676      1,878      $170,634.00
                     Box
Ayden Elementary    Fresh Fruit/   South East     Ayden        NC              28513        864       $30,853.44
 School              Vegetable
                     Box
Ayuda Humanitaria   Combination    Mid-Atlantic   Dorado       PR              00646      1,344      $116,592.00
 Navas Albaladejo    Box
B. Michael Caudill  Fluid Milk     South East     Richmond     KY              40475        400        $1,596.00
 M.
B.I. Center--C/O    Fresh Fruit/   South East     Hernando     MS              38632        540       $13,230.00
 Mid South Food      Vegetable
 Bank                Box
BA Event Center     Combination    South West     Broken       OK              74012      1,440       $50,356.80
                     Box                           Arrow
BA Event Center     Dairy          South West     Broken       OK              74012      1,632       $74,680.32
                     Products Box                  Arrow
BA Event Center     Fluid Milk     South West     Broken       OK              74012        495       $11,850.30
                                                   Arrow
BA Event Center     Fresh Fruit/   South West     Broken       OK              74012      1,595       $20,538.10
                     Vegetable                     Arrow
                     Box
Baby Steps Family   Combination    North East     Claremont    NH              03743        209        $5,643.00
 Assistance          Box
Back To God         Fresh Fruit/   Midwest        Chicago      IL              60636        126        $4,533.48
                     Vegetable
                     Box
Back To God         Precooked      Midwest        Chicago      IL              60636         72        $5,840.64
                     Meat Box
Backpack Blessings  Fluid Milk     South East     Marietta     GA              30008        600        $2,334.00
Backyard Basecamp   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206      1,120       $22,400.00
 Inc.                Vegetable
                     Box
Bad River Tribe     Dairy          Midwest        Odanah       WI              54861        920       $22,328.40
 Food Distribution   Products Box
Bad River Tribe     Fresh Fruit/   Midwest        Odanah       WI              54861      2,580       $49,924.80
 Food Distribution   Vegetable
                     Box
Bad River Tribe     Precooked      Midwest        Odanah       WI              54861      5,275      $193,625.01
 Food Distribution   Meat Box
Baker Middle        Combination    Western        Tacoma       WA              98408        760       $26,600.00
 School              Box
Baker Middle        Dairy          Western        Tacoma       WA              98408        400       $12,000.00
 School              Products Box
Baker Middle        Dairy          Midwest        Troy         MI              48083         60        $1,740.00
 School              Products Box
Baker Middle        Fresh Fruit/   Western        Tacoma       WA              98408        560       $15,120.00
 School              Vegetable
                     Box
Baker Middle        Fresh Fruit/   Midwest        Troy         MI              48083        360        $7,500.00
 School              Vegetable
                     Box
Baldwin Community   Fresh Fruit/   Midwest        Detroit      MI              48212        150        $2,242.50
 Center              Vegetable
                     Box
Baldwin Public      Dairy          Midwest        Baldwin      MI              49304        300        $8,700.00
 Schools             Products Box
Baldwin Public      Fresh Fruit/   Midwest        Baldwin      MI              49304      4,750       $95,592.50
 Schools             Vegetable
                     Box
Ball Ground         Fresh Fruit/   South East     Ball Ground  GA              30107        960       $18,182.40
 Community Center    Vegetable
                     Box
Ballard Food Bank   Combination    Western        Seattle      WA              98107        180        $6,300.00
                     Box
Ballard Food Bank   Dairy          Western        Seattle      WA              98107        150        $4,500.00
                     Products Box
Ballard Food Bank   Fresh Fruit/   Western        Seattle      WA              98107        240        $6,480.00
                     Vegetable
                     Box
Baltimore Food      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21227      3,717       $70,437.15
 Bank                Vegetable
                     Box
Baltimore           Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21208        200        $4,190.00
 Highlands Es        Vegetable
                     Box
Banco Alimentos     Precooked      South West     Del Rio      TX              78840      4,608      $475,315.20
                     Meat Box
Banco De Alimento   Fresh Fruit/   Mid-Atlantic   Carolina     PR              00982      2,016       $80,640.00
 (Food Bank)         Vegetable
                     Box
Banco De Alimentos/ Combination    Mid-Atlantic   San Juan     PR              00916        226       $18,748.00
 Ayudando AL         Box
 Desamparado
Bandhu Gardens      Fresh Fruit/   Midwest        Detroit      MI              48212        250        $7,187.50
                     Vegetable
                     Box
Banks Co. Schools   Fluid Milk     South East     Homer        GA              30547      1,600        $6,192.00
Banks Co. Schools   Fresh Fruit/   South East     Homer        GA              30547      2,070       $39,205.80
                     Vegetable
                     Box
Baptist             Combination    South East     Fort Pierce  FL              34947      1,344      $102,211.20
 Association of      Box
 fice
Baptist Church      Fresh Fruit/   South East     Kinston      NC              28504      1,750       $62,492.50
 Home Kennedy        Vegetable
                     Box
Baptist Mission     Fresh Fruit/   South West     Roma         TX              78584      1,560       $39,000.00
 Outreach Center     Vegetable
                     Box
Baptist State       Dairy          South East     Cary         NC              27511        708        $3,540.00
 Convention of NC    Products Box
Baptist State       Fluid Milk     South East     Cary         NC              27511      1,940        $7,760.00
 Convention of NC
Baptist State       Fresh Fruit/   South East     Cary         NC              27511      4,200      $115,500.00
 Convention of NC    Vegetable
                     Box
Baptist State       Precooked      South East     Cary         NC              27511      1,480       $28,860.00
 Convention of NC    Meat Box
Barber Prep         Dairy          Midwest        Highland     MI              48203        200        $5,800.00
 Academy             Products Box                  Park
Barber Prep         Fresh Fruit/   Midwest        Highland     MI              48203      1,500       $29,835.00
 Academy             Vegetable                     Park
                     Box
Barclay Elementary  Fresh Fruit/   Mid-Atlantic   Warrington   PA              18976        288        $6,618.24
 School              Vegetable
                     Box
Barkell Elementary  Fresh Fruit/   Midwest        Hancock      MI              49930        159        $5,720.82
 School              Vegetable
                     Box
Barnstable          Fresh Fruit/   North East     Hyannis      MA              02601        448        $9,833.60
 Community Sch.      Vegetable
                     Box
Barnstable High     Fresh Fruit/   North East     Barnstable   MA              02601      1,344       $29,500.80
 Sch.                Vegetable
                     Box
Barnstable Hyannis  Fresh Fruit/   North East     Hyannis      MA              02601      1,064       $23,354.80
 West Sch.           Vegetable
                     Box
Barnstable United   Fresh Fruit/   North East     Marstons     MA              02648        504       $11,062.80
 Elem Sch.           Vegetable                     Mills
                     Box
Barren Co. HS       Fluid Milk     South East     Glasgow      KY              42141      2,112        $8,004.48
Barrett Station     Fluid Milk     South West     Crosby       TX              77532        200          $642.00
Barriada Embalse    Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 San Jose            Box
Barriada Parcela    Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Falu                Box
Barrigada Mayor's   Fresh Fruit/   Western        Barrigada    Guam            96932        600       $36,000.00
 of fice             Vegetable
                     Box
Barrio Dos Boscas   Combination    Mid-Atlantic   Arecibo      PR              00612        324       $26,784.00
 Frente A            Box
 Embarcadero
Barrow Elementary   Fluid Milk     South West     Brazoria     TX              77422        900        $2,860.00
Barry County YMCA   Fresh Fruit/   Midwest        Hastings     MI              49058      1,200       $23,964.00
 Hastings            Vegetable
 Highschool          Box
Barry County YMCA   Fresh Fruit/   Midwest        Nashville    MI              49073      2,950       $58,911.50
 Nashville           Vegetable
 Assembly of God     Box
Barry County YMCA   Fresh Fruit/   Midwest        Hastings     MI              49058        200        $3,994.00
 Thornapple          Vegetable
                     Box
Barry Tower--C/O    Fresh Fruit/   South East     Memphis      TN              38106        108        $2,646.00
 Mid South Food      Vegetable
 Bank                Box
Barryton            Fresh Fruit/   Midwest        Barryton     MI              49305        175        $3,718.75
                     Vegetable
                     Box
Barth Elementary    Fresh Fruit/   Midwest        Romulus      MI              48174        142        $2,122.90
 School              Vegetable
                     Box
Bartholomew         Fresh Fruit/   South West     Warren       AR              71671      2,688       $73,920.00
 Baptist             Vegetable
                     Box
Barton Assembly of  Fresh Fruit/   South East     Lucedale     MS              39452        192        $3,244.80
 God                 Vegetable
                     Box
Basin Temple        Fresh Fruit/   South East     Lucedale     MS              39452        192        $3,244.80
 Church of Go        Vegetable
                     Box
Basin Temple        Precooked      South East     Lucedale     MS              39452        756       $31,041.36
 Church of Go        Meat Box
Bates Elementary    Fresh Fruit/   Midwest        Woodhaven    MI              48183        175        $2,616.25
 School              Vegetable
                     Box
Battle Creek Comm.  Dairy          Midwest        Battle       MI              49017         96        $2,400.00
 Foundation          Products Box                  Creek
Battle Creek Comm.  Dairy          Midwest        Battle       MI              49037      1,891       $47,275.00
 Foundation          Products Box                  Creek
Battlecreek Church  Combination    South West     Broken       OK              74012      3,552      $124,213.44
 Broken Arrow        Box                           Arrow
Battlecreek Church  Fresh Fruit/   South West     Broken       OK              74012        588       $11,230.80
 Broken Arrow        Vegetable                     Arrow
                     Box
Battlecreek Church  Combination    South West     Tulsa        OK              74104      1,440       $50,356.80
 Downtown            Box
Battlecreek Church  Combination    South West     Jenks        OK              74037        672       $23,499.84
 Jenks               Box
Battlecreek Church  Dairy          South West     Jenks        OK              74037        768       $35,143.68
 Jenks               Products Box
Battlecreek Church  Fresh Fruit/   South West     Jenks        OK              74037      1,470       $29,723.40
 Jenks               Vegetable
                     Box
Battlecreek Church  Combination    South West     Owasso       OK              74055      1,344       $46,999.68
 Owasso              Box
Battlecreek Church  Fresh Fruit/   South West     Owasso       OK              74055      2,156       $41,179.60
 Owasso              Vegetable
                     Box
Baxter Community    Fresh Fruit/   Midwest        Grand        MI              49505        106        $3,813.88
 Center              Vegetable                     Rapids
                     Box
Bay Area Eritirean  Fresh Fruit/   Western        Oakland      CA              94609         80        $2,547.20
 Covid Task Force    Vegetable
                     Box
Bay Area Rescue     Combination    Western        Richmond     CA              94801        144        $5,644.80
 Mission             Box
Bay City Region     Fresh Fruit/   Midwest        Bay City     MI              48706      1,200       $17,940.00
 Seven               Vegetable
                     Box
Bay County Council  Fresh Fruit/   South East     Panama City  FL              32401        300        $8,700.00
 on Aging Inc.       Vegetable
                     Box
Bay Mills           Fresh Fruit/   Midwest        Brimley      MI              49715        450       $10,800.00
 Commodity Food      Vegetable
                     Box
Bay Village         Dairy          Midwest        Bay Village  OH              44140        130        $3,250.00
 Community           Products Box
 Resources
Bayless Elementry   Fresh Fruit/   Mountain       St. Louis    MO              63123        288        $9,216.00
                     Vegetable      Plains
                     Box
Bayshore Community  Combination    South East     Bradenton    FL              34207      1,344      $102,211.20
 Church Bradenton    Box
Bayside Church      Fresh Fruit/   South East     Bradenton    FL              34212      3,328       $73,216.00
                     Vegetable
                     Box
Bayview Hunters     Fresh Fruit/   Western        San          CA              94115        225        $5,625.00
 Point Seniors       Vegetable                     Francisco
                     Box
Bayview Hunters     Fresh Fruit/   Western        San          CA              94124        475       $11,875.00
 Point Seniors       Vegetable                     Francisco
                     Box
Be Concerned        Fluid Milk     South East     Covington    KY              41011        540        $1,792.80
Be the Change       Fresh Fruit/   North East     West         RI              02893      1,108       $19,944.00
                     Vegetable                     Warwick
                     Box
Beach Food Pantry   Fresh Fruit/   South East     Kitty Hawk   NC              27949         40        $1,428.40
                     Vegetable
                     Box
Beacon Heights      Fresh Fruit/   Mid-Atlantic   Riverdale    MD              20737      2,300       $46,000.00
 Elementary          Vegetable
                     Box
Beacon of Hope      Fresh Fruit/   Mid-Atlantic   Mount Holly  NJ              08060        945       $17,907.75
                     Vegetable
                     Box
Beacon of Hope      Fresh Fruit/   Midwest        Royal Oak    MI              48067        100        $2,875.00
                     Vegetable
                     Box
Beacon of Light     Precooked      Mountain       St. Louis    MO              63137        105        $4,725.00
 Ministries          Meat Box       Plains
Beamer High School  Combination    Western        Federal Way  WA              98003        480       $16,800.00
                     Box
Beamer High School  Dairy          Western        Federal Way  WA              98003        450       $13,500.00
                     Products Box
Beamer High School  Fresh Fruit/   Western        Federal Way  WA              98003        540       $14,580.00
                     Vegetable
                     Box
Beans Cafe          Fresh Fruit/   Western        Anchorage    AK              99501      1,080       $30,186.00
                     Vegetable
                     Box
Beans Cafe          Fresh Fruit/   Western        Anchorage    AK              99501      3,528       $98,607.60
                     Vegetable
                     Box
Bear Creek          Combination    South West     Dallas       TX              75206        100        $3,497.00
 Community Church    Box
Bear Lake County    Combination    Western        Montpelier   ID              83254        120        $5,280.00
 Fair Grounds        Box
Bear Lake County    Fresh Fruit/   Western        Montpelier   ID              83254        120        $3,120.00
 Fair Grounds        Vegetable
                     Box
Beaufait            Fresh Fruit/   Midwest        Detroit      MI              48207     18,900      $680,022.00
                     Vegetable
                     Box
Beaufort County     Fresh Fruit/   South East     Washington   NC              27889        100        $3,571.00
 Csfp                Vegetable
                     Box
Beaufort County     Fresh Fruit/   South East     Pantego      NC              27860        100        $3,571.00
 Mobile Pantry       Vegetable
                     Box
Beautiful Gate      Fresh Fruit/   Midwest        Ypsilanti    MI              48197        540        $8,073.00
 Church              Vegetable
                     Box
Beaver Co. Food     Fluid Milk     Mid-Atlantic   Ambridge     PA              15003        235        $2,855.25
 Bank
Beaver Co. Housing  Dairy          Mid-Atlantic   Monaca       PA              15061         96        $1,056.00
 Authority Ac        Products Box
 Edgecombe
Beaver Co. Housing  Dairy          Mid-Atlantic   Midland      PA              15059         49          $539.00
 Authority Corak     Products Box
 Towers
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Ambridge     PA              15003        103        $1,133.00
 Authority
 Crestview Village
Beaver Co. Housing  Dairy          Mid-Atlantic   Beaver       PA              15009        105        $1,155.00
 Authority Francis   Products Box
 Farmer
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Rochester    PA              15074         34          $374.00
 Authority Gordon
 Camp Family
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Beaverfalls  PA              15010         96        $1,056.00
 Authority Harmony
 Dwellings
Beaver Co. Housing  Dairy          Mid-Atlantic   Ambridge     PA              15003         72          $792.00
 Authority Jfk       Products Box
 Apartments
Beaver Co. Housing  Dairy          Mid-Atlantic   Rochester    PA              15074         44          $484.00
 Authority Joseph    Products Box
 Edwards Fam
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Aliquippa    PA              15001         63          $693.00
 Authority Linmar
 Terrace
Beaver Co. Housing  Dairy          Mid-Atlantic   Aliquippa    PA              15001        196        $2,156.00
 Authority Linmar    Products Box
 Terrace Ext
Beaver Co. Housing  Dairy          Mid-Atlantic   Beaver       PA              15010        274        $3,014.00
 Authority Morado    Products Box                  Falls
 Dwellings
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Beaverfalls  PA              15010         64          $704.00
 Authority Mount
 Washington
Beaver Co. Housing  Fluid Milk     Mid-Atlantic   Beaverfalls  PA              15010        234        $2,574.00
 Authority
 Pleasantview
 Homes
Beaver Co. Housing  Dairy          Mid-Atlantic   Pulaskitown  PA              15066        146        $1,606.00
 Authority Pulaski   Products Box                  ship
 Homes
Beaver Co. Housing  Dairy          Mid-Atlantic   Monaca       PA              15061         96        $1,056.00
 Authroity           Products Box
 Monacatootha
Beaver Creek Elem   Fluid Milk     South East     Topmost      KY              41862        998        $3,782.42
Beaverton School    Fresh Fruit/   Western        Beaverton    OR              97005         60        $1,620.00
 District            Vegetable
                     Box
Beaverton Schools   Fresh Fruit/   Midwest        Beaverton    MI              48612        392       $14,104.16
                     Vegetable
                     Box
Because We Care     Fresh Fruit/   Mid-Atlantic   Waldorf      MD              20601        425        $8,903.75
                     Vegetable
                     Box
Bedford Food        Fresh Fruit/   Mid-Atlantic   Bedford      PA              15522        400       $10,000.00
 Outreach Inc.       Vegetable
                     Box
Beech Elementary    Dairy          Midwest        Redford      MI              48240        500       $14,500.00
                     Products Box
Beech Elementary    Fresh Fruit/   Midwest        Redford      MI              48240        800       $16,900.00
                     Vegetable
                     Box
Beecher High        Fresh Fruit/   Midwest        Mt. Morris   MI              48458        925       $13,828.75
 School              Vegetable
                     Box
Beef O Grady's /    Fluid Milk     South East     Saint Cloud  FL              34769        380        $1,440.20
 Sra
Beer Middle School  Fresh Fruit/   Midwest        Warren       MI              48092        400        $5,980.00
                     Vegetable
                     Box
Bel House           Fresh Fruit/   South East     Miami        FL              33161        120        $2,010.00
                     Vegetable
                     Box
Belair Edison       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21213        150        $3,000.00
 Elementary School   Vegetable
                     Box
Belen Iglesia       Combination    Mid-Atlantic   Moca         PR              00676        672       $58,296.00
 Cristiana Casa      Box
 Pan Y Alabanza
Belfast School      Fresh Fruit/   North East     Belfast      NY              14711        800       $18,280.00
                     Vegetable
                     Box
Belinda Hill        Combination    Mid-Atlantic   San Juan     PR              00920         78        $5,958.00
                     Box
Belivers Temple     Fresh Fruit/   South East     Birmingham   AL              35218      1,000       $25,950.00
                     Vegetable
                     Box
Belknap Ministires  Fluid Milk     South West     Dallas       TX              75217     61,110      $178,441.20
Bell Co. High       Fluid Milk     South East     Pineville    KY              40977        300        $1,137.00
 School
Bellevue Community  Fresh Fruit/   Mid-Atlantic   Wilmington   DE              19809      1,260       $25,200.00
 Center              Vegetable
                     Box
Bellevue Community  Dairy          Midwest        Bellevue     MI              49021        480       $12,000.00
 Schools             Products Box
Bellevue Community  Fresh Fruit/   Midwest        Bellevue     MI              49021      2,716       $97,721.68
 Schools             Vegetable
                     Box
Bellingham Food     Fresh Fruit/   Western        Bellingham   WA              98225      1,000       $22,000.00
 Bank C/O Lummi      Vegetable
 Food Bank           Box
Bellingham Food     Fresh Fruit/   Western        Bellingham   WA              98226        200        $4,400.00
 Bank C/O Lummi      Vegetable
 Food Bank           Box
Bellingham Sr.      Precooked      North East     Bellingham   MA              02019         35        $1,900.50
 Ctr.                Meat Box
Bellview Community  Fresh Fruit/   South East     Murphy       NC              28906        450       $12,375.00
 Development         Vegetable
 Center              Box
Bellville           Dairy          Midwest        Bellville    OH              44813        260        $6,500.00
 Neighborhood        Products Box
 Outreach Ctr.
Belmont UMC--C/O    Fresh Fruit/   South East     Belmont      MS              38827        594       $14,553.00
 Mide South Food     Vegetable
 Bank                Box
Bemioji High        Fresh Fruit/   Midwest        Bemioji      MN              56601      1,430       $41,112.50
 School              Vegetable
                     Box
Benavides R.E.AL.   Fresh Fruit/   South West     Benavides    TX              78341        500       $12,500.00
                     Vegetable
                     Box
Benison Center      Fresh Fruit/   South East     Immokalee    FL              34142     36,143      $885,503.50
                     Vegetable
                     Box
Benjamin Rose       Fresh Fruit/   Midwest        Cleveland    OH              44120        120        $3,180.00
 Center              Vegetable
                     Box
Benjamins Hope      Fresh Fruit/   Midwest        Holland      MI              49424        100        $2,112.50
                     Vegetable
                     Box
Bennett Elementary  Fresh Fruit/   Midwest        Detroit      MI              48209        150        $2,242.50
 School              Vegetable
                     Box
Bennett High        Fresh Fruit/   North East     Buffalo      NY              14214        300        $6,855.00
 School              Vegetable
                     Box
Benson Middle       Fresh Fruit/   South East     Benson       NC              27504        200        $2,300.00
                     Vegetable
                     Box
Bentalou Rec        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21223        900       $18,000.00
                     Vegetable
                     Box
Benton Co Comm. Co- Fluid Milk     Midwest        Oxford       IN              47971        508        $2,032.00
 Op
Benton County Coa-- Fresh Fruit/   South East     Ashland      MS              38603        648       $15,876.00
 C/O Mid South       Vegetable
 Food Bank           Box
Benzie Area Chrstn  Dairy          Midwest        Benzonia     MI              49616        120        $3,000.00
 N8Br                Products Box
Benzie Central      Fresh Fruit/   Midwest        Thompsonvil  MI              49683        280       $10,074.40
 Schools             Vegetable                     le
                     Box
Benzie Friends      Dairy          Midwest        Benzonia     MI              49617         20          $580.00
 Resource Center     Products Box
Benzie Friends      Fresh Fruit/   Midwest        Benzonia     MI              49617         80        $1,655.00
 Resource Center     Vegetable
                     Box
Berean Church       Fresh Fruit/   South East     Stone        GA              30088      2,840       $56,800.00
 Dekalb              Vegetable                     Mountain
                     Box
Berean Church       Fresh Fruit/   South East     Snellville   GA              30078      1,550       $31,000.00
 Gwinnett            Vegetable
                     Box
Berean Church       Fresh Fruit/   South East     Stockbridge  GA              30281      1,550       $31,000.00
 Henry               Vegetable
                     Box
Berean Seventh Day  Fresh Fruit/   South East     Atlanta      GA              30318      2,100       $39,774.00
 Advent              Vegetable
                     Box
Bergen Volunteer    Fresh Fruit/   Mid-Atlantic   Hackensack   NJ              07601      1,120       $22,400.00
 Medical             Vegetable
 Initiative          Box
Berkeley Food Net-- Fresh Fruit/   Western        Albany       CA              94706        900       $18,750.00
 UC Village          Vegetable
                     Box
Berkeley Food       Combination    Western        Berkeley     CA              94710         50        $1,362.50
 Network             Box
Berkeley Food       Fresh Fruit/   Western        Berkeley     CA              94707      1,790       $37,887.50
 Network             Vegetable
                     Box
Berkley Communiy    Fresh Fruit/   North East     Berkley      MA              02779        224        $4,916.80
 Sch.                Vegetable
                     Box
Berks Warehouse     Dairy          Mid-Atlantic   Philadelphi  PA              19122      2,730       $92,110.20
                     Products Box                  a
Berkshire County    Combination    North East     Lanesboroug  MA              01237         75        $2,850.00
 Es                  Box                           h
Berkshire County    Precooked      North East     Lanesboroug  MA              01237         75        $4,072.50
 Es                  Meat Box                      h
Berks--Philabundan  Combination    Mid-Atlantic   Philadelphi  PA              19122        960       $91,200.00
 ce                  Box                           a
Berlin Food Pantry  Combination    North East     Berlin       MA              01503         20          $760.00
                     Box
Berlin Food Pantry  Fresh Fruit/   Midwest        Berlin       WI              54923        110        $1,424.50
                     Vegetable
                     Box
Berlin Food Pantry  Precooked      North East     Berlin       MA              01503         20        $1,086.00
                     Meat Box
Bernardston Sr      Precooked      North East     Bernardston  MA              01337         81        $4,398.30
 Cntr                Meat Box
Berry Creek         Fresh Fruit/   Western        Oroville     CA              95966        196        $3,890.60
 Rancheria           Vegetable
                     Box
Bert Ferguson       Fresh Fruit/   South East     Cordova      TN              38018        378        $9,261.00
 Community Center--  Vegetable
 C/O Mid South Foo   Box
Bertie Co. CSFP     Fresh Fruit/   South East     Windsor      NC              27983        280        $9,998.80
                     Vegetable
                     Box
Bertie Co. Mobile   Fresh Fruit/   South East     Powellsvill  NC              27967        150        $5,356.50
 Food Pantry         Vegetable                     e
                     Box
Bertie County Csfp  Fresh Fruit/   South East     Lewiston     NC              27849        140        $4,999.40
                     Vegetable                     Woodville
                     Box
Berts Warehouse     Fresh Fruit/   Midwest        Detroit      MI              48207        100        $2,875.00
                     Vegetable
                     Box
Berwick Area YMCA   Fresh Fruit/   Mid-Atlantic   Berwick      PA              18603        800       $20,000.00
                     Vegetable
                     Box
Berwick Salvation   Fresh Fruit/   Mid-Atlantic   Berwick      PA              18603        775       $19,375.00
 Army                Vegetable
                     Box
Berwick VFW         Fresh Fruit/   Mid-Atlantic   Berwick      PA              18603        275        $6,875.00
                     Vegetable
                     Box
Bes Baypath Elder   Combination    North East     Southboroug  MA              01772        330       $10,824.00
 Serv                Box                           h
Bes Marlborough     Combination    North East     Marlborough  MA              01752        800       $30,400.00
 COA                 Box
Bes Natick Housing  Combination    North East     Natick       MA              01760        304        $9,971.20
 Ath                 Box
Bes Somerset COA    Combination    North East     Somerset     MA              02726         30          $984.00
                     Box
Bessemer Civic      Fresh Fruit/   South East     Bessemer     AL              35022      6,240      $161,928.00
 Center              Vegetable
                     Box
Bessemer Housing    Fresh Fruit/   South East     Bessemer     AL              35020        416       $10,795.20
 Authority           Vegetable
                     Box
Bessemer Sda        Fresh Fruit/   South East     Bessemer     AL              35020      2,040       $52,938.00
 Church              Vegetable
                     Box
Bessie Green        Fresh Fruit/   Mid-Atlantic   Newark       NJ              07102      1,700       $34,000.00
                     Vegetable
                     Box
Bethal Baptist Ame  Fresh Fruit/   South East     Birmingham   AL              35208        100        $2,595.00
 Rising              Vegetable
                     Box
Bethanna            Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19146        420        $8,400.00
                     Vegetable                     a
                     Box
Bethany Christian   Fresh Fruit/   Midwest        Grand        MI              49507        350       $12,593.00
 Services of         Vegetable                     Rapids
 Michigan            Box
Bethany Lutheran    Fresh Fruit/   Midwest        Detroit      MI              48224         45        $1,293.75
 Church              Vegetable
                     Box
Bethel #2           Fluid Milk     Midwest        Cincinnati   OH              45214        360        $1,195.20
 Apostolic
Bethel AME Church   Fresh Fruit/   Midwest        Saginaw      MI              48601        225        $3,363.75
                     Vegetable
                     Box
Bethel AME Church-- Fresh Fruit/   South East     Birmingham   AL              35209        200        $5,600.00
 Rising              Vegetable
                     Box
Bethel AMEC         Combination    South East     Augusta      GA              30904        560       $42,588.00
                     Box
Bethel AMEC         Fluid Milk     South East     Augusta      GA              30904      4,320       $16,804.80
Bethel Anniston     Combination    South East     Anniston     AL              36201      5,376      $408,844.80
 MBC                 Box
Bethel Baptist      Fluid Milk     South East     Brandon      MS              39042        384        $2,818.56
 Church
Bethel Baptist      Fresh Fruit/   South East     Birmingham   AL              35214      2,120       $55,014.00
 Church              Vegetable
                     Box
Bethel Baptist      Fresh Fruit/   South East     Brandon      MS              39042        624       $10,545.60
 Church              Vegetable
                     Box
Bethel Baptist      Precooked      South East     Brandon      MS              39042        840       $34,490.40
 Church              Meat Box
Bethel Church       Fresh Fruit/   South East     Memphis      TN              38128        500       $13,750.00
                     Vegetable
                     Box
Bethel Church       Fresh Fruit/   South West     Gilmoore     AR              72339      1,000       $27,500.00
                     Vegetable
                     Box
Bethel Church       Fresh Fruit/   Mountain       Bethel       MO              63434         75        $2,062.50
                     Vegetable      Plains
                     Box
Bethel Empowerment  Dairy          Midwest        Grandville   MI              49418      1,500       $43,500.00
 Church              Products Box
Bethel Empowerment  Fresh Fruit/   Midwest        Grandville   MI              49418      4,000       $83,625.00
 Church              Vegetable
                     Box
Bethel Holiness     Fluid Milk     Midwest        Columbus     IN              47201     17,280       $69,120.00
 Church
Bethel Mission      Fresh Fruit/   South West     Roma         TX              78584      4,400       $99,747.20
 Outreach Center     Vegetable
                     Box
Bethel              Fresh Fruit/   Mountain       Kansas City  KS              66101        800       $20,720.00
 Neighborhood        Vegetable      Plains
 Center              Box
Bethel Pore         Combination    South East     Salem        AL              36874      1,344      $102,211.20
 Missionary          Box
 Baptist Chruch
Bethel Temple       Combination    South West     Cleburne     TX              76033        900       $31,473.00
 Assembly of God     Box
Bethel Temple       Dairy          South West     Cleburne     TX              76033      1,000       $45,760.00
 Assembly of God     Products Box
Bethel Temple       Fresh Fruit/   South West     Cleburne     TX              76033      1,000       $19,100.00
 Assembly of God     Vegetable
                     Box
Bethel Temple       Fresh Fruit/   Midwest        Mounds       IL              62964        175        $4,812.50
 Ministry            Vegetable
                     Box
Bethel/Harvest      Fluid Milk     South West     Houston      TX              77035      1,000        $2,920.00
 Poin
Bethels Heavenly    Combination    South West     Houston      TX              77035      3,000      $104,910.00
 Hands               Box
Bethels Heavenly    Dairy          South West     Houston      TX              77035      1,000       $45,760.00
 Hands               Products Box
Bethels Heavenly    Fresh Fruit/   South West     Houston      TX              77035     13,784      $237,852.16
 Hands               Vegetable
                     Box
Bethesda            Fresh Fruit/   South East     Americus     GA              31709      1,920       $36,364.80
 Missionary          Vegetable
 Baptist             Box
Bethlehem Baptist   Dairy          South West     Mansfield    TX              76060        800       $36,608.00
 Church              Products Box
Bethlehem Baptist   Fresh Fruit/   South West     Mansfield    TX              76060        400        $3,880.00
 Church              Vegetable
                     Box
Bethlehem Baptist   Precooked      South East     Natchez      MS              39120      1,848       $75,878.88
 Church              Meat Box
Bethlehem Inn       Fresh Fruit/   Western        Bend         OR              97701         15          $705.00
                     Vegetable
                     Box
Bethseda            Fluid Milk     South East     Americus     GA              31709        500        $1,895.00
 Missionary
Betsie Valley       Fresh Fruit/   Midwest        Thompsonvil  MI              49683         70        $2,518.60
 Elementary          Vegetable                     le
                     Box
Better Family LF/   Fresh Fruit/   Mountain       St. Louis    MO              63111        468       $14,976.00
 STL Food Bank       Vegetable      Plains
                     Box
Better Family LF/   Fresh Fruit/   Mountain       St. Louis    MO              63112        900       $28,800.00
 STL Food Bank       Vegetable      Plains
                     Box
Better Family LF/   Fresh Fruit/   Mountain       St. Louis    MO              63113        216        $6,912.00
 STL Food Bank       Vegetable      Plains
                     Box
Better Family LF/   Fresh Fruit/   Mountain       St. Louis    MO              63115        216        $6,912.00
 STL Food Bank       Vegetable      Plains
                     Box
Better Family LF/   Fresh Fruit/   Mountain       St. Louis    MO              63136        180        $5,760.00
 STL Food Bank       Vegetable      Plains
                     Box
Better Tomorrows    Fluid Milk     South East     Winter       FL              33880        300        $1,175.00
                                                   Haven
Beulah Missionary   Combination    South East     Columbus     GA              31204        560       $42,588.00
 Baptist Church      Box
Beulah Primitive    Fluid Milk     South East     Hope Hull    AL              36043        800        $3,192.00
 Ba
Beverly Bootstraps  Fresh Fruit/   North East     Beverly      MA              01915        780       $22,183.20
                     Vegetable
                     Box
Beverly High Sch..  Fresh Fruit/   North East     Beverly      MA              01915        329        $7,221.55
                     Vegetable
                     Box
Beverly Hills SDA   Precooked      Midwest        Chicago      IL              60620         72        $5,840.64
 Church              Meat Box
Beverly Hills SDA   Precooked      Midwest        Chicago      IL              60620        144       $11,681.28
 Church              Meat Box
Bewbern First       Fresh Fruit/   South East     Newbern      TN              38059        648       $15,876.00
 Baptist Church--C/  Vegetable
 O Mid South Food    Box
Beyond Blessed      Dairy          Midwest        Baraboo      WI              53913      3,615      $118,394.55
 Pantry              Products Box
Beyond Blessed      Fresh Fruit/   Midwest        Baraboo      WI              53913      3,720       $66,915.00
 Pantry              Vegetable
                     Box
Beyond Blessed      Precooked      Midwest        Baraboo      WI              53913      4,759      $271,656.39
 Pantry              Meat Box
Beyond Hunger       Fresh Fruit/   Midwest        Oak Park     IL              60301        252        $9,066.96
                     Vegetable
                     Box
Beyond the          Fresh Fruit/   North East     Rochester    NY              14608        275        $6,283.75
 Sanctuary           Vegetable
                     Box
Beyond Walls A8860- Precooked      Mid-Atlantic   Vineland     NJ              08361        180       $11,133.00
 01                  Meat Box
Beyond Walls/Sosa   Fluid Milk     South East     Fruitland    FL              34731        340        $1,288.60
                                                   Pk
B-H-K Community     Precooked      Midwest        Houghton     MI              49931        194        $7,009.53
 Action Agency       Meat Box
Bible Baptist       Fresh Fruit/   South East     Pensacola    FL              32514        850       $24,650.00
 Church              Vegetable
                     Box
Bible Christian     Combination    Western        Le Grand     CA              95333        350       $18,354.00
 Church              Box
Bible Christian     Combination    Western        Fox Island   WA              98333        350       $18,354.00
 Church              Box
Bible Driven        Dairy          Western        Bend         OR              97701         10          $300.00
 Ministries          Products Box
Bible Driven        Fresh Fruit/   Western        Bend         OR              97701         10          $470.00
 Ministries          Vegetable
                     Box
Bible Way           Fresh Fruit/   South West     Houston      TX              77034      2,936       $54,054.64
                     Vegetable
                     Box
Bible World         Fluid Milk     South West     Baton Rouge  LA              70806        800        $2,336.00
 Christi
Bibleway Church FP  Fresh Fruit/   South East     Okolona      MS              38860        192        $3,244.80
                     Vegetable
                     Box
Bic Schools         Dairy          South West     Monette      AR              72447        500       $12,500.00
                     Products Box
Big Brothers Big    Fresh Fruit/   Mountain       Kansas City  MO              64108        480       $12,432.00
 Sisters             Vegetable      Plains
                     Box
Big Brothers        Fresh Fruit/   South West     Dallas       TX              75212        318        $5,402.82
 Helping Hand        Vegetable
                     Box
Big Creek Elem.     Fluid Milk     South East     Oneida       KY              40972        456        $1,728.24
Big Creek Missions  Fluid Milk     South East     Hyden        KY              41749        600        $2,274.00
Big Ruin Creek      Fresh Fruit/   South East     Henderson    NC              27537        636       $16,160.76
 Baptist             Vegetable
                     Box
Big Valley Grace    Combination    Western        Modesto      CA              95356      1,750       $91,770.00
 Community Church    Box
Big Valley Grace    Fresh Fruit/   Western        Modesto      CA              95356      4,805      $116,568.35
 Community Church    Vegetable
                     Box
Bilingual Center    Fresh Fruit/   North East     Buffalo      NY              14210        200        $4,570.00
 School              Vegetable
                     Box
Bill Harrod         Fresh Fruit/   South West     Dallas       TX              75212        512        $8,698.88
 Memorial            Vegetable
                     Box
Billerica Public    Fresh Fruit/   North East     Billerica    MA              01821      2,912       $63,918.40
 Schools             Vegetable
                     Box
Billings Family     Combination    Mountain       Billings     MT              59103      4,788      $229,824.00
 Service             Box            Plains
Billings Family     Fresh Fruit/   Mountain       Billings     MT              59103      2,492       $74,760.00
 Service             Vegetable      Plains
                     Box
Biloxi Hispanic     Dairy          South East     Vancleave    MS              39565      1,120       $31,449.60
 Sda Comm.           Products Box
Biloxi Hispanic     Fresh Fruit/   South East     Vancleave    MS              39565        160        $2,704.00
 Sda Comm.           Vegetable
                     Box
Biloxi Hispanic     Precooked      South East     Vancleave    MS              39565        924       $37,939.44
 SDA Comm.           Meat Box
Bingham Cnty.       Combination    Western        Blackfoot    ID              83221        239       $10,516.00
 Blackfoot Senior    Box
Bingham Cnty.       Fresh Fruit/   Western        Blackfoot    ID              83221        600       $15,600.00
 Blackfoot Senior    Vegetable
                     Box
Binghamton Church-- Fresh Fruit/   South East     Memphis      TN              38112        162        $3,969.00
 C/O Mid South       Vegetable
 Food Bank           Box
Binghamton CSD      Dairy          North East     Binghamton   NY              13904        705       $31,161.00
                     Products Box
Binghamton CSD      Fresh Fruit/   North East     Binghamton   NY              13904      1,470       $33,810.00
                     Vegetable
                     Box
Binghamton CSD      Precooked      North East     Binghamton   NY              13904        652       $35,599.20
                     Meat Box
Birch Community     Combination    Western        Portland     OR              97230      3,060      $107,100.00
 Service             Box
Birch Community     Dairy          Western        Portland     OR              97230      2,450       $73,500.00
 Service             Products Box
Birch Community     Fluid Milk     Western        Portland     OR              97230      5,040       $23,990.40
 Service
Birch Community     Fresh Fruit/   Western        Portland     OR              97230      3,620       $97,740.00
 Service             Vegetable
                     Box
Birchwood Learning  Fresh Fruit/   South East     Durham       NC              27703        200        $2,300.00
                     Vegetable
                     Box
Birchwood Mall      Fresh Fruit/   Midwest        Fort         MI              48059      1,100       $31,625.00
                     Vegetable                     Gratiot
                     Box
Birmingham Police   Fresh Fruit/   South East     Birmingham   AL              35203      1,000       $28,000.00
 HQ                  Vegetable
                     Box
Bishop Griffin      Fluid Milk     Midwest        Columbus     OH              43209        600        $1,992.00
 Res. Ctr.
Bishop Griffin      Fresh Fruit/   Midwest        Columbus     OH              43209        896       $17,472.00
 Res. Ctr.           Vegetable
                     Box
Bishop Kmiec        Dairy          North East     Geneva       NY              14456        180        $8,136.00
                     Products Box
Bishop Kmiec        Precooked      North East     Geneva       NY              14456        225       $12,510.00
                     Meat Box
Bishop Store House  Fresh Fruit/   Mountain       Kansas City  MO              64161        490       $12,691.00
                     Vegetable      Plains
                     Box
Bishop Sullivan     Fresh Fruit/   Mountain       Kansas City  MO              64110        520       $13,468.00
 Center Troost       Vegetable      Plains
                     Box
Bishop Sullivan     Fresh Fruit/   Mountain       Kansas City  MO              64126        280        $7,252.00
 Center Truman       Vegetable      Plains
                     Box
Bishop Ward High    Combination    Mountain       Kansas City  KS              66102        720       $25,178.40
 School              Box            Plains
Bishop Ward High    Dairy          Mountain       Kansas City  KS              66102        600       $27,456.00
 School              Products Box   Plains
Bishop Ward High    Fresh Fruit/   Mountain       Kansas City  KS              66102      1,300       $27,266.00
 School              Vegetable      Plains
                     Box
Bix Channel One     Combination    Midwest        Rochester    MN              55904      1,008       $62,616.96
 Regional Food       Box
 Bank
Bix Channel One     Dairy          Midwest        Rochester    MN              55904      1,000       $28,620.00
 Regional Food       Products Box
 Bank
Bix Channel One     Fresh Fruit/   Midwest        Rochester    MN              55904      4,719      $288,541.00
 Regional Food       Vegetable
 Bank                Box
Bix Channel One     Precooked      Midwest        Rochester    MN              55904      3,360      $127,142.40
 Regional Food       Meat Box
 Bank
Bix Maplewood YMCA  Fresh Fruit/   Midwest        Maplewood    MN              55109        960       $59,068.80
                     Vegetable
                     Box
Bix North Central   Combination    Midwest        Grand        MN              55744      1,381       $85,914.22
 Food Bank           Box                           Rapids
Bix North Central   Fresh Fruit/   Midwest        Grand        MN              55744      1,500       $91,030.00
 Food Bank           Vegetable                     Rapids
                     Box
Bix North Country   Combination    Midwest        East Grand   MN              56721        672       $41,744.64
 Food Bank Inc.      Box                           Forks
Bix North Country   Fresh Fruit/   Midwest        East Grand   MN              56721      1,100       $67,683.00
 Food Bank Inc.      Vegetable                     Forks
                     Box
Bix Northern Lakes  Fresh Fruit/   Midwest        Duluth       MN              55811      2,720      $167,361.60
 Food Bank           Vegetable
                     Box
Bix Northtown YMCA  Fresh Fruit/   Midwest        Coon Rapids  MN              55433      1,200       $73,228.80
                     Vegetable
                     Box
Bix Prism           Combination    Midwest        Golden       MN              55422        840       $52,180.80
                     Box                           Valley
Bix Rubys Heart     Combination    Midwest        North        MN              55056      1,008       $62,616.96
                     Box                           Branch
Bix Rubys Pantry    Combination    Midwest        North        MN              55056      1,008       $62,616.96
                     Box                           Branch
Bix Saint Vincent   Combination    Midwest        Minneapolis  MN              55404      4,256      $264,382.72
 De Paul             Box
Bix Saint Vincent   Fresh Fruit/   Midwest        Minneapolis  MN              55404     10,870      $662,177.20
 De Paul             Vegetable
                     Box
Bix Saint Vincent   Fresh Fruit/   Midwest        Minneapolis  MN              55407        750       $44,250.00
 De Paul             Vegetable
                     Box
Bix Salvation Army  Combination    Midwest        St. Paul     MN              55102        902       $56,032.24
 St. Paul            Box
Bix Salvation Army  Fresh Fruit/   Midwest        St. Paul     MN              55102      4,000      $245,310.40
 St. Paul            Vegetable
                     Box
Bix Second Harvest  Fresh Fruit/   Midwest        Brooklyn     MN              55428      9,180      $550,222.00
 Heartland           Vegetable                     Park
                     Box
Bix St. Paul        Fresh Fruit/   Midwest        St. Paul     MN              55106        960       $59,068.80
 Eastside YMCA       Vegetable
                     Box
Bix St. Paul        Fresh Fruit/   Midwest        St. Paul     MN              55104      1,200       $73,228.80
 Midway YMCA         Vegetable
                     Box
Bixby Free Will     Combination    South West     Bixby        OK              74008      1,440       $50,356.80
 Baptist Church      Box
Bixby Free Will     Fluid Milk     South West     Bixby        OK              74008        507       $12,137.58
 Baptist Church
Bixby Free Will     Fresh Fruit/   South West     Bixby        OK              74008      2,624       $44,513.80
 Baptist Church      Vegetable
                     Box
BJCTA Max Terminal  Fresh Fruit/   South East     Birmingham   AL              35203        416       $10,795.20
                     Vegetable
                     Box
Black Oaks Beloved  Combination    Midwest        Chicago      IL              60628        200       $13,436.00
                     Box
Black Oaks Beloved  Combination    Midwest        Chicago      IL              60621        200       $12,424.00
 Halsted             Box
Black Oaks Beloved  Fluid Milk     Midwest        Chicago      IL              60621        200        $7,010.00
 Halsted
Black Oaks Blocks   Combination    Midwest        Chicago      IL              60651        250       $15,530.00
 Together            Box
Black Oaks Blocks   Fluid Milk     Midwest        Chicago      IL              60651        500       $17,525.00
 Together
Black Oaks CCHC 1   Combination    Midwest        South        IL              60473        400       $25,860.00
                     Box                           Holland
Black Oaks CCHC 1   Dairy          Midwest        South        IL              60473        300       $18,030.00
                     Products Box                  Holland
Black Oaks Chicago  Combination    Midwest        Chicago      IL              60628         75        $4,659.00
 Family Health 2     Box
Black Oaks Chicago  Combination    Midwest        Chicago      IL              60629        225       $14,230.00
 Family Health 3     Box
Black Oaks Dolton   Combination    Midwest        Chicago      IL              60628        150       $10,077.00
                     Box
Black Oaks Family   Fresh Fruit/   Midwest        Dolton       IL              60426        450       $28,827.00
 Christian Center    Vegetable
 Dolton              Box
Black Oaks Family   Combination    Midwest        Harvey       IL              60426        600       $40,308.00
 Christian Center    Box
 Harvey
Black Oaks Family   Combination    Midwest        Harvey       IL              60426      2,100      $138,042.00
 Christian Center    Box
 Harvey
Black Oaks Family   Fluid Milk     Midwest        Harvey       IL              60426        100        $2,999.00
 Christian Center
 Harvey
Black Oaks Family   Fresh Fruit/   Midwest        Harvey       IL              60426        810       $51,888.60
 Christian Center    Vegetable
 Harvey              Box
Black Oaks Family   Combination    Midwest        Lynwood      IL              60411        650       $42,402.00
 Christian Center    Box
 Lynwood
Black Oaks          Combination    Midwest        Pembroke     IL              60958        375       $25,192.50
 Pembroke            Box                           Township
Black Oaks          Combination    Midwest        Pembroketow  IL              60958        225       $13,977.00
 Pembroke            Box                           nship
Black Oaks Tca      Combination    Midwest        Chicago      IL              60628        800       $52,732.00
 Chicago             Box
Black Oaks Tca      Combination    Midwest        Chicago      IL              60628        100        $6,718.00
 Cottage Grove       Box
Black Oaks Tca      Combination    Midwest        Chicago      IL              60651        325       $21,833.50
 Cottage Grove       Box
Black River LA      Fluid Milk     Midwest        Lorain       OH              44052        900        $2,988.00
Black Urban         Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        720       $21,600.00
 Gardeners and       Vegetable
 Farmers             Box
Blackbelt &         Combination    South East     Camden       AL              36726        560       $42,588.00
 Central AL          Box
 Housing Authority
Blackstone Sr.      Precooked      North East     Blackstone   MA              01535         70        $3,801.00
 Ctr.                Meat Box
Blaine County       Combination    Western        Bellevue     ID              83313        700       $30,800.00
 Hunger Coalition    Box
Blaine County       Fresh Fruit/   Western        Bellevue     ID              83313        900       $23,400.00
 Hunger Coalition    Vegetable
                     Box
Blanchet House      Fresh Fruit/   Western        Portland     OR              97209         75        $2,025.00
 USDA                Vegetable
                     Box
Blast Detroit       Dairy          Midwest        Detroit      MI              48212        768       $19,200.00
 Rescu Msn           Products Box
Bless Bloomfield    Fluid Milk     Midwest        Bloomfield   IN              47424      3,150        $7,087.50
Blessed Hope        Fresh Fruit/   Midwest        Lincoln      MI              48146        200        $5,750.00
 Church              Vegetable                     Park
                     Box
Blessed of God      Fresh Fruit/   South East     Memphis      TN              38109        540       $13,230.00
 Christian--C/O      Vegetable
 Mid South Food      Box
 Bank
Blessed Sacrament   Fresh Fruit/   Midwest        Detroit      MI              48202      1,400       $27,958.00
 Cathedral           Vegetable
                     Box
Blessed Teresa      Fresh Fruit/   Mountain       Ferguson     MO              63135        340        $9,350.00
                     Vegetable      Plains
                     Box
Blessing Rivers     Fresh Fruit/   South West     Pasadena     TX              77506        112        $1,902.88
 Corp                Vegetable
                     Box
Blessings of Hope   Combination    Mid-Atlantic   Leola        PA              17540      3,570      $139,230.00
                     Box
Blessings of Hope   Dairy          Mid-Atlantic   Leola        PA              17540      2,672       $50,100.00
                     Products Box
Blessings of Hope   Fluid Milk     Mid-Atlantic   Leola        PA              17540     57,060      $839,044.46
Blessings of Hope   Fresh Fruit/   Mid-Atlantic   Ephrata      PA              17522      9,040      $271,120.00
                     Vegetable
                     Box
Blessings of Hope   Fresh Fruit/   Mid-Atlantic   Leola        PA              17504      3,622       $59,907.88
                     Vegetable
                     Box
Blessings of Hope   Fresh Fruit/   Mid-Atlantic   Leola        PA              17540    177,670    $3,377,234.34
                     Vegetable
                     Box
Blessings of Hope   Precooked      Mid-Atlantic   Leola        PA              17540      1,739       $70,915.66
                     Meat Box
Blocks Together     Fresh Fruit/   Midwest        Chicago      IL              60609        256        $3,827.20
 Food Pantry         Vegetable
                     Box
Bloom Township      Fluid Milk     Midwest        Chicago      IL              60411        360        $1,195.20
Bloom Township      Fluid Milk     Midwest        Chicago      IL              60411        180          $597.60
                                                   Heights
Bloom Township      Precooked      Midwest        Chicago      IL              60411        288       $23,362.56
                     Meat Box                      Heights
Bloom Township      Combination    Midwest        Chicago      IL              60411        150        $3,520.50
 Food Pantry         Box                           Heights
Bloom Township      Precooked      Midwest        Chicago      IL              60411        288       $23,362.56
 Food Pantry         Meat Box                      Heights
Bloomsburg Food     Fresh Fruit/   Mid-Atlantic   Bloomsburg   PA              17815      1,945       $48,625.00
 Cupboard            Vegetable
                     Box
Blountsville        Fresh Fruit/   South East     Blountsvill  AL              35031        500       $14,000.00
 Elementary          Vegetable                     e
                     Box
Blue Ridge Area     Dairy          Mid-Atlantic   Winchester   VA              22601        500        $9,430.00
 Food Bank           Products Box
Blue Ridge Area     Dairy          Mid-Atlantic   Verona       VA              24482      1,500       $28,290.00
 Food Bank           Products Box
Blue Ridge Area     Fluid Milk     Mid-Atlantic   Verona       VA              24482        864       $12,251.52
 Food Bank
Blue Ridge Area     Fresh Fruit/   Mid-Atlantic   Winchester   VA              22601      4,410      $103,635.00
 Food Bank           Vegetable
                     Box
Blue Ridge Area     Fresh Fruit/   Mid-Atlantic   Verona       VA              24482      8,001      $188,023.50
 Food Bank           Vegetable
                     Box
Blue Ridge Area     Fresh Fruit/   Mid-Atlantic   Lynchburg    VA              24504      3,969       $93,271.50
 Food Bank           Vegetable
                     Box
Blue Sky Hall       Fresh Fruit/   Mountain       Ethete       Wy              82520      6,720      $174,048.00
                     Vegetable      Plains
                     Box
Blueprint Geneva    Fresh Fruit/   North East     Geneva       NY              14456      1,000       $22,850.00
                     Vegetable
                     Box
Bluffton Self Help  Fluid Milk     South East     Bluffton     SC              29910        500        $1,963.00
BMAC Food Bank      Combination    Western        Walla Walla  WA              99362      2,520       $88,200.00
                     Box
BMAC Food Bank      Dairy          Western        Walla Walla  WA              99362      2,500       $75,000.00
                     Products Box
BMAC Food Bank      Fresh Fruit/   Western        Walla Walla  WA              99362      3,120       $84,240.00
                     Vegetable
                     Box
BNOS Yisroel        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        300        $6,000.00
                     Vegetable
                     Box
Bo. Tomas De        Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725         18          $702.00
 Castro Urb. Jose    Vegetable
 Mercado Herber      Box
 Houve
Body of Christ      Fresh Fruit/   Midwest        Detroit      MI              48227      4,000       $59,800.00
 International       Vegetable
                     Box
Bogue Citizens      Fluid Milk     South East     Hallsboro    NC              28442        978        $3,797.62
 Comm
Boise Eliot         Fresh Fruit/   Western        Portland     OR              97211         60        $1,620.00
 Humboldt Elem       Vegetable
 USDA                Box
Boise Food Bank     Dairy          Western        Boise        ID              83705        283       $11,970.90
                     Products Box
Boise Food Bank     Fluid Milk     Western        Boise        ID              83705      5,376       $25,213.44
Boise IFB           Dairy          Western        Boise        ID              83705        130        $5,499.00
                     Products Box
Boise IFB           Fluid Milk     Western        Boise        ID              83705      1,344        $6,303.36
Boise Rescue        Fresh Fruit/   Western        Boise        ID              83702        150        $3,900.00
 Mission             Vegetable
                     Box
Bolivar--Richburg   Fresh Fruit/   North East     Bolivar      NY              14715        500       $11,425.00
 School              Vegetable
                     Box
Bonanza Buying      Fresh Fruit/   South East     Shelby       MS              38774      1,600       $31,920.00
                     Vegetable
                     Box
Bonanza Buying      Fresh Fruit/   South East     Shelby       MS              38774        800       $15,960.00
 Center              Vegetable
                     Box
Bond County FP &    Dairy          Midwest        Greenville   IL              62246        120        $3,570.00
 Senior              Products Box
Bond County FP &    Fresh Fruit/   Midwest        Greenville   IL              62246        180        $4,950.00
 Senior              Vegetable
                     Box
Bond of Unity       Fresh Fruit/   Midwest        Des Moines   IA              50313        100        $1,450.00
                     Vegetable
                     Box
Bonner Communtiy    Combination    Western        Sandpoint    ID              83864      2,912      $136,864.00
 Food Bank           Box
Bonner Communtiy    Fresh Fruit/   Western        Sandpoint    ID              83864      2,184       $65,520.00
 Food Bank           Vegetable
                     Box
Boomerang           Dairy          Midwest        Gas City     IN              46933        140        $3,397.80
 Backpacks--Gas      Products Box
 City
Boomerang           Fresh Fruit/   Midwest        Gas City     IN              46933        350        $6,822.90
 Backpacks--Gas      Vegetable
 City                Box
Boomerang           Precooked      Midwest        Gas City     IN              46933        245        $8,711.15
 Backpacks--Gas      Meat Box
 City
Boomerang           Dairy          Midwest        Warsaw       IN              46580        375        $9,101.25
 Backpacks Gateway   Products Box
 Alc/Wrs
Boomerang           Fresh Fruit/   Midwest        Warsaw       IN              46580      1,504       $29,051.64
 Backpacks Gateway   Vegetable
 Alc/Wrs             Box
Boomerang           Precooked      Midwest        Warsaw       IN              46580      1,220       $43,423.10
 Backpacks Gateway   Meat Box
 Alc/Wrs
Boomerang           Dairy          Midwest        Angola       IN              46703        420       $10,193.40
 Backpacks Inc.      Products Box
Boomerang           Fresh Fruit/   Midwest        Angola       IN              46703        840       $16,972.20
 Backpacks Inc.      Vegetable
                     Box
Boomerang           Precooked      Midwest        Angola       IN              46703      1,011       $32,380.98
 Backpacks Inc.      Meat Box
Boomerang           Dairy          Midwest        Auburn       IN              46706        745       $18,081.15
 Backpacks--Dekalb   Products Box
 Central
Boomerang           Fresh Fruit/   Midwest        Auburn       IN              46706      1,550       $30,741.84
 Backpacks--Dekalb   Vegetable
 Central             Box
Boomerang           Precooked      Midwest        Auburn       IN              46706        840       $28,335.30
 Backpacks--Dekalb   Meat Box
 Central
Boomerang           Dairy          Midwest        Kendallvill  IN              46755        576       $13,979.52
 Backpacks--East     Products Box                  e
 Noble
Boomerang           Fresh Fruit/   Midwest        Kendallvill  IN              46755        175        $2,949.30
 Backpacks--East     Vegetable                     e
 Noble               Box
Boomerang           Precooked      Midwest        Kendallvill  IN              46755      2,308       $83,793.28
 Backpacks--East     Meat Box                      e
 Noble
Boomerang           Dairy          Midwest        Fort Wayne   IN              46816         45        $1,092.15
 Backpacks--Eel      Products Box
 River
Boomerang           Dairy          Midwest        Fort Wayne   IN              46818        150        $3,640.50
 Backpacks--Eel      Products Box
 River
Boomerang           Fresh Fruit/   Midwest        Fort Wayne   IN              46816         90        $2,138.40
 Backpacks--Eel      Vegetable
 River               Box
Boomerang           Fresh Fruit/   Midwest        Fort Wayne   IN              46818         75        $1,390.95
 Backpacks--Eel      Vegetable
 River               Box
Boomerang           Precooked      Midwest        Fort Wayne   IN              46818         30          $971.90
 Backpacks--Eel      Meat Box
 River
Boomerang           Dairy          Midwest        Fremont      IN              46737         30          $728.10
 Backpacks--Freemo   Products Box
 nt
Boomerang           Fresh Fruit/   Midwest        Fremont      IN              46737        120        $2,317.95
 Backpacks--Freemo   Vegetable
 nt                  Box
Boomerang           Precooked      Midwest        Fremont      IN              46737        105        $3,364.20
 Backpacks--Freemo   Meat Box
 nt
Boomerang           Dairy          Midwest        Columbia     IN              46725        409        $9,926.43
 Backpacks--West     Products Box                  City
 Point Trin
Boomerang           Fresh Fruit/   Midwest        Columbia     IN              46725        900       $17,971.20
 Backpacks--West     Vegetable                     City
 Point Trin          Box
Boomerang           Precooked      Midwest        Columbia     IN              46725        663       $22,723.35
 Backpacks--West     Meat Box                      City
 Point Trin
Borda Tower--C/O    Fresh Fruit/   South East     Memphis      TN              38105        216        $5,292.00
 Mid South Food      Vegetable
 Bank                Box
Borderland Rainbow  Fluid Milk     South West     El Paso      TX              79903        796        $3,900.40
 Center
Borderland Rainbow  Fresh Fruit/   South West     El Paso      TX              79903      1,800       $35,100.00
 Center              Vegetable
                     Box
Boston Elementary   Fluid Milk     South East     Williamsbur  KY              40769        334        $1,265.86
 S                                                 g
Boston Medical      Fresh Fruit/   North East     Boston       MA              02118        560       $12,292.00
 Center Food         Vegetable
 Pantry              Box
Botkinburg          Combination    South West     Clinton      AR              72031      1,536       $53,713.92
 Foursquare Church   Box
Botkinburg          Dairy          South West     Clinton      AR              72031      1,056       $48,322.56
 Foursquare Church   Products Box
Botkinburg          Fluid Milk     South West     Clinton      AR              72031        495       $11,850.30
 Foursquare Church
Botkinburg          Fresh Fruit/   South West     Clinton      AR              72031        539       $12,558.70
 Foursquare Church   Vegetable
                     Box
Bountiful           Fresh Fruit/   South East     Snow Hill    NC              28580        288       $10,284.48
 Blessings           Vegetable
                     Box
Bountiful Harvest   Fresh Fruit/   Midwest        Brighton     MI              48116      1,200       $34,500.00
                     Vegetable
                     Box
Bowin Place Apt.    Dairy          Midwest        Detroit      MI              48235        210        $6,090.00
                     Products Box
Bowin Place Apt.    Fresh Fruit/   Midwest        Detroit      MI              48235        210        $4,620.00
                     Vegetable
                     Box
Boy Hope Girl Hope  Fluid Milk     Midwest        Garfield     OH              44125        328        $1,088.96
                                                   Hts
Boyd Stocking       Combination    Western        Carey        ID              83320        143        $6,292.00
 Memorial Pavilio    Box
Boyd Stocking       Fresh Fruit/   Western        Carey        ID              83320        143        $3,718.00
 Memorial Pavilio    Vegetable
                     Box
Boyne Falls         Dairy          Midwest        Boyne City   MI              48801        200        $5,800.00
                     Products Box
Boyne Falls         Fresh Fruit/   Midwest        Boyne City   MI              48801        200        $4,050.00
                     Vegetable
                     Box
Boyne Falls Public  Fresh Fruit/   Midwest        Boyne Falls  MI              49713        210        $7,555.80
 Schools             Vegetable
                     Box
Boynton Lions Club  Fresh Fruit/   South East     Ringold      GA              30736      1,920       $36,364.80
 Rumc                Vegetable
                     Box
Boys & Girls Blue   Fresh Fruit/   North East     Dorchester   MA              02129        336        $7,375.20
 Hills               Vegetable
                     Box
Boys & Girls        Fresh Fruit/   North East     Charlestown  MA              02129        672       $14,750.40
 Charlestown Club    Vegetable
                     Box
Boys & Girls Cl/    Combination    Mountain       Columbia     MT              59912        125        $6,000.00
 Columbia Fall       Box            Plains         Falls
Boys & Girls Cl/    Fresh Fruit/   Mountain       Columbia     MT              59912        375       $11,250.00
 Columbia Fall       Vegetable      Plains         Falls
                     Box
Boys & Girls Club   Dairy          Midwest        Urbana       IL              61802        100        $2,975.00
                     Products Box
Boys & Girls Club   Dairy          Midwest        Champaign    IL              61820        300        $8,925.00
                     Products Box
Boys & Girls Club   Fluid Milk     Mountain       Columbia     MO              65201        468        $1,053.00
                                    Plains
Boys & Girls Club   Fluid Milk     Mountain       Jefferson    MO              65101        972       $11,231.46
                                    Plains         City
Boys & Girls Club   Fresh Fruit/   Midwest        Elgin        IL              60123         50        $1,375.00
                     Vegetable
                     Box
Boys & Girls Club   Fresh Fruit/   Midwest        Champaign    IL              61820        400       $11,000.00
                     Vegetable
                     Box
Boys & Girls Club/  Combination    Mountain       Billings     MT              59101         75        $3,600.00
 Billings            Box            Plains
Boys & Girls Club/  Fresh Fruit/   Mountain       Billings     MT              59101        300        $9,000.00
 Billings            Vegetable      Plains
                     Box
Boys & Girls Club/  Fresh Fruit/   Mountain       Havre        MT              59501        200        $6,000.00
 Highline            Vegetable      Plains
                     Box
Boys & Girls Club/  Combination    Mountain       Missoula     MT              59801        185        $8,880.00
 Missoula            Box            Plains
Boys & Girls Club/  Fresh Fruit/   Mountain       Missoula     MT              59801        245        $7,350.00
 Missoula            Vegetable      Plains
                     Box
Boys & Girls Club/  Combination    Mountain       Ronan        MT              59864        150        $7,200.00
 Ronan               Box            Plains
Boys & Girls Club/  Fresh Fruit/   Mountain       Ronan        MT              59864        250        $7,500.00
 Ronan               Vegetable      Plains
                     Box
Boys & Girls Club   Fresh Fruit/   South East     Hueytown     AL              35023        800       $22,400.00
 Hueytown            Vegetable
                     Box
Boys & Girls Club   Fresh Fruit/   South East     Birmingham   AL              35215        600       $16,800.00
 J Williamson        Vegetable
                     Box
Boys & Girls Club   Dairy          South East     Jackson      MS              39203        478       $13,422.24
 of Cent             Products Box
Boys & Girls Club   Fluid Milk     South East     Jackson      MS              39203        192        $1,409.28
 of Cent
Boys & Girls Club   Fresh Fruit/   South East     Jackson      MS              39203        736       $12,438.40
 of Cent             Vegetable
                     Box
Boys & Girls Club   Precooked      South East     Jackson      MS              39203        168        $6,898.08
 of Cent             Meat Box
Boys & Girls Club   Dairy          Western        Fountain     CA              92708        420       $11,025.00
 of Huntington       Products Box                  Valley
 Valley
Boys & Girls Club   Fluid Milk     Western        Fountain     CA              92708        210        $1,596.00
 of Huntington                                     Valley
 Valley
Boys & Girls Club   Fresh Fruit/   Western        Fountain     CA              92708        504       $12,600.00
 of Huntington       Vegetable                     Valley
 Valley              Box
Boys & Girls Club   Combination    Western        Sacramento   CA              95824        350       $18,354.00
 of Sacramento       Box
Boys & Girls Club   Fresh Fruit/   Western        Sacramento   CA              95824         70        $2,578.10
 of Sacramento       Vegetable
                     Box
Boys & Girls Club   Fresh Fruit/   South East     Pell City    AL              35128        600       $16,800.00
 Pell City           Vegetable
                     Box
Boys & Girls Club/  Combination    Mountain       Great Falls  MT              59404        550       $26,400.00
 Great Falls         Box            Plains
Boys & Girls Club/  Fresh Fruit/   Mountain       Great Falls  MT              59404        100        $3,000.00
 Great Falls         Vegetable      Plains
                     Box
Boys & Girls Club/  Combination    Western        Lewiston     ID              83501        192        $9,024.00
 8Th Ave.            Box
Boys & Girls Club/  Fresh Fruit/   Western        Lewiston     ID              83501         48        $1,248.00
 8Th Ave.            Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Garden City  ID              83714        275       $12,100.00
 Boise               Box
Boys & Girls Club/  Fresh Fruit/   Western        Garden City  ID              83714        415       $10,790.00
 Boise               Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Buhl         ID              83316        120        $5,280.00
 Buhl                Box
Boys & Girls Club/  Combination    Western        Lewiston     ID              83501        192        $9,024.00
 Burrell Ave.        Box
Boys & Girls Club/  Fresh Fruit/   Western        Lewiston     ID              83501         48        $1,248.00
 Burrell Ave.        Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Clarkston    WA              99402        192        $8,448.00
 Highland Ave.       Box
Boys & Girls Club/  Fresh Fruit/   Western        Clarkston    WA              99402         48        $1,248.00
 Highland Ave.       Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Meridian     ID              83642        300       $13,200.00
 Meridian            Box
Boys & Girls Club/  Fresh Fruit/   Western        Meridian     ID              83642        350        $9,100.00
 Meridian            Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Nampa        ID              83687        270       $11,880.00
 Nampa               Box
Boys & Girls Club/  Fresh Fruit/   Western        Nampa        ID              83687        320        $8,320.00
 Nampa               Vegetable
                     Box
Boys & Girls Club/  Combination    Western        Rupert       ID              83350        224        $9,856.00
 Rupert              Box
Boys & Girls Club/  Combination    Western        Twin Falls   ID              83301        328       $14,432.00
 Twin Falls          Box
Boys & Girls        Fresh Fruit/   North East     Chelsea      MA              02129        336        $7,375.20
 Jordan Club         Vegetable
                     Box
Boys & Girls        Fresh Fruit/   North East     Roxbury      MA              02129        336        $7,375.20
 Yawkey Club         Vegetable
                     Box
Boys and Girls      Combination    Mid-Atlantic   Carolina     PR              00979        150        $7,500.00
 Club                Box
Boys and Girls      Combination    Mid-Atlantic   Loiza        PR              00772        150        $7,500.00
 Club                Box
Boys and Girls      Combination    Mid-Atlantic   Mayaguez     PR              00680        224       $22,176.00
 Club                Box
Boys and Girls      Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Club                Box
Boys and Girls      Fluid Milk     South East     Locust       GA              30248      1,080        $4,201.20
 Club                                              Grove
Boys and Girls      Fresh Fruit/   South East     Atmore       AL              36502      1,700       $49,300.00
 Club                Vegetable
                     Box
Boys and Girls      Fresh Fruit/   South East     Chamblee     GA              30341        370        $7,400.00
 Club Chamblee       Vegetable
                     Box
Boys and Girls      Combination    Western        Carson       CA              90810        720       $27,835.20
 Club of Carson      Box
Boys and Girls      Combination    Western        Long Beach   CA              90807        864       $33,868.80
 Club of Long        Box
 Beach
Boys and Girls      Fresh Fruit/   South West     Austin       TX              78723      3,328       $56,542.72
 Clubs of Austin     Vegetable
                     Box
Boys and Girls      Dairy          Western        Portland     OR              97203        100        $3,000.00
 Regence USDA        Products Box
Boys and Girls      Fresh Fruit/   Western        Portland     OR              97203        620       $16,740.00
 Regence USDA        Vegetable
                     Box
Boys and Girls      Combination    Western        Portland     OR              97233        300       $10,500.00
 Rockwood USDA       Box
Boys and Girls      Fresh Fruit/   Western        Portland     OR              97233        230        $6,210.00
 Rockwood USDA       Vegetable
                     Box
Boys and Girls S.   Combination    Western        Tacoma       WA              98409         60        $2,100.00
 Puget Sd.           Box
Boys and Girls S.   Combination    Western        Lakewood     WA              98499        293       $10,255.00
 Puget Sd.           Box
Boys Hope Girls     Fresh Fruit/   Mountain       Kansas City  MO              64145        240        $6,216.00
 Hope                Vegetable      Plains
                     Box
Boys Hope Girls     Fresh Fruit/   Mountain       Raytown      MO              64133        400       $10,360.00
 Hope                Vegetable      Plains
                     Box
BP Osceola FUMC     Dairy          South West     Osceola      AR              72370        300        $7,500.00
                     Products Box
BPS Broad Street    Dairy          Mid-Atlantic   Bridgeton    NJ              08302        266        $4,256.00
                     Products Box
BPS Broad Street    Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        770       $15,400.00
                     Vegetable
                     Box
BPS Life and        Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        770       $15,400.00
 Christ Ministries   Vegetable
                     Box
BPS Quarter Mile    Dairy          Mid-Atlantic   Bridgeton    NJ              08302        266        $4,256.00
 Lane                Products Box
BPS Quarter Mile    Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        770       $15,400.00
 Lane                Vegetable
                     Box
Bracken's Kitchen   Combination    Western        Garden       CA              92843        406       $11,063.50
                     Box                           Grove
Bracken's Kitchen   Dairy          Western        Garden       CA              92843      1,100       $35,200.00
                     Products Box                  Grove
Bracken's Kitchen   Fluid Milk     Western        Garden       CA              92843      1,440        $6,840.00
                                                   Grove
Bracken's Kitchen   Fresh Fruit/   Western        Garden       CA              92843      2,688       $66,528.00
                     Vegetable                     Grove
                     Box
Braddock Free       Fresh Fruit/   Mid-Atlantic   Braddock     PA              15104        314        $5,991.12
 Store               Vegetable
                     Box
Braintree High      Fresh Fruit/   North East     Braintree    MA              02184      1,043       $22,893.85
 Sch.                Vegetable
                     Box
Branch Area Food    Dairy          Midwest        Coldwater    MI              49036        500       $14,500.00
 Pantry              Products Box
Branch Area Food    Fresh Fruit/   Midwest        Coldwater    MI              49036        600       $12,850.00
 Pantry              Vegetable
                     Box
Brandon Schools     Fresh Fruit/   Midwest        Ortonville   MI              48462        546       $16,112.04
                     Vegetable
                     Box
Branford Christian  Combination    South East     Branford     FL              32008      1,344      $102,211.20
 Services of         Box
 Suwannee County
Brave Church (AG)   Combination    South East     Miami        FL              33174      1,344      $102,211.20
                     Box
Brazilian           Fresh Fruit/   North East     Allston      MA              02134      1,440       $40,953.60
 Immigrant Center    Vegetable
                     Box
Brazos Valley Food  Fluid Milk     South West     Bryan        TX              77803      8,640       $25,855.20
 Bank
Brazos Valley Food  Fresh Fruit/   South West     Bryan        TX              77803      5,256      $104,962.32
 Bank                Vegetable
                     Box
Brazosport Cares    Fluid Milk     South West     Freeport     TX              77541        992        $2,896.64
Bread Basket of     Fresh Fruit/   South East     North        SC              29418        200        $6,000.00
 North Charleston    Vegetable                     Charleston
                     Box
Bread of Life       Fluid Milk     Midwest        Lynnville    IN              47619      6,264       $14,094.00
Bread of Life       Combination    South East     Ocoee        FL              34761      4,032      $306,633.60
 Fellowship Se       Box
 Food Bank
Bread of Life       Fresh Fruit/   South East     Grifton      NC              28530        150        $5,356.50
 Grifton             Vegetable
                     Box
Bread of Life       Fresh Fruit/   Midwest        Cincinnati   OH              45215        256        $4,992.00
 Minsitries          Vegetable
                     Box
Bread of Life       Fluid Milk     South West     Commerce     TX              75428        392        $1,179.44
 Pantry
Bread of Life       Fluid Milk     South West     Houston      TX              77002      2,160        $6,933.60
 Pantry
Bread of Life       Fresh Fruit/   Midwest        Oak Park     MI              48237        100        $2,875.00
 Pantry              Vegetable
                     Box
Bread of Life       Precooked      Midwest        Baldwin      MI              49304         51        $1,917.85
 Pantry              Meat Box
Bread of the        Combination    South East     Gainesville  FL              32601     20,160    $1,533,168.00
 Mighty Food Bank    Box
Bread of the        Fluid Milk     South East     Gainesville  FL              32601     21,600       $84,024.00
 Mighty Food Bank
Bread of the        Fresh Fruit/   South East     Gainesville  FL              32601     76,224    $1,363,788.00
 Mighty Food Bank    Vegetable
                     Box
Breakthrough Food   Fresh Fruit/   Midwest        Chicago      IL              60624        624        $9,328.80
 Pantry              Vegetable
                     Box
Breakthrough Urban  Fresh Fruit/   Midwest        Chicago      IL              60624        504       $18,133.92
                     Vegetable
                     Box
Breakthrough Urban  Precooked      Midwest        Chicago      IL              60624        216       $17,521.92
                     Meat Box
Breakthrough Urban  Precooked      Midwest        Chicago      IL              60624        864       $70,087.68
                     Meat Box
Breath of God       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        750       $15,000.00
 Lutheran Church     Vegetable
                     Box
Breath of Life      Combination    South East     Covington    GA              30014        560       $42,588.00
 Church              Box
Bremen Elementary   Fluid Milk     South East     Bremen       KY              42325      1,116        $2,511.00
Bremerton Foodline  Combination    Western        Bremerton    WA              98337        482       $16,870.00
                     Box
Bremerton Foodline  Dairy          Western        Bremerton    WA              98337        503       $15,090.00
                     Products Box
Bremerton Foodline  Fresh Fruit/   Western        Bremerton    WA              98337         60        $1,620.00
                     Vegetable
                     Box
Brent SDA Church    Fresh Fruit/   South East     Brent        AL              35034        540       $14,013.00
                     Vegetable
                     Box
Brentwood           Fresh Fruit/   Western        Brentwood    CA              94513      2,425       $75,321.65
 Elementary School   Vegetable
                     Box
Brentwood Unified   Fresh Fruit/   Western        Brentwood    CA              94513      4,466      $120,269.38
 School District     Vegetable
                     Box
Brewerytown Com.    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19121      1,330       $26,600.00
 Garden              Vegetable                     a
                     Box
Brewster            Fresh Fruit/   North East     Brewster     MA              02631        560       $12,292.00
 Stoneybrook Elem.   Vegetable
                     Box
Brian P. Stack      Combination    Mid-Atlantic   Union City   NJ              07087        169       $16,055.00
 Civic Assoc. 1409-  Box
 2
Brian P. Stack      Precooked      Mid-Atlantic   Union City   NJ              07087        120        $7,422.00
 Civic Assoc. 1409-  Meat Box
 2
Briar Hill Baptist  Dairy          South East     Florence     MS              39073        560       $15,724.80
 Church              Products Box
Briar Hill Baptist  Fresh Fruit/   South East     Florence     MS              39073        624       $10,545.60
 Church              Vegetable
                     Box
Briar Hill Baptist  Precooked      South East     Florence     MS              39073        252       $10,347.12
 Church              Meat Box
Brick Education     Fresh Fruit/   Mid-Atlantic   Newark       NJ              07103        660       $13,200.00
 Network--Newark     Vegetable
                     Box
Bridge Builders     Fluid Milk     South West     Tulsa        OK              74105        495       $11,850.30
 International
Bridge Builders     Fresh Fruit/   South West     Tulsa        OK              74105        539       $12,558.70
 International       Vegetable
                     Box
Bridge Builders     Fresh Fruit/   South West     Stillwell    OK              74960      1,078       $20,589.80
 International       Vegetable
                     Box
Bridge Links        Combination    Mid-Atlantic   Baltimore    MD              21230      4,466      $424,270.00
                     Box
Bridge Links        Dairy          Mid-Atlantic   Baltimore    MD              21230      3,440      $137,600.00
                     Products Box
Bridge Links        Precooked      Mid-Atlantic   Baltimore    MD              21230      2,880      $178,128.00
                     Meat Box
Bridge Networks     Fresh Fruit/   Midwest        Livonia      MI              48150      1,430       $41,112.50
                     Vegetable
                     Box
Bridge of Hope      Fluid Milk     Midwest        Milan        IN              47031      1,800        $7,200.00
Bridge of Hope      Dairy          Midwest        Cleveland    OH              44128        200        $5,000.00
 Center              Products Box
Bridge of Victory   Fresh Fruit/   Midwest        Detroit      MI              48235        600       $17,250.00
 Outreach            Vegetable
                     Box
Bridge Over         Fluid Milk     South West     Pasadena     TX              77504        600        $1,752.00
 Trouble
Bridgeport High     Fresh Fruit/   Midwest        Bridgeport   MI              48722      6,832      $102,138.40
 School              Vegetable
                     Box
Bridging for        Fluid Milk     South West     Houston      TX              77066      1,608        $4,724.36
 Tomorr.
Bright Star UMC     Fresh Fruit/   South East     Douglasvill  GA              30135        270        $5,400.00
                     Vegetable                     e
                     Box
Brighter Bites      Fresh Fruit/   North East     Brooklyn     NY              11212      2,148       $70,884.00
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   North East     Brooklyn     NY              11222        450       $14,850.00
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   North East     Long Island  NY              11101        630       $20,790.00
                     Vegetable                     City
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75216        576        $9,786.24
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75220        384        $6,524.16
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75227        768       $13,048.32
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75228        300        $5,097.00
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75231        768       $13,048.32
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Dallas       TX              75241        768       $13,048.32
                     Vegetable
                     Box
Brighter Bites      Fresh Fruit/   South West     Houston      TX              77031      1,800       $30,620.00
 Sewa                Vegetable
 International       Box
Brighter Bites/     Fresh Fruit/   North East     Brooklyn     NY              11212         63        $2,079.00
 Riverdale Ave.      Vegetable
 Comm. School        Box
Brightness          Fresh Fruit/   Midwest        Detroit      MI              48219        700       $20,125.00
 Connection          Vegetable
                     Box
Brighton Center     Fluid Milk     South East     Newport      KY              41071        540        $1,792.80
Brilliant Detroit-- Dairy          Mid-Atlantic   Linwood      NJ              08221         60        $2,025.00
 Fitzgerald          Products Box
Brilliant Detroit-- Precooked      Mid-Atlantic   Linwood      NJ              08221         30        $1,430.70
 Fitzgerald          Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48233        180        $6,075.00
 Brightmoor          Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48233        150        $7,153.50
 Brightmoor          Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48202        180        $6,075.00
 Central             Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48202        150        $7,153.50
 Central             Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48228        180        $6,075.00
 Cody Rouge          Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48228        150        $7,153.50
 Cody Rouge          Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48206        180        $6,075.00
 Dexter Linwood      Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48206        150        $7,153.50
 Dexter Linwood      Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48221        120        $4,050.00
 Fitzgerald          Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48205         30        $1,430.70
 Fitzgerald          Meat Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48221        120        $5,722.80
 Fitzgerald          Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48205        180        $6,075.00
 Osborn              Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48205        150        $7,153.50
 Osborn              Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48205        180        $6,075.00
 Southwest           Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48205        120        $5,722.80
 Southwest           Meat Box
Brilliant Detroit   Dairy          Midwest        Detroit      MI              48209        180        $6,075.00
 Springwells         Products Box
Brilliant Detroit   Precooked      Midwest        Detroit      MI              48209        150        $7,153.50
 Springwells         Meat Box
Brisas Del Mar      Combination    Mid-Atlantic   Dorado       PR              00646        232       $11,600.00
                     Box
Bristol Township    Combination    Mid-Atlantic   Bristol      PA              19007        100        $9,500.00
 Senior Center       Box
Bristol Township    Fluid Milk     Mid-Atlantic   Bristol      PA              19007         70        $2,268.00
 Senior Center
Bristol Township    Fresh Fruit/   Mid-Atlantic   Bristol      PA              19007      1,080       $24,818.40
 Senior Center       Vegetable
                     Box
Bristol Township    Precooked      Mid-Atlantic   Birstol      PA              19007        420       $25,977.00
 Senior Center       Meat Box
Bristol Township    Precooked      Mid-Atlantic   Bristol      PA              19007        420       $25,977.00
 Senior Center       Meat Box
Broadmoor           Fresh Fruit/   Mountain       Louisburg    KS              66053      2,160       $55,944.00
 Elementary          Vegetable      Plains
                     Box
Broadview Service   Fresh Fruit/   Midwest        Broadview    IL              60155        504       $18,133.92
 Center              Vegetable
                     Box
Broadway Baptist    Dairy          South West     Fort Worth   TX              76104        800       $36,608.00
 Church              Products Box
Broadway Baptist    Fresh Fruit/   South West     Fort Worth   TX              76104        800       $11,520.00
 Church              Vegetable
                     Box
Broadway Community  Dairy          South West     Osceola      AR              72370        750       $18,750.00
 Outreach            Products Box
Brock Bridge        Fresh Fruit/   Mid-Atlantic   Laurel       MD              20724         50        $1,000.00
 Elementary School   Vegetable
 Pta                 Box
Brockman Institute  Dairy          Western        Santa Ana    CA              92703      2,400       $70,128.00
                     Products Box
Brockman Institute  Dairy          Western        Norco        CA              92860     21,884      $639,450.48
                     Products Box
Brockman Institute  Dairy          Western        West         CA              93534     20,000      $584,400.00
                     Products Box                  Lancaster
Brockman Institute  Fluid Milk     Western        Lancaster    CA              93535      5,184       $51,788.16
Brockton High       Fresh Fruit/   North East     Brockton     MA              02301        728       $15,979.60
                     Vegetable
                     Box
Brocton Central     Fresh Fruit/   North East     Brocton      NY              14716        150        $3,427.50
 School Distric      Vegetable
                     Box
Bronson Community   Fresh Fruit/   Midwest        Bronson      MI              49028        518       $18,637.64
 Schools             Vegetable
                     Box
Bronzeville         Combination    Midwest        Chicago      IL              60615        600       $37,272.00
                     Box
Bronzeville         Fluid Milk     Midwest        Chicago      IL              60615        432       $12,955.68
Bronzeville         Combination    Midwest        Chicago      IL              60615        300       $20,154.00
 Academy Charter     Box
 School
Bronzeville         Dairy          Midwest        Chicago      IL              60615        100        $6,010.00
 Academy Charter     Products Box
 School
Bronzeville         Fluid Milk     Midwest        Chicago      IL              60615        216        $6,477.84
 Academy Charter
 School
Brookfield Central  Fresh Fruit/   North East     Brookfield   NY              13314         70        $2,086.00
 School              Vegetable
                     Box
Brookhaven          Fluid Milk     South East     Brookhaven   MS              39601        899        $3,587.01
 Outreach
Brooklyn Community  Fresh Fruit/   Mid-Atlantic   Brooklyn     MD              21225        250        $5,237.50
 Umc                 Vegetable
                     Box
Brooklyn Homes      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21225      1,100       $22,000.00
                     Vegetable
                     Box
Brooklyn Park       Fresh Fruit/   Midwest        Indianapoli  IN              46241      1,540       $55,409.20
                     Vegetable                     s
                     Box
Brooks Chapel       Dairy          South East     Fulton       KY              42041      1,000       $25,000.00
                     Products Box
Brookshire Career   Fresh Fruit/   South West     Brookshire   TX              77423        448        $7,611.52
 and Recovery        Vegetable
                     Box
Brookside Comm. Ch  Fluid Milk     Midwest        Indianapoli  IN              46201        180          $597.60
                                                   s
Brookside Family    Dairy          Midwest        Cleveland    OH              44109        225        $5,625.00
 Center              Products Box
Brookside Hunger    Dairy          Midwest        Cleveland    OH              44109         75        $1,875.00
 Center              Products Box
Brookside Village   Fresh Fruit/   Midwest        Kentwood     MI              49512        672       $24,178.56
                     Vegetable
                     Box
Broome Tioga Boces  Fluid Milk     North East     Binghamton   NY              13904        748       $23,173.04
Brother Bills       Dairy          South West     Dallas       TX              75212        900       $41,184.00
 Helping Hand        Products Box
 Services of Hope
Brother Bills       Fluid Milk     South West     Dallas       TX              75212        688        $2,008.96
 Helping Hand
 Services of Hope
Brother Bills       Fresh Fruit/   South West     Dallas       TX              75212        700       $13,370.00
 Helping Hand        Vegetable
 Services of Hope    Box
Brotherhood Cogic   Dairy          Midwest        Benton       MI              49022        300        $8,700.00
                     Products Box                  Harbor
Brotherhood Cogic   Fresh Fruit/   Midwest        Benton       MI              49022        500       $10,650.00
                     Vegetable                     Harbor
                     Box
Brown Bag Food      Fresh Fruit/   Midwest        Bowling      OH              43402        333        $4,162.50
 Proj                Vegetable                     Green
                     Box
Brown Co Comm.      Fluid Milk     Midwest        Nashville    IN              47448        800        $3,200.00
 Foundatin
Brown County        Fresh Fruit/   Midwest        Georgetown   OH              45121        300        $6,061.50
 Senior Nutrition    Vegetable
                     Box
Brown County        Fresh Fruit/   Midwest        Gerogetown   OH              45121        640       $14,139.90
 Senior Nutrition    Vegetable
                     Box
Brown County        Precooked      Midwest        Gerogetown   OH              45121        755       $34,176.95
 Senior Nutrition    Meat Box
Brown Girls         Fresh Fruit/   Mid-Atlantic   Parkville    MD              21234        250        $5,237.50
 International       Vegetable
                     Box
Brown Hutcherson    Fresh Fruit/   Midwest        Grand        MI              49503        297       $10,686.06
 Ministries          Vegetable                     Rapids
                     Box
Brown Missionary    Dairy          South East     Southaven    MS              38671        600       $15,000.00
 Church              Products Box
Browning Tribe      Combination    Mountain       Browning     MT              59417      2,912      $139,776.00
                     Box            Plains
Brownstown Middle   Fresh Fruit/   Midwest        Romulus      MI              48174        350        $5,232.50
 School              Vegetable
                     Box
Brownsville         Dairy          South East     Brownsville  TN              38012        480       $12,000.00
 Baptist Church      Products Box
Brownsville         Fresh Fruit/   North East     Brooklyn     NY              11212      1,400       $27,958.00
 Multiservices and   Vegetable
 Family Health       Box
 Center
Brownsville         Fresh Fruit/   North East     Brooklyn     NY              11207      2,279       $91,137.21
 Multiservices and   Vegetable
 Family Health       Box
 Center
Brunson Lee Elem    Fluid Milk     South West     Phoenix      AZ              85008        374        $2,947.12
Brunson Lee Elem    Fresh Fruit/   South West     Phoenix      AZ              85008        750       $20,625.00
                     Vegetable
                     Box
Brunswick Baptist   Fluid Milk     South East     Supply       NC              28462      1,520        $5,934.40
Bruton Terrace      Fresh Fruit/   South West     Dallas       TX              75149        512        $8,698.88
 Church of the N     Vegetable
                     Box
Bryan Adams HS      Fresh Fruit/   South West     Dallas       TX              75228      2,686       $49,741.64
 Brighter Bites      Vegetable
                     Box
Bryant Community    Fresh Fruit/   Midwest        Ann Arbor    MI              48108        800       $11,960.00
 Centers             Vegetable
                     Box
Buck Creek Baptist  Fluid Milk     South East     Longs        SC              29568        620        $2,406.60
Buckets of Rain     Fresh Fruit/   Midwest        Detroit      MI              48203        200        $5,750.00
                     Vegetable
                     Box
Buckeye Ranch       Fluid Milk     Midwest        Grove City   OH              43123        300          $996.00
Buckner Children    Fluid Milk     South West     Mesquite     TX              75227      1,296        $3,846.96
 and Family Se
Buckner Children    Fresh Fruit/   South West     Dallas       TX              75228        128        $2,174.72
 and Family Se       Vegetable
                     Box
Buckner Children    Fresh Fruit/   South West     Mesquite     TX              75149        128        $2,174.72
 and Family Se       Vegetable
                     Box
Buckner Family      Fresh Fruit/   South West     Dallas       TX              75229        100          $970.00
 Hope Center         Vegetable
                     Box
Buckner             Dairy          South West     Mesquite     TX              75149        100        $4,576.00
 International       Products Box
Bucks County        Combination    Mid-Atlantic   Doylestown   PA              18901        480       $45,600.00
 Opportunity         Box
 Council
Bucks County        Dairy          Mid-Atlantic   Doylestown   PA              18901      5,045      $109,531.00
 Opportunity         Products Box
 Council
Bucks County        Fresh Fruit/   Mid-Atlantic   Bristol      PA              19007        456       $10,478.88
 Opportunity         Vegetable
 Council             Box
Bucks County        Fresh Fruit/   Mid-Atlantic   Doylestown   PA              18901      1,728       $39,709.44
 Opportunity         Vegetable
 Council             Box
Buddgist Tzu Chi    Dairy          Mid-Atlantic   Cedar Grove  NJ              07009        260        $8,772.40
 Food Pantry         Products Box
Buddgist Tzu Chi    Fluid Milk     Mid-Atlantic   Cedar Grove  NJ              07009        118        $3,214.56
 Food Pantry
Buddgist Tzu Chi    Fresh Fruit/   Mid-Atlantic   Cedar Grove  NJ              07009        576       $13,236.48
 Food Pantry         Vegetable
                     Box
Buddhist Rassmey    Fresh Fruit/   South West     Rosharon     TX              77583        392        $6,660.08
 Monastery           Vegetable
                     Box
Buffalo Elem. Sch.  Fresh Fruit/   North East     Buffalo      NY              14208        160        $3,656.00
 of Tech.            Vegetable
                     Box
Buffalo Go Green    Fresh Fruit/   North East     Buffalo      NY              14215        806       $18,417.10
 Inc.                Vegetable
                     Box
Buffalo Schools     Fresh Fruit/   North East     Buffalo      NY              14215      1,120       $25,592.00
 Commissary          Vegetable
                     Box
Buhach HS           Combination    Western        Atwater      CA              95301         72        $3,775.68
                     Box
Buhi Ebenezer       Fresh Fruit/   South East     Conyers      GA              30094        140        $2,800.00
 Baptist Church      Vegetable
                     Box
Buhi la Mission     Fresh Fruit/   South East     Gainesville  GA              30504        630       $12,600.00
 Juan Pablo II       Vegetable
                     Box
Buhi Plazas Las     Fresh Fruit/   South East     Lilburn      GA              30047        280        $5,600.00
 Americas            Vegetable
                     Box
Buhi Ser Familia    Fresh Fruit/   South East     Norcross     GA              30093        140        $2,800.00
 Norcross            Vegetable
                     Box
Buhi Serfamilia     Fresh Fruit/   South East     Suwanee      GA              30024        350        $7,000.00
 Suwanee             Vegetable
                     Box
Build Academy       Fresh Fruit/   North East     Buffalo      NY              14211        310        $7,083.50
                     Vegetable
                     Box
Building 323        Fresh Fruit/   South East     Middlesex    NC              27557      1,030       $26,423.10
 Ministry            Vegetable
                     Box
Building Blocks     Fresh Fruit/   Western        Richmond     CA              94806         27          $756.00
 for Kids            Vegetable
                     Box
Building Blocks     Fresh Fruit/   Western        Richmond     CA              94806         15          $420.00
 for Kids            Vegetable
                     Box
Building Comm.      Fluid Milk     Mountain       Jefferson    MO              65101        755        $1,698.75
 Bridges                            Plains         City
Building Hope       Fresh Fruit/   South East     Greenville   NC              27834        225        $8,034.75
 Community Center    Vegetable
                     Box
Buist Community     Dairy          Midwest        Byron        MI              49315        528       $13,200.00
 Assistance Center   Products Box                  Center
Buist Community     Fresh Fruit/   Midwest        Byron        MI              49315        875       $26,250.00
 Assistance Center   Vegetable                     Center
                     Box
Buist Community     Fresh Fruit/   Midwest        Byron        MI              49315        100        $3,000.00
 Service Center      Vegetable                     Center
                     Box
Bulldog Pantry      Combination    Western        Fresno       CA              93710      1,190       $62,403.60
                     Box
Bulldog Pantry      Fresh Fruit/   Western        Fresno       CA              93710        380       $13,995.40
                     Vegetable
                     Box
Bulloch County the  Fresh Fruit/   South East     Statesboro   GA              30458        960       $18,182.40
 Grace               Vegetable
                     Box
Bullock County      Fresh Fruit/   South East     Union        AL              36089        840       $21,798.00
 Pantry              Vegetable                     Springs
                     Box
Bullock Creek       Dairy          Midwest        Midland      MI              48640        125        $3,625.00
 School District     Products Box
Bullock Creek       Fresh Fruit/   Midwest        Midland      MI              48640        867       $14,351.90
 School District     Vegetable
                     Box
Buncombe Baptist    Dairy          South East     Asheville    NC              28806        300        $1,500.00
 Association         Products Box
Buncombe Baptist    Fluid Milk     South East     Asheville    NC              28806        490        $1,960.00
 Association
Buncombe Baptist    Fresh Fruit/   South East     Asheville    NC              28806      2,298       $63,195.00
 Association         Vegetable
                     Box
Buncombe Baptist    Precooked      South East     Asheville    NC              28806        600       $11,700.00
 Association         Meat Box
Buncombe County     Dairy          South East     Asheville    NC              28801          7          $170.45
 Meals on Wheels     Products Box
Buncombe County     Precooked      South East     Asheville    NC              28801        160        $6,302.88
 Meals on Wheels     Meat Box
Burlington Food     Fresh Fruit/   North East     Burlington   MA              01803         80        $2,275.20
 Pantry              Vegetable
                     Box
Burlington Twp      Fresh Fruit/   Mid-Atlantic   Burlington   NJ              08016        630       $11,938.50
 Food Pantry         Vegetable
                     Box
Burning Springs     Fluid Milk     South East     Manchester   KY              40962        400        $1,516.00
Burns Christian     Dairy          Western        Burns        OR              97720         90        $2,700.00
 Church              Products Box
Burns Christian     Fresh Fruit/   Western        Burns        OR              97720        125        $5,875.00
 Church              Vegetable
                     Box
Burns Elem.         Fluid Milk     South East     Owensboro    KY              42301      1,373        $3,089.25
Burt's Market       Fresh Fruit/   Midwest        Detroit      MI              48207        504       $18,133.92
 Place               Vegetable
                     Box
Bushkill Outreach   Fresh Fruit/   Mid-Atlantic   Bushkill     PA              18324         72        $1,654.56
 Program             Vegetable
                     Box
Bussey Center       Fresh Fruit/   Midwest        Southfield   MI              48033        500        $7,475.00
                     Vegetable
                     Box
Butler Area         Fresh Fruit/   Mid-Atlantic   Butler       PA              16001        480       $14,400.00
 Catholic Parishes   Vegetable
                     Box
Butler Community    Dairy          Mid-Atlantic   Butler       PA              16001      2,000       $29,220.00
 Partnership         Products Box
Butler Community    Dairy          Mid-Atlantic   Prospect     PA              16052      1,000       $14,610.00
 Partnership         Products Box
Butler Community    Fluid Milk     Mid-Atlantic   Butler       PA              16001      7,000       $12,530.00
 Partnership
Butler Community    Fluid Milk     Mid-Atlantic   Butler       PA              16101      6,000       $10,740.00
 Partnership
Butler Community    Fluid Milk     Mid-Atlantic   Prospect     PA              16052      6,000       $10,740.00
 Partnership
Butte Emergency     Combination    Mountain       Butte        MT              59701        772       $37,056.00
 Food Bank           Box            Plains
Butte Emergency     Fresh Fruit/   Mountain       Butte        MT              59701        852       $25,560.00
 Food Bank           Vegetable      Plains
                     Box
Butterfield Youth   Fluid Milk     Mountain       Marshall     MO              65340        495        $1,113.75
 Serv                               Plains
Butts-Jackson High  Fresh Fruit/   South East     Jackson      GA              30233        925       $19,656.25
 School              Vegetable
                     Box
Butts-Jackson High  Precooked      South East     Jackson      GA              30233        210        $7,148.40
 School              Meat Box
Bypass Church of    Combination    South West     Idabel       OK              74745        384       $13,428.48
 Christ              Box
Bypass Church of    Dairy          South West     Idabel       OK              74745        576       $26,357.76
 Christ              Products Box
Bypass Church of    Fluid Milk     South West     Idabel       OK              74745        514       $12,305.16
 Christ
Bypass Church of    Fresh Fruit/   South West     Idabel       OK              74745      1,960       $41,963.60
 Christ              Vegetable
                     Box
C SCDC              Dairy          South West     Fort Smith   AR              72901      1,146       $52,440.96
                     Products Box
C SCDC              Fluid Milk     South West     Fort Smith   AR              72901      1,747       $41,823.18
C SCDC              Fresh Fruit/   South West     Fort Smith   AR              72901      3,573       $58,903.30
                     Vegetable
                     Box
CAA High School     Fresh Fruit/   Midwest        Detroit      MI              48209      7,560      $272,008.80
                     Vegetable
                     Box
CAAC                Combination    South East     Prattville   AL              36067        560       $42,588.00
                     Box
CAAC                Combination    South East     Wetumpka     AL              36092      1,120       $85,176.00
                     Box
CAAC                Combination    South East     Montgomery   AL              36116      1,120       $85,176.00
                     Box
Caballeros De La    Combination    Mid-Atlantic   Bayamon      PR              00956      1,344       $91,896.00
 Cruz                Box
CAC                 Fluid Milk     South East     Knoxville    TN              37921        720        $2,728.80
CACS Distribution   Fresh Fruit/   Midwest        Detroit      MI              48203        500       $14,375.00
                     Vegetable
                     Box
Cada Del Lago       Fresh Fruit/   South West     Dallas       TX              75220        400        $9,320.00
                     Vegetable
                     Box
Cafe Church         Fresh Fruit/   South West     Arlington    TX              76010      1,000       $23,300.00
                     Vegetable
                     Box
Cahokia Comm. Bsk./ Fresh Fruit/   Midwest        Cahokia      IL              62206        180        $5,760.00
 Stl. Food Bnk       Vegetable
                     Box
Cahokia Community   Dairy          Midwest        Cahokia      IL              62206        500       $14,875.00
 Food Basket         Products Box
Cahokia Community   Fresh Fruit/   Midwest        Cahokia      IL              62206        450       $12,375.00
 Food Basket         Vegetable
                     Box
Cain Farm To        Fluid Milk     Midwest        Cincinnati   OH              45223        540        $1,792.80
 Famili
Cairns Community    Fresh Fruit/   Midwest        Mount        MI              48043        500        $7,475.00
 Center              Vegetable                     Clemens
                     Box
Cal Met Village     Fresh Fruit/   Midwest        Chicago      IL              60632         63        $2,266.74
 Apts.               Vegetable
                     Box
Calhoun County      Fresh Fruit/   South East     Anniston     AL              36310        400       $10,380.00
 Schools             Vegetable
                     Box
California          Fluid Milk     Mountain       California   MO              65018      1,542        $3,469.50
 Elementary                         Plains
California          Fresh Fruit/   Western        Sacramento   CA              95828     14,945      $392,335.09
 Emergency           Vegetable
 Foodlink            Box
Call Banks          Fresh Fruit/   South East     Canton       MS              39046      3,080       $61,446.00
 Emergency           Vegetable
 Management          Box
Call Banks          Fresh Fruit/   South East     Contaon      MS              39046        300        $5,985.00
 Emergency           Vegetable
 Management          Box
Calle Maximo        Combination    Mid-Atlantic   San Juan     PR              00924      1,608      $119,208.00
 Alomar Frente       Box
 Escuela Republica
 De Co
Calumet Township    Fresh Fruit/   Midwest        Calumet      IL              60827        189        $6,800.22
                     Vegetable                     Park
                     Box
Calvary Baptist     Fresh Fruit/   South West     Las Cruces   NM              88005      5,040       $98,280.00
 Church              Vegetable
                     Box
Calvary Baptist     Fresh Fruit/   Midwest        Detroit      MI              48207        600       $12,675.00
 Church              Vegetable
                     Box
Calvary Baptist     Fresh Fruit/   Midwest        Detroit      MI              48211        350        $5,232.50
 Church              Vegetable
                     Box
Calvary Baptist     Combination    Mid-Atlantic   East Orange  NJ              07018        169       $16,055.00
 Church (Central     Box
 Food Bank NJ)
Calvary Baptist     Precooked      Mid-Atlantic   East Orange  NJ              07018        420       $25,977.00
 Church (Central     Meat Box
 Food Bank NJ)
Calvary Baptist     Fresh Fruit/   Mid-Atlantic   Beverly      NJ              08010        252        $4,775.40
 Church of SJ        Vegetable
                     Box
Calvary Campus      Fresh Fruit/   South West     Tulsa        OK              74115      1,300       $30,290.00
                     Vegetable
                     Box
Calvary Chapel      Fresh Fruit/   South East     Foley        AL              36535        100        $2,900.00
 Fellowship of       Vegetable
 Foley               Box
Calvary Childrens   Fluid Milk     South East     Powder       GA              30127        564        $2,191.96
                                                   Springs
Calvary Christian   Combination    South East     Daytona      FL              32117      1,120       $85,176.00
 Center (AG)         Box                           Beach
Calvary Church      Dairy          South West     Albuquerque  NM              87109      1,440       $65,894.40
                     Products Box
Calvary Church of   Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $116,592.00
 the Nazarene        Box
Calvary             Fresh Fruit/   Midwest        Village of   MI              48346      3,000       $59,910.00
 Evangelical         Vegetable                     Clarkston
 Lutheran Church     Box
Calvary Food Bank   Fresh Fruit/   North East     Richmond     NY              11418      1,764       $33,427.80
                     Vegetable                     Hill
                     Box
Calvary Holiness    Combination    Western        Wilder       ID              83676        150        $6,600.00
 Food Pantry         Box
Calvary Holiness    Fresh Fruit/   Western        Wilder       ID              83676        150        $3,900.00
 Food Pantry         Vegetable
                     Box
Calvary Mission     Fresh Fruit/   North East     Richmond     NY              11418      3,643      $145,683.57
                     Vegetable                     Hill
                     Box
Calvary Missionary  Fresh Fruit/   Midwest        Pontiac      MI              48341      1,200       $34,500.00
 Church              Vegetable
                     Box
Calvary             Fresh Fruit/   Midwest        Detroit      MI              48219        105        $3,018.75
 Presbyterian        Vegetable
 Church              Box
Calvary Temple      Combination    Midwest        Chicago      IL              60411        200       $13,436.00
 Assembly of God     Box                           Heights
Calvary Temple      Fluid Milk     Midwest        Chicago      IL              60411        200        $7,010.00
 Assembly of God                                   Heights
Cambria Food        Dairy          Midwest        Cambria      IL              62915        120        $3,570.00
 Pantry              Products Box
Cambria Food        Fresh Fruit/   Midwest        Cambria      IL              62915        120        $3,300.00
 Pantry              Vegetable
                     Box
Cambridge Tower     Fresh Fruit/   Midwest        Detroit      MI              48219        250        $3,737.50
                     Vegetable
                     Box
Camden Co. Head     Fluid Milk     Mountain       Camdenton    MO              65020         90          $202.50
 Start                              Plains
Camden County       Fresh Fruit/   Mid-Atlantic   Blackwood    NJ              08012        504       $11,581.92
 Community College   Vegetable
                     Box
Camden County       Fresh Fruit/   South East     Camden       NC              27921        700       $24,997.00
 Schools             Vegetable
                     Box
Camelot Woods       Fresh Fruit/   Midwest        Grand        MI              49546        504       $18,133.92
                     Vegetable                     Rapids
                     Box
Camera Park         Dairy          Midwest        Glendale     IL              60139      2,000       $59,500.00
                     Products Box                  Heights
Camera Park         Fluid Milk     Midwest        Glendale     IL              60139      1,056        $3,505.92
                                                   Heights
Camera Park         Fresh Fruit/   Midwest        Glendale     IL              60139      1,728       $47,520.00
                     Vegetable                     Heights
                     Box
Cameron Ag          Fresh Fruit/   Mountain       Cameron      MO              64429      1,440       $37,296.00
 Supporters          Vegetable      Plains
                     Box
Camilla Housing     Fresh Fruit/   South East     Camilla      GA              31730      1,920       $36,364.80
 Authority           Vegetable
                     Box
Camillus House      Fresh Fruit/   South East     Miami        FL              33136      2,020       $33,835.00
                     Vegetable
                     Box
Camillus House      Precooked      South East     Miami        FL              33136        590       $20,878.00
                     Meat Box
Camp Chambers       Fresh Fruit/   South East     Jonestown    MS              38639        616       $12,289.20
 Thomas              Vegetable
                     Box
Camp Chambers       Fresh Fruit/   South East     Memphis      TN              38128      1,242       $30,429.00
 Thomas Chapel--C/   Vegetable
 O Mid South Food    Box
 Bank
Camp In the         Fluid Milk     South East     Alcoa        TN              37701         80          $303.20
 Commini
Camp Lookout        Fresh Fruit/   South East     Rising Fawn  GA              30738         12          $240.00
                     Vegetable
                     Box
Camp Soza/Sosa      Fluid Milk     South East     Silver Spgs  FL              34488      1,080        $4,093.20
Campbell Learn      Combination    Midwest        Chicago      IL              60612        200       $13,436.00
 Lids Main           Box
Campbell County     Fresh Fruit/   South East     Jacksboro    TN              37757      2,060       $41,200.00
 Schools             Vegetable
                     Box
Campbell Court      Fresh Fruit/   South East     Gadsden      AL              35903        150        $4,200.00
 Housing             Vegetable
                     Box
Campbell Learn      Combination    Midwest        Chicago      IL              60612        400       $25,860.00
                     Box
Campbell Learn      Precooked      Midwest        Chicago      IL              60612        200       $14,314.00
                     Meat Box
Camphill City Hall  Fluid Milk     South East     Camp Hill    AL              36850        880        $3,511.20
Campton Assembly    Fresh Fruit/   South East     Laurel Hill  FL              32567      1,500       $43,500.00
 of God Church       Vegetable
                     Box
Canaan Baptist      Fluid Milk     Mid-Atlantic   Newark       NJ              07112        118        $3,214.56
 Church
Canaan Baptist      Fresh Fruit/   Mid-Atlantic   Newark       NJ              07112        648       $14,891.04
 Church              Vegetable
                     Box
Cancer Center       Fluid Milk     South West     Catoosa      OK              74015        315        $7,541.10
 Treatment of
 America
Cancer Center       Fresh Fruit/   South West     Catoosa      OK              74015        735       $14,038.50
 Treatment of        Vegetable
 America             Box
Cancha Cambalache   Combination    Mid-Atlantic   Canovanas    PR              00729        504       $49,896.00
                     Box
Canticle Farm       Fresh Fruit/   Western        Oakland      CA              94601        175        $3,767.50
                     Vegetable
                     Box
Canton Center Food  Dairy          North East     Brasher      NY              13613        180        $7,776.00
 Pantry              Products Box                  Falls
Canton Center Food  Dairy          North East     Canton       NY              13617        357       $15,422.40
 Pantry              Products Box
Canton Center Food  Dairy          North East     Hannawa      NY              13647         90        $3,888.00
 Pantry              Products Box                  Falls
Canton Center Food  Dairy          North East     Hermon       NY              13642         90        $3,888.00
 Pantry              Products Box
Canton Center Food  Fresh Fruit/   North East     Brasher      NY              13613        168        $3,696.00
 Pantry              Vegetable                     Falls
                     Box
Canton Center Food  Fresh Fruit/   North East     Canton       NY              13617        339        $7,458.00
 Pantry              Vegetable
                     Box
Canton Center Food  Fresh Fruit/   North East     Hannawa      NY              13647         90        $1,980.00
 Pantry              Vegetable                     Falls
                     Box
Canton Center Food  Fresh Fruit/   North East     Hermon       NY              13642         90        $1,980.00
 Pantry              Vegetable
                     Box
Canton Center Food  Precooked      North East     Brasher      NY              13613        168        $9,004.80
 Pantry              Meat Box                      Falls
Canton Center Food  Precooked      North East     Canton       NY              13617        303       $16,240.80
 Pantry              Meat Box
Canton Center Food  Precooked      North East     Hannawa      NY              13647         87        $4,663.20
 Pantry              Meat Box                      Falls
Canton Center Food  Precooked      North East     Hermon       NY              13642         90        $4,824.00
 Pantry              Meat Box
Canton City         Dairy          Midwest        Canton       OH              44705      2,500       $60,250.00
 Schools             Products Box
Canton City         Dairy          Midwest        Canton       OH              44710      2,500       $60,250.00
 Schools             Products Box
Canton City         Fresh Fruit/   Midwest        Canton       OH              44705      1,000       $26,500.00
 Schools             Vegetable
                     Box
Canton City         Fresh Fruit/   Midwest        Canton       OH              44710      1,000       $26,500.00
 Schools             Vegetable
                     Box
Canton City         Fresh Fruit/   Midwest        Canton       OH              44710      3,186       $39,825.00
 Schools Cedar       Vegetable
 Leadership          Box
Canton Elderly      Combination    North East     Canton       MA              02021        390       $14,820.00
                     Box
Canton Elderly      Precooked      North East     Canton       MA              02021        110        $5,973.00
                     Meat Box
Canton High School  Fresh Fruit/   North East     Canton       MA              02021        336        $7,375.20
                     Vegetable
                     Box
Canton              Precooked      South East     Canton       MS              39046      1,512       $62,082.72
 Multipurpose        Meat Box
 Cente
Cantoncity Schools  Fresh Fruit/   Midwest        Canton       OH              44705      3,186       $39,825.00
 Aim Academy         Vegetable
                     Box
CAO Alphonso RAFI   Fresh Fruit/   North East     Buffalo      NY              14211        100        $2,285.00
 Greene              Vegetable
                     Box
CAO Edward          Fresh Fruit/   North East     Buffalo      NY              14215        125        $2,856.25
 Saunders            Vegetable
 Community           Box
CAO Ferry Academy   Fresh Fruit/   North East     Buffalo      NY              14211        100        $2,285.00
                     Vegetable
                     Box
CAO Food Pantry     Fresh Fruit/   North East     Buffalo      NY              14214        527       $12,041.95
                     Vegetable
                     Box
CAO Grace Academy   Fresh Fruit/   North East     Buffalo      NY              14215        150        $3,427.50
                     Vegetable
                     Box
CAO Hyacinth        Fresh Fruit/   North East     Lackawanna   NY              14218        100        $2,285.00
 Academy             Vegetable
                     Box
CAO Infant of       Fresh Fruit/   North East     Cheektowaga  NY              14225        100        $2,285.00
 Prague              Vegetable
                     Box
CAO JFK Community   Fresh Fruit/   North East     Buffalo      NY              14204        100        $2,285.00
 Center              Vegetable
                     Box
CAO King Urban      Fresh Fruit/   North East     Buffalo      NY              14211        150        $3,427.50
 Life Center         Vegetable
                     Box
CAO Pratt Willert   Fresh Fruit/   North East     Buffalo      NY              14204        150        $3,427.50
 Community           Vegetable
                     Box
CAO Springville     Fresh Fruit/   North East     Springville  NY              14141         50        $1,142.50
 League              Vegetable
                     Box
CAO St. Martin      Fresh Fruit/   North East     Buffalo      NY              14208        100        $2,285.00
                     Vegetable
                     Box
CAPC Jefferson      Dairy          North East     Alexandria   NY              13607        120        $5,184.00
 City                Products Box                  Bay
CAPC Jefferson      Dairy          North East     Antwerp      NY              13608        180        $7,776.00
 City                Products Box
CAPC Jefferson      Dairy          North East     Carthage     NY              13619        180        $7,776.00
 City                Products Box
CAPC Jefferson      Dairy          North East     Chaumont     NY              13622        120        $5,184.00
 City                Products Box
CAPC Jefferson      Dairy          North East     Clayton      NY              13624        120        $5,184.00
 City                Products Box
CAPC Jefferson      Dairy          North East     Lafargevill  NY              13656        180        $7,776.00
 City                Products Box                  e
CAPC Jefferson      Dairy          North East     Watertown    NY              13601        828       $35,769.60
 City                Products Box
CAPC Jefferson      Fresh Fruit/   North East     Alexandria   NY              13607        126        $2,772.00
 City                Vegetable                     Bay
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Antwerp      NY              13608        180        $3,960.00
 City                Vegetable
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Carthage     NY              13619        168        $3,696.00
 City                Vegetable
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Chaumont     NY              13622        126        $2,772.00
 City                Vegetable
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Clayton      NY              13624        126        $2,772.00
 City                Vegetable
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Lafargevill  NY              13656        205        $4,510.00
 City                Vegetable                     e
                     Box
CAPC Jefferson      Fresh Fruit/   North East     Watertown    NY              13601        672       $14,784.00
 City                Vegetable
                     Box
CAPC Jefferson      Precooked      North East     Alexandria   NY              13607        126        $6,753.60
 City                Meat Box                      Bay
CAPC Jefferson      Precooked      North East     Antwerp      NY              13608        180        $9,648.00
 City                Meat Box
CAPC Jefferson      Precooked      North East     Carthage     NY              13619        168        $9,004.80
 City                Meat Box
CAPC Jefferson      Precooked      North East     Chaumont     NY              13622        126        $6,753.60
 City                Meat Box
CAPC Jefferson      Precooked      North East     Clayton      NY              13624        126        $6,753.60
 City                Meat Box
CAPC Jefferson      Precooked      North East     Lafargevill  NY              13656        180        $9,648.00
 City                Meat Box                      e
CAPC Jefferson      Precooked      North East     Watertown    NY              13601        798       $42,772.80
 City                Meat Box
Capistrano USD      Fresh Fruit/   Western        San Juan     CA              92675        480       $12,000.00
                     Vegetable                     Capistrano
                     Box
Capital Area Comm.  Fresh Fruit/   Midwest        Lansing      MI              48910        700       $20,125.00
 Services            Vegetable
                     Box
Capital Area Food   Fluid Milk     Mid-Atlantic   Washington   DC              20017      5,184       $77,560.32
 Bank
Capital Area Food   Fresh Fruit/   Mid-Atlantic   Washington   DC              20017     37,980      $816,930.00
 Bank                Vegetable
                     Box
Capital Area Food   Fluid Milk     Mid-Atlantic   Lorton       VA              22079      1,584       $22,461.12
 Bank--Nova
Capital Area Food   Fresh Fruit/   Mid-Atlantic   Lorton       VA              22079      9,828      $230,958.00
 Bank--Nova          Vegetable
                     Box
Capital FB--        Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      1,638       $31,040.10
 Kingdom             Vegetable                     Spring
 Fellowship Churc.   Box
Capital FB--St.     Fresh Fruit/   Mid-Atlantic   Temple       MD              20748      8,438      $167,040.10
 Stephens Baptist    Vegetable                     Hills
                     Box
Capital West        Fluid Milk     Mountain       Jefferson    MO              65109        972       $11,231.46
 Christian                          Plains         City
CAPOC-ICNA          Fresh Fruit/   Western        Anaheim      CA              92804      2,400       $60,000.00
                     Vegetable
                     Box
CAPOC-ICNA          Fresh Fruit/   Western        Fullerton    CA              92833      2,880       $72,000.00
                     Vegetable
                     Box
CAPOC-ICNA          Fresh Fruit/   Western        Placentia    CA              92870      1,920       $48,000.00
                     Vegetable
                     Box
Captain Elementary  Fresh Fruit/   Mountain       Clayton      MO              63105        144        $4,608.00
                     Vegetable      Plains
                     Box
Capuchin Soup       Fresh Fruit/   Midwest        Detroit      MI              48211        300        $4,485.00
 Kitchen             Vegetable
                     Box
Caras Con Causa     Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
                     Box
Caras Con Causa     Combination    Mid-Atlantic   Guaynabo     PR              00969        576       $49,968.00
                     Box
Care & Share Food   Fluid Milk     Mountain       Colorado     Co              80915     17,576       $43,940.00
 Bank                               Plains         Springs
Care & Share Food   Fresh Fruit/   Mountain       Colorado     CO              80915     11,032      $249,200.00
 Bank                Vegetable      Plains         Springs
                     Box
Care Alliance       Dairy          Midwest        Cleveland    OH              44115        120        $2,892.00
                     Products Box
Care Alliance       Fresh Fruit/   Midwest        Cleveland    OH              44115         60        $1,590.00
                     Vegetable
                     Box
Care and Share      Fresh Fruit/   Western        Sunriver     OR              97707        180        $8,460.00
 Community           Vegetable
                     Box
Care and Share      Fluid Milk     Mountain       Pueblo       Co              81004      3,456        $8,640.00
 Food Bank                          Plains
Care and Share      Fresh Fruit/   Mountain       Pueblo       Co              81004      1,980       $46,035.00
 Food Bank           Vegetable      Plains
                     Box
Care Center FW      Fresh Fruit/   South West     Fort Worth   TX              75169        128        $2,174.72
 Ministries          Vegetable
                     Box
Care Center         Combination    South West     Dallas       TX              75217        400       $13,988.00
 Ministries          Box
Care Center         Dairy          South West     Dallas       TX              75217        800       $36,608.00
 Ministries          Products Box
Care Center         Fresh Fruit/   South West     Dallas       TX              75217      1,976       $32,214.74
 Ministries          Vegetable
                     Box
Care Escalon        Fresh Fruit/   Western        Escalon      CA              95320        616       $16,588.88
                     Vegetable
                     Box
Care for Real       Fresh Fruit/   Midwest        Chicago      IL              60640        756       $27,200.88
                     Vegetable
                     Box
Care for Real       Precooked      Midwest        Chicago      IL              60626        288       $23,362.56
                     Meat Box
Care for Real       Precooked      Midwest        Chicago      IL              60626        576       $46,725.12
                     Meat Box
Care for Real--     Fresh Fruit/   Midwest        Chicago      IL              60626        189        $6,800.22
 Morse Ave.          Vegetable
                     Box
Care House of       Fresh Fruit/   Midwest        Pontiac      MI              48341        100        $2,875.00
 Oakland Co.         Vegetable
                     Box
Care of Farmington  Dairy          Midwest        Farmington   MI              48336        144        $3,600.00
 Hills               Products Box
Care of Farmington  Dairy          Midwest        Farmington   MI              48336         48        $1,200.00
 Hills               Products Box                  Hills
Care of Farmington  Fresh Fruit/   Midwest        Farmington   MI              48336        500       $14,375.00
 Hills               Vegetable
                     Box
Care of Farmington  Fresh Fruit/   Midwest        Farmington   MI              48336        484       $13,915.00
 Hills               Vegetable                     Hills
                     Box
Care Resources      Precooked      Midwest        Grand        MI              49508         11          $433.00
                     Meat Box                      Rapids
Care Station        Fresh Fruit/   South East     Clarksdale   MS              38614        704       $14,044.80
                     Vegetable
                     Box
Care To Care        Fresh Fruit/   Midwest        Indianapoli  IN              46241      1,540       $55,409.20
                     Vegetable                     s
                     Box
Cares               Combination    South East     Hudson       FL              34667        896       $68,140.80
                     Box
Cares--Crescent     Combination    South East     Dade City    FL              33525        560       $42,588.00
 Center              Box
Cares--Elfers       Combination    South East     New Port     FL              34652        560       $42,588.00
 Center              Box                           Richey
Cares--New Port     Combination    South East     New Port     FL              34653        560       $42,588.00
 Richey              Box                           Richey
Cares of Picken     Fluid Milk     South East     Jasper       GA              30143        200          $758.00
 Cty
Carey Temple        Precooked      Midwest        Chicago      IL              60619         72        $5,840.64
                     Meat Box
Carey Temple        Precooked      Midwest        Chicago      IL              60619        288       $23,362.56
                     Meat Box
Cargill Cares       Fluid Milk     Mountain       California   MO              65018        795        $1,788.75
                                    Plains
Caring and Sharing  Fresh Fruit/   South East     Panama City  FL              32401         50        $1,450.00
 of S Walton         Vegetable
                     Box
Caring and Sharing  Fresh Fruit/   South East     Santa Rosa   FL              32459        500       $14,500.00
 of South Walton     Vegetable                     Beach
                     Box
Caring and Sharing  Fresh Fruit/   South East     Fort Walton  FL              32549        100        $2,900.00
 South Walton        Vegetable                     Beach
                     Box
Caring Communities  Fresh Fruit/   Mountain       East         MO              63845        960       $26,400.00
                     Vegetable      Plains         Prairie
                     Box
Caring for          Combination    South East     Montgomery   AL              36116      1,680      $127,764.00
 Citizens of         Box
 Alabama
Caring for Friends  Combination    Mid-Atlantic   Philadelphi  PA              19154      4,102      $389,690.00
                     Box                           a
Caring for Friends  Dairy          Mid-Atlantic   Philadelphi  PA              19129      1,560       $62,400.00
                     Products Box                  a
Caring for Friends  Dairy          Mid-Atlantic   Philadelphi  PA              19154     18,100      $556,640.86
                     Products Box                  a
Caring for Friends  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19154      1,120       $36,288.00
                                                   a
Caring for Friends  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19154      7,038      $151,069.86
                     Vegetable                     a
                     Box
Caring for Friends  Precooked      Mid-Atlantic   Philadelphi  PA              19129      2,000      $123,700.00
                     Meat Box                      a
Caring for Friends  Precooked      Mid-Atlantic   Philadelphi  PA              19154      2,240      $140,773.60
                     Meat Box                      a
Caring for Others   Fresh Fruit/   South East     Atlanta      GA              30354      3,880       $75,374.00
                     Vegetable
                     Box
Caring Is Sharing   Fresh Fruit/   South West     Jasper       TX              75951      6,144      $104,386.56
                     Vegetable
                     Box
Cario High School   Fluid Milk     South East     Cairo        GA              39828      3,960       $15,800.40
Caritas             Combination    Mid-Atlantic   Orocovis     PR              00720        576       $49,968.00
                     Box
Caritas             Fresh Fruit/   South West     Waco         TX              76705     13,312      $226,170.88
                     Vegetable
                     Box
Caritas De Maria    Combination    Mid-Atlantic   San Juan     PR              00920      1,152       $99,936.00
 Reina Del Mundo     Box
Caritas De Puerto   Combination    Mid-Atlantic   Loiza        PR              00772      4,032      $374,472.00
 Rico                Box
Caritas Divino      Combination    Mid-Atlantic   Toa Alta     PR              00953        576       $49,968.00
 Providencia         Box
Caritas Loiza       Combination    Mid-Atlantic   Loiza        PR              00772      1,152       $99,936.00
                     Box
Caritas of Waco     Fluid Milk     South West     Waco         TX              76701      3,078       $73,687.32
Caritas PR          Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $33,600.00
 Parroquia Maria     Box
 Madre
Caritas San         Combination    Mid-Atlantic   San Juan     PR              00921        576       $49,968.00
 Antonio             Box
Caritas San         Combination    Mid-Atlantic   San Juan     PR              00926        576       $49,968.00
 Antonio             Box
Caritas Santa       Combination    Mid-Atlantic   San Juan     PR              00921        576       $49,968.00
 Luisa De Marillac   Box
Carl Albert State   Combination    South West     Sallisaw     OK              74955        672       $23,499.84
 College             Box
Carl Albert State   Dairy          South West     Sallisaw     OK              74955        576       $26,357.76
 College             Products Box
Carl Albert State   Fresh Fruit/   South West     Sallisaw     OK              74955      1,127       $23,789.50
 College             Vegetable
                     Box
Carle Forum         Dairy          Midwest        Urbana       IL              61801        300        $8,925.00
 Building            Products Box
Carle Forum         Dairy          Midwest        Urbana       IL              61802         75        $2,231.25
 Building            Products Box
Carle Forum         Fresh Fruit/   Midwest        Urbana       IL              61801        300        $8,250.00
 Building            Vegetable
                     Box
Carle Forum         Fresh Fruit/   Midwest        Urbana       IL              61802         75        $2,062.50
 Building            Vegetable
                     Box
Carle Foundation    Fresh Fruit/   Midwest        Champaign    IL              61802         65        $1,787.50
                     Vegetable
                     Box
Carle Foundation    Fresh Fruit/   Midwest        Champaign    IL              61822        260        $7,150.00
                     Vegetable
                     Box
Carlene S Lily      Precooked      Midwest        Chicago      IL              60619        936       $75,928.32
                     Meat Box
Carmalt School      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15234      1,074       $20,491.92
                     Vegetable
                     Box
Caroline County     Fresh Fruit/   Mid-Atlantic   Denton       MD              21629      5,000      $150,000.00
 Commissioners       Vegetable
                     Box
Caroline County     Fresh Fruit/   Mid-Atlantic   Salisbury    MD              21803        400       $12,000.00
 Commissioners       Vegetable
                     Box
Carpenters Table    Fresh Fruit/   South East     Moore        SC              29369        100        $3,000.00
                     Vegetable
                     Box
Carpinteria         Fresh Fruit/   Western        Carpinteria  CA              93013        725       $26,100.00
 Unified School      Vegetable
 District            Box
Carr Creek Elem     Fluid Milk     South East     Littcarr     KY              41834        768        $2,910.72
Carson City         Fresh Fruit/   Midwest        Middleton    MI              48856        574       $20,652.52
 Crystal Schools     Vegetable
                     Box
Carson Valley       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19132        350        $7,000.00
 Children's Aid      Vegetable                     a
                     Box
Carter Middle       Fresh Fruit/   Midwest        Warren       MI              48093        650        $9,717.50
 School              Vegetable
                     Box
Cartersville High   Fresh Fruit/   South East     Cartersvill  GA              30120      2,760       $52,274.40
 School              Vegetable                     e
                     Box
Carthage Coliseum   Dairy          South East     Carthage     MS              39051        800       $22,464.00
                     Products Box
Carthage Coliseum   Fluid Milk     South East     Carthage     MS              39051      4,992       $36,641.28
Carthage Coliseum   Fresh Fruit/   South East     Carthage     MS              39051      2,720       $45,968.00
                     Vegetable
                     Box
Carthage Coliseum   Precooked      South East     Carthage     MS              39051      4,200      $172,452.00
                     Meat Box
Carver Stem         Fresh Fruit/   Midwest        Detroit      MI              48228        100        $1,495.00
 Academy             Vegetable
                     Box
Cary Christian      Dairy          South East     Cary         MS              39054        640       $17,971.20
 Center              Products Box
Cary Christian      Precooked      South East     Cary         MS              39054        752       $30,877.12
 Center              Meat Box
Casa                Fresh Fruit/   Mid-Atlantic   Silver       MD              20903      2,500       $50,000.00
                     Vegetable                     Spring
                     Box
Casa                Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224      2,750       $55,000.00
                     Vegetable
                     Box
Casa Blanca Home    Fresh Fruit/   Western        Riverside    CA              92501        400       $11,600.00
 of Neighborly       Vegetable
 Services            Box
Casa Blanca Senior  Fresh Fruit/   Western        Riverside    CA              92504        270        $7,830.00
 Project             Vegetable
                     Box
Casa Catalina       Precooked      Midwest        Chicago      IL              60609         72        $5,840.64
                     Meat Box
Casa Catalina       Precooked      Midwest        Chicago      IL              60609        360       $29,203.20
                     Meat Box
Casa De Dios        Fresh Fruit/   South West     Corpus       TX              78415     14,616      $258,169.44
 Avivamiento         Vegetable                     Christi
                     Box
Casa De Dios        Fresh Fruit/   South West     Rockport     TX              78382        500       $12,500.00
 Avivamiento         Vegetable
                     Box
Casa De MI Gloria   Fresh Fruit/   South West     Garland      TX              75042        200        $4,660.00
 Convoy of Hope      Vegetable
                     Box
Casa De Todos       Fresh Fruit/   Mid-Atlantic   Juncos       PR              00777        356       $13,884.00
 Mujeres             Vegetable
                     Box
Casa Del Altisimo   Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
                     Box
Casa Del Lago       Fresh Fruit/   South West     Dallas       TX              75220      1,552       $27,212.48
                     Vegetable
                     Box
Casa Del Rey        Dairy          South West     Albuquerque  NM              87120        576       $26,357.76
                     Products Box
Casa Del Rey        Fresh Fruit/   South West     Albuquerque  NM              87120        539       $10,294.90
                     Vegetable
                     Box
Casa IMUA           Combination    Mid-Atlantic   Morovis      PR              00687      6,720      $607,656.00
                     Box
Casa Juan Diego     Fluid Milk     South West     Houston      TX              77007      1,296        $3,846.96
Casa Juana Colon    Fresh Fruit/   Mid-Atlantic   Comerio      PR              00782        899       $35,061.00
                     Vegetable
                     Box
Casa Manuel         Fresh Fruit/   Mid-Atlantic   Juncos       PR              00777         15          $585.00
 Fernandez Juncos    Vegetable
                     Box
Casa Manuel         Fresh Fruit/   Mid-Atlantic   San Juan     PR              00902         15          $585.00
 Fernandez Juncos    Vegetable
                     Box
Casa Manuel         Fresh Fruit/   Mid-Atlantic   San Juan     PR              00907         15          $585.00
 Fernandez Juncos    Vegetable
                     Box
Casa Marshall       Fresh Fruit/   South East     Guntersvill  AL              35976        325        $9,100.00
 County              Vegetable                     e
                     Box
Casa Matias         Fresh Fruit/   South East     Naranja      FL              33032         60        $1,005.00
                     Vegetable
                     Box
Casa Pacifica       Fresh Fruit/   Western        Camarillo    CA              93012        500       $18,000.00
                     Vegetable
                     Box
Casa Pensamiento    Fresh Fruit/   Mid-Atlantic   Comerio      PR              00782      8,054      $322,160.00
 (Comerio)           Vegetable
                     Box
Casa Pensamiento    Fresh Fruit/   Mid-Atlantic   Aibonito     PR              00705      7,530      $300,600.00
 De Mujer            Vegetable
 (Aibonito)          Box
Casa Protegida      Fresh Fruit/   Mid-Atlantic   San Juan     PR              00909        120        $4,680.00
 Julia De Burgos     Vegetable
                     Box
Casa Ramon Juncos   Fresh Fruit/   Mid-Atlantic   Juncos       PR              00777      4,078      $159,042.00
 (Casa De Todos)     Vegetable
                     Box
Casa Rosa I Ave.    Fresh Fruit/   Mid-Atlantic   San Juan     PR              00923        225        $8,775.00
 Fernandez Juncos    Vegetable
 1066                Box
Casa Rosa Ii        Fresh Fruit/   Mid-Atlantic   San Juan     PR              00901         75        $2,925.00
                     Vegetable
                     Box
Casa Rosa Ii        Fresh Fruit/   Mid-Atlantic   San Juan     PR              00926        150        $5,850.00
                     Vegetable
                     Box
Casa San Jose       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15216        560       $16,800.00
                     Vegetable
                     Box
Cascade Food        Combination    Western        Cascade      ID              83611        340       $14,960.00
 Pantry              Box
Cascade Food        Fresh Fruit/   Western        Cascade      ID              83611        340        $8,840.00
 Pantry              Vegetable
                     Box
Case Co. Community  Fluid Milk     South East     Liberty      KY              42539        500        $1,895.00
 M.
Cass Community      Fresh Fruit/   Midwest        Detroit      MI              48206        200        $5,750.00
 Service             Vegetable
                     Box
Cass County         Dairy          Midwest        Cassopolis   MI              49031        155        $4,495.00
 Council on Aging    Products Box
Cass County         Fresh Fruit/   Midwest        Cassopolis   MI              49031        260        $5,483.75
 Council on Aging    Vegetable
                     Box
Cass Middle School  Fresh Fruit/   South East     Cartersvill  GA              30120      2,520       $47,728.80
                     Vegetable                     e
                     Box
Cassadaga Middle/   Fresh Fruit/   North East     Sinclairvil  NY              14782        350        $7,997.50
 High School         Vegetable                     le
                     Box
Cassel's            Combination    Western        Los Angeles  CA              90014         50        $1,362.50
                     Box
Catacumba 1         Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
                     Box
Catacumba 19        Combination    Mid-Atlantic   San German   PR              00683        672       $58,296.00
                     Box
Catacumbas          Combination    Mid-Atlantic   Cidra        PR              00739        576       $49,968.00
                     Box
Catacumbas Cinco    Combination    Mid-Atlantic   Anasco       PR              00610      2,304      $199,872.00
                     Box
Cathedral of Faith  Fresh Fruit/   Western        San Jose     CA              95123      7,526      $127,942.00
                     Vegetable
                     Box
Cathedral of St.    Fresh Fruit/   South East     Memphis      TN              38116      4,266      $104,517.00
 Augustine           Vegetable
                     Box
Cathedral of St.    Fresh Fruit/   South East     Memphis      TN              38126      4,320      $105,840.00
 Augustine           Vegetable
                     Box
Cathedral of St.    Fresh Fruit/   South East     Cordova      TN              38016      4,104      $100,548.00
 Augustine           Vegetable
                     Box
Cathedral of St.    Fresh Fruit/   South East     Memphis      TN              38109      1,296       $31,752.00
 Augustine           Vegetable
                     Box
Cathedral St.       Fresh Fruit/   South East     Tunica       MS              38676      2,464       $49,156.80
 Augustine           Vegetable
                     Box
Cathedral St.       Fresh Fruit/   South East     Brandon      MS              39042      2,576       $51,391.20
 Augustine           Vegetable
                     Box
Cathedral St.       Precooked      South East     Brandon      MS              39402        504       $20,694.24
 Augustine           Meat Box
Catherdral St.      Fresh Fruit/   South East     Tunica       MS              38676        616       $12,289.20
 Augustine           Vegetable
                     Box
Catholic Charaties  Precooked      North East     Elmira       NY              14903      1,274       $52,157.56
 of the Diocese      Meat Box
Catholic Charities  Combination    Midwest        Chicago      IL              60651      3,530       $82,849.10
                     Box
Catholic Charities  Combination    Mountain       Omaha        NE              68107      1,260       $44,062.20
                     Box            Plains
Catholic Charities  Dairy          South West     Phoenix      AZ              85015        130        $3,445.00
                     Products Box
Catholic Charities  Dairy          South West     Flagstaff    AZ              86004        384       $10,176.00
                     Products Box
Catholic Charities  Dairy          Western        Santa Ana    CA              92703      7,200      $230,400.00
                     Products Box
Catholic Charities  Dairy          Midwest        Tell City    IN              47586      1,056       $26,400.00
                     Products Box
Catholic Charities  Fluid Milk     South East     Gainesville  FL              32609        400        $1,516.00
Catholic Charities  Fluid Milk     South East     Conway       SC              29526         60          $233.00
Catholic Charities  Fluid Milk     Midwest        Cincinnati   OH              45224      2,700        $8,964.00
Catholic Charities  Fluid Milk     South West     Galveston    TX              77551        799        $2,420.08
Catholic Charities  Fluid Milk     South West     Houston      TX              77003      2,150        $6,379.50
Catholic Charities  Fluid Milk     South West     Richmond     TX              77469      2,559        $7,713.56
Catholic Charities  Fluid Milk     South West     San Antonio  TX              78207        240          $700.80
Catholic Charities  Fluid Milk     South West     San Juan     TX              78589      1,944        $5,676.48
Catholic Charities  Fresh Fruit/   Midwest        Des Moines   IA              50309        600        $8,700.00
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Mountain       Omaha        NE              68107      2,940       $41,988.00
                     Vegetable      Plains
                     Box
Catholic Charities  Fresh Fruit/   South West     Phoenix      AZ              85015        220        $4,807.00
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   South West     Flagstaff    AZ              86004        412        $9,002.20
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Detroit      MI              49060        500        $9,985.00
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Columbus     OH              43204        134        $3,445.90
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Youngstown   OH              44505        980       $19,570.60
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   South West     Brownsville  TX              78520      1,280       $21,747.20
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   South West     Escobares    TX              78520      1,280       $21,747.20
                     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   South West     San Juan     TX              78589      1,600       $27,184.00
                     Vegetable
                     Box
Catholic            Dairy          South West     Cottonwood   AZ              86327        150        $3,975.00
 Charities--Cotton   Products Box
 wood
Catholic            Fresh Fruit/   South West     Cottonwood   AZ              86327        160        $3,496.00
 Charities--Cotton   Vegetable
 wood                Box
Catholic            Fluid Milk     Western        Spokane      WA              99202        450        $1,588.50
 Charities--Food
 for All
Catholic            Fresh Fruit/   Western        Spokane      WA              99202        150        $3,750.00
 Charities--Food     Vegetable
 for All             Box
Catholic            Fresh Fruit/   Western        El Centro    CA              92243      1,456       $29,076.32
 Charities--St.      Vegetable
 Mary's School       Box
Catholic Charities  Fresh Fruit/   Mountain       Kansas City  MO              64108      1,200       $23,964.00
 Arts Tech           Vegetable      Plains
                     Box
Catholic Charities  Fresh Fruit/   South West     Bullhead     AZ              86442         60        $1,311.00
 Bullhead            Vegetable                     City
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Flint        MI              48503      1,000       $19,970.00
 Center for Hope     Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Chicago      IL              60651      6,000      $162,000.00
 Chicago             Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Kalamazoo    MI              49008      2,000       $41,812.50
 Diocese of Kalam    Vegetable
                     Box
Catholic Charities  Fresh Fruit/   South West     Houston      TX              77003      1,376       $23,378.24
 Harris/Hou          Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Western        Honolulu     HI              96822        262        $9,432.00
 Hawaii              Vegetable
                     Box
Catholic Charities  Fluid Milk     North East     Boston       MA              02121      2,880        $4,780.80
 of Boston
Catholic Charities  Fresh Fruit/   North East     Brooklyn     NY              11203      1,680       $33,549.60
 of Brooklyn         Vegetable
 Queens              Box
Catholic Charities  Fresh Fruit/   North East     Brooklyn     NY              11214      2,700       $53,919.00
 of Brooklyn         Vegetable
 Queens              Box
Catholic Charities  Fresh Fruit/   North East     Cambria      NY              11411      1,300       $25,961.00
 of Brooklyn         Vegetable                     Heights
 Queens              Box
Catholic Charities  Fluid Milk     North East     Monticello   Me              04760      1,808        $5,026.24
 of Maine
Catholic Charities  Fresh Fruit/   Mountain       Kansas City  KS              66106      3,520       $91,168.00
 of NE Kansas        Vegetable      Plains
                     Box
Catholic Charities  Fresh Fruit/   South East     Fort Walton  FL              32548        600       $17,400.00
 of Nw Florida       Vegetable                     Beach
                     Box
Catholic Charities  Fresh Fruit/   Western        Santa Rosa   CA              95404      2,650       $66,250.00
 of Santa Rosa       Vegetable
                     Box
Catholic Charities  Dairy          Midwest        Owosso       MI              48867         25          $725.00
 of Shiawasse Cou    Products Box
Catholic Charities  Fresh Fruit/   Midwest        Owosso       MI              48867        100        $2,068.75
 of Shiawasse Cou    Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Auburn       MI              48326        100        $2,025.00
 of Southeast        Vegetable                     Hills
                     Box
Catholic Charities  Combination    Midwest        Terre Haute  IN              47807      1,520      $228,000.00
 of Terre Haute      Box
Catholic Charities  Dairy          Midwest        Terre Haute  IN              47807      2,880       $72,000.00
 of Terre Haute      Products Box
Catholic Charities  Fluid Milk     Midwest        Terre Haute  IN              47807      5,832       $13,122.00
 of Terre Haute
Catholic Charities  Precooked      Midwest        Terre Haute  IN              47807        900       $45,765.00
 of Terre Haute      Meat Box
Catholic Charities  Fresh Fruit/   Midwest        Chicago      IL              60654        840       $15,120.00
 of the              Vegetable
 Archdiocese of      Box
 Chicago
Catholic Charities  Fresh Fruit/   Mid-Atlantic   Washington   Dc              20001        120        $2,160.00
 of the              Vegetable
 Archdiocese of      Box
 Washingto
Catholic Charities  Fluid Milk     North East     Worcester    MA              01610        960        $1,593.60
 of Worcester
 County
Catholic Charities  Fresh Fruit/   North East     Worcester    MA              01610        154        $4,379.76
 of Worcester        Vegetable
 County              Box
Catholic Charities  Combination    Western        Portland     OR              97202      1,680       $58,800.00
 USDA                Box
Catholic Charities  Dairy          Western        Portland     OR              97202        500       $15,000.00
 USDA                Products Box
Catholic Charities  Dairy          South West     Peoria       AZ              85345        144        $3,816.00
 West                Products Box
Catholic Charities  Fresh Fruit/   South West     Peoria       AZ              85345        160        $3,496.00
 West                Vegetable
                     Box
Catholic Charities  Fresh Fruit/   Midwest        Youngstown   OH              44505        360        $7,189.20
 Youngstown          Vegetable
                     Box
Catholic Charities/ Fresh Fruit/   South West     Richmond     TX              77469      4,160       $70,678.40
 Fort Bend           Vegetable
                     Box
Catholic            Dairy          South West     Mesa         AZ              85204        486       $12,879.00
 Charities--Care     Products Box
 Campus
Catholic            Fresh Fruit/   South West     Mesa         AZ              85204        612       $13,372.20
 Charities--Care     Vegetable
 Campus              Box
Catholic            Fresh Fruit/   Midwest        Flint        MI              48504        300        $6,425.00
 Charities--North    Vegetable
 End Soup K          Box
Catholic            Fresh Fruit/   South West     Peoria       AZ              85345        160        $3,496.00
 Charities--Peoria   Vegetable
                     Box
Catholic Charity    Fluid Milk     South East     Jacksonvill  FL              32209        464        $1,758.56
                                                   e
Catholic Charity    Dairy          South West     Prescott     AZ              86302         48        $1,272.00
 Prescott            Products Box
Catholic Charity    Fresh Fruit/   South West     Prescott     AZ              86302         60        $1,311.00
 Prescott            Vegetable
                     Box
Catholic Comm.      Combination    Western        Salem        OR              97301        540       $18,900.00
 Services            Box
Catholic Comm.      Dairy          Western        Salem        OR              97301      1,100       $33,000.00
 Services            Products Box
Catholic Comm.      Fresh Fruit/   Western        Salem        OR              97301      1,200       $32,400.00
 Services            Vegetable
                     Box
Catholic Community  Fresh Fruit/   Midwest        Benton       MI              49022        180        $3,802.50
 Center              Vegetable                     Harbor
                     Box
Catholic Dioceses   Fresh Fruit/   Western        El Centro    CA              92243      1,456       $29,076.32
 of San Diego        Vegetable
                     Box
Catholic Parish     Fluid Milk     South East     Raleigh      NC              27601      2,592       $10,126.08
 Outreach
Catholic Parish     Fresh Fruit/   South East     Raleigh      NC              27604      2,120       $53,869.20
 Outreach            Vegetable
                     Box
Catholic Social     Fresh Fruit/   Western        Anchorage    AK              99508      1,008       $28,173.60
 Services            Vegetable
                     Box
Catholic Social     Fresh Fruit/   South East     Robertsdale  AL              36567        150        $4,350.00
 Services            Vegetable
                     Box
Catholic Social     Fresh Fruit/   Western        Barrigada    Guam            96913      2,160      $129,600.00
 Services            Vegetable
                     Box
Catholic Social     Fresh Fruit/   Mid-Atlantic   Norristown   PA              19401      1,224       $28,127.52
 Services            Vegetable
                     Box
Catholic Social     Fresh Fruit/   Midwest        Dayton       OH              45402        100        $1,665.00
 Services of the     Vegetable
 Mv                  Box
Catholic Social     Precooked      Midwest        Dayton       OH              45402        525       $23,438.25
 Services of the     Meat Box
 Mv
Catholic Social     Fluid Milk     South East     Mobile       AL              36606        560        $2,178.40
 Svs
Catholic SS of      Fresh Fruit/   Mountain       Hastings     NE              68901        480       $12,432.00
 Southern Nebraska   Vegetable      Plains
                     Box
Catholic Workers    Fresh Fruit/   Midwest        Des Moines   IA              50314        420        $6,090.00
                     Vegetable
                     Box
Catoosa Public      Combination    South West     Catoosa      OK              74015        288       $10,071.36
 School              Box
Catoosa Public      Fluid Milk     South West     Catoosa      OK              74015        495       $11,850.30
 School
Catoosa Public      Fresh Fruit/   South West     Catoosa      OK              74015      1,078       $22,853.60
 School              Vegetable
                     Box
Cattaraugus--Littl  Fresh Fruit/   North East     Cattaraugus  NY              14719        550       $12,567.50
 e Valley Sch.       Vegetable
                     Box
Caupa               Combination    Mid-Atlantic   Canovanas    PR              00729        672       $66,528.00
                     Box
Cavic               Fresh Fruit/   Mid-Atlantic   San Juan     PR              00927        130        $5,070.00
                     Vegetable
                     Box
CBS Anit-Hunger     Dairy          Midwest        Cicero       IL              60804        240        $6,000.00
 Box                 Products Box
CBS Anit-Hunger     Dairy          Midwest        Cicero       IL              60804        120        $3,000.00
 Box                 Products Box
CBS Anti Hunger     Precooked      Midwest        Cicero       IL              60804        216       $17,521.92
                     Meat Box
CBS Anti-Hunger     Fresh Fruit/   Midwest        Cicero       IL              60804        252        $9,066.96
                     Vegetable
                     Box
CC Jackson          Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21205        900       $18,000.00
                     Vegetable
                     Box
CC of Ctrl FL       Fluid Milk     South East     Orlando      FL              32807      3,399       $13,162.01
CCA Regional Food   Combination    Western        Astoria      OR              97103        510       $17,850.00
 Bank                Box
CCA Regional Food   Dairy          Western        Astoria      OR              97103        300        $9,000.00
 Bank                Products Box
CCBA Centralia      Dairy          Midwest        Centralia    IL              62801         50        $1,487.50
                     Products Box
CCCDS Atwater       Combination    Western        Atwater      CA              95301         70        $3,670.80
                     Box
CCCDS Atwater       Fresh Fruit/   North East     Auburn       MA              01501         77        $2,073.61
                     Vegetable
                     Box
CCCDS Atwater       Fresh Fruit/   Western        Atwater      CA              95301        303        $8,872.59
                     Vegetable
                     Box
CCCDS Felix Torres  Combination    Western        Planada      CA              95365        492       $25,800.48
                     Box
CCCDS Felix Torres  Fresh Fruit/   Western        Planada      CA              95365        140        $5,156.20
                     Vegetable
                     Box
CCCDS Granada       Combination    Western        Planada      CA              95365        212       $11,117.28
                     Box
CCCDS Granada       Fresh Fruit/   Western        Planada      CA              95365        140        $5,156.20
                     Vegetable
                     Box
CCCDS--John O       Combination    Western        Merced       CA              95340        280       $14,683.20
 Bannion             Box
CCCDS--John O       Fresh Fruit/   Western        Merced       CA              95340        352       $12,964.16
 Bannion             Vegetable
                     Box
CCCDS Livingston    Combination    Western        Livingston   CA              95334         70        $3,670.80
                     Box
CCCDS Livingston    Fresh Fruit/   Western        Livingston   CA              95334        308        $8,294.44
                     Vegetable
                     Box
CCCDS Mike L Perez  Fresh Fruit/   Western        Newman       CA              95360        450       $13,524.30
                     Vegetable
                     Box
CCCDS Patterson     Fresh Fruit/   Western        Patterson    CA              95363        373       $11,450.69
                     Vegetable
                     Box
CCCDS Riverbank     Fresh Fruit/   Western        Riverbank    CA              95367        462       $12,441.66
                     Vegetable
                     Box
CCCDS--Silva        Fresh Fruit/   Western        Los Banos    CA              93635        308        $8,294.44
                     Vegetable
                     Box
CCCDS Stonum        Fresh Fruit/   Western        Modesto      CA              95351        784       $21,113.12
                     Vegetable
                     Box
CCCDS Turlock       Fresh Fruit/   Western        Turlock      CA              95380         70        $2,578.10
                     Vegetable
                     Box
CCCDS Turlock       Fresh Fruit/   Western        Turlock      CA              95382        308        $8,294.44
                     Vegetable
                     Box
CCCDS Westley       Fresh Fruit/   Western        Westley      CA              95387        378       $10,872.54
                     Vegetable
                     Box
CCCWP               Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101      1,904       $36,328.32
                     Vegetable
                     Box
CCFB                Fresh Fruit/   Western        Roseville    CA              95678      4,032      $175,392.00
                     Vegetable
                     Box
CCS Africentric HS  Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Buckeye MS      Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Centennial HS   Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Dominion MS     Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS East HS         Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Food Serv.      Fresh Fruit/   Midwest        Columbus     OH              43215        216        $2,700.00
 Prod. Ctr.          Vegetable
                     Box
CCS Global Academy  Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Independence    Fresh Fruit/   Midwest        Columbus     OH              43215        104        $1,300.00
 HS                  Vegetable
                     Box
CCS Linden          Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
 Mckinley HS         Vegetable
                     Box
CCS Mifflin HS      Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Sherwood MS     Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS South HS        Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Starling MS     Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Wedgewood MS    Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS West HS         Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
                     Vegetable
                     Box
CCS Woodward Park   Fresh Fruit/   Midwest        Columbus     OH              43215        108        $1,350.00
 MS                  Vegetable
                     Box
CCSC Emergency      Fluid Milk     South West     Houston      TX              77074        402        $1,290.42
 Ser.
Cecil Head Start    Fresh Fruit/   Midwest        Detroit      MI              48210        600        $8,970.00
                     Vegetable
                     Box
Cedar Heights       Combination    Western        Kent         WA              98042        760       $26,600.00
 Middle              Box
Cedar Heights       Dairy          Western        Kent         WA              98042        400       $12,000.00
 Middle              Products Box
Cedar Heights       Fresh Fruit/   Western        Kent         WA              98042        760       $20,520.00
 Middle              Vegetable
                     Box
Cedar Hill Shares   Fluid Milk     South West     Cedar Hill   TX              75104      1,080        $3,153.60
Cedar Lake          Dairy          South East     Biloxi       MS              39532        240        $6,739.20
 Christian Asse      Products Box
Cedarville Public   Combination    South West     Cedarville   OK              74432        384       $13,428.48
 Schools             Box
Cedarville Public   Fresh Fruit/   South West     Cedarville   AR              72932        392        $7,898.80
 Schools             Vegetable
                     Box
Cedarville Public   Fresh Fruit/   South West     Cedarville   OK              74432        392        $7,487.20
 Schools             Vegetable
                     Box
Celebrate Church    Fresh Fruit/   Midwest        Knoxville    IA              50138        150        $2,175.00
                     Vegetable
                     Box
Celebration Church  Fluid Milk     South East     Jacksonvill  FL              32256      1,200        $4,548.00
                                                   e
Celebration Church  Fresh Fruit/   Midwest        Detroit      MI              48215      6,000       $89,700.00
 of Detroit          Vegetable
                     Box
Celebration         Dairy          Midwest        Chardon      OH              44024        105        $2,625.00
 Lutheran Church     Products Box
Celestial Vision    Precooked      Midwest        Chicago      IL              60647        144       $11,681.28
 Food Pantry         Meat Box
Celestial Vision    Dairy          Midwest        Chicago      IL              60647        100        $2,500.00
 Pantry Box          Products Box
Centennial High     Combination    Western        Gresham      OR              97030        240        $8,400.00
 School              Box
Centennial High     Dairy          Western        Gresham      OR              97030        200        $6,000.00
 School              Products Box
Centennial High     Fresh Fruit/   Western        Gresham      OR              97030        840       $22,680.00
 School              Vegetable
                     Box
Centennial Middle   Fluid Milk     South West     Yuma         AZ              85364         75          $591.00
 School
Centennial Middle   Fresh Fruit/   South West     Yuma         AZ              85364        150        $4,125.00
 School              Vegetable
                     Box
Centennial          Fluid Milk     Mid-Atlantic   Philadelphi  PA              19104         96        $1,893.12
 Parkside Cdc                                      a
Center at Midland   Fresh Fruit/   Mid-Atlantic   Midland      PA              15059      1,200       $36,000.00
                     Vegetable
                     Box
Center Baptist      Fresh Fruit/   Mountain       Center       MO              63436        460       $12,650.00
 Church              Vegetable      Plains
                     Box
Center CA Child     Combination    Western        Ceres        CA              95307         70        $3,670.80
 Development         Box
 Services
Center CA Child     Fresh Fruit/   Western        Ceres        CA              95307        588       $19,299.84
 Development         Vegetable
 Services            Box
Center City Church  Fresh Fruit/   Mid-Atlantic   Altoona      PA              16602      3,150       $78,750.00
 Inc.                Vegetable
                     Box
Center Elementary   Fluid Milk     South East     Waycross     GA              31501      2,160        $8,402.40
Center for          Fresh Fruit/   Western        Honolulu     HI              96848        200        $7,200.00
 Cultural            Vegetable
 Technical           Box
Center for Good     Fluid Milk     Mid-Atlantic   Saddle       NJ              07663        734       $18,912.48
 Action                                            Brook
Center for Good     Fresh Fruit/   Mid-Atlantic   Saddle       NJ              07663      1,728       $39,709.44
 Action              Vegetable                     Brook
                     Box
Center for Hope     Combination    Mid-Atlantic   Nescopeck    PA              18635      1,654      $157,130.00
                     Box
Center for Hope     Dairy          Mid-Atlantic   Nescopeck    PA              18635      2,905      $116,200.00
                     Products Box
Center for Hope     Fluid Milk     Mid-Atlantic   Ambridge     PA              15003        154        $1,871.10
Center for Hope     Fluid Milk     Mid-Atlantic   Nescopeck    PA              18635      1,826       $45,772.32
Center for Hope     Precooked      Mid-Atlantic   Nescopeck    PA              18635      1,080       $66,798.00
                     Meat Box
Center for Hope     Fresh Fruit/   Mid-Atlantic   Ambridge     PA              15003        600       $18,000.00
 Ambridge            Vegetable
                     Box
Center for Human    Combination    Western        Ceres        CA              95307        210       $11,012.40
 Services            Box
Center for Human    Fresh Fruit/   Western        Ceres        CA              95307        441       $14,648.13
 Services            Vegetable
                     Box
Center for People   Fresh Fruit/   Mountain       Lincoln      NE              68521      6,160      $159,544.00
 in Need             Vegetable      Plains
                     Box
Center High School  Fresh Fruit/   Mountain       Kansas City  MO              64131      1,920       $49,728.00
                     Vegetable      Plains
                     Box
Center of Hope      Fresh Fruit/   South West     Dallas       TX              75247        424        $7,203.76
                     Vegetable
                     Box
Center of Hope      Dairy          Midwest        Toledo       OH              43604        885       $21,478.95
 Family Services     Products Box
Center of Hope      Fresh Fruit/   Midwest        Toledo       OH              43604      1,450       $28,266.30
 Family Services     Vegetable
                     Box
Center of Hope      Precooked      Midwest        Toledo       OH              43604      1,427       $56,642.77
 Family Services     Meat Box
Center of Hope      Fresh Fruit/   North East     Long Island  NY              11101      2,800       $55,916.00
 International       Vegetable                     City
                     Box
Centerplace Senior  Fresh Fruit/   Mid-Atlantic   Dundalk      MD              21222        250        $5,237.50
 Apts.               Vegetable
                     Box
Centerville Cline   Fresh Fruit/   Midwest        Centerville  OH              45458        128        $2,496.00
 Es (Fd2Go)          Vegetable
                     Box
Centerville High    Fluid Milk     South West     Centerville  TX              75833        484        $1,435.32
 SC
Central Alabama     Fresh Fruit/   South East     Birmingham   AL              35217        200        $5,190.00
 Food Bank           Vegetable
                     Box
Central Baptist     Fresh Fruit/   South East     Tarrant      AL              35217      1,300       $33,735.00
                     Vegetable
                     Box
Central Baptist     Fluid Milk     South West     Port Arthur  TX              77651        200          $584.00
 Church
Central Baptist     Fluid Milk     South West     Port Neches  TX              77651        200          $642.00
 Church
Central Bible       Fresh Fruit/   South West     Fort Worth   TX              76120      6,896      $117,163.04
 Church              Vegetable
                     Box
Central California  Dairy          Western        Fresno       CA              93725      2,415       $58,249.80
 Food Bank           Products Box
Central California  Fluid Milk     Western        Fresno       CA              93725      4,224       $16,853.76
 Food Bank
Central California  Fresh Fruit/   Western        Fresno       CA              93725     18,008      $326,176.00
 Food Bank           Vegetable
                     Box
Central Christian   Dairy          Midwest        Mt. Vernon   IL              62864         40        $1,190.00
 Church              Products Box
Central Christian   Fresh Fruit/   South East     Navarre      FL              32566      1,000       $29,000.00
 Church              Vegetable
                     Box
Central Christian   Fresh Fruit/   South East     Molino       FL              32577        500       $14,500.00
 Church              Vegetable
                     Box
Central City        Fluid Milk     South East     Central      KY              42330      2,142        $4,819.50
 Elementary                                        City
Central City        Fresh Fruit/   Western        Los Angeles  CA              90017        985       $24,378.75
 Nighbhood Partner   Vegetable
                     Box
Central             Fresh Fruit/   Midwest        Middletown   OH              45044        750       $15,765.21
 Connections         Vegetable
                     Box
Central             Precooked      Midwest        Middletown   OH              45044        375       $16,971.75
 Connections         Meat Box
Central County      Fresh Fruit/   Western        Hemet        CA              92543      1,360       $30,940.00
 United Way          Vegetable
                     Box
Central Del Gofo    Dairy          South East     Biloxi       MS              39532        160        $4,492.80
                     Products Box
Central Del Gofo    Fresh Fruit/   South East     Biloxi       MS              39532        672       $11,356.80
                     Vegetable
                     Box
Central Del Gofo    Precooked      South East     Biloxi       MS              39532      1,008       $41,388.48
                     Meat Box
Central Elem.       Fluid Milk     South East     Barbourvill  KY              40906      1,272        $4,820.88
                                                   e
Central High        Fluid Milk     South West     Pollok       TX              75969        400        $1,168.00
 School
Central HS          Dairy          Midwest        Harrison     MI              48045      1,206       $29,269.62
                     Products Box                  Township
Central HS          Fresh Fruit/   Midwest        Harrison     MI              48045      1,024       $20,775.24
                     Vegetable                     Township
                     Box
Central IL          Dairy          Midwest        Springfield  IL              62701      3,900       $97,500.00
 Foodbank            Products Box
Central IL          Fluid Milk     Midwest        Springfield  IL              62701      6,048       $13,608.00
 Foodbank
Central Illinois    Dairy          Midwest        Springfield  IL              62791        525       $12,741.75
 Foodbank F2F        Products Box
Central Illinois    Fresh Fruit/   Midwest        Springfield  IL              62791      5,799      $117,456.75
 Foodbank F2F        Vegetable
                     Box
Central Illinois    Precooked      Midwest        Springfield  IL              62791     11,834      $453,800.97
 Foodbank F2F        Meat Box
Central Oregon      Dairy          Western        Bend         OR              97702        191        $5,730.00
 Veterans            Products Box
Central Oregon      Fresh Fruit/   Western        Bend         OR              97702        311       $14,617.00
 Veterans            Vegetable
                     Box
Central PA Food     Fluid Milk     Mid-Atlantic   Harrisburg   PA              17109    171,000      $254,790.00
 Bank
Central PA Food     Fresh Fruit/   Mid-Atlantic   Harrisburg   PA              17109        600       $16,200.00
 Bank                Vegetable
                     Box
Central PA Food     Precooked      Mid-Atlantic   Harrisburg   PA              17109         80        $1,440.00
 Bank                Meat Box
Central PA Food     Precooked      Mid-Atlantic   Williamspor  PA              17701      4,105      $166,451.70
 Bank                Meat Box                      t
Central             Fresh Fruit/   Mid-Atlantic   Harrisburg   PA              17109      6,552      $153,972.00
 Pennsylvania Food   Vegetable
 Bank                Box
Central             Fresh Fruit/   Mid-Atlantic   Williamspor  PA              17701        663       $16,575.00
 Pennsylvania Food   Vegetable                     t
 Bank                Box
Central             Fresh Fruit/   Mid-Atlantic   Williamspor  PA              17701      3,276       $76,986.00
 Pennsylvania Food   Vegetable                     t
 Bank--Williamspor   Box
 t
Central Point       Fresh Fruit/   Western        Central      OR              97502      6,586      $255,207.50
 School District     Vegetable                     Point
                     Box
Central Ranch       Fresh Fruit/   Western        Oxnard       CA              93036        600       $13,200.00
                     Vegetable
                     Box
Central Square      Dairy          North East     Central      NY              13036        309       $13,348.80
 School              Products Box                  Square
Central Square      Fluid Milk     North East     Central      NY              13036        747       $23,142.06
 School                                            Square
Central Square      Fresh Fruit/   North East     Central      NY              13036        252        $5,544.00
 School              Vegetable                     Square
                     Box
Central Square      Precooked      North East     Central      NY              13036        210       $11,256.00
 School              Meat Box                      Square
Central Texas Food  Fluid Milk     South West     Austin       TX              78744     73,440      $214,444.80
 Bank
Central Texas Food  Fresh Fruit/   South West     Austin       TX              78744     40,848      $710,027.52
 Bank                Vegetable
                     Box
Central Texas Food  Precooked      South West     Austin       TX              78744     48,182    $2,426,311.50
 Bank                Meat Box
Central Umc         Fluid Milk     South East     Jackson      MS              39202        900        $3,591.00
Centro              Combination    Mid-Atlantic   Patillas     PR              00723        672       $66,528.00
 Adiestramiento Y    Box
 Trabajo Personas
 Con Imped
Centro Comunal      Combination    Mid-Atlantic   Naguabo      PR              00718        672       $58,296.00
 Playa Hucares       Box
Centro Cristano     Combination    South West     Springdale   AR              72764      1,440       $50,356.80
 Hispano             Box
Centro Cristano     Fluid Milk     South West     Springdale   AR              72764        495       $11,850.30
 Hispano
Centro Cristano     Fresh Fruit/   South West     Springdale   AR              72764        539       $12,558.70
 Hispano             Vegetable
                     Box
Centro Cristiano    Combination    South West     Rogers       AR              72758      1,440       $50,356.80
 Hispano             Box
Centro Cristiano    Dairy          South West     Rogers       AR              72758      2,112       $96,645.12
 Hispano             Products Box
Centro Cristiano    Fluid Milk     South West     Rogers       AR              72758      2,168       $51,901.92
 Hispano
Centro Cristiano    Fresh Fruit/   South West     Rogers       AR              72758      4,660       $73,680.80
 Hispano             Vegetable
                     Box
Centro Cristiano    Combination    Mid-Atlantic   Bayamon      PR              00956      1,152       $99,936.00
 ICDC                Box
Centro Cristiano    Combination    Mid-Atlantic   Toa Baja     PR              00949        576       $28,800.00
 ICDC                Box
Centro Cristiano    Fresh Fruit/   South West     Houston      TX              77034        192        $3,262.08
 Lirio De Los        Vegetable
                     Box
Centro Cristiano    Fresh Fruit/   South West     Pasadena     TX              77503        880       $14,951.20
 Lirio De Los        Vegetable
                     Box
Centro Cristiano    Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Rescate             Box
Centro Cristiano    Dairy          South West     Mission      TX              78572        876       $24,834.60
 Restauracion        Products Box
 Familiar
Centro De           Fluid Milk     South West     Corpus       TX              78415     21,600       $63,072.00
 Avivamien                                         Christi
Centro De Ayuda     Combination    Mid-Atlantic   San Juan     PR              00920         --              $--
 Social              Box
Centro De Ayuda     Combination    Mid-Atlantic   San Juan     PR              00921      2,688      $233,184.00
 Social              Box
Centro De Ayuda     Combination    Mid-Atlantic   Carolina     PR              00979      2,016      $199,584.00
 Social Emanuel      Box
Centro De LA Mujer  Fresh Fruit/   Mid-Atlantic   San Juan     PR              00923        600       $23,400.00
 Dominicana          Vegetable
                     Box
Centro De Mujeres   Combination    Mid-Atlantic   Cayey        PR              00736        672       $58,296.00
 Maltradas           Box
Centro De           Combination    Mid-Atlantic   Vega Alta    PR              00692        672       $33,600.00
 Orientacion Y       Box
 Accion Social
Centro De           Fresh Fruit/   Western        Union City   CA              94587      5,505       $97,700.00
 Servicios           Vegetable
                     Box
Centro Donaciones   Combination    Mid-Atlantic   Catano       PR              00962        630       $54,138.00
 Catano              Box
Centro Familiar     Fresh Fruit/   South West     El Paso      TX              79907      3,672       $71,604.00
 Vino Nuevo          Vegetable
                     Box
Centro Geriatrico   Combination    Mid-Atlantic   Manati       PR              00674        262       $13,100.00
 Virgilio Ramos      Box
Centro Graneros     Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
                     Box
Centro              Combination    Mid-Atlantic   Yauco        PR              00698      2,424      $211,752.00
 Microempresas Y     Box
 Tecnologias
 Agricolas
Centro Parroquial   Combination    Mid-Atlantic   Aibonito     PR              00705        672       $66,528.00
 De Ayuda Social     Box
Centro Paz Para Ti  Fresh Fruit/   Mid-Atlantic   Adjuntas     PR              00601        700       $27,300.00
                     Vegetable
                     Box
Centro Renovacion   Combination    Mid-Atlantic   Guaynabo     PR              00965        168       $16,632.00
 Y Desarrollo        Box
Centro San          Combination    Mid-Atlantic   Ponce        PR              00716        672       $66,528.00
 Francisco           Box
Centro Sol at       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224      1,050       $21,000.00
 Gallery Church      Vegetable
                     Box
Centro Sor Isolina  Combination    Mid-Atlantic   Guayama      PR              00784      1,728      $149,904.00
 Ferrer              Box
Centros Sor         Combination    Mid-Atlantic   San Juan     PR              00926        960       $83,280.00
 Isolina Ferre       Box
 Caimito
Centros Sor         Combination    Mid-Atlantic   Guayama      PR              00784      1,020       $77,460.00
 Isolina Ferre       Box
 Guayama
Centros Sor         Combination    Mid-Atlantic   Barranquita  PR              00794        672       $58,296.00
 Isolina Ferre--     Box                           s
 Ponce
Centros Sor         Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Cayey        PR              00736        576       $49,968.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Coamo        PR              00769        672       $66,528.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Guayama      PR              00784      2,112      $186,744.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Juana Diaz   PR              00795      1,344      $124,824.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Lajas        PR              00667      1,344      $124,824.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Penuelas     PR              00624        672       $66,528.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Ponce        PR              00716      6,216      $548,352.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Ponce        PR              00728        576       $49,968.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Ponce        PR              00732      5,448      $481,728.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   San Juan     PR              00921      2,646      $245,490.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   San Juan     PR              00926      3,816      $331,920.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Santa        PR              00757      1,344      $116,592.00
 Isolina Ferre--     Box                           Isabel
 Ponce
Centros Sor         Combination    Mid-Atlantic   Villalba     PR              00766      1,344      $116,592.00
 Isolina Ferre--     Box
 Ponce
Centros Sor         Combination    Mid-Atlantic   Yauco        PR              00698        672       $41,832.00
 Isolina Ferre--     Box
 Ponce
CES Coastline       Combination    North East     New Bedford  MA              02740         70        $2,322.00
 Elderly             Box
Cesar Chaves        Combination    Western        Portland     OR              97203        120        $4,200.00
 Elementary USDA     Box
Cesar Chaves        Dairy          Western        Portland     OR              97203         67        $2,010.00
 Elementary USDA     Products Box
Cesar Chaves        Fresh Fruit/   Western        Portland     OR              97203        319        $8,613.00
 Elementary USDA     Vegetable
                     Box
Cesar Chavez        Fresh Fruit/   Midwest        Detroit      MI              48209      1,680       $60,446.40
 Academy             Vegetable
                     Box
Cesar Chavez        Fresh Fruit/   Midwest        Detroit      MI              48210      1,680       $60,446.40
 Academy             Vegetable
                     Box
Cesar Chavez        Fresh Fruit/   Midwest        Detroit      MI              48228        125        $1,868.75
 Academy             Vegetable
                     Box
Cevenant            Fresh Fruit/   South East     Cleveland    MS              38732         40          $798.00
 Prebyterian         Vegetable
                     Box
CFBSAZ Tucson       Dairy          South West     Tucson       AZ              86314      7,848      $207,972.00
                     Products Box
CFBSAZ Tucson       Fresh Fruit/   South West     Tucson       AZ              85713      6,672      $145,783.20
                     Vegetable
                     Box
CFUM Children &     Fresh Fruit/   Midwest        Des Moines   IA              50314         75        $1,087.50
 Family Urban        Vegetable
                     Box
Chabad of the East  Fresh Fruit/   Western        Berkeley     CA              94703        150        $3,900.00
 Bay                 Vegetable
                     Box
Chadwick Place      Fresh Fruit/   Midwest        Marion       OH              43302        344        $5,196.00
                     Vegetable
                     Box
Chalan Pago         Fresh Fruit/   Western        Chalan Pago  Guam            96910        600       $36,000.00
 Mayor's of fice     Vegetable
                     Box
Champion Sch.       Dairy          South West     Phoenix      AZ              85042         96        $2,544.00
 South Mountain      Products Box
Champion Sch.       Fresh Fruit/   South West     Phoenix      AZ              85042        200        $4,370.00
 South Mountain      Vegetable
                     Box
Champion Schools    Dairy          South West     Chandler     AZ              85225        195        $5,167.50
 Chandler            Products Box
Champion Schools    Fresh Fruit/   South West     Chandler     AZ              85225        280        $6,118.00
 Chandler            Vegetable
                     Box
Champion Schools    Dairy          South West     San Tan      AZ              85143        150        $3,975.00
 San Tan             Products Box                  Valley
Champion Schools    Fresh Fruit/   South West     San Tan      AZ              85143        240        $5,244.00
 San Tan             Vegetable                     Valley
                     Box
Champions           Fluid Milk     South West     Houston      TX              77066      6,000       $17,520.00
 Community Church
Champions           Fresh Fruit/   South West     Houston      TX              77066      9,992      $169,764.08
 Community Church    Vegetable
                     Box
Change of           Dairy          Midwest        Cleveland    OH              44120        260        $6,500.00
 Direction           Products Box
Change of           Dairy          Midwest        Cleveland    OH              44143        520       $13,000.00
 Direction           Products Box
 Richmond
Changing Hearts     Fresh Fruit/   South East     Princeton    NC              27569        500        $5,750.00
                     Vegetable
                     Box
Changing Lives      Dairy          Midwest        Cleveland    OH              44108        130        $3,250.00
 Ministries          Products Box
Changing Your       Fresh Fruit/   South East     Rosedale     MS              38769        616       $12,289.20
 World               Vegetable
                     Box
Changing Your       Fresh Fruit/   South East     Rosedale     MS              38769      2,498       $49,835.10
 World Ministries    Vegetable
                     Box
Chapel Hill         Fresh Fruit/   South East     Chapel Hill  NC              27516        215        $3,225.00
 Carrborro City      Vegetable
 Schools             Box
Chapel Hill Public  Fresh Fruit/   South East     Chapel Hill  NC              27514        800        $9,200.00
 Housing             Vegetable
                     Box
Chapel Mobile Food  Fresh Fruit/   Midwest        North        IL              60064        350        $6,825.00
 Foss Park           Vegetable                     Chicago
                     Box
Chapman Nazarene    Fresh Fruit/   Mountain       Chapman      KS              67431        125        $5,000.00
 Church              Vegetable      Plains
                     Box
Chapman             Fresh Fruit/   South East     Miami        FL              33136        120        $2,010.00
 Partnership North   Vegetable
                     Box
Chapman             Precooked      South East     Miami        FL              33136        190        $7,150.30
 Partnership North   Meat Box
Chapman             Fresh Fruit/   South East     Homestead    FL              33033        120        $2,010.00
 Partnership South   Vegetable
                     Box
Chapman             Fresh Fruit/   South East     Miami        FL              33033         60        $1,005.00
 Partnership South   Vegetable
                     Box
Charisma Christian  Fresh Fruit/   Western        Lynnwood     WA              98036        231        $4,527.60
 Center              Vegetable
                     Box
Charity Rebuild     Dairy          South East     Rose Hill    NC              28458        180          $900.00
 Center              Products Box
Charity Rebuild     Fluid Milk     South East     Rose Hill    NC              28458        300        $1,200.00
 Center
Charity Rebuild     Fresh Fruit/   South East     Rose Hill    NC              28458      1,080       $29,700.00
 Center              Vegetable
                     Box
Charity Rebuild     Precooked      South East     Rose Hill    NC              28458        520       $10,140.00
 Center              Meat Box
Charles Drew        Fresh Fruit/   North East     Buffalo      NY              14211        375        $8,568.75
 Science Magnet      Vegetable
                     Box
Charlotte High      Dairy          Midwest        Charlotte    MI              48813        210        $5,096.70
 School              Products Box
Charlotte High      Fresh Fruit/   Midwest        Charlotte    MI              48813        350        $7,818.30
 School              Vegetable
                     Box
Charlotte High      Precooked      Midwest        Charlotte    MI              48813        280        $9,068.50
 School              Meat Box
Charlton Heston     Dairy          Midwest        St. Helen    MI              48656        300        $8,700.00
 Academy             Products Box
Charlton Heston     Fresh Fruit/   Midwest        St. Helen    MI              48656        900       $19,100.00
 Academy             Vegetable
                     Box
Charlton Sr. Cntr.  Precooked      North East     Charlton     MA              01507         25        $1,357.50
                     Meat Box
Charter School      Fresh Fruit/   Midwest        Clinton      MI              48035        200        $7,196.00
 Partners            Vegetable                     Township
                     Box
Charter School      Fresh Fruit/   Midwest        Coldwater    MI              49036        350       $12,593.00
 Partners            Vegetable
                     Box
Charter School      Fresh Fruit/   Midwest        Shepherd     MI              48883         70        $2,518.60
 Partners            Vegetable
                     Box
Charter School      Fresh Fruit/   Midwest        Westland     MI              48185        150        $5,397.00
 Partners            Vegetable
                     Box
Chase House         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21201        225        $4,713.75
                     Vegetable
                     Box
Chateaugay Central  Dairy          North East     Chateaugay   NY              12920        100        $2,400.00
 School              Products Box
Chattanooga Area    Combination    South East     Chattanooga  TN              37406      1,120       $85,176.00
 Food Bank           Box
Chattanooga Area    Fluid Milk     South East     Chattanooga  TN              37406      8,338       $31,601.02
 Food Bank
Chattanooga Area    Fresh Fruit/   South East     Chattanooga  TN              37406     11,727      $234,540.00
 Food Bank           Vegetable
                     Box
CHDC                Fresh Fruit/   Western        Richmond     CA              94801         74        $2,072.00
                     Vegetable
                     Box
Cheboygan County    Dairy          Midwest        Cheboygan    MI              49721         50        $1,450.00
 Commission          Products Box
Cheboygan County    Fresh Fruit/   Midwest        Cheboygan    MI              49721        149        $3,103.00
 Commission          Vegetable
                     Box
Cheboygan Cty Sr    Precooked      Midwest        Charlotte    MI              48813         33        $1,387.74
 Cit Feeding Prg     Meat Box
Cheboygan Cty Sr    Precooked      Midwest        Cheboygan    MI              49721         16          $510.66
 Cit Feeding Prg     Meat Box
Cheektowaga         Fresh Fruit/   North East     Cheektowaga  NY              14225         35          $799.75
 Outreach Center     Vegetable
                     Box
Cheektowaga Sloan   Fresh Fruit/   North East     Cheektowaga  NY              14206        500       $11,425.00
 Schools             Vegetable
                     Box
Cheer Inc.          Dairy          Mid-Atlantic   Georgetown   DE              19947        390       $13,158.60
                     Products Box
Cheer Inc.          Fluid Milk     Mid-Atlantic   Georgetown   DE              19947        311       $10,076.40
Cheer Inc.          Fresh Fruit/   Mid-Atlantic   Georgetown   DE              19947        360        $8,272.80
                     Vegetable
                     Box
Cheer Inc.          Precooked      Mid-Atlantic   Georgetown   DE              19947        300       $21,342.00
                     Meat Box
Chefs for Kids      Fresh Fruit/   Western        Las Vegas    Nv              89123      5,756      $155,412.00
                     Vegetable
                     Box
Chelsea             Fresh Fruit/   North East     Chelsea      MA              02150      6,272      $137,670.40
 Collaborative       Vegetable
                     Box
Chelsea Mary C.     Fresh Fruit/   North East     Chelsea      MA              02150        224        $4,916.80
 Burke Sch.          Vegetable
                     Box
Chelsea Salvation   Fresh Fruit/   North East     Chelsea      MA              02150      5,560      $158,126.40
 Army                Vegetable
                     Box
Chelsea Schools     Fresh Fruit/   Midwest        Chelsea      MI              48118        768       $27,632.64
                     Vegetable
                     Box
Chelsea Williams    Fresh Fruit/   North East     Chelsea      MA              02150        336        $7,375.20
 Middle School       Vegetable
                     Box
Chelsey COA         Combination    North East     Chelsea      MA              02150         40        $1,520.00
                     Box
Chelsey COA         Precooked      North East     Chelsea      MA              02150         40        $2,172.00
                     Meat Box
Cherith Brook       Fluid Milk     Mountain       Moberly      MO              65270        750        $1,687.50
                                    Plains
Cherokee Nation     Combination    South West     Tahlequah    OK              74464      1,440       $50,356.80
 Tahlequah           Box
Cherokee Nation     Dairy          South West     Tahlequah    OK              74464      1,056       $48,322.56
 Tahlequah           Products Box
Cherokee Nation     Fluid Milk     South West     Tahlequah    OK              74464      4,455      $106,652.70
 Tahlequah
Cherokee Nation     Fresh Fruit/   South West     Tahlequah    OK              74464      4,901       $92,851.30
 Tahlequah           Vegetable
                     Box
Cherokee Nation     Dairy          South West     Cherry Tree  OK              74960      1,056       $48,322.56
 USDA                Products Box
Cherokee Nation     Dairy          South West     Stillwell    OK              74965      1,056       $48,322.56
 USDA                Products Box
Cherokee Nation     Fluid Milk     South West     Westville    OK              74955        514       $12,305.16
 USDA
Cherokee Nation     Fresh Fruit/   South West     Westville    OK              74955        539       $12,558.70
 USDA                Vegetable
                     Box
Cherokee Nation     Fresh Fruit/   South West     Cherry Tree  OK              74960        294        $5,615.40
 USDA                Vegetable
                     Box
Cherokee Nation     Fresh Fruit/   South West     Stillwell    OK              74965      1,595       $22,801.90
 USDA                Vegetable
                     Box
Cherokee Nation     Fresh Fruit/   South West     Westville    OK              74965        576        $5,587.20
 USDA                Vegetable
                     Box
Cherry Hill Food    Fresh Fruit/   Mid-Atlantic   Cherry Hill  NJ              08002      1,386       $26,264.70
 and Outreach        Vegetable
                     Box
Cherry Hill Food    Fresh Fruit/   Mid-Atlantic   Cherry Hill  NJ              08034        504        $9,550.80
 and Outreach        Vegetable
                     Box
Cherry Hill Homes   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21225      1,958       $39,500.10
                     Vegetable
                     Box
Cherry St. General  Dairy          Midwest        Carmi        IL              62821         50        $1,487.50
 Baptist             Products Box
Cherry St. General  Fresh Fruit/   Midwest        Carmi        IL              62821         90        $2,475.00
 Baptist             Vegetable
                     Box
Cherry Street       Dairy          Midwest        Toledo       OH              43604        480       $11,649.60
 Mission             Products Box
 Ministries--CA
Cherry Street       Fresh Fruit/   Midwest        Toledo       OH              43604        600       $12,322.08
 Mission             Vegetable
 Ministries--CA      Box
Cherry Street       Precooked      Midwest        Toledo       OH              43604        524       $22,171.62
 Mission             Meat Box
 Ministries--CA
Chesapeake Cares    Fresh Fruit/   Mid-Atlantic   Huntingtown  MD              20639        950       $19,570.00
                     Vegetable
                     Box
Chester County      Dairy          Mid-Atlantic   Exton        PA              19341      4,040       $64,640.00
 Food Bank           Products Box
Chester County      Fresh Fruit/   Mid-Atlantic   Exton        PA              19341      6,687      $138,499.38
 Food Bank           Vegetable
                     Box
Chester County      Precooked      Mid-Atlantic   Exton        PA              19341      1,274       $52,157.56
 Food Bank           Meat Box
Chesterfield Food   Dairy          Mid-Atlantic   Chester      VA              23831      4,160      $141,689.60
 Bank                Products Box
Chestnut Assembly   Fluid Milk     Mid-Atlantic   Vineland     NJ              08361        690       $16,269.60
 of God
Chestnut Assembly   Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08361      1,080       $24,818.40
 of God              Vegetable
                     Box
Chestnut Assembly   Precooked      Mid-Atlantic   Vineland     NJ              08361        180       $11,133.00
 of God              Meat Box
Chestnut Comm.      Fluid Milk     Midwest        Terre Haute  IN              47807        360          $810.00
Cheyenne and        Combination    South West     Watonga      OK              73772      1,440       $50,356.80
 Arapaho Tribes      Box
Cheyenne and        Fluid Milk     South West     Watonga      OK              73772        495       $11,850.30
 Arapaho Tribes
Cheyenne and        Fresh Fruit/   South West     Watonga      OK              73772      2,499       $47,730.90
 Arapaho Tribes      Vegetable
                     Box
Cheyenne County     Fresh Fruit/   Mountain       Goodland     KS              67735      1,760       $45,584.00
 Health Dept         Vegetable      Plains
                     Box
Chicago Chesed      Fresh Fruit/   Midwest        Chicago      IL              60712        500       $14,375.00
 Fund                Vegetable
                     Box
Chicago Chesed      Fresh Fruit/   Midwest        Lincolnwood  IL              60712        500       $14,375.00
 Fund                Vegetable
                     Box
Chicago Collegiate  Combination    Midwest        Chicago      IL              60628         55        $3,694.90
 Charter School      Box
Chicago Collegiate  Dairy          Midwest        Chicago      IL              60628        100        $6,515.00
 Charter School      Products Box
Chicago Collegiate  Fresh Fruit/   Midwest        Chicago      IL              60628        255       $16,335.30
 Charter School      Vegetable
                     Box
Chicago Colleigate  Fresh Fruit/   Midwest        Chicago      IL              60628         55        $3,523.30
 Charter School      Vegetable
                     Box
Chicago Heights     Fresh Fruit/   Midwest        Chicago      IL              60411        252        $9,066.96
 Park District       Vegetable                     Heights
                     Box
Chicago Jesuit      Combination    Midwest        Chicago      IL              60644        360       $24,184.80
 Academy             Box
Chicago Jesuit      Fresh Fruit/   Midwest        Chicago      IL              60644        360       $23,061.60
 Academy             Vegetable
                     Box
Chicago Jesuit      Combination    Midwest        Chicago      IL              60644        360       $24,184.80
 Academy Cja         Box
Chicago Jesuit      Dairy          Midwest        Chicago      IL              60644         50        $3,257.50
 Academy Cja         Products Box
Chicago--Chesed--F  Fresh Fruit/   Midwest        Lincolnwood  IL              60712        500       $14,375.00
 und                 Vegetable
                     Box
Chicanos Por LA     Fluid Milk     South West     Phoenix      AZ              85009        144          $676.80
 Cause
Chico North State   Fresh Fruit/   Western        Chico        CA              95928        784       $15,562.40
 Food Bank           Vegetable
                     Box
Child Hunger        Fresh Fruit/   Mid-Atlantic   Towanda      PA              18848      4,000      $100,000.00
 Outreach Program    Vegetable
                     Box
Childhaven          Fresh Fruit/   South East     Cullman      AL              35056         42        $1,050.00
                     Vegetable
                     Box
Childnet Youth and  Combination    Western        Long Beach   CA              90804        576       $22,579.20
 Family Services     Box
Children of the     Fresh Fruit/   South East     Bellamy      AL              36901      2,700       $70,065.00
 Village             Vegetable
                     Box
Children's Bureau-- Combination    Western        Los Angeles  CA              90007        200        $5,450.00
 Magnolia Pla.       Box
Children's Hunger   Combination    Western        Sylmar       CA              91342      2,800       $76,300.00
 Fund                Box
Children's Hunger   Fluid Milk     Western        Sylmar       CA              91342      9,408       $36,577.92
 Fund
Children's Hunger   Fresh Fruit/   Western        Sylmar       CA              91342        848       $20,988.00
 Fund                Vegetable
                     Box
Childrens Hunger    Combination    South West     Corpus       TX              78412      1,200       $41,964.00
 Fund Corpus         Box                           Christi
 Christi
Childrens Hunger    Fresh Fruit/   South West     Corpus       TX              78412      1,280       $21,747.20
 Fund Corpus         Vegetable                     Christi
 Christi             Box
Childrens Hunger    Fresh Fruit/   South West     Corpus       TX              78415      1,820       $42,406.00
 Fund Corpus         Vegetable                     Christi
 Christi             Box
Childrens Hunger    Fluid Milk     South West     Edinburg     TX              78542      2,052       $49,124.88
 Fund Edinburg
Childrens Hunger    Fresh Fruit/   South West     Edinburg     TX              78542      3,100       $64,153.20
 Fund Edinburg       Vegetable
                     Box
Childrens Hunger    Fluid Milk     South West     Laredo       TX              78045      2,052       $49,124.88
 Fund Laredo
Childrens Hunger    Fresh Fruit/   South West     Laredo       TX              78045      4,660      $100,501.20
 Fund Laredo         Vegetable
                     Box
Childrens Hunger    Dairy          South West     Dallas       TX              75217        700       $32,032.00
 Fund San Antonio    Products Box
Childrens Hunger    Dairy          South West     San Antonio  TX              78219      1,973       $90,284.48
 Fund San Antonio    Products Box
Childrens Hunger    Fresh Fruit/   South West     Dallas       TX              75217      1,200       $27,960.00
 Fund San Antonio    Vegetable
                     Box
Childrens Hunger    Fresh Fruit/   South West     Dallas       TX              75229      1,600       $26,800.00
 Fund San Antonio    Vegetable
                     Box
Childrens Hunger    Fresh Fruit/   South West     San Antonio  TX              78218      1,840       $39,344.00
 Fund San Antonio    Vegetable
                     Box
Childrens Hunger    Fresh Fruit/   South West     San Antonio  TX              78219     10,800      $163,316.80
 Fund San Antonio    Vegetable
                     Box
Childrens Mercy     Fresh Fruit/   Mountain       Kansas City  MO              64111        240        $6,216.00
 Broadway            Vegetable      Plains
                     Box
Childrens Mercy     Fresh Fruit/   Mountain       Kansas City  KS              66102        440       $11,396.00
 West                Vegetable      Plains
                     Box
Children's          Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        140        $4,536.00
 Playhouse                                         a
Children's Table    Combination    South East     Bronson      FL              32621      5,376      $408,844.80
                     Box
Children's Table    Fresh Fruit/   South East     Bronson      FL              32621      3,024       $74,088.00
                     Vegetable
                     Box
Children's Table    Fresh Fruit/   South East     Chiefland    FL              32626      1,512       $37,044.00
                     Vegetable
                     Box
Childresn Mercy-    Fresh Fruit/   Mountain       Independenc  MO              64057        240        $6,216.00
 East                Vegetable      Plains         e
                     Box
Chilhowee Hills     Fresh Fruit/   South East     Knoxville    TN              37914        200        $4,000.00
 Baptist Church      Vegetable
                     Box
Chillicothe Food    Precooked      Mountain       Chillicothe  MO              64601         17          $765.00
 Cooperative         Meat Box       Plains
Chippewa Hills      Fresh Fruit/   Midwest        Remus        MI              49340        375        $7,865.00
 High School         Vegetable
                     Box
Chirst Love Dev./   Fresh Fruit/   Mountain       St. Louis    MO              63136        180        $5,760.00
 Stl Food Bank       Vegetable      Plains
                     Box
Chisolm Community   Fresh Fruit/   South East     Tuskegee     AL              36083        840       $21,798.00
 Center              Vegetable
                     Box
Chispa              Fresh Fruit/   Western        Castroville  CA              95012        456        $7,752.00
                     Vegetable
                     Box
Chocolate Mint      Fluid Milk     South West     Desoto       TX              75115      1,296        $3,784.32
 Foundation
Chocolate Mint      Fresh Fruit/   South West     Desoto       TX              75115      3,232       $54,911.68
 Foundation          Vegetable
                     Box
Choctaw County      Dairy          South East     Ackerman     MS              39735        160        $4,492.80
 Food Minis          Products Box
Choctaw County      Fresh Fruit/   South East     Ackerman     MS              39735        192        $3,244.80
 Food Minis          Vegetable
                     Box
Choctaw County      Precooked      South East     Ackerman     MS              39735        504       $20,694.24
 Food Minis          Meat Box
Chop                Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19145        700       $14,000.00
                     Vegetable                     a
                     Box
Chop S. Philly      Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134        340        $6,800.00
 Karabots Cobb's     Vegetable                     a
 Creek               Box
Chop S. Philly      Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19154        356        $7,120.00
 Karabots Cobb's     Vegetable                     a
 Creek               Box
Chosen 300          Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134        560       $11,200.00
                     Vegetable                     a
                     Box
Chosen Tabernacle   Precooked      Midwest        Chicago      IL              60653        792       $64,247.04
                     Meat Box
Chris 180           Fresh Fruit/   South East     Atlanta      GA              30315      4,840       $96,800.00
                     Vegetable
                     Box
Chris 180           Fresh Fruit/   South East     Atlanta      GA              30318      3,150       $59,661.00
                     Vegetable
                     Box
Chris Howell        Precooked      South West     Dallas       TX              75241        839       $86,542.85
 Foundation          Meat Box
Chris Howell        Dairy          South West     Hutchens     TX              75141        545       $24,939.20
 Foundation          Products Box
 Pathway
Christ Apostolic    Fresh Fruit/   Midwest        Des Moines   IA              50313         50          $725.00
 Church              Vegetable
                     Box
Christ Church at    Fresh Fruit/   South East     Greenville   SC              29601        302        $9,060.00
 Sterling CC         Vegetable
                     Box
Christ Church Fort  Dairy          South West     Fort Worth   TX              76123      1,000       $45,760.00
 Worth               Products Box
Christ Church Fort  Fresh Fruit/   South West     Fort Worth   TX              76123      1,000       $23,300.00
 Worth               Vegetable
                     Box
Christ Church       Fresh Fruit/   Midwest        Kettering    OH              45429        640       $12,480.00
 United              Vegetable
                     Box
Christ Evangelical  Fresh Fruit/   Midwest        Chicago      IL              60651        126        $4,533.48
                     Vegetable
                     Box
Christ Evangelical  Precooked      Midwest        Chicago      IL              60651        216       $17,521.92
                     Meat Box
Christ First        Fresh Fruit/   South East     Snellville   GA              30039      1,400       $26,516.00
 Community Church    Vegetable
                     Box
Christ First        Combination    Mountain       Bonner       KS              66012        540       $18,883.80
 Pantry of Hope      Box            Plains         Springs
Christ First        Dairy          Mountain       Bonner       KS              66012        480       $21,964.80
 Pantry of Hope      Products Box   Plains         Springs
Christ First        Fresh Fruit/   Mountain       Bonner       KS              66012        960       $17,046.00
 Pantry of Hope      Vegetable      Plains         Springs
                     Box
Christ General      Fresh Fruit/   South East     Rainbowcity  AL              35906        600       $15,570.00
                     Vegetable
                     Box
Christ Haven        Combination    South West     Grapevine    TX              76051         15          $524.55
 Compass             Box
Christ Haven        Dairy          South West     Grapevine    TX              76051         10          $457.60
 Compass             Products Box
Christ Haven        Fresh Fruit/   South West     Grapevine    TX              76051         20          $194.00
 Compass             Vegetable
                     Box
Christ Our Savior   Fresh Fruit/   Midwest        Livonia      MI              48154         10          $287.50
 Lutheran            Vegetable
                     Box
Christ the King     Fresh Fruit/   Midwest        Southgate    MI              48195        100        $2,875.00
                     Vegetable
                     Box
Christ the King     Combination    Western        Milwaukie    OR              97222        600       $21,000.00
 Cath. Churh.        Box
Christ the King     Dairy          Western        Milwaukie    OR              97222      1,660       $49,800.00
 Cath. Churh.        Products Box
Christ the King     Fresh Fruit/   Western        Milwaukie    OR              97222      1,200       $32,400.00
 Cath. Churh.        Vegetable
                     Box
Christ the King     Fresh Fruit/   South East     Southaven    MS              38651        560       $11,172.00
 Catholic Church     Vegetable
                     Box
Christ the King     Fresh Fruit/   Mid-Atlantic   Windsor      MD              21244        315        $5,969.25
 Church              Vegetable                     Mill
                     Box
Christ the King--   Fresh Fruit/   Mid-Atlantic   Long Branch  NJ              07740      1,210       $24,200.00
 Long Branch         Vegetable
                     Box
Christ the          Fresh Fruit/   South East     Pendleton    SC              29670        200        $6,000.00
 Redeemer Anglican   Vegetable
                     Box
Christen Helping    Fluid Milk     South West     Pearland     TX              77581        400        $1,168.00
 Ha.
Christian APPA      Fluid Milk     South East     Corbin       KY              40701     21,600       $81,864.00
 Proj.
Christian Assmly    Dairy          South East     Grump        TN              38327        240        $6,000.00
 United Pent         Products Box
Christian Caring    Fresh Fruit/   Mid-Atlantic   Browns       NJ              08015        630       $11,938.50
 Center              Vegetable                     Mills
                     Box
Christian Center    Fresh Fruit/   South West     Mesquite     TX              75181        320        $5,436.80
 of Mesquite         Vegetable
                     Box
Christian Chamber   Dairy          Mid-Atlantic   New Castle   PA              16101      3,000       $43,830.00
 of Commerce         Products Box
Christian Chamber   Fluid Milk     Mid-Atlantic   New Castle   PA              16101     23,400       $41,886.00
 of Commerce
Christian Chamber   Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        240        $7,200.00
 of Commerce         Vegetable
                     Box
Christian Chamber   Fresh Fruit/   Mid-Atlantic   New Castle   PA              16105        400       $12,000.00
 of Commerce         Vegetable
                     Box
Christian Co. High  Fluid Milk     South East     Hopkinsvill  KY              42241      1,953        $4,394.25
                                                   e
Christian Co.       Fluid Milk     South East     Hopkinsvill  KY              42241        225          $506.25
 Senior Citz.                                      e
Christian           Fluid Milk     South West     Lewisville   TX              75057      3,432       $10,021.44
 Community Action
Christian           Fresh Fruit/   South West     Lewisville   TX              75057      1,280       $21,747.20
 Community Action    Vegetable
                     Box
Christian           Fresh Fruit/   Mid-Atlantic   Mount Holly  NJ              08060        504        $9,550.80
 Community Center    Vegetable
                     Box
Christian           Fresh Fruit/   North East     Johnston     RI              02911        896       $19,667.20
 Community Church    Vegetable
                     Box
Christian           Fresh Fruit/   North East     North        RI              02911      1,792       $39,334.40
 Community Church    Vegetable                     Providence
                     Box
Christian Ctr.      Dairy          North East     Madrid       NY              13660        237       $10,238.40
 Food Pantry         Products Box
Christian Ctr.      Fresh Fruit/   North East     Madrid       NY              13660        420        $9,240.00
 Food Pantry         Vegetable
                     Box
Christian Ctr.      Precooked      North East     Madrid       NY              13660        231       $12,381.60
 Food Pantry         Meat Box
Christian Cultural  Fresh Fruit/   South East     Fort         FL              33303        218        $2,616.00
 Development         Vegetable                     Lauderdale
 Foundation Inc.     Box
Christian Family    Dairy          Midwest        Cleveland    OH              44108         65        $1,625.00
 Outreach            Products Box
Christian           Fluid Milk     South East     Tylertown    MS              39667        720        $2,728.80
 Fellowship
Christian Food      Fluid Milk     South East     Madisonvill  KY              42431      2,250        $5,062.50
 Bank                                              e
Christian Gospel    Fresh Fruit/   Midwest        Detroit      MI              48221      1,000       $14,950.00
 Center              Vegetable
                     Box
Christian Help      Combination    South East     Casselberry  FL              32707      2,240      $170,352.00
                     Box
Christian Help      Fresh Fruit/   South East     Roxboro      NC              27573        540        $6,210.00
 Center              Vegetable
                     Box
Christian Info.     Fluid Milk     South West     Lufkin       TX              75904      1,712        $5,124.32
 Serv.
Christian Life      Fluid Milk     South East     Rex          GA              30273         80          $319.20
 Cent.
Christian Life      Fresh Fruit/   Mid-Atlantic   Riverdale    MD              20737      3,350       $67,000.00
 Center              Vegetable
                     Box
Christian Life      Fresh Fruit/   Mountain       Farmington   MO              63640      1,498       $41,195.00
 Church              Vegetable      Plains
                     Box
Christian Life      Fresh Fruit/   Mountain       Potosi       MO              63664        300        $8,250.00
 Church              Vegetable      Plains
                     Box
Christian Life      Fresh Fruit/   South East     Bartlett     TN              38133      1,026       $25,137.00
 Tabernacle--C/O     Vegetable
 Mid South Food      Box
 Bank
Christian           Fresh Fruit/   Mountain       Billings     MO              65610      3,520       $91,168.00
 Ministries          Vegetable      Plains
 Southwest MO        Box
Christian Mission   Fluid Milk     South East     Enterprise   AL              36330      1,296        $5,132.64
Christian Outreach  Combination    Western        Long Beach   CA              90802      1,920       $66,758.40
 In Action           Box
Christian Outreach  Fluid Milk     Western        Long Beach   CA              90802      1,050        $7,980.00
 In Action
Christian Outreach  Fresh Fruit/   Western        Long Beach   CA              90802        480       $12,000.00
 In Action           Vegetable
                     Box
Christian Service   Fresh Fruit/   South East     Gulf Shores  AL              36542        300        $8,700.00
 Center              Vegetable
                     Box
Christian Service   Dairy          Midwest        Niles        MI              49120         65        $1,885.00
 Center of Niles     Products Box
Christian Service   Fresh Fruit/   Midwest        Niles        MI              49120        585       $12,362.50
 Center of Niles     Vegetable
                     Box
Christian Service   Fluid Milk     South East     Hattiesburg  MS              39401        768        $5,637.12
 Inc.
Christian Service   Fresh Fruit/   South East     Birmingham   AL              35222      9,020      $234,069.00
 Mission             Vegetable
                     Box
Christian Services  Fluid Milk     South East     Hattiesburg  MS              39401        900        $3,447.00
Christian Services  Dairy          South East     Hattiesburg  MS              39401      2,560       $71,884.80
 Inc.                Products Box
Christian Services  Fluid Milk     South East     Hattiesburg  MS              39401        768        $5,637.12
 Inc.
Christian Services  Precooked      South East     Hattiesburg  MS              39401      2,016       $82,776.96
 Inc.                Meat Box
Christian Services  Dairy          South East     Hattiesburg  MS              39401        278        $7,806.24
 Inc.                Products Box
Christian Services  Fluid Milk     South East     Hattiesburg  MS              39401      1,920       $14,092.80
 Inc.
Christian Services  Fresh Fruit/   South East     Hattiesburg  MS              39401      2,898       $48,976.20
 Inc.                Vegetable
                     Box
Christian Services  Precooked      South East     Hattiesburg  MS              39401        180        $7,390.80
 Inc.                Meat Box
Christian Services  Combination    South East     Hattiesburg  MS              39401        800       $24,416.00
 Inc.                Box
Christian Services  Dairy          South East     Hattiesburg  MS              39401      4,560      $128,044.80
 Inc.                Products Box
Christian Services  Fluid Milk     South East     Hattiesburg  MS              39401      7,296       $53,552.64
 Inc.
Christian Services  Fresh Fruit/   South East     Hattiesburg  MS              39401      4,240       $71,656.00
 Inc.                Vegetable
                     Box
Christian Services  Precooked      South East     Hattiesburg  MS              39401     17,112      $702,618.72
 Inc.                Meat Box
Christian           Dairy          South West     Dallas       TX              75228      1,500       $68,640.00
 Stronghold CDC      Products Box
 Services of Hope
Christian           Fresh Fruit/   South West     Dallas       TX              75228      1,100       $22,900.00
 Stronghold Cdc      Vegetable
 Services of Hope    Box
Christian Svcs.     Fluid Milk     South West     Abbeville    LA              70510      1,000        $2,949.00
 Ctr.
Christian           Fresh Fruit/   Midwest        Southfield   MI              48033        200        $2,990.00
 Tabernacle          Vegetable
                     Box
Christian United    Fluid Milk     South East     Sanford      NC              27332        864        $3,447.36
 OU
Christians in       Dairy          Midwest        Olmsted      OH              44138         90        $2,169.00
 Action              Products Box                  Falls
Christians in       Fresh Fruit/   Midwest        Olmsted      OH              44138        130        $3,445.00
 Action              Vegetable                     Falls
                     Box
Christie            Fresh Fruit/   South West     Plano        TX              75023        768       $13,048.32
 Elementary          Vegetable
                     Box
Christina Seix      Fresh Fruit/   Mid-Atlantic   Trenton      NJ              08618        140        $2,800.00
 Academy             Vegetable
                     Box
Christos Center     Fluid Milk     Mountain       Moberly      MO              65270        698        $1,570.50
                                    Plains
Christs Table       Fresh Fruit/   Midwest        Zanesville   OH              43701        768       $14,976.00
                     Vegetable
                     Box
Christy House       Precooked      Midwest        Warren       OH              44483        360       $16,164.00
                     Meat Box
Chuckey Elementary  Fluid Milk     South East     Chuckey      TN              37641        300        $1,137.00
Chulahoma Church--  Fresh Fruit/   South East     Holly        MS              38635        648       $15,876.00
 C/O Mid South       Vegetable                     Springs
 Food Bank           Box
Church 180          Combination    Midwest        Seaman       OH              45679      1,620      $100,634.40
                     Box
Church 180          Dairy          Midwest        Seaman       OH              45679        648       $16,200.00
                     Products Box
Church 180          Fluid Milk     Midwest        Seaman       OH              45679      1,684        $6,031.52
Church 180          Fresh Fruit/   Midwest        Seaman       OH              45679      1,212       $23,963.00
                     Vegetable
                     Box
Church and          Fluid Milk     South East     Kissimmee    FL              34741        164          $629.56
 Communit.
Church at Chapel    Fresh Fruit/   South East     East Point   GA              30344        250        $5,000.00
 Hill                Vegetable
                     Box
Church at the Park  Fresh Fruit/   South East     Durham       NC              27703        200        $2,300.00
                     Vegetable
                     Box
Church Council      Combination    Western        Seattle      WA              98108        381       $13,335.00
 Great. Sea.         Box
Church Council      Dairy          Western        Seattle      WA              98108        201        $6,030.00
 Great. Sea.         Products Box
Church Council      Fresh Fruit/   Western        Seattle      WA              98108        140        $3,780.00
 Great. Sea.         Vegetable
                     Box
Church of           Fresh Fruit/   Mid-Atlantic   Lexington    MD              20653        300        $6,285.00
 Ascension           Vegetable                     Park
                     Box
Church of Christ    Dairy          South East     Byram        MS              39272        240        $6,739.20
                     Products Box
Church of Christ    Fresh Fruit/   Midwest        Detroit      MI              48221        400       $11,500.00
                     Vegetable
                     Box
Church of           Fluid Milk     Mid-Atlantic   Philadelphi  PA              19143         35        $1,134.00
 Christian                                         a
 Compassion/Cff
Church of           Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19143         72        $1,654.56
 Christian           Vegetable                     a
 Compassion/Cff      Box
Church of God       Fresh Fruit/   South East     Hattisburg   MS              39465      2,270       $62,425.00
                     Vegetable
                     Box
Church of God &     Dairy          Midwest        Cleveland    OH              44105         65        $1,625.00
 Saints of Christ    Products Box
Church of God Food  Fresh Fruit/   Mountain       Bismarck     MO              63624      1,950       $53,625.00
 Pantry              Vegetable      Plains
                     Box
Church of God of    Fluid Milk     Mid-Atlantic   Northfield   NJ              08225        140        $4,536.00
 Prophecy
Church of God of    Fresh Fruit/   South East     Winter       FL              33880      1,512       $37,044.00
 the Bible           Vegetable                     Haven
                     Box
Church of Hope      Fresh Fruit/   South East     Palmetto     FL              34221        558       $12,276.00
                     Vegetable
                     Box
Church of           Combination    South West     Dallas       TX              75204      1,000       $34,970.00
 Incarnation         Box
Church of           Dairy          South West     Dallas       TX              75204      1,400       $64,064.00
 Incarnation         Products Box
Church of Jesus     Fresh Fruit/   Western        Wenatchee    WA              98802      1,862       $26,626.60
 Christ Latter Day   Vegetable
 Saints              Box
Church of Jesus     Fresh Fruit/   Western        East         WA              98802     28,322      $408,281.72
 Christ of Latter    Vegetable                     Wenatchee
 Day Saints          Box
Church of Jesus     Fresh Fruit/   Western        Visalia      CA              93277      1,044       $22,968.00
 Christ of Latter    Vegetable
 Day Saints          Box
Church of Jesus     Fresh Fruit/   Western        Redlands     CA              92373      1,344       $32,928.00
 Christ of Latter-   Vegetable
 Day Saints Redlan   Box
Church of Jesus     Fluid Milk     Western        Hilo         HI              96720     10,211       $42,681.98
 Christ of LDS
Church of Latter    Fresh Fruit/   Western        Redlands     CA              92373      5,376      $131,712.00
 Day Saints          Vegetable
 Redlands Unified    Box
 School
Church of Living    Fluid Milk     Midwest        Cincinnati   OH              45229        180          $597.60
 Go
Church of           Fresh Fruit/   South West     Houston      TX              77040        864       $14,679.36
 Northwest           Vegetable
 Crossing            Box
Church of the       Fresh Fruit/   South East     Corinth      MS              38834      1,026       $25,137.00
 Crosswords--C/O     Vegetable
 Mid South Food      Box
 Bank
Church of the       Fresh Fruit/   South East     Birmingham   AL              35210        180        $4,671.00
 Highland Grants     Vegetable
 Mill                Box
Church of the       Fresh Fruit/   South East     Oxford       AL              36203        140        $3,633.00
 Highland Oxford     Vegetable
                     Box
Church of the       Fresh Fruit/   South East     Huntsville   AL              35805      1,310       $33,994.50
 Highlands           Vegetable
 Huntsville          Box
Church of the Holy  Fresh Fruit/   Midwest        Schamburg    IL              60194        504       $18,133.92
 Spirit              Vegetable
                     Box
Church of the Holy  Fresh Fruit/   Midwest        Shaumburg    IL              60194        252        $9,066.96
 Spirit              Vegetable
                     Box
Church of the Holy  Fresh Fruit/   Midwest        Highland     MI              48356         50        $1,437.50
 Spirit              Vegetable
                     Box
Church of the Holy  Precooked      Midwest        Schaumburg   IL              60194        432       $35,043.84
 Spirit              Meat Box
Church of the       Dairy          South West     Phoenix      AZ              85012        342        $9,063.00
 Nation              Products Box
Church of the       Fresh Fruit/   South West     Phoenix      AZ              85012        376        $8,215.60
 Nation              Vegetable
                     Box
Church of the Open  Fresh Fruit/   Midwest        Elyria       OH              44035      4,240       $84,672.80
 Door                Vegetable
                     Box
Church of the       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19061         35        $1,134.00
 Overseerer/Cff                                    a
Church of the       Fluid Milk     Mid-Atlantic   Trainer      PA              19061        105        $3,402.00
 Overseerer/Cff
Church of the       Combination    Western        Tualatin     OR              97062      3,017      $105,595.00
 Resurrection        Box
Church of the       Dairy          Western        Tualatin     OR              97062      2,305       $69,150.00
 Resurrection        Products Box
Church of the       Fresh Fruit/   Western        Tualatin     OR              97062        840       $22,680.00
 Resurrection        Vegetable
                     Box
Church on Fire      Fluid Milk     Midwest        Harrison     OH              45030      3,500       $14,000.00
Church on Fire      Fresh Fruit/   Midwest        Harrison     OH              45030      1,024       $19,968.00
                     Vegetable
                     Box
Church on Fire      Dairy          Midwest        Cicero       IL              60804        500       $12,500.00
 Internatinl. Box    Products Box
Church on Fire      Precooked      Midwest        Cicero       IL              60804        576       $46,725.12
 International       Meat Box
Church on Firse     Fresh Fruit/   Midwest        Cicero       IL              60804        630       $22,667.40
 International       Vegetable
                     Box
Church on the       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21230        200        $4,190.00
 Boulevard           Vegetable
                     Box
Church on the Hill  Fresh Fruit/   South West     Hillsboro    TX              76645      3,048       $51,785.52
                     Vegetable
                     Box
Church on the Move  Dairy          South West     Broken       OK              74012      1,056       $48,322.56
                     Products Box                  Arrow
Church on the Move  Dairy          South West     Glenpool     OK              74033        576       $26,357.76
                     Products Box
Church on the Move  Fresh Fruit/   South West     Glenpool     OK              74033        576        $5,587.20
                     Vegetable
                     Box
Church out of       Fresh Fruit/   South West     Ruidoso      NM              88345      1,560       $29,796.00
 Church              Vegetable
                     Box
Church Project      Dairy          South West     Conroe       TX              77385      1,000       $45,760.00
                     Products Box
Church That         Combination    South West     Sand         OK              74063      5,376      $187,998.72
 Matters             Box                           Springs
Church That         Dairy          South West     Sand         OK              74063      2,784      $127,395.84
 Matters             Products Box                  Springs
Church That         Fluid Milk     South West     Cleveland    OK              74020        990       $23,700.60
 Matters
Church That         Fluid Milk     South West     Sand         OK              74063      4,290      $102,702.60
 Matters                                           Springs
Church That         Fluid Milk     South West     Coweta       OK              74429        990       $23,700.60
 Matters
Church That         Fresh Fruit/   South West     Sand         OK              74063     11,561      $182,704.90
 Matters             Vegetable                     Springs
                     Box
Church Under the    Fresh Fruit/   South West     San Antonio  TX              78202        270        $6,750.00
 Bridge              Vegetable
                     Box
Church United Comm  Fluid Milk     South West     Saint James  LA              70086        624        $1,837.16
Church Unlimited    Fresh Fruit/   South West     Corpus       TX              78408        500       $12,500.00
 Westside            Vegetable                     Christi
                     Box
Church Without      Combination    Western        Patterson    CA              95363        210       $11,012.40
 Walls               Box
Church Without      Fresh Fruit/   Western        Patterson    CA              95363        154        $4,147.22
 Walls               Vegetable
                     Box
Church Without      Combination    South West     Houston      TX              77084        600       $20,982.00
 Walls Brighter      Box
 Bites
Church Without      Fresh Fruit/   South West     Houston      TX              77084      1,752       $25,392.48
 Walls Brighter      Vegetable
 Bites               Box
Church/Living God/  Fresh Fruit/   Midwest        Fairview     IL              62208        180        $5,760.00
 STL Food Bnk        Vegetable                     Heights
                     Box
Churches Assisting  Fluid Milk     South East     Conway       SC              29526        600        $2,333.20
Churches in         Combination    Midwest        Martinsvill  IN              46151        833      $124,950.00
 Mission             Box                           e
Churches in         Combination    Midwest        Mooresville  IN              46158        617       $92,550.00
 Mission             Box
Churches United     Dairy          South East     Pontotoc     MS              38863        540       $13,500.00
 Food Bank           Products Box
Churchestouches     Fresh Fruit/   South West     Temple       TX              76504      1,080       $18,349.20
 Lives for Chri.     Vegetable
                     Box
Churchome Kirkland  Fresh Fruit/   Western        Kirkland     WA              98033      1,685       $29,780.34
                     Vegetable
                     Box
Cicero School       Fresh Fruit/   Midwest        Cicero       IL              60804      1,008       $36,267.84
 District            Vegetable
                     Box
Cicero School       Precooked      Midwest        Cicero       IL              60804      1,008       $81,768.96
 District            Meat Box
Cincinnati Public   Fresh Fruit/   Midwest        Cincinnati   OH              45206      1,336       $18,492.00
 Schools Warehouse   Vegetable
                     Box
Cinco Baptist       Fresh Fruit/   South East     Pensacola    FL              32504        200        $5,800.00
 Church Ft Walton    Vegetable
 Beac                Box
Cinco Baptist       Fresh Fruit/   South East     Fort Walton  FL              32548      1,000       $29,000.00
 Church Ft Walton    Vegetable                     Beach
 Beach               Box
Circle Food Pantry  Fluid Milk     Mid-Atlantic   Washington   PA              15301         28          $340.20
CIS Dearborn at     Fresh Fruit/   Midwest        Dearborn     MI              48126        300        $4,485.00
 Ford Performing     Vegetable
                     Box
Citadel of Faith    Dairy          Midwest        Maple        OH              44137        260        $6,500.00
 Ministries          Products Box                  Heights
Citadel of Praise   Fresh Fruit/   Midwest        Detroit      MI              48223      1,354       $30,841.42
                     Vegetable
                     Box
Citizen Concerned   Combination    Midwest        Michigan     IN              46360        700       $45,255.00
 for the Homeless    Box                           City
 Inc.
Citizen Concerned   Dairy          Midwest        Michigan     IN              46360        700       $43,837.50
 for the Homeless    Products Box                  City
 Inc.
Citrus County Food  Fresh Fruit/   South East     Homosassa    FL              34446        756       $18,522.00
 Bank                Vegetable
                     Box
City Church         Fresh Fruit/   North East     Batavia      NY              14020        200        $4,570.00
                     Vegetable
                     Box
City Church         Fresh Fruit/   South West     Dallas       TX              75204        850       $15,295.00
 International       Vegetable
                     Box
City First Church   Fresh Fruit/   Midwest        Rockford     IL              61114      3,240      $101,921.76
                     Vegetable
                     Box
City Gospel         Fresh Fruit/   Midwest        Cincinnati   OH              45214         64        $1,248.00
 Mission             Vegetable
                     Box
City Harv.          Fresh Fruit/   North East     Flushing     NY              11367      8,190      $155,200.50
 Kehillat            Vegetable
 Sephardim Synago.   Box
City Harvest 6 E    Fresh Fruit/   North East     New York     NY              10016      1,980       $65,340.00
 32Nd St             Vegetable
                     Box
City Harvest Beam   Fresh Fruit/   North East     New York     NY              10009      4,130       $82,476.10
 Living Emergency    Vegetable
 Relief Site         Box
City Harvest BNAI   Fresh Fruit/   North East     Brooklyn     NY              11234      8,190      $155,200.50
 Raphel              Vegetable
                     Box
City Harvest        Fresh Fruit/   North East     Brookyln     NY              11212      2,600       $51,922.00
 Brownsville         Vegetable
 Maintainence        Box
City Harvest        Fresh Fruit/   North East     Brooklyn     NY              11212      1,200       $23,964.00
 Brownsville         Vegetable
 Multiservice        Box
City Harvest        Fresh Fruit/   North East     Brooklyn     NY              11236      9,828      $186,240.60
 Campaign Against    Vegetable
 Hunge               Box
City Harvest CCCS   Fresh Fruit/   North East     Bronx        NY              10455      1,638       $31,040.10
 Bronx Food Hub      Vegetable
                     Box
City Harvest        Fresh Fruit/   North East     Long Island  NY              11101      9,290      $185,521.30
 Center of Hope      Vegetable                     City
 International       Box
City Harvest        Fresh Fruit/   North East     Staten       NY              10304      6,111      $115,803.45
 Christian           Vegetable                     Island
 Pentecostal         Box
City Harvest Cloth  Fresh Fruit/   North East     New York     NY              10032      3,276       $62,080.20
                     Vegetable
                     Box
City Harvest--      Fresh Fruit/   North East     Long Island  NY              11101      7,000      $139,790.00
 Evangel Christian   Vegetable                     City
 Center              Box
City Harvest--      Fresh Fruit/   North East     Long Island  NY              11221      2,800       $55,916.00
 Evangel Christian   Vegetable                     City
 Center              Box
City Harvest        Fresh Fruit/   North East     Brooklyn     NY              11220      9,387      $177,883.65
 Holding Hands       Vegetable
                     Box
City Harvest Inc.   Dairy          North East     Long Island  NY              11101        949       $46,975.50
                     Products Box                  City
City Harvest Inc.   Fluid Milk     North East     Long Island  NY              11101      1,344       $41,637.12
City Harvest Inc.   Fluid Milk     North East     Long Island  NY              11101      3,360      $104,092.80
                                                   City
City Harvest Inc.   Fluid Milk     North East     New York     NY              10016        672       $20,818.56
City Harvest Inc.   Fresh Fruit/   North East     Long Island  NY              11101     78,499    $1,664,269.33
                     Vegetable                     City
                     Box
City Harvest Inc.   Fresh Fruit/   North East     New York     NY              10016      5,495      $137,570.00
                     Vegetable
                     Box
City Harvest Inc.   Fresh Fruit/   North East     Queens       NY              11101      2,430       $80,190.00
                     Vegetable
                     Box
City Harvest Inc.   Precooked      North East     Long Island  NY              11101      4,702      $219,066.68
                     Meat Box                      City
City Harvest la     Fresh Fruit/   North East     Flushing     NY              11354      6,552      $124,160.40
 Jornada             Vegetable
                     Box
City Harvest Long   Fresh Fruit/   North East     Long Island  NY              11101      4,914       $93,120.30
 Island City         Vegetable                     City
                     Box
City Harvest        Fresh Fruit/   North East     Forest       NY              11375      8,190      $155,200.50
 Masbia Queens       Vegetable                     Hills
                     Box
City Harvest Met.   Fresh Fruit/   North East     Brooklyn     NY              11234      1,197       $22,683.15
 Council             Vegetable
                     Box
City Harvest Open   Fresh Fruit/   North East     Brooklyn     NY              11221      8,190      $155,200.50
 Door Family Life    Vegetable
                     Box
City Harvest        Fresh Fruit/   North East     Bronx        NY              10473      3,400       $67,898.00
 Rap4Bronx           Vegetable
                     Box
City Harvest Red    Fresh Fruit/   North East     Brooklyn     NY              11231      8,190      $155,200.50
 Hook Comm.          Vegetable
 Redemption          Box
City Harvest Singh  Fresh Fruit/   North East     Ozone Park   NY              11435      2,800       $55,916.00
 Family Charity      Vegetable
                     Box
City Harvest        Fresh Fruit/   North East     Brookyln     NY              11211      1,000       $19,970.00
 Southside United    Vegetable
                     Box
City Harvest        Fresh Fruit/   North East     Brooklyn     NY              11221      3,600       $71,892.00
 Worled Metro        Vegetable
 Child               Box
City Harvest        Fresh Fruit/   North East     Brooklyn     NY              11234      1,400       $27,958.00
 Worled Metro        Vegetable
 Child               Box
City Help Center    Precooked      South West     Colorado     AZ              86021      1,568      $161,739.20
 Food Bank           Meat Box                      City
City Hope Church    Fresh Fruit/   South East     Daphne       AL              36526        300        $8,700.00
 Daphne              Vegetable
                     Box
City Hope Church    Fresh Fruit/   South East     Pensacola    FL              32526        100        $2,900.00
 Daphne              Vegetable
                     Box
City Hope Church    Fresh Fruit/   South East     Foley        AL              36535        250        $7,250.00
 Foley               Vegetable
                     Box
City Ministries     Precooked      Mid-Atlantic   Chester      PA              19013        180       $11,133.00
 (Philabudance)      Meat Box
City Mission        Dairy          Mid-Atlantic   Washington   PA              15301        200        $2,200.00
                     Products Box
City Neighbors      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21214        900       $18,000.00
 Hamilton            Vegetable
                     Box
City of Bay         Dairy          Midwest        Bay Village  OH              44140         65        $1,625.00
 Village Comm        Products Box
City of Bham        Fluid Milk     South East     Irondale     AL              35210        720        $2,728.80
 Police
City of Brent       Combination    South East     Brent        AL              35034        560       $42,588.00
                     Box
City of Chester     Fresh Fruit/   Mid-Atlantic   Chester      PA              19061      3,780       $71,631.00
                     Vegetable
                     Box
City of             Dairy          Mid-Atlantic   Collingdale  PA              19023        780       $26,317.20
 Collingdale         Products Box
City of             Fresh Fruit/   Mid-Atlantic   Darby        PA              19023      1,512       $28,652.40
 Collingdale         Vegetable
                     Box
City of             Fresh Fruit/   South East     Memphis      TN              38125        540       $13,230.00
 Deliverance--C/O    Vegetable
 Mid South Food      Box
 Bank
City of Destiny     Combination    South East     Apopka       FL              32703     28,448    $2,163,470.40
                     Box
City of Destiny     Combination    South East     Dade City    FL              33525     12,096      $919,900.80
                     Box
City of Destiny     Combination    South East     Immokalee    FL              34142     25,536    $1,942,012.80
                     Box
City of Destiny     Combination    South East     Lithonia     GA              30038     16,240    $1,235,052.00
                     Box
City of Destiny--   Combination    South East     Ocoee        FL              34761      4,032      $306,633.60
 Ocoee               Box
City of E           Precooked      Midwest        East         OH              44112        100        $4,669.00
 Cleveland           Meat Box                      Cleveland
City of Eustis      Combination    South East     Eustis       FL              32726      2,688      $204,422.40
                     Box
City of Eustis      Combination    South East     Taveres      FL              32778      5,376       $63,221.76
                     Box
City of Eustis      Fluid Milk     South East     Eustis       FL              32726      6,624       $25,104.96
City of Eustis      Fresh Fruit/   South East     Eustis       FL              32726      1,512       $37,044.00
                     Vegetable
                     Box
City of Gardena     Fluid Milk     Western        Gardena      CA              90247      6,300       $62,937.00
City of Gary        Fluid Milk     Midwest        Gary         IN              46402      3,960       $13,147.20
 Indiana
City of Gary        Fresh Fruit/   Midwest        Gary         IN              46402      9,380      $315,078.40
 Indiana             Vegetable
                     Box
City of Hope Bay    Fresh Fruit/   South East     Bay Minette  AL              36507        200        $5,800.00
 Minette             Vegetable
                     Box
City of Hope        Fresh Fruit/   South East     Mobile       AL              36608        800       $23,200.00
 Church Mobile       Vegetable
                     Box
City of Lakewood    Dairy          Midwest        Lakewood     OH              44107        120        $3,000.00
                     Products Box
City of Miami       Fresh Fruit/   South East     Miami Beach  FL              33139        960       $24,000.00
 Beach               Vegetable
                     Box
City of North       Fresh Fruit/   South East     North Miami  FL              33162      2,000       $50,000.00
 Miami Beach         Vegetable                     Beach
                     Box
City of Pekin       Fluid Milk     Midwest        Pekin        IN              47165      2,000        $8,000.00
City of Refuge      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21225      1,650       $33,000.00
                     Vegetable
                     Box
City of Refuge      Fresh Fruit/   South East     Atlanta      GA              30314        630       $11,932.20
                     Vegetable
                     Box
City of South       Fresh Fruit/   South East     College      GA              30349      3,150       $59,661.00
 Fulton              Vegetable                     Park
                     Box
City of Woodhaven   Fresh Fruit/   Midwest        Woodhaven    MI              48183        300        $4,485.00
                     Vegetable
                     Box
City of Woodhaven   Fresh Fruit/   Midwest        Woodhaven    MI              48183        600        $8,970.00
 Civic Center        Vegetable
                     Box
City of Wyandotte   Fresh Fruit/   Midwest        Wyandotte    MI              48192        350        $5,232.50
                     Vegetable
                     Box
City on A Hill      Fresh Fruit/   Midwest        Zeeland      MI              49464        189        $6,800.22
 Health Clinic       Vegetable
                     Box
City on the Hill    Fresh Fruit/   Midwest        Chicago      IL              60652         60        $1,080.00
 Youth Foundation    Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Lynwood      CA              90262      1,728       $55,296.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Whittier     CA              90602      3,522      $114,924.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Chatsworth   CA              91311      1,728       $60,480.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Sylmar       CA              91342      1,872       $65,520.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Spring       CA              91977      8,772      $230,424.00
                     Vegetable                     Valley
                     Box
City Serve          Fresh Fruit/   Western        San Diego    CA              92123     15,330      $444,396.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Westmorelan  CA              92281     17,208      $559,296.00
                     Vegetable                     d
                     Box
City Serve          Fresh Fruit/   Western        Pacoima      CA              91331      3,750       $82,500.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Victorville  CA              92394     12,600      $277,200.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Santa Ana    CA              92705      1,800       $39,600.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Hanford      CA              93230      3,600      $156,384.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Bakersfield  CA              93307     20,154      $633,900.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Santa Maria  CA              93458      6,822      $193,140.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Dinuba       CA              93618      1,728       $60,480.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Fawler       CA              93625      5,904      $265,680.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Fowler       CA              93625     13,167      $315,354.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Fresno       CA              93721      3,666      $127,020.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Angwin       CA              94508      1,872       $65,520.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Fremont      CA              94536      1,872       $78,624.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Yountville   CA              94559      1,728       $72,576.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Sacramento   CA              95821      3,744      $163,296.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Las Vegas    Nv              89145      3,456      $127,872.00
                     Vegetable
                     Box
City Serve          Fresh Fruit/   Western        Exeter       CA              93221     34,934    $1,063,957.60
                     Vegetable
                     Box
City Serve--        Fresh Fruit/   Mountain       Browning     MT              59417        960       $24,864.00
 Blackfeet           Vegetable      Plains
 Reservation         Box
City Serve          Precooked      South West     Little Rock  AR              72204      1,536      $158,438.40
 Arkansas            Meat Box
City Serve Crow     Fresh Fruit/   Mountain       Crow Agency  MT              59022      4,800      $124,320.00
 Reservation         Vegetable      Plains
                     Box
City Serve First    Fresh Fruit/   Western        Lancaster    CA              93534      5,250      $157,116.00
 Assembly Church     Vegetable
                     Box
City Serve          Fresh Fruit/   Mountain       St.          MT              59855      3,840       $99,456.00
 Flathead            Vegetable      Plains         Ignatius
 Reservation         Box
City Serve Fort     Fresh Fruit/   Mountain       Harlem       MT              59526      6,720      $174,048.00
 Belknap             Vegetable      Plains
 Reservation         Box
City Serve Fort     Fresh Fruit/   Mountain       Poplar       MT              59526        960       $24,864.00
 Peck Reservation    Vegetable      Plains
                     Box
City Serve Freedom  Fresh Fruit/   Western        Fullerton    CA              92832      5,544      $170,640.00
 House               Vegetable
                     Box
City Serve          Fresh Fruit/   Mountain       Lame Deer    MT              59043      3,840       $99,456.00
 Northern Cheyenne   Vegetable      Plains
 Reserv              Box
City Serve          Fresh Fruit/   Mountain       Fargo        NE              58102        960       $24,864.00
 Northview Church    Vegetable      Plains
                     Box
City Serve Open     Fresh Fruit/   Mountain       Omaha        NE              68110      2,880       $74,592.00
 Door Mission        Vegetable      Plains
                     Box
City Serve/Sequoia  Fresh Fruit/   Western        Exeter       CA              93221      3,840       $96,000.00
 Oc                  Vegetable
                     Box
City Serve--        Fresh Fruit/   Mountain       Fargo        ND              58102      1,920       $49,728.00
 Northview Church    Vegetable      Plains
                     Box
City Square         Fluid Milk     South West     Dallas       TX              75226      3,780       $11,194.20
City Team           Combination    Western        San Jose     CA              95112        300        $8,175.00
 Ministries          Box
City Team           Fluid Milk     Western        San Jose     CA              95112      1,152        $5,472.00
 Ministries
City Team           Fresh Fruit/   Western        San Jose     CA              95112        250        $6,187.50
 Ministries          Vegetable
                     Box
City Temple/Stl     Fresh Fruit/   Midwest        Granite      IL              62040        180        $5,760.00
 Food Bank           Vegetable                     City
                     Box
City Union Mission  Dairy          Mountain       Kansas City  MO              64106        360       $16,473.60
                     Products Box   Plains
City Union Mission  Fresh Fruit/   Mountain       Kansas City  MO              64106        240        $4,068.00
                     Vegetable      Plains
                     Box
Citylife Church     Combination    South East     N Tampa      FL              33614      2,240      $170,352.00
                     Box
Cityserve Tulare    Fresh Fruit/   Western        Exeter       CA              93221      1,001       $26,956.93
                     Vegetable
                     Box
Cityserve Tulare    Fresh Fruit/   Western        Tulare       CA              93221      1,078       $29,030.54
                     Vegetable
                     Box
Civic Center        Fluid Milk     Mountain       Holts        MO              65043        972       $11,231.46
                                    Plains         Summit
Civic Center Park   Fresh Fruit/   Midwest        Orion        MI              48360        500        $7,475.00
                     Vegetable
                     Box
Civic Heights       Fresh Fruit/   Midwest        Flint        MI              48504        350        $7,350.00
 Cogic               Vegetable
                     Box
CJA                 Combination    Midwest        Chicago      IL              60644        360       $22,363.20
                     Box
CJA                 Precooked      Midwest        Chicago      IL              60644      1,140       $78,351.40
                     Meat Box
Clackamas Service   Combination    Western        Portland     OR              97206        600       $21,000.00
 Center USDA         Box
Claiborne County    Fresh Fruit/   South East     Hermanville  MS              39086      3,056       $61,028.32
 Emergency Center    Vegetable
                     Box
Claiborne County    Fresh Fruit/   South East     Port Gibson  MS              39150      6,136      $122,535.92
 Emergency Center    Vegetable
                     Box
Clairbone           Fresh Fruit/   South East     Hermanville  MS              39086      2,016       $40,259.52
 Emergency Center    Vegetable
                     Box
Claire Memorial     Fresh Fruit/   Mountain       Omaha        NE              68104      2,080       $53,872.00
 United Methodist    Vegetable      Plains
                     Box
Clara White         Fresh Fruit/   South East     Jacksonvill  FL              32202        500       $12,250.00
 Mission             Vegetable                     e
                     Box
Claredon School     Fluid Milk     South West     Phoenix      AZ              85013        282        $2,222.16
Claredon School     Fresh Fruit/   South West     Phoenix      AZ              85013        715       $19,662.50
                     Vegetable
                     Box
Claremont Soup      Combination    North East     Claremont    NH              03743        221        $5,967.00
 Kitchen             Box
Claremore Assembly  Combination    South West     Claremore    OK              74017        480       $16,785.60
 of God              Box
Claremore Assembly  Fresh Fruit/   South West     Claremore    OK              74017      1,952       $38,201.20
 of God              Vegetable
                     Box
Claremore Public    Combination    South West     Claremore    OK              74017      1,440       $50,356.80
 School Families     Box
Claremore Senior    Dairy          South West     Claremore    OK              74017      1,920       $87,859.20
 Citizens Expo       Products Box
 Center
Claremore Senior    Fluid Milk     South West     Claremore    OK              74017      4,339      $103,875.66
 Citizens Expo
 Center
Claremore Senior    Fresh Fruit/   South West     Claremore    OK              74017      6,632      $142,646.80
 Citizens Expo       Vegetable
 Center              Box
Clarenceville HS    Dairy          Midwest        Livonia      MI              48152         30          $870.00
                     Products Box
Clarenceville HS    Fresh Fruit/   Midwest        Livonia      MI              48152        220        $4,700.00
                     Vegetable
                     Box
Clares Place CCS    Combination    Western        Everett      WA              98203        200        $7,000.00
                     Box
Clares Place CCS    Dairy          Western        Everett      WA              98203        500       $15,000.00
                     Products Box
Clares Place CCS    Fresh Fruit/   Western        Everett      WA              98203        140        $3,780.00
                     Vegetable
                     Box
Clark Co. Senior    Dairy          Mountain       Kahoka       MO              63445        192        $4,800.00
 Center              Products Box   Plains
Clark Co. Senior    Fluid Milk     Mountain       Jefferson    MO              65110        432          $972.00
 Center                             Plains         City
Clark County Food   Combination    Western        Vancouver    WA              98661      2,820       $98,700.00
 Bank                Box
Clark County Food   Dairy          Western        Vancouver    WA              98661      1,400       $42,000.00
 Bank                Products Box
Clark County Food   Fresh Fruit/   Western        Vancouver    WA              98661      2,310       $62,370.00
 Bank                Vegetable
                     Box
Clark United        Fresh Fruit/   Midwest        Toledo       OH              43605        108        $1,350.00
 Methodist           Vegetable
                     Box
Clarkston United    Fresh Fruit/   Midwest        Clarkston    MI              48346        100        $2,875.00
 Methodist           Vegetable
                     Box
Clarksville Public  Fluid Milk     South West     Clarksville  AR              72830        495       $11,850.30
 School
Clarksville Public  Fresh Fruit/   South West     Clarksville  AR              72830      2,487       $46,614.90
 School              Vegetable
                     Box
Clay Co. HS         Fluid Milk     South East     Manchester   KY              40962        606        $2,296.74
Clay Co. MS         Fluid Milk     South East     Manchester   KY              40962        400        $1,516.00
Clay County Aged    Fluid Milk     Midwest        Brazil       IN              47834      1,485        $3,341.25
Clayton County      Fresh Fruit/   South East     Forest Park  GA              30297        400       $11,920.00
 Ministry            Vegetable
 Authority           Box
CLC Blue Island     Fresh Fruit/   Midwest        Blue Island  IL              60406        378       $13,600.44
 Church              Vegetable
                     Box
CLC Blue Island     Precooked      Midwest        Blue Island  IL              60406        360       $29,203.20
 Church              Meat Box
Clean Up Your Act   Fresh Fruit/   South East     Fairburn     GA              30213        100        $2,000.00
 Inc.                Vegetable
                     Box
Clearlake Food      Fluid Milk     South West     Houston      TX              77062        824        $2,498.88
 Pantry
Clearlake Food      Fresh Fruit/   South West     Houston      TX              77062      2,280       $38,737.20
 Pantry              Vegetable
                     Box
Cleveland Chesed    Dairy          Midwest        Cleveland    OH              44118         10          $241.00
 Center              Products Box
Cleveland Chesed    Dairy          Midwest        Cleveland    OH              44122         30          $723.00
 Center              Products Box                  Heights
Cleveland Chesed    Fresh Fruit/   Midwest        Cleveland    OH              44118        120        $3,180.00
 Center              Vegetable
                     Box
Cleveland Chesed    Fresh Fruit/   Midwest        Cleveland    OH              44122        120        $3,180.00
 Center              Vegetable
                     Box
Cleveland Chesed    Fresh Fruit/   Midwest        Cleveland    OH              44122        360        $9,540.00
 Center              Vegetable                     Heights
                     Box
Cleveland Food      Dairy          Midwest        Andover      OH              44003        250        $6,025.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Ashland      OH              44805        665       $16,026.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Ashtabula    OH              44004        300        $7,230.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Bay          OH              44017        260        $6,266.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Bellville    OH              44813        130        $3,133.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Berea        OH              44017        120        $2,892.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Burton       OH              44121        830       $20,003.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44094        175        $4,217.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44102        865       $20,846.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44103        500       $12,050.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44104        795       $19,159.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44105        244        $5,880.40
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44106        283        $6,820.30
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44108        165        $3,976.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44109        775       $18,677.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44110      5,673      $136,719.30
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44111        150        $3,615.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44113        210        $5,061.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44114      7,510      $180,991.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44119        160        $3,856.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44120        350        $8,435.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44121        225        $5,422.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44124        325        $7,832.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44128        175        $4,217.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Cleveland    OH              44135         65        $1,566.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Crestline    OH              44827        275        $6,627.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        East         OH              44112        320        $7,712.00
 Bank                Products Box                  Cleveland
Cleveland Food      Dairy          Midwest        Fairview     OH              44126        200        $4,820.00
 Bank                Products Box                  Park
Cleveland Food      Dairy          Midwest        Geneva       OH              44041        250        $6,025.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Jefferson    OH              44047        350        $8,435.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Kingsville   OH              44048        200        $4,820.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Kirtland     OH              44094        800       $19,280.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Lakewood     OH              44107        325        $7,832.50
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Loudonville  OH              44842        300        $7,230.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Mansfield    OH              44902        130        $3,133.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Mansfield    OH              44903        250        $6,025.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Maple        OH              44137        350        $8,435.00
 Bank                Products Box                  Heights
Cleveland Food      Dairy          Midwest        Mentor       OH              44060        430       $10,363.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Mentor       OH              44077        470       $11,327.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Parma        OH              44134        650       $15,665.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Solon        OH              44139        120        $2,892.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Wickliffe    OH              44092        250        $6,025.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Willoughby   OH              44094        100        $2,410.00
 Bank                Products Box
Cleveland Food      Dairy          Midwest        Willoughby   OH              44094        250        $6,025.00
 Bank                Products Box                  Hills
Cleveland Food      Fresh Fruit/   Midwest        Andover      OH              44003        130        $3,445.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Ashland      OH              44805        360        $9,540.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Bay Village  OH              44017        720       $19,080.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Bedford      OH              44146         40        $1,060.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Berea        OH              44017        300        $7,950.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Brookpark    OH              44142        440       $11,660.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Burton       OH              44121        580       $15,370.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Chardon      OH              44024        105        $2,782.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44004        125        $3,312.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44048        200        $5,300.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44060         40        $1,060.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44102      1,098       $29,097.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44103        740       $19,610.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44104      2,075       $54,987.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44105        760       $20,140.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44106      1,599       $42,373.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44108        546       $14,469.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44109      1,350       $35,775.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44110      9,240      $244,860.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44111        925       $24,512.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44112         10          $265.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44113        398       $10,547.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44114      6,470      $171,455.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44115        265        $7,022.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44118        320        $8,480.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44119        340        $9,010.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44120      1,880       $49,820.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44121        350        $9,275.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44124        380       $10,070.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44127        120        $3,180.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44128        635       $16,827.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44130        385       $10,202.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44134        275        $7,287.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44142         40        $1,060.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44143        350        $9,275.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44842        350        $9,275.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Cleveland    OH              44902        140        $3,710.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Crestline    OH              44827        200        $5,300.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        East         OH              44112        100        $2,650.00
 Bank                Vegetable                     Cleveland
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Garfield     OH              44125        200        $5,300.00
 Bank                Vegetable                     Hts
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Jefferson    OH              44047        660       $17,490.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Kirtland     OH              44094        800       $21,200.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Lakewood     OH              44107        320        $8,480.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Loudonville  OH              44842        350        $9,275.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Mansfield    OH              44902        240        $6,360.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Mansfield    OH              44903        200        $5,300.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Mansfield    OH              44906        850       $22,525.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Maple        OH              44137        655       $17,357.50
 Bank                Vegetable                     Heights
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Mentor       OH              44060        855       $22,657.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Mentor       OH              44077      1,680       $44,520.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        North        OH              44070        500       $13,250.00
 Bank                Vegetable                     Olmsted
                     Box
Cleveland Food      Fresh Fruit/   Midwest        North        OH              44133        175        $4,637.50
 Bank                Vegetable                     Royalton
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Orwell       OH              44076        330        $8,745.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Painesville  OH              44077        490       $12,985.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Parma        OH              44130        358        $9,487.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Parma        OH              44134      1,375       $36,437.50
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Parma        OH              44130        150        $3,975.00
 Bank                Vegetable                     Heights
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Shelby       OH              44875        250        $6,625.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Solon        OH              44139         30          $795.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Warrensvill  OH              44128        542       $14,363.00
 Bank                Vegetable                     e Heights
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Wickliffe    OH              44092      1,200       $31,800.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Willoughby   OH              44094        360        $9,540.00
 Bank                Vegetable
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Willoughby   OH              44094        250        $6,625.00
 Bank                Vegetable                     Hills
                     Box
Cleveland Food      Fresh Fruit/   Midwest        Willowick    OH              44095        350        $9,275.00
 Bank                Vegetable
                     Box
Cleveland Food      Precooked      Midwest        Cleveland    OH              44110     20,598      $785,187.12
 Bank                Meat Box
Cleveland Heights   Fresh Fruit/   Midwest        Cleveland    OH              44118      1,270       $25,361.90
 High School         Vegetable
                     Box
Cleveland Heights   Fresh Fruit/   Midwest        Cleveland    OH              44118      3,360       $67,099.20
 High School         Vegetable                     Heights
                     Box
Cleveland Heights   Precooked      Midwest        Cleveland    OH              44118      2,000       $80,730.00
 High School         Meat Box                      Heights
Cleveland Kosher    Dairy          Midwest        South        OH              44121          1           $24.10
 Food Pantry         Products Box                  Euclid
Cleveland Kosher    Fresh Fruit/   Midwest        South        OH              44121        290        $7,685.00
 Food Pantry         Vegetable                     Euclid
                     Box
Clinton COA &       Precooked      North East     Clinton      MA              01510         40        $2,172.00
 Bolton              Meat Box
Clinton Foundation  Combination    South West     Little Rock  AR              72201        576       $20,142.72
                     Box
Clinton Foundation  Fresh Fruit/   South West     Little Rock  AR              72201        147        $2,807.70
                     Vegetable
                     Box
Clinton School      Fresh Fruit/   Mountain       Clinton      MO              64735      1,920       $49,728.00
 District            Vegetable      Plains
                     Box
Clintondale High    Fresh Fruit/   Midwest        Clinton      MI              48035        900       $13,455.00
 School              Vegetable                     Township
                     Box
Clio Schools        Combination    Midwest        Clio         MI              48420      2,680      $173,262.00
                     Box
Club De Leones De   Combination    Mid-Atlantic   Bayamon      PR              00956      2,016      $174,888.00
 Sabana Grande       Box
Club De Leones De   Combination    Mid-Atlantic   Cabo Rojo    PR              00623      1,344      $133,056.00
 Sabana Grande       Box
Club De Leones De   Combination    Mid-Atlantic   Jayuya       PR              00664      3,372      $301,488.00
 Sabana Grande       Box
Club De Leones De   Combination    Mid-Atlantic   Sabana       PR              00637      1,344      $124,824.00
 Sabana Grande       Box                           Grande
Club De Leones De   Combination    Mid-Atlantic   Salinas      PR              00751        672       $58,296.00
 Sabana Grande       Box
Club De Leones De   Combination    Mid-Atlantic   San German   PR              00683      7,032      $619,728.00
 Sabana Grande       Box
Club De Leones De   Combination    Mid-Atlantic   Trujillo     PR              00976        672       $58,296.00
 Sabana Grande       Box                           Alto
Club De Leones      Combination    Mid-Atlantic   Yauco        PR              00698        672       $58,296.00
 Yauco               Box
Club Moto Kauai     Fresh Fruit/   Western        Kapaa        HI              96746        490       $19,110.00
                     Vegetable
                     Box
Club Semillistas    Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 De Amor             Box
Club Xhell Youth    Fresh Fruit/   South East     Riverdale    GA              30274        980       $18,561.20
 Life Center         Vegetable
                     Box
CMAAA Columbia      Fluid Milk     Mountain       Columbia     MO              65202        864        $1,944.00
                                    Plains
CMAAA Eldon         Fluid Milk     Mountain       Eldon        MO              65026        621        $1,397.25
                                    Plains
CMAAA Owensville    Fluid Milk     Mountain       Owensville   MO              65066      2,610        $5,872.50
                                    Plains
CMHA Lakeview       Dairy          Midwest        Cleveland    OH              44113        125        $3,125.00
                     Products Box
CMHA Union Square   Dairy          Midwest        Cleveland    OH              44104        125        $3,125.00
                     Products Box
Coaching Corner     Fresh Fruit/   Western        Oakland      CA              94621      1,456       $24,752.00
                     Vegetable
                     Box
Coaching Corps      Fresh Fruit/   Western        Emeryville   CA              94608      8,021      $320,754.00
                     Vegetable
                     Box
Coalicion De San    Fresh Fruit/   Mid-Atlantic   Guaynabo     PR              00966      1,670       $65,130.00
 Juan                Vegetable
                     Box
Coalicion           Fresh Fruit/   Western        Antioch      CA              94509        200        $5,000.00
 Nicaraguenses       Vegetable
                     Box
Coalicion           Fresh Fruit/   Western        Hayward      CA              94545        200        $5,200.00
 Nicaraguenses       Vegetable
                     Box
Coastal Bend Food   Dairy          South West     Corpus       TX              78408      1,088       $30,844.80
 Bank                Products Box                  Christi
Coastal Bend Food   Fluid Milk     South West     Corpus       TX              78408      4,320       $12,614.40
 Bank                                              Christi
Coastal Bend Food   Fresh Fruit/   South West     Beeville     TX              78102        500       $12,500.00
 Bank                Vegetable
                     Box
Coastal Bend Food   Fresh Fruit/   South West     Corpus       TX              78408        620       $15,500.00
 Bank                Vegetable                     Christi
                     Box
Coastal Bend Food   Fresh Fruit/   South West     Corpuschris  TX              78408      1,540       $38,500.00
 Bank                Vegetable                     ti
                     Box
Coastal Bend Food   Precooked      South West     Corpuschris  TX              78418      1,536      $158,438.40
 Bank                Meat Box                      ti
Coastal Church      Fresh Fruit/   South East     Bay Minette  AL              36507        500       $14,500.00
                     Vegetable
                     Box
Coastal Harvest     Combination    Western        Hoquiam      WA              98550     16,128      $174,827.52
 Food Bank           Box
Coastal Harvest     Fresh Fruit/   Western        Hoquiam      WA              98550      6,432      $133,880.16
 Food Bank           Vegetable
                     Box
Coastal Harvest     Precooked      Western        Hoquiam      WA              98550     16,758      $414,760.50
 Food Bank           Meat Box
Cobb & Douglas      Fresh Fruit/   South East     Marietta     GA              30008        490        $9,800.00
 Public Health       Vegetable
                     Box
Cobb Community      Combination    South East     Atlanta      GA              30339      2,688      $204,422.40
 Foundation--Truis   Box
 t Park
Cobb County         Fresh Fruit/   South East     Marietta     GA              30008      1,920       $36,364.80
 Sheriff             Vegetable
                     Box
Cocoa Packs         Fluid Milk     Mid-Atlantic   Hershey      PA              17033      1,056       $20,824.32
Coeur D'alene       Combination    Western        Worley       ID              83876      1,432       $67,168.00
 Tribe               Box
Coeur D'alene       Fresh Fruit/   Western        Worley       ID              83876        920       $27,600.00
 Tribe               Vegetable
                     Box
Coffee County       Fresh Fruit/   South East     Douglas      GA              31533        960       $18,182.40
 SRBWI               Vegetable
                     Box
COH--Evangel        Combination    South East     Tallahassee  FL              32303      1,344      $102,211.20
 Assembly of God     Box
COH--Evangel        Combination    South East     Marianna     FL              32446      1,344      $102,211.20
 Worship--West FL    Box
 Ag District
COH--Pace Ag--West  Combination    South East     Pace         FL              32571      1,344      $102,211.20
 FL Ag District      Box
 (Ag)
COH Delta Program   Dairy          South West     Winnsboro    LA              71295      1,056       $48,322.56
 Center              Products Box
COH Delta Program   Fluid Milk     South West     Jena         LA              71342        495       $11,850.30
 Center
COH Delta Program   Fresh Fruit/   South West     Jena         LA              71342        539       $12,558.70
 Center              Vegetable
                     Box
COH Delta Program   Dairy          South West     Tallulah     LA              71282      1,440       $65,894.40
 Center LA           Products Box
Coldwater           Fresh Fruit/   Mountain       Independenc  MO              64068        160        $4,144.00
                     Vegetable      Plains         e
                     Box
Coldwater High      Fresh Fruit/   Midwest        Coldwater    MI              49036        252        $9,066.96
 School              Vegetable
                     Box
Colectivo Arbol     Fluid Milk     South East     Plant City   FL              33566        600        $2,394.00
Colectivo Orgullo   Fresh Fruit/   Mid-Atlantic   San Juan     PR              00922        672       $26,880.00
 Arcoiris            Vegetable
                     Box
Colectivo Orgullo   Fresh Fruit/   Mid-Atlantic   San Juan     PR              00926        336       $13,440.00
 Arcoiris            Vegetable
                     Box
Colegio De          Combination    Mid-Atlantic   Utuado       PR              00641      2,118      $170,874.00
 Abogados De PR      Box
Colegio Inovisiado  Combination    Mid-Atlantic   Trujillo     PR              00976        672       $66,528.00
 Santa Maria Del     Box                           Alto
 Camino
Colegio LA          Combination    Mid-Atlantic   Hormigueros  PR              00660      2,016      $113,148.00
 Monserrate          Box
Colegio Unico De    Combination    Mid-Atlantic   Mayaguez     PR              00680      3,360      $332,640.00
 Oportunidades       Box
Coleman Young       Fresh Fruit/   Midwest        Detroit      MI              48207        700       $10,465.00
 Detroit Rec.        Vegetable
                     Box
Collaborative       Fresh Fruit/   Western        Honolulu     HI              96813      3,300      $118,800.00
 Support Services    Vegetable
 Inc.                Box
Collaborative       Precooked      Western        Honolulu     HI              96813      2,199       $87,960.00
 Support Services    Meat Box
 Inc.
College of Idaho    Fresh Fruit/   Western        Caldwell     ID              83605        100        $2,600.00
                     Vegetable
                     Box
College Park        Fresh Fruit/   Western        Oxnard       CA              93033      3,080       $67,760.00
                     Vegetable
                     Box
College Park        Fresh Fruit/   Mid-Atlantic   College      MD              20740      1,350       $27,000.00
 Church of           Vegetable                     Park
 Nazerene            Box
College Place       Fresh Fruit/   Western        Lynnwood     WA              98036         77        $1,492.26
 Middle School       Vegetable
                     Box
Collegiate High     Combination    Midwest        Chicago      IL              60628        305       $18,946.60
 School              Box
Collegiate High     Precooked      Midwest        Chicago      IL              60628        155       $11,093.35
 School              Meat Box
Collington Square   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21213        900       $18,000.00
 Rec.                Vegetable
                     Box
Collinsville Food   Dairy          Midwest        Collinsvill  IL              62234        100        $2,975.00
 Pantry              Products Box                  e
Collinsville Food   Fresh Fruit/   Midwest        Collinsvill  IL              62234        100        $2,750.00
 Pantry              Vegetable                     e
                     Box
Colon Community     Fresh Fruit/   Midwest        Colon        MI              49040      1,150       $41,377.00
 Schools             Vegetable
                     Box
Colonial Park UMC-- Fresh Fruit/   South East     Memphis      TN              38119      2,106       $51,597.00
 C/O Mid South       Vegetable
 Food Bank           Box
Colony Food Bank    Fresh Fruit/   South East     Hanceville   AL              35077         40        $1,000.00
                     Vegetable
                     Box
Colorado Springs    Fresh Fruit/   Mountain       Colorado     Co              80915      8,819      $228,412.10
 Schools             Vegetable      Plains         Springs
                     Box
Columbia Gorge      Combination    Western        The Dalles   OR              97058      1,020       $35,700.00
 Food Bank           Box
Columbia Gorge      Dairy          Western        The Dalles   OR              97058        950       $28,500.00
 Food Bank           Products Box
Columbia Gorge      Fresh Fruit/   Western        The Dalles   OR              97058        460       $12,420.00
 Food Bank           Vegetable
                     Box
Columbia Heights    Fresh Fruit/   Mid-Atlantic   Washington   DC              20009      1,200       $24,000.00
 Village Tenant      Vegetable
 Ass                 Box
Columbia PAC Food   Combination    Western        St. Helens   OR              97051        180        $6,300.00
 Bank                Box
Columbia PAC Food   Fresh Fruit/   Western        St. Helens   OR              97051        500       $13,500.00
 Bank                Vegetable
                     Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43209        324        $4,050.00
 Schools             Vegetable
 Africentric HS      Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43207        324        $4,050.00
 Schools Buckeye     Vegetable
 MS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43220        441        $5,512.50
 Schools             Vegetable
 Centennial HS       Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43214        441        $5,512.50
 Schools Dominion    Vegetable
 MS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43215        216        $2,700.00
 Schools East HS     Vegetable
                     Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43215      1,332       $16,650.00
 Schools Food        Vegetable
 Serv. Prod. Ctr.    Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43229        441        $5,512.50
 Schools Global      Vegetable
 Academy             Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43232        441        $5,512.50
 Schools             Vegetable
 Independence HS     Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43211        324        $4,050.00
 Schools Linden      Vegetable
 Mckinley HS         Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43207        324        $4,050.00
 Schools Mifflin     Vegetable
 HS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43227        441        $5,512.50
 Schools Sherwood    Vegetable
 MS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43206        324        $4,050.00
 Schools South HS    Vegetable
                     Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43222        441        $5,512.50
 Schools Starling    Vegetable
 MS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43228        441        $5,512.50
 Schools Wedgewood   Vegetable
 MS                  Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43204        441        $5,512.50
 Schools West HS     Vegetable
                     Box
Columbus City       Fresh Fruit/   Midwest        Columbus     OH              43229        324        $4,050.00
 Schools Woodward    Vegetable
 Park MS             Box
Columbus City SD    Fresh Fruit/   Midwest        Columbus     OH              43205        108        $1,350.00
 East HS             Vegetable
                     Box
COM UMC/SHFBV       Fluid Milk     South East     Daytona      FL              32118        796        $3,016.84
 B837GA                                            Beach
Combine Comm. Svc.  Fluid Milk     Midwest        Warsaw       IN              46580        432        $1,728.00
Come Colegial UPRM  Combination    Mid-Atlantic   Mayaguez     PR              00680      2,016      $191,352.00
                     Box
Comforter           Dairy          South West     Grand        TX              75051      1,000       $45,760.00
 Christian Center    Products Box                  Prairie
Comforter           Fluid Milk     South West     Grand        TX              75051      2,016       $48,263.04
 Christian Center                                  Prairie
Comforter           Fresh Fruit/   South West     Grand        TX              75051      2,852       $62,745.00
 Christian Center    Vegetable                     Prairie
                     Box
Comhar Inc.         Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134        140        $2,800.00
                     Vegetable                     a
                     Box
Comite Derechos     Combination    Mid-Atlantic   San Juan     PR              00916        540       $53,460.00
 Humanos             Box
 Dominicanos
Comite Desarrollo   Combination    Mid-Atlantic   Naguabo      PR              00718        672       $58,296.00
 Social Y Cultural   Box
 Daguao
Comm. Food Bank A   Fresh Fruit/   Mid-Atlantic   Egg Harbor   NJ              08215        252        $4,775.40
 Heart               Vegetable                     Township
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        252        $4,775.40
 Altman Terrace      Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401      2,287       $43,338.65
 Bader Field Ac      Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        252        $4,775.40
 Buzby Village       Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Pleasantvil  NJ              08232        189        $3,581.55
 Faith Baptist       Vegetable                     le
 Church              Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        252        $4,775.40
 Gateway             Vegetable
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        504        $9,550.80
 Gateway Headstart   Vegetable                     City
 Ac                  Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Pleasantvil  NJ              08232        126        $2,387.70
 Gods Gift           Vegetable                     le
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08360        252        $4,775.40
 Hendricks House     Vegetable
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        252        $4,775.40
 Inlet Tower         Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        252        $4,775.40
 Jeffries            Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Millville    NJ              08332        252        $4,775.40
 Joy of Life         Vegetable
                     Box
Comm. Food Bank     Precooked      Mid-Atlantic   Millville    NJ              08332        120        $7,422.00
 Joy of Life         Meat Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        252        $4,775.40
 Jpw                 Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Pleasantvil  NJ              08232        252        $4,775.40
 Pleasantville Sda   Vegetable                     le
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Ventnor      NJ              08406        189        $3,581.55
 Shalom House        Vegetable                     City
                     Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401        378        $7,163.10
 Shore Park High     Vegetable                     City
 Rise                Box
Comm. Food Bank     Fluid Milk     Mid-Atlantic   Atlantic     NJ              08401      1,056       $15,397.44
 Southern Branch                                   City
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08361        126        $2,387.70
 Spirit & Truth      Vegetable
                     Box
Comm. Food Bank     Precooked      Mid-Atlantic   Vineland     NJ              08361        120        $7,422.00
 Spirit & Truth      Meat Box
Comm. Food Bank     Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        252        $4,775.40
 St. Johns Umc       Vegetable
                     Box
Comm. Link Mission  Fluid Milk     South West     Fort Worth   TX              76179      1,080        $3,310.20
Comm. Link Mission  Fluid Milk     South West     Saginaw      TX              76179      2,160        $6,307.20
Comm. Link Mission  Fresh Fruit/   South West     Fort Worth   TX              76179      1,320       $22,426.80
                     Vegetable
                     Box
Comm. Link Mission  Fresh Fruit/   South West     Saginaw      TX              76179        768       $13,048.32
                     Vegetable
                     Box
Comm. Resource      Fluid Milk     South East     Summerville  SC              29483        900        $3,499.80
 Ctr.
Comm. UTD Outreach  Fluid Milk     South East     Orlando      FL              32804     16,896       $64,035.84
Comm.-Commerce      Precooked      South East     Commerce     GA              30529        100        $3,404.00
 High School F2F     Meat Box
Commission on       Precooked      Mid-Atlantic   Pittston     PA              18640      2,648       $96,565.24
 Economic            Meat Box
 Opportunity
Commissioned 2      Fresh Fruit/   Mid-Atlantic   Willingboro  NJ              08046        252        $4,775.40
 Serve Intl          Vegetable
                     Box
Common Grace        Fluid Milk     Midwest        Kendallvill  IN              46755         48          $192.00
 Ministries                                        e
Common Ground High  Fresh Fruit/   North East     New Haven    CT              06515        420       $12,600.00
 School              Vegetable
                     Box
Common Market       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134         70        $1,400.00
                     Vegetable                     a
                     Box
Common Pantry       Fresh Fruit/   Midwest        Chicago      IL              60618        315       $11,333.70
                     Vegetable
                     Box
Common Pantry       Precooked      Midwest        Chicago      IL              60618        144       $11,681.28
                     Meat Box
Common Pantry Box   Dairy          Midwest        Chicago      IL              60618         40        $1,000.00
                     Products Box
Commonwealth        Dairy          South East     Jackson      MS              39213        560       $15,724.80
 Village Apt.        Products Box
Commonwealth        Fluid Milk     South East     Jackson      MS              39213        192        $1,409.28
 Village Apt.
Commonwealth        Fresh Fruit/   South East     Jackson      MS              39213        736       $12,438.40
 Village Apt.        Vegetable
                     Box
Commonwealth        Precooked      South East     Jackson      MS              39213        252       $10,347.12
 Village Apt.        Meat Box
Communities First/  Fresh Fruit/   Mountain       St. Louis    MO              63107        540       $17,280.00
 STL Food Bank       Vegetable      Plains
                     Box
Communities for A   Fresh Fruit/   Western        Richmond     CA              94801         11          $308.00
 Better              Vegetable
 Environment         Box
Communities for A   Fresh Fruit/   Western        Richmond     CA              94801         15          $420.00
 Better              Vegetable
 Environment         Box
Communities in      Fresh Fruit/   Midwest        Battle       MI              49017        400       $14,392.00
 Schools of          Vegetable                     Creek
 Michigan            Box
Communities in      Fresh Fruit/   Midwest        Benton       MI              49022        155        $5,576.90
 Schools of          Vegetable                     Harbor
 Michigan            Box
Communities in      Fresh Fruit/   Midwest        Battle       MI              49017        100        $3,598.00
 Schools of          Vegetable                     Creek
 Michigan Battle     Box
 Creek
Communities in      Fresh Fruit/   Midwest        Benton       MI              49022        285       $10,254.30
 Schools of          Vegetable                     Harbor
 Michigan Benton     Box
 Harbor
Communities of      Combination    Western        Kent         WA              98032        146        $5,110.00
 Schls. Kent         Box
Communities of      Dairy          Western        Kent         WA              98032         45        $1,350.00
 Schls. Kent         Products Box
Communities of      Fresh Fruit/   Western        Kent         WA              98032         50        $1,350.00
 Schls. Kent         Vegetable
                     Box
Community Action    Precooked      Midwest        Cedarville   MI              49719         31        $1,169.23
 Cedarville          Meat Box
Community Action    Fluid Milk     Midwest        Madison      WI              53704      2,916        $5,248.80
 Coalition
Community Action    Fresh Fruit/   Mid-Atlantic   Columbia     MD              21046      1,950       $39,000.00
 Council of Hoco     Vegetable
                     Box
Community Action    Precooked      Midwest        Detour       MI              49725         46        $1,722.68
 Detour              Meat Box
Community Action    Precooked      Midwest        Drummond     MI              49726         82        $3,081.43
 Drummond            Meat Box                      Island
Community Action    Precooked      Midwest        Goetzville   MI              49736         46        $1,722.68
 Goetzville          Meat Box
Community Action    Dairy          Midwest        Holland      MI              49423        289        $7,421.00
 House               Products Box
Community Action    Fresh Fruit/   Midwest        Holland      MI              49423        568       $14,111.95
 House               Vegetable
                     Box
Community Action    Precooked      Midwest        Newburry     MI              49868         94        $3,568.29
 Newberry            Meat Box
Community Action    Fresh Fruit/   Midwest        Allegan      MI              49010        985       $20,830.00
 of Allegan County   Vegetable
                     Box
Community Action    Fresh Fruit/   Western        Napa         CA              94558      3,080       $43,120.00
 of Napa Valley      Vegetable
                     Box
Community Action    Fluid Milk     Mid-Atlantic   Lancaster    PA              17603        175        $5,670.00
 Partnership
Community Action    Fresh Fruit/   Mid-Atlantic   Lancaster    PA              17603      1,969       $59,299.02
 Partnership         Vegetable
                     Box
Community Action    Dairy          Western        Riverside    CA              92501      7,200      $210,384.00
 Partnership Oc      Products Box
 Food Bank
Community Action    Combination    Western        Garden       CA              92841     34,568    $1,327,672.60
 Partnership of      Box                           Grove
 Orange County
Community Action    Fresh Fruit/   Western        Garden       CA              92841      5,996      $143,324.20
 Partnership of      Vegetable                     Grove
 Orange County       Box
Community Action    Dairy          Western        San          CA              92408      2,400       $70,128.00
 Partnership of      Products Box                  Bernardino
 San Bernardino
Community Action    Fluid Milk     Western        San          CA              92408     10,500      $104,895.00
 Partnership of                                    Bernardino
 San Bernardino
Community Action    Fresh Fruit/   Western        San          CA              92408      7,280      $145,381.60
 Partnership of      Vegetable                     Bernardino
 San Bernardino      Box
Community Action    Precooked      Midwest        St. Ignace   MI              49781        155        $5,873.97
 St. Ignace          Meat Box
Community Action--  Precooked      Midwest        Pickford     MI              49774         46        $1,722.68
 Pickford Center     Meat Box
Community Action--  Precooked      Midwest        Rudyard      MI              49780         46        $1,722.68
 Rudyard             Meat Box
Community           Fluid Milk     South East     Sandy        GA              30350        100          $399.00
 Assistanc                                         Springs
Community           Fluid Milk     South West     Conroe       TX              77301        400        $1,168.00
 Assistanc
Community Basket    Fresh Fruit/   Midwest        Caledonia    MI              49316         98        $3,526.04
                     Vegetable
                     Box
Community Building/ Combination    Western        Dubois       ID              83423         60        $2,640.00
 Dubois              Box
Community Building/ Fresh Fruit/   Western        Dubois       ID              83423        120        $3,120.00
 Dubois              Vegetable
                     Box
Community Care      Fresh Fruit/   South East     Birmingham   AL              35206         50        $1,400.00
 Dev. Network        Vegetable
                     Box
Community Care      Fluid Milk     South West     Athens       TX              75751        360        $1,051.20
 Food
Community Care of   Fresh Fruit/   Mid-Atlantic   Clarksburg   WV              26301        720       $21,600.00
 West Virginia       Vegetable
                     Box
Community Center    Fresh Fruit/   South East     Macon        MS              39341        288        $4,867.20
 Mt. Zion            Vegetable
                     Box
Community Center    Fresh Fruit/   Mountain       Shawnee      KS              66203        186        $2,239.20
 of Shawnee          Vegetable      Plains
                     Box
Community Chaplain  Combination    Mountain       Newton       KS              67114        672       $23,499.84
 Response Team       Box            Plains
Community Chaplain  Dairy          Mountain       Newton       KS              67114      1,824       $83,466.24
 Response Team       Products Box   Plains
Community           Fresh Fruit/   Midwest        Sterling     MI              48314      1,600       $46,000.00
 Christian Church    Vegetable                     Heights
                     Box
Community           Precooked      North East     Johnston     RI              02919      1,274       $51,902.76
 Christian Church    Meat Box
Community Council   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19131        350        $7,000.00
 Health Systems      Vegetable                     a
                     Box
Community Covenant  Fresh Fruit/   Western        Clear Lake   WA              98235        924       $16,009.84
 Church              Vegetable
                     Box
Community CPR       Combination    South East     Whiteville   NC              28472         --              $--
                     Box
Community           Fresh Fruit/   South West     Fort Worth   TX              76104        544        $9,242.56
 Crossroad Out       Vegetable
 Reach               Box
Community Devel.    Combination    Western        Gresham      OR              97233        480       $16,800.00
 Corp. OR            Box
Community Devel.    Dairy          Western        Gresham      OR              97233        350       $10,500.00
 Corp. OR            Products Box
Community Devel.    Fresh Fruit/   Western        Gresham      OR              97233        180        $4,860.00
 Corp. OR            Vegetable
                     Box
Community Dinner    Combination    Western        Blackfoot    ID              83221        390       $17,160.00
 Table               Box
Community Dinner    Fresh Fruit/   Western        Blackfoot    ID              83221        650       $16,900.00
 Table               Vegetable
                     Box
Community           Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        240        $7,200.00
 Empowerment         Vegetable
 Association         Box
Community           Fresh Fruit/   South West     North        TX              76180        552        $9,378.48
 Enrichment Center   Vegetable                     Richland
                     Box                           Hills
Community Food      Fluid Milk     South West     Fort Worth   TX              76111     11,040       $46,492.80
 Bank
Community Food      Fresh Fruit/   South West     Fort Worth   TX              76111      7,040      $119,609.60
 Bank                Vegetable
                     Box
Community Food      Precooked      South West     Fortworth    TX              76111      3,136      $323,478.40
 Bank                Meat Box
Community Food      Fresh Fruit/   Mid-Atlantic   Atlantic     NJ              08401      3,375      $162,000.00
 Bank Egg Harbor     Vegetable                     City
                     Box
Community Food      Fresh Fruit/   Mid-Atlantic   Weehawken    NJ              07086      1,035       $49,680.00
 Bank Hillside       Vegetable
                     Box
Community Food      Fluid Milk     South West     Nogalex      AZ              85261      1,440        $6,768.00
 Bank Nogales
Community Food      Dairy          South East     Birmingham   AL              35209      2,430       $59,170.50
 Bank of Central     Products Box
 Alab
Community Food      Fresh Fruit/   South East     Birmingham   AL              35209      1,700       $47,600.00
 Bank of Central     Vegetable
 Alab                Box
Community Food      Precooked      South East     Birmingham   AL              35209      1,764       $65,758.48
 Bank of Central     Meat Box
 Alab
Community Food      Fluid Milk     South East     Homosassa    FL              34446      1,080        $4,093.20
 Bank of Citrus
 County
Community Food      Fresh Fruit/   South East     Homosassa    FL              34446      5,340      $138,840.00
 Bank of Citrus      Vegetable
 County              Box
Community Food      Combination    Mid-Atlantic   Atlantic     NJ              08401      1,000       $95,000.00
 Bank of NJ          Box                           City
Community Food      Dairy          Mid-Atlantic   Egg Harbor   NJ              08234      4,784      $155,097.28
 Bank of NJ          Products Box                  Township
Community Food      Fluid Milk     Mid-Atlantic   Hillside     NJ              07205      2,520        $7,182.00
 Bank of NJ
Community Food      Fresh Fruit/   Mid-Atlantic   Egg Harbor   NJ              08234      8,019      $191,290.95
 Bank of NJ          Vegetable                     Township
                     Box
Community Food      Fresh Fruit/   Mid-Atlantic   Hillside     NJ              07205     14,398      $417,135.20
 Bank of NJ          Vegetable
                     Box
Community Food      Fluid Milk     South West     Tulsa        OK              74106        495       $11,850.30
 Bank of Oklahoma
Community Food      Fresh Fruit/   South West     Tulsa        OK              74106        539       $12,558.70
 Bank of Oklahoma    Vegetable
                     Box
Community Food      Precooked      South West     Tulsa        OK              74106     31,861    $1,524,252.16
 Bank of Oklahoma    Meat Box
Community Food      Fluid Milk     South West     Tucson       AZ              85713      7,560       $35,892.00
 Bank Tucson
Community Food      Combination    Western        Idaho Falls  ID              83402        800       $35,200.00
 Basket/ID Falls     Box
Community Food      Fresh Fruit/   Western        Idaho Falls  ID              83402      1,200       $31,200.00
 Basket/ID Falls     Vegetable
                     Box
Community Food      Fluid Milk     Mountain       Marshall     MO              65340      1,620        $3,645.00
 Pantry                             Plains
Community Food      Fresh Fruit/   Mountain       Louisville   Co              80027     15,840      $274,427.08
 Share               Vegetable      Plains
                     Box
Community Food      Dairy          Mid-Atlantic   Sharon       PA              16146      1,136       $23,890.08
 Warehouse           Products Box
Community Food      Fluid Milk     Mid-Atlantic   Sharon       PA              16146         88          $950.40
 Warehouse
Community for       Fluid Milk     Midwest        Olmsted      OH              44138        120          $398.40
 Bette                                             Falls
Community Harvest   Dairy          Midwest        Morton       IL              61550        450       $13,387.50
                     Products Box
Community Harvest   Fresh Fruit/   Midwest        Morton       IL              61550        450       $12,375.00
                     Vegetable
                     Box
Community Harvest   Dairy          Midwest        Fort Wayne   IN              46805     17,184      $429,600.00
 Food Bank           Products Box
Community Harvest   Fresh Fruit/   Midwest        Fort Wayne   IN              46805      1,400       $27,958.00
 Food Bank           Vegetable
                     Box
Community Health    Fresh Fruit/   South East     Florida      FL              33034      2,400       $60,000.00
 of South Florida    Vegetable                     City
                     Box
Community Hope      Fresh Fruit/   Midwest        Greenville   MI              48838        147        $5,289.06
                     Vegetable
                     Box
Community Kitchen   Fluid Milk     South East     Myrtle       SC              29577        520        $2,026.00
                                                   Beach
Community Life      Fresh Fruit/   Midwest        Midland      MI              48642        900       $25,875.00
 Support             Vegetable
                     Box
Community Life      Fresh Fruit/   South East     Gulf Breeze  FL              32563      1,750       $50,750.00
 United Methodist    Vegetable
                     Box
Community Life      Fresh Fruit/   South East     Mary Esther  FL              32569        100        $2,900.00
 United Methodist    Vegetable
                     Box
Community Life      Fresh Fruit/   South East     Mobile       AL              36619        100        $2,900.00
 United Methodist    Vegetable
 St. Paul United     Box
 Met
Community MBC       Combination    South West     Cedar Hill   TX              75104        500       $17,485.00
                     Box
Community MBC       Dairy          South West     Cedar Hill   TX              75104        800       $36,608.00
                     Products Box
Community MBC       Dairy          South West     Desoto       TX              75104        500       $22,880.00
                     Products Box
Community MBC       Fresh Fruit/   South West     Cedar Hill   TX              75104        500        $9,550.00
                     Vegetable
                     Box
Community Mnstrs.   Fluid Milk     South East     Paducah      KY              42003      1,710        $3,847.50
Community Network   Combination    Western        Kent         WA              98032        280        $9,800.00
 Council             Box
Community Network   Dairy          Western        Kent         WA              98032        280        $8,400.00
 Council             Products Box
Community Network   Fresh Fruit/   Western        Kent         WA              98032        280        $7,575.00
 Council             Vegetable
                     Box
Community Outreach  Combination    Mountain       Bolivar      MO              65613        672       $23,499.84
 Ministries          Box            Plains
Community Outreach  Dairy          Mountain       Bolivar      MO              65613      1,824       $83,466.24
 Ministries          Products Box   Plains
Community Outreach  Fresh Fruit/   Western        Selma        CA              93662        960       $21,840.00
 Ministries          Vegetable
                     Box
Community Outreach  Fresh Fruit/   Mountain       Bolivar      MO              65613      1,760       $45,584.00
 Ministries          Vegetable      Plains
                     Box
Community Rsrc.     Combination    Western        Kenmore      WA              98028      2,520       $88,200.00
 Network             Box
Community Rsrc.     Dairy          Western        Kenmore      WA              98028      2,200       $66,000.00
 Network             Products Box
Community Seed      Combination    South West     Lone Oak     TX              75453      1,500       $52,455.00
                     Box
Community Seed      Dairy          South West     Lone Oak     TX              75453      1,800       $82,368.00
                     Products Box
Community Seed      Fresh Fruit/   South West     Lone Oak     TX              75451      1,560       $36,348.00
                     Vegetable
                     Box
Community Seed      Fresh Fruit/   South West     Lone Oak     TX              75453      1,560       $36,348.00
                     Vegetable
                     Box
Community Service   Combination    Mountain       Independenc  MO              64050      2,436       $85,186.92
 League              Box            Plains         e
Community Service   Dairy          Mountain       Independenc  MO              64050        144        $6,589.44
 League              Products Box   Plains         e
Community Service   Fresh Fruit/   Mountain       Independenc  MO              64050        848       $14,704.00
 League              Vegetable      Plains         e
                     Box
Community Service   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        500       $10,475.00
 of Berea            Vegetable
                     Box
Community Share     Fluid Milk     South East     Cedartown    GA              30125     20,592       $80,102.88
Community Sharing   Fresh Fruit/   Midwest        Highland     MI              48356        380       $10,925.00
 Highland            Vegetable
                     Box
Community Store     Fresh Fruit/   South West     Keller       TX              76244        544        $9,242.56
 House               Vegetable
                     Box
Community Table     Fresh Fruit/   South West     North        TX              76180        620       $10,533.80
                     Vegetable                     Richland
                     Box
Community Table     Fresh Fruit/   South West     North        TX              76180      1,200       $20,388.00
                     Vegetable                     Richland
                     Box                           Hills
Community Through   Fresh Fruit/   Western        Chula Vista  CA              91910        400       $10,000.00
 Hope                Vegetable
                     Box
Community Tree      Fresh Fruit/   Midwest        Detroit      MI              48215        425       $12,218.75
 House               Vegetable
                     Box
Community Worship   Fresh Fruit/   South East     Conyers      GA              30012      2,908       $79,970.00
 Int                 Vegetable
                     Box
Como Center         Dairy          South West     Fort Worth   TX              76107        400       $18,304.00
                     Products Box
Companerismo Rdr    Fresh Fruit/   Western        Santa Ana    CA              92707      7,680      $192,000.00
                     Vegetable
                     Box
Compass Christian   Fresh Fruit/   South West     Fort Worth   TX              76112        400        $7,640.00
 Church              Vegetable
                     Box
Compass Church      Dairy          South West     Chandler     AZ              85225      1,614       $42,771.00
                     Products Box
Compass Church      Dairy          South West     Chandler     AZ              85285        768       $20,352.00
                     Products Box
Compass Church      Dairy          South West     Chandler     AZ              85286        238        $6,307.00
                     Products Box
Compass Church      Dairy          South West     Chandler     AZ              86327        612       $16,218.00
                     Products Box
Compass Church      Fresh Fruit/   South West     Chandler     AZ              85225      2,748       $60,043.80
                     Vegetable
                     Box
Compass Church      Fresh Fruit/   South West     Chandler     AZ              85285        768       $16,780.80
                     Vegetable
                     Box
Compass Church      Fresh Fruit/   South West     Chandler     AZ              85286        240        $5,244.00
                     Vegetable
                     Box
Compass Church      Fresh Fruit/   South West     Chandler     AZ              86327        640       $13,984.00
                     Vegetable
                     Box
Compass Families    Fresh Fruit/   South West     Grapevine    TX              76051         65        $1,241.50
                     Vegetable
                     Box
Compass Staff       Dairy          South West     Grapevine    TX              76051          5          $228.80
                     Products Box
Compass Staff       Fresh Fruit/   South West     Grapevine    TX              76051         40          $388.00
                     Vegetable
                     Box
Compassion Cafe-    Fresh Fruit/   Mountain       Frederickto  MO              63645        875       $24,062.50
                     Vegetable      Plains         wn
                     Box
Compassion          Combination    North East     Utica        NY              13502        939       $48,593.25
 Coalition           Box
Compassion          Dairy          North East     Utica        NY              13502      1,738       $86,031.00
 Coalition           Products Box
Compassion          Fresh Fruit/   North East     Utica        NY              13502      1,630       $48,574.00
 Coalition           Vegetable
                     Box
Compassion          Precooked      North East     Utica        NY              13502        983       $73,725.00
 Coalition           Meat Box
Compassion Dickson  Dairy          South East     Dickson      TN              37055      1,440       $36,000.00
                     Products Box
Compassion          Fresh Fruit/   Mountain       Independenc  MO              64050        160        $4,144.00
 Ministries of       Vegetable      Plains         e
 Greater Kc          Box
Compassion          Fresh Fruit/   Mountain       Independenc  MO              64057         80        $2,072.00
 Ministries of       Vegetable      Plains         e
 Greater Kc          Box
Compassion Mnstry.  Fluid Milk     South West     Bentonville  AR              72712      4,608       $13,455.36
Compassion Waverly  Dairy          South East     Waverly      TN              37185      1,080       $27,000.00
                     Products Box
Compassionate       Fresh Fruit/   Midwest        Jackson      MI              49201        395       $14,212.10
 Ministries          Vegetable
                     Box
Compassionate       Fresh Fruit/   Midwest        Springport   MI              49284         40        $1,439.20
 Ministries          Vegetable
                     Box
Compassionate       Fresh Fruit/   Midwest        Jackson      MI              49201      1,232       $44,327.36
 Ministries of       Vegetable
 Jackson County      Box
Complejo Multi.     Combination    Mid-Atlantic   San Juan     PR              00901        115       $11,385.00
 Fam. San            Box
 Cristobal
Comunidad Las       Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Monjas              Box
Comunidad           Combination    Mid-Atlantic   Fajardo      PR              00738        672       $33,600.00
 Maternillo Y        Box
 Mansion Del Saco
Comunidad Puente    Combination    Mid-Atlantic   Catano       PR              00962        672       $58,296.00
 Blanco              Box
Comunidad Puerta    Combination    Mid-Atlantic   San Juan     PR              00906        672       $58,296.00
 De Tierra           Box
Concern Food        Fluid Milk     Mid-Atlantic   Englewood    NJ              07631         35        $1,134.00
 Pantry
Concern Food        Fresh Fruit/   Mid-Atlantic   Englewood    NJ              07631        432        $9,927.36
 Pantry              Vegetable
                     Box
Concerned           Combination    Mid-Atlantic   Vieques      PR              00765        672       $66,528.00
 Residents for       Box
 Improvement
Co[u]ncil of        Fresh Fruit/   Mid-Atlantic   Nescopeck    PA              18635        250        $6,250.00
 Finance and         Vegetable
 Administration of   Box
 the United
Concord Comm.       Dairy          Midwest        Concord      MI              49237        594       $14,521.50
 School              Products Box
Concord Comm.       Fresh Fruit/   Midwest        Concord      MI              49237      1,700       $34,704.00
 School              Vegetable
                     Box
Concord Comm.       Precooked      Midwest        Concord      MI              49237        900       $30,370.00
 School              Meat Box
Concord Elementary  Dairy          Midwest        Concord      MI              49237        550       $15,950.00
                     Products Box
Concord Elementary  Fresh Fruit/   Midwest        Concord      MI              49237        650       $13,670.00
                     Vegetable
                     Box
Concrete Jungle     Fresh Fruit/   South East     Atlanta      GA              30316      1,830       $36,600.00
                     Vegetable
                     Box
Cond Torres De      Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Francias            Box
Condominio Bahai    Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
                     Box
Condominio Las      Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Camelias            Box
Conerstone Bapt.    Fresh Fruit/   South East     Leland       NC              28451      1,800       $20,700.00
 Church of Leland    Vegetable
                     Box
Conerstone          Combination    Western        Idaho Falls  ID              83401        140        $6,160.00
 Pentecostal         Box
 Church
Conerstone          Fresh Fruit/   Western        Idaho Falls  ID              83401        140        $3,640.00
 Pentecostal         Vegetable
 Church              Box
Confluence Academy  Fresh Fruit/   Mountain       St. Louis    MO              63118      3,960      $102,564.00
 Meramec             Vegetable      Plains
                     Box
Confluence          Fresh Fruit/   Mountain       St. Louis    MO              63120      1,280       $33,152.00
 Academy--Aspire     Vegetable      Plains
                     Box
Confluence          Fresh Fruit/   Mountain       St. Louis    MO              63107        720       $18,648.00
 Academy--Old        Vegetable      Plains
 North               Box
Confress Bennie     Precooked      South East     Bolton       MS              39401      1,760       $72,265.60
 Thompson            Meat Box
Congregation of     Fresh Fruit/   Midwest        Detroit      MI              48221        800       $23,000.00
 Israel              Vegetable
                     Box
Congress Bennie     Fluid Milk     South East     Bolton       MS              39401      1,152        $8,455.68
 Thimpson
Congress Bennie     Fresh Fruit/   South East     Bolton       MS              39401      3,392       $57,324.80
 Thimpson            Vegetable
                     Box
Connect YMCA        Combination    South West     Houston      TX              77074      1,080       $37,767.60
                     Box
Connect YMCA        Fresh Fruit/   South West     Houston      TX              77074      2,984       $43,408.16
                     Vegetable
                     Box
Connecticut Food    Combination    North East     Wallingford  CT              06492      2,990      $113,620.00
 Bank                Box
Connecticut Food    Fluid Milk     North East     Wallingford  CT              06492      8,640       $28,684.80
 Bank
Connecticut Food    Fresh Fruit/   North East     Wallingford  CT              06492     12,048      $270,918.00
 Bank                Vegetable
                     Box
Connecticut Food    Precooked      North East     Wallingford  CT              06492      2,868      $121,691.12
 Bank                Meat Box
Connecting Kids To  Dairy          Midwest        Toledo       OH              43604        410        $9,950.70
 Meals               Products Box
Connecting Kids To  Fresh Fruit/   Midwest        Toledo       OH              43604      2,050       $39,962.70
 Meals               Vegetable
                     Box
Connecting Kids To  Precooked      Midwest        Toledo       OH              43604      1,230       $41,628.94
 Meals               Meat Box
Connellsville       Fresh Fruit/   Mid-Atlantic   Connellsvil  PA              15425        480       $14,400.00
 Community           Vegetable                     le
 Ministries          Box
Conner Creek        Fresh Fruit/   Midwest        Roseville    MI              48066        100        $1,495.00
 Academy             Vegetable
                     Box
Consejo Recreo      Combination    Mid-Atlantic   Quebradilla  PR              00678        672       $58,296.00
 Deportivo Y         Box                           s
 Educativo De PR
Consortium COD      Fluid Milk     South East     Fitzgerald   GA              31750      1,200        $4,688.00
Constantine Public  Fresh Fruit/   Midwest        Constantine  MI              49042      1,008       $36,267.84
 Schools             Vegetable
                     Box
Consulado           Combination    Mid-Atlantic   San Juan     PR              00921      2,016      $174,888.00
 Dominicano En PR    Box
Contra Costa--      Combination    Western        Sacramento   CA              95838      3,580      $138,878.00
 Sacramento Food     Box
 Bank & Family
 Servi
Contra Costa--      Combination    Western        Redding      CA              96003      1,566       $60,844.20
 Shasta Food Bank    Box
Contra Costa--Yolo  Combination    Western        Woodland     CA              95776      3,300      $128,830.80
 Food Bank           Box
Contra Costa Food   Fresh Fruit/   Western        Colusa       CA              95932        576       $20,160.00
 Bank                Vegetable
                     Box
Contra Costa Food   Fresh Fruit/   Western        Oroville     CA              95965        576       $25,920.00
 Bank                Vegetable
                     Box
Contra Costa Food   Fresh Fruit/   Western        Red Bluffs   CA              96080        432       $19,440.00
 Bank                Vegetable
                     Box
Contra Costa        Combination    Western        Yuba City    CA              95991        422       $16,669.00
 Shasta Food Bank    Box
Convot of Hope      Fresh Fruit/   Mountain       Webb City    MO              64870        880       $22,792.00
 Webb City           Vegetable      Plains
 Nazarene            Box
Convoy of Hope      Combination    South East     Peachtree    AL              30269      1,344      $102,211.20
                     Box                           City
Convoy of Hope      Combination    South East     Vincent      AL              35178      2,464      $187,387.20
                     Box
Convoy of Hope      Combination    South East     Daytona      FL              32117      1,344      $102,211.20
                     Box                           Beach
Convoy of Hope      Combination    South East     Jacksonvill  FL              32221      1,344      $102,211.20
                     Box                           e
Convoy of Hope      Combination    South East     Tallahassee  FL              32311      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Apopka       FL              32703      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Oviedo       FL              32765      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Orlando      FL              32805      4,032      $306,633.60
                     Box
Convoy of Hope      Combination    South East     Orlando      FL              32809      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Orlando      FL              32810      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Orlando      FL              32825      2,688      $204,422.40
                     Box
Convoy of Hope      Combination    South East     Merritt      FL              32953      2,688      $204,422.40
                     Box                           Island
Convoy of Hope      Combination    South East     Homestead    FL              33030      4,032      $306,633.60
                     Box
Convoy of Hope      Combination    South East     Miami        FL              33186     13,440    $1,022,112.00
                     Box
Convoy of Hope      Combination    South East     West Palm    FL              33415      2,688      $204,422.40
                     Box                           Beach
Convoy of Hope      Combination    South East     Odessa       FL              33556      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Lakeland     FL              33815      5,376      $408,844.80
                     Box
Convoy of Hope      Combination    South East     Lake Wales   FL              33853      4,032      $306,633.60
                     Box
Convoy of Hope      Combination    South East     Wauchula     FL              33873      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Ocala        FL              34474      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Tucker       GA              30084        560       $42,588.00
                     Box
Convoy of Hope      Combination    South East     Atlanta      GA              30135      2,464      $187,387.20
                     Box
Convoy of Hope      Combination    South East     Mcdonough    GA              30252      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Mcdonough    GA              30253      8,064      $613,267.20
                     Box
Convoy of Hope      Combination    South East     Peachtree    GA              30269      1,120       $85,176.00
                     Box                           City
Convoy of Hope      Combination    South East     Atlanta      GA              30318      4,032      $306,633.60
                     Box
Convoy of Hope      Combination    South East     Atlanta      GA              30336      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Chickamauga  GA              30707      2,464      $187,387.20
                     Box
Convoy of Hope      Combination    South East     Macon        GA              31210      4,032      $306,633.60
                     Box
Convoy of Hope      Combination    South East     Baxley       GA              31513      1,344      $102,211.20
                     Box
Convoy of Hope      Combination    South East     Winston      NC              27127        560       $42,588.00
                     Box                           Salem
Convoy of Hope      Combination    South East     Nashville    TN              37013      1,120       $85,176.00
                     Box
Convoy of Hope      Combination    South East     Murfreesbor  TN              37127        560       $42,588.00
                     Box                           o
Convoy of Hope      Dairy          Mountain       Springfield  MO              65802      2,286      $114,848.64
                     Products Box   Plains
Convoy of Hope      Fluid Milk     South East     Macon        GA              31210      6,480       $25,855.20
Convoy of Hope      Fluid Milk     South East     Albany       GA              31701      1,000        $3,790.00
Convoy of Hope      Fluid Milk     Mountain       Springfield  MO              65802      1,230       $29,446.20
                                    Plains
Convoy of Hope      Fresh Fruit/   Western        Yuba City    CA              95991      9,310      $133,133.00
                     Vegetable
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Springfield  MO              65802      9,245      $155,152.18
                     Vegetable      Plains
                     Box
Convoy of Hope--    Combination    South East     Adel         GA              31620      1,344      $102,211.20
 Adel First          Box
 Assembly
Convoy of Hope--    Combination    South East     Riverview    FL              33569      1,344      $102,211.20
 Bayside Community   Box
 Church
Convoy of Hope--    Combination    South East     Cairo        GA              39828      1,344      $102,211.20
 Cairo First         Box
 Assembly of God
Convoy of Hope--    Combination    South East     Mobile       AL              36619      1,344      $102,211.20
 Calvary Asm. of     Box
 God--AL Ag Dist.
Convoy of Hope--    Combination    South East     Fort         FL              33309      1,344      $102,211.20
 Calvary Chapel      Box                           Lauderdale
 Ft. Lauderdale
Convoy of Hope--    Combination    South East     Lyons        GA              30436      1,344      $102,211.20
 Faith Ag            Box
Convoy of Hope--    Combination    South East     Manchester   GA              31816        132       $10,038.60
 First Ag--          Box
 Manchester GA
Convoy of Hope--    Combination    South East     Perry        FL              32347      1,344      $102,211.20
 First Assembly of   Box
 God of Perry FL
Convoy of Hope--    Combination    South East     Miami        FL              33147      1,344      $102,211.20
 Fountain of Life    Box
 Apostolic
Convoy of Hope--    Combination    South East     Albany       GA              31707      1,344      $102,211.20
 Freedom Church      Box
 (Ag)
Convoy of Hope--    Combination    South East     Tallahassee  FL              32304      1,344      $102,211.20
 Generations         Box
 Church
Convoy of Hope--    Combination    South East     Glenwood     GA              30428      1,344      $102,211.20
 Glenwood Church     Box
 of God
Convoy of Hope--    Combination    South East     Jesup        GA              31545      1,344      $102,211.20
 Grace Assembly of   Box
 God
Convoy of Hope--    Combination    South East     Kissimmee    FL              34741      1,344      $102,211.20
 Iglesia Taber De    Box
 Evang
Convoy of Hope--    Combination    South East     Eastman      GA              31023      1,344      $102,211.20
 Lakeside Church     Box
Convoy of Hope--    Combination    South East     Athens       GA              30606      1,344      $102,211.20
 Nations Church      Box
 (Ag)
Convoy of Hope--    Fresh Fruit/   Mountain       York         NE              68467        880       $22,792.00
 New Heights Ag      Vegetable      Plains
                     Box
Convoy of Hope--    Combination    South East     Ozark        AL              36360      1,344      $102,211.20
 Ozark First         Box
 Assembly of God
Convoy of Hope--    Combination    South East     Roswell      GA              30075      1,344      $102,211.20
 Roswell Ag          Box
Convoy of Hope--    Combination    South East     Lake Placid  FL              33852      1,344      $102,211.20
 Sebring First Ag    Box
Convoy of Hope--    Combination    South East     Albany       GA              31705      2,688      $204,422.40
 Victory of Albany   Box
 (Ag)
Convoy of Hope--    Combination    South East     Vidalia      GA              30474      1,344      $102,211.20
 Vidalia First       Box
 Assembly of God
Convoy of Hope      Fresh Fruit/   Mountain       Rolla        MO              65401      2,640       $68,376.00
 1St. Assembly of    Vegetable      Plains
 God                 Box
Convoy of Hope      Fresh Fruit/   Mountain       Omaha        NE              68107        880       $22,792.00
 Abide               Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Agra         KS              67621        880       $22,792.00
 Agra                Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Poplar       MO              63901        880       $22,792.00
 Bluff First         Vegetable      Plains         Bluff
 Church              Box
Convoy of Hope      Fresh Fruit/   Mountain       Rockaway     MO              65740        880       $22,792.00
 Bridge of Faith     Vegetable      Plains         Beach
                     Box
Convoy of Hope--    Combination    South East     Zebulon      GA              30295      2,688      $204,422.40
 Christ Chapel       Box
Convoy of Hope      Fresh Fruit/   Mountain       Pittsburg    KS              66762        880       $22,792.00
 Family Life Ag      Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       St. Peters   MO              63376        880       $22,792.00
 First Ag            Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Galena       KS              66739        880       $22,792.00
 Galena Ag           Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Midwest        Garden City  MN              55432      1,760       $45,584.00
 Garden City First   Vegetable
 Ag                  Box
Convoy of Hope      Fresh Fruit/   Midwest        Minneapolis  MN              55432        880       $22,792.00
 Garden City First   Vegetable
 Ag                  Box
Convoy of Hope      Fresh Fruit/   Mountain       Garden City  KS              67846        880       $22,792.00
 Garden City First   Vegetable      Plains
 Ag                  Box
Convoy of Hope      Fresh Fruit/   Mountain       Kansas City  MO              64116        880       $22,792.00
 Hillsong Kc         Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Meriden      KS              66512        880       $22,792.00
 Jefferson Ag        Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Lees Summit  MO              64064        880       $22,792.00
 Lees Summit         Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Liberal      KS              67901        880       $22,792.00
 Liberal             Vegetable      Plains
                     Box
Convoy of Hope      Dairy          Mountain       Springfield  MO              65807      4,032      $202,567.68
 Life 360            Products Box   Plains
Convoy of Hope      Fluid Milk     Mountain       Springfield  MO              65803      2,568       $61,477.92
 Life 360                           Plains
Convoy of Hope      Fresh Fruit/   Mountain       Springfield  MO              65802      2,640       $68,376.00
 Life 360            Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Springfield  MO              65803        539       $10,294.90
 Life 360            Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Humansville  MO              65674        880       $22,792.00
 Life Church Ag      Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Balley       KS              67147        880       $22,792.00
 Life Point          Vegetable      Plains         Center
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Valley       KS              67147        880       $22,792.00
 Life Point          Vegetable      Plains         Center
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Meriden      KS              66512        880       $22,792.00
 Meriden             Vegetable      Plains
                     Box
Convoy of Hope New  Fresh Fruit/   Mountain       Taneyville   MO              65759        880       $22,792.00
 Visions Church      Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Sedalia      MO              65301        880       $22,792.00
 Sedalia             Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Springfield  MO              65802        880       $22,792.00
 Springfield         Vegetable      Plains
                     Box
Convoy of Hope St.  Fresh Fruit/   Mountain       St. Louis    MO              63132        880       $22,792.00
 Louis               Vegetable      Plains
                     Box
Convoy of Hope the  Fresh Fruit/   Mountain       Gering       NE              69341        880       $22,792.00
 Rock Church         Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Liberal      KS              67901        880       $22,792.00
 Trinity Faith       Vegetable      Plains
                     Box
Convoy of Hope      Fresh Fruit/   Mountain       Webb City    MO              64870      1,760       $45,584.00
 Webb City           Vegetable      Plains
                     Box
Convoy of Hope--    Fresh Fruit/   Mountain       St. Louis    MO              63135      3,520       $91,168.00
 Destiny Church      Vegetable      Plains
                     Box
Convoy of Hopelife  Fresh Fruit/   Mountain       Springfield  MO              65802        880       $22,792.00
 360                 Vegetable      Plains
                     Box
Convoy of Hope--    Combination    Mountain       Ozark        MO              65721     10,999      $384,635.03
 Ozark               Box            Plains
Convoy of Hope--    Dairy          Mountain       Ozark        MO              65721      1,056       $48,322.56
 Ozark               Products Box   Plains
Convoy of Hope--    Fluid Milk     Mountain       Ozark        MO              65721      7,143      $171,003.42
 Ozark                              Plains
Convoy of Hope--    Fresh Fruit/   Mountain       Ozark        MO              65721     33,829      $753,075.50
 Ozark               Vegetable      Plains
                     Box
Convoy of Hope--    Fresh Fruit/   Mountain       Logan        KS              67646        880       $22,792.00
 Pantry of           Vegetable      Plains
 Blessings           Box
Cook Elementary     Fresh Fruit/   South West     Austin       TX              78758        432        $7,339.68
                     Vegetable
                     Box
Cool Spring         Fresh Fruit/   Mid-Atlantic   Adelphi      MD              20783      7,100      $142,000.00
 Elementary School   Vegetable
                     Box
Cooley Avenue       Dairy          Midwest        Cleveland    OH              44111        175        $4,375.00
 Church of God       Products Box
Cooley Campbell Ea  Fluid Milk     South East     Laurel       MS              39443        540        $2,046.60
Coolidge High       Fresh Fruit/   South West     Coolidge     TX              76635      1,536       $26,096.64
 School              Vegetable
                     Box
Cooperativa De      Combination    Mid-Atlantic   Dorado       PR              00646        672       $58,296.00
 Viviendas Ciudad    Box
 Universitaria
Cooperativa De      Combination    Mid-Atlantic   Trujillo     PR              00976        672       $58,296.00
 Viviendas Ciudad    Box                           Alto
 Universitaria
Coopersville Cares  Dairy          Midwest        Coopersvill  MI              49404         48        $1,200.00
                     Products Box                  e
Coopersville Cares  Fresh Fruit/   Midwest        Coopersvill  MI              49404        567       $20,400.66
                     Vegetable                     e
                     Box
Copper Country      Dairy          Midwest        Hancock      MI              49930        300        $8,700.00
 Senior Meals        Products Box
Copper Country      Fresh Fruit/   Midwest        Hancock      MI              49930      1,500       $31,425.00
 Senior Meals        Vegetable
                     Box
Cor Inc.            Fluid Milk     South East     Atlanta      GA              30328        510        $1,937.30
Cora D1020          Fluid Milk     South East     Durham       NC              27701      2,808       $10,944.72
Cora Food Pantry    Fresh Fruit/   South East     Pittsboro    NC              27312        841       $14,414.81
                     Vegetable
                     Box
Cora Food Pentry    Fresh Fruit/   South East     Siler City   NC              27344      1,600       $18,400.00
                     Vegetable
                     Box
Corazon             Dairy          South West     Phoenix      AZ              85004        492       $13,038.00
                     Products Box
Corazon             Fresh Fruit/   South West     Phoenix      AZ              85004        584       $12,760.40
                     Vegetable
                     Box
Corazon             Fresh Fruit/   South West     Phoenix      AZ              85009         40          $874.00
                     Vegetable
                     Box
Corazon             Fresh Fruit/   Western        Healdsburg   CA              95448      1,550       $38,750.00
                     Vegetable
                     Box
Corazon Latino      Fluid Milk     Western        Lynwood      CA              90262      4,200       $41,958.00
 Inc.
Corazon Latino      Fresh Fruit/   Mid-Atlantic   Canovanas    PR              00729      1,680       $67,200.00
 Inc. (Canovanas)    Vegetable
                     Box
Corazon Latino      Fresh Fruit/   Mid-Atlantic   Naguabo      PR              00718      1,680       $67,200.00
 Inc. (Naguabo)      Vegetable
                     Box
Corbin Elementary   Fluid Milk     South East     Corbin       KY              40701        525        $1,989.75
Corbin Middle       Fluid Milk     South East     Corbin       KY              40701        838        $3,176.02
Cordia Elem.        Fluid Milk     South East     Hazard       KY              41701        816        $3,092.64
Core 2 Globe        Fresh Fruit/   South East     Palmetto     GA              30268        375        $7,102.50
                     Vegetable
                     Box
Core Church Broken  Fresh Fruit/   South West     Broken       OK              74011      1,078       $25,117.40
 Arrow               Vegetable                     Arrow
                     Box
Corinthian Baptist  Fresh Fruit/   Midwest        Saginaw      MI              48601        100        $1,495.00
 Church              Vegetable
                     Box
Cornell Coop. Ext.  Fresh Fruit/   North East     Lockport     NY              14094      2,400       $54,840.00
 Niagara             Vegetable
                     Box
Cornell Coop. Ext.  Fresh Fruit/   North East     Niagara      NY              14305      1,200       $27,420.00
 Niagara             Vegetable                     Falls
                     Box
Cornell Coop. Ext.  Fresh Fruit/   North East     Albion       NY              14411      3,600       $82,260.00
 Orleans             Vegetable
                     Box
Corner Stone        Fresh Fruit/   Midwest        Caledonia    MI              49316      1,000       $19,970.00
                     Vegetable
                     Box
Cornerstone         Dairy          South West     Chandler     AZ              85286         48        $1,272.00
                     Products Box
Cornerstone         Fresh Fruit/   South West     Chandler     AZ              85286         48        $1,048.80
                     Vegetable
                     Box
Cornerstone         Combination    South West     Fort Worth   TX              76111        500       $17,485.00
 Assistance          Box
 Network
Cornerstone         Dairy          South West     Fort Worth   TX              76111      1,000       $45,760.00
 Assistance          Products Box
 Network
Cornerstone         Fresh Fruit/   South West     Fort Worth   TX              76111        500        $9,550.00
 Assistance          Vegetable
 Network             Box
Cornerstone         Fluid Milk     South East     Pass         MS              39571      2,040        $7,995.60
 Baptist                                           Christian
Cornerstone         Dairy          South East     Pass         MS              39571        320        $8,985.60
 Baptist Churc.      Products Box                  Christian
Cornerstone         Fresh Fruit/   South East     Pass         MS              39571        512        $8,652.80
 Baptist Churc.      Vegetable                     Christian
                     Box
Cornerstone         Precooked      South East     Pass         MS              39571        504       $20,694.24
 Baptist Churc.      Meat Box                      Christian
Cornerstone         Fresh Fruit/   Western        Redmond      OR              97756          6          $282.00
 Christian           Vegetable
                     Box
Cornerstone         Fresh Fruit/   South East     Sparta       GA              31087      1,920       $36,364.80
 Christian Church    Vegetable
                     Box
Cornerstone         Precooked      Midwest        Country      IL              60478        216       $17,521.92
 Christian           Meat Box                      Club Hills
 Fellowship
Cornerstone Church  Dairy          South West     San Antonio  TX              78255      1,088       $30,844.80
                     Products Box
Cornerstone Church  Fluid Milk     South West     San Antonio  TX              78258      6,892       $20,124.64
Cornerstone Church  Fresh Fruit/   Midwest        Caledonia    MI              49316      5,910      $118,022.70
                     Vegetable
                     Box
Cornerstone Church  Fresh Fruit/   Midwest        Highland     MI              48357        300        $8,625.00
                     Vegetable
                     Box
Cornerstone Church  Fresh Fruit/   South West     Arlington    TX              76018      8,256      $140,269.44
                     Vegetable
                     Box
Cornerstone Church  Fresh Fruit/   South West     San Antonio  TX              78255      3,080       $77,000.00
                     Vegetable
                     Box
Cornerstone Church  Fresh Fruit/   South West     San Antonio  TX              78258      4,608       $78,289.92
                     Vegetable
                     Box
Cornerstone Church  Precooked      South West     San Antonio  TX              78255      2,976      $306,974.40
                     Meat Box
Cornerstone Church/ Combination    South West     Dallas       TX              75212      1,000       $34,970.00
 School              Box
Cornerstone Church/ Dairy          South West     Dallas       TX              75212      2,550      $116,688.00
 School              Products Box
Cornerstone Church/ Fresh Fruit/   South West     Dallas       TX              75212      1,500       $30,750.00
 School              Vegetable
                     Box
Cornerstone         Fresh Fruit/   South East     Atlanta      GA              30310        140        $2,651.60
 Community           Vegetable
                     Box
Cornerstone Food    Dairy          Mid-Atlantic   Export       PA              15632        425        $8,937.75
 Bank                Products Box
Corona Norco        Fresh Fruit/   Western        Corona       CA              92882        110        $3,190.00
 Settlement          Vegetable
                     Box
Corpus Christi      Fresh Fruit/   Mid-Atlantic   Bridgeville  PA              15017        760       $22,800.00
 Parish              Vegetable
                     Box
Corrnerstone        Fresh Fruit/   South East     Anniston     AL              36207        600       $15,570.00
 Worship             Vegetable
                     Box
Corunna Public      Fresh Fruit/   Midwest        Corunna      MI              48814        413       $14,859.74
 Schools             Vegetable
                     Box
Corvallis School    Combination    Western        Corvallis    OR              97330        180        $6,300.00
 District            Box
Corvallis School    Dairy          Western        Corvallis    OR              97330         50        $1,500.00
 District            Products Box
Corvallis School    Fresh Fruit/   Western        Corvallis    OR              97330         60        $1,620.00
 District            Vegetable
                     Box
Cory Elementary     Fresh Fruit/   Midwest        Romulus      MI              48174        250        $3,737.50
 School              Vegetable
                     Box
Cosmopolitan        Precooked      Midwest        Melrose      IL              60160         72        $5,840.64
 United              Meat Box                      Park
Council Bluffs      Fresh Fruit/   Midwest        Council      IA              51501        630       $22,667.40
 Schools             Vegetable                     Bluffs
                     Box
Council of          Fresh Fruit/   North East     Bridgeport   CT              06607      1,180       $35,400.00
 Churches of         Vegetable
 Greater             Box
 Bridgeport
Council on Aging    Fluid Milk     South West     Baton Rouge  LA              70802      6,372       $18,606.24
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        611       $28,717.00
                     Vegetable
                     Box
Council on Aging--  Fresh Fruit/   Western        Madras       OR              97741        120        $5,640.00
 Madras Senior       Vegetable
 Center              Box
Council on Aging--  Fresh Fruit/   Western        Redmond      OR              97756        215       $10,105.00
 Redmond Senior      Vegetable
 Center              Box
Council on Aging    Fluid Milk     Western        Colfax       WA              99111        413        $1,457.89
 and Human
 Services
Council on Aging    Fresh Fruit/   Western        Colfax       WA              99111        240        $6,000.00
 and Human           Vegetable
 Services            Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        210        $9,870.00
 Azimuth 315         Vegetable
                     Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701         15          $705.00
 Greenwood           Vegetable
 Apartment           Box
Council on Aging    Fresh Fruit/   Western        Lapine       OR              97739        180        $8,460.00
 Lapine Senior       Vegetable
 Center              Box
Council on Aging    Combination    South East     Fort Pierce  FL              34950      1,680      $127,764.00
 of St. Lucie        Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        263       $12,361.00
 Open Door           Vegetable
                     Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        120        $5,640.00
 Pilot Butte         Vegetable
                     Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        120        $5,640.00
 Quimby              Vegetable
                     Box
Council on Aging    Fresh Fruit/   Western        Sisters      OR              97759        126        $5,922.00
 Sisters Community   Vegetable
 Church              Box
Council on Aging    Fresh Fruit/   Western        Bend         OR              97701        105        $4,935.00
 Vintage             Vegetable
                     Box
Council on Finance  Fresh Fruit/   Mid-Atlantic   Catawissa    PA              17820        440       $11,000.00
 and Admistration    Vegetable
 of the United       Box
Countil of Aging    Fluid Milk     South West     Jennings     LA              70546        220          $642.40
Country Commons     Dairy          Mid-Atlantic   Bensalem     PA              19020        130        $4,386.20
 Community           Products Box
Country Commons     Fresh Fruit/   Mid-Atlantic   Bensalem     PA              19020         72        $1,654.56
 Community           Vegetable
                     Box
Country Neighbor    Dairy          Midwest        Andover      OH              44003        130        $3,250.00
                     Products Box
Country Neighbor    Dairy          Midwest        Kingsville   OH              44048        200        $5,000.00
                     Products Box
Country Neighbor    Dairy          Midwest        Orwell       OH              44076        130        $3,250.00
                     Products Box
Covenant Christian  Dairy          Midwest        Grand        MI              49534         85        $2,465.00
 High School         Products Box                  Rapids
Covenant Christian  Fresh Fruit/   Midwest        Grand        MI              49534        175        $3,675.00
 High School         Vegetable                     Rapids
                     Box
Covenant Community  Fluid Milk     South East     Madisonvill  KY              42431        900        $2,025.00
 Church                                            e
Covenant House      Fluid Milk     South East     Fort         FL              33304         52          $197.08
                                                   Lauderdale
Covenant House      Fresh Fruit/   Western        Anchorage    AK              99501         72        $2,012.40
                     Vegetable
                     Box
Covenant House      Fresh Fruit/   Western        Anchorage    AK              99501        432       $12,074.40
                     Vegetable
                     Box
Covenant House      Fresh Fruit/   Midwest        Detroit      MI              48216        300        $4,485.00
 Academy             Vegetable
                     Box
Covenant House      Fluid Milk     South East     Orlando      FL              32807         60          $227.40
 Flor
Covenant            Fresh Fruit/   South East     Cleveland    MS              38732         50          $997.50
 Prebyterian         Vegetable
                     Box
Covenant            Fresh Fruit/   South East     Cleveland    MS              38732        290        $5,785.50
 Presbyterian        Vegetable
 Church              Box
Covenant Soup       Combination    North East     Willimantic  CT              06226         40        $1,400.00
 Kitchen             Box
Covenant United     Fluid Milk     Midwest        South        IL              60473        360        $1,195.20
                                                   Holland
Covenant United     Precooked      Midwest        South        IL              60473        576       $46,725.12
                     Meat Box                      Holland
Covenant United     Combination    Midwest        South        IL              60473        650       $66,516.00
 Church of Christ    Box                           Holland
Covenant United     Fresh Fruit/   Midwest        South        IL              60473        546       $20,400.00
 Church of Christ    Vegetable                     Holland
                     Box
Covington County    Fresh Fruit/   South East     Mt. Olive    MS              39119        260       $15,600.00
 Self Help           Vegetable
                     Box
Covington County    Fresh Fruit/   South East     Collins      MS              39428        200       $12,000.00
 Self Help           Vegetable
                     Box
Covington County    Fresh Fruit/   South East     Mt. Olive    MS              39119        460       $27,600.00
 Self--Help          Vegetable
                     Box
Covington           Combination    Western        Covington    WA              98042        760       $26,600.00
 Elementary USDA     Box
Covington           Dairy          Western        Covington    WA              98042        400       $12,000.00
 Elementary USDA     Products Box
Covington           Fresh Fruit/   Western        Covington    WA              98042        760       $20,520.00
 Elementary USDA     Vegetable
                     Box
Covington Family    Fluid Milk     South East     Covington    GA              30014        358        $1,404.82
 YMCA
Covington Family    Fresh Fruit/   South East     Covington    GA              30014        295        $5,900.00
 YMCA                Vegetable
                     Box
Covington United    Fluid Milk     South East     Covington    GA              30014        720        $2,728.80
 Methodist
Covington United    Fresh Fruit/   South East     Covington    GA              30014      2,260       $42,804.40
 Methodist           Vegetable
                     Box
Coyote Hill         Fluid Milk     Mountain       Harrisburg   MO              65256         35          $404.68
 Christian                          Plains
Cravens Elem        Fluid Milk     South East     Owensboro    KY              42301        756        $1,701.00
Crawford Ausable    Fresh Fruit/   Midwest        Grayling     MI              49738         70        $2,518.60
 School District     Vegetable
                     Box
Crawford Central    Fresh Fruit/   Mid-Atlantic   Meadville    PA              16335        480       $14,400.00
 School District     Vegetable
                     Box
Crawford Co.        Fluid Milk     Midwest        Leavenworth  IN              47137        540        $1,215.00
 United Min.
Crawford County     Dairy          Midwest        Grayling     MI              48738        200        $5,800.00
 Commission          Products Box
Crawford County     Fresh Fruit/   Midwest        Grayling     MI              48738        300        $6,250.00
 Commission          Vegetable
                     Box
Crawford Sebastian  Fresh Fruit/   South West     Fort Smith   AR              72901        539       $12,558.70
 Community           Vegetable
                     Box
CRCI Catering       Fluid Milk     South East     Shallotte    NC              28470      4,320       $17,236.80
CRCI Catering       Fresh Fruit/   South East     Shallotte    NC              28470      1,344       $25,401.60
                     Vegetable
                     Box
Creative Outreach   Fluid Milk     South West     Conroe       TX              77301     20,300       $59,276.00
 Ministries
Creative Outreach   Fresh Fruit/   South West     Conroe       TX              77301     13,184      $223,996.16
 Ministries          Vegetable
                     Box
Credicentrocoop     Combination    Mid-Atlantic   Barranquita  PR              00794        672       $66,528.00
                     Box                           s
Creekview/Betty     Fresh Fruit/   Western        San Jose     CA              95133        101        $3,215.84
 Anne                Vegetable
                     Box
Creer Familia       Combination    Western        San Jacinto  CA              92675      1,400       $38,150.00
                     Box
Creer Familia       Fresh Fruit/   Western        San Jacinto  CA              92675      1,000       $24,750.00
                     Vegetable
                     Box
Creer Familia       Fresh Fruit/   Western        San Juan     CA              92675      2,900       $71,775.00
                     Vegetable                     Capistrano
                     Box
Crescent Academy    Fresh Fruit/   Midwest        Southfield   MI              48076        646       $23,243.08
 Schools             Vegetable
                     Box
Crest Haven         Fresh Fruit/   Mid-Atlantic   Cape May     NJ              08210        252        $4,775.40
 Nursing Home        Vegetable                     Court
                     Box                           House
Crestview           Fresh Fruit/   Mountain       Kansas City  MO              64116        640       $16,576.00
 Elementary School   Vegetable      Plains
                     Box
Crestview           Fresh Fruit/   South East     Panama City  FL              32405         50        $1,450.00
 Independent         Vegetable
 Baptist             Box
Crestview           Fresh Fruit/   South East     Crestview    FL              32536        250        $7,250.00
 Independent         Vegetable
 Baptist             Box
Crestwood High      Fresh Fruit/   Midwest        Dearborn     MI              48127        800       $16,164.00
 School              Vegetable                     Heights
                     Box
Crisp County High   Fresh Fruit/   South East     Cordele      GA              31015      1,920       $36,364.80
 School              Vegetable
                     Box
Crispus Attucks     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        900       $18,000.00
 Rec Center          Vegetable
                     Box
Cristo Pobre        Fresh Fruit/   Mid-Atlantic   Ponce        PR              00730        600       $23,400.00
                     Vegetable
                     Box
Crocket Elementary  Fluid Milk     South West     Phoenix      AZ              85008        580        $4,570.40
Crocket Elementary  Fresh Fruit/   South West     Phoenix      AZ              85008        950       $26,125.00
                     Vegetable
                     Box
Crockett County     Dairy          South East     Alamo        TN              38001      1,260       $31,500.00
 Senior Center--C/   Products Box
 O Mid South Food
Crockett County     Fresh Fruit/   South East     Alamo        TN              38001        540       $13,230.00
 Senior Center--C/   Vegetable
 O Mid South Food    Box
Crofton Elementary  Fluid Milk     South East     Hopkinsvill  KY              42241      1,926        $4,333.50
                                                   e
Cross Central       Fresh Fruit/   South West     Bryan        TX              77803        336        $5,708.64
 Church              Vegetable
                     Box
Cross Church        Combination    South West     Houma        LA              70364      1,200       $41,964.00
                     Box
Cross Church        Dairy          South West     Houma        LA              70364      3,168      $144,967.68
                     Products Box
Cross Church        Fresh Fruit/   South West     Houma        LA              70364        343        $6,551.30
                     Vegetable
                     Box
Cross Church        Fresh Fruit/   South West     San Benito   TX              78586      1,536       $26,096.64
                     Vegetable
                     Box
Cross Country       Dairy          South West     Tucson       AZ              85711         48        $1,272.00
 Outreach            Products Box
Cross Country       Dairy          South West     Tucson       AZ              85712        198        $5,247.00
 Outreach            Products Box
Cross Country       Dairy          South West     Tucson       AZ              85713         96        $2,544.00
 Outreach            Products Box
Cross Country       Fresh Fruit/   South West     Tucson       AZ              85711         56        $1,223.60
 Outreach            Vegetable
                     Box
Cross Country       Fresh Fruit/   South West     Tucson       AZ              85712        400        $8,740.00
 Outreach            Vegetable
                     Box
Cross Country       Fresh Fruit/   South West     Tucson       AZ              85713        120        $2,622.00
 Outreach            Vegetable
                     Box
Cross Creek         Fresh Fruit/   South East     Baker        FL              32531      1,200       $34,800.00
 Country Fellow      Vegetable
                     Box
Cross Lines Coop    Dairy          Mountain       Kansas City  MO              66105        240       $10,982.40
 Council             Products Box   Plains
Cross Lines Coop    Fresh Fruit/   Mountain       Kansas City  MO              66105        738       $11,298.60
 Council             Vegetable      Plains
                     Box
Cross the Goal      Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Foundation          Box
Crossett Food       Fresh Fruit/   South West     Crossett     AR              71635      1,008       $27,720.00
 Pantry              Vegetable
                     Box
Crossfire           Fresh Fruit/   Mountain       Colorado     Co.             80909      5,964      $154,467.60
 Ministries          Vegetable      Plains         Springs
                     Box
Crossing on Lane    Fresh Fruit/   South West     Houston      TX              77029        512        $8,698.88
                     Vegetable
                     Box
Cross-Lines Coop.   Dairy          Mountain       Kansas City  KS              66105        180        $8,236.80
 Council             Products Box   Plains
Cross-Lines Coop.   Fresh Fruit/   Mountain       Kansas City  KS              66105        661       $10,462.45
 Council             Vegetable      Plains
                     Box
Crossover Downtown  Fresh Fruit/   Midwest        Flint        MI              48503        400       $11,500.00
 Minestry            Vegetable
                     Box
Crosspoint Church   Fresh Fruit/   South East     Ponce De     FL              32455      1,800       $52,200.00
 of Ponce De Leon    Vegetable                     Leon
                     Box
Crosspoint New      Fluid Milk     Mountain       Rocky Mount  MO              65026     23,310       $52,447.50
 Life AOG                           Plains
Crosspoint United   Fresh Fruit/   South East     Niceville    FL              32578      1,500       $43,500.00
 Methodist Church    Vegetable
                     Box
Crossroad & Mini    Fluid Milk     South East     Tampa        FL              33610      6,912       $26,887.68
Crossroad & Mini    Fluid Milk     South East     Ocala        FL              34474     15,552       $60,713.28
Crossroads Charter  Fresh Fruit/   Midwest        Big Rapids   MI              49307        280       $10,074.40
 Academy             Vegetable
                     Box
Crossroads Church   Fresh Fruit/   South East     Bay Minette  AL              36507        550       $15,950.00
                     Vegetable
                     Box
Crossroads Church   Dairy          Mid-Atlantic   Monroeville  PA              15146          6          $126.18
 Food Pantry         Products Box
Crossroads Church   Dairy          South West     Oklahoma     OK              73149        576       $26,357.76
 Okc                 Products Box                  City
Crossroads Church   Fluid Milk     South West     Oklahoma     OK              73149      1,980       $47,401.20
 Okc                                               City
Crossroads Church   Fresh Fruit/   South West     Oklahoma     OK              73149        539       $10,294.90
 Okc                 Vegetable                     City
                     Box
Crossroads Comm.    Fluid Milk     South West     Dallas       TX              75236      1,792        $5,313.84
Crossroads Comm.    Fluid Milk     South West     Independenc  LA              70443      4,648       $13,818.08
 Org.                                              e
Crossroads          Fresh Fruit/   South West     Dallas       TX              75237        280        $4,757.20
 Community Service   Vegetable
                     Box
Crossroads Food     Dairy          South East     Poplarville  MS              39426        640       $17,971.20
 Pantry IN           Products Box
Crossroads Food     Precooked      South East     Poplarville  MS              39426        252       $10,347.12
 Pantry IN           Meat Box
Crossroads of       Fresh Fruit/   Midwest        Detroit      MI              48208        200        $5,750.00
 Detroit             Vegetable
                     Box
Crossroads          Fluid Milk     South West     Baton Rouge  LA              70815        156          $470.60
 Recovery
Crosswalk Comm.     Dairy          Midwest        West         IL              62896        520       $15,470.00
 Action              Products Box                  Frankfort
Crosswalk Comm.     Fresh Fruit/   Midwest        West         IL              62896        770       $21,175.00
 Action              Vegetable                     Frankfort
                     Box
Crosswalk Comm.     Dairy          Midwest        West         IL              62896        250        $7,437.50
 Action Agency       Products Box                  Frankfort
Crosswalk Comm.     Fresh Fruit/   Midwest        West         IL              62896        150        $4,125.00
 Action Agency       Vegetable                     Frankfort
                     Box
Crossword Church    Fresh Fruit/   Western        Moreno       CA              92557        300        $8,700.00
                     Vegetable                     Valley
                     Box
Croswell Lexington  Fresh Fruit/   Midwest        Croswell     MI              48422      2,150       $61,812.50
 Schools             Vegetable
                     Box
Crothersville       Fluid Milk     Midwest        Crothersvil  IN              47229        700        $2,800.00
 Comm. Sch.                                        le
Crowley Christ      Fluid Milk     South West     Crowley      LA              70526      2,124        $6,289.08
 Care
Crown of Glory      Fresh Fruit/   Midwest        Detroit      MI              48204        300        $8,625.00
                     Vegetable
                     Box
Crown of Life       Fresh Fruit/   Mid-Atlantic   Edgewood     MD              21040        250        $5,237.50
 Worship             Vegetable
                     Box
Crumly Chapel       Fresh Fruit/   South East     Birmingham   AL              35214      3,620       $93,939.00
 United Methodist    Vegetable
                     Box
Crystal Springs     Dairy          South East     Crystal      MS              39059        240        $6,739.20
 Church of           Products Box                  Springs
Crystal Springs     Fluid Milk     South East     Crystal      MS              39059        576        $4,227.84
 Church of                                         Springs
CSM 1St. Baptist    Fresh Fruit/   South East     Birmingham   AL              35207        540       $14,013.00
 Church Acipco       Vegetable
                     Box
CSM IPA 19          Combination    Mid-Atlantic   Arecibo      PR              00612        672       $66,528.00
                     Box
CSM IPA19 Clinica   Combination    Mid-Atlantic   Hatillo      PR              00659        672       $33,600.00
                     Box
CT Baker            Fresh Fruit/   Midwest        Wood Dale    IL              60191        126        $4,533.48
 Performing Arts     Vegetable
 Ctn                 Box
CT Baker            Precooked      Midwest        Maywood      IL              60153         72        $5,840.64
 Performing Arts     Meat Box
 Ctn
Ctr. for Manifest   Fluid Milk     South East     Tampa        FL              33610        300        $1,137.00
 Ch
Cuba Cultural       Fresh Fruit/   North East     Cuba         NY              14727        800       $18,280.00
 Center              Vegetable
                     Box
Cuba Ministerial    Fresh Fruit/   Mountain       Cuba         MO              65453      1,405       $38,637.50
 Alliance            Vegetable      Plains
                     Box
Cuba School         Fresh Fruit/   North East     Cuba         NY              14727        800       $18,280.00
                     Vegetable
                     Box
Cuba Senior Center  Fresh Fruit/   Mountain       Cuba         MO              65453        240        $6,600.00
                     Vegetable      Plains
                     Box
Cuba Township Food  Fresh Fruit/   Midwest        Barrington   IL              60010        144        $2,152.80
 Pantry              Vegetable
                     Box
Cullman Caring for  Fresh Fruit/   South East     Cullman      AL              35055        350        $8,750.00
 Kids                Vegetable
                     Box
Cullman Re-Enrty    Fresh Fruit/   South East     Cullman      AL              35055         14          $350.00
 for Addiction       Vegetable
                     Box
Cultivate Culinary  Fluid Milk     Midwest        South Bend   IN              46613      6,480       $25,920.00
 School
Cultivate Culinary  Fresh Fruit/   Midwest        South Bend   IN              46613      1,200       $28,800.00
 School              Vegetable
                     Box
Cultura Y Arte      Combination    Western        San          CA              94110     11,050      $301,112.50
 Nativa De Las       Box                           Francisco
 Americas
Cultura Y Arte      Dairy          Western        San          CA              94110      1,750       $56,000.00
 Nativa De Las       Products Box                  Francisco
 Americas
Cultura Y Arte      Fluid Milk     Western        San          CA              94110     34,128      $162,108.00
 Nativa De Las                                     Francisco
 Americas
Cultura Y Arte      Fresh Fruit/   Western        San          CA              94110     16,730      $320,757.50
 Nativa De Las       Vegetable                     Francisco
 Americas            Box
Cumac/Echo Inc.     Fluid Milk     Mid-Atlantic   Paterson     NJ              07505        714       $22,524.96
Cumac/Echo Inc.     Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07505      6,480      $148,910.40
                     Vegetable
                     Box
Cumberland Cape     Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08360        441        $8,356.95
 Atlantic YMCA       Vegetable
                     Box
Cumberland          Fluid Milk     South East     Smyrna       GA              30080        740        $2,887.00
 Community Church
Cumberland          Fresh Fruit/   South East     Smyrna       GA              30080        810       $16,200.00
 Community Church    Vegetable
                     Box
Cumby Food Pantry   Fluid Milk     South West     Cumby        TX              75433        496        $1,448.32
CUMC Springbr Cmm.  Fresh Fruit/   Midwest        Springboro   OH              45066         64        $1,248.00
 Ast. Ctr.           Vegetable
                     Box
Cupey Renace        Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
                     Box
Curleys House of    Combination    South East     Miami        FL              33127     10,752      $817,689.60
 Style Food Book     Box
Cursillo De         Combination    Mid-Atlantic   San Juan     PR              00921      1,344       $67,200.00
 Cristiandad         Box
Curtis Bay Rec      Fresh Fruit/   Mid-Atlantic   Curtis Bay   MD              21226        900       $18,000.00
 Center              Vegetable
                     Box
Curtis Center       Precooked      Midwest        Curtis       MI              49820         61        $2,305.68
                     Meat Box
Cushing High        Combination    South West     Cushing      OK              74023      2,112       $73,856.64
 School USDA         Box
Cushing High        Dairy          South West     Cushing      OK              74023      1,115       $51,022.40
 School USDA         Products Box
Cushing High        Fresh Fruit/   South West     Cushing      OK              74023      1,889       $27,182.50
 School USDA         Vegetable
                     Box
Cutler/Orosi Joint  Fresh Fruit/   Western        Orosi        CA              93647      1,650       $36,300.00
 Unified School      Vegetable
 District            Box
Cutting Edge        Fluid Milk     South East     Zolfo        FL              33890      1,008        $3,820.32
 Minist.                                           Springs
CV Baraga.-Hghton.- Dairy          Midwest        Houghton     MI              49931      1,056       $26,400.00
 Keewnw. Fb.         Products Box
CV Blast Detroit    Dairy          Midwest        Detroit      MI              48212      2,112       $52,800.00
 Wkly Loc1           Products Box
CV Blast Detroit    Dairy          Midwest        Salliotte    MI              48229        384        $9,600.00
 Wkly Loc1           Products Box                  Ecorse
CV Blast Detroit    Dairy          Midwest        Oak Park     MI              48235      1,776       $44,400.00
 Wkly Loc2           Products Box
CV Blue Water       Dairy          Midwest        Fort         MI              48059      1,056       $26,400.00
 Comm. Action        Products Box                  Gratiot
CV Blue Water       Dairy          Midwest        Port Huron   MI              48060        432       $10,800.00
 Comm. Action        Products Box
CV Bread Life/Have  Dairy          Midwest        Greenville   MI              48838        144        $3,600.00
 Mercy               Products Box
CV Cass City        Dairy          Midwest        Cass City    MI              48726      1,168       $30,800.00
 Schools             Products Box
CV Cass City        Fresh Fruit/   Midwest        Cass City    MI              48726        800       $17,250.00
 Schools             Vegetable
                     Box
CV Chelsea High     Dairy          Midwest        Chelsea      MI              48118      1,391       $38,035.00
 School              Products Box
CV Chippw.-Luce.-   Dairy          Midwest        Sault        MI              49783      4,896      $122,400.00
 MacKinc. CAA        Products Box                  Sainte
                                                   Marie
CV Chippw.-Luce.-   Fluid Milk     Midwest        Sault        MI              49783      3,888        $8,748.00
 MacKinc. CAA                                      Sainte
                                                   Marie
CV Coldwater        Dairy          Midwest        Coldwater    MI              49036        300        $7,500.00
 Schools             Products Box
CV Comm. Action     Dairy          Midwest        Allegan      MI              49010        768       $19,200.00
 Allegan Co          Products Box
CV Commnty Fd Bskt  Dairy          Midwest        Caledonia    MI              49316         48        $1,200.00
 Caldnia             Products Box
CV Davison Central  Dairy          Midwest        Davison      MI              48423        480       $12,000.00
 Elem                Products Box
CV Davison Central  Fresh Fruit/   Midwest        Davison      MI              48423        644       $23,171.12
 Elem                Vegetable
                     Box
CV Davison Gates    Dairy          Midwest        Davison      MI              48423        431       $10,775.00
 Elem                Products Box
CV Davison Gates    Fresh Fruit/   Midwest        Davison      MI              48423        816       $29,359.68
 Elem.               Vegetable
                     Box
CV Davison Hahn     Dairy          Midwest        Davison      MI              48423        288        $7,200.00
 School              Products Box
CV Davison Hahn     Fresh Fruit/   Midwest        Davison      MI              48423        420       $15,111.60
 School              Vegetable
                     Box
CV Davison Siple    Dairy          Midwest        Davison      MI              48423        192        $4,800.00
 Elemtry.            Products Box
CV Davison Siple    Fresh Fruit/   Midwest        Davison      MI              48423        570       $20,508.60
 Elemtry.            Vegetable
                     Box
CV Elsie Untd       Dairy          Midwest        Elsie        MI              48831         24          $600.00
 Mthdst/Lions        Products Box
CV Epic Church/     Dairy          Midwest        Shelby       MI              48317         48        $1,200.00
 Serve Local         Products Box                  Township
CV Ewen Trout       Dairy          Midwest        Ewen         MI              49925        144        $3,600.00
 Creek Schools       Products Box
CV Exodus Place     Dairy          Midwest        Grand        MI              49504        192        $4,800.00
                     Products Box                  Rapids
CV Family Network/  Dairy          Midwest        Wyoming      MI              49509        192        $4,800.00
 Wyoming             Products Box
CV Fish/Gr. Blanc   Dairy          Midwest        Grand Blanc  MI              48439        192        $4,800.00
 @St. Chris          Products Box
CV Forest Area      Dairy          Midwest        Fife Lake    MI              49633         48        $1,200.00
 Schools             Products Box
CV Four County      Dairy          Midwest        Almont       MI              48003      1,824       $45,600.00
 Comm. Fndtn         Products Box
CV Four County      Fresh Fruit/   Midwest        Almont       MI              48003        530        $7,923.50
 Comm. Fndtn.        Vegetable
                     Box
CV Gleaners Olhsa   Fluid Milk     Midwest        Warren       MI              48088     13,608       $30,618.00
 Bnk. Wrrn.
CV Gleaners Olhsa   Fluid Milk     Midwest        Warren       MI              48091      9,720       $21,870.00
 Bnk. Wrrn.
CV Gleaners Olhsa   Fluid Milk     Midwest        Warren       MI              48092      2,898        $6,520.50
 Bnk. Wrrn.
CV Glnrs IN--Fdbk.  Dairy          Mountain       Lincoln      NE              68501      5,808      $145,200.00
 Lincoln             Products Box   Plains
CV Good Samartn.    Dairy          Midwest        Bay City     MI              48708         72        $1,800.00
 Resc. Mnstr.        Products Box
CV Goodrich Untd.   Dairy          Midwest        Goodrich     MI              48438         48        $1,200.00
 Mthd. Chrc.         Products Box
CV Harvest Stand    Dairy          Midwest        Zeeland      MI              49464         96        $2,400.00
 Ministrie           Products Box
CV Jehovah Jireh    Fluid Milk     Midwest        Hudsonville  MI              49426        945        $2,126.25
 Ministry
CV Kalkska Area     Dairy          Midwest        Kalkaska     MI              49646        144        $3,600.00
 Infth. Resr.        Products Box
CV Kingsford        Dairy          Midwest        Kingsford    MI              49802        240        $6,000.00
 Public Schools      Products Box
CV Laker Schools    Dairy          Midwest        Pigeon       MI              48755        912       $22,800.00
                     Products Box
CV Leelanau         Dairy          Midwest        Lake         MI              49653        144        $3,600.00
 Chrstn. Nghbors.    Products Box                  Leelanau
CV Manton           Dairy          Midwest        Manton       MI              49663        192        $4,800.00
 Consolidated Sch.   Products Box
CV Marquette        Dairy          Midwest        Marquette    MI              49855        624       $15,600.00
 Schools             Products Box
CV Mich. Muslim     Dairy          Midwest        Detroit      MI              48206      1,056       $26,400.00
 Comm. Councl        Products Box                  Church
CV Mich. Muslim     Dairy          Midwest        Ecorse       MI              48229      3,168       $79,200.00
 Comm. Councl        Products Box
CV Mich. Muslim     Dairy          Midwest        Warren of N  MI              48092      4,224      $105,600.00
 Comm. Councl        Products Box                  Amrca
CV Muskegon Oceana  Dairy          Midwest        Muskegon     MI              49441        504       $12,600.00
 CAA                 Products Box
CV Negaunee         Dairy          Midwest        Negaunee     MI              49866        144        $3,600.00
 Lakeview Elem.      Products Box
CV Portland Comm.   Dairy          Midwest        Portland     MI              48875         24          $600.00
 Food Bank           Products Box
CV Prelude Home     Dairy          Midwest        Brighton     MI              48114        432       $10,800.00
 Brighton            Products Box
CV Rise Corp        Dairy          Midwest        Battle       MI              49037        864       $21,600.00
 Program             Products Box                  Creek
CV Rose City        Dairy          Midwest        Rose City    MI              48654         96        $2,400.00
 School              Products Box
CV Southfield A&T   Dairy          Midwest        Southfield   MI              48033      2,112       $52,800.00
 School              Products Box
CV Swest. MI        Dairy          Midwest        Benton       MI              49022      1,056       $26,400.00
 Cmmty. Food Bnk     Products Box                  Harbor
CV the Green Apple  Dairy          Midwest        Grand        MI              49508        432       $10,800.00
 Pantry              Products Box                  Rapids
CV Udim/Miranda in  Dairy          Midwest        Grand        MI              49504        864       $21,600.00
 Th Park             Products Box                  Rapids
CV Udim/Miranda in  Dairy          Midwest        Kentwood     MI              49508      1,056       $26,400.00
 Th Park             Products Box
CV Udim/Miranda in  Dairy          Midwest        Kentwood     MI              49548      1,080       $27,000.00
 Th Park             Products Box
CV Wbranch Surline  Dairy          Midwest        West Branch  MI              48661        144        $3,600.00
 Elem                Products Box
CVUSD Briggs        Fresh Fruit/   Western        Chino        CA              91710        400       $10,000.00
                     Vegetable
                     Box
CVUSD Cal Aero      Fresh Fruit/   Western        Chino        CA              91710        800       $20,000.00
                     Vegetable
                     Box
CVUSD Canyon Hills  Fresh Fruit/   Western        Chino Hills  CA              91709        720       $18,000.00
                     Vegetable
                     Box
CVUSD Magnolia      Fresh Fruit/   Western        Chino        CA              91710      1,120       $28,000.00
                     Vegetable
                     Box
CVUSD Ramona MS     Fresh Fruit/   Western        Chino        CA              91710        960       $24,000.00
                     Vegetable
                     Box
CVUSD Townsend      Fresh Fruit/   Western        Chino Hills  CA              91709        240        $6,000.00
                     Vegetable
                     Box
CVUSD Woodcrest MS  Fresh Fruit/   Western        Ontario      CA              91710        720       $18,000.00
                     Vegetable
                     Box
CWC M/Shfb Vb838    Fluid Milk     South East     Ormond       FL              32174        380        $1,440.20
                                                   Beach
CWR Community Help  Fresh Fruit/   Midwest        Detroit      MI              48211         60          $897.00
 Center              Vegetable
                     Box
CY Fair Helping     Fluid Milk     South West     Houston      TX              77095        350        $1,123.50
 Hands
CY Fair Helping     Fresh Fruit/   South West     Houston      TX              77095      1,336       $22,698.64
 Hands               Vegetable
                     Box
Cypress Church      Fresh Fruit/   Western        Salinas      CA              93908      5,028       $85,476.00
                     Vegetable
                     Box
Cypress Church      Fresh Fruit/   Western        Marina       CA              93933      2,320       $39,440.00
                     Vegetable
                     Box
Cypress Ministries  Fluid Milk     South West     Houston      TX              77065      1,100        $3,270.00
D&R Sport           Fluid Milk     South West     Marrero      LA              70072        425        $1,312.05
 Foundatio
Dabo Center         Fresh Fruit/   Midwest        Detroit      MI              48204      1,512       $54,401.76
                     Vegetable
                     Box
Dade Brighter       Combination    South West     Dallas       TX              75215        150        $5,245.50
 Bites               Box
Dade Brighter       Fresh Fruit/   South West     Dallas       TX              75215      1,050       $21,315.00
 Bites               Vegetable
                     Box
Dade County School  Fresh Fruit/   South East     Trenton      GA              30752      1,000       $20,000.00
 Nutrion             Vegetable
                     Box
Daily Bowl          Combination    Western        Union City   CA              94587      2,100       $57,225.00
                     Box
Daily Bowl          Dairy          Western        Union City   CA              94587      2,250       $72,000.00
                     Products Box
Daily Bowl          Fresh Fruit/   Western        Union City   CA              94587      1,000       $24,750.00
                     Vegetable
                     Box
Daily Bread         Precooked      Mid-Atlantic   Collegevill  PA              19426         30          $540.00
 Community Food      Meat Box                      e
 Pantry
Daily Bread         Dairy          South West     San Antonio  TX              78218      1,000       $45,760.00
 Ministries          Products Box
Daily Bread         Fluid Milk     South West     Boerne       TX              78015        160          $467.20
 Ministries
Daily Bread         Fluid Milk     South West     San Antonio  TX              78219     22,968       $67,066.56
 Ministries
Dale County Rescue  Fluid Milk     South East     Ozark        AL              36360      1,164        $4,526.76
Dallas County       Fluid Milk     South West     Dallas       TX              75207        990       $23,700.60
 Sheriff's of fice
Dallas County       Fresh Fruit/   South West     Dallas       TX              75207        671       $12,816.10
 Sheriff's of fice   Vegetable
                     Box
Dallas First        Fresh Fruit/   South West     Dallas       TX              75204      1,568       $26,640.32
 Church Seventh      Vegetable
                     Box
Dallas New Life     Fluid Milk     South West     Richardson   TX              75081        216          $630.72
 Sev
Damascus Rd.        Fresh Fruit/   Mid-Atlantic   Cockeysvill  MD              21030        150        $3,142.50
 Community Baptist   Vegetable                     e
                     Box
Dando El Pan al     Combination    Mid-Atlantic   Villalba     PR              00766        672       $33,600.00
 Necesitado          Box
Daniel Payne Plaza  Fresh Fruit/   South East     Birmingham   AL              35214      1,445       $37,497.75
                     Vegetable
                     Box
Daniels Den         Fresh Fruit/   Midwest        Saginaw      MI              48601         50          $747.50
 Ministries          Vegetable
                     Box
Daniel's Table      Fresh Fruit/   North East     Framingham   MA              01702        480       $13,651.20
                     Vegetable
                     Box
Dannon Project      Fresh Fruit/   South East     Montgomery   AL              35203      1,000       $25,950.00
                     Vegetable
                     Box
Dannon Project      Fresh Fruit/   South East     Birmingham   AL              35224      1,000       $25,950.00
 Birmingham          Vegetable
                     Box
Dansville Central   Dairy          North East     Dansville    NY              14437        300       $13,260.00
 School              Products Box
Dansville Central   Dairy          North East     Geneseo      NY              14454        300       $13,260.00
 School              Products Box
Dansville Central   Dairy          North East     Livonia      NY              14487        300       $13,260.00
 School              Products Box
Dansville Central   Dairy          North East     Mt. Morris   NY              14510        300       $13,260.00
 School              Products Box
Dansville Central   Precooked      North East     Dansville    NY              14437        336       $18,345.60
 School              Meat Box
Dansville Central   Precooked      North East     Geneseo      NY              14454        336       $18,345.60
 School              Meat Box
Dansville Central   Precooked      North East     Livonia      NY              14487        336       $18,345.60
 School              Meat Box
Dansville Central   Precooked      North East     Mt. Morris   NY              14510        315       $17,199.00
 School              Meat Box
Dansville           Fresh Fruit/   Midwest        Dansville    MI              48854        500       $17,990.00
 Elementary School   Vegetable
                     Box
Dansville School    Dairy          Midwest        Dansville    MI              48819        300        $7,281.00
                     Products Box
Dansville School    Fresh Fruit/   Midwest        Dansville    MI              48819        275        $6,000.75
                     Vegetable
                     Box
Dansville School    Precooked      Midwest        Dansville    MI              48819        200        $7,671.00
                     Meat Box
Danville Riverside  Fresh Fruit/   Mid-Atlantic   Danville     PA              17821        250        $6,250.00
 Area Food Bank      Vegetable
                     Box
Dar Alhijrah        Fresh Fruit/   Mid-Atlantic   Falls        VA              22044      1,100       $22,000.00
                     Vegetable                     Church
                     Box
Dare To Care Food   Dairy          South East     Louisville   KY              40228     12,346      $304,725.10
 Bank                Products Box
Dare To Care Food   Fresh Fruit/   South East     Louisville   KY              40228      7,928      $158,322.16
 Bank                Vegetable
                     Box
Dare To Care Food   Precooked      South East     Louisville   KY              40228     17,566      $555,574.28
 Bank                Meat Box
Darlington Food     Dairy          Mid-Atlantic   Darlington   PA              16115        220        $4,626.60
 Pantry              Products Box
Dartmouth Quinn     Fresh Fruit/   North East     Dartmouth    MA              02747        784       $17,208.80
 Sch.                Vegetable
                     Box
Dartmouth Quinn     Fresh Fruit/   North East     North        MA              02747      1,246       $27,349.70
 Sch.                Vegetable                     Dartmouth
                     Box
David L Lawrence    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15220      1,320       $33,660.00
 Convention Center   Vegetable
                     Box
David L Lawrence    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15222      6,600      $166,320.00
 Convention Center   Vegetable
                     Box
Daviess Co. HS      Fluid Milk     South East     Owensboro    KY              42301      1,818        $4,090.50
Davison Community   Fresh Fruit/   Midwest        Davison      MI              48423        500       $17,990.00
 Schools             Vegetable
                     Box
Davison High        Dairy          Midwest        Davison      MI              48423        288        $7,200.00
 School              Products Box
Davison High        Fresh Fruit/   Midwest        Davison      MI              48423        618       $22,235.64
 School              Vegetable
                     Box
Dawson County       Fresh Fruit/   South East     Dawsonville  GA              30534        480        $9,600.00
 Family              Vegetable
 Connections         Box
Day Spring Family   Fresh Fruit/   South West     Irving       TX              75061      2,992       $50,834.08
 Church              Vegetable
                     Box
Dayspring Center    Combination    Midwest        Indianapoli  IN              46268         36        $5,400.00
                     Box                           s
Daystar Church      Fluid Milk     South East     Greensboro   NC              27407        200          $800.00
Daystar Church      Fresh Fruit/   South East     Greensboro   NC              27407        471       $12,952.50
                     Vegetable
                     Box
Daystar Church      Precooked      South East     Greensboro   NC              27407        200        $3,900.00
                     Meat Box
Daystar Church      Combination    South East     Cullman      AL              35056      7,280      $553,644.00
 Good Hope Campus    Box
Daystar Church      Combination    South East     Hartselle    AL              35640      2,800      $212,940.00
 Hartselle Campus    Box
Dayton Food Bank    Fresh Fruit/   Midwest        Dayton       OH              45417      5,632      $109,824.00
                     Vegetable
                     Box
Daytop Village of   Fresh Fruit/   Mid-Atlantic   Pittsgrove   NJ              08318        315        $5,969.25
 NJ                  Vegetable
                     Box
DC Downtown Fb      Fluid Milk     South East     Waycross     GA              31501      2,592       $10,082.88
DCH Immaculate      Fresh Fruit/   Midwest        Dayton       OH              45420         64        $1,248.00
 Conception          Vegetable
                     Box
DCH Neighborhood    Fresh Fruit/   Midwest        Trotwood     OH              45426        128        $2,496.00
 Dev. Ct.r           Vegetable
                     Box
DCH Overlook Comm.  Fresh Fruit/   Midwest        Riverside    OH              45431        128        $2,496.00
 Ctr.                Vegetable
                     Box
DCH Southbrook      Fresh Fruit/   Midwest        Miamisburg   OH              45342        128        $2,496.00
 Christ Chrch        Vegetable
                     Box
DCH West Carrolton  Fresh Fruit/   Midwest        West         OH              45449         64        $1,248.00
 YMCA                Vegetable                     Carrolton
                     Box
DCSD--Lithinia      Fresh Fruit/   South East     Lithonia     GA              30058        250        $5,312.50
 High                Vegetable
                     Box
DCSFS--Douglas      Fresh Fruit/   South East     Douglasvill  GA              30134        300        $6,375.00
 County High         Vegetable                     e
 School              Box
DCSFS--Douglas      Precooked      South East     Douglasvill  GA              30134        245        $8,339.80
 County High         Meat Box                      e
 School
Dearborn County     Fluid Milk     Midwest        Aurora       IN              47001      1,848        $7,392.00
Dearborn High       Fresh Fruit/   Midwest        Dearborn     MI              48124        400        $8,450.00
                     Vegetable
                     Box
Decanato De         Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Estudios            Box
 Graduados
Decatur Co.         Fluid Milk     Midwest        Greensburg   IN              47240     12,528       $50,112.00
 Hospital
Decatur High        Combination    Western        Federal Way  WA              98023        560       $19,600.00
 School              Box
Decatur High        Dairy          Western        Federal Way  WA              98023        450       $13,500.00
 School              Products Box
Decatur High        Fresh Fruit/   Western        Federal Way  WA              98023        540       $14,580.00
 School              Vegetable
                     Box
Decide Inc.         Fluid Milk     South East     Orlando      FL              32809      1,060        $4,017.40
Dededo Mayor's      Fresh Fruit/   Western        Dededo       Guam            96929      1,200       $72,000.00
 office--SCC         Vegetable
                     Box
Dedham Avery Elem.  Combination    North East     Dedham       MA              02026        572       $20,113.60
 Sch.                Box
Dedham Avery Elem.  Fresh Fruit/   North East     Dedham       MA              02026        896       $19,667.20
 Sch.                Vegetable
                     Box
Dedham High Sch.    Fresh Fruit/   North East     Dedham       MA              02026        168        $3,687.60
                     Vegetable
                     Box
Deeds of Faith      Fresh Fruit/   Mid-Atlantic   Westminster  MD              21157        250        $5,000.00
 Pantry              Vegetable
                     Box
Deer Flat Church    Combination    Western        Caldwell     ID              83607        200        $8,800.00
                     Box
Deer Valley HS      Fresh Fruit/   Western        Antioch      CA              95306        231        $6,220.83
                     Vegetable
                     Box
Deerwood Community  Fresh Fruit/   South West     Conroe       TX              77306      6,144      $104,386.56
 Center              Vegetable
                     Box
Deforest Windsor    Fluid Milk     Midwest        Windsor      WI              53598        432          $777.60
 Food Pantry
Del Mar College     Fresh Fruit/   South West     Corpus       TX              78404        500       $12,500.00
                     Vegetable                     Christi
                     Box
Del North Ranch     Fresh Fruit/   Western        Oxnard       CA              93030        900       $19,800.00
                     Vegetable
                     Box
Del Prado Gardens   Fresh Fruit/   South East     Miami        FL              33055         90        $1,507.50
                     Vegetable
                     Box
Delaware Nation     Combination    South West     Anadarko     OK              73005      1,248       $43,642.56
                     Box
Delaware Nation     Dairy          South West     Anadarko     OK              73005        480       $21,964.80
                     Products Box
Delaware Nation     Fluid Milk     South West     Anadarko     OK              73005        630       $15,082.20
Delaware Nation     Fresh Fruit/   South West     Anadarko     OK              73005      2,205       $50,553.30
                     Vegetable
                     Box
Delegacion De       Combination    Mid-Atlantic   Utuado       PR              00641        672       $66,528.00
 Utuado Del          Box
 Colegio De
 Abogados
Deleware City       Fresh Fruit/   Midwest        Delaware     OH              43015        635       $10,714.95
 Schools             Vegetable
                     Box
Deleware City       Precooked      Midwest        Delaware     OH              43015         35        $1,562.55
 Schools             Meat Box
Delhi Community     Combination    Western        Delhi        CA              95315        140        $7,341.60
 Church              Box
Delhi Senior        Combination    Western        Delhi        CA              95315         70        $3,670.80
 Community Center    Box
Delhi Senior        Fresh Fruit/   Western        Delhi        CA              95315         10          $368.30
 Community Center    Vegetable
                     Box
Delhi Skirt/Shiloh  Dairy          Midwest        Cincinnati   OH              45238         96        $2,400.00
 UMC                 Products Box
Delhi Skirt/Shiloh  Fluid Milk     Midwest        Cincinnati   OH              45238        432        $1,728.00
 UMC
Delia Davila De     Combination    Mid-Atlantic   Toa Baja     PR              00949      1,344      $124,824.00
 Caban               Box
Deliverance Center  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15233        920       $27,600.00
 Original Church     Vegetable
 of God              Box
Delta Advantage     Fresh Fruit/   South East     Moorehead    MS              38761        616       $12,289.20
 Center              Vegetable
                     Box
Delta Advantage     Fresh Fruit/   South East     Moorhead     MS              38761      1,882       $37,545.90
 Center              Vegetable
                     Box
Delta Advantage     Fresh Fruit/   South East     Moorhead     MS              38761        616       $12,289.20
 Center/St. Luke     Vegetable
 Cogic Church        Box
Delta Advantage     Fresh Fruit/   South East     Moorhead     MS              38761        616       $12,289.20
 Center/St.          Vegetable
                     Box
Delta Hands for     Fluid Milk     South East     Shaw         MS              38773        192        $1,409.28
 Hope
Delta Hands for     Fresh Fruit/   South East     Shaw         MS              38773        288        $4,867.20
 Hope                Vegetable
                     Box
Delta Hands for     Precooked      South East     Shaw         MS              38773      1,260       $51,735.60
 Hope                Meat Box
Delton Kellogg      Dairy          Midwest        Delton       MI              49046        360       $10,440.00
 Schools             Products Box
Delton Kellogg      Fresh Fruit/   Midwest        Delton       MI              49046        910       $32,741.80
 Schools             Vegetable
                     Box
Denby High School   Fresh Fruit/   Midwest        Detroit      MI              48224        100        $1,495.00
                     Vegetable
                     Box
Denison Avenue UCC  Fluid Milk     Midwest        Cleveland    OH              44102        998        $3,313.36
Dennis Yarmouth     Fresh Fruit/   North East     West Dennis  MA              02639        329        $7,221.55
 Baker Sch.          Vegetable
                     Box
Dennis Yarmouth     Fresh Fruit/   North East     South        MA              02664        651       $14,289.45
 High Sch.           Vegetable                     Yarmouth
                     Box
Dennis Yarmouth     Fresh Fruit/   North East     So Yarmouth  MA              02664        336        $7,375.20
 High Sch.           Vegetable
                     Box
Dennis Yarmouth     Fresh Fruit/   North East     South        MA              02664        441        $9,679.95
 Station Ave. Sch.   Vegetable                     Yarmouth
                     Box
Dennis Yarmouth     Fresh Fruit/   North East     So Yarmouth  MA              02664        224        $4,916.80
 Station Ave. Sch.   Vegetable
                     Box
Dennis Yarmouth     Fresh Fruit/   North East     South        MA              02660        497       $10,909.15
 Wixon Sch.          Vegetable                     Dennis
                     Box
Denny               Fresh Fruit/   Western        Seattle      WA              98106        270        $7,425.00
 International       Vegetable
 Middle School       Box
Denton Community    Fluid Milk     South West     Denton       TX              76209        848        $2,476.16
 FC
Denver Main         Fresh Fruit/   Mountain       Denver       Co              80239     26,742      $692,617.80
                     Vegetable      Plains
                     Box
Denver National     Fresh Fruit/   Mountain       Denver       Co              80205      3,780       $97,902.00
 Baptist             Vegetable      Plains
                     Box
Denver Secondary    Fresh Fruit/   Mountain       Denver       Co              80238     66,812    $1,730,430.80
                     Vegetable      Plains
                     Box
Deploy Solutions    Fresh Fruit/   Midwest        Chicago      IL              60642      4,680      $117,000.00
                     Vegetable
                     Box
Dept. Public Work-- Dairy          North East     Irondequoit  NY              14622      1,245       $55,029.00
 Iron                Products Box
Dept. Public Work-- Dairy          North East     Rochester    NY              14609        420       $18,564.00
 Iron                Products Box
Dept. Public Work-- Dairy          North East     Rochester    NY              14611        420       $18,564.00
 Iron                Products Box
Dept. Public Work-- Precooked      North East     Irondequoit  NY              14622      1,245       $67,977.00
 Iron                Meat Box
Dept. Public Work-- Precooked      North East     Rochester    NY              14609        420       $22,932.00
 Iron                Meat Box
Dept. Public Work-- Precooked      North East     Rochester    NY              14611        420       $22,932.00
 Iron                Meat Box
Derby Public        Fresh Fruit/   Mountain       Derby        KS              67037      2,400       $49,062.00
 Schools             Vegetable      Plains
                     Box
Des Moines Area     Fresh Fruit/   Midwest        Des Moines   IA              50309     13,741      $199,244.50
 Religious Food      Vegetable
 Pantry              Box
Des Plaines         Precooked      Midwest        Des Plaines  IL              60016         72        $5,840.64
                     Meat Box
Des Plaines         Precooked      Midwest        Des Plaines  IL              60016        288       $23,362.56
                     Meat Box
Desert Manna Food   Combination    South West     Mesa         AZ              85207        350        $9,537.50
 Pantry              Box
Desert Manna Food   Dairy          South West     Mesa         AZ              85207        350       $11,200.00
 Pantry              Products Box
Desert Manna Food   Fluid Milk     South West     Mesa         AZ              85207        432        $2,052.00
 Pantry
Desert Manna Food   Fresh Fruit/   South West     Mesa         AZ              85207        350        $8,662.50
 Pantry              Vegetable
                     Box
Desert Mission      Fluid Milk     South West     Phoenix      AZ              85020      1,008        $4,737.60
Desert Mission      Fresh Fruit/   South West     Phoenix      AZ              85020        640       $13,984.00
                     Vegetable
                     Box
Desert Spoon Food   Fresh Fruit/   South West     El Paso      TX              79912        682       $13,299.00
 Hub                 Vegetable
                     Box
Desert Vineyard     Dairy          Western        Lancaster    CA              93535      2,400       $70,128.00
 Church              Products Box
Desert Vineyard     Fluid Milk     Western        Lancaster    CA              93535      2,592       $25,894.08
 Church
Desire Tree         Dairy          South East     Atlanta      GA              30318        216        $7,128.00
 Foundation          Products Box
Desire Tree         Fresh Fruit/   South East     Atlanta      GA              30318        720       $20,600.00
 Foundation          Vegetable
                     Box
Destin Harvest      Fresh Fruit/   South East     Destin       FL              32541      3,600      $104,400.00
                     Vegetable
                     Box
Destin Harvest      Fresh Fruit/   South East     Fort Walton  FL              32548        600       $17,400.00
                     Vegetable                     Beach
                     Box
Destiny Church      Fresh Fruit/   South East     Naples       FL              34119      1,890       $46,305.00
                     Vegetable
                     Box
Destiny Church      Fresh Fruit/   South East     Tarrant      AL              35217        200        $5,190.00
 Tarrant             Vegetable
                     Box
Destiny Food        Fresh Fruit/   South West     Killeen      TX              76543      3,520       $59,804.80
 Pantry              Vegetable
                     Box
Destiny             Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15206        720       $21,600.00
 International       Vegetable
 Ministries          Box
Destiny of Faith    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15212         80        $2,400.00
 Project Destiny     Vegetable
                     Box
Destiny of Purpose  Fresh Fruit/   Midwest        Detroit      MI              48204        200        $5,750.00
                     Vegetable
                     Box
Detroit             Fresh Fruit/   Midwest        Detroit      MI              48235        250        $3,737.50
 Achievement         Vegetable
 Academy             Box
Detroit Friendship  Fresh Fruit/   Midwest        Hamtramck    MI              48212        900       $25,875.00
 House               Vegetable
                     Box
Detroit Impact      Fresh Fruit/   Midwest        Detroit      MI              48227        475       $13,656.25
                     Vegetable
                     Box
Detroit Institute   Fresh Fruit/   Midwest        Detroit      MI              48202      2,490       $37,225.50
 of Arts             Vegetable
                     Box
Detroit Leadership  Fresh Fruit/   Midwest        Detroit      MI              48228        600        $8,970.00
 Academy             Vegetable
                     Box
Detroit MI 48207    Fresh Fruit/   Midwest        Detroit      MI              48207        200        $2,990.00
                     Vegetable
                     Box
Detroit Prep        Fresh Fruit/   Midwest        Detroit      MI              48214        532       $10,640.00
                     Vegetable
                     Box
Detroit Rescue      Dairy          Midwest        Detroit      MI              48212      3,325       $80,697.75
 Mission             Products Box
Detroit Rescue      Fresh Fruit/   Midwest        Detroit      MI              48212      5,100      $114,940.00
 Mission             Vegetable
                     Box
Detroit Rescue      Precooked      Midwest        Detroit      MI              48212      2,028       $74,711.32
 Mission             Meat Box
Detroit Unity       Fresh Fruit/   Midwest        Detroit      MI              48203         50          $747.50
 Temple              Vegetable
                     Box
Diamond Head        Fresh Fruit/   Western        Honolulu     HI              96809        350       $12,600.00
 Foursquare Church   Vegetable
                     Box
Diamond Head        Fresh Fruit/   Western        Honolulu     HI              96816      1,350       $48,600.00
 Foursquare Church   Vegetable
                     Box
Diboll Christian    Fluid Milk     South West     Diboll       TX              75941        240          $700.80
 OU
Dickenson Iron CSA  Fresh Fruit/   Midwest        Kingsford    MI              49802      2,400       $50,962.50
                     Vegetable
                     Box
Difan               Fresh Fruit/   Mid-Atlantic   Chester      PA              19061      1,512       $28,652.40
                     Vegetable
                     Box
Dig Deep Farms      Fresh Fruit/   Western        San Leandro  CA              94578      6,120      $128,460.00
 Food Farmacy        Vegetable
                     Box
Dighton Rehoboth    Fresh Fruit/   North East     North        MA              02764        224        $4,916.80
 High School         Vegetable                     Dighton
                     Box
Dignity Health      Combination    Western        Redding      CA              96003        422       $16,669.00
 Connected Living    Box
 Food Bank
Dignity Health      Fluid Milk     Western        Redding      CA              96003      1,152       $11,508.48
 Connected Living
 Food Bank
Diocese of Baton    Fluid Milk     South West     Baton Rouge  LA              70808     16,052       $46,994.80
 Ro.
Diocese of Lake     Fluid Milk     South West     Lake         LA              70601        800        $2,336.00
 Cha.                                              Charles
Disciple of Christ  Fresh Fruit/   Midwest        Detroit      MI              48227        100        $2,875.00
                     Vegetable
                     Box
Discovery           Dairy          Midwest        Canton       MI              48187        350       $10,150.00
                     Products Box
Discovery           Fresh Fruit/   Midwest        Canton       MI              48187        925       $19,956.25
                     Vegetable
                     Box
Discovery Church    Fresh Fruit/   South West     Mathis       TX              78368        500       $12,500.00
 Assembly of God     Vegetable
                     Box
Discovery School    Fresh Fruit/   North East     Buffalo      NY              14220        500       $11,425.00
                     Vegetable
                     Box
Distinictive        Fresh Fruit/   Midwest        Harper       MI              48225         75        $1,121.25
 College Prep        Vegetable                     Woods
                     Box
Distribution        Precooked      South East     D'iberville  MS              39532        320       $13,139.20
                     Meat Box
District 1          Dairy          South East     Macon        MS              39341        800       $22,464.00
 Community Cent      Products Box
District 1          Fresh Fruit/   South East     Macon        MS              39341      1,056       $17,846.40
 Community Cent      Vegetable
                     Box
District 1          Precooked      South East     Macon        MS              39341        420       $17,245.20
 Community Cent      Meat Box
District 3 Pg       Fresh Fruit/   Mid-Atlantic   Landover     MD              20784      5,800      $116,000.00
 (Glaros)            Vegetable                     Hills
                     Box
District 9          Precooked      Midwest        Chicago      IL              60629        288       $23,362.56
                     Meat Box
District 9          Precooked      Midwest        Chicago      IL              60629      1,224       $99,290.88
                     Meat Box
District IX         Fluid Milk     Midwest        Chicago      IL              60629        900        $2,988.00
District IX         Fresh Fruit/   Midwest        Chicago      IL              60629        819       $29,467.62
                     Vegetable
                     Box
District IX Food    Fluid Milk     Midwest        Chicago      IL              60629        360        $1,195.20
 Pantry
Divine Grace        Fresh Fruit/   South East     Durham       NC              27704        400        $4,600.00
 Fellowship          Vegetable
                     Box
Divine Life         Fresh Fruit/   South East     Memphis      TN              38141      1,566       $38,367.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Divine Mercy        Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15222        240        $7,200.00
 Parish              Vegetable
                     Box
Dixie Baptist       Precooked      South East     Hattiesburg  MS              39401        504       $20,694.24
 Church              Meat Box
Dixon Educational   Fresh Fruit/   Midwest        Detroit      MI              48228         75        $1,121.25
 Academy             Vegetable
                     Box
Dixon House         Fluid Milk     Mid-Atlantic   Philadelphi  PA              19145        166        $4,161.12
                                                   a
DMARC Food Pantry   Precooked      Midwest        Des Moines   IA              50309        270       $13,729.50
                     Meat Box
Doak Elementary     Fluid Milk     South East     Greeneville  TN              37745        300        $1,137.00
Doctor Medical      Fresh Fruit/   Mid-Atlantic   San Juan     PR              00909        100        $3,900.00
 Center              Vegetable
                     Box
Dodd Sterling       Fluid Milk     South East     Atlanta      GA              30354        360        $1,400.40
Dodge City USD 443  Fresh Fruit/   Mountain       Dodge City   KS              67801      1,560       $40,404.00
                     Vegetable      Plains
                     Box
Dollys Personal     Fluid Milk     South East     Winder       GA              30680        864        $3,325.76
Don Bosco Human     Fresh Fruit/   Mountain       Kansas City  MO              64106      1,280       $33,152.00
 Services            Vegetable      Plains
                     Box
Dooly County K--8   Fresh Fruit/   South East     Pinehurst    GA              31070      1,160       $23,200.00
 Academy             Vegetable
                     Box
Door at Three       Dairy          Western        Sunriver     OR              97707         90        $2,700.00
 Rivers              Products Box
Door at Three       Fresh Fruit/   Western        Sunriver     OR              97707        120        $5,640.00
 Rivers              Vegetable
                     Box
Doorways of NWFL    Fresh Fruit/   South East     Panama City  FL              32401        300       $10,150.00
                     Vegetable
                     Box
Dos Rios School     Fresh Fruit/   South West     Tolleson     AZ              85353        150        $4,125.00
                     Vegetable
                     Box
Dossin Elementary   Fresh Fruit/   Midwest        Detroit      MI              48227         75        $1,121.25
 School              Vegetable
                     Box
Douglas Community   Dairy          Mountain       Hannibal     MO              63401        526       $13,150.00
 Center              Products Box   Plains
Douglas Community   Fresh Fruit/   Mountain       Hannibal     MO              63401      1,573       $41,977.50
 Center              Vegetable      Plains
                     Box
Douglas Fire        Combination    North East     Douglas      MA              01516        120        $3,936.00
 Station             Box
Douglas Fire        Precooked      North East     Douglas      MA              01516         66        $3,583.80
 Station             Meat Box
Douglass Homes      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21231      1,100       $22,000.00
                     Vegetable
                     Box
Dover Salvation     Precooked      Midwest        New          OH              44663        200        $8,980.00
 Army                Meat Box                      Philadelph
                                                   ia
Dover--New Philly   Precooked      Midwest        Dover        OH              44622        500       $22,450.00
 Pantry              Meat Box
Down East Pt. for   Fresh Fruit/   South East     Rocky Mount  NC              27801      1,152       $41,137.92
 Children            Vegetable
                     Box
Downtown Ing. Gym   Fresh Fruit/   Midwest        Detroit      MI              48207        600       $12,000.00
                     Vegetable
                     Box
Dr. Antonia         Fresh Fruit/   North East     Buffalo      NY              14213        300        $6,855.00
 Pantoja School      Vegetable
                     Box
Dr. Lydia T.        Fresh Fruit/   North East     Buffalo      NY              14214        375        $8,568.75
 Wright School       Vegetable
                     Box
Dragon Community    Fresh Fruit/   Midwest        Clinton      MI              48035        100        $2,875.00
 Pantry              Vegetable                     Township
                     Box
Draw A Smile        Fresh Fruit/   South East     Jackson      MS              39213        384        $6,489.60
 Foundation          Vegetable
                     Box
Dream Builders      Fresh Fruit/   South East     Tampa        FL              33604      1,260       $30,870.00
                     Vegetable
                     Box
Dream Builders      Combination    South East     Sulphur      FL              33604      2,520      $191,646.00
 Mission             Box                           Springs
Dream Center/STL    Fresh Fruit/   Mountain       St. Louis    MO              63115        180        $5,760.00
 Food Bank           Vegetable      Plains
                     Box
Dream Centers of    Dairy          Midwest        Pontiac      MI              48342      1,050       $35,437.50
 Michigan            Products Box
Dream Centers of    Precooked      Midwest        Pontiac      MI              48342        875       $41,728.75
 Michigan            Meat Box
Dream Life Center   Dairy          Midwest        Canton       MI              48187        672       $16,800.00
                     Products Box
Dream Life Center   Fresh Fruit/   Midwest        Canton       MI              48187      2,500       $71,875.00
                     Vegetable
                     Box
Dream Life North    Fresh Fruit/   South East     Greenville   NC              27834      2,000       $57,500.00
 Carolina            Vegetable
                     Box
Dreamlife Worship   Fresh Fruit/   Mid-Atlantic   Randallstow  MD              21133        150        $3,142.50
 Center              Vegetable                     n
                     Box
DSM Ministries      Fresh Fruit/   Midwest        Southfield   MI              48033        150        $4,312.50
 Southfield HS       Vegetable
                     Box
Dublin Pike         Dairy          Mid-Atlantic   Doylestown   PA              18901        130        $4,386.20
 Shelter             Products Box
Dublin Pike         Fresh Fruit/   Mid-Atlantic   Doylestown   PA              18901        792       $18,200.16
 Shelter             Vegetable
                     Box
Dubois Co. Comm.    Fluid Milk     Midwest        Jasper       IN              47541        477        $1,073.25
 Meals
Dugger Outreach     Fluid Milk     Midwest        Dugger       IN              47848        720        $1,620.00
Dukeland/Rosemont   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21216        750       $15,000.00
                     Vegetable
                     Box
Duncan Lake Middle  Fresh Fruit/   Midwest        Caledonia    MI              49316      1,300       $25,961.00
 School              Vegetable
                     Box
Duncan YMCA         Fresh Fruit/   Mountain       Arvada       Co              80004         56        $1,450.40
                     Vegetable      Plains
                     Box
Dundee High School  Fresh Fruit/   Midwest        Dundee       MI              48131        504       $18,133.92
                     Vegetable
                     Box
Durand Area         Fresh Fruit/   Midwest        Durand       MI              48429      1,400       $50,372.00
 Schools             Vegetable
                     Box
Durfee Life         Fresh Fruit/   Midwest        Detroit      MI              48206        700       $25,550.00
 Remodeled           Vegetable
                     Box
Durham              Fresh Fruit/   South East     Durham       NC              27701        367        $5,505.00
 Congregations in    Vegetable
 Action              Box
Durham              Fresh Fruit/   South East     Durham       NC              27703         97        $1,455.00
 Congregations in    Vegetable
 Action              Box
Durham              Fresh Fruit/   South East     Durham       NC              27704        120        $1,800.00
 Congregations in    Vegetable
 Action              Box
Durham              Fresh Fruit/   South East     Durham       NC              27707        232        $3,480.00
 Congregations in    Vegetable
 Action              Box
Durham              Fresh Fruit/   South East     Durham       NC              27705        117        $1,755.00
 Congregations in    Vegetable
 Action              Box
Durham              Fresh Fruit/   South East     Durham       NC              27713         80        $1,200.00
 Congregations in    Vegetable
 Action              Box
Durham Rescue       Fresh Fruit/   South East     Durham       NC              27701        300        $3,450.00
 Mission             Vegetable
                     Box
Durling Middle      Fluid Milk     Midwest        Lorain       OH              44053        720        $2,390.40
D'youville Porter   Fresh Fruit/   North East     Buffalo      NY              14201        260        $5,941.00
 Campus              Vegetable
                     Box
Eagle Glen          Fresh Fruit/   Mountain       Raymore      MO              64083        160        $4,144.00
 Elementary          Vegetable      Plains
                     Box
Eagle Valley        Fresh Fruit/   Mountain       Gypsum       Co              81637      1,746       $45,221.40
 Community           Vegetable      Plains
 Foundation          Box
Eagles Nest         Dairy          Midwest        Flint        MI              48504        400       $11,600.00
                     Products Box
Eagles Nest         Fluid Milk     South East     Hattiesburg  MS              39406      1,080        $4,093.20
Eagles Nest         Fresh Fruit/   Midwest        Flint        MI              48504      1,400       $29,050.00
                     Vegetable
                     Box
Eagles Wings        Fresh Fruit/   South East     Washington   NC              27889      1,695       $60,528.45
                     Vegetable
                     Box
Earl Boyles         Combination    Western        Portland     OR              97266        211        $7,385.00
 Elementary USDA     Box
Earl Boyles         Dairy          Western        Portland     OR              97266        263        $7,890.00
 Elementary USDA     Products Box
Earl Boyles         Fresh Fruit/   Western        Portland     OR              97266        120        $3,240.00
 Elementary USDA     Vegetable
                     Box
Earl Travillion     Dairy          South East     Hattiesburg  MS              39401      1,280       $35,942.40
 Attend              Products Box
Earl Travillion     Fluid Milk     South East     Hattiesburg  MS              39401        768        $5,637.12
 Attend
Earl Travillion     Fresh Fruit/   South East     Hattiesburg  MS              39401        768       $12,979.20
 Attend              Vegetable
                     Box
Earl Travillion     Precooked      South East     Hattiesburg  MS              39401      3,192      $131,063.52
 Attend              Meat Box
Earlham Chicks      Fresh Fruit/   Midwest        Earlham      IA              50072         60          $870.00
 With Checks         Vegetable
                     Box
Early Childhood     Fluid Milk     South West     Scottsdale   AZ              85256        860        $6,776.80
 Ed. Ctr.
Early Childhood     Fresh Fruit/   South West     Scottsdale   AZ              85256      1,360       $37,400.00
 Ed. Ctr.            Vegetable
                     Box
EARPDC              Combination    South East     Sylacauga    AL              35151        560       $42,588.00
                     Box
EARPDC              Combination    South East     Oxford       AL              36203        560       $42,588.00
                     Box
EARPDC              Combination    South East     Lineville    AL              36266        280       $21,294.00
                     Box
EARPDC              Combination    South East     Piedmont     AL              36272        560       $42,588.00
                     Box
EARPDC              Combination    South East     Roanoke      AL              36274      1,120       $85,176.00
                     Box
EARPDC              Combination    South East     Camp Hill    AL              36850        560       $42,588.00
                     Box
EARPDC              Combination    South East     Dadeville    AL              36853        280       $21,294.00
                     Box
EARPDC Charles E    Combination    South East     Alexander    AL              35010        560       $42,588.00
 Bailey Football     Box                           City
 Stadium
EARPDC              Combination    South East     Childersbur  AL              35044        280       $21,294.00
 Childersburg High   Box                           g
 School
EARPDC Fruithurst   Combination    South East     Fruithurst   AL              36262        280       $21,294.00
 City Hall/Post of   Box
 fice
EARPDC--Mt.         Combination    South East     Gadsden      AL              35901        280       $21,294.00
 Pilgram Baptist     Box
 Church
Easern IL Food      Dairy          Midwest        Urbana       IL              61802        500       $14,875.00
 Bank                Products Box
East Alabama Food   Fluid Milk     South East     Auburn       AL              36832      3,372       $12,779.88
 Bank
East Alabama Food   Fresh Fruit/   South East     Auburn       AL              36832      3,599      $100,772.00
 Bank                Vegetable
                     Box
East Bridgewater    Precooked      North East     East         MA              02333         25        $1,357.50
 COA                 Meat Box                      Bridgewate
                                                   r
East Communities    Fresh Fruit/   South West     Austin       TX              78723      3,360       $57,086.40
 YMCA                Vegetable
                     Box
East End Food       Dairy          Mid-Atlantic   Pittsburgh   PA              15206        180        $3,785.40
 Coop.               Products Box
East End YMCA       Combination    South West     Houston      TX              77023        960       $33,571.20
 Brighter Bites      Box
East End YMCA       Fluid Milk     South West     Houston      TX              77023        170        $4,069.80
 Brighter Bites
East End YMCA       Fresh Fruit/   South West     Houston      TX              77023      4,728       $88,748.72
 Brighter Bites      Vegetable
                     Box
East English Prep   Fresh Fruit/   Midwest        Detroit      MI              48224        125        $1,868.75
 Academy             Vegetable
                     Box
East Food Bank      Fresh Fruit/   South West     Tyler        TX              75701      7,872      $133,745.28
                     Vegetable
                     Box
East Fort Bend      Fluid Milk     South West     Stafford     TX              77477      1,800        $5,778.00
 H.N. Ministry
East Fort Bend      Fresh Fruit/   South West     Stafford     TX              77477      1,176       $19,980.24
 H.N. Ministry       Vegetable
                     Box
East Gate Sixth     Fresh Fruit/   Mountain       Kansas City  MO              64117      1,220       $31,598.00
 Grade School        Vegetable      Plains
                     Box
East Haven Board    Fresh Fruit/   North East     East Haven   CT              06512        400       $12,000.00
 of Education        Vegetable
                     Box
East High School    Fresh Fruit/   North East     Buffalo      NY              14211        100        $2,285.00
                     Vegetable
                     Box
East Lake           Fresh Fruit/   South East     Atlanta      GA              30317      5,120      $147,200.00
 Foundation          Vegetable
                     Box
East Lansing        Dairy          Midwest        East         MI              48823        650       $18,850.00
 Public Schools      Products Box                  Lansing
East Lansing        Fresh Fruit/   Midwest        East         MI              48823      1,200       $25,612.50
 Public Schools      Vegetable                     Lansing
                     Box
East Leyden High    Dairy          Midwest        Franklin     IL              60131        288        $8,568.00
                     Products Box                  Park
East Leyden High    Fresh Fruit/   Midwest        Franklin     IL              60131        288        $7,920.00
                     Vegetable                     Park
                     Box
East Liverpool Way  Precooked      Midwest        East         OH              43920         75        $3,501.75
 Station             Meat Box                      Liverpool
East Middle         Fresh Fruit/   Midwest        Farmington   MI              48336      2,100       $44,362.50
                     Vegetable
                     Box
East Middle School  Dairy          Midwest        Traverse     MI              49685        550       $15,950.00
                     Products Box                  City
East Middle School  Fresh Fruit/   Midwest        Traverse     MI              49696        550        $8,222.50
                     Vegetable                     City
                     Box
East Missouri       Fluid Milk     Mountain       Park Hills   MO              63601      1,872        $4,212.00
 Action Agency                      Plains
East Missouri       Fluid Milk     Mountain       Park Hills   MO              63801      4,050        $9,112.50
 Action Agency                      Plains
East Missouri       Fresh Fruit/   Mountain       Cape         MO              63703      2,500       $68,750.00
 Action Agency       Vegetable      Plains         Girardeau
                     Box
East Missouri       Fresh Fruit/   Mountain       Frederickto  MO              63645        480       $13,200.00
 Action Agency       Vegetable      Plains         wn
                     Box
East Missouri       Fresh Fruit/   Mountain       Ironton      MO              63650      1,275       $35,062.50
 Action Agency       Vegetable      Plains
                     Box
East Missouri       Fresh Fruit/   Mountain       Marble Hill  MO              63764        430       $11,825.00
 Action Agency       Vegetable      Plains
                     Box
East Missouri       Fresh Fruit/   Mountain       Mineral      MO              63660        960       $26,400.00
 Action Agency       Vegetable      Plains         Point
                     Box
East Missouri       Fresh Fruit/   Mountain       Park Hills   MO              63601      1,850       $50,875.00
 Action Agency       Vegetable      Plains
                     Box
East Missouri       Fresh Fruit/   Mountain       Perryville   MO              63775        480       $13,200.00
 Action Agency       Vegetable      Plains
                     Box
East Missouri       Fresh Fruit/   Mountain       Ste          MO              63670        480       $13,200.00
 Action Agency       Vegetable      Plains         Genevieve
                     Box
East Park           Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19121        490        $9,800.00
 Revitalization      Vegetable                     a
 Alliance            Box
East School JC      Fluid Milk     Mountain       Jefferson    MO              65101        252          $567.00
                                    Plains         City
East Side Baptist   Fluid Milk     South East     Stockbridge  GA              30281      4,320       $16,804.80
East St. Louis      Fresh Fruit/   Midwest        E St. Louis  IL              62203      1,120       $22,366.40
 School District     Vegetable
                     Box
East St. Louis      Fresh Fruit/   Midwest        E. St.       IL              62203      1,200       $23,964.00
 School District     Vegetable                     Louis
 89                  Box
East STL Township/  Fresh Fruit/   Midwest        East Saint   IL              62201        180        $5,760.00
 STL Food Bnk        Vegetable                     Louis
                     Box
East West Food      Fresh Fruit/   Western        Woodinville  WA              98077     24,303      $356,489.12
 Rescue              Vegetable
                     Box
Eastern Band of     Fluid Milk     South East     Whittier     NC              28789        500        $2,000.00
 the Cherokee
 Indians
Eastern Band of     Fresh Fruit/   South East     Whittier     NC              28789        475       $13,062.50
 the Cherokee        Vegetable
 Indians             Box
Eastern Band of     Precooked      South East     Whittier     NC              28789        710       $13,845.00
 the Cherokee        Meat Box
 Indians
Eastern Baptist     Fluid Milk     South East     Rose Hill    NC              28458        150          $600.00
 Association
Eastern Fisheries   Precooked      North East     New Bedford  MA              02740         70        $3,801.00
                     Meat Box
Eastern Food Bank   Dairy          Midwest        Urbana       IL              61801      2,000       $59,500.00
                     Products Box
Eastern Food Bank   Dairy          Midwest        Urbana       IL              61802        300        $8,925.00
                     Products Box
Eastern Food Bank   Dairy          Midwest        Urbana       IL              61802      5,300      $157,675.00
                     Products Box
Eastern Food Bank   Dairy          Midwest        Mattoon      IL              61938        400       $11,900.00
                     Products Box
Eastern Food Bank   Fresh Fruit/   Midwest        Urbana       IL              61801      2,000       $55,000.00
                     Vegetable
                     Box
Eastern Food Bank   Fresh Fruit/   Midwest        Urbana       IL              61802        300        $8,250.00
                     Vegetable
                     Box
Eastern Food Bank   Fresh Fruit/   Midwest        Urbana       IL              61802      7,101      $195,277.50
                     Vegetable
                     Box
Eastern Food Bank   Fresh Fruit/   Midwest        Mattoon      IL              61938        200        $5,500.00
                     Vegetable
                     Box
Eastern IL          Dairy          Midwest        Normal       IL              61761        100        $2,975.00
 Eastview Church     Products Box
Eastern IL          Fresh Fruit/   Midwest        Normal       IL              61761        100        $2,750.00
 Eastview Church     Vegetable
                     Box
Eastern IL Fb.      Dairy          Midwest        Bloomington  IL              61701        160        $4,760.00
                     Products Box
Eastern IL Fb.      Fresh Fruit/   Midwest        Bloomington  IL              61701        160        $4,400.00
                     Vegetable
                     Box
Eastern IL Fb.      Dairy          Midwest        Bloomington  IL              61701        320        $9,520.00
 Eastview            Products Box
Eastern IL Fb.      Fresh Fruit/   Midwest        Bloomington  IL              61701        480       $13,200.00
 Eastview            Vegetable
                     Box
Eastern IL Fb.      Dairy          Midwest        Mattoon      IL              61938        400       $11,900.00
 Mattoon             Products Box
Eastern IL Fb.      Fresh Fruit/   Midwest        Mattoon      IL              61938        400       $11,000.00
 Mattoon             Vegetable
                     Box
Eastern IL Food     Dairy          Midwest        Georgetown   IL              61846        296        $8,806.00
 Bank                Products Box
Eastern IL Food     Dairy          Midwest        Mattoon      IL              61938        465       $13,833.75
 Bank                Products Box
Eastern IL Food     Dairy          Midwest        Mattoon      IL              61938        200        $5,950.00
 Bank                Products Box
Eastern IL Food     Fresh Fruit/   Midwest        Urbana       IL              61802        500       $13,750.00
 Bank                Vegetable
                     Box
Eastern IL Food     Fresh Fruit/   Midwest        Georgetown   IL              61846        300        $8,250.00
 Bank                Vegetable
                     Box
Eastern IL Food     Fresh Fruit/   Midwest        Mattoon      IL              61938        400       $11,000.00
 Bank                Vegetable
                     Box
Eastern IL Food     Fresh Fruit/   Midwest        Mattoon      IL              61938        200        $5,500.00
 Bank                Vegetable
                     Box
Eastern IL          Dairy          Midwest        Bloomington  IL              61701        160        $4,760.00
 Foodbank            Products Box
Eastern IL          Fresh Fruit/   Midwest        Mattoon      IL              61938        200        $5,500.00
 Foodbank            Vegetable
                     Box
Eastern Illinoise   Precooked      Midwest        Urbana       IL              61802      4,913      $186,385.31
 Foodbank F2F        Meat Box
Eastern Interfaith  Fresh Fruit/   Mid-Atlantic   Essex        MD              21221      1,008       $19,101.60
 Outreach            Vegetable
                     Box
Eastern MI Food Bk  Fluid Milk     Midwest        Flint        MI              48503     16,920       $56,174.40
Eastern Service     Dairy          Mid-Atlantic   Atlantic     NJ              08401        520       $16,858.40
 Workers             Products Box                  City
Eastham Council on  Combination    North East     North        MA              02642         45        $1,476.00
 Aging               Box                           Eastham
Eastham Council on  Precooked      North East     North        MA              02642         35        $1,900.50
 Aging               Meat Box                      Eastham
Eastham Elem        Fresh Fruit/   North East     Eastham      MA              02642        392        $8,604.40
 School              Vegetable
                     Box
Eastie Farm         Fresh Fruit/   North East     Boston       MA              02128        205        $5,652.79
                     Vegetable
                     Box
Eastmark High       Fresh Fruit/   South West     Mesa         AZ              85212      1,200       $33,000.00
 School              Vegetable
                     Box
Eastmont Community  Fresh Fruit/   Western        Los Angeles  CA              90022        500       $12,375.00
 Center              Vegetable
                     Box
Easton Richardson   Fresh Fruit/   North East     North        MA              02356        112        $2,458.40
 Olmstead Sch.       Vegetable                     Easton
                     Box
Eastpointe          Fresh Fruit/   Midwest        Eastpointe   MI              48021        670       $18,849.10
 Community Schools   Vegetable
                     Box
Eastside Church of  Fresh Fruit/   Midwest        Des Moines   IA              50317         50          $725.00
 the Nazaren         Vegetable
                     Box
Eastside Community  Fresh Fruit/   South East     Memphis      TN              38117      1,242       $30,429.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Eastside Mission    Fresh Fruit/   Midwest        Delaware     OH              43015        432        $5,400.00
                     Vegetable
                     Box
Eastside Mothers    Fresh Fruit/   Midwest        Detroit      MI              48213        500        $7,475.00
 Club                Vegetable
                     Box
Eastside Mothers    Fresh Fruit/   Midwest        Detroit      MI              48234        800       $11,960.00
 Club                Vegetable
                     Box
Eastwood            Fresh Fruit/   Mountain       Raytown      MO              64129         50        $1,295.00
 Elementary          Vegetable      Plains
 Raytown             Box
Eat Greater Dsm     Fresh Fruit/   Midwest        West Des     IA              50265        150        $2,175.00
                     Vegetable                     Moines
                     Box
Eat Greater Dsm     Fresh Fruit/   Midwest        Des Moines   IA              50309        900       $13,050.00
                     Vegetable
                     Box
Eat Initiative      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219      1,680       $50,400.00
                     Vegetable
                     Box
EBAYC               Fresh Fruit/   Western        Oakland      CA              94606      1,710       $42,750.00
                     Vegetable
                     Box
Ebenezer Baptist    Dairy          South East     Charlotte    NC              28262        660        $3,300.00
 Church              Products Box
Ebenezer Baptist    Fluid Milk     South East     Charlotte    NC              28262      1,090        $4,360.00
 Church
Ebenezer Baptist    Fresh Fruit/   South East     Birmingham   AL              35211        200        $5,600.00
 Church              Vegetable
                     Box
Ebenezer Baptist    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219        480       $14,400.00
 Church              Vegetable
                     Box
Ebenezer Baptist    Precooked      South East     Charlotte    NC              28262      1,164       $22,698.00
 Church              Meat Box
Ebenezer Christian  Fresh Fruit/   Midwest        Berwyn       IL              60402      1,008       $36,267.84
                     Vegetable
                     Box
Ebenezer Christian  Precooked      Midwest        Berwyn       IL              60402        864       $70,087.68
                     Meat Box
Ebenezer Church of  Fresh Fruit/   Mid-Atlantic   Hyattsville  MD              20784      1,550       $31,000.00
 God                 Vegetable
                     Box
Ebenezer            Combination    South East     Macon        GA              31201        560       $42,588.00
 Missionary          Box
 Baptist Church
EBNHC Community     Fresh Fruit/   North East     E Boston     MA              02128        896       $19,667.20
 Resource            Vegetable
                     Box
Echo                Fluid Milk     South East     Brandon      FL              33510        720        $2,860.80
Echo Food Bank      Fluid Milk     South West     Farmington   NM              87401      1,200        $5,880.00
Eclesia Ministries  Fresh Fruit/   South East     Corinth      MS              38834        616       $12,289.20
                     Vegetable
                     Box
Eco Centro          Fresh Fruit/   South West     San Antonio  TX              78212      7,680      $130,483.20
                     Vegetable
                     Box
Eco Centro C/O      Fresh Fruit/   South West     San Antonio  TX              78207      1,536       $26,096.64
 Edgewood Isd        Vegetable
                     Box
Eco Centro the      Fresh Fruit/   South West     San Antonio  TX              78207      1,536       $26,096.64
 Health C.           Vegetable
                     Box
Ecorse Public       Fresh Fruit/   Midwest        Ecorse       MI              48229        781       $22,453.75
 Schools             Vegetable
                     Box
Ecorse Public       Fresh Fruit/   Midwest        Romulus      MI              48229      1,200       $17,940.00
 Schools             Vegetable
                     Box
Ecumenical Hunger   Fresh Fruit/   Western        East Palo    CA              94303        622       $19,804.48
 Project             Vegetable                     Alto
                     Box
Ecumenical          Fresh Fruit/   South East     Fairhope     AL              36532        300        $8,700.00
 Ministries          Vegetable
 Fairhope            Box
Ed Keating Center   Fluid Milk     Midwest        Cleveland    OH              44111        500        $1,660.00
Eden Gives          Fresh Fruit/   Midwest        Detroit      MI              48211        320        $4,784.00
                     Vegetable
                     Box
Eden Manor          Fresh Fruit/   Midwest        Detroit      MI              48235        220        $3,289.00
                     Vegetable
                     Box
Edgar A. Smith      Fresh Fruit/   South West     Webster      TX              77598      2,864       $48,659.36
 YMCA                Vegetable
                     Box
Edgemere Church of  Fresh Fruit/   Mid-Atlantic   Essex        MD              21221        300        $6,285.00
 God                 Vegetable
                     Box
Edgewood Church     Fresh Fruit/   South East     Atlanta      GA              30317        660       $13,200.00
                     Vegetable
                     Box
Edgewood/Lyndhurst  Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21229        650       $13,000.00
 Rec.                Vegetable
                     Box
Edible Schoolyard   Fresh Fruit/   Western        East Palo    CA              94303        825       $26,268.00
 Project             Vegetable                     Alto
                     Box
Edison High School  Fresh Fruit/   Western        Stockton     CA              95206        280        $8,915.20
                     Vegetable
                     Box
Edna and John W     Fresh Fruit/   Mountain       Aurora       Co              80011        210        $5,439.00
 Mosley P-8          Vegetable      Plains
                     Box
Edna Hill           Fresh Fruit/   Western        Brentwood    CA              94513        308        $8,294.44
 Elementary          Vegetable
                     Box
Edna Hill Middle    Fresh Fruit/   Western        Brentwood    CA              94513      1,560       $49,670.40
 School              Vegetable
                     Box
Edsel Ford          Fresh Fruit/   Midwest        Dearborn     MI              48124        200        $4,225.00
                     Vegetable
                     Box
Edwards St. Flw.    Fluid Milk     South East     Hattiesburg  MS              39401      1,080        $4,093.20
 Ctr.
E-Free Church       Precooked      Midwest        Gaylord      MI              49735        427       $16,833.39
                     Meat Box
EIF Mattoon F2F     Dairy          Midwest        Mattoon      IL              61938        330        $8,009.10
                     Products Box
EIF Mattoon F2F     Fresh Fruit/   Midwest        Mattoon      IL              61938        640       $11,651.40
                     Vegetable
                     Box
EIF Mattoon F2F     Precooked      Midwest        Mattoon      IL              61938      1,584       $57,167.56
                     Meat Box
Eighth Day Church   Fresh Fruit/   South East     Warner       GA              31088      2,400       $27,600.00
                     Vegetable                     Robins
                     Box
EJ Hayes Aumni      Fresh Fruit/   South East     Williamston  NC              27892        200        $7,142.00
                     Vegetable
                     Box
Ekklesia            Fresh Fruit/   South East     Sheffield    AL              35660      2,171       $60,788.00
 Missionary          Vegetable
 Baptist             Box
El Ada Community    Combination    Western        Homedale     ID              83628        200        $8,800.00
 Action              Box
El Ada Community    Fresh Fruit/   Western        Garden City  ID              83714      1,320       $29,370.00
 Action              Vegetable
 Partnership         Box
El Buen Pastor      Fresh Fruit/   Mid-Atlantic   San Juan     PR              00901        165        $6,435.00
                     Vegetable
                     Box
El Buen Pastor      Fresh Fruit/   South West     El Paso      TX              79928      1,016       $19,812.00
 Mission             Vegetable
                     Box
El Calvario         Fresh Fruit/   Mid-Atlantic   Silver       MD              20903        336        $9,408.00
                     Vegetable                     Spring
                     Box
El Calvario Church  Fresh Fruit/   Mid-Atlantic   Silver       MD              20910        600       $16,800.00
                     Vegetable                     Spring
                     Box
El Cenizo           Fluid Milk     South West     Rio Grande   TX              78582        864        $2,522.88
 Nutrition                                         Cy
El Centro De LA     Combination    Western        Seattle      WA              98144        480       $16,800.00
 Raza Fb             Box
El Centro De LA     Dairy          Western        Seattle      WA              98144        100        $3,000.00
 Raza Fb             Products Box
El Centro De LA     Fresh Fruit/   Western        Seattle      WA              98144        240        $6,480.00
 Raza Fb             Vegetable
                     Box
El Centro Hispano   Fresh Fruit/   South East     Hillsboroug  NC              27278         65        $1,010.00
                     Vegetable                     h
                     Box
El Centro Hispano   Fresh Fruit/   South East     Raleigh      NC              27603        120        $1,860.00
                     Vegetable
                     Box
El Centro Hispano   Fresh Fruit/   South East     Durham       NC              27705        118        $1,838.00
                     Vegetable
                     Box
El Centro Hispano   Fresh Fruit/   South East     Durham       NC              27707        122        $1,882.00
                     Vegetable
                     Box
El Centro Inc.      Fresh Fruit/   Mountain       Kansas City  KS              66101        200        $5,180.00
 Academy for         Vegetable      Plains
 Children            Box
El Centro Inc.      Fresh Fruit/   Mountain       Kansas City  KS              66106        200        $5,180.00
 Academy for         Vegetable      Plains
 Children            Box
El Centro Inc.      Fresh Fruit/   Mountain       Olathe       KS              66061        160        $4,144.00
 Olathe              Vegetable      Plains
                     Box
El Monte City       Fluid Milk     Western        El Monte     CA              91731        525        $3,990.00
 School District
El Monte City       Fresh Fruit/   Western        El Monte     CA              91731        210        $5,250.00
 School District     Vegetable
                     Box
El Parasio          Fresh Fruit/   Mid-Atlantic   San Juan     PR              00907        165        $6,435.00
                     Vegetable
                     Box
El Paso Baptist     Fresh Fruit/   South West     El Paso      TX              79902      6,240      $156,000.00
 Association         Vegetable
                     Box
El Paso Baptist     Precooked      South West     El Paso      TX              79902      1,536      $158,438.40
 Association         Meat Box
El Paso Baptist     Fresh Fruit/   South West     El Paso      TX              79904         26          $507.00
 Church              Vegetable
                     Box
El Paso Baptist     Fresh Fruit/   South West     El Paso      TX              79904         55        $1,072.50
 Clinic              Vegetable
                     Box
El Pasoans          Combination    South West     El Paso      TX              79927    246,751    $3,450,152.98
 Fighting Hunger     Box
El Pasoans          Fresh Fruit/   South West     El Paso      TX              79911     17,136      $334,152.00
 Fighting Hunger     Vegetable
                     Box
El Pasoans          Fresh Fruit/   South West     El Paso      TX              79905     32,682      $637,299.00
 Fighting Hunger     Vegetable
                     Box
El Pasoans          Fresh Fruit/   South West     El Paso      TX              79907     10,368      $202,176.00
 Fighting Hunger     Vegetable
                     Box
El Pasoans          Fresh Fruit/   South West     El Paso      TX              79936      2,160       $42,120.00
 Fighting Hunger     Vegetable
                     Box
El Pasoans          Fresh Fruit/   South West     El Paso      TX              79928      1,584       $30,888.00
 Fighting Hunger     Vegetable
                     Box
El Poder De LA      Combination    Mid-Atlantic   Vega Baja    PR              00693        672       $66,528.00
 Palabra             Box
El Rancho Sd        Fresh Fruit/   Western        Pico Rivera  CA              90660      2,480       $62,000.00
                     Vegetable
                     Box
El Sereno           Fluid Milk     Western        Los Angeles  CA              90032      2,400       $23,976.00
 Bicentennial
 Committee
El-Ada Community    Fresh Fruit/   Western        Boise        ID              83702        960       $21,360.00
 Action              Vegetable
                     Box
El-Ada Community    Fresh Fruit/   Western        Garden City  ID              83714        360        $8,010.00
 Action              Vegetable
                     Box
El-Ada Community    Fresh Fruit/   Western        Boise        ID              83702        960       $21,360.00
 Action              Vegetable
 Partnership         Box
El-Ada Community    Fresh Fruit/   Western        Garden City  ID              83714        360        $8,010.00
 Action              Vegetable
 Partnership         Box
Elderly Affairs     Fresh Fruit/   Western        Lihue        HI              96766        600       $23,400.00
                     Vegetable
                     Box
Eldon Comm. Food    Fluid Milk     Mountain       Eldon        MO              65026        333          $749.25
 Pantry                             Plains
Eldon Head Start    Fluid Milk     Mountain       Eldon        MO              65026         90          $202.50
 3006                               Plains
Eldon Upper         Fluid Milk     Mountain       Eldon        MO              65026      2,502        $5,629.50
 Elementary                         Plains
Elevate Christian   Dairy          South West     Phoenix      AZ              85040        204        $5,406.00
 Church              Products Box
Elevate Christian   Fresh Fruit/   South West     Phoenix      AZ              85040      1,960       $47,740.00
 Church              Vegetable
                     Box
Elevate Christian   Precooked      South West     Phoenix      AZ              85040      2,736      $282,218.40
 Church              Meat Box
Elevate Life        Combination    South East     Jacksonvill  FL              32222      2,688      $204,422.40
 Church--Jacksonvi   Box                           e
 lle FL
Elgin Commissary    Fluid Milk     Midwest        Elgin        IL              60123        648       $22,712.40
Elgin Math and      Combination    Midwest        Elgin        IL              60120        125        $8,397.50
 Science Academy     Box
Elgin Math and      Dairy          Midwest        Elgin        IL              60120         90        $5,863.50
 Science Academy     Products Box
Elgin Math and      Fluid Milk     Midwest        Elgin        IL              60120         35        $1,226.75
 Science Academy
Elgin Math and      Fresh Fruit/   Midwest        Elgin        IL              60120        100        $6,406.00
 Science Academy     Vegetable
                     Box
Elgin Math and      Fresh Fruit/   Midwest        Elgin        IL              60120        195       $12,491.70
 Science Academy     Vegetable
                     Box
Eliot Family        Fresh Fruit/   North East     Everett      MA              02149         80        $2,275.20
 Resource Center     Vegetable
                     Box
Eliza Bryant        Dairy          Midwest        Cleveland    OH              44130         65        $1,625.00
                     Products Box
Elizabeth Baptist   Fresh Fruit/   South East     Tuscaloosa   AL              35401      1,100       $28,545.00
 Church              Vegetable
                     Box
Elizabeth City      Fresh Fruit/   South East     Elizabeth    NC              27909        150        $5,356.50
 Housing Authority   Vegetable                     City
                     Box
Elizabeth Seaton    Fresh Fruit/   Mid-Atlantic   Bladensburg  MD              20710        150        $3,000.00
 High School         Vegetable
                     Box
Elk Grove Food      Fresh Fruit/   Western        Elk Grove    CA              95324        693       $18,662.49
 Bank                Vegetable
                     Box
Elk Grove Township  Fresh Fruit/   Midwest        Elk Grove    IL              60007        126        $4,533.48
                     Vegetable                     Vlg
                     Box
Elk Grove Township  Dairy          Midwest        Elk Grove    IL              60007        100        $2,500.00
 Box                 Products Box                  Village
Elk Grove Township  Dairy          Midwest        Elk Grove    IL              60007         50        $1,250.00
 Box                 Products Box                  Village
Ellen Ochoa         Fresh Fruit/   South West     Tulsa        OK              74146        392        $9,133.60
 Elementary School   Vegetable
                     Box
Ellicotville        Fresh Fruit/   North East     Ellicottvil  NY              14731        550       $12,567.50
 School              Vegetable                     le
                     Box
Ellies Voice        Fresh Fruit/   South East     Holt         FL              32564        300        $8,700.00
                     Vegetable
                     Box
Elm                 Fresh Fruit/   Western        San Rafael   CA              94901         20          $636.80
                     Vegetable
                     Box
Elm Grove Church    Fresh Fruit/   South East     Ayden        NC              28513        488       $17,426.48
                     Vegetable
                     Box
Elmore Cty Food     Fluid Milk     South East     Wetumpka     AL              36092      1,260        $5,027.40
 Pry
Elois McCoy         Fresh Fruit/   Midwest        Chicago      IL              60644         63        $2,266.74
 Village             Vegetable
                     Box
Eloises Cooking     Fluid Milk     Western        Kent         WA              98032      6,912       $36,633.60
 Pot
Ely Stadium         Fluid Milk     Midwest        Elyria       OH              44035      1,616        $5,365.12
Emanuel Ministries  Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206        400        $8,000.00
                     Vegetable
                     Box
EMBARC              Fresh Fruit/   Midwest        Des Moines   IA              50310        300        $4,350.00
                     Vegetable
                     Box
Emergency           Fluid Milk     Midwest        Northfield   OH              44067         80          $265.60
 Assistance
Emergency           Precooked      Midwest        Chicago      IL              60654        144       $11,681.28
 Assistance          Meat Box
Emergency           Precooked      Midwest        Chicago      IL              60654         72        $5,840.64
 Assistant           Meat Box
Emergency           Precooked      Midwest        Chicago      IL              60654        144       $11,681.28
 Assitance           Meat Box
Emergency Food      Fresh Fruit/   Western        Stockton     CA              95203     11,063      $301,240.84
 Bank of Stockton    Vegetable
                     Box
Emergency Food      Combination    Western        Lakewood     WA              98499      4,830      $169,050.00
 Network             Box
Emergency Food      Dairy          Western        Lakewood     WA              98499      5,748      $172,440.00
 Network             Products Box
Emergency Food      Fresh Fruit/   Western        Lakewood     WA              98499      2,371       $64,017.00
 Network             Vegetable
                     Box
Emergency Shelter-- Fresh Fruit/   South East     Port Gibson  MS              39150      1,568       $31,312.96
 Port Gibson         Vegetable
                     Box
Emmanuel Baptist    Fluid Milk     South East     Tuskegee     AL              36088      4,140       $16,518.60
 Ch.
Emmanuel Baptist    Fresh Fruit/   South East     Lafayette    GA              30728        663       $13,260.00
 Church              Vegetable
                     Box
Emmanuel Baptist    Fresh Fruit/   South East     Grenada      MS              38901        616       $12,289.20
 Church North        Vegetable
 Central Baptist     Box
 Asso
Emmanuel Hispanic   Fresh Fruit/   South East     Raleigh      NC              27610      1,340       $15,410.00
                     Vegetable
                     Box
Emmanuel Lutheran   Precooked      Mid-Atlantic   Souderton    PA              18964         65        $1,170.00
 Church              Meat Box
Emmanuel            Dairy          Midwest        Muskegon     MI              49442        400       $11,600.00
 Tabernacle Cogic.   Products Box
Emmanuel            Fresh Fruit/   Midwest        Muskegon     MI              49442        800       $17,075.00
 Tabernacle Cogic.   Vegetable
                     Box
Emmanuel Worship    Fresh Fruit/   South West     Lubbock      TX              79412      1,536       $26,096.64
 Center              Vegetable
                     Box
Emmaus Mission      Dairy          Midwest        Logansport   IN              46947        500       $12,500.00
 Ctr.--Lgnspt.       Products Box
Emmelena Elem.      Fluid Milk     South East     Emmalena     KY              41740        598        $2,266.42
Emmett Valley       Combination    Western        Emmett       ID              83617        320       $14,080.00
 Friendship Coali.   Box
Emmett Valley       Fresh Fruit/   Western        Emmett       ID              83617        480       $12,480.00
 Friendship Coali.   Vegetable
                     Box
Empire Unified      Fresh Fruit/   Western        Modesto      CA              95354        462       $12,441.66
 School District     Vegetable
                     Box
Empower 7           Fresh Fruit/   South West     Rowlett      TX              75088        192        $3,262.08
                     Vegetable
                     Box
Empower Boone       Fresh Fruit/   Midwest        Capron       IL              61012      2,376       $78,161.76
                     Vegetable
                     Box
Empowering          Fresh Fruit/   Midwest        Roseville    MI              48066        110        $1,644.50
 Disciples Baptist   Vegetable
                     Box
Empowering the      Dairy          South West     Dallas       TX              75215        600       $27,456.00
 Masses Services     Products Box
 of Hope
Empowering the      Fluid Milk     South West     Dallas       TX              75215        150        $3,591.00
 Masses Services
 of Hope
Empowering the      Fresh Fruit/   South West     Dallas       TX              75215        200        $3,820.00
 Masses Services     Vegetable
 of Hope             Box
Empowerment         Dairy          South East     Gulfport     MS              39501        640       $17,971.20
 Ministries Ch.      Products Box
Empowerment         Fresh Fruit/   South East     Gulfport     MS              39501        384        $6,489.60
 Ministries Ch.      Vegetable
                     Box
Empowerment         Precooked      South East     Gulfport     MS              39501        252       $10,347.12
 Ministries Ch.      Meat Box
EMS Building/Soda   Combination    Western        Soda         ID              83276        120        $5,280.00
 Springs             Box                           Springs
EMS Building/Soda   Fresh Fruit/   Western        Soda         ID              83276        120        $3,120.00
 Springs             Vegetable                     Springs
                     Box
EMSA                Combination    Midwest        Elgin        IL              60120        675       $43,069.50
                     Box
EMSA                Dairy          Midwest        Elgin        IL              60120        270       $16,681.50
                     Products Box
EMSA                Fresh Fruit/   Midwest        Elgin        IL              60120        100        $6,406.00
                     Vegetable
                     Box
Enactus Columbia    Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
 Central             Box
 University
ENCAP               Fresh Fruit/   Mountain       Omaha        NE              68111        200        $5,180.00
                     Vegetable      Plains
                     Box
Encounter Church    Combination    South East     Toccoa       GA              30577      1,344      $102,211.20
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27701        155        $2,480.00
                     Vegetable
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27703         85        $1,360.00
                     Vegetable
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27704         75        $1,200.00
                     Vegetable
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27707         81        $1,296.00
                     Vegetable
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27705         72        $1,152.00
                     Vegetable
                     Box
End Hunger Durham   Fresh Fruit/   South East     Durham       NC              27713         55          $880.00
                     Vegetable
                     Box
End Hunger in       Fresh Fruit/   Mid-Atlantic   Prince       MD              20678      1,200       $25,140.00
 Calvert             Vegetable                     Frederick
                     Box
Endeavour School    Fresh Fruit/   Midwest        Ray          MI              48096        500        $7,475.00
                     Vegetable
                     Box
Englewood Baptist   Dairy          South East     Jackson      TN              38305        720       $18,000.00
 Church              Products Box
Enjoy Detroit       Fresh Fruit/   Midwest        Detroit      MI              48207      1,000       $14,950.00
                     Vegetable
                     Box
Enola A Dew Apts.   Fresh Fruit/   Midwest        Chicago      IL              60644         63        $2,266.74
                     Vegetable
                     Box
Enon Tabernacle     Fluid Milk     Mid-Atlantic   Philadelphi  PA              19150      1,056       $20,824.32
 Baptist Church                                    a
Enough Pie--        Fresh Fruit/   South East     Charleston   SC              29405         75        $2,250.00
 Bridgeview          Vegetable
 Village             Box
Enough Pie--        Fresh Fruit/   South East     North        SC              29405        155        $4,650.00
 Bridgeview          Vegetable                     Charleston
 Village             Box
Enough Pie--        Fresh Fruit/   South East     Charleston   SC              29405         75        $2,250.00
 Freddie Whaley      Vegetable
                     Box
Enough Pie--        Fresh Fruit/   South East     North        SC              29405        150        $4,500.00
 Freddie Whaley      Vegetable                     Charleston
 Community Center    Box
Enterprise          Fresh Fruit/   Midwest        Romulus      MI              48174        600        $8,970.00
                     Vegetable
                     Box
Epic Center--       Fresh Fruit/   Mid-Atlantic   Edgewood     MD              21040        378        $7,163.10
 Tabitha's Center    Vegetable
                     Box
Epic Cure           Fluid Milk     South East     St.          FL              32084        900        $3,411.00
                                                   Augustine
Epic Ministry       Fresh Fruit/   Western        Wahiawa      HI              96786        700       $25,200.00
 Roman Catholic      Vegetable
 Church              Box
Epiphany            Fresh Fruit/   Midwest        Chicago      IL              60623        252        $9,066.96
                     Vegetable
                     Box
Epiphany Episcopal  Fresh Fruit/   Mid-Atlantic   Timonium     MD              21093        250        $5,000.00
 Church              Vegetable
                     Box
Episcopal Church    Fluid Milk     South East     Starkville   MS              39759        720        $2,872.80
 of
Episcopal Food      Fluid Milk     South West     Ft Worth     TX              76103        256          $747.52
 Pant.
Epps Christian      Fresh Fruit/   South East     Pensacola    FL              32501      1,800       $52,200.00
 Center              Vegetable
                     Box
Epworth Chapel      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21207        250        $5,237.50
                     Vegetable
                     Box
Epworth United      Dairy          Midwest        Mt. Vernon   IL              62864         20          $595.00
 Methodist           Products Box
Epworth United      Fresh Fruit/   Midwest        Mt. Vernon   IL              62864         20          $550.00
 Methodist           Vegetable
                     Box
Equal Hearts        Fluid Milk     South West     Dallas       TX              75220      3,456       $10,091.52
Eric Gurrea--LA     Fresh Fruit/   Western        Sacramento   CA              95824      1,470       $32,266.50
 Familia             Vegetable
                     Box
Eriksson            Dairy          Midwest        Canton       MI              48187        300        $8,700.00
                     Products Box
Eriksson            Fresh Fruit/   Midwest        Canton       MI              48187        600       $12,150.00
                     Vegetable
                     Box
Eritrean Task       Fresh Fruit/   Western        San Carlos   CA              94070         50        $1,592.00
 Force--Star Vista   Vegetable
                     Box
ERS--Deupree Meals  Fresh Fruit/   Midwest        Amelia       OH              45102        200        $4,183.20
 on Wheels           Vegetable
                     Box
ERS--Deupree Meals  Precooked      Midwest        Amelia       OH              45102        120        $5,316.40
 on Wheels           Meat Box
Ervin Elementary    Fresh Fruit/   Mountain       Kansas City  MO              64134        520       $13,468.00
                     Vegetable      Plains
                     Box
Erving Elementary   Fresh Fruit/   Midwest        Woodhaven    MI              48183        225        $3,363.75
 School              Vegetable
                     Box
Erwinville Comm.    Fluid Milk     South West     Port Allen   LA              70767        756        $2,244.64
 Ctr.
Escanaba Area       Fresh Fruit/   Midwest        Escanaba     MI              49829        756       $27,200.88
 Public Schools      Vegetable
                     Box
Escanaba--MI-49829  Fresh Fruit/   Midwest        Escanaba     MI              49829        378       $13,600.44
                     Vegetable
                     Box
Escci Dennis Sr.    Combination    North East     South        MA              02660         45        $1,476.00
 Ctr.                Box                           Dennis
Escci Mashpee COA   Combination    North East     Mashpee      MA              02649         41        $1,344.80
                     Box
Escuela Agricola    Combination    Mid-Atlantic   Adjuntas     PR              00601      1,344      $124,824.00
 Esteban Bianchi     Box
Escuela Antonio     Combination    Mid-Atlantic   Vega Alta    PR              00692      2,216      $201,352.00
 Paoli               Box
Escuela Bernardo    Combination    Mid-Atlantic   Bayamon      PR              00956      1,584      $143,684.00
 Huyke               Box
Escuela Inocencio   Combination    Mid-Atlantic   Barranquita  PR              00794      1,480      $131,624.00
 Cintron Zayas       Box                           s
Escuela Jaime       Combination    Mid-Atlantic   Yabucoa      PR              00767      1,484      $138,684.00
 Rodriguez Yabucoa   Box
Escuela Jesus T     Combination    Mid-Atlantic   Caguas       PR              00725      1,444      $134,724.00
 Pinero              Box
Escuela Luis Munoz  Combination    Mid-Atlantic   Guaynabo     PR              00965      2,167      $199,245.00
 Rivera              Box
Escuela Rafael A    Combination    Mid-Atlantic   Guayama      PR              00784      1,494      $139,674.00
 Delgado Mateo       Box
ESDC                Combination    Midwest        Chicago      IL              60608      1,800      $120,924.00
                     Box
ESDC                Combination    Midwest        Chicago      IL              60616      3,600      $232,740.00
                     Box
ESDC                Fluid Milk     Midwest        Chicago      IL              60608        300       $10,515.00
ESDC                Fluid Milk     Midwest        Chicago      IL              60616        450       $15,772.50
ESDC                Fresh Fruit/   Midwest        Chicago      IL              60616      1,800      $115,308.00
                     Vegetable
                     Box
ESDC                Precooked      Midwest        Chicago      IL              60608      1,800      $128,826.00
                     Meat Box
ESMV Lawrence       Combination    North East     Lawrence     MA              01840         25          $820.00
                     Box
Esperanza           Fresh Fruit/   South East     Palm Beach   FL              33410        150        $1,800.00
 Community Center    Vegetable                     Gardens
 Inc.                Box
Esperanza De        Combination    Mid-Atlantic   Aguas        PR              00703        300       $15,000.00
 Iglesia Metodista   Box                           Buenas
Esperanza De        Combination    Mid-Atlantic   Guayanilla   PR              00656        216       $16,092.00
 Iglesia Metodista   Box
Esperanza De        Combination    Mid-Atlantic   Jayuya       PR              00664        216       $16,092.00
 Iglesia Metodista   Box
Esperanza De        Combination    Mid-Atlantic   Patillas     PR              00723        576       $49,968.00
 Iglesia Metodista   Box
Esperanza De        Combination    Mid-Atlantic   San Juan     PR              00920        300       $22,350.00
 Iglesia Metodista   Box
Essex UMC           Fresh Fruit/   Mid-Atlantic   Essex        MD              21221        250        $5,237.50
                     Vegetable
                     Box
Est Elem.           Fluid Milk     South East     Owensboro    KY              42303        306          $688.50
Estero United       Fresh Fruit/   South East     Estero       FL              33928      1,260       $30,870.00
 Methodist Church    Vegetable
                     Box
ESW Auburn Senior   Combination    North East     Auburn       MA              01501         40        $1,312.00
                     Box
ESW Millbury        Combination    North East     Millbury     MA              01527         40        $1,312.00
                     Box
ESW Rutland Senior  Combination    North East     Rutland      MA              01543         40        $1,312.00
                     Box
ESW Shrewsbury      Combination    North East     Shrewsbury   MA              01545         40        $1,312.00
                     Box
ESW West Boylston   Combination    North East     West         MA              01583         40        $1,312.00
                     Box                           Boylston
ETCA/STL Food Bank  Fresh Fruit/   Mountain       Bridgeton    MO              63044        180        $5,760.00
                     Vegetable      Plains
                     Box
ETCA/STL Food Bank  Fresh Fruit/   Mountain       St. Louis    MO              63113        720       $23,040.00
                     Vegetable      Plains
                     Box
Ethnan Temple       Fluid Milk     Mid-Atlantic   Wilkinsburg  PA              15221        176        $1,936.00
 Seventh Day
 Adventist Church
Ethos               Precooked      North East     Hyde Park    MA              02136      1,918      $104,147.40
                     Meat Box
Ethos Katsiroubas   Combination    North East     Hyde Park    MA              02136      2,084       $73,472.00
 Produce             Box
Etowah Community    Fresh Fruit/   South East     Gadsden      AL              35903        200        $5,600.00
 Center              Vegetable
                     Box
Euclid Hunger       Fluid Milk     Midwest        Euclid       OH              44123        412        $1,367.84
 Center
Euclid Hunger       Fresh Fruit/   Midwest        Euclid       OH              44123        320        $6,240.00
 Center              Vegetable
                     Box
Eufaula First       Combination    South West     Eufaula      OK              74432      2,400       $83,928.00
 Assembly of God     Box
Eufaula First       Dairy          South West     Eufaula      OK              74432      1,152       $52,715.52
 Assembly of God     Products Box
Eufaula First       Fresh Fruit/   South West     Eufaula      OK              74432      2,450       $48,029.80
 Assembly of God     Vegetable
                     Box
Eugene School       Combination    Western        Eugene       OR              97402      4,800      $168,000.00
 District USDA       Box
Eugene School       Dairy          Western        Eugene       OR              97402      1,200       $36,000.00
 District USDA       Products Box
Eugene School       Fresh Fruit/   Western        Eugene       OR              97402        490       $13,230.00
 District USDA       Vegetable
                     Box
Eunice Food Bank    Fluid Milk     South West     Eunice       LA              70535        688        $2,094.80
European American   Combination    Midwest        Chicago      IL              60622        180       $12,092.40
                     Box
Eusd Farr           Fresh Fruit/   Western        Escondido    CA              92026        320        $8,000.00
 Elementary          Vegetable
                     Box
Eusd Nutrition      Fresh Fruit/   Western        Escondido    CA              92026        960       $24,000.00
 Whs.                Vegetable
                     Box
Evangel. Christian  Fresh Fruit/   North East     Long Island  NY              11101      1,400       $27,958.00
 Center              Vegetable                     City
                     Box
Evangel. Church     Precooked      North East     Long Island  NY              11101      2,450       $90,165.88
                     Meat Box                      City
Evangel. Church     Combination    North East     Long Island  NY              11101     12,500      $460,010.00
 (Gleaning for the   Box                           City
 World)
Evangel. Church of  Fresh Fruit/   Midwest        Detroit      MI              48219        200        $4,268.75
 God in Christ       Vegetable
                     Box
Evangel. Food       Fluid Milk     North East     Long Island  NY              11101      7,884      $244,246.32
 Pantry                                            City
Evangelica Unida    Combination    Mid-Atlantic   Luquillo     PR              00773        672       $58,296.00
                     Box
Evangelical         Dairy          Midwest        Ypsilanti    MI              48197         60        $2,025.00
 Friends Church      Products Box
Evangelical         Dairy          Midwest        Ypsilanti    MI              48198         30        $1,012.50
 Friends Church      Products Box
Evangelical         Precooked      Midwest        Ypsilanti    MI              48197         30        $1,430.70
 Friends Church      Meat Box
Evangelical         Precooked      Midwest        Ypsilanti    MI              48198         30        $1,430.70
 Friends Church      Meat Box
Evangelical         Fresh Fruit/   Midwest        Lake City    MI              49651        567       $20,400.66
 Presbyterian        Vegetable
 Church              Box
Evanston Vineyard   Fresh Fruit/   Midwest        Evanston     IL              60202        378       $13,600.44
                     Vegetable
                     Box
Evansville Food     Dairy          Midwest        Evansville   IN              47713      1,130       $33,617.50
 Bank                Products Box
Evansville Rescue   Dairy          Midwest        Evansville   IN              47713      2,744       $81,634.00
 Mission             Products Box
Evansville Rescue   Fresh Fruit/   Midwest        Evansville   IN              47713      5,292      $145,530.00
 Mission             Vegetable
                     Box
Evening Star        Fresh Fruit/   Midwest        Chicago      IL              60636        567       $20,400.66
                     Vegetable
                     Box
Evening Star        Precooked      Midwest        Chicago      IL              60636      1,296      $105,131.52
                     Meat Box
Ever Reaching       Fluid Milk     South East     Pelahatchie  MS              39145        360        $1,364.40
Ever Reaching       Dairy          South East     Pelahatchie  MS              39145        160        $4,492.80
 Comm. Outre.        Products Box
Ever Reaching       Fluid Milk     South East     Pelahatchie  MS              39145        384        $2,818.56
 Comm. Outre.
Ever Reaching       Fresh Fruit/   South East     Pelahatchie  MS              39145        240        $4,056.00
 Comm. Outre.        Vegetable
                     Box
Ever Reaching       Precooked      South East     Pelahatchie  MS              39145        420       $17,245.20
 Comm. Outre.        Meat Box
Everett High        Fresh Fruit/   North East     Everett      MA              02149      1,680       $36,876.00
 School              Vegetable
                     Box
Everett New Life    Fresh Fruit/   Western        Everett      WA              98023      1,050       $23,362.50
                     Vegetable
                     Box
Everglades CDC      Fluid Milk     South East     Florida      FL              33034        836        $3,251.64
                                                   City
Every Child Is      Dairy          South West     Tuckerman    AR              72473        500       $12,500.00
 Ours                Products Box
Evident Church      Fresh Fruit/   Midwest        Chesterfiel  MI              48047        490       $14,087.50
                     Vegetable                     d
                     Box
Executive           Fresh Fruit/   South East     Stockbridge  GA              30281      6,480      $183,400.00
 Committee of        Vegetable
 Baptist Conv.       Box
Exodus Food Pantry  Fresh Fruit/   Midwest        Detroit      MI              48234        100        $2,875.00
                     Vegetable
                     Box
Exodus Place        Dairy          Midwest        Grand        MI              49504         48        $1,200.00
                     Products Box                  Rapids
Expanding           Fresh Fruit/   South East     Fayette      MS              39069        500        $9,985.00
 Resources Into      Vegetable
 Action              Box
Extend A Hand       Fluid Milk     South East     Gulfport     MS              39501      1,936        $7,337.44
Eyes on Me          Fluid Milk     South West     Houston      TX              77051        560        $1,635.20
Eyes on Me Inc.     Fluid Milk     South West     Brookshire   TX              77423        600        $1,839.00
Eyes on Me Inc.     Fresh Fruit/   South West     Brookshire   TX              77423      1,432       $24,329.68
                     Vegetable
                     Box
Eyes on Me Inc.     Fresh Fruit/   South West     Houston      TX              77022        280        $4,757.20
                     Vegetable
                     Box
Eyes on Me/Bethel   Fresh Fruit/   South West     Houston      TX              77022      3,520       $59,804.80
 Baptist             Vegetable
                     Box
Eyes on Me/Bethel   Fresh Fruit/   South West     Houston      TX              77028      1,680       $28,543.20
 Baptist             Vegetable
                     Box
Eyes on Me/         Fresh Fruit/   South West     Brookshire   TX              77423      1,984       $33,708.16
 Brookshire          Vegetable
                     Box
Eyes on Me/         Fresh Fruit/   South West     Richmond     TX              77469        368        $6,252.32
 Cornerstone Comm.   Vegetable
                     Box
Eyes on Me/Cylife   Fresh Fruit/   South West     Cypress      TX              77433        776       $13,184.24
 Church              Vegetable
                     Box
Eyes on Me/Elevate  Fresh Fruit/   South West     Houston      TX              77020        320        $5,436.80
                     Vegetable
                     Box
Eyes on Me/Food     Fresh Fruit/   South West     Katy         TX              77493        192        $3,262.08
 Pantry              Vegetable
                     Box
Eyes on Me/Grace    Fresh Fruit/   South West     Houston      TX              77047        128        $2,174.72
 Con.                Vegetable
                     Box
Eyes on Me/Green    Fresh Fruit/   South West     Houston      TX              77067      1,648       $27,999.52
 House Int.          Vegetable
                     Box
Eyes on Me/Hosanna  Fresh Fruit/   South West     Rosenberg    TX              77471        448        $7,611.52
 Fellowship          Vegetable
                     Box
Eyes on Me/Katy     Fresh Fruit/   South West     Katy         TX              77493      3,072       $52,193.28
                     Vegetable
                     Box
Eyes on Me/Kings    Fresh Fruit/   South West     Houston      TX              77051        192        $3,262.08
 Row                 Vegetable
                     Box
Eyes on Me/Mission  Fresh Fruit/   South West     Houston      TX              77051        256        $4,349.44
 Center              Vegetable
                     Box
Eyes on Me/Mt.      Fresh Fruit/   South West     Houston      TX              77051        576        $9,786.24
 Vernon              Vegetable
                     Box
Eyes on Me/St.      Fresh Fruit/   South West     Houston      TX              77074        768       $13,048.32
 Lukes               Vegetable
                     Box
Eyes on Me/         Fresh Fruit/   South West     Houston      TX              77051        336        $5,708.64
 Sunnyside           Vegetable
                     Box
Eyes on Me/Team     Fresh Fruit/   South West     Tomball      TX              77375        320        $5,436.80
                     Vegetable
                     Box
Eyes on Me/World    Fresh Fruit/   South West     Houston      TX              77047      1,152       $19,572.48
 Harvest             Vegetable
                     Box
Eyes on Me/         Fresh Fruit/   South West     Houston      TX              77051        128        $2,174.72
 Worthing            Vegetable
                     Box
Ezra Multi-Service  Dairy          Midwest        Chicago      IL              60640        120        $3,000.00
 Cer Box             Products Box
F.I.S.H             Precooked      Midwest        East         OH              43920        100        $4,490.00
                     Meat Box                      Liverpool
Fabrica De Fajardo  Combination    Mid-Atlantic   Fajardo      PR              00738      1,344      $133,056.00
                     Box
Faces               Dairy          Mid-Atlantic   Farmville    VA              23901      1,248       $42,506.88
                     Products Box
Facing Hunger Food  Fluid Milk     Mid-Atlantic   Huntington   WV              25701      2,615       $57,337.20
 Bank
Facing Hunger Food  Fresh Fruit/   Mid-Atlantic   Huntington   WV              25701      1,800       $41,364.00
 Bank                Vegetable
                     Box
Facts of Life       Fluid Milk     South East     Tabor City   NC              28463      1,348        $5,245.72
 Church
Facts of Life       Fresh Fruit/   South East     Tabor City   NC              28463      3,800       $43,700.00
 Church              Vegetable
                     Box
FAEQ--Fairgrounds   Combination    Midwest        Keshena      WI              54135      1,056       $47,520.00
 Keshena             Box
FAEW Brown          Combination    Midwest        Green Bay    WI              54303      6,336      $285,120.00
                     Box
FAEW Fvtc Appleton  Combination    Midwest        Appleton     WI              54912      4,224      $190,080.00
                     Box
FAEW Keshena        Combination    Midwest        Keshena      WI              54135      1,056       $47,520.00
                     Box
FAEW Menasha        Combination    Midwest        Menasha      WI              54952      1,056       $47,520.00
                     Box
FAEW Menominee      Combination    Midwest        Keshena      WI              54135      3,168      $142,560.00
                     Box
FAEW Nwtc. Green    Combination    Midwest        Green Bay    WI              54303      4,224      $190,080.00
 Bay                 Box
FAEW Outagamie      Combination    Midwest        Appleton     WI              54912      6,336      $285,120.00
                     Box
FAEW Plainfield     Combination    Midwest        Plainfield   WI              54966      1,056       $47,520.00
                     Box
FAEW Ripon          Combination    Midwest        Ripon        WI              54971      2,112       $95,040.00
                     Box
FAEW Shawano        Combination    Midwest        Shawano      WI              54166      6,336      $285,120.00
                     Box
FAEW Waupaca        Combination    Midwest        Waupaca      WI              54981      6,336      $285,120.00
                     Box
FAEW Waushara       Combination    Midwest        Wautoma      WI              54982      4,224      $190,080.00
                     Box
FAEW Wautoma        Combination    Midwest        Wautoma      WI              54982      2,112       $95,040.00
                     Box
FAEW--Nathan        Combination    Midwest        Menasha      WI              54952      1,056       $47,520.00
 Calder Stadium      Box
Fair Haven Church   Fresh Fruit/   Midwest        Hudsonville  MI              49426         63        $2,266.74
                     Vegetable
                     Box
Fairbanks Foodbank  Fresh Fruit/   Western        Fairbanks    AK              99701      1,512       $42,260.40
                     Vegetable
                     Box
Fairbanks Foodbank  Fresh Fruit/   Western        Fairbanks    AK              99702        288        $8,049.60
                     Vegetable
                     Box
Fairfax County      Dairy          Mid-Atlantic   Chantilly    VA              20151      2,000       $37,586.50
 West Field High     Products Box
 School
Fairfax County      Fluid Milk     Mid-Atlantic   Chantilly    VA              20151        960       $17,894.40
 West Field High
 School
Fairfield High      Fresh Fruit/   South East     Fairfield    AL              35064        150        $4,200.00
 School              Vegetable
                     Box
Fairfield High      Fresh Fruit/   Midwest        Fairfield    OH              45014      1,400       $27,958.00
 School              Vegetable
                     Box
Fairhaven Hastings  Fresh Fruit/   North East     Fairhaven    MA              02719        658       $14,443.10
 Middle Sch.         Vegetable
                     Box
Fairhill Partners   Dairy          Midwest        Cleveland    OH              44120      1,125       $28,125.00
                     Products Box
Fairhope UMC        Fluid Milk     South East     Fairhope     AL              36532      1,760        $7,022.40
Fairview Lake YMCA  Fresh Fruit/   Mid-Atlantic   Newton       NJ              07860      1,134       $21,489.30
 Camps               Vegetable
                     Box
Faison School       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208      1,074       $20,491.92
                     Vegetable
                     Box
Faith Assembly      Fresh Fruit/   Mid-Atlantic   Uniontown    PA              15401        480       $14,400.00
 Church              Vegetable
                     Box
Faith Assembly of   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19124        315       $10,206.00
 God/CFF                                           a
Faith Baptist       Fluid Milk     Mid-Atlantic   Fairless     PA              19030         83        $2,080.56
 Church                                            Hills
Faith Baptist       Fresh Fruit/   South East     Sylva        NC              28779        480       $13,200.00
 Church              Vegetable
                     Box
Faith Baptist       Fresh Fruit/   Mid-Atlantic   Fairless     PA              19030         72        $1,654.56
 Church              Vegetable                     Hills
                     Box
Faith Chapel        Fresh Fruit/   South East     Birmingham   AL              35224        300        $7,785.00
                     Vegetable
                     Box
Faith Christian     Fresh Fruit/   Midwest        Melvindale   MI              48122        300        $8,625.00
 Assembly            Vegetable
                     Box
Faith Community     Fresh Fruit/   South East     Trussville   AL              35173        280        $7,266.00
 Fellowship          Vegetable
                     Box
Faith Community     Fresh Fruit/   South East     Robersonvil  NC              27871        875       $31,246.25
 Outreach            Vegetable                     le
                     Box
Faith Cowboy        Fluid Milk     Mountain       Desloge      MO              63601        540        $1,215.00
 Church                             Plains
Faith Creek Church  Dairy          South West     Fort Worth   TX              76118        500       $22,880.00
                     Products Box
Faith Cumberland    Dairy          South East     Bartlett     TN              38133        480       $12,000.00
 Presby              Products Box
Faith Devolopment   Fresh Fruit/   South East     Kinston      NC              28504        300       $10,713.00
 Community Center    Vegetable
                     Box
Faith Family        Fresh Fruit/   Mountain       Frederickto  MO              63645      1,030       $28,325.00
 Worship             Vegetable      Plains         wn
                     Box
Faith Food Drop     Fresh Fruit/   Mid-Atlantic   Knoxville    MD              21758        250        $5,237.50
                     Vegetable
                     Box
Faith Food Fridays  Fluid Milk     Western        Vallejo      CA              94590      2,112       $21,098.88
 Food Bank
Faith Heritage      Fresh Fruit/   South East     Memphis      TN              38108        648       $15,876.00
 Church of God--C/   Vegetable
 O Mid South Food    Box
Faith Hope and      Combination    Midwest        Indianapoli  IN              46250        760      $114,000.00
 Love Community      Box                           s
Faith in Serving    Fluid Milk     South East     Monroe       GA              30655      4,236       $16,532.04
 Humanity
Faith in Serving    Fresh Fruit/   South East     Monroe       GA              30655      1,920       $36,364.80
 Humanity            Vegetable
                     Box
Faith Lutheran      Combination    Western        Everett      WA              98203      1,140       $39,900.00
 Church              Box
Faith Lutheran      Dairy          Western        Everett      WA              98203      1,000       $30,000.00
 Church              Products Box
Faith Lutheran      Fresh Fruit/   Western        Everett      WA              98203        840       $22,680.00
 Church              Vegetable
                     Box
Faith Lutheran for  Fresh Fruit/   Midwest        Troy         MI              48083        450        $6,727.50
 Grisson             Vegetable
                     Box
Faith Lutheran Mid/ Fresh Fruit/   Western        Las Vegas    Nv              89117        244        $6,588.00
 HI Sch. USDA        Vegetable
                     Box
Faith Memorial CME  Fresh Fruit/   South East     Wadley       GA              30477        700       $13,258.00
 Church              Vegetable
                     Box
Faith Moncks        Fluid Milk     South East     Moncks       SC              29461      3,200       $12,421.60
 Corner                                            Corner
Faith Movers        Fresh Fruit/   Midwest        University   IL              60484      1,512       $54,401.76
                     Vegetable                     Park
                     Box
Faith Neigh./UWLS   Fluid Milk     South East     Groveland    FL              34736      1,400        $5,490.00
Faith North         Fluid Milk     South East     North        SC              29420        700        $2,793.00
                                                   Charleston
Faith Restorations  Fluid Milk     Mid-Atlantic   Monaca       PA              15061        200        $2,200.00
Faith Restorations  Fresh Fruit/   Mid-Atlantic   Monaca       PA              15061      3,384       $77,670.72
                     Vegetable
                     Box
Faith Temple        Fresh Fruit/   South West     Silsbee      TX              77656      1,000       $23,300.00
 Cogic. Silsbee      Vegetable
                     Box
Faith Temple Fall   Fresh Fruit/   Midwest        Detroit      MI              48234        100        $2,875.00
 Gospel              Vegetable
                     Box
Faith Umc Agape     Precooked      South East     Pascagula    MS              39501        480       $19,708.80
 Ministry            Meat Box
Faith UMC Agape     Precooked      South East     Pascagoula   MS              39581        420       $17,245.20
 Ministry            Meat Box
Faith UMC; Agape    Fresh Fruit/   South East     Pascagoula   MS              39581        768       $12,979.20
 Ministry            Vegetable
                     Box
Faith UMC; Agape    Precooked      South East     Pascagoula   MS              39581        420       $17,245.20
 Ministry            Meat Box
Faith Walterboro    Fluid Milk     South East     Walterboro   SC              29488      1,799        $7,178.01
Faithful Baptist    Fresh Fruit/   South East     Memphis      TN              38106        432       $10,584.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Falconer Feedmore   Fresh Fruit/   North East     Jamestown    NY              14701      4,525      $103,396.25
                     Vegetable
                     Box
Falfurrias          Fresh Fruit/   South West     Falfurrias   TX              78335        500       $12,500.00
 R.E.A.L.            Vegetable
                     Box
Fall Mountain Food  Combination    North East     Alstead      NH              03602        237        $6,399.00
 Shelf               Box
Fall River COA      Combination    North East     Fall River   MA              02723         30          $984.00
                     Box
Fall River COA      Precooked      North East     Fall River   MA              02723         15          $814.50
                     Meat Box
Fall River Durfee   Fresh Fruit/   North East     Fall River   MA              02720      2,366       $51,933.70
                     Vegetable
                     Box
Fallbrook Food      Fresh Fruit/   Western        Fallbrook    CA              92028        480       $12,000.00
 Pantry              Vegetable
                     Box
Fallbrook UHSD      Fresh Fruit/   Western        Fallbrook    CA              92028      2,800       $70,000.00
                     Vegetable
                     Box
Falls Church High   Dairy          Mid-Atlantic   Falls        VA              22042      2,000       $37,720.00
 School              Products Box                  Church
Falls Church High   Fluid Milk     Mid-Atlantic   Falls        VA              22042        960       $17,894.40
 School                                            Church
Fallstaff           Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        750       $15,000.00
 Elementary School   Vegetable
                     Box
Falmouth Senior     Combination    North East     Falmouth     MA              02540         50        $1,640.00
 Center              Box
Falmouth Senior     Precooked      North East     Falmouth     MA              02540         80        $4,344.00
 Center              Meat Box
Fam Church          Fluid Milk     South East     Mulberry     FL              33860      1,640        $6,415.60
Families Anchored   Combination    Midwest        Gary         IN              46402      2,880      $432,000.00
 in Total Harmony    Box
Families Anchored   Dairy          Midwest        Gary         IN              46402        680       $25,074.00
 in Total Harmony    Products Box
Families Helping    Combination    Midwest        Highland     IL              60035        285        $6,688.95
 Families            Box                           Park
Families Helping    Fresh Fruit/   South East     Stockbridge  GA              30281      3,500       $66,290.00
 Families            Vegetable
                     Box
Family &            Fresh Fruit/   Mountain       Silverthorn  Co              80498      1,670       $43,253.00
 Intercultural       Vegetable      Plains         e
 Resource Center     Box
Family Bridge       Fresh Fruit/   South East     Douglasvill  GA              30134        595       $11,900.00
                     Vegetable                     e
                     Box
Family Christian    Combination    Midwest        Lynwood      IL              60411        200       $13,436.00
 Center              Box
Family Christian    Fresh Fruit/   Midwest        Munster      IN              46321      2,000       $55,000.00
 Center              Vegetable
                     Box
Family Community    Combination    Western        Nampa        ID              83686        450       $19,800.00
 Resource Cntr       Box
Family Community    Fresh Fruit/   Western        Nampa        ID              83686        350        $9,100.00
 Resource Cntr       Vegetable
                     Box
Family Counseling   Fresh Fruit/   Mountain       Kennett      MO              63857      1,218       $33,495.00
 Center              Vegetable      Plains
                     Box
Family Counseling   Fresh Fruit/   Mountain       Piedmont     MO              63957        250        $6,875.00
 Center              Vegetable      Plains
                     Box
Family Counseling   Fresh Fruit/   Mountain       Poplar       MO              63901        860       $23,650.00
 Center              Vegetable      Plains         Bluff
                     Box
Family Counseling   Fresh Fruit/   Mountain       Poplar       MO              63902        148        $4,070.00
 Center              Vegetable      Plains         Bluff
                     Box
Family Development  Fluid Milk     Midwest        Indianapoli  IN              46218        896        $3,584.00
 Srv                                               s
Family Enrichment   Fresh Fruit/   South East     Gulfport     MS              39532        288        $4,867.20
 Center              Vegetable
                     Box
Family Food Relief  Fresh Fruit/   Mid-Atlantic   Lakewood     NJ              08701      1,200       $23,964.00
 of NJ               Vegetable
                     Box
Family Home Health  Fresh Fruit/   South East     Memphis      TN              38105        378        $9,261.00
 Agency--C/O Mid     Vegetable
 South Food Ban      Box
Family Hope Center  Fresh Fruit/   South West     Dallas       TX              75209        150        $2,865.00
                     Vegetable
                     Box
Family Justice      Combination    Western        Nampa        ID              83651        206        $9,064.00
 Center Foundati     Box
Family Justice      Fresh Fruit/   Western        Nampa        ID              83651        320        $8,320.00
 Center Foundati     Vegetable
                     Box
Family Life Center  Fresh Fruit/   Mid-Atlantic   Aliquippa    PA              15001      1,800       $54,000.00
                     Vegetable
                     Box
Family Life         Fluid Milk     South East     Mableton     GA              30126        780        $3,073.00
 Restora
Family of Faith     Fresh Fruit/   South West     Waco         TX              76711     10,160      $172,618.40
 Worship Center      Vegetable
                     Box
Family of Hope      Combination    South West     Fulshear     TX              77441        800       $27,976.00
                     Box
Family of Hope      Dairy          South West     Fulshear     TX              77441        400       $18,304.00
                     Products Box
Family of Hope      Fresh Fruit/   South West     Fulshear     TX              77441      1,200       $26,280.00
                     Vegetable
                     Box
Family Outreach     Fresh Fruit/   Midwest        Grand        MI              49507         63        $2,266.74
 Center              Vegetable                     Rapids
                     Box
Family Road of      Fluid Milk     South West     Baton Rouge  LA              70806        208          $607.36
 Grea
Family Service      Fluid Milk     South East     Paducah      KY              42001      1,305        $2,936.25
Family Service/     Combination    Mountain       Billings     MT              59103        476       $22,848.00
 Billings            Box            Plains
Family Service/     Fresh Fruit/   Mountain       Billings     MT              59103      1,652       $49,560.00
 Billings            Vegetable      Plains
                     Box
Family Services of  Fresh Fruit/   South East     Panama City  FL              32401        500       $14,500.00
 Bay County          Vegetable
                     Box
Family Treehouse    Dairy          Midwest        Marissa      IL              62257        240        $6,000.00
                     Products Box
Family Treehouse    Fluid Milk     Midwest        Marissa      IL              62257        486        $1,093.50
Family Victory      Fresh Fruit/   Midwest        Southfield   MI              48075        500        $7,475.00
 Fellowship          Vegetable
                     Box
Fannie Lou Hamer    Fresh Fruit/   South East     Eupora       MS              39744        120        $2,394.00
 Center              Vegetable
                     Box
Fare Start          Combination    Western        Seattle      WA              98101        606       $21,210.00
                     Box
Fare Start          Dairy          Western        Seattle      WA              98101        275        $8,250.00
                     Products Box
Fare Start          Fresh Fruit/   Western        Seattle      WA              98101      2,217       $48,266.16
                     Vegetable
                     Box
Farinaceos Del      Combination    Mid-Atlantic   Yabucoa      PR              00767      2,016      $174,888.00
 Este                Box
Farm Bureau         Fluid Milk     Midwest        Franklin     IN              46131        864        $3,456.00
Farm Share Inc.     Combination    South East     Jacksonvill  FL              32218     42,336    $3,219,652.80
                     Box                           e
Farm Share Inc.     Combination    South East     Homestead    FL              33033     45,696    $3,475,180.80
                     Box
Farm Share Inc.     Fluid Milk     South East     Homestead    FL              33033     54,912      $219,098.88
Farm Share Inc.     Fluid Milk     South East     Jacksonvill  FL              32218     59,136      $235,952.64
                                                   e
Farm Share Inc.     Fresh Fruit/   South East     Jacksonvill  FL              32218      5,684      $145,415.20
                     Vegetable                     e
                     Box
Farm Share Inc.     Fresh Fruit/   South East     Homestead    FL              33033     17,858      $387,516.40
                     Vegetable
                     Box
Farm Share Inc.     Combination    South East     Jacksonvill  FL              32218     22,102      $767,900.40
 Jacksonville        Box                           e
Farm Share Inc.     Fresh Fruit/   South East     Jacksonvill  FL              32218     44,304    $1,068,396.00
 Jacksonville        Vegetable                     e
                     Box
Farm Share Inc.     Precooked      South East     Jacksonvill  FL              32218      1,292       $52,119.28
 Jacksonville        Meat Box                      e
Farm Share Inc.     Fresh Fruit/   South East     Homestead    FL              33033     47,448    $1,162,476.00
 Miami Dade          Vegetable
                     Box
Farm Share Inc.     Fresh Fruit/   South East     Miami        FL              33033      1,512       $37,044.00
 Miami Dade          Vegetable
                     Box
Farm Share Inc.     Fresh Fruit/   South East     Pompano      FL              33069      1,512       $37,044.00
 Miami Dade          Vegetable                     Beach
                     Box
Farm Share Inc.     Precooked      South East     Homestead    FL              33033      1,274       $52,157.56
 Miami Dade          Meat Box
Farm Share North    Combination    South East     Quincy       FL              32351      8,064      $613,267.20
 Florida             Box
Farm Share North    Fresh Fruit/   South East     Quincy       FL              32351     36,716      $918,853.60
 Florida             Vegetable
                     Box
Farm Share North    Precooked      South East     Quincy       FL              32351      1,274       $51,902.76
 Florida             Meat Box
Farm Share/Food     Fresh Fruit/   South East     Homestead    FL              33031        800       $20,000.00
 Bank                Vegetable
                     Box
Farm Share/Food     Fresh Fruit/   South East     Homestead    FL              33033      4,800      $120,000.00
 Bank                Vegetable
                     Box
Farm Share--        Combination    South East     Homestead    FL              33033     13,831      $469,929.60
 Homestead           Box
Farm Share--        Fresh Fruit/   South East     Homestead    FL              33033     12,468      $203,382.48
 Homestead           Vegetable
                     Box
Farm Share--        Fresh Fruit/   South East     Homestead    FL              33033      7,448      $123,189.92
 Jacksonville        Vegetable
                     Box
Farm Share--Quincy  Fresh Fruit/   South East     Homestead    FL              33033     11,172      $184,784.88
                     Vegetable
                     Box
Farm Worker Vil     Combination    Western        Bellingham   WA              98226        120        $4,200.00
 Santa Fe            Box
Farm Worker Vil     Dairy          Western        Bellingham   WA              98226         50        $1,500.00
 Santa Fe            Products Box
Farm Worker Vil     Fresh Fruit/   Western        Canby        OR              97013         60        $1,620.00
 Santa Fe            Vegetable
                     Box
Farmington Central  Dairy          Midwest        Farmington   MI              48334      1,500       $43,500.00
 Kitchen             Products Box
Farmington Hills    Fresh Fruit/   Midwest        Farmington   MI              48336        252        $9,066.96
                     Vegetable
                     Box
Farmington Hills    Fresh Fruit/   Midwest        Farmington   MI              48336        150        $2,242.50
 Costick Center      Vegetable
                     Box
Farmington Hills    Fresh Fruit/   Midwest        Farmington   MI              48336        100        $1,495.00
 Costick Center      Vegetable                     Hills
                     Box
Farmington          Fluid Milk     Mountain       Farmington   MO              63640        648        $1,458.00
 Minerial Alliance                  Plains
Farmington          Fresh Fruit/   Mountain       Farmington   MO              63640        228        $6,270.00
 Minerial Alliance   Vegetable      Plains
                     Box
Farmshare           Combination    South East     Daytona      FL              32218      2,240      $170,352.00
                     Box                           Beach
Farmworker Center   Combination    Western        Mt. Vernon   WA              98273        700       $24,500.00
 CCS                 Box
Farmworker Center   Dairy          Western        Mt. Vernon   WA              98273        600       $18,000.00
 CCS                 Products Box
Farmworker Center   Fresh Fruit/   Western        Mt. Vernon   WA              98273        600       $16,200.00
 CCS                 Vegetable
                     Box
Farrington Alumni   Precooked      Western        Honolulu     HI              96812        666       $26,640.00
 & Comm.             Meat Box
 Foundation
Father Fred         Dairy          Midwest        Traverse     MI              49686        240        $6,000.00
 Foundation          Products Box                  City
Father Fred         Fresh Fruit/   Midwest        Traverse     MI              48187        640       $13,450.00
 Foundation          Vegetable                     City
                     Box
Father's Forever    Fresh Fruit/   South East     Raleigh      NC              27604      1,470       $16,905.00
                     Vegetable
                     Box
Fayette Cares Inc.  Dairy          South East     Somerville   TN              38060        980       $24,500.00
                     Products Box
Fayette County      Combination    Midwest        Connersvill  IN              47331        550       $82,500.00
                     Box                           e
Fayette County 4H   Fluid Milk     Mid-Atlantic   Uniontown    PA              15401        300        $3,645.00
Fayette County      Fluid Milk     Mid-Atlantic   Republic     PA              15475      2,170       $25,710.75
 Food Bank
Fayette County      Fluid Milk     Mid-Atlantic   Uniontown    PA              15401        500        $5,500.00
 Food Bank
Fayette County      Fresh Fruit/   South East     Fayettevill  GA              30214        930       $18,307.20
 High School         Vegetable                     e
                     Box
FBC Collinsville    Combination    South West     Collinsvill  OK              74021        672       $23,499.84
                     Box                           e
FBC Collinsville    Fluid Milk     South West     Collinsvill  OK              74021        315        $7,541.10
                                                   e
FBC Collinsville    Fresh Fruit/   South West     Collinsvill  OK              74021      2,156       $47,147.80
                     Vegetable                     e
                     Box
FBC Hudson          Fresh Fruit/   South East     Hudson       NC              28638      3,048       $83,820.00
                     Vegetable
                     Box
FBC Owasso Calvary  Combination    South West     Tulsa        OK              74115      3,744      $130,927.68
 Campus              Box
FBC Owasso Calvary  Fluid Milk     South West     Tulsa        OK              74115      1,009       $24,155.46
 Campus
FBC Owasso Calvary  Fresh Fruit/   South West     Tulsa        OK              74115      1,897       $32,797.10
 Campus              Vegetable
                     Box
FBC Robbinsville    Fresh Fruit/   South East     Robbinsvill  NC              28771        240        $6,600.00
                     Vegetable                     e
                     Box
Feast Food Bank     Fluid Milk     South East     Palm Harbor  FL              34683        850        $3,289.50
Feast of Justice    Fluid Milk     Mid-Atlantic   Philadelphi  PA              19149        140        $4,536.00
                                                   a
Fed By Faith        Fresh Fruit/   Midwest        Brownstown   MI              48134         50        $1,437.50
                     Vegetable
                     Box
Federacion De       Fluid Milk     Western        Los Angeles  CA              90063      4,224       $42,197.76
 Clubes
 Zacatecanos Sur
 De California
Federacion De       Fluid Milk     Western        Oxnard       CA              93033      2,112       $21,098.88
 Clubes
 Zacatecanos Sur
 De California
Federal Way Head    Combination    Western        Federal Way  WA              98003        168        $5,880.00
 Start               Box
Federal Way Head    Dairy          Western        Federal Way  WA              98003        200        $6,000.00
 Start               Products Box
Federal Way Head    Fresh Fruit/   Western        Federal Way  WA              98003        240        $6,480.00
 Start               Vegetable
                     Box
Federal Way High    Combination    Western        Federal Way  WA              98003        560       $19,600.00
 School              Box
Federal Way High    Dairy          Western        Federal Way  WA              98003        450       $13,500.00
 School              Products Box
Federal Way High    Fresh Fruit/   Western        Federal Way  WA              98003        540       $14,580.00
 School              Vegetable
                     Box
Federal Way Senior  Combination    Western        Auburn       WA              98001      1,010       $35,350.00
 Ctr.                Box
Federal Way Senior  Dairy          Western        Auburn       WA              98001        800       $24,000.00
 Ctr.                Products Box
Federal Way Senior  Fresh Fruit/   Western        Auburn       WA              98001        660       $17,820.00
 Ctr.                Vegetable
                     Box
Fee Fee Baptist/    Fresh Fruit/   Mountain       Bridgeton    MO              63044        360       $11,520.00
 STL Food Bank       Vegetable      Plains
                     Box
Feed America Bntn.  Dairy          Midwest        Benton       MI              49022      3,552       $88,800.00
 Hrbr.               Products Box                  Harbor
Feed By Faith       Fluid Milk     South East     Meridian     MS              39307        480        $1,855.20
Feed Center         Fluid Milk     South East     Fort Valley  GA              31030      8,364       $32,522.76
Feed Love LA        Combination    Western        Beverly      CA              90212        150        $4,087.50
                     Box                           Hills
Feed More           Dairy          Mid-Atlantic   Richmond     VA              23220      6,240      $212,534.40
                     Products Box
Feed More           Fresh Fruit/   Mid-Atlantic   Richmond     VA              23220      5,040      $118,440.00
                     Vegetable
                     Box
Feed More South     Dairy          Mid-Atlantic   South Hill   VA              23970      2,080       $70,844.80
 Hill                Products Box
Feed More South     Fresh Fruit/   Mid-Atlantic   South Hill   VA              23970      1,512       $35,532.00
 Hill                Vegetable
                     Box
Feed My People      Dairy          Midwest        Centralia    IL              62801         50        $1,487.50
                     Products Box
Feed My People      Fresh Fruit/   Midwest        Centralia    IL              62801         50        $1,375.00
                     Vegetable
                     Box
Feed My People      Fresh Fruit/   Mountain       High Ridge   MO              63049        520       $14,300.00
                     Vegetable      Plains
                     Box
Feed My People      Dairy          Midwest        Centralia    IL              62801         75        $2,231.25
 Centralia           Products Box
Feed My People      Fresh Fruit/   Midwest        Centralia    IL              62801         75        $2,062.50
 Centralia           Vegetable
                     Box
Feed My People/STL  Fresh Fruit/   Mountain       St. Louis    MO              63125        180        $5,760.00
 Food Bank           Vegetable      Plains
                     Box
Feed My Sheep       Dairy          Midwest        Mt. Vernon   IL              62864        600       $17,850.00
                     Products Box
Feed My Sheep       Fluid Milk     Midwest        Washington   IN              47501        630        $1,417.50
Feed My Sheep       Fresh Fruit/   Midwest        Bonnie       IL              62816        200        $5,500.00
                     Vegetable
                     Box
Feed My Sheep       Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        600       $16,500.00
                     Vegetable
                     Box
Feed My Sheep Food  Fresh Fruit/   South East     Wauchula     FL              33873        184        $3,864.00
 Pantry              Vegetable
                     Box
Feed My Sheep       Fluid Milk     South East     Suwanee      GA              30024        720        $2,800.80
 JN211
Feed SF Fountain    Fresh Fruit/   South East     Miami        FL              33147      3,024       $74,088.00
 of Life             Vegetable
                     Box
Feed SF Miami       Fresh Fruit/   South East     Miami        FL              33142      4,536      $111,132.00
 Bethany             Vegetable
                     Box
Feed SF Ministerio  Fresh Fruit/   South East     Miami        FL              33142      7,560      $185,220.00
 Ayudando            Vegetable
                     Box
Feed SF United      Fresh Fruit/   South East     West Palm    FL              33401      7,518      $184,191.00
 Haitian             Vegetable                     Beach
                     Box
Feed SF Unity       Fresh Fruit/   South East     North Miami  FL              33168      6,048      $148,176.00
 Baptist Church      Vegetable
                     Box
Feed South Florida  Fresh Fruit/   South East     Jupiter      FL              33458      5,796      $152,082.00
 City of Jupiter     Vegetable
                     Box
Feed the Chidlren   Fluid Milk     South East     Greenacres   FL              33463      7,680       $29,107.20
Feed the Children   Dairy          South West     Alma         AR              72921      2,496      $114,216.96
                     Products Box
Feed the Children   Fluid Milk     South East     Miami        FL              33169     15,360       $58,214.40
                                                   Gardens
Feed the Shores     Fresh Fruit/   Midwest        Rochester    MI              48307        195        $5,606.25
                     Vegetable
                     Box
Feedind South       Fresh Fruit/   Mountain       Pierre       SD              57501      1,000       $19,970.00
 Dakota              Vegetable      Plains
                     Box
Feeding Alabama     Fresh Fruit/   South East     Oxford       AL              36203      6,028      $156,426.60
                     Vegetable
                     Box
Feeding America     Combination    South East     Athens       GA              30607      2,240      $170,352.00
                     Box
Feeding America     Combination    Western        Riverside    CA              92504      1,920       $21,849.60
                     Box
Feeding America--   Fresh Fruit/   Western        Riverside    CA              92504     29,240      $691,372.96
 Riverside           Vegetable
                     Box
Feeding America IE  Fresh Fruit/   Western        Riverside    CA              92501        400       $11,600.00
                     Vegetable
                     Box
Feeding America KY  Dairy          South East     Elizabethto  KY              42701      3,864      $134,988.00
 Heartland           Products Box                  wn
Feeding America KY  Fluid Milk     South East     Elizabethto  KY              42701     15,780       $35,505.00
 Heartland                                         wn
Feeding America     Fresh Fruit/   Midwest        Little       WI              54913        375        $6,187.50
 Little Chute        Vegetable                     Chute
                     Box
Feeding America     Combination    Midwest        Milwaukee    WI              53205      3,136      $134,331.54
 Milwaukee           Box
Feeding America     Fresh Fruit/   Midwest        Milwaukee    WI              53205     14,460      $268,514.70
 Milwaukee           Vegetable
                     Box
Feeding America     Fresh Fruit/   Western        San Diego    CA              92121     10,640      $266,000.00
 S.D                 Vegetable
                     Box
Feeding America     Fluid Milk     South East     Tampa        FL              33605     42,240      $160,089.60
 Tampa Bay
Feeding America     Fresh Fruit/   South East     Tampa        FL              33619      9,600      $110,400.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33605     69,028    $1,418,986.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33606      1,000       $25,000.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33607      5,100      $127,500.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33608      1,000       $25,000.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33609      5,100      $127,500.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33610      1,000       $25,000.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33611      5,100      $127,500.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33612      1,000       $25,000.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Fresh Fruit/   South East     Tampa        FL              33613      6,100      $152,500.00
 Tampa Bay           Vegetable
                     Box
Feeding America     Precooked      South East     Tampa        FL              33605        750       $32,332.50
 Tampa Bay           Meat Box
Feeding America     Dairy          Midwest        Comstock     MI              49321     13,728      $343,200.00
 West Michigan       Products Box                  Park
Feeding America     Fresh Fruit/   Midwest        Benton       MI              49022      4,500      $135,000.00
 West Michigan       Vegetable                     Harbor
                     Box
Feeding America     Fresh Fruit/   Midwest        Comstock     MI              49321     19,500      $585,000.00
 West Michigan       Vegetable                     Park
                     Box
Feeding and         Fresh Fruit/   South East     Hattiesburg  MS              39401        850       $51,000.00
 Uniting             Vegetable
                     Box
Feeding By Faith    Fresh Fruit/   South East     Enoree       SC              29335        600       $18,000.00
                     Vegetable
                     Box
Feeding GA          Fresh Fruit/   South East     Fairburn     GA              30213        300        $8,400.00
 Families            Vegetable
                     Box
Feeding GA          Fresh Fruit/   South East     Tyrone       GA              30290        600       $17,400.00
 Families            Vegetable
                     Box
Feeding GA          Fresh Fruit/   South East     College      GA              30337        350       $10,500.00
 Families            Vegetable                     Park
                     Box
Feeding GA          Fresh Fruit/   South East     Atlanta      GA              30349        350       $10,500.00
 Families            Vegetable
                     Box
Feeding Hamburg     Fresh Fruit/   North East     Hamburg      NY              14075        100        $2,285.00
                     Vegetable
                     Box
Feeding Hawaii      Fresh Fruit/   Western        Honolulu     HI              96813      2,575       $92,700.00
 Together Org        Vegetable
                     Box
Feeding Hawaii      Fresh Fruit/   Western        Honolulu     HI              96817        125        $4,500.00
 Together Org        Vegetable
                     Box
Feeding Hawaii      Precooked      Western        Honolulu     HI              96813        664       $26,560.00
 Together Org        Meat Box
Feeding Medina      Dairy          Midwest        Medina       OH              44256        770       $18,557.00
 County              Products Box
Feeding Medina      Fluid Milk     Midwest        Medina       OH              44256        225          $747.00
 County
Feeding Medina      Fresh Fruit/   Midwest        Medina       OH              44256        870       $23,055.00
 County              Vegetable
                     Box
Feeding Medina      Precooked      Midwest        Medina       OH              44256        150        $6,681.30
 County              Meat Box
Feeding NE Florida  Combination    South East     Jacksonvill  FL              32254     29,568    $2,248,646.40
                     Box                           e
Feeding NE Florida  Fluid Milk     South East     Jacksonvill  FL              32254     16,512       $63,425.28
                                                   e
Feeding North       Fresh Fruit/   Midwest        Moorhead     MN              56560      2,800       $55,916.00
 Dakota              Vegetable
                     Box
Feeding North       Fresh Fruit/   Mountain       Valley City  ND              58072      1,400       $27,958.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Fargo        ND              58102      3,584       $71,572.48
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Grand Forks  ND              58203      2,660       $53,120.20
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Devils       ND              58301      1,400       $27,958.00
 Dakota              Vegetable      Plains         Lakes
                     Box
Feeding North       Fresh Fruit/   Mountain       Belcourt     ND              58316      8,400      $167,748.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Michael      ND              58370      1,456       $29,076.32
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       St. Michael  ND              58370      5,600      $111,832.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Jamestown    ND              58401      1,400       $27,958.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Bismarck     ND              58504      3,500       $69,895.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Fort Yates   ND              58538      7,056      $140,908.32
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Mandan       ND              58554      2,100       $41,937.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Dickinson    ND              58601      1,400       $27,958.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Minot        ND              58707      2,800       $55,916.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       New Town     ND              58763      7,112      $142,026.64
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   Mountain       Williston    ND              58801      1,400       $27,958.00
 Dakota              Vegetable      Plains
                     Box
Feeding North       Fresh Fruit/   South West     Plano        TX              75075     46,550      $682,758.16
 Texas               Vegetable
                     Box
Feeding Northeast   Fresh Fruit/   South East     Jacksonvill  FL              32254     10,584      $259,308.00
 FL Jax              Vegetable                     e
                     Box
Feeding Northeast   Fresh Fruit/   South East     Jacksonvill  FL              32254     36,000      $390,600.00
 Florida--Edgewood   Vegetable                     e
                     Box
Feeding Northeast   Fresh Fruit/   South East     Jacksonvill  FL              32254      4,800       $52,080.00
 Florida--Industri   Vegetable                     e
 al                  Box
Feeding Palm Beach  Fresh Fruit/   South East     Boynton      FL              33424      1,400       $27,958.00
 County              Vegetable                     Beach
                     Box
Feeding Sf Village  Fresh Fruit/   South East     Royal Palm   FL              33411      8,568      $230,076.00
 of Royal Palm       Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   Mountain       Beresford    SD              57004      1,960       $39,141.20
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Brookings    SD              57006        775       $15,476.75
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Madison      SD              57042        150        $2,995.50
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Tea          SD              57064        100        $1,997.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Vermillion   SD              57069        268        $5,351.96
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Yankton      SD              57078        954       $19,051.38
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Sioux Falls  SD              57105      5,905      $117,922.85
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Sioux Falls  SD              57107     12,827      $234,787.69
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Watertown    SD              57201      1,180       $23,564.60
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Milbank      SD              57252        350        $6,989.50
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Sisseton     SD              57262      7,784      $155,446.48
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Mitchell     SD              57301        450        $8,986.50
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Huron        SD              57350      1,000       $19,970.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Lake Andes   SD              57356        600       $11,982.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Marty        SD              57361        600       $11,982.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Wagner       SD              57380        850       $16,974.50
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Aberdeen     SD              57401      1,600       $31,952.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Redfield     SD              57469      1,000       $19,970.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Pierre       SD              57501      4,966       $99,171.02
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Fort Pierre  SD              57532        504       $10,064.88
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Kadoka       SD              57543        694       $13,859.18
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Mission      SD              57555      1,008       $20,129.76
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Rosebud      SD              57570      1,008       $20,129.76
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Eagle Butte  SD              57625      1,000       $19,970.00
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Rapid City   SD              57701      1,064       $21,248.08
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Rapid City   SD              57703      5,688      $113,589.36
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Pine Ridge   SD              57770      4,094       $81,757.18
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   Mountain       Wall         SD              57790        112        $2,236.64
 Dakota              Vegetable      Plains
                     Box
Feeding South       Fresh Fruit/   South West     Houston      TX              77034      1,000       $19,970.00
 Dakota              Vegetable
                     Box
Feeding South       Fresh Fruit/   Mountain       Fort         SD              57339        504       $10,064.88
 Dakota--St.         Vegetable      Plains         Thompson
 Joseph's Catholic   Box
 Churc.
Feeding South       Fresh Fruit/   Mountain       Parker       SD              57053        150        $2,995.50
 Dakota Northern     Vegetable      Plains
 Turner County       Box
 Food P.
Feeding South       Combination    South East     Hialeah      FL              33018      1,680      $127,764.00
 Florida             Box
Feeding South       Combination    South East     Hialeah      FL              33018      1,120       $85,176.00
 Florida             Box                           Gardens
Feeding South       Combination    South East     Pembroke     FL              33023     59,998    $3,963,446.16
 Florida             Box                           Park
Feeding South       Combination    South East     Miami        FL              33142      3,360      $255,528.00
 Florida             Box
Feeding South       Combination    South East     Miami        FL              33147      2,800      $212,940.00
 Florida             Box
Feeding South       Combination    South East     Cutler Bay   FL              33157      7,840      $596,232.00
 Florida             Box
Feeding South       Combination    South East     Miami        FL              33162      2,240      $170,352.00
 Florida             Box
Feeding South       Combination    South East     Miami        FL              33167      2,240      $170,352.00
 Florida             Box
Feeding South       Combination    South East     Fort         FL              33312      2,240      $170,352.00
 Florida             Box                           Lauderdale
Feeding South       Combination    South East     Fort         FL              33351      1,120       $85,176.00
 Florida             Box                           Lauderdale
Feeding South       Combination    South East     Lauderhill   FL              33351        560       $42,588.00
 Florida             Box
Feeding South       Combination    South East     Sunrise      FL              33351        560       $42,588.00
 Florida             Box
Feeding South       Combination    South East     Boynton      FL              33426     12,096      $919,900.80
 Florida             Box                           Beach
Feeding South       Combination    South East     Lake Worth   FL              33460      6,720      $511,056.00
 Florida             Box
Feeding South       Fluid Milk     South East     Pembroke     FL              33023    241,984      $944,274.56
 Florida                                           Park
Feeding South       Fresh Fruit/   South East     Miramar      FL              33027     16,380      $471,870.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Hialeah      FL              33013     15,280      $431,444.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Pembroke     FL              33023    397,196   $11,680,024.76
 Florida             Vegetable                     Park
                     Box
Feeding South       Fresh Fruit/   South East     Boynton      FL              33426     20,060      $574,264.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Hollywood    FL              33020      9,180      $298,350.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Hollywood    FL              33021      5,040      $163,800.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Hollywood    FL              33023      7,920      $257,400.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     West Park    FL              33023      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Cooper City  FL              33026      3,780      $122,850.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Pembroke     FL              33026     10,192      $266,685.44
 Florida             Vegetable                     Pines
                     Box
Feeding South       Fresh Fruit/   South East     Homestead    FL              33032      7,560      $245,700.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Key West     FL              33040      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Opa Locka    FL              33054      5,796      $152,082.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Margate      FL              33063      5,040      $163,800.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Pompano      FL              33064      5,040      $163,800.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     North        FL              33068      2,520       $81,900.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Pompano      FL              33069      3,780      $122,850.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33126      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami Beach  FL              33139      3,780      $122,850.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami Beach  FL              33140      7,560      $245,700.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33142     10,080      $327,600.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33150      4,140      $134,550.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33155      8,820      $286,650.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Cutler Bay   FL              33157      3,780      $122,850.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33157      5,040      $163,800.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     North Miami  FL              33162     15,120      $491,400.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33165      5,040      $163,800.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33167      6,300      $204,750.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33168      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     North Miami  FL              33168      2,520       $81,900.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33177      6,300      $204,750.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Miami        FL              33186      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33309      8,920      $209,708.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Tamarac      FL              33309      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33311     11,340      $368,550.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Lauderhill   FL              33311      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33312      6,300      $204,750.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33313      2,520       $81,900.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Lauderhill   FL              33313      2,520       $81,900.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Davie        FL              33314      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33319      2,520       $81,900.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Tamarac      FL              33319      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33324      2,552       $50,963.44
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Plantation   FL              33324      1,200       $23,964.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Fort         FL              33351      6,300      $204,750.00
 Florida             Vegetable                     Lauderdale
                     Box
Feeding South       Fresh Fruit/   South East     Sunrise      FL              33351     10,080      $327,600.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Tamarac      FL              33351      2,520       $81,900.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Palm Beach   FL              33401      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     West Palm    FL              33401     11,340      $368,550.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Riveria      FL              33404     13,860      $450,450.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     West Palm    FL              33409      1,260       $40,950.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Wellington   FL              33414      6,300      $204,750.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     West Palm    FL              33415      7,290      $236,925.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Palm Beach   FL              33418      6,300      $204,750.00
 Florida             Vegetable                     Gardens
                     Box
Feeding South       Fresh Fruit/   South East     Belle Glade  FL              33430     11,340      $368,550.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Boca Raton   FL              33431      3,150      $102,375.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Boca Raton   FL              33432        630       $20,475.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Delray       FL              33444      6,300      $204,750.00
 Florida             Vegetable                     Beach
                     Box
Feeding South       Fresh Fruit/   South East     Lake Worth   FL              33460      7,560      $245,700.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Greenacres   FL              33463      8,820      $286,650.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Loxahatchee  FL              33470      6,300      $204,750.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Tampa        FL              33612      1,260       $40,950.00
 Florida             Vegetable
                     Box
Feeding South       Fresh Fruit/   South East     Deerfield    FL              33422      4,980      $146,814.00
 Florida--Deerfiel   Vegetable                     Beach
 d Beach             Box
Feeding South       Precooked      South East     Pembroke     FL              33023      3,865      $141,676.37
 Florida--Pembroke   Meat Box                      Park
 PA
Feeding Southwest   Fresh Fruit/   Mid-Atlantic   Salem        VA              24153     11,172      $176,517.60
 Virginia            Vegetable
                     Box
Feeding Southwest   Precooked      Mid-Atlantic   Salem        VA              24153      1,274       $41,175.68
 Virginia            Meat Box
Feeding SWVA        Fluid Milk     Mid-Atlantic   Abingdon     VA              24211      1,728        $6,721.92
Feeding Tampa Bay   Fresh Fruit/   South East     Homosassa    FL              34446      1,200       $30,000.00
                     Vegetable
                     Box
Feeding Tampa Bay   Precooked      South East     Ybor City    FL              33605      2,158       $85,339.42
                     Meat Box
Feeding Tampa Rcs.  Fresh Fruit/   South East     Clearwater   FL              33756      1,442       $35,329.00
 Food Bank           Vegetable
                     Box
Feeding Tampa St.   Fresh Fruit/   South East     Saint        FL              33701      1,296       $31,752.00
 Pete Division       Vegetable                     Petersburg
                     Box
Feeding Tampa St.   Fresh Fruit/   South East     St.          FL              33701      9,072      $222,264.00
 Pete Division       Vegetable                     Petersburg
                     Box
Feeding the Flocks  Fresh Fruit/   Mid-Atlantic   Cheswick     PA              15024      1,680       $50,400.00
                     Vegetable
                     Box
Feeding the Gulf    Combination    South East     Theodore     AL              36582      8,064      $613,267.20
 Coast               Box
Feeding the Gulf    Combination    South East     Milton       FL              32583      4,032      $306,633.60
 Coast               Box
Feeding the Gulf    Fresh Fruit/   South East     Milton       FL              32404      1,056       $27,222.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   Midwest        Shelbyville  IL              62565        400       $11,600.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        500       $14,500.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Opp          AL              36467        150        $4,350.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Bayou LA     AL              36509        200        $5,800.00
 Coast               Vegetable                     Batre
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36571        200        $5,800.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Saraland     AL              36571        450       $13,050.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36575         50        $1,450.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Semmes       AL              36575         50        $1,450.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Chipley      AL              36582        300        $8,700.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36582      1,000       $29,000.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36604      1,300       $37,700.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36609        800       $23,200.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36610        200        $5,800.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Prichard     AL              36610        800       $23,200.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36617      1,200       $34,800.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36619        100        $2,900.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36695        750       $21,750.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Springfield  FL              32401        350       $10,150.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Panama City  FL              32404        400       $11,600.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Fountain     FL              32438        200        $5,800.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Pensacola    FL              32503        100        $2,900.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Pensacola    FL              32514        100        $2,900.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Pensacola    FL              32526        500       $14,500.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Crestview    FL              32539        350       $10,150.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Niceville    FL              32578         50        $1,450.00
 Coast               Vegetable
                     Box
Feeding the Gulf    Precooked      South East     Theodore     AL              36582      1,274       $51,902.76
 Coast               Meat Box
Feeding the Gulf    Precooked      South East     Gulfport     MS              39501        588       $24,143.28
 Coast               Meat Box
Feeding the Gulf    Precooked      South East     Milton       FL              32583      1,274       $51,902.76
 Coast               Meat Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36608      1,500       $43,500.00
 Coast A Servant's   Vegetable
 Love                Box
Feeding the Gulf    Fresh Fruit/   South East     Daphne       AL              36526        600       $17,400.00
 Coast African       Vegetable
 Universal Church    Box
Feeding the Gulf    Fresh Fruit/   South East     Saraland     AL              36571        750       $21,750.00
 Coast Bayou Sara    Vegetable
 Baptist             Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36604      1,950       $56,550.00
 Coast Central       Vegetable
 Presbyterian        Box
 Church
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36609      2,200       $63,800.00
 Coast City Church   Vegetable
 of Mobile           Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        100        $2,900.00
 Coast Community     Vegetable
 Enabled             Box
Feeding the Gulf    Fresh Fruit/   South East     Andalusia    AL              36420        500       $14,500.00
 Coast Covington     Vegetable
 Baptist Church      Box
Feeding the Gulf    Fresh Fruit/   South East     Andalusia    AL              36421        100        $2,900.00
 Coast Covington     Vegetable
 Baptist Church      Box
Feeding the Gulf    Fresh Fruit/   South East     Ponce De     FL              32455        100        $2,900.00
 Coast Crosspoint    Vegetable                     Leon
 Pdl                 Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36608        250        $7,250.00
 Coast Dayspring     Vegetable
 Baptist Church      Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        900       $26,100.00
 Coast Escambia Co   Vegetable
 Community Enabl     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36619        300        $8,700.00
 Coast First         Vegetable
 Baptist Tillmans    Box
 Corn
Feeding the Gulf    Fresh Fruit/   South East     Foley        AL              36535      1,750       $50,750.00
 Coast Foley         Vegetable
 Hispanic 7Th Day    Box
 Adve
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        800       $23,200.00
 Coast Gateway To    Vegetable
 Heaven Pentecost    Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        200        $5,800.00
 Coast Gateway To    Vegetable
 Heaven Spirit An    Box
Feeding the Gulf    Fresh Fruit/   South East     Prichard     AL              36610      1,600       $46,400.00
 Coast Goodwill      Vegetable
 Church Ministries   Box
Feeding the Gulf    Fresh Fruit/   South East     East         AL              36426        500       $14,500.00
 Coast Grace         Vegetable                     Brewton
 Baptist Church      Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426        100        $2,900.00
 Coast Grace         Vegetable
 Baptist Church      Box
 New
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36617        800       $23,200.00
 Coast Greater       Vegetable
 Morning Star        Box
 Baptis
Feeding the Gulf    Fresh Fruit/   South East     Semmes       AL              36575         50        $1,450.00
 Coast Holy Name     Vegetable
 of Jesus Christ     Box
Feeding the Gulf    Fresh Fruit/   South East     Semmes       AL              36575        150        $4,350.00
 Coast Holy Name     Vegetable
 of Jesus Church     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36609      2,000       $58,000.00
 Coast Mobile        Vegetable
 Hispanic Company    Box
Feeding the Gulf    Fresh Fruit/   South East     Panama City  FL              32401        200        $5,800.00
 Coast Mt. Hebron    Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36617        600       $17,400.00
 Coast Mt. Hebron    Vegetable
 Baptist Church      Box
Feeding the Gulf    Fresh Fruit/   South East     Brewton      AL              36426      1,750       $50,750.00
 Coast New           Vegetable
 Beginnings          Box
 Worship Cent
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36604      1,600       $46,400.00
 Coast New Hope      Vegetable
 Outreach            Box
 Ministrie
Feeding the Gulf    Fresh Fruit/   South East     Opp          AL              36467        200        $7,250.00
 Coast Northern      Vegetable
 Heights Baptist     Box
 Ch
Feeding the Gulf    Fresh Fruit/   South East     Opp          AL              36467        400       $11,600.00
 Coast OPP Church    Vegetable
 of Christ           Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36610        200        $5,800.00
 Coast Pleasant      Vegetable
 Grove               Box
Feeding the Gulf    Fresh Fruit/   South East     Prichard     AL              36610        800       $23,200.00
 Coast Pleasant      Vegetable
 Grove Missionary    Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36608      1,200       $34,800.00
 Coast Providence    Vegetable
 Hospital Outreach   Box
Feeding the Gulf    Fresh Fruit/   South East     Panama City  FL              32401        400       $11,600.00
 Coast Providence    Vegetable
 Hospital Outreach   Box
Feeding the Gulf    Fresh Fruit/   South East     Elberta      AL              36530        600       $17,400.00
 Coast Read the      Vegetable
 Ministry            Box
Feeding the Gulf    Fresh Fruit/   South East     Saraland     AL              36571      1,550       $44,950.00
 Coast Saraland      Vegetable
 UMC                 Box
Feeding the Gulf    Fresh Fruit/   South East     Flomaton     AL              36441        400       $11,600.00
 Coast Spirit        Vegetable
                     Box
Feeding the Gulf    Fresh Fruit/   South East     Irvington    AL              36544      1,900       $55,100.00
 Coast St. Elmo      Vegetable
 SDA Church          Box
Feeding the Gulf    Fresh Fruit/   South East     Mobile       AL              36617      3,000       $87,000.00
 Coast Truevine      Vegetable
 Missionary          Box
 Baptist
Feeding the Gulf    Fresh Fruit/   South East     Chipley      FL              32428      1,956       $53,322.00
 Coast Yes Lord      Vegetable
 Deliverance         Box
Feeding the Gulf    Fresh Fruit/   South East     Atmore       AL              36502        850       $24,650.00
 Coast Zion          Vegetable
                     Box
Feeding the Soul    Fresh Fruit/   Western        Oceanside    CA              92056      7,040      $176,000.00
 Found               Vegetable
                     Box
Feeding the Valley  Combination    South East     Midland      GA              31820     13,789      $471,073.80
 Georgia             Box
Feeding the Valley  Fluid Milk     South East     Midland      GA              31820      4,320       $17,236.80
 Georgia
Feeding the Valley  Fresh Fruit/   South East     Midland      GA              31820      5,200      $122,668.00
 Georgia             Vegetable
                     Box
Feeding Uniting &   Fresh Fruit/   South East     Hattiesburg  MS              39401      1,140       $68,400.00
 Empowering          Vegetable
                     Box
Feeding             Combination    North East     Elmsford     NY              10523      3,575      $117,260.00
 Westchester         Box
Feeding             Fresh Fruit/   North East     Elmsford     NY              10523      6,100      $121,817.00
 Westchester         Vegetable
                     Box
Feedmore            Fresh Fruit/   Mid-Atlantic   Warsaw       VA              22572      1,827       $42,934.50
                     Vegetable
                     Box
Feedmore            Fresh Fruit/   Mid-Atlantic   Louisa       VA              23093      2,709       $63,661.50
                     Vegetable
                     Box
Feedmore            Fresh Fruit/   Mid-Atlantic   Chester      VA              23831      3,843       $90,310.50
                     Vegetable
                     Box
Feedmore            Fresh Fruit/   Mid-Atlantic   Farmville    VA              23901      1,449       $34,051.50
                     Vegetable
                     Box
Feedmore WNY        Dairy          North East     Buffalo      NY              14206        150        $6,780.00
                     Products Box
Feedmore WNY        Dairy          North East     Buffalo      NY              14220        180        $8,136.00
                     Products Box
Feedmore WNY        Dairy          North East     East Aurora  NY              14052        105        $4,746.00
                     Products Box
Feedmore WNY        Dairy          North East     Gowanda      NY              14070        780       $35,256.00
                     Products Box
Feedmore WNY        Dairy          North East     Newburgh     NY              12550        270       $12,204.00
                     Products Box
Feedmore WNY        Dairy          North East     Niagara      NY              14301         60        $2,712.00
                     Products Box                  Falls
Feedmore WNY        Dairy          North East     Niagara      NY              14305        165        $7,458.00
                     Products Box                  Falls
Feedmore WNY        Dairy          North East     Sinclairvil  NY              14782         45        $2,034.00
                     Products Box                  le
Feedmore WNY        Dairy          North East     West         NY              14586        315       $14,238.00
                     Products Box                  Henrietta
Feedmore WNY        Dairy          North East     Williamsvil  NY              14221        135        $6,102.00
                     Products Box                  le
Feedmore WNY        Fresh Fruit/   North East     Buffalo      NY              14206        132        $3,168.00
                     Vegetable
                     Box
Feedmore WNY        Fresh Fruit/   North East     Buffalo      NY              14220        126        $3,024.00
                     Vegetable
                     Box
Feedmore WNY        Fresh Fruit/   North East     East Aurora  NY              14052         84        $2,016.00
                     Vegetable
                     Box
Feedmore WNY        Fresh Fruit/   North East     Newburgh     NY              12550        450       $10,800.00
                     Vegetable
                     Box
Feedmore WNY        Fresh Fruit/   North East     Niagara      NY              14301         42        $1,008.00
                     Vegetable                     Falls
                     Box
Feedmore WNY        Fresh Fruit/   North East     Niagara      NY              14305        174        $4,176.00
                     Vegetable                     Falls
                     Box
Feedmore WNY        Fresh Fruit/   North East     West         NY              14586        450       $10,800.00
                     Vegetable                     Henrietta
                     Box
Feedmore WNY        Fresh Fruit/   North East     Williamsvil  NY              14221         90        $2,160.00
                     Vegetable                     le
                     Box
Feedmore WNY        Precooked      North East     Buffalo      NY              14206        564       $31,358.40
                     Meat Box
Feedmore WNY        Precooked      North East     Buffalo      NY              14220        126        $7,005.60
                     Meat Box
Feedmore WNY        Precooked      North East     East Aurora  NY              14052         87        $4,837.20
                     Meat Box
Feedmore WNY        Precooked      North East     Gowanda      NY              14070        546       $30,357.60
                     Meat Box
Feedmore WNY        Precooked      North East     Newburgh     NY              12550        360       $20,016.00
                     Meat Box
Feedmore WNY        Precooked      North East     Niagara      NY              14301         42        $2,335.20
                     Meat Box                      Falls
Feedmore WNY        Precooked      North East     Niagara      NY              14305        174        $9,674.40
                     Meat Box                      Falls
Feedmore WNY        Precooked      North East     Sinclairvil  NY              14782         45        $2,502.00
                     Meat Box                      le
Feedmore WNY        Precooked      North East     West         NY              14586        315       $17,514.00
                     Meat Box                      Henrietta
Feedmore WNY        Precooked      North East     Williamsvil  NY              14221         90        $5,004.00
                     Meat Box                      le
Feedmore WNY        Precooked      North East     Buffalo      NY              14206         84        $4,670.40
 Buffalo             Meat Box
Fellowship          Fresh Fruit/   Midwest        Chicago      IL              60609        441       $15,867.18
                     Vegetable
                     Box
Fellowship          Precooked      Midwest        Chicago      IL              60609        504       $40,884.48
                     Meat Box
Fellowship          Precooked      Midwest        Chicago      IL              60609      2,272      $184,304.64
                     Meat Box
Fellowship          Fresh Fruit/   Midwest        Norwalk      IA              50211        450        $6,525.00
 Community Church    Vegetable
                     Box
Fenway Manor        Dairy          Midwest        Cleveland    OH              44106        286        $7,150.00
                     Products Box
FFS Veterans of     Fresh Fruit/   Midwest        Columbus     OH              43205      1,080       $13,500.00
 Frgn. Wrs.          Vegetable
                     Box
Fiadah              Combination    Mid-Atlantic   Vega Alta    PR              00692        672       $58,296.00
 Internacional       Box
Fieldhouse for the  Precooked      South East     Hattiesburg  MS              39401        588       $24,143.28
 Homele.             Meat Box
Filer Senior Haven  Combination    Western        Filer        ID              83328        169        $7,436.00
                     Box
Filer Senior Haven  Fresh Fruit/   Western        Filer        ID              83328        169        $4,394.00
                     Vegetable
                     Box
Filipino Community  Fresh Fruit/   Western        Seattle      WA              98118      1,200       $33,000.00
 Center              Vegetable
                     Box
Filling Station     Fluid Milk     South East     Pollocksvil  NC              28573      1,080        $4,266.00
 N10                                               le
Fillmore School     Fresh Fruit/   North East     Fillmore     NY              14735        800       $18,280.00
                     Vegetable
                     Box
Film Alley          Fresh Fruit/   South West     Bastrop      TX              78602        960       $16,310.40
                     Vegetable
                     Box
Find Food Bank      Dairy          Western        Indio        CA              92201      2,400       $70,128.00
                     Products Box
Find Food Bank      Fluid Milk     Western        Indio        CA              92201     10,500      $104,895.00
Find Food Bank      Fresh Fruit/   Western        Indio        CA              92201     44,945    $1,095,756.82
                     Vegetable
                     Box
Finleyville Food    Fresh Fruit/   Mid-Atlantic   Finleyville  PA              15332        400       $12,000.00
 Pantry              Vegetable
                     Box
First 5 San Benito  Combination    Western        Hollister    CA              95023      1,100       $29,975.00
                     Box
First 5 San Benito  Fresh Fruit/   Western        Hollister    CA              95023        900       $22,275.00
                     Vegetable
                     Box
First African       Fresh Fruit/   South East     Lithonia     GA              30038      3,360       $63,638.40
 Community           Vegetable
                     Box
First AMEC          Combination    South East     Athens       GA              30601        560       $42,588.00
                     Box
First Assembly of   Fresh Fruit/   Midwest        Dearborn     MI              48125        150        $4,312.50
 God                 Vegetable                     Heights
                     Box
First Assembly of   Dairy          South West     Dallas       TX              75218      1,000       $45,760.00
 God Dallas          Products Box
First Assembly of   Fresh Fruit/   South West     Dallas       TX              75218        600       $11,460.00
 God Dallas          Vegetable
                     Box
First Assembly of   Fresh Fruit/   South West     Madisonvill  TX              77864      1,280       $21,747.20
 God Madisonv        Vegetable                     e
                     Box
First Assembly of   Fresh Fruit/   South West     Kaufman      TX              75142     23,744      $403,410.56
 God Terrell         Vegetable
                     Box
First Assembly of   Combination    South West     Van Buren    AR              72956      1,536       $53,713.92
 God Van Buren       Box
First Assembly of   Fresh Fruit/   South West     Wichita      TX              76309      1,280       $21,747.20
 God Wichita         Vegetable                     Falls
                     Box
First Assy. of God  Fluid Milk     South West     Kaufman      TX              75142     19,740       $57,640.80
First Bap. FP/SOSA  Fluid Milk     South East     Leesburg     FL              34748        400        $1,516.00
First Baptist       Fresh Fruit/   South East     Alabaster    AL              35007        300        $8,400.00
 Alabaster           Vegetable
                     Box
First Baptist Ch.   Fluid Milk     South East     Blairsville  GA              30512        200          $758.00
First Baptist Ch.   Fluid Milk     South West     Jennings     LA              70546        800        $2,336.00
First Baptist       Combination    Western        Kent         WA              98032        449       $15,715.00
 Chch. Kent          Box
First Baptist       Dairy          Western        Kent         WA              98032        306        $9,180.00
 Chch. Kent          Products Box
First Baptist       Fresh Fruit/   Western        Kent         WA              98032        323        $8,721.00
 Chch. Kent          Vegetable
                     Box
First Baptist       Fluid Milk     South West     Basile       LA              70515        124          $362.08
 Churc.
First Baptist       Combination    South East     Wewahitchka  FL              32465      2,688      $204,422.40
 Church              Box
First Baptist       Combination    South East     Pensacola    FL              32501      1,344      $102,211.20
 Church              Box
First Baptist       Fluid Milk     Mountain       Chanute      KS              66720        514       $12,305.16
 Church                             Plains
First Baptist       Fluid Milk     South West     Pearland     TX              77581        500        $1,489.00
 Church
First Baptist       Fresh Fruit/   Mountain       Chanute      KS              66720        539       $10,294.90
 Church              Vegetable      Plains
                     Box
First Baptist       Fresh Fruit/   South East     Snellville   GA              30078        770       $14,583.80
 Church              Vegetable
                     Box
First Baptist       Fresh Fruit/   South East     Jasper       GA              30143        960       $18,182.40
 Church              Vegetable
                     Box
First Baptist       Fresh Fruit/   Mountain       Joplin       MO              64804        880       $22,792.00
 Church              Vegetable      Plains
                     Box
First Baptist       Fresh Fruit/   Midwest        Wixom        MI              48393        500        $7,475.00
 Church              Vegetable
                     Box
First Baptist       Precooked      South West     Amarillo     TX              79101      4,660      $480,679.00
 Church              Meat Box
First Baptist       Fresh Fruit/   South East     Brownsville  TN              38012        648       $15,876.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
First Baptist       Fresh Fruit/   South East     Gadsden      AL              35901        216        $4,320.00
 Church--Gadsen      Vegetable
                     Box
First Baptist       Fresh Fruit/   South East     Memphis      TN              38112        972       $23,814.00
 Church Broad--C/O   Vegetable
 Mid South Food Ba   Box
First Baptist       Fresh Fruit/   South East     Birmingham   AL              35218      1,800       $46,710.00
 Church Ensley       Vegetable
                     Box
First Baptist       Fresh Fruit/   South East     Fairfield    AL              35064      1,404       $36,433.80
 Church Fairfield    Vegetable
                     Box
First Baptist       Fresh Fruit/   South East     Birmingham   AL              35211      1,580       $41,001.00
 Church Mason City   Vegetable
                     Box
First Baptist       Dairy          Midwest        Cleveland    OH              44118        195        $4,875.00
 Church of Greater   Products Box
First Baptist       Fresh Fruit/   South East     Holt         FL              32564      1,250       $36,250.00
 Church of Holt      Vegetable
                     Box
First Baptist       Precooked      Midwest        Melrose      IL              60160        576       $46,725.12
 Church of Melrose   Meat Box                      Park
 Park
First Baptist       Dairy          South East     Rocky Mount  NC              27804        189          $945.00
 Church of Rocky     Products Box
 Mount
First Baptist       Fluid Milk     South East     Rocky Mount  NC              27804        170          $680.00
 Church of Rocky
 Mount
First Baptist       Fresh Fruit/   South East     Rocky Mount  NC              27804      2,604       $71,610.00
 Church of Rocky     Vegetable
 Mount               Box
First Baptist       Precooked      South East     Rocky Mount  NC              27804        240        $4,680.00
 Church of Rocky     Meat Box
 Mount
First Baptist       Dairy          South West     Owasso       OK              74055      1,152       $52,715.52
 Church Owasso       Products Box
First Baptist       Fresh Fruit/   South West     Owasso       OK              74055      3,230       $62,216.20
 Church Owasso       Vegetable
                     Box
First Baptist       Dairy          South West     Pawhuska     OK              74056        960       $43,929.60
 Church Pawhuska     Products Box
First Baptist       Fluid Milk     South West     Pawhuska     OK              74056        495       $11,850.30
 Church Pawhuska
First Baptist       Fresh Fruit/   South West     Pawhuska     OK              74056      1,127       $25,024.30
 Church Pawhuska     Vegetable
                     Box
First Baptist       Precooked      South East     Pearl        MS              39208        504       $20,694.24
 Church Pear         Meat Box
First Baptist       Fresh Fruit/   South East     Shallotte    NC              28470      1,602       $44,055.00
 Church Shallotte    Vegetable
                     Box
First Baptist       Fluid Milk     South West     Skiatook     OK              74070        990       $23,700.60
 Church Skiatook
First Baptist       Fresh Fruit/   South West     Skiatook     OK              74070      4,145       $76,731.10
 Church Skiatook     Vegetable
                     Box
First Baptist       Fluid Milk     Midwest        Dillsboro    IN              47018      7,776       $31,104.00
 Church/Dillsboro
First Baptist       Fresh Fruit/   Midwest        Chicago      IL              60612        126        $4,533.48
 Congregational      Vegetable
                     Box
First Baptist       Fresh Fruit/   South East     Creedmoor    NC              27522      1,804       $45,839.64
 Creedmoor           Vegetable
                     Box
First Baptist El    Fresh Fruit/   South West     El Paso      TX              79902     22,464      $381,663.36
 Paso                Vegetable
                     Box
First Baptist       Dairy          South East     Florence     MS              39073        240        $6,739.20
 Florence            Products Box
First Baptist       Fluid Milk     South East     Florence     MS              39073        192        $1,409.28
 Florence
First Baptist       Fresh Fruit/   South East     Florence     MS              39073        704       $11,897.60
 Florence            Vegetable
                     Box
First Baptist       Precooked      South East     Florence     MS              39073        252       $10,347.12
 Florence            Meat Box
First Baptist       Fresh Fruit/   Midwest        Detroit      MI              48235      1,500       $22,425.00
 International       Vegetable
                     Box
First Baptist of    Fresh Fruit/   South East     Pascagoula   MS              39567         96        $1,622.40
 Pascagou            Vegetable
                     Box
First Baptist       Fluid Milk     South East     Richland     MS              39218        384        $2,818.56
 Richland
First Baptist       Fresh Fruit/   South East     Richland     MS              39218        384        $6,489.60
 Richland            Vegetable
                     Box
First Baptist       Precooked      South East     Richland     MS              39218        756       $31,041.36
 Richland            Meat Box
First Calvary MBC   Fluid Milk     South East     Hinesville   GA              31313      2,160        $8,402.40
First Charity       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21202        250        $5,237.50
 Baptist             Vegetable
                     Box
First Christian     Dairy          Midwest        Christopher  IL              62822        546       $16,243.50
 Church              Products Box
First Christian     Fresh Fruit/   Midwest        Christopher  IL              62822        496       $13,640.00
 Church              Vegetable
                     Box
First Christian     Fresh Fruit/   South West     Arlington    TX              76010        704       $11,960.96
 Church              Vegetable
                     Box
First Christian     Combination    Western        Rupert       ID              83350        150        $6,600.00
 Praise Chapel       Box
First Christian     Fresh Fruit/   Western        Rupert       ID              83350        150        $3,900.00
 Praise Chapel       Vegetable
                     Box
First Church of     Fluid Milk     Mid-Atlantic   Duncansvill  PA              16635      1,056       $20,824.32
 Christ Altoona                                    e
First Church of     Combination    Mountain       Pittsburg    KS              66762        360       $12,589.20
 the Nazarene        Box            Plains
First Church of     Fresh Fruit/   Mountain       Pittsburg    KS              66762        756        $7,333.20
 the Nazarene        Vegetable      Plains
                     Box
First Community     Fresh Fruit/   Midwest        Grand        MI              49506        266        $9,570.68
 AME Church          Vegetable                     Rapids
                     Box
First Community     Fresh Fruit/   Western        Mountain     CA              94040        135        $4,298.40
 Housing--1585       Vegetable                     View
 Studios             Box
First Community     Fresh Fruit/   Western        San Jose     CA              95112        360       $11,462.40
 Housing--Casa       Vegetable
 Feliz               Box
First Community     Fresh Fruit/   Western        San Jose     CA              95133        505       $16,079.20
 Housing--Creeksid   Vegetable
 e                   Box
First Community     Fresh Fruit/   Western        Sunnyvale    CA              94089        372       $11,844.48
 Housing--Orchard    Vegetable
 Gardens             Box
First Cosmo. Bapt.  Fresh Fruit/   South East     Raleigh      NC              27610      2,500       $28,750.00
 Church              Vegetable
                     Box
First CRC Church    Dairy          Midwest        Grand        MI              49507         50        $1,450.00
                     Products Box                  Rapids
First CRC Church    Fresh Fruit/   Midwest        Grand        MI              49507         50        $1,100.00
                     Vegetable                     Rapids
                     Box
First Creek Middle  Combination    Western        Tacoma       WA              98404        640       $22,400.00
 School              Box
First Creek Middle  Dairy          Western        Tacoma       WA              98404        350       $10,500.00
 School              Products Box
First Creek Middle  Fresh Fruit/   Western        Tacoma       WA              98404        700       $18,900.00
 School              Vegetable
                     Box
First English       Dairy          Midwest        Mansfield    OH              44902        140        $3,500.00
 Lutheran Church     Products Box
First Food Bank     Combination    South West     Phoenix      AZ              85009     14,208      $165,868.80
 Phoenix             Box
First Food Bank     Combination    South West     Surprise     AZ              85378      1,920       $22,022.40
 Phoenix             Box
First Fruit         Fluid Milk     South East     Wilmington   NC              28412      1,376        $5,370.24
 Ministries
First Fruit         Fresh Fruit/   South East     Wilmington   NC              28412        900       $10,350.00
 Ministries          Vegetable
                     Box
First Lutheran      Dairy          Midwest        Manchester   IA              52057        480       $12,000.00
                     Products Box
First Missionary    Fresh Fruit/   South East     Pass         MS              39571         96        $1,622.40
 Baptist             Vegetable                     Christian
                     Box
First Missionary    Precooked      South East     Pass         MS              39571        672       $27,592.32
 Baptist             Meat Box                      Christian
First Missionary    Fresh Fruit/   South East     Huntsville   AL              35810      1,020       $26,469.00
 Baptist Church      Vegetable
                     Box
First Pentecostal   Dairy          South East     Lexington    TN              38351      2,040       $51,000.00
 Church              Products Box
First Presbyterian  Fresh Fruit/   North East     Jamestown    NY              14701         50        $1,142.50
 Church              Vegetable
                     Box
First Presbyterian  Fresh Fruit/   Midwest        Cambria      WI              53923        210        $2,719.50
 Food Bank           Vegetable
                     Box
First Refuge        Fluid Milk     South West     Denton       TX              76201      2,158        $6,301.36
 Mnstrs.
First Ridgeland     Fresh Fruit/   South East     Ridgeland    MS              39157        600       $11,970.00
 Church              Vegetable
                     Box
First Saints        Fresh Fruit/   Mid-Atlantic   Leonardtown  MD              20650        250        $5,237.50
 Community Church    Vegetable
                     Box
First Southern      Fluid Milk     Western        Sylmar       CA              91342      2,400       $23,976.00
 Baptist Church of
 Sylmar
First Step          Combination    South West     Dallas       TX              75215        850       $29,724.50
 Empowerment/RBCS    Box
First Step          Dairy          South West     Dallas       TX              75215        750       $34,320.00
 Empowerment/RBCS    Products Box
First Step          Fresh Fruit/   South West     Dallas       TX              75215        800       $16,960.00
 Empowerment/RBCS    Vegetable
                     Box
First Step Food     Fresh Fruit/   South East     Ocala        FL              34479      4,800       $52,080.00
 Bank                Vegetable
                     Box
First Tabernacle    Fresh Fruit/   South East     Memphis      TN              38109        108        $2,646.00
 Ministries--C/O     Vegetable
 Mid South Food B    Box
First Unitarian     Fresh Fruit/   Western        Los Angeles  CA              90005      1,950       $48,262.50
 Church              Vegetable
                     Box
First United        Precooked      North East     Milford      CT              06460        320       $17,376.00
 Church              Meat Box
First United CPCA   Fluid Milk     South East     Birmingham   AL              35208        350        $1,326.50
First United CPCA   Fresh Fruit/   South East     Birmingham   AL              35208        580       $15,051.00
                     Vegetable
                     Box
First United        Dairy          South East     Gulfport     MS              39501        160        $4,492.80
 Gospel Assem.       Products Box
First United        Fresh Fruit/   South East     Gulfport     MS              39501        160        $2,704.00
 Gospel Assem.       Vegetable
                     Box
First United        Precooked      South East     Gulfport     MS              39501        336       $13,796.16
 Gospel Assem.       Meat Box
First United        Fluid Milk     South East     Picayune     MS              39466        480        $1,819.20
 Metho.
First United        Fresh Fruit/   Western        LA Puente    CA              91744      2,000       $49,500.00
 Methodist           Vegetable
                     Box
First United        Dairy          South East     Lucedale     MS              39452        480       $13,478.40
 Methodist Ch.       Products Box
First United        Fresh Fruit/   South East     Lucedale     MS              39452        192        $3,244.80
 Methodist Ch.       Vegetable
                     Box
First United        Precooked      South East     Lucedale     MS              39452        252       $10,347.12
 Methodist Ch.       Meat Box
First United        Dairy          North East     Massena      NY              13662      1,500       $36,000.00
 Methodist Church    Products Box
First United        Fluid Milk     North East     Massena      NY              13662        748       $23,173.04
 Methodist Church
First United        Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        189        $3,581.55
 Methodist Church    Vegetable
                     Box
First United        Fresh Fruit/   North East     Massena      NY              13662      1,380       $27,600.00
 Methodist Church    Vegetable
                     Box
First United        Dairy          Midwest        Lancaster    WI              53813        960       $24,000.00
 Prebyterian         Products Box
First Unity         Combination    Midwest        Chicago      IL              60615        825       $84,570.00
 Missionary          Box
 Baptist Church
First Unity         Fresh Fruit/   Midwest        Chicago      IL              60615        549       $21,023.00
 Missionary          Vegetable
 Baptist Church      Box
First Worldwide     Fresh Fruit/   Midwest        Matteson     IL              60443        378       $13,600.44
                     Vegetable
                     Box
First Worldwide     Fresh Fruit/   Midwest        Chicago      IL              60617        126        $4,533.48
                     Vegetable
                     Box
First Worldwide     Precooked      Midwest        Matteson     IL              60443        144       $11,681.28
                     Meat Box
First Worldwide     Precooked      Midwest        Chicago      IL              60617        216       $17,521.92
                     Meat Box
Fish Emergency      Combination    Western        Portland     OR              97220        120        $4,200.00
 Service USDA        Box
Fish Emergency      Dairy          Western        Portland     OR              97220        850       $25,500.00
 Service USDA        Products Box
Fish Emergency      Fresh Fruit/   Western        Portland     OR              97220        780       $21,060.00
 Service USDA        Vegetable
                     Box
Fish Food Bank      Fresh Fruit/   Western        Elko         Nv              89801      6,888      $137,553.36
                     Vegetable
                     Box
Fish Food Bank      Combination    Western        Hood River   OR              97031      1,320       $46,200.00
 Hood River          Box
Fish Food Bank      Dairy          Western        Hood River   OR              97031      1,000       $30,000.00
 Hood River          Products Box
Fish Food Bank      Fresh Fruit/   Western        Hood River   OR              97031        780       $21,060.00
 Hood River          Vegetable
                     Box
Fish Hospitality    Fluid Milk     South East     Knoxville    TN              37917     10,560       $41,673.60
 PA
Fish of Grand       Fresh Fruit/   Midwest        Grand Blanc  MI              48439        378       $13,600.44
 Blanc               Vegetable
                     Box
Fish Volunteers     Fresh Fruit/   Mountain       Cape         MO              63703        200        $5,500.00
                     Vegetable      Plains         Girardeau
                     Box
Fisher Magnet       Fresh Fruit/   Midwest        Detroit      MI              48205        100        $1,495.00
 Upper Academy       Vegetable
                     Box
Fishers Youth       Fresh Fruit/   Midwest        Fishers      IN              46038        300        $5,991.00
 Assistance          Vegetable
 Program             Box
Fitzgerald High     Fresh Fruit/   Midwest        Warren       MI              48091        150        $2,242.50
 School              Vegetable
                     Box
Five Mountain       Fresh Fruit/   Mid-Atlantic   Shickshinny  PA              18655        157        $3,925.00
 United Methodist    Vegetable
 Charter             Box
 (Shickshinn
Five Points         Combination    South East     Orrville     AL              36767        840       $63,882.00
 Community Center    Box
Five Points         Combination    South East     Orville      AL              36767        560       $42,588.00
 Community Center    Box
FL Baptist Cutler   Combination    South East     Cutler Bay   FL              33157      1,344      $102,211.20
 Bay                 Box
FL Baptist          Combination    South East     Kissimmee    FL              34744      4,032      $306,633.60
 Kissimmee           Box
FL Baptist          Combination    South East     Lakeland     FL              33810      2,688      $204,422.40
 Lakeland            Box
FL Baptist Tampa    Combination    South East     N Tampa      FL              33614      2,688      $204,422.40
                     Box
Flagstaff Family    Dairy          South West     Flagstaff    AZ              86004        624       $16,536.00
 Food Center         Products Box
Flagstaff Family    Fluid Milk     South West     Flagstaff    AZ              86004      2,592       $12,182.40
 Food Center
Flagstaff Family    Fresh Fruit/   South West     Flagstaff    AZ              86004      1,840       $40,204.00
 Food Center         Vegetable
                     Box
Flat Lick Elem.     Fluid Milk     South East     Flat Lick    KY              40935        756        $2,865.24
Flat River          Dairy          Midwest        Lowell       MI              49331         92        $2,300.00
 Outreach            Products Box
 Ministries
Flat River          Fresh Fruit/   Midwest        Lowell       MI              49331        203        $7,303.94
 Outreach            Vegetable
 Ministries          Box
Flat River          Precooked      Midwest        Lowell       MI              49331         56        $1,925.72
 Outreach            Meat Box
 Ministries
Flathead Food Bank  Combination    Mountain       Kalispell    MT              59901      7,280      $349,440.00
                     Box            Plains
Flathead Food Bank  Fresh Fruit/   Mountain       Kalispell    MT              59901     10,192      $305,760.00
                     Vegetable      Plains
                     Box
FLCC Newark Campus  Dairy          North East     Marion       NY              14505        315       $13,923.00
                     Products Box
FLCC Newark Campus  Dairy          North East     Newark       NY              14513        600       $26,520.00
                     Products Box
FLCC Newark Campus  Dairy          North East     Palmyra      NY              14522        300       $13,260.00
                     Products Box
FLCC Newark Campus  Dairy          North East     Wolcott      NY              14590        300       $13,260.00
                     Products Box
FLCC Newark Campus  Precooked      North East     Marion       NY              14505        315       $17,199.00
                     Meat Box
FLCC Newark Campus  Precooked      North East     Newark       NY              14513        672       $36,691.20
                     Meat Box
FLCC Newark Campus  Precooked      North East     Palmyra      NY              14522        336       $18,345.60
                     Meat Box
FLCC Newark Campus  Precooked      North East     Wolcott      NY              14590        336       $18,345.60
                     Meat Box
Fletcher Place      Fluid Milk     Midwest        Indianapoli  IN              46203        616        $2,045.12
 Ctr.                                              s
Flex Tech Shepherd  Fresh Fruit/   Midwest        Shepherd     MI              48883        280       $10,074.40
                     Vegetable
                     Box
Flint Commodities   Fresh Fruit/   Midwest        Flint        MI              48507        325        $4,858.75
 Food Program        Vegetable
                     Box
Flint Cultural      Fresh Fruit/   Midwest        Flint        MI              48503        581       $20,904.38
 Center Academy      Vegetable
                     Box
Flipany 2 Taste     Fresh Fruit/   South East     North Miami  FL              33181      7,560      $245,700.00
 Catering            Vegetable
                     Box
Flipany 2 Taste     Fresh Fruit/   South East     West Palm    FL              33401      5,040      $163,800.00
 Catering            Vegetable                     Beach
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Dania Beach  FL              33004      3,564      $115,830.00
 Catering            Vegetable
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Hialeah      FL              33012      2,520       $81,900.00
 Catering            Vegetable
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Miami        FL              33014      1,260       $40,950.00
 Catering            Vegetable                     Gardens
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Miami        FL              33055      5,040      $163,800.00
 Catering            Vegetable                     Gardens
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Miami        FL              33147      1,260       $40,950.00
 Catering            Vegetable
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Miami        FL              33186      3,780      $122,850.00
 Catering            Vegetable
                     Box
Flipany 2Taste      Fresh Fruit/   South East     Plantation   FL              33323      1,260       $40,950.00
 Catering            Vegetable
                     Box
Flora United        Dairy          Midwest        Flora        IL              62801        700       $20,825.00
 Methodist           Products Box
Flora United        Fresh Fruit/   Midwest        Flora        IL              62801        300        $8,250.00
 Methodist           Vegetable
                     Box
Florence 1st Bapt.  Fluid Milk     South East     Ridgeland    MS              39157        920        $3,486.80
Florida Baptist     Fresh Fruit/   South East     Tampa        FL              33614      7,415      $185,375.00
                     Vegetable
                     Box
Florida Gateway     Combination    South East     Lake City    FL              32055      2,240      $170,352.00
 Food Bank           Box
Florida Gateway     Fluid Milk     South East     Lake City    FL              32055         60          $227.40
 Food Bank
Florida Gateway     Fresh Fruit/   South East     Lake City    FL              32055      7,080       $76,818.00
 Food Bank           Vegetable
                     Box
Flory Elementary    Fresh Fruit/   Western        Moorpark     CA              93021        400       $10,000.00
                     Vegetable
                     Box
Floyd Co. Schools-- Fresh Fruit/   South East     Rome         GA              30161        225        $4,500.00
 Carnagie Bldg.      Vegetable
                     Box
Floyd County        Fresh Fruit/   South East     Rome         GA              30161      1,135       $22,700.00
 Schools--Rest       Vegetable
 Rome                Box
Floyd County        Fresh Fruit/   South East     Rome         GA              30161      2,175       $43,500.00
 Schools Model       Vegetable
 High                Box
Floyd County        Fresh Fruit/   South East     Rome         GA              30161        250        $5,000.00
 Schools Tyson       Vegetable
 Plant               Box
Floyd--Model High   Fresh Fruit/   South East     Rome         GA              30161        300        $6,375.00
 School              Vegetable
                     Box
Floyd--Model High   Precooked      South East     Rome         GA              30161        100        $3,404.00
 School              Meat Box
Flynn Educational   Fresh Fruit/   Midwest        Sterling     MI              48310      2,400       $45,142.50
 Center              Vegetable                     Heights
                     Box
Flynn Middle        Fresh Fruit/   Midwest        Sterling     MI              48312        910       $19,670.00
 School              Vegetable                     Heights
                     Box
FMLK Heights        Fluid Milk     South West     Houston      TX              77009        840        $2,696.40
 Inter.
FNB Berwyn          Dairy          Midwest        Berwyn       IL              60402        300       $18,535.00
                     Products Box
FNB Edgewater       Combination    Midwest        Chicago      IL              60660        100        $6,515.60
                     Box
FNB Humboldt Park   Combination    Midwest        Chicago      IL              60647         10          $621.20
                     Box
FNB Humboldt Park   Fluid Milk     Midwest        Chicago      IL              60608         27          $946.35
FNB Humboldt Park   Fluid Milk     Midwest        Chicago      IL              60622         16          $560.80
FNB Humboldt Park   Fluid Milk     Midwest        Chicago      IL              60647         54        $1,756.08
FNB North Lawndale  Combination    Midwest        Chicago      IL              60616        415       $26,285.80
                     Box
FNB Oak Park        Combination    Midwest        Oak Park     IL              60302         15          $931.80
                     Box
FNB Oak Park        Dairy          Midwest        Oak Park     IL              60302         75        $4,734.75
                     Products Box
FNB Pilsen          Dairy          Midwest        Chicago      IL              60608      1,000       $65,150.00
                     Products Box
FNB Ravenswood      Combination    Midwest        Chicago      IL              60640         80        $5,273.20
                     Box
FNB Rogers Park     Combination    Midwest        Chicago      IL              60626        450       $28,713.00
                     Box
FNB the Fields      Combination    Midwest        Chicago      IL              60641        370       $23,541.00
                     Box
FNB Uptown          Combination    Midwest        Lincolnwood  IL              60712         30        $1,863.60
                     Box
FNB Uptown          Dairy          Midwest        Lincolnwood  IL              60712        100        $6,136.25
                     Products Box
Focus Hope          Dairy          Midwest        Detroit      MI              48238        960       $24,000.00
                     Products Box
Focus Hope          Fresh Fruit/   Midwest        Detroit      MI              48238        450        $6,727.50
                     Vegetable
                     Box
Focus on Renewal    Fresh Fruit/   Mid-Atlantic   Mckees       PA              15136        240        $7,200.00
                     Vegetable                     Rocks
                     Box
Foley Methodist     Fluid Milk     South East     Foley        AL              36535      4,562       $17,708.58
 Chu.
Folsom Memrl UMC    Fluid Milk     Midwest        Worthington  IN              47471         45          $101.25
Fondy Food Pantry   Fresh Fruit/   Midwest        Fond Du Lac  WI              54936      1,050       $20,475.00
                     Vegetable
                     Box
Food 4 Families     Dairy          Midwest        Eaton        OH              45320        100        $2,500.00
                     Products Box
Food 4 Families     Fluid Milk     Midwest        Eaton        OH              45320         84          $336.00
Food at First       Fresh Fruit/   Midwest        Ames         IA              50010        100        $1,450.00
                     Vegetable
                     Box
Food Band Durham    Fluid Milk     South East     Durham       NC              27703     11,232       $43,778.88
Food Bank AK        Fresh Fruit/   Western        Anchorage    AK              99504      1,080       $30,186.00
 Tikahtnu Commons    Vegetable
                     Box
Food Bank           Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302        252        $4,775.40
 Bridgeton St.       Vegetable
 Johns               Box
Food Bank           Fresh Fruit/   Western        San Luis     CA              93401      4,624      $166,464.00
 Coalition of San    Vegetable                     Obispo
 Luis Obispo         Box
Food Bank for New   Fresh Fruit/   North East     Bronx        NY              10474     39,550      $789,813.50
 York City           Vegetable
                     Box
Food Bank for       Dairy          Mountain       Kahoka       MO              63445        816       $20,400.00
 Northeast MO        Products Box   Plains
Food Bank           Fluid Milk     South East     Greenville   NC              27834     11,016       $42,873.84
 Greenville
Food Bank Manatee   Fresh Fruit/   South East     Bradenton    FL              34208      2,080       $73,600.00
                     Vegetable
                     Box
Food Bank NC        Fresh Fruit/   South East     Raleigh      NC              27604      7,490       $98,780.58
                     Vegetable
                     Box
Food Bank New Bern  Fluid Milk     South East     New Bern     NC              28562      1,296        $5,127.84
Food Bank of        Fresh Fruit/   Western        Anchorage    AK              99501      3,342       $93,408.90
 Alaska              Vegetable
                     Box
Food Bank of        Precooked      South West     Bethel       AR              72764      2,679      $114,527.25
 Bethel Heights      Meat Box                      Heights
Food Bank of        Fresh Fruit/   Mountain       California   MO              65018        240        $6,216.00
 Central & NE MO--   Vegetable      Plains
 Columbia            Box
Food Bank of        Fresh Fruit/   Mountain       Columbia     MO              65202      7,800      $202,020.00
 Central & NE MO--   Vegetable      Plains
 Columbia            Box
Food Bank of        Fresh Fruit/   South East     Gadsden      AL              35901        240        $4,800.00
 Central Alabama     Vegetable
                     Box
Food Bank of        Fresh Fruit/   South East     Raleigh      NC              27604      7,944      $197,001.60
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     Goldsboro    NC              27534      1,320       $34,320.00
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     Durham       NC              27701      6,595      $171,470.00
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     Greenville   NC              27834      6,236      $190,644.56
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     Southern     NC              28387        660       $17,160.00
 Central and         Vegetable                     Pines
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     Wilmington   NC              28401        660       $17,160.00
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Fresh Fruit/   South East     New Bern     NC              28560      3,300       $85,800.00
 Central and         Vegetable
 Eastern NC          Box
Food Bank of        Precooked      South East     Raleigh      NC              27604      1,274       $51,393.16
 Central and         Meat Box
 Eastern NC
Food Bank of        Precooked      South East     Durham       NC              27701      1,274       $51,902.76
 Central and         Meat Box
 Eastern NC
Food Bank of        Fresh Fruit/   Mountain       Columbia     MO              65202        520       $13,468.00
 Central and         Vegetable      Plains
 Northeast MO        Box
Food Bank of        Precooked      Mountain       Columbia     MO              65202      4,228      $157,634.55
 Central and         Meat Box       Plains
 Northeast MO
Food Bank of        Dairy          South West     Alexandria   LA              71301      1,620      $135,513.00
 Central Louisiana   Products Box
Food Bank of        Fluid Milk     South West     Alexandria   LA              71301     18,000       $53,186.40
 Central Louisiana
Food Bank of        Fresh Fruit/   South West     Alexandria   LA              71301      3,636      $223,177.68
 Central Louisiana   Vegetable
                     Box
Food Bank of        Precooked      South West     Alexandria   LA              71301      6,412      $760,078.48
 Central Louisiana   Meat Box
Food Bank of        Combination    North East     Syracuse     NY              13209     17,487      $690,736.50
 Central New York    Box
Food Bank of        Fresh Fruit/   North East     Syracuse     NY              13209     37,800      $939,330.00
 Central New York    Vegetable
                     Box
Food Bank of        Precooked      North East     Syracuse     NY              13209     15,932      $318,640.00
 Central New York    Meat Box
Food Bank of        Fresh Fruit/   Western        Fairfield    CA              94533      5,375      $220,566.00
 Contra Costa        Vegetable
                     Box
Food Bank of        Combination    Western        Concord      CA              94520      9,812      $381,444.40
 Contra Costa and    Box
 Solano
Food Bank of        Fluid Milk     Western        Concord      CA              94520      2,208       $22,057.92
 Contra Costa and
 Solano
Food Bank of        Fresh Fruit/   Western        Concord      CA              94520      5,760      $241,920.00
 Contra Costa and    Vegetable
 Solano              Box
Food Bank of        Combination    Mid-Atlantic   Newark       DE              19702      2,167       $73,678.00
 Delaware            Box
Food Bank of        Combination    Mid-Atlantic   Milford      DE              19963      4,979      $173,636.00
 Delaware            Box
Food Bank of        Dairy          Mid-Atlantic   Newark       DE              19702      6,770      $228,419.80
 Delaware            Products Box
Food Bank of        Fluid Milk     Mid-Atlantic   Newark       DE              19702      1,760       $43,633.92
 Delaware
Food Bank of        Fresh Fruit/   Mid-Atlantic   Newark       DE              19702      9,113      $187,088.35
 Delaware            Vegetable
                     Box
Food Bank of        Fresh Fruit/   Mid-Atlantic   Milford      DE              19963      2,219       $43,478.05
 Delaware            Vegetable
                     Box
Food Bank of        Precooked      Mid-Atlantic   Newark       DE              19702      3,988      $195,010.44
 Delaware            Meat Box
Food Bank of        Fresh Fruit/   Mid-Atlantic   Milford      DE              19963      3,300       $83,490.00
 Delaware--Milton    Vegetable
                     Box
Food Bank of        Dairy          Midwest        Flint        MI              48503     81,984    $2,049,600.00
 Eastern Michigan    Products Box
Food Bank of        Fluid Milk     Midwest        Flint        MI              48503     16,740       $55,576.80
 Eastern Michigan
Food Bank of        Fresh Fruit/   Midwest        Flint        MI              48503     91,712    $3,281,174.48
 Eastern Michigan    Vegetable
                     Box
Food Bank of        Fresh Fruit/   Midwest        Port Huron   MI              48060      4,000       $79,880.00
 Eastern Michigan    Vegetable
                     Box
Food Bank of        Precooked      Midwest        Flint        MI              48503     33,255    $1,256,257.79
 Eastern Michigan    Meat Box
Food Bank of Iowa   Dairy          Midwest        Des Moines   IA              50316      9,688      $593,164.40
                     Products Box
Food Bank of Iowa   Fluid Milk     Midwest        Des Moines   IA              50316        768        $3,072.00
Food Bank of Iowa   Fresh Fruit/   Midwest        Des Moines   IA              50316      8,515      $123,467.50
                     Vegetable
                     Box
Food Bank of Iowa   Precooked      Midwest        Des Moines   IA              50316      2,450      $153,658.80
                     Meat Box
Food Bank of Iowa-- Fresh Fruit/   Midwest        Des Moines   IA              50316         45          $652.50
 Creative Visions    Vegetable
                     Box
Food Bank of Iowa-- Fresh Fruit/   Midwest        Des Moines   IA              50314        185        $2,682.50
 Urban Dreams        Vegetable
                     Box
Food Bank of Iowa   Precooked      Midwest        Des Moines   IA              50317        990       $50,341.50
 C/O DM Cold         Meat Box
 Storage
Food Bank of        Fluid Milk     Mountain       Loveland     Co              80538      6,336       $15,840.00
 Larimer County                     Plains
Food Bank of        Fresh Fruit/   Mountain       Fort         Co              80524        504       $10,064.88
 Larimer County      Vegetable      Plains         Collins
                     Box
Food Bank of        Fresh Fruit/   Mountain       Loveland     Co              80538      4,500       $96,359.40
 Larimer County      Vegetable      Plains
                     Box
Food Bank of        Fresh Fruit/   Mountain       Lincoln      NE              68504     14,960      $387,464.00
 Lincoln             Vegetable      Plains
                     Box
Food Bank of        Precooked      Mountain       Lincoln      NE              68504      7,308      $214,761.00
 Lincoln             Meat Box       Plains
Food Bank of Lower  Fresh Fruit/   North East     Stamford     CT              06906      1,400       $27,958.00
 Fairfield Coutny    Vegetable
                     Box
Food Bank of        Dairy          Western        Salinas      CA              93907     18,150      $580,800.00
 Monterey County     Products Box
Food Bank of        Fluid Milk     Western        Salinas      CA              93907      5,472       $25,992.00
 Monterey County
Food Bank of        Fresh Fruit/   Western        Salinas      CA              93907    115,290    $2,454,579.52
 Monterey County     Vegetable
                     Box
Food Bank of NE     Dairy          South West     Jonesboro    AR              72404      3,120       $78,000.00
 Arkansas            Products Box
Food Bank of NE     Fluid Milk     South West     Jonesboro    AR              72404      2,700        $6,075.00
 Arkansas
Food Bank of North  Fluid Milk     South East     Huntsville   AL              35805      3,696       $14,007.84
 Alabama
Food Bank of North  Fresh Fruit/   South East     Huntsville   AL              35805        360        $7,200.00
 Alabama             Vegetable
                     Box
Food Bank of North  Fresh Fruit/   South East     Gadsden      AL              35901        672       $13,440.00
 Alabama             Vegetable
                     Box
Food Bank of North  Dairy          South West     Norfork      AR              72658      1,056       $48,322.56
 Central Arkansas    Products Box
Food Bank of North  Fresh Fruit/   South West     Norfork      AR              72658      1,560       $39,000.00
 Central Arkansas    Vegetable
                     Box
Food Bank of North  Precooked      South West     Norfork      AR              72658      4,466      $460,667.90
 Central Arkansas    Meat Box
Food Bank of North  Dairy          Midwest        South Bend   IN              46601      9,120      $228,000.00
 in South Bend       Products Box
Food Bank of North  Fluid Milk     Midwest        South Bend   IN              46601      1,072        $4,288.00
 in South Bend
Food Bank of North  Precooked      Midwest        South Bend   IN              46601      1,270       $48,514.00
 in South Bend       Meat Box
Food Bank of        Fluid Milk     South West     Monroe       LA              71203      2,688        $7,848.96
 Northe
Food Bank of        Combination    South East     Clayton      GA              30525      1,680      $127,764.00
 Northeast Georgia   Box
Food Bank of        Fresh Fruit/   Midwest        Indianapoli  IN              46241      1,960       $29,302.00
 Northern Illinois   Vegetable                     s
                     Box
Food Bank of        Fresh Fruit/   Western        Mccarren     Nv              89434      2,640       $58,740.00
 Northern Nevada     Vegetable
                     Box
Food Bank of        Fresh Fruit/   Western        Mccarren     Nv              89437      3,960       $88,110.00
 Northern Nevada     Vegetable
                     Box
Food Bank of        Dairy          Midwest        Merrillvill  IN              46410      5,808      $145,200.00
 Northwest Indiana   Products Box                  e
Food Bank of        Fluid Milk     Midwest        Merrillvill  IN              46410     17,280       $57,369.60
 Northwest Indiana                                 e
Food Bank of        Fresh Fruit/   Midwest        Merrillvill  IN              46410      4,540       $81,720.00
 Northwest Indiana   Vegetable                     e
                     Box
Food Bank of        Precooked      South West     Minden       LA              71055        720       $85,348.80
 Northwest           Meat Box
 Louisiana
Food Bank of        Precooked      South West     Shreveport   LA              71103      1,593      $188,834.22
 Northwest           Meat Box
 Louisiana
Food Bank of NWI    Precooked      Midwest        Crown Point  IN              46307        225       $11,441.25
                     Meat Box
Food Bank of Santa  Fresh Fruit/   Western        Santa Maria  CA              93455      3,900       $86,775.00
 Barbara             Vegetable
                     Box
Food Bank of Santa  Fresh Fruit/   Western        Santa Cruz   CA              95076      7,700      $107,800.00
 Cruz County         Vegetable
                     Box
Food Bank of Santa  Fluid Milk     Western        Santa Maria  CA              93455      1,050       $10,489.50
 Maria
Food Bank of SE     Dairy          Mid-Atlantic   Norfolk      VA              23504      4,368      $141,610.56
 Virginia            Products Box
Food Bank of SE     Precooked      Mid-Atlantic   Norfolk      VA              23504      1,274       $51,393.16
 Virginia            Meat Box
Food Bank of        Fresh Fruit/   Midwest        Sioux City   IA              51105      2,992       $54,784.00
 Siouxland           Vegetable
                     Box
Food Bank of        Precooked      Midwest        Sioux City   IA              51105      2,830      $124,627.50
 Siouxland           Meat Box
Food Bank of South  Fluid Milk     Mid-Atlantic   Pennsauken   NJ              08110        480        $5,649.60
 Jersey
Food Bank of South  Dairy          Midwest        Battle       MI              49014        768       $19,200.00
 MI                  Products Box                  Creek
Food Bank of        Fresh Fruit/   Western        Long Beach   CA              90813      3,960       $88,110.00
 Southern            Vegetable
 California          Box
Food Bank of SW     Fluid Milk     Mid-Atlantic   Norfolk      VA              23504      2,304        $8,885.76
 Virginia
Food Bank of the    Fluid Milk     South West     Victoria     TX              77901      6,048       $18,411.84
 Golden Crescent
Food Bank of the    Fresh Fruit/   South West     Victoria     TX              77901      8,820      $162,187.20
 Golden Crescent     Vegetable
                     Box
Food Bank of the    Precooked      South West     Victoria     TX              77901      8,030      $429,146.66
 Golden Crescent     Meat Box
Food Bank of the    Fresh Fruit/   Mountain       Omaha        NE              68127     22,212      $577,830.96
 Heartland           Vegetable      Plains
                     Box
Food Bank of the    Fluid Milk     North East     Cornwall on  NY              12520        480       $14,870.40
 Hudson Valley                                     Hudson
Food Bank of the    Fluid Milk     Mountain       Denver       Co              80239     76,120      $190,300.00
 Rockies                            Plains
Food Bank of the    Fresh Fruit/   Mountain       Denver       Co              80239        199        $3,582.00
 Rockies             Vegetable      Plains
                     Box
Food Bank of the    Fresh Fruit/   Mountain       Palisade     Co              81526      2,184       $56,565.60
 Rockies             Vegetable      Plains
                     Box
Food Bank of the    Precooked      Mountain       Denver       Co              80238     46,869    $1,714,274.53
 Rockies             Meat Box       Plains
Food Bank of the    Fresh Fruit/   North East     Elmira       NY              14903      8,190      $192,465.00
 Southern Tier       Vegetable
                     Box
Food Bank of West   Fluid Milk     South West     Abilene      TX              79603      2,530        $7,387.60
Food Bank of        Fresh Fruit/   North East     Chicopee     MA              01020        320       $12,800.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Easthampton  MA              01027        175        $7,000.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Holyoke      MA              01040        119        $4,760.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Westfield    MA              01085        232        $9,280.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01103        100        $4,000.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01104        223        $8,920.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01105        276       $11,040.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01107        320       $12,800.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01108        202        $8,080.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01109        270       $10,800.00
 Western MA          Vegetable
                     Box
Food Bank of        Fresh Fruit/   North East     Springfield  MA              01118        124        $4,960.00
 Western MA          Vegetable
                     Box
Food Bank of        Fluid Milk     North East     Hatfield     MA              01038      1,728        $9,192.96
 Western
 Massachusetts
Food Bank of        Fresh Fruit/   North East     Hatfield     MA              01038     14,983      $372,900.80
 Western             Vegetable
 Massachusetts       Box
Food Bank of        Precooked      North East     Hatfield     MA              01038      2,496       $49,920.00
 Western             Meat Box
 Massachusetts
Food Bank Raleigh   Fluid Milk     South East     Raleigh      NC              27604     17,712       $68,899.68
Food Bank Rio       Fluid Milk     South West     Pharr        TX              78577     52,576      $153,521.92
 Grand
Food Bank           Fluid Milk     South East     Southern     NC              28387      4,104       $16,029.36
 Sandhills                                         Pines
Food Bank           Fresh Fruit/   South East     Southern     NC              28387      2,400       $27,600.00
 Sandhills           Vegetable                     Pines
                     Box
Food Bank South     Fresh Fruit/   Midwest        Indianapoli  IN              46241      1,540       $55,409.20
 Bend                Vegetable                     s
                     Box
Food Bank Vineland  Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08360        252        $4,775.40
 Greater             Vegetable
 Deliverance         Box
Food Bank Vineland  Precooked      Mid-Atlantic   Vineland     NJ              08360        120        $7,422.00
 Greater             Meat Box
 Deliverance
Food Bank Vineland  Combination    Mid-Atlantic   Vineland     NJ              08360         60        $5,700.00
 Higher Ministries   Box
Food Bank Vineland  Dairy          Mid-Atlantic   Vineland     NJ              08360        240        $9,600.00
 Higher Ministries   Products Box
Food Bank Vineland  Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08360        126        $2,387.70
 Higher Ministries   Vegetable
                     Box
Food Bank Vineland  Precooked      Mid-Atlantic   Vineland     NJ              08360        240       $14,844.00
 Higher Ministries   Meat Box
Food Bank/Feedmore  Fresh Fruit/   North East     Buffalo      NY              14206      8,000      $182,800.00
 of WNY              Vegetable
                     Box
Food Bank/Feedmore  Fresh Fruit/   North East     Buffalo      NY              14207        300        $6,855.00
 of WNY              Vegetable
                     Box
Food Box Openlands  Combination    Midwest        Chicago      IL              60827        150        $9,571.00
                     Box
Food Box Openlands  Fresh Fruit/   Midwest        Chicago      IL              60827         75        $4,804.50
                     Vegetable
                     Box
Food Box Openlands  Precooked      Midwest        Chicago      IL              60827         75        $5,367.75
                     Meat Box
Food Box Program    Fluid Milk     South West     Phoenix      AZ              85009        864        $4,060.80
 GH Dairy
Food Box Program    Fluid Milk     South West     Yuma         AZ              85365      1,440        $6,768.00
 GH Dairy
Food Box--Eastern   Fluid Milk     Midwest        Urbana       IL              61801        603        $1,356.75
 IL Food
Food Box--His       Fluid Milk     Midwest        Mt. Vernon   IL              62864        225          $506.25
 Hands Food
Food Depot          Fluid Milk     South West     Santa Fe     NM              87507      4,800       $23,520.00
Food Dignity        Fresh Fruit/   Mid-Atlantic   Kingston     PA              18704      2,000       $50,000.00
 Project Inc.        Vegetable
                     Box
Food Finder Food    Combination    Midwest        Lafayette    IN              47904      9,952    $1,492,800.00
 Bank Laf.           Box
Food Finder Food    Dairy          Midwest        Lafayette    IN              47904      8,568      $214,200.00
 Bank Laf.           Products Box
Food Finder Food    Fluid Milk     Midwest        Lafayette    IN              47904      1,712        $6,848.00
 Bank Laf.
Food Finder Food    Precooked      Midwest        Lafayette    IN              47904      3,539      $168,137.63
 Bank Laf.           Meat Box
Food Finders        Combination    Western        Lakewood     CA              90712      4,162      $159,262.40
                     Box
Food Finders        Fresh Fruit/   Western        Lakewood     CA              90712     50,680      $760,200.00
                     Vegetable
                     Box
Food for Families   Dairy          South West     Bullhead     AZ              86442        684       $18,126.00
                     Products Box                  City
Food for Families   Fresh Fruit/   South West     Bullhead     AZ              86442        836       $18,266.60
                     Vegetable                     City
                     Box
Food for Families   Combination    Western        Gresham      OR              97030        180        $6,300.00
                     Box
Food for Families   Fresh Fruit/   Western        Gresham      OR              97030        360        $9,720.00
                     Vegetable
                     Box
Food for Free       Fresh Fruit/   North East     Cambridge    MA              02139     11,432      $293,506.80
                     Vegetable
                     Box
Food for Greater    Fresh Fruit/   Midwest        Elgin        IL              60123        100        $2,750.00
 Elgin               Vegetable
                     Box
Food for Lane       Combination    Western        Eugene       OR              97402      7,020      $245,700.00
 County              Box
Food for Lane       Dairy          Western        Eugene       OR              97402      1,650       $49,500.00
 County              Products Box
Food for Lane       Fluid Milk     Western        Eugene       OR              97402        525        $2,782.50
 County
Food for Lane       Fresh Fruit/   Western        Eugene       OR              97402      6,610      $178,470.00
 County              Vegetable
                     Box
Food for Life       Precooked      South East     Miami        FL              33137        125        $4,011.00
 Network             Meat Box
Food for Morgan     Fluid Milk     Mountain       Versailles   MO              65084      1,284        $2,889.00
 County                             Plains
Food for Morgan     Fresh Fruit/   Mountain       Versailles   MO              65084        297        $8,167.50
 County              Vegetable      Plains
                     Box
Food for Others     Fresh Fruit/   Mid-Atlantic   Fairfax      VA              22031      4,050       $81,000.00
                     Vegetable
                     Box
Food for the        Fresh Fruit/   South West     Dallas       TX              75247     24,104      $409,526.96
 Soul's Dallas       Vegetable
 War.                Box
Food for Thought    Fresh Fruit/   South East     Destin       FL              32541        100        $2,900.00
                     Vegetable
                     Box
Food for Thought    Fresh Fruit/   South East     Santa Rosa   FL              32459        150        $4,350.00
 Outreach            Vegetable                     Beach
                     Box
Food for Thought    Fresh Fruit/   South East     Fort Walton  FL              32549        600       $17,400.00
 Outreach            Vegetable                     Beach
                     Box
Food Forward        Combination    Western        Hesperia     CA              92345     24,273      $942,005.70
                     Box
Food Forward        Fresh Fruit/   Western        Los Angeles  CA              90040    151,184    $1,812,696.16
                     Vegetable
                     Box
Food Forward        Fresh Fruit/   Western        Bell         CA              90201    126,000    $1,921,500.00
                     Vegetable                     Gardens
                     Box
Food Forward        Fresh Fruit/   Western        Ventura      CA              93001      1,044       $17,748.00
                     Vegetable
                     Box
Food Forward        Fresh Fruit/   Western        Ventura      CA              93003        500       $18,000.00
                     Vegetable
                     Box
Food Forward        Fresh Fruit/   Western        Moorpark     CA              93021        480        $8,160.00
                     Vegetable
                     Box
Food Forward        Fresh Fruit/   Western        Simi Valley  CA              93065      1,008       $17,136.00
                     Vegetable
                     Box
Food Gatherers      Dairy          Midwest        Ann Arbor    MI              48103      7,500      $182,025.00
 Food Bank           Products Box
Food Gatherers      Dairy          Midwest        Ann Arbor    MI              48105      1,392       $34,800.00
 Food Bank           Products Box
Food Gatherers      Fluid Milk     Midwest        Ann Arbor    MI              48105      5,823       $13,101.75
 Food Bank
Food Gatherers      Fresh Fruit/   Midwest        Ann Arbor    MI              48103      2,700       $44,955.00
 Food Bank           Vegetable
                     Box
Food Gatherers      Fresh Fruit/   Midwest        Ann Arbor    MI              48105      5,645       $88,809.05
 Food Bank           Vegetable
                     Box
Food Gatherers      Fresh Fruit/   Midwest        Ann Arbor    MI              48113        420       $15,111.60
 Food Bank           Vegetable
                     Box
Food Gatherers      Precooked      Midwest        Ann Arbor    MI              48103      1,832       $57,056.60
 Food Bank           Meat Box
Food Gatherers      Dairy          Midwest        Ann Arbor    MI              48105      1,000       $29,000.00
 Warehouse           Products Box
Food Life Line      Fresh Fruit/   Western        Spokane      WA              99202      1,568       $31,312.96
                     Vegetable
                     Box
Food Lifeline       Combination    Western        Seattle      WA              98108      8,600      $301,000.00
 Seattle             Box
Food Lifeline       Combination    Western        Seattle      WA              98108        420       $14,700.00
 Seattle             Box
Food Lifeline       Dairy          Western        Seattle      WA              98108     18,358      $560,678.40
 Seattle             Products Box
Food Lifeline       Fluid Milk     Western        Seattle      WA              98108     14,496       $74,832.96
 Seattle
Food Lifeline       Fresh Fruit/   Western        Seattle      WA              98108     63,302    $1,372,034.44
 Seattle             Vegetable
                     Box
Food Lifeline--     Fresh Fruit/   Western        Burien       WA              98168      1,309       $25,368.42
 Seattle             Vegetable
                     Box
Food Link           Fresh Fruit/   North East     Arlington    MA              02472         40        $1,137.60
                     Vegetable
                     Box
Food Link           Fresh Fruit/   Western        Sacramento   CA              95828      1,456       $46,592.00
 California          Vegetable
                     Box
Food Link NY        Fresh Fruit/   North East     Rochester    NY              14615        200        $4,570.00
                     Vegetable
                     Box
Food Net            Fresh Fruit/   Western        Los Angeles  CA              90063      1,950       $48,262.50
                     Vegetable
                     Box
Food on the Move    Dairy          South West     Tulsa        OK              74107      1,152       $52,715.52
                     Products Box
Food on the Move    Dairy          South West     Tulsa        OK              74126          1           $45.76
                     Products Box
Food on the Move    Fluid Milk     South West     Tulsa        OK              74107      1,082       $25,903.08
Food on the Move    Fresh Fruit/   South West     Tulsa        OK              74107      5,197       $85,093.10
                     Vegetable
                     Box
Food on the Move    Fresh Fruit/   South West     Tulsa        OK              74126      2,501       $24,269.10
                     Vegetable
                     Box
Food Pantries of    Fluid Milk     North East     Clifton      NY              12065        120        $3,717.60
 the Capital                                       Park
 Region
Food Pantry         Fresh Fruit/   Midwest        Newark       OH              43055        480        $6,720.00
 Network             Vegetable
                     Box
Food Pantry         Fresh Fruit/   Midwest        Newark       OH              43055      2,285       $42,552.50
 Network of          Vegetable
 Licking County      Box
Food Pantry Saint   Combination    Midwest        Chicago      IL              60415         50        $4,900.00
 Vincent De Paul     Box                           Ridge
Food Pantry SF      Fresh Fruit/   Western        San          CA              94107        140        $1,960.00
                     Vegetable                     Francisco
                     Box
Food Pantry SF      Fresh Fruit/   Western        San          CA              94107        700        $9,800.00
                     Vegetable                     Francisco
                     Box
Food Pantry United  Fresh Fruit/   Western        Merced       CA              95340      2,891       $82,844.23
                     Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Cincinnati   OH              45223        100        $2,875.00
 Cincinatti          Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Detroit      MI              48238      4,170      $119,887.50
 Detroit Moorish     Vegetable
 Temple              Box
Food Rescue ELMCOR  Fresh Fruit/   North East     Corona       NY              11368      3,950      $113,562.50
                     Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Ferndale     MI              48220        150        $4,312.50
 Ferndale Assb of    Vegetable
 God                 Box
Food Rescue Fort    Fresh Fruit/   Midwest        Fort Wayne   IN              46802      1,040       $29,900.00
 Wayne               Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Huntington   IN              46750        390       $11,212.50
 Huntington          Vegetable
                     Box
Food Rescue Jee     Fluid Milk     Midwest        Hamilton     OH              45013      1,368        $4,982.40
 Foods
Food Rescue Jee     Fresh Fruit/   Midwest        Hamilton     OH              45013      3,665      $105,368.75
 Foods               Vegetable
                     Box
Food Rescue of      Dairy          Midwest        Traverse     MI              48686        250        $7,250.00
 Northern Michigan   Products Box                  City
Food Rescue of      Fresh Fruit/   Midwest        Traverse     MI              48686      1,830       $38,877.50
 Northern Michigan   Vegetable                     City
                     Box
Food Rescue People  Fresh Fruit/   Midwest        Minneapolis  MN              55406      1,320       $37,950.00
 of Praise           Vegetable
                     Box
Food Rescue Ross    Fresh Fruit/   Midwest        Hamilton     OH              45013        500       $14,375.00
 High School         Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Detroit      MI              48211        300        $8,625.00
 Russell St.         Vegetable
 Baptist             Box
Food Rescue Tcf     Fresh Fruit/   Midwest        Detroit      MI              48226      7,130      $204,987.50
 Center              Vegetable
                     Box
Food Rescue         Fresh Fruit/   Midwest        Highland     MI              48203        400       $11,500.00
 Triumphant Life     Vegetable                     Park
 Church              Box
Food Rescue True    Fresh Fruit/   Midwest        Detroit      MI              48224        200        $5,750.00
 Rock Church         Vegetable
                     Box
Food Rescue Well    Fresh Fruit/   Midwest        Fort Wayne   IN              46802      1,850       $53,187.50
 Springs             Vegetable
                     Box
Food Resource Turn  Fluid Milk     Western        Milwaukie    OR              97222        525        $2,782.50
 Point
Food Share          Combination    North East     Hartford     CT              06114     32,256      $349,655.04
                     Box
Food Share          Dairy          North East     Hartford     CT              06114     44,000    $1,480,160.00
                     Products Box
Food Share          Dairy          North East     Hartford     CT              06114     26,184      $892,749.28
                     Products Box
Food Share          Dairy          North East     Hartford     CT              06115      2,912       $95,571.84
                     Products Box
Food Share          Fluid Milk     North East     Hartford     CT              06114     12,672       $67,415.04
Food Share          Fresh Fruit/   North East     Hartford     CT              06114      3,024       $71,064.00
                     Vegetable
                     Box
Food Share          Precooked      North East     Hartford     CT              06114      5,455      $311,013.86
                     Meat Box
Food Share of       Combination    Western        Newport      OR              97365        360       $12,600.00
 Lincoln Cty.        Box
Food Share of       Fresh Fruit/   Western        Oxnard       CA              93033      3,375       $74,250.00
 Ventura County      Vegetable
 College Park        Box
Food Share of       Fresh Fruit/   Western        Oxnard       CA              93033      3,000       $66,000.00
 Ventura County      Vegetable
 Helen's Ranch       Box
Food Share Ventura  Dairy          Western        Oxnard       CA              93036      1,300       $41,600.00
 County              Products Box
Food Share Ventura  Fresh Fruit/   Western        Ventura      CA              93001      1,180       $26,185.00
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Fillmore     CA              93015      3,440       $78,430.00
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Ojai         CA              93023        810       $17,882.50
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Oxnard       CA              93030        400        $6,300.00
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Oxnard       CA              93033        450        $7,462.50
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Oxnard       CA              93036        220        $4,015.00
 County              Vegetable
                     Box
Food Share Ventura  Fresh Fruit/   Western        Santa Paula  CA              93060        400        $6,300.00
 County              Vegetable
                     Box
Food Share Whse     Fluid Milk     Western        Oxnard       CA              93036      8,400       $83,916.00
Food--Rescue--Chic  Fresh Fruit/   Midwest        Chicago      IL              60651      1,430       $41,112.50
 ago                 Vegetable
                     Box
Food--Rescue--Chic  Fresh Fruit/   Midwest        Chicago      IL              60647        650       $18,687.50
 ago--Dream--Cente   Vegetable
 r                   Box
Food--Rescue--Gap-  Fresh Fruit/   Midwest        Chicago      IL              60639        770       $22,137.50
 -Community--Cente   Vegetable
 r                   Box
Food--Rescue--Pils  Fresh Fruit/   Midwest        Chicago      IL              60608        200        $5,750.00
 ens--Food--Pantry   Vegetable
                     Box
Food4Life           Fresh Fruit/   South East     Atlanta      GA              30307      1,947       $38,940.00
                     Vegetable
                     Box
Foodbank of         Fresh Fruit/   Mid-Atlantic   Harrisburg   PA              17109     19,530      $370,093.50
 Harrisburg          Vegetable
                     Box
Foodlink            Fresh Fruit/   Western        Sacramento   CA              95828      1,456       $29,076.32
                     Vegetable
                     Box
Foodlink            Fresh Fruit/   Western        Sacramento   CA              95828     10,640      $212,480.80
 Sacramento          Vegetable
                     Box
Foodshare           Fluid Milk     North East     Bloomfield   CT              06002      4,224       $22,471.68
Foodshare           Fresh Fruit/   North East     East         CT              06118     33,096      $775,672.80
                     Vegetable                     Hartford
                     Box
Foodshare           Precooked      North East     Bloomfield   CT              06002      2,816      $203,737.60
                     Meat Box
Foodshare--Rentsch  Fresh Fruit/   North East     East         CT              06118      1,512       $35,532.00
 ler Field           Vegetable                     Hartford
                     Box
Foodshare           Combination    North East     East         CT              06118      4,576      $160,908.80
 Bloomfield          Box                           Hartford
Foodshare           Precooked      North East     East         CT              06118        540       $29,322.00
 Bloomfield          Meat Box                      Hartford
Foothills Church    Combination    Western        Boise        ID              83714        120        $5,280.00
                     Box
Foothills           Fluid Milk     Western        Molalla      OR              97038        525        $2,782.50
 Community Church
Foothills Rcmo      Combination    North East     Holland      NY              13354        200       $10,350.00
                     Box                           Patent
Foothills Rcmo      Precooked      North East     Holland      NY              13354        200       $15,000.00
                     Meat Box                      Patent
For Oak Cliff       Combination    South West     Dallas       TX              75216        400       $13,988.00
 Services of Hope    Box
For Oak Cliff       Dairy          South West     Dallas       TX              75216        400       $18,304.00
 Services of Hope    Products Box
For Oak Cliff       Fresh Fruit/   South West     Dallas       TX              75216      3,710       $70,665.00
 Services of Hope    Vegetable
                     Box
For Oak Cliff       Precooked      South West     Dallas       TX              75216      1,519      $156,684.85
 Services of Hope    Meat Box
For the Kingdom--C/ Fresh Fruit/   South East     Memphis      TN              38128      3,996       $97,902.00
 O Mid South Food    Vegetable
 Bank                Box
For the Nations     Dairy          South West     Garland      TX              75042        130        $5,948.80
 Refugee Outreach    Products Box
Ford Community and  Fresh Fruit/   Midwest        Dearborn     MI              48126      1,200       $17,940.00
 Performing Arts     Vegetable
                     Box
Ford Recreation     Fresh Fruit/   Midwest        Detroit      MI              48205        100        $1,495.00
 and Education       Vegetable
 Center              Box
Ford Resources &    Fresh Fruit/   Midwest        Detroit      MI              48205        100        $1,495.00
 Engagement Center   Vegetable
                     Box
Fordson             Fresh Fruit/   Midwest        Dearborn     MI              48126        400        $8,450.00
                     Vegetable
                     Box
Forever and Always  Fresh Fruit/   South East     Dora         AL              35062      5,050      $130,981.00
 Patriots            Vegetable
                     Box
Forgotten Harvest   Dairy          Midwest        Oak Park     MI              48237     46,280    $1,559,183.60
 Food Bank           Products Box
Forgotten Harvest   Dairy          Midwest        Oak Park     MI              48243      4,160      $140,400.00
 Food Bank           Products Box
Forgotten Harvest   Fluid Milk     Midwest        Oak Park     MI              48237     24,300       $54,675.00
 Food Bank
Forgotten Harvest   Fresh Fruit/   Midwest        Oak Park     MI              48237     13,370      $199,881.50
 Food Bank           Vegetable
                     Box
Forgotten Harvest   Precooked      Midwest        Oak Park     MI              48237     22,556    $1,075,695.64
 Food Bank           Meat Box
Forgotten Harvest   Precooked      Midwest        Oak Park     MI              48237     16,980    $1,155,327.96
 Food Rescue         Meat Box
Forgotton Harvest-- Precooked      Midwest        Royal Oak    MI              48073      7,980      $380,566.20
 R.O.                Meat Box
Fork YMCA           Fresh Fruit/   Mid-Atlantic   Easton       PA              18040        280        $5,600.00
                     Vegetable
                     Box
Fort Bend Womens    Fresh Fruit/   South West     Richmond     TX              77469        112        $1,902.88
 Shelter             Vegetable
                     Box
Fort Osage          Combination    Mountain       Independenc  MO              64058      2,100       $73,437.00
 Foundation          Box            Plains         e
Fort Osage          Dairy          Mountain       Independenc  MO              64058        480       $21,964.80
 Foundation          Products Box   Plains         e
Fort Osage          Fresh Fruit/   Mountain       Independenc  MO              64058      4,524       $74,332.80
 Foundation          Vegetable      Plains         e
                     Box
Fort Osage          Precooked      Mountain       Independenc  MO              64058      5,969      $203,117.60
 Foundation          Meat Box       Plains         e
Fort Osage School   Precooked      Mountain       Independenc  MO              64058      3,485      $145,335.55
 Foodservice         Meat Box       Plains         e
Fort Peck/Wolf      Combination    Mountain       Wolf Point   MT              59201      2,184      $104,832.00
 Point Food Pant     Box            Plains
Fort Worth Hope     Fluid Milk     South West     Fort Worth   TX              76119      2,164        $6,318.88
 Center
Fort Worth Hope     Fresh Fruit/   South West     Fort Worth   TX              76119      3,264       $55,455.36
 Center              Vegetable
                     Box
Fort Worth Hope     Precooked      South West     Fort Worth   TX              76119      1,568      $161,739.20
 Center              Meat Box
Forum Christian     Dairy          Mountain       Columbia     MO              65203        768       $35,143.68
 Church              Products Box   Plains
Forum Christian     Fresh Fruit/   Mountain       Columbia     MO              65203        539       $10,294.90
 Church              Vegetable      Plains
                     Box
Foster Nation       Fresh Fruit/   Western        Pacoima      CA              91331        560       $14,000.00
                     Vegetable
                     Box
Foster Village/     Fluid Milk     South West     Buda         TX              78610        180          $525.60
 Hatcreek
Foundation          Fluid Milk     South West     Bastrop      TX              78602      4,320       $12,614.40
 Christian
 Ministries
Foundation for      Fresh Fruit/   Mid-Atlantic   Culebra      PR              00775      2,800      $112,000.00
 Better P.R.         Vegetable
                     Box
Foundation of       Fresh Fruit/   Midwest        Detroit      MI              48213        300        $8,625.00
 Truth Christian     Vegetable
                     Box
Fountain City       Combination    South East     Columbus     GA              31901      1,344      $102,211.20
 Church              Box
Fountain Community  Fresh Fruit/   Mid-Atlantic   Upper        MD              20774      1,800       $36,000.00
 Enrichment          Vegetable                     Marlboro
                     Box
Fountain of Hope    Fresh Fruit/   South East     Atlanta      GA              30318      3,000       $84,000.00
                     Vegetable
                     Box
Fountain of Life    Fresh Fruit/   South East     Halls        TN              38040        756       $18,522.00
 Cogic--C/O Mid      Vegetable
 South Food Bank     Box
Four Oaks           Fresh Fruit/   South East     Four Oaks    NC              27524        200        $2,300.00
 Elementary          Vegetable
                     Box
Foursquare Church   Dairy          South West     Mena         AR              71953      1,632       $74,680.32
 the Crossing        Products Box
Foursquare Church   Fluid Milk     South West     Mena         AR              71953        810       $19,391.40
 the Crossing
Foursquare Church   Fresh Fruit/   South West     Mena         AR              71953      3,332       $66,316.60
 the Crossing        Vegetable
                     Box
Fowler Bonan        Dairy          Midwest        Harrisburg   IL              62946        400       $11,900.00
 Foundation          Products Box
Fowler Bonan        Fresh Fruit/   Midwest        Harrisburg   IL              62946        400       $11,000.00
 Foundation          Vegetable
                     Box
Fowlerville High    Fresh Fruit/   Midwest        Fowlerville  MI              48836        250        $3,737.50
 School              Vegetable
                     Box
Fr. Mike Wittman    Dairy          Midwest        East         OH              44112         30          $750.00
                     Products Box                  Cleveland
Framingham High     Fresh Fruit/   North East     Framingham   MA              01701        280        $6,146.00
 School              Vegetable
                     Box
Francis Howell/Stl  Fresh Fruit/   Mountain       St. Charles  MO              63304        540       $17,280.00
 Food Bank           Vegetable      Plains
                     Box
Francis on the      Fresh Fruit/   Mid-Atlantic   Washington   Dc              20011      1,400       $28,000.00
 Hill                Vegetable
                     Box
Franciscan Center   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218      1,900       $38,000.00
                     Vegetable
                     Box
Franciscan House    Fluid Milk     Midwest        Chicago      IL              60612        180          $597.60
 of MJ
Franciscan          Fresh Fruit/   Midwest        Southfield   MI              48033      1,150       $29,612.50
 Outreach            Vegetable
                     Box
Franciscan          Combination    Midwest        Chicago      IL              60612         22        $1,366.64
 Outreach Harrison   Box
 Shelter
Franciscan          Fresh Fruit/   Midwest        Chicago      IL              60612         66        $4,227.96
 Outreach Harrison   Vegetable
 Shelter             Box
Franciscan          Combination    Midwest        Chicago      IL              60608         18        $1,163.70
 Outreach Pilsen     Box
 Shelter
Franciscan          Fresh Fruit/   Midwest        Chicago      IL              60608         18        $1,153.08
 Outreach Pilsen     Vegetable
 Shelter             Box
Franconia           Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148        216        $4,963.68
 Mennonite           Vegetable                     a
 Conference          Box
Frank A. Sedita     Fresh Fruit/   North East     Buffalo      NY              14213        240        $5,484.00
 Academy             Vegetable
                     Box
Frank Gurich        Fresh Fruit/   South East     Biloxi       MS              39530        350       $21,000.00
 Community Amg Edu   Vegetable
                     Box
Frankenmuth High    Fresh Fruit/   Midwest        Frankenmuth  MI              48734      2,000       $41,375.00
 School              Vegetable
                     Box
Franklin            Fresh Fruit/   Midwest        Livonia      MI              48150      2,400       $50,700.00
                     Vegetable
                     Box
Franklin            Fresh Fruit/   North East     Buffalo      NY              14223      1,050       $23,992.50
 Elementary          Vegetable
                     Box
Franklin High       Fresh Fruit/   North East     Franklin     MA              02038        329        $7,221.55
 School              Vegetable
                     Box
Franklin Sr. Ctr.   Precooked      North East     Franklin     MA              02038         35        $1,900.50
                     Meat Box
Franklin Street     Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15902      2,200       $55,000.00
 United Methodist    Vegetable
 Church              Box
Franklin UMC        Fresh Fruit/   Mid-Atlantic   Churchton    MD              20733        250        $5,237.50
                     Vegetable
                     Box
Franklin Wright     Fresh Fruit/   Midwest        Detroit      MI              48207        530       $15,237.50
 Settlements         Vegetable
                     Box
Franklin/Grand      Fluid Milk     North East     St. Albans   VT              05478        336        $1,787.52
 Isle Community                                    City
 Action Center
Fraternidad         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        200        $4,190.00
 Cristiana           Vegetable
                     Box
Fraternity Notre    Dairy          Midwest        Chicago      IL              60644         50        $1,250.00
 Dame Box            Products Box
Frederick Rescue    Fresh Fruit/   Mid-Atlantic   Frederick    MD              21701      1,850       $38,520.00
 Mission             Vegetable
                     Box
Fredericksburg      Dairy          Mid-Atlantic   Fredericksb  VA              22408      6,846      $230,233.32
 Regional Food       Products Box                  urg
 Bank
Fredericksburg      Fluid Milk     Mid-Atlantic   Fredericksb  VA              22408      2,047       $51,715.44
 Regional Food                                     urg
 Bank
Fredericksburg      Fresh Fruit/   Mid-Atlantic   Fredericksb  VA              22408      6,120      $140,637.60
 Regional Food       Vegetable                     urg
 Bank                Box
Frederik Law        Fresh Fruit/   North East     Buffalo      NY              14215        300        $6,855.00
 Olmsted             Vegetable
                     Box
Free Chapel         Combination    South East     Gainesville  GA              30504      3,360      $255,528.00
                     Box
Free Chapel         Combination    South East     Atlanta      GA              30309      1,680      $127,764.00
 Midtown             Box
Free Chapel--       Combination    South East     Suwanee      GA              30024      1,680      $127,764.00
 Suwanee             Box
Free Meals on       Fluid Milk     Western        Richmond     CA              94804        288        $1,368.00
 Wheels
Free Meals on       Fresh Fruit/   Western        Richmond     CA              94801      2,878       $63,474.37
 Wheels              Vegetable
                     Box
Free Methodist      Dairy          Western        Madras       OR              97741        610       $18,300.00
 Church              Products Box
Free Methodist      Fresh Fruit/   Western        Madras       OR              97741        630       $29,610.00
 Church              Vegetable
                     Box
Free Store Food     Fresh Fruit/   Midwest        Cincinnati   OH              45229        384        $7,488.00
 Bank                Vegetable
                     Box
Free Store Food     Precooked      Midwest        Cincinnati   OH              45229      8,944      $610,733.60
 Bank                Meat Box
Freedom Ala Cart    Fresh Fruit/   Midwest        Columbus     OH              43220        192        $3,744.00
                     Vegetable
                     Box
Freedom Elementary  Fluid Milk     South East     Hopkinsvill  KY              42241      2,097        $4,718.25
                                                   e
Freedom Food        Fresh Fruit/   South West     Denton       TX              76205        112        $1,902.88
 Pantry              Vegetable
                     Box
Freedom Middle      Fresh Fruit/   South East     Stone        GA              30088        700       $13,258.00
 School              Vegetable                     Mountain
                     Box
Freeland Community  Fresh Fruit/   Midwest        Freeland     MI              48623      4,658      $167,594.84
 Schools             Vegetable
                     Box
Freer Real          Fresh Fruit/   South West     Freer        TX              78357        500       $12,500.00
                     Vegetable
                     Box
Freestore Foodbank  Fresh Fruit/   South East     Florence     KY              41042        560       $11,183.20
                     Vegetable
                     Box
Freestore Foodbank  Fresh Fruit/   Midwest        Cincinnati   OH              45216        500        $9,985.00
                     Vegetable
                     Box
Freestore Foodbank  Fresh Fruit/   Midwest        Cincinnati   OH              45224      1,408       $27,456.00
                     Vegetable
                     Box
Freestore           Fresh Fruit/   South East     Warsaw       KY              41095        420        $8,387.40
 Foodbank--Gallati   Vegetable
 n County High       Box
 School
Freestore           Fresh Fruit/   Midwest        Vevay        IN              47043        700       $13,979.00
 Foodbank--Switzer   Vegetable
 land County         Box
 Schools
Freetown COA        Combination    North East     East         MA              02717        100        $3,280.00
                     Box                           Freetown
Freetown COA        Precooked      North East     East         MA              02717        100        $5,430.00
                     Meat Box                      Freetown
Freeway Baptist     Fresh Fruit/   South West     Houston      TX              77075        128        $2,174.72
 Church              Vegetable
                     Box
Fresh Communities   Fluid Milk     South East     Waycross     GA              31501      8,640       $33,609.60
Fresh Fire Church   Dairy          Mid-Atlantic   Uniontown    PA              15401      2,400       $45,600.00
                     Products Box
Fresh Fire Church   Fluid Milk     Mid-Atlantic   Uniontown    PA              15401        878        $9,843.30
Fresh Fire          Fresh Fruit/   South West     Onalaska     TX              77360      1,536       $26,096.64
 Ekklissia Church    Vegetable
                     Box
Fresh Knolls        Fresh Fruit/   Midwest        Ypsilanti    MI              48197        550       $15,812.50
                     Vegetable
                     Box
Fresh Oil           Fresh Fruit/   South East     Gulfport     MS              39503        256        $4,326.40
 Ministries          Vegetable
                     Box
Fresh Oil           Precooked      South East     Gulfport     MS              39503      1,000       $41,060.00
 Ministries          Meat Box
Fresh Start         Fresh Fruit/   Mountain       Charleston   MO              63834        432       $13,824.00
 Improvement         Vegetable      Plains
                     Box
Fresh Wind          Fresh Fruit/   Midwest        Interlochen  MI              49643        189        $6,800.22
 Christian           Vegetable
 Community           Box
Fresno Rescue       Fresh Fruit/   Western        Fresno       CA              93716      3,080       $43,120.00
 Mission             Vegetable
                     Box
Fresno Rescue       Fresh Fruit/   Western        Fresno       CA              93716      6,024       $84,336.00
 Mission             Vegetable
                     Box
Friedens Church of  Dairy          Midwest        Irvington    IL              62848        120        $3,570.00
 Christ              Products Box
Friedens Church of  Fresh Fruit/   Midwest        Irvington    IL              62848        160        $4,400.00
 Christ              Vegetable
                     Box
Friendly Hands      Fresh Fruit/   North East     Waterbury    CT              06706      1,430       $41,112.50
 Brass City          Vegetable
                     Box
Friendly Hands      Fresh Fruit/   North East     Falls        CT              06031      1,200       $23,964.00
 Food Bank           Vegetable                     Village
                     Box
Friendly Hands      Fresh Fruit/   North East     Torrington   CT              06790      5,790      $166,462.50
 Food Bank           Vegetable
                     Box
Friendly Hands      Fresh Fruit/   North East     Waterbury    CT              06704      1,300       $25,961.00
 Foodbank            Vegetable
                     Box
Friendly House      Combination    North East     Worcester    MA              01604         60        $1,968.00
                     Box
Friendly House      Fresh Fruit/   North East     Worcester    MA              01604         80        $2,275.20
                     Vegetable
                     Box
Friendly House      Precooked      North East     Worcester    MA              01604         30        $1,629.00
                     Meat Box
Friendly Inn        Dairy          Midwest        Cleveland    OH              44104        260        $6,500.00
 Settlement          Products Box
Friendly Temple     Fresh Fruit/   Mountain       St. Louis    MO              63112      1,080       $34,560.00
 Church              Vegetable      Plains
                     Box
Friendly Temple/    Fresh Fruit/   Mountain       St. Louis    MO              63112        288        $9,216.00
 STL Food Bank       Vegetable      Plains
                     Box
Friends of          Combination    Mountain       Willow       MO              65793      2,208       $77,213.76
 Christian           Box            Plains         Springs
 Education
Friends of          Dairy          Mountain       Willow       MO              65793      1,056       $48,322.56
 Christian           Products Box   Plains         Springs
 Education
Friends of          Fluid Milk     Mountain       Willow       MO              65793        495       $11,850.30
 Christian                          Plains         Springs
 Education
Friends of          Fresh Fruit/   Mountain       Willow       MO              65793      1,889       $28,417.30
 Christian           Vegetable      Plains         Springs
 Education           Box
Friends of          Dairy          Mountain       Willow       MO              65793      1,056       $48,322.56
 Christian           Products Box   Plains         Springs
 Education
 Northbridge
Friends of Philly   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19143        140        $4,536.00
 Auto & Parole                                     a
Friends of Tampa    Fluid Milk     South East     Tampa        FL              33610         80          $303.20
Friends of the      Fresh Fruit/   South East     Alligator    MS              38720        360        $7,182.00
 Environment         Vegetable
                     Box
Friends of the      Fresh Fruit/   Mid-Atlantic   Carbondale   PA              18407      1,000       $25,000.00
 Poor                Vegetable
                     Box
Friends of the      Fresh Fruit/   Mid-Atlantic   Moosic       PA              18507      1,000       $25,000.00
 Poor                Vegetable
                     Box
Friends of the      Fresh Fruit/   Mid-Atlantic   Peckville    PA              18452      1,000       $25,000.00
 Poor                Vegetable
                     Box
Friends of the      Fresh Fruit/   Mid-Atlantic   Scranton     PA              18508      1,000       $25,000.00
 Poor                Vegetable
                     Box
Friends             Fluid Milk     Mid-Atlantic   Philadelphi  PA              19123        140        $4,536.00
 Rehabilitation                                    a
 Center
Friendship Baptist  Fluid Milk     South East     Homewood     AL              35209      1,164        $4,411.56
 Church
Friendship Baptist  Fresh Fruit/   South East     Homewood     AL              35209      1,040       $26,988.00
 Church              Vegetable
                     Box
Friendship Baptist  Fresh Fruit/   South East     Laurel       MS              39440        260       $15,600.00
 Church              Vegetable
                     Box
Friendship Baptist  Fresh Fruit/   South East     Duluth       GA              30096        280        $8,400.00
 Church of Duluth    Vegetable
                     Box
Friendship Central  Dairy          North East     Alfred       NY              14802        315       $13,923.00
 School              Products Box
Friendship Central  Dairy          North East     Cuba         NY              14727        300       $13,260.00
 School              Products Box
Friendship Central  Dairy          North East     Friendship   NY              14739        600       $26,520.00
 School              Products Box
Friendship Central  Dairy          North East     Houghton     NY              14744        300       $13,260.00
 School              Products Box
Friendship Central  Fresh Fruit/   North East     Friendship   NY              14739        800       $18,280.00
 School              Vegetable
                     Box
Friendship Central  Precooked      North East     Alfred       NY              14802        315       $17,199.00
 School              Meat Box
Friendship Central  Precooked      North East     Cuba         NY              14727        336       $18,345.60
 School              Meat Box
Friendship Central  Precooked      North East     Friendship   NY              14739        300       $16,380.00
 School              Meat Box
Friendship Central  Precooked      North East     Houghton     NY              14744        336       $18,345.60
 School              Meat Box
Friendship          Fresh Fruit/   South East     Anniston     AL              36201      1,800       $46,710.00
 Missionary          Vegetable
 Baptish Church      Box
Friendship One      Fresh Fruit/   South East     Wagram       NC              28396      1,000       $11,500.00
 Accord Wwd          Vegetable
                     Box
Friendship Village  Fresh Fruit/   Midwest        Kalamazoo    MI              49006        252        $9,066.96
 Kalamazoo           Vegetable
                     Box
Frisco Family       Fluid Milk     South West     Frisco       TX              75033        468        $1,382.80
 Services
Frisco Family       Fresh Fruit/   South West     Frisco       TX              75033        404        $6,863.96
 Services            Vegetable
                     Box
Front Steps         Precooked      Midwest        Cleveland    OH              44113        100        $4,669.00
 Housing Services    Meat Box
Frost Elementary    Dairy          Midwest        Jackson      MI              49203        520       $15,080.00
 School              Products Box
Frost Elementary    Fresh Fruit/   Midwest        Jackson      MI              49203        756       $27,200.88
 School              Vegetable
                     Box
Fruitport           Fresh Fruit/   Midwest        Fruitport    MI              49415        763       $27,452.74
 Community Schools   Vegetable
                     Box
FSD Acacia          Fresh Fruit/   Western        Fullerton    CA              92831        240        $6,000.00
                     Vegetable
                     Box
FSD Beechwood       Fresh Fruit/   Western        Fullerton    CA              92835        320        $8,000.00
                     Vegetable
                     Box
FSD Commonwealth    Fresh Fruit/   Western        Riverside    CA              92504        240        $6,000.00
                     Vegetable
                     Box
FSD Fern            Fresh Fruit/   Western        Fullerton    CA              92833        160        $4,000.00
                     Vegetable
                     Box
FSD Fisler          Fresh Fruit/   Western        Fullerton    CA              92833        320        $8,000.00
                     Vegetable
                     Box
FSD Golden Hill     Fresh Fruit/   Western        Fullerton    CA              92832        240        $6,000.00
                     Vegetable
                     Box
FSD Hermosa Drive   Fresh Fruit/   Western        Fullerton    CA              92835        160        $4,000.00
                     Vegetable
                     Box
FSD Laguna Road     Fresh Fruit/   Western        Fullerton    CA              92835        160        $4,000.00
                     Vegetable
                     Box
FSD Maple           Fresh Fruit/   Western        Fullerton    CA              92832        320        $8,000.00
                     Vegetable
                     Box
FSD Nicolas Jr.     Fresh Fruit/   Western        Fullerton    CA              92833        400       $10,000.00
 High                Vegetable
                     Box
FSD Orangethorpe    Fresh Fruit/   Western        Fullerton    CA              92833        400       $10,000.00
                     Vegetable
                     Box
FSD Raymond         Fresh Fruit/   Western        Fullerton    CA              92831        240        $6,000.00
                     Vegetable
                     Box
FSD Richman         Fresh Fruit/   Western        Fullerton    CA              92832        400       $10,000.00
                     Vegetable
                     Box
FSD Rolling Hills   Fresh Fruit/   Western        Fullerton    CA              92835        160        $4,000.00
                     Vegetable
                     Box
FSD Sunset Lane     Fresh Fruit/   Western        Fullerton    CA              92833        320        $8,000.00
                     Vegetable
                     Box
FSD Valencia Park   Fresh Fruit/   Western        Fullerton    CA              92833        320        $8,000.00
                     Vegetable
                     Box
FSD Woodcrest       Fresh Fruit/   Western        Fullerton    CA              92832        320        $8,000.00
                     Vegetable
                     Box
Ft. Lauderdale      Fresh Fruit/   South East     Fort         FL              33313      1,260       $40,950.00
 Manor Church of     Vegetable                     Lauderdale
 the Nazarene        Box
Ft. Madison Food    Dairy          Midwest        Fort         IA              52627      2,176       $54,400.00
 Pantry Box          Products Box                  Madison
FTB--in House       Fresh Fruit/   South East     Tampa        FL              33605     22,080      $574,080.00
                     Vegetable
                     Box
Fueled for School   Combination    Midwest        Noblesville  IN              46060      1,575      $236,250.00
                     Box
Fueled for School   Fluid Milk     Midwest        Noblesville  IN              46062     10,232       $40,928.00
Fulfill             Fresh Fruit/   Mid-Atlantic   Neptune      NJ              07753      3,456       $79,418.88
                     Vegetable
                     Box
Full Gospel         Combination    South West     Irving       TX              75061        400       $13,988.00
 Fellowship of       Box
 Church
Fulton Catholic     Fluid Milk     North East     Fulton       NY              13069        748       $23,173.04
 Charities
Fulton High School  Fluid Milk     Mountain       Fulton       MO              65251        792        $1,782.00
                                    Plains
Fulton McIntire     Fluid Milk     Mountain       Fulton       MO              65251        792        $1,782.00
 School                             Plains
Fulton Schools      Fresh Fruit/   Midwest        Carson City  MI              48811        574       $20,652.52
                     Vegetable
                     Box
Fulton Senior       Fluid Milk     Mountain       Fulton       MO              65251        603        $1,356.75
 Center                             Plains
Fundacion Abrazo    Combination    Mid-Atlantic   Patillas     PR              00723        672       $66,528.00
 De Amor             Box
Fundacion Banco     Combination    Mid-Atlantic   San Juan     PR              00907      4,032      $349,776.00
 Popular             Box
Fundacion Benefica  Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $66,528.00
 Posada Del Angel    Box
Fundacion Cortes    Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
                     Box
Fundacion De Amor   Combination    Mid-Atlantic   Aguirre      PR              00704        216       $21,384.00
 Valle De Caimital   Box
Fundacion Educamos  Combination    Mid-Atlantic   Corozal      PR              00783        672       $66,528.00
 Con Amor            Box
Fundacion Extiende  Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Tu Mano             Box
Fundacion Extra     Combination    Mid-Atlantic   Aguadilla    PR              00603        363       $35,937.00
 Bases               Box
Fundacion Extra     Combination    Mid-Atlantic   Aguadilla    PR              00605        106        $8,289.00
 Bases               Box
Fundacion Janet     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        184        $3,854.80
 Arce                Vegetable
                     Box
Fundacion Mmm       Combination    Mid-Atlantic   Bayamon      PR              00956         68        $6,732.00
                     Box
Fundacion Mmm       Combination    Mid-Atlantic   San Juan     PR              00920        900       $54,653.00
                     Box
Fundacion Mmm       Combination    Mid-Atlantic   San Juan     PR              00921      6,674      $656,953.00
                     Box
Fundacion Mmm       Combination    Mid-Atlantic   San Juan     PR              00936      4,805      $458,006.00
                     Box
Fundacion Naomi     Combination    Mid-Atlantic   Naranjito    PR              00719        672       $33,600.00
 Rivera              Box
Fundacion Por       Combination    Mid-Atlantic   Guayama      PR              00784      2,454      $188,850.00
 Puerto Rico         Box
Fundacion           Combination    South East     Miami        FL              33142      1,344      $102,211.20
 Rockinchaa Los      Box
 Ninos De LA Luz
Fundacion           Fresh Fruit/   South East     Doral        FL              33172      2,400       $26,040.00
 Rockinchaa Los      Vegetable
 Ninos De LA Luz     Box
Fundacion           Fresh Fruit/   South East     Miami        FL              33172     46,484      $813,271.76
 Rockinchaa Los      Vegetable
 Ninos De LA Luz     Box
Fundacion Sonell    Combination    Mid-Atlantic   Bayamon      PR              00956     13,344    $1,177,584.00
                     Box
Fundacion Sonell    Combination    Mid-Atlantic   Bayamon      PR              00961      4,662      $403,914.00
                     Box
Fundacion Sonell    Combination    Mid-Atlantic   Corozal      PR              00783      3,960      $349,704.00
                     Box
Fundacion Suenos    Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Inolvidables        Box
Fundacion           Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $124,824.00
 Wildflowers         Box
 Schools
Fundacion           Combination    Mid-Atlantic   San Juan     PR              00925      1,356      $113,664.00
 Wildflowers         Box
 Schools
Fundacion Yo Puedo  Combination    Mid-Atlantic   Manati       PR              00674      1,344       $91,896.00
                     Box
Fundesco Caguas     Combination    Mid-Atlantic   Caguas       PR              00725      1,620      $101,580.00
                     Box
FUSD AB Miller      Fresh Fruit/   Western        Fontana      CA              92336      2,080       $52,000.00
                     Vegetable
                     Box
FUSD Almeria MS     Fresh Fruit/   Western        Fontana      CA              92336      1,200       $30,000.00
                     Vegetable
                     Box
FUSD Beech          Fresh Fruit/   Western        Fontana      CA              92335      3,280       $82,000.00
 Elementary          Vegetable
                     Box
FUSD Fontana HS     Fresh Fruit/   Western        Fontana      CA              92335      3,360       $84,000.00
                     Vegetable
                     Box
FUSD Fontana MS     Fresh Fruit/   Western        Fontana      CA              92335      3,360       $84,000.00
                     Vegetable
                     Box
FUSD Juniper        Fresh Fruit/   Western        Fontana      CA              92336      2,400       $60,000.00
 Elementary          Vegetable
                     Box
FUSD Palmetto       Fresh Fruit/   Western        Fontana      CA              92335      2,880       $72,000.00
 Elementary          Vegetable
                     Box
FUSD Primrose       Fresh Fruit/   Western        Fontana      CA              92336      1,920       $48,000.00
 Elementary          Vegetable
                     Box
FUSD Redwood        Fresh Fruit/   Western        Fontana      CA              92335      1,920       $48,000.00
 Elementary          Vegetable
                     Box
FUSD Sierra Lakes   Fresh Fruit/   Western        Fontana      CA              92336      1,920       $48,000.00
 Elem                Vegetable
                     Box
FUSD Southridge MS  Fresh Fruit/   Western        Fontana      CA              92337      2,880       $72,000.00
                     Vegetable
                     Box
G St. Paul/         Fluid Milk     South East     Seville      FL              32190        120          $458.80
 Shfbve001
G. W. Carver        Fluid Milk     South East     Bassfield    MS              39421        744        $2,896.56
GA Food & Resource  Fluid Milk     South East     Hampton      GA              30228     21,312       $82,903.68
GA Nutritional      Fluid Milk     South East     Conyers      GA              30094        312        $1,227.28
GA Union            Combination    South East     Unadilla     GA              31091        560       $42,588.00
 Missionary          Box
 Baptist
 Association
Gabriels Place      Fluid Milk     Midwest        Cincinnati   OH              45229        720        $2,427.20
Gadsden State       Fluid Milk     South East     Quincy       FL              32351     38,880      $155,131.20
 Farme.
Gainesville Com.    Fluid Milk     South East     Gainesville  FL              32601        160          $606.40
Galapagos Charter   Fresh Fruit/   Midwest        Rockford     IL              61101        300       $19,218.00
 Academy             Vegetable
                     Box
Galapagos Charter   Combination    Midwest        Rockford     IL              61101        300       $20,154.00
 School              Box
Galapagos Charters  Fresh Fruit/   Midwest        Rockford     IL              61101        180       $11,530.80
 School              Vegetable
                     Box
Galapagos Lower     Combination    Midwest        Rockford     IL              61101        720       $45,333.60
                     Box
Galapagos Lower     Fluid Milk     Midwest        Rockford     IL              61101        100        $3,505.00
Galapagos Lower     Precooked      Midwest        Rockford     IL              61101        300       $21,471.00
                     Meat Box
Gale Ranch Mid.     Fresh Fruit/   Western        San Ramon    CA              94582        154        $4,147.22
 Sch.                Vegetable
                     Box
Galilee Baptist     Fresh Fruit/   South East     Birmingham   AL              35215        500       $12,975.00
 Church              Vegetable
                     Box
Galilee Missionary  Combination    South East     Florence     AL              35633      5,376      $408,844.80
 Baptist Church      Box
Galilee Missionary  Dairy          Midwest        Detroit      MI              48234        100        $2,900.00
 Baptist Church      Products Box
Galilee Missionary  Fresh Fruit/   Midwest        Detroit      MI              48234        700       $13,110.00
 Baptist Church      Vegetable
                     Box
Galilii Baptist     Fresh Fruit/   Midwest        Kalamazoo    MI              49007        850       $17,956.25
 Church              Vegetable
                     Box
Galion High School  Dairy          Midwest        Galion       OH              44833        600       $15,000.00
                     Products Box
Gallatin County     Dairy          South East     Warsaw       KY              41095        300        $7,500.00
 High School         Products Box
Gallatin Valley     Combination    Mountain       Bozeman      MT              59715        504       $24,192.00
 Food Bank           Box            Plains
Gallatin Valley     Fresh Fruit/   Mountain       Bozeman      MT              59715        672       $20,160.00
 Food Bank           Vegetable      Plains
                     Box
Galveston County    Fluid Milk     South West     Texas City   TX              77590     10,584       $31,782.24
 Food Bank
Galveston County    Fresh Fruit/   South West     Texas City   TX              77590      9,872      $197,143.84
 Food Bank           Vegetable
                     Box
Galveston County    Precooked      South West     Texas City   TX              77590      7,356      $250,398.24
 Food Bank           Meat Box
Gambrell Street     Combination    South West     Fort Worth   TX              76115        650       $22,730.50
 Baptist Church      Box
Gambrell Street     Dairy          South West     Fort Worth   TX              76115      1,000       $45,760.00
 Baptist Church      Products Box
Gambrell Street     Fresh Fruit/   South West     Fort Worth   TX              76115        850        $8,245.00
 Baptist Church      Vegetable
                     Box
Gang Free Inc.      Fresh Fruit/   South East     Henderson    NC              27536      1,588       $40,351.08
                     Vegetable
                     Box
Gansevoort          Combination    North East     Rome         NY              13440        200       $10,350.00
 Elementary          Box
Gansevoort          Fresh Fruit/   North East     Rome         NY              13440        200        $5,960.00
 Elementary          Vegetable
                     Box
Gap Community       Dairy          Midwest        Chicago      IL              60639      7,424      $220,864.00
 Center              Products Box
Gap Community       Fresh Fruit/   Midwest        Chicago      IL              60639      1,728       $47,520.00
 Center              Vegetable
                     Box
Garden City First   Fresh Fruit/   South East     Crestview    FL              32539        200        $5,800.00
 Baptist Church      Vegetable
                     Box
Garden City         Dairy          Mid-Atlantic   Monroeville  PA              15146         50        $1,051.50
 Methodist Church    Products Box
Garden of Health    Fresh Fruit/   Mid-Atlantic   Lansdale     PA              19446        216        $4,963.68
 Inc.                Vegetable
                     Box
Garden Valley       Dairy          Midwest        Cleveland    OH              44104        170        $4,250.00
 Neighborhood        Products Box
Gardendale First    Fresh Fruit/   South East     Gardendale   AL              35071        800       $20,760.00
 Baptist Church      Vegetable
                     Box
Gardens Elementary  Fresh Fruit/   South West     Pasadena     TX              77506        384        $6,524.16
                     Vegetable
                     Box
Gardner High Sch.   Fresh Fruit/   North East     Gardner      MA              01440      3,486       $76,517.70
                     Vegetable
                     Box
Garfield Center     Precooked      Midwest        Engadine     MI              49627         11          $403.40
                     Meat Box
Garfield            Fresh Fruit/   South West     Houston      TX              77034        336        $7,828.80
 Elementary          Vegetable
 Brighter            Box
Garfield Heights    Dairy          Midwest        Cleveland    OH              44125        195        $4,875.00
 City Schools        Products Box
Garfield Park       Fresh Fruit/   Midwest        Grand        MI              49507        300       $10,794.00
 Neighborhood        Vegetable                     Rapids
                     Box
Garfield Park       Fresh Fruit/   Midwest        Grand        MI              49503        882       $31,734.36
 Neighborhood        Vegetable                     Rapids
 Association         Box
Garfield YMCA       Fresh Fruit/   Mid-Atlantic   Garfield     NJ              07026        630       $11,938.50
                     Vegetable
                     Box
Garvey Elementary   Fluid Milk     Western        Rosemead     CA              91770        525        $3,990.00
 School District
Garvey Elementary   Fresh Fruit/   Western        Rosemead     CA              91770        210        $5,250.00
 School District     Vegetable
                     Box
Gary Knox           Fluid Milk     South West     Yuma         AZ              85364        150        $1,182.00
Gary Knox           Fresh Fruit/   South West     Yuma         AZ              85364        300        $8,250.00
                     Vegetable
                     Box
Gasconade Co. H/S   Fluid Milk     Mountain       Owensville   MO              65066         90          $202.50
 3015                               Plains
Gate of Heaven      Fresh Fruit/   Mid-Atlantic   Monessan     PA              15062        160        $4,800.00
 Church of God       Vegetable
                     Box
Gate of Heaven      Fresh Fruit/   Mid-Atlantic   Monessen     PA              15062        200        $6,000.00
 Church of God       Vegetable
                     Box
Gates County CSFP   Fresh Fruit/   South East     Gatesville   NC              27938        100        $3,571.00
                     Vegetable
                     Box
Gatesway            Fresh Fruit/   South West     Broken       OK              74145        588       $13,700.40
                     Vegetable                     Arrow
                     Box
Gateway A8098-01    Precooked      Mid-Atlantic   Bridgeton    NJ              08302        120        $7,422.00
                     Meat Box
Gateway Baptist     Fluid Milk     South West     Spring       TX              77386        150          $438.00
Gateway Baptist     Dairy          South East     Atoka        TN              38004        480       $12,000.00
 Church              Products Box
Gateway Center      Fresh Fruit/   South East     Atlanta      GA              30303        630       $11,932.20
                     Vegetable
                     Box
Gateway Church      Dairy          South West     Grapevine    TX              76051      2,000       $91,520.00
 Dallas              Products Box
Gateway Church      Fresh Fruit/   South West     Grapevine    TX              76051      4,280       $87,447.20
 Dallas              Vegetable
                     Box
Gateway Comm.       Fresh Fruit/   South East     Burgaw       NC              28425      3,200       $36,800.00
 Church              Vegetable
                     Box
Gateway Community   Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302      1,400       $28,000.00
 Action              Vegetable
 Partnership         Box
Gateway Fellowship  Fresh Fruit/   South West     San Antonio  TX              78023        840       $16,044.00
 Church              Vegetable
                     Box
Gateway Plaza       Fresh Fruit/   Mountain       Kansas City  KS              66101        320        $8,288.00
                     Vegetable      Plains
                     Box
Gateway United      Fresh Fruit/   South East     Gulfport     MS              39503        720       $12,168.00
 Methodist           Vegetable
                     Box
Gateway United      Precooked      South East     Gulfport     MS              39503        840       $34,490.40
 Methodist           Meat Box
Gathering Place     Combination    South West     Tulsa        OK              74114      2,496       $87,285.12
                     Box
Gathering Place     Dairy          South West     Tulsa        OK              74114      1,440       $65,894.40
                     Products Box
Gathering Place     Fluid Milk     South West     Tulsa        OK              74114      2,475       $59,251.50
Gathering Place     Fresh Fruit/   South West     Tulsa        OK              74114      9,787      $145,819.10
                     Vegetable
                     Box
Gautier First       Dairy          South East     Gautier      MS              39553        480       $13,478.40
 United Meth         Products Box
GCCARD Genessee     Dairy          Midwest        Flint        MI              49507        900       $26,100.00
 County              Products Box
GCCARD Genessee     Fresh Fruit/   Midwest        Flint        MI              49507        900       $19,800.00
 County              Vegetable
                     Box
GCFD                Fluid Milk     Midwest        Chicago      IL              60632        432       $12,955.68
GCFD                Precooked      Midwest        Chicago      IL              60632         72        $5,840.64
                     Meat Box
GCFD A Safe Haven   Precooked      Midwest        Chicago      IL              60608        100        $7,157.00
                     Meat Box
GCFD Beyond Hunger  Precooked      Midwest        Oak Park     IL              60301        100        $7,157.00
                     Meat Box
GCFD Bloom          Fresh Fruit/   Midwest        Chicago      IL              60661        360       $23,061.60
 Township            Vegetable
                     Box
GCFD Ebenezer       Fluid Milk     Midwest        Berwyn       IL              60402        180        $6,309.00
 Christian
GCFD FCHN Program   Fresh Fruit/   Midwest        Chicago      IL              60636         40        $2,562.40
 Sk                  Vegetable
                     Box
GCFD Healing        Fluid Milk     Midwest        Chicago      IL              60651         90        $3,154.50
 Temple
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60640         10          $350.50
 Thomas of
 Canterbury
GCFD Operation      Dairy          Midwest        Chicago      IL              60653         60        $3,909.00
 Pull Grant          Products Box
GCFD the            Fresh Fruit/   Midwest        Chicago      IL              60625         50        $3,203.00
 Friendship Center   Vegetable
 Pantry              Box
GCFD A Safe Haven   Combination    Midwest        Chicago      IL              60608         45        $3,023.10
                     Box
GCFD Abounding      Combination    Midwest        Posen        IL              60469        370       $23,971.10
 Life                Box
GCFD Alicia House   Dairy          Midwest        Chicago      IL              60411        305       $19,870.75
                     Products Box                  Heights
GCFD All Things     Combination    Midwest        Chicago      IL              60636        165       $10,781.10
 Through Christ      Box
GCFD Amor De Dios   Combination    Midwest        Chicago      IL              60623        300       $20,154.00
                     Box
GCFD Ashunti        Combination    Midwest        Chicago      IL              60644         90        $6,046.20
 Residential         Box
 Recovery
GCFD Back To God    Dairy          Midwest        Chicago      IL              60636        100        $6,515.00
 Church              Products Box
GCFD Beyond Hunger  Combination    Midwest        Oak Park     IL              60301         90        $6,046.20
                     Box
GCFD Bloom          Fresh Fruit/   Midwest        Chicago      IL              60411      1,080       $69,184.80
 Township            Vegetable                     Heights
                     Box
GCFD Boulevard of   Combination    Midwest        Chicago      IL              60624         90        $6,046.20
 Chicago             Box
GCFD Breakthrough   Combination    Midwest        Chicago      IL              60624         82        $5,508.76
 Urban Carrol        Box
GCFD Breakthrough   Combination    Midwest        Chicago      IL              60624         90        $6,046.20
 Urban Min Sh        Box
GCFD Calumet City   Fresh Fruit/   Midwest        Calumet      IL              60409        245       $15,694.70
 Resources           Vegetable                     City
                     Box
GCFD Carey          Fluid Milk     Midwest        Chicago      IL              60623         90        $3,154.50
 Tercentenary
GCFD Carlene S      Combination    Midwest        Chicago      IL              60619        220       $14,273.60
 Lily                Box
GCFD Carlene S      Fluid Milk     Midwest        Chicago      IL              60619         75        $2,578.15
 Lily
GCFD Cchc Amani     Combination    Midwest        Chicago      IL              60620         90        $6,046.20
 House               Box
GCFD Central        Combination    Midwest        Chicago      IL              60609         32        $2,149.76
 American Martyrs    Box
GCFD Centro         Fluid Milk     Midwest        Chicago      IL              60617        115        $3,904.25
 Communitario
GCFD Chicago Hope   Fresh Fruit/   Midwest        Chicago      IL              60647        360       $23,061.60
                     Vegetable
                     Box
GCFD Chosen         Combination    Midwest        Chicago      IL              60653        300       $20,154.00
 Tabernacle          Box
GCFD Christ         Combination    Midwest        Chicago      IL              60651        240       $15,870.20
 Evangelical         Box
GCFD Christ Life    Combination    Midwest        Chicago      IL              60617        290       $18,976.20
 Church              Box
GCFD Christ Temple  Precooked      Midwest        Chicago      IL              60609         60        $4,294.20
                     Meat Box
GCFD Colonial       Fresh Fruit/   Midwest        Chicago      IL              60628        465       $29,787.90
 Village             Vegetable
                     Box
GCFD Cornerstone    Combination    Midwest        Chicago      IL              60640        125        $8,397.50
 Community           Box
 Outreach
GCFD Covenant       Combination    Midwest        South        IL              60473        235       $15,230.70
 United              Box                           Holland
GCFD Deborahs       Combination    Midwest        Chicago      IL              60610         90        $6,046.20
 Place               Box
GCFD Emmanueal      Combination    Midwest        Chicago      IL              60411         90        $6,046.20
 Church              Box                           Heights
GCFD European       Combination    Midwest        Chicago      IL              60622        230       $15,451.40
 American            Box
GCFD Evangeline     Combination    Midwest        Chicago      IL              60640         90        $6,046.20
 Booth Lodge         Box
GCFD Evening Star   Combination    Midwest        Chicago      IL              60636        165       $11,084.70
                     Box
GCFD FCHN Program   Fresh Fruit/   Midwest        Chicago      IL              60636         80        $5,124.80
 Sk                  Vegetable
                     Box
GCFD Franciscan     Combination    Midwest        Chicago      IL              60608         90        $6,046.20
 CASA                Box
GCFD Franciscan     Combination    Midwest        Chicago      IL              60612         45        $3,023.10
 House of Mary &     Box
 Joseph
GCFD Franciscan     Combination    Midwest        Chicago      IL              60612         45        $3,023.10
 House of Mary and   Box
 Joseph
GCFD Good News      Combination    Midwest        Chicago      IL              60626         90        $6,046.20
 Partners Paulina    Box
GCFD Gorham United  Dairy          Midwest        Chicago      IL              60637         50        $3,257.50
 Methodist           Products Box
GCFD Gospel Way     Combination    Midwest        Chicago      IL              60617        320       $21,497.60
 Covenant            Box
GCFD Grace Central  Dairy          Midwest        Chicago      IL              60154        160       $10,424.00
 Outreach            Products Box
GCFD Grace          Combination    Midwest        Chicago      IL              60618        180       $12,092.40
 Evangelic           Box
GCFD Grace          Combination    Midwest        Chicago      IL              60618         90        $5,590.80
 Evangelical         Box
GCFD Grant A Wish   Combination    Midwest        Chicago      IL              60614         90        $6,046.20
                     Box
GCFD Grant A Wish   Combination    Midwest        Chicago      IL              60617        130        $8,404.50
                     Box
GCFD Greater St.    Combination    Midwest        Chicago      IL              60636         90        $6,046.20
 John                Box
GCFD Harvey House   Combination    Midwest        Chicago      IL              60426         90        $6,046.20
 Shelter             Box
GCFD Hazel Crest    Precooked      Midwest        Hazel Crest  IL              60429        100        $7,157.00
                     Meat Box
GCFD Headquarters   Fluid Milk     Midwest        Chicago      IL              60632        864       $30,283.20
GCFD Heritage       Combination    Midwest        Chicago      IL              60639         90        $6,046.20
 International       Box
GCFD Heritage       Combination    Midwest        Chicago      IL              60639        180       $12,092.40
 International       Box
GCFD Hyde Park      Combination    Midwest        Chicago      IL              60637         45        $3,023.10
 Kenwood             Box
GCFD Ignite         Combination    Midwest        Chicago      IL              60653         90        $6,046.20
                     Box
GCFD Immaculate     Fluid Milk     Midwest        Chicago      IL              60632        180        $6,309.00
 Conception
GCFD Inner City     Fluid Milk     Midwest        Chicago      IL              60619        216        $6,477.84
 Mission
GCFD Innercity      Combination    Midwest        Chicago      IL              60619        250       $16,795.00
 Mission             Box
GCFD                Combination    Midwest        Chicago      IL              60805         90        $6,046.20
 Interdependent      Box
 Living Solution
GCFD Jireh Food     Combination    Midwest        Chicago      IL              60623         50        $3,359.00
 Pantry              Box
GCFD Koinonia       Combination    Midwest        Chicago      IL              60620         40        $2,687.20
 Ministry            Box
GCFD la Casa Norte  Combination    Midwest        Chicago      IL              60647         45        $3,023.10
 2 California        Box
GCFD la Casa Norte  Combination    Midwest        Chicago      IL              60609         90        $6,046.20
 Inc.                Box
GCFD Little Bit of  Combination    Midwest        Chicago      IL              60628         40        $2,687.20
 Heaven              Box
GCFD Little         Fluid Milk     Midwest        Chicago      IL              60608         90        $3,154.50
 Brothers Friends
GCFD Manna Food     Fresh Fruit/   Midwest        Chicago      IL              60643        260       $16,655.60
 Pantry              Vegetable
                     Box
GCFD Margarets      Combination    Midwest        Chicago      IL              60617         45        $3,023.10
 Village Believe     Box
 Shelter
GCFD Margaret's     Combination    Midwest        Chicago      IL              60617         45        $3,023.10
 Village Believe     Box
 Shelter
GCFD Maria Shelter  Combination    Midwest        Chicago      IL              60621         90        $6,046.20
 Margarets Village   Box
GCFD Marillac       Fresh Fruit/   Midwest        Chicago      IL              60612        130        $8,327.80
 House               Vegetable
                     Box
GCFD Metropolitan   Combination    Midwest        Chicago      IL              60653         40        $2,586.00
 Community           Box
 Outreach
GCFD Milk Abundant  Fluid Milk     Midwest        Chicago      IL              60636         12          $420.60
 Life
GCFD Milk Albany    Fluid Milk     Midwest        Chicago      IL              60625         54        $1,892.70
 Park
GCFD Milk First     Fluid Milk     Midwest        Melrose      IL              60160         27          $809.73
 Baptist Church of                                 Park
 Mp
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60623         81        $2,565.81
 Garfield Mb
 Church
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60612         27          $809.73
 Holy Temple
GCFD Milk Little    Fluid Milk     Midwest        Chicago      IL              60607         27          $809.73
 Brothers Friends
GCFD Milk Little    Fluid Milk     Midwest        Chicago      IL              60608         27          $946.35
 Brothers Friends
GCFD Milk Marillac  Fluid Milk     Midwest        Chicago      IL              60612        108        $3,512.16
 House
GCFD Milk New       Fluid Milk     Midwest        Chicago      IL              60628         54        $1,892.70
 Tabernacle
 Baptist Church
GCFD Milk Safe      Fluid Milk     Midwest        Chicago      IL              60608        162        $5,678.10
 Haven
GCFD Milk SANAD     Fluid Milk     Midwest        Chicago      IL              60629        108        $3,785.40
GCFD Milk St.       Fluid Milk     Midwest        Harvey       IL              60426         79        $2,768.95
 Clements
GCFD Milk St. Mark  Fluid Milk     Midwest        Chicago      IL              60622         15          $449.85
GCFD Milk Together  Fluid Milk     Midwest        Tinley Park  IL              60477        108        $3,785.40
 We Cope
GCFD Milk Together  Fluid Milk     Midwest        Tinley Park  IL              60477        108        $3,785.40
 We Cope
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60621        162        $5,678.10
 Englewood Red
 Shield
GCFD Milk Village   Fluid Milk     Midwest        Evergreen    IL              60805         89        $2,942.35
 Pantry Coalition                                  Park
GCFD Milk VKMI      Fluid Milk     Midwest        Oak Forest   IL              60452         54        $1,892.70
 Hattie B Williams
GCFD Milk VKMI      Fluid Milk     Midwest        Posen        IL              60469         54        $1,619.46
 Hattie B Williams
GCFD Milk A Just    Fluid Milk     Midwest        Chicago      IL              60626         50        $1,499.50
 Harvest
GCFD Milk           Fluid Milk     Midwest        Posen        IL              60469        404       $13,957.80
 Abounding Life
GCFD Milk Abundant  Fluid Milk     Midwest        Chicago      IL              60636        120        $4,206.00
 Life
GCFD Milk Albany    Fluid Milk     Midwest        Chicago      IL              60625         54        $1,892.70
 Park
GCFD Milk All       Fluid Milk     Midwest        Palatine     IL              60047         54        $1,892.70
 Saints Lutheran
 Church
GCFD Milk All       Fluid Milk     Midwest        Palatine     IL              60074        108        $3,512.16
 Saints Lutheran
 Church
GCFD Milk Amor De   Fluid Milk     Midwest        Chicago      IL              60623        638       $21,855.90
 Dios
GCFD Milk Arab      Fluid Milk     Midwest        Chicago      IL              60652        394       $13,809.70
 American
GCFD Milk Back To   Fluid Milk     Midwest        Chicago      IL              60636         54        $1,756.08
 God
GCFD Milk Bloom     Fluid Milk     Midwest        Chicago      IL              60411        108        $3,785.40
 Township                                          Heights
GCFD Milk Blue Cap  Fluid Milk     Midwest        Blue Island  IL              60406        324       $11,356.20
GCFD Milk Blue Cap  Fluid Milk     Midwest        Blueisland   IL              60406        108        $3,785.40
GCFD Milk Blue Cap  Fluid Milk     Midwest        Chicago      IL              60406        108        $3,785.40
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60624        256        $8,972.80
 Breakthrough
 Urban Ministries
GCFD Milk Carey     Fluid Milk     Midwest        Chicago      IL              60623         27          $946.35
 Tercentenary
GCFD Milk Carey     Fluid Milk     Midwest        Chicago      IL              60623         84        $2,792.40
 Tercentenary
GCFD Milk CBS Anti  Fluid Milk     Midwest        Cicero       IL              60804        108        $3,785.40
 Hunger
GCFD Milk Cbs Anti- Fluid Milk     Midwest        Cicero       IL              60804         54        $1,892.70
 Hunger
GCFD Milk Central   Fluid Milk     Midwest        Chicago      IL              60617         54        $1,892.70
 Communitario
GCFD Milk Central   Fluid Milk     Midwest        Chicago      IL              60617        162        $5,404.86
 Communitario
GCFD Milk Centro    Fluid Milk     Midwest        Chicago      IL              60617         25          $749.75
 Communitario
GCFD Milk Chicago   Fluid Milk     Midwest        Chicago      IL              60411         63        $1,889.37
 Heights Park                                      Heights
 District
GCFD Milk Chicago   Fluid Milk     Midwest        Chicago      IL              60647         89        $2,982.83
 Hope
GCFD Milk Chosen    Combination    Midwest        Chicago      IL              60653         38        $2,360.56
 Tabernacle          Box
GCFD Milk Chosen    Fluid Milk     Midwest        Chicago      IL              60653        350       $12,065.10
 Tabernacle
GCFD Milk Christ    Fluid Milk     Midwest        Chicago      IL              60617        399       $13,858.45
 Life Church
GCFD Milk Christ    Fluid Milk     Midwest        Chicago      IL              60609        216        $7,570.80
 Temple
GCFD Milk Church    Fluid Milk     Midwest        Schaumburg   IL              60194        216        $7,297.56
 of the Holy
 Spirit
GCFD Milk Cicero    Fluid Milk     Midwest        Cicero       IL              60804        250        $7,497.50
 School District
GCFD Milk Common    Fluid Milk     Midwest        Evanston     IL              60202         54        $1,892.70
 Pantry
GCFD Milk Common    Fluid Milk     Midwest        Chicago      IL              60618         44        $1,542.20
 Pantry
GCFD Milk Covenant  Fluid Milk     Midwest        South        IL              60473        432       $14,595.12
 United                                            Holland
GCFD Milk Ct.       Fluid Milk     Midwest        Maywood      IL              60153         27          $809.73
 Baker Performing
 Arts Ctn.
GCFD Milk Ebenezer  Fluid Milk     Midwest        Berwyn       IL              60402        216        $7,570.80
 Christian
GCFD Milk Ebenezer  Fluid Milk     Midwest        Berwyn       IL              60402        574       $18,853.70
 Christian
GCFD Milk Elk       Fluid Milk     Midwest        Elk Grove    IL              60007         30        $1,051.50
 Grove Township                                    Village
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60411        108        $3,785.40
 Emmanueal Church
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60411        216        $7,570.80
 Emmanueal Church                                  Heights
GCFD Milk Emmanuel  Fluid Milk     Midwest        Sauk         IL              60411        108        $3,238.92
 Church                                            Village
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60628         54        $1,892.70
 Evangelism
 Outreach
GCFD Milk Evanston  Fluid Milk     Midwest        Evanston     IL              60202        144        $5,047.20
 Vineyard
GCFD Milk First     Fluid Milk     Midwest        Melrose      IL              60160         81        $2,702.43
 Baptist Church of                                 Park
 MP
GCFD Milk First     Fluid Milk     Midwest        Melrose      IL              60610         54        $1,892.70
 Baptist Church of                                 Park
 MP
GCFD Milk First     Fluid Milk     Midwest        Chicago      IL              60615         54        $1,892.70
 Baptist Church of
 MP
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60612         54        $1,892.70
 Franciscan House
 of Mary and
 Joseph
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60621         54        $1,892.70
 Franciscan House
 of Mary and
 Joseph
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60644        371       $13,003.55
 Fraternite Notre
 Dame
GCFD Milk Gorham    Fluid Milk     Midwest        Chicago      IL              60637        135        $4,731.75
 United Methodist
GCFD Milk Gospel    Fluid Milk     Midwest        Chicago      IL              60617        118        $4,135.90
 Way Covenant
GCFD Milk Grace     Fluid Milk     Midwest        Chicago      IL              60154         50        $1,752.50
 Central Outreach
GCFD Milk Grace     Fluid Milk     Midwest        Westchester  IL              60154         50        $1,752.50
 Central Outreach
GCFD Milk Grant A   Fluid Milk     Midwest        Chicago      IL              60617        216        $7,024.32
 Wish
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60623         54        $1,892.70
 Garfield Mb
 Church
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60623        108        $3,512.16
 Garfield Mb
 Church
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60612         27          $946.35
 Holy Temple
GCFD Milk Greater   Fluid Milk     Midwest        Chicago      IL              60612         81        $2,702.43
 Holy Temple
GCFD Milk Healing   Fluid Milk     Midwest        Chicago      IL              60651         27          $946.35
 Temple
GCFD Milk Healing   Fluid Milk     Midwest        Chicago      IL              60651        108        $3,512.16
 Temple
GCFD Milk Hines VA  Fluid Milk     Midwest        Hines        IL              60141        162        $5,268.24
 Food Pantry
GCFD Milk Hope      Fluid Milk     Midwest        Olympia      IL              60461        162        $5,678.10
 Charities                                         Fields
GCFD Milk Hope      Fluid Milk     Midwest        Chicago      IL              60651         25          $749.75
 Food Pantry
GCFD Milk Howard    Fluid Milk     Midwest        Chicago      IL              60626        516       $18,085.80
 Area Community
 Center
GCFD Milk Iglesia   Fluid Milk     Midwest        Chicago      IL              60639        208        $7,290.40
 Evangelica
 Emanuel
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60632        108        $3,785.40
 Immaculate
 Conception
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60632        341       $11,319.55
 Immaculate
 Conception
GCFD Milk Inner     Fluid Milk     Midwest        Chicago      IL              60619        648       $21,619.44
 City Mission
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60619        216        $7,570.80
 Innercity Mission
GCFD Milk Jesus     Fluid Milk     Midwest        Chicago      IL              60629        108        $3,785.40
 Christ
GCFD Milk Kenwood   Fluid Milk     Midwest        Chicago      IL              60653         25          $876.25
 Oakland Community
GCFD Milk King of   Fluid Milk     Midwest        Chicago      IL              60617         38        $1,331.90
 Glory Church
GCFD Milk Kingdom   Fluid Milk     Midwest        Chicago      IL              60644         15          $449.85
 Baptist Church
GCFD Milk Kingdom   Fluid Milk     Midwest        Chicago      IL              60636        132        $4,626.60
 Builders
GCFD Milk Lakeview  Fluid Milk     Midwest        Chicago      IL              60613        216        $7,570.80
 Wrigley
GCFD Milk Lakeview  Fluid Milk     Midwest        Chicago      IL              60613        108        $3,785.40
 Wrigley
GCFD Milk           Fluid Milk     Midwest        Alsip        IL              60803        265        $9,288.25
 Lighthouse Church
 of All Nations
GCFD Milk Little    Fluid Milk     Midwest        Chicago      IL              60607         27          $809.73
 Brothers Friends
GCFD Milk Lutheran  Fluid Milk     Midwest        Arlington    IL              60005        156        $5,467.80
 Church of the                                     Heights
 Cross
GCFD Milk Maple     Fluid Milk     Midwest        Chicago      IL              60643         25          $749.75
 Morgan Park
GCFD Milk Marillac  Fluid Milk     Midwest        Chicago      IL              60612         54        $1,892.70
 House
GCFD Milk Marillac  Fluid Milk     Midwest        Chicago      IL              60612         54        $1,619.46
 House
GCFD Milk Mihut     Fluid Milk     Midwest        Chicago      IL              60632        108        $3,238.92
 Romanian
GCFD Milk Mihut     Fluid Milk     Midwest        Niles        IL              60714        324       $11,356.20
 Romanian
GCFD Milk Mosque    Fluid Milk     Midwest        Bridgeview   IL              60455        250        $8,762.50
 Foundation
GCFD Milk Mosque    Fluid Milk     Midwest        Chicago      IL              60455        233        $7,620.17
 Foundation
GCFD Milk Mt.       Fluid Milk     Midwest        Chicago      IL              60160        108        $3,785.40
 Carmel Parish
GCFD Milk Mt.       Fluid Milk     Midwest        Melrose      IL              60160        108        $3,785.40
 Carmel Parish                                     Park
GCFD Milk Mt.       Fluid Milk     Midwest        Melrose      IL              60160         27          $946.35
 Carmel Parish                                     Park
GCFD Milk Muhammad  Fluid Milk     Midwest        Chicago      IL              60649         27          $946.35
 University
GCFD Milk New       Fluid Milk     Midwest        Chicago      IL              60609        108        $3,785.40
 Eclipse Community
 Alliance
GCFD Milk New Life  Fluid Milk     Midwest        Chicago      IL              60625        540       $18,927.00
 Albany Park
GCFD Milk New Life  Fresh Fruit/   Midwest        Chicago      IL              60625        728       $46,635.68
 Albany Park         Vegetable
                     Box
GCFD Milk New Life  Fluid Milk     Midwest        Chicago      IL              60612        180        $6,309.00
 Brighten Park
GCFD Milk New Life  Fluid Milk     Midwest        Chicago      IL              60632        360       $12,618.00
 Brighten Park
GCFD Milk New Life  Fresh Fruit/   Midwest        Chicago      IL              60632        504       $32,286.24
 Brighten Park       Vegetable
                     Box
GCFD Milk New Life  Fluid Milk     Midwest        Chicago      IL              60619        576       $19,961.10
 Covenant Church
GCFD Milk New Life  Fluid Milk     Midwest        Chicago      IL              60632        486       $15,941.34
 Midway
GCFD Milk New       Fluid Milk     Midwest        Chicago      IL              60628         54        $1,892.70
 Tabernacle
 Baptist Church
GCFD Milk New       Fluid Milk     Midwest        Chicago      IL              60628        162        $5,131.62
 Tabernacle
 Baptist Church
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60653         54        $1,892.70
 Operation Pull
 Grant
GCFD Milk Orland    Fluid Milk     Midwest        Orland Park  IL              60462         54        $1,619.46
 Township
GCFD Milk Our Lady  Fluid Milk     Midwest        Chicago      IL              60632        486       $16,214.58
 of Fatima
GCFD Milk Our Lady  Fluid Milk     Midwest        Chicago      IL              60651        108        $3,785.40
 of the Angels
GCFD Milk Pilsen    Fluid Milk     Midwest        Chicago      IL              60608         54        $1,892.70
 Little Village
GCFD Milk Pilsen    Fluid Milk     Midwest        Chicago      IL              60608        216        $7,024.32
 Little Village
GCFD Milk Pine      Fluid Milk     Midwest        Chicago      IL              60651        270        $9,463.50
 Avenue
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60640        213        $7,465.65
 Ravenswood
GCFD Milk           Fluid Milk     Midwest        Harvey       IL              60426         54        $1,892.70
 Restoration
 Ministries
GCFD Milk           Fluid Milk     Midwest        Harvey       IL              60426        162        $5,404.86
 Restortation
 Ministries
GCFD Milk Roseland  Fluid Milk     Midwest        Chicago      IL              60628        486       $17,034.30
 Christian
GCFD Milk Saint     Fluid Milk     Midwest        Chicago      IL              60641         30        $1,051.50
 John Lutheran
 Church
GCFD Milk San       Fluid Milk     Midwest        Chicago      IL              60622         38        $1,331.90
 Lucas Anti Hunger
GCFD Milk           Fluid Milk     Midwest        Schaumburg   IL              60193        162        $5,131.62
 Schaumburg Barn
GCFD Milk Second    Fluid Milk     Midwest        Maywood      IL              60153         54        $1,619.46
 Baptist Church
GCFD Milk           Fluid Milk     Midwest        Hoffman      IL              60159         54        $1,892.70
 Shaumburg                                         Estates
 Township
GCFD Milk           Fluid Milk     Midwest        Hoffman      IL              60169         54        $1,892.70
 Shaumburg                                         Estates
 Township
GCFD Milk Shekinah  Fluid Milk     Midwest        Riverdale    IL              60827         27          $946.35
 Chapel
GCFD Milk Sheldon   Fluid Milk     Midwest        Chicago      IL              60628        336       $11,776.80
 Heights
GCFD Milk Sheldon   Fluid Milk     Midwest        Roseland     IL              60628         12          $420.60
 Heights
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60621        564       $19,464.60
 Shepherds Hope
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60617        108        $3,785.40
 Southeast Side
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60623         54        $1,892.70
 Agathas
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60622         36        $1,261.80
 Aloysius
GCFD Milk St.       Fluid Milk     Midwest        Harvey       IL              60426        104        $3,645.20
 Clements
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60619        216        $7,570.80
 Columbanus
GCFD Milk St.       Fluid Milk     Midwest        Lagrange     IL              60525        135        $4,731.75
 Francis Xavier
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60612        270        $8,643.78
 Malachy
GCFD Milk St. Mark  Fluid Milk     Midwest        Chicago      IL              60622         81        $2,839.05
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60649        216        $7,570.80
 Philip
GCFD Milk St. Pius  Fluid Milk     Midwest        Chicago      IL              60608        594       $20,273.22
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60647         10          $350.50
 Sylvester
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60640         10          $350.50
 Thomas of
 Canterbury
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60626         27          $946.35
 Ignatius
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60612        108        $3,785.40
 Malachy
GCFD Milk St. Mark  Fluid Milk     Midwest        Chicago      IL              60622         27          $946.35
GCFD Milk Together  Fluid Milk     Midwest        Tinley Park  IL              60477        162        $5,678.10
 We Cope
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60654         39        $1,366.95
 Adult Rehab
 Center
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60629        162        $5,678.10
 Chicago Lawn
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60632        162        $5,678.10
 Chicago Lawn
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60636        162        $5,678.10
 Chicago Lawn
GCFD Milk TSA       Fluid Milk     Midwest        Chicago      IL              60621        108        $3,785.40
 Englewood Red
 Shield
GCFD Milk TSA       Fluid Milk     Midwest        Cicero       IL              60804        108        $3,238.92
 Templo Laramie
GCFD Milk UIC       Fluid Milk     Midwest        Chicago      IL              60607         24          $841.20
 Wellness Center
GCFD Milk USDA      Fluid Milk     Midwest        Chicago      IL              60625         54        $1,892.70
 Albany Park
GCFD Milk USDA      Fluid Milk     Midwest        Chicago      IL              60621         54        $1,892.70
 Franciscan House
 of Mary and
 Joseph
GCFD Milk USDA TSA  Fluid Milk     Midwest        Chicago      IL              60621        108        $3,785.40
 Englewood Red
 Shield
GCFD Milk Village   Fluid Milk     Midwest        Evergreen    IL              60805         54        $1,892.70
 Pantry Coalition                                  Park
GCFD Milk Village   Fluid Milk     Midwest        Evergreen    IL              60805         89        $2,942.35
 Pantry Coalition                                  Park
GCFD Milk Vital     Fluid Milk     Midwest        Chicago      IL              60640         28          $981.40
 Bridges Edgewater
GCFD Milk Vital     Fluid Milk     Midwest        Chicago      IL              60620         45        $1,501.35
 Bridges South
GCFD Milk Vital     Fluid Milk     Midwest        Chicago      IL              60624         60        $2,103.00
 Bridges West
GCFD Milk Vkmi      Fluid Milk     Midwest        Oak Forest   IL              60452        108        $3,512.16
 Hattie B Williams
GCFD Milk Vkmi      Fluid Milk     Midwest        Posen        IL              60469         54        $1,892.70
 Hattie B Williams
GCFD Milk           Fluid Milk     Midwest        Westchester  IL              60154         54        $1,892.70
 Westchester Food
 Pantry
GCFD Milk           Fluid Milk     Midwest        Westchester  IL              60154        189        $6,214.59
 Westchester Food
 Pantry
GCFD Milk           Fluid Milk     Midwest        South        IL              60010        216        $7,570.80
 Willowcreek                                       Barrington
GCFD Milk YMCA      Fluid Milk     Midwest        Berwyn       IL              60402        108        $3,785.40
 Pav.
GCFD Milk<greek-    Fluid Milk     Midwest        Chicago      IL              60625         54        $1,619.46
 e>lbany Park                                      Heights
GCFD Milk           Fluid Milk     Midwest        Chicago      IL              60621         54        $1,892.70
 Franciscan House
 of Mary and
 Joseph
GCFD Milkt. Carmel  Fluid Milk     Midwest        Melrosepark  IL              60160         27          $946.35
 Parish
GCFD MilkSA         Fluid Milk     Midwest        Chicago      IL              60608         54        $1,892.70
 Englewood Red
 Shield
GCFD Miracle        Combination    Midwest        Maywood      IL              60153         75        $5,038.50
 Revival Cathedral   Box
GCFD Mosque         Fresh Fruit/   Midwest        Bridgeview   IL              60455      1,090       $69,825.40
 Foundation          Vegetable
                     Box
GCFD Mosque         Fresh Fruit/   Midwest        Chicago      IL              60455        500       $32,030.00
 Foundation          Vegetable
                     Box
GCFD Mount Olive    Combination    Midwest        Chicago      IL              60636         90        $6,046.20
                     Box
GCFD Mount Olive    Fluid Milk     Midwest        Chicago      IL              60636         90        $2,926.80
GCFD New Eclipse    Fluid Milk     Midwest        Chicago      IL              60609        108        $3,785.40
 Community
 Alliance
GCFD New Eclipse    Precooked      Midwest        Chicago      IL              60609        130        $9,304.10
 Community           Meat Box
 Alliance
GCFD New Gresham    Combination    Midwest        Chicago      IL              60620        145        $9,488.10
                     Box
GCFD New Hope       Dairy          Midwest        Chicago      IL              60631        180       $11,727.00
                     Products Box
GCFD New Life       Combination    Midwest        Chicago      IL              60619        255       $17,130.90
 Covenant            Box
GCFD New Life       Combination    Midwest        Oak Park     IL              60302        100        $6,718.00
 Ministries          Box
GCFD New Morning    Combination    Midwest        Chicago      IL              60624        190       $12,764.20
 Star                Box
GCFD New            Fluid Milk     Midwest        Chicago      IL              60628         90        $3,154.50
 Tabernacle
 Michigan
GCFD Night          Combination    Midwest        Chicago      IL              60622         82        $5,508.76
 Ministry            Box
GCFD Northwestern   Dairy          Midwest        Chicago      IL              60642        120        $7,818.00
 Settlement          Products Box
GCFD Northwestern   Fluid Milk     Midwest        Chicago      IL              60642        120        $4,206.00
 Settlement
GCFD Northwestern   Precooked      Midwest        Chicago      IL              60642        200       $14,314.00
 Settlement          Meat Box
GCFD Oak Lawn       Fluid Milk     Midwest        Bridgeview   IL              60455         25          $876.25
 Community Church
GCFD Olive Branch   Combination    Midwest        Chicago      IL              60636         90        $6,046.20
 Mission             Box
GCFD Onward House   Combination    Midwest        Chicago      IL              60639        260       $17,466.80
                     Box
GCFD Operation      Dairy          Midwest        Chicago      IL              60653         25        $1,502.50
 Pull Grant          Products Box
GCFD Operation      Fluid Milk     Midwest        Chicago      IL              60653         35        $1,226.75
 Pull Grant
GCFD Orland         Fresh Fruit/   Midwest        Orland Park  IL              60462        180       $11,530.80
 Township            Vegetable
                     Box
GCFD Our Lady of    Fluid Milk     Midwest        Chicago      IL              60623         90        $3,154.50
 Tepeyac
GCFD Pacific        Combination    Midwest        Chicago      IL              60607         90        $6,046.20
 Garden Mission      Box
GCFD Palatine       Combination    Midwest        Chicago      IL              60067         40        $2,687.20
 Township            Box
GCFD Palatine       Combination    Midwest        Palatine     IL              60067         90        $6,046.20
 Township            Box
GCFD Pilsen Little  Fluid Milk     Midwest        Chicago      IL              60608         90        $3,154.50
 Village
GCFD Redeeming      Combination    Midwest        Chicago      IL              60643        200       $13,157.70
 Grace               Box
GCFD Redeeming      Fluid Milk     Midwest        Chicago      IL              60643         15          $449.85
 Grace
GCFD Restortation   Combination    Midwest        Harvey       IL              60426         90        $6,046.20
 Ministries          Box
GCFD Roseland       Combination    Midwest        Chicago      IL              60628        165       $11,084.70
 Christian           Box
GCFD Safe Haven     Combination    Midwest        Chicago      IL              60608         90        $6,046.20
 Roosevelt           Box
GCFD Sarahs Circle  Combination    Midwest        Chicago      IL              60640         45        $3,023.10
 Day Shelter         Box
GCFD Shiloah        Fresh Fruit/   Midwest        Chicago      IL              60620        379       $24,278.74
 Baptist             Vegetable
                     Box
GCFD Southeast      Precooked      Midwest        Chicago      IL              60617        360       $25,765.20
 Side                Meat Box
GCFD St. Cyprian    Combination    Midwest        Chicago      IL              60176        180       $12,092.40
 Food Pantry         Box
GCFD St. Cyprian    Combination    Midwest        Chicago      IL              60634        140        $9,405.20
 Food Pantry         Box
GCFD St. Elizabeth  Combination    Midwest        Chicago      IL              60632        125        $8,397.50
                     Box
GCFD St. Ignatius   Fluid Milk     Midwest        Chicago      IL              60626         90        $3,154.50
GCFD St. James      Combination    Midwest        Chicago      IL              60612        280       $18,102.00
                     Box
GCFD St. Leonards   Combination    Midwest        Chicago      IL              60612         90        $6,046.20
 Ministries Grace    Box
 House
GCFD St. Leonards   Fluid Milk     Midwest        Chicago      IL              60612         15          $525.75
 Ministries Grace
 House
GCFD St. Leonards   Precooked      Midwest        Chicago      IL              60612         30        $2,147.10
 Ministries Grace    Meat Box
 House
GCFD St. Leonards   Combination    Midwest        Chicago      IL              60612         90        $6,046.20
 Ministries Main     Box
GCFD St. Malachy    Combination    Midwest        Chicago      IL              60612        675       $44,208.00
                     Box
GCFD St. Mark       Fluid Milk     Midwest        Chicago      IL              60622         90        $3,154.50
GCFD St. Paul       Combination    Midwest        Matteson     IL              60443        270       $17,683.20
 Lutheran            Box
GCFD St. Pius       Dairy          Midwest        Chicago      IL              60608        180       $11,727.00
                     Products Box
GCFD St. Teresa     Combination    Midwest        Chicago      IL              60614         90        $6,046.20
                     Box
GCFD the            Fresh Fruit/   Midwest        Chicago      IL              60625        150        $9,609.00
 Friendship Center   Vegetable
 Pantry              Box
GCFD the Holy       Combination    Midwest        Chicago      IL              60625        210       $13,804.20
 Order of Cherubim   Box
GCFD the Inner      Combination    Midwest        Chicago      IL              60612         82        $5,508.76
 Voice               Box
GCFD the Night      Combination    Midwest        Chicago      IL              60657         45        $3,023.10
 Ministries 2        Box
GCFD Thornton       Dairy          Midwest        Harvey       IL              60426      1,440       $93,816.00
 Township            Products Box
GCFD Thornton       Dairy          Midwest        Chicago      IL              60623        628       $40,914.20
 Township            Products Box
GCFD TSA Adult      Combination    Midwest        Chicago      IL              60654         90        $6,046.20
 Rehab Center        Box
GCFD TSA Clybourn   Combination    Midwest        Chicago      IL              60614         90        $6,046.20
 Ave.                Box
GCFD TSA LA         Precooked      Midwest        Chicago      IL              60609         60        $4,294.20
 Villita             Meat Box
GCFD TSA LA         Precooked      Midwest        Chicago      IL              60623        120        $7,981.20
 Villita             Meat Box
GCFD TSA Mayfair    Combination    Midwest        Chicago      IL              60630        165       $11,084.70
                     Box
GCFD TSA Red        Combination    Midwest        Chicago      IL              60621        180       $12,092.40
 Shield              Box
GCFD TSA Red        Precooked      Midwest        Chicago      IL              60621        274       $19,336.94
 Shield              Meat Box
GCFD UI Health      Fresh Fruit/   Midwest        Chicago      IL              60608         90        $5,765.40
 Pilsen              Vegetable
                     Box
GCFD Uncle Shack    Combination    Midwest        Chicago      IL              60636        250       $16,795.00
                     Box
GCFD USDA A Safe    Precooked      Midwest        Chicago      IL              60608        180       $12,882.60
 Haven               Meat Box
GCFD USDA           Combination    Midwest        Posen        IL              60469         95        $6,382.10
 Abounding Life      Box
GCFD USDA Alicia    Dairy          Midwest        South        IL              60411        180       $11,727.00
 House               Products Box                  Chicago
                                                   Heights
GCFD USDA Alicia    Dairy          Midwest        Chicago      IL              60632        180       $11,727.00
 House               Products Box
GCFD USDA All       Combination    Midwest        Chicago      IL              60636         95        $6,382.10
 Things Through      Box
 Christ
GCFD USDA Back To   Dairy          Midwest        Chicago      IL              60636        100        $6,515.00
 God Church          Products Box
GCFD USDA Beyond    Combination    Midwest        Oak Park     IL              60301         90        $6,046.20
 Hunger              Box
GCFD USDA Beyond    Precooked      Midwest        Oakpark      IL              60301        100        $7,157.00
 Hunger              Meat Box
GCFD USDA Carlene   Combination    Midwest        Chicago      IL              60619        120        $8,061.60
 S Lily              Box
GCFD USDA Carlene   Fluid Milk     Midwest        Chicago      IL              60619         65        $2,278.25
 S Lily
GCFD USDA Chosen    Combination    Midwest        Chicago      IL              60653        200       $12,828.80
 Tabernacle          Box
GCFD USDA Christ    Combination    Midwest        Chicago      IL              60651        180       $12,092.40
 Evangelical         Box
GCFD USDA Christ    Combination    Midwest        Chicago      IL              60617        180       $12,092.40
 Life Church         Box
GCFD USDA Christ    Precooked      Midwest        Chicago      IL              60629         45        $3,220.65
 Temple              Meat Box
GCFD USDA           Combination    Midwest        Chicago      IL              60640         35        $2,174.20
 Cornerstone         Box
 Community
 Outreach
GCFD USDA Covenant  Combination    Midwest        South        IL              60473         95        $6,382.10
 United              Box                           Holland
GCFD USDA           Combination    Midwest        Chicago      IL              60411         90        $6,046.20
 Emmanueal Church    Box
GCFD USDA           Combination    Midwest        Chicago      IL              60411         90        $6,046.20
 Emmanueal Church    Box                           Heights
GCFD USDA European  Combination    Midwest        Chicago      IL              60622        100        $6,465.00
 American            Box
GCFD USDA Evening   Combination    Midwest        Chicago      IL              60636        150        $9,722.80
 Star                Box
GCFD USDA Evening   Fluid Milk     Midwest        Chicago      IL              60636         50        $1,499.50
 Star
GCFD USDA Gorham    Dairy          Midwest        Chicago      IL              60637        180       $11,727.00
 United Methodist    Products Box
GCFD USDA Gospel    Combination    Midwest        Chicago      IL              60617        230       $14,793.60
 Way Covenant        Box
GCFD USDA Grace     Combination    Midwest        Chicago      IL              60618        180       $12,092.40
 Evangelic           Box
GCFD USDA Grant A   Combination    Midwest        Chicago      IL              60617        150       $10,077.00
 Wish                Box
GCFD USDA Hazel     Precooked      Midwest        Hazel Crest  IL              60429        130        $9,304.10
 Crest               Meat Box
GCFD USDA           Fluid Milk     Midwest        Chicago      IL              60632        431       $12,925.69
 Headquarters
GCFD USDA           Precooked      Midwest        Chicago      IL              60632      4,000      $273,144.24
 Headquarters        Meat Box
GCFD USDA Heritage  Combination    Midwest        Chicago      IL              60639        170       $10,965.20
 International       Box
GCFD USDA Hyde      Combination    Midwest        Chicago      IL              60637        135        $9,069.30
 Park--Kenwood       Box
GCFD USDA           Combination    Midwest        Chicago      IL              60619        150        $9,722.80
 Innercity Mission   Box
GCFD USDA Jireh     Combination    Midwest        Chicago      IL              60623        100        $6,465.00
 Food Pantry         Box
GCFD USDA Koinonia  Combination    Midwest        Chicago      IL              60620         85        $5,507.90
 Ministry            Box
GCFD USDA           Combination    Midwest        Chicago      IL              60653         20        $1,343.60
 Metropolitan        Box
 Community
 Outreach
GCFD USDA Milk St.  Fluid Milk     Midwest        Chicago      IL              60622         36        $1,079.64
 Aloysius
GCFD USDA Miracle   Combination    Midwest        Maywood      IL              60153        155       $10,058.70
 Revival Cathedral   Box
GCFD USDA Mount     Combination    Midwest        Chicago      IL              60636         90        $6,046.20
 Olive               Box
GCFD USDA Mount     Fluid Milk     Midwest        Chicago      IL              60636         45        $1,577.25
 Olive
GCFD USDA New       Precooked      Midwest        Chicago      IL              60609        130        $9,304.10
 Eclipse Community   Meat Box
 Alliance
GCFD USDA New       Combination    Midwest        Chicago      IL              60620         95        $6,382.10
 Gresham             Box
GCFD USDA New Hope  Dairy          Midwest        Chicago      IL              60631        180       $11,727.00
                     Products Box
GCFD USDA New Life  Combination    Midwest        Chicago      IL              60619        150        $9,722.80
 Covenant            Box
GCFD USDA New Life  Combination    Midwest        Oak Park     IL              60302        200       $12,930.00
 Ministries          Box
GCFD USDA New       Combination    Midwest        Park Ridge   IL              60068         90        $5,590.80
 Morning Star        Box
GCFD USDA New       Combination    Midwest        Chicago      IL              60624        100        $6,718.00
 Morning Star        Box
GCFD USDA           Dairy          Midwest        Chicago      IL              60642        240       $15,636.00
 Northwestern        Products Box
 Settlement
GCFD USDA Onward    Combination    Midwest        Chicago      IL              60639        160       $10,344.00
 House               Box
GCFD USDA           Dairy          Midwest        Chicago      IL              60653        120        $7,818.00
 Operation Pull      Products Box
 Grant
GCFD USDA Palatine  Combination    Midwest        Palatine     IL              60067         75        $4,861.40
 Township            Box
GCFD USDA Pine      Dairy          Midwest        Chicago      IL              60651         90        $5,863.50
 Avenue              Products Box
GCFD USDA           Combination    Midwest        Chicago      IL              60643        180       $12,092.40
 Redeeming Grace     Box
GCFD USDA           Fluid Milk     Midwest        Chicago      IL              60643         60        $2,103.00
 Redeeming Grace
GCFD USDA           Combination    Midwest        Harvey       IL              60426         90        $6,046.20
 Restortation        Box
 Ministries
GCFD USDA Roseland  Combination    Midwest        Chicago      IL              60628        150        $9,722.80
 Christian           Box
GCFD USDA           Precooked      Midwest        Chicago      IL              60617        360       $25,765.20
 Southeast Side      Meat Box
GCFD USDA St.       Combination    Midwest        Chicago      IL              60634        130        $8,075.60
 Cyprian Food        Box
 Pantry
GCFD USDA St.       Dairy          Midwest        Chicago      IL              60612         80        $5,212.00
 James               Products Box
GCFD USDA St. Paul  Combination    Midwest        Matteson     IL              60443         90        $6,046.20
 Lutheran            Box
GCFD USDA St. Pius  Dairy          Midwest        Chicago      IL              60608        180       $11,727.00
                     Products Box
GCFD USDA St.       Combination    Midwest        Chicago      IL              60614         90        $6,046.20
 Teresa              Box
GCFD USDA St. Paul  Combination    Midwest        Matteson     IL              60443         90        $6,046.20
 Lutheran            Box
GCFD USDA St.       Combination    Midwest        Chicago      IL              60614         90        $6,046.20
 Teresa              Box
GCFD USDA the Holy  Combination    Midwest        Chicago      IL              60625        180       $12,092.40
 Order of Cherubim   Box
GCFD USDA Thornton  Dairy          Midwest        Harvey       IL              60426      1,440       $93,816.00
 Township            Products Box
GCFD USDA TSA       Combination    Midwest        Chicago      IL              60630         70        $4,348.40
 Mayfair             Box
GCFD USDA TSA       Combination    Midwest        Chicago      IL              60641         80        $5,374.40
 Mayfair             Box
GCFD USDA TSA Red   Precooked      Midwest        Chicago      IL              60621        180       $12,882.60
 Shield              Meat Box
GCFD USDA Uncle     Combination    Midwest        Chicago      IL              60636        150        $9,722.80
 Shack               Box
GCFD USDA Windsor   Combination    Midwest        Chicago      IL              60649        140        $9,152.20
 Park                Box
GCFD Victory House  Combination    Midwest        Chicago      IL              60623         90        $6,046.20
 Chicago             Box
GCFD Village        Fluid Milk     Midwest        Evergreen    IL              60805         90        $3,154.50
 Pantry Coalition                                  Park
GCFD VKMI Hattie B  Fluid Milk     Midwest        Oak Forest   IL              60452         90        $3,154.50
 Williams
GCFD Westchester    Fluid Milk     Midwest        Westchester  IL              60154         90        $3,154.50
 Food Pantry
GCFD Windsor Park   Combination    Midwest        Chicago      IL              60649        190       $12,511.20
                     Box
GCFD Worth          Fresh Fruit/   Midwest        Alsip        IL              60803        180       $11,530.80
 Township            Vegetable
                     Box
GCFD A Safe Haven   Precooked      Midwest        Chicago      IL              60608        100        $7,157.00
                     Meat Box
GCFD Beyond Hunger  Precooked      Midwest        Oakpark      IL              60301        100        $7,157.00
                     Meat Box
GCFD Christ Temple  Precooked      Midwest        Chicago      IL              60609         60        $4,294.20
                     Meat Box
GCFD Hazel Crest    Precooked      Midwest        Hazelcrest   IL              60429        130        $9,304.10
                     Meat Box
GCFD Milk Harmony   Fluid Milk     Midwest        Chicago      IL              60623         54        $1,892.70
 Church
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60617         50        $1,752.50
 Kevin Food Pantry
GCFD Milk St.       Fluid Milk     Midwest        Chicago      IL              60647         14          $490.70
 Sylvester
GCFD New Eclipse    Fluid Milk     Midwest        Chicago      IL              60609        108        $3,785.40
 Community
 Alliance
GCFD New Eclipse    Precooked      Midwest        Chicago      IL              60609        130        $9,304.10
 Community           Meat Box
 Alliance
GCFD Northwestern   Precooked      Midwest        Chicago      IL              60642        220       $15,745.40
 Settlement          Meat Box
GCFD Southeast      Precooked      Midwest        Chicago      IL              60617        360       $25,765.20
 Side                Meat Box
GCISD GMS           Fresh Fruit/   South West     Grapevine    TX              76051        240        $2,328.00
                     Vegetable
                     Box
GCISD TES           Fresh Fruit/   South West     Grapevine    TX              76051        290        $2,813.00
                     Vegetable
                     Box
GCISD-BCES          Fresh Fruit/   South West     Euless       TX              76039        275        $5,252.50
                     Vegetable
                     Box
GCISD-BCES          Fresh Fruit/   South West     Grapevine    TX              76051        450        $8,595.00
                     Vegetable
                     Box
GCS--Fair Street    Fresh Fruit/   South East     Gainesville  GA              30501        550       $11,687.50
 Elementary F2F      Vegetable
                     Box
GCS--Fair Street    Precooked      South East     Gainesville  GA              30501        100        $3,404.00
 Elementary F2F      Meat Box
Geauga Faith        Dairy          Midwest        Chardon      OH              44024        225        $5,422.50
 Rescue Mission      Products Box
Geauga Faith        Fresh Fruit/   Midwest        Chardon      OH              44024        225        $5,962.50
 Rescue Mission      Vegetable
                     Box
Geauga Hunger Task  Dairy          Midwest        Burton       OH              44021        152        $3,663.20
 Force               Products Box
Geauga Hunger Task  Fresh Fruit/   Midwest        Burton       OH              44021        143        $3,789.50
 Force               Vegetable
                     Box
General Wilson      Fluid Milk     Midwest        Lorain       OH              44052        540        $1,792.80
Generation Next     Precooked      South West     Amarillo     TX              79106      2,653      $273,656.95
 Church              Meat Box
Generations Church  Dairy          South East     Independenc  KY              41051      1,100       $27,500.00
                     Products Box                  e
Generations Church  Fluid Milk     South East     Independenc  KY              41051        360        $1,195.20
                                                   e
Generations Church  Fresh Fruit/   South East     Independenc  KY              41051        560       $11,183.20
                     Vegetable                     e
                     Box
Genesee Valley      Fresh Fruit/   North East     Belmont      NY              14813        800       $18,280.00
 School              Vegetable
                     Box
Genesis 12-2        Fluid Milk     South West     Muskogee     OK              74401     13,824       $40,366.08
 Incorp.
George Middle       Combination    Western        Portland     OR              97203        300       $10,500.00
 School USDA         Box
George Middle       Dairy          Western        Portland     OR              97203        200        $6,000.00
 School USDA         Products Box
George Middle       Fresh Fruit/   Western        Portland     OR              97203        460       $12,420.00
 School USDA         Vegetable
                     Box
Georgetown South    Fresh Fruit/   Mid-Atlantic   Manassas     VA              20110      1,050       $21,000.00
                     Vegetable
                     Box
Georgia Baptist     Fluid Milk     South East     Palmetto     GA              30268        296        $1,121.84
 Chi.
Georgia Mountain    Fresh Fruit/   South East     Gainesville  GA              30507     11,296      $262,912.00
 Food Bank           Vegetable
                     Box
Georgia Mountain    Precooked      South East     Gainesville  GA              30507      1,324       $53,939.76
 Food Bank           Meat Box
Georgia St.         Fresh Fruit/   Midwest        Detroit      MI              48213        300        $8,625.00
 Community           Vegetable
                     Box
Gerald Community    Fresh Fruit/   Mountain       Gerald       MO              63037        290        $7,975.00
 Outreach            Vegetable      Plains
                     Box
Germantown          Fresh Fruit/   South East     Germantown   TN              38138        135        $3,307.50
 Presbyterian        Vegetable
 Church--C/O Mid     Box
 South Food
Get Real            Combination    South West     Bartlesvill  OK              74003      1,440       $50,356.80
 Ministries          Box                           e
Get Real            Fluid Milk     South West     Bartlesvill  OK              74003        495       $11,850.30
 Ministries                                        e
Get Real            Fresh Fruit/   South West     Bartlesvill  OK              74003        539       $12,558.70
 Ministries          Vegetable                     e
                     Box
Gethesemane Church  Fresh Fruit/   Midwest        Detroit      MI              48211        250        $3,737.50
                     Vegetable
                     Box
Giaudrone Middle    Combination    Western        Tacoma       WA              98408        760       $26,600.00
 School              Box
Giaudrone Middle    Fresh Fruit/   Western        Tacoma       WA              98408        760       $20,520.00
 School              Vegetable
                     Box
Giaudrone Middle    Dairy          Western        Tacoma       WA              98408        400       $12,000.00
 School              Products Box
Gift of Love/SHFB   Fluid Milk     South East     Edgewater    FL              32132        160          $606.40
Gila River          Fluid Milk     South West     Sacaton      AZ              85147        288        $1,353.60
 Commodity
Gilbert Heights     Combination    Western        Portland     OR              97236        223        $7,805.00
 Elem. USDA          Box
Gilbert Heights     Dairy          Western        Portland     OR              97236        350       $10,500.00
 Elem USDA           Products Box
Gilbert Heights     Fresh Fruit/   Western        Portland     OR              97236        120        $3,240.00
 Elem USDA           Vegetable
                     Box
Gilkey School       Fresh Fruit/   South East     Rutherfordt  NC              28139        700       $19,250.00
 Community Center    Vegetable                     on
                     Box
Gilmor Homes        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        750       $15,000.00
                     Vegetable
                     Box
Girdler Elem        Fluid Milk     South East     Girdler      KY              40943        900        $3,411.00
Girl's Inc.         Fresh Fruit/   South East     Memphis      TN              38127        108        $2,646.00
                     Vegetable
                     Box
Givens Recreation   Fresh Fruit/   South West     Austin       TX              78721      2,112       $35,882.88
 Center              Vegetable
                     Box
Giving Cupboard     Combination    Western        Rigby        ID              83442        400       $17,600.00
                     Box
Giving Cupboard     Fresh Fruit/   Western        Rigby        ID              83442        600       $15,600.00
                     Vegetable
                     Box
Giving Tree Food    Precooked      Midwest        Johannesbur  MI              49751      1,138       $46,975.53
 Pantry              Meat Box                      g
Glad Tidings        Fresh Fruit/   South East     Dunn         NC              28334        288        $7,318.08
                     Vegetable
                     Box
Glad Tidings        Fresh Fruit/   South West     Austin       TX              78756      1,000       $19,100.00
 Assembly of God     Vegetable
                     Box
Gladden Food        Fluid Milk     Midwest        Columbus     OH              43223        300          $996.00
 Pantry
Glassport           Fresh Fruit/   Mid-Atlantic   Glassport    PA              15045        600       $18,000.00
 Community           Vegetable
 Outreach            Box
Glassport           Fresh Fruit/   Mid-Atlantic   Glassport    PA              15045        120        $3,600.00
 Community           Vegetable
 Services            Box
Gleaner Food Bank   Precooked      South West     Springdale   AR              72764     11,488      $445,057.00
                     Meat Box
Gleaners Community  Fluid Milk     Midwest        Detroit      MI              48207     97,176      $218,646.00
 Food Bank
Gleaners Community  Fluid Milk     Midwest        Warren       MI              48091     19,440       $43,740.00
 Food Bank
Gleaners Community  Fresh Fruit/   Midwest        Detroit      MI              48207     22,028      $671,434.64
 Food Bank           Vegetable
                     Box
Gleaners Community  Fresh Fruit/   Midwest        Pontiac      MI              48340      9,000      $179,730.00
 Food Bank           Vegetable
                     Box
Gleaners Community  Fresh Fruit/   Midwest        Warren       MI              48091     11,934      $242,008.02
 Food Bank           Vegetable
                     Box
Gleaners Community  Precooked      Midwest        Detroit      MI              48207      1,340       $89,123.40
 Food Bank           Meat Box
Gleaners Community  Fresh Fruit/   Midwest        Detroit      MI              48207      7,980      $287,120.40
 Food Bank of Se     Vegetable
 MI                  Box
Gleaners Community  Fresh Fruit/   Midwest        Warren       MI              48091      1,512       $54,401.76
 Food Bank Warren    Vegetable
                     Box
Gleaners Community  Fresh Fruit/   Midwest        Detroit      MI              48207      1,512       $54,401.76
 Food Bankbeaufait   Vegetable
                     Box
Gleaner's Detroit   Dairy          Midwest        Detroit      MI              48207      1,820       $61,425.00
                     Products Box
Gleaner's Detroit   Dairy          Midwest        Detroit      MI              48209        910       $30,712.50
                     Products Box
Gleaner's Detroit   Dairy          Midwest        Detroit      MI              48210        910       $30,712.50
                     Products Box
Gleaner's Detroit   Dairy          Midwest        Detroit      MI              48212        910       $30,712.50
                     Products Box
Gleaner's Detroit   Precooked      Midwest        Detroit      MI              48210      1,470       $70,104.30
                     Meat Box
Gleaner's Detroit   Precooked      Midwest        Detroit      MI              48212      1,260       $60,089.40
                     Meat Box
Gleaners Dispatch   Fresh Fruit/   South East     Jacksonvill  FL              32209      1,512       $37,044.00
 Robins Aviles       Vegetable                     e
                     Box
Gleaners            Fresh Fruit/   Midwest        Warren       MI              48091      1,410       $21,079.50
 Distribution        Vegetable
 Center              Box
Gleaners Food Bank  Dairy          Midwest        Youngstown   OH              44502      6,500      $156,650.00
                     Products Box
Gleaners Food Bank  Fresh Fruit/   .............  Indianapoli  ID              46241      1,920       $26,880.00
                     Vegetable                     s
                     Box
Gleaners Food Bank  Fresh Fruit/   Midwest        Youngstown   OH              44502      3,460       $91,690.00
                     Vegetable
                     Box
Gleaners Food Bank  Precooked      Midwest        Detroit      IA              48207        225       $11,441.25
                     Meat Box
Gleaners Food Bank  Combination    Midwest        Indianapoli  IN              46241     20,189    $3,028,350.00
 of Indiana          Box                           s
Gleaners Food Bank  Dairy          Midwest        Indianapoli  IN              46241     49,584    $1,353,252.00
 of Indiana          Products Box                  s
Gleaners Food Bank  Fluid Milk     Midwest        Indianapoli  IN              46241     96,972      $387,888.00
 of Indiana                                        s
Gleaners Food Bank  Fresh Fruit/   Midwest        Indianapoli  IN              46241    203,812    $4,178,280.28
 of Indiana          Vegetable                     s
                     Box
Gleaners Food Bank  Precooked      Midwest        Indianapoli  IN              46241     21,427      $881,483.79
 of Indiana          Meat Box                      s
Gleaners Food       Precooked      South West     Tulsa        OK              74106      3,485      $124,927.80
 Basket              Meat Box
Gleaners Food       Precooked      South West     Muskogee     OK              74403      6,300      $243,873.04
 Basket Muskogee     Meat Box
Gleaners Food       Precooked      South West     Muskogee     OK              74401     20,914      $756,069.67
 Basket Muskogee     Meat Box
Gleaners Olhsa.     Fluid Milk     Midwest        Warren       MI              48091      9,720       $21,870.00
 Bnk.-Wrrn.
Gleaner's Pontiac   Dairy          Midwest        Pontiac      MI              48340        910       $30,712.50
                     Products Box
Gleaners--Pgrm.     Dairy          Midwest        Detroit      MI              48207      1,820       $61,425.00
                     Products Box
Gleaners--Pgrm.     Precooked      Midwest        Detroit      MI              48207      9,868      $470,604.92
                     Meat Box
Gleaners--Second    Dairy          Midwest        Muncie       IN              46241      1,008       $37,296.00
 Harvest Muncie      Products Box
Gleaning for the    Combination    Mid-Atlantic   Concord      VA              24538      3,579      $139,581.00
 World               Box
Glenda Mcdonald     Fresh Fruit/   Midwest        Highland     MI              48203          5          $143.75
                     Vegetable                     Park
                     Box
Glendale            Fresh Fruit/   North East     Tonawanda    NY              14150         70        $1,599.50
 Elementary          Vegetable
                     Box
Glendale Sports     Fresh Fruit/   Mountain       Denver       Co              80246        574       $14,866.60
 Center              Vegetable      Plains
                     Box
Glenpool Public     Combination    South West     Glenpool     OK              74033      1,440       $50,356.80
 Schools             Box
Glenpool Public     Fluid Milk     South West     Glenpool     OK              74033        495       $11,850.30
 Schools
Glenpool Public     Fresh Fruit/   South West     Glenpool     OK              74033      1,056       $10,243.20
 Schools             Vegetable
                     Box
Glide Memorial      Fluid Milk     Western        San          CA              94102        720        $3,420.00
 Church                                            Francisco
Glide Memorial      Fresh Fruit/   Western        San          CA              94102        250        $6,187.50
 Church              Vegetable                     Francisco
                     Box
Global Evangelism   Fresh Fruit/   South West     San Antonio  TX              78213      4,454       $86,853.00
 Inc.                Vegetable
                     Box
Global Foundations  Dairy          South West     Fort Worth   TX              76132        600       $27,456.00
                     Products Box
Global Foundations  Fresh Fruit/   South West     Fort Worth   TX              76132      1,150       $11,155.00
                     Vegetable
                     Box
Gloucester County   Fresh Fruit/   Mid-Atlantic   Woodbury     NJ              08096        252        $4,775.40
 YMCA                Vegetable
                     Box
Gloucester Omalley  Fresh Fruit/   North East     Gloucester   MA              01930        273        $5,992.35
 Sch.                Vegetable
                     Box
Glover Empowering   Fresh Fruit/   Western        Kent         WA              98032        350        $9,625.00
 Mentoring           Vegetable
                     Box
Glow Ministries     Fluid Milk     South East     Meldrim      GA              31318        700        $2,793.00
Glss. Green St.     Combination    North East     Lynn         MA              01902         49        $1,862.00
 Apartments          Box
Glss. Harbor Lofts  Combination    North East     Lynn         MA              01901         80        $3,040.00
 (OP)                Box
Glss. Liberty       Combination    North East     Lynn         MA              01901         50        $1,900.00
 Square (OP)         Box
Glss. Saugus Coa    Combination    North East     Saugus       MA              01906         40        $1,520.00
 (OP)                Box
Glss. Silsbee       Combination    North East     Lynn         MA              01901        155        $5,890.00
 Towers              Box
God Did It          Fresh Fruit/   South East     Montevello   AL              35115        500       $12,975.00
 Ministries          Vegetable
                     Box
God Did It          Fresh Fruit/   South East     Montvello    AL              35115        500       $12,975.00
 Ministries          Vegetable
                     Box
God Did It          Fresh Fruit/   South East     Montevello   AL              35116        500       $12,975.00
 Ministries          Vegetable
                     Box
God S Holy Refuge   Fresh Fruit/   Midwest        Benton       MI              49022        400        $8,450.00
                     Vegetable                     Harbor
                     Box
Godfrey-Lee Public  Fresh Fruit/   Midwest        Wyoming      MI              49509        500        $9,985.00
 Schools             Vegetable
                     Box
Gods Food Pantry    Fluid Milk     South East     Lexington    KY              40511      9,000       $20,250.00
Gods Pantry         Fresh Fruit/   Western        Pomona       CA              91767      2,640       $58,740.00
                     Vegetable
                     Box
God's Pantry        Fresh Fruit/   South West     Plano        TX              75074        112        $1,902.88
                     Vegetable
                     Box
Gods Pantry FB      Fluid Milk     South East     Morehead     KY              40351      7,164       $19,667.16
Gods Pantry FB      Fluid Milk     South East     Lexington    KY              40511      4,432       $16,797.28
Gods Pantry FB      Fluid Milk     South East     London       KY              40741      3,840       $14,553.60
Gods Pantry FB      Fluid Milk     South East     Prestonsbur  KY              41653      6,354       $17,844.66
                                                   g
God's Pantry FB     Fluid Milk     South East     London       KY              40741      9,720       $21,870.00
God's Pantry Food   Precooked      South East     Lexington    KY              40511      1,274       $51,902.76
 Bank Inc.           Meat Box
Gods Portion        Combination    Western        Centralia    WA              98531      6,960      $243,600.00
 Centralia           Box
Gods Portion        Dairy          Western        Centralia    WA              98531     12,900      $387,000.00
 Centralia           Products Box
Gods Portion        Fresh Fruit/   Western        Centralia    WA              98531     13,860      $374,220.00
 Centralia           Vegetable
                     Box
Gods Storehouse     Fresh Fruit/   Midwest        Detroit      MI              48203        200        $5,750.00
                     Vegetable
                     Box
God's Treasure      Precooked      Mid-Atlantic   Souderton    PA              18964        152        $2,736.00
 House               Meat Box
Gogebicontonagon    Precooked      Midwest        Bessemer     MI              49911        253        $9,378.93
 Head Start          Meat Box
Gold Star           Dairy          Western        Ontario      CA              91762    192,538   $16,404,237.60
                     Products Box
Gold Star           Dairy          Western        Ontario      CA              91764      1,848      $157,449.60
                     Products Box
Gold Star           Dairy          Western        Ontario      CA              91776      1,848      $157,449.60
                     Products Box
Gold Star           Precooked      Western        Ontario      CA              91761      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91762    232,424   $19,917,973.60
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91763      2,000      $175,000.00
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91764      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91765      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91766      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91767      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91768      2,000      $175,000.00
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91769      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91770      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91771      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91772      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91773      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91775      1,848      $155,047.20
                     Meat Box
Gold Star           Precooked      Western        Ontario      CA              91778      1,848      $155,047.20
                     Meat Box
Golden Corner FP    Fluid Milk     South East     Seneca       SC              29678        180          $682.20
Golden Harvest      Combination    South East     Augusta      GA              30909      9,184      $698,443.20
 Food Bank           Box
Golden Harvest      Fresh Fruit/   South East     Augusta      GA              30901      2,590       $49,054.60
 Food Bank           Vegetable
                     Box
Golden Harvest      Combination    South East     Aiken        SC              29803      1,344      $102,211.20
 Food Bank--Aiken    Box
Golden Rule         Dairy          South West     Flagstaff    AZ              86004        198        $5,247.00
                     Products Box
Golden Rule         Fresh Fruit/   South West     Flagstaff    AZ              86004        216        $4,719.60
                     Vegetable
                     Box
Golden Seeds        Combination    South West     Dallas       TX              75203        100        $3,497.00
 Foundation          Box
Golden Seeds        Fresh Fruit/   South West     Dallas       TX              75203        150        $2,865.00
 Foundation          Vegetable
                     Box
Gompers Elementary  Fresh Fruit/   Midwest        Detroit      MI              48223        500        $7,475.00
 School              Vegetable
                     Box
Gone Fishing        Fluid Milk     South East     Pass         MS              39571        900        $3,591.00
                                                   Christian
Gone Fishing        Fresh Fruit/   South East     Pass         MS              39056        820       $49,200.00
 Ministries          Vegetable                     Christian
                     Box
Gone Fishing        Fresh Fruit/   South East     Pass         MS              39096        260       $15,600.00
 Ministries          Vegetable                     Christian
                     Box
Good Amity          Dairy          South West     Dallas       TX              75224        550       $25,168.00
                     Products Box
Good Amity          Fresh Fruit/   South West     Dallas       TX              75224        300        $4,950.00
                     Vegetable
                     Box
Good Hope           Fresh Fruit/   South East     Baker        FL              32531        550       $15,950.00
                     Vegetable
                     Box
Good Nbr. Stlmt.    Fluid Milk     South West     Brownsville  TX              78520      1,296        $3,784.32
 Hse.
Good Neighbors      Fluid Milk     Midwest        Akron        OH              44305        600        $2,015.00
Good News           Fresh Fruit/   South East     Pine Level   NC              27568      5,000       $57,500.00
                     Vegetable
                     Box
Good News Buenas    Fluid Milk     South East     Selma        NC              27576        864        $3,447.36
 Nu
Good News Food      Combination    Western        Nampa        ID              83687        200        $8,800.00
 Pantry LLC          Box
Good News Food      Fresh Fruit/   Western        Nampa        ID              83687        200        $5,200.00
 Pantry LLC          Vegetable
                     Box
Good Sam.           Fresh Fruit/   Midwest        Chillicothe  OH              45601        256        $4,992.00
                     Vegetable
                     Box
Good Sam. Health    Fresh Fruit/   South East     Atlanta      GA              30318        270        $5,400.00
 Center              Vegetable
                     Box
Good Samaritan      Dairy          South East     Laurel       MS              39440        160        $4,492.80
                     Products Box
Good Samaritan      Fluid Milk     South East     Laurel       MS              39440        576        $4,227.84
Good Samaritan      Fluid Milk     South West     Garland      TX              75040        300          $876.00
Good Samaritan      Fresh Fruit/   South East     Laurel       MS              39440        528        $8,923.20
                     Vegetable
                     Box
Good Samaritan      Precooked      South East     Laurel       MS              39440        336       $13,796.16
                     Meat Box
Good Samaritan      Fresh Fruit/   South East     Jackson      MS              39202        288        $4,867.20
 Center              Vegetable
                     Box
Good Samaritan      Precooked      South East     Jackson      MS              39202        252       $10,347.12
 Center In.          Meat Box
Good Samaritan      Fluid Milk     South East     Jackson      MS              39202        192        $1,409.28
 Center In.
Good Samaritan      Fresh Fruit/   South East     Jackson      MS              39202        160        $2,704.00
 Center In.          Vegetable
                     Box
Good Samaritan      Fresh Fruit/   Western        San          CA              94121        140        $1,960.00
 Church              Vegetable                     Francisco
                     Box
Good Samaritan      Fresh Fruit/   Western        San          CA              94121        630        $8,820.00
 Church              Vegetable                     Francisco
                     Box
Good Samaritan      Dairy          Midwest        Ellsworth    MI              49729        240        $6,000.00
 Fmly. Srv.          Products Box
Good Samaritan      Fluid Milk     Western        Honolulu     HI              96819        288        $1,203.84
 Foundation
Good Samaritan      Dairy          Midwest        Vincennes    IN              47591      2,640       $66,000.00
 Hospital            Products Box
Good Samaritan      Dairy          Midwest        Mt. Vernon   IL              62864        550       $16,362.50
 Hospital            Products Box
Good Samaritan      Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        550       $15,125.00
 Hospital            Vegetable
                     Box
Good Samaritan      Fluid Milk     South East     Jackson      MS              39202        720        $2,872.80
 Jack.
Good Samaritan      Fluid Milk     South East     Laurel       MS              39440      1,440        $5,457.60
 Laur.
Good Samaritan of   Fluid Milk     South West     Garland      TX              75040        780        $2,277.60
 Garland
Good Samaritan of   Fresh Fruit/   Midwest        Olney        IL              62450         60        $1,650.00
 Richland            Vegetable
                     Box
Good Samaritan      Fresh Fruit/   Mid-Atlantic   Ambridge     PA              15003      1,200       $36,000.00
 Parish              Vegetable
                     Box
Good Shepard        Fresh Fruit/   South West     Crockett     TX              75835      4,608       $78,289.92
 Fellowship          Vegetable
                     Box
Good Shepard        Fluid Milk     Mountain       Linn         MO              65051        396          $891.00
 Foodpantry                         Plains
Good Shepard Yth.   Combination    Western        Seattle      WA              98032        100        $3,500.00
 Outreach            Box
Good Shepard Yth.   Dairy          Western        Seattle      WA              98032         90        $2,700.00
 Outreach            Products Box
Good Shepard Yth.   Fresh Fruit/   Western        Seattle      WA              98032        100        $2,700.00
 Outreach            Vegetable
                     Box
Good Sheperd        Fresh Fruit/   Midwest        Robbins      IL              60472        315       $11,333.70
 Lutheran Church     Vegetable
                     Box
Good Shephards      Precooked      Midwest        Robbins      IL              60472        288       $23,362.56
 Lutheran            Meat Box
Good Shepherd       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        250        $5,237.50
 Baptist             Vegetable
                     Box
Good Shepherd       Fluid Milk     South East     Wilmington   NC              28401        480        $1,867.20
 Cente.
Good Shepherd Food  Combination    North East     Auburn       Me              04210        111        $4,218.00
 Bank                Box
Good Shepherd Food  Fresh Fruit/   North East     Auburn       Me              04211      4,832      $111,254.40
 Bank                Vegetable
                     Box
Good Shepherd       Dairy          Midwest        Robbins      IL              60472        305        $7,625.00
 Lutheran Crh Box    Products Box
Good Smaratan.      Fluid Milk     South East     Crossville   TN              38558        240          $909.60
 Socie.
Goodwill            Dairy          Midwest        Traverse     MI              49684         20          $580.00
 Industries          Products Box                  City
Goodwill            Fresh Fruit/   Midwest        Traverse     MI              49684         40          $845.00
 Industries          Vegetable                     City
                     Box
Goose Rock Elem.    Fluid Milk     South East     Manchester   KY              40962        456        $1,728.24
Gordon Parks        Fresh Fruit/   Mountain       Kansas City  MO              64111         90        $2,331.00
 Elementary          Vegetable      Plains
                     Box
Gorham United       Fresh Fruit/   Midwest        Chicago      IL              60637        126        $4,533.48
 Methodist           Vegetable
                     Box
Goshen Valley       Fluid Milk     South East     Waleska      GA              30183        120          $454.80
 Found
Gospel Outreach     Fresh Fruit/   Mountain       Grand Forks  ND              58201      7,680      $198,912.00
 Church of God       Vegetable      Plains
                     Box
Gospel Rescue       Dairy          South West     Tucson       AZ              85705         96        $2,544.00
 Mission             Products Box
Gospel Rescue       Fresh Fruit/   South West     Tucson       AZ              85705         80        $1,748.00
 Mission             Vegetable
                     Box
Gospel Tab. Church  Fluid Milk     South East     Selma        AL              36701      9,195       $36,688.05
Gospel Truth Comm.  Fresh Fruit/   Midwest        Detroit      MI              48238        200        $5,750.00
 Christian           Vegetable
                     Box
Gospel Way          Precooked      Midwest        Chicago      IL              60617        288       $23,362.56
 Covenant            Meat Box
Gowanda Central     Fresh Fruit/   North East     Gowanda      NY              14070      4,150       $94,827.50
 High School         Vegetable
                     Box
GP Resource and     Combination    South West     Galena       TX              77547        500       $17,485.00
 Training Center     Box
GPCFB-412 Food      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15206      2,095       $39,972.60
 Rescue              Vegetable
                     Box
GPCFB--Ajapo-Mount  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15210        150        $2,862.00
 Oliver              Vegetable
                     Box
GPCFB--Ajapo-West   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15122        150        $2,862.00
 End                 Vegetable
                     Box
GPCFB--Beulah       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15210        140        $2,671.20
 Baptist Church      Vegetable
                     Box
GPCFB--Btc. Center  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        265        $5,056.20
 Inc.                Vegetable
                     Box
GPCFB--Butler       Fresh Fruit/   Mid-Atlantic   Prospect     PA              16052        900       $17,172.00
 County Fairground   Vegetable
                     Box
GPCFB--Carmalt      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15234        375        $7,155.00
 School              Vegetable
                     Box
GPCFB--CCCWP        Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        784       $14,958.72
                     Vegetable
                     Box
GPCFB--Center for   Fresh Fruit/   Mid-Atlantic   Ambridge     PA              15003        140        $2,671.20
 Hope Faith          Vegetable
                     Box
GPCFB--CHS Food     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15213        700       $13,356.00
 Pantry              Vegetable
                     Box
GPCFB--Community    Fresh Fruit/   Mid-Atlantic   Hermitage    PA              16148      2,176       $41,518.08
 Food Warehouse      Vegetable
                     Box
GPCFB--Confluence/  Fresh Fruit/   Mid-Atlantic   Confluence   PA              15424        400        $7,632.00
 Turkeyfoot          Vegetable
                     Box
GPCFB--Corner       Fresh Fruit/   Mid-Atlantic   Waynesburg   PA              15370        112        $2,136.96
 Cupboard Foodbank   Vegetable
                     Box
GPCFB--Duquesne     Fresh Fruit/   Mid-Atlantic   Duquesne     PA              15110      1,502       $28,658.16
 Drive Up Dist       Vegetable
                     Box
GPCFB--East End     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15206        400        $7,632.00
 Ministry Pantry     Vegetable
                     Box
GPCFB--Faison       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        375        $7,155.00
 School              Vegetable
                     Box
GPCFB--Father's     Fresh Fruit/   Mid-Atlantic   Mckeesport   PA              15132        150        $2,862.00
 Heart Ministry      Vegetable
                     Box
GPCFB--Fayette      Fresh Fruit/   Mid-Atlantic   Connellsvil  PA              15425        824       $15,721.92
 Comm. Action        Vegetable                     le
                     Box
GPCFB--Fayette      Fresh Fruit/   Mid-Atlantic   Republic     PA              15475        504        $9,616.32
 County Food Bank    Vegetable
                     Box
GPCFB--Feeding the  Fresh Fruit/   Mid-Atlantic   Harmarville  PA              15024      1,972       $37,625.76
 Flock               Vegetable
                     Box
GPCFB--Food for     Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15905        790       $15,073.20
 Families            Vegetable
                     Box
GPCFB--Fresh Fire   Fresh Fruit/   Mid-Atlantic   Uniontown    PA              15401      3,388       $64,643.04
 Church Uniont       Vegetable
                     Box
GPCFB--Hazelwood    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15207        150        $2,862.00
 YMCA                Vegetable
                     Box
GPCFB--Hilltop      Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15210        200        $3,816.00
 Alliance            Vegetable
                     Box
GPCFB--Homewood     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        412        $7,860.96
 YMCA                Vegetable
                     Box
GPCFB--Indiana      Fresh Fruit/   Mid-Atlantic   Somerset     PA              15501      1,000       $19,080.00
 County Comm. Agen   Vegetable
                     Box
GPCFB--Interfaith   Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15909        300        $5,724.00
 Comm. Pantry        Vegetable
                     Box
GPCFB--Interfaith-  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15236        280        $5,342.40
 Baldwin             Vegetable
                     Box
GPCFB--Interfaith-  Fresh Fruit/   Mid-Atlantic   Bethel Park  PA              15102        393        $7,498.44
 Bethel Park         Vegetable
                     Box
GPCFB--Johnstown    Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15904        952       $18,164.16
 Galleria            Vegetable
                     Box
GPCFB--Lincoln      Fresh Fruit/   Mid-Atlantic   Penn Hills   PA              15235        954       $18,202.32
 Park Comm. Center   Vegetable
                     Box
GPCFB--Network of   Fresh Fruit/   Mid-Atlantic   Allison      PA              15101        280        $5,342.40
 Hope                Vegetable                     Park
                     Box
GPCFB--New Life     Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        450        $8,586.00
 Bread Basket        Vegetable
                     Box
GPCFB--NHCO-Loaves  Fresh Fruit/   Mid-Atlantic   Allison      PA              15101        480        $9,158.40
 & Fishes            Vegetable                     Park
                     Box
GPCFB--North        Fresh Fruit/   Mid-Atlantic   Avalon       PA              15202        112        $2,136.96
 Borough Food        Vegetable
 Pantr               Box
GPCFB--Northside    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15214      1,400       $26,712.00
 Ministry            Vegetable
                     Box
GPCFB--Patton Food  Fresh Fruit/   Mid-Atlantic   Patton       PA              16668        280        $5,342.40
 Pantry              Vegetable
                     Box
GPCFB--People in    Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        400        $7,632.00
 Need Fresh Mkt.     Vegetable
                     Box
GPCFB--Perry High   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15214        375        $7,155.00
 School              Vegetable
                     Box
GPCFB--Petra Food   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15235        280        $5,342.40
 Pantry              Vegetable
                     Box
GPCFB--PGH Int'l.   Fresh Fruit/   Mid-Atlantic   Wampum       PA              16157        784       $14,958.72
 Race Complex        Vegetable
                     Box
GPCFB--Pittsburgh   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15231      1,000       $19,080.00
 Int'l. Airport      Vegetable
                     Box
GPCFB--Portage      Fresh Fruit/   Mid-Atlantic   Portage      PA              15946        150        $2,862.00
 Food Pantry         Vegetable
                     Box
GPCFB--PPG Paints   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219      1,384       $26,406.72
 Arena               Vegetable
                     Box
GPCFB--Rankin       Fresh Fruit/   Mid-Atlantic   Rankin       PA              15104        100        $1,908.00
 Christian Pantry    Vegetable
                     Box
GPCFB--Rosedale     Fresh Fruit/   Mid-Atlantic   Verona       PA              15147      1,374       $26,215.92
 Food Pantr          Vegetable
                     Box
GPCFB--Salvation    Fresh Fruit/   Mid-Atlantic   Beaver       PA              15010        762       $14,538.96
 Army Beaver         Vegetable                     Falls
                     Box
GPCFB--Salvation    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15226        462        $8,814.96
 Army Pgh. Corp.     Vegetable
                     Box
GPCFB--Shim-Bethel  Fresh Fruit/   Mid-Atlantic   Bethel Park  PA              15102        180        $3,434.40
 Park                Vegetable
                     Box
GPCFB--Somerset     Fresh Fruit/   Mid-Atlantic   Somerset     PA              15501      2,950       $56,286.00
 County Foodbank     Vegetable
                     Box
GPCFB--Sound the    Fresh Fruit/   Mid-Atlantic   Aliquippa    PA              15001        200        $3,816.00
 Alarm               Vegetable
                     Box
GPCFB--South Fork   Fresh Fruit/   Mid-Atlantic   South Fork   PA              15956        140        $2,671.20
 Food Pantry         Vegetable
                     Box
GPCFB--South Hills  Fresh Fruit/   Mid-Atlantic   Bethel Park  PA              15102        672       $12,821.76
 Drive Up            Vegetable
                     Box
GPCFB--St. Bernard  Fresh Fruit/   Mid-Atlantic   Hastings     PA              16668        450        $8,586.00
 Food Pantry         Vegetable
                     Box
GPCFB--St. Francis  Fresh Fruit/   Mid-Atlantic   Hollsopple   PA              15935        200        $3,816.00
 Food Pantry         Vegetable
                     Box
GPCFB--Station Sq.  Fresh Fruit/   Mid-Atlantic   Allentown    PA              15101        600       $11,448.00
 Drive Up            Vegetable
                     Box
GPCFB--Station Sq.  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219        400        $7,632.00
 Drive Up            Vegetable
                     Box
GPCFB--Swissvale    Fresh Fruit/   Mid-Atlantic   Swissvale    PA              15218         50          $954.00
 Comm. Pantry        Vegetable
                     Box
GPCFB--The Gifted   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15205        375        $7,155.00
 Center              Vegetable
                     Box
GPCFB--University   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219        375        $7,155.00
 Prep                Vegetable
                     Box
GPCFB--Valley View  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15206        300        $5,724.00
 Presby Churc        Vegetable
                     Box
GPCFB--Veterans     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15201        650       $12,402.00
 Program Allegh      Vegetable
                     Box
GPCFB--Veterans     Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15905        590       $11,257.20
 Program Johnsto     Vegetable
                     Box
GPCFB--Warehouse    Fresh Fruit/   Mid-Atlantic   Duquesne     PA              15110     16,398      $312,873.84
                     Vegetable
                     Box
GPCFB--West Hills   Fresh Fruit/   Mid-Atlantic   Moon         PA              15108        525       $10,017.00
 Food Pantry         Vegetable                     Township
                     Box
GPCFB--Wilkinsbrug  Fresh Fruit/   Mid-Atlantic   Wilkinsburg  PA              15221        476        $9,082.08
 Drive Up            Vegetable
                     Box
Grace & Mercy       Fluid Milk     Midwest        Crawfordsvi  IN              47933      3,300       $13,200.00
 Ministrie.                                        lle
Grace and Peac.     Fluid Milk     Midwest        Chicago      IL              60639      8,640       $28,684.80
Grace and Peace     Fluid Milk     Midwest        Chicago      IL              60639     12,960       $43,027.20
Grace and Peace     Precooked      Midwest        Chicago      IL              60639      1,274       $48,666.80
 Fellowship Inc.     Meat Box
Grace and Pease     Precooked      Midwest        Chicago      IL              60639      1,274       $48,666.80
 Fellowship          Meat Box
Grace Apostolic     Fluid Milk     South West     Mountain     AR              71956        495       $11,850.30
 Church                                            Pine
Grace Apostolic     Fresh Fruit/   South West     Mountain     AR              71956        539       $12,558.70
 Church              Vegetable                     Pine
                     Box
Grace Baptist       Dairy          South West     Ft Worth     TX              76108        400       $18,304.00
 Church              Products Box
Grace Bible Church  Fresh Fruit/   Mid-Atlantic   Barrington   NJ              08007        252        $4,775.40
                     Vegetable
                     Box
Grace Bridge Food   Combination    South West     Celina       TX              75009      1,152       $40,285.44
 Bank                Box
Grace Bridge Food   Dairy          South West     Celina       TX              75009        480       $21,964.80
 Bank                Products Box
Grace Bridge Food   Fluid Milk     South West     Celina       TX              75009        810       $19,391.40
 Bank
Grace Bridge Food   Fresh Fruit/   South West     Celina       TX              75009      1,791       $24,281.70
 Bank                Vegetable
                     Box
Grace Cathedral     Dairy          Midwest        Akron        OH              44223      1,000       $24,100.00
 Church              Products Box
Grace Cathedral     Dairy          Midwest        Akron        OH              44312        780       $18,798.00
 Church              Products Box
Grace Cathedral     Dairy          Midwest        Cuyahoga     OH              44223        440       $10,604.00
 Church              Products Box                  Falls
Grace Cathedral     Fresh Fruit/   Midwest        Akron        OH              44312      1,000       $26,500.00
 Church              Vegetable
                     Box
Grace Cathedral     Fresh Fruit/   Midwest        Cuyahoga     OH              44223        450       $11,925.00
 Church              Vegetable                     Falls
                     Box
Grace Central       Fresh Fruit/   Midwest        Westchester  IL              60154        189        $6,800.22
 Outreach            Vegetable
                     Box
Grace Central       Fresh Fruit/   Midwest        Westerchest  IL              60154        189        $6,800.22
 Outreach            Vegetable                     er
                     Box
Grace Central       Precooked      Midwest        Westchester  IL              60154        432       $35,043.84
 Outreach            Meat Box
Grace Christian     Fresh Fruit/   Midwest        Sterling     MI              48312      1,200       $34,500.00
 Church              Vegetable                     Heights
                     Box
Grace Church        Combination    South East     Cape Coral   FL              33990      1,120       $85,176.00
                     Box
Grace Church        Dairy          Midwest        Middleburg   OH              44130      1,755       $42,295.50
                     Products Box                  Heights
Grace Church        Fresh Fruit/   South East     Pearl        MS              39208        544        $9,193.60
                     Vegetable
                     Box
Grace Church        Fresh Fruit/   Midwest        Cleveland    OH              44109        120        $3,180.00
                     Vegetable
                     Box
Grace Church        Fresh Fruit/   Midwest        Middleburg   OH              44130      1,160       $30,740.00
                     Vegetable                     Heights
                     Box
Grace Church        Precooked      South East     Pearl        MS              39208        924       $37,939.44
                     Meat Box
Grace Church        Dairy          Midwest        Salem        IL              62881        650       $19,337.50
 Nazarene Salem      Products Box
Grace Church        Fresh Fruit/   Midwest        Salem        IL              62881        547       $15,042.50
 Nazarene Salem      Vegetable
                     Box
Grace Church of     Fluid Milk     Midwest        Fairlawn     OH              44333         40          $132.80
 Gre.
Grace Church Old    Fresh Fruit/   Midwest        Cleveland    OH              44109        330        $8,745.00
 Brooklyn            Vegetable
                     Box
Grace Church STL/   Fresh Fruit/   Mountain       Maryland     MO              63042        360       $11,520.00
 STL Food Bnk        Vegetable      Plains         Height
                     Box
Grace Community     Fresh Fruit/   Midwest        Toledo       OH              43610        351        $4,387.50
 Center              Vegetable
                     Box
Grace Community     Dairy          South West     Konawa       OK              74849        576       $26,357.76
 Church              Products Box
Grace Community     Fluid Milk     South West     Houston      TX              77034      1,000        $3,210.00
 Church
Grace Community     Fluid Milk     South West     Port Arthur  TX              77642        236          $722.76
 Church
Grace Community     Fresh Fruit/   South West     Konawa       OK              74849        539       $12,558.70
 Church              Vegetable
                     Box
Grace Community     Fresh Fruit/   South West     Arlington    TX              76017      1,112       $18,892.88
 Church              Vegetable
                     Box
Grace Community     Fresh Fruit/   South West     Houston      TX              77034      2,256       $38,329.44
 Church              Vegetable
                     Box
Grace Community     Fresh Fruit/   North East     Buffalo      NY              14223        150        $3,427.50
 Outreach            Vegetable
                     Box
Grace Episcopal     Fresh Fruit/   South East     Canton       MS              39046      1,100       $21,945.00
                     Vegetable
                     Box
Grace Episcopal     Fresh Fruit/   South East     Birmingham   AL              35212        620       $12,400.00
 Church              Vegetable
                     Box
Grace Episcopal     Dairy          South West     Muskogee     OK              74401        576       $26,357.76
 Muskogee            Products Box
Grace Episcopal     Fluid Milk     South West     Muskogee     OK              74401        495       $11,850.30
 Muskogee
Grace Episcopal     Fresh Fruit/   South West     Muskogee     OK              74401      3,506       $60,742.60
 Muskogee            Vegetable
                     Box
Grace Espiscopal    Fresh Fruit/   South East     Canton       MS              39046        300        $5,985.00
                     Vegetable
                     Box
Grace Evangelic     Precooked      Midwest        Chicago      IL              60618        288       $23,362.56
 Covenant            Meat Box
Grace Family        Fresh Fruit/   Mountain       Park Hills   MO              63601        190        $5,225.00
 Church              Vegetable      Plains
                     Box
Grace Food Bank     Fresh Fruit/   South West     Fort Worth   TX              76108        400        $9,320.00
                     Vegetable
                     Box
Grace Food Bank     Fresh Fruit/   South West     Grapevine    TX              76051        200        $2,880.00
                     Vegetable
                     Box
Grace House         Fluid Milk     South East     Jackson      MS              39202        900        $3,411.00
Grace Klein         Combination    South East     Hoover       AL              35216      4,032      $306,633.60
 Community           Box
Grace Klein         Fresh Fruit/   South East     Birmingham   AL              35216      1,708       $47,824.00
 Community           Vegetable
                     Box
Grace Klein         Fresh Fruit/   South East     Hoover       AL              35216      3,700       $96,015.00
 Construction        Vegetable
                     Box
Grace Life Church   Fresh Fruit/   Mid-Atlantic   Monroeville  PA              15146        240        $7,200.00
                     Vegetable
                     Box
Grace MBC Food      Fresh Fruit/   Midwest        Chicago      IL              60428         63        $2,266.74
 Pantry              Vegetable
                     Box
Grace MBC Food      Dairy          Midwest        Markham      IL              60428         70        $1,750.00
 Pantry Box          Products Box
Grace of God        Fluid Milk     South East     Clanton      AL              35045      3,720       $14,470.80
 Ministries
Grace of God        Fresh Fruit/   South East     Clanton      AL              35045      2,800       $72,660.00
 Ministries          Vegetable
                     Box
Grace of God PDM    Fluid Milk     South East     Conyers      GA              30012        160          $622.40
Grace Pantry        Fresh Fruit/   Midwest        Cambridge    OH              43950        324        $4,050.00
                     Vegetable
                     Box
Grace Resources     Fluid Milk     Western        Lancaster    CA              93535      2,592       $25,894.08
Grace Resources     Fresh Fruit/   Western        Lancaster    CA              93534      1,400       $34,650.00
                     Vegetable
                     Box
Grace Taber/Sosa    Fluid Milk     South East     Wildwood     FL              34785        560        $2,122.40
Grace Tabernacle    Dairy          Midwest        Cleveland    OH              44124         65        $1,625.00
 Baptist Church      Products Box
Grace Temple        Fresh Fruit/   South West     Fort Worth   TX              76105        384        $6,524.16
 Seventh             Vegetable
                     Box
Grace United        Fresh Fruit/   South West     Houston      TX              77072        320        $5,436.80
 Church              Vegetable
                     Box
Gracia Abundante    Fresh Fruit/   South West     Conroe       TX              77301      4,928       $83,726.72
 Church              Vegetable
                     Box
Gracious Saviour    Fresh Fruit/   Midwest        Detroit      MI              48235        210        $3,139.50
 Lutheran            Vegetable
                     Box
Grady Brookhaven    Fresh Fruit/   South East     Atlanta      GA              30324        190        $3,800.00
                     Vegetable
                     Box
Grady Buhi North    Fresh Fruit/   South East     Atlanta      GA              30341        225        $4,500.00
                     Vegetable
                     Box
Grady Buhi South    Fresh Fruit/   South East     Atlanta      GA              30345      1,525       $30,500.00
                     Vegetable
                     Box
Grady Camp Creek    Fresh Fruit/   South East     Atlanta      GA              30331        360        $7,200.00
                     Vegetable
                     Box
Grady Crestview     Fresh Fruit/   South East     Atlanta      GA              30315        470        $9,400.00
                     Vegetable
                     Box
Grady East Point    Fresh Fruit/   South East     East Point   GA              30344        175        $3,500.00
                     Vegetable
                     Box
Grady Friendship    Fresh Fruit/   South East     Atlanta      GA              30313        110        $2,200.00
 Towers              Vegetable
                     Box
Grady Kirkwood      Fresh Fruit/   South East     Atlanta      GA              30317        260        $5,200.00
                     Vegetable
                     Box
Grady N. Fulton     Fresh Fruit/   South East     Sandy        GA              30308         80        $1,600.00
                     Vegetable                     Springs
                     Box
Grady Ponce         Fresh Fruit/   South East     Atlanta      GA              30308        180        $3,600.00
                     Vegetable
                     Box
Grafton Millbury    Fresh Fruit/   North East     Grafton      MA              01519        329        $7,221.55
 St. School          Vegetable
                     Box
Grain Valley High   Fresh Fruit/   Mountain       Garin        MO              64029        120        $3,108.00
 School              Vegetable      Plains         Valley
                     Box
Grain Valley High   Fresh Fruit/   Mountain       Grain        MO              64029        600       $15,540.00
 School              Vegetable      Plains         Valley
                     Box
Grand Ave. SDA      Fresh Fruit/   Western        Oakland      CA              94610        120        $1,800.00
 Church              Vegetable
                     Box
Grand Avenue        Dairy          Midwest        Carbondale   IL              62901        100        $2,975.00
 Christian Church    Products Box
Grand Avenue        Fresh Fruit/   Midwest        Carbondale   IL              62901        400       $11,000.00
 Christian Church    Vegetable
                     Box
Grand Blanc         Fresh Fruit/   Midwest        Grand Blanc  MI              48439        378       $13,600.44
 Academy             Vegetable
                     Box
Grand Rapids        Dairy          Midwest        Grand        MI              49503        625       $18,125.00
 Public              Products Box                  Rapids
Grand Rapids        Fresh Fruit/   Midwest        Grand        MI              49503        800       $16,200.00
 Public              Vegetable                     Rapids
                     Box
Grand Rapids        Fresh Fruit/   Midwest        Grand        MI              49505        252        $9,066.96
 Public Schools      Vegetable                     Rapids
                     Box
Grandmas Attic      Fresh Fruit/   Mid-Atlantic   Braddock     PA              15104        560       $16,800.00
                     Vegetable
                     Box
Grandparents        Fluid Milk     Mid-Atlantic   Paterson     NJ              07501      1,998       $58,040.16
 Relatives Care
Grandparents        Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07501        720       $16,545.60
 Relatives Care      Vegetable
                     Box
Grands As Parents   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19132        420        $8,400.00
 Program             Vegetable                     a
                     Box
Grandview Church    Fresh Fruit/   South East     Birmingham   AL              35243        440       $11,418.00
 of the Highlands    Vegetable
                     Box
Grandview           Fresh Fruit/   Mountain       Higginsvill  MO              64037        520       $13,468.00
 Elementary School   Vegetable      Plains         e
                     Box
Grandview Park      Fresh Fruit/   Mountain       Kansas City  KS              66102        426        $6,694.20
 Presbyterian        Vegetable      Plains
 Church              Box
Grandview           Fresh Fruit/   Western        Grandview    WA              98930      3,724       $53,867.66
 Salvation Army      Vegetable
                     Box
Graneros Del Cielo  Combination    Mid-Atlantic   Bayamon      PR              00956      4,032      $399,168.00
                     Box
Grape Creek         Fresh Fruit/   South East     Murphy       NC              28906         92        $2,530.00
 Community Center    Vegetable
                     Box
Grapevine           Fluid Milk     South West     Grapevine    TX              76051      1,119       $26,788.86
 Colleyville Isd.
Grapevine           Fresh Fruit/   South West     Grapevine    TX              76244        315        $3,055.50
 Elementary Gcisd    Vegetable
                     Box
Grapevine Rec.      Fresh Fruit/   South West     Grapevine    TX              76051         30          $573.00
                     Vegetable
                     Box
Grass Lake Elem.    Dairy          Midwest        Grass Lake   MI              49240        300        $7,281.00
                     Products Box
Grass Lake Elem.    Fresh Fruit/   Midwest        Grass Lake   MI              49240        800       $16,164.00
                     Vegetable
                     Box
Grass Lake Elem.    Precooked      Midwest        Grass Lake   MI              49240        400       $16,803.00
                     Meat Box
Gratiot Woods       Fresh Fruit/   Midwest        Detroit      MI              48213        150        $2,242.50
 Apartment           Vegetable
                     Box
Grayling            Fresh Fruit/   Midwest        Grayling     MI              49738        280       $10,074.40
 Elementary          Vegetable
 Schools             Box
Gray's Creek        Fresh Fruit/   South East     Arlington    TN              38002        432       $10,584.00
 Church              Vegetable
                     Box
Grays Harbor--Pac   Fluid Milk     Western        Hoquiam      WA              98550        840        $3,998.40
 Cty.
Grayson Community   Fluid Milk     South West     Houston      TX              77015         25           $80.25
Great Beaver        Fluid Milk     South East     Heidelberg   MS              39439        540        $2,154.60
 Meadow
Great Lakes Comm.   Dairy          Midwest        Fremont      OH              43420        145        $3,625.00
 Action              Products Box
Great Lakes Comm.   Fluid Milk     Midwest        Fremont      OH              43420        180          $597.60
 Action
Great Macedonia     Fresh Fruit/   South East     Helena       GA              31037        960       $18,182.40
 MBC                 Vegetable                     Mccrae
                     Box
Great Plains Food   Dairy          Mountain       Fargo        ND              58103      2,400       $68,688.00
 Bank                Products Box   Plains
Greater Apostolic   Fluid Milk     Midwest        Cincinnati   OH              45231        540        $1,792.80
Greater Baton       Combination    South West     Baker        LA              70714      1,620      $137,408.40
 Rouge Food Bank     Box
Greater Baton       Combination    South West     Baton Rouge  LA              70815      1,620      $137,408.40
 Rouge Food Bank     Box
Greater Baton       Dairy          South West     Gonzales     LA              70737      1,620      $135,513.00
 Rouge Food Bank     Products Box
Greater Baton       Dairy          South West     Baton Rouge  LA              70812      3,240      $271,026.00
 Rouge Food Bank     Products Box
Greater Baton       Fluid Milk     South West     Baton Rouge  LA              70808      7,920       $38,570.40
 Rouge Food Bank
Greater Baton       Fluid Milk     South West     Baker        LA              70714      3,960       $19,285.20
 Rouge Food Bank
Greater Baton       Fresh Fruit/   South West     Baton Rouge  LA              70808      6,968      $499,131.36
 Rouge Food Bank     Vegetable
                     Box
Greater Baton       Fresh Fruit/   South West     Baker        LA              70714      1,560       $95,752.80
 Rouge Food Bank     Vegetable
                     Box
Greater Baton       Precooked      South West     Baton Rouge  LA              70808      8,005      $948,912.70
 Rouge Food Bank     Meat Box
Greater Baton       Precooked      South West     Gonzales     LA              70737      1,632      $193,457.28
 Rouge Food Bank     Meat Box
Greater Bergen      Fresh Fruit/   Mid-Atlantic   Hackensack   NJ              07601        756       $14,326.20
 County YMCA         Vegetable
                     Box
Greater Bethel      Fresh Fruit/   South East     Union City   TN              38261        648       $15,876.00
 Cogic--C/O Mid      Vegetable
 South Food Bank     Box
Greater Birmingham  Fresh Fruit/   South East     Birmingham   AL              35234      1,000       $25,950.00
 Ministries          Vegetable
                     Box
Greater Boston      Combination    North East     Boston       MA              02118      2,496       $87,276.80
 Food Bank           Box
Greater Boston      Fluid Milk     North East     Boston       MA              02118      6,144       $12,477.12
 Food Bank
Greater Boston      Fresh Fruit/   North East     Boston       MA              02118     21,108      $443,649.60
 Food Bank           Vegetable
                     Box
Greater Boston      Precooked      North East     Boston       MA              02118     13,086      $490,960.76
 Food Bank           Meat Box
Greater Chicago     Precooked      Midwest        Chicago      IL              60632      3,744      $303,713.28
                     Meat Box
Greater Chicago     Dairy          Midwest        Chicago      IL              60632         60        $1,500.00
 Food Depos. Box     Products Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60455      1,638       $58,935.24
 Food Depository     Vegetable
                     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623      1,300       $35,100.00
 Food Depository     Vegetable
                     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60632      6,930      $249,341.40
 Food Depository     Vegetable
                     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60632     58,100    $2,072,478.00
 Food Depository     Vegetable
                     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60639        500       $13,500.00
 Food Depository     Vegetable
                     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60805        500       $13,500.00
 Food Depository     Vegetable
                     Box
Greater Chicago     Precooked      Midwest        Chicago      IL              60632     14,792    $1,085,681.04
 Food Depository     Meat Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60411        126        $4,533.48
 Food Depository--   Vegetable                     Heights
 Alicia House        Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60636         63        $2,266.74
 Food Depository--   Vegetable
 Back To God         Box
Greater Chicago     Fresh Fruit/   Midwest        Oak Park     IL              60301        126        $4,533.48
 Food Depository--   Vegetable
 Beyond Hunger       Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60624        189        $6,800.22
 Food Depository--   Vegetable
 Breakthrough Urb.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60626        252        $9,066.96
 Food Depository--   Vegetable
 Care for Real       Box
Greater Chicago     Fresh Fruit/   Midwest        Cicero       IL              60804        126        $4,533.48
 Food Depository--   Vegetable
 CBS Anti-Hunger     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60632        315       $11,333.70
 Food Depository--   Vegetable
 CDPH Great Lawn     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60618         63        $2,266.74
 Food Depository--   Vegetable
 Common Pantry       Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60629        378       $13,600.44
 Food Depository--   Vegetable
 District IX         Box
Greater Chicago     Fresh Fruit/   Midwest        Evanston     IL              60202        189        $6,800.22
 Food Depository--   Vegetable
 Evanston Vineyar.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60609        504       $18,133.92
 Food Depository--   Vegetable
 Fellowship          Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60637         63        $2,266.74
 Food Depository--   Vegetable
 Gorham United Me.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60154        189        $6,800.22
 Food Depository--   Vegetable
 Grace Central Ou.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623         63        $2,266.74
 Food Depository--   Vegetable
 Harmony Church      Box
Greater Chicago     Fresh Fruit/   Midwest        Olympia      IL              60461        189        $6,800.22
 Food Depository--   Vegetable                     Fields
 Hope Charities      Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60626        126        $4,533.48
 Food Depository--   Vegetable
 Howard Area Comm    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60639        252        $9,066.96
 Food Depository--   Vegetable
 Iglesia Evangeli    Box
Greater Chicago     Fresh Fruit/   Midwest        Evanston     IL              60202        252        $9,066.96
 Food Depository--   Vegetable
 Interfaith Actio    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60629        126        $4,533.48
 Food Depository--   Vegetable
 Jesus Christ        Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60636        126        $4,533.48
 Food Depository--   Vegetable
 Kingdom Builders    Box
Greater Chicago     Fresh Fruit/   Midwest        Arlington    IL              60005        126        $4,533.48
 Food Depository--   Vegetable                     Heights
 Lutheran Church     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60609        126        $4,533.48
 Food Depository--   Vegetable
 New Eclipse Comm.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623        693       $24,934.14
 Food Depository--   Vegetable
 New Life--Karlo     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623      1,008       $36,267.84
 Food Depository--   Vegetable
 New Life--Lawnd.    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60651        693       $24,934.14
 Food Depository--   Vegetable
 New Life Humbold    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60707        693       $24,934.14
 Food Depository--   Vegetable
 New Life Mont.      Box
 Cl.
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60642        315       $11,333.70
 Food Depository--   Vegetable
 Northwestern Set.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60651        252        $9,066.96
 Food Depository--   Vegetable
 Our Lady of Ange    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60608         63        $2,266.74
 Food Depository--   Vegetable
 Pilsen Food Pant    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60640        126        $4,533.48
 Food Depository--   Vegetable
 Ravenswood          Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60629        504       $18,133.92
 Food Depository--   Vegetable
 Sanad               Box
Greater Chicago     Fresh Fruit/   Midwest        Shaumburg    IL              60169        126        $4,533.48
 Food Depository--   Vegetable
 Schaumburg Towns.   Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60621        378       $13,600.44
 Food Depository--   Vegetable
 Sheperd's Hope      Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60637         63        $2,266.74
 Food Depository--   Vegetable
 Shiloh Sda Dorca    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623        126        $4,533.48
 Food Depository--   Vegetable
 St. Agatha's        Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60056        189        $6,800.22
 Food Depository--   Vegetable
 St. Emily           Box
Greater Chicago     Fresh Fruit/   Midwest        Lagrange     IL              60525         63        $2,266.74
 Food Depository--   Vegetable
 St. Francis Xavi    Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60612        126        $4,533.48
 Food Depository--   Vegetable
 St. James           Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60608        378       $13,600.44
 Food Depository--   Vegetable
 St. Paul            Box
Greater Chicago     Fresh Fruit/   Midwest        Harvey       IL              60426        630       $22,667.40
 Food Depository--   Vegetable
 Thornton Townshi    Box
Greater Chicago     Fresh Fruit/   Midwest        Des Plaines  IL              60016         63        $2,266.74
 Food Depository--   Vegetable
 TSA Des Plaines     Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60623         63        $2,266.74
 Food Depository--   Vegetable
 TSA la Villita      Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60706         63        $2,266.74
 Food Depository--   Vegetable
 TSA: Norridge       Box
Greater Chicago     Precooked      Midwest        Chicago      IL              60632      3,312      $268,669.44
 Food Deposotory     Meat Box
Greater Chicago     Fresh Fruit/   Midwest        Chicago      IL              60632     15,056      $541,714.88
 Food Depsoitory     Vegetable
                     Box
Greater Emmanuel    Fresh Fruit/   Midwest        Detroit      MI              48235      1,500       $22,425.00
 Institution         Vegetable
                     Box
Greater Ephesians   Fresh Fruit/   Midwest        Vassar       MI              48768        350        $7,350.00
 Cogic               Vegetable
                     Box
Greater Erie YMCA   Fresh Fruit/   Mid-Atlantic   Erie         PA              16501        560       $16,800.00
 Downtown            Vegetable
                     Box
Greater Erie YMCA   Fresh Fruit/   Mid-Atlantic   Erie         PA              16510        320        $9,600.00
 Eastside            Vegetable
                     Box
Greater Galatia     Dairy          Midwest        Galatia      IL              62935        130        $3,867.50
 Food Pantry         Products Box
Greater Galatia     Fresh Fruit/   Midwest        Galatia      IL              62935        130        $3,575.00
 Food Pantry         Vegetable
                     Box
Greater Garfield    Fresh Fruit/   Midwest        Chicago      IL              60623        252        $9,066.96
 MB Church           Vegetable
                     Box
Greater Garfield    Precooked      Midwest        Chicago      IL              60623         72        $5,840.64
 MB Church           Meat Box
Greater Grace       Fresh Fruit/   Midwest        Toledo       OH              43606        459        $5,737.50
 Christian           Vegetable
                     Box
Greater Grace       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206        405        $8,484.75
 Church              Vegetable
                     Box
Greater Grace Food  Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206        480        $9,600.00
 Pantry              Vegetable
                     Box
Greater Grace       Fresh Fruit/   South East     Birmingham   AL              35215      1,240       $32,178.00
 Missionary          Vegetable
 Baptist             Box
Greater Grace       Combination    South West     Houston      TX              77047        600       $20,982.00
 Outreach Church     Box
Greater Grace       Dairy          South West     Houston      TX              77047        600       $27,456.00
 Outreach Church     Products Box
Greater Grace       Fresh Fruit/   South West     Houston      TX              77047      1,240       $24,853.60
 Outreach Church     Vegetable
                     Box
Greater Harvest     Dairy          Midwest        Muskegon     MI              49444        100        $2,900.00
 Baptist Church      Products Box
Greater Harvest     Fresh Fruit/   Midwest        Muskegon     MI              49444        100        $2,200.00
 Baptist Church      Vegetable
                     Box
Greater Holy        Fresh Fruit/   Midwest        Chicago      IL              60612        378       $13,600.44
 Temple              Vegetable
                     Box
Greater Holy        Precooked      Midwest        Chicago      IL              60612        144       $11,681.28
 Temple              Meat Box
Greater Holy        Dairy          Midwest        Chicago      IL              60612         80        $2,000.00
 Temple Box          Products Box
Greater Holy        Dairy          Midwest        Chicago      IL              60612         80        $2,000.00
 Temple Box          Products Box
Greater Holy        Fresh Fruit/   Midwest        Flint        MI              48505      3,080       $46,046.00
 Temple World        Vegetable
 Division            Box
Greater Holy        Fresh Fruit/   Midwest        Flint        MI              48507      1,540       $23,023.00
 Temple World        Vegetable
 Division            Box
Greater Ideal       Dairy          South West     Dallas       TX              75218      1,200       $54,912.00
 Missionary          Products Box
 Baptist
Greater Ideal       Fresh Fruit/   South West     Dallas       TX              75218        150        $3,495.00
 Missionary          Vegetable
 Baptist             Box
Greater Jamaica     Fresh Fruit/   North East     Jamaica      NY              11432         60        $1,080.00
 Development         Vegetable
 Corporation         Box
Greater Jasper      Fluid Milk     South West     Jasper       TX              75951        200          $584.00
 Shar.
Greater Joy NC      Fresh Fruit/   South East     Roanoke      NC              27870        500       $17,855.00
                     Vegetable                     Rapids
                     Box
Greater Lansing     Fresh Fruit/   Midwest        Lansing      MI              48909      1,144       $41,161.12
 Food Bank           Vegetable
                     Box
Greater Macedonia   Fluid Milk     South East     Dublin       GA              31021      2,160        $8,402.40
Greater Macedonia   Fresh Fruit/   South West     Houston      TX              77041      1,000        $9,700.00
 Baptist Church      Vegetable
                     Box
Greater Mitchell    Fresh Fruit/   Midwest        Detroit      MI              48235        300        $4,485.00
 Church              Vegetable
                     Box
Greater Mitchell    Fresh Fruit/   Midwest        Detroit      MI              48235        150        $2,242.50
 Temple              Vegetable
                     Box
Greater Morris      Fluid Milk     South East     Jesup        GA              31545      4,320       $16,804.80
 Chp.
Greater New Hope    Fluid Milk     South West     Dickinson    TX              77539      4,698       $13,921.16
Greater New Life    Fluid Milk     Western        Lancaster    CA              93536      5,184       $51,788.16
 Church
Greater New Mt.     Dairy          Midwest        Detroit      MI              48202      1,000       $25,000.00
 Moriah Baptist      Products Box
Greater New         Fresh Fruit/   Midwest        Detroit      MI              48215        100        $2,875.00
 Southern Mbc        Vegetable
                     Box
Greater New         Fresh Fruit/   Midwest        Detroit      MI              48215         90        $2,587.50
 Southern Mnc        Vegetable
                     Box
Greater Paradise    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21213      2,100       $42,000.00
 Christian Center    Vegetable
                     Box
Greater             Fresh Fruit/   Mid-Atlantic   Mount        NJ              08054        630       $11,938.50
 Philadelphia YMCA   Vegetable                     Laurel
                     Box
Greater Pittsburgh  Dairy          Mid-Atlantic   Duquesne     PA              15110      2,100       $44,163.00
 Community Food      Products Box
 Bank
Greater Pittsburgh  Fluid Milk     Mid-Atlantic   Duquesne     PA              15110      1,270       $15,085.50
 Community Food
 Bank
Greater Pittsburgh  Fresh Fruit/   Mid-Atlantic   Duquesne     PA              15110      6,552      $153,972.00
 Community Food      Vegetable
 Bank                Box
Greater Pittsburgh  Fresh Fruit/   Mid-Atlantic   Johnstown    PA              15904      1,638       $38,493.00
 Community Food      Vegetable
 Bank                Box
Greater Pleasant    Fresh Fruit/   South East     Memphis      TN              38112        540       $13,230.00
 Hill MBC--C/O Mid   Vegetable
 South Food Bank     Box
Greater Shiloh MBC  Fresh Fruit/   South East     Jasper       AL              35501        540       $14,013.00
                     Vegetable
                     Box
Greater Somerset    Fresh Fruit/   Mid-Atlantic   Plainfield   NJ              07060      5,103       $96,701.85
 County YMCA         Vegetable
                     Box
Greater Somerset    Fresh Fruit/   Mid-Atlantic   Hillsboroug  NJ              08844         63        $1,193.85
 YMCA Hillsborough   Vegetable                     h
                     Box
Greater Spring      Fresh Fruit/   South East     Milner       GA              30257      4,710       $92,864.40
 Baptist Church      Vegetable
                     Box
Greater St. John    Precooked      Midwest        Chicago      IL              60636         72        $5,840.64
                     Meat Box
Greater St.         Fluid Milk     South West     Hitchcock    TX              77563        400        $1,226.00
 Matthew
Greater St. Johns   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21213        450        $9,427.50
                     Vegetable
                     Box
Greater Swissvale   Fresh Fruit/   Mid-Atlantic   Swissvale    PA              15218        160        $4,800.00
 Food Pantry         Vegetable
                     Box
Greater Valley      Fresh Fruit/   Mid-Atlantic   Braddock     PA              15104        280        $8,400.00
 Community           Vegetable
 Services            Box
Greater Vision      Dairy          South West     Paragould    AR              72450        240        $6,000.00
 Church              Products Box
Greater Vision      Fresh Fruit/   South West     Paragould    AR              72450        400       $11,000.00
 Church              Vegetable
                     Box
Greater Washington  Fresh Fruit/   Mid-Atlantic   Brownsville  PA              15417      1,500       $24,000.00
 County Food Bank    Vegetable
                     Box
Greather Galatia    Dairy          Midwest        Galatia      IL              62935         35        $1,041.25
 Food Pantry         Products Box
Greather Galatia    Fresh Fruit/   Midwest        Galatia      IL              62935         35          $962.50
 Food Pantry         Vegetable
                     Box
Greece Community    Fresh Fruit/   North East     Rochester    NY              14626        750       $17,137.50
 Education           Vegetable
                     Box
Green Acres         Fresh Fruit/   Midwest        Warren       MI              48092        175        $2,616.25
 Elementary          Vegetable
                     Box
Green Apple Pantry  Fresh Fruit/   Midwest        Grand        MI              49503        378       $13,600.44
                     Vegetable                     Rapids
                     Box
Green Bronx         Fresh Fruit/   North East     Bronx        NY              10471         76        $1,368.00
 Machine             Vegetable
                     Box
Green County Human  Fresh Fruit/   South East     Eutaw        AL              35462        840       $21,798.00
 Rights Comm         Vegetable
                     Box
Green Grove         Fluid Milk     South East     Dublin       GA              31021      2,000        $7,580.00
 Mission
Green Mountain      Fluid Milk     North East     Newport      VT              05855      1,336        $7,107.52
 Farm To School
Green the Church    Fresh Fruit/   Western        Berkeley     CA              94705        490       $10,345.00
                     Vegetable
                     Box
Greener Partners    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19104        350        $7,000.00
 840N                Vegetable                     a
                     Box
Greener Partners--  Fresh Fruit/   Mid-Atlantic   Chester      PA              19013        700       $14,000.00
 City Ministries     Vegetable
                     Box
Greener Partners    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19104      1,190       $23,800.00
 Pec.                Vegetable                     a
                     Box
Greener Partners    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19131      3,360       $67,200.00
 Pec.                Vegetable                     a
                     Box
Greenmount Rec      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218        900       $18,000.00
                     Vegetable
                     Box
Greensburg HS       Fluid Milk     Midwest        Greensburg   IN              47240        800        $3,200.00
Greenville Housing  Fresh Fruit/   South East     Greenville   NC              27834      2,450       $87,489.50
 Cultural/Rec        Vegetable
                     Box
Greenville Public   Fresh Fruit/   Midwest        Greenville   MI              48838      2,366       $85,128.68
 Schools             Vegetable
                     Box
Greenville Senior   Fresh Fruit/   South East     Greenville   AL              36037        200        $5,190.00
 Center              Vegetable
                     Box
Greenway Baptist    Dairy          South East     Boone        NC              28607        318        $1,590.00
 Church              Products Box
Greenway Baptist    Fluid Milk     South East     Boone        NC              28607        560        $2,240.00
 Church
Greenway Baptist    Precooked      South East     Boone        NC              28607        600       $11,700.00
 Church              Meat Box
Greenwood           Dairy          South East     Greenwood    MS              38935         80        $2,246.40
 Community Cente     Products Box
Greenwood           Fluid Milk     South East     Greenwood    MS              38935        192        $1,409.28
 Community Cente
Greenwood           Fresh Fruit/   South East     Greenwood    MS              38935        192        $3,244.80
 Community Cente     Vegetable
                     Box
Greenwood           Precooked      South East     Greenwood    MS              38935      1,260       $51,735.60
 Community Cente     Meat Box
Greer Relief        Fresh Fruit/   South East     Greer        SC              29651        600       $18,000.00
                     Vegetable
                     Box
Griffin City Hall   Fresh Fruit/   South East     Griffin      GA              30224      1,920       $36,364.80
                     Vegetable
                     Box
Grifton Miss        Fluid Milk     South East     Grifton      NC              28530      9,504       $37,013.76
 Minist.
Grimes Storehouse   Fresh Fruit/   Midwest        Grimes       IA              50111        140        $2,030.00
                     Vegetable
                     Box
Grissom Middle      Fresh Fruit/   Midwest        Sterling     MI              48310        900       $13,455.00
 School              Vegetable                     Heights
                     Box
Groton COA          Combination    North East     Groton       MA              01450         20          $760.00
                     Box
Groton COA          Precooked      North East     Groton       MA              01450         20        $1,086.00
                     Meat Box
Ground County       Fresh Fruit/   South West     Moab         Ut              84532      3,120       $78,000.00
 School District     Vegetable
                     Box
Groundworks         Combination    Mountain       Kansas City  KS              66101        240        $8,392.80
 Northeast Revital   Box            Plains
Groundworks         Fresh Fruit/   Mountain       Kansas City  KS              66101        504        $4,888.80
 Northeast Revital   Vegetable      Plains
                     Box
Grout Elementary    Combination    Western        Portland     OR              97202        100        $3,500.00
 School USDA         Box
Grout Elementary    Dairy          Western        Portland     OR              97202         86        $2,580.00
 School USDA         Products Box
Grout Elementary    Fresh Fruit/   Western        Portland     OR              97202        180        $4,860.00
 School USDA         Vegetable
                     Box
Grove Church        Fresh Fruit/   Western        Riverside    CA              92501        529       $15,341.00
                     Vegetable
                     Box
Grove Outreach      Fresh Fruit/   South East     Miami        FL              33133        800       $20,000.00
                     Vegetable
                     Box
Grow Mobile         Dairy          Midwest        Dekalb       IL              60115      2,000       $59,500.00
                     Products Box
Grow Mobile         Fresh Fruit/   Midwest        Dekalb       IL              60115        756       $27,200.88
                     Vegetable
                     Box
Grow Mobile         Fresh Fruit/   Midwest        Sandwich     IL              60548      2,268       $81,602.64
                     Vegetable
                     Box
Grow NYC            Fresh Fruit/   North East     Bronx        NY              10452      1,200       $29,820.00
                     Vegetable
                     Box
Grow NYC            Fresh Fruit/   North East     Bronx        NY              10474     20,760      $515,886.00
                     Vegetable
                     Box
Growers Foundation  Fresh Fruit/   Western        Salinas      CA              93901        168        $2,856.00
 Ag Against Hunger   Vegetable
                     Box
Growing Places      Fresh Fruit/   North East     Leominster   MA              01452        703       $19,582.38
                     Vegetable
                     Box
Grt. Laf. Commerce  Fluid Milk     Midwest        Lafayette    IN              47909      4,800       $19,200.00
 Comm.
Grupo Sonell        Combination    Mid-Atlantic   Bayamon      PR              00956      4,920      $429,456.00
                     Box
GSBC Community Dev  Fresh Fruit/   South East     Birmingham   AL              35211      1,000       $25,950.00
 Corp                Vegetable
                     Box
GSBC Community Dev  Fresh Fruit/   South East     Birmingham   AL              35211      1,500       $38,925.00
 Corp                Vegetable
                     Box
Guadalupe           Fresh Fruit/   Mountain       Kansas City  MO              64127        600       $15,540.00
 Education System    Vegetable      Plains
                     Box
Guam Department of  Combination    Western        Barrigada    Guam            96913      2,000      $115,900.00
 Education           Box
Guam Department of  Fresh Fruit/   Western        Barrigada    Guam            96913     24,044    $1,442,640.00
 Education           Vegetable
                     Box
Guarabi Carib.      Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        195        $7,605.00
                     Vegetable
                     Box
Guarabi Manaya      Fresh Fruit/   Mid-Atlantic   Manati       PR              00674        150        $5,850.00
                     Vegetable
                     Box
Guarabi Manaya      Fresh Fruit/   Mid-Atlantic   Vega Baja    PR              00693        220        $8,580.00
                     Vegetable
                     Box
Guarabi Manaya      Fresh Fruit/   Mid-Atlantic   Vega Baja    PR              00963         80        $3,120.00
                     Vegetable
                     Box
Guardian Angel      Fluid Milk     South West     El Paso      TX              79905        420        $2,058.00
 Catholic Church
Guardian Angel      Fresh Fruit/   South West     El Paso      TX              79905      1,650       $32,175.00
 Catholic Church     Vegetable
                     Box
Guayabal Community  Combination    Mid-Atlantic   Juana Diaz   PR              00795      7,872      $640,560.00
 Foundation          Box
Gudith Elementary   Fresh Fruit/   Midwest        Brownstown   MI              48193        125        $1,868.75
 School              Vegetable
                     Box
Guerreras De Vida   Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
                     Box
Guidance Center     Fresh Fruit/   Midwest        River Rouge  MI              48218        300        $4,485.00
                     Vegetable
                     Box
Gulf Breeze         Fresh Fruit/   South East     Gulf Breeze  FL              32561      1,300       $37,700.00
 Hospital            Vegetable
                     Box
Gulf Breeze         Fresh Fruit/   South East     Mobile       AL              36604        250        $7,250.00
 Hospital Food Box   Vegetable
                     Box
Gulf Breeze United  Fresh Fruit/   South East     Pensacola    FL              32502        600       $17,400.00
 Methodist           Vegetable
                     Box
Gulf Coast SDA-     Fresh Fruit/   South East     Biloxi       MS              39532        384        $6,489.60
 4817-Mp2            Vegetable
                     Box
Gulf Coast SDA-     Precooked      South East     Biloxi       MS              39532        252       $10,347.12
 4817-Mp2            Meat Box
Gulf Shores UMC     Fluid Milk     South East     Gulf Shores  AL              36542      1,080        $4,093.20
Gull Lake High      Dairy          Midwest        Richland     MI              49083        200        $5,800.00
 School              Products Box
Gull Lake High      Fresh Fruit/   Midwest        Richland     MI              49083        800       $16,900.00
 School              Vegetable
                     Box
Gullah Geechee      Fresh Fruit/   South East     Beaufort     SC              29902        150        $4,500.00
 Initiative          Vegetable
 Foundation          Box
Gumdrops            Dairy          Midwest        Carterville  IL              62918        350       $10,412.50
 Carterville         Products Box
Gumdrops            Fresh Fruit/   Midwest        Carterville  IL              62918        450       $12,375.00
 Carterville         Vegetable
                     Box
Gurabo Elderly      Fresh Fruit/   Mid-Atlantic   Gurabo       PR              00778        270       $10,530.00
                     Vegetable
                     Box
Gus Garcia          Fresh Fruit/   South West     Austin       TX              78753      2,328       $39,552.72
 Recreation Center   Vegetable
                     Box
Gus Garcia          Fresh Fruit/   South West     Austin       TX              78758        576        $9,786.24
 Recreation Center   Vegetable
                     Box
Gustine Elementary  Combination    Western        Gustine      CA              95322        700       $36,708.00
                     Box
Gustine Elementary  Fresh Fruit/   Western        Gustine      CA              95322        665       $20,680.45
                     Vegetable
                     Box
Guts Church         Combination    South West     Tulsa        OK              74145      1,536       $53,713.92
                     Box
Guts Church         Dairy          South West     Tulsa        OK              74145        981       $44,890.56
                     Products Box
Guts Church         Fluid Milk     South West     Tulsa        OK              74145        810       $19,391.40
Guts Church         Fresh Fruit/   South West     Tulsa        OK              74145      2,793       $62,195.70
                     Vegetable
                     Box
Gwens Girls         Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15212        520       $15,600.00
                     Vegetable
                     Box
Gwinn Area          Fresh Fruit/   Midwest        Gwinn        MI              49841        329       $11,837.42
 Community Schools   Vegetable
                     Box
H and J Weinberg    Fluid Milk     Mid-Atlantic   Moosic       PA              18507        528        $7,819.68
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Forest City  PA              18421        189        $4,441.50
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Great Bend   PA              18821        252        $5,922.00
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Moosic       PA              18507        252        $5,922.00
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Pittston     PA              18640      1,449       $34,051.50
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Springville  PA              18844        378        $8,883.00
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Susquehanna  PA              18847        252        $5,922.00
 Regional Food       Vegetable
 Bank                Box
H&J Weinberg NE PA  Fresh Fruit/   Mid-Atlantic   Tunkhannock  PA              18657        756       $17,766.00
 Regional Food       Vegetable
 Bank                Box
H20 for Life        Fresh Fruit/   Mid-Atlantic   Annapolis    MD              21401        750       $15,712.50
                     Vegetable
                     Box
Haas Warehouse      Precooked      Mountain       Neosho       MO              64850      9,254      $370,998.70
                     Meat Box       Plains
Hacap Food Bank     Dairy          Midwest        Hiawatha     IA              52233      2,400       $60,000.00
                     Products Box
Hacker Elem         Fluid Milk     South East     Manchester   KY              40962        606        $2,296.74
Hagatna Mayor's of  Fresh Fruit/   Western        Hagatna      Guam            96932        960       $57,600.00
 fice                Vegetable
                     Box
Hagerstown Food     Fresh Fruit/   Mid-Atlantic   Hagerstown   MD              21740        945       $17,907.75
 Bank                Vegetable
                     Box
Hahira United       Fresh Fruit/   South East     Hahira       GA              31632      1,920       $36,364.80
 Methodist           Vegetable
                     Box
Haitian             Precooked      Mid-Atlantic   Philadelphi  PA              19138        360       $22,266.00
 Evangelical         Meat Box                      a
 Church
Hale Cnty.          Fluid Milk     South East     Greensboro   AL              36744      3,976       $15,864.24
 Enrichme.
Hale County         Fresh Fruit/   South East     Greensboro   AL              36744        840       $21,798.00
 Community           Vegetable
 Outreach            Box
Hale Creek          Fresh Fruit/   Midwest        Romulus      MI              48174        225        $3,363.75
 Elementary School   Vegetable
                     Box
Hale Hoomalu        Fresh Fruit/   Western        Kapaa        HI              96746         30        $1,170.00
                     Vegetable
                     Box
Halifax COA         Combination    North East     Halifax      MA              02338         20          $656.00
                     Box
Halifax COA         Precooked      North East     Halifax      MA              02338         20        $1,086.00
                     Meat Box
Hamburg High        Fresh Fruit/   North East     Hamburg      NY              14075      1,300       $29,705.00
 School              Vegetable
                     Box
Hamilton County     Fresh Fruit/   Midwest        Fishers      IN              46038        360        $7,189.20
 Foodbank            Vegetable
                     Box
Hamilton Crossing   Fresh Fruit/   South East     Cartersvill  GA              30120        320        $6,060.80
 Elem                Vegetable                     e
                     Box
Hamilton            Fresh Fruit/   Western        Stockton     CA              95206        200        $6,368.00
 Elementary School   Vegetable
                     Box
Hamilton Families   Fresh Fruit/   Western        San          CA              94103        281        $7,025.00
                     Vegetable                     Francisco
                     Box
Hamilton Families   Fresh Fruit/   Western        San          CA              94117        145        $3,625.00
                     Vegetable                     Francisco
                     Box
Hamilton Schools    Fresh Fruit/   Midwest        Hamilton     MI              49419        189        $6,800.22
                     Vegetable
                     Box
Hamlin Park         Fresh Fruit/   North East     Buffalo      NY              14208        300        $6,855.00
 Elementary          Vegetable
                     Box
Hampton Village     Fresh Fruit/   South East     Miami        FL              33142        240        $4,020.00
                     Vegetable
                     Box
Hamtramck Town      Fresh Fruit/   Midwest        Hamtramck    MI              48212      1,350       $20,182.50
 Center Friendship   Vegetable
                     Box
Hancock Co. Food    Fluid Milk     Midwest        Greenfield   IN              46140      1,300        $5,200.00
 Pantry
Hancock Co. FP      Fluid Milk     South East     Bay St.      MS              39520        900        $3,411.00
                                                   Louis
Hancock High        Fresh Fruit/   Mountain       St. Louis    MO              63125        612       $19,584.00
 School              Vegetable      Plains
                     Box
Hancock Public      Fresh Fruit/   Midwest        Hancock      MI              49930        625       $22,487.50
 Schools             Vegetable
                     Box
Hands for Healing   Fluid Milk     South East     Palm Bay     FL              32907      8,448       $32,017.92
Hands for Healing   Fresh Fruit/   South East     Palm Bay     FL              32907      1,008       $24,696.00
                     Vegetable
                     Box
Hands of Hope       Dairy          Midwest        Joliet       IL              60436      2,000       $59,500.00
                     Products Box
Hands of Hope       Fresh Fruit/   Midwest        Joliet       IL              60436      1,728       $47,520.00
                     Vegetable
                     Box
Hands of Hope Food  Dairy          Midwest        Mccleansbor  IL              62859        200        $5,950.00
 Pantry              Products Box                  o
Hands of Hope Food  Fresh Fruit/   Midwest        McCleansbor  IL              62859      1,903       $52,332.50
 Pantry              Vegetable                     o
                     Box
Hands of Hope       Dairy          Midwest        Joliet       IL              60436        960       $24,000.00
 Illinois            Products Box
Hands of Hope       Fluid Milk     Midwest        Joliet       IL              60436      1,296       $45,424.80
 Illinois
Hands of Hope       Fluid Milk     Midwest        Chicago      IL              60617      1,296       $45,424.80
 Illinois
Hands of Hope       Fresh Fruit/   Midwest        Joliet       IL              60436      4,976      $164,383.04
 Illinois            Vegetable
                     Box
Hands of Hope       Dairy          Midwest        Joliet       IL              60436        768       $19,200.00
 Illinois Box        Products Box
Hands of Hope of    Fresh Fruit/   Midwest        Joliet       IL              60436      4,823      $173,531.54
 Illinois            Vegetable
                     Box
Hands of Hope of    Fresh Fruit/   Midwest        Joliet       IL              60436      6,398      $230,200.04
 Illinois            Vegetable
                     Box
Hands of Hope       Fresh Fruit/   South West     Durant       OK              74701      3,536       $60,076.64
 Resource Center     Vegetable
                     Box
Hanh Intermediate   Fresh Fruit/   Midwest        Davison      MI              48423        224        $8,059.52
 School              Vegetable
                     Box
Hannah's Comm.      Fresh Fruit/   South East     Durham       NC              27701      3,605       $47,414.50
 Kitchen             Vegetable
                     Box
Hannibal Free       Fresh Fruit/   Mountain       Hannibal     MO              63401        395       $10,862.50
 Clinic              Vegetable      Plains
                     Box
Hanover Horton      Dairy          Midwest        Hanover      MI              49241      1,000       $26,871.50
 Elementary          Products Box
Hanover Horton      Fresh Fruit/   Midwest        Hanover      MI              49241      2,300       $47,559.00
 Elementary          Vegetable
                     Box
Hanover Horton      Precooked      Midwest        Hanover      MI              49241        900       $30,543.00
 Elementary          Meat Box
Hanson COA          Combination    North East     Hanson       MA              02341         25          $820.00
                     Box
Hanson COA          Precooked      North East     Hanson       MA              02341         25        $1,357.50
                     Meat Box
Hantramck Senior    Fresh Fruit/   Midwest        Hamtramck    MI              48212        150        $2,242.50
 Plaza               Vegetable
                     Box
Harbor Christian    Fresh Fruit/   Western        Wilmington   CA              90744        640       $16,000.00
 Ctr.                Vegetable
                     Box
Harbor Church       Dairy          South West     Chelsea      OK              74016         96        $4,392.96
 Chelsea             Products Box
Harbor Church       Fluid Milk     South West     Chelsea      OK              74016        495       $11,850.30
 Chelsea
Harbor Church       Fresh Fruit/   South West     Chelsea      OK              74016      1,521       $30,169.10
 Chelsea             Vegetable
                     Box
Harbor Church       Combination    South West     Oologah      OK              74053      1,248       $43,642.56
 Oologah             Box
Harbor Church       Dairy          South West     Oologah      OK              74053      1,056       $48,322.56
 Oologah             Products Box
Harbor Church       Fresh Fruit/   South West     Oologah      OK              74053        980       $20,776.00
 Oologah             Vegetable
                     Box
Harbor House        Fresh Fruit/   Western        Oakland      CA              94606         25          $796.00
 Ministries          Vegetable
                     Box
Hardin Co. Christ   Dairy          South East     Savannah     TN              38372        880       $22,000.00
 Asst. Ministry      Products Box
Hardin Middle       Fresh Fruit/   Mountain       St. Charles  MO              63301        468       $14,976.00
 School              Vegetable      Plains
                     Box
Harlandale Isd.     Fresh Fruit/   South West     San Antonio  TX              78214      1,540       $38,500.00
                     Vegetable
                     Box
Harlem              Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        900       $18,000.00
                     Vegetable
                     Box
Harlingen Food      Fluid Milk     South West     Harlingen    TX              78552        864        $2,522.88
 Pant.
Harlow Food Pantry  Fresh Fruit/   Midwest        Woodlawn     IL              62898         75        $2,062.50
                     Vegetable
                     Box
Harmony Cdc         Combination    South West     Dallas       TX              75237        500       $17,485.00
 Services of Hope    Box
Harmony CDC         Dairy          South West     Dallas       TX              75237        800       $36,608.00
 Services of Hope    Products Box
Harmony CDC         Dairy          South West     Houston      TX              75237        750       $34,320.00
 Services of Hope    Products Box
Harmony CDC         Dairy          South West     Lancaster    TX              75146        400       $18,304.00
 Services of Hope    Products Box
Harmony CDC         Fresh Fruit/   South West     Dallas       TX              75237      2,700       $62,910.00
 Services of Hope    Vegetable
                     Box
Harmony Church      Fluid Milk     Midwest        Chicago      IL              60623        360        $1,195.20
Harmony Church      Fresh Fruit/   Midwest        Chicago      IL              60623        126        $4,533.48
                     Vegetable
                     Box
Harmony Food        Fresh Fruit/   South West     Dallas       TX              75237        280        $4,757.20
 Pantry              Vegetable
                     Box
Harmony Oak Cliff   Fresh Fruit/   South West     Dallas       TX              75232      1,540       $38,500.00
 Bible               Vegetable
                     Box
Harnett Food        Fresh Fruit/   South East     Lillington   NC              27546        864       $21,954.24
 Pantry              Vegetable
                     Box
Harney County       Dairy          Western        Burns        OR              97720        320        $9,600.00
 Senior Center       Products Box
Harney County       Fresh Fruit/   Western        Burns        OR              97720        525       $24,675.00
 Senior Center       Vegetable
                     Box
Harper Creek        Dairy          Midwest        Battle       MI              49014      1,024       $40,650.00
 Community Schools   Products Box                  Creek
Harper Creek        Dairy          Midwest        Battle       MI              49037        384        $9,600.00
 Community Schools   Products Box                  Creek
Harper Creek        Fresh Fruit/   Midwest        Battle       MI              49014        260        $9,354.80
 Community Schools   Vegetable                     Creek
                     Box
Harper Creek High   Fresh Fruit/   Midwest        Battle       MI              49014        560       $20,148.80
 School              Vegetable                     Creek
                     Box
Harper Woods High   Fresh Fruit/   Midwest        Harper       MI              48225        125        $1,868.75
 School              Vegetable                     Woods
                     Box
Harriet & Joe       Fluid Milk     South West     Houston      TX              77018        400        $9,576.00
 Foster Family
 YMCA
Harriet & Joe       Fresh Fruit/   South West     Houston      TX              77018      2,920       $49,610.80
 Foster Family       Vegetable
 YMCA                Box
Harrison Co. Comm.  Fluid Milk     Midwest        Corydon      IN              47107        540        $1,215.00
 Service
Harrison Community  Fresh Fruit/   Midwest        Harrison     MI              48625        518       $18,637.64
 Schools             Vegetable
                     Box
Harry Chapin Food   Combination    South East     Fort Myers   FL              33901     21,479    $1,192,698.96
 Bank Ft. Myers      Box
Harry Chapin Food   Fluid Milk     South East     Fort Myers   FL              33901     16,632       $64,734.48
 Bank Ft. Myers
Harry Chapin Food   Fresh Fruit/   South East     Fort Myers   FL              33901     45,073    $1,082,038.14
 Bank Ft. Myers      Vegetable
                     Box
Harry Chapin Food   Precooked      South East     Fort Myers   FL              33901      1,274       $52,157.56
 Bank Ft. Myers      Meat Box
Hartford House      Fresh Fruit/   Midwest        Detroit      MI              48235         80        $1,196.00
                     Vegetable
                     Box
Hartland Senior     Fresh Fruit/   Midwest        Howell       MI              48843        150        $2,242.50
 Center              Vegetable
                     Box
Harvard Community   Dairy          Midwest        Cleveland    OH              44128         65        $1,625.00
 Svcs. Ctr.          Products Box
Harvard House       Fresh Fruit/   South East     N Miami      FL              33162        120        $2,010.00
                     Vegetable                     Beach
                     Box
Harvest Baptist     Fluid Milk     South East     Covington    GA              30016      2,430        $9,533.70
 Chu.
Harvest Baptist     Fresh Fruit/   South West     Claremore    OK              74019      1,078       $20,589.80
 Church Verdigris    Vegetable
                     Box
Harvest Bible       Fresh Fruit/   Midwest        Rolling      IL              60007         63        $2,266.74
 Chapel              Vegetable                     Meadows
                     Box
Harvest Bible       Fresh Fruit/   Midwest        Elgin        IL              60123        200        $5,500.00
 Chapel              Vegetable
                     Box
Harvest Bible       Precooked      Midwest        Rolling      IL              60008        144       $11,681.28
 Chapel              Meat Box                      Meadows
Harvest Community   Dairy          Mid-Atlantic   Dayton       PA              16222      1,800       $26,298.00
 Church              Products Box
Harvest Community   Fluid Milk     Mid-Atlantic   Dayton       PA              16222     10,800       $19,332.00
 Church
Harvest Fellowship  Combination    South West     Albuquerque  NM              87108      1,440       $50,356.80
                     Box
Harvest Fellowship  Dairy          South West     Albuquerque  NM              87108      2,496      $114,216.96
                     Products Box
Harvest Fellowship  Fluid Milk     South West     Albuquerque  NM              87108        495       $11,850.30
Harvest Fellowship  Fresh Fruit/   South West     Albuquerque  NM              87108        637       $12,166.70
                     Vegetable
                     Box
Harvest Food Bank   Fresh Fruit/   Midwest        Noblesville  IN              46060        120        $2,396.40
                     Vegetable
                     Box
Harvest Hope Food   Fluid Milk     South East     Columbia     SC              29201      3,864       $15,028.56
 Bank
Harvest Hope Food   Fluid Milk     South East     Greenville   SC              29611     16,616       $64,829.04
 Bank
Harvest Hope Food   Fresh Fruit/   South East     Columbia     SC              29201      9,600      $181,824.00
 Bank                Vegetable
                     Box
Harvest Hope Food   Fresh Fruit/   South East     Florence     SC              29501      9,600      $181,824.00
 Bank                Vegetable
                     Box
Harvest Hope Food   Fresh Fruit/   South East     Greenville   SC              29611     18,600      $469,824.00
 Bank                Vegetable
                     Box
Harvest House       Fluid Milk     South West     Nacogdoches  TX              75965        756        $2,270.16
Harvest House Food  Combination    Mountain       Eureka       KS              67045        480       $16,785.60
 Bank                Box            Plains
Harvest House Food  Fresh Fruit/   Mountain       Eureka       KS              67045        972       $16,196.40
 Bank                Vegetable      Plains
                     Box
Harvest House of    Fluid Milk     South West     Jasper       TX              75951      1,892        $5,538.56
 SE
Harvest             Combination    South West     Mansfield    TX              76063      1,200       $41,964.00
 International       Box
 Ministries
Harvest             Dairy          South West     Mansfield    TX              76063      1,200       $54,912.00
 International       Products Box
 Ministries
Harvest             Fluid Milk     South West     Mansfield    TX              76063      9,600       $28,032.00
 International
 Ministries
Harvest             Fresh Fruit/   South West     Mansfield    TX              76063      2,400       $50,880.00
 International       Vegetable
 Ministries          Box
Harvest Ministries  Dairy          Mid-Atlantic   Bensalem     PA              19020        260        $8,772.40
                     Products Box
Harvest Ministries  Fluid Milk     Mid-Atlantic   Bensalem     PA              19020        166        $4,161.12
Harvest of Hope     Fluid Milk     South East     Titusville   FL              32796      4,320       $16,372.80
Harvest Project of  Fresh Fruit/   South West     Dallas       TX              75215      1,800       $34,380.00
 Rescue              Vegetable
                     Box
Harvest Regional    Fluid Milk     South West     Texarkana    AR              71854     11,217      $107,101.38
 Food Bank
Harvest Regional    Fresh Fruit/   South West     Texarkana    AR              71854      2,099       $49,294.90
 Food Bank           Vegetable
                     Box
Harvest Regional    Precooked      South West     Texarkana    AR              71854      3,136      $323,478.40
 Food Bank           Meat Box
Harvest Ridge       Fluid Milk     Midwest        North        OH              44039        400        $1,328.00
                                                   Ridgeville
Harvest Stand       Fresh Fruit/   Midwest        Holland      MI              49423        420       $15,111.60
                     Vegetable
                     Box
Harvest Table       Fluid Milk     South East     Whiteville   NC              28472      1,728        $6,721.92
 W1038
Harvest Time        Combination    South East     Sanford      FL              32771      2,688      $204,422.40
 International       Box
Harvest Time        Fresh Fruit/   Midwest        Warren       MI              48089        700       $20,125.00
 Outreach            Vegetable
                     Box
Harvest Tyme        Fluid Milk     South East     Fort         AL              36032      7,712       $30,650.88
                                                   Deposit
Harvest Valley      Precooked      South West     Texarkana    AR              71854      3,072      $316,876.80
 Regional            Meat Box
Harvester           Fresh Fruit/   Mountain       St. Charles  MO              63304        288        $9,216.00
 Christian/STL       Vegetable      Plains
 Food B              Box
Harvesters          Precooked      Mountain       Topeka       KS              66603      3,825      $139,803.75
 Community Food      Meat Box       Plains
 Network
Harvesters          Dairy          Mountain       Kansas City  MO              64129      7,644      $384,034.56
 Community Network   Products Box   Plains
Harvesters          Fresh Fruit/   Mountain       Kansas City  MO              64129     19,160      $324,762.00
 Community Network   Vegetable      Plains
                     Box
Harvesters          Precooked      Mountain       Kansas City  MO              64129     25,787    $1,253,039.78
 Community Network   Meat Box       Plains
Harvesters          Precooked      Mountain       Kansas City  MO              64130        384       $13,574.40
 Community Network   Meat Box       Plains
Harvesters          Precooked      Mountain       Kansas City  MO              64131        601       $21,966.55
 Community Network   Meat Box       Plains
Harvesters          Precooked      Mountain       Kansas City  MO              64132         39        $1,425.45
 Community Network   Meat Box       Plains
Harvesters          Precooked      Mountain       Kansas City  MO              64133        768       $26,188.80
 Community Network   Meat Box       Plains
Harvesters          Precooked      Mountain       Kansas City  MO              64134        640       $21,824.00
 Community Network   Meat Box       Plains
Harvesters KC       Combination    Mountain       Kansas City  MO              64129      8,732      $305,358.04
                     Box            Plains
Harvesters KC       Dairy          Mountain       Kansas City  MO              64129     11,220      $513,427.20
                     Products Box   Plains
Harvesters KC       Fluid Milk     Mountain       Kansas City  MO              64129      4,950      $118,503.00
                                    Plains
Harvesters KC       Fresh Fruit/   Mountain       Kansas City  MO              64129     19,252      $370,132.40
                     Vegetable      Plains
                     Box
Harvesters Topeka   Combination    Mountain       Topeka       KS              66603      1,200       $41,964.00
                     Box            Plains
Harvesters Topeka   Dairy          Mountain       Topeka       KS              66603      3,780      $172,972.80
                     Products Box   Plains
Harvesters Topeka   Fluid Milk     Mountain       Topeka       KS              66603        990       $23,700.60
                                    Plains
Harvesters Topeka   Fresh Fruit/   Mountain       Topeka       KS              66603     13,500      $260,484.00
                     Vegetable      Plains
                     Box
Harvesters Topeka   Precooked      Mountain       Topeka       KS              66603     10,404      $491,974.48
                     Meat Box       Plains
Harvey Austin       Fresh Fruit/   North East     Buffalo      NY              14211        240        $5,484.00
 School              Vegetable
                     Box
Harvey Church of    Fresh Fruit/   Midwest        Harvey       IL              60426         63        $2,266.74
 Christ              Vegetable
                     Box
Harvey Church of    Precooked      Midwest        Harvey       IL              60426         72        $5,840.64
 Christ Millennium   Meat Box
Harvey Kornblum/    Fresh Fruit/   Mountain       St. Louis    MO              63132        540       $17,280.00
 STL Food Bnk        Vegetable      Plains
                     Box
Hastings HS         Fresh Fruit/   Midwest        Hastings     MI              49058      1,200       $23,964.00
                     Vegetable
                     Box
Hat Pack            Fluid Milk     Mid-Atlantic   Hatboro      PA              19040         70        $2,268.00
Hat Pack            Fresh Fruit/   Mid-Atlantic   Hatboro      PA              19040        216        $4,963.68
                     Vegetable
                     Box
Hatchery Food       Fresh Fruit/   Midwest        Chicago      IL              60612        192        $2,870.40
 Pantry              Vegetable
                     Box
Hatfield Church of  Fresh Fruit/   Mid-Atlantic   Hatfield     PA              19440         25          $574.50
 the Bretheren       Vegetable
                     Box
Hattie B. Williams  Fresh Fruit/   Midwest        Oak Forest   IL              60452        504       $18,133.92
                     Vegetable
                     Box
Hattie B. Williams  Precooked      Midwest        Oak Forest   IL              60452      1,008       $81,768.96
                     Meat Box
Hatties Helping     Dairy          Midwest        Alorton      IL              62207        200        $5,950.00
 Hands               Products Box
Hatties Helping     Fresh Fruit/   Midwest        Alorton      IL              62207        200        $5,500.00
 Hands               Vegetable
                     Box
Haven City Church   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218        300        $6,000.00
                     Vegetable
                     Box
Haven City Church   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21231      1,750       $35,000.00
                     Vegetable
                     Box
Haven From Hunger   Fresh Fruit/   North East     Peabody      MA              01960        480       $13,651.20
                     Vegetable
                     Box
Haven of Rest       Dairy          Midwest        Akron        OH              44308         50        $1,205.00
 Ministries          Products Box
Haven of Rest       Fresh Fruit/   Midwest        Akron        OH              44308         50        $1,325.00
 Ministries          Vegetable
                     Box
Haverhill High      Fresh Fruit/   North East     Haverhill    MA              01832      3,696       $81,127.20
 School              Vegetable
                     Box
Hawaii Ag and       Fresh Fruit/   Western        Honolulu     HI              96816        250        $9,000.00
 Culinary Alliance   Vegetable
                     Box
Hawaii Foodbank     Fluid Milk     Western        Honolulu     HI              96819     23,668       $98,932.24
 Inc.
Hawaii Foodbank     Precooked      Western        Honolulu     HI              96819      1,760       $70,400.00
 Inc.                Meat Box
HAWSD Bud Carson    Fresh Fruit/   Western        Hawthorne    CA              90250        720       $18,000.00
                     Vegetable
                     Box
HAWSD Eucalyptus    Fresh Fruit/   Western        Hawthorne    CA              90250        560       $14,000.00
                     Vegetable
                     Box
HAWSD Jefferson     Fresh Fruit/   Western        Hawthorne    CA              90250        400       $10,000.00
                     Vegetable
                     Box
HAWSD Kornblum      Fresh Fruit/   Western        Hawthorne    CA              90250        640       $16,000.00
                     Vegetable
                     Box
HAWSD Math &        Fresh Fruit/   Western        Hawthorne    CA              90250        400       $10,000.00
 Science             Vegetable
                     Box
HAWSD Prairie       Fresh Fruit/   Western        Hawthorne    CA              90250        880       $22,000.00
 Vista               Vegetable
                     Box
HAWSD Ramona        Fresh Fruit/   Western        Hawthorne    CA              90250        480       $12,000.00
                     Vegetable
                     Box
HAWSD Washington    Fresh Fruit/   Western        Hawthorne    CA              90250        640       $16,000.00
                     Vegetable
                     Box
Hawthorne Area      Fluid Milk     South East     Hawthorne    FL              32640        240          $925.60
 Reso.
Haycock Camping     Precooked      Mid-Atlantic   Kintnersvil  PA              18930         10          $180.00
 Ministries          Meat Box                      le
Hayden First        Fresh Fruit/   South East     Hayden       AL              35079        161        $4,177.95
 Baptist             Vegetable
                     Box
Hayes Temple        Dairy          Midwest        Cleveland    OH              44104        100        $2,500.00
 Church of God IN    Products Box
Hazard High School  Fluid Milk     South East     Hazard       KY              41701        800        $3,032.00
Hazel Crest Box     Dairy          Midwest        Hazel Crest  IL              60429         50        $1,250.00
                     Products Box
Hazel Crest         Fresh Fruit/   Midwest        Hazel Crest  IL              60429        140        $2,520.00
 Community Umc       Vegetable
                     Box
Hazel Crest         Fresh Fruit/   Midwest        Hazel Crest  IL              60429        390        $7,020.00
 Community Umc       Vegetable
                     Box
Hazel Park          Fresh Fruit/   Midwest        Hazel Park   MI              48030      4,850       $96,854.50
 Community Schools   Vegetable
                     Box
Hazel Park High     Fresh Fruit/   Midwest        Hazel Park   MI              48030      1,300       $25,961.00
 School              Vegetable
                     Box
Hazel Park School   Fresh Fruit/   Midwest        Hazel Park   MI              48030        150        $2,242.50
 District            Vegetable
                     Box
HB Sugg. School     Fresh Fruit/   South East     Farmville    NC              27828        864       $30,853.44
                     Vegetable
                     Box
HCC Haynes YMCA     Dairy          South West     Houston      TX              77082      1,000       $45,760.00
                     Products Box
He Heard My Cry     Fresh Fruit/   South West     Houston      TX              77018        693       $11,774.07
 Church              Vegetable
                     Box
Healing and         Fresh Fruit/   Midwest        Detroit      MI              48238        190        $5,462.50
 Prosperity          Vegetable
                     Box
Healing Circles of  Fresh Fruit/   Western        El Cerrito   CA              94530          5          $140.00
 Hope                Vegetable
                     Box
Healing Circles of  Fresh Fruit/   Western        Richmond     CA              94804          3           $84.00
 Hope                Vegetable
                     Box
Healing Circles of  Fresh Fruit/   Western        Richmond     CA              94804          4          $112.00
 Hope                Vegetable
                     Box
Healing House       Fluid Milk     Mountain       Jefferson    MO              65101        135          $303.75
                                    Plains         City
Healing Waters      Precooked      South West     Shannonhill  AR              72103      1,528      $157,613.20
 Church              Meat Box                      s
Healthy Equitable   Combination    Western        Vancouver    WA              98663        240        $8,400.00
 Living              Box
Healthy Equitable   Dairy          Western        Vancouver    WA              98663         50        $1,500.00
 Living              Products Box
Healthy Equitable   Fresh Fruit/   Western        Vancouver    WA              98663        180        $4,860.00
 Living              Vegetable
                     Box
Healthy Harvest     Dairy          Mid-Atlantic   Warsaw       VA              22572      2,080       $70,844.80
                     Products Box
Healthy Living and  Fresh Fruit/   Midwest        Detroit      MI              48202         70        $1,663.20
 Life Skills YMCA    Vegetable
                     Box
Heart Food Pantry   Fluid Milk     Midwest        Reynoldsbur  OH              43068      4,316       $14,329.12
                                                   g
Heartland           Fresh Fruit/   Mountain       Agra         KS              67621        880       $22,792.00
 Christian Center    Vegetable      Plains
                     Box
Heartland           Dairy          Midwest        Marengo      OH              43334        960       $24,000.00
 Conference          Products Box
 Retreat Center
Heartland           Precooked      Midwest        Marengo      OH              43334      1,274       $48,666.80
 Conference          Meat Box
 Retreat Center
Heartland Hands     Dairy          South East     Southaven    MS              38671      1,200       $30,000.00
 USDA                Products Box
Heartland Hands     Fluid Milk     South East     Southaven    MS              38671      3,240        $7,290.00
 USDA
Heartlands Food     Fluid Milk     South East     Southaven    MS              38671      6,660       $26,465.40
 Pan
Hearts 4 Kids       Fluid Milk     South West     Edinburg     TX              78542     14,256       $41,627.52
Hearts 4 Kids       Fresh Fruit/   South West     LA Feria     TX              78559      5,120       $86,988.80
                     Vegetable
                     Box
Hearts and Hands    Fluid Milk     South West     Baytown      TX              77520      2,408        $7,729.68
 of
Hearts As One       Dairy          Mountain       Baxter       KS              66713      1,056       $48,322.56
                     Products Box   Plains         Springs
Hearts As One       Fresh Fruit/   Mountain       Baxter       KS              66713      2,058       $40,542.60
                     Vegetable      Plains         Springs
                     Box
Hearts for the      Fresh Fruit/   North East     Buffalo      NY              14207        100        $2,285.00
 Homeless            Vegetable
                     Box
Hearts for the      Fresh Fruit/   North East     Buffalo      NY              14213      1,000       $22,850.00
 Homeless            Vegetable
                     Box
Hearts for the      Fresh Fruit/   North East     Buffalo      NY              14223        300        $6,855.00
 Homeless            Vegetable
                     Box
Hearts of           Dairy          Western        Montebello   CA              90640      4,500      $131,490.00
 Compassion Food     Products Box
 Bank
Hearts of           Fluid Milk     Western        Montebello   CA              90640     27,600      $275,724.00
 Compassion Food
 Bank
Hearts of           Fresh Fruit/   Western        Montebello   CA              90640     25,680      $385,200.00
 Compassion Food     Vegetable
 Bank                Box
Hearts To Nourish   Fresh Fruit/   South East     Riverdale    GA              30274      4,900       $92,806.00
 Hope                Vegetable
                     Box
Heartside Gleaning  Fresh Fruit/   Midwest        Grand        MI              49525        140        $5,037.20
 Initiative          Vegetable                     Rapids
                     Box
Heavenly Blessings  Fluid Milk     South East     Georgetown   KY              40324        540        $2,046.60
Heavenly Blessings  Fluid Milk     South West     Colmesneil   TX              75938        250          $763.64
Heavenly Hope       Fresh Fruit/   Mountain       Ste          MO              63670      3,870      $106,425.00
 Center              Vegetable      Plains         Genevieve
                     Box
Heaven's Gate       Fresh Fruit/   South East     Four Oaks    NC              27524      2,700       $31,050.00
                     Vegetable
                     Box
Heb Isd.            Fluid Milk     South West     Euless       TX              76040      1,026       $24,562.44
Hebrew Academy of   Fresh Fruit/   Midwest        Beachwood    OH              44122        650       $17,225.00
 Cleveland           Vegetable
                     Box
Hebrew Academy of   Fresh Fruit/   Midwest        Cleveland    OH              44118        215        $5,697.50
 Cleveland           Vegetable
                     Box
Hebrew Academy of   Fresh Fruit/   Midwest        Cleveland    OH              44118        120        $3,180.00
 Cleveland           Vegetable                     Heights
                     Box
Hebron Baptist      Dairy          South East     Statesville  NC              28625        372        $1,860.00
 Church              Products Box
Hebron Baptist      Fluid Milk     South East     Statesville  NC              28625        772        $3,088.00
 Church
Hebron Baptist      Precooked      South East     Statesville  NC              28625        666       $12,987.00
 Church              Meat Box
HEH                 Fluid Milk     Midwest        Blissfield   MI              49228     29,700       $98,604.00
Heights Christian   Dairy          Midwest        Shaker       OH              44120        220        $5,302.00
 Church              Products Box                  Heights
Heights Christian   Fresh Fruit/   Midwest        Shaker       OH              44120        320        $8,480.00
 Church              Vegetable                     Heights
                     Box
Heilmann Community  Fresh Fruit/   Midwest        Detroit      MI              48216        200        $2,990.00
 Center              Vegetable
                     Box
Helena Food Share   Combination    Mountain       Helena       MT              59624      3,358      $161,184.00
                     Box            Plains
Helena Food Share   Fresh Fruit/   Mountain       Helena       MT              59624      3,642      $109,260.00
                     Vegetable      Plains
                     Box
Help End Hunger     Combination    South East     Savannah     GA              31404     21,504      $264,499.20
                     Box
Help End Hunger     Dairy          South East     Savannah     GA              31404     18,720      $610,833.60
                     Products Box
Help House          Fresh Fruit/   Midwest        London       OH              43140        192        $3,744.00
                     Vegetable
                     Box
Help the Children   Combination    Western        Montebello   CA              90640      2,016       $51,468.48
 Montebello          Box
Help the Children   Dairy          Western        Montebello   CA              90640        358        $9,397.50
 Montebello          Products Box
Help the Children   Fluid Milk     Western        Montebello   CA              90640     15,432      $117,283.20
 Montebello
Help the Children   Fresh Fruit/   Western        Montebello   CA              90640      3,240       $81,000.00
 Montebello          Vegetable
                     Box
Helphing Hands of   Fresh Fruit/   South East     Cleveland    MS              38732        300        $5,985.00
 Cleveland           Vegetable
                     Box
Helping Hands of    Fresh Fruit/   South East     Cleveland    MS              38732        300        $5,985.00
 Cleveland           Vegetable
                     Box
Helping Harvest     Precooked      Mid-Atlantic   Reading      PA              19608        200       $12,370.00
 Mulhenberg Mobile   Meat Box
Helping Feet        Dairy          Western        Los Angeles  CA              90249     38,956    $1,138,294.32
                     Products Box
Helping Feet        Fluid Milk     Western        City of      CA              91748    171,390    $1,712,186.10
                                                   Industry
Helping Hand        Fresh Fruit/   North East     Cambridge    MA              02140         40        $1,137.60
                     Vegetable
                     Box
Helping Hands FB    Combination    Western        Sedro        WA              98284      1,620       $56,700.00
 Sedro W             Box                           Woolley
Helping Hands Fb    Dairy          Western        Sedro        WA              98284      1,000       $30,000.00
 Sedro W             Products Box                  Woolley
Helping Hands FB    Fresh Fruit/   Western        Sedro        WA              98284        780       $21,060.00
 Sedro W             Vegetable                     Woolley
                     Box
Helping Hands Food  Dairy          Midwest        Odin         IL              62870        270        $8,032.50
 Outreach            Products Box
Helping Hands Food  Fresh Fruit/   Midwest        Odin         IL              62870        135        $3,712.50
 Outreach            Vegetable
                     Box
Helping Hands       Fresh Fruit/   Midwest        Indianola    IA              50125        960       $13,920.00
 Indianola           Vegetable
                     Box
Helping Hands       Fresh Fruit/   South East     Woodruff     SC              29388        195        $5,850.00
 Ministries          Vegetable
                     Box
Helping Hands       Precooked      Mid-Atlantic   Quakertown   PA              18951         20          $360.00
 Mobile Pantry       Meat Box
Helping Hands of    Fresh Fruit/   South East     Cleveland    MS              38732      1,110       $22,144.50
 Cleveland           Vegetable
                     Box
Helping Hands of    Fluid Milk     South East     Georgetown   SC              29440        480        $1,867.20
 Gt.
Helping Hands of    Fluid Milk     South East     Hamlet       NC              28345      2,376        $9,307.44
 Hamlet
Helping Hands of    Fresh Fruit/   South East     Hamlet       NC              28345      1,100       $12,650.00
 Hamlet              Vegetable
                     Box
Helping Hands of    Fluid Milk     South West     Kilgore      TX              75662        520        $1,518.40
 Ki.
Helping Hands of    Fluid Milk     South East     Dallas       GA              30132        608        $2,364.32
 PA
Helping Harvest     Dairy          Mid-Atlantic   Reading      PA              19606        375       $15,000.00
 Exeter FP           Products Box
Helping Harvest     Precooked      Mid-Atlantic   Reading      PA              19608        100        $6,185.00
 First UU            Meat Box
Helping Harvest     Combination    Mid-Atlantic   Reading      PA              19608        312       $29,640.00
 Food Bank           Box
Helping Harvest     Dairy          Mid-Atlantic   Reading      PA              19608      1,435       $57,400.00
 Food Bank           Products Box
Helping Harvest     Fresh Fruit/   Mid-Atlantic   Reading      PA              19608        720       $16,545.60
 Food Bank           Vegetable
                     Box
Helping Harvest     Precooked      Mid-Atlantic   Reading      PA              19608      1,140       $70,509.00
 Food Bank           Meat Box
Helping Harvest     Dairy          Mid-Atlantic   Reading      PA              19602        150        $6,000.00
 Jewish Family       Products Box
 Service
Helping Harvest     Dairy          Mid-Atlantic   Reading      PA              19602        200        $8,000.00
 Kennedy House       Products Box
Helping Harvest     Dairy          Mid-Atlantic   Reading      PA              19547        150        $6,000.00
 Oley Valley FP      Products Box
Helping in His      Fluid Milk     South East     Stockbridge  GA              30281      3,240       $12,747.60
 Name Minis
Helping in His      Fresh Fruit/   South East     Stockbridge  GA              30281         50          $947.00
 Name Minis.         Vegetable
                     Box
Hendricks Co.       Fluid Milk     Midwest        Danville     IN              46122      4,176       $16,704.00
 Comm. Fndtn.
Hendricks Co.       Fresh Fruit/   Midwest        Danville     IN              46122      1,200       $28,800.00
 Comm. Fndtn.        Vegetable
                     Box
Henry County        Dairy          Midwest        Napoleon     OH              43545         40          $970.80
 Senior Center       Products Box
Henry County        Fresh Fruit/   Midwest        Napoleon     OH              43545         50          $832.50
 Senior Center       Vegetable
                     Box
Henry County        Precooked      Midwest        Napoleon     OH              43545        200        $8,230.40
 Senior Center       Meat Box
Henry Fordfood      Dairy          Midwest        Detroit      MI              48202         30        $1,012.50
                     Products Box
Henry Fordfood      Precooked      Midwest        Detroit      MI              48202         30        $1,430.70
                     Meat Box
Henry Fordgame on   Dairy          Midwest        Detroit      MI              48202         30        $1,012.50
 Cancer              Products Box
Henry Fordgame on   Precooked      Midwest        Detroit      MI              48202         30        $1,430.70
 Cancer              Meat Box
Heritage Church     Fresh Fruit/   Midwest        Warren       MI              48313        125        $3,593.75
                     Vegetable
                     Box
Heritage Food       Fresh Fruit/   Midwest        Sterling     MI              48313        470       $13,512.50
 Pantry              Vegetable                     Heights
                     Box
Heritage Heights    Fresh Fruit/   North East     Amherst      NY              14228         60        $1,371.00
 Elementary          Vegetable
                     Box
Herkimer High       Combination    North East     Herkimer     NY              13350        240       $12,420.00
 School              Box
Herkimer High       Dairy          North East     Herkimer     NY              13350        180        $8,910.00
 School              Products Box
Herkimer High       Fluid Milk     North East     Herkimer     NY              13350      2,171       $67,257.58
 School
Herkimer High       Fresh Fruit/   North East     Herkimer     NY              13350        190        $5,662.00
 School              Vegetable
                     Box
Herkimer High       Precooked      North East     Herkimer     NY              13350        360       $27,000.00
 School              Meat Box
Herman Community    Fresh Fruit/   Mountain       Herman       MO              65041         48        $1,320.00
 Food Pantry         Vegetable      Plains
                     Box
Hermanas De la      Combination    Mid-Atlantic   Trujillo     PR              00976        252       $20,832.00
 Caridad Del         Box                           Alto
 Sagrado Corazon
 De Jesus
Hermanas De la      Combination    Mid-Atlantic   Trujillo     PR              00976         84        $8,316.00
 Virgen Maria Del    Box                           Alto
 Monte Carmelo
Hermanas De San     Combination    Mid-Atlantic   San Juan     PR              00921         42        $2,100.00
 Jose                Box
Hermanos Sin        Combination    Mid-Atlantic   Arecibo      PR              00612      1,344      $133,056.00
 Fronteras           Box
Hermanos Sin        Combination    Mid-Atlantic   Cabo Rojo    PR              00623        672       $66,528.00
 Fronteras           Box
Hermanos Sin        Combination    Mid-Atlantic   Yauco        PR              00698      1,344      $133,056.00
 Fronteras           Box
Herrin Community    Fresh Fruit/   Midwest        Herrin       IL              62948         20          $550.00
 Pantry              Vegetable
                     Box
Herrin House of     Dairy          Midwest        Herrin       IL              62948        200        $5,950.00
 Hope                Products Box
Herrin House of     Dairy          Midwest        Herrin       IL              62948        800       $23,800.00
 Hope                Products Box
Herrin House of     Fresh Fruit/   Midwest        Herrin       IL              62948        200        $5,500.00
 Hope                Vegetable
                     Box
Herrin House of     Fresh Fruit/   Midwest        Herrin       IL              62948        750       $20,625.00
 Hope                Vegetable
                     Box
Hertford County     Fresh Fruit/   South East     Ahoskie      NC              27910          4          $142.84
 High School         Vegetable
                     Box
Hertford County     Fresh Fruit/   South East     Murfreesbor  NC              27855          4          $142.84
 Middle School       Vegetable                     o
                     Box
Hesperia Nutrition  Fresh Fruit/   Western        Hesperia     CA              92345      1,600       $40,000.00
 Svc.                Vegetable
                     Box
Hessco Health       Combination    North East     Sharon       MA              02035        125        $4,100.00
                     Box
Hessco Health       Precooked      North East     Sharon       MA              02035         70        $3,801.00
                     Meat Box
Hessco Norfolk COA  Combination    North East     Norfolk      MA              02056         45        $1,476.00
                     Box
Hghlnd. Fd. Pantry  Fluid Milk     Midwest        Highland     IL              62249        135          $303.75
Hialeah Fire        Fresh Fruit/   South East     Hialeah      FL              33010        480       $12,000.00
 Administration      Vegetable
                     Box
Hickory Grove       Fresh Fruit/   South East     Charlotte    NC              28262      2,940       $80,850.00
 Baptist Church      Vegetable
 (Mallard Creek      Box
 Campus)
Hickory Ridge       Fluid Milk     South East     Florence     MS              39073      4,512       $17,100.48
 Bapt.
Hickory Ridge BC    Dairy          South East     Florence     MS              39073      1,600       $44,928.00
                     Products Box
Hickory Ridge BC    Fluid Milk     South East     Florence     MS              39073        576        $4,227.84
Hickory Ridge BC    Fresh Fruit/   South East     Florence     MS              39073      1,552       $26,228.80
                     Vegetable
                     Box
Hickory Ridge BC    Precooked      South East     Florence     MS              39073        840       $34,490.40
                     Meat Box
Hicks Elementary    Fresh Fruit/   Midwest        Inkster      MI              48141        100        $1,495.00
 School              Vegetable
                     Box
Hidden Harvest FB   Dairy          Midwest        Saginaw      MI              48605        288        $7,200.00
                     Products Box
Hidden Harvest FB   Dairy          Midwest        Saginaw      MI              48605      1,584       $39,600.00
 Sagnw               Products Box
Hidden Harvest FB   Fresh Fruit/   Midwest        Saginaw      MI              48607      8,200      $163,754.00
 Sagnw               Vegetable
                     Box
Hidden Manna        Dairy          Midwest        Peoria       IL              61602        353       $10,501.75
                     Products Box
Hidden Manna        Dairy          Midwest        Peoria       IL              61603        190        $5,652.50
                     Products Box
Hidden Manna        Fresh Fruit/   Midwest        Peoria       IL              61602        340        $9,350.00
                     Vegetable
                     Box
Hidden Manna        Fresh Fruit/   Midwest        Peoria       IL              61603        190        $5,225.00
                     Vegetable
                     Box
High Desert Second  Fluid Milk     Western        Hesperia     CA              92345      2,592       $25,894.08
 Chance
High Plains Food    Precooked      South West     Amarillo     TX              79102      1,440      $148,536.00
 Bank                Meat Box
Higher Ground       Dairy          Western        Anaheim      CA              92805        768       $22,440.96
 Youth and Family    Products Box
 Services
Higher Ground       Fresh Fruit/   Western        Anaheim      CA              92805      2,000       $49,500.00
 Youth and Family    Vegetable
 Services            Box
Highgate Heights    Fresh Fruit/   North East     Buffalo      NY              14215        300        $6,855.00
 School              Vegetable
                     Box
Highland Area       Dairy          Midwest        Highland     IL              62249        100        $2,975.00
 Service Ministry    Products Box
Highland Area       Fresh Fruit/   Midwest        Highland     IL              62249        100        $2,750.00
 Service Ministry    Vegetable
                     Box
Highland Ave.       Dairy          Midwest        Cincinnati   OH              45216      2,200       $55,000.00
 Baptist Church      Products Box
Highland Ave.       Fresh Fruit/   Midwest        Cincinnati   OH              45216      1,530       $30,554.10
 Baptist Church      Vegetable
                     Box
Highland Baptist    Fresh Fruit/   South East     Molino       FL              32577        700       $20,300.00
 Church              Vegetable
                     Box
Highland Community  Dairy          Midwest        Wadsworth    OH              44281         90        $2,169.00
 Support Network     Products Box
Highland Community  Fresh Fruit/   Midwest        Wadsworth    OH              44281         82        $2,173.00
 Support Network     Vegetable
                     Box
Highland Co.--      Precooked      Midwest        Greenfield   OH              45123         24        $1,063.28
 Senior Nutrition    Meat Box
 Prgrm.
Highland Food       Fluid Milk     Midwest        Highland     IL              62249        135          $303.75
 Pantry
Highland Meadows    Fresh Fruit/   South West     Grapevine    TX              76051      3,840       $80,988.00
 Christian Church    Vegetable
                     Box
Highland Park City  Fresh Fruit/   Midwest        Highland     MI              48203      4,347      $156,405.06
 Clerk               Vegetable                     Park
                     Box
Highland Park       Fresh Fruit/   Western        Seattle      WA              98106        889       $24,447.50
 Improvement Club    Vegetable
                     Box
Highland Valley     Combination    North East     Northampton  MA              01060        135        $4,428.00
 Elder Service       Box
Highland Valley     Precooked      North East     Northampton  MA              01060        100        $5,430.00
 Elder Service       Meat Box
Highland/STL Food   Fresh Fruit/   Mountain       St. Charles  MO              63301        180        $5,760.00
 Bank                Vegetable      Plains
                     Box
Highway 80 Rescue   Fluid Milk     South West     Longview     TX              75604        864        $2,522.88
 M
Hijas De Santa      Combination    Mid-Atlantic   Caguas       PR              00725        272       $26,928.00
 Maria               Box
Hill Chapel MBC--C/ Fresh Fruit/   South East     Memphis      TN              38128        540       $13,230.00
 O Mid South Food    Vegetable
 Bank                Box
Hill Country        Fresh Fruit/   South West     Leander      TX              78641      1,000       $16,990.00
 Community           Vegetable
 Ministr.            Box
Hill Country Daily  Fresh Fruit/   South West     Boerne       TX              78015      4,416       $75,027.84
 Bread               Vegetable
                     Box
Hill McCloy High    Dairy          Midwest        Montrose     MI              48457         75        $2,175.00
 School              Products Box
Hill McCloy High    Fresh Fruit/   Midwest        Montrose     MI              48457        300        $6,337.50
 School              Vegetable
                     Box
Hillary Park        Fresh Fruit/   North East     Buffalo      NY              14210        400        $9,140.00
 Academy             Vegetable
                     Box
Hillcrest Comm.     Fluid Milk     Midwest        Clinton      IN              47842      2,412        $5,427.00
Hilliard Food       Fresh Fruit/   Midwest        Hilliard     OH              43026        320        $6,240.00
 Pantry              Vegetable
                     Box
Hilliard Happiness  Fresh Fruit/   Midwest        Hilliard     OH              43026        256        $4,992.00
 Club                Vegetable
                     Box
Hills Chapel Miss.  Fresh Fruit/   South East     Rocky Point  NC              28457      1,220       $17,138.00
 Bapt. Church        Vegetable
                     Box
Hills Church of     Fresh Fruit/   South East     Hillsboroug  NC              27278        100        $1,150.00
 God                 Vegetable                     h
                     Box
Hillsboro Food      Fresh Fruit/   Mountain       Herman       MO              65041        606       $16,665.00
 Pantry              Vegetable      Plains
                     Box
Hillsboro Food/STL  Fresh Fruit/   Mountain       Hillsboro    MO              63050        360       $11,520.00
 Food Bank           Vegetable      Plains
                     Box
Hillsboro SD Cntr.  Combination    Western        Hillsboro    OR              97123        180        $6,300.00
 Kitchen             Box
Hillsboro SD Cntr.  Dairy          Western        Hillsboro    OR              97123        200        $6,000.00
 Kitchen             Products Box
Hillsborough        Fresh Fruit/   South East     Hillsboroug  NC              27278        200        $2,300.00
 Church of God       Vegetable                     h
                     Box
Hillsborough High   Fresh Fruit/   Mid-Atlantic   Hillsboroug  NJ              08844        150        $2,842.50
 School(Ymca)        Vegetable                     h
                     Box
Hillsdale           Fresh Fruit/   Midwest        Hillsdale    MI              49242        420       $15,111.60
 Community Schools   Vegetable
                     Box
Hillsdale LSD       Fluid Milk     Midwest        Jeromesvill  OH              44840        660        $2,191.20
                                                   e
Hillsdale Senior    Fresh Fruit/   Midwest        Hillsdale    MI              49242        150        $2,242.50
 Services            Vegetable
                     Box
Hillside Free       Precooked      Midwest        Chicago      IL              60201        144       $11,681.28
 Methodist           Meat Box
Hillside            Fresh Fruit/   South East     Atlanta      GA              30311      3,840       $72,729.60
 International       Vegetable
                     Box
Hilltop Alliance    Dairy          Mid-Atlantic   Pittsburgh   PA              15210        200        $4,206.00
                     Products Box
Hilmar USD          Combination    Western        Hilmar       CA              95324      1,120       $58,732.80
                     Box
Hilmar USD          Fresh Fruit/   Western        Hilmar       CA              95324        428       $15,763.24
                     Vegetable
                     Box
Hindon Community    Combination    Western        Fresno       CA              93706        350       $18,354.00
 Center              Box
Hindu Worship       Fresh Fruit/   South West     Houston      TX              77055        500        $4,850.00
 Society Brighter    Vegetable
 Bites               Box
Hines VA Food       Fresh Fruit/   Midwest        Chicago      IL              60141         63        $2,266.74
 Pantry              Vegetable
                     Box
Hines VA Food       Fresh Fruit/   Midwest        Hines        IL              60141        126        $4,533.48
 Pantry              Vegetable
                     Box
His Hands           Fluid Milk     Midwest        Mt. Vernon   IL              62864        225          $506.25
His Hands Church    Fresh Fruit/   South East     Woodstock    GA              30189      3,040       $57,577.60
                     Vegetable
                     Box
His Place Soup      Fresh Fruit/   Mountain       Salem        MO              65560      1,004       $27,610.00
 Kitchen             Vegetable      Plains
                     Box
Hispanic Center     Fresh Fruit/   Midwest        Grand        MI              49501        315       $11,333.70
 Western Michigan    Vegetable                     Rapids
                     Box
Hispanic Center     Fresh Fruit/   Midwest        Grand        MI              49503      8,088      $291,006.24
 Western Michigan    Vegetable                     Rapids
                     Box
Hispanic Cultural   Combination    Western        Nampa        ID              83687         50        $2,200.00
 Center of ID        Box
Hispanic Cultural   Fresh Fruit/   Western        Nampa        ID              83687         50        $1,300.00
 Center of ID        Vegetable
                     Box
Hispanic Family     Fresh Fruit/   Mid-Atlantic   Woodbury     NJ              08096        120        $5,760.00
 Center              Vegetable
                     Box
Hispanic Heritage   Fresh Fruit/   North East     Buffalo      NY              14201        500       $11,425.00
 Cultural            Vegetable
                     Box
Hispanic Ministry   Fresh Fruit/   South East     Cullman      AL              35055        105        $2,625.00
 First UMC           Vegetable
                     Box
Hispanics           Fresh Fruit/   North East     Dunkirk      NY              14048        502       $11,470.70
 Organized for       Vegetable
 Progre.             Box
Historic Bethel     Fresh Fruit/   South East     Vicksburg    MS              39180      1,400       $27,958.00
 African ME Church   Vegetable
                     Box
Historic Little     Fresh Fruit/   Midwest        Detroit      MI              48202        750       $11,212.50
 Rock Baptist        Vegetable
                     Box
Historic Little     Fresh Fruit/   Midwest        Detroit      MI              48202        500        $7,475.00
 Rock Church         Vegetable
                     Box
HL Suverkrup Gowan  Fluid Milk     South West     Yuma         AZ              85364        490        $3,861.20
HL Suverkrup Gowan  Fresh Fruit/   South West     Yuma         AZ              85364        990       $27,225.00
                     Vegetable
                     Box
Ho.--Chunk Nation   Dairy          Midwest        Baraboo      WI              53913        990       $24,027.30
                     Products Box
Ho.--Chunk Nation   Fresh Fruit/   Midwest        Baraboo      WI              53913        780       $14,977.80
                     Vegetable
                     Box
Ho.--Chunk Nation   Precooked      Midwest        Baraboo      WI              53913        849       $27,036.15
                     Meat Box
Hochunk Community   Fresh Fruit/   Mountain       Winnebago    NE              68071        960       $24,864.00
 Development         Vegetable      Plains
                     Box
Hoffman Estates     Fresh Fruit/   Midwest        Hoffman      IL              60195        250        $6,875.00
 High School         Vegetable                     Estates
                     Box
Hoffman Estates     Fresh Fruit/   Midwest        Hoffman      IL              60195      1,100       $30,250.00
 High School         Vegetable                     Estates
                     Box
Hogar Agapito       Combination    Mid-Atlantic   San Juan     PR              00921         23        $1,150.00
                     Box
Hogar Alegria De    Combination    Mid-Atlantic   Vega Baja    PR              00693        205       $10,250.00
 Anos Dorado         Box
Hogar Amapola       Combination    Mid-Atlantic   Toa Baja     PR              00949        208       $10,400.00
                     Box
Hogar Bethzaida     Combination    Mid-Atlantic   Arecibo      PR              00612        244       $12,200.00
                     Box
Hogar Carino        Combination    Mid-Atlantic   San Juan     PR              00924        168       $16,632.00
                     Box
Hogar Casa Luna     Combination    Mid-Atlantic   San Juan     PR              00926         22        $1,100.00
                     Box
Hogar Casa          Combination    Mid-Atlantic   San Juan     PR              00924        321       $31,779.00
 Primavera           Box
Hogar Casa          Combination    Mid-Atlantic   San Juan     PR              00921         45        $2,250.00
 Victoria            Box
Hogar Cidra         Combination    Mid-Atlantic   San Juan     PR              00921         25        $2,475.00
 Nursing Home        Box
Hogar Colegio LA    Combination    Mid-Atlantic   Arecibo      PR              00612      3,072      $266,496.00
 Milagrosa           Box
Hogar El Bonsai     Combination    Mid-Atlantic   Bayamon      PR              00956        179        $8,950.00
                     Box
Hogar El Morro      Combination    Mid-Atlantic   Toa Baja     PR              00949        210       $20,790.00
                     Box
Hogar Elizabeth     Combination    Mid-Atlantic   Bayamon      PR              00959        210       $10,500.00
                     Box
Hogar Estancias     Combination    Mid-Atlantic   Ceiba        PR              00735        200       $10,000.00
 Ceiba               Box
Hogar Estancias     Combination    Mid-Atlantic   San Juan     PR              00921         24        $1,200.00
 San Juan            Box
Hogar Fe Y          Combination    Mid-Atlantic   Mayaguez     PR              00680        271       $13,550.00
 Esperanza           Box
Hogar Fuente De     Combination    Mid-Atlantic   Caguas       PR              00725        133        $6,650.00
 Silohe              Box
Hogar Fuente De     Combination    Mid-Atlantic   Santa        PR              00757        158        $7,900.00
 Vida                Box                           Isabel
Hogar Guadalupe     Combination    Mid-Atlantic   Palmer       PR              00721         22        $1,100.00
                     Box
Hogar Hacieda       Combination    Mid-Atlantic   San German   PR              00683         40        $2,000.00
 Dorada              Box
Hogar Hacienda San  Combination    Mid-Atlantic   Caguas       PR              00725        297       $29,403.00
 Antonio             Box
Hogar Hermandad De  Combination    Mid-Atlantic   Toa Alta     PR              00953        211       $10,550.00
 Oro                 Box
Hogar Horizonte     Combination    Mid-Atlantic   Hatillo      PR              00659        291       $14,550.00
 Health              Box
Hogar Infantil      Combination    Mid-Atlantic   Isabela      PR              00662        200       $19,800.00
 Jesus Nazareno      Box
Hogar la Aldea      Combination    Mid-Atlantic   Bayamon      PR              00956        126       $10,416.00
                     Box
Hogar la Bondad     Combination    Mid-Atlantic   Mayaguez     PR              00680        281       $14,050.00
                     Box
Hogar Las Brisas    Combination    Mid-Atlantic   Trujillo     PR              00976         26        $1,300.00
                     Box                           Alto
Hogar Leger         Combination    Mid-Atlantic   San Juan     PR              00921         24        $1,200.00
                     Box
Hogar Lilliam       Combination    Mid-Atlantic   San Juan     PR              00921         20        $1,000.00
                     Box
Hogar Los Abuelos   Combination    Mid-Atlantic   Cabo Rojo    PR              00623        277       $13,850.00
                     Box
Hogar Los Lirios    Combination    Mid-Atlantic   San Juan     PR              00926        247       $24,453.00
                     Box
Hogar Love and      Combination    Mid-Atlantic   Aguada       PR              00602        256       $12,800.00
 Care                Box
Hogar Luz De Vida   Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00680        174        $6,786.00
                     Vegetable
                     Box
Hogar Maria De      Combination    Mid-Atlantic   Isabela      PR              00662        262       $13,100.00
 Isabela             Box
Hogar Maria Teresa  Combination    Mid-Atlantic   San Juan     PR              00921         25        $1,250.00
                     Box
Hogar mi Familia    Combination    Mid-Atlantic   Yauco        PR              00698        280       $14,000.00
 Loma Bonita         Box
Hogar mi Hogar      Combination    Mid-Atlantic   Corozal      PR              00783        294       $14,700.00
                     Box
Hogar Modesto       Combination    Mid-Atlantic   Trujillo     PR              00976        263       $26,037.00
 Gotay               Box                           Alto
Hogar Monte Caleb   Combination    Mid-Atlantic   Canovanas    PR              00729         23        $1,150.00
                     Box
Hogar Nuestra       Combination    Mid-Atlantic   San Juan     PR              00921        220       $11,000.00
 Senora              Box
 Providencia
Hogar Nueva Mujer   Fresh Fruit/   Mid-Atlantic   Cayey        PR              00736        345       $13,455.00
                     Vegetable
                     Box
Hogar Nueva Mujer   Fresh Fruit/   Mid-Atlantic   Cayey        PR              00737         75        $2,925.00
                     Vegetable
                     Box
Hogar Nueva Mujer   Fresh Fruit/   Mid-Atlantic   Cayey        PR              00736        120        $4,680.00
 Calle Las Parras    Vegetable
 #3 Sector Mogot     Box
Hogar Nuevo         Combination    Mid-Atlantic   San Juan     PR              00926        152       $15,048.00
 Horizonte           Box
Hogar Pena Rios     Combination    Mid-Atlantic   Caguas       PR              00725         23        $1,150.00
                     Box
Hogar Reychel       Combination    Mid-Atlantic   Palmer       PR              00721         24        $1,200.00
                     Box
Hogar Rinconcito    Combination    Mid-Atlantic   Isabela      PR              00662        250       $12,500.00
 De Amor             Box
Hogar San Agustin   Combination    Mid-Atlantic   San Juan     PR              00924        176        $8,800.00
 Y Teresa            Box
Hogar San Jose      Combination    Mid-Atlantic   Mayaguez     PR              00680        251       $12,550.00
                     Box
Hogar Santa Maria   Combination    Mid-Atlantic   Ponce        PR              00716        113        $5,650.00
                     Box
Hogar Shalom        Combination    Mid-Atlantic   Bayamon      PR              00956        283       $28,017.00
                     Box
Hogar Tesoro De     Combination    Mid-Atlantic   Carolina     PR              00979        147        $7,350.00
 Vida                Box
Hogar Torrilin      Combination    Mid-Atlantic   Bayamon      PR              00956        276       $27,324.00
                     Box
Hogar Vivencias     Combination    Mid-Atlantic   San Juan     PR              00924        288       $28,512.00
 Daz                 Box
Hogg Clinic         Fresh Fruit/   South West     Houston      TX              77009        128        $2,174.72
                     Vegetable
                     Box
Hogs for A Cause    Fresh Fruit/   South West     Abbott       TX              76621        768       $13,048.32
                     Vegetable
                     Box
Holabird            Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        900       $18,000.00
 Elementary/Middle   Vegetable
 School              Box
Holcomb Assembly    Fresh Fruit/   Mountain       Holcomb      MO              63852        960       $24,864.00
 of God              Vegetable      Plains
                     Box
Holden Elementary   Fresh Fruit/   Midwest        Sterling     MI              48310        150        $2,242.50
 School              Vegetable                     Heights
                     Box
Holding Institute   Fluid Milk     South West     Laredo       TX              78040        300          $876.00
Holiness            Fresh Fruit/   South East     Memphis      TN              38127        827       $20,261.50
 Tabernacle--C/O     Vegetable
 Mid South Food      Box
 Bank
Holland High        Fresh Fruit/   Midwest        Holland      MI              49423         63        $2,266.74
 School              Vegetable
                     Box
Holland Public      Fresh Fruit/   Midwest        Holland      MI              49423        189        $6,800.22
 Schools             Vegetable
                     Box
Holland Rescue      Dairy          Midwest        Holland      MI              49423        336        $8,400.00
 Mission             Products Box
Holland Rescue      Fresh Fruit/   Midwest        Holland      MI              49423        126        $4,533.48
 Mission             Vegetable
                     Box
Holland United      Dairy          Midwest        Holland      IN              47541        500       $12,500.00
 Methodist           Products Box
Holliston High      Fresh Fruit/   North East     Holliston    MA              01746      1,050       $23,047.50
 Sch.                Vegetable
                     Box
Holly Springs       Fresh Fruit/   South East     Holly        MS              38635        594       $14,553.00
 Marshall County     Vegetable                     Springs
 BC--C/O Mid South   Box
 Fo
Holmes Community    Dairy          South East     Goodman      MS              39079        640       $17,971.20
 College             Products Box
Holmes Elementary   Dairy          South West     Mesa         AZ              85204        585       $15,502.50
                     Products Box
Holmes Elementary   Fresh Fruit/   South West     Mesa         AZ              85204        744       $16,256.40
                     Vegetable
                     Box
Holmes Elementary   Fresh Fruit/   North East     Tonawanda    NY              14150        520       $11,882.00
                     Vegetable
                     Box
Holt Assembly of    Fresh Fruit/   South East     Holt         FL              32564        350       $10,150.00
 God                 Vegetable
                     Box
Holt Summit Food    Fluid Milk     Mountain       Holts        MO              65043        530        $1,192.50
 Pantry                             Plains         Summit
Holton Elementary   Fresh Fruit/   Mountain       Holton       KS              66436      2,158       $36,578.10
 School              Vegetable      Plains
                     Box
Holton USD 336      Combination    Mountain       Holton       KS              66436      2,880      $100,713.60
                     Box            Plains
Holton USD 336      Dairy          Mountain       Holton       KS              66436        600       $27,456.00
                     Products Box   Plains
Holton USD 336      Fresh Fruit/   Mountain       Holton       KS              66436      1,320       $25,212.00
                     Vegetable      Plains
                     Box
Holy Cross School   Fresh Fruit/   Mountain       Kansas City  MO              64123      1,120       $29,008.00
                     Vegetable      Plains
                     Box
Holy Family         Combination    Western        Seattle      WA              98106      1,440       $50,400.00
 Catholic Ch.        Box
Holy Family         Dairy          Western        Seattle      WA              98106      1,450       $43,500.00
 Catholic Ch.        Products Box
Holy Family         Fresh Fruit/   Western        Seattle      WA              98106        960       $25,920.00
 Catholic Ch.        Vegetable
                     Box
Holy Family         Fresh Fruit/   South East     Birmingham   AL              35218      1,070       $27,766.50
 Catholic Church     Vegetable
                     Box
Holy Family Church  Fresh Fruit/   Western        South        CA              91030      1,232       $24,603.04
                     Vegetable                     Pasadena
                     Box
Holy Family         Fresh Fruit/   Midwest        Kalamazoo    MI              49008      3,705      $111,150.00
 Healthcare          Vegetable
                     Box
Holy Family         Combination    Western        Kirkland     WA              98033        360       $12,600.00
 Kirkland USDA       Box
Holy Family         Dairy          Western        Kirkland     WA              98033        450       $13,500.00
 Kirkland USDA       Products Box
Holy Family Parish  Fresh Fruit/   Midwest        Adrian       MI              49221        500       $14,375.00
                     Vegetable
                     Box
Holy Family Parish/ Fresh Fruit/   Midwest        Adrian       MI              49221        100        $2,875.00
 St. Vincent         Vegetable
                     Box
Holy Ghost          Fresh Fruit/   Midwest        Detroit      MI              48211        250        $3,737.50
 Cathedral           Vegetable
                     Box
Holy Lutheran       Dairy          Mid-Atlantic   Reading      PA              19601        167        $6,680.00
 Helping Harvest     Products Box
 Food Bank
Holy Manna          Fluid Milk     South East     Cartersvill  GA              30120      1,152        $4,481.28
 Ministries                                        e
Holy Manna          Fresh Fruit/   South East     Cartersvill  GA              30120        500       $10,000.00
 Ministries          Vegetable                     e
                     Box
Holy Name Catholic  Fresh Fruit/   South West     Houston      TX              77009      1,152       $19,572.48
 Church YMCA         Vegetable
                     Box
Holy Name Church    Fluid Milk     Midwest        Cleveland    OH              44105        528        $1,752.96
Holy Redeemer       Fresh Fruit/   Midwest        Detroit      MI              48209        189        $6,800.22
 Grade School        Vegetable
                     Box
Holy Rosary Parish  Fresh Fruit/   Mid-Atlantic   Muse         PA              15350        960       $28,800.00
                     Vegetable
                     Box
Holy Spirit Parish  Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        720       $21,600.00
                     Vegetable
                     Box
Holy Temple         Fresh Fruit/   South East     Memphis      TN              38116        432       $10,584.00
 Cathedral--C/O      Vegetable
 Mid South Food      Box
 Bank
Holy Trinity        Dairy          Midwest        Akron        OH              44304         90        $2,169.00
 Church              Products Box
Holy Trinity        Fresh Fruit/   Midwest        Akron        OH              44304        120        $3,180.00
 Church              Vegetable
                     Box
Homedale            Combination    Western        Homedale     ID              83628        145        $6,380.00
 Elementary School   Box
Homedale            Fresh Fruit/   Western        Homedale     ID              83628        145        $3,770.00
 Elementary School   Vegetable
                     Box
Homer Community     Fresh Fruit/   Midwest        Homer        MI              49245        126        $4,533.48
 House               Vegetable
                     Box
Homer Community     Dairy          Midwest        Homer        MI              49245        150        $3,640.50
 Schools             Products Box
Homer Community     Fresh Fruit/   Midwest        Homer        MI              49245        800       $16,164.00
 Schools             Vegetable
                     Box
Homer Community     Precooked      Midwest        Homer        MI              49245        100        $4,566.00
 Schools             Meat Box
Homeward Bound      Fresh Fruit/   Western        Novato       CA              94949        107        $2,675.00
                     Vegetable
                     Box
Homey               Fresh Fruit/   Western        San          CA              94110        310        $9,870.40
                     Vegetable                     Francisco
                     Box
Honolulu Bible      Fresh Fruit/   Western        Honolulu     HI              96816        500       $18,000.00
 Church              Vegetable
 Incorporated        Box
Honolulu Bible      Precooked      Western        Honolulu     HI              96816        664       $26,560.00
 Church              Meat Box
 Incorporated
Honolulu            Fresh Fruit/   Western        Kaneohe      HI              96744        100        $3,600.00
 Metropolitan        Vegetable
 Foursquare          Box
Hooiser Hills Food  Dairy          Midwest        Bloomington  IN              47404      2,820       $70,500.00
 Bank                Products Box
Hooiser Hills Food  Fluid Milk     Midwest        Bloomington  IN              47404     11,664       $26,244.00
 Bank
Hooiser Hills Food  Precooked      Midwest        Bloomington  IN              47404      3,402      $171,495.80
 Bank                Meat Box
Hooper City         Fresh Fruit/   South East     Birmingham   AL              35214        600       $15,570.00
                     Vegetable
                     Box
Hoosier Harvest     Fluid Milk     Midwest        Martinsvill  IN              46151      1,000        $4,000.00
 Church                                            e
Hoover Elementary   Fresh Fruit/   North East     Buffalo      NY              14223      1,450       $33,132.50
                     Vegetable
                     Box
Hoover Helps        Fresh Fruit/   South East     Hoover       AL              35226        200        $5,190.00
                     Vegetable
                     Box
Hope Academy        Dairy          Midwest        Detroit      MI              48075        400       $11,600.00
                     Products Box
Hope Academy        Fresh Fruit/   Midwest        Detroit      MI              48204        800       $16,900.00
                     Vegetable
                     Box
Hope Alliance       Fresh Fruit/   Midwest        Maple        OH              44137        520       $13,780.00
 Bible Church        Vegetable                     Heights
                     Box
Hope and Main       Fresh Fruit/   North East     Warren       RI              02885         60        $1,080.00
                     Vegetable
                     Box
Hope Center         Combination    Midwest        Chicago      IL              60628        216       $22,320.00
 Chicago             Box
Hope Center         Fresh Fruit/   Midwest        Chicago      IL              60628        216        $8,496.00
 Chicago             Vegetable
                     Box
Hope Center of      Fresh Fruit/   South West     Edmond       OK              73034        112        $1,902.88
 Edmund              Vegetable
                     Box
Hope Center of      Precooked      Mid-Atlantic   Nescopeck    PA              18635      1,374       $44,407.68
 Nescopeck PA        Meat Box
Hope Center of      Fresh Fruit/   Mountain       Bowling      MO              63334        340        $9,350.00
 Pike County         Vegetable      Plains         Green
                     Box
Hope Center Soup    Fresh Fruit/   Western        Anchorage    AK              99501         72        $2,012.40
 Kitchen             Vegetable
                     Box
Hope Charities      Fresh Fruit/   Midwest        Olympia      IL              60461        378       $13,600.44
                     Vegetable                     Fields
                     Box
Hope Charities      Precooked      Midwest        Chicago      IL              60461         72        $5,840.64
                     Meat Box
Hope Charities      Precooked      Midwest        Chicago      IL              60461        288       $23,362.56
                     Meat Box
Hope Charities      Precooked      Midwest        Olympia      IL              60461        144       $11,681.28
                     Meat Box                      Fields
Hope Christian      Dairy          Midwest        Hammond      IN              46323        940       $34,436.00
 Church              Products Box
Hope Christian      Precooked      Midwest        East         OH              43920        800       $36,278.00
 Fellowship          Meat Box                      Liverpool
Hope City Dallas    Dairy          South West     Richardson   TX              75080      1,000       $45,760.00
 Church              Products Box
Hope City Dallas    Fresh Fruit/   South West     Richardson   TX              75080      1,000       $23,300.00
 Church              Vegetable
                     Box
Hope City Missions  Fresh Fruit/   South West     Houston      TX              77093        128        $2,174.72
                     Vegetable
                     Box
Hope Clinic         Fresh Fruit/   Midwest        Ypsilanti    MI              48197        600        $8,970.00
                     Vegetable
                     Box
Hope Clinic         Fresh Fruit/   Midwest        Ypsilanti    MI              48198        150        $2,242.50
                     Vegetable
                     Box
Hope Community      Fresh Fruit/   Midwest        Oregon       OH              43616        333        $4,162.50
 Church              Vegetable
                     Box
Hope Community      Fresh Fruit/   South East     Birmingham   AL              35206      2,200       $61,600.00
 Outreach            Vegetable
                     Box
Hope Community      Fresh Fruit/   Mid-Atlantic   Camden       NJ              08104        252        $4,775.40
 Outreach Svc        Vegetable
                     Box
Hope Connections    Combination    South East     Labelle      FL              33935      1,120       $85,176.00
                     Box
Hope Connections:   Combination    South East     Moore Haven  FL              33471        560       $42,588.00
 Chalo Nitka         Box
 Grounds
Hope Connections:   Combination    South East     Clewiston    FL              33440      2,240      $170,352.00
 Serving With Love   Box
Hope Connections:   Combination    South East     Moore Haven  FL              33471        560       $42,588.00
 St. Joe the         Box
 Worker
Hope Deliverance    Fresh Fruit/   South East     Miami        FL              33157      1,512       $37,044.00
                     Vegetable
                     Box
Hope Distribution   Fluid Milk     South West     Springdale   AR              72702        500       $11,970.00
Hope Distribution   Fluid Milk     South West     Springdale   AR              72762      4,455      $106,652.70
Hope Distribution   Fresh Fruit/   South West     Springdale   AR              72702        539       $10,294.90
                     Vegetable
                     Box
Hope Distribution   Fresh Fruit/   South West     Springdale   AR              72762      2,588       $46,950.80
                     Vegetable
                     Box
Hope Food Pantry    Fresh Fruit/   Midwest        Chicago      IL              60651        126        $4,533.48
                     Vegetable
                     Box
Hope Food Pantry    Precooked      Midwest        Chicago      IL              60651        216       $17,521.92
                     Meat Box
Hope Food Pantry    Dairy          Midwest        Chicago      IL              60651        125        $3,125.00
 Box                 Products Box
Hope Food Pantry    Fluid Milk     Western        Lake         CA              92530      6,324       $63,176.76
 Lake Elsinore                                     Elsinore
 Unified School
Hope Food Pantry    Fluid Milk     Western        Lake         CA              92531      1,260       $12,587.40
 Lake Elsinore                                     Elsinore
 Unified School
Hope for All Food   Fluid Milk     South East     Nortonville  KY              42442      4,815       $10,833.75
 Bank
Hope for the Heart  Combination    Western        Hayward      CA              94541      1,750       $47,687.50
                     Box
Hope for the Heart  Dairy          Western        Hayward      CA              94541      4,050      $129,600.00
                     Products Box
Hope for the Heart  Fresh Fruit/   Western        Hayward      CA              94541      5,350      $132,412.50
                     Vegetable
                     Box
Hope for the        Fresh Fruit/   Midwest        Ray          MI              48096        100        $2,875.00
 Hungry              Vegetable
                     Box
Hope House          Fluid Milk     Mountain       Lake Ozark   MO              65049        450        $1,012.50
                                    Plains
Hope House          Fresh Fruit/   South East     Oneonta      AL              35121         30          $750.00
                     Vegetable
                     Box
Hope House          Dairy          South West     West         AR              72301      1,080       $27,000.00
 Ministries          Products Box                  Memphis
Hope International  Fresh Fruit/   South West     Coolidge     AZ              85128        160        $4,400.00
                     Vegetable
                     Box
Hope Lutheran       Fresh Fruit/   Western        Riverside    CA              92506        105        $3,045.00
 Church              Vegetable
                     Box
Hope Lutheran Food  Fresh Fruit/   North East     Rochester    NY              14626        500       $11,425.00
 Pantry              Vegetable
                     Box
Hope Ministries     Fresh Fruit/   South West     Dallas       TX              75209        750       $14,325.00
                     Vegetable
                     Box
Hope Ministries of  Dairy          Midwest        Jeffersonvi  IL              62842        200        $5,950.00
 Geff Inc.           Products Box                  lle
Hope Ministries of  Fresh Fruit/   Midwest        Jeffersonvi  IL              62842        200        $5,500.00
 Geff. Inc.          Vegetable                     lle
                     Box
Hope Mnstrs of BR   Fluid Milk     South West     Baton Rouge  LA              70805        244          $741.48
Hope Network        Dairy          Midwest        Grand        MI              49548         50        $1,450.00
                     Products Box                  Rapids
Hope Network        Fresh Fruit/   Midwest        Grand        MI              49548        100        $2,156.25
                     Vegetable                     Rapids
                     Box
Hope Network of     Combination    Mountain       Raytown      MO              64112        756       $26,437.32
 Raytown             Box            Plains
Hope Network of     Dairy          Mountain       Raytown      MO              64112      1,152       $52,715.52
 Raytown             Products Box   Plains
Hope Network of     Fresh Fruit/   Mountain       Raytown      MO              64112      4,308       $60,830.40
 Raytown             Vegetable      Plains
                     Box
Hope OKC Church     Combination    South West     Oklahoma     OK              73112      1,440       $50,356.80
                     Box                           City
Hope Services       Fresh Fruit/   Western        Honolulu     HI              96809      1,680       $60,480.00
 Hawaii Inc.         Vegetable
                     Box
Hope Services       Fresh Fruit/   Western        Hilo         HI              96720      8,400      $302,400.00
 Hawaii Inc.         Vegetable
                     Box
Hope Spring         Dairy          South East     Jackson      MS              39213         84        $2,358.72
 Baptist Churc       Products Box
Hope Spring         Fresh Fruit/   South East     Jackson      MS              39213        288        $4,867.20
 Baptist Churc       Vegetable
                     Box
Hope Spring         Precooked      South East     Jackson      MS              39213      5,376      $220,738.56
 Baptist Churc       Meat Box
Hope United         Fresh Fruit/   Mid-Atlantic   Voorhees     NJ              08043        630       $11,938.50
 Methodist Church    Vegetable
                     Box
Hopelink Bellevue   Combination    Western        Bellevue     WA              98007      1,500       $52,500.00
                     Box
Hopelink Bellevue   Fresh Fruit/   Western        Bellevue     WA              98007      1,440       $38,880.00
                     Vegetable
                     Box
Hopelink Kirke      Combination    Western        Kirkland     WA              98033      1,560       $54,600.00
                     Box
Hopelink Kirke      Fresh Fruit/   Western        Kirkland     WA              98033      1,260       $34,020.00
                     Vegetable
                     Box
Hopelink Redmond    Combination    Western        Redmond      WA              98052      1,020       $35,700.00
                     Box
Hopelink Redmond    Fresh Fruit/   Western        Redmond      WA              98052        120        $3,240.00
                     Vegetable
                     Box
Hopelink Shoreline  Combination    Western        Shoreline    WA              98133        720       $25,200.00
                     Box
Hopelink Shoreline  Fresh Fruit/   Western        Shoreline    WA              98133        480       $12,960.00
                     Vegetable
                     Box
Hopewell Baptist    Fresh Fruit/   Midwest        Detroit      MI              48238      1,250       $18,687.50
 Church              Vegetable
                     Box
Hopewell Baptist    Fresh Fruit/   Midwest        Pontiac      MI              48342      3,000       $44,850.00
 Church              Vegetable
                     Box
Hopewell            Fresh Fruit/   South East     Birmingham   AL              35221      1,484       $38,509.80
 Missionary          Vegetable
 Baptist             Box
Hopewell            Fresh Fruit/   South East     Norcross     GA              30071      1,920       $36,364.80
 Missionary          Vegetable
 Baptist             Box
Hopewell Valley     Fresh Fruit/   Mid-Atlantic   Pennington   NJ              08534        567       $10,744.65
 YMCA                Vegetable
                     Box
Hopkinsville High   Fluid Milk     South East     Hopkinsvill  KY              42240      1,701        $3,827.25
                                                   e
Hopscotch           Combination    Western        Portland     OR              97211      7,560      $264,600.00
 Foundation          Box
Hopscotch           Dairy          Western        Portland     OR              97211      4,800      $144,000.00
 Foundation          Products Box
Hopscotch           Fresh Fruit/   Western        Portland     OR              97211      4,400      $118,800.00
 Foundation          Vegetable
                     Box
Horizon Christian   Fluid Milk     Midwest        Middlefield  OH              44062      1,320        $4,382.40
Horizon Elementary  Fresh Fruit/   Mountain       Holden       MO              64093        960       $24,864.00
 School              Vegetable      Plains
                     Box
Horizon Elementary  Fresh Fruit/   Mountain       Smithville   MO              64089        560       $14,504.00
 School              Vegetable      Plains
                     Box
Horizon House--     Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19104        770       $15,400.00
 Program             Vegetable                     a
                     Box
Horizon Science     Fresh Fruit/   Midwest        Chicago      IL              60639        160       $10,249.60
 Academy Belmont     Vegetable
                     Box
Horizons Soup       Dairy          Midwest        Quincy       IL              62301      1,954       $48,850.00
 Kitchen Food Box    Products Box
Horizons Soup       Fluid Milk     Midwest        Quincy       IL              62301        192          $768.00
 Kitchen Food Box
Hosco/STL Food Bnk  Fresh Fruit/   Mountain       St. Louis    MO              63113      1,440       $46,080.00
                     Vegetable      Plains
                     Box
Hosea Feed the      Fresh Fruit/   South East     Atlanta      GA              30336      9,520      $180,308.80
 Hungry              Vegetable
                     Box
Hospital Del Nino   Combination    Mid-Atlantic   San Juan     PR              00921         84        $4,200.00
                     Box
Hospitality         Fluid Milk     South East     West Palm    FL              33401     11,200       $43,558.40
 Helping Hands                                     Beach
Hospitality         Fresh Fruit/   South East     West Palm    FL              33405      4,800      $120,000.00
 Helping Hands       Vegetable                     Beach
                     Box
Hospitality         Precooked      South East     West Palm    FL              33405      1,274       $51,902.76
 Helping Hands       Meat Box                      Beach
Hot Meals USA       Fresh Fruit/   Mountain       Kearney      NE              68847      2,900       $75,110.00
 Cmty. Action Food   Vegetable      Plains
 Bank                Box
Hot Meals USA       Fresh Fruit/   Mountain       Pine Ridge   SD              57770      1,080       $27,972.00
 Cmty. Action Food   Vegetable      Plains
 Bk                  Box
Hot Meals USA--     Fresh Fruit/   Mountain       Grand        NE              68801        880       $22,792.00
 Salvation Army      Vegetable      Plains         Island
                     Box
Hot Meals USA St.   Fresh Fruit/   Mountain       Lexington    NE              68850      3,000       $77,700.00
 Anns Parish         Vegetable      Plains
                     Box
Houghton            Fresh Fruit/   Midwest        Houghton     MI              49931        756       $27,200.88
 Elementary School   Vegetable
                     Box
Houghton Lake       Fresh Fruit/   Midwest        Houghton     MI              48629        329       $11,837.42
 Community Schools   Vegetable                     Lake
                     Box
Houghton Lake       Precooked      Midwest        Houghton     MI              48629        964       $33,127.22
 Senior Center       Meat Box                      Lake
Houghton Portage    Fresh Fruit/   Midwest        Houghton     MI              49916      1,556       $55,984.88
 Township Schools    Vegetable
                     Box
Hour Children Inc.  Fresh Fruit/   North East     Long Island  NY              11106      1,000       $23,520.00
                     Vegetable                     City
                     Box
House of Bread      Dairy          Midwest        Dayton       OH              45402        342        $8,550.00
                     Products Box
House of            Fresh Fruit/   South East     Atlanta      GA              30309         80        $1,515.20
 Globalization IN    Vegetable
                     Box
House of Hope       Fresh Fruit/   Mountain       Sullivan     MO              63080      1,288       $35,420.00
                     Vegetable      Plains
                     Box
House of Hope       Combination    Mountain       Kansas City  MO              64116        588       $20,562.36
 Midwest             Box            Plains
House of Hope       Combination    Mountain       North        MO              64116      4,536      $158,623.92
 Midwest             Box            Plains         Kansas
                                                   City
House of Hope       Dairy          Mountain       Claycomo     MO              64119        504       $23,063.04
 Midwest             Products Box   Plains
House of Hope       Dairy          Mountain       Kansas City  MO              64116        529       $24,207.04
 Midwest             Products Box   Plains
House of Hope       Dairy          Mountain       North        MO              64116      1,992       $91,153.92
 Midwest             Products Box   Plains         Kansas
                                                   City
House of Hope       Fluid Milk     Mountain       Kansas City  MO              64116        495       $11,850.30
 Midwest                            Plains
House of Hope       Fresh Fruit/   Mountain       Claycomo     MO              64119        504       $11,743.20
 Midwest             Vegetable      Plains
                     Box
House of Hope       Fresh Fruit/   Mountain       Kansas City  MO              64116      5,951      $122,321.50
 Midwest             Vegetable      Plains
                     Box
House of Hope       Fresh Fruit/   Mountain       North        MO              64116     13,642      $285,276.20
 Midwest             Vegetable      Plains         Kansas
                     Box                           City
House of Love Soup  Fluid Milk     Mid-Atlantic   Newark       NJ              07107         48          $946.56
 Kitchen/Pantry
House of Love Soup  Fresh Fruit/   Mid-Atlantic   Newark       NJ              07107        288        $6,618.24
 Kitchen/Pantry      Vegetable
                     Box
House of Mercy      Fresh Fruit/   South West     Andrews      TX              79714      1,536       $26,096.64
 Ministries          Vegetable
                     Box
House of            Dairy          Midwest        Waterloo     IL              62298        135        $4,016.25
 Neighborly          Products Box
 Service
House of            Dairy          Midwest        Waterloo     IL              62298        135        $4,016.25
 Neighborly          Products Box
 Service
House of            Fresh Fruit/   Midwest        Waterloo     IL              62298        100        $2,750.00
 Neighborly          Vegetable
 Service             Box
House of            Fresh Fruit/   Midwest        Waterloo     IL              62298        135        $3,712.50
 Nieghborly          Vegetable
 Service             Box
House of Praise     Fresh Fruit/   Mountain       Desloge      MO              63601        240        $6,600.00
                     Vegetable      Plains
                     Box
House of Prayer     Combination    South East     Wildwood     FL              34785      5,376      $408,844.80
                     Box
House of Prayer     Fluid Milk     South East     Winter       FL              33881      1,360        $5,378.40
                                                   Haven
House of Prayer     Fresh Fruit/   Midwest        Detroit      MI              48221        650        $9,717.50
 and Praise          Vegetable
                     Box
House of Prayer     Fresh Fruit/   Western        Emeryville   CA              94662        100        $2,050.00
 Everywhere          Vegetable
                     Box
House of Prayer     Fresh Fruit/   Midwest        Detroit      MI              48235        190        $5,462.50
 Institutional       Vegetable
 Church              Box
House of            Fresh Fruit/   South East     Whitakers    NC              27891        900       $15,012.00
 Resurrection        Vegetable
                     Box
Household of Faith  Combination    South West     Gonzales     LA              70737      1,440       $50,356.80
                     Box
Household of Faith  Dairy          South West     Gonzales     LA              70737      1,056       $48,322.56
                     Products Box
Household of Faith  Fresh Fruit/   South West     Arlington    TX              76018        448        $7,611.52
 Charities           Vegetable
                     Box
Household of Faith  Fresh Fruit/   South East     Birmingham   AL              35205        600       $15,570.00
 Church              Vegetable
                     Box
Household of Faith  Precooked      South West     New Orleans  LA              70126      1,536      $158,438.40
 Family              Meat Box
Housing Authority   Dairy          Mid-Atlantic   Monaca       PA              15061         96        $1,056.00
 of Beaver Ac        Products Box
 Edgecombe
Housing Authority   Dairy          Mid-Atlantic   Ambridge     PA              15003        176        $1,936.00
 of Beaver           Products Box
 Ambridge Towers
 Senior
Housing Authority   Dairy          Mid-Atlantic   Beaver       PA              15009         54          $594.00
 of Beaver           Products Box
 Brodhead
Housing Authority   Dairy          Mid-Atlantic   Beaverfalls  PA              15010         57          $627.00
 of Beaver           Products Box
 Brodhead
Housing Authority   Dairy          Mid-Atlantic   Midland      PA              15059         47          $517.00
 of Beaver Corak     Products Box
 Towers Senior Bu
Housing Authority   Dairy          Mid-Atlantic   Ambridge     PA              15003         72          $792.00
 of Beaver Co. JFK   Products Box
 Apartments
Housing Authority   Dairy          Mid-Atlantic   Beaverfalls  PA              15010        274        $3,014.00
 of Beaver Co.       Products Box
 Morado Dwelling
Housing Authority   Dairy          Mid-Atlantic   Ambridge     PA              15003        170        $1,870.00
 of Beaver Econ.     Products Box
 Village
Housing Authority   Dairy          Mid-Atlantic   Aliquippa    PA              15001        120        $1,320.00
 of Beaver Eleanor   Products Box
 Roosevelt Seni.
Housing Authority   Dairy          Mid-Atlantic   Beaver       PA              15009        105        $1,155.00
 of Beaver Francis   Products Box
 Farmer
Housing Authority   Dairy          Mid-Atlantic   Freedom      PA              15042         54          $594.00
 of Beaver George    Products Box
 Werner
Housing Authority   Dairy          Mid-Atlantic   Rochester    PA              15074         82          $902.00
 of Beaver Gordon    Products Box
 Camp Senior Hou
Housing Authority   Dairy          Mid-Atlantic   Rochester    PA              15074         68          $748.00
 of Beaver Joseph    Products Box
 Edwards
Housing Authority   Dairy          Mid-Atlantic   Beaver       PA              15009        200        $2,200.00
 of Beaver King      Products Box
 Beaver
Housing Authority   Dairy          Mid-Atlantic   Midland      PA              15059        110        $1,210.00
 of Beaver           Products Box
 Midcrest Homes
Housing Authority   Dairy          Mid-Atlantic   Monaca       PA              15061         96        $1,056.00
 of Beaver           Products Box
 Monacatootha
Housing Authority   Dairy          Mid-Atlantic   Freedom      PA              15042         60          $660.00
 of Beaver Rocco     Products Box
 Bovalino Family
Housing Authority   Dairy          Mid-Atlantic   Aliquippa    PA              15001        114        $1,254.00
 of Beaver           Products Box
 Sheffield Towers
Housing Authority   Dairy          Mid-Atlantic   Monaca       PA              15066        142        $1,562.00
 of Beaver Stephen   Products Box
 Phillips Homes
Housing Authority   Dairy          Mid-Atlantic   New          PA              15066        124        $1,364.00
 of Beaver Thomas    Products Box                  Brighton
 Bishop Senior
Housing Authority   Fresh Fruit/   South East     Lafayette    GA              30728        500       $10,000.00
 of Lafayette        Vegetable
                     Box
Houston Abiding     Fluid Milk     South West     Houston      TX              77047        243          $780.03
 Fai.
Houston Chaplewood  Fluid Milk     South West     Houston      TX              77055      2,300        $7,383.00
Houston County      Fluid Milk     South West     Crockett     TX              75835        500        $1,460.00
 Shar
Houston Food Bank   Combination    South West     Houston      TX              77029     12,372      $260,733.84
 Bible Way           Box
Houston Food Bank   Combination    South West     Houston      TX              77034      2,000       $69,940.00
 Bible Way           Box
Houston Food Bank   Dairy          South West     Houston      TX              77029     44,200    $1,387,093.00
 Bible Way           Products Box
Houston Food Bank   Fluid Milk     South West     Houston      TX              77029    320,184    $1,052,575.56
 Bible Way
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77017      1,000       $19,970.00
 Bible Way           Vegetable
                     Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77029    273,940    $5,177,872.23
 Bible Way           Vegetable
                     Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77034      2,200       $43,934.00
 Bible Way           Vegetable
                     Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77036      2,000       $38,200.00
 Bible Way           Vegetable
                     Box
Houston Food Bank   Fresh Fruit/   South West     Missouri     TX              77489      1,200       $23,964.00
 Bible Way           Vegetable                     City
                     Box
Houston Food Bank   Precooked      South West     Houston      TX              77029    146,201    $6,293,770.48
 Bible Way           Meat Box
Houston Food Bank   Combination    South West     Cleveland    TX              77327      2,000       $69,940.00
 Covenant With       Box
 Christ
Houston Food Bank   Fluid Milk     South West     Cleveland    TX              77327      1,250        $3,722.50
 Covenant With
 Christ
Houston Food Bank   Fresh Fruit/   South West     Cleveland    TX              77327      4,960       $68,241.20
 Covenant With       Vegetable
 Christ              Box
Houston Food Bank   Combination    South West     Hempstead    TX              77445      2,000       $69,940.00
 House of Hel        Box
Houston Food Bank   Dairy          South West     Hempstead    TX              77445      1,000       $45,760.00
 House of Hel        Products Box
Houston Food Bank   Fluid Milk     South West     Houston      TX              77007      1,026       $24,562.44
 Impact
Houston Food Bank   Combination    South West     Houston      TX              77087      1,000       $34,970.00
 John L Food         Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77087      2,000       $33,000.00
 John L Food         Vegetable
                     Box
Houston Food Bank   Combination    South West     Houston      TX              77093      1,000       $34,970.00
 Living Water        Box
Houston Food Bank   Dairy          South West     Houston      TX              77093      1,000       $45,760.00
 Living Water        Products Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77093      2,000       $33,000.00
 Living Water        Vegetable
                     Box
Houston Food Bank   Combination    South West     Angleton     TX              77515      2,000       $69,940.00
 New Bethels         Box
Houston Food Bank   Dairy          South West     Angleton     TX              77515      1,000       $45,760.00
 New Bethels         Products Box
Houston Food Bank   Fluid Milk     South West     Angleton     TX              77515      1,026       $24,562.44
 New Bethels
Houston Food Bank   Combination    South West     Houston      TX              77493      1,000       $34,970.00
 RCCG Kings          Box
Houston Food Bank   Dairy          South West     Houston      TX              77493      1,000       $45,760.00
 RCCG Kings          Products Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77493      1,000       $23,300.00
 RCCG Kings          Vegetable
                     Box
Houston Food Bank   Combination    South West     Houston      TX              77082      2,000       $69,940.00
 RCCG Living         Box
Houston Food Bank   Dairy          South West     Houston      TX              77082      1,000       $45,760.00
 RCCG Living         Products Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77082      1,000        $9,700.00
 RCCG Living         Vegetable
                     Box
Houston Food Bank   Combination    South West     Missouri     TX              77489      1,000       $34,970.00
 Second Mile         Box
 Mission
Houston Food Bank   Combination    South West     Missouri     TX              77489      3,000      $104,910.00
 Second Mile         Box                           City
 Mission
Houston Food Bank   Dairy          South West     Missouri     TX              77489      1,000       $45,760.00
 Second Mile         Products Box
 Mission
Houston Food Bank   Fluid Milk     South West     Missouri     TX              77489      1,026       $24,562.44
 Second Mile
 Mission
Houston Food Bank   Fluid Milk     South West     Missouri     TX              77489        600        $1,810.00
 Second Mile                                       City
 Mission
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77029      1,400       $27,958.00
 Second Mile         Vegetable
 Mission             Box
Houston Food Bank   Fresh Fruit/   South West     Missouri     TX              77489      1,000       $19,970.00
 Second Mile         Vegetable
 Mission             Box
Houston Food Bank   Fresh Fruit/   South West     Missouri     TX              77489     12,868      $219,654.96
 Second Mile         Vegetable                     City
 Mission             Box
Houston Food Bank   Combination    South West     Houston      TX              77042      1,000       $34,970.00
 W. Houston          Box
Houston Food Bank   Dairy          South West     Houston      TX              77042      1,000       $45,760.00
 W. Houston          Products Box
Houston Food Bank   Fresh Fruit/   South West     Houston      TX              77042      2,000       $33,000.00
 W Houston           Vegetable
                     Box
Houston Northwest   Fresh Fruit/   South West     Houston      TX              77066      1,536       $26,096.64
 Church              Vegetable
                     Box
Houston Northwest   Fresh Fruit/   South West     Houston      TX              77070      3,328       $56,542.72
 Church              Vegetable
                     Box
Houston Northwest   Fresh Fruit/   South West     Houston      TX              77356        672       $11,417.28
 Church              Vegetable
                     Box
Houston Texans      Fresh Fruit/   South West     Houston      TX              77021      4,180       $65,915.20
 YMCA                Vegetable
                     Box
Howard Are.         Precooked      Midwest        Chicago      IL              60626         72        $5,840.64
 Community Center    Meat Box
Howard Are.         Precooked      Midwest        Chicago      IL              60626         72        $5,840.64
 Community Center    Meat Box
Howard Area         Fresh Fruit/   Midwest        Chicago      IL              60626        126        $4,533.48
 Community Center    Vegetable
                     Box
Howard Area         Precooked      Midwest        Chicago      IL              60626        216       $17,521.92
 Community Center    Meat Box
Howard County Food  Fluid Milk     Mid-Atlantic   Columbia     MD              21046        140        $4,536.00
 Bank
Howard County Food  Fresh Fruit/   Mid-Atlantic   Columbia     MD              21046        100        $2,095.00
 Bank                Vegetable
                     Box
HSA Belmont         Combination    Midwest        Chicago      IL              60639        160       $10,748.80
                     Box
HSA Belmont         Dairy          Midwest        Chicago      IL              60639        160       $10,424.00
                     Products Box
HSA Belmont         Fresh Fruit/   Midwest        Chicago      IL              60639        160       $10,249.60
                     Vegetable
                     Box
HSA McKinley        Combination    Midwest        Chicago      IL              60609        100        $6,718.00
                     Box
HSA McKinley        Fresh Fruit/   Midwest        Chicago      IL              60609        250       $16,015.00
                     Vegetable
                     Box
HUB Band of         Combination    South West     Salina       OK              74365      1,440       $50,356.80
 Believers           Box
HUB Band of         Dairy          South West     Salina       OK              74365      1,440       $65,894.40
 Believers           Products Box
HUB Band of         Fluid Milk     South West     Salina       OK              74365        495       $11,850.30
 Believers
HUB Band of         Fresh Fruit/   South West     Salina       OK              74365      3,707       $41,024.50
 Believers           Vegetable
                     Box
HUB Beggs First     Combination    South West     Beggs        OK              74421        768       $26,856.96
 Assembly of God     Box
HUB Beggs First     Fluid Milk     South West     Beggs        OK              74421        495       $11,850.30
 Assembly of God
HUB Beggs First     Fresh Fruit/   South West     Beggs        OK              74421      2,134       $30,833.00
 Assembly of God     Vegetable
                     Box
HUB Bristow First   Combination    South West     Bristow      OK              74010      3,552      $124,213.44
 Assembly of God     Box
HUB Bristow First   Fluid Milk     South West     Bristow      OK              74010        495       $11,850.30
 Assembly of God
HUB Bristow First   Fresh Fruit/   South West     Bristow      OK              74010      1,127       $21,525.70
 Assembly of God     Vegetable
                     Box
HUB City Church     Combination    South West     Bartlesvill  OK              74006        672       $23,499.84
                     Box                           e
HUB City Church     Dairy          South West     Bartlesvill  OK              74006      2,112       $96,645.12
                     Products Box                  e
HUB City Church     Fluid Milk     South West     Bartlesvill  OK              74006        990       $23,700.60
                                                   e
HUB City Church     Fresh Fruit/   South West     Bartlesvill  OK              74006      2,009       $44,545.90
                     Vegetable                     e
                     Box
HUB FBC Preston     Combination    South West     Wagoner      OK              74066        480       $16,785.60
                     Box
HUB FBC Preston     Combination    South West     Preston      OK              74421      1,440       $50,356.80
                     Box
HUB FBC Preston     Dairy          South West     Preston      OK              74421      1,824       $83,466.24
                     Products Box
HUB FBC Preston     Fluid Milk     South West     Wagoner      OK              74066        514       $12,305.16
HUB FBC Preston     Fluid Milk     South West     Preston      OK              74421        683       $16,351.02
HUB FBC Preston     Fresh Fruit/   South West     Wagoner      OK              74066        384        $3,724.80
                     Vegetable
                     Box
HUB FBC Preston     Fresh Fruit/   South West     Preston      OK              74421      3,016       $49,119.80
                     Vegetable
                     Box
HUB Harvest Church  Combination    South West     Tulsa        OK              74127      4,800      $167,856.00
                     Box
HUB Harvest Church  Dairy          South West     Tulsa        OK              74127        480       $21,964.80
                     Products Box
HUB Harvest Church  Fluid Milk     South West     Tulsa        OK              74127        683       $16,351.02
HUB Harvest Church  Fresh Fruit/   South West     Tulsa        OK              74127      3,637       $55,202.30
                     Vegetable
                     Box
HUB Haskell         Combination    South West     Haskell      OK              74436      2,208       $77,213.76
 Assembly of God     Box
HUB Haskell         Dairy          South West     Haskell      OK              74436      1,056       $48,322.56
 Assembly of God     Products Box
HUB Haskell         Fluid Milk     South West     Haskell      OK              74436      1,673       $40,051.62
 Assembly of God
HUB Haskell         Fresh Fruit/   South West     Haskell      OK              74436      3,179       $62,539.30
 Assembly of God     Vegetable
                     Box
HUB Iglesia         Dairy          South West     Tulsa        OK              74146        576       $26,357.76
 Hispana Victory     Products Box
HUB Iglesia         Fluid Milk     South West     Tulsa        OK              74146      1,928       $46,156.32
 Hispana Victory
HUB Iglesia         Fresh Fruit/   South West     Tulsa        OK              74146      4,829       $89,098.90
 Hispana Victory     Vegetable
                     Box
HUB Kingdom         Combination    South West     Inola        OK              74036      1,536       $53,713.92
 Community Dev.      Box
 Ser.
HUB Kingdom         Combination    South West     Inola        OK              74467        864       $30,214.08
 Community Dev.      Box
 Ser.
HUB Kingdom         Dairy          South West     Inola        OK              74036      2,112       $96,645.12
 Community Dev.      Products Box
 Ser.
HUB Kingdom         Fresh Fruit/   South West     Inola        OK              74036      1,056       $10,243.20
 Community Dev.      Vegetable
 Ser.                Box
HUB Kingdom         Fresh Fruit/   South West     Inola        OK              74467        539       $12,558.70
 Community Dev.      Vegetable
 Ser.                Box
HUB Kingdom         Combination    South West     Wagoner      OK              74467      4,992      $174,570.24
 Community Dev.      Box
 Service.
HUB Kingdom         Dairy          South West     Wagoner      OK              74467      3,168      $144,967.68
 Community Dev.      Products Box
 Service
HUB Kingdom         Fluid Milk     South West     Wagoner      OK              74467      2,114       $50,609.16
 Community Dev.
 Service
HUB Kingdom         Fresh Fruit/   South West     Wagoner      OK              74467      7,196      $118,967.80
 Community Dev.      Vegetable
 Service             Box
HUB Living Hope     Combination    South West     Tulsa        OK              74106      2,112       $73,856.64
                     Box
HUB Living Hope     Dairy          South West     Tulsa        OK              74106      1,344       $61,501.44
                     Products Box
HUB Living Hope     Fresh Fruit/   South West     Tulsa        OK              74103      1,546       $19,602.20
                     Vegetable
                     Box
HUB Living Hope     Fresh Fruit/   South West     Tulsa        OK              74106      1,056       $10,243.20
                     Vegetable
                     Box
HUB New Life        Combination    South West     Wilburton    OK              74578      1,728       $60,428.16
                     Box
HUB New Life        Fluid Milk     South West     Wilburton    OK              74578      1,971       $47,185.74
HUB New Life        Fresh Fruit/   South West     Wilburton    OK              74578      3,359       $60,404.50
                     Vegetable
                     Box
HUB North Star      Combination    South West     Pryor        OK              74361      2,496       $87,285.12
 Pryor               Box
HUB North Star      Dairy          South West     Pryor        OK              74361        960       $43,929.60
 Pryor               Products Box
HUB North Star      Fluid Milk     South West     Pryor        OK              74361      3,143       $75,243.42
 Pryor
HUB North Star      Fresh Fruit/   South West     Pryor        OK              74361     10,072      $192,689.80
 Pryor               Vegetable
                     Box
HUB Shining Light   Fluid Milk     South West     Tulsa        OK              74112      1,009       $24,155.46
 Wings Freedom
HUB Shining Light   Fluid Milk     South West     Tulsa        OK              74128        514       $12,305.16
 Wings Freedom
HUB Shining Light   Fresh Fruit/   South West     Tulsa        OK              74112      1,595       $20,538.10
 Wings Freedom       Vegetable
                     Box
HUB Shining Light   Fresh Fruit/   South West     Tulsa        OK              74128      2,624       $44,513.80
 Wings Freedom       Vegetable
                     Box
HUB Soup for Souls  Combination    South West     Alma         AR              72921      1,056       $36,928.32
 Reg Club            Box
HUB Soup for Souls  Dairy          South West     Sallisaw     OK              74955      3,072      $140,574.72
 Reg Club            Products Box
HUB Soup for Souls  Fluid Milk     South West     Sallisaw     OK              74955      2,663       $63,752.22
 Reg Club
HUB Soup for Souls  Fresh Fruit/   South West     Alma         AR              72921        294        $5,615.40
 Reg Club            Vegetable
                     Box
HUB Soup for Souls  Fresh Fruit/   South West     Sallisaw     OK              74955      8,464      $133,320.80
 Reg Club            Vegetable
                     Box
HUB Tulsa           Combination    South West     Tulsa        OK              74105      1,728       $60,428.16
 Cornerstone         Box
HUB Tulsa           Dairy          South West     Tulsa        OK              74105        672       $30,750.72
 Cornerstone         Products Box
HUB Tulsa           Fluid Milk     South West     Tulsa        OK              74105      1,598       $38,256.12
 Cornerstone
HUB Tulsa           Fresh Fruit/   South West     Tulsa        OK              74105      5,538       $93,173.40
 Cornerstone         Vegetable
                     Box
Hudson Area         Fresh Fruit/   Midwest        Hudson       MI              49247        875       $31,482.50
 Schools             Vegetable
                     Box
Hudson HS           Dairy          Midwest        Hudson       MI              49247        100        $2,427.00
                     Products Box
Hudson HS           Fresh Fruit/   Midwest        Hudson       MI              49247        200        $4,752.00
                     Vegetable
                     Box
Huertas College     Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
                     Box
Hui O Hauula        Fresh Fruit/   Western        Hauula       HI              96717        960       $34,560.00
                     Vegetable
                     Box
Hui O Hauula        Fresh Fruit/   Western        Honolulu     HI              96717        240        $8,640.00
                     Vegetable
                     Box
Hui O Hauula        Precooked      Western        Hauula       HI              96717        320       $12,800.00
                     Meat Box
Hui O Hauula        Precooked      Western        Honolulu     HI              96717        160        $6,400.00
                     Meat Box
Hum Hope/           Fluid Milk     South East     Daytona      FL              32117        160          $606.40
 SHFBVC1340                                        Beach
Humacao Community   Combination    Mid-Atlantic   Humacao      PR              00791        672       $58,296.00
 College             Box
Human Agricultural  Fresh Fruit/   Midwest        Hazel Crest  IL              60429      1,400       $27,958.00
 Co-Op               Vegetable
                     Box
Human Agricultural  Fresh Fruit/   Midwest        Chicago      IL              60628      1,200       $23,964.00
 Co-Op               Vegetable
                     Box
Human Agricultural  Fresh Fruit/   Midwest        Indianapoli  IN              46254      5,960      $119,021.20
 Co-Op               Vegetable                     s
                     Box
Human Agricultural  Fresh Fruit/   Midwest        Fort Wayne   IN              46818      5,320      $106,240.40
 Cooperative         Vegetable
                     Box
Human Agricultural  Fresh Fruit/   Midwest        Fort Wayne   IN              46803      1,568       $31,312.96
 Cooperative         Vegetable
                     Box
Human Agriculture   Fresh Fruit/   Midwest        Glenwood     IL              60425      1,400       $27,958.00
 Cooperative         Vegetable
                     Box
Humanim             Fresh Fruit/   Mid-Atlantic   Columbia     MD              21046      1,320       $23,760.00
                     Vegetable
                     Box
Humanities          Fresh Fruit/   South East     Charleston   SC              29403        454       $13,620.00
 Foundation          Vegetable
                     Box
Hume Alliance       Fresh Fruit/   Mountain       Hume         MO              64752      1,280       $33,152.00
 Ministries          Vegetable      Plains
                     Box
Hunger at Home      Combination    Western        San Jose     CA              95112        600       $16,350.00
                     Box
Hunger at Home      Dairy          Western        San Jose     CA              95112        600       $19,200.00
                     Products Box
Hunger at Home      Fresh Fruit/   Western        San Jose     CA              95112        600       $14,850.00
                     Vegetable
                     Box
Hunger Busters      Fluid Milk     South West     Dallas       TX              75212     14,206       $41,819.08
Hunger Busters      Fresh Fruit/   South West     Dallas       TX              75212     22,752      $386,556.48
                     Vegetable
                     Box
Hunger Network      Dairy          Midwest        Cleveland    OH              44103        283        $6,820.30
                     Products Box
Hunger Network      Dairy          Midwest        Cleveland    OH              44112        119        $2,867.90
                     Products Box
Hunger Network      Dairy          Midwest        Cleveland    OH              44113        460       $11,086.00
                     Products Box
Hunger Network      Dairy          Midwest        Cleveland    OH              44115        200        $4,820.00
                     Products Box
Hunger Network      Dairy          Midwest        Cleveland    OH              44134        400        $9,640.00
                     Products Box
Hunger Network      Dairy          Midwest        East         OH              44112        500       $12,050.00
                     Products Box                  Cleveland
Hunger Network      Dairy          Midwest        Parma        OH              44134        100        $2,410.00
                     Products Box
Hunger Network      Dairy          Midwest        Solon        OH              44139         95        $2,289.50
                     Products Box
Hunger Network      Dairy          Midwest        Warrensvill  OH              44128        130        $3,133.00
                     Products Box                  e Heights
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44103        218        $5,777.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44111        120        $3,180.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44112        110        $2,915.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44113        370        $9,805.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44114         90        $2,385.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44115        867       $22,975.50
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Cleveland    OH              44134        320        $8,480.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        East         OH              44112        600       $15,900.00
                     Vegetable                     Cleveland
                     Box
Hunger Network      Fresh Fruit/   Midwest        Parma        OH              44134        100        $2,650.00
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        Solon        OH              44139         95        $2,517.50
                     Vegetable
                     Box
Hunger Network      Fresh Fruit/   Midwest        South        OH              44121        150        $3,975.00
                     Vegetable                     Euclid
                     Box
Hunger Network      Fresh Fruit/   Midwest        Warrensvill  OH              44128         40        $1,060.00
                     Vegetable                     e
                     Box
Hunger Network      Fresh Fruit/   Midwest        Warrensvill  OH              44128         40        $1,060.00
                     Vegetable                     e Heights
                     Box
Hunger Task Force   Fluid Milk     Midwest        Milwaukee    WI              53214     32,076       $57,736.80
Hunger Task Force   Fresh Fruit/   Midwest        Franklin     WI              53132      5,670      $342,727.20
                     Vegetable
                     Box
Hunger Task Force   Fluid Milk     Midwest        Manitowoc    WI              54220      5,000        $6,750.00
 Grow It Forward
Hunger Task Force   Fresh Fruit/   Midwest        Manitowoc    WI              54220      6,035      $360,922.60
 Grow It Forward     Vegetable
                     Box
Hunger Task Force   Precooked      Midwest        Manitowoc    WI              54220      2,974      $197,800.74
 Grow It Forward     Meat Box
Hunger Task Force   Combination    Midwest        Black River  WI              54615      2,430      $153,000.90
 Ho Chunk Nation     Box                           Falls
Hunger Task Force   Dairy          Midwest        Black River  WI              54615      2,295      $130,300.65
 Ho Chunk Nation     Products Box                  Falls
Hunger Task Force   Fluid Milk     Midwest        Black River  WI              54615      2,025       $62,779.05
 Ho Chunk Nation                                   Falls
Hunger Task Force   Fresh Fruit/   Midwest        Black River  WI              54615      3,500       $65,242.80
 Ho Chunk Nation     Vegetable                     Falls
                     Box
Hunger Task Force   Precooked      Midwest        Black River  WI              54615      5,492      $239,513.38
 Ho Chunk Nation     Meat Box                      Falls
Hunger Task Force   Fresh Fruit/   Midwest        Pleasant     WI              53158      2,430      $155,665.80
 Journey Church      Vegetable                     Prairie
                     Box
Hunger Task Force   Precooked      Midwest        Pleasant     WI              53158      1,215       $86,957.55
 Journey Church      Meat Box                      Prairie
Hunger Task Force   Combination    Midwest        LA Crosse    WI              54603      4,050      $255,684.60
 La Crosse           Box
Hunger Task Force   Fluid Milk     Midwest        LA Crosse    WI              54603        804       $24,111.96
 La Crosse
Hunger Task Force   Precooked      Midwest        LA Crosse    WI              54603      1,215       $84,908.25
 La Crosse           Meat Box
Hunger Task Force   Dairy          Midwest        Green Bay    WI              54302      8,100      $503,172.00
 Pauls Food Pantry   Products Box
Hunger Task Force   Fresh Fruit/   Midwest        Green Bay    WI              54302      8,730      $509,263.20
 Pauls Food Pantry   Vegetable
                     Box
Hunger Task Force   Precooked      Midwest        Green Bay    WI              54302     17,739      $652,349.59
 Pauls Food Pantry   Meat Box
Hunger Task Force   Combination    Midwest        Sheboygan    WI              53083      3,588      $167,364.66
 Sheboygan County    Box
 Food Bank
Hunger Task Force   Fresh Fruit/   Midwest        Sheboygan    WI              53081      6,330      $344,874.66
 Sheboygan County    Vegetable
 Food Bank           Box
Hunger Task Force   Precooked      Midwest        Sheboygan    WI              53081      1,944      $139,132.08
 Sheboygan County    Meat Box
 Food Bank
Hunger Task Force   Combination    Midwest        Bowler       WI              54416        810       $50,317.20
 Stockbridge         Box
 Munsee Community
Hunger Task Force   Fresh Fruit/   Midwest        Bowler       WI              54416      4,050      $247,147.20
 Stockbridge         Vegetable
 Munsee Community    Box
Hunger Task Force   Precooked      Midwest        Bowler       WI              54416      2,430      $169,816.50
 Stockbridge         Meat Box
 Munsee Community
Hunger Task Force   Combination    Midwest        Wautoma      WI              54982      4,804      $306,338.32
 Waushara Co. Food   Box
 Pantry
Hunger Task Force   Dairy          Midwest        Wautoma      WI              54982      1,320       $32,036.40
 Waushara Co. Food   Products Box
 Pantry
Hunger Task Force   Fresh Fruit/   Midwest        Wautoma      WI              54982      2,620       $56,563.20
 Waushara Co. Food   Vegetable
 Pantry              Box
Hunger Task Force   Precooked      Midwest        Wautoma      WI              54982      8,066      $385,619.12
 Waushara Co. Food   Meat Box
 Pantry
Hungry Monk Monk    Fresh Fruit/   North East     Ridgewood    NY              11385      8,184      $324,465.04
 Works               Vegetable
                     Box
Hunter Perkins      Fresh Fruit/   Midwest        Chicago      IL              60620        100        $6,406.00
 Learn               Vegetable
                     Box
Hunter Perkins      Combination    Midwest        Chicago      IL              60620        400       $25,860.00
 Learn               Box
Hunter Perkins      Precooked      Midwest        Chicago      IL              60620        200       $14,314.00
 Learn               Meat Box
Huntingdon Church   Dairy          South East     Huntingdon   TN              38344      1,200       $30,000.00
                     Products Box
Hurley Ranch        Fresh Fruit/   South West     Tolleson     AZ              85353        200        $5,500.00
 School              Vegetable
                     Box
Huron Academy       Fresh Fruit/   Midwest        Clinton      MI              48035        747       $26,877.06
                     Vegetable                     Township
                     Box
Huron Co. Fairg.    Fluid Milk     Midwest        Norwalk      OH              44857        900        $2,988.00
Hurst Chapel AME    Fluid Milk     South East     Winter       FL              33881        580        $2,272.20
 Ch.                                               Haven
Hurt Chapel         Fresh Fruit/   South East     Olive        MS              38654        616       $12,289.20
                     Vegetable                     Branch
                     Box
Hutch Tech H.S.     Fresh Fruit/   North East     Buffalo      NY              14201        240        $5,484.00
                     Vegetable
                     Box
Hyde County Food    Fresh Fruit/   South East     Engelhard    NC              27824        140        $4,999.40
 Pantry Englehard    Vegetable
                     Box
Hyde County Food    Fresh Fruit/   South East     Swanquarter  NC              27885         95        $3,392.45
 Pantry Swan         Vegetable
 Quarter             Box
Hyland South        Dairy          Mid-Atlantic   Alexandria   VA              22309      6,000      $112,960.00
 County Center       Products Box
Hyland South        Fluid Milk     Mid-Atlantic   Alexandria   VA              22309      2,880       $53,683.20
 County Center
Hyland South        Fresh Fruit/   Mid-Atlantic   Alexandria   VA              22309      3,000       $74,250.00
 County Center       Vegetable
                     Box
I Am My Sister's    Fresh Fruit/   South East     Memphis      TN              38106        162        $3,969.00
 Keeper--C/O Mid     Vegetable
 South Food Bank     Box
I Feed the Need     Combination    South West     Conway       AR              72034      1,440       $50,356.80
                     Box
I Feel the Need     Combination    South West     Convoy       AR              72034        768       $26,856.96
                     Box
I Feel the Need     Dairy          South West     Conway       AR              72034      1,056       $48,322.56
                     Products Box
I Feel the Need     Fresh Fruit/   South West     Convoy       AR              72034        539       $10,294.90
                     Vegetable
                     Box
I Have A Dream      Fresh Fruit/   Mid-Atlantic   Harrison     NJ              07102        400        $8,000.00
 Foundation          Vegetable
                     Box
I Love To Glean     Fresh Fruit/   Western        Carlsbad     CA              92009      9,200      $230,000.00
                     Vegetable
                     Box
I Own A House       Fluid Milk     South East     Jackson      MS              39209        540        $2,046.60
IAH (Eco Park)      Fresh Fruit/   South West     Houston      TX              77032     29,184      $495,836.16
                     Vegetable
                     Box
IATSE               Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
                     Box
ICA Food Shelf      Fluid Milk     Midwest        Minnetonka   MN              55343      1,458        $2,624.40
ICC Behar           Fresh Fruit/   Midwest        Grand        MI              49512      1,056       $37,994.88
                     Vegetable                     Rapids
                     Box
ICC Food Pantry     Fresh Fruit/   Midwest        Indianola    IA              50125        100        $1,450.00
                     Vegetable
                     Box
ICDC                Combination    Mid-Atlantic   Aguadilla    PR              00603        672       $33,600.00
                     Box
ICDC                Combination    Mid-Atlantic   Aguas        PR              00703        672       $66,528.00
                     Box                           Buenas
ICDC                Combination    Mid-Atlantic   Aibonito     PR              00705        672       $66,528.00
                     Box
ICDC                Combination    Mid-Atlantic   Barranquita  PR              00794        300       $29,700.00
                     Box                           s
ICDC                Combination    Mid-Atlantic   Bayamon      PR              00956      5,376      $408,744.00
                     Box
ICDC                Combination    Mid-Atlantic   Bayamon      PR              00957        672       $33,600.00
                     Box
ICDC                Combination    Mid-Atlantic   Bayamon      PR              00958        672       $66,528.00
                     Box
ICDC                Combination    Mid-Atlantic   Camuy        PR              00627        672       $66,528.00
                     Box
ICDC                Combination    Mid-Atlantic   Ciales       PR              00638        672       $33,600.00
                     Box
ICDC                Combination    Mid-Atlantic   Corozal      PR              00783      2,016      $150,192.00
                     Box
ICDC                Combination    Mid-Atlantic   Dorado       PR              00646        672       $58,296.00
                     Box
ICDC                Combination    Mid-Atlantic   Guaynabo     PR              00965      2,016      $199,584.00
                     Box
ICDC                Combination    Mid-Atlantic   Humacao      PR              00791        672       $41,832.00
                     Box
ICDC                Combination    Mid-Atlantic   Naranjito    PR              00719        600       $30,000.00
                     Box
ICDC                Combination    Mid-Atlantic   Orocovis     PR              00720      1,344      $124,824.00
                     Box
ICDC                Combination    Mid-Atlantic   Ponce        PR              00716        672       $33,600.00
                     Box
ICDC                Combination    Mid-Atlantic   San Juan     PR              00921      4,704      $416,304.00
                     Box
ICDC                Combination    Mid-Atlantic   Toa Baja     PR              00949      2,016      $199,584.00
                     Box
ICDC                Combination    Mid-Atlantic   Vega Baja    PR              00693      1,344      $124,824.00
                     Box
ICDC Avenida        Combination    Mid-Atlantic   Bayamon      PR              00956        672       $33,600.00
 Universidad         Box
ICDC Bayamon        Combination    Mid-Atlantic   Bayamon      PR              00956        576       $49,968.00
                     Box
ICDC Humacao        Combination    Mid-Atlantic   Humacao      PR              00791        576       $49,968.00
                     Box
ICDC Palmaritos     Combination    Mid-Atlantic   Corozal      PR              00783        576       $49,968.00
                     Box
ICDIC Buena Vista   Combination    Mid-Atlantic   Bayamon      PR              00957      1,920      $141,864.00
                     Box
ICM Food Bank       Fluid Milk     South West     Phoenix      AZ              85007        864        $4,060.80
ICNA                Dairy          Mid-Atlantic   Falls        VA              22044      2,000       $37,720.00
                     Products Box                  Church
ICNA                Fluid Milk     Mid-Atlantic   Falls        VA              22044        960       $17,894.40
                                                   Church
ICNA                Fresh Fruit/   Mid-Atlantic   Falls        VA              22044      1,000       $24,750.00
                     Vegetable                     Church
                     Box
ICNA Markaz         Fresh Fruit/   North East     Jamaica      NY              11432      1,701       $32,233.95
                     Vegetable
                     Box
ICNA Relief         Fresh Fruit/   North East     Roxbury      MA              02120        800       $22,752.00
                     Vegetable                     Crossing
                     Box
ICNA Relief         Fresh Fruit/   North East     Long Island  NY              11101      2,394       $45,366.30
 Astoria             Vegetable                     City
                     Box
ICNA Relief Bronx   Fresh Fruit/   North East     Bronx        NY              10462      9,072      $171,914.40
 Pantry              Vegetable
                     Box
ICNA Relief         Fresh Fruit/   North East     Brooklyn     NY              11235      3,465       $65,661.75
 Brooklyn Pantry     Vegetable
                     Box
ICNA Relief         Fresh Fruit/   North East     Flushing     NY              11355      1,386       $26,264.70
 Flushing Pantry     Vegetable
                     Box
ICNA Relief Food    Fresh Fruit/   Midwest        Chicago      IL              60659        144        $2,152.80
 Pantry              Vegetable
                     Box
ICNA Relief HQ      Fresh Fruit/   North East     New Hyde     NY              11040      1,890       $35,815.50
                     Vegetable                     Park
                     Box
ICNA Relief         Fresh Fruit/   North East     Jamaica      NY              11435      2,520       $47,754.00
 Jamaica Pantry      Vegetable
                     Box
ICNA Relief         Fluid Milk     South West     Dallas       TX              75238        384        $1,121.28
 Programs Inc.
ICNA Relief         Fresh Fruit/   South West     Dallas       TX              75238         64        $1,087.36
 Programs Inc.       Vegetable
                     Box
ICNA Relief USA     Fluid Milk     South West     Houston      TX              77036        500        $1,605.00
ICNA Relief USA     Fresh Fruit/   Midwest        Detroit      MI              48207      1,800       $38,025.00
                     Vegetable
                     Box
ICNA Relief USA-    Fluid Milk     Mid-Atlantic   Upper Darby  PA              19082        306        $8,697.12
 69Th Street
ICNA Relief USA--   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19154         83        $2,080.56
 Knights                                           a
ICNA Relief USA--   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19138         83        $2,080.56
 Limekiln                                          a
ICNA Relief USA     Fresh Fruit/   Mid-Atlantic   Jersey City  NJ              07306      1,206       $25,174.98
 Jersey City         Vegetable
                     Box
ICNA Relief USA     Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07504        828       $18,011.88
 Paterson            Vegetable
                     Box
ICNA Relief USA     Fresh Fruit/   North East     Jamaica      NY              11435      4,000       $75,760.00
 Program             Vegetable
                     Box
ICNA Relief USA     Fresh Fruit/   Mid-Atlantic   Somerset     NJ              08873        540       $11,393.64
 Somerset            Vegetable
                     Box
ICNAR               Dairy          South West     Tempe        AZ              85281        864       $22,896.00
                     Products Box
ICNAR               Dairy          South West     Mesa         AZ              85710      1,248       $33,072.00
                     Products Box
ICNAR               Fresh Fruit/   South West     Mesa         AZ              85210        400        $8,740.00
                     Vegetable
                     Box
ICNAR               Fresh Fruit/   South West     Tempe        AZ              85281      1,464       $31,988.40
                     Vegetable
                     Box
ICNAR               Fresh Fruit/   South West     Mesa         AZ              85710      1,224       $26,744.40
                     Vegetable
                     Box
Icons               Fluid Milk     South West     Opelousas    LA              70570        240          $712.40
Idaho Food Bank     Dairy          Western        Pocatello    ID              83201        195        $8,248.50
 Pocatel.            Products Box
Idaho Food Bank     Fluid Milk     Western        Pocatello    ID              83201      2,352       $11,030.88
 Pocatel.
Idaho State         Combination    Western        St. Anthony  ID              83445        200        $8,800.00
 Reformatory &       Box
 Infir.
Idaho State         Fresh Fruit/   Western        St. Anthony  ID              83445        200        $5,200.00
 Reformatory &       Vegetable
 Infir.              Box
Idlewild            Fresh Fruit/   South East     Memphis      TN              38104      2,160       $52,920.00
 Presbyterian        Vegetable
 Church--C/O Mid     Box
 South Food Bank
IFB Boise           Combination    Western        Boise        ID              83705      1,363       $59,972.00
 Warehouse           Box
IFB Boise           Fresh Fruit/   Western        Boise        ID              83705      1,305       $33,930.00
 Warehouse           Vegetable
                     Box
IFB Eastern Idaho   Combination    Western        Pocatello    ID              83201        564       $24,816.00
 Branch              Box
IFB Eastern Idaho   Fresh Fruit/   Western        Pocatello    ID              83201        956       $24,856.00
 Branch              Vegetable
                     Box
IFB North Central   Combination    Western        Lewiston     ID              83501      1,480       $71,040.00
 Idaho Branch        Box
IFB North Central   Fresh Fruit/   Western        Lewiston     ID              83501      2,070       $62,100.00
 Idaho Branch        Vegetable
                     Box
IFFFS--Community    Fresh Fruit/   South East     Knightdale   NC              27545        800        $9,200.00
 Helpers             Vegetable
                     Box
IFFS--Abundant      Fresh Fruit/   South East     Raleigh      NC              27603        300        $3,450.00
 Life Cathedral      Vegetable
                     Box
IFFS--Bread for     Fresh Fruit/   South East     Raleigh      NC              27603        300        $3,450.00
 Life                Vegetable
                     Box
IFFS--Comm. Coll.   Fresh Fruit/   South East     Raleigh      NC              27603        200        $2,300.00
 Mrkt.               Vegetable
                     Box
IFFS--East Durham   Fresh Fruit/   South East     Raleigh      NC              27603        300        $3,450.00
 Child Init.         Vegetable
                     Box
IFFS--Edge Co.      Fresh Fruit/   South East     Raleigh      NC              27603        300        $3,450.00
 Mobile Mrkt.        Vegetable
                     Box
IFFS--Iglesia Epis  Fresh Fruit/   South East     Raleigh      NC              27603        300        $3,450.00
 El Buen             Vegetable
                     Box
IFFS--Joco Mobile   Fresh Fruit/   South East     Raleigh      NC              27603        200        $2,300.00
 Market              Vegetable
                     Box
IFFS--Martin St.    Fresh Fruit/   South East     Raleigh      NC              27603        432        $5,204.80
 Bapt                Vegetable
                     Box
IFFS--Nash Co.      Fresh Fruit/   South East     Raleigh      NC              27603      1,000       $11,500.00
 Mobile Mrkt.        Vegetable
                     Box
IFFS--Praise        Fresh Fruit/   South East     Raleigh      NC              27603      1,755       $20,441.50
 Temple              Vegetable
                     Box
IFFS--Raise Hunger  Fresh Fruit/   South East     Raleigh      NC              27603        200        $2,300.00
                     Vegetable
                     Box
IFFS--WF Bapt.      Fresh Fruit/   South East     Raleigh      NC              27603        100        $1,150.00
 Mobile Mrkt.        Vegetable
                     Box
IFFS--WF Baptist    Fresh Fruit/   South East     Raleigh      NC              27603        100        $1,150.00
                     Vegetable
                     Box
IFP City of East    Dairy          Mid-Atlantic   East Orange  NJ              07018     12,371      $197,936.00
 Orange              Products Box
IFP City of East    Fresh Fruit/   Mid-Atlantic   East Orange  NJ              07018     16,511      $330,220.00
 Orange              Vegetable
                     Box
Iglesia Ad Roca     Combination    Mid-Atlantic   Palmer       PR              00721        576       $49,968.00
 Pentescostal        Box
Iglesia Ad Roca     Combination    Mid-Atlantic   Rio Grande   PR              00745      1,728      $128,736.00
 Pentescostal        Box
Iglesia Adventista  Combination    Mid-Atlantic   Culebra      PR              00775        336       $33,264.00
                     Box
Iglesia Adventista  Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $66,528.00
                     Box
Iglesia Adventista  Combination    Mid-Atlantic   Caguas       PR              00726      3,408      $212,736.00
 De LA Esperanza     Box
Iglesia Adventista  Combination    Mid-Atlantic   Bayamon      PR              00959      1,728       $86,400.00
 Mucarabones         Box
Iglesia Alianza     Combination    Mid-Atlantic   Bayamon      PR              00956        672       $66,528.00
 Cristiana Y         Box
 Misionera De
 Bayamon
Iglesia Amec Casa   Combination    Mid-Atlantic   Canovanas    PR              00729        672       $58,296.00
 De Alabanza         Box
Iglesia Apostolica  Combination    Mid-Atlantic   Maunabo      PR              00707        672       $66,528.00
 Luz Y Verdad        Box
Iglesia Apostolica  Combination    Mid-Atlantic   Patillas     PR              00723        672       $66,528.00
 Luz Y Verdad        Box
Iglesia Avance      Combination    Mid-Atlantic   Camuy        PR              00627        576       $49,968.00
 Internacional       Box
Iglesia Bautisda    Combination    Mid-Atlantic   Mayaguez     PR              00680        672       $33,600.00
 Unidos En Amor      Box
Iglesia Bautista    Combination    Mid-Atlantic   Carolina     PR              00979      1,344      $133,056.00
 De Carolina         Box
Iglesia Bautista    Fresh Fruit/   Western        Hayward      CA              94541         80        $1,200.00
 of Hayward          Vegetable
                     Box
Iglesia Bautista    Combination    Mid-Atlantic   Canovanas    PR              00729        672       $58,296.00
 Peniel              Box
Iglesia Bautista    Fresh Fruit/   South West     Houston      TX              77084      4,128       $70,134.72
 Redencion           Vegetable
                     Box
Iglesia Bautista    Dairy          South West     Fort Worth   TX              76111        600       $27,456.00
 Victoria            Products Box
Iglesia Bautista    Fresh Fruit/   South West     Fort Worth   TX              76111      1,400       $17,340.00
 Victoria            Vegetable
                     Box
Iglesia Camino      Combination    Mid-Atlantic   Las Piedras  PR              00771        672       $58,296.00
 Vivo                Box
Iglesia Casa        Combination    Mid-Atlantic   Bayamon      PR              00956        672       $66,528.00
 Apostolica Roca     Box
 Eterna
Iglesia Casa De     Combination    Mid-Atlantic   Vega Baja    PR              00693        672       $66,528.00
 Adoracion Y         Box
 Alabanza Mana
Iglesia Casa De     Combination    Mid-Atlantic   Guaynabo     PR              00965      1,344      $116,592.00
 Refugio Y           Box
 Restauracion
 Adulam
Iglesia Catacumba   Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
 7 V#510-258         Box
Iglesia Catacumbas  Combination    Mid-Atlantic   Cidra        PR              00739        672       $66,528.00
                     Box
Iglesia Catacumbas  Combination    Mid-Atlantic   Dorado       PR              00646        672       $66,528.00
                     Box
Iglesia Catacumbas  Combination    Mid-Atlantic   Yabucoa      PR              00767        588       $58,212.00
 10                  Box
Iglesia Catacumbas  Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $66,528.00
 4                   Box
Iglesia Catacumbas  Combination    Mid-Atlantic   Cidra        PR              00739      1,302      $120,666.00
 9                   Box
Iglesia Church--    Fresh Fruit/   Midwest        Perry        IA              50220        915       $13,267.50
 Perry               Vegetable
                     Box
Iglesia Ciudad      Combination    Mid-Atlantic   Guayama      PR              00784      2,016      $174,888.00
 Deseada             Box
Iglesia Ciudad      Combination    Mid-Atlantic   Cayey        PR              00736        576       $49,968.00
 Fuerte              Box
Iglesia             Fresh Fruit/   South West     Houston      TX              77015        256        $4,349.44
 Consolacion         Vegetable
                     Box
Iglesia Cristiana   Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $133,056.00
 Buen Pastor         Box
Iglesia Cristiana   Combination    Mid-Atlantic   Cayey        PR              00736        576       $49,968.00
 Ciudad Fuerte       Box
Iglesia Cristiana   Combination    Mid-Atlantic   Bayamon      PR              00956        397       $39,303.00
 Discipulos De       Box
 Cristo
Iglesia Cristiana   Combination    Mid-Atlantic   Bayamon      PR              00959        576       $49,968.00
 Discipulos De       Box
 Cristo
Iglesia Cristiana   Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
 Discipulos De       Box
 Cristo LA Brecha
Iglesia Cristiana   Combination    Mid-Atlantic   San Juan     PR              00917     11,766      $927,282.00
 El Sendero De LA    Box
 Cruz
Iglesia Cristiana   Combination    Mid-Atlantic   San Juan     PR              00921      4,704      $366,912.00
 El Sendero De LA    Box
 Cruz
Iglesia Cristiana   Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
 Fortaleza De Fe     Box
Iglesia Cristiana   Fresh Fruit/   South West     Sugar Land   TX              77498        768       $13,048.32
 Fortaleza Y         Vegetable
                     Box
Iglesia Cristiana   Combination    Mid-Atlantic   Toa Alta     PR              00953        672       $66,528.00
 la Barca            Box
Iglesia Cristiana   Fresh Fruit/   South West     Houston      TX              77087        128        $2,174.72
 Logos               Vegetable
                     Box
Iglesia Cristiana   Combination    Mid-Atlantic   Bayamon      PR              00956      1,344      $100,128.00
 Misionera           Box
Iglesia Cristiana   Fresh Fruit/   South West     Houston      TX              77092        192        $3,262.08
 Restauracion        Vegetable
                     Box
Iglesia Cristiana   Combination    Mid-Atlantic   Moca         PR              00676      1,728      $149,904.00
 Restauradores Ad.   Box
Iglesia Cristiana   Fluid Milk     Western        Calexico     CA              92231      2,112       $21,098.88
 Rey De Reyes Inc.
Iglesia Cristiana   Fresh Fruit/   Western        Rohnert      CA              94928        375        $9,375.00
 Se.                 Vegetable                     Park
                     Box
Iglesia Cristiana   Combination    Mid-Atlantic   Vega Baja    PR              00693        672       $66,528.00
 Sendero De Gracia   Box
Iglesia Cristiana   Combination    Mid-Atlantic   Cidra        PR              00739        672       $66,528.00
 Sendero De Vida     Box
Iglesia Cristiana   Fresh Fruit/   South West     Katy         TX              77494        256        $4,349.44
 Shekinah            Vegetable
                     Box
Iglesia Cristiana   Fresh Fruit/   South West     El Paso      TX              79936      5,184      $101,088.00
 Un Nuevo Pacto      Vegetable
                     Box
Iglesia De          Combination    Mid-Atlantic   Guayama      PR              00784      1,344      $133,056.00
 Alabanza Y          Box
 Adoracion Ciudad
 Deseada
Iglesia De Cristo   Combination    Mid-Atlantic   Trujillo     PR              00976      1,344      $100,128.00
 Misionera           Box                           Alto
Iglesia De Cristo   Combination    Mid-Atlantic   Trujillo     PR              00976        504       $49,896.00
 Misionera Pueblo    Box                           Alto
 Seco
Iglesia De Dios     Combination    Mid-Atlantic   Vega Baja    PR              00693        576       $28,800.00
                     Box
Iglesia De Dios     Combination    Mid-Atlantic   Carolina     PR              00979        672       $66,528.00
 Emanuel             Box
Iglesia De Dios MB  Combination    Mid-Atlantic   Carolina     PR              00979        672       $58,296.00
 Jahweh Jireh        Box
Iglesia De Dios MB  Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Jesucristo Elim     Box
Iglesia De Dios MB  Combination    Mid-Atlantic   Carolina     PR              00979        672       $58,296.00
 Santuario De        Box
 Adoracion
Iglesia De Dios     Combination    Mid-Atlantic   Barceloneta  PR              00617        672       $58,296.00
 Mission Board       Box
 Roca De Refugio
Iglesia De Dios     Combination    Mid-Atlantic   San Juan     PR              00921        300       $29,700.00
 Mission Board       Box
 Verdad Y Vida
Iglesia De Dios     Combination    Mid-Atlantic   Canovanas    PR              00729        672       $58,296.00
 Oasis De            Box
 Bendicion
Iglesia De Dios     Combination    Mid-Atlantic   Humacao      PR              00791        672       $58,296.00
 Pentecostal         Box
Iglesia De          Combination    Mid-Atlantic   Bayamon      PR              00957      6,294      $527,850.00
 Jesucristo El       Box
 Caballero De LA
 Cruz
Iglesia De la Luz   Fresh Fruit/   South East     Sanford      NC              27330        400        $4,600.00
 De Evan             Vegetable
                     Box
Iglesia Del         Combination    Mid-Atlantic   Toa Baja     PR              00949      1,344      $133,056.00
 Nazareno Vida       Box
 Abundante
Iglesia Del Rey     Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Jesus Defensores    Box
 De la Fe
Iglesia Dios        Fresh Fruit/   Mid-Atlantic   Dundalk      MD              21222        250        $5,237.50
 Depactos            Vegetable
                     Box
Iglesia Dios        Combination    Mid-Atlantic   Maricao      PR              00606        672       $58,296.00
 Pentecostal MI      Box
Iglesia Discipulos  Combination    Mid-Atlantic   Bayamon      PR              00956      1,974      $170,730.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Bayamon      PR              00959        672       $58,296.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Bayamon      PR              00960      1,152       $99,936.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Cidra        PR              00739        648       $57,096.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Corozal      PR              00783      1,248      $108,264.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Dorado       PR              00646      1,458      $129,054.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Humacao      PR              00791        672       $58,296.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Humacao      PR              00792        630       $54,138.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Naranjito    PR              00719      1,344      $112,476.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   San Juan     PR              00926        672       $58,296.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $58,296.00
 De Cristo           Box
Iglesia Discipulos  Combination    Mid-Atlantic   Aguadilla    PR              00603        900       $82,044.00
 De Cristo           Box
 Aguadilla
Iglesia Discipulos  Combination    Mid-Atlantic   Bayamon      PR              00956        144       $14,256.00
 De Cristo Buena     Box
 Vista
Iglesia Discipulos  Combination    Mid-Atlantic   Toa Alta     PR              00954        672       $58,296.00
 De Cristo Dajao     Box
Iglesia Discipulos  Combination    Mid-Atlantic   Corozal      PR              00783        672       $58,296.00
 De Cristo De        Box
 Palmarito
Iglesia Discipulos  Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
 De Cristo la        Box
 Brecha
Iglesia Discipulos  Combination    Mid-Atlantic   Ciales       PR              00638        672       $58,296.00
 De Cristo la        Box
 Grama
Iglesia Discipulos  Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 Sierra Bayamon      Box
Iglesia El          Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Calvario            Box
Iglesia Episcopal   Combination    Mid-Atlantic   San Juan     PR              00917        210       $20,790.00
 Divino              Box
Iglesia Episcopal   Combination    Mid-Atlantic   Vega Alta    PR              00692        145        $7,250.00
 Divino              Box
Iglesia Episcopal   Combination    Mid-Atlantic   San Juan     PR              00920        132       $13,068.00
 Divino Salvador     Box
Iglesia Episcopal   Combination    Mid-Atlantic   San Juan     PR              00921        122       $12,078.00
 Divino Salvador     Box
Iglesia Episcopal   Combination    Mid-Atlantic   Trujillo     PR              00976        672       $33,600.00
 Programa Redes      Box                           Alto
Iglesia Esperanza   Combination    Mid-Atlantic   Ponce        PR              00716        108        $5,400.00
 Metodista           Box
Iglesia Esperanza   Combination    Mid-Atlantic   San Juan     PR              00925        300       $22,350.00
 Metodista           Box
Iglesia Esperanza   Combination    Mid-Atlantic   Utuado       PR              00641        300       $15,000.00
 Metodista           Box
Iglesia Evangelica  Precooked      Midwest        Chicago      IL              60639        576       $46,725.12
 Emanuel             Meat Box
Iglesia Evangelica  Precooked      Midwest        Chicago      IL              60639      1,944      $157,697.28
 Emanuel             Meat Box
Iglesia Evangelica  Combination    Mid-Atlantic   Juana Diaz   PR              00795        672       $58,296.00
 Unida De Juana      Box
 Diaz
Iglesia Evangelica  Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Canovanas    PR              00729        672       $58,296.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Ceiba        PR              00735      2,016      $199,584.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Maunabo      PR              00707        672       $58,296.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Naguabo      PR              00718      1,344      $124,824.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Penuelas     PR              00624      2,688      $249,648.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Unida Tallaboa      Box
 Encarnacion
Iglesia Evangelica  Combination    Mid-Atlantic   Maunabo      PR              00707      1,344       $67,200.00
 Unidad              Box
Iglesia Evangelica  Combination    Mid-Atlantic   Santa        PR              00757      2,016      $100,800.00
 Unidad              Box                           Isabel
Iglesia             Dairy          Midwest        Chicago      IL              60639        200        $5,000.00
 Evangelical Em.     Products Box
 Box
Iglesia Fe Y        Combination    Mid-Atlantic   Bayamon      PR              00956      2,688      $183,792.00
 Gracia PR           Box
Iglesia Fuente De   Combination    Mid-Atlantic   Carolina     PR              00979        630       $54,138.00
 Agua Viva           Box
Iglesia Fuente De   Combination    Mid-Atlantic   Carolina     PR              00982      1,878      $170,634.00
 Agua Viva           Box
Iglesia Fuente De   Combination    Mid-Atlantic   Carolina     PR              00982      1,152       $99,936.00
 Agua Viva           Box
 Carolina PR
Iglesia Fuente De   Combination    Mid-Atlantic   Guayama      PR              00784        672       $58,296.00
 Vida                Box
Iglesia Generacion  Fluid Milk     Western        Calexico     CA              92231      2,112       $21,098.88
 Victoriosa Church
Iglesia Jehova      Combination    Mid-Atlantic   Catano       PR              00962      1,344      $100,128.00
 Shama               Box
 International
Iglesia Jesucristo  Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Fuente De Amor      Box
Iglesia la Familia  Combination    Mid-Atlantic   Bayamon      PR              00956        600       $59,400.00
 De la Fe.           Box
Iglesia la Senda    Combination    Mid-Atlantic   Toa Alta     PR              00953      9,594      $789,870.00
 Antigua             Box
Iglesia la Tienda   Combination    Mid-Atlantic   Caguas       PR              00725        672       $66,528.00
 De Jesucristo       Box
Iglesia la          Combination    Mid-Atlantic   San Juan     PR              00920         50        $2,500.00
 Travesia            Box
Iglesia la          Combination    Mid-Atlantic   Dorado       PR              00646      2,592      $241,320.00
 Travesia &          Box
 Trinity
Iglesia la          Combination    Mid-Atlantic   Dorado       PR              00646        672       $58,296.00
 Travesia &          Box
 Trinity Dorado
Iglesia Luterana    Fresh Fruit/   South West     Irving       TX              75061        192        $3,262.08
 Santisima Tri.      Vegetable
                     Box
Iglesia Luz Del     Combination    Mid-Atlantic   Fajardo      PR              00738      1,152       $99,936.00
 Mundo               Box
Iglesia Maranatha   Combination    Mid-Atlantic   Maunabo      PR              00707        672       $58,296.00
 Rescatando AL       Box
 Caido
Iglesia Mekadesh    Combination    Mid-Atlantic   Canovanas    PR              00729      1,152       $99,936.00
                     Box
Iglesia Mekadesh    Combination    Mid-Atlantic   Palmer       PR              00721        576       $49,968.00
                     Box
Iglesia Menonita    Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
                     Box
Iglesia Menonita    Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 De Summit Hills     Box
Iglesia Metodista   Combination    Mid-Atlantic   Arroyo       PR              00714        552       $48,768.00
                     Box
Iglesia Metodista   Combination    Mid-Atlantic   Aibonito     PR              00705        672       $66,528.00
 Casa De             Box
 Restauracion
Iglesia Metodista   Combination    Mid-Atlantic   Guayama      PR              00785        588       $58,212.00
 Charles Dress       Box
 Memorial
Iglesia Metodista   Combination    Mid-Atlantic   Maunabo      PR              00707        252       $21,420.00
 El Aposento Alto    Box
Iglesia Metodista   Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 El Buen Pastor      Box
Iglesia Metodista   Combination    Mid-Atlantic   Bajadero     PR              00616        288       $24,984.00
 El Renacer          Box
Iglesia Metodista   Combination    Mid-Atlantic   San Juan     PR              00920        468       $39,276.00
 Jose Espada         Box
 Marrero
Iglesia Metodista   Combination    Mid-Atlantic   Florida      PR              00650        588       $58,212.00
 Monte Santo         Box
Iglesia Metodista   Combination    Mid-Atlantic   Ponce        PR              00716        672       $66,528.00
 Obispo Corson       Box
Iglesia Metodista   Combination    Mid-Atlantic   Patillas     PR              00723        672       $66,528.00
 Puerta Del Cielo    Box
Iglesia Metodista   Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 San Juan Apostol    Box
Iglesia Metodista   Combination    Mid-Atlantic   Jayuya       PR              00664        108       $10,692.00
 Wenceslao Marrero   Box
Iglesia Mi De Dios  Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $66,528.00
 Pentecostal         Box
Iglesia Misionera   Fresh Fruit/   South East     Gulfport     MS              39531        512        $8,652.80
 Penteco             Vegetable
                     Box
Iglesia Misionera   Precooked      South East     Gulfport     MS              39531        336       $13,796.16
 Penteco             Meat Box
Iglesia Misioneros  Combination    Mid-Atlantic   Juncos       PR              00777      3,648      $316,464.00
 Bautista            Box
Iglesia Misioneros  Combination    Mid-Atlantic   Patillas     PR              00723      1,152       $99,936.00
 Bautista            Box
Iglesia Nueva       Fresh Fruit/   South East     Memphis      TN              38118      4,968      $121,716.00
 Vida--C/O Mid       Vegetable
 South Food Bank     Box
Iglesia Nueva       Fresh Fruit/   South East     Memphis      TN              38122        540       $13,230.00
 Vida--C/O Mid       Vegetable
 South Food Bank     Box
Iglesia Nueva       Fresh Fruit/   South East     Memphis      TN              38133      1,512       $37,044.00
 Vida--C/O Mid       Vegetable
 South Food Bank     Box
Iglesia Nuevo       Combination    Mid-Atlantic   Manati       PR              00674        672       $33,600.00
 Testamento          Box
Iglesia Nuevo       Combination    Mid-Atlantic   Rio Piedras  PR              00924        672       $58,296.00
 Testamento          Box
Iglesia Nuevo       Combination    Mid-Atlantic   Dorado       PR              00646        672       $58,296.00
 Testamento De       Box
 Doraville
Iglesia             Combination    Mid-Atlantic   Naranjito    PR              00719        672       $33,600.00
 Pentecostal         Box
Iglesia             Combination    Mid-Atlantic   Coamo        PR              00769        882       $68,796.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Guayama      PR              00784      1,344      $133,056.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Isabela      PR              00662      1,344      $133,056.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Las Marias   PR              00670      1,152       $99,936.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Loiza        PR              00772        672       $66,528.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Maunabo      PR              00707      1,344      $133,056.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Mayaguez     PR              00680        672       $66,528.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Sabana       PR              00637      1,344       $91,896.00
 Pentecostal De      Box                           Grande
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Salinas      PR              00751        672       $33,600.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Yauco        PR              00698      3,990      $337,386.00
 Pentecostal De      Box
 Jesucristo MI
Iglesia             Combination    Mid-Atlantic   Caguas       PR              00725        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Cayey        PR              00736        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Cidra        PR              00739         72        $7,128.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Gurabo       PR              00778        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Humacao      PR              00791        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Isabela      PR              00662        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00915      1,080       $80,460.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00921        576       $49,968.00
 Pentecostal Mi      Box
Iglesia             Combination    Mid-Atlantic   Guayama      PR              00784        504       $49,896.00
 Pentecostal Vida    Box
 Y Verdad
Iglesia             Combination    Mid-Atlantic   Palmer       PR              00721        576       $49,968.00
 Presbiterania Rio   Box
 Grande
Iglesia             Combination    Mid-Atlantic   Ponce        PR              00730        576       $49,968.00
 Presbiteriana       Box
 Casa Del Alfarero
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00921        672       $62,412.00
 Presbiteriana De    Box
 Hato Rey
Iglesia             Combination    Mid-Atlantic   Hormigueros  PR              00660        672       $66,528.00
 Presbiteriana De    Box
 Hormigueros
Iglesia             Combination    Mid-Atlantic   Isabela      PR              00662      1,440      $128,448.00
 Presbiteriana De    Box
 Isabela
Iglesia             Combination    Mid-Atlantic   Toa Baja     PR              00949      2,688      $200,256.00
 Presbiteriana De    Box
 Levittown
Iglesia             Combination    Mid-Atlantic   Luquillo     PR              00773        672       $58,296.00
 Presbiteriana De    Box
 Luquillo
Iglesia             Combination    Mid-Atlantic   Mayaguez     PR              00680      1,368      $121,320.00
 Presbiteriana De    Box
 Mayaguez
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Presbiteriana De    Box
 Puerto Nuevo
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $133,056.00
 Presbiteriana De    Box
 San Pablo
Iglesia             Combination    Mid-Atlantic   Vega Alta    PR              00692        672       $66,528.00
 Presbiteriana De    Box
 Vega Alta
Iglesia             Combination    Mid-Atlantic   Guanica      PR              00653        672       $58,296.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   Isabela      PR              00662      1,344      $116,592.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   Lares        PR              00669        672       $66,528.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   Maricao      PR              00606      2,016      $191,352.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00925        200       $19,800.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   Toa Baja     PR              00949      1,974      $123,396.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   Yabucoa      PR              00767      1,344      $133,056.00
 Presbiteriana El    Box
 Buen Pastor
Iglesia             Combination    Mid-Atlantic   San Juan     PR              00921        576       $49,968.00
 Presbiteriana En    Box
 Monteflores
Iglesia             Combination    Mid-Atlantic   Guanica      PR              00653        576       $49,968.00
 Presbiteriana       Box
 Guanica
Iglesia             Combination    Mid-Atlantic   Quebradilla  PR              00678        672       $66,528.00
 Presbiteriana       Box                           s
 Juan Calvino
Iglesia             Combination    Mid-Atlantic   Mayaguez     PR              00680      1,344       $67,200.00
 Presbiteriana Rio   Box
 Cristal
Iglesia             Combination    Mid-Atlantic   Toa Baja     PR              00949        576       $49,968.00
 Presbiteriana Toa   Box
 Baja
Iglesia Red De      Combination    Mid-Atlantic   Arecibo      PR              00612        672       $58,296.00
 Amor                Box
Iglesia Roca        Combination    Mid-Atlantic   San German   PR              00683      1,344      $116,592.00
 Fuerte              Box
Iglesia Roca        Fresh Fruit/   South West     Houston      TX              77060      2,008       $34,115.92
 Fuerte              Vegetable
                     Box
Iglesia Trinidad    Fluid Milk     South West     Houston      TX              77064        500        $1,489.00
Iglesia Una Nueva   Combination    South West     Fort Worth   TX              76108        400       $13,988.00
 Familia             Box
Iglesia Una Nueva   Dairy          South West     White        TX              76108        400       $18,304.00
 Familia             Products Box                  Settlemen
Iglesia Vida        Combination    Mid-Atlantic   Fajardo      PR              00738        672       $58,296.00
 Abundante           Box
Iglesia Vino Nuevo  Fresh Fruit/   South West     Edinburg     TX              78542      1,560       $36,348.00
 San Carlos          Vegetable
 Compass Christian   Box
Iglesia Vision 3D   Fluid Milk     South East     Wilmington   NC              28403      2,544        $9,881.76
Iglesia Vision 3D   Fresh Fruit/   South East     Wilmington   NC              28403      1,800       $20,700.00
                     Vegetable
                     Box
Iglesias Asambleas  Combination    Mid-Atlantic   Bayamon      PR              00956      2,016      $174,888.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Bayamon      PR              00957      4,908      $432,972.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Gurabo       PR              00778      6,336      $466,152.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Manati       PR              00674      7,008      $549,144.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Moca         PR              00676      4,032      $308,616.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Penuelas     PR              00624      3,360      $250,320.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Rio Grande   PR              00721        672       $66,528.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Rio Grande   PR              00745      4,032      $308,616.00
 De Dios             Box
Iglesias Asambleas  Combination    Mid-Atlantic   Yauco        PR              00698      4,152      $366,360.00
 De Dios             Box
Ignite Church       Fluid Milk     South West     Tulsa        OK              74106        495       $11,850.30
 Tulsa
Ignite Church       Fresh Fruit/   South West     Tulsa        OK              74106        539       $10,294.90
 Tulsa               Vegetable
                     Box
Ignite FBC          Dairy          South West     Kennedale    TX              76060        400       $18,304.00
 Kennedale           Products Box
Ignite FBC          Fresh Fruit/   South West     Kennedale    TX              76060      1,900       $33,070.00
 Kennedale           Vegetable
                     Box
Ignite Life Center  Fresh Fruit/   South East     Gainesville  FL              32609      3,402       $83,349.00
                     Vegetable
                     Box
Igrow               Combination    Midwest        Chicago      IL              60636        750       $47,855.00
                     Box
IL Partners in      Dairy          Midwest        New Lenox    IL              60451      2,912       $93,213.12
 Hope                Products Box
Illinois Congress   Fresh Fruit/   Midwest        Chicago      IL              60628         15          $270.00
 of Parents          Vegetable
 Teachers            Box
Illinois District   Precooked      Midwest        Carlinville  IL              62626      2,548       $97,333.60
 Council             Meat Box
Illinois Partner    Dairy          Midwest        New Lenox    IL              60451      2,000       $59,500.00
 in Hope             Products Box
Illinois Partner    Fresh Fruit/   Midwest        New Lenox    IL              60451      1,728       $47,520.00
 in Hope             Vegetable
                     Box
Illinois Partners   Dairy          Midwest        New Lennox   IL              60451      6,000      $178,500.00
 in Hope             Products Box
Illinois Partners   Dairy          Midwest        New Lenox    IL              60451      2,000       $59,500.00
 in Hope             Products Box
Illinois Partners   Fresh Fruit/   Midwest        New Lennox   IL              60451      5,184      $142,560.00
 in Hope             Vegetable
                     Box
Illinois Partners   Fresh Fruit/   Midwest        New Lenox    IL              60451      1,728       $47,520.00
 in Hope             Vegetable
                     Box
Illinos Partners    Dairy          Midwest        New Lennox   IL              60451      2,000       $59,500.00
 in Hope             Products Box
Illinos Partners    Fresh Fruit/   Midwest        New Lennox   IL              60451      5,184      $142,560.00
 in Hope             Vegetable
                     Box
Illumination        Combination    Western        Orange       CA              92867        200        $5,450.00
 Foundation          Box
Illumination        Dairy          Western        Orange       CA              92867        250        $8,000.00
 Foundation          Products Box
Illumination        Fresh Fruit/   Western        Orange       CA              92867        250        $6,187.50
 Foundation          Vegetable
                     Box
Im in Ministry      Dairy          Midwest        Cleveland    OH              44102         65        $1,625.00
 Kirby Manor         Products Box
Im Still Standing   Fresh Fruit/   South East     Cumming      GA              30040        980       $18,561.20
 Ministries          Vegetable
                     Box
Im Still Standing   Fresh Fruit/   South East     Duluth       GA              30096        980       $18,561.20
 Ministries          Vegetable
                     Box
Imlay City High     Fresh Fruit/   Midwest        Imlay City   MI              48444      1,008       $36,267.84
 School              Vegetable
                     Box
Immaculant          Fresh Fruit/   Mountain       Park Hills   MO              63601        555       $15,262.50
 Conception          Vegetable      Plains
                     Box
Immaculate          Fresh Fruit/   Midwest        Chicago      IL              60632        840       $30,223.20
 Conception          Vegetable
                     Box
Immaculate          Precooked      Midwest        Chicago      IL              60632        792       $64,247.04
 Conception          Meat Box
Immaculate          Fresh Fruit/   South West     Grand        TX              75051        345        $5,861.55
 Conception Church   Vegetable                     Prairie
                     Box
Immanuel Baptist    Fresh Fruit/   South West     El Paso      TX              79925      3,816       $74,412.00
 Church              Vegetable
                     Box
Immanuel Baptist    Fresh Fruit/   South East     Pace         FL              32571        700       $20,300.00
 Church of Pace      Vegetable
 Inc.                Box
Immanuel Comm.      Combination    Western        Seattle      WA              98109        300       $10,500.00
 Services            Box
Immanuel Comm.      Dairy          Western        Seattle      WA              98109        250        $7,500.00
 Services            Products Box
Immanuel Food       Fresh Fruit/   Midwest        Jackson      MI              49202        252        $9,066.96
 Pantry              Vegetable
                     Box
Immanuel UMC        Dairy          South East     Florence     KY              41042      1,100       $27,500.00
                     Products Box
Immanuel UMC        Fresh Fruit/   South East     Florence     KY              41042      1,222       $24,403.34
                     Vegetable
                     Box
Impact Ardmore      Combination    South West     Ardmore      OK              73401      1,440       $50,356.80
                     Box
Impact Ardmore      Fluid Milk     South West     Ardmore      OK              73401      1,305       $31,241.70
Impact Ardmore      Fresh Fruit/   South West     Ardmore      OK              73401      1,813       $39,155.90
                     Vegetable
                     Box
Impact Baptist      Fresh Fruit/   South East     Memphis      TN              38127        324        $7,938.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Impact Church       Fresh Fruit/   South East     Atlanta      GA              30344        500       $10,000.00
                     Vegetable
                     Box
Impact Church       Fresh Fruit/   Midwest        Detroit      MI              48213      2,500       $37,375.00
                     Vegetable
                     Box
Impact Ministries   Fresh Fruit/   Mountain       Independenc  MO              64050        320        $8,288.00
 Family Resource     Vegetable      Plains         e
 Center              Box
Impact Ministries   Fresh Fruit/   Mountain       Independenc  MO              64057        250        $6,475.00
 Family Resource     Vegetable      Plains         e
 Center              Box
Imperial Beach      Fresh Fruit/   Western        Imperial     CA              91932         15          $375.00
 N.C.                Vegetable                     Beach
                     Box
Imperial Valley     Fresh Fruit/   Western        Imperial     CA              92251     13,153      $322,248.50
 Food Bank           Vegetable
                     Box
Imports Church      Fresh Fruit/   Mountain       Festus       MO              63028      1,425       $39,187.50
                     Vegetable      Plains
                     Box
Imports Church      Fresh Fruit/   Mountain       St. Louis    MO              63127      1,100       $30,250.00
                     Vegetable      Plains
                     Box
Imports Church      Fresh Fruit/   Mountain       St. Louis    MO              63128      1,800       $49,500.00
                     Vegetable      Plains
                     Box
Inarajan Mayor's    Fresh Fruit/   Western        Inarajan     Guam            96917        600       $36,000.00
 office              Vegetable
                     Box
INCA Relief         Fresh Fruit/   Midwest        Detroit      MI              48212      1,931       $69,477.38
                     Vegetable
                     Box
Independent Living  Fresh Fruit/   South East     Jacksonvill  FL              32246      1,260       $40,950.00
 Community           Vegetable                     e
 Services            Box
Independent Living  Fresh Fruit/   South East     Deland       FL              32724        630       $20,475.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Orlando      FL              32801      1,260       $40,950.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Pompano      FL              33060      1,260       $40,950.00
 Community           Vegetable                     Beach
 Services            Box
Independent Living  Fresh Fruit/   South East     Miami        FL              33147     80,640    $2,620,800.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Tampa        FL              33162      2,520       $81,900.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Doral        FL              33166      8,820      $286,650.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Miami        FL              33166     47,880    $1,556,100.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     Lauderhill   FL              33313      1,260       $40,950.00
 Community           Vegetable
 Services            Box
Independent Living  Fresh Fruit/   South East     St.          FL              33702      2,520       $81,900.00
 Community           Vegetable                     Petersburg
 Services            Box
Independent Living  Fresh Fruit/   South East     Cape Coral   FL              33904      1,260       $40,950.00
 Community           Vegetable
 Services            Box
Independent         Fresh Fruit/   South East     Birmingham   AL              35205        200        $5,600.00
 Presbyterian        Vegetable
                     Box
Indian Hills Elem   Fluid Milk     South East     Hopkinsvill  KY              42241      2,475        $5,568.75
                                                   e
Indian Pueblo       Fluid Milk     South West     Albuquerque  NM              87104        748        $3,665.20
 Cultural Center
Indiana County      Dairy          Mid-Atlantic   Indiana      PA              15701        799       $16,802.97
 Food Bank           Products Box
Infant Crisis       Dairy          South West     Oklahoma     OK              73105        288       $13,178.88
 Services            Products Box                  City
Infant Crisis       Fluid Milk     South West     Oklahoma     OK              73105         90        $2,154.60
 Services                                          City
Infant Crisis       Fresh Fruit/   South West     Oklahoma     OK              73105        757       $12,574.70
 Services            Vegetable                     City
                     Box
Infinite Impact     Fresh Fruit/   South West     Grapevine    TX              76054        400        $9,320.00
                     Vegetable
                     Box
Inglesia Cristiana  Fluid Milk     South West     El Paso      TX              75234     22,940       $66,984.80
Inglesia De Rest    Fluid Milk     South West     Baton Rouge  LA              70816      5,000       $14,600.00
Ingold Baptist      Fluid Milk     South East     Ingold       NC              28441         50          $200.00
 Church
Ingraham Baptist    Dairy          Midwest        Clay City    IL              62824         50        $1,487.50
 Breadshed           Products Box
Ingraham Baptist    Fresh Fruit/   Midwest        Clay City    IL              62824         50        $1,375.00
 Breadshed           Vegetable
                     Box
Iniciativa          Combination    Mid-Atlantic   San Juan     PR              00917        276       $27,324.00
 Comunitaria         Box
Inkster Head Start  Fresh Fruit/   Midwest        Inkster      MI              48141        300        $4,485.00
                     Vegetable
                     Box
Inkster Housing     Fresh Fruit/   Midwest        Inkster      MI              48141        504       $18,133.92
 Commision           Vegetable
                     Box
Inland Harvest      Dairy          Western        Riverside    CA              92501      2,400       $70,128.00
                     Products Box
Inland Harvest      Fluid Milk     Western        Riverside    CA              92501      4,224       $42,197.76
Inland Harvest      Fresh Fruit/   Western        Redlands     CA              92373      1,680       $42,000.00
                     Vegetable
                     Box
Inland Harvest      Fresh Fruit/   Western        Riverside    CA              92501     10,800      $270,000.00
                     Vegetable
                     Box
Inmaculada          Combination    Mid-Atlantic   Carolina     PR              00979        672       $58,296.00
 Concepcion          Box
Inner Court         Precooked      South West     Kirbyville   TX              75956      3,072      $316,876.80
 Outreach            Meat Box
 Ministries
Innercity Mission   Fresh Fruit/   Midwest        Chicago      IL              60619      1,323       $47,601.54
                     Vegetable
                     Box
Innercity Mission   Precooked      Midwest        Chicago      IL              60619      2,088      $169,378.56
                     Meat Box
Innercity Mission   Precooked      Midwest        Chicago      IL              60616        216       $17,521.92
 Network             Meat Box
Innercity Missions  Dairy          Midwest        Chicago      IL              60629        200        $5,000.00
 Network Box         Products Box
Inno Academy--      Dairy          Midwest        Fennville    MI              49408        340        $9,860.00
 Allegan             Products Box
Inno Academy--      Fresh Fruit/   Midwest        Fennville    MI              49408        750       $15,782.50
 Allegan             Vegetable
                     Box
Innoviative         Fluid Milk     South East     Clarksville  FL              32430      2,592       $10,342.08
 Chariti
Innoviative         Fluid Milk     South East     Marianna     FL              32448      2,592       $10,342.08
 Charity
Inprem Holistic     Fluid Milk     Midwest        Columbus     OH              43229        180          $597.60
 Com.
Insight Institue    Fresh Fruit/   Midwest        Flint        MI              48507      1,512       $54,401.76
 of Neurosurgery     Vegetable
                     Box
Insitiuto Del       Fresh Fruit/   Midwest        Chicago      IL              60608        756       $27,200.88
 Progreso Latino     Vegetable
                     Box
Insitutio Del       Precooked      Midwest        Chicago      IL              60608        360       $29,203.20
 Progreso Latino     Meat Box
Inspirational       Dairy          Midwest        Cincinnati   OH              45240      2,000       $48,200.00
 Bible Church        Products Box
Inspirational       Fresh Fruit/   Midwest        Cincinnati   OH              45240      1,500       $39,750.00
 Bible Church        Vegetable
                     Box
Inspired Vision     Dairy          South West     Dallas       TX              75217      1,900       $86,944.00
 Church              Products Box
Inspired Vision     Fresh Fruit/   South West     Dallas       TX              75217     24,284      $410,570.16
 Church              Vegetable
                     Box
Inspired Vision     Precooked      South West     Dallas       TX              75217      1,620      $167,103.00
 Church              Meat Box
Institute of Non    Precooked      Midwest        Chicago      IL              60624      2,016      $163,537.92
 Violence Chicago    Meat Box
Institute of Non-   Fresh Fruit/   Midwest        Chicago      IL              60624      1,008       $36,267.84
 Violence            Vegetable
                     Box
Institute of Non-   Fresh Fruit/   Midwest        Chicago      IL              60632        504       $18,133.92
 Violence            Vegetable
                     Box
Institute of Non-   Fresh Fruit/   Midwest        Chicago      IL              60624        504       $18,133.92
 Violence Chicago    Vegetable
                     Box
Instituto Del       Precooked      Midwest        Chicago      IL              60608        648       $52,565.76
 Progreso Latino     Meat Box
Instituto Health    Fresh Fruit/   Midwest        Chicago      IL              60608        150        $9,609.00
 Sciences Academy    Vegetable
                     Box
Instituto Main      Combination    Midwest        Chicago      IL              60608      1,200       $79,098.00
                     Box
Instituto Main      Dairy          Midwest        Chicago      IL              60608        300       $19,545.00
                     Products Box
Instituto Main      Fresh Fruit/   Midwest        Chicago      IL              60608        300       $19,218.00
                     Vegetable
                     Box
Int. Serv. Behv.    Fluid Milk     Midwest        Chillicothe  OH              45601      2,436        $8,087.52
 Healt.
Inter Church of     Combination    Mountain       St. Joseph   MO              64506      2,261       $79,067.17
 the Foursquare      Box            Plains
Inter Church of     Dairy          Mountain       St. Joseph   MO              64506      9,464      $433,072.64
 the Foursquare      Products Box   Plains
Inter Church of     Fluid Milk     Mountain       St. Joseph   MO              64506        503       $12,041.82
 the Foursquare                     Plains
Inter Church of     Fresh Fruit/   Mountain       St. Joseph   MO              64506     14,803      $270,087.50
 the Foursquare      Vegetable      Plains
                     Box
Interamericana      Combination    Mid-Atlantic   Trujillo     PR              00976      1,344      $133,056.00
 Basketball Club     Box                           Alto
Interfaith Action   Fresh Fruit/   Midwest        Evanston     IL              60204        252        $9,066.96
                     Vegetable
                     Box
Interfaith Action   Dairy          Midwest        Evanston     IL              60204        400       $10,000.00
 of Evan Box         Products Box
Interfaith Action   Precooked      Midwest        Evanston     IL              60204        288       $23,362.56
 of Evanston         Meat Box
Interfaith Action   Precooked      Midwest        Evanston     IL              60204        288       $23,362.56
 of Evanston         Meat Box
Interfaith Caring   Fluid Milk     South West     League City  TX              77573        250          $802.50
 Ministries
Interfaith Caring   Fresh Fruit/   South West     League City  TX              77573        128        $2,174.72
 Ministries          Vegetable
                     Box
Interfaith          Fluid Milk     South East     Ocala        FL              34475      2,112        $8,047.68
 Emergency
Interfaith FB       Fluid Milk     South West     Clute        TX              77531        400        $1,284.00
Interfaith Food     Fluid Milk     Mid-Atlantic   East Orange  NJ              07018        175        $5,670.00
 Pantry of the
 Oranges
Interfaith Food     Fresh Fruit/   Mid-Atlantic   East Orange  NJ              07018      1,368       $31,436.64
 Pantry of the       Vegetable
 Oranges             Box
Interfaith Food     Fresh Fruit/   Mid-Atlantic   Orange       NJ              07050      2,500       $52,145.60
 Pantry of the       Vegetable
 Oranges             Box
Interfaith Food     Fresh Fruit/   South East     Raleigh      NC              27603     13,578      $250,012.48
 Shuttle             Vegetable
                     Box
Interfaith Food     Fresh Fruit/   South East     Durham       NC              27703      1,136       $17,840.00
 Shuttle             Vegetable
                     Box
Interfaith Food     Fresh Fruit/   South East     Durham       NC              27707        800       $12,800.00
 Shuttle             Vegetable
                     Box
Interfaith          Precooked      Midwest        Franklin     IL              60131        144       $11,681.28
 Outreach            Meat Box                      Park
Interlachen Soup    Fluid Milk     South East     Interlachen  FL              32148        200          $766.00
International       Fluid Milk     South East     Charleston   SC              29407        744        $2,893.36
 Churc
International       Fresh Fruit/   Western        Waipahu      HI              96797        342       $12,312.00
 Church of           Vegetable
 Foursquare Gospel   Box
International       Fresh Fruit/   Western        Las Vegas    Nv              89145      1,800       $39,600.00
 Church of Las       Vegetable
 Vegas               Box
International       Fresh Fruit/   Western        Glendale     CA              91204      1,950       $48,262.50
 Families Associa    Vegetable
                     Box
International       Fresh Fruit/   Midwest        Ecorse       MI              48229      6,512      $129,151.76
 Gospel Center       Vegetable
                     Box
International Prep  Fresh Fruit/   North East     Buffalo      NY              14213        450       $10,282.50
                     Vegetable
                     Box
International       Fresh Fruit/   Mid-Atlantic   Westfield    NJ              07090        405        $8,100.00
 Rescue Committee    Vegetable
                     Box
Intersection        Dairy          Midwest        Holland      MI              49424      1,100       $31,900.00
 Ministries          Products Box
Intersection        Fresh Fruit/   Midwest        Holland      MI              49424      2,200       $46,475.00
 Ministries          Vegetable
                     Box
Intersection        Precooked      Midwest        Holland      MI              49424        500       $19,500.00
 Ministries          Meat Box
Intown              Fresh Fruit/   South East     Atlanta      GA              30306      1,010       $20,200.00
 Collaborative       Vegetable
 Ministries          Box
Intrinsic           Combination    Midwest        Chicago      IL              60641         20        $1,242.40
                     Box
Intrinsic           Dairy          Midwest        Chicago      IL              60603         10          $651.50
                     Products Box
Intrinsic Schools   Combination    Midwest        Chicago      IL              60603         10          $671.80
                     Box
Intrinsic Schools   Fresh Fruit/   Midwest        Chicago      IL              60603         20        $1,281.20
                     Vegetable
                     Box
Iolani School       Fresh Fruit/   Western        Honolulu     HI              96826        560       $20,160.00
                     Vegetable
                     Box
Ionia County        Dairy          Midwest        Ionia        MI              48846        405       $11,745.00
 Commission on       Products Box
 Aging
Ionia County        Fresh Fruit/   Midwest        Ionia        MI              48846        750       $15,887.50
 Commission on       Vegetable
 Aging               Box
IPS 871 Food        Fluid Milk     Midwest        Indianapoli  IN              46218      2,592       $10,368.00
 Center                                            s
IPS 871 Food        Fluid Milk     Midwest        Indianapoli  IN              46218      6,912       $27,648.00
 Center                                            s
Ipswich Middle      Fresh Fruit/   North East     Ipswich      MA              01938        280        $6,146.00
 High School         Vegetable
                     Box
IPVI                Fresh Fruit/   Mid-Atlantic   Arecibo      PR              00612        324       $12,636.00
                     Vegetable
                     Box
IPVI                Fresh Fruit/   Mid-Atlantic   Toa Baja     PR              00949         81        $3,159.00
                     Vegetable
                     Box
IPVI Calle Eugenio  Fresh Fruit/   Mid-Atlantic   Toa Baja     PR              00949         77        $3,003.00
 Maria De Hostos     Vegetable
 175 Esquina Pur     Box
IPVI Dame Tu Mano   Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00680         15          $585.00
                     Vegetable
                     Box
IPVI Dame Tu Mano   Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00682         22          $858.00
                     Vegetable
                     Box
Iron Mountain       Precooked      Midwest        Iron         MI              49801        309       $10,974.48
 Senior Center       Meat Box                      Mountain
Irondale Senior     Fresh Fruit/   South East     Irondale     AL              35210        344        $8,926.80
 Citizens Center     Vegetable
                     Box
Ironwood Area       Dairy          Midwest        Ironwood     MI              49938        960       $24,000.00
 School District     Products Box
Ironwood Area       Fresh Fruit/   Midwest        Ironwood     MI              49938        938       $33,749.24
 School District     Vegetable
                     Box
Iroquois            Fresh Fruit/   Mid-Atlantic   Wesleyville  PA              16510        480       $14,400.00
 Elementary School   Vegetable
                     Box
Irving Bible        Fresh Fruit/   South West     Irving       TX              75038        350        $8,155.00
 Church              Vegetable
                     Box
Irving Park         Dairy          Midwest        Chicago      IL              60618        300        $7,500.00
 Community Food      Products Box
 Box
Irving Park         Precooked      Midwest        Chicago      IL              60618        216       $17,521.92
 Community Food      Meat Box
 Pantry
ISDD                Fresh Fruit/   South East     Decatur      GA              30032        300        $6,000.00
                     Vegetable
                     Box
Islamic Center of   Dairy          Midwest        Dearborn     MI              48128      8,156      $218,764.00
 America             Products Box
Islamic Center of   Dairy          Midwest        Detroit      MI              48202        336       $12,432.00
 America             Products Box
Islamic Center of   Fluid Milk     Midwest        Dearborn     MI              48128      6,300       $21,123.00
 America
Islamic Center of   Fresh Fruit/   Midwest        Dearborn     MI              48123      1,512       $54,401.76
 America             Vegetable
                     Box
Islamic Center of   Fresh Fruit/   Midwest        Dearborn     MI              48128     17,231      $479,854.63
 America             Vegetable
                     Box
Islamic Center of   Fresh Fruit/   Midwest        Dearborn     MI              48202      1,500       $22,425.00
 America             Vegetable
                     Box
Islamic Center of   Fresh Fruit/   Midwest        Detroit      MI              48202      2,250       $33,637.50
 America             Vegetable
                     Box
Islamic Center of   Fresh Fruit/   Midwest        Warren       MI              48202      1,500       $22,425.00
 America             Vegetable
                     Box
Islamic Center of   Dairy          Midwest        Cleveland    OH              44130        250        $6,250.00
 Cleveland           Products Box
Islamic Center of   Fluid Milk     Mid-Atlantic   Gaithersbur  MD              20879        960       $17,664.00
 Maryland                                          g
Islamic Center of   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20879      1,000       $24,750.00
 Maryland            Vegetable                     g
                     Box
Islamic Ctr. Am.--  Dairy          Midwest        Dearborn     MI              48128      8,448      $211,200.00
 Ford                Products Box
Islamic Food Bank   Fresh Fruit/   Midwest        Perrysburg   OH              43551        558        $6,975.00
 Helping Hands       Vegetable
                     Box
Islamic Food Bank   Fresh Fruit/   Midwest        Toledo       OH              43605        342        $4,275.00
 Helping Hands       Vegetable
                     Box
Islamic House of    Fresh Fruit/   Midwest        Dearborn     MI              48127      5,500       $82,225.00
 Wisdom              Vegetable                     Heights
                     Box
Islamic             Dairy          Midwest        Warren       MI              48092      1,690       $42,250.00
 Organization of     Products Box
Islamic             Fresh Fruit/   Midwest        Detroit      MI              48221      1,512       $54,401.76
 Organization of     Vegetable
 North America       Box
Islamic             Fresh Fruit/   Midwest        Warren       MI              48092      1,512       $54,401.76
 Organization of     Vegetable
 North America       Box
Islamic Society of  Fluid Milk     Mid-Atlantic   Middletown   NJ              07748        480        $9,465.60
 Monmouth
Islamic Society of  Fresh Fruit/   Mid-Atlantic   Middletown   NJ              07748        432        $9,927.36
 Monmouth            Vegetable
                     Box
Island Harvest      Combination    North East     Bohemia      NY              11716      2,574       $99,212.00
 Food Bank           Box
Island Harvest      Fluid Milk     North East     Hauppauge    NY              11788      4,992       $35,160.96
 Food Bank
Island Harvest      Fluid Milk     North East     Long Island  NY              11788      8,448       $32,017.92
 Food Bank
Island Harvest      Fresh Fruit/   North East     Hauppauge    NY              11778      5,400      $107,838.00
 Food Bank           Vegetable
                     Box
Island Harvest      Fresh Fruit/   North East     Hauppauge    NY              11788     13,566      $309,466.50
 Food Bank           Vegetable
                     Box
Island Harvest      Precooked      North East     Hauppauge    NY              11788      2,548      $103,805.52
 Ltd.                Meat Box
Island Harvest      Precooked      North East     Holtsville   NY              11742      1,274       $52,157.56
 Ltd. Holtsville     Meat Box
Island Harvest NY   Fresh Fruit/   North East     Hauppauge    NY              11788      2,930       $84,237.50
                     Vegetable
                     Box
Islanic Center      Dairy          Midwest        Dearborn     MI              48126      1,056       $26,400.00
                     Products Box
Israelite School    Fresh Fruit/   South East     Memphis      TN              38115        162        $3,969.00
 of Universal PN--   Vegetable
 C/O Mid South Fo.   Box
Israelite School/   Fresh Fruit/   Mountain       St. Louis    MO              63108        180        $5,760.00
 STL Food Bank       Vegetable      Plains
                     Box
Issaquah Christian  Combination    Western        Issaquah     WA              98027        152        $5,320.00
 Church              Box
Issaquah Christian  Dairy          Western        Issaquah     WA              98027         32          $960.00
 Church              Products Box
Issaquah Christian  Fresh Fruit/   Western        Issaquah     WA              98027         30          $810.00
 Church              Vegetable
                     Box
Issaquah Food and   Combination    Western        Issaquah     WA              98027        900       $31,500.00
 Clothing Bank       Box
Issaquah Food and   Fresh Fruit/   Western        Issaquah     WA              98027         77        $1,509.20
 Clothing Bank       Vegetable
                     Box
Italian Cultural    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21212      1,750       $35,000.00
 Center              Vegetable
                     Box
Ivy Bend Food       Precooked      Mountain       Stover       MO              65078         36        $1,620.00
 Cooperative         Meat Box       Plains
Iwikua              Fresh Fruit/   Western        Waimea       HI              96796         50        $1,950.00
                     Vegetable
                     Box
J. Frank High Mary  Fresh Fruit/   South West     Houston      TX              77075        512        $8,698.88
 Fontenot            Vegetable
                     Box
Jack Mulhall        Fluid Milk     Midwest        Cleveland    OH              44135        340        $1,128.80
 Center
Jackson Co. High    Fluid Milk     South East     Mckee        KY              40447        606        $2,296.74
 Sc.
Jackson Community   Fresh Fruit/   Midwest        Jackson      MI              49203        700       $20,125.00
 Food Pantry         Vegetable
                     Box
Jackson Department  Fresh Fruit/   Midwest        Jackson      MI              49202        335        $5,008.25
 of Aging            Vegetable
                     Box
Jackson Elementary  Fresh Fruit/   Western        Medford      OR              97501        216        $8,370.00
                     Vegetable
                     Box
Jackson Public/     Dairy          Midwest        Jackson      MI              49202      3,730      $108,170.00
 Warehouse           Products Box
Jackson Public/     Precooked      Midwest        Jackson      MI              49202      3,800      $159,650.07
 Warehouse           Meat Box
Jackson Senior      Fresh Fruit/   Mountain       Jackson      MO              63755        200        $5,500.00
 Center              Vegetable      Plains
                     Box
Jacobs's Well       Fluid Milk     Western        Bloomington  CA              92316      2,400       $23,976.00
Jacquet Middle      Combination    South West     Fort Worth   TX              76119      1,000       $34,970.00
 School              Box
Jacquet Middle      Dairy          South West     Fort Worth   TX              76119      1,000       $45,760.00
 School              Products Box
James O. Bryant     Fluid Milk     Mid-Atlantic   Piscataway   NJ              08854         35        $1,134.00
 Food Pantry
James O. Bryant     Fresh Fruit/   Mid-Atlantic   Piscataway   NJ              08854        144        $3,309.12
 Food Pantry         Vegetable
                     Box
James R. Frazier    Fluid Milk     South East     Conway       SC              29527        500        $1,945.40
 CC
Jan Pruitt          Fluid Milk     South West     Lancaster    TX              75146        864        $2,522.88
 Community Pantry
Jan Pruitt          Fresh Fruit/   South West     Lancaster    TX              75146        112        $1,902.88
 Community Pantry    Vegetable
                     Box
Jane Addams         Fresh Fruit/   Midwest        Redford      MI              48239        200        $2,990.00
 Elementary          Vegetable
                     Box
Jardines De Selles  Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
                     Box
Jasper County Food  Fluid Milk     South East     Monticello   GA              31064      2,160        $8,618.40
Jasper County       Fresh Fruit/   South East     Hardeeville  SC              29927        950       $28,500.00
 Neighbors United    Vegetable
                     Box
JC Manna Mission    Dairy          Midwest        Johnson      IL              62951         20          $595.00
                     Products Box                  City
JC Manna Mission    Dairy          Midwest        Johnston     IL              62951         20          $595.00
                     Products Box                  City
JC Manna Mission    Fresh Fruit/   Midwest        Johnson      IL              62951         20          $550.00
                     Vegetable                     City
                     Box
Manna Mission       Fresh Fruit/   Midwest        Johnston     IL              62951         20          $550.00
                     Vegetable                     City
                     Box
JCOWS Church        Fresh Fruit/   Midwest        Columbus     OH              43229        108        $1,350.00
                     Vegetable
                     Box
JE Community        Fresh Fruit/   Midwest        Hamtramck    MI              48212      1,200       $34,500.00
 Relief              Vegetable
                     Box
JE Johnson Es.      Fluid Milk     South East     Prentiss     MS              39421        496        $1,931.04
Jeff Co. House of   Fluid Milk     Midwest        Vevay        IN              47043      4,320       $17,280.00
 Hope
Jefferson County--  Fresh Fruit/   South East     Fayette      MS              39069      1,000       $19,970.00
 Expanding           Vegetable
 Resources Into      Box
 Action
Jefferson County    Fluid Milk     North East     Watertown    NY              13601      1,926       $59,667.48
 Boces
Jefferson County    Fresh Fruit/   South East     Bessemer     AL              35020        344        $8,926.80
 Housing Bessemer    Vegetable
                     Box
Jefferson County    Fresh Fruit/   South East     Fultondale   AL              35068        960       $24,912.00
 Housing             Vegetable
 Fultondale          Box
Jefferson County    Dairy          Western        Madras       OR              97741        480       $14,400.00
 Public Health       Products Box
Jefferson County    Fresh Fruit/   Western        Madras       OR              97741        495       $23,265.00
 Public Health       Vegetable
                     Box
Jefferson County    Fresh Fruit/   Western        Madras       OR              97741         30        $1,410.00
 Senior Center       Vegetable
                     Box
Jefferson Elem.     Fluid Milk     South East     Jeffersonvi  GA              31044      2,160        $8,402.40
                                                   lle
Jefferson           Fresh Fruit/   Midwest        Coldwater    MI              49036        250        $8,995.00
 Elementary School   Vegetable
                     Box
Jefferson           Fresh Fruit/   Midwest        Redford      MI              48239        150        $2,242.50
 Elementary School   Vegetable
                     Box
Jefferson High      Dairy          Midwest        Newport      MI              48166        300        $8,700.00
 School              Products Box
Jefferson High      Fresh Fruit/   Midwest        Newport      MI              48162        300        $4,485.00
 School              Vegetable
                     Box
Jefferson High      Fresh Fruit/   Midwest        Newport      MI              48166        700       $14,700.00
 School              Vegetable
                     Box
Jefferson Middle    Fresh Fruit/   Mountain       St. Charles  MO              63301        468       $14,976.00
 School              Vegetable      Plains
                     Box
Jefferson: Mater    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19107        490        $9,800.00
 Program             Vegetable                     a
                     Box
Jefferson-Barns     Fresh Fruit/   Midwest        Westland     MI              48186        234        $3,498.30
 Community           Vegetable
 Vitality            Box
Jehovah Jireh       Dairy          South East     Mayslick     KY              41055        700       $17,500.00
                     Products Box
Jehovah Jireh       Fresh Fruit/   South East     Mayslick     KY              41055        700       $13,979.00
                     Vegetable
                     Box
Jehovah Jireh       Dairy          Midwest        Hudsonville  MI              49426        675       $19,575.00
 Ministries of W     Products Box
 MI
Jehovah Jireh       Fresh Fruit/   Midwest        Hudsonville  MI              49426      1,875       $45,995.00
 Ministries of W     Vegetable
 MI                  Box
Jehovah Witness     Fluid Milk     North East     Newburgh     NY              12550        360       $11,152.80
 Group
Jehovah Witness     Fresh Fruit/   North East     Henrietta    NY              14586      1,300       $32,305.00
 Group               Vegetable
                     Box
Jehovah Witness     Fresh Fruit/   North East     Newburgh     NY              12550     14,880      $358,848.00
 Group               Vegetable
                     Box
Jehovah Witness     Fresh Fruit/   North East     West         NY              14586      2,300       $57,155.00
 Group               Vegetable                     Henrietta
                     Box
Jehovah Witness     Fresh Fruit/   North East     Whenrietta   NY              14586     12,059      $299,666.15
 Group               Vegetable
                     Box
Jehovahs Witness    Fresh Fruit/   Western        Fairfield    CA              94533      2,772      $124,740.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Hayward      CA              94544     17,712      $739,872.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Napa         CA              94559      1,152       $51,840.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Oakland      CA              94606      1,152       $51,840.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Santa Rosa   CA              95407      2,880      $100,800.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Rancho       CA              95742      8,064      $362,880.00
 Support             Vegetable                     Cordova
 Congregation        Box
Jehovahs Witness    Fresh Fruit/   Western        Gridley      CA              95948     18,234      $687,006.00
 Support             Vegetable
 Congregation        Box
Jehovahs Witnesses  Combination    North East     Lincoln      RI              02865        223        $7,314.40
                     Box
Jehovahs Witnesses  Precooked      North East     Lincoln      RI              02865        165        $8,959.50
                     Meat Box
Jenkintown United   Fresh Fruit/   Mid-Atlantic   Jenkintown   PA              19046        360        $8,272.80
 Methodist Church    Vegetable
                     Box
Jennings            Dairy          Midwest        Brecksville  OH              44141         20          $482.00
                     Products Box
Jennings            Dairy          Midwest        Chardon      OH              44024        125        $3,012.50
                     Products Box
Jennings            Dairy          Midwest        Garfield     OH              44125        192        $4,627.20
                     Products Box                  Hts
Jennings            Dairy          Midwest        Shaker       OH              44120         14          $337.40
                     Products Box                  Heights
Jennings            Fresh Fruit/   Midwest        Brecksville  OH              44141         46        $1,219.00
                     Vegetable
                     Box
Jennings            Fresh Fruit/   Midwest        Chardon      OH              44024        287        $7,605.50
                     Vegetable
                     Box
Jennings            Fresh Fruit/   Midwest        Garfield     OH              44125        529       $14,018.50
                     Vegetable                     Hts
                     Box
Jennings            Fresh Fruit/   Midwest        Shaker       OH              44120         41        $1,086.50
                     Vegetable                     Heights
                     Box
Jennings/STL Food   Fresh Fruit/   Mountain       Jennings     MO              63136      1,260       $40,320.00
 Bank                Vegetable      Plains
                     Box
Jeruselam Temple    Fresh Fruit/   South East     Philadelphi  MS              39350        200       $12,000.00
 Inc.                Vegetable                     a
                     Box
Jesus Baptist       Fresh Fruit/   Western        Aiea         HI              96701        200        $7,200.00
 Hawaii Church       Vegetable
                     Box
Jesus Christ        Fluid Milk     Midwest        Chicago      IL              60629        360        $1,195.20
Jesus Christ        Fresh Fruit/   Midwest        Chicago      IL              60629        378       $13,600.44
                     Vegetable
                     Box
Jesus Christ        Precooked      Midwest        Chicago      IL              60629        288       $23,362.56
                     Meat Box
Jesus Christ Box    Dairy          Midwest        Chicago      IL              60629        150        $3,750.00
                     Products Box
Jesus Christ Box    Dairy          Midwest        Chicago      IL              60629        150        $3,750.00
                     Products Box
Jesus Christ Food   Fluid Milk     Midwest        Chicago      IL              60629        180          $597.60
 Pantry
Jesus El Rey        Fresh Fruit/   South East     Greenville   SC              29615        336       $10,080.00
                     Vegetable
                     Box
Jesus Focus         Fluid Milk     Mid-Atlantic   Southampton  PA              18966         35        $1,134.00
 Ministry
Jesus House Odessa  Fresh Fruit/   South West     Odessa       TX              79761      1,536       $26,096.64
                     Vegetable
                     Box
JEVS Human          Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19114        490        $9,800.00
 Services            Vegetable                     a
                     Box
Jewel Foundati.     Fluid Milk     South West     Colleyville  TX              76034        180          $577.80
Jewish Family       Fresh Fruit/   South East     Durham       NC              27705        123        $1,903.00
 Federation          Vegetable
                     Box
Jewish Family       Fresh Fruit/   Midwest        Beachwood    OH              44122        256        $4,992.00
 Service             Vegetable
                     Box
Jewish Family       Fresh Fruit/   Mid-Atlantic   Elizabeth    NJ              07208        252        $4,775.40
 Service Central     Vegetable
 NJ                  Box
Jewish Family       Dairy          Mountain       Kansas City  MO              64110        120        $5,491.20
 Services            Products Box   Plains
Jewish Family       Fresh Fruit/   Mountain       Kansas City  MO              64110        815       $11,668.90
 Services            Vegetable      Plains
                     Box
Jewish Relief       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19154        200        $4,000.00
 Agency              Vegetable                     a
                     Box
Jim Wells Co. Vets  Fresh Fruit/   South West     Alice        TX              78332        500       $12,500.00
                     Vegetable
                     Box
Jireh Food Pantry   Combination    Midwest        Chicago      IL              60623         90        $6,046.20
                     Box
Joco Corinth        Fresh Fruit/   South East     Zebulon      NC              27597        100        $1,150.00
 Holders Es.         Vegetable
                     Box
John 3 16 Center    Fresh Fruit/   South East     Littleton    NC              27850         58        $2,071.18
                     Vegetable
                     Box
John 3:16 Mission   Dairy          South West     Tulsa        OK              74106      1,056       $48,322.56
                     Products Box
John 3:16 Mission   Fresh Fruit/   South West     Tulsa        OK              74106      3,086       $80,429.80
                     Vegetable
                     Box
John Baldwin Elem.  Fresh Fruit/   Western        Danville     CA              94506        154        $4,147.22
                     Vegetable
                     Box
John Buck Memorial  Fresh Fruit/   Mid-Atlantic   Orangeville  PA              17859        200        $5,000.00
 Community Food      Vegetable
 Bank                Box
John L. Food Depot  Fresh Fruit/   South West     Houston      TX              77029      1,728       $29,358.72
                     Vegetable
                     Box
John Ruhrah         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224      1,050       $21,000.00
 Elementary/Middle   Vegetable
 Schoo               Box
John Young          Precooked      South East     Orlando      FL              32837        554       $20,690.30
 Elementary          Meat Box
Johnson Park        Dairy          North East     Utica        NY              13501        495       $24,502.50
 Center              Products Box
Johnson Park        Precooked      North East     Utica        NY              13501        405       $30,375.00
 Center              Meat Box
Joint Council for   Dairy          North East     Plattsburgh  NY              12901      3,850       $92,400.00
 Economic            Products Box
 Opportunity
Joint Council for   Fluid Milk     North East     Plattsburgh  NY              12901      2,501       $77,480.98
 Economic
 Opportunity
Joint Council for   Fresh Fruit/   North East     Plattsburgh  NY              12901      3,050       $61,000.00
 Economic            Vegetable
 Opportunity         Box
Joliet Junior       Dairy          Midwest        Joliet       IL              60436      2,000       $59,500.00
 College             Products Box
Joliet Junior       Fresh Fruit/   Midwest        Joliet       IL              60436      1,728       $47,520.00
 College             Vegetable
                     Box
Jones Fork Elem     Fluid Milk     South East     Mousie       KY              41839        591        $2,239.89
Jones Grove         Fresh Fruit/   South East     Hillsboroug  NC              27278        200        $2,300.00
                     Vegetable                     h
                     Box
Jones Memorial UMC  Fluid Milk     South West     Houston      TX              77047        800        $2,336.00
Jones Tabernacle    Fluid Milk     Midwest        Indianapoli  IN              46202      1,200        $3,984.00
                                                   s
Jonny Cake Center   Fresh Fruit/   North East     Westerly     RI              02891         28          $504.00
 of Westerly         Vegetable
                     Box
Joplin Family       Combination    Mountain       Joplin       MO              64801      1,248       $43,642.56
 Church              Box            Plains
Joplin Family       Dairy          Mountain       Joplin       MO              64801        768       $35,143.68
 Church              Products Box   Plains
Joplin Family       Fluid Milk     Mountain       Joplin       MO              64801        990       $23,700.60
 Church                             Plains
Joplin Family       Fresh Fruit/   Mountain       Joplin       MO              64801      3,024       $53,705.40
 Church              Vegetable      Plains
                     Box
Joplin Schools      Fresh Fruit/   Mountain       Joplin       MO              64801      7,920      $205,128.00
                     Vegetable      Plains
                     Box
Jordan Baptist      Fresh Fruit/   Midwest        Detroit      MI              48215        100        $2,875.00
 Church              Vegetable
                     Box
Jordan Downs        Fresh Fruit/   Western        Los Angeles  CA              90002        800       $20,000.00
                     Vegetable
                     Box
Jordan High School  Fresh Fruit/   South East     Columbus     GA              31904        700       $13,258.00
                     Vegetable
                     Box
Jordan HS/OC Food   Fresh Fruit/   Western        Long Beach   CA              90805      1,200       $30,000.00
 Bank                Vegetable
                     Box
Joseph Provisions   Fresh Fruit/   South East     Greenville   NC              27834        288       $10,284.48
                     Vegetable
                     Box
Josephine Cty.      Combination    Western        Grants Pass  OR              97526      1,620       $56,700.00
 Food Bank           Box
Josephine Cty.      Dairy          Western        Grants Pass  OR              97526        900       $27,000.00
 Food Bank           Products Box
Josephine Cty.      Fresh Fruit/   Western        Grants Pass  OR              97526      1,200       $32,400.00
 Food Bank           Vegetable
                     Box
Josephs Storehouse  Fluid Milk     Western        Riverside    CA              92501      4,224       $42,197.76
 Food Bank
Joseph's            Dairy          Western        Norco        CA              92860    140,000    $4,090,800.00
 Storehouse Food     Products Box
 Bank
Joshua's Heart      Fresh Fruit/   South East     North Miami  FL              33162      1,600       $40,000.00
                     Vegetable                     Beach
                     Box
Joshuas Heart Ptry  Fluid Milk     South East     N Miami      FL              33162      1,728        $6,549.12
                                                   Beach
Josie's Angels      Fresh Fruit/   Mid-Atlantic   East Orange  NJ              07018        730       $14,600.00
                     Vegetable
                     Box
Journey Church      Dairy          Midwest        Kenosha      WI              53142         90        $2,184.30
                     Products Box
Journey Church      Fresh Fruit/   Midwest        Kenosha      WI              53142        518       $11,610.90
                     Vegetable
                     Box
Journey Church      Fresh Fruit/   Mountain       Lees Summit  MO              64082        680       $17,612.00
                     Vegetable      Plains
                     Box
Journey Church      Precooked      Midwest        Kenosha      WI              53142      1,568       $49,968.34
                     Meat Box
Journey Life        Dairy          Midwest        Crestline    OH              44827        200        $5,000.00
 Center              Products Box
Joy Mission Center  Fluid Milk     South West     Houston      TX              77012        300          $876.00
Joy Soup Kitchen    Fresh Fruit/   South East     Greenville   NC              27834        150        $5,356.50
                     Vegetable
                     Box
Joy Tabernacle      Fresh Fruit/   Midwest        Flint        MI              48504        200        $5,750.00
                     Vegetable
                     Box
JPS Operations      Fresh Fruit/   Midwest        Jackson      MI              49202      3,150      $113,337.00
 Center              Vegetable
                     Box
Juan Cesar Cordero  Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Davila              Box
Jubilee Baptist     Fresh Fruit/   South East     Taylors      SC              29687        560       $16,800.00
 Church              Vegetable
                     Box
Jubilee Family      Fresh Fruit/   South West     Batesville   AR              72501      3,276       $90,090.00
 Church              Vegetable
                     Box
Jubilee             Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15239        720       $21,600.00
 International       Vegetable
 Ministries          Box
Jubilee Park and    Combination    South West     Dallas       TX              75223        500       $17,485.00
 Community Center    Box
Jubilee Park and    Dairy          South West     Dallas       TX              75223      1,700       $77,792.00
 Community Center    Products Box
Jubilee Park and    Fresh Fruit/   South West     Dallas       TX              75223      2,552       $36,912.48
 Community Center    Vegetable
                     Box
Jubilee Reach       Combination    Western        Bellevue     WA              98009        470       $16,450.00
 Center              Box
Jubilee Reach       Dairy          Western        Bellevue     WA              98009        299        $8,970.00
 Center              Products Box
Jubilee Reach       Fresh Fruit/   Western        Bellevue     WA              98009        570       $15,390.00
 Center              Vegetable
                     Box
Judah Ministries    Fresh Fruit/   Mid-Atlantic   Mckeesport   PA              15232        480       $14,400.00
                     Vegetable
                     Box
Juntos              Fluid Milk     Mid-Atlantic   Philadelphi  PA              19147        166        $4,161.12
                                                   a
Juntos              Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19147        800       $16,000.00
                     Vegetable                     a
                     Box
Jurupa Unified      Fresh Fruit/   Western        Jurupa       CA              92509      1,920       $48,000.00
 Tssc                Vegetable                     Valley
                     Box
Jurupa Valley       Fresh Fruit/   Western        Jurupa       CA              92509        400       $11,600.00
 Unified School      Vegetable                     Valley
 District Parent     Box
 Ctr.
Just Food           Fresh Fruit/   Mountain       Lawrence     KS              66044      2,750       $49,500.00
                     Vegetable      Plains
                     Box
Just Food           Fresh Fruit/   Mountain       Lawrence     KS              66046        850       $15,300.00
                     Vegetable      Plains
                     Box
Just for Him        Fluid Milk     Midwest        Osgood       IN              47037     20,736       $82,944.00
 Ministries
Just One More       Combination    Midwest        Glendale     WI              53212      7,522      $329,600.64
 Ministry            Box
Just One More       Fresh Fruit/   Midwest        Glendale     WI              53212      2,940       $86,759.40
 Ministry            Vegetable
                     Box
Justice Village     Dairy          Midwest        Justice      IL              60458        200        $5,000.00
 Hall Box            Products Box
Justice Village     Precooked      Midwest        Justice      IL              60458        216       $17,521.92
 Hall Lyons          Meat Box
 Township
JW Cong. Support    Fresh Fruit/   South East     Salisbury    NC              28146      4,800       $55,200.00
 Inc.                Vegetable
                     Box
JW Congreation      Fluid Milk     Western        Kahului      HI              96732      2,531       $10,579.58
 Maui
JW Congregation     Fluid Milk     South East     Plant City   FL              33563        208          $788.32
JW Congregation     Fresh Fruit/   South East     Plant City   FL              33563      3,072       $67,584.00
                     Vegetable
                     Box
JW Congregation     Fluid Milk     Western        Lihue        HI              96766      1,354        $5,659.72
 Kauai
JW Congregation     Fresh Fruit/   North East     Wallkill     NY              12589      6,240      $166,400.00
 New York            Vegetable
                     Box
JW Congregation     Fluid Milk     Western        Honolulu     HI              96819      2,112        $8,828.16
 Oahu
JW Congregation     Fluid Milk     South East     West Palm    FL              33401        460        $1,743.40
 Support                                           Beach
JW Congregation     Fresh Fruit/   Midwest        Janesville   WI              53546      6,610      $206,971.80
 Support             Vegetable
                     Box
JW Congregation     Fresh Fruit/   South East     West Palm    FL              33401      5,040      $163,800.00
 Support             Vegetable                     Beach
                     Box
JW Congregation     Fresh Fruit/   Midwest        Holt         MI              48842        500       $12,000.00
 Support             Vegetable
                     Box
JW Congregation     Precooked      Mid-Atlantic   Blackwood    NJ              08012      1,440       $89,064.00
 Support             Meat Box
JW Congregation     Precooked      North East     Newburgh     NY              12550      2,542       $93,139.32
 Support             Meat Box
JW Congregation     Fresh Fruit/   North East     West         NY              14586      8,600      $196,510.00
 Support             Vegetable                     Henrietta
                     Box
JW Congregational   Fresh Fruit/   North East     Natick       MA              01760      3,360       $73,752.00
 Support             Vegetable
                     Box
JW Congregational   Precooked      North East     Natick       MA              01760        897       $31,538.52
 Support             Meat Box
JW Mira Loma        Fresh Fruit/   Western        Mira Loma    CA              91752     49,040    $1,226,000.00
 Assembly            Vegetable
                     Box
JWC LLC             Precooked      South West     Krum         TX              76249      1,568      $161,739.20
                     Meat Box
JWCS                Fluid Milk     South East     Daytona      FL              32124        408        $1,546.32
                                                   Beach
JWCS                Fluid Milk     South East     Port St.     FL              34986        184          $697.36
                                                   Lucie
JWCS                Fresh Fruit/   Mountain       Centennial   Co              80016      9,310      $142,033.36
                     Vegetable      Plains
                     Box
JWCS                Fresh Fruit/   Western        Mira Loma    CA              91752      2,016       $84,672.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Exeter       CA              93221      1,728       $72,576.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Bakersfield  CA              93307      1,872       $65,520.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Fowler       CA              93625      1,872       $84,240.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Medera       CA              93637      2,588      $104,692.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        San          CA              94112      2,000       $84,000.00
                     Vegetable                     Francisco
                     Box
JWCS                Fresh Fruit/   Western        Emeryville   CA              94608      1,296       $54,432.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Petaluma     CA              94952      2,304       $80,640.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        San Jose     CA              95112     10,368      $426,240.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Santa Rosa   CA              95403      2,626       $91,910.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Santa Rosa   CA              95407     13,061      $487,468.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Fairfield    CA              94533     10,080      $407,232.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Ukiah        CA              95470      2,880      $110,592.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Rancho       CA              95742     21,744      $893,376.00
                     Vegetable                     Cordova
                     Box
JWCS                Fresh Fruit/   Western        Gerber       CA              95948      1,872       $59,904.00
                     Vegetable
                     Box
JWCS                Fresh Fruit/   Western        Reno         Nv              89433      2,016       $70,560.00
                     Vegetable
                     Box
JWCS Clearwater     Fluid Milk     South East     Clearwater   FL              33762        104          $394.16
JWCS Jacksonville   Fluid Milk     South East     Jacksonvill  FL              32225        208          $809.12
                                                   e
JWCS LLC            Precooked      South West     Sallisaw     OK              74955      1,536      $158,438.40
                     Meat Box
JWCS LLC Denton     Fresh Fruit/   South West     Krum         TX              76249     15,504      $263,412.96
                     Vegetable
                     Box
JWCS LLC Houston    Fresh Fruit/   South West     Alvarado     TX              76009      1,600       $40,000.00
                     Vegetable
                     Box
JWCS LLC Houston    Fresh Fruit/   South West     Houston      TX              77066     29,496      $570,663.84
                     Vegetable
                     Box
JWCS LLC Houston    Fresh Fruit/   South West     San Antonio  TX              78202      8,000      $200,000.00
                     Vegetable
                     Box
JWCS LLC Houston    Precooked      South West     Alvarado     TX              76009      6,531      $673,672.65
                     Meat Box
JWCS LLC LA Feria   Fresh Fruit/   South West     LA Feria     TX              78559      1,560       $39,000.00
 Assembly Hall       Vegetable
                     Box
JWCS--Orangeburg    Fresh Fruit/   South East     Orangeburg   SC              29115      2,400       $27,600.00
                     Vegetable
                     Box
JWCS San Antonio    Fresh Fruit/   South West     San Antonio  TX              78208      1,560       $39,000.00
                     Vegetable
                     Box
JWCS West Sandy     Fresh Fruit/   South West     West Sandy   Ut              84070      3,580       $89,500.00
 Utah                Vegetable
                     Box
Ka Hale Pono        Fresh Fruit/   Western        Anahola      HI              96703        715       $27,885.00
                     Vegetable
                     Box
Kair                Dairy          Midwest        Kalkaska     MI              49646         60        $1,740.00
                     Products Box
Kair                Fresh Fruit/   Midwest        Kalkaska     MI              49646        190        $3,952.50
                     Vegetable
                     Box
Kaiser Foundation   Fresh Fruit/   Western        Honolulu     HI              96819      1,850       $66,600.00
 Hospitals           Vegetable
                     Box
Kaiser Foundation   Precooked      Western        Honolulu     HI              96819      1,516       $60,640.00
 Hospitals           Meat Box
Kalamazoo County    Dairy          Midwest        Kalamazoo    MI              49001      7,717      $194,225.00
 Loaves & Fishes     Products Box
Kalamazoo County    Fresh Fruit/   Midwest        Kalamazoo    MI              49001      1,511       $79,451.91
 Loaves & Fishes     Vegetable
                     Box
Kalamazoo County    Fresh Fruit/   Midwest        Lincoln      MI              48146        750       $21,562.50
 Loaves & Fishes     Vegetable                     Park
                     Box
Kalamazoo Gospel    Dairy          Midwest        Kalamazoo    MI              49007        100        $2,900.00
 Mission             Products Box
Kalamazoo Gospel    Fresh Fruit/   Midwest        Kalamazoo    MI              49007        450        $9,287.50
 Mission             Vegetable
                     Box
Kalihi Union        Fresh Fruit/   Western        Honolulu     HI              96819        500       $18,000.00
 Church              Vegetable
                     Box
Kalkaska Comm. on   Dairy          Midwest        Kalkaska     MI              49646        192        $4,800.00
 Aging               Products Box
Kalkska Area Infth  Dairy          Midwest        Kalkaska     MI              49646         96        $2,400.00
 Resr                Products Box
Kanaka Charter      Fresh Fruit/   Western        Kekaha       HI              96752        800       $31,200.00
 School              Vegetable
                     Box
Kanbes Market       Combination    Mountain       Kansas City  MO              64111        360       $12,589.20
                     Box            Plains
Kanbes Market       Dairy          Mountain       Kansas City  MO              64111      1,492       $68,273.92
                     Products Box   Plains
Kanbes Market       Fresh Fruit/   Mountain       Kansas City  MO              64111     20,552      $366,471.40
                     Vegetable      Plains
                     Box
Kanbes Market       Fresh Fruit/   Mountain       Kansas City  MO              64144      1,000       $18,000.00
                     Vegetable      Plains
                     Box
Kansas City Dream   Combination    Mountain       Kansas City  KS              66102        600       $20,982.00
 Center              Box            Plains
Kansas City Dream   Dairy          Mountain       Kansas City  KS              66102        720       $32,947.20
 Center              Products Box   Plains
Kansas City Dream   Fresh Fruit/   Mountain       Kansas City  KS              66102      2,090       $34,957.60
 Center              Vegetable      Plains
                     Box
Kansas City Royals  Fresh Fruit/   Mountain       Kansas City  MO              64108      5,000      $129,500.00
 Charity             Vegetable      Plains
                     Box
Kansas Food Bank    Dairy          Mountain       Wichita      KS              67211      1,632       $74,680.32
                     Products Box   Plains
Kansas Food Bank    Fresh Fruit/   Mountain       Wichita      KS              67211     12,899      $330,418.90
                     Vegetable      Plains
                     Box
Kansas Food Bank    Precooked      Mountain       Wichita      KS              67211      3,392       $60,343.68
                     Meat Box       Plains
Kaplan Food Bank    Fluid Milk     South West     Kaplan       LA              70548        356        $1,039.52
Kare                Fluid Milk     South East     Kershaw      SC              29067        400        $1,556.00
Karis Village       Fresh Fruit/   South East     Goulds       FL              33170         60        $1,005.00
                     Vegetable
                     Box
Katy Christian      Fluid Milk     South West     Katy         TX              77493      1,898        $5,889.58
 Ministries
Katy Christian      Fresh Fruit/   South West     Katy         TX              77493        800       $15,280.00
 Ministries          Vegetable
                     Box
Katy Youth Cricket  Combination    South West     Richmond     TX              77406        200        $6,994.00
                     Box
Kauai Ind. Food     Fluid Milk     Western        Lihue        HI              96766      3,321       $13,881.78
 Bank
Kayenta Boarding    Fluid Milk     South West     Kayenta      AZ              86033        280        $2,206.40
 School
Kayenta Boarding    Fresh Fruit/   South West     Kayenta      AZ              86033        480       $13,200.00
 School              Vegetable
                     Box
Kayenta Elementary  Fluid Milk     South West     Kayenta      AZ              86033        480        $3,782.40
Kayenta Elementary  Fresh Fruit/   South West     Kayenta      AZ              86033      1,140       $31,350.00
                     Vegetable
                     Box
KCCFP               Fresh Fruit/   Midwest        Yorkville    IL              60560      2,268       $81,602.64
                     Vegetable
                     Box
KCK Central         Fresh Fruit/   Mountain       Kansas City  KS              66102      4,600      $119,140.00
 Kitchen             Vegetable      Plains
                     Box
Ke Akua Mana        Fresh Fruit/   Western        Kapaa        HI              96746      1,300       $50,700.00
 Church              Vegetable
                     Box
Ke Kula Nui O       Fluid Milk     Western        Waimanalo    HI              96795        288        $1,203.84
 Waimanalo
Ke Kula Nui O       Fresh Fruit/   Western        Honolulu     HI              96795        120        $4,320.00
 Waimanalo           Vegetable
                     Box
Ke Kula Nui O       Fresh Fruit/   Western        Waimanalo    HI              96795        240        $8,640.00
 Waimanalo           Vegetable
                     Box
Kearney Park Fire   Dairy          South East     Flora        MS              39079        640       $17,971.20
 Dept.               Products Box
Kearney Park Fire   Precooked      South East     Flora        MS              39079        924       $37,939.44
 Dept.               Meat Box
Keel Avenue         Fresh Fruit/   South East     Colliervill  TN              38107        540       $13,230.00
 Baptisty Church--   Vegetable                     e
 C/O Mid South       Box
 Food Ba
Keene NH High       Fresh Fruit/   North East     Keene        NH              03431        896       $19,667.20
 School              Vegetable
                     Box
Keeping Families    Fresh Fruit/   South West     Dallas       TX              75203        384        $6,524.16
 Connected           Vegetable
                     Box
Kelford Mobile      Fresh Fruit/   South East     Kelford      NC              27847        220        $7,856.20
 Food Pantry         Vegetable
                     Box
Kells Park          Combination    Midwest        Chicago      IL              60624        144        $8,945.28
 Community Council   Box
Kells Park          Fluid Milk     Midwest        Chicago      IL              60624         72        $2,523.60
 Community Council
Kemper Co.          Fluid Milk     South East     Dekalb       MS              39328        360        $1,364.40
Kenai Peninsula     Fresh Fruit/   Western        Soldotna     AK              99669      1,008       $28,173.60
                     Vegetable
                     Box
Kennett Assembly    Fluid Milk     Mountain       Holcomb      MO              63852        188        $4,500.72
 of God                             Plains
Kennett Assembly    Fresh Fruit/   Mountain       Holcomb      MO              63852      1,211       $16,813.30
 of God              Vegetable      Plains
                     Box
Kenosha County      Dairy          Midwest        Burlington   WI              53105      1,620       $39,317.40
 Food Bank           Products Box
Kenosha County      Fresh Fruit/   Midwest        Burlington   WI              53105      1,198       $19,946.70
 Food Bank           Vegetable
                     Box
Kenosha County      Precooked      Midwest        Burlington   WI              53105      5,946      $247,392.15
 Food Bank           Meat Box
Kent City School    Fresh Fruit/   Midwest        Kent City    MI              49330      1,800       $35,946.00
 District            Vegetable
                     Box
Kent Covenant       Combination    Western        Kent         WA              98030        430       $15,050.00
 Church              Box
Kent Covenant       Combination    Western        Kent         WA              98031        300       $10,500.00
 Church              Box
Kent Covenant       Dairy          Western        Kent         WA              98030        450       $13,500.00
 Church              Products Box
Kent Covenant       Dairy          Western        Kent         WA              98031        250        $7,500.00
 Church              Products Box
Kent Covenant       Fresh Fruit/   Western        Kent         WA              98030        630       $17,010.00
 Church              Vegetable
                     Box
Kent Food Bank      Combination    Western        Kent         WA              98032        780       $27,300.00
                     Box
Kent Food Bank      Dairy          Western        Kent         WA              98032        350       $10,500.00
                     Products Box
Kent Food Bank      Fresh Fruit/   Western        Kent         WA              98032        620       $16,740.00
                     Vegetable
                     Box
Kent Meridian High  Combination    Western        Kent         WA              98031        760       $26,600.00
                     Box
Kent Meridian High  Dairy          Western        Kent         WA              98031        400       $12,000.00
                     Products Box
Kent Meridian High  Fresh Fruit/   Western        Kent         WA              98031        760       $20,520.00
                     Vegetable
                     Box
Kent School         Fresh Fruit/   Midwest        Grand        MI              49525         30        $1,079.40
 Service             Vegetable                     Rapids
                     Box
Kent School         Fresh Fruit/   Midwest        Grand        MI              49503      1,830       $65,843.40
 Service Network     Vegetable                     Rapids
                     Box
Kent SD             Combination    Western        Kent         WA              98030      2,880      $100,800.00
                     Box
Kent SD             Dairy          Western        Kent         WA              98030      2,600       $78,000.00
                     Products Box
Kent SD             Fresh Fruit/   Western        Kent         WA              98030      2,460       $66,420.00
                     Vegetable
                     Box
Kent United         Combination    Western        Kent         WA              98042         61        $2,135.00
 Methodist Ch.       Box
Kent United         Dairy          Western        Kent         WA              98042          1           $30.00
 Methodist Ch.       Products Box
Kent United         Fresh Fruit/   Western        Kent         WA              98042         61        $1,647.00
 Methodist Ch.       Vegetable
                     Box
Kent Youth Family   Fresh Fruit/   Western        Kent         WA              98032        200        $5,400.00
 Srvs                Vegetable
                     Box
Kentridge High      Combination    Western        Kent         WA              98031        760       $26,600.00
                     Box
Kentridge High      Dairy          Western        Kent         WA              98031        400       $12,000.00
                     Products Box
Kentridge High      Fresh Fruit/   Western        Kent         WA              98031        760       $20,520.00
                     Vegetable
                     Box
Kentwood Public     Dairy          Midwest        Kentwood     MI              49508      2,880       $72,000.00
 Schools             Products Box
Kentwood Public     Fresh Fruit/   Midwest        Kentwood     MI              49508      5,292      $190,406.16
 Schools             Vegetable
                     Box
Kettering High      Fresh Fruit/   Midwest        Kettering    OH              45429        148        $3,175.20
 School Backpack     Vegetable
 Prgm.               Box
Keyes Head Start    Fresh Fruit/   Western        Keyes        CA              95328        154        $4,147.22
                     Vegetable
                     Box
Keystone            Precooked      Mid-Atlantic   Souderton    PA              18964         95        $1,710.00
 Opportunity         Meat Box
 Center
Keystone            Dairy          Mid-Atlantic   Souderton    PA              18964        260        $8,772.40
 Opportunity         Products Box
 Council
Keystone            Fresh Fruit/   Mid-Atlantic   Souderton    PA              18964         72        $1,654.56
 Opportunity         Vegetable
 Council             Box
Keystone Rescue     Fresh Fruit/   Mid-Atlantic   Scranton     PA              18508        240        $6,000.00
 Mission Alliance    Vegetable
 Inc. (Scranton)     Box
Keystone Rescue     Fresh Fruit/   Mid-Atlantic   Topton       PA              19562        400       $10,000.00
 Mission Alliance    Vegetable
 Inc. (Wilkes[-      Box
 B]arre)
Keystone Rescue     Fresh Fruit/   Mid-Atlantic   Wilkes       PA              18702      1,000       $25,000.00
 Mission Alliance    Vegetable                     Barre
 Inc. (Wilkes[-      Box
 B]arre)
Khalsa Care         Fresh Fruit/   Western        Pacoima      CA              91331      2,500       $61,875.00
 Foundation          Vegetable
                     Box
Kickapoo Tribe in   Combination    Mountain       Horton       KS              66439        720       $25,178.40
 Kansas              Box            Plains
Kickapoo Tribe in   Fresh Fruit/   Mountain       Horton       KS              66439        540       $12,582.00
 Kansas              Vegetable      Plains
                     Box
Kid Friendly--C/O   Fresh Fruit/   South East     Memphis      TN              38109        594       $14,553.00
 Mid South Food      Vegetable
 Bank                Box
Kids & Community    Fresh Fruit/   Midwest        Dayton       OH              45405         75        $1,782.00
 Partners            Vegetable
                     Box
Kids & Community    Precooked      Midwest        Dayton       OH              45405        150        $4,857.20
 Partners            Meat Box
Kids Kupboard       Fresh Fruit/   Western        Wasilla      AK              99654      2,806       $78,427.70
                     Vegetable
                     Box
Kids Meal Inc.      Fluid Milk     South West     Houston      TX              77018        400        $1,284.00
Kids Rock           Combination    Mountain       Smithville   MO              64112      1,600       $55,952.00
                     Box            Plains
Kids Rock           Dairy          Mountain       Smithville   MO              64112        720       $32,947.20
                     Products Box   Plains
Kids Rock           Fresh Fruit/   Mountain       Smithville   MO              64112      1,368       $23,979.60
                     Vegetable      Plains
                     Box
Kids Unlimited      Fresh Fruit/   Western        Medford      OR              97501      3,040      $117,800.00
 School              Vegetable
                     Box
Kiest Park          Fresh Fruit/   South West     Dallas       TX              75224      2,576       $40,686.24
 Christian Academy   Vegetable
                     Box
Kikstart            Fresh Fruit/   South East     Hueytown     AL              35023      1,700       $47,600.00
                     Vegetable
                     Box
Kimberly Church of  Combination    Western        Kimberly     ID              83341        182        $8,008.00
 Nazarene            Box
Kimberly Church of  Fresh Fruit/   Western        Kimberly     ID              83341        182        $4,732.00
 Nazarene            Vegetable
                     Box
King Jesus          Fluid Milk     South East     Miami        FL              33186     15,608       $59,154.32
 Ministry
King Jesus          Fresh Fruit/   South East     Miami        FL              33186      3,024       $74,088.00
 Ministry            Vegetable
                     Box
King of Glory       Fresh Fruit/   Midwest        Chicago      IL              60617        189        $6,800.22
                     Vegetable
                     Box
King of Glory       Fresh Fruit/   South West     Dallas       TX              75227         75        $1,274.25
                     Vegetable
                     Box
King of Glory       Precooked      Midwest        Chicago      IL              60617        288       $23,362.56
                     Meat Box
Kingdom--Acts Full  Fresh Fruit/   Western        Oakland      CA              94621      2,100       $44,700.00
 Gospel              Vegetable
                     Box
Kingdom--Arsola's   Fresh Fruit/   Western        Oakland      CA              94621      1,000       $21,600.00
 House               Vegetable
                     Box
Kingdom--Bay        Fresh Fruit/   Western        Oakland      CA              94621        685       $14,342.50
 Community Fell      Vegetable
                     Box
Kingdom--City of    Fresh Fruit/   Western        Oakland      CA              94621        300        $6,450.00
 Refuge              Vegetable
                     Box
Kingdom--Dream      Fresh Fruit/   Western        Oakland      CA              94601        100        $2,050.00
 Center Oak          Vegetable
                     Box
Kingdom--Faith      Fresh Fruit/   Western        Oakland      CA              94605        500       $10,250.00
 Baptist Church      Vegetable
                     Box
Kingdom--Friendshi  Fresh Fruit/   Western        Oakland      CA              94607        300        $6,300.00
 p Chrisitan         Vegetable
                     Box
Kingdom--Glad       Fresh Fruit/   Western        Hayward      CA              94544        750       $15,000.00
 Tidings             Vegetable
                     Box
Kingdom--Greater    Fresh Fruit/   Western        Oakland      CA              94607        600       $12,850.00
 St. John            Vegetable
                     Box
Kingdom--Greater    Fresh Fruit/   Western        Oakland      CA              94612        500       $10,000.00
 St. Paul            Vegetable
                     Box
Kingdom--Mt. Zion   Fresh Fruit/   Western        Oakland      CA              94607        750       $15,375.00
                     Vegetable
                     Box
Kingdom--Taylor     Fresh Fruit/   Western        Oakland      CA              94607        950       $19,475.00
 Memorial            Vegetable
                     Box
Kingdom--Word       Fresh Fruit/   Western        Oakland      CA              94606        450        $9,500.00
 Assembly @Palace    Vegetable
                     Box
Kingdom Builders    Combination    Midwest        Racine       WI              53404      2,940      $127,110.90
                     Box
Kingdom Builders    Fresh Fruit/   Midwest        Chicago      IL              60636        252        $9,066.96
                     Vegetable
                     Box
Kingdom Builders    Fresh Fruit/   Midwest        Racine       WI              53404      1,470       $43,379.70
                     Vegetable
                     Box
Kingdom Builders    Fresh Fruit/   Western        Oakland      CA              94601        935       $19,897.50
                     Vegetable
                     Box
Kingdom Builders    Precooked      Midwest        Chicago      IL              60636         72        $5,840.64
                     Meat Box
Kingdom Builders    Precooked      Midwest        Chicago      IL              60636        144       $11,681.28
                     Meat Box
Kingdom Bus.        Precooked      South East     Jackson      MS              39212        924       $37,939.44
 Apostolic           Meat Box
Kingdom Celeb.      Fresh Fruit/   Mid-Atlantic   Severn       MD              21144        185        $3,875.75
 Severn              Vegetable
                     Box
Kingdom             Fresh Fruit/   Mid-Atlantic   Odenton      MD              21113        500       $10,475.00
 Celebration         Vegetable
 Church              Box
Kingdom             Fresh Fruit/   Mid-Atlantic   Windsor      MD              21244        500       $14,000.00
 Deliverance         Vegetable                     Mill
                     Box
Kingdom Gathering   Combination    Western        Kent         WA              98030        451       $15,785.00
 Church              Box
Kingdom Gathering   Dairy          Western        Kent         WA              98030        365       $10,950.00
 Church              Products Box
Kingdom Gathering   Fresh Fruit/   Western        Kent         WA              98030        368        $9,936.00
 Church              Vegetable
                     Box
Kingdom Hall of     Fresh Fruit/   Western        Kapaa        HI              96746        271       $10,569.00
 Jehovas Witnesses   Vegetable
                     Box
Kingdom Life        Fluid Milk     Mid-Atlantic   Philadelphi  PA              19135        210        $6,804.00
 Christian Center                                  a
Kingdom Mana        Dairy          Midwest        Racine       WI              53405     14,475      $351,308.25
                     Products Box
Kingdom Mana        Fresh Fruit/   Midwest        Racine       WI              53405     19,698      $431,635.50
                     Vegetable
                     Box
Kingdom Mana        Precooked      Midwest        Racine       WI              53405     22,019      $846,160.50
                     Meat Box
Kings               Fresh Fruit/   Mid-Atlantic   Silver       MD              20904        150        $4,200.00
 International       Vegetable                     Spring
                     Box
Kingsley Schools    Dairy          Midwest        Kingsley     MI              49649        239        $5,975.00
                     Products Box
Kingsley Schools    Fresh Fruit/   Midwest        Kingsley     MI              49649        462       $16,622.76
                     Vegetable
                     Box
Kingston Community  Dairy          Midwest        Kingston     MI              48741        676       $17,300.00
 Schools             Products Box
Kingston Community  Fresh Fruit/   Midwest        Kingston     MI              48741        920       $19,627.50
 Schools             Vegetable
                     Box
Kingsview Free      Dairy          South West     Oklahoma     OK              73170      1,440       $65,894.40
 Will Baptist        Products Box                  City
Kingsview Free      Fluid Milk     South West     Oklahoma     OK              73170      2,850       $68,229.00
 Will Baptist                                      City
Kingsview Free      Fresh Fruit/   South West     Oklahoma     OK              73170      4,241       $78,073.90
 Will Baptist        Vegetable                     City
                     Box
Kingsville High     Fresh Fruit/   South West     Kingsville   TX              78363        500       $12,500.00
 School C.I.S.       Vegetable
                     Box
Kingsville Isd.     Fresh Fruit/   South West     Kingsville   TX              78363        500       $12,500.00
 C.I.S. of the       Vegetable
 Coastal Bend        Box
Kipp Schools        Fresh Fruit/   North East     Bronx        NY              10451      2,012       $80,459.88
                     Vegetable
                     Box
Kipp Victory        Fresh Fruit/   Mountain       St. Louis    MO              63104        100        $2,590.00
 Academy             Vegetable      Plains
                     Box
Kipp Victory        Fresh Fruit/   Mountain       St. Louis    MO              63112        800       $20,720.00
 Academy             Vegetable      Plains
                     Box
Kipp Wisdom         Fresh Fruit/   Mountain       St. Louis    MO              63104        900       $23,310.00
 Academy             Vegetable      Plains
                     Box
Kipp--Inspire       Fresh Fruit/   Mountain       St. Louis    MO              63106         80        $2,072.00
                     Vegetable      Plains
                     Box
Kirbyville R-VI     Fresh Fruit/   Mountain       Kirbyville   MO              65679        400       $10,360.00
 School District     Vegetable      Plains
                     Box
Kirkwood/Nipher     Fresh Fruit/   Mountain       Kirkwood     MO              63122        288        $9,216.00
 Middle              Vegetable      Plains
                     Box
Kiwanis Club        Fresh Fruit/   Midwest        Clinton      MI              48038        525       $15,093.75
                     Vegetable                     Township
                     Box
Kiwanis Club of     Fresh Fruit/   Midwest        Clinton      MI              48038        225        $6,468.75
 Clinton Township    Vegetable                     Township
                     Box
Klamath Falls       Fresh Fruit/   Western        Klamath      OR              97601      3,840      $180,480.00
 Gospel Mission      Vegetable                     Falls
                     Box
Klamath Lake Cts.   Combination    Western        Medford      OR              97501        480       $16,800.00
 Food Bank           Box
Klein Collins       Fresh Fruit/   South West     Spring       TX              77388     10,368      $176,152.32
                     Vegetable
                     Box
Kleinlife           Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19116        350        $7,000.00
 Northeast           Vegetable                     a
 Philadelphia        Box
KNC Grocery Give    Dairy          Mid-Atlantic   Front Royal  VA              22630        800       $15,000.00
 Away                Products Box
Knead Community     Fresh Fruit/   Mid-Atlantic   New          PA              15068        480       $14,400.00
 Cafe                Vegetable                     Kensington
                     Box
Knights of          Fresh Fruit/   Midwest        Lakeport     MI              48059        500       $14,375.00
 Colombus            Vegetable
                     Box
Knights of          Fluid Milk     Midwest        Avon Lake    OH              44012        900        $2,988.00
 Columbus
Knott Co. Central   Fluid Milk     South East     Hindman      KY              41822        796        $3,016.84
Knowledgequest--C/  Fresh Fruit/   South East     Memphis      TN              38106        540       $13,230.00
 O Mid South Food    Vegetable
 Bank                Box
Knox Area Rescue    Fluid Milk     South East     Knoxville    TN              37917        392        $1,525.68
 MI
Knox Community      Fresh Fruit/   Midwest        Mount        OH              43050         24          $513.36
 Hospital            Vegetable                     Vernon
                     Box
Knox Community      Precooked      Midwest        Mount        OH              43050         12          $531.64
 Hospital            Meat Box                      Vernon
Koinonia Christian  Fresh Fruit/   South East     Greenville   NC              27834        144        $5,142.24
 Center              Vegetable
                     Box
Koinonia Christian  Fresh Fruit/   South West     Arlington    TX              76018      2,480       $42,135.20
 Church              Vegetable
                     Box
Koinonia Ministry   Combination    Midwest        Chicago      IL              60620        127        $8,531.86
                     Box
Koinonia Ministry   Precooked      Midwest        Chicago      IL              60636        360       $29,203.20
                     Meat Box
Korean American     Combination    Midwest        Chicago      IL              60625        100        $6,212.00
 Senior Center       Box
Korean American     Fluid Milk     Midwest        Chicago      IL              60625        100        $3,505.00
 Senior Center
Kosher Agudath      Fluid Milk     Midwest        Cleveland    OH              44121        750       $25,022.50
 Israel of Ohio                                    Heights
Kosher Chicago      Fluid Milk     Midwest        Lincolnwood  IL              60712        160        $5,203.20
 Chesed Fund Inc.
Kosher Cincinnati   Fluid Milk     Midwest        Cincinnati   OH              45237        380       $11,396.20
 Hebrew Day School
Kosher Milk         Fluid Milk     Midwest        Chicago      IL              60645        375       $13,143.75
 Agudath Israel
Kosher Milk         Combination    Midwest        Chicago      IL              60645        158       $10,614.44
 Agudath Israel      Box
 Devash Farms
Kosher Milk         Fluid Milk     Midwest        Chicago      IL              60645      1,313       $46,020.65
 Agudath Israel
 Devash Farms
Kosher Milk Torah   Fluid Milk     Midwest        St. Louis    MN              55416         65        $2,156.81
 Academy                                           Park
Kosher Milk Wits    Fluid Milk     Midwest        Milwaukee    WI              53210        120        $4,003.60
 Burleigh St
Kosher Milk Wits    Fluid Milk     Midwest        Milwaukee    WI              53211         75        $2,502.25
 Lake Drive
Kroc Center         Fresh Fruit/   South East     Biloxi       MS              39530        480        $8,112.00
                     Vegetable
                     Box
Kromer Branch       Fresh Fruit/   South West     Arlington    TX              76018        144        $2,446.56
                     Vegetable
                     Box
Kualoa Heeia        Fresh Fruit/   Western        Kaneohe      HI              96744        600       $21,600.00
 Ecumenical Youth    Vegetable
 Project             Box
Kukulu Kumuhana O   Fresh Fruit/   Western        Anahola      HI              96703        915       $35,685.00
 Anahola             Vegetable
                     Box
Kupu                Fresh Fruit/   Western        Honolulu     HI              96816      1,791       $64,476.00
                     Vegetable
                     Box
KVC Chanute         Fresh Fruit/   Mountain       Chanute      KS              66720        240        $4,068.00
                     Vegetable      Plains
                     Box
KVC Host at Giving  Combination    Mountain       Kansas City  KS              66102        160        $5,595.20
 Hope Pantry         Box            Plains
KVC Kansas Ottawa   Dairy          Mountain       Ottawa       KS              66067      1,320       $60,403.20
                     Products Box   Plains
KVC Kansas Ottawa   Dairy          South West     Ottawa       OK              74432        600       $27,456.00
                     Products Box
KVC Kansas Ottawa   Fresh Fruit/   Mountain       Ottawa       KS              66067      2,952       $48,218.40
                     Vegetable      Plains
                     Box
KVC Kansas Ottawa   Fresh Fruit/   South West     Ottawa       OK              74432        600       $13,980.00
                     Vegetable
                     Box
KVC KCK Olathe      Fresh Fruit/   Mountain       Olathe       KS              66061        200        $3,390.00
                     Vegetable      Plains
                     Box
KVC KCK Village     Combination    Mountain       Kansas City  KS              66102        400       $13,988.00
 West Church         Box            Plains
KVC KCK Village     Fresh Fruit/   Mountain       Kansas City  KS              66109        440        $7,458.00
 West Church         Vegetable      Plains
                     Box
KVC Olathe          Combination    Mountain       Olathe       KS              66219        480       $16,785.60
                     Box            Plains
KVC Olathe          Dairy          Mountain       Olathe       KS              66219      1,080       $49,420.80
                     Products Box   Plains
KVC Olathe          Fresh Fruit/   Mountain       Olathe       KS              66219      1,884       $32,758.80
                     Vegetable      Plains
                     Box
KVC Wichita         Dairy          Mountain       Wichita      KS              67203        600       $27,456.00
                     Products Box   Plains
KVC Wichita         Fresh Fruit/   Mountain       Wichita      KS              67203      7,362       $93,308.40
                     Vegetable      Plains
                     Box
La Casa Amiga       Fresh Fruit/   Midwest        Pontiac      MI              48341        100        $2,112.50
 Legal Clinic        Vegetable
                     Box
La Casa De San      Combination    Western        Mt. Vernon   WA              98273        180        $6,300.00
 Jose Ccs            Box
La Casa De San      Dairy          Western        Mt. Vernon   WA              98273        150        $4,500.00
 Jose Ccs            Products Box
La Casa De San      Fresh Fruit/   Western        Mt. Vernon   WA              98273        180        $4,860.00
 Jose Ccs            Vegetable
                     Box
La Casa De Todos    Combination    Mid-Atlantic   Juncos       PR              00777        168       $16,632.00
                     Box
La Cosecha Project  Fresh Fruit/   South West     Arlington    TX              76010      1,536       $26,096.64
                     Vegetable
                     Box
La Cosecha Project  Fresh Fruit/   South West     Dallas       TX              75220     10,176      $172,890.24
                     Vegetable
                     Box
La Familia          Fresh Fruit/   Western        Sacramento   CA              95824      5,574      $112,290.30
                     Vegetable
                     Box
La Feria Christian  Dairy          South West     La Feria     TX              78559        990       $28,066.50
 Center Inc.         Products Box
La Food Bank--      Combination    Western        Los Angeles  CA              90023      2,362       $92,590.40
 Family Health       Box
 Care Resources
La Food Bank--      Combination    Western        Monrovia     CA              91016      4,032      $154,944.00
 Foothill Unity      Box
 Center
La Food Bank--Hope  Combination    Western        Hermosa      CA              90254      4,896      $184,492.80
 Chapel Hermosa      Box                           Beach
 Beach
La Food Bank--Hope  Combination    Western        Los Angeles  CA              90254        864       $34,128.00
 Chapel Hermosa      Box
 Beach
La Food Bank--      Combination    Western        Santa Fe     CA              90670      4,032      $150,667.20
 Interfaith Food     Box                           Springs
 Center
La Food Bank--      Combination    Western        San Pedro    CA              90731      5,652      $218,448.00
 Justice for         Box
 Murdered Children
La Food Bank--One   Combination    Western        Reseda       CA              91335      6,584      $247,660.00
 Generation          Box
La Food Bank--the   Combination    Western        Redondo      CA              90277      2,120       $81,160.00
 Salvation Army      Box                           Beach
La Food Bank A      Combination    Western        Los Angeles  CA              90011      6,383      $241,144.30
 Place Called Home   Box
La Food Bank        Combination    Western        Los Angeles  CA              90023      3,888      $145,800.00
 Family Healthy      Box
 Care Resources
La Food Bank        Combination    Western        Los Angeles  CA              90005     10,064      $386,257.00
 Immanuel Pres       Box
La Food Bank        Combination    Western        Los Angeles  CA              90014      5,760      $221,558.40
 Midnight Mission    Box
La Food Bank        Combination    Western        La Puente    CA              91744      1,152       $42,048.00
 Servant Arms        Box
La Honda Pescadero  Fresh Fruit/   Western        Pescadero    CA              94060        509       $16,206.56
 Unified School      Vegetable
 District            Box
La Iglesia De Dios  Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
                     Box
LA LGBT Center      Dairy          Western        Los Angeles  CA              90038         50        $1,600.00
 Donations           Products Box
LA LGBT Center      Fluid Milk     Western        Los Angeles  CA              90038        432        $2,052.00
 Donations
LA LGBT Center      Fresh Fruit/   Western        Los Angeles  CA              90038        974       $24,106.50
 Donations           Vegetable
                     Box
La Nueva Puerta De  Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 San Juan            Box
La Perla De Gran    Combination    Mid-Atlantic   San Juan     PR              00921        648       $57,096.00
 Precio              Box
La Perla De Gran    Fresh Fruit/   Mid-Atlantic   San Juan     PR              00917        636       $24,804.00
 Precio San Juan     Vegetable
                     Box
LA Regional Food    Fresh Fruit/   Western        Monrovia     CA              91016      1,500       $23,625.00
 Bank                Vegetable
                     Box
LA Regional Food    Fresh Fruit/   Western        Pomona       CA              91767      4,500      $106,500.00
 Bank                Vegetable
                     Box
LA River Center     Fluid Milk     Western        Los Angeles  CA              90065      4,200       $41,958.00
LA River Center     Fluid Milk     Western        Huntington   CA              90255      4,200       $41,958.00
                                                   Park
La Roca Church      Fresh Fruit/   South West     Houston      TX              77020      1,776       $30,174.24
                     Vegetable
                     Box
La Sed Community    Dairy          Midwest        Detroit      MI              48209         50        $1,450.00
 Wellness Center     Products Box
La Sed Community    Fresh Fruit/   Midwest        Detroit      MI              48209         50        $1,100.00
 Wellness Center     Vegetable
                     Box
La Sierra Seventh   Fresh Fruit/   Western        Riverside    CA              92504        500       $14,500.00
 Day Adventist       Vegetable
 Church              Box
La Soupe            Fluid Milk     Midwest        Cincinnati   OH              45206        900        $2,988.00
La Soupe            Fresh Fruit/   Midwest        Cincinnati   OH              45206        320        $6,240.00
                     Vegetable
                     Box
La Victoria Cummun  Fluid Milk     South West     Rio Grande   TX              78582        864        $2,522.88
                                                   Cy
Lac Courte          Fresh Fruit/   Midwest        Hayward      WI              54843      2,310       $44,931.60
 Oreilles Band       Vegetable
                     Box
Lac Courte          Precooked      Midwest        Hayward      WI              54843      4,128      $158,028.42
 Oreilles Band       Meat Box
Lac Du Flambeau     Fresh Fruit/   Midwest        Lac Du       WI              54538      1,940       $38,273.40
 Band                Vegetable                     Flambeau
                     Box
Lac Du Flambeau     Precooked      Midwest        Lac Du       WI              54538      4,337      $165,994.49
 Band                Meat Box                      Flambeau
Ladies of Charity   Fluid Milk     South East     Knoxville    TN              37917      1,160        $4,532.40
Lady of Fatima      Fresh Fruit/   South West     Galena Park  TX              77547      1,024       $17,397.76
 Catholic Church     Vegetable
                     Box
Lady of Guadalupe   Fresh Fruit/   Mountain       Cool Valley  MO              63121        270        $7,425.00
                     Vegetable      Plains
                     Box
Lady of Guadalupe   Fresh Fruit/   South West     Rosenberg    TX              77471        256        $4,349.44
 Catholic Par        Vegetable
                     Box
Lafayette High      Fresh Fruit/   North East     Buffalo      NY              14213        300        $6,855.00
 School              Vegetable
                     Box
Lake Area Shared    Fluid Milk     South West     Quinlan      TX              75474        988        $2,937.16
Lake Arlington      Fresh Fruit/   South West     Arlington    TX              76016      3,008       $51,105.92
 Baptist Church      Vegetable
                     Box
Lake Cares FP/Sosa  Fluid Milk     South East     Mount Dora   FL              32757      1,856        $7,034.24
Lake Highlands      Fresh Fruit/   South West     Dallas       TX              75223      3,228       $49,548.72
 YMCA                Vegetable
                     Box
Lake Nona High      Precooked      South East     Orlando      FL              32832        552       $19,755.76
                     Meat Box
Lake Perris         Combination    Western        Perris       CA              92570      2,000       $54,500.00
 Sevnth. Day         Box
 Advent.
Lake Perris         Dairy          Western        Perris       CA              92570      2,350       $75,200.00
 Sevnth. Day         Products Box
 Advent.
Lake Perris         Fresh Fruit/   Western        Perris       CA              92570      2,300       $56,925.00
 Sevnth. Day         Vegetable
 Advent.             Box
Lake Shore Central  Fresh Fruit/   North East     Angola       NY              14006        800       $18,280.00
 Schools             Vegetable
                     Box
Lake Williamson     Fluid Milk     Midwest        Carlinville  IL              62626      8,748       $19,683.00
Lakeland            Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21230      1,050       $21,000.00
 Elementary/Middle   Vegetable
 School              Box
Lakeland Hills      Fresh Fruit/   Mid-Atlantic   Mountain     NJ              07046        693       $13,132.35
 YMCA                Vegetable                     Lakes
                     Box
Laker School        Fresh Fruit/   Midwest        Pigeon       MI              48755      1,414       $50,875.72
 District            Vegetable
                     Box
Lakeshore Church    Dairy          South West     Rockwall     TX              75032        500       $22,880.00
                     Products Box
Lakeshore           Fresh Fruit/   Mid-Atlantic   Erie         PA              16508        720       $21,600.00
 Community           Vegetable
 Services            Box
Lakeshore Food      Fresh Fruit/   Midwest        Ludington    MI              49431      3,600       $71,892.00
 Club                Vegetable
                     Box
Lakeshore Food      Precooked      Midwest        Ludington    MI              49431        567       $22,348.14
 Club                Meat Box
Lakeshore Food      Fresh Fruit/   Midwest        Ludington    MI              49431      1,000       $19,970.00
 Club Mason County   Vegetable
 Fairgrounds         Box
Lakeshore for Kids  Dairy          Midwest        Ludington    MI              49431        175        $5,075.00
                     Products Box
Lakeshore for Kids  Fresh Fruit/   Midwest        Ludington    MI              49431        475        $9,968.75
                     Vegetable
                     Box
Lakeshore           Fluid Milk     South East     Byram        MS              39272        576        $4,227.84
 Methodist Churc
Lakeshore           Precooked      South East     Byram        MS              39272        240        $9,854.40
 Methodist Churc     Meat Box
Lakeside Baptist    Dairy          South West     Canton       TX              75103        850       $38,896.00
 Church              Products Box
Lakeside Baptist    Fresh Fruit/   South West     Canton       TX              75103      1,700       $32,070.00
 Church              Vegetable
                     Box
Lakeside High       Dairy          South West     Lake         AR              71653      1,056       $48,322.56
 School COH Delta    Products Box                  Village
Lakeside United     Fresh Fruit/   South West     Streetman    TX              75659        448        $7,611.52
 Methodist Chur.     Vegetable
                     Box
Lakeside Villa      Fresh Fruit/   Midwest        Sterling     MI              48313        378       $13,600.44
                     Vegetable                     Heights
                     Box
Laketran            Dairy          Midwest        Painesville  OH              44077      1,680       $42,000.00
                     Products Box
Lakeview--Ravenswo  Precooked      Midwest        Chicago      IL              60640        720       $58,406.40
 od                  Meat Box
Lakeview--Ravenswo  Precooked      Midwest        Chicago      IL              60641        216       $17,521.92
 od                  Meat Box
Lakeview--Ravenswo  Dairy          Midwest        Chicago      IL              60640      1,085       $27,125.00
 od Box              Products Box
Lakeview--Wrigley   Fresh Fruit/   Midwest        Chicago      IL              60640        504       $18,133.92
                     Vegetable
                     Box
Lakeview--Wrigley   Precooked      Midwest        Chicago      IL              60613        504       $40,884.48
                     Meat Box
Lakeview--Wrigley   Dairy          Midwest        Chicago      IL              60613        885       $22,125.00
 Box                 Products Box
Lakeview Academy    Fresh Fruit/   South East     Milledgevil  GA              31061      5,520      $104,548.80
                     Vegetable                     le
                     Box
Lakeview Baptist    Fresh Fruit/   South East     Selmer       TN              38375        648       $15,876.00
 Churc H--C/O Mid    Vegetable
 South Food Bank     Box
Lakeview Baptist    Fluid Milk     South West     Oklahoma     OK              73105        495       $11,850.30
 Church                                            City
Lakeview Baptist    Fresh Fruit/   South West     Oklahoma     OK              73105        539       $12,558.70
 Church              Vegetable                     City
                     Box
Lakeview Center     Fresh Fruit/   South East     Pensacola    FL              32501        300        $8,700.00
 Food Box            Vegetable
                     Box
Lakeview Community  Fresh Fruit/   Midwest        Otisville    MI              48463        252        $9,066.96
 Schools             Vegetable
                     Box
Lakeview Middle     Dairy          Midwest        Battle       MI              49015        300        $8,700.00
                     Products Box                  Creek
Lakeview Middle     Fresh Fruit/   Midwest        Battle       MI              49015      1,400       $30,056.25
                     Vegetable                     Creek
                     Box
Lakeview Pantry     Combination    Midwest        Chicago      IL              60613      1,080       $25,347.60
                     Box
Lakeview Pantry     Fresh Fruit/   Midwest        Chicago      IL              60640      1,750       $47,250.00
 Ravenswood          Vegetable
                     Box
Lakeview Pantry     Fresh Fruit/   Midwest        Chicago      IL              60613      1,750       $47,250.00
 Wrigley             Vegetable
                     Box
Lakeview            Precooked      Midwest        Chicago      IL              60640        432       $35,043.84
 Ravenswood          Meat Box
Lakeview SDA        Dairy          South East     Powder       GA              30127         52        $1,716.00
 Community Food      Products Box                  Springs
 Pantry
Lakeview SDA        Fresh Fruit/   South East     Powder       GA              30127        460       $13,450.00
 Community Food      Vegetable                     Springs
 Pantry              Box
Lakeview--Wrigley   Fresh Fruit/   Midwest        Chicago      IL              60640        252        $9,066.96
                     Vegetable
                     Box
Lakeville           Fresh Fruit/   Midwest        Otisville    MI              48463        956       $34,396.88
 Community Schools   Vegetable
                     Box
Lakewood Anglican   Fluid Milk     Midwest        Lakewood     OH              44107        540        $1,792.80
Lakewood Church     Combination    South West     Houston      TX              77027      1,400       $48,958.00
                     Box
Lakewood Church     Dairy          South West     Houston      TX              77027      1,400       $64,064.00
                     Products Box
Lakewood Church     Fresh Fruit/   South West     Houston      TX              77027      3,400       $61,420.00
                     Vegetable
                     Box
Lakewood Community  Dairy          Midwest        Lakewood     OH              44107        455       $11,375.00
 Svcs. Ctr.          Products Box
Lakewood            Dairy          South East     Atlanta      GA              30315        216        $7,128.00
 Environmental       Products Box
 Arts Foundation
Lakewood            Fresh Fruit/   South East     Atlanta      GA              30315      3,280       $92,600.00
 Environmental       Vegetable
 Arts Foundation     Box
Lakewood            Fresh Fruit/   South East     Atlanta      GA              30315        630       $11,932.20
 Expressway Arts     Vegetable
                     Box
Lam Church Lincoln  Fresh Fruit/   Midwest        Warren       MI              48089      1,200       $34,500.00
 High School         Vegetable
                     Box
Lamar Clinic        Fresh Fruit/   South West     Rosenberg    TX              77471        128        $2,174.72
                     Vegetable
                     Box
Lamar Pantry        Fluid Milk     South West     Paris        TX              75460      3,628       $10,753.84
Lamb House          Dairy          Mountain       Camdenton    MO              65020        900       $22,500.00
                     Products Box   Plains
Lamb House          Fluid Milk     Mountain       Camdenton    MO              65020      3,105        $6,986.25
                                    Plains
Lamb House          Fresh Fruit/   Mountain       Camdenton    MO              65020        646       $17,765.00
                     Vegetable      Plains
                     Box
Lamphere Schools    Fresh Fruit/   Midwest        Madison      MI              48071      1,700       $35,912.50
                     Vegetable                     Heights
                     Box
Lampton St. Church  Dairy          South East     Mound Bayou  MS              38762      1,440       $36,000.00
 of Christ           Products Box
Lanakila Pacific    Fresh Fruit/   Western        Honolulu     HI              96817      2,250       $81,000.00
                     Vegetable
                     Box
Lanakila Pacific    Precooked      Western        Honolulu     HI              96817      1,150       $46,000.00
                     Meat Box
Lancaster COA       Combination    North East     Lancaster    MA              01523         30        $1,140.00
                     Box
Lancaster COA       Precooked      North East     Lancaster    MA              01523         30        $1,629.00
                     Meat Box
Lancaster Comm.     Fluid Milk     Midwest        Lancaster    OH              43130      2,024        $6,719.68
 Act
Lancaster County    Fresh Fruit/   Mid-Atlantic   Lancaster    PA              17603        630       $23,640.00
 Food Hub            Vegetable
                     Box
Landmark Church     Fresh Fruit/   Midwest        Hazel Park   MI              48030        500        $7,475.00
                     Vegetable
                     Box
Landsdowne High     Fresh Fruit/   Mid-Atlantic   Halethorpe   MD              21227        375        $7,856.25
 School              Vegetable
                     Box
Langley Park        Fresh Fruit/   Mid-Atlantic   Hyattsville  MD              20783      7,250      $145,000.00
 Community Center    Vegetable
                     Box
Langston Hughes     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215      3,980       $81,080.00
                     Vegetable
                     Box
L'anse Area         Fresh Fruit/   Midwest        L'anse       MI              49946        801       $28,819.98
 Schools             Vegetable
                     Box
Lansing Food Bank   Fresh Fruit/   Midwest        Lansing      MI              48906      1,700       $25,415.00
                     Vegetable
                     Box
Lansing Schools     Fresh Fruit/   Midwest        Lansing      MI              48911      9,468      $141,546.60
                     Vegetable
                     Box
Laredo Regional Fb  Fluid Milk     South West     Laredo       TX              78040      6,764       $19,750.88
Laredo Stepping     Fresh Fruit/   South West     Amarillo     TX              78041      1,560       $39,000.00
 Stone Amaya Gr.     Vegetable
                     Box
Laredo Stepping     Fresh Fruit/   South West     Laredo       TX              78041      9,080      $216,747.20
 Stone Amaya Gr.     Vegetable
                     Box
Las Buenas Nuevas   Fresh Fruit/   South West     Cypress      TX              77449        128        $2,174.72
 Covenanat           Vegetable
                     Box
Las Buenas Nuevas   Fresh Fruit/   South West     Houston      TX              77077        128        $2,174.72
 Covenanat           Vegetable
                     Box
Las Lajas Corp.     Combination    Mid-Atlantic   Ciales       PR              00638     11,136    $1,031,904.00
                     Box
Las Vegas Rescue    Fresh Fruit/   Western        Las Vegas    Nv              89106      4,000      $108,000.00
 Mission             Vegetable
                     Box
Lasalle Neighbors   Fresh Fruit/   Midwest        Chicago      IL              60610        126        $4,533.48
                     Vegetable
                     Box
Lased Senior        Fresh Fruit/   Midwest        Detroit      MI              48209        100        $1,495.00
 Center              Vegetable
                     Box
Lathrop Elderly     Fresh Fruit/   Midwest        Chicago      IL              60618         63        $2,266.74
 Apts.               Vegetable
                     Box
Lathrup Community   Fresh Fruit/   Midwest        Lathrup      MI              48076      1,200       $23,964.00
 Schools             Vegetable                     Village
                     Box
Lathrup Village     Fresh Fruit/   Midwest        Lathrup      MI              48076      1,200       $23,964.00
                     Vegetable
                     Box
Latin America       Fluid Milk     South West     Laredo       TX              78046      2,500        $7,300.00
 Luth.
Latin American      Dairy          South East     Atlanta      GA              30324        124        $4,092.00
 Association Inc.    Products Box
Latin American      Fresh Fruit/   South East     Atlanta      GA              30324        790       $23,100.00
 Association Inc.    Vegetable
                     Box
Latin American      Fresh Fruit/   South West     Laredo       TX              78041      1,540       $38,500.00
 Lutheran Mission    Vegetable
                     Box
Latin American      Precooked      South West     Laredo       TX              78041      3,136      $323,478.40
 Lutheran Mission    Meat Box
Latino Community    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15203        200        $6,000.00
 Center              Vegetable
                     Box
Latrobe Food Bank   Dairy          Mid-Atlantic   Latrobe      PA              15650        180        $3,785.40
                     Products Box
Latrobe Homes       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21202      1,450       $29,000.00
                     Vegetable
                     Box
Lauderdale Bapt As  Fluid Milk     South East     Marion       MS              39342        720        $2,872.80
Lauderdale Baptist  Dairy          South East     Marion       MS              39342        480       $13,478.40
 Crisis              Products Box
Lauderdale Baptist  Fresh Fruit/   South East     Marion       MS              39342        544        $9,193.60
 Crisis              Vegetable
                     Box
Lauderdale Baptist  Precooked      South East     Marion       MS              39342        168        $6,898.08
 Crisis              Meat Box
Laura Bush Es       Fresh Fruit/   South West     Houston      TX              77075        448        $7,611.52
                     Vegetable
                     Box
Lauras Home         Fluid Milk     Midwest        Cleveland    OH              44135        260          $863.20
Laveen Elementary   Fresh Fruit/   South West     Phoenix      AZ              85041        500       $13,500.00
 Cash                Vegetable
                     Box
Laveen Elementary   Fresh Fruit/   South West     Laveen       AZ              85339        500       $13,500.00
 Paseo Pointe        Vegetable
                     Box
Laveen Elementary   Fresh Fruit/   South West     Laveen       AZ              85339        500       $13,500.00
 Rogers Ranch        Vegetable
                     Box
Laveen Elementary   Fresh Fruit/   South West     Laveen       AZ              85339        500       $13,500.00
 Trailside Point     Vegetable
                     Box
Lawrence Arlington  Fresh Fruit/   North East     Lawrence     MA              01841        280        $6,146.00
 Ed Complex          Vegetable
                     Box
Lawrence County     Fresh Fruit/   Mid-Atlantic   New Castle   PA              16101        960       $28,800.00
 Comm. Actions       Vegetable
                     Box
Lawrence County     Combination    South East     Town Creek   AL              35672      1,344      $102,211.20
 Dream Center Town   Box
 Creek AL
Lawrence County     Dairy          Mid-Atlantic   New Castle   PA              16101      3,600       $52,596.00
 Social Services     Products Box
Lawrence County     Fluid Milk     Mid-Atlantic   New Castle   PA              16101     11,400       $20,406.00
 Social Services
Lawrence High       Fresh Fruit/   North East     Lawrence     MA              01843        280        $6,146.00
 School              Vegetable
                     Box
Lawrence St. Ctr.   Precooked      North East     Lawrence     MA              01840         71        $3,855.30
                     Meat Box
Lawrenceville Co-   Fluid Milk     South East     Lawrencevil  GA              30046        688        $2,607.52
 Op                                                le
LAYC-MMYC at        Fresh Fruit/   Mid-Atlantic   Riverdale    MD              20737      1,950       $39,000.00
 Center for          Vegetable
 Educational         Box
Lazos De Amor       Combination    Mid-Atlantic   Aguadilla    PR              00603        576       $49,968.00
                     Box
Lazos De Amor       Combination    Mid-Atlantic   Aguadilla    PR              00605        576       $49,968.00
                     Box
Lazos De Amor       Combination    Mid-Atlantic   Isabela      PR              00662      5,184      $449,712.00
                     Box
Lazos De Amor       Combination    Mid-Atlantic   Moca         PR              00676        576       $49,968.00
                     Box
LCAC                Fresh Fruit/   Mid-Atlantic   Lorton       VA              22079      1,000       $20,000.00
                     Vegetable
                     Box
LCF Warner Robins   Fresh Fruit/   South East     Warner       GA              31093        210        $4,200.00
 Effort              Vegetable                     Robins
                     Box
LCFB Cathedral      Fluid Milk     South East     North        SC              29418      5,556       $21,612.84
                                                   Charleston
LCFB Charleston     Fluid Milk     South East     Charleston   SC              29405     22,680       $88,333.20
LCFB Charleston     Fluid Milk     South East     North        SC              29405      5,400       $20,898.00
                                                   Charleston
LCFB E Cooper Comm  Fluid Milk     South East     Mt.          SC              29466      2,680       $10,425.20
                                                   Pleasant
LCFB Myrtle Beach   Fluid Milk     South East     Myrtle       SC              29577      3,024       $11,763.36
                                                   Beach
LCFB Seacoast WA    Fluid Milk     South East     Charleston   SC              29407        120          $466.80
LCFB Shifa Clinic   Fluid Milk     South East     Mt.          SC              29464      1,350        $5,251.50
                                                   Pleasant
LCFB Tricounty      Fluid Milk     South East     Charleston   SC              29405        900        $3,531.00
LCSA SM             Dairy          South West     Phoenix      AZ              85016        528       $13,992.00
                     Products Box
LCSA SM             Fresh Fruit/   South West     Phoenix      AZ              85016        528       $11,536.80
                     Vegetable
                     Box
LDS Church/Driggs   Combination    Western        Driggs       ID              83422         30        $1,320.00
                     Box
LDS Church/Driggs   Fresh Fruit/   Western        Driggs       ID              83422         60        $1,560.00
                     Vegetable
                     Box
LDS Church/Malad    Combination    Western        Malad City   ID              83252        100        $4,400.00
                     Box
LDS Church/Malad    Fresh Fruit/   Western        Malad City   ID              83252        100        $2,600.00
                     Vegetable
                     Box
LDS Church/         Combination    Western        Mcammon      ID              83250         70        $3,080.00
 Mccammon            Box
LDS Church/         Fresh Fruit/   Western        Mcammon      ID              83250         70        $1,820.00
 Mccammon            Vegetable
                     Box
LDS Church/Victor   Combination    Western        Driggs       ID              83422         50        $2,200.00
                     Box
LDS Church/Victor   Fresh Fruit/   Western        Driggs       ID              83422        100        $2,600.00
                     Vegetable
                     Box
Le Grand Union      Combination    Western        Le Grand     CA              95333         70        $3,670.80
 Elementary School   Box
Le Grand Union      Fresh Fruit/   Western        Le Grand     CA              95333        462       $12,441.66
 Elementary School   Vegetable
                     Box
Leador Community    Fresh Fruit/   Western        North Fork   ID              83466         20          $520.00
 Cntr/Library        Vegetable
                     Box
Leap Social         Fresh Fruit/   Mid-Atlantic   San Juan     PR              00924      2,688      $107,520.00
 Enterprise          Vegetable
                     Box
Leap Social         Fresh Fruit/   Mid-Atlantic   San Juan     PR              00926        672       $26,880.00
 Enterprise          Vegetable
                     Box
Learn 10            Combination    Midwest        North        IL              60064        100        $6,212.00
                     Box                           Chicago
Learn 10            Precooked      Midwest        North        IL              60064        100        $7,157.00
                     Meat Box                      Chicago
Learn 6             Combination    Midwest        Great Lakes  IL              60088        200       $12,424.00
                     Box
Learn 6             Fluid Milk     Midwest        Great Lakes  IL              60088        200        $5,998.00
Learn 6             Precooked      Midwest        Great Lakes  IL              60008        200       $14,314.00
                     Meat Box
Learn 8 Herro       Combination    Midwest        Chicago      IL              60612        300       $18,636.00
 Campus              Box
Learn 8 Herro       Precooked      Midwest        Chicago      IL              60612        300       $21,471.00
 Campus              Meat Box
Learn 9             Precooked      Midwest        Waukegan     IL              60085        150       $10,735.50
                     Meat Box
Learn South         Combination    Midwest        Chicago      IL              60617        100        $6,718.00
 Chicago             Box
Leavenworth Public  Combination    Mountain       Leavenworth  KS              66048        780       $27,276.60
 Schools             Box            Plains
Leavenworth Public  Dairy          Mountain       Leavenworth  KS              66048        120        $5,491.20
 Schools             Products Box   Plains
Leavenworth Public  Fresh Fruit/   Mountain       Leavenworth  KS              66048      1,146       $20,327.70
 Schools             Vegetable      Plains
                     Box
Leavenworth School  Fresh Fruit/   Mountain       Leavenworth  KS              66048        620       $10,509.00
 District            Vegetable      Plains
                     Box
Lebanon R-111       Fresh Fruit/   Mountain       Lebanon      MO              65536      3,320       $85,988.00
                     Vegetable      Plains
                     Box
Ledbetter Eagle     Fluid Milk     South West     Dallas       TX              75211        576        $1,681.92
 For
Ledbetter Eagle     Fresh Fruit/   South West     Dallas       TX              75212      2,064       $35,067.36
 Ford Community      Vegetable
                     Box
Lee Initiative--    Combination    Midwest        New Albany   IN              47150        300       $45,000.00
 Pints & Union       Box
Lee Seville Miles   Dairy          Midwest        Cleveland    OH              44128        260        $6,500.00
 Hunger Ctr.         Products Box
Leeds Welfare       Fresh Fruit/   South East     Leeds        AL              35094        600       $15,570.00
 Cooperative         Vegetable
                     Box
Leelanau Christian  Dairy          Midwest        Lake         MI              49426        300        $8,700.00
 Neighbors 44746     Products Box                  Leelanau
Leelanau Christian  Fresh Fruit/   Midwest        Lake         MI              49426        700       $14,700.00
 Neighbors 44746     Vegetable                     Leelanau
                     Box
Leesburg FP/Sosa    Fluid Milk     South East     Leesburg     FL              34748        432        $1,637.28
Leeward Community   Fresh Fruit/   Western        Waianae      HI              96792          6          $216.00
 Church of           Vegetable
                     Box
Leeward Community   Fresh Fruit/   Western        Pearl City   HI              96782         60        $2,160.00
 Church of           Vegetable
 Christian and       Box
 Mission
Leeward Oahu        Fresh Fruit/   Western        Waipahu      HI              96797        300       $10,800.00
 Foursquare Church   Vegetable
                     Box
Legacy Academy of   Combination    Midwest        Rockford     IL              61102        100        $6,212.00
 Excellence          Box
 Rockford
Legacy Academy of   Dairy          Midwest        Rockford     IL              61102        100        $6,515.00
 Excellence          Products Box
 Rockford
Legacy Academy of   Combination    Midwest        Rockford     IL              61102        100        $6,718.00
 Excellence--Rockf   Box
 ord
Legacy Academy of   Combination    Midwest        Rockford     IL              61102        100        $6,718.00
 Excellence          Box
 Rockford
Legacy Center       Fluid Milk     South East     Birmingham   AL              35214      1,500        $5,685.00
Legacy Center       Fluid Milk     South East     Huntsville   AL              35805      3,580       $13,888.20
Legacy Center       Fresh Fruit/   South East     Huntsville   AL              35805      8,748      $227,010.60
                     Vegetable
                     Box
Legacy Charter      Fresh Fruit/   Midwest        Chicago      IL              60623        155        $9,929.30
 School              Vegetable
                     Box
Legacy Charter      Combination    Midwest        Chicago      IL              60623        155       $10,412.90
 School Chicago      Box
Legacy Charter      Fresh Fruit/   Midwest        Chicago      IL              60623        150        $9,609.00
 School Chicago      Vegetable
                     Box
Legacy Chicago      Combination    Midwest        Chicago      IL              60623        155        $9,628.60
                     Box
Legacy Chicago      Dairy          Midwest        Chicago      IL              60623        155       $10,098.25
                     Products Box
Leicester           Fresh Fruit/   South East     Leicester    NC              28748        170        $4,675.00
 Community Center    Vegetable
                     Box
Leith Walk          Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21239        150        $3,000.00
 Elementary/Middle   Vegetable
 School              Box
Leland Schools      Fresh Fruit/   Midwest        Leland       MI              49654         35        $1,259.30
                     Vegetable
                     Box
Lemhi Lumber        Fresh Fruit/   Western        Elk Bend     ID              83464         90        $2,340.00
                     Vegetable
                     Box
Lemoyne Center      Combination    Mid-Atlantic   Washington   PA              15301        200       $10,000.00
                     Box
Lenore Community    Fresh Fruit/   Western        Lenore       ID              83541         60        $1,800.00
 Center              Vegetable
                     Box
Leominster COA      Precooked      North East     Leominster   MA              01453         20        $1,086.00
                     Meat Box
Leominster High     Fresh Fruit/   North East     Leominster   MA              01453        560       $12,292.00
 School              Vegetable
                     Box
Let's Help          Combination    Mountain       Topeka       KS              66603        300       $10,491.00
                     Box            Plains
Let's Help          Dairy          Mountain       Topeka       KS              66603        720       $32,947.20
                     Products Box   Plains
Let's Help          Fresh Fruit/   Mountain       Topeka       KS              66603      3,069       $50,915.55
                     Vegetable      Plains
                     Box
Lettuce Turnip the  Combination    Mid-Atlantic   South Park   PA              15129        250       $12,500.00
 Beet                Box
Lettumeat First     Fluid Milk     South East     Snellville   GA              30078        300        $1,197.00
 Bap
Levite Jewish Comm  Fluid Milk     South East     Mountain     AL              35213      1,338        $5,071.02
                                                   Brk
Levite Jewish       Fresh Fruit/   South East     Birmingham   AL              35213      4,160      $115,455.00
 Community Center    Vegetable
                     Box
Lewis & Clark       Fluid Milk     Mountain       Jefferson    MO              65101        360          $810.00
 School JC                          Plains         City
Lewis County Food   Fresh Fruit/   Mountain       Canton       MO              63435        240        $6,600.00
 Pantry              Vegetable      Plains
                     Box
Lewis Cty Food      Combination    Western        Chehalis     WA              98531      1,680       $58,800.00
 Bank Coali          Box
Lewiston Food Bank  Fluid Milk     Western        Lewiston     ID              83501        864        $2,056.32
Lewiston            Precooked      Midwest        Lewiston     MI              49756         18          $558.90
 Monmorency Sr.      Meat Box
 Cit. Fd. Prgr.
Lewiston-           Precooked      Midwest        Lac Du       WI              54538         97        $3,712.74
 Montmorency Sr.     Meat Box                      Flambeau
 Cit. Fd. Prgr.
Lexington Food      Fresh Fruit/   South East     Lexington    MS              39095      3,770       $75,211.50
 Pantry              Vegetable
                     Box
Lexington High      Fresh Fruit/   North East     Lexington    MA              02421        280        $6,146.00
 School              Vegetable
                     Box
Lexington High      Fresh Fruit/   Mountain       Lexington    MO              64067        120        $3,108.00
 School              Vegetable      Plains
                     Box
Lexington R-V       Fresh Fruit/   Mountain       Lexington    MO              64067        240        $6,216.00
 Middle School       Vegetable      Plains
                     Box
Liberian American   Dairy          Western        Gardena      CA              90249     20,000      $584,400.00
 Community           Products Box
 Organization
Liberian American   Fluid Milk     Western        Gardena      CA              90249     37,800      $377,622.00
 Community
 Organization
Liberian American   Fluid Milk     Western        Fresno       CA              93701    129,600    $1,294,704.00
 Community
 Organization
Liberti Network of  Precooked      Mid-Atlantic   Philadelphi  PA              19154      1,374       $44,407.68
 Churches            Meat Box                      a
Liberty             Fresh Fruit/   Midwest        Canton       MI              48187        300        $6,075.00
                     Vegetable
                     Box
Liberty Baptist     Fresh Fruit/   South East     Robbinsvill  NC              28771        480       $13,200.00
 Church              Vegetable                     e
                     Box
Liberty Church      Combination    South West     Mansfield    TX              76063        400       $13,988.00
                     Box
Liberty Church      Dairy          South West     Mansfield    TX              76063        400       $18,304.00
                     Products Box
Liberty Church      Fresh Fruit/   Midwest        Warren       MI              48093      1,430       $41,112.50
                     Vegetable
                     Box
Liberty Church      Fresh Fruit/   South East     Pensacola    FL              32506        600       $17,400.00
 Westside            Vegetable
                     Box
Liberty Church      Fresh Fruit/   South East     Gulf Breeze  FL              32563      1,900       $55,100.00
 Westside Inc. of    Vegetable
 PNS                 Box
Liberty Co. Manna   Fluid Milk     South East     Hinesville   GA              31313      1,800        $7,182.00
 H.
Liberty Grace       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        300        $6,285.00
                     Vegetable
                     Box
Liberty Hill        Dairy          Midwest        Cleveland    OH              44103         75        $1,875.00
 Baptist Church      Products Box
Liberty Hill        Fresh Fruit/   Western        Berkeley     CA              94710        170        $3,635.00
 Missionary          Vegetable
 Baptist Church      Box
Liberty Public      Combination    South West     Mounds       OK              74047      1,056       $36,928.32
 Schools             Box
Liberty Public      Fluid Milk     South West     Mounds       OK              74047        495       $11,850.30
 Schools
Liberty Public      Fresh Fruit/   South West     Mounds       OK              74047        833       $18,174.10
 Schools             Vegetable
                     Box
Liberty Temple      Fresh Fruit/   Midwest        Detroit      MI              48235        250        $3,737.50
 Baptist Church      Vegetable
                     Box
Liberty Worship     Combination    South West     Oklahoma     OK              73109      1,440       $50,356.80
 Center              Box                           City
Licking County      Fresh Fruit/   Midwest        Newark       OH              43055        240        $4,564.80
 Sherrif's Dept      Vegetable
                     Box
Licking County      Precooked      Midwest        Newark       OH              43055        120        $5,316.40
 Sherrif's Dept      Meat Box
Lif CDC Medical     Fresh Fruit/   Midwest        Plain City   OH              43064        256        $4,992.00
                     Vegetable
                     Box
Life Builders       Fresh Fruit/   Midwest        Detroit      MI              48225         50        $1,437.50
 Senior Home         Vegetable
                     Box
Life Center Food    Fresh Fruit/   Western        Tacoma       WA              98445        375        $8,343.75
 Bank                Vegetable
                     Box
Life Christian      Fluid Milk     South East     Madisonvill  KY              42431        450        $1,012.50
 Center                                            e
Life Christian      Fresh Fruit/   Western        Milwaukie    OR              97222        180        $4,860.00
 Center              Vegetable
                     Box
Life Christian      Fresh Fruit/   Western        San Diego    CA              92154        800       $20,000.00
 Ministr             Vegetable
                     Box
Life Church Food    Fresh Fruit/   Mountain       Potosi       MO              63664      1,030       $28,325.00
 Pantry              Vegetable      Plains
                     Box
Life Community      Fresh Fruit/   South West     Arlington    TX              76018      1,056       $17,941.44
 Church of Arlin.    Vegetable
                     Box
Life Frenchtown     Dairy          Midwest        Monroe       MI              48162         80        $1,941.60
                     Products Box
Life Frenchtown     Fresh Fruit/   Midwest        Monroe       MI              48162         70        $1,449.90
                     Vegetable
                     Box
Life Frenchtown     Precooked      Midwest        Monroe       MI              48162         55        $2,284.50
                     Meat Box
Life Gate Freedom   Combination    South West     Sapulpa      OK              74066      4,320      $151,070.40
 Recovery Ministry   Box
Life Gate Freedom   Dairy          South West     Sapulpa      OK              74066      1,056       $48,322.56
 Recovery Ministry   Products Box
Life Gate Freedom   Fluid Milk     South West     Sapulpa      OK              74066        495       $11,850.30
 Recovery Ministry
Life Gate Freedom   Fresh Fruit/   South West     Sapulpa      OK              74066        539       $12,558.70
 Recovery Ministry   Vegetable
                     Box
Life Inc.           Fresh Fruit/   Mountain       Farmington   MO              63640        500       $13,750.00
                     Vegetable      Plains
                     Box
Life Learning       Fluid Milk     South East     Marietta     GA              30062        500        $1,945.40
 Commun
Life Message        Fluid Milk     South West     Rowlett      TX              75088        980        $2,861.60
Life Ministries     Dairy          South East     Gautier      MS              39553        320        $8,985.60
                     Products Box
Life Ministries     Precooked      South East     Gautier      MS              39553        252       $10,347.12
                     Meat Box
Life of Liberty     Fresh Fruit/   South East     Memphis      TN              38126        486       $11,907.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Life Point Church   Combination    South West     Perkins      OK              74059      1,440       $50,356.80
                     Box
Life Point Church   Fresh Fruit/   Western        Arroyo       CA              93420        750       $27,000.00
                     Vegetable                     Grande
                     Box
Life Quest Urban    Fresh Fruit/   Midwest        Grand        MI              49507        350        $7,350.00
 Outreach Center     Vegetable                     Rapids
                     Box
Life Remodeled      Fresh Fruit/   Midwest        Detroit      MI              48206        300        $4,485.00
 Detroit             Vegetable
                     Box
Life Savers         Fresh Fruit/   South East     Whiteville   NC              28472      1,850       $21,275.00
 Outreach            Vegetable
                     Box
Life Source         Fluid Milk     South West     Fayettevill  AR              72701        495       $11,850.30
 International                                     e
Life Source/Stl     Fresh Fruit/   Mountain       Fenton       MO              63026        540       $17,280.00
 Food Bank           Vegetable      Plains
                     Box
Life Tabernacle     Fluid Milk     South West     Houston      TX              77012        152          $487.92
Lifebath            Combination    North East     Bernardston  MA              01337         29        $1,102.00
 Bernardston         Box
Lifecare Alliance   Fresh Fruit/   Midwest        Columbus     OH              43223        525        $7,906.50
                     Vegetable
                     Box
Lifeline CDC--      Combination    Western        Merced       CA              95348        420       $22,024.80
 Merced              Box
Lifeline CDC--      Fresh Fruit/   Western        Merced       CA              95348        147        $4,651.71
 Merced              Vegetable
                     Box
Lifeline CDC        Fresh Fruit/   Western        Merced       CA              95340         77        $2,073.61
 Sierra              Vegetable
                     Box
Lifeline CDC        Combination    Western        Winton       CA              95388        490       $25,695.60
 Winton              Box
Lifeline CDC        Fresh Fruit/   Western        Winton       CA              95388        217        $7,229.81
 Winton              Vegetable
                     Box
Lifeline Food       Fresh Fruit/   Western        Orofino      ID              83544         40        $1,040.00
 Pantry              Vegetable
                     Box
Lifelong            Fresh Fruit/   Western        Richmond     CA              94801         10          $280.00
                     Vegetable
                     Box
Lifelong            Fresh Fruit/   Western        Richmond     CA              94801         18          $504.00
                     Vegetable
                     Box
Lifelong            Fresh Fruit/   Western        Richmond     CA              94801         18          $504.00
                     Vegetable
                     Box
Lifelong Food Bank  Combination    Western        Seattle      WA              98108        120        $4,200.00
                     Box
Lifelong Food Bank  Fresh Fruit/   Western        Seattle      WA              98108        300        $8,100.00
                     Vegetable
                     Box
Lifepath Athol      Combination    North East     Anthol       MA              01331         30        $1,140.00
 Senior Center       Box
Lifepath Erving     Combination    North East     Erving       MA              01344         25          $950.00
 Sr. Ctr.            Box
Lifepath Erving     Precooked      North East     Erving       MA              01344         25        $1,357.50
 Sr. Ctr.            Meat Box
Lifepath Greenfiel  Combination    North East     Greenfield   MA              01301         49        $1,862.00
 Sr. Ctr.            Box
Lifepath Greenfiel  Precooked      North East     Greenfield   MA              01301         41        $2,226.30
 Sr. Ctr.            Meat Box
Lifepath Montague   Combination    North East     Turner       MA              01376         10          $380.00
 and Gill            Box                           Falls
Lifepath Montague   Precooked      North East     Turner       MA              01376         68        $3,692.40
 and Gill            Meat Box                      Falls
Lifepath            Combination    North East     Northfield   MA              01360         21          $798.00
 Northfield Senior   Box
Lifepath            Precooked      North East     Northfield   MA              01360         19        $1,031.70
 Northfield Senior   Meat Box
Lifepath Orange     Combination    North East     Orange       MA              01364          8          $304.00
 Sr. Ctr.            Box
Lifepath Orange     Precooked      North East     Orange       MA              01364         22        $1,194.60
 Sr. Ctr.            Meat Box
Lifepath South      Combination    North East     North        MA              01373         22          $836.00
 Country Sr. Ctr.    Box                           Deerfield
Lifepath            Combination    North East     Warwick      MA              01378         16          $608.00
 Trinitarian         Box
 Church
Lifesavers          Fresh Fruit/   Mountain       Park Hills   MO              63601      1,600       $44,000.00
 Ministry            Vegetable      Plains
                     Box
Lifestyles of MD    Fluid Milk     Mid-Atlantic   La Plata     MD              20646      1,056       $14,974.08
 Food Bank
Lifestyles of MD    Fresh Fruit/   Mid-Atlantic   La Plata     MD              20646        250        $5,237.50
 Food Bank           Vegetable
                     Box
Lifewise--STL       Fresh Fruit/   Mountain       St. Louis    MO              63104      1,740       $55,680.00
 (Account)           Vegetable      Plains
                     Box
Lift Up--Rifle      Fresh Fruit/   Mountain       Rifle        Co              81650      1,712       $44,340.80
                     Vegetable      Plains
                     Box
Light Morgan Dr.    Fluid Milk     South East     Terry        MS              39170      1,440        $5,457.60
 FB
Light of Hope       Combination    South West     Claremore    OK              74017      2,208       $77,213.76
                     Box
Light of Hope       Dairy          South West     Claremore    OK              74017      2,016       $92,252.16
                     Products Box
Light of Hope       Fluid Milk     South West     Claremore    OK              74017        135        $3,231.90
Light of Hope       Fresh Fruit/   South West     Claremore    OK              74017      5,374      $116,364.80
                     Vegetable
                     Box
Light of Life       Fresh Fruit/   South East     Garner       NC              27529        900       $10,350.00
 Ministry            Vegetable
                     Box
Light of the World  Fluid Milk     Midwest        Cincinnati   OH              45206        360        $1,195.20
Light of the World  Fresh Fruit/   South West     Dallas       TX              75232        512        $8,698.88
 Church of C.        Vegetable
                     Box
Lighthouse          Fresh Fruit/   Western        Wenatchee    WA              98801        720       $16,020.00
                     Vegetable
                     Box
Lighthouse          Fresh Fruit/   Western        East         WA              98802      3,120       $69,420.00
 Christian           Vegetable                     Wenatchee
 Ministries          Box
Lighthouse Church   Dairy          South East     Moss Point   MS              39563        160        $4,492.80
                     Products Box
Lighthouse Church   Fresh Fruit/   South East     Moss Point   MS              39563        160        $2,704.00
                     Vegetable
                     Box
Lighthouse Church   Precooked      South East     Moss Point   MS              39563        504       $20,694.24
                     Meat Box
Lighthouse Church   Combination    Midwest        Alsip        IL              60803        376       $38,288.00
 of All Nations      Box
Lighthouse Church   Fresh Fruit/   Midwest        Alsip        IL              60803        511       $18,798.44
 of All Nations      Vegetable
                     Box
Lighthouse Church   Precooked      Midwest        Alsip        IL              60803        864       $70,087.68
 of All Nations      Meat Box
Lighthouse Comm.    Fresh Fruit/   South East     Spring Hope  NC              27882        868       $11,225.20
 Dev. Center         Vegetable
                     Box
Lighthouse          Fresh Fruit/   Western        Waipahu      HI              96797        300       $10,800.00
 Outreach Center     Vegetable
                     Box
Lighthouse          Precooked      Western        Waipahu      HI              96797      1,000       $40,000.00
 Outreach Center     Meat Box
Lighthouse          Combination    Western        Fife         WA              98424        540       $18,900.00
 Storehouse          Box
Lighthouse          Dairy          Western        Fife         WA              98424        750       $22,500.00
 Storehouse          Products Box
Lighthouse          Fresh Fruit/   Western        Fife         WA              98424        480       $12,960.00
 Storehouse          Vegetable
                     Box
Lighthouse Worship  Fresh Fruit/   South East     West Park    FL              33023        500        $8,375.00
 Center              Vegetable
                     Box
Lighthouse Worship  Fresh Fruit/   South East     Fort         FL              33311      1,000       $16,750.00
 Center              Vegetable                     Lauderdale
                     Box
Lilburn City Hall   Fresh Fruit/   South East     Lilburn      GA              30047      1,400       $26,516.00
 Parking             Vegetable
                     Box
Liliuokalani Trust  Fresh Fruit/   Western        Honolulu     HI              96809      1,105       $39,780.00
                     Vegetable
                     Box
Liliuokalani Trust  Fresh Fruit/   Western        Honolulu     HI              96817     11,470      $412,920.00
                     Vegetable
                     Box
Liliuokalani Trust  Precooked      Western        Honolulu     HI              96817      2,600      $104,000.00
                     Meat Box
Lilly Grove         Fluid Milk     South West     Houston      TX              77021        532        $1,623.04
Lily of the Valley  Fluid Milk     South West     Anahuac      TX              77514      1,392        $4,236.32
Limahuli Garden     Fresh Fruit/   Western        Hanalei      HI              96714        396       $15,444.00
 and Preserve Ntbg   Vegetable
                     Box
Linc Inc.           Fresh Fruit/   South East     Wilmington   NC              28401      2,100       $24,150.00
                     Vegetable
                     Box
Linc Inc. W1050     Fluid Milk     South East     Wilmington   NC              28401      1,120        $4,356.80
Lincoln Elementary  Dairy          South West     Mesa         AZ              85210        828       $21,942.00
                     Products Box
Lincoln Elementary  Fresh Fruit/   South West     Mesa         AZ              85210        744       $16,256.40
                     Vegetable
                     Box
Lincoln Food        Fresh Fruit/   South East     Lincoln      AL              35096        420       $10,899.00
 Pantry              Vegetable
                     Box
Lincoln Grant       Fluid Milk     South East     Newport      KY              41071        908        $3,014.56
 Schol
Lincoln Heights VB  Fresh Fruit/   Midwest        Cincinnati   OH              45215        128        $2,496.00
                     Vegetable
                     Box
Lincoln Hill UMC    Fluid Milk     Midwest        English      IN              47118        720        $1,620.00
 Fd. Pntry
Lincoln Park        Dairy          Midwest        Lincoln      MI              48146        500       $12,135.00
 Middle School       Products Box                  Park
Lincoln Park        Fresh Fruit/   Midwest        Lincoln      MI              48146      1,200       $22,113.00
 Middle School       Vegetable                     Park
                     Box
Lincoln Park        Precooked      Midwest        Lincoln      MI              48146      1,100       $38,942.00
 Middle School       Meat Box                      Park
Lincoln-Alcona      Dairy          Midwest        Lincoln      MI              48742        750       $18,202.50
 Cty. Sr. Cit.       Products Box
 Feed Prog.
Lincoln-Alcona      Fresh Fruit/   Midwest        Lincoln      MI              48742      1,500       $28,963.71
 Cty. Sr. Cit.       Vegetable
 Feed Prog.          Box
Lincoln-Alcona      Precooked      Midwest        Lincoln      MI              48742      4,352      $176,767.41
 Cty. Sr. Cit.       Meat Box
 Feed Prog.
Linden Lutheran     Fresh Fruit/   Midwest        Columbus     OH              43224        536        $8,940.00
 Church              Vegetable
                     Box
Lindenwest          Fresh Fruit/   Mountain       Gladstone    MO              64118        520       $13,468.00
 Elementary School   Vegetable      Plains
                     Box
Lindenwest          Fresh Fruit/   Mountain       Kansas City  MO              64118        110        $2,849.00
 Elementary School   Vegetable      Plains
                     Box
Lindenwold HS       Fresh Fruit/   Mid-Atlantic   Lindenwold   NJ              08021        630       $11,938.50
                     Vegetable
                     Box
Lindenwood          Fresh Fruit/   South East     Memphis      TN              38112      1,026       $25,137.00
 Christian Church--  Vegetable
 C/O Mid South       Box
 Food B
Linear Measurement  Fresh Fruit/   Midwest        Detroit      MI              48214      2,016       $72,535.68
                     Vegetable
                     Box
Link of Cullman     Fresh Fruit/   South East     Cullman      AL              35055         80        $2,000.00
 County              Vegetable
                     Box
Link of Cullman     Fresh Fruit/   South East     Cullman      AL              35056         60        $1,500.00
 County              Vegetable
                     Box
Linn Benton Food    Combination    Western        Tangent      OR              97389      1,140       $39,900.00
 Share               Box
Linn Benton Food    Dairy          Western        Tangent      OR              97389      1,100       $33,000.00
 Share               Products Box
Linn Benton Food    Fresh Fruit/   Western        Tangent      OR              97389      1,090       $29,430.00
 Share               Vegetable
                     Box
Linnton Community   Combination    Western        Portland     OR              97231         93        $3,255.00
 Center USDA         Box
Linnton Community   Dairy          Western        Portland     OR              97231        100        $3,000.00
 Center USDA         Products Box
Linnton Community   Fresh Fruit/   Western        Portland     OR              97231        120        $3,240.00
 Center USDA         Vegetable
                     Box
Lions Club--Dalton  Fresh Fruit/   South East     Dalton       GA              30721      1,460       $29,200.00
                     Vegetable
                     Box
Lions Club          Fresh Fruit/   South East     Centerville  GA              31028      1,920       $36,364.80
 Centerville         Vegetable
                     Box
Lions Club Douglas  Fresh Fruit/   South East     Douglas      GA              31533      1,920       $36,364.80
                     Vegetable
                     Box
Lions Club Madison  Fresh Fruit/   South East     Madison      GA              30650        700       $13,258.00
                     Vegetable
                     Box
Lisa's Networking   Fresh Fruit/   Mid-Atlantic   Jersey City  NJ              07305      3,375       $67,500.00
 Group               Vegetable
                     Box
Lisbon Central      Dairy          North East     Lisbon       NY              13658         60        $1,440.00
 School              Products Box
Lisbon Central      Fresh Fruit/   North East     Lisbon       NY              13658         60        $1,200.00
 School              Vegetable
                     Box
Listen Community    Combination    North East     Lebanon      NH              03766        168        $4,536.00
 Services            Box
Literacy Center     Fresh Fruit/   Midwest        Detroit      MI              48206        200        $2,990.00
                     Vegetable
                     Box
Literacy Center     Fresh Fruit/   Midwest        Detroit      MI              48211        500        $7,475.00
                     Vegetable
                     Box
Literacy Center     Fresh Fruit/   Midwest        Detroit      MI              48213        500        $7,475.00
                     Vegetable
                     Box
Literacy Center     Fresh Fruit/   Midwest        Melvindale   MI              48122        200        $2,990.00
                     Vegetable
                     Box
Little Chapel       Dairy          Midwest        Harrisburg   IL              62946      2,000       $59,500.00
 General Baptist     Products Box
Little Chapel       Fresh Fruit/   Midwest        Harrisburg   IL              62946      1,800       $49,500.00
 General Baptist     Vegetable
                     Box
Little Earth Boys   Precooked      Midwest        Minneapolis  MN              55404        225       $11,441.25
 and Girls Club      Meat Box
Little Explorers    Fluid Milk     Mountain       Jefferson    MO              65109        972       $11,231.46
 Dis                                Plains         City
Little Flower       Fresh Fruit/   South West     El Paso      TX              79915        600       $11,700.00
 Church              Vegetable
                     Box
Little Ones         Fresh Fruit/   South East     Forest Park  GA              30297      2,190       $43,800.00
 Learning Center     Vegetable
                     Box
Little Rock--AR-    Fresh Fruit/   South West     Little Rock  AR              72204        539       $12,558.70
 72204               Vegetable
                     Box
Little Sisters of   Fresh Fruit/   Mountain       Kansas City  KS              66101         21          $543.90
 the Lamb            Vegetable      Plains
                     Box
Little Sisters of   Fresh Fruit/   Mountain       Kansas City  MO              64138         78        $2,020.20
 the Poor            Vegetable      Plains
                     Box
Little Stars Early  Dairy          Midwest        Cleveland    OH              44124        390        $9,750.00
 Learning Ctr.       Products Box
Little Village      Combination    Midwest        Chicago      IL              60623        162       $10,883.16
 Environmental       Box
 Justice
 Organization
Living Branch       Fresh Fruit/   South East     Taylors      SC              29687        450       $13,500.00
 Christian Church    Vegetable
                     Box
Living Faith        Fresh Fruit/   South East     Niceville    FL              32578      2,650       $76,850.00
 Christian Center    Vegetable
 Inc.                Box
Living Faith Food   Fresh Fruit/   Mountain       Festus       MO              63028      2,310       $63,525.00
 Pantry              Vegetable      Plains
                     Box
Living Grace        Fresh Fruit/   Midwest        Lynwood      IL              60411        378       $13,600.44
                     Vegetable
                     Box
Living Grace        Precooked      Midwest        Lynwood      IL              60411        288       $23,362.56
                     Meat Box
Living Hope         Fresh Fruit/   South East     Dothan       AL              36301        350       $10,150.00
 Community Center    Vegetable
                     Box
Living Hope Food    Fresh Fruit/   Midwest        Fox Lake     WI              53933        170        $2,201.50
 Pantry              Vegetable
                     Box
Living Hope         Combination    Western        Richmond     CA              94804        180        $7,056.00
 Neighborhood        Box
 Church
Living Hungry       Combination    South East     West Palm    FL              33405      8,176      $621,784.80
                     Box                           Beach
Living Hungry       Combination    South East     Mangonia     FL              33407      2,800      $212,940.00
                     Box                           Park
Living Hungry       Combination    South East     Delray       FL              33444      2,800      $212,940.00
                     Box                           Beach
Living Hungry--     Combination    South East     Belle Glade  FL              33430        560       $42,588.00
 Smith & Moore       Box
 Family Teen
 Center
Living              Fresh Fruit/   Midwest        Monroe       MI              48162        300        $4,485.00
 Independence for    Vegetable
 Everyone            Box
Living Stone        Fresh Fruit/   South East     Fultondale   AL              35068      1,968       $51,069.60
 Temple              Vegetable
                     Box
Living Stone        Fresh Fruit/   South East     Fultondale   AL              35217      1,020       $26,469.00
 Temple              Vegetable
                     Box
Living Stones       Dairy          Midwest        Grand        MI              49503        380       $11,020.00
 Academy             Products Box                  Rapids
Living Stones       Fresh Fruit/   Midwest        Grand        MI              49503        870       $18,282.50
 Academy             Vegetable                     Rapids
                     Box
Living Water        Fluid Milk     South West     Houston      TX              77093      6,600       $21,186.00
 Intrnl
Living Waters       Fresh Fruit/   Midwest        Detroit      MI              48228        260        $3,887.00
 Church              Vegetable
                     Box
Living Well Kent    Fresh Fruit/   Western        Kent         WA              98031         55        $1,512.50
 Collaborative       Vegetable
                     Box
Living Well Kent    Fresh Fruit/   Western        Kent         WA              98032         50        $1,350.00
 Collaborative       Vegetable
                     Box
Living Word         Dairy          Midwest        Forest Park  IL              60130      1,500       $97,725.00
 Christian Center    Products Box
Living Word         Fluid Milk     Midwest        Forest Park  IL              60130      1,500       $52,575.00
 Christian Center
Living Word         Precooked      Midwest        Forest Park  IL              60130        300       $19,953.00
 Christian Center    Meat Box
Living Word Church  Dairy          South West     Jonesboro    AR              72404      1,440       $65,894.40
                     Products Box
Living World        Fresh Fruit/   Midwest        Vandalia     OH              45377         64        $1,248.00
 Church              Vegetable
                     Box
Living World        Combination    Mid-Atlantic   Union        NJ              07083        169       $16,055.00
 Church #Pa1024-01   Box
Living World        Dairy          Mid-Atlantic   Union        NJ              07083        240        $9,600.00
 Church #Pa1024-01   Products Box
Living World        Precooked      Mid-Atlantic   Union        NJ              07083        300       $18,555.00
 Church #Pa1024-01   Meat Box
Livingston County   Fresh Fruit/   Mountain       Chillicothe  MO              64601      1,350       $37,125.00
 Food Pantry         Vegetable      Plains
                     Box
Livingston Cty.     Fresh Fruit/   Midwest        Howell       MI              48843        100        $2,198.25
 Sr. Nutrition       Vegetable
 Program             Box
Livingston Cty.     Precooked      Midwest        Howell       MI              48843         25          $790.75
 Sr. Nutrition       Meat Box
 Program
Livingston Food     Combination    Mountain       Livingston   MT              59047        280       $13,440.00
 Resource Cntr.      Box            Plains
Livingston Food     Fresh Fruit/   Mountain       Livingston   MT              59047      2,056       $61,680.00
 Resource Cntr.      Vegetable      Plains
                     Box
Livingston USD      Combination    Western        Livingston   CA              95334        776       $40,693.44
                     Box
Livingston USD      Fresh Fruit/   Western        Livingston   CA              95334      1,266       $39,003.78
                     Vegetable
                     Box
LK Acad Campus/     Fluid Milk     South East     Leesburg     FL              34748        160          $606.40
 UWLS
Loaves & Fishes     Precooked      Midwest        Muskegon     MI              49441        376       $13,479.22
 Food Pantry         Meat Box
Loaves & Fishes     Fresh Fruit/   South East     Warrenton    NC              27589      1,344       $34,151.04
 Ministries          Vegetable
                     Box
Loaves and Fishes   Dairy          Midwest        Naperville   IL              60540        700       $45,605.00
                     Products Box
Loaves and Fishes   Dairy          South East     Biloxi       MS              39531        240        $6,739.20
                     Products Box
Loaves and Fishes   Fresh Fruit/   Midwest        Naperville   IL              60540      1,400       $86,142.00
                     Vegetable
                     Box
Loaves and Fishes   Fresh Fruit/   South East     Biloxi       MS              39531        288        $4,867.20
                     Vegetable
                     Box
Loaves and Fishes   Fresh Fruit/   Western        Morgan Hill  CA              95037        420        $5,880.00
                     Vegetable
                     Box
Loaves and Fishes   Precooked      Midwest        Naperville   IL              60540        700       $46,557.00
                     Meat Box
Loaves and Fishes   Precooked      Midwest        Naperville   IL              60540      2,350      $167,177.50
                     Meat Box
Loaves and Fishes   Precooked      South East     Biloxi       MS              39531        756       $31,041.36
                     Meat Box
Loaves and Fishes   Fluid Milk     Mid-Atlantic   Butler       NJ              07405         48          $946.56
 Butler Methodist
 Church
Local Meals         Dairy          Mid-Atlantic   Baltimore    MD              21218        120        $1,920.00
 Baltimore           Products Box
Local Meals         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21205      1,010       $20,200.00
 Baltimore           Vegetable
                     Box
Local Meals         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206        490        $9,800.00
 Baltimore           Vegetable
                     Box
Local Meals         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218      3,360       $67,200.00
 Baltimore           Vegetable
                     Box
Local Meals         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21223      5,670      $113,400.00
 Baltimore           Vegetable
                     Box
Locust Fork         Fresh Fruit/   South East     Locust Fork  AL              35097        800       $22,400.00
                     Vegetable
                     Box
Locust Grove Free   Fresh Fruit/   South West     Locust       OK              74352      1,078       $25,117.40
 Will Baptist        Vegetable                     Grove
                     Box
Lodi Christian      Fresh Fruit/   Western        Lodi         CA              95240        931       $25,071.83
 Life                Vegetable
                     Box
Lodi Family Center  Fluid Milk     Midwest        Lodi         OH              44254        200          $664.00
Logan Hockinghigh   Fresh Fruit/   Midwest        Logan        OH              43138      2,511       $47,979.63
 School              Vegetable
                     Box
Logan Hockinghigh   Precooked      Midwest        Logan        OH              43138      1,327       $60,085.29
 School              Meat Box
Lone Jack           Fresh Fruit/   Mountain       Lone Jack    MO              64070        560       $14,504.00
 Elementary          Vegetable      Plains
                     Box
Lone Star Cowboy    Fresh Fruit/   South West     Montgomery   TX              77356      6,976      $118,522.24
 Church              Vegetable
                     Box
Long Beach City     Combination    Western        Long Beach   CA              90808        432       $16,156.80
 College             Box
Long County Upper   Fresh Fruit/   South East     Glennville   GA              30427        960       $18,182.40
 Room                Vegetable
                     Box
Long Island Cares   Precooked      North East     Hauppauge    NY              11788      3,286       $65,720.00
                     Meat Box
Long Lake           Dairy          Midwest        Traverse     MI              49685      1,000       $29,000.00
 Elementary          Products Box                  City
Long Lake           Fresh Fruit/   Midwest        Traverse     MI              49685      1,000       $16,010.00
 Elementary          Vegetable                     City
                     Box
Longfellow MS       Fluid Milk     Midwest        Lorain       OH              44052      1,076        $3,572.32
Longfellow School   Dairy          South West     Mesa         AZ              85204        540       $14,310.00
                     Products Box
Longfellow School   Fresh Fruit/   South West     Mesa         AZ              85204        584       $12,760.40
                     Vegetable
                     Box
Longmeadow Sr.      Combination    North East     Longmeadow   MA              01106         78        $2,558.40
 Ctr.                Box
Longview Community  Fluid Milk     South West     Longview     TX              75601        180          $525.60
Longview Dream      Fluid Milk     South West     Longview     TX              75604        432        $1,261.44
 Cent.
Longview Heights    Fresh Fruit/   South East     Memphis      TN              38106        108        $2,646.00
 Church              Vegetable
                     Box
Lorain Co.          Fluid Milk     Midwest        Norwalk      OH              44857        900        $2,988.00
 Fairgroun.
Lorain Salvation    Precooked      Midwest        Lorain       OH              44052         40        $1,796.00
 Army                Meat Box
Lord of the         Fresh Fruit/   Midwest        Warren       MI              48089        500       $14,375.00
 Harvest             Vegetable
                     Box
Lord of the Lords   Fresh Fruit/   Midwest        Detroit      MI              48213      1,200       $34,500.00
 Church              Vegetable
                     Box
Lords Gym City      Fresh Fruit/   Western        Stockton     CA              95205        154        $4,147.22
 Center              Vegetable
                     Box
Lords Gym City      Fresh Fruit/   Western        Stockton     CA              95210      1,890       $50,897.70
 Center              Vegetable
                     Box
Lord's Pantry       Dairy          Mid-Atlantic   Ottsville    PA              18942        130        $4,386.20
                     Products Box
Lord's Pantry       Fluid Milk     Mid-Atlantic   Ottsville    PA              18942         35        $1,134.00
Lord's Pantry at    Combination    Midwest        Indianapoli  IN              46222      1,300      $195,000.00
 Anna's House        Box                           s
Los Amigos Del      Combination    Mid-Atlantic   Vega Alta    PR              00692        672       $33,600.00
 Barrio              Box
Los Angeles         Dairy          Western        Los Angeles  CA              90012      2,810       $89,920.00
 Dodgers             Products Box
 Foundation
Los Angeles         Fresh Fruit/   Western        Los Angeles  CA              90012      2,810       $69,547.50
 Dodgers             Vegetable
 Foundation          Box
Los Angeles         Combination    Western        Los Angeles  CA              90058      3,744      $146,764.80
 Mission             Box
Los Angeles         Combination    Western        Los Angeles  CA              90058     16,510      $638,745.20
 Mission             Box
Los Angeles         Combination    Western        Los Angeles  CA              90058     23,088      $306,516.96
 Regional Food       Box
 Bank
Los Angeles         Dairy          Western        Los Angeles  CA              90058     10,022      $277,333.50
 Regional Food       Products Box
 Bank
Los Angeles         Fluid Milk     Western        Los Angeles  CA              90058      4,158       $31,600.80
 Regional Food
 Bank
Los Angeles         Fresh Fruit/   Western        Commerce     CA              90040      1,456       $29,076.32
 Regional Food       Vegetable
 Bank                Box
Los Angeles         Fresh Fruit/   Western        Los Angeles  CA              90058    130,360    $2,210,013.96
 Regional Food       Vegetable
 Bank                Box
Los Angeles         Combination    Western        Los Angeles  CA              90017        100        $2,725.00
 Unified School      Box
 Dis
Los Angeles         Fresh Fruit/   Western        Los Angeles  CA              90017      6,300      $155,925.00
 Unified School      Vegetable
 Dis                 Box
Los Angeles         Fresh Fruit/   Western        Pico Rivera  CA              90660     34,710      $867,712.50
 Unified School      Vegetable
 Dist.               Box
Los Angeles         Precooked      Western        Pico Rivera  CA              90660     19,903      $930,465.25
 Unified School      Meat Box
 Dist.
Los Ninos           Fresh Fruit/   South West     San Antonio  TX              78219      1,858       $35,487.80
 Childrens Care      Vegetable
 Center              Box
Los Ninos De La     Combination    Mid-Atlantic   Anasco       PR              00610        588       $58,212.00
 Montana             Box
Lost Creek          Dairy          Midwest        Marquette    MI              49855        300        $8,700.00
 Community           Products Box
 Building
Lost Creek          Fresh Fruit/   Midwest        Marquette    MI              49855      1,500       $31,425.00
 Community           Vegetable
 Building            Box
Lost River Senior   Combination    Western        Arco         ID              83213         90        $3,960.00
 Center              Box
Lost River Senior   Fresh Fruit/   Western        Arco         ID              83213        180        $4,680.00
 Center              Vegetable
                     Box
Lothian Church of   Fresh Fruit/   Mid-Atlantic   Lothian      MD              20711      1,700       $34,000.00
 God                 Vegetable
                     Box
Lotus House         Fresh Fruit/   South East     Miramar      FL              33025        150        $2,512.50
                     Vegetable
                     Box
Lotus House         Fresh Fruit/   South East     Miami        FL              33127        120        $2,010.00
                     Vegetable
                     Box
Loudoun Hunger      Dairy          Mid-Atlantic   Leesburg     VA              20175      1,200       $22,500.00
 Relief              Products Box
Loudoun Hunger      Fluid Milk     Mid-Atlantic   Leesburg     VA              20175        960       $17,894.40
 Relief
Louisa County       Dairy          Mid-Atlantic   Louisa       VA              23093      1,872       $63,760.32
 Resource Council    Products Box
Louisiana Food      Fresh Fruit/   Mountain       Louisiana    MO              63353        350        $9,625.00
 Pantry              Vegetable      Plains
                     Box
Lourdes College     Fresh Fruit/   Midwest        Sylvania     OH              43560        441        $5,512.50
                     Vegetable
                     Box
Lourexis            Dairy          Midwest        Cleveland    OH              44127        120        $3,000.00
                     Products Box
Love Aglow Worship  Fresh Fruit/   Mid-Atlantic   Gwynn Park   MD              21207        350        $7,332.50
 Center              Vegetable
                     Box
Love Center Pantry  Fluid Milk     Midwest        Millersburg  OH              44654        560        $1,859.20
Love Chapel         Fluid Milk     Midwest        Columbus     IN              47201      3,888       $15,552.00
Love Fellowship     Fluid Milk     Mid-Atlantic   Bensalem     PA              19020         35        $1,134.00
Love Fellowship     Fresh Fruit/   Mid-Atlantic   Bensalem     PA              19020        432        $9,927.36
                     Vegetable
                     Box
Love Fellowship     Fresh Fruit/   South East     Adamsville   AL              35005        540       $14,013.00
 Christian Center    Vegetable
                     Box
Love Fellowship     Fresh Fruit/   South East     Memphis      TN              38125        648       $15,876.00
 Ministries--C/O     Vegetable
 Mid South Foood B   Box
Love First Chrstn   Fluid Milk     South East     Riverview    FL              33579      1,296        $4,911.84
Love House          Fresh Fruit/   South East     Beaufort     SC              29902        100        $3,000.00
 Ministries          Vegetable
                     Box
Love House          Fresh Fruit/   South East     Beaufort     SC              29906        400       $12,000.00
 Ministries          Vegetable
                     Box
Love in Action      Dairy          Midwest        Grand Haven  MI              49417         80        $2,320.00
                     Products Box
Love in Action      Fresh Fruit/   Midwest        Grand Haven  MI              49417        404       $11,416.47
                     Vegetable
                     Box
Love in Action      Fresh Fruit/   South East     Dothan       AL              36301      2,950       $85,550.00
 International       Vegetable
 Minist              Box
Love in Action      Fresh Fruit/   Mid-Atlantic   Randallstow  MD              21133        250        $5,237.50
 Worship             Vegetable                     n
                     Box
Love Inc.           Fluid Milk     South East     Live Oak     FL              32064         80          $303.20
Love Inc.           Fresh Fruit/   Midwest        Allendale    MI              49401         63        $2,266.74
                     Vegetable
                     Box
Love Inc.           Fresh Fruit/   Midwest        Muskegon     MI              49442         99        $3,562.02
                     Vegetable
                     Box
Love Inc. Merced    Combination    Western        Merced       CA              95341        280       $14,683.20
                     Box
Love Inc. of        Dairy          Midwest        Huntington   IN              46750        420       $15,498.00
 Huntington County   Products Box
Love Inc. of        Dairy          Midwest        Huntington   IN              46792        168        $6,132.00
 Huntington County   Products Box
Love Ministries     Fresh Fruit/   Mid-Atlantic   Pennsauken   NJ              08110      1,197       $22,683.15
 Outreach Intl       Vegetable
                     Box
Love of Jesus Food  Fluid Milk     Mid-Atlantic   Paterson     NJ              07501        214        $5,107.68
 Pantry
Love of Jesus Food  Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07501        288        $6,618.24
 Pantry              Vegetable
                     Box
Lovejoy Discovery   Fresh Fruit/   North East     Buffalo      NY              14210        375        $8,568.75
 School              Vegetable
                     Box
Loves & Fishes      Fluid Milk     South East     Biloxi       MS              39530        180          $682.20
Loves & Fishes      Fluid Milk     Midwest        Biloxi       OH              39530        672        $2,546.88
Lovin Spoonfuls     Fresh Fruit/   North East     Boston       MA              02134      2,184       $47,938.80
                     Vegetable
                     Box
Loving Hearts/Stl   Fresh Fruit/   Mountain       Washington   MO              63090        180        $5,760.00
 Food Bank           Vegetable      Plains
                     Box
Loving Word         Fresh Fruit/   South West     Houston      TX              77076      8,368      $142,172.32
 Fellowship Church   Vegetable
                     Box
Lowcountry Food     Fresh Fruit/   South East     Charleston   SC              29405     13,580      $271,600.00
 Bank                Vegetable
                     Box
Lowcountry Food     Fresh Fruit/   South East     North        SC              29405     23,590      $471,800.00
 Bank                Vegetable                     Charleston
                     Box
Lowcountry Food     Fresh Fruit/   South East     Yemassee     SC              29945        828       $24,840.00
 Bank--Yemassee      Vegetable
                     Box
Lowcountry Hope     Fresh Fruit/   South East     North        SC              29418        750       $22,500.00
 Center Bread        Vegetable                     Charleston
 Basket              Box
Lowell Greenhalge   Fresh Fruit/   North East     Lowell       MA              01852        168        $3,687.60
 School              Vegetable
                     Box
Lowell Public       Fresh Fruit/   Midwest        Lowell       MI              49331        490       $17,630.20
 Schools             Vegetable
                     Box
Lowell Rogers       Fresh Fruit/   North East     Lowell       MA              01852        840       $18,438.00
 School              Vegetable
                     Box
Lower Merion Sch.   Fluid Milk     Mid-Atlantic   Ardmore      PA              19003      3,600        $5,364.00
 Dis.
Lower Midwest       Fresh Fruit/   Midwest        Indianapoli  IN              46241     54,992    $1,978,612.16
 Regional Produce    Vegetable                     s
 Gleaners Food       Box
 Bank
Lowery Elementary   Fresh Fruit/   Midwest        Dearborn     MI              48124        250        $3,737.50
 School              Vegetable
                     Box
Lowndes Community   Fresh Fruit/   South East     Fort         AL              36032      1,680       $43,596.00
 Center              Vegetable                     Deposit
                     Box
LRCOG               Combination    South East     Auburn       AL              36832        840       $63,882.00
                     Box
LSS Champion        Fresh Fruit/   Midwest        Columbus     OH              43206        324        $4,050.00
                     Vegetable
                     Box
LSS Fairfield       Fresh Fruit/   Midwest        Lancaster    OH              43130        256        $4,992.00
                     Vegetable
                     Box
LSS Food Pantires   Fluid Milk     Midwest        Columbus     OH              43206        400        $1,328.00
LT Hollieman        Fluid Milk     South West     Waller       TX              77484      1,498        $4,504.66
Lubavitch Mesivta   Fresh Fruit/   Midwest        Chicago      IL              60645        290        $5,823.90
 of Chicago F2F      Vegetable
                     Box
Lucedale Cogic      Dairy          South East     Lucedale     MS              39452        240        $6,739.20
                     Products Box
Lucedale Cogic      Dairy          South East     Lucedale     MS              39452        640       $17,971.20
                     Products Box
Lucedale Cogic      Fresh Fruit/   South East     Lucedale     MS              39452        192        $3,244.80
                     Vegetable
                     Box
Lucedale Cogic      Precooked      South East     Lucedale     MS              39452        252       $10,347.12
                     Meat Box
Lucero Del Alba     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        150        $5,850.00
                     Vegetable
                     Box
Lucha               Fresh Fruit/   Mid-Atlantic   San Juan     PR              00924        546       $21,294.00
                     Vegetable
                     Box
Ludington           Dairy          Midwest        Ludington    MI              49431        300        $8,700.00
                     Products Box
Ludington           Fresh Fruit/   Midwest        Ludington    MI              49431        725       $15,468.75
                     Vegetable
                     Box
Ludington Senior    Dairy          Midwest        Ludington    MI              49431        125        $3,625.00
 Center              Products Box
Ludington Senior    Fresh Fruit/   Midwest        Ludington    MI              49431        250        $5,325.00
 Center              Vegetable
                     Box
Luke Jackson, Jr.   Combination    South East     Newbern      AL              36765        560       $42,588.00
 City of Perry       Box
 Fire Dept
Lumberton High      Dairy          South East     Lumberton    MS              39455        960       $26,956.80
 Football            Products Box
Lumberton High      Precooked      South East     Lumberton    MS              39455        840       $34,490.40
 Football            Meat Box
Lumberton Rebuild   Dairy          South East     Lumberton    NC              28358        232        $1,160.00
 Center              Products Box
Lumberton Rebuild   Fluid Milk     South East     Lumberton    NC              28358        500        $2,000.00
 Center
Lumberton Rebuild   Fresh Fruit/   South East     Lumberton    NC              28358      2,484       $68,310.00
 Center              Vegetable
                     Box
Lumberton Rebuild   Precooked      South East     Lumberton    NC              28358        650       $12,675.00
 Center              Meat Box
Lumpkin County      Fluid Milk     South East     Dahlonega    GA              30533        260          $985.40
 Schools
Lumpkin County      Fresh Fruit/   South East     Dahlonega    GA              30533        260        $5,200.00
 Schools             Vegetable
                     Box
Lunenburg COA       Combination    North East     Lunenburg    MA              01462         20          $760.00
                     Box
Lunenburg COA       Precooked      North East     Lunenburg    MA              01462         20        $1,086.00
                     Meat Box
Luth. Comm. Ptry.   Fluid Milk     Midwest        Evansville   IN              47711        324          $729.00
 Milk 2 Plt.
Luther and          Combination    South West     Wellston     OK              74881      1,440       $50,356.80
 Wellston United     Box
 Methodist
Lutheran Church     Combination    Western        Renton       WA              98055        400       $14,000.00
 Missouri/King of    Box
 Kings Foodbank
Lutheran Church     Dairy          Western        Renton       WA              98055        400       $12,000.00
 Missouri/King of    Products Box
 Kings Foodbank
Lutheran Church     Fresh Fruit/   Western        Renton       WA              98055        650       $17,650.00
 Missouri/King of    Vegetable
 Kings Foodbank      Box
Lutheran Church of  Fresh Fruit/   Midwest        Arlington    IL              60005        252        $9,066.96
 the Cross           Vegetable                     Hgts
                     Box
Lutheran Social     Fresh Fruit/   Western        Anchorage    AK              99503        144        $4,024.80
                     Vegetable
                     Box
Lutheran Social     Fresh Fruit/   Midwest        Lancaster    OH              43130        128        $2,496.00
 Services Caldwell   Vegetable
                     Box
Lutheran Social     Fresh Fruit/   Midwest        Columbus     OH              43206        324        $4,050.00
 Services Champion   Vegetable
                     Box
Lutheran Social     Fresh Fruit/   Midwest        Lancaster    OH              43130        256        $4,992.00
 Services            Vegetable
 Fairfield           Box
Lutheran Social     Fresh Fruit/   Midwest        Columbus     OH              43215        344        $5,196.00
 Services Faith      Vegetable
                     Box
Lutheran Social     Fresh Fruit/   Midwest        Lancaster    OH              43130        576       $11,232.00
 Services            Vegetable
 Lancaster           Box
Lutheran Social     Fresh Fruit/   Midwest        Columbus     OH              43219        256        $4,992.00
 Services            Vegetable
 Northeast Campus    Box
LVEJO               Combination    Midwest        Chicago      IL              60621        222       $13,790.64
                     Box
LVEJO               Combination    Midwest        Chicago      IL              60623        162       $10,883.16
                     Box
LVEJO               Fresh Fruit/   Midwest        Chicago      IL              60621        162       $10,377.72
                     Vegetable
                     Box
Lynn Camp Schools   Fluid Milk     South East     Corbin       KY              40701        948        $3,592.92
Lynn Classical      Fresh Fruit/   North East     Lynn         MA              01902         56        $1,229.20
 High                Vegetable
                     Box
Lynn English High   Fresh Fruit/   North East     Lynn         MA              01902        112        $2,458.40
                     Vegetable
                     Box
Lynn Haven United   Fresh Fruit/   South East     Panama City  FL              32405        450       $13,050.00
 Methodist Church    Vegetable
                     Box
Lynn Institute for  Dairy          South West     Oklahoma     OK              73117      1,056       $48,322.56
 Healthcare          Products Box                  City
Lynn Institute for  Fluid Milk     South West     Oklahoma     OK              73112        990       $23,700.60
 Healthcare                                        City
Lynn Institute for  Fresh Fruit/   South West     Oklahoma     OK              73112      1,078       $25,117.40
 Healthcare          Vegetable                     City
                     Box
Lynn Marshall       Fresh Fruit/   North East     Lynn         MA              01902         56        $1,229.20
 Middle              Vegetable
                     Box
Lynn Salvation      Fresh Fruit/   North East     Lynn         MA              01902      2,800       $79,632.00
 Army                Vegetable
                     Box
Lynn Voc. Tech.     Fresh Fruit/   North East     Lynn         MA              01902         56        $1,229.20
 School              Vegetable
                     Box
Lyon Co. School     Fluid Milk     South East     Eddyville    KY              42303      1,448        $3,258.00
Lyons First UMC     Fluid Milk     Midwest        Lyons        IN              47443      1,350        $3,037.50
M.D. Anderson       Fresh Fruit/   South West     Houston      TX              77009      4,080       $69,319.20
 Family YMCA         Vegetable
                     Box
MacArthur           Fresh Fruit/   South West     Galena Park  TX              77547      1,344       $22,834.56
 Elementary          Vegetable
                     Box
Macataw Bay MS      Fresh Fruit/   Midwest        Holland      MI              49424        252        $9,066.96
                     Vegetable
                     Box
Macedonia Baptist   Combination    South East     Waycross     GA              31501      2,240      $170,352.00
 Church              Box
Macedonia Baptist   Fresh Fruit/   South East     Waycross     GA              31501      7,680      $145,459.20
 Church              Vegetable
                     Box
Macedonia Baptist   Precooked      South East     Brookhaven   MS              39601        504       $20,694.24
 Church              Meat Box
Macedonia Church    Fresh Fruit/   South East     Pantego      NC              27860        200        $7,142.00
 of Christ           Vegetable
                     Box
Macedonia Cogic--C/ Fresh Fruit/   South East     Dyersburg    TN              38024        540       $13,230.00
 O MD South Food     Vegetable
 Bank                Box
Macedonia           Fresh Fruit/   South East     Crestview    FL              32536        550       $15,950.00
 Community           Vegetable
 Development         Box
Macedonia MBC--C/O  Fresh Fruit/   South East     Memphis      TN              38107        648       $15,876.00
 Mid South Food      Vegetable
 Bank                Box
Mackida Loveal      Combination    Midwest        Indianapoli  IN              46201         75       $11,250.00
 Trip Outreach       Box                           s
 Center
Mackida Loveal      Combination    Midwest        Indianapoli  IN              46218      3,268      $490,200.00
 Trip Outreach       Box                           s
 Center
Mackida Loveal      Fluid Milk     Midwest        Indianapoli  IN              46218      1,000        $4,000.00
 Trip Outreach                                     s
 Center
Macomb City Family  Fresh Fruit/   Midwest        Mount        MI              48043        100        $1,495.00
 Res Center          Vegetable                     Clemens
                     Box
Macomb Community    Dairy          Midwest        Clinton      MI              48036      2,564       $62,228.28
 Action              Products Box                  Township
Macomb Community    Fresh Fruit/   Midwest        Clinton      MI              48036      3,532       $79,515.32
 Action              Vegetable                     Township
                     Box
Macomb Community    Precooked      Midwest        Clinton      MI              48036      3,179      $108,093.31
 Action              Meat Box                      Township
Macon County        Fresh Fruit/   South East     Marshallvil  GA              31057        420        $7,954.80
                     Vegetable                     le
                     Box
Macon County        Fluid Milk     Mountain       Macon        MO              63552        620        $1,395.00
 Ministries                         Plains
Macon Food          Precooked      Mountain       Macon        MO              63552         38        $1,710.00
 Cooperative         Meat Box       Plains
Mad Co. Purdue      Fluid Milk     Midwest        Anderson     IN              46013      2,500       $10,000.00
 Extension
Madera Food Bank    Fresh Fruit/   Western        Madera       CA              93637        539       $14,515.27
                     Vegetable
                     Box
Madison Area YMCA   Fresh Fruit/   Mid-Atlantic   Madison      NJ              07940        189        $3,581.55
                     Vegetable
                     Box
Madison County      Fresh Fruit/   South East     Marshall     NC              28753        474       $13,035.00
 Extension of fice   Vegetable
                     Box
Madison County      Fresh Fruit/   Mountain       Frederickto  MO              63645        460       $12,650.00
 Food Pantry         Vegetable      Plains         wn
                     Box
Madison Heights     Fresh Fruit/   Midwest        Madison      MI              48071        150        $2,242.50
 High School         Vegetable                     Heights
                     Box
Madison High        Fresh Fruit/   Midwest        Madison      MI              48071      1,950       $40,267.50
 School              Vegetable                     Heights
                     Box
Madonna University  Fresh Fruit/   Midwest        Livonia      MI              48150      2,100       $31,395.00
                     Vegetable
                     Box
Madras United       Fresh Fruit/   Western        Madras       OR              97741        120        $5,640.00
 Methodisst          Vegetable
                     Box
Magazine Trinity    Combination    South West     Magazine     AR              72943      1,728       $60,428.16
                     Box
Magazine Trinity    Dairy          South West     Magazine     AR              72943        576       $26,357.76
                     Products Box
Magazine Trinity    Fresh Fruit/   South West     Magazine     AR              72943      2,499       $58,226.70
                     Vegetable
                     Box
Magees Creek Mb.    Fluid Milk     South East     Tylertown    MS              39667        540        $2,046.60
 Ch.
Magnificat Houses   Fresh Fruit/   South West     Houston      TX              77004         64        $1,087.36
                     Vegetable
                     Box
Magnolia Multi      Dairy          South West     Houston      TX              77011        500       $22,880.00
 Service Center      Products Box
Magruder Park       Fresh Fruit/   Mid-Atlantic   Hyattsville  MD              20781      3,900       $78,000.00
                     Vegetable
                     Box
Mahn--Greater       Fresh Fruit/   Mid-Atlantic   Oaks         PA              19456      3,024       $69,491.52
 Philly Expo         Vegetable
 Center              Box
Main Branch         Fresh Fruit/   South West     Arlington    TX              76011        144        $2,446.56
                     Vegetable
                     Box
Main St. of         Dairy          Midwest        Golconda     IL              62938        900       $26,775.00
 Golconda            Products Box
Main St. of         Fresh Fruit/   Midwest        Golconda     IL              62938      1,000       $27,500.00
 Golconda            Vegetable
                     Box
Main Street         Fresh Fruit/   South East     Double       AL              35553        300        $7,500.00
 Ministries          Vegetable                     Springs
                     Box
Mainspring          Fluid Milk     Western        Portland     OR              97220        840        $4,452.00
 Portland
Major Hospital      Fluid Milk     Midwest        Shelbyville  IN              46176      4,320       $17,280.00
 Fndtn
Major Taylor        Fluid Milk     Midwest        Indianapoli  IN              46222      1,000        $4,000.00
 Velodrome                                         s
Malama Kauai        Dairy          Western        Kilauea      HI              96754        250        $1,750.00
                     Products Box
Malama Kauai        Dairy          Western        Kapaa        HI              96755        100          $700.00
                     Products Box
Malama Kauai        Dairy          Western        Kualapuu     HI              96757        100          $700.00
                     Products Box
Malama Kauai        Dairy          Western        Kunia        HI              96759        100          $700.00
                     Products Box
Malama Kauai        Dairy          Western        Lahaina      HI              96761        100          $700.00
                     Products Box
Malama Kauai        Dairy          Western        Lanai City   HI              96763        100          $700.00
                     Products Box
Malama Kauai        Fresh Fruit/   Western        Kilauea      HI              96754      1,675       $58,625.00
                     Vegetable
                     Box
Malama Kauai        Fresh Fruit/   Western        Koloa        HI              96756        380       $13,300.00
                     Vegetable
                     Box
Malama Kauai        Fresh Fruit/   Western        Kurtistown   HI              96760        400       $14,000.00
                     Vegetable
                     Box
Malama Kauai        Fresh Fruit/   Western        Laie         HI              96762        275        $9,625.00
                     Vegetable
                     Box
Malama Kauai--      Dairy          Western        Kilauea      HI              96754        200        $1,400.00
 Kapaa High School   Products Box
Malama Kauai--      Fresh Fruit/   Western        Kilauea      HI              96754        873       $30,555.00
 Kapaa High School   Vegetable
                     Box
Malama Kauai--      Dairy          Western        Kilauea      HI              96754        150        $1,050.00
 Kekaha Elementary   Products Box
 School
Malama Kauai--      Fresh Fruit/   Western        Kilauea      HI              96754        600       $21,000.00
 Kekaha Elementary   Vegetable
 School              Box
Malama Kauai--      Dairy          Western        Kilauea      HI              96754        200        $1,400.00
 Kilauea             Products Box
 Elementary School
Malama Kauai--      Fresh Fruit/   Western        Kilauea      HI              96754        790       $27,650.00
 Kilauea             Vegetable
 Elementary School   Box
Malama Kauai--King  Dairy          Western        Kilauea      HI              96754        150        $1,050.00
 Kaumuali'i          Products Box
 Elementary School
Malama Kauai--King  Fresh Fruit/   Western        Kilauea      HI              96754        586       $20,510.00
 Kaumuali'i          Vegetable
 Elementary School   Box
Malama Kauai--      Dairy          Western        Kilauea      HI              96754        150        $1,050.00
 Koloa Elementary    Products Box
 School
Malama Kauai--      Fresh Fruit/   Western        Kilauea      HI              96754        600       $21,000.00
 Koloa Elementary    Vegetable
 School              Box
Malama Koloa        Fresh Fruit/   Western        Koloa        HI              96756        225        $8,775.00
                     Vegetable
                     Box
Malden High School  Fresh Fruit/   North East     Malden       MA              02148        546       $11,984.70
                     Vegetable
                     Box
Mallilieu Church    Fresh Fruit/   South East     Atlanta      GA              30344        250        $5,000.00
                     Vegetable
                     Box
Malone Central      Fresh Fruit/   North East     Malone       NY              12953        125        $2,500.00
 School              Vegetable
                     Box
Mam--Grizzlies      Fresh Fruit/   South East     Memphis      TN              38114      1,512       $37,044.00
 Center--C/O Mid     Vegetable
 South Food Bank     Box
Mancelona Public    Fresh Fruit/   Midwest        Mancelona    MI              49659      1,050       $37,779.00
 Schools             Vegetable
                     Box
Manejo De           Combination    Mid-Atlantic   Lajas        PR              00667      2,880      $249,840.00
 Emergencias         Box
Mangilao Mayor's    Fresh Fruit/   Western        Mangilao     Guam            96913        600       $36,000.00
 of fice             Vegetable
                     Box
Mangrove Mike's     Fresh Fruit/   South East     Islamorada   FL              33036     17,120      $428,000.00
 Endeavors           Vegetable
                     Box
Manna               Fresh Fruit/   Midwest        Indianapoli  IN              46241      1,540       $55,409.20
                     Vegetable                     s
                     Box
Manna Cafe          Fluid Milk     South East     Clarksville  TN              37042      7,263       $16,341.75
Manna Food Bank     Dairy          South East     Asheville    NC              28805        192        $4,675.20
                     Products Box
Manna Food Bank     Fluid Milk     South East     Asheville    NC              28805      2,304        $9,077.76
Manna Food Bank     Fresh Fruit/   South East     Asheville    NC              28805      4,540      $106,590.82
                     Vegetable
                     Box
Manna Food Bank     Precooked      South East     Asheville    NC              28805      1,773       $62,707.36
                     Meat Box
Manna Food Bank     Fresh Fruit/   South East     Asheville    NC              28805      6,030      $142,247.70
 Asheville           Vegetable
                     Box
Manna Food Bank     Precooked      South East     Asheville    NC              28805      1,274       $51,902.76
 Asheville           Meat Box
Manna Food Bank     Fresh Fruit/   South East     Pensacola    FL              32504      1,600       $46,400.00
 Inc.                Vegetable
                     Box
Manna Food Project  Fresh Fruit/   Midwest        Harbor       MI              49740      4,984      $119,616.00
                     Vegetable                     Springs
                     Box
Manna House         Fluid Milk     South East     Rincon       GA              31326      6,480       $25,336.80
Manna Ministries    Fluid Milk     South East     Picayune     MS              39466        720        $2,728.80
Manna Ministries    Fresh Fruit/   South East     Alabaster    AL              35007      1,880       $52,640.00
                     Vegetable
                     Box
Manna Ministries    Fresh Fruit/   Western        Jurupa       CA              92508        340        $9,860.00
                     Vegetable                     Valley
                     Box
Manna Ministries    Fresh Fruit/   Western        Jurupa       CA              92509        170        $4,930.00
                     Vegetable                     Valley
                     Box
Manna on Main       Precooked      Mid-Atlantic   Lansdale     PA              19446         15          $270.00
 Street              Meat Box
Manna Outreach      Dairy          Midwest        Peoria       IL              61602        100        $2,975.00
                     Products Box
Manna Outreach      Fresh Fruit/   Midwest        Peoria       IL              61602        150        $4,125.00
                     Vegetable
                     Box
Mannahouse Church   Combination    Western        Portland     OR              97223        240        $8,400.00
 Tigard USDA         Box
Mannahouse Church   Dairy          Western        Portland     OR              97223        150        $4,500.00
 Tigard USDA         Products Box
Mannahouse Church   Fresh Fruit/   Western        Portland     OR              97223         60        $1,620.00
 Tigard USDA         Vegetable
                     Box
Mannahouse Church   Combination    Western        Vancouver    WA              98684      1,200       $42,000.00
 Vancouv             Box
Mannahouse Church   Dairy          Western        Vancouver    WA              98684        550       $16,500.00
 Vancouv             Products Box
Mannahouse Church   Fresh Fruit/   Western        Vancouver    WA              98684        300        $8,100.00
 Vancouv             Vegetable
                     Box
Mannahouse Rocky    Combination    Western        Acme         WA              98220        240        $8,400.00
 Butte               Box
Mannahouse Rocky    Dairy          Western        Acme         WA              98220        100        $3,000.00
 Butte               Products Box
Mannahouse Rocky    Combination    Western        Portland     OR              97220        420       $14,700.00
 Butte USDA          Box
Mannahouse Rocky    Dairy          Western        Portland     OR              97220        350       $10,500.00
 Butte USDA          Products Box
Mannahouse Rocky    Fresh Fruit/   Western        Portland     OR              97220        180        $4,860.00
 Butte USDA          Vegetable
                     Box
Manno Outreach      Dairy          Midwest        Peoria       IL              61603         50        $1,487.50
                     Products Box
Mansfield COA       Combination    North East     Mansfield    MA              02048         50        $1,640.00
                     Box
Mansfield COA       Precooked      North East     Mansfield    MA              02048         50        $2,715.00
                     Meat Box
Mansfield Isd.      Fluid Milk     South West     Mansfield    TX              76063        400        $9,576.00
Manzanita           Dairy          South West     Cordes       AZ              86333      1,170       $31,005.00
                     Products Box                  Junction
Manzanita           Dairy          South West     Cordes       AZ              86333        432       $11,448.00
                     Products Box                  Lakes
Manzanita           Dairy          South West     Prescott     AZ              86301      1,608       $42,612.00
                     Products Box
Manzanita           Fresh Fruit/   South West     Cordes       AZ              86333      1,752       $38,281.20
                     Vegetable                     Junction
                     Box
Manzanita           Fresh Fruit/   South West     Prescott     AZ              86301      1,120       $24,472.00
                     Vegetable
                     Box
Manzanita           Fresh Fruit/   South West     Cordes       AZ              86333        420        $9,177.00
                     Vegetable                     Lakes
                     Box
Manzanita           Dairy          South West     Cottonwood   AZ              86326      2,376       $62,964.00
 Cottonwood          Products Box
Manzanita           Fresh Fruit/   South West     Cottonwood   AZ              86326      3,280       $71,668.00
 Cottonwood          Vegetable
                     Box
Manzanita           Fresh Fruit/   Western        Oakland      CA              94606        900       $18,450.00
 Recreation Center   Vegetable
                     Box
Maple Creek Multi-  Fresh Fruit/   South East     Greer        SC              29650        812       $24,360.00
 Cultural Dev.       Vegetable
                     Box
Maple Heights       Dairy          Midwest        Maple        OH              44137        200        $5,000.00
 Senior              Products Box                  Heights
Maple Morgan Park   Fresh Fruit/   Midwest        Chicago      IL              60643        252        $9,066.96
                     Vegetable
                     Box
Maple Morgan Park   Precooked      Midwest        Chicago      IL              60643        216       $17,521.92
                     Meat Box
Maplemere           Fresh Fruit/   North East     Amherst      NY              14221         70        $1,599.50
 Elementary          Vegetable
                     Box
Maplewood           Fresh Fruit/   Mountain       Kansas City  MO              64119        490       $12,691.00
 Elementary School   Vegetable      Plains
                     Box
Maranatha Seventh   Fresh Fruit/   South East     Montgomery   AL              36105        650       $16,867.50
 Day Adventist       Vegetable
                     Box
Maranatha Seventh   Fresh Fruit/   South East     Montgomery   AL              36116        500       $12,975.00
 Day Adventist       Vegetable
                     Box
Maranatha Seventh   Fresh Fruit/   South East     Montgomery   AL              36116        648       $16,815.60
 Day Adventist       Vegetable
                     Box
Marblehead Charter  Fresh Fruit/   North East     Marblehead   MA              01945        280        $6,146.00
 Sch.                Vegetable
                     Box
Marcus Point        Fresh Fruit/   South East     Pensacola    FL              32505        350       $10,150.00
 Baptist Church      Vegetable
                     Box
Marcus Whitman      Dairy          North East     Dundee       NY              14837        315       $13,923.00
 School              Products Box
Marcus Whitman      Dairy          North East     Penn Yann    NY              14527        300       $13,260.00
 School              Products Box
Marcus Whitman      Dairy          North East     Rushville    NY              14544        300       $13,260.00
 School              Products Box
Marcus Whitman      Precooked      North East     Dundee       NY              14837        315       $17,199.00
 School              Meat Box
Marcus Whitman      Precooked      North East     Penn Yann    NY              14527        336       $18,345.60
 School              Meat Box
Marcus Whitman      Precooked      North East     Rushville    NY              14544        336       $18,345.60
 School              Meat Box
Maree G. Farring    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21225      1,050       $21,000.00
 Elementary/Middle   Vegetable
                     Box
Marillac            Precooked      Midwest        Chicago      IL              60612        144       $11,681.28
                     Meat Box
Marillac House      Fresh Fruit/   Midwest        Chicago      IL              60612        126        $4,533.48
                     Vegetable
                     Box
Marillac House      Precooked      Midwest        Chicago      IL              60612        144       $11,681.28
                     Meat Box
Marillac House      Fresh Fruit/   Midwest        Chicago      IL              60612        708       $10,584.60
 Food Pantry         Vegetable
                     Box
Marin Food Bank     Fluid Milk     Western        San          CA              94107      4,224       $16,008.96
                                                   Francisco
Marin Food Bank     Fresh Fruit/   Western        San          CA              94124      7,920      $176,220.00
                     Vegetable                     Francisco
                     Box
Marin Food Bank     Fresh Fruit/   Western        San Rafael   CA              94901     14,504      $304,780.00
                     Vegetable
                     Box
Marion City         Fresh Fruit/   Midwest        Marion       OH              43302      2,719       $48,826.35
 Schools             Vegetable
                     Box
Marion City         Precooked      Midwest        Marion       OH              43302        950       $42,744.50
 Schools             Meat Box
Marion County       Fluid Milk     South East     Foxworth     MS              39483        194          $735.26
Marion Institute    Fresh Fruit/   North East     Marion       MA              02738      3,328       $83,200.00
                     Vegetable
                     Box
Marion Ministerial  Fresh Fruit/   Midwest        Marion       IL              62959         60        $1,650.00
                     Vegetable
                     Box
Marion Polk Food    Combination    Western        Salem        OR              97301      8,760      $306,600.00
 Share               Box
Marion Polk Food    Dairy          Western        Salem        OR              97301      9,920      $303,996.00
 Share               Products Box
Marion Polk Food    Fluid Milk     Western        Salem        OR              97301      4,200       $19,992.00
 Share
Marion Polk Food    Fresh Fruit/   Western        Salem        OR              97301      6,820      $184,140.00
 Share               Vegetable
                     Box
Marissa Fd. Pntry.  Fluid Milk     Midwest        Marissa      IL              62257        135          $303.75
Marissa Food        Fresh Fruit/   Midwest        Marrissa     IL              62257        100        $2,750.00
 Pantry              Vegetable
                     Box
Market House        Fresh Fruit/   Mid-Atlantic   Elizabethto  PA              17022         72        $1,654.56
                     Vegetable                     wn
                     Box
Marketplace         Fresh Fruit/   South East     Livingston   AL              35470        680       $17,646.00
 Grocery             Vegetable
                     Box
Markham Elementary  Combination    Western        Portland     OR              97219         77        $2,695.00
 School USDA         Box
Markham Elementary  Dairy          Western        Portland     OR              97219        150        $4,500.00
 School USDA         Products Box
Markham Elementary  Fresh Fruit/   Western        Portland     OR              97219        120        $3,240.00
 School USDA         Vegetable
                     Box
Markham Middle      Fresh Fruit/   Western        Los Angeles  CA              90002      1,520       $38,000.00
 School              Vegetable
                     Box
Marklund Wasmond    Fresh Fruit/   Midwest        Elgin        IL              60123         50        $1,375.00
 Center              Vegetable
                     Box
Marlette Community  Fresh Fruit/   Midwest        Marlette     MI              48455        882       $31,734.36
 Schools             Vegetable
                     Box
Marquardt Middle    Fresh Fruit/   Midwest        Glendale     IL              60139      1,004       $27,610.00
 School              Vegetable                     Height
                     Box
Marquardt Middle    Fresh Fruit/   Midwest        Glendale     IL              60139      1,000       $27,500.00
 School              Vegetable                     Heights
                     Box
Marquardt SD 15     Fresh Fruit/   Midwest        Glendale     IL              60139        500       $13,750.00
                     Vegetable                     Heights
                     Box
Marshall            Fresh Fruit/   Western        Castro       CA              94546      2,720       $57,320.00
 Elementary School   Vegetable                     Valley
 Pta                 Box
Marshfield          Fresh Fruit/   Mountain       Marshfield   MO              65706        285        $7,837.50
 Christian Church    Vegetable      Plains
                     Box
Marshfield COA      Combination    North East     Marshfield   MA              02050         50        $1,640.00
                     Box
Marshfield COA      Precooked      North East     Marshfield   MA              02050         50        $2,715.00
                     Meat Box
Marshfield Public   Fresh Fruit/   North East     Marshfield   MA              02050        336        $7,375.20
 Schools             Vegetable
                     Box
Martha & Marys      Combination    Western        Jerome       ID              83338        520       $22,880.00
 Food Pantry         Box
Martha & Marys      Fresh Fruit/   Western        Jerome       ID              83338        650       $16,900.00
 Food Pantry         Vegetable
                     Box
Martha's Kitchen    Fresh Fruit/   Western        San Jose     CA              95110      1,400       $34,650.00
                     Vegetable
                     Box
Martin Branch       Fresh Fruit/   South West     Fort Worth   TX              76105        144        $2,446.56
                     Vegetable
                     Box
Martin Elementary   Fresh Fruit/   South West     Houston      TX              77072      1,098       $13,916.52
 Brighter Bites      Vegetable
                     Box
Martin Park         Fresh Fruit/   Western        Fresno       CA              93722      3,059       $82,378.87
                     Vegetable
                     Box
Martin's Creek      Fresh Fruit/   South East     Murphy       NC              28906        450       $12,375.00
 Community Center    Vegetable
                     Box
Mary Hill Family    Fresh Fruit/   South East     Ozark        AL              36360      1,875       $52,500.00
 Center              Vegetable
                     Box
Mary Immaculate     Fresh Fruit/   Mountain       Gallatin     MO              64640        320        $8,288.00
 Church              Vegetable      Plains
                     Box
Mary Queen          Fresh Fruit/   South West     Friendswood  TX              77546        512        $8,698.88
 Catholic Church     Vegetable
                     Box
Mary Queen of       Fluid Milk     Midwest        Cleveland    OH              44109        184          $632.04
Marygrove Head      Fresh Fruit/   Midwest        Detroit      MI              48221        900       $13,455.00
 Start               Vegetable
                     Box
Maryhaven           Fresh Fruit/   Midwest        Columbus     OH              43207        225        $2,812.50
                     Vegetable
                     Box
Maryland Buddhist   Fluid Milk     Mid-Atlantic   Silver       MD              20904        960       $17,692.80
 Vihara                                            Spring
Maryland Buddhist   Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      1,200       $39,852.00
 Vihara              Vegetable                     Spring
                     Box
Maryland Food Bank  Dairy          Mid-Atlantic   Baltimore    MD              21227      1,690       $57,020.60
                     Products Box
Maryland Food Bank  Dairy          Mid-Atlantic   Salisbury    MD              21801      3,380      $114,041.20
                     Products Box
Maryland Food Bank  Fluid Milk     Mid-Atlantic   Baltimore    MD              21227        528       $10,412.16
Maryland Food Bank  Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21227     24,217      $503,961.08
                     Vegetable
                     Box
Maryland Food Bank  Fresh Fruit/   Mid-Atlantic   Salisbury    MD              21803      9,648      $289,440.00
                     Vegetable
                     Box
Maryland Food Bank  Precooked      Mid-Atlantic   Baltimore    MD              21227      1,440      $102,441.60
                     Meat Box
Maryland Food Bank  Precooked      Mid-Atlantic   Salisbury    MD              21801      1,440      $102,441.60
                     Meat Box
Maryland Food       Dairy          Mid-Atlantic   Salisbury    MD              21801      1,690       $57,020.60
 Bank--Eastern       Products Box
 Shore
Maryland Food       Fluid Milk     Mid-Atlantic   Salisbury    MD              21801        528       $10,412.16
 Bank--Eastern
 Shore
Maryland Food       Fresh Fruit/   Mid-Atlantic   Hagerstown   MD              21740      4,900       $98,855.00
 Bank--Western       Vegetable
                     Box
Mary's Place        Fresh Fruit/   North East     Rochester    NY              14613        268        $6,123.80
                     Vegetable
                     Box
Marysville          Fresh Fruit/   Midwest        Marysville   MI              48040        518       $18,637.64
 Community Schools   Vegetable
                     Box
MAS #1              Dairy          Midwest        Detroit      MI              48219        150        $4,350.00
                     Products Box
MAS #1              Fresh Fruit/   Midwest        Detroit      MI              48219        650       $13,862.50
                     Vegetable
                     Box
Masconomet Reg.     Fresh Fruit/   North East     Boxford      MA              01921        336        $7,375.20
                     Vegetable
                     Box
Mascoth Fd. Pntry.  Fluid Milk     Midwest        Mascoutah    IL              62258        450        $1,012.50
Mascoutah Food      Fluid Milk     Midwest        Mascoutah    IL              62258        225          $506.25
 Pantry
Mason Clark Middle  Fresh Fruit/   Midwest        East Saint   IL              62203      1,200       $23,964.00
 School              Vegetable                     Louis
                     Box
Mason County        Dairy          Midwest        Scottville   MI              49454        100        $2,900.00
 Central Schools     Products Box
Mason County        Fresh Fruit/   Midwest        Scottville   MI              49454        451       $11,420.98
 Central Schools     Vegetable
                     Box
Mason County        Combination    Western        Shelton      WA              98584        900       $31,500.00
 Senir. Activ.       Box
Mason County        Dairy          Western        Shelton      WA              98584        100        $3,000.00
 Senir. Activ.       Products Box
Mason County        Fresh Fruit/   Western        Shelton      WA              98584        360        $9,720.00
 Senir. Activ.       Vegetable
                     Box
Mason Middle        Fresh Fruit/   Midwest        Mason        MI              48854        200        $7,196.00
 School              Vegetable
                     Box
Mason Middle        Fresh Fruit/   Midwest        Scottville   MI              49454        126        $4,533.48
 School              Vegetable
                     Box
Mason Public        Fresh Fruit/   Midwest        Mason        MI              48854        800       $28,784.00
 Schools             Vegetable
                     Box
Mason Senior High   Dairy          Midwest        Mason        MI              48854        600       $14,562.00
 School              Products Box
Mason Senior High   Fresh Fruit/   Midwest        Mason        MI              48854        500       $10,458.00
 School              Vegetable
                     Box
Mason Senior High   Precooked      Midwest        Mason        MI              48854        400       $15,342.00
 School              Meat Box
Masphee Wampanoag   Fresh Fruit/   North East     Mashpee      MA              02648         81        $2,142.12
 Tribe               Vegetable
                     Box
Masphee Wampanoag   Fresh Fruit/   North East     Mashpee      MA              02649         28          $797.51
 Tribe               Vegetable
                     Box
Massac Co. COLP     Dairy          Midwest        Metropolis   IL              62960        230        $6,842.50
 Food Pantry         Products Box
Massac Co. COLP     Fresh Fruit/   Midwest        Metropolis   IL              62960        230        $6,325.00
 Food Pantry         Vegetable
                     Box
Massac Co. Food     Dairy          Midwest        Metropolis   IL              62960         50        $1,487.50
 Pantry              Products Box
Massac Co. Food     Fresh Fruit/   Midwest        Metropolis   IL              62960         50        $1,375.00
 Pantry              Vegetable
                     Box
Massac COLP Food    Fresh Fruit/   Midwest        Metropolis   IL              62960         50        $1,375.00
 Pantry              Vegetable
                     Box
Massachusetts       Fresh Fruit/   North East     West         MA              02668     16,640      $442,624.00
 Military Support    Vegetable                     Barnstable
 Foundation          Box
Master Provisions   Fluid Milk     South East     Florence     KY              41042      2,520        $8,366.40
Mathilda Theiss     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15213        360       $10,800.00
                     Vegetable
                     Box
Matrix Center       Fresh Fruit/   Midwest        Detroit      MI              48205        700       $10,465.00
                     Vegetable
                     Box
Matrix Comm.        Fresh Fruit/   South East     Santa Rosa   FL              32459      2,400       $69,600.00
 Outreach Center     Vegetable                     Beach
 Inc.                Box
Matrix Comm.        Fresh Fruit/   South East     Laurel Hill  FL              32567      1,200       $34,800.00
 Outreach Center     Vegetable
 Inc.                Box
Matrix Community    Fresh Fruit/   South East     Defuniak     FL              32433      4,800      $139,200.00
 Outreach            Vegetable                     Springs
                     Box
Matrix Human        Fresh Fruit/   Midwest        Detroit      MI              48207        150        $2,242.50
 Services            Vegetable
                     Box
Mattawan            Dairy          Midwest        Mattawan     MI              49071         74        $2,146.00
 Consolidated        Products Box
 Schools
Mattawan            Fresh Fruit/   Midwest        Mattawan     MI              49071        150        $3,195.00
 Consolidated        Vegetable
 Schools             Box
Matthew 25--C/O     Fresh Fruit/   South East     Dyersburg    TN              38024      2,430       $59,535.00
 Mid South Food      Vegetable
 Bank                Box
Matthew 25          Precooked      Midwest        Blue Ash     OH              45242        440       $19,641.44
 Ministies           Meat Box
Matthew 25          Dairy          Midwest        Mansfield    OH              44906        850       $21,250.00
 Outreach            Products Box
Matthew A. Henson   Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        250        $5,237.50
                     Vegetable
                     Box
Matthew's Crossing  Fluid Milk     South West     Chandler     AZ              85225        432        $2,030.40
Matthew's Market--  Fluid Milk     Midwest        Rochester    IN              46975        500        $2,000.00
 Rochester
Mattie Rhodes       Fresh Fruit/   Mountain       Kansas City  MO              64123        240        $6,216.00
 Center              Vegetable      Plains
                     Box
Maui Food Bank      Fluid Milk     Western        Wailuku      HI              96793      5,328       $22,271.04
Maui Food Bank      Fresh Fruit/   Western        Wailuku      HI              96793      1,780       $64,080.00
                     Vegetable
                     Box
Maui Food Bank      Precooked      Western        Wailuku      HI              96793      2,780      $111,200.00
                     Meat Box
Maumee City         Fresh Fruit/   Midwest        Maumee       OH              43537        225        $2,812.50
 Schools Gateway     Vegetable
 MS                  Box
Maumee Gateway MS   Fresh Fruit/   Midwest        Maumee       OH              43537        108        $1,350.00
                     Vegetable
                     Box
Maxey Elementary    Precooked      South East     Winter       FL              34787        550       $20,116.66
                     Meat Box                      Garden
Maximum Impact      Fluid Milk     South East     Atlanta      GA              30336        960        $3,753.60
 Love
Maya High School    Fluid Milk     South West     Phoenix      AZ              85051        288        $1,353.60
Mayor & City of     Fresh Fruit/   Mid-Atlantic   Laurel       MD              20707      1,000       $20,000.00
 Laurel              Vegetable
                     Box
MBFB Mountain       Fresh Fruit/   Mid-Atlantic   Abingdon     MD              21009        425        $8,903.75
 Christian           Vegetable
                     Box
McGee Ave. Baptist  Fresh Fruit/   Western        Berkeley     CA              94703        300        $6,150.00
 Church              Vegetable
                     Box
McAlester Boys and  Combination    South West     McAlester    OK              74051      1,440       $50,356.80
 Girls Club          Box
McAlester Boys and  Dairy          South West     McAlester    OK              74051      2,112       $96,645.12
 Girls Club          Products Box
McAlester Boys and  Fluid Milk     South West     McAlester    OK              74051        495       $11,850.30
 Girls Club
McAlester Boys and  Fresh Fruit/   South West     McAlester    OK              74051      1,850       $27,508.60
 Girls Club          Vegetable
                     Box
McBee Elementary    Fresh Fruit/   South West     Austin       TX              78758      4,216       $71,629.84
                     Vegetable
                     Box
McCalla Church of   Fresh Fruit/   South East     Bessemer     AL              35022        510       $13,234.50
 the Highlands       Vegetable
                     Box
McCollough/UNIS     Fresh Fruit/   Midwest        Dearborn     MI              48126        400        $8,450.00
                     Vegetable
                     Box
MCCSA Jasper CCSFP  Fluid Milk     South East     Heidelburg   MS              39439        540        $2,046.60
MCCSA Wayne         Fluid Milk     South East     Waynesboro   MS              39367        500        $1,895.00
McCulloh Homes      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21201      1,450       $29,000.00
                     Vegetable
                     Box
McDonough High      Fresh Fruit/   South East     Mcdonough    GA              30253      1,920       $36,364.80
 School              Vegetable
                     Box
McFarland           Fresh Fruit/   South East     Memphis      TN              38118        324        $7,938.00
 Community Center--  Vegetable
 C/O Mid South       Box
 Food Ba
McFoods             Fluid Milk     Mid-Atlantic   East         NJ              08816      3,120       $57,782.40
                                                   Brunswick
McFoods             Fluid Milk     Mid-Atlantic   East         NJ              08817        600       $11,184.00
                                                   Brunswick
McFoods             Fluid Milk     Mid-Atlantic   East         NJ              08818        120        $2,211.60
                                                   Brunswick
McFoods             Fresh Fruit/   Mid-Atlantic   East         NJ              08816      2,400       $79,704.00
                     Vegetable                     Brunswick
                     Box
MCII Farmington     Fresh Fruit/   Mountain       Farmington   MO              63640        500       $13,750.00
                     Vegetable      Plains
                     Box
MCJ El Rey Church   Fresh Fruit/   Mid-Atlantic   Beltsville   MD              20705      1,700       $47,600.00
                     Vegetable
                     Box
McKenny             Fresh Fruit/   Midwest        Detroit      MI              48219        150        $2,242.50
 Development         Vegetable
 Center              Box
McKinley            Fresh Fruit/   Midwest        Warren       MI              48089        125        $1,868.75
 Elementary School   Vegetable
                     Box
McKinley Food       Dairy          Midwest        Willoughby   OH              44094         65        $1,625.00
 Pantry              Products Box
McKinney Memorial   Fluid Milk     South West     La Marque    TX              77568        712        $2,108.04
McKinny Vento       Fresh Fruit/   Western        Idaho Falls  ID              83401         56        $1,118.32
                     Vegetable
                     Box
McKinny Vento       Fresh Fruit/   Western        Nampa        ID              83686        224        $5,820.64
                     Vegetable
                     Box
McLean Bible        Fluid Milk     Mid-Atlantic   Vienna       VA              22182      5,136       $74,424.00
 Church C/O
 Capital Fb
McLean Bible        Fresh Fruit/   Mid-Atlantic   Vienna       VA              22182     18,724      $383,827.52
 Church C/O          Vegetable
 Capital Fb          Box
MCM Food Pantry     Combination    South West     Muskogee     OK              74401      2,880      $100,713.60
                     Box
MCM Food Pantry     Dairy          South West     Muskogee     OK              74401      1,632       $74,680.32
                     Products Box
MCM Food Pantry     Fluid Milk     South West     Muskogee     OK              74401        315        $7,541.10
MCM Food Pantry     Fresh Fruit/   South West     Muskogee     OK              74401      1,225       $28,542.50
                     Vegetable
                     Box
MCOE Campus Park    Combination    Western        Livingston   CA              95334         70        $3,670.80
 Headstart           Box
MCOE Castle Head    Combination    Western        Atwater      CA              95301        140        $7,341.60
 Start               Box
MCOE Danielson      Combination    Western        Merced       CA              95340         70        $3,670.80
 Head Start          Box
MCOE Fairside Head  Combination    Western        Merced       CA              95340         70        $3,670.80
 Start               Box
Mcoe Galen Clark    Fresh Fruit/   Western        Merced       CA              95340         70        $2,578.10
 Head Start          Vegetable
                     Box
MCOE Head Start     Combination    Western        Delhi        CA              95313         70        $3,670.80
 Delhi               Box
MCOE Hilmar Head    Combination    Western        Hilmar       CA              95324         70        $3,670.80
 Start               Box
MCOE Mitchell Head  Fresh Fruit/   Western        Atwater      CA              95301         70        $2,578.10
 Start               Vegetable
                     Box
MCOE Pioneer Head   Fresh Fruit/   Western        Gustine      CA              95322         77        $2,073.61
 Start               Vegetable
                     Box
MCOE Planada Head   Combination    Western        Planada      CA              95365        154        $8,075.76
 Start               Box
MCOE--San Luis      Fresh Fruit/   Western        Los Banos    CA              93635        154        $4,147.22
 Head Start          Vegetable
                     Box
MCOE Shattuck Park  Combination    Western        Delhi        CA              95313         70        $3,670.80
 Head Start          Box
MCOE Shelby Head    Combination    Western        Livingston   CA              95334         70        $3,670.80
 Start               Box
MCOE South Dos      Fresh Fruit/   Western        Dos Palos    CA              93620         77        $2,073.61
 Palos Head Start    Vegetable
                     Box
MCOE--Westside      Fresh Fruit/   Western        Los Banos    CA              93635        154        $4,147.22
 Center Head Start   Vegetable
                     Box
MCPS Adventist      Fresh Fruit/   Mid-Atlantic   Ashton       MD              20861        100        $2,800.00
                     Vegetable
                     Box
MCPS Adventist      Fresh Fruit/   Mid-Atlantic   Silver       MD              20910      1,792       $50,176.00
 Care                Vegetable                     Spring
                     Box
MCPS Amherst Apts.  Fresh Fruit/   Mid-Atlantic   Silver       MD              20902        500       $14,000.00
                     Vegetable                     Spring
                     Box
MCPS Arcola Towers  Fresh Fruit/   Mid-Atlantic   Silver       MD              20902        400       $11,200.00
                     Vegetable                     Spring
                     Box
MCPS Asociacion     Fresh Fruit/   Mid-Atlantic   Silver       MD              20903        300        $8,400.00
 Civica              Vegetable                     Spring
 Nicarguense         Box
MCPS Aspen Hill     Fresh Fruit/   Mid-Atlantic   Silver       MD              20906        125        $3,500.00
 Christian Church    Vegetable                     Spring
                     Box
MCPS Astha Adult    Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      1,500       $42,000.00
 Day Care            Vegetable                     Spring
                     Box
MCPS Belair Park    Fresh Fruit/   Mid-Atlantic   Silver       MD              20912         25          $700.00
                     Vegetable                     Spring
                     Box
MCPS Bethel         Fresh Fruit/   Mid-Atlantic   Silver       MD              20910        240        $6,720.00
 Capitol Church      Vegetable                     Spring
                     Box
MCPS Bethel World   Fresh Fruit/   Mid-Atlantic   Olney        MD              20832        450       $12,600.00
 Outreach Church     Vegetable
                     Box
MCPS Black Rock     Fresh Fruit/   Mid-Atlantic   Germantown   MD              20874      1,986       $55,608.00
 Center              Vegetable
                     Box
MCPS Blair Park     Fresh Fruit/   Mid-Atlantic   Silver       MD              20912         25          $700.00
                     Vegetable                     Spring
                     Box
MCPS Blair Park     Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912         50        $1,400.00
                     Vegetable
                     Box
MCPS Bold Pantry    Fresh Fruit/   Mid-Atlantic   Beltsville   MD              20705      3,150       $88,200.00
                     Vegetable
                     Box
MCPS Bold Pantry    Fresh Fruit/   Mid-Atlantic   Capitol      MD              20743        150        $4,200.00
                     Vegetable                     Heights
                     Box
MCPS Bold Pantry    Fresh Fruit/   Mid-Atlantic   Silver       MD              20902        350        $9,800.00
                     Vegetable                     Spring
                     Box
MCPS Bold           Fresh Fruit/   Mid-Atlantic   Adelphi      MD              20783        150        $4,200.00
 Primitive Haitian   Vegetable
 Church              Box
MCPS Broad Acres    Fresh Fruit/   Mid-Atlantic   Silver       MD              20903        125        $3,500.00
                     Vegetable                     Spring
                     Box
MCPS Cambridge      Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912         90        $2,520.00
 Apts.               Vegetable
                     Box
MCPS Charter House  Fresh Fruit/   Mid-Atlantic   Silver       MD              20910         60        $1,680.00
                     Vegetable                     Spring
                     Box
MCPS Christian      Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20879        100        $2,800.00
 Church of MD        Vegetable                     g
                     Box
MCPS Cinnamon Run   Fresh Fruit/   Mid-Atlantic   Silver       MD              20906        112        $3,136.00
                     Vegetable                     Spring
                     Box
MCPS Clarksburg     Fresh Fruit/   Mid-Atlantic   Boyds        MD              20841         50        $1,400.00
 Can                 Vegetable
                     Box
MCPS Clifton Park   Fresh Fruit/   Mid-Atlantic   Silver       MD              20903      2,015       $56,420.00
 Church              Vegetable                     Spring
                     Box
MCPS Clifton Park   Fresh Fruit/   Mid-Atlantic   Silver       MD              20910        100        $2,800.00
 Church              Vegetable                     Spring
                     Box
MCPS Cornerstone    Fresh Fruit/   Mid-Atlantic   Silver       MD              20902         68        $1,904.00
 Montgomery          Vegetable                     Spring
                     Box
MCPS Covenant Life  Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877        482       $13,496.00
 Church              Vegetable                     g
                     Box
MCPS Crystal        Fresh Fruit/   Mid-Atlantic   Silver       MD              20906        398       $11,144.00
 Springs Apts.       Vegetable                     Spring
                     Box
MCPS Damascus Help  Fresh Fruit/   Mid-Atlantic   Damascus     MD              20872        130        $3,640.00
                     Vegetable
                     Box
MCPS Discovery      Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877         26          $728.00
 Station Early       Vegetable                     g
 Headstart           Box
MCPS East County    Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      2,100       $58,800.00
                     Vegetable                     Spring
                     Box
MCPS Edinburgh      Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        220        $6,160.00
 House               Vegetable
                     Box
MCPS Edison Center  Fresh Fruit/   Mid-Atlantic   Silver       MD              20905        400       $11,200.00
                     Vegetable                     Spring
                     Box
MCPS Episcopal      Fresh Fruit/   Mid-Atlantic   Silver       MD              20904        200        $5,600.00
 Church of Savior    Vegetable                     Spring
                     Box
MCPS Epworth        Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877        345        $9,660.00
 Methodist Church    Vegetable                     g
                     Box
MCPS Essex House    Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        450       $12,600.00
 Apts.               Vegetable
                     Box
MCPS Faith          Fresh Fruit/   Mid-Atlantic   Capitol      MD              20743        350        $9,800.00
 Assembly            Vegetable                     Heights
                     Box
MCPS Fas            Fresh Fruit/   Mid-Atlantic   Wheaton      MD              20901        125        $3,500.00
 Marketplace         Vegetable
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      2,800       $78,400.00
                     Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877        328        $9,184.00
 Help                Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20878         90        $2,520.00
 Help                Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      1,000       $28,000.00
 HS                  Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      1,168       $32,704.00
 Middle              Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      1,000       $28,000.00
 MS                  Vegetable                     g
                     Box
MCPS Gaithersburg   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877        725       $20,300.00
 MS Family           Vegetable                     g
 Services            Box
MCPS Germantown CC  Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20874        200        $5,600.00
                     Vegetable                     g
                     Box
MCPS Germantown CC  Fresh Fruit/   Mid-Atlantic   Germantown   MD              20874        250        $7,000.00
                     Vegetable
                     Box
MCPS Germantown     Fresh Fruit/   Mid-Atlantic   Germantown   MD              20874        600       $16,800.00
 Community Rec       Vegetable
                     Box
MCPS Germantown     Fresh Fruit/   Mid-Atlantic   Germantown   MD              20874        135        $3,780.00
 Help                Vegetable
                     Box
MCPS Germantown     Fresh Fruit/   Mid-Atlantic   Germantown   MD              20876        500       $14,000.00
 Help                Vegetable
                     Box
MCPS Grace Life     Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      2,240       $62,720.00
 Church              Vegetable                     g
                     Box
MCPS Greencastle    Fresh Fruit/   Mid-Atlantic   Silver       MD              20904        100        $2,800.00
 ES YMCA             Vegetable                     Spring
                     Box
MCPS Hampshire      Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        450       $12,600.00
 Tower Apts.         Vegetable
                     Box
MCPS Highland       Fresh Fruit/   Mid-Atlantic   Silver       MD              20902        500       $14,000.00
                     Vegetable                     Spring
                     Box
MCPS Holiday Park   Fresh Fruit/   Mid-Atlantic   Silver       MD              20906      2,438       $68,264.00
 Senior Center       Vegetable                     Spring
                     Box
MCPS Hughes         Fresh Fruit/   Mid-Atlantic   Wheaton      MD              20902        450       $12,600.00
 Methodist Church    Vegetable
                     Box
MCPS Iglesia        Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877        900       $25,200.00
 Bautista De         Vegetable                     g
 Washington          Box
MCPS Iglesia        Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      1,090       $30,520.00
 Bautista De         Vegetable                     Spring
 Washington          Box
MCPS Imaan Center   Fresh Fruit/   Mid-Atlantic   Silver       MD              20910        130        $3,640.00
                     Vegetable                     Spring
                     Box
MCPS Independence   Fresh Fruit/   Mid-Atlantic   Silver       MD              20904         42        $1,176.00
 Now                 Vegetable                     Spring
                     Box
MCPS Independence   Fresh Fruit/   Mid-Atlantic   Columbia     MD              21044         50        $1,400.00
 Now                 Vegetable
                     Box
MCPS Iverson Mall   Fresh Fruit/   Mid-Atlantic   Hanover      MD              21076        500       $14,000.00
                     Vegetable
                     Box
MCPS Jesus House    Fresh Fruit/   Mid-Atlantic   Silver       MD              20910        200        $5,600.00
                     Vegetable                     Spring
                     Box
MCPS Karen          Fresh Fruit/   Mid-Atlantic   Silver       MD              20905         85        $2,380.00
 Schilling Edison    Vegetable                     Spring
 Center              Box
MCPS Kings          Fresh Fruit/   Mid-Atlantic   Silver       MD              20904        150        $4,200.00
 International       Vegetable                     Spring
                     Box
MCPS Langley        Fresh Fruit/   Mid-Atlantic   Silver       MD              20903         75        $2,100.00
 Gardens             Vegetable                     Spring
                     Box
MCPS Liberty Grove  Fresh Fruit/   Mid-Atlantic   Burtonsvill  MD              20866        190        $5,320.00
 Methodist           Vegetable                     e
                     Box
MCPS Living         Fresh Fruit/   Mid-Atlantic   Fulton       MD              20759         50        $1,400.00
 Legends             Vegetable
                     Box
MCPS Living         Fresh Fruit/   Mid-Atlantic   Ashton       MD              20861        874       $24,472.00
 Legends             Vegetable
                     Box
MCPS Luther Rice    Fresh Fruit/   Mid-Atlantic   Silver       MD              20902      1,325       $37,100.00
 Church              Vegetable                     Spring
                     Box
MCPS Manna          Fluid Milk     Mid-Atlantic   Gaithersbur  MD              20877        288        $5,299.20
                                                   g
MCPS Manna          Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      2,176       $60,928.00
                     Vegetable                     g
                     Box
MCPS Maple Apts.    Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912         80        $2,240.00
                     Vegetable
                     Box
MCPS Marlene Rivas  Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20879         41        $1,148.00
                     Vegetable                     g
                     Box
MCPS Millian        Fresh Fruit/   Mid-Atlantic   Rockville    MD              20853        125        $3,500.00
 Methodist Church    Vegetable
                     Box
MCPS Montgomery     Fresh Fruit/   Mid-Atlantic   Rockville    MD              20850        500       $14,000.00
 College             Vegetable
                     Box
MCPS Muslim         Fresh Fruit/   Mid-Atlantic   Silver       MD              20905         26          $728.00
 Community Center    Vegetable                     Spring
                     Box
MCPS Muslim         Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20879         70        $1,960.00
 Organization        Vegetable                     g
                     Box
MCPS Nations        Fresh Fruit/   Mid-Atlantic   Silver       MD              20904         26          $728.00
 United Church       Vegetable                     Spring
                     Box
MCPS NHAVN MD       Fresh Fruit/   Mid-Atlantic   Silver       MD              20903         70        $1,960.00
                     Vegetable                     Spring
                     Box
MCPS Nourish Now    Fresh Fruit/   Mid-Atlantic   Rockville    MD              20852      6,914      $193,592.00
                     Vegetable
                     Box
MCPS Oak Grove AME  Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20880        448       $12,544.00
 Zion Church         Vegetable                     g
                     Box
MCPS Oak Grove AME  Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20882        112        $3,136.00
 Zion Church         Vegetable                     g
                     Box
MCPS Parkview       Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        240        $6,720.00
 Towers              Vegetable
                     Box
MCPS Rainbow        Fresh Fruit/   Mid-Atlantic   Silver       MD              20904      5,344      $149,632.00
                     Vegetable                     Spring
                     Box
MCPS Resurrection   Fresh Fruit/   Mid-Atlantic   Silver       MD              20905        200        $5,600.00
 Baptist Church      Vegetable                     Spring
                     Box
MCPS Reverend Tony  Fresh Fruit/   Mid-Atlantic   Hanover      MD              21076        400       $11,200.00
                     Vegetable
                     Box
MCPS Rockville      Fresh Fruit/   Mid-Atlantic   Rockville    MD              20850        120        $3,360.00
 Assembly of God     Vegetable
                     Box
MCPS Rolling        Fresh Fruit/   Mid-Atlantic   Silver       MD              20912        300        $8,400.00
 Terrace Good        Vegetable                     Spring
 Acres               Box
MCPS Sarah          Fresh Fruit/   Mid-Atlantic   Silver       MD              20904         17          $476.00
 Basehart            Vegetable                     Spring
 Independence Now    Box
MCPS Seneca Creek   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20878         80        $2,240.00
 Church              Vegetable                     g
                     Box
MCPS Seneca Creek   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877         66        $1,848.00
 Heights             Vegetable                     g
                     Box
MCPS Seneca Creek   Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20878         50        $1,400.00
 Heights             Vegetable                     g
                     Box
MCPS Seven Locks    Fresh Fruit/   Mid-Atlantic   Potomac      MD              20854        170        $4,760.00
 Baptist Church      Vegetable
                     Box
MCPS Severna Park   Fresh Fruit/   Mid-Atlantic   Pasadena     MD              21122         85        $2,380.00
 Evangelical         Vegetable
                     Box
MCPS Shephards      Fresh Fruit/   Mid-Atlantic   Silver       MD              20910          3           $84.00
 Table               Vegetable                     Spring
                     Box
MCPS Silver Spring  Fresh Fruit/   Mid-Atlantic   Silver       MD              20901      2,450       $57,400.00
 Reform Christian    Vegetable                     Spring
                     Box
MCPS Sligo          Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        300        $8,400.00
 Adventist           Vegetable
                     Box
MCPS Sligo View     Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912         60        $1,680.00
                     Vegetable
                     Box
MCPS Southern       Fresh Fruit/   Mid-Atlantic   Burtonsvill  MD              20866        650       $18,200.00
 Bethany Church      Vegetable                     e
                     Box
MCPS St. Judes      Fresh Fruit/   Mid-Atlantic   Rockville    MD              20853      1,100       $30,800.00
 Church              Vegetable
                     Box
MCPS St. Judes      Fresh Fruit/   Mid-Atlantic   Rockville    MD              20854        500       $14,000.00
 Church              Vegetable
                     Box
MCPS St. Camillus   Fresh Fruit/   Mid-Atlantic   Silver       MD              20903      3,775       $88,900.00
 Church              Vegetable                     Spring
                     Box
MCPS St. Martins    Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20877      2,480       $69,440.00
 Church              Vegetable                     g
                     Box
MCPS Takoma Park    Fresh Fruit/   Mid-Atlantic   Silver       MD              20910      1,050       $29,400.00
 MS                  Vegetable                     Spring
                     Box
MCPS Takoma Park    Fresh Fruit/   Mid-Atlantic   Takoma Park  MD              20912        874       $24,472.00
 Ss Coop             Vegetable
                     Box
MCPS Tazeen         Fresh Fruit/   Mid-Atlantic   Potomac      MD              20854         30          $840.00
                     Vegetable
                     Box
MCPS                Fresh Fruit/   Mid-Atlantic   Rockville    MD              20852      3,784      $105,952.00
 Transportation      Vegetable
 Depot               Box
MCPS                Fresh Fruit/   Mid-Atlantic   Rockville    MD              20855     20,470      $573,160.00
 Transportation      Vegetable
 Depot               Box
MCPS University     Fresh Fruit/   Mid-Atlantic   Silver       MD              20903         75        $2,100.00
 Landing             Vegetable                     Spring
                     Box
MCPS Up2Us          Fresh Fruit/   Mid-Atlantic   Rockville    MD              20850        500       $14,000.00
 Foundation          Vegetable
                     Box
MCPS Up2Us          Fresh Fruit/   Mid-Atlantic   Potomac      MD              20854         60        $1,680.00
 Foundation          Vegetable
                     Box
MCPS Victory        Fresh Fruit/   Mid-Atlantic   Gaithersbur  MD              20878         25          $700.00
 Christian Church    Vegetable                     g
                     Box
MCPS Washington     Fresh Fruit/   Mid-Atlantic   Silver       MD              20904        314        $8,792.00
 Spanish Bilingual   Vegetable                     Spring
                     Box
MCPS Wheaton Woods  Fresh Fruit/   Mid-Atlantic   Rockville    MD              20853        368       $10,304.00
 Es                  Vegetable
                     Box
MCPS Woman Who      Fresh Fruit/   Mid-Atlantic   Montgomery   MD              20879        300        $8,400.00
 Cares               Vegetable                     Village
                     Box
MCPS Woman Who      Fresh Fruit/   Mid-Atlantic   Montgomery   MD              20886      1,576       $44,128.00
 Cares               Vegetable                     Village
                     Box
MCPS Yad Yehuda     Fresh Fruit/   Mid-Atlantic   Silver       MD              20902        150        $4,200.00
 Capital Kosher      Vegetable                     Spring
 Pantry              Box
MDFB Halethorpe     Fresh Fruit/   Mid-Atlantic   Halethorpe   MD              21227      2,950       $61,802.50
                     Vegetable
                     Box
MDFB Western MD     Fresh Fruit/   Mid-Atlantic   Cumberland   MD              21502        300        $6,285.00
                     Vegetable
                     Box
Mdining-Maize and   Dairy          Midwest        Ann Arbor    MI              48109         30          $728.10
 Blu Cupboard        Products Box
Mdining-Maize and   Fresh Fruit/   Midwest        Ann Arbor    MI              48109         50          $974.70
 Blu Cupboard        Vegetable
                     Box
Mdining-Maize and   Precooked      Midwest        Ann Arbor    MI              48109        160        $5,778.84
 Blu Cupboard        Meat Box
Meade Village Boys  Fresh Fruit/   Mid-Atlantic   Severn       MD              21144        200        $4,190.00
 & Girls             Vegetable
                     Box
Meadowlands Elem.   Fluid Milk     South East     Owensboro    KY              42301        648        $1,458.00
Meadowlands Elem.   Fluid Milk     South East     Owensboro    KY              42303      3,906        $8,788.50
Meadows School      Dairy          Western        Portland     OR              97236         50        $1,500.00
 USDA                Products Box
Meadows School      Fresh Fruit/   Western        Portland     OR              97236        315        $8,505.00
 USDA                Vegetable
                     Box
Meals By Grace      Fluid Milk     South East     Cumming      GA              30040        800        $3,032.00
Meals By Grace      Fresh Fruit/   South East     Cumming      GA              30040      1,040       $19,697.60
                     Vegetable
                     Box
Meals on Wheel      Dairy          Midwest        Grand        MI              49505        240        $6,960.00
 West Michigan       Products Box                  Rapids
 Senior Pantry
Meals on Wheel      Fresh Fruit/   Midwest        Grand        MI              49505      1,069       $31,646.82
 West Michigan       Vegetable                     Rapids
 Senior Pantry       Box
Meals on Wheels     Combination    Western        Portland     OR              97219     13,619      $476,665.00
                     Box
Meals on Wheels     Combination    South West     Grapevine    TX              76051         28          $979.16
                     Box
Meals on Wheels     Dairy          Western        Portland     OR              97219        450       $13,500.00
                     Products Box
Meals on Wheels     Dairy          South West     Grapevine    TX              76051         45        $2,059.20
                     Products Box
Meals on Wheels     Fresh Fruit/   Midwest        Merrillvill  IN              46410         72        $2,880.00
                     Vegetable                     e
                     Box
Meals on Wheels     Fresh Fruit/   Western        Portland     OR              97219      3,171       $85,617.00
                     Vegetable
                     Box
Meals on Wheels     Fresh Fruit/   South West     Grapevine    TX              76051         60          $770.00
                     Vegetable
                     Box
Meals on Wheels     Fresh Fruit/   South West     San Antonio  TX              78229         93        $2,325.00
                     Vegetable
                     Box
Meals on Wheels     Fresh Fruit/   South West     Dallas       TX              75235        576        $9,786.24
 DFW                 Vegetable
                     Box
Meals on Wheels     Fresh Fruit/   South West     Dallas       TX              75247        150        $2,548.50
 DFW                 Vegetable
                     Box
Mecosta Co. Comm.   Fresh Fruit/   Midwest        Mecosta      MI              49332        800       $16,935.00
 on Aging            Vegetable
                     Box
Medfield High Sch.  Fresh Fruit/   North East     Medfield     MA              02052        504       $11,062.80
                     Vegetable
                     Box
Medina Creative     Fluid Milk     Midwest        Medina       OH              44256         96          $340.80
Meenakshi Temple    Fresh Fruit/   South West     Pearland     TX              77584        320        $5,436.80
 (SEWA)              Vegetable
                     Box
Meeting the Needs   Fluid Milk     South East     Owenton      KY              40359      4,320        $9,720.00
 Mnstr.
Mel Trotter         Precooked      Midwest        Grand        MI              49503      1,038       $40,318.91
 Mission             Meat Box                      Rapids
Melba Valley        Fresh Fruit/   Western        Melba        ID              83641        436       $11,336.00
 Senior Center       Vegetable
                     Box
Melrose COA         Combination    North East     Melrose      MA              02176         80        $3,040.00
                     Box
Melrose COA         Precooked      North East     Melrose      MA              02176         80        $4,344.00
                     Meat Box
Melrose High        Fresh Fruit/   North East     Melrose      MA              02176        448        $9,833.60
 School              Vegetable
                     Box
Melrose MBC--C/O    Fresh Fruit/   South East     Memphis      TN              38106        162        $3,969.00
 Mid South Food      Vegetable
 Bank                Box
Memorial Baptist    Dairy          South East     Williamston  NC              27892        270        $1,350.00
 Church              Products Box
Memorial Baptist    Fluid Milk     South East     Williamston  NC              27892        440        $1,760.00
 Church
Memorial Baptist    Fresh Fruit/   South East     Moultrie     GA              31768      7,680      $145,459.20
 Church              Vegetable
                     Box
Memorial Baptist    Precooked      South East     Williamston  NC              27892        450        $8,775.00
 Church              Meat Box
Memorial Hermann    Fresh Fruit/   South West     Houston      TX              77074        128        $2,174.72
 Sharpstown C.       Vegetable
                     Box
Memorial United     Fluid Milk     South West     Austin       TX              78723         80          $233.60
 Met
Memphis Central--C/ Fresh Fruit/   South East     Memphis      TN              38128      1,026       $25,137.00
 O Mid South Food    Vegetable
 Bank                Box
Memphis Housing     Fresh Fruit/   South East     Memphis      TN              38106        432       $10,584.00
 Authority--C/O      Vegetable
 Mid South Food      Box
 Bank
Memphis Housing     Fresh Fruit/   South East     Memphis      TN              38105        162        $3,969.00
 Authority--C/O      Vegetable
 Mid South Food      Box
 Bank
Memphis Rox         Fresh Fruit/   South East     Memphis      TN              38106      1,499       $36,725.50
                     Vegetable
                     Box
Men Who Care of     Fluid Milk     Mid-Atlantic   Philadelphi  PA              19144        140        $4,536.00
 Germantown                                        a
Mena AOG            Fresh Fruit/   South West     Mena         AR              71953      2,112       $20,486.40
                     Vegetable
                     Box
Mend NJ             Fresh Fruit/   Mid-Atlantic   Newark       NJ              07108        320        $6,400.00
                     Vegetable
                     Box
Mendon Community    Fresh Fruit/   Midwest        Mendon       MI              49072        623       $22,415.54
 Schools             Vegetable
                     Box
Merced County Food  Combination    Western        Merced       CA              95340      1,140       $59,781.60
 Bank                Box
Merced County Food  Dairy          Western        Merced       CA              95348      2,415       $58,249.80
 Bank                Products Box
Merced County Food  Fresh Fruit/   Western        Merced       CA              95348     11,033      $257,875.81
 Bank                Vegetable
                     Box
Merced Unified      Fresh Fruit/   Western        Livingston   CA              95334        154        $4,147.22
 High School Dis     Vegetable
                     Box
Merced Unified      Combination    Western        Atwater      CA              95301         70        $3,670.80
 High School         Box
 District
Merced Unified      Fresh Fruit/   Western        Atwater      CA              95301         77        $2,073.61
 High School         Vegetable
 District            Box
Mercer Street       Fluid Milk     Mid-Atlantic   Ewing        NJ              08628         35        $1,134.00
 Friends
Mercey Cancer       Combination    Western        Merced       CA              95340        560       $29,366.40
 Center              Box
Mercy & Truth       Fresh Fruit/   Mountain       Bonne Terre  MO              63628        275        $7,562.50
 Fellowship Church   Vegetable      Plains
                     Box
Mercy & Truth       Fresh Fruit/   Mountain       Kansas City  KS              66106        480        $8,781.00
 Medical Missions    Vegetable      Plains
                     Box
Mercy Brown Bag     Fresh Fruit/   Western        Oakland      CA              94601      8,082      $181,108.50
 Program             Vegetable
                     Box
Mercy Chefs         Combination    South East     Panama City  FL              32404      1,344      $102,211.20
                     Box
Mercy Chefs         Fresh Fruit/   South East     Panama City  FL              32401      6,300      $204,750.00
                     Vegetable
                     Box
Mercy Chefs Inc.    Combination    South West     Claremore    OK              74145        288       $10,071.36
                     Box
Mercy Chefs Inc.    Combination    South West     Tulsa        OK              74145        864       $30,214.08
                     Box
Mercy Chefs Inc.    Combination    South West     Claremore    OK              74145        192        $6,714.24
                     Box
Mercy Chefs Inc.    Dairy          South West     Tulsa        OK              74145      2,739      $125,336.64
                     Products Box
Mercy Chefs Inc.    Fluid Milk     South West     Tulsa        OK              74145      2,331       $55,804.14
Mercy Chefs Inc.    Fluid Milk     South West     Claremore    OK              74145      1,219       $29,182.86
Mercy Chefs Inc.    Fresh Fruit/   South West     Tulsa        OK              74145     28,274      $518,990.80
                     Vegetable
                     Box
Mercy Chefs Inc.    Fresh Fruit/   South West     Claremore    OK              74145      2,700       $45,738.00
                     Vegetable
                     Box
Mercy Chefs Inc.    Precooked      South West     Claremore    OK              74017      2,905      $299,650.75
                     Meat Box
Mercy House         Combination    Western        Anaheim      CA              92806         50        $1,362.50
                     Box
Mercy House         Dairy          Western        Anaheim      CA              92806         50        $1,600.00
                     Products Box
Mercy in Action     Precooked      Midwest        Levittsburg  OH              44430         40        $1,867.60
 Ministries          Meat Box
Mercy Multiplied    Fresh Fruit/   Mountain       Fenton       MO              63026         80        $2,072.00
                     Vegetable      Plains
                     Box
Mercy Seat Baptist  Precooked      South East     Port Gibson  MS              39150      4,956      $203,493.36
 Church              Meat Box
Meridian Food Bank  Combination    Western        Meridian     ID              83642        300       $13,200.00
                     Box
Meridian Food Bank  Fresh Fruit/   Western        Meridian     ID              83642        375        $9,750.00
                     Vegetable
                     Box
Merizo Mayor's      Fresh Fruit/   Western        Merizo       Guam            96915        600       $36,000.00
 office              Vegetable
                     Box
Merrillville        Dairy          Midwest        Merrillvill  IN              46410        800       $20,000.00
 Methodist HS        Products Box                  e
Mesi Community      Fluid Milk     South East     Birmingham   AL              35218      6,660       $26,385.40
 Serv.
Meson De Amor       Combination    Mid-Atlantic   San Juan     PR              00925        576       $49,968.00
                     Box
Mesquite            Fluid Milk     South West     Yuma         AZ              85364        270        $2,127.60
Mesquite            Fresh Fruit/   South West     Yuma         AZ              85364        590       $16,225.00
                     Vegetable
                     Box
Messiah BC          Fresh Fruit/   Midwest        Detroit      MI              48221        400        $8,406.25
                     Vegetable
                     Box
Messiah Community   Fresh Fruit/   Mid-Atlantic   Reisterstow  MD              21136        450        $9,427.50
 Church              Vegetable                     n
                     Box
Met Council         Fresh Fruit/   North East     Brooklyn     NY              11234     21,300      $425,361.00
                     Vegetable
                     Box
Met Council         Fresh Fruit/   North East     Brookyln     NY              11234      1,400       $27,958.00
                     Vegetable
                     Box
Metcalfe Co. Elem.  Fluid Milk     South East     Edmonton     KY              42129      2,112        $8,004.48
Methodist Church    Fresh Fruit/   Mountain       Manhattan    KS              66502         50        $2,000.00
                     Vegetable      Plains
                     Box
Methuen High Sch.   Fresh Fruit/   North East     Methuen      MA              01844        448        $9,833.60
                     Vegetable
                     Box
Methuen Tenny       Fresh Fruit/   North East     Methuen      MA              01844        224        $4,916.80
 School              Vegetable
                     Box
Metro Atlanta       Fresh Fruit/   South East     College      GA              30337        280        $5,303.20
 Urban Farm          Vegetable                     Park
                     Box
Metro Family        Fresh Fruit/   Midwest        Chicago      IL              60628      1,638       $58,935.24
 Services            Vegetable
                     Box
Metro Family        Precooked      Midwest        Chicago      IL              60628      1,584      $128,494.08
 Services            Meat Box
Metro Health        Dairy          Midwest        Cleveland    OH              44109        475       $11,875.00
 Mobile Pantry       Products Box
Metro Vineyard      Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Church of San       Box
 Juan
Metrocrest          Fluid Milk     South West     Farmers      TX              75234      4,160       $12,147.20
 Services                                          Brnch
Metrohealth Parma   Dairy          Midwest        Parma        OH              44130         60        $1,500.00
                     Products Box
Metroplitan         Fresh Fruit/   Mountain       Kansas City  KS              66101        320        $8,288.00
 Luthern             Vegetable      Plains
 Ministries Kck      Box
Metropolitan        Fresh Fruit/   Midwest        Flint        MI              48505      2,500       $37,375.00
 Baptist             Vegetable
 Tabernacle          Box
Metropolitan        Fresh Fruit/   Midwest        Roseville    MI              48066        500        $7,475.00
 Church of           Vegetable
 Nazarene            Box
Metropolitan CME    Fresh Fruit/   South East     Birmingham   AL              35218      5,280      $137,016.00
 Church              Vegetable
                     Box
Metropolitan        Precooked      Midwest        Chicago      IL              60653        432       $35,043.84
 Community           Meat Box
 Outreach
Metropolitan        Fresh Fruit/   Mountain       Kansas City  MO              64118        480       $12,432.00
 Luthern Min North   Vegetable      Plains
                     Box
Metropolitan        Fresh Fruit/   Mountain       Kansas City  MO              64109      1,840       $47,656.00
 Luthern             Vegetable      Plains
 Ministries--Hol.    Box
Metropolitan        Fluid Milk     South East     Tampa        FL              33602      4,832       $19,279.68
 Minist.
Metropolitan        Fresh Fruit/   Mid-Atlantic   Hyattsville  MD              20783      4,000       $80,000.00
 Seventh-Day         Vegetable
 Adventist           Box
Metropolitan UMC    Combination    South East     Montgomery   AL              36105      3,696      $281,080.80
                     Box
Metropolitan UMC    Fluid Milk     South East     Montgomery   AL              36105      6,526       $26,038.74
Metropolitan UMC    Fresh Fruit/   South East     Montgomery   AL              36105      2,930       $76,033.50
                     Vegetable
                     Box
Metzger Elementary  Combination    Western        Tigard       OR              97223        120        $4,200.00
 School              Box
Metzger Elementary  Dairy          Western        Tigard       OR              97223        100        $3,000.00
 School              Products Box
Metzger Elementary  Fresh Fruit/   Western        Tigard       OR              97223        420       $11,340.00
 School              Vegetable
                     Box
Mexican American    Combination    Western        Montebello   CA              90640      2,400       $65,400.00
 Opport. Fndtn       Box
Mexican Consulate   Fresh Fruit/   Midwest        Chicago      IL              60607        315       $11,333.70
                     Vegetable
                     Box
Mexico Food Pantry  Dairy          North East     Mexico       NY              13114      1,155       $49,896.00
                     Products Box
Mexico Food Pantry  Fresh Fruit/   North East     Mexico       NY              13114      1,050       $23,100.00
                     Vegetable
                     Box
Mexico Food Pantry  Precooked      North East     Mexico       NY              13114      1,065       $57,084.00
                     Meat Box
Mexico Senior       Fluid Milk     Mountain       Mexico       MO              65265        936        $2,106.00
 Center                             Plains
Mi Casa             Combination    Mid-Atlantic   Ponce        PR              00728        672       $66,528.00
                     Box
Mi Casa Ponce       Combination    Mid-Atlantic   Ponce        PR              00716        776       $64,868.00
 Campus              Box
Miami Dade County-- Fresh Fruit/   South East     Miami        FL              33145     19,160      $479,000.00
 District 5          Vegetable
                     Box
Miami Nation        Combination    Midwest        Peru         IN              46970        200       $30,000.00
                     Box
Miami Rescue        Fresh Fruit/   South East     Miami        FL              33127        480        $8,040.00
 Mission             Vegetable
                     Box
Michigan Center     Dairy          Midwest        Michigan     MI              49254      1,800       $48,652.50
 High School         Products Box                  Center
Michigan Center     Fresh Fruit/   Midwest        Michigan     MI              49254      3,900       $82,180.50
 High School         Vegetable                     Center
                     Box
Michigan Center     Precooked      Midwest        Michigan     MI              49254      1,400       $48,830.40
 High School         Meat Box                      Center
Michigan Ctr.       Dairy          Midwest        Michigan     MI              49254        864       $21,600.00
 Schools             Products Box                  Center
Michigan Food       Fresh Fruit/   Midwest        Marine City  MI              48039      1,200       $23,964.00
 Drive               Vegetable
                     Box
Michigan Muslim     Dairy          Midwest        Burton       MI              48509      1,176       $35,868.00
 Community Council   Products Box
Michigan Muslim     Dairy          Midwest        Dearborn     MI              48128      3,998      $123,955.00
 Community Council   Products Box
Michigan Muslim     Dairy          Midwest        Royal Oak    MI              48073      2,200       $63,800.00
 Community Council   Products Box
Michigan Muslim     Dairy          Midwest        Warren       MI              48092      5,580      $178,320.00
 Community Council   Products Box
Michigan Muslim     Fresh Fruit/   Midwest        Royal Oak    MI              48073      3,633       $79,693.25
 Community Council   Vegetable
                     Box
Mid Ohio Food Bank  Fluid Milk     Midwest        Grove City   OH              43123      4,320       $14,342.40
Mid Ohio Food Bank  Fresh Fruit/   Midwest        Columbus     OH              43123     17,260      $241,640.00
                     Vegetable
                     Box
Mid Ohio Food       Dairy          Midwest        Grove City   OH              43123      3,380       $84,500.00
 Collective          Products Box
Mid Ohio Food       Fluid Milk     Midwest        Grove City   OH              43123      8,280       $27,489.60
 Collective
Mid South Food      Dairy          South East     Memphis      TN              38118     28,308      $707,700.00
 Bank                Products Box
Mid South Food      Fluid Milk     South East     Memphis      TN              38118     83,068      $210,655.96
 Bank
Mid South Food      Fresh Fruit/   South East     Horn Lake    MS              38637        616       $12,289.20
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Olive        MS              38654        616       $12,289.20
 Bank                Vegetable                     Branch
                     Box
Mid South Food      Fresh Fruit/   South East     Tunica       MS              38676      1,248      $112,320.00
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Corinth      MS              38834        576       $51,840.00
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Okolona      MS              38860        616       $12,289.20
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Memphis      TN              38113      1,232       $24,578.40
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Memphis      TN              38115      7,392      $147,470.40
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Memphis      TN              38118     39,896    $1,457,954.40
 Bank                Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Jonestown    MS              38639        560       $11,172.00
 Bank Coahoma        Vegetable
 Jonestown           Box
Mid South Food      Fresh Fruit/   South East     Oxford       MS              38655        280        $5,586.00
 Bank Lafayette      Vegetable
                     Box
Mid South Food      Fresh Fruit/   South East     Sardis       MS              38666        560       $11,172.00
 Bank Panola         Vegetable
 Sardis              Box
Mid State           Fresh Fruit/   South East     Charleston   MS              38921      3,080       $61,446.00
 Opportunity         Vegetable
                     Box
Mid-Atlantic        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19153      7,488      $136,955.52
 Regional Coop       Vegetable                     a
                     Box
Mid-Carolina High   Fresh Fruit/   South East     Prosperity   SC              29727        950       $28,500.00
                     Vegetable
                     Box
Middlbrgh Hts.      Fluid Milk     Midwest        Middleburg   OH              44130        136          $451.52
 Pantry                                            Heights
Middle Georgia      Combination    South East     Macon        GA              31208        560       $42,588.00
 Community Food      Box
 Bank
Middle Georgia      Fluid Milk     South East     Macon        GA              31217     14,256       $56,881.44
 Community Food
 Bank
Middle Georgia      Fresh Fruit/   South East     Macon        GA              31217     15,197      $368,332.00
 Community Food      Vegetable
 Bank                Box
Middle River        Fresh Fruit/   Mid-Atlantic   Middle       MD              21220        250        $5,237.50
 Salvation           Vegetable                     River
                     Box
Middle School of    Fresh Fruit/   Midwest        Jackson      MI              49203      3,024      $108,803.52
 Parkside            Vegetable
                     Box
Middle Tennessee    Fresh Fruit/   South East     Nashville    TN              37228      1,200       $23,964.00
 Food Bank           Vegetable
                     Box
Middleboro Seniors  Combination    North East     Middleboro   MA              02346         18          $590.40
                     Box
Middleboro Seniors  Precooked      North East     Middleboro   MA              02346         17          $923.10
                     Meat Box
Middleburg Heights  Dairy          Midwest        Cleveland    OH              44130         75        $1,875.00
 Senior              Products Box
Middleham St.       Fresh Fruit/   Mid-Atlantic   Lusby        MD              20657        350        $7,000.00
 Peters Parish       Vegetable
                     Box
Midland Baptist/    Combination    South East     Bell Buckle  TN              37020        560       $42,588.00
 Journey of Hope     Box
Midnight Mission    Combination    Western        Los Angeles  CA              90014        150        $4,087.50
 Donation            Box
Midnight Mission    Fluid Milk     Western        Los Angeles  CA              90014        288        $1,368.00
 Donation
Midnight Mission    Fresh Fruit/   Western        Los Angeles  CA              90014        246        $6,112.50
 Donation            Vegetable
                     Box
Mid-State           Fresh Fruit/   South East     Charleston   MS              38921        500        $9,975.00
 Opportunity         Vegetable
                     Box
Midtown Fellowship  Fresh Fruit/   South East     Nashville    TN              37210      1,680       $43,596.00
 Church              Vegetable
                     Box
Midtown             Precooked      Mountain       St. Louis    MO              63110         50        $2,250.00
 Neighborhood        Meat Box       Plains
 Opportunities
Midtown Partners    Fluid Milk     South East     Jackson      MS              39202      1,080        $4,093.20
Midwest Food Bank   Combination    Midwest        Normal       IL              61761     21,494      $230,845.56
                     Box
Midwest Food Bank   Combination    South West     Gilbert      AZ              85233      1,100       $29,975.00
                     Box
Midwest Food Bank   Dairy          Midwest        Peoria       IL              61615      3,412      $107,969.92
                     Products Box
Midwest Food Bank   Dairy          Midwest        Normal       IL              61761     13,146      $417,553.16
                     Products Box
Midwest Food Bank   Dairy          Midwest        Fairfield    IL              62837        250        $7,437.50
                     Products Box
Midwest Food Bank   Dairy          South West     Gilbert      AZ              85233      2,540      $101,094.40
                     Products Box
Midwest Food Bank   Dairy          South West     Bedford      TX              76021      1,100       $50,336.00
                     Products Box
Midwest Food Bank   Fluid Milk     South West     Gilbert      AZ              85233      2,718       $18,488.16
Midwest Food Bank   Fresh Fruit/   Mid-Atlantic   Belle        WV              25015      3,456       $79,418.88
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Peoria       IL              61615        725       $19,937.50
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Blomington   IL              61761      1,008       $27,720.00
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Bloomington  IL              61761      2,120       $58,300.00
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Normal       IL              61761      3,735      $102,712.50
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Fairfield    IL              62837        970       $26,675.00
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   South West     Gilbert      AZ              85233     51,320    $1,403,825.00
                     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   South West     Bedford      TX              76021      1,600       $37,280.00
                     Vegetable
                     Box
Midwest Food Bank   Precooked      South West     Bedford      TX              76021      5,982      $617,043.30
                     Meat Box
Midwest Food Bank   Precooked      South West     Bedford      TX              76201      1,440      $148,536.00
                     Meat Box
Midwest Food Bank   Fresh Fruit/   South West     Bedford      TX              76201      1,408       $23,921.92
 Bedford T.          Vegetable
                     Box
Midwest Food Bank   Dairy          Midwest        Normal       IL              61761      1,000       $29,750.00
 Bloomingto.         Products Box
Midwest Food Bank   Fresh Fruit/   Midwest        Normal       IL              61761      1,000       $27,500.00
 Bloomingto.         Vegetable
                     Box
Midwest Food Bank   Dairy          Midwest        Normal       IL              61761      1,000       $29,750.00
 Bloomington         Products Box
Midwest Food Bank   Dairy          Midwest        Normal       IL              61761      2,000       $59,500.00
 Bloomington         Products Box
Midwest Food Bank   Fresh Fruit/   Midwest        Normal       IL              61761      3,780      $103,950.00
 Bloomington         Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   South East     Eloise       FL              33880     18,144      $444,528.00
 Eloise              Vegetable
                     Box
Midwest Food Bank   Dairy          Midwest        Fairfield    IL              62837        750       $22,312.50
 Fairfield           Products Box
Midwest Food Bank   Fresh Fruit/   Midwest        Fairfield    IL              62837        989       $27,197.50
 Fairfield           Vegetable
                     Box
Midwest Food Bank   Combination    South East     Fort Myers   FL              33905     18,816    $1,430,956.80
 Fort Myers          Box
Midwest Food Bank   Fluid Milk     South East     Fort Myers   FL              33905      6,984       $27,866.16
 Fort Myers
Midwest Food Bank   Fresh Fruit/   South East     Fort Myers   FL              33905     29,808      $730,296.00
 Fort Myers          Vegetable
                     Box
Midwest Food Bank   Combination    Midwest        Indianapoli  IN              46217     10,588      $113,715.12
 Indy                Box                           s
Midwest Food Bank   Dairy          Midwest        Indianapoli  IN              46217     10,892      $327,589.92
 Indy                Products Box                  s
Midwest Food Bank   Dairy          Midwest        Normal       IL              61761         --              $--
 Indy                Products Box
Midwest Food Bank   Fresh Fruit/   Midwest        Indianapoli  IN              46217      6,000      $165,000.00
 Indy                Vegetable                     s
                     Box
Midwest Food Bank   Fresh Fruit/   South East     Naples       FL              34109      9,814      $240,443.00
 Naples              Vegetable
                     Box
Midwest Food Bank   Fluid Milk     South East     Peachtree    GA              30269     11,232       $43,692.48
 of GA                                             City
Midwest Food Bank   Fresh Fruit/   South East     Peachtree    GA              30269     11,600      $219,704.00
 of GA               Vegetable                     City
                     Box
Midwest Food Bank   Fresh Fruit/   Midwest        Peoria       IL              61615      1,200       $28,800.00
 Peoria Division     Vegetable
                     Box
Midwest Food Bank   Fresh Fruit/   South East     Titusville   FL              32796      1,512       $37,044.00
 Titusville          Vegetable
                     Box
Midwest Food Bank-- Dairy          Midwest        Normal       IL              61761      1,100       $27,500.00
 Normal Box          Products Box
Midwest Food Bank-- Dairy          Midwest        Normal       IL              61761      2,200       $55,000.00
 Normalvarbox        Products Box
Midwest Food Bank-- Dairy          Midwest        Peoria       IL              61615      1,000       $25,000.00
 Peoria Box          Products Box
Midwest Food Bank-- Dairy          Midwest        Peoria       IL              61615      2,000       $50,000.00
 Peoriavarbox        Products Box
Midwest Foodbank    Combination    Western        Hathaway     CA              95233        350        $9,537.50
                     Box                           Pines
Midwest Foodbank    Dairy          Western        Hathaway     CA              95233        350       $11,200.00
                     Products Box                  Pines
Midwest Foodbank    Fluid Milk     Western        Hathaway     CA              95233        432        $2,052.00
                                                   Pines
Midwest Foodbank    Fresh Fruit/   Western        Hathaway     CA              95233        350        $8,662.50
                     Vegetable                     Pines
                     Box
Midwest Peoria      Dairy          Midwest        Peoria       IL              61201      1,000       $29,750.00
 Food Bank           Products Box
Midwest Peoria      Dairy          Midwest        Peoria       IL              61615      3,000       $89,250.00
 Food Bank           Products Box
Midwest Peoria      Fresh Fruit/   Midwest        Peoria       IL              61615      4,628      $127,270.00
 Food Bank           Vegetable
                     Box
Midwest Services    Fresh Fruit/   South West     Bedford      TX              76021      2,200       $48,740.00
 of Hope             Vegetable
                     Box
Midwest Services    Precooked      South West     Bedford      TX              76021      1,536      $158,438.40
 of Hope             Meat Box
Mighty Writers 9Th  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19147      1,430       $28,600.00
 St.                 Vegetable                     a
                     Box
Mighty Writers      Fresh Fruit/   Mid-Atlantic   Camden       NJ              08104      1,510       $30,200.00
 Camden              Vegetable
                     Box
Mighty Writers      Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19104      1,920       $38,400.00
 Fairmount           Vegetable                     a
                     Box
Mighty Writers      Fresh Fruit/   Mid-Atlantic   West Grove   PA              19146      1,250       $25,000.00
 Rosehill            Vegetable
                     Box
Mihut Romanian      Fresh Fruit/   Midwest        Niles        IL              60714        756       $27,200.88
                     Vegetable
                     Box
Mihut Romanian      Precooked      Midwest        Niles        IL              60714        792       $64,247.04
                     Meat Box
Mildred C. Wells    Fresh Fruit/   Midwest        Benton       MI              49022        840       $30,223.20
 Academy             Vegetable                     Harbor
                     Box
Milestone Corp.     Fluid Milk     South East     Tchula       MS              39169        300        $1,137.00
 Asso.
Milford CT Schools  Combination    North East     Milford      CT              06460        208        $7,904.00
 Law High School     Box
Milford Food Bank   Fluid Milk     Midwest        Milford      IN              46542      4,224       $16,896.00
Milford High        Dairy          Midwest        Highland     MI              48347        225        $6,525.00
 School              Products Box
Milford High        Fresh Fruit/   Midwest        Highland     MI              48347        600       $12,806.25
 School              Vegetable
                     Box
Milford Memorial    Fresh Fruit/   North East     Milford      MA              01757      1,008       $22,125.60
 Sch.                Vegetable
                     Box
Military Outreach   Fresh Fruit/   Western        San Diego    CA              92114      1,120       $28,000.00
 Intl.               Vegetable
                     Box
Milk Lake           Fluid Milk     Midwest        Carlinville  IL              62626        300       $10,515.00
 Williamson
Mill Creek Middle   Dairy          Midwest        Dexter       MI              48130        100        $2,900.00
 School              Products Box
Mill Creek Middle   Fresh Fruit/   Midwest        Dexter       MI              48130      1,350       $28,387.50
 School              Vegetable
                     Box
Mill Village        Fresh Fruit/   South East     Greenville   SC              29609      2,000       $60,000.00
 Community           Vegetable
 Ministries          Box
Millen Baptist      Fresh Fruit/   South East     Millen       GA              30442        600       $14,154.00
 Church Inc.         Vegetable
                     Box
Miller Elementary   Fresh Fruit/   Midwest        Dearborn     MI              48126        125        $1,868.75
 School              Vegetable
                     Box
Milligan Assembly   Fresh Fruit/   South East     Baker        FL              32531      2,300       $66,700.00
 of God Church       Vegetable
                     Box
Million Reasons     Fresh Fruit/   North East     Long Island  NY              11101      1,040       $27,664.00
 Food Pantry         Vegetable                     City
                     Box
Millvale            Fresh Fruit/   Mid-Atlantic   Millvale     PA              15209        680       $20,400.00
 Ecodistrict         Vegetable
 Collaborative       Box
Milstead Middle     Fresh Fruit/   South West     Houston      TX              77034        512        $8,698.88
 School              Vegetable
                     Box
Milton Food Bank    Fresh Fruit/   Mid-Atlantic   Milton       PA              17847        320        $8,000.00
                     Vegetable
                     Box
Milton High School  Fresh Fruit/   North East     Milton       MA              02186        672       $14,750.40
                     Vegetable
                     Box
Milton Tucker       Fresh Fruit/   North East     Milton       MA              02186        336        $7,375.20
 Elem.               Vegetable
                     Box
Milwaukee Math &    Combination    Midwest        Milwaukee    WI              53212        130        $8,733.40
 Science             Box
Milwaukee Math &    Fresh Fruit/   Midwest        Milwaukee    WI              53212        130        $8,024.20
 Science             Vegetable
                     Box
Min Luz Del Mundo   Combination    Mid-Atlantic   Luquillo     PR              00773        540       $32,880.00
 Centro              Box
Min Luz Del Mundo   Combination    Mid-Atlantic   Fajardo      PR              00738        540       $32,880.00
 Plaza Publica       Box
Min Luz Del Mundo   Combination    Mid-Atlantic   Fajardo      PR              00738        540       $32,880.00
 Plaza Publica       Box
 Fajardo
Min. Luz Del Mundo/ Combination    Mid-Atlantic   Ceiba        PR              00735        249       $21,074.00
 Banco Alimentos     Box
Mind of Christ Ch/  Fresh Fruit/   Midwest        East Saint   IL              62201        180        $5,760.00
 Stl Food Bnk        Vegetable                     Louis
                     Box
Mineral Springs     Fresh Fruit/   South East     Ellerbe      NC              28338      1,300       $14,950.00
 Impr Council        Vegetable
                     Box
Ministerio          Combination    Mid-Atlantic   Yabucoa      PR              00767        672       $58,296.00
 Cristiano           Box
 Catacumba 10
Ministerio          Combination    Mid-Atlantic   Cidra        PR              00739        672       $58,296.00
 Cristiano           Box
 Catacumba 23
Ministerio          Combination    Mid-Atlantic   Guayama      PR              00784        672       $58,296.00
 Cristiano           Box
 Catacumba 24 De
 Guayama
Ministerio          Combination    Mid-Atlantic   Carolina     PR              00979        672       $33,600.00
 Cristiano De Las    Box
 Catacumbas
Ministerio          Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
 Cristiano De Las    Box
 Catacumbas
Ministerio De       Dairy          South West     Brownsville  TX              78521        893       $25,316.55
 Restauracion        Products Box
Ministerio          Combination    Mid-Atlantic   Naguabo      PR              00718        672       $58,296.00
 Deleitate En        Box
 Jehova
Ministerio          Precooked      North East     Pawtucket    RI              02860         50        $2,715.00
 Internacional       Meat Box
Ministerio          Fresh Fruit/   South West     El Paso      TX              79907     13,720      $267,540.00
 Llamamiento De      Vegetable
 Dios                Box
Ministerios Plenit  Fluid Milk     South West     Laredo       TX              78041      6,600       $19,272.00
Ministerlo Puerta   Fresh Fruit/   Mid-Atlantic   Odenton      MD              21113        567       $10,744.65
 De Paz              Vegetable
                     Box
Ministires in Linn  Fluid Milk     Mountain       Brookfield   MO              64628        970        $2,182.50
 Co.                                Plains
Ministry for the    Fresh Fruit/   Western        Tamuning     Guam            96913         80        $4,800.00
 Homeless            Vegetable
                     Box
Minnies Food        Dairy          South West     Plano        TX              75023        576       $26,357.76
 Pantry              Products Box
Minnies Food        Fluid Milk     South West     Plano        TX              75074      4,308       $12,673.32
 Pantry
Minnies Food        Fresh Fruit/   South West     Plano        TX              75023        539       $10,294.90
 Pantry              Vegetable
                     Box
Minnies Food        Fresh Fruit/   South West     Plano        TX              75074      9,544      $162,152.56
 Pantry              Vegetable
                     Box
Minnies Food        Precooked      South West     Plano        TX              75074      3,669      $158,837.03
 Pantry              Meat Box
Minuteman Sr. Svc.  Combination    North East     Bedford      MA              01730        140        $4,592.00
 (Op)                Box
Miracle Need LWSC   Fresh Fruit/   Midwest        Eastpointe   MI              48021        190        $5,462.50
 Comm. Center        Vegetable
                     Box
Miracle Revival     Combination    Midwest        Maywood      IL              60153         90        $6,046.20
 Cathedral           Box
Misericordia        Fresh Fruit/   South West     Houston      TX              77080        112        $1,902.88
 Baptist Church      Vegetable
                     Box
Misioneras          Combination    Mid-Atlantic   San Juan     PR              00921        798       $79,002.00
 Dominicas Del       Box
 Rosario
Mission Alabama     Fresh Fruit/   South East     Bessemer     AL              35020      3,360       $87,192.00
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Birmingham   AL              35064      8,000      $207,600.00
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Fairfield    AL              35064     13,830      $358,888.50
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Gardendale   AL              35071      3,660       $94,977.00
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Birmingham   AL              35203      2,880       $74,736.00
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Birmingham   AL              35207      3,854      $100,011.30
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Birmingham   AL              35208      6,100      $158,295.00
                     Vegetable
                     Box
Mission Alabama     Fresh Fruit/   South East     Birmingham   AL              35234        200        $5,190.00
                     Vegetable
                     Box
Mission Arlington   Combination    South West     Arlington    TX              76010      2,000       $69,940.00
 Services of Hope    Box
Mission Arlington   Fluid Milk     South West     Arlington    TX              76010      2,016       $48,263.04
 Services of Hope
Mission Arlington   Fresh Fruit/   South West     Arlington    TX              76010     24,232      $431,737.28
 Services of Hope    Vegetable
                     Box
Mission Centers     Fluid Milk     South West     Houston      TX              77009        600        $1,752.00
Mission Marshall    Fluid Milk     South West     Marshall     TX              75670        540        $1,576.80
 FO
Mission Ne1         Fluid Milk     South West     New Caney    TX              77357      2,592        $7,944.48
Mission Oak Cliff   Fluid Milk     South West     Dallas       TX              75203      1,784        $5,271.92
Mission of Hope     Fluid Milk     South East     Dora         AL              35062        996        $3,974.04
Mission of Hope     Fresh Fruit/   South East     Dora         AL              35097      1,965       $55,020.00
 Dora                Vegetable
                     Box
Mission of Our      Dairy          Midwest        Chicago      IL              60651      1,050       $26,250.00
 Lady Box            Products Box
Mission Southside   Fresh Fruit/   Mountain       Olathe       KS              66061        240        $4,068.00
                     Vegetable      Plains
                     Box
Missionaries of     Fresh Fruit/   Western        San Bruno    CA              94066        560        $7,840.00
 Charity             Vegetable
                     Box
Missionaries of     Fresh Fruit/   Western        San          CA              94066        280        $3,920.00
 Charity             Vegetable                     Francisco
                     Box
Missionary          Combination    Mid-Atlantic   Caguas       PR              00725        672       $58,296.00
 Disasters           Box
Mississippi Delta   Fresh Fruit/   South East     Clarksdale   MS              38614      2,024       $40,378.80
                     Vegetable
                     Box
Mississippi Delta   Fresh Fruit/   South East     Clarksdale   MS              38614      1,296       $31,752.00
 CFWO Inc.--C/O      Vegetable
 Mid South Food      Box
 Ba.
Mississippi Food    Fluid Milk     South East     Jakson       MS              39201     11,880       $46,213.20
 NE
Mississippi Food    Fluid Milk     South East     Jackson      MS              39201      2,688       $19,729.92
 Network
Mississippi Food    Fresh Fruit/   South East     Tchula       MS              39169        100        $1,995.00
 Network Wesley      Vegetable
 Youth Foundation    Box
Mississippi Food    Fresh Fruit/   South East     Winona       MS              38967        616       $12,289.20
 Network Wiona       Vegetable
 Community           Box
 Pavillion
Mississippi Rising  Fresh Fruit/   South East     Ocean        MS              39564        600       $36,000.00
 Coalition           Vegetable                     Springs
                     Box
Missoula Food Bank  Combination    Mountain       Missoula     MT              59801        843       $40,464.00
 & Comm. Cntr        Box            Plains
Missoula Food Bank  Fresh Fruit/   Mountain       Missoula     MT              59801      2,433       $72,990.00
 & Comm. Cntr        Vegetable      Plains
                     Box
Missouri Baptist    Fresh Fruit/   Mountain       Hannibal     MO              63401      1,760       $45,584.00
 Convention          Vegetable      Plains
 Disaster Relief     Box
Missouri Baptist    Fresh Fruit/   Mountain       Jefferson    MO              65109      5,280      $136,752.00
 Convention          Vegetable      Plains         City
 Disaster Relief     Box
Missouri Rural      Precooked      Mountain       Columbia     MO              65201        103        $4,635.00
 Crisis Center       Meat Box       Plains
Missouri St.        Fluid Milk     South West     Baytown      TX              77520        599        $1,922.79
 Church
Mitchell            Precooked      Mid-Atlantic   Philadelphi  PA              19143        420       $25,977.00
 Elementary          Meat Box                      a
 (Philabundance)
Mitten Brewing      Precooked      Midwest        Grand        MI              49504         64        $2,488.40
 Company (The)       Meat Box                      Rapids
Mitzvah Food        Fluid Milk     Mid-Atlantic   Philadelphi  PA              19116      2,700        $4,023.00
 Project Choice                                    a
 Pantry
Mitzvah Food        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19116      1,620       $32,400.00
 Project Choice      Vegetable                     a
 Pantry              Box
MJD Futures         Fresh Fruit/   North East     Buffalo      NY              14204        150        $3,427.50
 Preparatory         Vegetable
 School              Box
MLK Jr Elementary   Combination    Western        Portland     OR              97211        240        $8,400.00
 School USDA         Box
MLK Jr Elementary   Fresh Fruit/   Western        Portland     OR              97211        960       $25,920.00
 School USDA         Vegetable
                     Box
MLK Jr Middle       Fresh Fruit/   Western        Berkeley     CA              94703      1,370       $28,745.00
 School--Kitchen     Vegetable
                     Box
Moaheim Elementary  Fluid Milk     South East     Mosheim      TN              37818        300        $1,137.00
Moberly Food        Precooked      Mountain       Moberly      MO              65270         22          $990.00
 Cooperative         Meat Box       Plains
Mobile Food Bank    Fresh Fruit/   South East     Jackson      NC              27845        160        $5,713.60
 Jackson             Vegetable
                     Box
Mobile Food Bank    Fresh Fruit/   South East     Rich Square  NC              27869        125        $4,463.75
 Rich Square         Vegetable
                     Box
Mobile Meals Akron  Precooked      Midwest        Akron        OH              44310        300       $14,007.00
                     Meat Box
MOC Clinton COA     Combination    North East     Clinton      MA              01510         40        $1,520.00
 and Bolton          Box
MOC Hubbardston     Combination    North East     Hubbardston  MA              01452         60        $2,280.00
                     Box
MOC Hubbardston     Precooked      North East     Hubbardston  MA              01452         60        $3,258.00
                     Meat Box
MOC Leominster      Combination    North East     Leominster   MA              01453         20          $760.00
                     Box
MOC Montachesett    Combination    North East     Fitchburg    MA              01420        467       $17,746.00
                     Box
MOC Montachusett    Precooked      North East     Fitchburg    MA              01420        209       $11,348.70
                     Meat Box
MOC Spanish Amer.   Combination    North East     Leominster   MA              01453         20          $760.00
 Ctr.                Box
MOC Spanish Amer.   Precooked      North East     Leominster   MA              01453         20        $1,086.00
 Ctr.                Meat Box
Moco Dept. Liquor   Fluid Milk     Mid-Atlantic   Gaithersbur  MD              20878        549       $10,118.07
 Control                                           g
Modesto City        Fresh Fruit/   Western        Modesto      CA              95351      3,528       $95,009.04
 Schools             Vegetable
                     Box
Modesto City        Fresh Fruit/   Western        Modesto      CA              95358      1,176       $31,669.68
 Schools             Vegetable
                     Box
Mohammed Schools    Fresh Fruit/   South East     Atlanta      GA              30316     17,870      $338,457.80
 of Atlanta          Vegetable
                     Box
Molina Brighter     Combination    South West     Dallas       TX              75211        200        $6,994.00
 Bites               Box
Molina Brighter     Fresh Fruit/   South West     Dallas       TX              75211      2,062       $41,663.88
 Bites               Vegetable
                     Box
Mom's Pantry        Fluid Milk     South West     Phoenix      AZ              85022        432        $2,030.40
Monadnock NH        Fresh Fruit/   North East     Swanzey      NH              03446      1,008       $22,125.60
 Regional High       Vegetable
                     Box
Monarch Academy     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218        900       $18,000.00
                     Vegetable
                     Box
Monark Baptist      Combination    Mountain       Neosho       MO              64850      7,080      $247,587.60
 Church              Box            Plains
Monark Baptist      Dairy          Midwest        Joliet       IL              60436      1,620      $105,543.00
 Church              Products Box
Monark Baptist      Dairy          Midwest        Joliet       IL              60436      1,620      $105,543.00
 Church              Products Box
Monark Baptist      Dairy          Midwest        Joliet       IL              60436      1,620      $105,543.00
 Church              Products Box
Monark Baptist      Dairy          Mountain       Neosho       MO              64850     15,210      $620,737.20
 Church              Products Box   Plains
Monark Baptist      Fluid Milk     Mountain       Neosho       MO              64850     16,865      $274,734.06
 Church                             Plains
Monark Baptist      Fresh Fruit/   Mountain       Neosho       MO              64850     44,799      $886,149.90
 Church              Vegetable      Plains
                     Box
Monark Baptist      Precooked      Mountain       Neosho       MO              64850     10,739      $431,608.14
 Church              Meat Box       Plains
Monark Baptist      Fresh Fruit/   South West     Muskogee     OK              74403     24,576      $417,546.24
 Muskogee            Vegetable
                     Box
Monark Baptist      Fresh Fruit/   South West     Springdale   AR              72764     12,512      $212,578.88
 Springdale          Vegetable
                     Box
Monett Community    Fresh Fruit/   Mountain       Monett       MO              65708        840       $23,100.00
 Outreach            Vegetable      Plains
                     Box
Mongmong Toto       Fresh Fruit/   Western        Mongmong     Guam            96910        600       $36,000.00
 Maite Mayor's of    Vegetable                     Toto Maite
 fice                Box
Moniteau Christina  Fluid Milk     Mountain       California   MO              65109        972       $11,231.46
 Minstry                            Plains
Monkworx            Fresh Fruit/   Mid-Atlantic   Ridgewood    NJ              07450        384        $8,832.00
                     Vegetable
                     Box
Monkworx            Fresh Fruit/   North East     Ridgewood    NY              11211      1,200       $31,552.00
                     Vegetable
                     Box
Monroe City Food    Fresh Fruit/   Mountain       Monroe City  MO              63456      2,770       $76,175.00
 Pantry              Vegetable      Plains
                     Box
Monroe County       Fresh Fruit/   Mid-Atlantic   East         PA              18301      3,465       $65,661.75
 Fiscal Affairs of   Vegetable                     Stroudsbur
 fice                Box                           g
Monroe County Tax   Fresh Fruit/   South East     Okolona      MS              38860      1,242       $30,429.00
 office--C/O Mid     Vegetable
 South Food Bank     Box
Monroe YMCA         Fresh Fruit/   Midwest        Monroe       MI              48161        500       $14,375.00
                     Vegetable
                     Box
Montague High       Fresh Fruit/   Midwest        Montague     MI              49437      1,330       $47,853.40
 School              Vegetable
                     Box
Montana Food Bank   Fluid Milk     Mountain       Billings     MT              59101      3,456       $10,091.52
                                    Plains
Montana Food Bank   Combination    Mountain       Missoula     MT              59808        560       $26,880.00
 Network             Box            Plains
Montana Food Bank   Fresh Fruit/   Mountain       Missoula     MT              59808      1,904       $57,120.00
 Network             Vegetable      Plains
                     Box
Montcalm County     Dairy          Midwest        Stanton      MI              48888        150        $4,350.00
 Commission on       Products Box
 Aging
Montcalm County     Fresh Fruit/   Midwest        Stanton      MI              48888        150        $3,300.00
 Commission on       Vegetable
 Aging               Box
Montcalm County     Precooked      Midwest        Stanton      MI              48888        120        $4,691.12
 Commission on       Meat Box
 Aging
Montclair YMCA      Fresh Fruit/   Mid-Atlantic   Montclair    NJ              07042      1,197       $22,683.15
                     Vegetable
                     Box
Montco Anti-Hunger  Fresh Fruit/   Mid-Atlantic   Willow       PA              19090      1,540       $30,800.00
 Network             Vegetable                     Grove
                     Box
Montebello USD      Fresh Fruit/   Western        Montebello   CA              90640      4,560      $114,000.00
                     Vegetable
                     Box
Monterey Boys &     Combination    Western        Salinas      CA              93906        216       $11,327.04
 Girls Club          Box
Monterey Boys &     Combination    Western        Marina       CA              93933        216       $11,327.04
 Girls Club          Box
Monterey Boys &     Combination    Western        Seaside      CA              93955        216       $11,327.04
 Girls Club          Box
Monterey Boys &     Fresh Fruit/   Western        Salinas      CA              93906      1,155       $31,104.15
 Girls Club          Vegetable
                     Box
Monterey Boys &     Fresh Fruit/   Western        Seaside      CA              93955        924       $24,883.32
 Girls Club          Vegetable
                     Box
Montevallo Elem.    Fluid Milk     South East     Montevallo   AL              35115        360        $1,436.40
 Sch.
Montevallo Elem.    Fresh Fruit/   South East     Montevallo   AL              35115        730       $20,440.00
 School              Vegetable
                     Box
Montevallo          Fresh Fruit/   South East     Montevallo   AL              35115        365       $10,220.00
 Elementary School   Vegetable
                     Box
Montgomery Anti     Fresh Fruit/   Mid-Atlantic   Oaks         PA              19457        315        $5,969.25
 Hunger Network      Vegetable
                     Box
Montgomery Area     Dairy          South East     Montgomery   AL              36108        405        $9,861.75
 Food Bank           Products Box
Montgomery Area     Fluid Milk     South East     Montgomery   AL              36108      4,680       $17,780.40
 Food Bank
Montgomery Area     Fresh Fruit/   South East     Montgomery   AL              36108      7,305      $204,540.00
 Food Bank           Vegetable
                     Box
Montgomery Area     Precooked      South East     Montgomery   AL              36108      2,008       $76,314.60
 Food Bank           Meat Box
Montgomery County   Fluid Milk     South West     Conroe       TX              77385     11,772       $36,357.84
 Food Bank
Montgomery County   Fresh Fruit/   South West     Conroe       TX              77385      9,600      $163,104.00
 Food Bank           Vegetable
                     Box
Montgomery County   Precooked      South West     Conroe       TX              77385     21,566      $776,090.76
 Food Bank           Meat Box
Montgomery County   Combination    Mid-Atlantic   Rockville    MD              20850      2,000      $190,000.00
 School District     Box
Montgomery County   Fluid Milk     Mid-Atlantic   Rockville    MD              20855        672       $12,364.80
 School District
Montgomery County   Fresh Fruit/   Mid-Atlantic   Rockville    MD              20855     12,208      $232,928.64
 School District     Vegetable
                     Box
Montgomery Dream    Fresh Fruit/   South East     Montgomery   AL              36106        900       $23,355.00
 Center              Vegetable
                     Box
Montgomery United   Fluid Milk     South West     Montgomery   TX              77356        366        $1,068.72
 M
Montmorency County  Dairy          Midwest        Atlanta      MI              49709        325        $9,425.00
 Commission          Products Box
Montmorency County  Fresh Fruit/   Midwest        Atlanta      MI              49709        375        $8,075.00
 Commission          Vegetable
                     Box
Moorland YMCA       Fresh Fruit/   South West     Dallas       TX              75216      2,002       $37,907.48
                     Vegetable
                     Box
Morain Valley       Fresh Fruit/   Midwest        Palos Hills  IL              60465        126        $4,533.48
 Community Church    Vegetable
                     Box
Moraine Township    Combination    Midwest        Highland     IL              60506        195        $4,576.65
                     Box                           Park
Moraine Valley      Dairy          Midwest        Palos Hills  IL              60465         50        $1,250.00
 Comty Chrch Box     Products Box
Moratoc Park        Fresh Fruit/   South East     Williamston  NC              27892        200        $7,142.00
                     Vegetable
                     Box
Moreno Elementary   Fresh Fruit/   South West     Houston      TX              77037      1,152       $19,572.48
                     Vegetable
                     Box
Moreno Valley Usd   Fresh Fruit/   Western        Moreno       CA              92553      1,920       $48,000.00
                     Vegetable                     Valley
                     Box
Morgan County       Fresh Fruit/   South East     Wartburg     TN              37887      1,929       $38,580.00
 School District     Vegetable
                     Box
Morgan Food         Precooked      Mountain       Gravoismill  MO              65037         34        $1,530.00
 Cooperative         Meat Box       Plains         s
Morgans Chapel      Fresh Fruit/   South East     Bon Secour   AL              36511        250        $7,250.00
 United Methodist    Vegetable
                     Box
Moriah Baptist/     Fluid Milk     Mid-Atlantic   Philadelphi  PA              19140        105        $3,402.00
 Aging Grace/Cff                                   a
Moriah Baptist/     Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19140        144        $3,309.12
 Aging Grace/Cff     Vegetable                     a
                     Box
Morley Stanwood     Fresh Fruit/   Midwest        Morley       MI              49336        651       $23,422.98
 Community Schools   Vegetable
                     Box
Morning Star        Fresh Fruit/   South East     Tuscaloosa   AL              35404      1,460       $37,887.00
                     Vegetable
                     Box
Morning Star        Fresh Fruit/   Mid-Atlantic   Gwynn Oak    MD              21027      1,004       $28,112.00
 Baptist Church      Vegetable
                     Box
Morning Star        Fresh Fruit/   South East     Monroeville  AL              36460      1,680       $43,596.00
 Baptist Church      Vegetable
                     Box
Morristown Central  Dairy          North East     Morristown   NY              13364         60        $1,440.00
 School              Products Box
Morristown Central  Fresh Fruit/   North East     Morristown   NY              13617         30          $600.00
 School              Vegetable
                     Box
Morse Elementary    Dairy          Midwest        Troy         MI              48083        980       $28,420.00
 School Pantry       Products Box
Morse Elementary    Fresh Fruit/   Midwest        Troy         MI              48083      3,377       $66,971.75
 School Pantry       Vegetable
                     Box
Mosaic Ministries   Fresh Fruit/   Midwest        Toledo       OH              43609        666        $8,325.00
                     Vegetable
                     Box
Moses Lake Food     Combination    Western        Moses Lake   WA              98837      1,920       $67,200.00
 Bank                Box
Moses Lake Food     Dairy          Western        Moses Lake   WA              98837      1,900       $57,000.00
 Bank                Products Box
Moses Lake Food     Fresh Fruit/   Western        Moses Lake   WA              98837      2,980       $80,460.00
 Bank                Vegetable
                     Box
Moshannon YMCA      Fresh Fruit/   Mid-Atlantic   Philipsburg  PA              16866        500       $12,500.00
                     Vegetable
                     Box
Mosque #1 Nation    Fresh Fruit/   Midwest        Detroit      MI              48219        360        $5,382.00
 of Islam            Vegetable
                     Box
Mother Hubbards     Fluid Milk     South East     Wilmington   NC              28401        728        $2,831.92
Mother of Sorrows   Dairy          Mid-Atlantic   Murrysville  PA              15668        200        $4,206.00
 FP                  Products Box
Mount Aratat        Fresh Fruit/   South East     Selma        AL              36703      1,680       $43,596.00
 Baptist             Vegetable
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Malden       MO              63863        920       $25,300.00
                     Vegetable      Plains
                     Box
Mount Calvary       Fresh Fruit/   South East     Jackson      TN              38305        730       $20,075.00
 Powerhouse          Vegetable
                     Box
Mount Calvary       Fresh Fruit/   South West     Blytheville  AR              72315        890       $24,475.00
 Powerhouse          Vegetable
                     Box
Mount Calvary       Fresh Fruit/   South West     Jonesboro    AR              72401        300        $8,250.00
 Powerhouse          Vegetable
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Blue Eye     MO              65611      1,450       $39,875.00
 Powerhouse          Vegetable      Plains
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Florissant   MO              63034        420       $11,550.00
 Powerhouse          Vegetable      Plains
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Jefferson    MO              65109        504       $13,860.00
 Powerhouse          Vegetable      Plains         City
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Mountain     MO              65548      4,395      $120,862.50
 Powerhouse          Vegetable      Plains         View
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Hollister    MO              65672      1,632       $44,880.00
 Powerhouse          Vegetable      Plains
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Miner        MO              63801      1,910       $52,525.00
 Powerhouse          Vegetable      Plains
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Poplar       MO              63901      8,692      $239,030.00
 Powerhouse          Vegetable      Plains         Bluff
                     Box
Mount Calvary       Fresh Fruit/   Mountain       Springfield  MO              65806        460       $12,650.00
 Powerhouse          Vegetable      Plains
                     Box
Mount Calvery       Fresh Fruit/   South East     Memphis      TN              38128      2,000       $55,000.00
 Powerhouse          Vegetable
                     Box
Mount Calvery       Fresh Fruit/   South West     Truman       AR              72472        700       $19,250.00
 Powerhouse          Vegetable
                     Box
Mount Haven         Dairy          Midwest        Cleveland    OH              44104        210        $5,250.00
 Baptist Church      Products Box
Mount Moriah        Fresh Fruit/   North East     Buffalo      NY              14208        100        $2,285.00
 Baptist             Vegetable
                     Box
Mount Olive         Fresh Fruit/   Midwest        Chicago      IL              60636        189        $6,800.22
                     Vegetable
                     Box
Mount Olive         Precooked      Midwest        Chicago      IL              60636        504       $40,884.48
                     Meat Box
Mount Olive Pantry  Dairy          Midwest        Chicago      IL              60636        160        $4,000.00
 Box                 Products Box
Mount Pleasant      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21206        504        $9,550.80
                     Vegetable
                     Box
Mount Rainer        Fresh Fruit/   Mid-Atlantic   Mount        MD              20712      3,000       $60,000.00
 Police Department   Vegetable                     Rainier
                     Box
Mount Zion Baptist  Combination    South East     Lafayette    AL              36862      1,680      $127,764.00
 Church              Box
Mountain Christian  Fresh Fruit/   Mid-Atlantic   Abingdon     MD              21009        252        $4,775.40
 Church              Vegetable
                     Box
Mountain View       Combination    Western        Burley       ID              83318        312       $13,728.00
 Christian Cntr      Box
Mountain View       Fresh Fruit/   Western        Burley       ID              83318        312        $8,112.00
 Christian Cntr      Vegetable
                     Box
Mountainburg        Dairy          South West     Mountainbur  AR              72946        576       $26,357.76
 School District     Products Box                  g
Mountainburg        Fluid Milk     South West     Mountainbur  AR              72946        480       $11,491.20
 School District                                   g
Mountainburg        Fresh Fruit/   South West     Mountainbur  AR              72946      3,087       $62,254.50
 School District     Vegetable                     g
                     Box
Mountaineer Food    Fluid Milk     Mid-Atlantic   Morgantown   WV              26501      1,810       $20,472.75
 Bank
Mountaineer Food    Fresh Fruit/   Mid-Atlantic   Gassaway     WV              26624      1,638       $38,493.00
 Bank                Vegetable
                     Box
Movimiento Iglesia  Fluid Milk     South West     Fort Worth   TX              76111      3,581       $10,456.52
Movimiento Iglesia  Fluid Milk     South West     Haltom City  TX              76111     10,800       $31,536.00
Movimiento La Luz   Combination    Mid-Atlantic   Fajardo      PR              00738      1,974      $170,730.00
 Del Mundo           Box
MR Stevens the      Fresh Fruit/   Midwest        Buckley      MI              49620        200        $5,750.00
 Tabernacle          Vegetable
                     Box
MS Center P&Sh      Dairy          South East     Utica        MS              39175        400       $11,232.00
                     Products Box
MS Center P&Sh      Fresh Fruit/   South East     Utica        MS              39175        480        $8,112.00
                     Vegetable
                     Box
MS Center P&SH      Precooked      South East     Utica        MS              39175        504       $20,694.24
                     Meat Box
MS Center Police &  Dairy          South East     Byram        MS              39175        880       $24,710.40
 Sherif              Products Box
MS Center Police &  Dairy          South East     Terry        MS              39175      1,040       $29,203.20
 Sherif              Products Box
MS Center Police &  Fresh Fruit/   South East     Byram        MS              39175        720       $12,168.00
 Sherif              Vegetable
                     Box
MS Center Police &  Fresh Fruit/   South East     Terry        MS              39175        480        $8,112.00
 Sherif              Vegetable
                     Box
MS Center Police &  Precooked      South East     Hazelhurst   MS              39083        240        $9,854.40
 Sherif              Meat Box
MS Center Police &  Precooked      South East     Terry        MS              39175        504       $20,694.24
 Sherif              Meat Box
MS County Union     Dairy          South West     Blytheville  AR              72315        500       $12,500.00
 Mission             Products Box
MS Food Network     Combination    South East     Jackson      MS              39201      1,200       $36,624.00
                     Box
MS Food Network     Dairy          South East     Jackson      MS              39201      5,840      $163,987.20
                     Products Box
MS Food Network     Fluid Milk     South East     Jackson      MS              39201      9,984       $73,282.56
MS Food Network     Fresh Fruit/   South East     Jackson      MS              39201     12,902      $218,043.80
                     Vegetable
                     Box
MS Food Network     Precooked      South East     Jackson      MS              39201     12,496      $513,085.76
                     Meat Box
MS Minority         Dairy          South East     Houston      MS              38851         80        $2,246.40
 Farmers Alli.       Products Box
MS Minority         Dairy          South East     Okolona      MS              38860         80        $2,246.40
 Farmers Alli.       Products Box
MS Minority         Fresh Fruit/   South East     Houston      MS              38851        192        $3,244.80
 Farmers Alli.       Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Okolona      MS              38860        192        $3,244.80
 Farmers Alli.       Vegetable
                     Box
MS Minority         Precooked      South East     Houston      MS              38851      1,260       $51,735.60
 Farmers Alli.       Meat Box
MS Minority         Precooked      South East     Okolona      MS              38860      1,260       $51,735.60
 Farmers Alli.       Meat Box
MS Minority         Dairy          South East     Houston      MS              38851        480       $13,478.40
 Farmers Allia.      Products Box
MS Minority         Dairy          South East     Okolona      MS              38860        480       $13,478.40
 Farmers Allia.      Products Box
MS Minority         Dairy          South East     Calhoun      MS              39440        560       $15,724.80
 Farmers Allia.      Products Box
MS Minority         Dairy          South East     Crawford     MS              39743        480       $13,478.40
 Farmers Allia.      Products Box
MS Minority         Dairy          South East     Pheba        MS              39755        560       $15,724.80
 Farmers Allia.      Products Box
MS Minority         Dairy          South East     West Point   MS              39773        480       $13,478.40
 Farmers Allia.      Products Box
MS Minority         Fluid Milk     South East     Starkville   MS              39759        960        $7,046.40
 Farmers Allia.
MS Minority         Fluid Milk     South East     West Point   MS              39773        384        $2,818.56
 Farmers Allia.
MS Minority         Fresh Fruit/   South East     Houston      MS              38851        640       $10,816.00
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Okolona      MS              38860        480        $8,112.00
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Calhoun      MS              39440        576        $9,734.40
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Crawford     MS              39743        640       $10,816.00
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Pheba        MS              39755        160        $2,704.00
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     Starkville   MS              39759      1,088       $18,387.20
 Farmers Allia.      Vegetable
                     Box
MS Minority         Fresh Fruit/   South East     West Point   MS              39773      2,816       $47,590.40
 Farmers Allia.      Vegetable
                     Box
MS Minority         Precooked      South East     Houston      MS              38851        992       $40,731.52
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Okolona      MS              38860        672       $27,592.32
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Calhoun      MS              39440        504       $20,694.24
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Crawford     MS              39743      1,076       $44,180.56
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Pheba        MS              39755        252       $10,347.12
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Starkville   MS              39759        840       $34,490.40
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     Startkville  MS              39759        504       $20,694.24
 Farmers Allia.      Meat Box
MS Minority         Precooked      South East     West Point   MS              39773      1,008       $41,388.48
 Farmers Allia.      Meat Box
MS Minority         Dairy          South East     Columbus     MS              39705        560       $15,724.80
 Farmers Alli.       Products Box
MS. Minority        Fresh Fruit/   South East     Columbus     MS              39705        160        $2,704.00
 Farmers Alli.       Vegetable
                     Box
MS. Minority        Precooked      South East     Columbus     MS              39705        504       $20,694.24
 Farmers Alli.       Meat Box
MSS Minuteman       Precooked      North East     Bedford      MA              01730        154        $8,362.20
                     Meat Box
Mt. Bethel United   Fluid Milk     South East     Marietta     GA              30068        152          $591.28
 Me
Mt. Calvary         Fluid Milk     South East     Bishopville  SC              29010        500        $1,995.00
 Baptist
Mt. Caramel         Fresh Fruit/   Mountain       Kansas City  KS              66104      1,000       $25,900.00
                     Vegetable      Plains
                     Box
Mt. Hlty Tikkun     Fluid Milk     Midwest        Mount        OH              45231      1,620        $5,378.40
 Farm                                              Healthy
Mt. Ion Missionary  Fresh Fruit/   South East     Sylacauga    AL              35150        500       $12,975.00
 Baptist Church      Vegetable
                     Box
Mt. Lebanon         Fresh Fruit/   Midwest        Detroit      MI              48227        100        $2,875.00
 Strathmoor          Vegetable
                     Box
Mt. Moriah Baptist  Fluid Milk     South East     North        SC              29406      1,000        $3,890.00
                                                   Charleston
Mt. Moriah East     Fresh Fruit/   South East     Memphis      TN              38114      1,242       $30,429.00
 Housing--C/O Mid    Vegetable
 South Food Bank     Box
Mt. Moriah          Fresh Fruit/   Midwest        Flint        MI              48505        400        $5,980.00
 Missionary          Vegetable
 Baptist             Box
Mt. Olive Baptist   Fresh Fruit/   South East     Walterboro   SC              29488      1,095       $32,850.00
 Church              Vegetable
                     Box
Mt. Olive           Fresh Fruit/   Midwest        Saginaw      MI              48601      2,000       $42,250.00
 Institutional Mbc   Vegetable
                     Box
Mt. Pilgrim         Fresh Fruit/   South East     Birmingham   AL              35207      1,020       $26,469.00
 Association         Vegetable
                     Box
Mt. Pleasant        Fluid Milk     South East     Carrollton   GA              30117        180          $718.20
 Baptist
Mt. Pleasant        Fluid Milk     Midwest        Carrollton   OH              30117        320        $1,276.80
 Baptist
Mt. Pleasant        Fresh Fruit/   South East     Atlanta      GA              30315        700       $13,258.00
 Baptist Church      Vegetable
                     Box
Mt. Sanai           Fresh Fruit/   Mountain       Kansas City  KS              66104        600       $10,815.00
 Missionary          Vegetable      Plains
 Baptist             Box
Mt. Upton School    Fluid Milk     North East     Gilbertsvil  NY              13776        675       $20,911.50
 District                                          le
Mt. Vernon Church   Fresh Fruit/   Midwest        Detroit      MI              48223      4,300       $64,285.00
                     Vegetable
                     Box
Mt. Vernon Church   Combination    Midwest        Mt. Vernon   IN              47620        720      $108,000.00
 of God              Box
Mt. Zion Baptist    Fresh Fruit/   South East     Memphis      TN              38106        972       $23,814.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Mt. Zion Baptist    Fresh Fruit/   South East     Memphis      TN              38108        324        $7,938.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Mt. Zion Church of  Fresh Fruit/   Midwest        Detroit      MI              48217        200        $5,750.00
 Deleware            Vegetable
                     Box
Mt. Zion Mission    Fluid Milk     Midwest        Cincinnati   OH              45246        500        $2,000.00
 Baptist
Mt. Zion            Fresh Fruit/   South East     Sylacauga    AL              35150        500       $12,975.00
 Missionary          Vegetable
 Baptist Church      Box
Mt. Zion Taska      Fresh Fruit/   South East     Byhalia      MS              38611        216        $5,292.00
 MBC--C/O Mid        Vegetable
 South Food Bank     Box
Mt. Carmel          Dairy          South East     Pearl        MS              39208        560       $15,724.80
 Ministries          Products Box
Mt. Carmel          Fluid Milk     South East     Pearl        MS              39208        192        $1,409.28
 Ministries
Mt. Carmel          Fresh Fruit/   South East     Pearl        MS              39208        560        $9,464.00
 Ministries          Vegetable
                     Box
Mt. Carmel          Precooked      South East     Pearl        MS              39208      2,968      $121,866.08
 Ministries          Meat Box
Mt. Enon Baptist    Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        175        $5,670.00
 Church                                            a
Mt. Moriah          Fresh Fruit/   South East     Farmville    NC              27828        144        $5,142.24
 Community Church    Vegetable
                     Box
Mt. Olive           Combination    South East     Gallion      AL              36742      1,680      $127,764.00
                     Box
Mt. Pleasant        Fluid Milk     South East     Blountsvill  AL              35031        752        $2,850.08
 Baptist Church                                    e
Mt. Pleasant        Fresh Fruit/   South East     Blountsvill  AL              35031      2,030       $56,840.00
 Baptist Church      Vegetable                     e
                     Box
Mt. Shiloh Miss.    Fresh Fruit/   South East     Williamston  NC              27892        200        $7,142.00
 Baptist Church      Vegetable
                     Box
Mt. Zion Baptist    Combination    Mid-Atlantic   Newark       NJ              07104        171       $16,245.00
 Church              Box
Mt. Zion Baptist    Fresh Fruit/   South East     Birmingham   AL              35221      1,460       $37,887.00
 Church              Vegetable
                     Box
Mt. Zion Baptist    Precooked      Mid-Atlantic   Newark       NJ              07104        120        $7,422.00
 Church              Meat Box
Mt. Zion            Fluid Milk     South East     Birmingham   AL              35221      1,000        $3,830.00
 Missionary
Mt. Zion Umc        Fresh Fruit/   Mid-Atlantic   Highland     MD              20777        250        $5,237.50
 Scaggsville         Vegetable
                     Box
Mtn. Organization   Fresh Fruit/   Mid-Atlantic   Freehold     NJ              07728      1,150       $23,000.00
                     Vegetable
                     Box
Mtn. Organization   Fresh Fruit/   Mid-Atlantic   Jackson      NJ              08527      1,726       $34,520.00
                     Vegetable
                     Box
Muhammad Univ.      Fresh Fruit/   Midwest        Chicago      IL              60649        126        $4,533.48
                     Vegetable
                     Box
Mujer Eres          Fresh Fruit/   Mid-Atlantic   Lares        PR              00669        240        $9,360.00
 Especial            Vegetable
                     Box
Mujeres De Isla     Combination    Mid-Atlantic   Culebra      PR              00775        576       $49,968.00
 Culebra             Box
Mujeres En Tres     Combination    Mid-Atlantic   Ponce        PR              00728        672       $66,528.00
 Tiempos             Box
Mukilteo School     Fresh Fruit/   Western        Everett      WA              98204         77        $1,492.26
 District            Vegetable
                     Box
Multi Service       Combination    Western        Federal Way  WA              98003      1,200       $42,000.00
 Center              Box
Multi Service       Dairy          Western        Federal Way  WA              98003      1,800       $54,000.00
 Center              Products Box
Multi Service       Fresh Fruit/   Western        Federal Way  WA              98003      1,560       $42,120.00
 Center              Vegetable
                     Box
Multicultural       Fresh Fruit/   Western        San Rafael   CA              94903        157        $3,925.00
 Center of Marin     Vegetable
                     Box
Mundo Pentecostal   Combination    South West     Pasadena     TX              77506      1,400       $48,958.00
 Church              Box
Mundo Pentecostal   Fluid Milk     South West     Pasadena     TX              77505        200        $4,788.00
 Church
Mundo Pentecostal   Fresh Fruit/   South West     Pasadena     TX              77506      1,000       $23,300.00
 Church              Vegetable
                     Box
Munford Baptist     Fresh Fruit/   South East     Munford      AL              35160        400       $11,200.00
                     Vegetable
                     Box
Munger Elementary   Fresh Fruit/   Midwest        Detroit      MI              48216        100        $1,495.00
 School              Vegetable
                     Box
Municipio Autonomo  Combination    Mid-Atlantic   Catano       PR              00962      4,176      $363,738.00
 De Catano           Box
Municipio De        Combination    Mid-Atlantic   Barceloneta  PR              00617     10,080      $866,208.00
 Barceloneta         Box
Municipio De        Combination    Mid-Atlantic   Caguas       PR              00725      9,096      $765,264.00
 Caguas              Box
Municipio De        Combination    Mid-Atlantic   Canovanas    PR              00729     11,928    $1,090,320.00
 Canovanas           Box
Municipio De        Combination    Mid-Atlantic   Catano       PR              00963        249       $21,074.00
 Catano              Box
Municipio De Cayey  Combination    Mid-Atlantic   Cayey        PR              00736      4,704      $465,696.00
                     Box
Municipio De Ceiba  Combination    Mid-Atlantic   Ceiba        PR              00735      2,688      $233,184.00
                     Box
Municipio De        Combination    Mid-Atlantic   Fajardo      PR              00738      2,016      $199,584.00
 Fajardo             Box
Municipio De        Combination    Mid-Atlantic   Humacao      PR              00791      4,032      $399,168.00
 Humacao             Box
Municipio De Juana  Combination    Mid-Atlantic   Juana Diaz   PR              00795      6,720      $632,352.00
 Diaz                Box
Municipio De Lajas  Combination    Mid-Atlantic   Lajas        PR              00667      1,296      $114,192.00
                     Box
Municipio De Lares  Combination    Mid-Atlantic   Lares        PR              00669      2,640      $239,016.00
                     Box
Municipio De Las    Combination    Mid-Atlantic   Las Marias   PR              00670      1,344      $133,056.00
 Marias              Box
Municipio De Las    Combination    Mid-Atlantic   Las Piedras  PR              00771      1,836      $174,708.00
 Piedras             Box
Municipio De        Combination    Mid-Atlantic   Quebradilla  PR              00678      2,604      $241,332.00
 Quebradillas        Box                           s
Municipio De Rio    Combination    Mid-Atlantic   Palmer       PR              00721      1,728      $149,904.00
 Grande              Box
Municipio De Rio    Combination    Mid-Atlantic   Rio Grande   PR              00721      6,048      $541,128.00
 Grande              Box
Municipio De Toa    Combination    Mid-Atlantic   Toa Alta     PR              00953        672       $66,528.00
 Alta                Box
Municipio De        Combination    Mid-Atlantic   Yabucoa      PR              00767     15,792    $1,439,928.00
 Yabucoa             Box
Municipio De Yauco  Combination    Mid-Atlantic   Yauco        PR              00698      1,296      $114,192.00
                     Box
Murfreesboro        Fresh Fruit/   South East     Murfreesbor  NC              27855        150        $5,356.50
 Mobile Food         Vegetable                     o
 Pantry              Box
Murphyboro Food     Fluid Milk     Midwest        Murphysboro  IL              62966         99          $222.75
 Pantry
Murphys Produce W/  Fresh Fruit/   Western        Chula Vista  CA              91911        960       $24,000.00
 Purp                Vegetable
                     Box
Murphys Produce W/  Fresh Fruit/   Western        San Diego    CA              92154        960       $24,000.00
 Purp                Vegetable
                     Box
Murphysboro Food    Dairy          Midwest        Murphysboro  IL              62966        100        $2,975.00
 Pantry              Products Box
Murphysboro Food    Dairy          Midwest        Murphysboro  IL              62966        220        $6,545.00
 Pantry              Products Box
Murphysboro Youth   Dairy          Midwest        Murphysboro  IL              62966         90        $2,677.50
 & Rec.              Products Box
Murphysboro Youth   Fresh Fruit/   Midwest        Murphysboro  IL              62966        110        $3,025.00
 & Rec.              Vegetable
                     Box
Musicians Towers    Dairy          Midwest        Cleveland    OH              44106        260        $6,500.00
                     Products Box
Muskegeon High      Fresh Fruit/   Midwest        Muskegon     MI              49444      2,000       $39,940.00
 School              Vegetable
                     Box
Muskegeon Hts.      Fresh Fruit/   Midwest        Muskegon     MI              49444      2,000       $39,940.00
 Public Schools      Vegetable
                     Box
Muskegon/Oceana     Dairy          Midwest        Muskegon     MI              49442        489       $14,181.00
 Comm. Action        Products Box
 Partner
Muskegon/Oceana     Fresh Fruit/   Midwest        Muskegon     MI              49442        540       $11,554.50
 Comm. Action        Vegetable
 Partner             Box
Muskogee Christian  Fluid Milk     South West     Muskogee     OK              74401        495       $11,850.30
 Ministries
Muskogee Christian  Fresh Fruit/   South West     Muskogee     OK              74401        539       $10,294.90
 Ministries          Vegetable
                     Box
Muslim Community    Fresh Fruit/   North East     Worcester    MA              01608        491       $13,579.86
 Link                Vegetable
                     Box
Muslim Educational  Fresh Fruit/   Western        Portland     OR              97232         60        $1,620.00
 Trust USDA          Vegetable
                     Box
Must Ministries     Fluid Milk     South East     Marietta     GA              30066        360        $1,400.40
Must Ministries     Fresh Fruit/   South East     Marietta     GA              30066      3,990       $79,800.00
                     Vegetable
                     Box
Mustang Center      Combination    Western        Roberts      ID              83444         35        $1,540.00
                     Box
Mustang Center      Fresh Fruit/   Western        Roberts      ID              83444         70        $1,820.00
                     Vegetable
                     Box
Mustard Seed A      Fresh Fruit/   South West     El Paso      TX              79922        432        $8,424.00
 Community           Vegetable
                     Box
Mustard Seed Food   Fluid Milk     Mountain       Prairie      MO              65068         36           $81.00
 Pntry                              Plains         Home
MVES Everett COA    Combination    North East     Everett      MA              02149        200        $7,600.00
 (OP)                Box
MVES Medford COA    Combination    North East     Medford      MA              02155         40        $1,520.00
 (OP)                Box
MVUSD Canyon        Fresh Fruit/   Western        Moreno       CA              92557        480       $12,000.00
 Springs H           Vegetable                     Valley
                     Box
MVUSD Moreno        Fresh Fruit/   Western        Moreno       CA              92553        480       $12,000.00
 Valley HS           Vegetable                     Valley
                     Box
MVUSD Valley View   Fresh Fruit/   Western        Moreno       CA              92555        560       $14,000.00
 HS                  Vegetable                     Valley
                     Box
MVUSD Vista Del     Fresh Fruit/   Western        Moreno       CA              92551        400       $10,000.00
 Lago H              Vegetable                     Valley
                     Box
MW FB--Winter       Combination    South East     Eloise       FL              33880     12,096      $919,900.80
 Haven               Box
My Father's House   Fresh Fruit/   South East     Enfield      NC              27823        576       $14,636.16
                     Vegetable
                     Box
My Fathers          Fresh Fruit/   South East     Pensacola    FL              32531      1,150       $33,350.00
 Vineyard            Vegetable
                     Box
MYCP (C/O ICNA      Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19154        882       $16,713.90
 Relief)             Vegetable                     a
                     Box
Myhouse             Fresh Fruit/   Western        Wasilla      AK              99654        360       $10,062.00
                     Vegetable
                     Box
Mystic Community    Fresh Fruit/   North East     Malden       MA              02148         60        $1,080.00
 Market              Vegetable
                     Box
N. Atl. Ch. of      Fluid Milk     South East     Atlanta      GA              30338      3,816       $14,841.84
 Christ
N. IL Food Bank     Dairy          Midwest        Geneva       IL              60134         --              $--
                     Products Box
N IL Food Bank      Dairy          Midwest        Geneva       IL              60134        960       $24,000.00
                     Products Box
N IL Food Bank      Fluid Milk     Midwest        Geneva       IL              60134     15,360       $61,440.00
N IL Food Bank      Dairy          Midwest        Geneva       IL              60134      5,760      $144,000.00
 Corp                Products Box
N IL Food Bank      Fluid Milk     Midwest        Geneva       IL              60134     19,360       $77,440.00
 Corp
N O Evangelical     Fluid Milk     Midwest        North        OH              44070        980        $3,253.60
                                                   Olmsted
N Phil Seven Day    Fluid Milk     Mid-Atlantic   Philadelphi  PA              19121        201        $5,295.12
 Adventist Church                                  a
N TX District       Fresh Fruit/   South West     Malakoff     TX              75148      1,000       $23,300.00
 Rural Ministry      Vegetable
                     Box
Na Maka Onaona      Fresh Fruit/   Western        Kilauea      HI              96754      1,454       $56,706.00
                     Vegetable
                     Box
NACC Disaster       Fluid Milk     South West     Bastrop      TX              78602      3,888       $15,124.32
 Servi
NACC Disaster       Fluid Milk     South West     Houston      TX              77032    171,916      $516,580.56
 Services
NACC Disaster       Fresh Fruit/   South West     Houston      TX              77032     21,504      $365,352.96
 Services            Vegetable
                     Box
NACC Disaster Svcs  Fluid Milk     Mid-Atlantic   Norfolk      VA              23502      2,160        $8,186.40
Nacogdoches Hope    Fluid Milk     South West     Nacogdoches  TX              75961      1,046        $3,144.80
Namaste Charter     Combination    Midwest        Chicago      IL              60609        150        $9,318.00
                     Box
Namaste Charter     Fluid Milk     Midwest        Chicago      IL              60609         50        $1,752.50
Namaste Charter     Fresh Fruit/   Midwest        Chicago      IL              60609        100        $6,406.00
                     Vegetable
                     Box
Namaste Charter     Combination    Midwest        Chicago      IL              60609        450       $30,231.00
 School              Box
Namaste Charter     Fluid Milk     Midwest        Chicago      IL              60609        150        $5,257.50
 School
Namaste Charter     Fresh Fruit/   Midwest        Chicago      IL              60609        100        $6,406.00
 School              Vegetable
                     Box
Nanakuli Samoan     Fresh Fruit/   Western        Honolulu     HI              96814      1,000       $36,000.00
 United Church       Vegetable
                     Box
Nanakuli Samoan     Precooked      Western        Honolulu     HI              96814        833       $33,320.00
 United Church       Meat Box
Nanas House         Fresh Fruit/   Western        Waimea       HI              96796         20          $780.00
                     Vegetable
                     Box
Nantahala           Fresh Fruit/   South East     Topton       NC              28781        926       $25,465.00
 Community           Vegetable
 Development         Box
 Center
Napa Valley Food    Fresh Fruit/   Western        Napa         CA              94558      6,160       $86,240.00
 Bank                Vegetable
                     Box
Napoleon High       Dairy          Midwest        Napoleon     MI              49261        300        $7,281.00
 School              Products Box
Napoleon High       Fresh Fruit/   Midwest        Napoleon     MI              49261        900       $18,540.00
 School              Vegetable
                     Box
Napoleon High       Precooked      Midwest        Napoleon     MI              49261         50        $2,283.00
 School              Meat Box
NARA Yth. Resid.    Combination    Western        Gresham      OR              97030        480       $16,800.00
 Treatment           Box
NARA Yth. Resid.    Fresh Fruit/   Western        Gresham      OR              97030        120        $3,240.00
 Treatment           Vegetable
                     Box
Nate Massey         Fresh Fruit/   South West     Grapevine    TX              76051         30          $573.00
 Apartment Life      Vegetable
                     Box
National Church     Fresh Fruit/   South East     Atlanta      GA              30303      1,173       $23,460.00
 RES Foundation      Vegetable
                     Box
Native American     Fresh Fruit/   Mountain       Black Hawk   SD              57718      2,400       $57,600.00
 Heritage            Vegetable      Plains
 Association         Box
Native Health       Fresh Fruit/   South West     Mesa         AZ              85210         80        $2,200.00
 Services            Vegetable
                     Box
Nativity Jesuit     Combination    Midwest        Milwaukee    WI              53215        485       $31,140.20
 Academy             Box
Nativity Jesuit     Dairy          Midwest        Milwaukee    WI              53215        100        $6,515.00
 Academy             Products Box
Nativity of Our     Dairy          Midwest        Detroit      MI              48214         25          $843.75
 Lord Catholic       Products Box
 Church
Nativity of Our     Precooked      Midwest        Detroit      MI              48214         25        $1,192.25
 Lord Catholic       Meat Box
 Church
Nativity of Our     Dairy          Midwest        Detroit      MI              48213         75        $2,531.25
 Lord Church         Products Box
Nativity of Our     Precooked      Midwest        Detroit      MI              48213         50        $2,384.50
 Lord Church         Meat Box
Nauset Middle       Fresh Fruit/   North East     Orleans      MA              02653      1,008       $22,125.60
 School              Vegetable
                     Box
Nazareth Baptist    Precooked      South East     Richton      MS              39475        952       $39,089.12
 Church              Meat Box
NB Brooks           Fluid Milk     South East     Duncan       MS              38774        200          $758.00
NB It Montgomery    Fluid Milk     South East     Mound Bayou  MS              38762        400        $1,516.00
NB Nothside HS      Fluid Milk     South East     Shelby       MS              38774        400        $1,516.00
NBH Ctr./           Fluid Milk     South East     Deland       FL              32720        240          $909.60
 SHFBVE077GA
NCARCOG             Combination    South East     Cullman      AL              35055      1,960      $149,058.00
                     Box
NCARCOG             Combination    South East     Decatur      AL              35601      2,800      $212,940.00
                     Box
NCARCOG             Combination    South East     Moulton      AL              35650      2,800      $212,940.00
                     Box
NCC First Baptist-- Fresh Fruit/   South East     Memphis      TN              38112        324        $7,938.00
 C/O Mid South       Vegetable
 Food Bank           Box
NCN: Gulfport       Combination    South East     Gulfport     FL              33711        112        $8,517.60
 Senior Center       Box
NCNS Crystal Lakes  Combination    South East     Pinellas     FL              33565        112        $8,517.60
 Manor               Box                           Park
NCN's Palm Harbor   Combination    South East     Palm Harbor  FL              34683        204       $15,514.20
 Daycare Phd         Box
NDICA               Fluid Milk     Western        Los Angeles  CA              90047        735        $5,586.00
NDICA               Fresh Fruit/   Western        Los Angeles  CA              90047        210        $5,250.00
                     Vegetable
                     Box
NE Arkansas Food    Precooked      South West     Jonesboro    AR              72404     16,006      $648,684.04
 Bank                Meat Box
NE Emergency Food   Fluid Milk     Western        Portland     OR              97218      1,050        $5,565.00
 Program
Needham High        Fresh Fruit/   North East     Needham      MA              02492        448        $9,833.60
 School              Vegetable
                     Box
Needham Newman      Fresh Fruit/   North East     Needham      MA              02492        784       $17,208.80
 Sch.                Vegetable
                     Box
Needs Center        Fresh Fruit/   South East     Fountain     NC              27829        288       $10,284.48
                     Vegetable
                     Box
Nehemiah            Fresh Fruit/   Midwest        Detroit      MI              48227        200        $2,990.00
 Missionary          Vegetable
 Baptist             Box
Nehemiah Temple     Fresh Fruit/   Midwest        Madison      MI              48071        252        $9,066.96
                     Vegetable                     Heights
                     Box
Nehemiah World of   Fresh Fruit/   Midwest        Inkster      MI              48141        200        $5,750.00
 Faith               Vegetable
                     Box
Neighbor Impact     Dairy          Western        Redmond      OR              97756      1,607       $48,210.00
                     Products Box
Neighbor Impact     Fresh Fruit/   Western        Redmond      OR              97756      2,962      $139,214.00
                     Vegetable
                     Box
Neighborhood        Fresh Fruit/   South East     Memphis      TN              38107      2,123       $52,013.50
 Christian Center--  Vegetable
 C/O Mid South       Box
 Food
Neighborhood Legal  Fresh Fruit/   Mountain       Kansas City  MO              64124        120        $3,108.00
 Support             Vegetable      Plains
                     Box
Neighborly Senior   Combination    South East     St.          FL              33701         56        $4,258.80
 Cafe at the         Box                           Petersburg
 Sunshine Center
Neighbors for       Combination    Midwest        Chicago      IL              60609        300       $20,154.00
 Environmental       Box
 Justice
Neighbors for       Fluid Milk     Midwest        Chicago      IL              60609        350       $12,267.50
 Environmental
 Justice
Neighbors for       Fresh Fruit/   Midwest        Chicago      IL              60609         50        $3,203.00
 Environmental       Vegetable
 Justice             Box
Neighbors Helping   Fluid Milk     Mountain       Boonville    MO              65233        912        $2,052.00
 Neighbors                          Plains
Neighbors Helping   Fresh Fruit/   Mountain       Boonville    MO              65233        320        $8,288.00
 Neighbors           Vegetable      Plains
                     Box
Neighbors in        Fresh Fruit/   South West     Houston      TX              77029        240        $4,077.60
 Action Inc.         Vegetable
                     Box
Neighbor's Place    Combination    Midwest        Wausau       WI              54403      1,470       $63,555.45
                     Box
Neighbor's Place    Fresh Fruit/   Midwest        Wausau       WI              54403        735       $21,689.85
                     Vegetable
                     Box
Neil Reid High      Fresh Fruit/   Midwest        Clinton      MI              48036         87        $1,300.65
 School              Vegetable                     Township
                     Box
Neman Unified       Fresh Fruit/   Western        Newman       CA              95360      2,079       $55,987.47
 School District     Vegetable
                     Box
Neon                Dairy          Midwest        Cleveland    OH              44103        400        $9,640.00
                     Products Box
Neon                Fresh Fruit/   Midwest        Cleveland    OH              44103        400       $10,600.00
                     Vegetable
                     Box
Neopolitan Church   Dairy          Midwest        Detroit      MI              48214        300        $8,700.00
 of Deliverance      Products Box
Neopolitan Church   Fresh Fruit/   Midwest        Detroit      MI              48214        550       $10,337.50
 of Deliverance      Vegetable
                     Box
Neshoba Co.         Fluid Milk     South East     Philadelphi  MS              39350        180          $682.20
                                                   a
Neshoba County      Dairy          South East     Philadelphi  MS              39350        240        $6,739.20
 Baptist As.         Products Box                  a
Neshoba County      Fresh Fruit/   South East     Philadelphi  MS              39350        160        $2,704.00
 Baptist As.         Vegetable                     a
                     Box
Neshoba County      Precooked      South East     Philadelphi  MS              39350        168        $6,898.08
 Baptist As.         Meat Box                      a
Nettleton FF        Fluid Milk     South East     Nettleton    MS              38858        720        $2,728.80
 Pantr.
Network of          Fluid Milk     South West     Richardson   TX              75081      1,504        $4,445.04
 Community
 Ministrie.
Network of          Fresh Fruit/   South West     Richardson   TX              75081      1,144       $19,436.56
 Community           Vegetable
 Ministrie.          Box
New Albany Seventh  Fresh Fruit/   South East     New Albany   MS              38652      2,052       $50,274.00
 Day Adventist       Vegetable
 Church--C/O Mid     Box
New Bedford Keith   Fresh Fruit/   North East     New Bedford  MA              02740      2,345       $51,472.75
 Middle              Vegetable
                     Box
New Bedford         Fresh Fruit/   North East     New Bedford  MA              02744      1,568       $34,417.60
 Roosevelt           Vegetable
                     Box
New Beginning Food  Fluid Milk     South East     Acworth      GA              30102        580        $2,270.20
New Beginning       Fresh Fruit/   South East     Brighton     AL              35020      1,958       $50,810.10
 Ministries Family   Vegetable
 Worship             Box
New Beginnings      Combination    Western        Kent         WA              98031        960       $33,600.00
 Christian           Box
New Beginnings      Combination    South West     Bedford      TX              76021      3,552      $124,213.44
 Church              Box
New Beginnings      Dairy          South West     Bedford      TX              76021      9,792      $448,081.92
 Church              Products Box
New Beginnings      Fluid Milk     South West     Bedford      TX              76021      4,148       $99,303.12
 Church
New Beginnings      Fresh Fruit/   South West     Bedford      TX              76021     18,335      $280,145.50
 Church              Vegetable
                     Box
New Beginnings      Fresh Fruit/   South East     Crestview    FL              32536        250        $7,250.00
 Church Inc.         Vegetable
                     Box
New Beginnings      Dairy          South West     Lewisville   TX              75067      1,200       $54,912.00
 Church Lewisville   Products Box
New Beginnings      Fresh Fruit/   South West     Lewisville   TX              75067        200        $4,660.00
 Church Lewisville   Vegetable
                     Box
New Beginnings      Dairy          South East     Escatawpa    MS              39552        640       $17,971.20
 Worship Ce          Products Box
New Beginnings      Precooked      South East     Escatawpa    MS              39552        252       $10,347.12
 Worship Ce          Meat Box
New Beginninings    Fresh Fruit/   South East     Escatawpa    MS              39552        192        $3,244.80
 Worship Ce          Vegetable
                     Box
New Bellevue        Fresh Fruit/   South East     Memphis      TN              38112      3,348       $82,026.00
 Ministires--C/O     Vegetable
 Mid South Food      Box
 Bank
New Bern Rebuild    Dairy          South East     New Bern     NC              28560        144          $720.00
 Center              Products Box
New Bern Rebuild    Fluid Milk     South East     New Bern     NC              28560        260        $1,040.00
 Center
New Bern Rebuild    Fresh Fruit/   South East     New Bern     NC              28560        720       $19,800.00
 Center              Vegetable
                     Box
New Bern Rebuild    Precooked      South East     New Bern     NC              28560        240        $4,680.00
 Center              Meat Box
New Bethany         Fluid Milk     Mid-Atlantic   Philadelphi  PA              19146        136        $4,406.40
 Baptist Church                                    a
New Bethel Baptist  Fresh Fruit/   Midwest        Pontiac      MI              48341        250        $3,737.50
                     Vegetable
                     Box
New Bethel Baptist  Fresh Fruit/   South East     Irwington    GA              31042        700       $13,258.00
 Church              Vegetable
                     Box
New Bethel Baptist  Fresh Fruit/   South East     Biloxi       MS              39530        448        $7,571.20
 Church              Vegetable
                     Box
New Bethel MBC--C/  Fresh Fruit/   South East     Germantown   TN              38138        594       $14,553.00
 O Mid South Food    Vegetable
 Bank                Box
New Birth Holiness  Fresh Fruit/   South East     Princeton    NC              27569        200        $2,300.00
                     Vegetable
                     Box
New Birth MBC the   Combination    South East     Lithonia     GA              30038        560       $42,588.00
 Kings Table         Box
New Birth MBC the   Fresh Fruit/   South East     Lithonia     GA              30038      3,525       $80,204.00
 Kings Table         Vegetable
                     Box
New Birth           Fluid Milk     South East     Stonecrest   GA              30038      3,384       $13,163.76
 Missionar
New Birth           Fresh Fruit/   Midwest        Saginaw      MI              48601      1,000       $21,125.00
 Missionary          Vegetable
 Baptist             Box
New Brunswick       Fluid Milk     Mid-Atlantic   New          NJ              08901         48          $946.56
 English SDA                                       Brunswick
 Church
New Buffalo         Fresh Fruit/   Midwest        New Buffalo  MI              49917        350       $12,593.00
 Elementary School   Vegetable
                     Box
New Buffalo HS      Fresh Fruit/   Midwest        New Buffalo  MI              49917        350       $12,593.00
 Cafeteria           Vegetable
                     Box
New Caney Elem.     Fluid Milk     South West     New Caney    TX              77357        980        $3,035.60
New Caney Isd.      Fluid Milk     South West     New Caney    TX              77357        424        $1,361.04
New Carrollton      Fresh Fruit/   Mid-Atlantic   New          MD              20784      1,400       $28,000.00
 Municipal Center    Vegetable                     Carrollton
                     Box
New Castle Middle   Dairy          Midwest        New Castle   IN              47362        810       $48,681.00
 School              Products Box
New City Kids       Fresh Fruit/   Midwest        Grand        MI              49504        189        $6,800.22
                     Vegetable                     Rapids
                     Box
New Community       Fresh Fruit/   Mid-Atlantic   Newark       NJ              07103        380        $7,600.00
 Corporation         Vegetable
                     Box
New Covenant        Fresh Fruit/   South East     Laurel Hill  NC              28351      3,100       $35,650.00
                     Vegetable
                     Box
New Covenant Chr.   Fresh Fruit/   Midwest        Saginaw      MI              48601        150        $3,125.00
 Center              Vegetable
                     Box
New Covenant        Fresh Fruit/   South East     Birmingham   AL              35224      4,500      $116,775.00
 Community           Vegetable
 Development         Box
New Covenant        Fresh Fruit/   Mountain       Poplar       MO              63901      1,645       $45,237.50
 Fellowship          Vegetable      Plains         Bluff
                     Box
New Covenant        Fluid Milk     South East     Birmingham   AL              35224     14,580       $56,842.20
 Outrch.
New Covenant West   Fresh Fruit/   South East     Lithonia     GA              30058        920       $18,400.00
                     Vegetable
                     Box
New Dawn Corp.      Combination    Mid-Atlantic   Rincon       PR              00677      1,344       $91,896.00
                     Box
New Day             Fresh Fruit/   South West     Beaumont     TX              77701      1,000        $9,700.00
 Deliverance         Vegetable
 Holiness            Box
New Day Minist.     Fluid Milk     Midwest        Bucyrus      OH              44820        180          $597.60
New Delivernce.     Fresh Fruit/   Midwest        Battle       MI              49037        100        $2,200.00
 Baptist Church      Vegetable                     Creek
                     Box
New Destiny         Fresh Fruit/   Midwest        Detroit      MI              48204      8,000      $119,600.00
 Christian Church    Vegetable
                     Box
New Destiny         Fresh Fruit/   Midwest        Detroit      MI              48204      2,000       $29,900.00
 Christian           Vegetable
 Fellowship          Box
New Destiny Inc.    Fresh Fruit/   Western        Pittsburg    CA              94565        170        $3,485.00
                     Vegetable
                     Box
New Direction       Fresh Fruit/   South East     Memphis      TN              38115      1,998       $48,951.00
 Christian Church--  Vegetable
 C/O Mid South       Box
 Foo.
New Direction       Fresh Fruit/   Midwest        Southfield   MI              48075         90        $2,587.50
 Church              Vegetable
                     Box
New Drctns. Family  Fluid Milk     South East     Myrtle       SC              29577        180          $718.20
                                                   Beach
New Ebinezer        Fresh Fruit/   Midwest        Detroit      MI              48210        100        $2,875.00
 Church              Vegetable
                     Box
New Eclipse         Fresh Fruit/   Midwest        Chicago      IL              60609        252        $9,066.96
 Community           Vegetable
 Alliance            Box
New Faith Temple    Fresh Fruit/   Midwest        Saginaw      MI              48601         50          $747.50
                     Vegetable
                     Box
New Fellowship      Fresh Fruit/   South East     Birmingham   AL              35211        730       $18,943.50
 Baptist Church      Vegetable
                     Box
New Fellowship      Dairy          South East     Beaumont     MS              39423        480       $13,478.40
 Missionary          Products Box
New Fellowship      Precooked      South East     Beaumont     MS              39423        504       $20,694.24
 Missionary          Meat Box
New Foundation      Fresh Fruit/   Midwest        Detroit      MI              48238         80        $2,300.00
 Christian Center    Vegetable
                     Box
New Foundation      Fresh Fruit/   Midwest        Detroit      MI              48238        100        $2,875.00
 Christian Church    Vegetable
                     Box
New Friendship      Fresh Fruit/   South East     Memphis      TN              38114        648       $15,876.00
 MBC--C/O Mid        Vegetable
 South Food Bank     Box
New Grant AME       Fresh Fruit/   South East     East Point   GA              30344      2,660       $53,200.00
                     Vegetable
                     Box
New Gresham         Precooked      Midwest        Chicago      IL              60620        576       $46,725.12
                     Meat Box
New Hampshire Food  Combination    North East     Manchester   NH              03109        624       $23,712.00
 Bank                Box
New Hampshire Food  Fluid Milk     North East     Manchester   NH              03103      1,920        $4,032.00
 Bank
New Hampshire Food  Fluid Milk     North East     Manchester   NH              03109     30,600       $55,101.60
 Bank
New Hampshire Food  Fresh Fruit/   North East     Manchester   NH              03109     13,440      $295,008.00
 Bank                Vegetable
                     Box
New Hampshire Food  Precooked      North East     Manchester   NH              03108        832       $16,640.00
 Bank                Meat Box
New Hampshire Food  Precooked      North East     Manchester   NH              03109      2,010      $130,803.00
 Bank                Meat Box
New Haven           Fresh Fruit/   Midwest        Ray          MI              48096        385       $13,852.30
 Community Schools   Vegetable
                     Box
New Haven High      Fresh Fruit/   Midwest        New Haven    MI              48048      1,300       $19,435.00
 School              Vegetable
                     Box
New Hope            Fluid Milk     Western        Honolulu     HI              96819        576        $2,407.68
New Hope            Fresh Fruit/   South East     Southaven    MS              38671        960       $19,152.00
                     Vegetable
                     Box
New Hope            Fresh Fruit/   Western        Anchorage    AK              99501         72        $2,012.40
                     Vegetable
                     Box
New Hope Baptist    Precooked      South West     Albuquerque  NM              87104      1,536      $158,438.40
                     Meat Box
New Hope Baptist    Dairy          Midwest        Youngstown   OH              44506        940       $22,654.00
 Church              Products Box
New Hope Baptist    Fluid Milk     South East     Jackson      MS              39206      1,344        $9,864.96
 Church
New Hope Baptist    Fluid Milk     South East     Raleigh      NC              27604        300        $1,200.00
 Church
New Hope Baptist    Fresh Fruit/   South East     Birmingham   AL              35217        200        $5,600.00
 Church              Vegetable
                     Box
New Hope Baptist    Fresh Fruit/   South East     Jackson      MS              39206      4,016       $67,870.40
 Church              Vegetable
                     Box
New Hope Baptist    Fresh Fruit/   South East     Raleigh      NC              27604      2,350       $64,625.00
 Church              Vegetable
                     Box
New Hope Baptist    Fresh Fruit/   Western        Oakland      CA              94608        800       $16,631.00
 Church              Vegetable
                     Box
New Hope Baptist    Fresh Fruit/   Midwest        Youngstown   OH              44506        950       $25,175.00
 Church              Vegetable
                     Box
New Hope Baptist    Precooked      South East     Jackson      MS              39206      1,760       $72,265.60
 Church              Meat Box
New Hope Baptist    Precooked      South East     Raleigh      NC              27604        300        $5,850.00
 Church              Meat Box
New Hope Baptist    Precooked      Midwest        Youngstown   OH              44506      2,748      $108,463.56
 Church              Meat Box
New Hope Baptist    Fresh Fruit/   South East     Southaven    MS              38671        540       $13,230.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
New Hope Baptist    Fluid Milk     South East     Jackson      MS              39206        384        $2,818.56
 Church C.
New Hope Baptist    Fresh Fruit/   South East     Jackson      MS              39206        320        $5,408.00
 Church C.           Vegetable
                     Box
New Hope Church of  Fresh Fruit/   South East     Memphis      TN              38122        540       $13,230.00
 Nazerene--C/O Mid   Vegetable
 South Food B.       Box
New Hope Full       Fresh Fruit/   South West     Albuquerque  NM              87110      1,560       $39,000.00
 Gospel              Vegetable
                     Box
New Hope Full       Precooked      South West     Albuquerque  NM              87110      2,981      $307,490.15
 Gospel              Meat Box
New Hope Little     Combination    Midwest        Chicago      IL              60623        190       $12,308.80
 Village             Box
New Hope Little     Fresh Fruit/   Midwest        Chicago      IL              60623         50        $3,203.00
 Village             Vegetable
                     Box
New Hope            Fluid Milk     Mid-Atlantic   Mechanicsbu  PA              17050         96        $1,893.12
 Ministries                                        rg
New Hope Praise     Fresh Fruit/   Mid-Atlantic   Hagerstown   MD              21740        250        $5,000.00
 Ministry            Vegetable
                     Box
New Hope Worship    Dairy          South West     West Monroe  LA              71292      1,056       $48,322.56
 Center              Products Box
New Horizon         Dairy          South East     Brandon      MS              39232        400       $11,232.00
 Flowood Campu.      Products Box
New Horizon         Fresh Fruit/   South East     Brandon      MS              39232        432        $7,300.80
 Flowood Campu.      Vegetable
                     Box
New Horizon         Precooked      South East     Brandon      MS              39232        420       $17,245.20
 Flowood Campu.      Meat Box
New Horizons        Dairy          Western        Bend         OR              97701        300        $9,000.00
 Westside            Products Box
New Horizons        Fresh Fruit/   Western        Bend         OR              97701        300       $14,100.00
 Westside            Vegetable
                     Box
New Hymn Church     Dairy          South East     Pinola       MS              39149        560       $15,724.80
                     Products Box
New Hymn Church     Precooked      South East     Pinola       MS              39149        420       $17,245.20
                     Meat Box
New Jerusalem       Fresh Fruit/   South West     Tulsa        OK              74126      2,500       $24,250.00
 Baptist Church      Vegetable
                     Box
New Jerusalem       Dairy          Midwest        Muskegon     MI              49444         50        $1,450.00
 Church              Products Box
New Jerusalem       Fresh Fruit/   Midwest        Muskegon     MI              49444        100        $2,200.00
 Church              Vegetable
                     Box
New Jerusalem       Dairy          Midwest        Mansfield    OH              44903        200        $5,000.00
 Progressive         Products Box
New Journey         Fresh Fruit/   Mid-Atlantic   Reading      PA              19602        900       $22,500.00
 Community           Vegetable
 Outreach            Box
New Joy Divine      Precooked      Midwest        Chicago      IL              60620        144       $11,681.28
                     Meat Box
New Life--Albany    Fresh Fruit/   Midwest        Chicago      IL              60625        756       $27,200.88
 Park                Vegetable
                     Box
New Life--Brighten  Fresh Fruit/   Midwest        Chicago      IL              60632      1,386       $49,868.28
 Park                Vegetable
                     Box
New Life--Humboldt  Fresh Fruit/   Midwest        Chicago      IL              60651        693       $24,934.14
 Park                Vegetable
                     Box
New Life--Karlov    Fresh Fruit/   Midwest        Chicago      IL              60623      1,197       $43,068.06
                     Vegetable
                     Box
New Life--Karlov    Precooked      Midwest        Chicago      IL              60623      1,656      $134,334.72
                     Meat Box
New Life--Lawndale  Fresh Fruit/   Midwest        Chicago      IL              60623      9,387      $337,744.26
                     Vegetable
                     Box
New Life--Lawndale  Precooked      Midwest        Chicago      IL              60623      4,392      $356,279.04
                     Meat Box
New Life--Lawndale  Dairy          Midwest        Chicago      IL              60623      3,636       $90,900.00
 Box                 Products Box
New Life--Midway    Fresh Fruit/   Midwest        Chicago      IL              60632      4,851      $174,538.98
                     Vegetable
                     Box
New Life--Midway    Precooked      Midwest        Chicago      IL              60632      2,016      $163,537.92
                     Meat Box
New Life--Mont      Fresh Fruit/   Midwest        Chicago      IL              60707        693       $24,934.14
 Clare               Vegetable
                     Box
New Life Albany     Fresh Fruit/   Midwest        Chicago      IL              60625        756       $27,200.88
 Park                Vegetable
                     Box
New Life Albany     Precooked      Midwest        Chicago      IL              60625        576       $46,725.12
 Park                Meat Box
New Life Albany     Precooked      Midwest        Chicago      IL              60625      3,024      $245,306.88
 Park                Meat Box
New Life Assembly   Fresh Fruit/   Mountain       Bunker       MO              63629        625       $17,187.50
 of God              Vegetable      Plains
                     Box
New Life Assembly   Fresh Fruit/   South West     El Campo     TX              77437      3,072       $52,193.28
 of God              Vegetable
                     Box
New Life Assembly   Combination    South East     Athens       AL              35611      1,344      $102,211.20
 of God--AL Ag       Box
 District
New Life Assembly   Combination    South East     Woodstock    AL              35188      1,344      $102,211.20
 of God. Woodstock   Box
 AL
New Life Brighten   Fresh Fruit/   Midwest        Chicago      IL              60632        630       $22,667.40
 Park                Vegetable
                     Box
New Life Brighten   Precooked      Midwest        Chicago      IL              60632        576       $46,725.12
 Park                Meat Box
New Life Brighten   Precooked      Midwest        Chicago      IL              60632      2,952      $239,466.24
 Park                Meat Box
New Life Church     Dairy          Midwest        Bluford      IL              62814        250        $7,437.50
                     Products Box
New Life Church     Fluid Milk     Midwest        Madison      IN              47250     17,280       $69,120.00
New Life Church     Fresh Fruit/   Midwest        Bluford      IL              62814        250        $6,875.00
                     Vegetable
                     Box
New Life Church     Fresh Fruit/   Western        Pismo Beach  CA              93449        225        $8,100.00
                     Vegetable
                     Box
New Life Church     Dairy          Midwest        Bluford      IL              62814        250        $7,437.50
 Bluford             Products Box
New Life Church     Fresh Fruit/   Midwest        Bluford      IL              62814        150        $4,125.00
 Bluford             Vegetable
                     Box
New Life Church of  Dairy          South East     Monticello   MS              39654        400       $11,232.00
 God of              Products Box
New Life Church of  Fresh Fruit/   South East     Monticello   MS              39654        432        $7,300.80
 God of              Vegetable
                     Box
New Life Church of  Precooked      South East     Monticello   MS              39654        336       $13,796.16
 God of              Meat Box
New Life Community  Fluid Milk     Mid-Atlantic   Martinsburg  WV              25403      2,112       $41,648.64
 Church
New Life Community  Fluid Milk     Mid-Atlantic   Kerneysvill  WV              25430      6,050      $129,069.60
 Church                                            e
New Life Covenant   Precooked      Midwest        Chicago      IL              60619        432       $35,043.84
 Church Southeast    Meat Box
New Life            Fresh Fruit/   South East     Saint        SC              29920      1,100       $33,000.00
 Deliverance         Vegetable                     Helena
 Temple              Box                           Island
New Life            Combination    Mountain       Neosho       MO              64850      2,976      $104,070.72
 Fellowship          Box            Plains
New Life            Dairy          Mountain       Neosho       MO              64850      1,056       $48,322.56
 Fellowship          Products Box   Plains
New Life            Fluid Milk     Mountain       Neosho       MO              64850      2,588       $61,956.72
 Fellowship                         Plains
New Life            Fresh Fruit/   Mountain       Neosho       MO              64850      7,404      $118,221.80
 Fellowship          Vegetable      Plains
                     Box
New Life Fllwshp.   Fluid Milk     Midwest        Terre Haute  IN              47803      1,800        $4,050.00
New Life Humbo.     Fluid Milk     Midwest        Chicago      IL              60651        720        $2,390.40
New Life Humboldt   Fluid Milk     Midwest        Chicago      IL              60651        720        $2,390.40
 P.
New Life Humboldt   Fluid Milk     Midwest        Chicago      IL              60651        720        $2,390.40
 Park
New Life Humboldt   Precooked      Midwest        Chicago      IL              60651        576       $46,725.12
 Park                Meat Box
New Life Humboldt   Precooked      Midwest        Chicago      IL              60651      2,736      $221,944.32
 Park                Meat Box
New Life Humboldt   Fresh Fruit/   Midwest        Chicago      IL              60651        693       $24,934.14
 Parm                Vegetable
                     Box
New Life Karlo      Fluid Milk     Midwest        Chicago      IL              60623        900        $2,988.00
New Life Karlov     Fluid Milk     Midwest        Chicago      IL              60623      1,620        $5,378.40
New Life Karlov     Precooked      Midwest        Chicago      IL              60623        576       $46,725.12
                     Meat Box
New Life Karlov     Precooked      Midwest        Chicago      IL              60623      1,152       $93,450.24
                     Meat Box
New Life Lawndale   Fluid Milk     Midwest        Chicago      IL              60623      8,640       $28,684.80
New Life Lawndale   Fresh Fruit/   Midwest        Chicago      IL              60623      2,142       $77,069.16
                     Vegetable
                     Box
New Life Lawndale   Precooked      Midwest        Chicago      IL              60623      1,440      $116,812.80
                     Meat Box
New Life Lawndale   Precooked      Midwest        Chicago      IL              60623      8,064      $654,151.68
                     Meat Box
New Life Midway     Fluid Milk     Midwest        Chicago      IL              60632      1,260        $4,183.20
New Life Midway     Precooked      Midwest        Chicago      IL              60632      3,312      $268,669.44
                     Meat Box
New Life            Combination    Midwest        Oak Park     IL              60302        225       $14,483.00
 Ministries          Box
New Life            Fluid Milk     Midwest        Washington   OH              43160     25,200       $83,664.00
 Ministries                                        Court
                                                   House
New Life Mont       Fluid Milk     Midwest        Chicago      IL              60707        720        $2,390.40
New Life Mont       Fluid Milk     Midwest        Chicago      IL              60707      1,440        $4,780.80
 Clare
New Life Mont       Fresh Fruit/   Midwest        Chicago      IL              60707        693       $24,934.14
 Clare               Vegetable
                     Box
New Life Mont       Precooked      Midwest        Chicago      IL              60707        576       $46,725.12
 Clare               Meat Box
New Life Mont       Precooked      Midwest        Chicago      IL              60707        576       $46,725.12
 Clare               Meat Box
New Life Outreach   Fresh Fruit/   South East     Franklinton  NC              27525        192        $4,878.72
 Ministry            Vegetable
                     Box
New Life SDA        Fresh Fruit/   South West     Richardson   TX              75081        768       $13,048.32
 Church--Food        Vegetable
 Pantr.              Box
New Life Seventh    Fresh Fruit/   South East     Birmingham   AL              35207      1,500       $38,925.00
 Day Adventist       Vegetable
                     Box
New Life Westover   Combination    South East     Springville  AL              35146      1,344      $102,211.20
 (Ag)--AL Ag         Box
 District
New Millenial       Fresh Fruit/   South West     Dallas       TX              75217        224        $3,805.76
 Bible Fellowship    Vegetable
                     Box
New Mt. Zion        Fresh Fruit/   South East     Somerville   TN              38068      1,026       $25,137.00
 Baptist Church--C/  Vegetable
 O Mid South Food    Box
 Bank
New Mt. Zion MB     Dairy          South East     Jackson      MS              39213         80        $2,246.40
 Church              Products Box
New Mt. Zion MB     Fresh Fruit/   South East     Jackson      MS              39213        576        $9,734.40
 Church              Vegetable
                     Box
New Mt. Zion MB     Precooked      South East     Jackson      MS              39213      1,008       $41,388.48
 Church              Meat Box
New Orleans Food    Precooked      South West     New Orleans  LA              70126      3,040      $313,576.00
 Bank Cold Storage   Meat Box
New Paradigm        Fresh Fruit/   Midwest        Detroit      MI              48210        350        $5,232.50
                     Vegetable
                     Box
New Pilgrim         Fresh Fruit/   South East     Birmingham   AL              35211      1,304       $33,838.80
 Baptist             Vegetable
                     Box
New Prospect        Fresh Fruit/   Midwest        Detroit      MI              48221      1,512       $54,401.76
 Missionary Church   Vegetable
                     Box
New Providence      Fresh Fruit/   Midwest        Detroit      MI              48228      3,750       $56,062.50
 Church              Vegetable
                     Box
New Psalmist        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        850       $17,570.00
 Baptist Church      Vegetable
                     Box
New Rising Star     Fresh Fruit/   South East     Birmingham   AL              35206      1,484       $38,509.80
                     Vegetable
                     Box
New Salem Baptist   Fluid Milk     Midwest        Columbus     OH              43224        720        $2,390.40
 Church
New Salem Baptist   Fresh Fruit/   Midwest        Columbus     OH              43224      1,024       $19,968.00
 Church              Vegetable
                     Box
New Song Church     Dairy          South West     Centerton    AR              72719        768       $35,143.68
                     Products Box
New Song Church     Fresh Fruit/   South West     Centerton    AR              72719        539       $10,294.90
                     Vegetable
                     Box
New Step Outreach   Fluid Milk     South West     Deridder     LA              70634      2,100        $6,262.50
New Summerville     Fresh Fruit/   South East     Summerville  GA              30747        100        $2,000.00
 Baptist Church      Vegetable
                     Box
New Tabernacle      Fresh Fruit/   Midwest        Chicago      IL              60628        567       $20,400.66
                     Vegetable
                     Box
New Taberncle       Fresh Fruit/   Midwest        Chicago      IL              60628        189        $6,800.22
                     Vegetable
                     Box
New Testament       Fresh Fruit/   North East     The Bronx    NY              10469     12,160      $415,200.00
 Temple              Vegetable
                     Box
New Testament       Fresh Fruit/   North East     The Bronx    NY              10469      2,960       $88,800.00
 Temple the Bronx    Vegetable
                     Box
New Vision Church   Fluid Milk     South West     Laredo       TX              78045      1,208        $3,527.36
New Visions         Fluid Milk     South East     Albany       GA              31701        180          $682.20
New Wine Church     Fresh Fruit/   South West     La Feria     TX              78559      1,456       $24,737.44
                     Vegetable
                     Box
New Wineskin        Combination    Midwest        Indianapoli  IN              46254      1,375      $206,250.00
 Ministries          Box                           s
New Wynn Church     Fresh Fruit/   South East     Bethel       NC              27812         75        $2,678.25
 Bethel              Vegetable
                     Box
New York Mills      Combination    North East     New York     NY              13417         60        $3,105.00
 Schools             Box                           Mills
New York Mills      Fresh Fruit/   North East     New York     NY              13417        140        $4,172.00
 Schools             Vegetable                     Mills
                     Box
New Zion            Fresh Fruit/   South West     Alamogordo   NM              88310      1,560       $39,000.00
 Missionary          Vegetable
 Baptist Church      Box
New Zion            Precooked      South West     Alamogordo   NM              88310      2,939      $303,157.85
 Missionary          Meat Box
 Baptist Church
New Zion/Booc       Fresh Fruit/   Midwest        Chicago      IL              60419        252        $9,066.96
 Joseph Store        Vegetable
                     Box
New Zion/BOOC       Precooked      Midwest        Dolton       IL              60419        144       $11,681.28
 Joseph Store        Meat Box
New Zion/BOOC       Dairy          Midwest        Dolton       IL              60419        210        $5,250.00
 Joseph Store Box    Products Box
Newaygo Co. Comm.   Dairy          Midwest        White Cloud  MI              49349        285        $8,265.00
 on Aging            Products Box
Newaygo Co. Comm.   Fresh Fruit/   Midwest        White Cloud  MI              49349        525       $11,025.00
 on Aging            Vegetable
                     Box
Newaygo County      Precooked      Midwest        Fremont      MI              49412      1,493       $57,302.80
 Community           Meat Box
 Services
Newberry High       Fresh Fruit/   South East     Newberry     SC              29108        200        $6,000.00
                     Vegetable
                     Box
Newberry High       Fresh Fruit/   South East     Newberry     SC              29108        775       $23,250.00
 School              Vegetable
                     Box
Newberry Middle     Fresh Fruit/   South East     Newberry     SC              29108        850       $25,500.00
                     Vegetable
                     Box
Newberry Middle     Fresh Fruit/   South East     Whitmire     SC              29178        150        $4,500.00
                     Vegetable
                     Box
Newburyport COA     Combination    North East     Newburyport  MA              01950         25          $820.00
                     Box
Newburyport COA     Precooked      North East     Newburyport  MA              01950         70        $3,801.00
                     Meat Box
Newlife Mont Clare  Precooked      Midwest        Chicago      IL              60707      2,160      $175,219.20
                     Meat Box
Newman Family RC    Fresh Fruit/   Western        Newman       CA              95360        746       $22,901.38
                     Vegetable
                     Box
Newmark Middle      Fresh Fruit/   Mountain       Kansas City  MO              64155      2,010       $52,059.00
 School              Vegetable      Plains
                     Box
Newton Co.          Fluid Milk     South East     Newton       MS              39345        360        $1,364.40
Newton North High   Fresh Fruit/   North East     Newton       MA              02460        336        $7,375.20
 School              Vegetable
                     Box
Newton Parish       Fluid Milk     South East     Owensboro    KY              42303        279          $627.75
 Elem.
Newtonville SDA     Fresh Fruit/   Mid-Atlantic   Newtonville  NJ              08094        600       $28,800.00
 Church              Vegetable
                     Box
Nez Perce Tribe     Combination    Western        Lapwai       ID              83540        336       $15,904.00
                     Box
Nez Perce Tribe     Fresh Fruit/   Western        Lapwai       ID              83540        280        $7,504.00
                     Vegetable
                     Box
NFW Branch          Fresh Fruit/   South West     Fort Worth   TX              76164        128        $2,174.72
                     Vegetable
                     Box
NHB Coop.           Fluid Milk     South East     Norcross     GA              30071        228          $890.52
 Ministries
Niihau School of    Fresh Fruit/   Western        Kekaha       HI              96752        300       $11,700.00
 Kekaha              Vegetable
                     Box
Nilus               Combination    Mid-Atlantic   San Juan     PR              00920        792       $64,296.00
                     Box
Nineveh Church      Fresh Fruit/   Western        Modesto      CA              95335      1,386       $37,324.98
                     Vegetable
                     Box
Ninth Baptist       Fluid Milk     South West     Ville        LA              70586      1,932        $5,641.44
 Church                                            Platte
NLMUSD              Fresh Fruit/   Western        Norwalk      CA              90650        960       $24,000.00
                     Vegetable
                     Box
NLMUSD Los Coyotes  Fresh Fruit/   Western        La Mirada    CA              90638        960       $24,000.00
 MS                  Vegetable
                     Box
NMCAA               Precooked      Midwest        Traverse     MI              49686      2,286       $89,065.82
                     Meat Box                      City
NNEMAP Food Pantry  Fresh Fruit/   Midwest        Columbus     OH              43211        192        $3,744.00
                     Vegetable
                     Box
No. Attleboro       Fresh Fruit/   North East     North        MA              02760         56        $1,229.20
 Community Sch.      Vegetable                     Attleboro
                     Box
No. Attleboro       Fresh Fruit/   North East     North        MA              02760        819       $17,977.05
 Middle School       Vegetable                     Attleboro
                     Box
No. Attleboro       Precooked      North East     North        MA              02760        140        $7,602.00
 Middle School       Meat Box                      Attleboro
No Longer Bound     Fresh Fruit/   Mid-Atlantic   Bristol      PA              19007         72        $1,654.56
                     Vegetable
                     Box
No Us Without You   Combination    Western        Los Angeles  CA              90023        392       $10,682.00
                     Box
No Us Without You   Fluid Milk     Western        Los Angeles  CA              90023      2,304       $10,944.00
No Us Without You   Fresh Fruit/   Western        Los Angeles  CA              90023      2,892       $71,577.00
                     Vegetable
                     Box
Nolachuckey         Fluid Milk     South East     Greeneville  TN              37743        300        $1,137.00
 Element
Noonday Baptist     Dairy          South East     Atlanta      GA              30339        700       $23,100.00
 Association         Products Box
Noonday Baptist     Fresh Fruit/   South East     Atlanta      GA              30339      9,900      $281,400.00
 Association         Vegetable
                     Box
Noors Heaven of     Fresh Fruit/   Midwest        Wyoming      MI              49519        168        $6,044.64
 West Michigan       Vegetable
                     Box
Norfleet            Fresh Fruit/   Mountain       Raytown      MO              64133         50        $1,295.00
 Elemenatry          Vegetable      Plains
 Raytown             Box
Norfolk COA         Precooked      North East     Norfolk      MA              02056         45        $2,443.50
                     Meat Box
Normandale Baptist  Dairy          South West     Fort Worth   TX              76108        400       $18,304.00
 Church              Products Box
Norris Square       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19122      1,400       $28,000.00
 Community Action    Vegetable                     a
 Network             Box
Norris Square       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19122        210        $4,200.00
 Community           Vegetable                     a
 Alliance            Box
North Austin YMCA   Fresh Fruit/   South West     Austin       TX              78758      3,048       $51,785.52
                     Vegetable
                     Box
North Beach Senior  Combination    Western        Ocean        WA              98569      2,280       $79,800.00
 Center              Box                           Shores
North Beach Senior  Dairy          Western        Ocean        WA              98569      2,600       $78,000.00
 Center              Products Box                  Shores
North Beach Senior  Fresh Fruit/   Western        Ocean        WA              98569      3,000       $81,000.00
 Center              Vegetable                     Shores
                     Box
North Brookfield    Combination    North East     North        MA              01535         40        $1,312.00
 Sr.                 Box                           Brookfield
North Brookfield    Precooked      North East     North        MA              01535         25        $1,357.50
 Sr.                 Meat Box                      Brookfield
North Brooklyn      Fresh Fruit/   North East     Brooklyn     NY              11222      5,056      $116,288.00
 Angels              Vegetable
                     Box
North Brooklyn      Fresh Fruit/   North East     Brooklyn     NY              11222      1,024       $23,552.00
 Coalition of        Vegetable
 Neighbors           Box
North Canyon        Combination    Western        Gooding      ID              83330        175        $7,700.00
 Medical Center      Box
North Canyon        Fresh Fruit/   Western        Gooding      ID              83330        200        $5,200.00
 Medical Center      Vegetable
                     Box
North Central       Fresh Fruit/   South East     Grenada      MS              38901        728       $14,523.60
 Baptist Assoc       Vegetable
                     Box
North Central       Fresh Fruit/   South East     Grenada      MS              38901      2,128       $42,453.60
 Baptist             Vegetable
 Association         Box
North Central Food  Dairy          Midwest        Grand        MN              55744      1,800       $51,516.00
 Bank                Products Box                  Rapids
North Coast         Fresh Fruit/   Western        Ukiah        CA              95482      1,200       $42,000.00
 Opportunities       Vegetable
                     Box
North Community     Fresh Fruit/   Midwest        Minneapolis  MN              55411        240       $14,160.00
 YMCA Bix            Vegetable
                     Box
North Country Food  Dairy          Midwest        East Grand   MN              56721      1,200       $34,344.00
 Bank                Products Box                  Forks
North Country Food  Fresh Fruit/   Midwest        East Grand   MN              56721        275       $16,225.00
 Bank                Vegetable                     Forks
                     Box
North Country Food  Precooked      Midwest        East Grand   MN              56721      6,720      $254,284.80
 Bank                Meat Box                      Forks
North Dallas        Fresh Fruit/   South West     Dallas       TX              75229      1,688       $28,679.12
 Shared Ministries   Vegetable
                     Box
North Deerborn      Fluid Milk     Midwest        West         IN              47060        160          $640.00
 Pantry                                            Harrison
North East          Fresh Fruit/   South West     San Antonio  TX              78217      3,080       $77,000.00
 Independent         Vegetable
 School District     Box
North East          Precooked      South West     San Antonio  TX              78217      6,276      $210,243.00
 Independent         Meat Box
 School District
North Farmington    Dairy          Midwest        Farmington   MI              48334        850       $24,650.00
                     Products Box
North Farmington    Fresh Fruit/   Midwest        Farmington   MI              48334      1,400       $29,575.00
                     Vegetable
                     Box
North Fulton        Fluid Milk     South East     Roswell      GA              30076      1,360        $5,154.40
 Commun
North Gwinnett Co.- Fluid Milk     South East     Buford       GA              30518        260        $1,011.00
 O.
North Helpline      Combination    Western        Seattle      WA              98125        240        $8,400.00
                     Box
North Helpline      Dairy          Western        Seattle      WA              98125        100        $3,000.00
                     Products Box
North Helpline      Fresh Fruit/   Western        Seattle      WA              98125        120        $3,240.00
                     Vegetable
                     Box
North HS            Dairy          Midwest        Macomb       MI              48042      1,206       $29,269.62
                     Products Box
North HS            Fresh Fruit/   Midwest        Macomb       MI              48042      1,023       $20,751.48
                     Vegetable
                     Box
North IL Food       Fresh Fruit/   Midwest        Rockford     IL              61108      1,100       $21,450.00
 Bank--E. State      Vegetable
                     Box
North Johnston      Fresh Fruit/   South East     Micro        NC              27555        100        $1,150.00
 Middle              Vegetable
                     Box
North Kansas City   Fresh Fruit/   Mountain       Kansas City  MO              64116        970       $25,123.00
 High School         Vegetable      Plains
                     Box
North Kent Connect  Dairy          Midwest        Rockford     MI              49341        192        $4,800.00
                     Products Box
North Kent Connect  Fresh Fruit/   Midwest        Rockford     MI              49341        196        $7,052.08
                     Vegetable
                     Box
North Kohala Comm.  Fluid Milk     Western        Hawi         HI              96719      1,114        $4,656.52
 Resource Ctr.
North Middle        Fluid Milk     South East     Powderly     KY              42367      3,366        $7,573.50
 School
North MS Baptist    Fresh Fruit/   South East     Walls        MS              38680        616       $12,289.20
 Educatiuonal        Vegetable
 Convention          Box
North Park Academy  Fresh Fruit/   North East     Buffalo      NY              14216        270        $6,169.50
                     Vegetable
                     Box
North Plains Mall   Fluid Milk     South West     Clovis       NM              88101      2,400       $11,760.00
North Platte R-I    Fresh Fruit/   Mountain       Dearborn     MO              64439        560       $14,504.00
 School District     Vegetable      Plains
                     Box
North Point         Combination    South West     Bossier      LA              71111      1,440       $50,356.80
 Community Center    Box                           City
North Point         Precooked      South West     Bossier      LA              71111      3,072      $316,876.80
 Community Center    Meat Box                      City
North Redbank       Fresh Fruit/   South East     Chattanooga  TN              37415        600       $12,000.00
 Church              Vegetable
                     Box
North School JC     Fluid Milk     Mountain       Jefferson    MO              65101        342          $769.50
                                    Plains         City
North Shore Eld.    Combination    North East     Danvers      MA              01923         25          $820.00
 Svc.                Box
North Shore Eld.    Precooked      North East     Danvers      MA              01923         44        $2,389.20
 Svc.                Meat Box
North Shore         Fresh Fruit/   Midwest        South Haven  MI              49090        392       $14,104.16
 Elementary          Vegetable
                     Box
North Star Beloved  Fresh Fruit/   South East     Selma        AL              36701      6,880      $178,536.00
 Community Corp      Vegetable
                     Box
North State Food    Fresh Fruit/   Western        Oroville     CA              95965      3,920       $81,104.80
 Bank                Vegetable
                     Box
North Strand        Fluid Milk     South East     Longs        SC              29568        520        $2,023.60
 Helpin.
North Suburban      Fluid Milk     Midwest        Park City    IL              60085      4,320       $14,342.40
North Suburban      Fresh Fruit/   Midwest        Park City    IL              60085      3,654      $131,470.92
 Center              Vegetable
                     Box
North Suburban      Fluid Milk     Midwest        Park City    IL              60085      8,640       $28,684.80
 Ctr.
North Texas         Fluid Milk     South West     Fort Worth   TX              76180        906        $2,645.52
 Communi.
North Texas         Fluid Milk     South West     North        TX              76180        536        $1,565.12
 Communi.                                          Richland
                                                   Hills
North Texas Food    Fluid Milk     South West     Plano        TX              75075     31,266       $92,905.06
 Bank
North Texas Food    Fresh Fruit/   South West     Plano        TX              75075     62,792    $1,066,836.08
 Bank                Vegetable
                     Box
North Texas Relief  Combination    South West     Leonard      TX              75452        100        $3,497.00
 United              Box
North Texas Relief  Dairy          South West     Leonard      TX              75452        300       $13,728.00
 United              Products Box
North Texas Relief  Fresh Fruit/   South West     Leonard      TX              75452         75        $1,747.50
 United              Vegetable
                     Box
North Valley        Combination    Western        North Hills  CA              91343      4,900      $133,525.00
 Caring Services     Box
North Valley        Dairy          Western        North Hills  CA              91343        500       $16,000.00
 Caring Services     Products Box
North Valley        Fluid Milk     Western        North Hills  CA              91343      1,440        $6,840.00
 Caring Services
North Valley        Fresh Fruit/   Western        North Hills  CA              91343        100        $2,475.00
 Caring Services     Vegetable
                     Box
North Vernon First  Fluid Milk     Midwest        North        IN              47265      7,776       $31,104.00
 Bapt.                                             Vernon
Northampton COA     Combination    North East     Northampton  MA              01060        120        $3,936.00
                     Box
Northampton COA     Precooked      North East     Northampton  MA              01060         20        $1,086.00
                     Meat Box
Northaven           Fresh Fruit/   South East     Memphis      TN              38127        540       $13,230.00
 Elementary--C/O     Vegetable
 Mid South Food      Box
 Bank
Northeast           Fluid Milk     South West     Houston      TX              77093     18,660       $55,618.20
 Community
Northeast           Dairy          Midwest        Jackson      MI              49201        520       $15,080.00
 Elementary          Products Box
Northeast           Fresh Fruit/   Midwest        Jackson      MI              49201      1,000       $21,125.00
 Elementary          Vegetable
                     Box
Northeast           Fresh Fruit/   Midwest        Jackson      MI              49202      1,008       $36,267.84
 Elementary          Vegetable
                     Box
Northeast Food      Precooked      South West     Springdale   AR              72764      3,584       $63,759.36
 Bank                Meat Box
Northeast Iowa      Dairy          Midwest        Waterloo     IA              50307      5,952      $148,800.00
 Food Bank           Products Box
Northeast Iowa      Fluid Milk     Midwest        Waterloo     IA              50307        864        $3,456.00
 Food Bank
Northeast Iowa      Fresh Fruit/   Midwest        Waterloo     IA              50703      7,100      $178,130.00
 Food Bank           Vegetable
                     Box
Northeast Iowa      Precooked      Midwest        Waterloo     IA              50703      1,600       $81,360.00
 Food Bank           Meat Box
Norther. Illinois   Precooked      Midwest        Park City    IL              60085      3,780      $106,974.00
 Food Bank           Meat Box
Norther. Illinois   Precooked      Midwest        Geneva       IL              60134      3,780      $106,974.00
 Food Bank           Meat Box
Norther. Illinois   Precooked      Midwest        Joliet       IL              60436      3,780      $106,974.00
 Food Bank           Meat Box
Northern Columbia   Fresh Fruit/   Mid-Atlantic   Benton       PA              17814        105        $2,625.00
 Community and       Vegetable
 Cultural Center     Box
Northern Fb Joliet  Dairy          Midwest        Joliet       IL              60436      1,638       $48,730.50
                     Products Box
Northern Food Bank  Dairy          Midwest        Joliet       IL              60436        920       $27,370.00
 Joliet              Products Box
Northern Food Bank  Fresh Fruit/   Midwest        Joliet       IL              60436      1,728       $47,520.00
 Joliet              Vegetable
                     Box
Northern IL Food    Dairy          Midwest        Geneva       IL              60134      8,000      $238,000.00
 Bank                Products Box
Northern IL Food    Dairy          Midwest        Rockford     IL              61109      2,000       $59,500.00
 Bank                Products Box
Northern IL Food    Fresh Fruit/   Midwest        Park City    IL              60085      1,728       $47,520.00
 Bank                Vegetable
                     Box
Northern IL Food    Fresh Fruit/   Midwest        Geneva       IL              60134      5,376      $147,840.00
 Bank                Vegetable
                     Box
Northern IL Food    Precooked      Midwest        Geneva       IL              60134      3,360      $127,142.40
 Bank                Meat Box
Northern IL Food    Dairy          Midwest        Geneva       IL              60134      5,000      $148,750.00
 Bank Geneva         Products Box
Northern IL Food    Fresh Fruit/   Midwest        Geneva       IL              60134      3,456       $95,040.00
 Bank Geneva         Vegetable
                     Box
Northern IL Food    Precooked      Midwest        Geneva       IL              60134      6,720      $254,284.80
 Bank Lineage        Meat Box
Northern IL Food    Dairy          Midwest        Rockford     IL              61109      2,000       $59,500.00
 Bank Rockford       Products Box
Northern IL         Dairy          Midwest        Geneva       IL              60134      1,096       $32,606.00
 Foodbank Geneva     Products Box
Northern IL         Fresh Fruit/   Midwest        Geneva       IL              60134        706       $19,415.00
 Foodbank Geneva     Vegetable
                     Box
Northern IL Park    Dairy          Midwest        Park City    IL              60085      4,000      $119,000.00
 City Dairy          Products Box
Northern Ilinois    Fresh Fruit/   Midwest        Geneva       IL              60134     11,424      $411,035.52
 Food Bank           Vegetable
                     Box
Northern Illinois   Dairy          Midwest        Park City    IL              60085        996       $29,631.00
 Food Bank           Products Box
Northern Illinois   Fresh Fruit/   Midwest        Park City    IL              60085      1,272       $34,980.00
 Food Bank           Vegetable
                     Box
Northern Illinois   Fresh Fruit/   Midwest        Geneva       IL              60134     12,492      $363,206.16
 Food Bank           Vegetable
                     Box
Northern Illinois   Fresh Fruit/   Midwest        Geneva       IL              60134    101,102    $3,263,873.96
 Food Bank           Vegetable
                     Box
Northern Illinois   Precooked      Midwest        Geneva       IL              60134    165,780    $4,576,554.00
 Food Bank           Meat Box
Northern Illinois   Precooked      Midwest        Geneva       IL              60135     41,580    $1,176,714.00
 Food Bank           Meat Box
Northern Illinois   Precooked      Midwest        Geneva       IL              60136      3,780      $106,974.00
 Food Bank           Meat Box
Northern Illinois   Precooked      Midwest        Rockford     IL              61109        540       $15,282.00
 Food Bank           Meat Box
Northern Illinois   Fresh Fruit/   Midwest        Addison      IL              60101        756       $27,200.88
 Food Bank--         Vegetable
 Addison Twsp        Box
Northern Illinois   Fresh Fruit/   Midwest        Yorkville    IL              60560        756       $27,200.88
 Food Bank--KCCFP    Vegetable
                     Box
Northern Illinois   Precooked      Midwest        Park City    IL              60085      3,780      $106,974.00
 Food Bank--Park     Meat Box
 City
Northern Illinois   Fresh Fruit/   Midwest        Glendale     IL              60139        730       $13,245.00
 Food Bank           Vegetable                     Heights
 Glendale Heights    Box
Northern Illinois   Dairy          Midwest        Joliet       IL              60436        405        $9,829.35
 Food Bank Joliet    Products Box
 F2F
Northern Illinois   Fresh Fruit/   Midwest        Joliet       IL              60436      2,710       $56,568.60
 Food Bank Joliet    Vegetable
 F2F                 Box
Northern Illinois   Precooked      Midwest        Joliet       IL              60436      4,494      $181,219.20
 Food Bank Joliet    Meat Box
 F2F
Northern Illinois   Fresh Fruit/   Midwest        Park City    IL              60085      3,720       $64,680.00
 Food Bank North     Vegetable
                     Box
Northern Illinois   Fresh Fruit/   Midwest        Rockford     IL              61109      4,000       $78,000.00
 Food Bank Nw        Vegetable
                     Box
Northern Illinois   Dairy          Midwest        Park City    IL              60085      1,065       $25,847.55
 Food Bank Park      Products Box
 City F2
Northern Illinois   Fresh Fruit/   Midwest        Park City    IL              60085      4,489       $88,179.75
 Food Bank Park      Vegetable
 City F2             Box
Northern Illinois   Precooked      Midwest        Park City    IL              60085      6,615      $267,885.94
 Food Bank Park      Meat Box
 City F2
Northern Illinois   Fresh Fruit/   Midwest        Rockford     IL              61109        630       $14,968.80
 Food Bank           Vegetable
 Rockford            Box
Northern Illinois   Dairy          Midwest        Rockford     IL              61109        660       $16,018.20
 Food Bank           Products Box
 Rockford F2F
Northern Illinois   Fresh Fruit/   Midwest        Rockford     IL              61109      2,920       $56,581.20
 Food Bank           Vegetable
 Rockford F2F        Box
Northern Illinois   Precooked      Midwest        Rockford     IL              61109      5,832      $229,577.76
 Food Bank           Meat Box
 Rockford F2F
Northern Illinois   Fresh Fruit/   Midwest        Joliet       IL              60436      1,000       $19,500.00
 Food Bank South     Vegetable
                     Box
Northern Illinois   Fresh Fruit/   Midwest        Geneva       IL              60134     20,880      $371,145.00
 Food Bank West      Vegetable
                     Box
Northern Ohio       Dairy          Midwest        Cleveland    OH              44102        330        $8,250.00
 Recovery Assoc      Products Box
Northfork           Fresh Fruit/   Western        North Fork   ID              83466         50        $1,300.00
 Community Church    Vegetable
                     Box
Northgate Church    Dairy          North East     Batavia      NY              14020        600       $26,520.00
                     Products Box
Northgate Church    Dairy          North East     Bergen       NY              14416        480       $21,216.00
                     Products Box
Northgate Church    Precooked      North East     Batavia      NY              14020        651       $35,544.60
                     Meat Box
Northgate Church    Precooked      North East     Bergen       NY              14416        504       $27,518.40
                     Meat Box
Northgate Middle    Fresh Fruit/   Mountain       Kansas City  MO              64116        820       $21,238.00
 School              Vegetable      Plains
                     Box
Northlake           Fresh Fruit/   South West     Garland      TX              75040      1,952       $27,332.48
 Elementary          Vegetable
                     Box
Northport Schools   Fresh Fruit/   Midwest        Northport    MI              49670        225        $8,095.50
                     Vegetable
                     Box
Northshore FB       Fluid Milk     South West     Covington    LA              70433      1,768        $5,227.52
Northside Baptist   Fluid Milk     South East     Charlotte    NC              28262      2,500        $9,975.00
Northside Inter-    Fresh Fruit/   South West     Fort Worth   TX              76164        384        $6,524.16
 Community Agen      Vegetable
                     Box
Northside Isd.      Fresh Fruit/   South West     San Antonio  TX              78249      2,000       $50,000.00
                     Vegetable
                     Box
Northstar Bridge    Combination    South West     Jenks        OK              74037      2,112       $73,856.64
                     Box
Northstar Bridge    Dairy          South West     Jenks        OK              74037      4,704      $215,255.04
                     Products Box
Northstar Bridge    Fluid Milk     South West     Jenks        OK              74037      4,474      $107,107.56
Northstar Bridge    Fresh Fruit/   South West     Jenks        OK              74037     11,719      $215,839.70
                     Vegetable
                     Box
Northstar Bridge    Fresh Fruit/   South West     Tulsa        OK              74103      2,085       $29,897.10
                     Vegetable
                     Box
Northview Heights   Fluid Milk     Mid-Atlantic   Pittsburgh   PA              15235        280        $3,080.00
Northview Heights   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15214        800       $12,800.00
                     Vegetable
                     Box
Northwest           Fresh Fruit/   Midwest        Detroit      MI              48235      1,250       $18,687.50
 Activities Center   Vegetable
                     Box
Northwest Arkansas  Combination    South West     Bethel       AR              72764      5,376       $64,565.76
 Food Bank           Box                           Heights
Northwest Arkansas  Dairy          South West     Bethel       AR              72764      1,056       $48,322.56
 Food Bank           Products Box                  Heights
Northwest Arkansas  Fluid Milk     South West     Bethel       AR              72764      2,351        $7,852.86
 Food Bank                                         Heights
Northwest Arkansas  Fresh Fruit/   South West     Bethel       AR              72764      5,108      $263,304.40
 Food Bank           Vegetable                     Heights
                     Box
Northwest Arkansas  Precooked      South West     Bethel       AR              72764     11,975      $450,636.20
 Food Bank           Meat Box                      Heights
Northwest Center    Fluid Milk     Midwest        Rockford     IL              61109      8,280       $27,489.60
Northwest Center    Fresh Fruit/   Midwest        Rockford     IL              61109      7,245      $260,675.10
                     Vegetable
                     Box
Northwest Comm      Fluid Milk     South East     West Palm    FL              33401        140          $558.60
                                                   Beach
Northwest Harvest   Fluid Milk     Western        Spokane      WA              99216        500        $1,765.00
Northwest Harvest   Fluid Milk     Western        Spokane      WA              99216      2,567        $9,061.51
                                                   Valley
Northwest Harvest   Fresh Fruit/   Western        Lakewood     WA              98499      4,312       $94,648.40
                     Vegetable
                     Box
Northwest Harvest   Fresh Fruit/   Western        Spokane      WA              99216        235        $5,875.00
                     Vegetable
                     Box
Northwest Harvest   Fresh Fruit/   Western        Spokane      WA              99216      1,175       $29,375.00
                     Vegetable                     Valley
                     Box
Northwest Harvest   Fresh Fruit/   Western        Kent         WA              98032     19,406      $425,961.70
 Kent                Vegetable
                     Box
Northwest Harvest   Fresh Fruit/   Western        Yakima       WA              98901      8,232      $180,692.40
 Yakima              Vegetable
                     Box
Northwest Life      Combination    Western        Seattle      WA              98108        125        $4,375.00
 Foundation          Box
Northwest Life      Dairy          Western        Seattle      WA              98108          5          $150.00
 Foundation          Products Box
Northwest Life      Fresh Fruit/   Western        Seattle      WA              98108          5          $135.00
 Foundation          Vegetable
                     Box
Northwest           Combination    South West     Cotton       LA              71018      1,620      $137,408.40
 Louisiana Food      Box                           Valley
 Bank
Northwest           Combination    South West     Mansfield    LA              71052      1,620      $137,408.40
 Louisiana Food      Box
 Bank
Northwest           Precooked      South West     Springhill   LA              71075      1,620      $192,034.80
 Louisiana Food      Meat Box
 Bank
Northwest Meals on  Precooked      Midwest        Manistee     MI              49660         71        $2,775.35
 Wheels Manistee.    Meat Box
Northwest Mich.     Precooked      Midwest        Cadillac     MI              49601         71        $2,807.03
 Human Svc. Agency   Meat Box
Northwestern        Fresh Fruit/   Midwest        Chicago      IL              60642      1,512       $54,401.76
 Settlement          Vegetable
                     Box
Northwood Rec.      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21239        900       $18,000.00
 Center              Vegetable
                     Box
Norton COA          Combination    North East     Norton       MA              02766         22          $721.60
                     Box
Norton COA          Precooked      North East     Norton       MA              02766         22        $1,194.60
                     Meat Box
Norton High School  Fresh Fruit/   North East     Norton       MA              02766        329        $7,221.55
                     Vegetable
                     Box
Norwalk Baptist     Fluid Milk     Midwest        Norwalk      OH              44857        360        $1,195.20
 Chu
Norwalk Christian   Fresh Fruit/   Midwest        Norwalk      IA              50211        200        $2,900.00
 Church              Vegetable
                     Box
Norwalk Food Bank   Fluid Milk     Midwest        Norwalk      OH              44857        240          $796.80
Norwalk Food        Fresh Fruit/   Midwest        Norwalk      IA              50211      1,237       $17,936.50
 Pantry              Vegetable
                     Box
Norwalk Salvation   Precooked      Midwest        Norwalk      OH              44857        100        $4,669.00
 Army                Meat Box
NORWESCAP Food      Fresh Fruit/   Mid-Atlantic   Phillipsbur  NJ              08865        792       $18,200.16
 Bank                Vegetable                     g
                     Box
NORWESCAP Food      Precooked      Mid-Atlantic   Phillipsbur  NJ              08865        458       $21,399.00
 Bank                Meat Box                      g
Norwood COA         Combination    North East     Norwood      MA              02062         70        $2,296.00
                     Box
Norwood COA         Precooked      North East     Norwood      MA              02062         70        $3,801.00
                     Meat Box
Not Bread Alone     Fresh Fruit/   Mid-Atlantic   Nescopeck    PA              18635        795       $19,875.00
                     Vegetable
                     Box
Not One Missed      Dairy          South East     Mayfield     KY              42066        600       $15,000.00
                     Products Box
Nothern Food Bank   Dairy          Midwest        Joliet       IL              60436      2,000       $59,500.00
 Joliet              Products Box
Nottingham Food     Dairy          Midwest        Cleveland    OH              44110         65        $1,625.00
 Pantry              Products Box
Nourish NC          Fresh Fruit/   South East     Wilmington   NC              28401      3,900       $73,240.00
                     Vegetable
                     Box
Nourish Now         Fluid Milk     Mid-Atlantic   Capitol      MD              20743        960       $17,664.00
                                                   Heights
Nourish Now         Fluid Milk     Mid-Atlantic   Rockville    MD              20850        960       $17,692.80
Nourish Stockton    Fresh Fruit/   Western        Stockton     CA              95203        675       $21,492.00
 Emergency Food      Vegetable
 Bank                Box
Nourishing Network  Fresh Fruit/   Western        Edmonds      WA              98020         77        $1,509.20
                     Vegetable
                     Box
Now Faith           Fresh Fruit/   South East     Rex          GA              30294        210        $3,977.40
 Apostolic           Vegetable
                     Box
NR Community Care   Fluid Milk     Midwest        North        OH              44039        164          $544.48
                                                   Ridgeville
NRG Park            Fresh Fruit/   South West     Houston      TX              77054      5,376       $91,338.24
                     Vegetable
                     Box
NRG Stadium         Fluid Milk     South West     Houston      TX              77029      8,208      $196,499.52
NRG Stadium         Fluid Milk     South West     Houston      TX              77054      3,078       $73,687.32
NRG Stadium         Fluid Milk     South West     Houston      TX              77057      2,052       $49,124.88
NRG Stadium         Fresh Fruit/   South West     Houston      TX              77054     19,968      $339,256.32
                     Vegetable
                     Box
NTX Comm. Food      Fluid Milk     South West     The Colony   TX              75056      1,176        $3,496.56
 Pantry
NUC University      Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 Bayamon             Box
Nuestra Casa        Fresh Fruit/   Western        Redwood      CA              94063        750       $18,562.50
                     Vegetable                     City
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725      2,040       $79,560.00
 Caguas              Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        408       $15,912.00
 Caguas Calle        Vegetable
 Betances #73 Esq    Box
 Muno
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Guanica      PR              00653        672       $26,880.00
 Inc.                Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Rio Piedras  PR              00921        672       $26,880.00
 Inc.                Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Dorado       PR              00646        672       $26,880.00
 Inc.                Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Ponce        PR              00728        672       $26,880.00
 Inc.                Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Canovanas    PR              00729        428       $16,692.00
 Loiza               Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Loiza        PR              00772        656       $25,584.00
 Loiza               Vegetable
                     Box
Nuestra Escuela     Fresh Fruit/   Mid-Atlantic   Toa Baja     PR              00949        690       $26,910.00
 Toa Baja            Vegetable
                     Box
Nuestra Familia     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725      2,352       $94,080.00
 LGBTT (Caguas)      Vegetable
                     Box
Nuestra Familia     Fresh Fruit/   Mid-Atlantic   San Juan     PR              00915      2,016       $80,640.00
 LGBTT (San Juan)    Vegetable
                     Box
Nuevo Comienzo      Fresh Fruit/   South East     Lakeland     FL              33081      6,048      $148,176.00
 Compassion          Vegetable
                     Box
Nuevo Comienzo      Fresh Fruit/   South East     Lakeland     FL              33803      1,512       $37,044.00
 Compassion          Vegetable
                     Box
Nuevo Pacto Church  Fresh Fruit/   South West     El Paso      TX              79935      6,992      $118,794.08
                     Vegetable
                     Box
Nulis               Combination    Mid-Atlantic   San Juan     PR              00920      1,008       $92,736.00
                     Box
Nutrition and       Fresh Fruit/   Mountain       Grandview    MO              64030      2,400       $62,160.00
 Child Services      Vegetable      Plains
 Agency              Box
Nutritional         Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148        720       $16,545.60
 Development         Vegetable                     a
 Services            Box
NW Assist.          Fluid Milk     South West     Houston      TX              77090        700        $2,102.00
 Ministrie
NW Food Pantry      Fresh Fruit/   Midwest        Grand        MI              49504        150        $5,397.00
                     Vegetable                     Rapids
                     Box
NW United           Fresh Fruit/   Midwest        Columbus     OH              43220        108        $1,350.00
 Methodist           Vegetable
                     Box
NWGA Fairgrounds    Fresh Fruit/   South East     Dalton       GA              30721      1,920       $36,364.80
                     Vegetable
                     Box
O.C. Youth          Fluid Milk     South East     Owenton      KY              40359      2,800       $10,612.00
 Services
O.H.S               Fluid Milk     South East     Owensboro    KY              42301      2,421        $5,447.25
Oahu South          Fresh Fruit/   Western        Honolulu     HI              96819        500       $18,000.00
 Foursquare Church   Vegetable
                     Box
Oak Cliff YMCA      Fresh Fruit/   South West     Dallas       TX              75232        576        $9,786.24
                     Vegetable
                     Box
Oak Grove           Fluid Milk     South East     Corbin       KY              40701        400        $1,516.00
 Elementary
Oak Grove MB        Fresh Fruit/   South East     Bartlett     TN              38133      1,026       $25,137.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Oak Grove Middle    Fresh Fruit/   Mountain       Oak Grove    MO              64075      1,580       $40,922.00
 School              Vegetable      Plains
                     Box
Oak Lawn Community  Fresh Fruit/   Midwest        Chicago      IL              60455        252        $9,066.96
 Church              Vegetable
                     Box
Oak Lawn Community  Precooked      Midwest        Chicago      IL              60455         72        $5,840.64
 Church              Meat Box
Oak Lawn Community  Precooked      Midwest        Chicago      IL              60455        288       $23,362.56
 Church              Meat Box
Oak Park High       Fresh Fruit/   Mountain       Kansas City  MO              64118      1,720       $44,548.00
 School              Vegetable      Plains
                     Box
Oak Park            Fresh Fruit/   Midwest        Oak Park     MI              48237      2,840       $42,458.00
 Recreation Center   Vegetable
                     Box
Oakcrest Family     Fresh Fruit/   South West     Kennedale    TX              76140        320        $5,436.80
 Church              Vegetable
                     Box
Oakdale Family RC   Fresh Fruit/   Western        Oakdale      CA              95361        385       $10,368.05
                     Vegetable
                     Box
Oakland Ave.        Fresh Fruit/   Midwest        Detroit      MI              48202        200        $5,750.00
 Missionary          Vegetable
 Baptist             Box
Oakland Co.         Fresh Fruit/   Midwest        Waterford    MI              48328        450        $6,727.50
 Farmers Market      Vegetable
                     Box
Oakland County      Fresh Fruit/   Midwest        Southfield   MI              48076        750       $11,212.50
 Health Department   Vegetable
                     Box
Oakland Hope        Fresh Fruit/   Midwest        Pontiac      MI              48340      1,200       $22,080.00
                     Vegetable
                     Box
Oakland Meals on    Fresh Fruit/   Midwest        Troy         MI              48083         50          $747.50
 Wheels              Vegetable
                     Box
Oakland Trybe       Fresh Fruit/   Western        Oakland      CA              94606        150        $4,776.00
                     Vegetable
                     Box
Oakridge High       Precooked      South East     Orlando      FL              32809        552       $19,755.76
                     Meat Box
Oakridge Public     Fresh Fruit/   Midwest        Muskegon     MI              49442        770       $27,704.60
 Schools             Vegetable
                     Box
Oaks Church         Fresh Fruit/   South West     Red Oak      TX              75154      3,078       $49,389.80
                     Vegetable
                     Box
Oakwood Baptist     Combination    South East     Chickamauga  GA              30707      1,344      $102,211.20
 Church              Box
Oakwood Park        Fluid Milk     Midwest        Lorain       OH              44053      1,440        $4,780.80
Oasis Food          Precooked      Midwest        Columbiana   OH              44408         50        $2,334.50
 Ministry            Meat Box
Oasis of Hope       Fresh Fruit/   Midwest        Detroit      MI              48203        250        $3,737.50
 Christian Church    Vegetable
                     Box
Oasis of Love Full  Dairy          Midwest        Jackson      MI              49203      1,430       $41,470.00
 Gospel Church       Products Box
Oasis of Love Full  Fresh Fruit/   Midwest        Jackson      MI              49203      1,638       $58,935.24
 Gospel Church       Vegetable
                     Box
Oasis Project at    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        880       $26,400.00
 Bible Center        Vegetable
 Church              Box
Oasis Worship &     Combination    Western        Caldwell     ID              83606      1,600       $70,400.00
 Food Center         Box
Oasis Worship &     Fresh Fruit/   Western        Caldwell     ID              83606      2,000       $52,000.00
 Food Center         Vegetable
                     Box
Oberlin Comm. S.    Fluid Milk     Midwest        Oberlin      OH              44074        180          $597.60
Oblatas Hogar       Fresh Fruit/   Mid-Atlantic   Bayamon      PR              00956        234        $9,126.00
 Fatima              Vegetable
                     Box
OC Food Bank        Fresh Fruit/   Western        Laguna       CA              92653        500       $12,375.00
                     Vegetable                     Hills
                     Box
OC Food Bank        Fresh Fruit/   Western        Anaheim      CA              92805        500       $12,375.00
                     Vegetable
                     Box
OCC Recovery        Fresh Fruit/   Western        Garden       CA              92840      2,950       $73,012.50
 Kitchen             Vegetable                     Grove
                     Box
OCC Recovery        Fresh Fruit/   Western        Laguna       CA              92653      2,000       $49,500.00
 Kitchen--Lag.Hill   Vegetable                     Hills
 s                   Box
Ocean Springs       Fresh Fruit/   South East     Ocean        MS              39564         96        $1,622.40
 Church of C         Vegetable                     Springs
                     Box
OCES East           Combination    North East     East         MA              02333         25          $820.00
 Bridgewater COA     Box                           Bridgewate
                                                   r
Ochre Hill Baptist  Dairy          South East     Sylva        NC              28779        155          $775.00
 Church              Products Box
Ochre Hill Baptist  Fluid Milk     South East     Sylva        NC              28779        365        $1,460.00
 Church
Ochre Hill Baptist  Precooked      South East     Sylva        NC              28779        385        $7,507.50
 Church              Meat Box
Oconee County High  Fresh Fruit/   South East     Watkinsvill  GA              30677      1,920       $36,364.80
 School              Vegetable                     e
                     Box
Odonnell Heights    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        900       $18,000.00
                     Vegetable
                     Box
OFB Washington      Fluid Milk     Western        Beaverton    OR              97006      3,885       $20,590.50
 County
Office Promo Del    Fresh Fruit/   Mid-Atlantic   Arecibo      PR              00612        100        $3,900.00
 Desarrollo Humano   Vegetable
                     Box
Ofic Promo Del      Fresh Fruit/   Mid-Atlantic   Arecibo      PR              00612        200        $7,800.00
 Desarrollo Humano   Vegetable
                     Box
Oficina Pro Ayuda   Combination    Mid-Atlantic   Yabucoa      PR              00767      1,344      $116,592.00
 Casa Dorada         Box
Ogemaw County       Dairy          Midwest        West Branch  MI              48661         50        $1,450.00
 Commission          Products Box
Ogemaw County       Fresh Fruit/   Midwest        West Branch  MI              48661        150        $3,125.00
 Commission          Vegetable
                     Box
Ogemaw Heights      Dairy          Midwest        West Branch  MI              48661        700       $42,070.00
 School District     Products Box
Oglethorpe County   Fresh Fruit/   South East     Crawford     GA              30630      2,400       $45,456.00
 Middle              Vegetable
                     Box
OHGO                Fluid Milk     Midwest        Sandusky     OH              44870      3,220       $10,690.40
OHGO                Fresh Fruit/   Midwest        Sandusky     OH              44839      3,000       $90,000.00
                     Vegetable
                     Box
OHGO Kendra         Fresh Fruit/   Midwest        Sandusky     OH              44870      3,000       $90,000.00
 Faulkner            Vegetable
                     Box
Ohio Association    Dairy          Midwest        Canton       OH              44705        160        $3,856.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Cincinnati   OH              45240      2,000       $48,200.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Dayton       OH              45417        640       $15,424.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Georgetown   OH              45121      1,440       $34,704.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Ironton      OH              45638      1,280       $30,848.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Marion       OH              43302      1,280       $30,848.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Mcarthur     OH              45651        960       $23,136.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Portsmouth   OH              45662      2,240       $53,984.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Reynoldsbur  OH              43068      1,280       $30,848.00
 of Food Banks       Products Box                  g
Ohio Association    Dairy          Midwest        Westerville  OH              43081        320        $7,712.00
 of Food Banks       Products Box
Ohio Association    Dairy          Midwest        Youngstown   OH              44509      2,920       $70,372.00
 of Food Banks       Products Box
Ohio Association    Fresh Fruit/   Midwest        Dayton       OH              45417        960       $25,440.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Georgetown   OH              45121      1,894       $50,191.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Ironton      OH              45638      1,920       $50,880.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Lorain       OH              44053        480       $12,720.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Marion       OH              43302      1,920       $50,880.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        McArthur     OH              45651      1,600       $42,400.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Newark       OH              43055        200        $5,300.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Portsmouth   OH              45662      3,200       $84,800.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Reynoldsbur  OH              43068      1,840       $48,760.00
 of Food Banks       Vegetable                     g
                     Box
Ohio Association    Fresh Fruit/   Midwest        Waverly      OH              45690      2,160       $57,240.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Westerville  OH              43081        320        $8,480.00
 of Food Banks       Vegetable
                     Box
Ohio Association    Fresh Fruit/   Midwest        Youngstown   OH              44509      1,920       $50,880.00
 of Food Banks       Vegetable
                     Box
OICG Food Pantry    Precooked      Midwest        Ida Grove    IA              51445        270       $13,729.50
 Ida Grove           Meat Box
OICG Food Pantry    Precooked      Midwest        Odebolt      IA              51458        135        $6,864.75
 Odebolt             Meat Box
Oilton Christ       Fluid Milk     South West     Oilton       OK              74052         94        $2,250.36
 Fellowship
Oilton Christ       Fresh Fruit/   South West     Oilton       OK              74052      3,739       $62,659.70
 Fellowship          Vegetable
                     Box
OK Hearland Heroes  Fluid Milk     South West     Stroud       OK              74079      9,216       $26,910.72
Okaloosa County     Fresh Fruit/   South East     Fort Walton  FL              32548        250        $7,250.00
 Council Inc.        Vegetable                     Beach
                     Box
Okaloosa County     Fresh Fruit/   South East     Saraland     AL              36571         50        $1,450.00
 Councils Inc.       Vegetable
                     Box
OKC Faith Church    Combination    South West     Oklahoma     OK              73108      1,056       $36,928.32
                     Box                           City
OKC Faith Church    Dairy          South West     Oklahoma     OK              73108      1,056       $48,322.56
                     Products Box                  City
OKC Faith Church    Fluid Milk     South West     Oklahoma     OK              73108      1,620       $38,782.80
                                                   City
OKC Faith Church    Fresh Fruit/   South West     Oklahoma     OK              73108      2,842       $64,983.80
                     Vegetable                     City
                     Box
Okeechobee Agri-    Combination    South East     Okeechobee   FL              34974        560       $42,588.00
 Civic Center        Box
Oklahoma Cancer     Combination    South West     Tulsa        OK              74146      1,440       $50,356.80
 Specialists         Box
Oklahoma City Food  Fluid Milk     South West     Oklahoma     OK              73179     23,040       $67,276.80
 Bank                                              City
Oklahoma City Food  Precooked      South West     Oklahoma     OK              73137     76,027    $2,911,984.68
 Bank                Meat Box                      City
Oklahoma Emergency  Fluid Milk     South West     Miami        OK              74354     20,601      $299,467.62
 Response Team
Oklahoma Emergency  Fresh Fruit/   South West     Miami        OK              74354     15,240      $366,217.36
 Response Team       Vegetable
                     Box
Oklahoma Emergency  Precooked      South West     Miami        OK              74354     13,235    $1,057,037.40
 Response Team       Meat Box
Oklahoma            Dairy          South West     Muskogee     OK              74401      1,056       $48,322.56
 Juneteenth          Products Box
 Historical
Oklahoma            Fresh Fruit/   South West     Muskogee     OK              74401      2,450       $48,029.80
 Juneteenth          Vegetable
 Historical          Box
Oklahoma Union      Combination    South West     Lenapah      OK              74042      1,440       $50,356.80
 School              Box
Oklahoma Union      Dairy          South West     Lenapah      OK              74042      1,632       $74,680.32
 School              Products Box
Oklahoma Union      Fluid Milk     South West     Lenapah      OK              74042        495       $11,850.30
 School
Oklahoma Union      Fresh Fruit/   South West     Lenapah      OK              74042      2,289       $36,057.30
 School              Vegetable
                     Box
Okmulgee Main       Combination    South West     Okmulgee     OK              74447        672       $23,499.84
 Street              Box
Okmulgee Main       Dairy          South West     Okmulgee     OK              74447        768       $35,143.68
 Street              Products Box
OL Smith Middle     Fresh Fruit/   Midwest        Dearborn     MI              48124        200        $4,225.00
 School              Vegetable
                     Box
Olathe              Fresh Fruit/   Mountain       Olathe       KS              66062         40        $1,036.00
 Firefighters        Vegetable      Plains
                     Box
Olathe              Fresh Fruit/   Mountain       North        MO              64116         40        $1,036.00
 Firefighters        Vegetable      Plains         Kansas
                     Box                           City
Olathe School       Fresh Fruit/   Mountain       Olathe       KS              66062        600       $15,540.00
 District            Vegetable      Plains
                     Box
Old Bethel Pantry   Fluid Milk     Midwest        Indianapoli  IN              46219      2,687        $8,920.84
                                                   s
Old Bonhomme        Fresh Fruit/   Mountain       St. Louis    MO              63105        144        $4,608.00
 Elementary          Vegetable      Plains
                     Box
Old Bonhomme        Fresh Fruit/   Mountain       St. Louis    MO              63113         72        $2,304.00
 Elementary          Vegetable      Plains
                     Box
Old Bonhomme        Fresh Fruit/   Mountain       St. Louis    MO              63132         72        $2,304.00
 Elementary          Vegetable      Plains
                     Box
Old Bridge Family   Fresh Fruit/   Mid-Atlantic   Old Bridge   NJ              08857      2,268       $42,978.60
 YMCA                Vegetable
                     Box
Old Circuit City    Fresh Fruit/   Midwest        Rockford     IL              61108      1,728       $47,520.00
 Building            Vegetable
                     Box
Old Diner Lot       Fresh Fruit/   South East     Glenwood     GA              30428        960       $18,182.40
                     Vegetable
                     Box
Old Mission Santa   Fresh Fruit/   Western        Santa        CA              93103        173        $6,228.00
 Barbara             Vegetable                     Barbara
                     Box
Old Mt. Pleasant    Fluid Milk     South East     Grady        AL              36036      1,628        $6,495.72
 Bap.
Old Rochester Jr.   Fresh Fruit/   North East     Mattapoiset  MA              02739      1,008       $22,125.60
 Sr. High            Vegetable                     t
                     Box
Old San Juan        Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Heritage            Box
 Foundation
Older Persons       Fresh Fruit/   Midwest        Rochester    MI              48307        190        $2,840.50
 Commission          Vegetable
                     Box
Olean Food Pantry   Fresh Fruit/   North East     Olean        NY              14760        685       $15,652.25
                     Vegetable
                     Box
Olive Baptist       Fresh Fruit/   South East     Pensacola    FL              32504        800       $23,200.00
 Church              Vegetable
                     Box
Olive Branch        Fluid Milk     Midwest        Dillsboro    IN              47018      5,268       $21,072.00
 Baptist Church
Olive Pierce MS     Fresh Fruit/   Western        Ramona       CA              92065        160        $4,000.00
                     Vegetable
                     Box
Olivet Baptist      Fresh Fruit/   Western        Honolulu     HI              96826         80        $2,880.00
 Church              Vegetable
                     Box
Olmsted Community   Dairy          Midwest        Olmsted      OH              44108        138        $3,325.80
 Center              Products Box                  Falls
Olmsted Community   Dairy          Midwest        Olmsted      OH              44138         56        $1,349.60
 Center              Products Box                  Falls
Olmsted Community   Dairy          Midwest        Olmsted      OH              44139        177        $4,265.70
 Center              Products Box                  Falls
Olmsted Community   Fresh Fruit/   Midwest        Olmsted      OH              44108        154        $4,081.00
 Center              Vegetable                     Falls
                     Box
Olmsted Community   Fresh Fruit/   Midwest        Olmsted      OH              44138        216        $5,724.00
 Center              Vegetable                     Falls
                     Box
Olmsted Falls       Dairy          Midwest        Olmsted      OH              44138        177        $4,265.70
 Center              Products Box                  Falls
Olmsted Falls       Fresh Fruit/   Midwest        Olmsted      OH              44138        154        $4,081.00
 Center              Vegetable                     Falls
                     Box
Olney Baptist       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19120        140        $4,536.00
 Church                                            a
Olsha Head Start    Fresh Fruit/   Midwest        Pontiac      MI              48342        500        $7,475.00
                     Vegetable
                     Box
Olympia Community   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15112        320        $9,600.00
 Center              Vegetable
                     Box
Olympic Comm.       Combination    Western        Port         WA              98368      2,340       $81,900.00
 Action Prgrm.       Box                           Townsend
Olympic Comm.       Dairy          Western        Port         WA              98368      1,350       $40,500.00
 Action Prgrm.       Products Box                  Townsend
Olympic Comm.       Fresh Fruit/   Western        Port         WA              98368      1,320       $35,640.00
 Action Prgrm.       Vegetable                     Townsend
                     Box
Omaha Nation        Fresh Fruit/   Mountain       Walthill     NE              68067        800       $20,720.00
 Community           Vegetable      Plains
 Response            Box
Omaha Nation Food   Fresh Fruit/   Mountain       Macy         NE              68039        560       $14,504.00
 Distribution Pro    Vegetable      Plains
                     Box
On A Mission        Fluid Milk     Mid-Atlantic   Philadelphi  PA              19131        288        $5,679.36
                                                   a
On the Move Min.    Fresh Fruit/   Western        Portland     OR              97232         60        $1,620.00
 Wth. Jesus USDA     Vegetable
                     Box
On White Horses     Fresh Fruit/   South West     Paden        OK              74829        848       $14,407.52
                     Vegetable
                     Box
One Generation      Fresh Fruit/   South East     Franklin     TN              37064      9,216      $184,320.00
 Away                Vegetable
                     Box
One Heart Mnstrs.   Fluid Milk     South East     Conyers      GA              30094      4,560       $17,774.40
One Life            Fresh Fruit/   Western        San Carlos   CA              94070      2,870       $40,180.00
 Counseling          Vegetable
 Services            Box
One Luv Inc.        Fluid Milk     Mid-Atlantic   Reading      PA              19064        192        $3,786.24
One Luv Inc.        Fresh Fruit/   Mid-Atlantic   Reading      PA              19064        288        $6,618.24
                     Vegetable
                     Box
One Luv Inc.        Precooked      Mid-Atlantic   Reading      PA              19601         25          $450.00
                     Meat Box
One More Child      Combination    South East     Miami        FL              33122     12,096      $919,900.80
                     Box
One More Child      Combination    South East     Miami        FL              33156      2,240      $170,352.00
                     Box
One More Child      Combination    South East     Lakeland     FL              33815     37,632    $2,861,913.60
                     Box
One More Child      Fluid Milk     South East     Lakeland     FL              33815     16,896       $64,035.84
One More Child--    Combination    South East     Tampa        FL              33604      1,344      $102,211.20
 Tampa               Box
One Vision One      Fluid Milk     Mid-Atlantic   Philadelphi  PA              19131         96        $1,893.12
 Purpose                                           a
One80 Place         Fresh Fruit/   South East     Charleston   SC              29403        147        $4,410.00
                     Vegetable
                     Box
Oneida County       Fluid Milk     North East     Rome         NY              13440      1,350       $41,823.00
 Boces
Oneida County       Fluid Milk     North East     Verona       NY              13478      2,025       $62,734.50
 Boces
Oneida Elem.        Fluid Milk     South East     Oneida       KY              40972        400        $1,516.00
Oneida Nation Food  Combination    Midwest        Oneida       WI              54155      2,940      $127,110.90
 Pantry              Box
Oneida Nation Food  Fresh Fruit/   Midwest        Oneida       WI              54155      1,470       $43,379.70
 Pantry              Vegetable
                     Box
Ontario Montclair   Fresh Fruit/   Western        Ontario      CA              91761        320        $8,000.00
 SD                  Vegetable
                     Box
Onward House        Fresh Fruit/   Midwest        Chicago      IL              60639         63        $2,266.74
                     Vegetable
                     Box
Open Bible Church   Combination    Western        Portland     OR              97266        120        $4,200.00
 of PDX USDA         Box
Open Bible Church   Dairy          Western        Portland     OR              97266        449       $13,470.00
 of PDX USDA         Products Box
Open Bible Church   Fresh Fruit/   Western        Portland     OR              97266        420       $11,340.00
 of PDX USDA         Vegetable
                     Box
Open Door Food      Fresh Fruit/   South West     Joshua       TX              76058      2,608       $44,309.92
 Bank                Vegetable
                     Box
Open Door Food      Fresh Fruit/   North East     Gloucester   MA              01930        776       $21,706.00
 Pantry              Vegetable
                     Box
Open Door Outreach  Fresh Fruit/   Midwest        Waterford    MI              48327        100        $2,875.00
                     Vegetable
                     Box
Open Door Service   Fluid Milk     Mountain       Sedalia      MO              65301      1,242        $2,794.50
 Center                             Plains
Open Door Service   Fresh Fruit/   Mountain       Sedalia      MO              65301      1,680       $43,512.00
 Center              Vegetable      Plains
                     Box
Open Doors for      Combination    Western        Kent         WA              98032        350       $12,250.00
 Multicultural       Box
Open Doors for      Dairy          Western        Kent         WA              98032        300        $9,000.00
 Multicultural       Products Box
Open Doors for      Fresh Fruit/   Western        Kent         WA              98032        340        $9,180.00
 Multicultural       Vegetable
                     Box
Open Hand           Fresh Fruit/   South East     Atlanta      GA              30324      1,750       $35,000.00
                     Vegetable
                     Box
Open Hands Food     Fluid Milk     South West     Donna        TX              78537      2,592        $7,568.64
 Ban.
Open Hands Food     Fresh Fruit/   Midwest        Royal Oak    MI              48067        590       $16,962.50
 Pantry              Vegetable
                     Box
Open Heart          Combination    South East     Jonesboro    GA              30236      1,120       $85,176.00
 Christian           Box
 Ministries
 International
Open Heart Council  Fluid Milk     South East     Jonesboro    GA              30236        120          $466.80
Open Hearts         Dairy          South West     Phoenix      AZ              85015        585       $15,502.50
                     Products Box
Open Hearts         Dairy          South West     Tempe        AZ              85282        729       $19,318.50
                     Products Box
Open Hearts         Fresh Fruit/   South West     Phoenix      AZ              85015        680       $14,858.00
                     Vegetable
                     Box
Open Hearts         Fresh Fruit/   South West     Tempe        AZ              85282        744       $16,256.40
                     Vegetable
                     Box
Open Hearts Food    Combination    Western        Rupert       ID              83350         40        $1,760.00
 Pantry              Box
Open Hearts Food    Fresh Fruit/   Western        Rupert       ID              83350         80        $2,080.00
 Pantry              Vegetable
                     Box
Opendoor Mission    Fresh Fruit/   North East     Rochester    NY              14608        600       $13,710.00
                     Vegetable
                     Box
Opening Door LA NP  Fluid Milk     South West     Baton Rouge  LA              70810        600        $1,769.40
Opening Doors To    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15221      1,120       $33,600.00
 Kids                Vegetable
                     Box
Openlands           Fresh Fruit/   Midwest        Chicago      IL              60827         50        $3,203.00
                     Vegetable
                     Box
Operation Address   Fluid Milk     Mid-Atlantic   Allentown    PA              18102      5,308       $61,148.82
 the Homeless--
 Oath
Operation Blessing  Fluid Milk     South East     Bristol      TN              37620      3,888        $8,748.00
Operation Blessing  Precooked      Mid-Atlantic   Chesapeake   VA              23320      1,274       $51,902.76
 Chesapeak VA        Meat Box
Operation Blessing  Fresh Fruit/   Midwest        Chicago      IL              60636        189        $6,800.22
 Evening Star        Vegetable
                     Box
Operation Blessing  Precooked      Midwest        Chicago      IL              60636        216       $17,521.92
 Evening Star        Meat Box
Operation Blessing  Fresh Fruit/   Midwest        Monee        IL              60449        720       $12,960.00
 of Southwest        Vegetable
 Chicagoland         Box
Operation Blessing  Precooked      Midwest        Sidney       OH              45365      2,648      $104,368.76
 Sidney OH           Meat Box
Operation Blessng.  Dairy          Midwest        Chicago      IL              60636        400       $10,000.00
 Evening Box         Products Box
Operation           Dairy          Mountain       Kansas City  MO              64109        504       $23,063.04
 Breakthrough        Products Box   Plains
Operation           Fresh Fruit/   Mountain       Kansas City  MO              64109      1,564       $37,080.40
 Breakthrough        Vegetable      Plains
                     Box
Operation Food      Dairy          Mountain       St. Louis    MO              63132        990       $24,750.00
 Search Inc.         Products Box   Plains
Operation Food      Fluid Milk     Mountain       St. Louis    MO              63132     19,134       $73,134.00
 Search Inc.                        Plains
Operation Food      Fresh Fruit/   Mountain       St. Louis    MO              63132      4,400      $113,960.00
 Search Inc.         Vegetable      Plains
                     Box
Operation Food      Precooked      Mountain       St. Louis    MO              63132        225       $10,125.00
 Search Inc.         Meat Box       Plains
Operation Food      Dairy          Mountain       Overland     MO              63132      5,760      $144,000.00
 Search--St. Louis   Products Box   Plains
Operation Food      Fresh Fruit/   Mountain       St. Louis    MO              63132     16,695      $534,240.00
 Search--St. Louis   Vegetable      Plains
                     Box
Operation Hope      Dairy          South East     Jackson      TN              38301      1,380       $34,500.00
 Neighbor Minist.    Products Box
Operation Love      Combination    Midwest        Anderson     IN              46016        800      $120,000.00
                     Box
Operation Phanton   Fluid Milk     South West     Killeen      TX              76541      1,440        $4,204.80
Operation Promise   Fresh Fruit/   Western        Chula Vista  CA              91910        480       $12,000.00
                     Vegetable
                     Box
Operation Sunshine  Fresh Fruit/   South East     Greenville   NC              27834        500       $17,855.00
                     Vegetable
                     Box
Opportunity Inc.    Precooked      Mid-Atlantic   Philadelphi  PA              19151        840       $51,954.00
 (Philabundance)     Meat Box                      a
OPS Belvedere       Fresh Fruit/   Mountain       Omaha        NE              68111         80        $2,072.00
 Elementary          Vegetable      Plains
                     Box
OPS Adams           Fresh Fruit/   Mountain       Omaha        NE              68134        240        $6,216.00
 Elementary          Vegetable      Plains
                     Box
OPS Ashland Park    Fresh Fruit/   Mountain       Omaha        NE              68117        240        $6,216.00
 Robbins             Vegetable      Plains
                     Box
OPS Belvedere       Fresh Fruit/   Mountain       Omaha        NE              68111         40        $1,036.00
 Elementary          Vegetable      Plains
                     Box
OPS Belvedere       Fresh Fruit/   Mountain       Omaha        NE              68111         80        $2,072.00
 Elementary          Vegetable      Plains
                     Box
OPS Benson High     Fresh Fruit/   Mountain       Omaha        NE              68104        320        $8,288.00
                     Vegetable      Plains
                     Box
OPS Gateway         Fresh Fruit/   Mountain       Omaha        NE              68107        320        $8,288.00
 Elementary          Vegetable      Plains
                     Box
OPS Gomez Heritage  Fresh Fruit/   Mountain       Omaha        NE              68107        160        $4,144.00
 Elementary          Vegetable      Plains
                     Box
OPS Indian Hill     Fresh Fruit/   Mountain       Omaha        NE              68107        200        $5,180.00
 Elementary          Vegetable      Plains
                     Box
OPS Laura Dodge     Fresh Fruit/   Mountain       Omaha        NE              68134        240        $6,216.00
 Elementary          Vegetable      Plains
                     Box
OPS Liberty         Fresh Fruit/   Mountain       Omaha        NE              68102        200        $5,180.00
 Elementary          Vegetable      Plains
                     Box
OPS Minnie Lusa     Fresh Fruit/   Mountain       Omaha        NE              68112        160        $4,144.00
 Elementary          Vegetable      Plains
                     Box
OPS Mountain View   Fresh Fruit/   Mountain       Omaha        NE              68104        160        $4,144.00
 Elementary          Vegetable      Plains
                     Box
OPS Oak Valley      Fresh Fruit/   Mountain       Omaha        NE              68144        120        $3,108.00
 Elementary          Vegetable      Plains
                     Box
OPS Skinnier        Fresh Fruit/   Mountain       Omaha        NE              68111        440       $11,396.00
 Magner              Vegetable      Plains
                     Box
OPS South Magnet    Fresh Fruit/   Mountain       Omaha        NE              68107        440       $11,396.00
 High                Vegetable      Plains
                     Box
OPS Sunny Slope     Fresh Fruit/   Mountain       Omaha        NE              68164        280        $7,252.00
 Elementary          Vegetable      Plains
                     Box
OPS Walnut Hill     Fresh Fruit/   Mountain       Aha          NE              68131         40        $1,036.00
 Elementary          Vegetable      Plains
                     Box
OPS Walnut Hill     Fresh Fruit/   Mountain       Omaha        NE              68131        120        $3,108.00
 Elementary          Vegetable      Plains
                     Box
Orange Christian    Fluid Milk     South West     Orange       TX              77630        297          $867.24
 SE
Orange Co. DSS      Fresh Fruit/   South East     Hillsboroug  NC              27278        500        $5,750.00
                     Vegetable                     h
                     Box
Orange County DSS   Fresh Fruit/   South East     Carrboro     NC              27510        210        $3,969.00
                     Vegetable
                     Box
Orange County Food  Combination    Western        Garden       CA              92841      7,000      $190,750.00
 Bank                Box                           Grove
Orange County Food  Dairy          Western        Garden       CA              92841      7,890      $252,480.00
 Bank                Products Box                  Grove
Orange County Food  Fluid Milk     Western        Garden       CA              92841     22,596      $107,331.00
 Bank                                              Grove
Orange County Food  Fresh Fruit/   Western        Garden       CA              92841     35,138      $862,473.00
 Bank                Vegetable                     Grove
                     Box
Orange County Food  Fresh Fruit/   Western        San          CA              92672      8,064      $197,568.00
 Bank                Vegetable                     Clemente
                     Box
Orange County Food  Fresh Fruit/   Western        Santa Ana    CA              92703      4,032       $98,784.00
 Bank                Vegetable
                     Box
Orange Co. Food     Fresh Fruit/   Western        Laguna       CA              92653      1,344       $32,928.00
 Bank Coastline      Vegetable                     Hills
 Community Church    Box
Orange Co. Food     Fresh Fruit/   Western        Laguna       CA              92653      5,376      $131,712.00
 Bank Crossline      Vegetable                     Hills
 Community Church    Box
Orange Co. Food     Fresh Fruit/   Western        San Juan     CA              92672      4,032       $98,784.00
 Bank Focus          Vegetable                     Capistrano
                     Box
Orange Co. Food     Fresh Fruit/   Western        Santa Ana    CA              92701      4,032       $98,784.00
 Bank Latino         Vegetable
 Health Access       Box
Orange Co. Food     Combination    Western        Santa Ana    CA              92703      6,516      $177,561.00
 Bank Love           Box
 Community
Orange Co. Food     Dairy          Western        Santa Ana    CA              92703      1,715       $54,880.00
 Bank Love           Products Box
 Community
Orange County Food  Fluid Milk     Western        Santa Ana    CA              92703      1,584        $7,524.00
 Bank Love
 Community
Orange County Food  Fresh Fruit/   Western        Santa Ana    CA              92703      9,408      $230,496.00
 Bank Love           Vegetable
 Community           Box
Orange County Food  Fresh Fruit/   Western        Aliso Viejo  CA              92656      1,344       $32,928.00
 Bank NQR            Vegetable
                     Box
Orange County Food  Fresh Fruit/   Western        Santa Ana    CA              92701      1,344       $32,928.00
 Bank NQR            Vegetable
                     Box
Orange County Food  Fresh Fruit/   Western        Tustin       CA              92780      5,376      $131,712.00
 Bank NQR            Vegetable
                     Box
Orange County Food  Fresh Fruit/   Western        Costa Mesa   CA              92627      6,071      $148,739.50
 Bank Qoheleth       Vegetable
 Ministries          Box
Orange Grove        Dairy          South East     Chattanooga  TN              37404        405        $9,861.75
 Center--YMCA        Products Box
Orange Grove        Fresh Fruit/   South East     Chattanooga  TN              37404        300        $6,375.00
 Center--YMCA        Vegetable
                     Box
Orange Grove        Precooked      South East     Chattanooga  TN              37404        653       $25,478.75
 Center--YMCA        Meat Box
Orchard Center      Fresh Fruit/   Midwest        Monroe       MI              48161        150        $2,242.50
 High School         Vegetable
                     Box
Orchard View High   Fresh Fruit/   Midwest        Muskegon     MI              49442      1,512       $54,401.76
 School              Vegetable
                     Box
Orchard View        Fresh Fruit/   Midwest        Muskegon     MI              49442      1,617       $58,179.66
 Schools             Vegetable
                     Box
Orchardville        Dairy          Midwest        Xenia        IL              62889        400       $11,900.00
 Church              Products Box
Orchardville        Fresh Fruit/   Midwest        Xenia        IL              62889        300        $8,250.00
 Church              Vegetable
                     Box
Orchardville        Dairy          Midwest        Xenia        IL              62889        400       $11,900.00
 Church Xenia        Products Box
Orchardville        Fresh Fruit/   Midwest        Xenia        IL              62889        400       $11,000.00
 Church Xenia        Vegetable
                     Box
Order of the        Fresh Fruit/   Midwest        Detroit      MI              48210        100        $1,495.00
 Fishermen           Vegetable
                     Box
Ore Creek Middle    Fresh Fruit/   Midwest        Hartland     MI              48353        168        $2,511.60
 School              Vegetable
                     Box
Oregon Food Bank    Combination    Western        Portland     OR              97211     17,280      $604,800.00
                     Box
Oregon Food Bank    Combination    Western        Portland     OR              97211      1,200       $42,000.00
                     Box
Oregon Food Bank    Dairy          Western        Portland     OR              97211      7,000      $210,000.00
                     Products Box
Oregon Food Bank    Fluid Milk     Western        Portland     OR              97211      8,397       $44,504.10
Oregon Food Bank    Fresh Fruit/   Western        Portland     OR              97211     19,060      $514,620.00
                     Vegetable
                     Box
Organizacion        Combination    Mid-Atlantic   San Juan     PR              00921      2,016      $174,888.00
 Solidaridad         Box
 Humanitaria
Oriskany Schools    Combination    North East     Oriskany     NY              13424        240       $12,420.00
                     Box
Oriskany Schools    Dairy          North East     Oriskany     NY              13424        360       $17,820.00
                     Products Box
Oriskany Schools    Fresh Fruit/   North East     Oriskany     NY              13424        275        $8,195.00
                     Vegetable
                     Box
Oriskany Schools    Precooked      North East     Oriskany     NY              13424        360       $27,000.00
                     Meat Box
Orland Township     Fresh Fruit/   Midwest        Orland Park  IL              60462        126        $4,533.48
                     Vegetable
                     Box
Orland Township     Precooked      Midwest        Orland Park  IL              60462        576       $46,725.12
                     Meat Box
Orland Township     Dairy          Midwest        Orland Park  IL              60462        280        $7,000.00
 Box                 Products Box
Orlando Union       Combination    South East     Orlando      FL              32805      1,344      $102,211.20
 Rescue Mission      Box
Orlando Union       Combination    South East     Orlando      FL              32808      1,344      $102,211.20
 Rescue Mission      Box
Orleans Council on  Combination    North East     Orleans      MA              02653         50        $1,640.00
 Aging               Box
Orleans Council on  Precooked      North East     Orleans      MA              02653         60        $3,258.00
 Aging               Meat Box
Orthodox Detroit    Dairy          Midwest        Detroit      MI              48201        150        $5,062.50
 Outreach            Products Box
Orthodox Detroit    Precooked      Midwest        Detroit      MI              48201        125        $5,961.25
 Outreach            Meat Box
Osage Indian        Dairy          South West     Tulsa        OK              74145      1,248       $57,108.48
 Nation              Products Box
Osage Indian        Fresh Fruit/   South West     Tulsa        OK              74145      1,078       $23,059.40
 Nation              Vegetable
                     Box
Osage Mercy Chefs   Fresh Fruit/   South West     Tulsa        OK              74145      1,450       $20,729.00
                     Vegetable
                     Box
Osage Nation Food   Combination    South West     Hominy       OK              74035        864       $30,214.08
 Dist Warehouse      Box
Osage Nation Food   Fresh Fruit/   South West     Hominy       OK              74035      1,529       $33,567.70
 Dist Warehouse      Vegetable
                     Box
Osborn School       Precooked      South West     Phoenix      AZ              85013        300       $17,025.00
 District            Meat Box
Osceola Co. Comm.   Dairy          Midwest        Tustin       MI              49688        250        $7,250.00
 on Aging            Products Box
Osceola Co. Comm.   Fresh Fruit/   Midwest        Tustin       MI              49688        400        $8,450.00
 on Aging            Vegetable
                     Box
Osceola Council On  Fluid Milk     South East     Kissimmee    FL              34744      1,080        $4,093.20
Osceola Emerg.      Fluid Milk     South East     Kissimmee    FL              34741        240          $909.60
 Svs.
Oscoda Area         Fresh Fruit/   Midwest        Oscoda       MI              48750        322       $11,585.56
 Schools             Vegetable
                     Box
Oscoda County       Precooked      Midwest        Mio          MI              48647        196        $8,936.44
 Council on Aging    Meat Box
Osela McCarthy      Fluid Milk     South East     Hattiesburg  MS              39401      7,920       $30,808.80
 Yout.
Oshkosh Area        Combination    Midwest        Oshkosh      WI              54901      8,448      $380,160.00
 Community Pantry    Box
Oshkosh Area        Fluid Milk     Midwest        Oshkosh      WI              54901      3,040        $7,600.00
 Community Pantry
Oshkosh Area        Fresh Fruit/   Midwest        Oshkosh      WI              54901      3,575       $59,812.50
 Community Pantry    Vegetable
                     Box
OSU Foundation      Dairy          Western        Corvallis    OR              97333         50        $1,500.00
                     Products Box
OSU Foundation      Fresh Fruit/   Western        Corvallis    OR              97333        240        $6,480.00
                     Vegetable
                     Box
Oswego County       Fluid Milk     North East     Oswego       NY              13126      1,422       $44,053.56
 Boces
Oswego County       Fluid Milk     North East     Oswego       NY              13145        747       $23,142.06
 Boces
Otsego County       Dairy          Midwest        Gaylord      MI              49735        100        $2,900.00
 United Way          Products Box
Otsego County       Fresh Fruit/   Midwest        Gaylord      MI              49735        150        $3,125.00
 United Way          Vegetable
                     Box
Otsego Public       Dairy          Midwest        Otsego       MI              49078        504       $31,138.80
 Schools             Products Box
Otsego Public       Dairy          Midwest        St. Otsego   MI              49078        168       $10,945.20
 Schools             Products Box
Otsego Public       Fresh Fruit/   Midwest        Otsego       MI              49078        700       $25,186.00
 Schools             Vegetable
                     Box
Otsego-MI-49078     Fresh Fruit/   Midwest        Otsego       MI              49078        140        $5,037.20
                     Vegetable
                     Box
Ottawa County       Dairy          Midwest        Oak Harbor   OH              43449         30          $728.10
 Senior Resource     Products Box
Ottawa County       Fresh Fruit/   Midwest        Oak Harbor   OH              43449         80        $1,616.40
 Senior Resource     Vegetable
                     Box
Ottawa County       Precooked      Midwest        Oak Harbor   OH              43449         48        $1,573.44
 Senior Resource     Meat Box
Otter Creek Fire    Fluid Milk     Midwest        Holton       IN              47023      1,432        $5,728.00
 Dept.
Otterbein UMC       Fresh Fruit/   Mid-Atlantic   Hagerstown   MD              21740        250        $5,237.50
                     Vegetable
                     Box
Our Comm. Hunger    Fluid Milk     Midwest        Twinsburg    OH              44087        480        $1,593.60
 Ctr.
Our Daily Bread     Fluid Milk     South East     Pascagoula   MS              39581        900        $3,519.00
Our Daily Bread     Precooked      South West     Hammond      LA              70403      1,536      $158,438.40
                     Meat Box
Our Daily Bread FM  Fluid Milk     South East     Rockingham   NC              28379      1,080        $4,309.20
Our Daily Bread     Dairy          South East     Savannah     TN              38372        120        $3,000.00
 Ministries          Products Box
Our Fathers Church  Fresh Fruit/   Midwest        Muskegon     MI              49442        500       $10,562.50
                     Vegetable
                     Box
Our Hands To        Fresh Fruit/   South East     Memphis      TN              38111        972       $23,814.00
 Yours--C/O Mid      Vegetable
 South Food Bank     Box
Our Lady Guadalupe  Combination    South West     Rosenberg    TX              77471      1,000       $34,970.00
                     Box
Our Lady Guadalupe  Fresh Fruit/   South West     Rosenberg    TX              77471      1,300       $21,810.00
                     Vegetable
                     Box
Our Lady of Angels  Fresh Fruit/   Midwest        Chicago      IL              60651        630       $22,667.40
                     Vegetable
                     Box
Our Lady of Angels  Precooked      Midwest        Chicago      IL              60651        432       $35,043.84
                     Meat Box
Our Lady of Angels  Precooked      Midwest        Chicago      IL              60651      2,304      $186,900.48
                     Meat Box
Our Lady of Fatima  Fluid Milk     Midwest        Chicago      IL              60632        540        $1,792.80
Our Lady of Fatima  Fresh Fruit/   Midwest        Chicago      IL              60632      1,638       $58,935.24
                     Vegetable
                     Box
Our Lady of Fatima  Precooked      Midwest        Chicago      IL              60632      2,880      $233,625.60
                     Meat Box
Our Lady of Hope    Fresh Fruit/   Mountain       Kansas City  MO              64111      1,400       $36,260.00
 School              Vegetable      Plains
                     Box
Our Lady of La      Fresh Fruit/   Midwest        Wyoming      MI              49519      2,344       $84,337.12
 Vang                Vegetable
                     Box
Our Lady of Lavang  Combination    Western        Happy        OR              97086      5,280      $184,800.00
 Hv.                 Box                           Valley
Our Lady of Lavang  Dairy          Western        Happy        OR              97086      6,300      $189,000.00
 Hv.                 Products Box                  Valley
Our Lady of Lavang  Fresh Fruit/   Western        Happy        OR              97086      4,680      $126,360.00
 Hv.                 Vegetable                     Valley
                     Box
Our Lady of Lavang  Fresh Fruit/   Western        Portland     OR              97213      1,470       $39,690.00
 Parish USDA         Vegetable
                     Box
Our Lady of Perp.   Combination    Western        Albany       OR              97321        600       $21,000.00
 Help Ch.            Box
Our Lady of Perp.   Dairy          Western        Albany       OR              97321        350       $10,500.00
 Help Ch.            Products Box
Our Lady of         Fresh Fruit/   Western        Riverside    CA              92504        295        $8,555.00
 Perpetual Help      Vegetable
                     Box
Our Lady of         Combination    Western        Snoqualmie   WA              98065        271        $9,485.00
 Sorrows Snoq.       Box
Our Lady of         Dairy          Western        Snoqualmie   WA              98065        261        $7,830.00
 Sorrows Snoq.       Products Box
Our Lady of         Fresh Fruit/   Western        Snoqualmie   WA              98065        262        $7,074.00
 Sorrows Snoq.       Vegetable
                     Box
Our Lady of         Precooked      Midwest        Chicago      IL              60623        288       $23,362.56
 Tepeyac             Meat Box
Our Lady of the     Precooked      Midwest        Chicago      IL              60651        360       $29,203.20
 Angels              Meat Box
Our Lady of the     Fresh Fruit/   Mid-Atlantic   Meadow       PA              15347        120        $3,600.00
 Miraculous Parish   Vegetable                     Lands
                     Box
Our Lady on the     Fresh Fruit/   Midwest        Marine City  MI              48039      1,080       $21,567.60
 River Parish        Vegetable
                     Box
Our Lady Victory    Fluid Milk     South West     Loreauville  LA              70522      1,732        $5,173.44
 FP
Our Savior Center   Fresh Fruit/   Western        El Monte     CA              91731      3,960       $88,110.00
                     Vegetable
                     Box
Our Saviour's       Fresh Fruit/   South West     Victoria     TX              77901        224        $3,805.76
 Lutheran            Vegetable
                     Box
OURCHIVE215         Fluid Milk     Mid-Atlantic   Philadelphi  PA              19144        166        $4,161.12
                                                   a
OUSD El Camino HS   Fresh Fruit/   Western        Oceanside    CA              92057        400       $10,000.00
                     Vegetable
                     Box
OUSD Oceanside HS   Fresh Fruit/   Western        Oceanside    CA              92054        400       $10,000.00
                     Vegetable
                     Box
Out of Egypt Food   Combination    Western        Fallon       Nv              89406      3,200      $153,600.00
 Pantry              Box
Outreach for World  Fresh Fruit/   South West     Grand        TX              75050        128        $2,174.72
 of Peace            Vegetable                     Prairie
                     Box
Outreach Navarre    Fresh Fruit/   South East     Navarre      FL              32566        450       $13,050.00
 Inc.                Vegetable
                     Box
Overflow Church     Fresh Fruit/   Midwest        Benton       MI              49022         50        $1,056.25
                     Vegetable                     Harbor
                     Box
Overflowing Hands   Fresh Fruit/   South East     Raleigh      NC              27616     19,625      $234,012.50
                     Vegetable
                     Box
Overlook            Fresh Fruit/   Mid-Atlantic   Chillum      MD              20782        250        $5,000.00
 Apartments          Vegetable
                     Box
Ovid Community      Combination    Midwest        Anderson     IN              46013         50        $7,500.00
 Church              Box
Owasso Community    Fresh Fruit/   South West     Owasso       OK              74055        392        $7,487.20
 Resources Inc.      Vegetable
                     Box
Owego School        Dairy          North East     Owego        NY              13827        300       $13,260.00
                     Products Box
Owego School        Fresh Fruit/   North East     Owego        NY              13827        420        $9,660.00
                     Vegetable
                     Box
Owego School        Precooked      North East     Owego        NY              13827        357       $19,492.20
                     Meat Box
Owen County         Fresh Fruit/   South East     Owenton      KY              40359        384        $7,488.00
 Schools HS          Vegetable
                     Box
Owen D Young        Fresh Fruit/   North East     Van          NY              13475         35        $1,043.00
 School              Vegetable                     Hornesvill
                     Box                           e
Owens and Co.       Combination    South West     Ramona       OK              74061        672       $23,499.84
 Mutual Aid Fire     Box
Owens and Co.       Fluid Milk     South West     Ramona       OK              74061        829       $19,846.26
 Mutual Aid Fire
Owens and Co.       Fresh Fruit/   South West     Ramona       OK              74061      2,869       $50,222.30
 Mutual Aid Fire     Vegetable
                     Box
Owsley Co. Elem     Fluid Milk     South East     Booneville   KY              41314      1,052        $3,987.08
Oxford High School  Dairy          Midwest        Oxford       MI              48371      2,250       $54,607.50
                     Products Box
Oxford High School  Fresh Fruit/   Midwest        Oxford       MI              48371      4,728       $95,607.45
                     Vegetable
                     Box
Oxford High School  Precooked      Midwest        Oxford       MI              48371      1,600       $50,718.00
                     Meat Box
Oxnard Food Share   Fresh Fruit/   Western        Oxnard       CA              93036     53,930    $1,941,480.00
                     Vegetable
                     Box
Ozark Christian     Dairy          Mountain       West Plains  MO              65775      3,264      $149,360.64
 Academy             Products Box   Plains
Ozark Christian     Fluid Milk     Mountain       West Plains  MO              65775        990       $23,700.60
 Academy                            Plains
Ozark Christian     Fresh Fruit/   Mountain       West Plains  MO              65775      2,673       $45,655.50
 Academy             Vegetable      Plains
                     Box
Ozark Food Pantry   Fresh Fruit/   Mountain       Festus       MO              63028        450       $12,375.00
                     Vegetable      Plains
                     Box
Ozark R-VI School   Fresh Fruit/   Mountain       Ozark        MO              65721      3,520       $91,168.00
 District            Vegetable      Plains
                     Box
Ozarks Food         Fresh Fruit/   Mountain       Lincoln      NE              68503      1,760       $45,584.00
 Harvest             Vegetable      Plains
                     Box
Ozarks Food         Dairy          Mountain       Springfield  MO              65803      3,528      $177,246.72
 Harvest Inc.        Products Box   Plains
Ozarks Food         Fluid Milk     Mountain       Springfield  MO              65803      1,440       $34,473.60
 Harvest Inc.                       Plains
Ozarks Food         Fresh Fruit/   Mountain       Ozark        MO              65803        880       $22,792.00
 Harvest Inc.        Vegetable      Plains
                     Box
Ozarks Food         Fresh Fruit/   Mountain       Springfield  MO              65803     10,560      $273,504.00
 Harvest Inc.        Vegetable      Plains
                     Box
Ozarks Food         Precooked      Mountain       Springfield  MO              65803      5,012      $158,336.48
 Harvest Inc.        Meat Box       Plains
P.A.C.E.            Fresh Fruit/   Midwest        Southfield   MI              48075      1,200       $25,350.00
                     Vegetable
                     Box
P.R. Science &      Fresh Fruit/   Mid-Atlantic   Canovanas    PR              00729      2,016       $80,640.00
 Tec. Trust          Vegetable
 (Canovanas)         Box
P.R. Science &      Fresh Fruit/   Mid-Atlantic   Yabucoa      PR              00767      2,016       $80,640.00
 Tec. Trust          Vegetable
 (Yabucoa)           Box
PAACA               Fresh Fruit/   North East     New Bedford  MA              02746        784       $17,208.80
                     Vegetable
                     Box
Pace Academy        Dairy          Midwest        Southfield   MI              48075        600       $17,400.00
                     Products Box
Pace Assembly       Fresh Fruit/   South East     Pace         FL              32571     28,750      $833,750.00
 Ministries Inc.     Vegetable
                     Box
Paces Creek Elem.   Fluid Milk     South East     Manchester   KY              40962        200          $758.00
 Sc.
Pacific Gateway     Fresh Fruit/   Western        Honolulu     HI              96819        700       $25,200.00
                     Vegetable
                     Box
Pacific Island      Combination    Western        Seattle      WA              98032        200        $7,000.00
 Comm. Wc.           Box
Pacific Island      Dairy          Western        Seattle      WA              98032        200        $6,000.00
 Comm. Wc.           Products Box
Pacific Island      Fresh Fruit/   Western        Seattle      WA              98032        200        $5,400.00
 Comm. Wc.           Vegetable
                     Box
Pacific Island      Fresh Fruit/   Western        Burien       WA              98148        150        $4,125.00
 Community           Vegetable
 Organization/       Box
 Joseph Seia
PACS Elkton         Fluid Milk     South East     Elkton       KY              42220      1,269        $2,855.25
PACS Princeton      Fluid Milk     South East     Princeton    KY              42445        899        $2,022.75
PACS Cadiz          Fluid Milk     South East     Cadiz        KY              42211        540        $1,215.00
PACS Eddyville      Fluid Milk     South East     Eddyville    KY              42038        945        $2,126.25
PACS Eddyville      Fluid Milk     South East     Eddyville    KY              42036        225          $506.25
PACS Powderly       Fluid Milk     South East     Powderly     KY              42367      1,350        $3,037.50
Paducah Interfaith  Fluid Milk     South East     Paducah      KY              42003        900        $2,025.00
Page High School    Fluid Milk     South West     Page         AZ              86040        100          $788.00
Page High School    Fresh Fruit/   South West     Page         AZ              86040        150        $4,125.00
                     Vegetable
                     Box
Pahokee             Combination    South East     Pahokee      FL              33476        560       $42,588.00
 Deliverance         Box
 Christian Center
Palama Settlement   Fresh Fruit/   Western        Honolulu     HI              96817      2,700       $97,200.00
                     Vegetable
                     Box
Palama Settlement   Precooked      Western        Honolulu     HI              96817      1,888       $75,520.00
                     Meat Box
Palatine High       Fresh Fruit/   Midwest        Palatine     IL              60067        250        $6,875.00
 School              Vegetable
                     Box
Palatine High       Fresh Fruit/   Midwest        Palatine     IL              60067      1,000       $27,500.00
 School              Vegetable
                     Box
Palatine Township   Fresh Fruit/   Midwest        Chicago      IL              60067         48          $717.60
 Food Pantry         Vegetable
                     Box
Palatine Township   Fresh Fruit/   Midwest        Palatine     IL              60067         96        $1,435.20
 Food Pantry         Vegetable
                     Box
Palm Bch. City Fb.  Fresh Fruit/   South East     West Palm    FL              33407      1,512       $37,044.00
 Mt. Calvary         Vegetable                     Beach
                     Box
Palm Beach County   Fresh Fruit/   South East     South Bay    FL              33493      1,512       $37,044.00
 Fb. South Bay       Vegetable
                     Box
Palm Beach County   Fresh Fruit/   South East     Riveria      FL              33404      1,512       $37,044.00
 Fb. Wells           Vegetable                     Beach
                     Box
Palm Beach County   Combination    South East     Lantana      FL              33462      6,720      $511,056.00
 Food Bank           Box
Palm Beach County   Fluid Milk     South East     Lantana      FL              33462     59,136      $230,039.04
 Food Bank
Palm Beach County   Fluid Milk     South East     Lake Worth   FL              33467     41,808      $161,805.12
 Food Bank
Palm Beach County   Fresh Fruit/   South East     Lantana      FL              33462      6,384      $114,408.00
 Food Bank           Vegetable
                     Box
Palm Beach County   Fresh Fruit/   South East     Lake Worth   FL              33460     19,656      $481,572.00
 Food Bank           Vegetable
                     Box
Palm Beach County   Combination    South East     Belle Glade  FL              33430     14,784    $1,124,323.20
 Food Bank--TKM      Box
 Farms
Palm Beach County   Fresh Fruit/   South East     Pahokee      FL              33476      1,512       $37,044.00
 Food Bank Pahokee   Vegetable
                     Box
Palm Beach Cty.--   Combination    South East     Mangonia     FL              33407      2,688      $204,422.40
 Mt. Calvary         Box                           Park
 Missionary Church
Palm Beach Cty.--   Combination    South East     Mangonia     FL              33404      2,688      $204,422.40
 Wells Recreation    Box                           Park
 Center
Palm Desert Oasis   Fresh Fruit/   Western        Palm Desert  CA              92260        237        $6,873.00
 Church              Vegetable
                     Box
Palm Spring         Fresh Fruit/   South East     Hialeah      FL              33018      2,000       $33,500.00
 Spanish SDA         Vegetable                     Gardens
                     Box
Palmer Sr. Ctr.     Combination    North East     Palmer       MA              01069        139        $4,559.20
                     Box
Palmyra Food        Fresh Fruit/   Mountain       Palmyra      MO              63461        390       $10,725.00
 Pantry              Vegetable      Plains
                     Box
Pan American        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19140      3,580       $71,600.00
 Mental Health       Vegetable                     a
 Services            Box
Panama City Rescue  Fresh Fruit/   South East     Panama City  FL              32401        800       $23,200.00
 Mission Inc.        Vegetable
                     Box
Pansophia Academy   Fresh Fruit/   Midwest        Coldwater    MI              49036      1,386       $49,868.28
                     Vegetable
                     Box
Pantry 279          Combination    Midwest        Ellettsvill  IN              47429        950      $142,500.00
                     Box                           e
Pantry for Adair    Fluid Milk     Mountain       Kirksville   MO              63501      2,194        $4,936.50
 County                             Plains
Pantry for Adair    Fresh Fruit/   Mountain       Kirksville   MO              63501      1,240       $32,116.00
 County              Vegetable      Plains
                     Box
Pantry of Hope      Fluid Milk     South West     Lake         LA              70615      3,000        $8,760.00
                                                   Charles
Paradise Outreach   Fresh Fruit/   South East     Greenville   NC              27834        894       $31,924.74
 Ministries          Vegetable
                     Box
Paradise Valley     Fluid Milk     South West     Phoenix      AZ              85028        225        $1,773.00
 Food Bank
Paradise Valley     Fresh Fruit/   South West     Phoenix      AZ              85028        460       $12,650.00
 Food Bank           Vegetable
                     Box
Park Ave. Food      Dairy          Midwest        Mt. Vernon   IL              62864        120        $3,570.00
 Pantry              Products Box
Park Ave. Food      Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        240        $6,600.00
 Pantry              Vegetable
                     Box
Park Heights        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215      1,050       $21,000.00
 Renaissance         Vegetable
                     Box
Park Hill Support   Fresh Fruit/   Mountain       Kansas City  MO              64153      8,400      $217,560.00
 Services            Vegetable      Plains
 Warehouse           Box
Park Hills First    Fluid Milk     Mountain       Park Hills   MO              63601      3,600        $8,100.00
 Assembly of God                    Plains
Park Hills First    Fresh Fruit/   Mountain       Desloge      MO              63601     11,200      $308,000.00
 Assembly of God     Vegetable      Plains
                     Box
Park Hills First    Fresh Fruit/   Mountain       Park Hills   MO              63601        175        $4,812.50
 Assembly of God     Vegetable      Plains
                     Box
Park Place Harper   Fresh Fruit/   Midwest        Harper       MI              48225        230        $3,438.50
 Woods               Vegetable                     Woods
                     Box
Parke Co. Food Pt.  Fluid Milk     Midwest        Rockville    IN              47872      2,187        $4,920.75
Parkland Hope       Fresh Fruit/   Mountain       Park Hills   MO              63601      3,712      $102,080.00
 Center              Vegetable      Plains
                     Box
Parkland Hospital   Fluid Milk     South West     Dallas       TX              75235      1,026       $24,562.44
Parkland Hospital   Fresh Fruit/   South West     Dallas       TX              75235      7,000      $102,400.00
                     Vegetable
                     Box
Parklane School     Combination    Western        Portland     OR              97233         60        $2,100.00
 USDA                Box
Parklane School     Dairy          Western        Portland     OR              97233         50        $1,500.00
 USDA                Products Box
Parklane School     Fresh Fruit/   Western        Portland     OR              97233        280        $7,560.00
 USDA                Vegetable
                     Box
Parks Elementary    Fresh Fruit/   South West     Pasadena     TX              77503        256        $4,349.44
                     Vegetable
                     Box
Parkside Middle     Dairy          Midwest        Jackson      MI              49203        260        $7,540.00
 School              Products Box
Parkside Middle     Fresh Fruit/   Midwest        Jackson      MI              49203        500       $10,125.00
 School              Vegetable
                     Box
Parkside Outreach   Fresh Fruit/   South East     Baileyton    AL              35019        140        $3,500.00
                     Vegetable
                     Box
Parktown Food Hub   Fresh Fruit/   South East     Durham       NC              27713        750       $11,400.00
                     Vegetable
                     Box
Parkview Baptist    Combination    South East     Palm Coast   FL              32137      2,688      $204,422.40
 Church              Box
Parkview Free Will  Fresh Fruit/   Mountain       Desloge      MO              63601      5,120       $77,456.00
 Baptist             Vegetable      Plains
                     Box
Parkview Knoll      Combination    Mid-Atlantic   Carmichaels  PA              15320         75        $3,750.00
 Apartments          Box
Parkville HS--      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21234        378        $7,163.10
 Balt. FB            Vegetable
                     Box
Parkway Christian   Fresh Fruit/   South East     Birmingham   AL              35216      1,800       $46,710.00
 Fellowship          Vegetable
                     Box
Parkway NE Middle/  Fresh Fruit/   Mountain       Creve Coeur  MO              63141        180        $5,760.00
 Stl Food Bnk        Vegetable      Plains
                     Box
Parma High School   Dairy          Midwest        Cleveland    OH              44134        550       $13,750.00
                     Products Box
Parma Hts. Senior   Dairy          Midwest        Parma        OH              44130        193        $4,825.00
 Center              Products Box                  Heights
Parroquia De        Combination    Mid-Atlantic   Hatillo      PR              00659        672       $58,296.00
 Nuestra Perpetuo    Box
 Socorro
Parroquia           Combination    Mid-Atlantic   Guayanilla   PR              00656      2,016      $174,888.00
 Inmaculada          Box
 Concepcion
Parroquia La        Combination    Mid-Atlantic   Camuy        PR              00627        672       $58,296.00
 Asuncion            Box
Parroquia La        Combination    Mid-Atlantic   Bayamon      PR              00956        672       $33,600.00
 Resureccion Del     Box
 Senor
Parroquia Maria     Combination    Mid-Atlantic   Trujillo     PR              00976        672       $66,528.00
 Llena De Gracia     Box                           Alto
Parroquia Nuestra   Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Senora De La        Box
 Altagracia
Parroquia Nuestra   Combination    Mid-Atlantic   Florida      PR              00650        672       $58,296.00
 Senora De La        Box
 Merced
Parroquia Nuestra   Combination    Mid-Atlantic   Arecibo      PR              00612        672       $58,296.00
 Senora Del Carmen   Box
Parroquia Nuestra   Combination    Mid-Atlantic   Ponce        PR              00716        672       $33,600.00
 Senora Del Carmen   Box
Parroquia Nuestra   Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Senora Del Carmen   Box
Parroquia Nuestra   Combination    Mid-Atlantic   Canovanas    PR              00729        672       $66,528.00
 Senora Del Pilar    Box
Parroquia Sagrada   Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
 Familia             Box
Parroquia Sagrada   Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Familia             Box
Parroquia Sagrado   Combination    Mid-Atlantic   Quebradilla  PR              00678        672       $58,296.00
 Corazon De Jesus    Box                           s
Parroquia San       Combination    Mid-Atlantic   Guayama      PR              00784        126       $12,474.00
 Antonia De Pauda    Box
Parroquia San       Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $116,592.00
 Antonio De Padua    Box
Parroquia San       Combination    Mid-Atlantic   Catano       PR              00962        672       $58,296.00
 Francisco De        Box
 Sales
Parroquia San Juan  Combination    Mid-Atlantic   Orocovis     PR              00720      1,344      $133,056.00
 Bautista            Box
Parroquia San       Combination    Mid-Atlantic   Hatillo      PR              00659        672       $58,296.00
 Pedro Y San Pablo   Box
Parroquia           Combination    Mid-Atlantic   Fajardo      PR              00738        672       $58,296.00
 Santisimo           Box
 Redentor
Parroquia Santo     Combination    Mid-Atlantic   Comerio      PR              00782      1,344       $91,896.00
 Cristo De La        Box
 Salud
Partners in         Fresh Fruit/   South East     Larinburg    NC              28352        800        $9,200.00
 Ministry            Vegetable
                     Box
Partners in         Fresh Fruit/   South East     Laurinburg   NC              28352        400        $4,600.00
 Ministry            Vegetable
                     Box
Partners in         Fresh Fruit/   South East     Pineapple    AL              36769        680       $17,646.00
 Progress            Vegetable
                     Box
Pasadena            Fresh Fruit/   South West     Pasadena     TX              77507      2,000       $19,400.00
 Convention Center   Vegetable
                     Box
Pascagoula          Dairy          South East     Pascagoula   MS              39581        320        $8,985.60
 Bilingual           Products Box
Pascagoula          Precooked      South East     Pascagula    MS              39581      1,008       $41,388.48
 Bilingual           Meat Box
Pasco County        Fresh Fruit/   South East     Dade City    FL              33525        500       $12,500.00
 Difference Makers   Vegetable
                     Box
Passage Youth       Fresh Fruit/   South West     Dallas       TX              75207      1,560       $39,000.00
 Family Center       Vegetable
                     Box
Passage Youth       Fresh Fruit/   South West     Dallas       TX              75227      1,560       $39,000.00
 Family Center       Vegetable
                     Box
Passage Youth       Precooked      South West     Dallas       TX              75227      3,072      $127,675.60
 Family Center       Meat Box
Passion City        Fresh Fruit/   South East     Atlanta      GA              30324      1,400       $26,516.00
 Church              Vegetable
                     Box
Pastoral Center     Fresh Fruit/   South East     Pensacola    FL              32561        250        $7,250.00
                     Vegetable
                     Box
Patchwork           Fresh Fruit/   Midwest        Detroit      MI              48207        100        $2,875.00
                     Vegetable
                     Box
Path of Western     Fresh Fruit/   North East     Depew        NY              14043        210        $4,798.50
 New York            Vegetable
                     Box
Path People         Fluid Milk     South West     Tyler        TX              75702        900        $2,628.00
 Attempt
Pathway Church      Combination    South East     Mobile       AL              36608      2,800      $212,940.00
                     Box
Pathway Church      Combination    South East     Mobile       AL              36618      4,480      $340,704.00
                     Box
Pathway Enrich.     Fluid Milk     Midwest        Lorain       OH              44052        900        $2,988.00
 Ctr.
Pathways To         Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19141        420        $8,400.00
 Housing             Vegetable                     a
                     Box
Patrick Lynch       Combination    Western        Portland     OR              97233         60        $2,100.00
 School USDA         Box
Patrick Lynch       Dairy          Western        Portland     OR              97233         50        $1,500.00
 School USDA         Products Box
Patrick Lynch       Fresh Fruit/   Western        Portland     OR              97233        255        $6,885.00
 School USDA         Vegetable
                     Box
Patterson Family    Fresh Fruit/   Western        Patterson    CA              95363        900       $27,048.60
 RC                  Vegetable
                     Box
Paul Laurence       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21231      1,050       $21,000.00
 Dunbar High         Vegetable
 School              Box
Paw Paw             Dairy          Midwest        Paw Paw      MI              49079        300        $8,700.00
                     Products Box
Pay FWD/SHFB VE889  Fluid Milk     South East     Deland       FL              32724        640        $2,442.40
PDX Adventist       Combination    Western        Portland     OR              97220      1,200       $42,000.00
 Comm. Srvs. USDA    Box
PDX Adventist       Dairy          Western        Portland     OR              97220        300        $9,000.00
 Comm. Srvs. USDA    Products Box
PDX Adventist       Fresh Fruit/   Western        Portland     OR              97220      2,160       $58,320.00
 Comm. Srvs. USDA    Vegetable
                     Box
Peace Lutheran      Fresh Fruit/   South East     Memphis      TN              38107        108        $2,646.00
 Church              Vegetable
                     Box
Peace Missionary    Fresh Fruit/   South East     Birmingham   AL              35214      1,080       $28,026.00
 Baptist             Vegetable
                     Box
Peace Pantry/STL    Fresh Fruit/   Mountain       Cedar Hill   MO              63016        360       $11,520.00
 Food Bank           Vegetable      Plains
                     Box
Peaceful Living     Fluid Milk     Mid-Atlantic   Harleysvill  PA              19438         39        $1,263.60
                                                   e
Peaceful Living     Fresh Fruit/   Mid-Atlantic   Harleysvill  PA              19438         96        $2,206.08
                     Vegetable                     e
                     Box
Pearl Lean          Fresh Fruit/   Midwest        Warren       MI              48092        125        $1,868.75
 Elementary School   Vegetable
                     Box
Pecan Springs       Fresh Fruit/   South West     Austin       TX              78723      2,520       $42,814.80
 Elementary          Vegetable
                     Box
Peletah Ministries  Fresh Fruit/   South East     New Bern     NC              28560        288       $10,284.48
                     Vegetable
                     Box
Pender Adult Srvs.  Fluid Milk     South East     Burgaw       NC              28425        240          $933.60
Pendleton Co.       Fresh Fruit/   South East     Falmouth     KY              41040        512        $9,984.00
 Fairgrounds         Vegetable
                     Box
Penfield Food       Fresh Fruit/   North East     Penfield     NY              14526        520       $11,882.00
 Pantry              Vegetable
                     Box
Peninsula De        Combination    Mid-Atlantic   San Juan     PR              00921      3,360      $242,088.00
 Cantera             Box
Penitas Baptist     Fluid Milk     South West     Penitas      TX              78576        432        $1,261.44
 Ch.
Penland Center      Fresh Fruit/   South East     Murphy       NC              28906        900       $24,750.00
                     Vegetable
                     Box
Penn Hills Service  Dairy          Mid-Atlantic   Penn Hills   PA              15235        121        $2,544.63
 Assoc.              Products Box
Penndale Middle     Fluid Milk     Mid-Atlantic   Lansdale     PA              19446         35        $1,134.00
 School
Penndell Shelter    Fresh Fruit/   Mid-Atlantic   Langhorne    PA              19047        360        $8,272.80
                     Vegetable
                     Box
Pennfield High      Dairy          Midwest        Battle       MI              49015        100        $2,900.00
                     Products Box                  Creek
Pennfield High      Fresh Fruit/   Midwest        Battle       MI              49015      1,000       $21,431.25
                     Vegetable                     Creek
                     Box
Pennridge Fish      Dairy          Mid-Atlantic   Perkasie     PA              18944        130        $4,386.20
                     Products Box
Pennridge Fish      Fresh Fruit/   Mid-Atlantic   Perkasie     PA              18944        288        $6,618.24
                     Vegetable
                     Box
Pennridge Fish      Precooked      Mid-Atlantic   Perkasie     PA              18944         50          $900.00
                     Meat Box
Pennridge High      Fluid Milk     Mid-Atlantic   Perkasie     PA              18944        105        $3,402.00
 School
Pennsylvania Ave.   Fluid Milk     Mid-Atlantic   Washington   Dc              20020        960       $17,664.00
 Baptist Church
Pennsylvania Farm   Fluid Milk     Mid-Atlantic   Duncansvill  PA              16635        864       $17,038.08
 Bureau                                            e
Pennsylvania        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19107        420        $8,400.00
 Hospital--Hall      Vegetable                     a
 Mercer Bldg.        Box
Penny Lane Centers  Fluid Milk     Western        North Hills  CA              91343        105          $798.00
Penny Lane Centers  Fresh Fruit/   Western        North Hills  CA              91343        210        $5,250.00
                     Vegetable
                     Box
Pennyrile Comm.     Fluid Milk     South East     Smithland    KY              42241        900        $2,025.00
Pensacola Dream     Fresh Fruit/   South East     Pensacola    FL              32504        550       $15,950.00
 Center              Vegetable
                     Box
Penta of the Gulf   Fluid Milk     South East     Biloxi       MS              39532        460        $1,743.40
Pentacostal Temple  Fresh Fruit/   South East     Memphis      TN              38126        432       $10,584.00
 Cogic--C/O Mid      Vegetable
 South Food Bank     Box
Pentecostal Church  Fluid Milk     South East     Meridan      MS              39301        900        $3,591.00
Pentecostal Church  Combination    Mid-Atlantic   Juana Diaz   PR              00795        672       $58,296.00
 of Jesus Christ     Box
Pentecostals of     Precooked      South East     Biloxi       MS              39532        744       $30,548.64
 the Gulf            Meat Box
People Acting in    Fresh Fruit/   North East     New Bedford  MA              02740        300       $11,019.00
 Community           Vegetable
 Endeavors (PACE)    Box
People Community    Fresh Fruit/   Midwest        Detroit      MI              48209        250        $3,737.50
 Services            Vegetable
                     Box
People Helping      Fresh Fruit/   South West     Granbury     TX              76049        816       $13,863.84
 People              Vegetable
                     Box
People of the       Fresh Fruit/   Midwest        Detroit      MI              48223        285        $8,193.75
 Light Ministries    Vegetable
                     Box
People To People    Fluid Milk     North East     Nanuet       NY              10954        240        $7,435.20
Peoples Advocacy    Fluid Milk     South East     Jackson      MS              39206        360        $1,364.40
 IN
Peoples Church of   Fresh Fruit/   Midwest        Detroit      MI              48227        200        $5,750.00
 Holiness            Vegetable
                     Box
People's Church of  Fresh Fruit/   Midwest        Chicago      IL              60624        126        $4,533.48
 the Harvest         Vegetable
                     Box
People's Health/    Fresh Fruit/   Mountain       St. Louis    MO              63112        540       $17,280.00
 STL Food Bank       Vegetable      Plains
                     Box
Peoria Area Food    Fluid Milk     Midwest        Peoria       IL              61605      1,400        $4,025.00
 Bank
Peoria Food Bank    Dairy          Midwest        Peoria       IL              61603        200        $5,950.00
                     Products Box
Peoria Food Bank    Dairy          Midwest        Peoria       IL              61605        600       $17,850.00
                     Products Box
Peoria Food Bank    Dairy          Midwest        Peoria       IL              61615        400       $11,900.00
                     Products Box
Peoria Food Bank    Fresh Fruit/   Midwest        Peoria       IL              61603      1,140       $31,350.00
                     Vegetable
                     Box
Peoria Food Bank    Fresh Fruit/   Midwest        Peoria       IL              61605      1,540       $42,350.00
                     Vegetable
                     Box
Peoria Food Bank    Fresh Fruit/   Midwest        Peoria       IL              61615        400       $11,000.00
                     Vegetable
                     Box
Peoria Unified      Dairy          South West     Peoria       AZ              85345        588       $15,582.00
 School District     Products Box
Peoria Unified      Fluid Milk     South West     Peoria       AZ              85345      1,660       $13,080.80
 School District
Peoria Unified      Fresh Fruit/   South West     Peoria       AZ              85345      4,480      $121,844.00
 School District     Vegetable
                     Box
Pepperell COA       Combination    North East     Pepperell    MA              01463         20          $760.00
                     Box
Pepperell COA       Precooked      North East     Pepperell    MA              01463         20        $1,086.00
                     Meat Box
Pepsi Center        Fluid Milk     Mountain       Denver       Co              80204      2,304        $6,727.68
                                    Plains
Perfecting Church   Fresh Fruit/   Midwest        Detroit      MI              48234      1,000       $14,950.00
                     Vegetable
                     Box
Perfecting Prayer   Fresh Fruit/   Mid-Atlantic   Glen Burnie  MD              21060        400        $8,000.00
 and Praise Church   Vegetable
                     Box
Perkins Homes       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21231        750       $15,000.00
                     Vegetable
                     Box
Perquimans County   Fresh Fruit/   South East     Hertford     NC              27944        110        $3,928.10
 CSFP                Vegetable
                     Box
Perquimans County   Fresh Fruit/   South East     Hertford     NC              27944        576       $20,568.96
 EOC                 Vegetable
                     Box
Perry Area Food     Fresh Fruit/   Midwest        Perry        IA              50220        280        $4,060.00
 Pantry              Vegetable
                     Box
Perry High School   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15214      1,074       $20,491.92
                     Vegetable
                     Box
Perry Ministrial    Fresh Fruit/   Mid-Atlantic   Perryopolis  PA              15473        680       $20,400.00
 Food Bank           Vegetable
                     Box
Perry Outreach      Fresh Fruit/   Midwest        Detroit      MI              48217        150        $4,312.50
                     Vegetable
                     Box
Person Person High  Fresh Fruit/   South East     Roxboro      NC              27573      1,260       $14,490.00
                     Vegetable
                     Box
Person Southern     Fresh Fruit/   South East     Roxboro      NC              27573      1,070       $12,305.00
 Middle              Vegetable
                     Box
Perth Amboy YMCA    Fresh Fruit/   Mid-Atlantic   Perth Amboy  NJ              08861      1,008       $19,101.60
                     Vegetable
                     Box
Peru Central        Dairy          North East     Peru         NY              12972        200        $4,800.00
 School District     Products Box
Petal Childrens     Fluid Milk     South East     Petal        MS              39465      2,340        $9,336.60
 TAS
Pettis County       Precooked      Mountain       Sedalia      MO              65301         43        $1,935.00
 Community           Meat Box       Plains
 Partnership
Phenomenal She      Fresh Fruit/   Western        Federal Way  WA              98023        430       $11,825.00
                     Vegetable
                     Box
Philabundance       Dairy          Mid-Atlantic   Philadelphi  PA              19122     13,125      $442,968.75
                     Products Box                  a
Philabundance       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19122    157,290      $297,724.50
                                                   a
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Doylestown   PA              18901      2,592       $47,407.68
 Bucks Co.           Vegetable
 Opportunity         Box
 Council
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19154      8,496      $155,391.84
 Caring for          Vegetable                     a
 Friends             Box
Philabundance C/O   Dairy          Mid-Atlantic   Salem        NJ              08070      1,300       $43,862.00
 Mid-Atlantic        Products Box
 States Career &
 Edu
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Salem        NJ              08070      4,644       $93,547.08
 Mid-Atlantic        Vegetable
 States Career &     Box
 Edu
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Norristown   PA              19403      1,440       $26,337.60
 Montgomery County   Vegetable
 Anti-Hunger NE      Box
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Oaks         PA              19456      2,880       $52,675.20
 Montgomery County   Vegetable
 Anti-Hunger NE      Box
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Willow       PA              19090      3,024       $55,308.96
 Montgomery County   Vegetable                     Grove
 Anti-Hunger NE      Box
Philabundance C/O   Fresh Fruit/   Mid-Atlantic   Blackwood    NJ              08012      1,728       $31,605.12
 Touch NJ            Vegetable
                     Box
Philabundance--Chr  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19131      1,638       $31,040.10
 istian Stronghold   Vegetable                     a
                     Box
Philabundance--Chr  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148      1,638       $31,040.10
 istian Stronghold   Vegetable                     a
                     Box
Philabundance--Cit  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19131      1,638       $31,040.10
 izens Bank Park     Vegetable                     a
                     Box
Philabundance--Cit  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148      2,961       $56,110.95
 izens Bank Park     Vegetable                     a
                     Box
Philabundance Gx    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148     25,137      $476,346.15
 Warehouse           Vegetable                     a
                     Box
Philabundance       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19128     49,015      $928,834.25
 Roxborough          Vegetable                     a
                     Box
Philabundance--Car  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        336        $3,954.72
 ings for Friends                                  a
Philabundance--Car  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19154      2,016       $23,728.32
 ings for Friends                                  a
Philabundance--Che  Fluid Milk     Mid-Atlantic   Cherry Hill  NJ              08002        288        $3,389.76
 rry Hill Food and
 Outreach
Philabundance--Cit  Fluid Milk     Mid-Atlantic   Chester      PA              19013        480        $5,649.60
 y of Chester
Philabundance--Cit  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148         96        $1,129.92
 y of Chester                                      a
Philabundance--Cit  Fluid Milk     Mid-Atlantic   Collingdale  PA              19023      1,152       $13,559.04
 y of Collingdale
Philabundance--Cit  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        192        $2,259.84
 y of Collingdale                                  a
Philabundance--Dif  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        240        $2,824.80
 an.                                               a
Philabundance--Dif  Fluid Milk     Mid-Atlantic   Trainer      PA              19061      1,440       $16,948.80
 an.
Philabundance--Mid- Fluid Milk     Mid-Atlantic   Pennsville   NJ              08070        864       $10,169.28
 Atl. States
 Career Educ. Ctr.
Philabundance--Mid- Fresh Fruit/   Mid-Atlantic   Pennsville   NJ              08070        126        $2,387.70
 Atl. States         Vegetable
 Career Educ. Ctr.   Box
Philabundance--Tru  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148      3,840       $45,196.80
 ck To Trunk                                       a
Philabundance--Upp  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19138        672        $7,909.44
 er Room                                           a
Philabundance--Upp  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        192        $2,259.84
 er Room                                           a
Philadelphia Anti-  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19132        700       $14,000.00
 Drug/Violence       Vegetable                     a
 Network             Box
Philadelphia TAB    Fluid Milk     Mid-Atlantic   Philadelphi  PA              19133        166        $4,161.12
 Salvation Army                                    a
Philemon Community  Dairy          Midwest        Cleveland    OH              44108        200        $5,000.00
 Baptist             Products Box
Philly Food Rescue  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19120        768       $11,374.08
                                                   a
Philly Food Rescue  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19150        384        $5,656.80
                                                   a
Phoenix Rescue      Fluid Milk     South West     Glendale     AZ              85301      2,448       $11,505.60
 Mission
Phoenix Rescue      Fresh Fruit/   South West     Glendale     AZ              85301      3,680       $80,408.00
 Mission             Vegetable
                     Box
Phoenix Talent      Fresh Fruit/   Western        Phoenix      OR              97535        108        $4,185.00
 School District     Vegetable
                     Box
Pib El Calavario    Fresh Fruit/   South West     Brownsville  TX              78521      1,560       $39,000.00
                     Vegetable
                     Box
Picket Co. K-8      Fluid Milk     South East     Byrdstown    TN              38549        900        $3,411.00
Piedmont Baptist    Dairy          South East     Greensboro   NC              27497        756        $3,780.00
 Association         Products Box
Piedmont Baptist    Fluid Milk     South East     Greensboro   NC              27497      1,280        $5,120.00
 Association
Piedmont Baptist    Fresh Fruit/   South East     Greensboro   NC              27497      3,873      $106,507.50
 Association         Vegetable
                     Box
Piedmont Baptist    Precooked      South East     Greensboro   NC              27497      1,206       $23,517.00
 Association         Meat Box
Pike County High    Fresh Fruit/   South East     Zebulon      GA              30295      6,820      $129,170.80
 School              Vegetable
                     Box
Pike Market Snr.    Fresh Fruit/   Western        Seattle      WA              98101        240        $6,480.00
 Ctr. & Fb.          Vegetable
                     Box
Pike Rd. Aux.       Fluid Milk     South East     Montgomery   AL              36117      1,440        $5,745.60
Pikesville SDA      Fresh Fruit/   Mid-Atlantic   Pikesville   MD              21208        250        $5,237.50
                     Vegetable
                     Box
Pilgrim Missionary  Fresh Fruit/   Midwest        Detroit      MI              48234      1,300       $24,550.00
 Baptist Church      Vegetable
                     Box
Pilgrim Rest        Fresh Fruit/   South East     Baker        FL              32531        600       $17,400.00
 Baptist Church      Vegetable
                     Box
Pilgrim Rest        Fresh Fruit/   South East     Memphis      TN              38106        810       $19,845.00
 Baptist Church--C/  Vegetable
 O Mid South Food    Box
 B.
Pilgrim Rest MBC    Precooked      Midwest        Chicago      IL              60612        144       $11,681.28
                     Meat Box
Pillar Church       Fresh Fruit/   South West     Fort Worth   TX              76112        400        $9,320.00
                     Vegetable
                     Box
Pilsen Food Pantry  Fresh Fruit/   Midwest        Chicago      IL              60608        504       $18,133.92
                     Vegetable
                     Box
Pilsen Little       Fresh Fruit/   Midwest        Chicago      IL              60608        504       $18,133.92
 Village             Vegetable
                     Box
Pilsen Little       Precooked      Midwest        Chicago      IL              60608        576       $46,725.12
 Village             Meat Box
Pilsen Neighbors    Fluid Milk     Midwest        Chicago      IL              60608         40        $1,199.60
 Community Council
Pilsen Neighbors    Fluid Milk     Midwest        Chicago      IL              60608         40        $1,402.00
 Community Council
Pilsen Neighbors    Fluid Milk     Midwest        Chicago      IL              60608         80        $2,601.60
 Community Council
Pilsen Village      Fresh Fruit/   Midwest        Chicago      IL              60608         63        $2,266.74
                     Vegetable
                     Box
Pinckney Community  Fresh Fruit/   Midwest        Pinckney     MI              48169        250        $3,737.50
 High School         Vegetable
                     Box
Pinckney Community  Fresh Fruit/   Midwest        Pinckney     MI              48169        125        $1,868.75
 Schools             Vegetable
                     Box
Pine Grove Life     Fluid Milk     South East     Greensboro   AL              36744        479        $1,911.21
 Cha.
Pine Valley         Dairy          South East     Wilmington   NC              28403        120          $600.00
 Baptist Church      Products Box
Pine Valley         Fluid Milk     South East     Wilmington   NC              28403        660        $2,640.00
 Baptist Church
Pine Valley         Fresh Fruit/   South East     Wilmington   NC              28403      1,908       $52,470.00
 Baptist Church      Vegetable
                     Box
Pine Valley         Precooked      South East     Wilmington   NC              28403        645       $12,577.50
 Baptist Church      Meat Box
Pine Valley         Fresh Fruit/   North East     Dayton       NY              14138        345        $7,883.25
 Schools             Vegetable
                     Box
Pine Valley         Fresh Fruit/   North East     South        NY              14138        458       $10,465.30
 Schools             Vegetable                     Dayton
                     Box
Pine View Baptist   Fresh Fruit/   South East     West         SC              29169        175        $5,250.00
 Church              Vegetable                     Columbia
                     Box
Pineville Elem.     Fluid Milk     South East     Pineville    KY              40977        300        $1,137.00
Piney Point         Fresh Fruit/   South West     Houston      TX              77063        836       $14,909.20
                     Vegetable
                     Box
Pio Decimo Center   Fluid Milk     South West     Tucson       AZ              85701        144          $676.80
Pioneer Bible       Combination    South West     Grapevine    TX              76051         40        $1,398.80
 Translator          Box
Pioneer Bible       Dairy          South West     Grapevine    TX              76051         40        $1,830.40
 Translator          Products Box
Pioneer Bible       Fresh Fruit/   South West     Grapevine    TX              76051        116        $1,839.60
 Translator          Vegetable
                     Box
Pioneer Elementary  Fresh Fruit/   Western        Brentwood    CA              94513      2,785       $86,784.05
 School              Vegetable
                     Box
Pioneer Trail       Fluid Milk     Mountain       Jefferson    MO              65101        306          $688.50
 School JC                          Plains         City
Pisadas De Amor     Combination    Mid-Atlantic   Manati       PR              00674        672       $58,296.00
                     Box
Pitcairn Food       Dairy          Mid-Atlantic   Pitcairn     PA              15140        165        $3,469.95
 Pantry              Products Box
Piti Mayor's        Fresh Fruit/   Western        Piti         Guam            96915        903       $54,180.00
 office              Vegetable
                     Box
Pitt Co. Schools    Fresh Fruit/   South East     Greenville   NC              27858        864       $30,853.44
                     Vegetable
                     Box
Pitt Co. Schools    Fresh Fruit/   South East     Greenville   NC              27834        864       $30,853.44
                     Vegetable
                     Box
Pitt Co. Schools    Fresh Fruit/   South East     Winterville  NC              28590        864       $30,853.44
 Creek Side          Vegetable
                     Box
Place of Forsyth    Fluid Milk     South East     Cumming      GA              30040      2,532        $9,949.08
 Co.
Place of Grace      Fluid Milk     South East     Rockingham   NC              28379     20,736       $80,792.64
 Campus
Place of Grace      Fresh Fruit/   South East     Rockingham   NC              28379      9,624      $112,333.60
 Campus              Vegetable
                     Box
Placer Food Bank    Fluid Milk     Western        Roseville    CA              95678      2,688       $26,853.12
Plainfield Tower    Fluid Milk     Mid-Atlantic   Union        NJ              07060         48          $946.56
 West
Plainfield Tower    Fresh Fruit/   Mid-Atlantic   Union        NJ              07060        144        $3,309.12
 West                Vegetable
                     Box
Plainville Jackson  Fresh Fruit/   North East     Plainville   MA              02762        273        $5,992.35
 Sch.                Vegetable
                     Box
Planada USD         Combination    Western        Planada      CA              95365      1,896       $99,426.24
                     Box
Planada USD         Fresh Fruit/   Western        Planada      CA              95365        144        $5,303.52
                     Vegetable
                     Box
Plant Operations    Combination    South East     Ft. Valley   GA              31030        560       $42,588.00
 Fort Valley State   Box
 University
Plantation Park     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        960       $19,200.00
 Heights Urban       Vegetable
 Farm                Box
Planters/Pastor of  Fluid Milk     Mid-Atlantic   Rockville    MD              20855        384        $7,077.12
 Dignity Inclusion
 and Belonging
Planters/Pastor of  Fluid Milk     Mid-Atlantic   Gaithersbur  MD              20878        576       $10,615.68
 Dignity Inclusion                                 g
 and Belonging
Plateau Outreach    Fresh Fruit/   Western        Enumclaw     WA              98022        300        $8,250.00
 Ministries          Vegetable
                     Box
Platte County High  Fresh Fruit/   Mountain       Platte City  MO              64079         40        $1,036.00
                     Vegetable      Plains
                     Box
Platte County R-3   Combination    Mountain       Platte City  MO              64079        120        $4,196.40
 School Distr.       Box            Plains
Platte County R-3   Fresh Fruit/   Mountain       Platte City  MO              64079        360        $7,122.00
 School Distr.       Vegetable      Plains
                     Box
Plattsburgh City    Dairy          North East     Plattsburgh  NY              12901        950       $22,800.00
 Schools             Products Box
Plattsburgh City    Fresh Fruit/   North East     Plattsburgh  NY              12901        180        $3,600.00
 Schools             Vegetable
                     Box
Pleasant Grove      Fresh Fruit/   Mid-Atlantic   Marbury      MD              20658        250        $5,237.50
                     Vegetable
                     Box
Pleasant Grove      Fresh Fruit/   South East     Marietta     GA              30064        840       $16,800.00
 Baptist Church      Vegetable
                     Box
Pleasant Grove      Fresh Fruit/   South East     Creedmoor    NC              27522      3,126       $85,965.00
 Baptist Church      Vegetable
                     Box
Pleasant Hill       Dairy          South East     Saucier      MS              39574        640       $17,971.20
 Baptist Chu.        Products Box
Pleasant Hill       Fresh Fruit/   South East     Saucier      MS              39574        384        $6,489.60
 Baptist Chu.        Vegetable
                     Box
Pleasant Hill       Precooked      South East     Saucier      MS              39574      1,344       $55,184.64
 Baptist Chu.        Meat Box
Pleasant Ridge UMC  Dairy          South East     State Line   MS              39362        480       $13,478.40
                     Products Box
Pleasant Ridge UMC  Precooked      South East     State Line   MS              39362      1,512       $62,082.72
                     Meat Box
Pleasant View       Fluid Milk     South East     Williamsbur  KY              40769        308        $1,167.32
 Elem.                                             g
Pleasantville       Fresh Fruit/   South West     Houston      TX              77039        392        $6,660.08
 Senior Apts.        Vegetable
                     Box
Pleasnt Gift MB     Dairy          South East     Canton       MS              39194        240        $6,739.20
 Church              Products Box
Pleasnt. Gift MB    Precooked      South East     Canton       MS              39194        336       $13,796.16
 Church              Meat Box
Pleasure Chapel--C/ Fresh Fruit/   South East     Memphis      TN              38127        324        $7,938.00
 O Mid South Food    Vegetable
 Bank                Box
Plesant Grove       Combination    South East     Lizella      GA              31052        560       $42,588.00
 Missionary          Box
 Baptist Church
Plum Food Pantry    Dairy          Mid-Atlantic   Pittsburgh   PA              15239         90        $1,892.70
                     Products Box
Plum Street         Fresh Fruit/   South East     Grenada      MS              38901      1,896       $37,825.20
 Kitchen             Vegetable
                     Box
Plummer/Worley      Combination    Western        Plummer      ID              83851        750       $35,000.00
 SD#44               Box
Plummer/Worley      Fresh Fruit/   Western        Plummer      ID              83851        500       $15,000.00
 SD#44               Vegetable
                     Box
Plymouth Housing    Fresh Fruit/   South East     Plymouth     NC              27962        776       $27,710.96
 Authority           Vegetable
                     Box
Plymouth Square     Dairy          Midwest        Detroit      MI              48228        210        $6,090.00
                     Products Box
Plymouth Square     Fresh Fruit/   Midwest        Detroit      MI              48228        210        $4,620.00
                     Vegetable
                     Box
Plympton COA        Combination    North East     Plympton     MA              02367         30          $984.00
                     Box
Plympton COA        Precooked      North East     Plympton     MA              02367         30        $1,629.00
                     Meat Box
Pocasset Pokanoket  Fresh Fruit/   North East     Auburn       MA              01501        109        $3,059.58
 Land Trust          Vegetable
                     Box
Pocasset Pokanoket  Fresh Fruit/   North East     Auburn       MA              01503         13          $263.90
 Land Trust          Vegetable
                     Box
Pocasset Pokanoket  Fresh Fruit/   North East     Auburn       MA              01504         22          $713.24
 Land Trust          Vegetable
                     Box
Pocasset Pokanoket  Fresh Fruit/   North East     Auburn       MA              01505         32        $1,160.00
 Land Trust          Vegetable
                     Box
Pocasset Pokanoket  Fresh Fruit/   North East     Auburn       MA              01506         22          $548.68
 Land Trust          Vegetable
                     Box
Poe Homes           Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21201      1,450       $29,000.00
                     Vegetable
                     Box
Polaris             Combination    Midwest        Chicago      IL              60624        145        $9,007.40
                     Box
Polaris Charter     Combination    Midwest        Chicago      IL              60624        230       $15,451.40
 Academy             Box
Polaris Charter     Dairy          Midwest        Chicago      IL              60624        115        $7,492.25
 Academy             Products Box
Polaris Charter     Fresh Fruit/   Midwest        Chicago      IL              60624        230       $14,733.80
 Academy             Vegetable
                     Box
Police Athletic     Fresh Fruit/   Mountain       Kansas City  KS              66101        260        $6,734.00
 League KCK          Vegetable      Plains
                     Box
Polk County         Fluid Milk     South West     Livingston   TX              77351      1,400        $4,204.00
 Mission
Pomaria-Garmany     Fresh Fruit/   South East     Pomeria      SC              29126        710       $21,300.00
                     Vegetable
                     Box
Pomme De Terre      Combination    Mountain       Weaubleau    MO              65774      1,440       $50,356.80
 Youth Baseball      Box            Plains
Pomme De Terre      Dairy          Mountain       Weaubleau    MO              65774      2,112       $96,645.12
 Youth Baseball      Products Box   Plains
Pomme De Terre      Fresh Fruit/   Mountain       Weaubleau    MO              65774        294        $5,615.40
 Youth Baseball      Vegetable      Plains
                     Box
Pomona Valley       Fresh Fruit/   Western        Pomona       CA              91767      1,920       $48,000.00
 Hospital            Vegetable
                     Box
Ponca City Church   Fluid Milk     South West     Ponca City   OK              74601        495       $11,850.30
Ponca City Church   Fresh Fruit/   South West     Ponca City   OK              74601        539       $12,558.70
                     Vegetable
                     Box
Ponce Neighborhood  Combination    Mid-Atlantic   Ponce        PR              00716        672       $58,296.00
 Housing Services    Box
Ponotoc County      Fresh Fruit/   South East     Pontotoc     MS              38863        378        $9,261.00
 Baptist             Vegetable
 Association--C/O    Box
 Mid South
Pontiac Meals on    Fresh Fruit/   Midwest        Pontiac      MI              48341      1,100       $16,445.00
 Wheels              Vegetable
                     Box
Pontificia          Combination    Mid-Atlantic   Ponce        PR              00716      6,720      $615,888.00
 Universidad         Box
 Catolica De PR
Pontotoc Ag Center  Fresh Fruit/   South East     Pontotoc     MS              38863        616       $12,289.20
                     Vegetable
                     Box
Pony Express        Fresh Fruit/   Mountain       Marysville   KS              66508        250       $10,000.00
 Partnership for     Vegetable      Plains
 Children            Box
Poolsaloon LLC      Fresh Fruit/   Western        Kent         WA              98032         10          $270.00
 Meeker              Vegetable
                     Box
Pop Warner          Fresh Fruit/   Western        Lihue        HI              96766        350       $13,650.00
                     Vegetable
                     Box
POPC/SHFB V015      Fluid Milk     South East     Palm Coast   FL              32137        200          $762.00
Poplar Bluff        Fluid Milk     Mountain       Poplar       MO              63901      3,888        $8,748.00
 School District                    Plains         Bluff
Poplar Bluff        Fresh Fruit/   Mountain       Poplar       MO              63901      3,120       $80,808.00
 School District     Vegetable      Plains         Bluff
                     Box
Por Mi Hogar        Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        168        $6,552.00
                     Vegetable
                     Box
Porch               Fresh Fruit/   South East     Chapel Hill  NC              27516        500        $7,700.00
                     Vegetable
                     Box
Porch Hillsborough  Fresh Fruit/   South East     Hillsboroug  NC              27278        400        $4,600.00
                     Vegetable                     h
                     Box
Port Huron Middle   Dairy          Midwest        Port Huron   MI              48060      1,800       $52,200.00
 School              Products Box
Port Huron Middle   Fresh Fruit/   Midwest        Port Huron   MI              48060      2,150       $45,025.00
 School              Vegetable
                     Box
Port Huron          Dairy          Midwest        Port Huron   MI              48060      1,800       $52,200.00
 Northern High       Products Box
 School
Port Huron          Fresh Fruit/   Midwest        Port Huron   MI              48060      2,150       $45,025.00
 Northern High       Vegetable
 School              Box
Portage County      Precooked      Midwest        Ravenna      OH              44266        100        $4,669.00
 Salvation Army      Meat Box
Portage Food        Dairy          Midwest        Portage      IN              46368        336       $12,432.00
 Pantry              Products Box
Portamento of Hope  Combination    South East     Brandon      FL              33511      1,400      $106,470.00
                     Box
Portland Adventist  Fluid Milk     Western        Portland     OR              97220        525        $2,782.50
 Com.
Portville School    Fresh Fruit/   North East     Portville    NY              14770        550       $12,567.50
                     Vegetable
                     Box
Posada De Jesus     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        313       $12,207.00
                     Vegetable
                     Box
Posada De Jesus     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        119        $4,641.00
 1520 Boulevard      Vegetable
 Cristobal Colon     Box
Post Falls Food     Combination    Western        Post Falls   ID              83854      1,008       $47,040.00
 Bank                Box
Post Falls Food     Fresh Fruit/   Western        Post Falls   ID              83854      1,008       $30,240.00
 Bank                Vegetable
                     Box
Potlatch            Fresh Fruit/   Western        Potlatch     ID              83855         60        $1,800.00
 Presbyterian        Vegetable
 Church              Box
Potluck Food        Dairy          South West     North        AR              72114      1,056       $48,322.56
 Rescue              Products Box                  Little
                                                   Rock
Potluck Food        Fluid Milk     South West     North        AR              72114        589       $14,100.66
 Rescue                                            Little
                                                   Rock
Potluck Food        Fresh Fruit/   South West     North        AR              72114      2,420       $36,802.00
 Rescue              Vegetable                     Little
                     Box                           Rock
Potosi Warehouse R- Fresh Fruit/   Mountain       Potosi       MO              63664        200        $5,500.00
 3                   Vegetable      Plains
                     Box
Potsdam Ctr. Food   Dairy          North East     Potsdam      NY              13676        645       $27,864.00
 Pantry              Products Box
Potsdam Ctr. Food   Fresh Fruit/   North East     Potsdam      NY              13676        588       $12,936.00
 Pantry              Vegetable
                     Box
Potsdam Ctr. Food   Precooked      North East     Potsdam      NY              13676        588       $31,516.80
 Pantry              Meat Box
Potters House       Fresh Fruit/   Midwest        Grand        MI              49509        560       $20,148.80
 Christian School    Vegetable                     Rapids
                     Box
Poverello House     Fresh Fruit/   Western        Fresno       CA              93777      5,680      $129,220.00
                     Vegetable
                     Box
Powell Butte        Combination    Western        Portland     OR              97236        120        $4,200.00
 School USDA         Box
Powell Butte        Fresh Fruit/   Western        Portland     OR              97236        630       $17,010.00
 School USDA         Vegetable
                     Box
Power Church of     Fresh Fruit/   South West     Bay City     TX              77414      3,520       $59,804.80
 Bay City            Vegetable
                     Box
Power House of      Dairy          South East     Bay St.      MS              39520        480       $13,478.40
 Deliveranc          Products Box                  Louis
Power House of      Fresh Fruit/   South East     Bay Saint    MS              39520        192        $3,244.80
 Deliveranc.         Vegetable                     Louis
                     Box
Power in the        Fresh Fruit/   Midwest        Detroit      MI              48207        500       $14,375.00
 Praises             Vegetable
                     Box
Power Ministries    Fresh Fruit/   Midwest        Detroit      MI              48238      4,020       $60,099.00
                     Vegetable
                     Box
Power of Faith      Fresh Fruit/   Midwest        Warren       MI              48089        500        $7,475.00
 Ministries          Vegetable
                     Box
Power of One        Fluid Milk     Western        Costa Mesa   CA              92626      6,600       $65,934.00
 Foundation
Power of One        Fresh Fruit/   Western        Costa Mesa   CA              92626     54,096    $1,118,258.40
 Foundation          Vegetable
                     Box
Powerhouse          Fresh Fruit/   South East     Memphis      TN              38106        540       $13,230.00
 Ministires          Vegetable
 Revival Center--C/  Box
 O Mid Sout
PR Rises Corp.      Combination    Mid-Atlantic   Guaynabo     PR              00971      1,344      $116,592.00
                     Box
Praise Temple Full  Dairy          South East     Biloxi       MS              39530        160        $4,492.80
 Gospel              Products Box
Praise Temple Full  Precooked      South West     El Paso      TX              79936      3,072      $316,876.80
 Gospel              Meat Box
Praises of Zion     Dairy          Western        Los Angeles  CA              90003      2,400       $70,128.00
                     Products Box
Praises of Zion     Fluid Milk     Western        Los Angeles  CA              90003      2,592       $25,894.08
Prayer Temple of    Fresh Fruit/   Midwest        Highland     MI              48203        200        $2,990.00
 Love                Vegetable                     Park
                     Box
Preble County       Fresh Fruit/   Midwest        Eaton        OH              45320         10          $166.50
 Council on Aging    Vegetable
 6478                Box
Preble County       Precooked      Midwest        Eaton        OH              45320         60        $2,658.20
 Council on Aging    Meat Box
 6478
Premier Charter/    Fresh Fruit/   Mountain       St. Louis    MO              63139        107        $3,424.00
 SLPS                Vegetable      Plains
                     Box
Premiera Iglesia    Combination    South West     Van Buren    AR              72956      2,304       $80,570.88
 Hispana             Box
Premiera Iglesia    Dairy          South West     Van Buren    AR              72956      1,056       $48,322.56
 Hispana             Products Box
Premiera Iglesia    Fluid Milk     South West     Van Buren    AR              72956        990       $23,700.60
 Hispana
Premiera Iglesia    Fresh Fruit/   South West     Van Buren    AR              72956      1,617       $33,148.50
 Hispana             Vegetable
                     Box
Premont Real        Fresh Fruit/   South West     Premont      TX              78375        500       $12,500.00
                     Vegetable
                     Box
Prep Academy River  Fresh Fruit/   Midwest        River Rouge  MI              48218      1,300       $19,435.00
 Rouge               Vegetable
                     Box
Preparing the Way   Combination    South West     Broken       OK              74014      1,440       $50,356.80
 Church              Box                           Arrow
Preparing the Way   Fluid Milk     South West     Broken       OK              74014        594       $14,220.36
 Church                                            Arrow
Preparing the Way   Fresh Fruit/   South West     Broken       OK              74014      1,448       $17,730.40
 Church              Vegetable                     Arrow
                     Box
Prescott Corps      Dairy          South West     Prescott     AZ              86303        912       $24,168.00
                     Products Box
Prescott Corps      Fresh Fruit/   South West     Prescott     AZ              86303      1,380       $30,153.00
                     Vegetable
                     Box
Preston Community   Combination    Western        Preston      ID              83263         50        $2,200.00
 Food Pantry         Box
Preston Community   Fresh Fruit/   Western        Preston      ID              83263         50        $1,300.00
 Food Pantry         Vegetable
                     Box
Preston Trail       Fluid Milk     South West     Frisco       TX              75035        495       $11,850.30
 Community Church
Preston Trail       Fresh Fruit/   South West     Frisco       TX              75035        539       $12,558.70
 Community Church    Vegetable
                     Box
Priest Elementary   Fresh Fruit/   Midwest        Detroit      MI              48210        100        $1,495.00
 School              Vegetable
                     Box
Primera Iglesia     Fresh Fruit/   South West     La Joya      TX              78560      1,456       $24,737.44
 Bautista La Jo      Vegetable
                     Box
Primera Iglesia     Combination    Mid-Atlantic   San German   PR              00683      1,344      $133,056.00
 Presbiteriana De    Box
 San German
Primera Iglesia     Dairy          South West     Mercedes     TX              78570      1,080       $30,618.00
 Rosa De Saron Rio   Products Box
 Grande Inc.
Prince of Peace     Fresh Fruit/   Western        Woodland     CA              91367      4,855      $120,161.25
                     Vegetable                     Hills
                     Box
Prince of Peace--C/ Fresh Fruit/   South East     Memphis      TN              38128        702       $17,199.00
 O Mid South Food    Vegetable
 Bank                Box
Prince of Peace     Dairy          Midwest        Cleveland    OH              44102        800       $19,280.00
 Ministries          Products Box
Prince of Peace     Fresh Fruit/   Midwest        Cleveland    OH              44102      1,000       $26,500.00
 Ministries          Vegetable
                     Box
Prince of           Fluid Milk     South East     Ormond       FL              32174        552        $2,112.88
 SHFBVE590                                         Beach
Prince William      Fresh Fruit/   Mid-Atlantic   Manassas     VA              20110      1,728       $39,709.44
 County of fice      Vegetable
 Emergency           Box
Princeton COA       Combination    North East     Princeton    MA              01541         20          $760.00
                     Box
Princeton COA       Precooked      North East     Princeton    MA              01541         20        $1,086.00
                     Meat Box
Princeton           Fresh Fruit/   South East     Princeton    NC              27569        200        $2,300.00
 Elementary          Vegetable
                     Box
Princeton Family    Fresh Fruit/   Mid-Atlantic   Princeton    NJ              08540        630       $11,938.50
 YMCA                Vegetable
                     Box
Pro Labore Dei      Fresh Fruit/   Midwest        Blue Island  IL              60406      2,000       $54,000.00
                     Vegetable
                     Box
Pro Labore Dei      Fresh Fruit/   Midwest        Robbins      IL              60472      1,200       $32,400.00
                     Vegetable
                     Box
Proact Foundation   Fresh Fruit/   Western        Monterey     CA              93940      1,440       $38,880.00
                     Vegetable
                     Box
Prodisee Pantry     Combination    South East     Spanish      AL              36527      2,800      $212,940.00
                     Box                           Fort
Prodisee Pantry     Fluid Milk     South East     Spanish      AL              36527      3,750       $14,587.50
                                                   Fort
Prodisee Pantry     Fresh Fruit/   South East     Spanish      AL              36527      5,400      $156,600.00
                     Vegetable                     Fort
                     Box
Producir Inc.       Combination    Mid-Atlantic   Canovanas    PR              00729      1,344       $91,896.00
                     Box
Programa Del        Combination    Mid-Atlantic   Naranjito    PR              00719        672       $33,600.00
 Adolescente De      Box
 Naranjito
Programa Pro Ayuda  Combination    Mid-Atlantic   Aguada       PR              00602      1,560      $154,440.00
 A Edad Avanzada     Box
Progressive         Fluid Milk     Mountain       Columbia     MO              65203        396          $891.00
 Missionary                         Plains
Progressive Team    Fresh Fruit/   South East     Zebulon      NC              27597      1,200       $13,800.00
 Works               Vegetable
                     Box
Project Access      Fluid Milk     Western        Santa Ana    CA              92705        105          $798.00
 Inc.
Project Access      Fresh Fruit/   Western        Santa Ana    CA              92705        210        $5,250.00
 Inc.                Vegetable
                     Box
Project Bridge      Fresh Fruit/   Western        Riverside    CA              92506        200        $5,800.00
                     Vegetable
                     Box
Project Bright      Fluid Milk     Mid-Atlantic   Temple       MD              20748      5,760      $106,018.00
 Future                                            Hills
Project Bright      Fresh Fruit/   Mid-Atlantic   Temple       MD              20748      1,000       $24,750.00
 Future              Vegetable                     Hills
                     Box
Project Destiny/    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15212        480       $14,400.00
 Destiny of Faith    Vegetable
                     Box
Project Feast       Fresh Fruit/   Western        Seattle      WA              98109          6          $165.00
                     Vegetable
                     Box
Project Home        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19130         70        $1,400.00
                     Vegetable                     a
                     Box
Project Homestead   Fluid Milk     South East     West Point   MS              39773        900        $3,591.00
Project Hope        Fluid Milk     South West     Hot Springs  AR              71901        188        $4,500.72
Project Hope        Fresh Fruit/   South West     Hot Springs  AR              71901      1,440       $13,968.00
                     Vegetable
                     Box
Project Host        Dairy          South East     Greenville   SC              29601          7          $170.45
                     Products Box
Project Host        Fresh Fruit/   South East     Greenville   SC              29601          8          $170.00
                     Vegetable
                     Box
Project Host        Precooked      South East     Greenville   SC              29601        192        $7,145.76
                     Meat Box
Project New Hope    Fresh Fruit/   North East     Worcester    MA              01603         14          $362.96
                     Vegetable
                     Box
Project of Easton   Fresh Fruit/   Mid-Atlantic   Easton       PA              18042        840       $16,800.00
                     Vegetable
                     Box
Project One on One  Fresh Fruit/   Western        Chula Vista  CA              91911        480       $12,000.00
                     Vegetable
                     Box
Project Share       Fluid Milk     Mid-Atlantic   Carlisle     PA              17013        720       $14,198.40
Project Share       Fresh Fruit/   Mid-Atlantic   Carlisle     PA              17013        588       $14,118.24
                     Vegetable
                     Box
Project Soup        Fresh Fruit/   North East     Somerville   MA              02145         80        $2,275.20
                     Vegetable
                     Box
Project Tours       Fresh Fruit/   Mid-Atlantic   Gwynn Oak    MD              21207        315        $5,969.25
 Liberty Elem.       Vegetable
                     Box
Promedica Farms     Fresh Fruit/   Midwest        Tecumseh     MI              48286        250        $3,737.50
                     Vegetable
                     Box
Promise Healthcare  Dairy          Midwest        Champaign    IL              61820        100        $2,975.00
 Food                Products Box
Promise Healthcare  Fresh Fruit/   Midwest        Champaign    IL              61820        100        $2,750.00
 Food                Vegetable
                     Box
Promiseland--C/O    Fresh Fruit/   South East     Memphis      TN              38114        918       $22,491.00
 Mid South Food      Vegetable
 Bank                Box
Prospect AMEC       Combination    South East     Fortson      GA              31808        560       $42,588.00
                     Box
Prospect AMEC       Fresh Fruit/   South East     Fortson      GA              31808        700       $13,258.00
                     Vegetable
                     Box
Prosper Christian   Fresh Fruit/   Midwest        Falmouth     MI              49632        714       $25,689.72
 Reformed Church     Vegetable
                     Box
Providence Baptist  Fresh Fruit/   South East     Laurel       MS              39440        500       $30,000.00
 Church              Vegetable
                     Box
Providence Comm.    Fluid Milk     South East     Providence   KY              42450      1,017        $2,288.25
 Food Bank
Providence Hlth.    Fresh Fruit/   Western        Seattle      WA              98108        240        $6,480.00
 Sr. Regina          Vegetable
                     Box
Providence House    Fluid Milk     Midwest        Cleveland    OH              44113        120          $398.40
Providence Little   Fluid Milk     Western        Wilmington   CA              90744        420        $3,192.00
 Company of Mary
Providence Place    Fluid Milk     South West     San Antonio  TX              78240        320          $934.40
Providence UMC      Fresh Fruit/   South East     Abbeville    MS              38601        728       $14,523.60
                     Vegetable
                     Box
Provision of Grace/ Fluid Milk     Mid-Atlantic   Philadelphi  PA              19141         96        $1,893.12
 CFF                                               a
Provision of Grace/ Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19141        288        $6,618.24
 CFF                 Vegetable                     a
                     Box
Proviso Pantry      Fresh Fruit/   Midwest        Westchester  IL              60154        189        $6,800.22
                     Vegetable
                     Box
Proviso Pantry      Precooked      Midwest        Westchester  IL              60154         72        $5,840.64
                     Meat Box
Proviso Pantry      Precooked      Midwest        Melrose      IL              60160        288       $23,362.56
                     Meat Box                      Park
Proviso Pantry Box  Dairy          Midwest        Melrose      IL              60154        150        $3,750.00
                     Products Box                  Park
Proviso Pantry Box  Dairy          Midwest        Westchester  IL              60154         70        $1,750.00
                     Products Box
Proyecto Matria     Fresh Fruit/   Mid-Atlantic   Orocovis     PR              00720      1,680       $67,200.00
 (Bajuras)           Vegetable
                     Box
Proyecto Matria     Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        336       $13,440.00
 (Caguas)            Vegetable
                     Box
Proyecto Matria     Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00680        336       $13,440.00
 (Mayaguez)          Vegetable
                     Box
Proyecto Matria     Fresh Fruit/   Mid-Atlantic   Orocovis     PR              00720        336       $13,440.00
 (Orocovis)          Vegetable
                     Box
Proyecto Pastoral   Fluid Milk     Western        Los Angeles  CA              90033        525        $3,990.00
Proyecto Pastoral   Fresh Fruit/   Western        Los Angeles  CA              90033        210        $5,250.00
                     Vegetable
                     Box
Proyecto Peninsula  Combination    Mid-Atlantic   San Juan     PR              00921      2,688      $233,184.00
 De Cantera          Box
Prymed Medical      Combination    Mid-Atlantic   Ciales       PR              00638        672       $58,296.00
 Care                Box
Pueblo Crane        Fluid Milk     South West     Yuma         AZ              85364        150        $1,182.00
Pueblo Crane        Fresh Fruit/   South West     Yuma         AZ              85364        300        $8,250.00
                     Vegetable
                     Box
Puente              Fresh Fruit/   Western        Pescadero    CA              94060      1,020       $32,476.80
                     Vegetable
                     Box
Puerto Rico Rise    Combination    Mid-Atlantic   Aguas        PR              00703         87        $4,350.00
 Up                  Box                           Buenas
Puerto Rico Rise    Combination    Mid-Atlantic   Arecibo      PR              00612      1,344      $124,824.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Barranquita  PR              00794        672       $66,528.00
 Up                  Box                           s
Puerto Rico Rise    Combination    Mid-Atlantic   Caguas       PR              00725         50        $4,950.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Fajardo      PR              00738        672       $66,528.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Guanica      PR              00653        107       $10,593.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Naguabo      PR              00718        672       $66,528.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Ponce        PR              00716      1,532      $143,436.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   San German   PR              00683      2,592      $208,392.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $124,824.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   San Juan     PR              00925        300       $22,350.00
 Up                  Box
Puerto Rico Rise    Combination    Mid-Atlantic   Yauco        PR              00698        402       $39,798.00
 Up                  Box
Puerto Rico Somos   Combination    Mid-Atlantic   Anasco       PR              00610      1,344      $116,592.00
 Gente               Box
Puerto Rico         Combination    Mid-Atlantic   Guayama      PR              00784        672       $66,528.00
 Uniendo Familias    Box
Puget Sound         Combination    Western        Tacoma       WA              98409        360       $12,600.00
 Foursquare          Box
Puget Sound         Fresh Fruit/   Western        Tacoma       WA              98409        375        $8,343.75
 Foursquare          Vegetable
                     Box
Puget Sound Labor   Combination    Western        Seattle      WA              98121         60        $2,100.00
 Agency              Box
Puget Sound Labor   Dairy          Western        Seattle      WA              98121        250        $7,500.00
 Agency              Products Box
Puget Sound Labor   Fresh Fruit/   Western        Seattle      WA              98121        540       $14,580.00
 Agency              Vegetable
                     Box
Pulaski School      Dairy          North East     Pulaski      NY              13142        162        $6,998.40
 District            Products Box
Pulaski School      Fresh Fruit/   North East     Pulaski      NY              13142        126        $2,772.00
 District            Vegetable
                     Box
Pulaski School      Precooked      North East     Pulaski      NY              13142        126        $6,753.60
 District            Meat Box
Purchase Area Dev.  Dairy          South East     Mayfield     KY              42066      1,350       $33,750.00
 Dist.               Products Box
Purdue Ext.--       Fluid Milk     Midwest        Aurora       IN              47001      4,320       $17,280.00
 Dearborn Co.
Purpose and         Fluid Milk     South East     Geneva       AL              36340        608        $2,376.32
 Promise
Puyallup Assembly   Fresh Fruit/   Western        Puyallup     WA              98373      4,037       $67,557.60
 Hall of Jehovah's   Vegetable
 Witness             Box
PWC Feeding         Fresh Fruit/   Mid-Atlantic   Manassas     VA              20110      3,000       $60,000.00
 Taskforce           Vegetable
                     Box
Pyron Chapel        Fresh Fruit/   South East     Baker        FL              32531        600       $17,400.00
 Baptist             Vegetable
                     Box
Quabbin Harwick     Fresh Fruit/   North East     Gilbertvill  MA              01031        329        $7,221.55
 Elem. Sch.          Vegetable                     e
                     Box
Quabbin             Fresh Fruit/   North East     Hubbardston  MA              01005        329        $7,221.55
 Hubbardston         Vegetable
 Center              Box
Quabbin Reg Middle  Fresh Fruit/   North East     Barre        MA              01005        609       $13,367.55
 High Sch.           Vegetable
                     Box
Quakertown Food     Precooked      Mid-Atlantic   Quakertown   PA              18951         50          $900.00
 Pantry              Meat Box
Queen Creek High    Fresh Fruit/   South West     Queen Creek  AZ              85142      1,600       $44,000.00
                     Vegetable
                     Box
Queen Creek         Fresh Fruit/   South West     Queen Creek  AZ              85142      5,200      $143,000.00
 Warehouse           Vegetable
                     Box
Queen               Fluid Milk     Western        Hilo         HI              96720        156          $652.08
 Lili`uokalani
 Trust
Queen of Angels     Fresh Fruit/   Western        Riverside    CA              92501        360       $10,440.00
 Catholic Church     Vegetable
                     Box
Queens Economic     Fresh Fruit/   North East     Kew Gardens  NY              11424      1,512       $60,464.88
 Development         Vegetable
 Corporation         Box
Queens              Fresh Fruit/   South West     Houston      TX              77017        512        $8,698.88
 Intermediate        Vegetable
                     Box
Queen's Manor       Fresh Fruit/   Mid-Atlantic   Mount        MD              20712        900       $18,000.00
 (Cafe)              Vegetable                     Rainier
                     Box
Queenstown          Fresh Fruit/   Mid-Atlantic   Mount        MD              20712      2,700       $54,000.00
 Apartments          Vegetable                     Rainier
                     Box
Quincy SD Senior    Fresh Fruit/   Midwest        Quincy       IL              62301        100        $2,750.00
 HS                  Vegetable
                     Box
Race for A          Fluid Milk     South East     Memphis      TN              38128      4,224       $16,431.36
 Healthie.
Rachell L Gray      Fresh Fruit/   Mid-Atlantic   Elkridge     MD              21075        350        $7,332.50
 Community           Vegetable
 Foundation          Box
Racine County Food  Dairy          Midwest        Racine       WI              53403        600       $14,562.00
 Bank                Products Box
Racine County Food  Fresh Fruit/   Midwest        Racine       WI              53403        450        $9,981.00
 Bank                Vegetable
                     Box
Racine County Food  Precooked      Midwest        Racine       WI              53403      1,170       $52,694.10
 Bank                Meat Box
Radiant Church      Combination    South West     Surprise     AZ              85374      1,440       $50,356.80
                     Box
Rafter J Cowboy     Fresh Fruit/   South West     Terrell      TX              75160      3,376       $57,358.24
 Church              Vegetable
                     Box
Ram in the Bush     Fresh Fruit/   South East     Memphis      TN              38128        648       $15,876.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Ram Nutritional     Fluid Milk     South West     Zapata       TX              78076     18,100       $52,852.00
 Svs.
Ramah Navajo        Fresh Fruit/   South West     Ramah        NM              87321      1,560       $39,000.00
 Chapter             Vegetable
                     Box
Ramah Navajo        Precooked      South West     Ramah        NM              87321      1,536      $158,438.40
 Chapter             Meat Box
Rancho Viejo        Fluid Milk     South West     Yuma         AZ              85364        485        $3,821.80
 Salida
Rancho Viejo        Fresh Fruit/   South West     Yuma         AZ              85364        840       $23,100.00
 Salida              Vegetable
                     Box
Randall Memorial    Fluid Milk     Mid-Atlantic   Washington   DC              20019      1,920       $35,356.80
 United Methodist
 Church
Range Elementary    Fresh Fruit/   South West     Mesquite     TX              75150      4,662       $75,187.88
 Brighter Bites      Vegetable
                     Box
Rankin Christian    Fresh Fruit/   Mid-Atlantic   Rankin       PA              15104        280        $8,400.00
 Center              Vegetable
                     Box
Rap4Bronx (York     Fresh Fruit/   North East     Bronx        NY              10473      1,400       $27,958.00
 Film Company)       Vegetable
                     Box
Raritan Bay Area    Fresh Fruit/   Mid-Atlantic   Perth Amboy  NJ              08861        439        $8,319.05
 YMCA                Vegetable
                     Box
Raritan Valley      Fresh Fruit/   Mid-Atlantic   East         NJ              08816        378        $7,163.10
 YMCA                Vegetable                     Brunswick
                     Box
Raritan Valley      Fresh Fruit/   Mid-Atlantic   Jamesburg    NJ              08831      1,386       $26,264.70
 YMCA Jamesburg      Vegetable
                     Box
Ravenswood          Fresh Fruit/   Midwest        Chicago      IL              60640        378       $13,600.44
                     Vegetable
                     Box
Ravenswood          Precooked      Midwest        Chicago      IL              60640        144       $11,681.28
                     Meat Box
Ravenswood          Precooked      Midwest        Chiacgo      IL              60640         72        $5,840.64
                     Meat Box
Ravenswood          Precooked      Midwest        Chicago      IL              60640        504       $40,884.48
                     Meat Box
Ravenswood          Dairy          Midwest        Chicago      IL              60613        150        $3,750.00
 Community Box       Products Box
Ravenswood          Precooked      Midwest        Chicago      IL              60613        144       $11,681.28
 Community           Meat Box
 Services
Raymond Jordan Sr.  Combination    North East     Springfield  MA              01109        135        $4,428.00
 Ct.                 Box
Raymond Jordan Sr.  Precooked      North East     Springfield  MA              01109        171        $9,285.30
 Ct.                 Meat Box
Raymore Elementary  Fresh Fruit/   Mountain       Raymore      MO              64083        160        $4,144.00
                     Vegetable      Plains
                     Box
Raytown Emergency   Combination    Mountain       Kansas City  MO              64134         42        $1,468.74
 Assistance          Box            Plains
Raytown Emergency   Dairy          Mountain       Kansas City  MO              64134        432       $19,768.32
 Assistance          Products Box   Plains
Raytown Emergency   Fresh Fruit/   Mountain       Kansas City  MO              64134      1,446       $30,851.40
 Assistance          Vegetable      Plains
                     Box
RCCG Shiloh Mega    Fresh Fruit/   South West     Sugar Land   TX              77498      1,344       $22,834.56
 Parish              Vegetable
                     Box
RCMA                Fluid Milk     South East     Fellsmere    FL              32948        560        $2,178.40
RCMA                Fluid Milk     South East     Lake Placid  FL              33852        288        $1,120.32
RCMA                Fluid Milk     South East     Labelle      FL              33935        200          $778.00
RCMA--Vero Beach    Fluid Milk     South East     Vero Beach   FL              32967        144          $560.16
RCMA Balm. CDC      Fluid Milk     South East     Wimauma      FL              33598        240          $941.60
RCMA Bowling Green  Fluid Milk     South East     Bowling      FL              33834        160          $606.40
                                                   Green
RCMA Estancia CDC   Fluid Milk     South East     Wimauma      FL              33598        464        $1,812.16
RCMA Fernando Pro   Fluid Milk     South East     Florida      FL              33034        184          $697.36
                                                   City
RCMA Flager CDC     Fluid Milk     South East     Bunnell      FL              32110        160          $606.40
RCMA Fred Dennis    Fluid Milk     South East     Wauchula     FL              33873        300        $1,177.00
RCMA Grove Pt. CDC  Fluid Milk     South East     Ruskin       FL              33570        240          $957.60
RCMA Nocatee CDC    Fluid Milk     South East     Arcadia      FL              34266        362        $1,419.38
RCMA Palmetto CDC   Fluid Milk     South East     Palmetto     FL              34221        276        $1,070.84
RCMA Redinds CDC    Fluid Milk     South East     Homestead    FL              33033        624        $2,396.96
RCMA Ruskin Inf.    Fluid Milk     South East     Ruskin       FL              33570        208          $802.72
 CDC
RCMA Sebring CDC    Fluid Milk     South East     Sebring      FL              33870        240          $909.60
RCMA Smith Brown    Fluid Milk     South East     Arcadia      FL              34266        360        $1,412.40
RCMA South Dade     Fluid Milk     South East     Homestead    FL              33033        944        $3,670.56
 CDC
RCMA Wimauma EE     Fluid Milk     South East     Wimauma      FL              33598        420        $1,643.80
 CDC
Reach               Fresh Fruit/   South East     Eutaw        AL              35462      2,760       $71,622.00
                     Vegetable
                     Box
Reach Church        Fluid Milk     South West     Springdale   AR              72762        495       $11,850.30
Reach Church        Fresh Fruit/   South West     Springdale   AR              72762      1,056       $10,243.20
                     Vegetable
                     Box
Reach Uplift--C/O   Fresh Fruit/   South East     Millington   TN              38053      1,026       $25,137.00
 Mid South Food      Vegetable
 Bnak                Box
Reachback           Combination    South East     Orlando      FL              32805      1,344      $102,211.20
 Foundation Inc.     Box
Reaching Maximum    Fluid Milk     South West     Windcrest    TX              78239        240          $700.80
 In
Reading COA         Combination    North East     Reading      MA              01867         20          $656.00
                     Box
Reading COA         Precooked      North East     Reading      MA              01867         20        $1,086.00
                     Meat Box
Real Hope--         Fresh Fruit/   South West     Prescott     AZ              86314      5,760      $125,856.00
 Prescott Valley     Vegetable                     Valley
                     Box
Real Life           Dairy          South East     Memphis      TN              38108      1,080       $27,000.00
 Ministries          Products Box
Rebirth Christian   Fresh Fruit/   South East     Birmingham   AL              35215        740       $19,203.00
 Fellowship          Vegetable
                     Box
Rebuild Bay County  Fresh Fruit/   South East     Panama City  FL              32405      1,200       $34,800.00
 Inc.                Vegetable
                     Box
Red Bank Family     Fresh Fruit/   Mid-Atlantic   Red Bank     NJ              07701      1,071       $20,295.45
 YMCA                Vegetable
                     Box
Red Bank Valley     Fluid Milk     Mid-Atlantic   New          PA              16242        432        $5,103.00
 Food Bank                                         Bethlehem
Red Cliff           Dairy          Midwest        Bayfield     WI              54814        270        $6,552.90
 Reservation Food    Products Box
Red Cliff           Fresh Fruit/   Midwest        Bayfield     WI              54814        300        $4,995.00
 Reservation Food    Vegetable
                     Box
Red Cliff           Precooked      Midwest        Bayfield     WI              54814      1,234       $42,968.56
 Reservation Food    Meat Box
Red Creek           Fresh Fruit/   South East     Wiggins      MS              39577        432        $7,300.80
                     Vegetable
                     Box
Red Oak Baptist     Fresh Fruit/   South East     Baker        FL              32531        300        $8,700.00
 Church              Vegetable
                     Box
Red Sands           Fresh Fruit/   South West     Winslow      AZ              86047      1,820       $34,762.00
 Christian School    Vegetable
                     Box
Red Top Middle      Fresh Fruit/   South East     Emerson      GA              30137        840       $15,909.60
 School              Vegetable
                     Box
Redeemed for A      Fluid Milk     Mid-Atlantic   Philadelphi  PA              19148        140        $4,536.00
 Cause Outreach                                    a
Redeemer Crisis     Dairy          Midwest        Cleveland    OH              44113        195        $4,875.00
 Center              Products Box
Redeemer Lutheran   Dairy          Midwest        Peoria       IL              61201        100        $2,975.00
                     Products Box
Redeemer UMC        Fresh Fruit/   Midwest        Harper       MI              48225        190        $5,462.50
 Church              Vegetable                     Woods
                     Box
Redeeming Grace     Fresh Fruit/   Midwest        Chicago      IL              60643        756       $27,200.88
                     Vegetable
                     Box
Redeeming Grace     Precooked      Midwest        Chicago      IL              60643      1,368      $110,972.16
                     Meat Box
Redemption Social   Combination    Mountain       Kansas City  MO              64111        672       $23,499.84
 Services Center     Box            Plains
Redemption Social   Combination    Mountain       Kansas City  MO              64118        798       $27,906.06
 Services Center     Box            Plains
Redemption Social   Dairy          Mountain       Kansas City  MO              64111      1,956       $89,506.56
 Services Center     Products Box   Plains
Redemption Social   Fresh Fruit/   Mountain       Kansas City  MO              64111      2,212       $47,979.60
 Services Center     Vegetable      Plains
                     Box
Redford Church      Fresh Fruit/   Midwest        Detroit      MI              48219        300        $8,625.00
                     Vegetable
                     Box
Redford             Fresh Fruit/   Midwest        Redford      MI              48240         75        $1,121.25
 Distinctive         Vegetable
 College             Box
Redland Ahead       Fresh Fruit/   South East     Homestead    FL              33031      3,440       $86,000.00
                     Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        160        $4,000.00
 Carre Four          Vegetable
 Supportive          Box
 Housing
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031      1,600       $40,000.00
 Catholic            Vegetable
 Charities           Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        400       $10,000.00
 Centro Mater East   Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        800       $20,000.00
 Curley House        Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031         50        $1,250.00
 Diaspora Art        Vegetable
 Group               Box
Redland Ahead--Fiu  Fresh Fruit/   South East     Homestead    FL              33031        160        $4,000.00
 Outreach            Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        400       $10,000.00
 Johnny Farias       Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031      3,040       $76,000.00
 Joint Commission    Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        640       $16,000.00
 Joshua's Heart      Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        160        $4,000.00
 Mother's Fighting   Vegetable
 for Justice         Box
Redland Ahead--New  Fresh Fruit/   South East     Homestead    FL              33031        240        $6,000.00
 Horizon             Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        480       $12,000.00
 Penny and Larry     Vegetable
 Thompson Park       Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        480       $12,000.00
 Redland Christian   Vegetable
 Migrant Associat    Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        840       $21,000.00
 South Dade          Vegetable
 Veteran Alliance    Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031         80        $2,000.00
 Sweet Home          Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        560       $14,000.00
 True Gospel         Vegetable
 Holiness Church     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031        240        $6,000.00
 United Way          Vegetable
                     Box
Redland Ahead/      Fresh Fruit/   South East     Homestead    FL              33031        320        $8,000.00
 Health in the       Vegetable
 Hood                Box
Redland Ahead/      Fresh Fruit/   South East     Homestead    FL              33031        240        $6,000.00
 Marlon Hill         Vegetable
                     Box
Redland Ahead--     Fresh Fruit/   South East     Homestead    FL              33031         80        $2,000.00
 Community Farm      Vegetable
                     Box
Redlands Unified    Dairy          Western        Redlands     CA              92374     15,900      $464,598.00
 School District     Products Box
Redlands Unified    Fluid Milk     Western        Redlands     CA              92374      8,448       $84,395.52
 School District
Redwood Empire      Combination    Western        Santa Rosa   CA              95403     33,698      $530,552.60
 Food Bank           Box
Redwood Empire      Combination    Western        Cotati       CA              94931      5,100      $178,500.00
 Food Bank           Box
Redwood Empire      Dairy          Western        Cotati       CA              94931     33,538    $1,006,140.00
 Food Bank           Products Box
Redwood Empire      Dairy          Western        Santa Rosa   CA              95403     22,800      $684,000.00
 Food Bank           Products Box
Redwood Empire      Fresh Fruit/   Western        Santa Rosa   CA              95403     85,258    $2,483,432.80
 Food Bank           Vegetable
                     Box
Reeths-Puffer High  Fresh Fruit/   Midwest        Muskegon     MI              49445        336       $12,089.28
 School              Vegetable
                     Box
Refinery Mission    Fluid Milk     South West     Opelousas    LA              70570        448        $1,356.88
Reflections of      Fresh Fruit/   South East     Powder       GA              30127      1,400       $26,516.00
 Trinity             Vegetable                     Springs
                     Box
Refresh Family      Fresh Fruit/   South East     Birmingham   AL              35215      2,620       $67,989.00
 Church              Vegetable
                     Box
Refreshing Oasis    Fluid Milk     South East     Kingsland    GA              31548      4,320       $16,804.80
 Church
Refreshing Springs  Fresh Fruit/   Mid-Atlantic   Riverdale    MD              20737        400        $8,000.00
                     Vegetable
                     Box
Refuge City         Fresh Fruit/   South East     Stone        GA              30083      2,470       $46,781.80
                     Vegetable                     Mountain
                     Box
Refuge Community    Fluid Milk     Midwest        Cleveland    OH              44109        180          $597.60
 Church
Refuge Community    Precooked      Midwest        Cleveland    OH              44131        100        $4,311.00
 Church              Meat Box
Refuge Port         Fresh Fruit/   South West     Corpus       TX              78415      3,072       $52,193.28
 Ministry            Vegetable                     Christi
                     Box
Refugee Response    Dairy          Midwest        Cleveland    OH              44113        586       $14,122.60
                     Products Box
Refugee Response    Fresh Fruit/   Midwest        Cleveland    OH              44113        586       $15,529.00
                     Vegetable
                     Box
Regeneration        Fresh Fruit/   Midwest        Detroit      MI              48211        280        $8,050.00
 Church              Vegetable
                     Box
Region 7 Area       Fresh Fruit/   Midwest        Bay City     MI              48706        300        $4,485.00
 Agency              Vegetable
                     Box
Regional Food Bank  Dairy          North East     Latham       NY              12110      2,880       $69,120.00
                     Products Box
Regional Food Bank  Fresh Fruit/   North East     Latham       NY              12110      1,440       $28,800.00
                     Vegetable
                     Box
Regional Food Bank  Dairy          North East     Latham       NY              12110      5,432      $160,254.00
 of Northeastern     Products Box
 New York
Regional Food Bank  Fresh Fruit/   North East     Latham       NY              12110     15,416      $329,051.20
 of Northeastern     Vegetable
 New York            Box
Regional Food Bank  Precooked      North East     Latham       NY              12110      3,380      $109,973.24
 of Northeastern     Meat Box
 New York
Regional Food Bank  Fresh Fruit/   North East     Latham       NY              12110        500       $14,900.00
 of NY               Vegetable
                     Box
Regional Food Bank  Precooked      North East     Latham       NY              12110        500       $37,500.00
 of NY               Meat Box
Regional Food Bank  Combination    South West     Oklahoma     OK              73179     10,752      $117,519.36
 of Oklahoma         Box                           City
Regional Food Bank  Dairy          South West     Oklahoma     OK              73179      1,056       $48,322.56
 of Oklahoma         Products Box                  City
Regional Food Bank  Fluid Milk     South West     Oklahoma     OK              73179        537       $12,855.78
 of Oklahoma                                       City
Regional Food Bank  Fresh Fruit/   South West     Oklahoma     OK              73179     33,512      $574,543.02
 of Oklahoma         Vegetable                     City
                     Box
Regional Food Bank  Precooked      South West     Oklahoma     OK              73179     15,800    $1,629,770.00
 of Oklahoma         Meat Box                      City
Regional Food Bank  Combination    South West     Tulsa        OK              74106        768       $26,856.96
 of Tulsa            Box
Regional Food Bank  Dairy          South West     Tulsa        OK              74106      2,688      $123,002.88
 of Tulsa            Products Box
Regional Food Bank  Fluid Milk     South West     Tulsa        OK              74106      1,800       $43,092.00
 of Tulsa
Regional Food Bank  Fresh Fruit/   South West     Tulsa        OK              74106      3,974       $62,842.00
 of Tulsa            Vegetable
                     Box
Rehaciendo          Combination    Mid-Atlantic   Aibonito     PR              00705        180       $12,528.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   Arecibo      PR              00612        300       $24,800.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   Camuy        PR              00627        144       $14,256.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   Hatillo      PR              00659        540       $47,580.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   Las Piedras  PR              00771        720       $64,224.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   San Juan     PR              00915        480       $41,640.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   San Juan     PR              00920        324       $26,784.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   San Juan     PR              00925        108       $10,692.00
 Comunidades Con     Box
 Esperanza De
 Iglesia Me
Rehaciendo          Combination    Mid-Atlantic   Bayamon      PR              00956        576       $57,024.00
 Comunidades         Box
 Esperanza
Rehoboth COA        Combination    North East     Rehoboth     MA              02769         75        $2,850.00
                     Box
Rehoboth COA        Precooked      North East     Rehoboth     MA              02769         75        $4,072.50
                     Meat Box
Rehoboth House of   Fresh Fruit/   North East     Buffalo      NY              14208      7,002      $159,995.70
 Prayer              Vegetable
                     Box
Rehoboth Intl.      Fresh Fruit/   Mid-Atlantic   Randallstow  MD              21133        250        $5,237.50
 Church              Vegetable                     n
                     Box
Rehoboth Reformed   Fresh Fruit/   Midwest        Mcbain       MI              49657        714       $25,689.72
 Church              Vegetable
                     Box
Reid Health         Fresh Fruit/   Midwest        Richard      IN              47374        125        $2,529.18
                     Vegetable
                     Box
Reid Health         Fresh Fruit/   Midwest        Richmond     IN              47374         35          $788.94
                     Vegetable
                     Box
Reid Health         Precooked      Midwest        Richard      IN              47374        201        $7,577.91
                     Meat Box
Reid Health         Precooked      Midwest        Richmond     IN              47374         20          $621.00
                     Meat Box
Rejoice Church      Combination    South West     Owasso       OK              74055        768       $26,856.96
 Owasso              Box
Rejoice Church      Dairy          South West     Owasso       OK              74055        480       $21,964.80
 Owasso              Products Box
Rejoice Church      Fluid Milk     South West     Owasso       OK              74055        495       $11,850.30
 Owasso
Rejoice Church      Fresh Fruit/   South West     Owasso       OK              74055      3,685       $70,383.50
 Owasso              Vegetable
                     Box
Relief Nursery      Combination    Western        Eugene       OR              97405        360       $12,600.00
 Eugene USDA         Box
Relief Nursery      Dairy          Western        Eugene       OR              97405        150        $4,500.00
 Eugene USDA         Products Box
Relief Nursery      Fresh Fruit/   Western        Eugene       OR              97405        360        $9,720.00
 Eugene USDA         Vegetable
                     Box
Relief Nursery      Combination    Western        Springfield  OR              97478        360       $12,600.00
 Springfld.          Box
Relief Nursery      Dairy          Western        Springfield  OR              97478        250        $7,500.00
 Springfld.          Products Box
Relief Nursery      Fresh Fruit/   Western        Springfield  OR              97478        120        $3,240.00
 Springfld.          Vegetable
                     Box
Remanso De Paz      Fresh Fruit/   Mid-Atlantic   Ponce        PR              00730         41        $1,599.00
                     Vegetable
                     Box
Remanso De Paz      Fresh Fruit/   Mid-Atlantic   Ponce        PR              00731         41        $1,599.00
                     Vegetable
                     Box
Remanso Elderly     Fresh Fruit/   Mid-Atlantic   Carolina     PR              00987        180        $7,020.00
                     Vegetable
                     Box
Remanzo De Paz      Fresh Fruit/   Mid-Atlantic   Ponce        PR              00730         41        $1,599.00
                     Vegetable
                     Box
Renaissance Church  Fresh Fruit/   Midwest        Grand        MI              49058        400        $8,625.00
 of God and Chri.    Vegetable                     Rapids
                     Box
Renewed Hope Food   Fresh Fruit/   Mountain       Overland     KS              66212        120        $3,108.00
 Pantry              Vegetable      Plains         Park
                     Box
Renewed Man         Fresh Fruit/   South East     Courtland    AL              35618        500       $12,975.00
 Outreach            Vegetable
                     Box
Reola Grant Center  Dairy          Mountain       Kansas City  KS              66109      1,008       $46,126.08
                     Products Box   Plains
Reola Grant Center  Fresh Fruit/   Mountain       Kansas City  KS              66109      1,008       $23,486.40
                     Vegetable      Plains
                     Box
Rescatando A        Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Traves Del          Box
 Deporte
Rescate Familiar    Combination    Mid-Atlantic   Bayamon      PR              00956        100        $9,900.00
                     Box
Rescate Metro       Combination    Mid-Atlantic   Bayamon      PR              00956        872       $73,196.00
                     Box
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Alejandrino         Box
Residencial El      Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Coral               Box
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Jardines Country    Box
 Club
Residencial         Combination    Mid-Atlantic   Carolina     PR              00979      2,016      $174,888.00
 Llorens Torres      Box
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Manantial           Box
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Publico Barriada    Box
 Israel
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Publico El Padro    Box
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Publico Las         Box
 Dalias
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Publico Los         Box
 Lirios
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921      1,344      $133,056.00
 Publico Nemesio R   Box
 Canales
Residencial         Combination    Mid-Atlantic   Trujillo     PR              00976        672       $66,528.00
 Publico Nuestra     Box                           Alto
 Senora De
 Covadonga
Residencial         Combination    Mid-Atlantic   Humacao      PR              00791        672       $66,528.00
 Publico Padre       Box
 Rivera
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Publico San         Box
 Fernando
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Publico Santa       Box
 Elena
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Publico Villa       Box
 Espana
Residencial         Combination    Mid-Atlantic   San Juan     PR              00719        672       $33,600.00
 Publico Vista       Box
 Hermosa
Residencial         Combination    Mid-Atlantic   San Juan     PR              00921        672       $33,600.00
 Publico Vista       Box
 Hermosa
Residencial Rafael  Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Lopez Sicaldon      Box
Residencial Villa   Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Kennedy             Box
Resources for       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19144        560       $11,200.00
 Human Dev.          Vegetable                     a
                     Box
Restoration         Fluid Milk     South East     Montgomery   AL              36105      4,340       $17,316.60
 Baptist
Restoration         Fluid Milk     Midwest        Cleves       OH              45002     17,280       $69,120.00
 Christian
Restoration Church  Fresh Fruit/   South West     Gun Barrell  TX              75156        576        $9,786.24
                     Vegetable
                     Box
Restoration         Fresh Fruit/   Midwest        Harvey       IL              60426        126        $4,533.48
 Ministires          Vegetable
                     Box
Restoration         Fluid Milk     Midwest        Harvey       IL              60426        180          $597.60
 Ministr.
Restoration         Fresh Fruit/   Midwest        Harvey       IL              60426        378       $13,600.44
 Ministries          Vegetable
                     Box
Restoration         Precooked      Midwest        Harvey       IL              60426      1,080       $87,609.60
 Ministries          Meat Box
Restoring Women's   Fresh Fruit/   South East     Cullman      AL              35055         30          $750.00
 Outreach            Vegetable
                     Box
Resurgence Church   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19140         96        $1,893.12
                                                   a
Resurrection Com.   Fluid Milk     Midwest        Indianapoli  IN              46218        380        $1,261.60
 Ch.                                               s
Resurrection Life   Fresh Fruit/   Midwest        Grandville   MI              49418      1,000       $19,970.00
 Church              Vegetable
                     Box
Resurrection Life   Fresh Fruit/   Midwest        Saginaw      MI              48601        400        $5,980.00
 Gospel              Vegetable
                     Box
Resurrection Life   Dairy          Midwest        South Haven  MI              49090         50        $1,450.00
 Ministries          Products Box
Resurrection Life   Fresh Fruit/   Midwest        South Haven  MI              49090        150        $3,125.00
 Ministries          Vegetable
                     Box
Rethink Food NYC    Fresh Fruit/   Midwest        Merrillvill  IN              46410         84        $1,512.00
 Inc.                Vegetable                     e
                     Box
Reuben Elementary   Fresh Fruit/   South East     Newberry     SC              29108        150        $4,500.00
                     Vegetable
                     Box
Revere COA          Combination    North East     Revere       MA              02151        100        $3,800.00
                     Box
Revere COA          Precooked      North East     Revere       MA              02151        100        $5,430.00
                     Meat Box
Revival Center      Fresh Fruit/   South West     Onalaska     TX              77360      1,536       $26,096.64
 Food Pantry         Vegetable
                     Box
Revival of Life     Dairy          Midwest        Cleveland    OH              44128        250        $6,250.00
 Ministries          Products Box
Revival Temple      Fluid Milk     Mid-Atlantic   Newark       NJ              07103        105        $3,402.00
 Church
Revive Church       Combination    Western        Kent         WA              98230        660       $23,100.00
                     Box
Revive Church       Dairy          Western        Kent         WA              98230        750       $22,500.00
                     Products Box
Revive Church       Fresh Fruit/   Western        Kent         WA              98230        480       $12,960.00
                     Vegetable
                     Box
Revive South        Fresh Fruit/   Mid-Atlantic   Bridgeton    NJ              08302      2,880       $52,675.20
 Jersey              Vegetable
                     Box
Reynolds High       Combination    Western        Troutdale    OR              97060        300       $10,500.00
 School              Box
Reynolds High       Dairy          Western        Troutdale    OR              97060        600       $18,000.00
 School              Products Box
Reynolds High       Fresh Fruit/   Western        Troutdale    OR              97060        240        $6,480.00
 School              Vegetable
                     Box
Rhema Word Church   Fresh Fruit/   South East     Kinston      NC              28501        200        $7,142.00
                     Vegetable
                     Box
Rhinelander Food    Combination    Midwest        Rhinelander  WI              54501      1,960       $81,607.05
 Pantry              Box
Rhinelander Food    Fresh Fruit/   Midwest        Rhinelander  WI              54501      1,225       $36,149.75
 Pantry              Vegetable
                     Box
Rhode Island        Combination    North East     Providence   RI              02907      5,630      $257,755.00
 Community Food      Box
 Bank
Rhode Island        Fresh Fruit/   North East     Providence   RI              02907      5,762      $123,624.00
 Community Food      Vegetable
 Bank                Box
Rhode Island        Precooked      North East     Providence   RI              02907        160        $8,688.00
 Community Food      Meat Box
 Bank
Rialto Unified      Dairy          Western        Rialto       CA              90249      2,400       $70,128.00
 School District     Products Box
Rialto Unified      Fresh Fruit/   Western        Rialto       CA              92376      8,800      $220,000.00
 School District     Vegetable
                     Box
Rich City Rides     Fresh Fruit/   Western        Richmond     CA              94801          3           $84.00
                     Vegetable
                     Box
Rich City Rides     Fresh Fruit/   Western        Richmond     CA              94801          1           $28.00
                     Vegetable
                     Box
Rich Township       Fresh Fruit/   Midwest        Richton      IL              60471         63        $2,266.74
                     Vegetable                     Park
                     Box
Rich Township       Fresh Fruit/   Midwest        Richton      IL              60471         63        $2,266.74
                     Vegetable                     Parks
                     Box
Rich Township Box   Dairy          Midwest        Richton      IL              60471        120        $3,000.00
                     Products Box                  Park
Rich Township Box   Dairy          Midwest        Richton      IL              60471         65        $1,625.00
                     Products Box                  Park
Richlands           Fresh Fruit/   South East     Richlands    NC              28574        125        $4,463.75
 Community           Vegetable
 Outreach            Box
Richmond Housing    Fresh Fruit/   Western        Richmond     CA              94804         33          $924.00
 Authority           Vegetable
                     Box
Richmond Housing    Fresh Fruit/   Western        Richmond     CA              94804         11          $308.00
 Authority           Vegetable
                     Box
Richmond            Fresh Fruit/   Western        San          CA              94121        488        $8,045.12
 Neighborhood        Vegetable                     Francisco
 Center              Box
Richwoods High      Fresh Fruit/   Midwest        Peoria       IL              61604        500       $13,750.00
 School              Vegetable
                     Box
Richwoods High      Fresh Fruit/   Midwest        Peoria       IL              61615        520       $14,300.00
 School              Vegetable
                     Box
Ricky Davis         Fresh Fruit/   Mid-Atlantic   Richmond     VA              23231      2,590       $29,785.00
 Foundation          Vegetable
                     Box
Ridgewood YMCA      Fresh Fruit/   Mid-Atlantic   Ridgewood    NJ              07450        630       $11,938.50
                     Vegetable
                     Box
Rio Grande Valley   Dairy          South West     Pharr        TX              78577      6,660      $188,811.00
 Food Bank           Products Box
Rio Grande Valley   Fresh Fruit/   South West     Pharr        TX              78577      4,680      $117,000.00
 Food Bank           Vegetable
                     Box
Rio Grande Valley   Precooked      South West     Pharr        TX              78577      3,136      $323,478.40
 Food Bank           Meat Box
Ripley Second       Fresh Fruit/   South East     Ripley       MS              38663      1,026       $25,137.00
 Baptist Church--C/  Vegetable
 O Mid Swouth Food   Box
Rise Up Feed Seed   Fluid Milk     South East     Haines City  FL              33844        765        $2,997.35
Rising Hill         Fresh Fruit/   Mountain       Kansas City  MO              64157        495       $12,820.50
 Elementary School   Vegetable      Plains
                     Box
Rising Stars        Dairy          Midwest        Center Line  MI              48015        700       $16,989.00
 Academy             Products Box
Rising Stars        Fresh Fruit/   Midwest        Center Line  MI              48015      5,579      $113,409.81
 Academy             Vegetable
                     Box
Rising Stars        Precooked      Midwest        Center Line  MI              48015      1,500       $54,457.50
 Academy             Meat Box
Rising Sun          Fluid Milk     Midwest        Rising Sun   IN              47040      2,296        $9,184.00
 Methodist
Riva Trace          Fresh Fruit/   Mid-Atlantic   Davidsonvil  MD              21035        315        $5,969.25
                     Vegetable                     le
                     Box
River Bend          Dairy          Midwest        Davenport    IA              52802     11,616      $290,400.00
 Foodbank            Products Box
River Bend          Fresh Fruit/   Midwest        Davenport    IA              52802      8,597      $124,656.50
 Foodbank            Vegetable
                     Box
River Bend          Precooked      Midwest        Davenport    IA              52802      4,168      $130,189.60
 Foodbank            Meat Box
River Bend St.      Dairy          Midwest        Dubuque      IA              52003      1,296       $32,400.00
 Stephens            Products Box
River City Rescue   Fluid Milk     South East     Vicksburg    MS              39180        360        $1,364.40
River Fund          Fresh Fruit/   North East     Brooklyn     NY              11205      4,328      $173,076.72
                     Vegetable
                     Box
River Fund New      Fluid Milk     North East     Richmond     NY              11419     10,343      $320,426.14
 York Inc.                                         Hill
River Fund New      Fluid Milk     North East     South        NY              11419      2,092       $64,810.16
 York Inc.                                         Richmond
                                                   Hill
River Jordan        Fresh Fruit/   Mid-Atlantic   Accokeek     MD              20607      1,900       $38,000.00
 Project             Vegetable
                     Box
River of Faith      Dairy          Mountain       Seligman     MO              65745      1,056       $48,322.56
 Church of Pea       Products Box   Plains
 Ridge
River of Life Food  Fresh Fruit/   South West     Fairfield    TX              75840      7,168      $121,784.32
 Bank                Vegetable
                     Box
River Rouge High    Fresh Fruit/   Midwest        River Rouge  MI              48218        872       $13,036.40
 School              Vegetable
                     Box
River Trails        Dairy          Midwest        Mt.          IL              60056        480       $14,280.00
 Middle School       Products Box                  Prospect
River Trails        Fresh Fruit/   Midwest        Mt.          IL              60056        648       $17,820.00
 Middle School       Vegetable                     Prospect
                     Box
River Trails        Fresh Fruit/   Midwest        Mt.          IL              60056      1,648       $45,320.00
 Middle School       Vegetable                     Prospect
                     Box
River Valley        Combination    South West     Fort Smith   AR              72901      1,588       $55,532.36
 Regional Food       Box
 Bank
River Valley        Dairy          South West     Fort Smith   AR              72901      2,614      $119,616.64
 Regional Food       Products Box
 Bank
River Valley        Fluid Milk     South West     Fort Smith   AR              72901      4,824       $67,056.48
 Regional Food
 Bank
River Valley        Fresh Fruit/   South West     Fort Smith   AR              72901      3,711       $58,812.50
 Regional Food       Vegetable
 Bank                Box
River Valley        Precooked      South West     Fort Smith   AR              72901      1,568      $161,739.20
 Regional Food       Meat Box
 Bank
River Valley        Fresh Fruit/   Midwest        Caledonia    OH              43314        550       $10,935.00
 Schools             Vegetable
                     Box
River Valley        Precooked      Midwest        Caledonia    OH              43314        150        $6,645.50
 Schools             Meat Box
River Valley YMCA   Fresh Fruit/   Midwest        Prior Lake   MN              55379      1,200       $73,228.80
 Bix                 Vegetable
                     Box
Riverdale Center    Fresh Fruit/   South East     Riverdale    GA              30274      1,400       $26,516.00
                     Vegetable
                     Box
Riverdale Comm.     Fresh Fruit/   North East     Brooklyn     NY              11212        540       $17,820.00
 School              Vegetable
                     Box
Rivermont           Fresh Fruit/   South East     Miami        FL              33125        120        $2,010.00
                     Vegetable
                     Box
Rivers of Life--C/  Dairy          South East     Munford      TN              38058      1,656       $40,752.00
 O Mid South Food    Products Box
 Bank
Rivers of Living    Fresh Fruit/   South East     Birmingham   AL              35211        800       $20,760.00
 Water Faith         Vegetable
 Church              Box
Riverside Baptist   Fluid Milk     South East     Miami        FL              33176        780        $3,034.20
 Ch
Riverside Baptist   Fresh Fruit/   South East     Memphis      TN              38109        540       $13,230.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Riverside High      Fresh Fruit/   North East     Buffalo      NY              14207        240        $5,484.00
 School              Vegetable
                     Box
Riverside Public    Fresh Fruit/   Mid-Atlantic   Riverside    NJ              08075        504        $9,550.80
 Works Facility      Vegetable
                     Box
Riverside Unified   Fluid Milk     Western        Riverside    CA              92504      6,336       $63,296.64
 School District
Riverside Unified   Fresh Fruit/   Western        Riverside    CA              92501        234        $6,786.00
 School District     Vegetable
                     Box
Riverview East      Fluid Milk     Midwest        Cincinnati   OH              45226        264          $876.48
Riverview ES        Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21227        450        $9,427.50
                     Vegetable
                     Box
RL Jones Community  Fresh Fruit/   Midwest        Flint        MI              48505      2,650       $76,187.50
 Outreach            Vegetable
                     Box
RMCA Avon Park CDC  Fluid Milk     South East     Avon Park    FL              33825        240          $909.60
RMCA Centro Villas  Fluid Milk     South East     Florida      FL              33034        300        $1,197.00
                                                   City
RMCA Martin Luther  Fluid Milk     South East     Sebring      FL              33870        288        $1,130.32
RMCA Mascotte CDC   Fluid Milk     South East     Mascotte     FL              34753        124          $469.96
RMCA Zellwood CDC   Fluid Milk     South East     Zellwood     FL              32798        360        $1,370.40
RMHC of             Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19104        189        $3,581.55
 Philadelphia        Vegetable                     a
 Region              Box
Roadrunner          Fluid Milk     South West     Albuquerque  NM              87109     12,000       $58,800.00
 Foodbank
Roadrunner          Fresh Fruit/   South West     Albuquerque  NM              87109     24,862      $442,717.94
 Foodbank            Vegetable
                     Box
Roadrunner          Precooked      South West     Albuquerque  NM              87109      1,440      $148,536.00
 Foodbank            Meat Box
Roanoke Food        Fresh Fruit/   South West     Grapevine    TX              76051         20          $382.00
 Pantry              Vegetable
                     Box
Robersonville       Fresh Fruit/   South East     Robersonvil  NC              27886        150        $5,356.50
 Community Center    Vegetable                     le
                     Box
Robert Lewis        Precooked      South East     Natchez      MS              39120      1,848       $75,878.88
 School              Meat Box
Robert Lutz School  Fresh Fruit/   Midwest        Clinton      MI              48038        350        $5,232.50
                     Vegetable                     Township
                     Box
Robert Wood         Fresh Fruit/   Mid-Atlantic   Newark       NJ              07112        290        $5,800.00
 Johnson--Newark     Vegetable
 USDA                Box
Robert Wood         Fresh Fruit/   Mid-Atlantic   New          NJ              08901        930       $18,600.00
 Johnson New         Vegetable                     Brunswick
 Brunswick           Box
Roberto Clemente    Fresh Fruit/   Midwest        Detroit      MI              48216        700       $10,465.00
                     Vegetable
                     Box
Roberts Rd. Elem.   Fluid Milk     South West     Hockley      TX              77447      2,050        $6,174.50
Robertson Heart 2   Fresh Fruit/   Midwest        Detroit      MI              48226        150        $2,242.50
 Heart               Vegetable
                     Box
Robinson            Fresh Fruit/   Mountain       Raytown      MO              64133         50        $1,295.00
 Elementary          Vegetable      Plains
 Raytown             Box
Robstown Isd.       Fresh Fruit/   South West     Robstown     TX              78415        500       $12,500.00
                     Vegetable
                     Box
Rochester Public    Dairy          North East     Rochester    NY              14609      1,245       $55,029.00
 Market              Products Box
Rochester Public    Precooked      North East     Rochester    NY              14609      1,260       $68,796.00
 Market              Meat Box
Rock Church         Dairy          Mid-Atlantic   Parkersburg  WV              26104      1,300       $31,330.00
                     Products Box
Rock Church         Fresh Fruit/   Mid-Atlantic   Parkersburg  WV              26104        700       $18,550.00
                     Vegetable
                     Box
Rock of             Combination    South West     Hinton       OK              73047      4,896      $171,213.12
 Restoration         Box
 Church
Rock of             Dairy          South West     Hinton       OK              73047      2,400      $109,824.00
 Restoration         Products Box
 Church
Rock of             Fluid Milk     South West     Hinton       OK              73047      1,009       $24,155.46
 Restoration
 Church
Rock of             Fresh Fruit/   South West     Hinton       OK              73047      1,654       $28,440.80
 Restoration         Vegetable
 Church              Box
Rockdale Co.        Fluid Milk     South East     Conyers      GA              30012        468        $1,867.32
 Schools
Rockdale Sheriff    Fresh Fruit/   South East     Conyers      GA              30013     33,440      $633,353.60
 Food Bank           Vegetable
                     Box
Rockford Chase      Fresh Fruit/   Mid-Atlantic   Mountville   PA              17554         72        $1,654.56
                     Vegetable
                     Box
Rockland High       Fresh Fruit/   North East     Rockland     MA              02370        112        $2,458.40
 School              Vegetable
                     Box
Rockland Middle     Fresh Fruit/   North East     Rockland     MA              02739        560       $12,292.00
 School              Vegetable
                     Box
Rockland Seniors    Combination    North East     Rockland     MA              02370         35        $1,148.00
                     Box
Rockland Seniors    Precooked      North East     Rockland     MA              02370         35        $1,900.50
                     Meat Box
Rocky Boy           Fresh Fruit/   Mountain       Elder        MT              59521      1,920       $49,728.00
 Reservation         Vegetable      Plains
                     Box
Rocky Creek Youth   Fresh Fruit/   Mountain       Park Hills   MO              63601        244        $6,710.00
 Ranch               Vegetable      Plains
                     Box
Rodef Sholom        Fresh Fruit/   Western        San Rafael   CA              94903        800       $20,000.00
 Congregation        Vegetable
                     Box
Rolling Fork        Dairy          South East     Rolling      MS              39159        800       $22,464.00
 Methodist           Products Box                  Fork
Rolling Fork        Precooked      South East     Rolling      MS              39159      1,240       $50,914.40
 Methodist           Meat Box                      Fork
Rolling Harvest     Fresh Fruit/   Mid-Atlantic   Lumberville  PA              18933      2,800       $61,600.00
                     Vegetable
                     Box
Rolling Harvest     Fluid Milk     Mid-Atlantic   Hightstown   NJ              08520      1,540       $49,896.00
 Food Rescue
Rolling Harvest     Fresh Fruit/   Mid-Atlantic   New Hope     PA              18938      1,728       $39,709.44
 Food Rescue         Vegetable
                     Box
Romano Butler       Combination    Midwest        Chicago      IL              60624        600       $39,296.00
 Learn               Box
Romano Butler       Precooked      Midwest        Chicago      IL              60624        200       $14,314.00
 Learn               Meat Box
Romeo High School   Fresh Fruit/   Midwest        Bruce        MI              48065        100        $1,495.00
                     Vegetable                     Township
                     Box
Romulus Elementary  Fresh Fruit/   Midwest        Romulus      MI              48174        375        $5,606.25
 School              Vegetable
                     Box
Romulus High        Fresh Fruit/   Midwest        Romulus      MI              48174      2,835       $42,383.25
 School              Vegetable
                     Box
Ronald McDonald     Fresh Fruit/   Western        Honolulu     HI              96839          4          $144.00
 House               Vegetable
                     Box
Ronald McDonald     Combination    Western        Long Beach   CA              90806        720       $28,224.00
 House Long Beach    Box
Ronald Reagan       Fluid Milk     South West     Yuma         AZ              85364        270        $2,127.60
Ronald Reagan       Fresh Fruit/   South West     Yuma         AZ              85364        540       $14,850.00
                     Vegetable
                     Box
Roosevelt Academy   Fresh Fruit/   North East     Buffalo      NY              14207        360        $8,226.00
                     Vegetable
                     Box
Roosevelt McGraw    Fresh Fruit/   Midwest        Wayne        MI              48184         75        $1,121.25
 Elementary          Vegetable
                     Box
Root Causes         Fresh Fruit/   South East     Durham       NC              27704        645       $10,010.00
                     Vegetable
                     Box
Rooted in Love      Fresh Fruit/   North East     Buffalo      NY              14211        850       $19,422.50
 Inc.                Vegetable
                     Box
Rooted in Love      Fresh Fruit/   North East     Buffalo      NY              14214        400        $9,140.00
 Inc.                Vegetable
                     Box
Roots Community     Fresh Fruit/   Western        Oakland      CA              94603      1,260       $26,460.00
 Health Center       Vegetable
                     Box
Roots of Faith      Fresh Fruit/   Mid-Atlantic   Sharpsburg   PA              15215      1,120       $33,600.00
                     Vegetable
                     Box
Roscommon Area      Fresh Fruit/   Midwest        Roscommon    MI              48653        350       $12,593.00
 Public Schools      Vegetable
                     Box
Roscommon County    Dairy          Midwest        Houghton     MI              48629        500       $14,500.00
 Commission          Products Box                  Lake
Roscommon County    Fresh Fruit/   Midwest        Houghton     MI              48629        750       $15,625.00
 Commission          Vegetable                     Lake
                     Box
Roscommon High      Fresh Fruit/   Midwest        Roscommon    MI              48653         70        $2,518.60
 School              Vegetable
                     Box
Rose Hill FWB       Fresh Fruit/   South East     Winterville  NC              28590        288       $10,284.48
 Church              Vegetable
                     Box
Rose of Sharon      Fresh Fruit/   Midwest        Detroit      MI              48214        100        $1,495.00
                     Vegetable
                     Box
Rosedal Freedom     Fresh Fruit/   South East     Rosedale     MS              38769        200        $3,990.00
                     Vegetable
                     Box
Rosedale Freedom    Fresh Fruit/   South East     Rosedale     MS              38769      1,040       $20,748.00
                     Vegetable
                     Box
Roseland Christian  Fresh Fruit/   Midwest        Chicago      IL              60628         30          $540.00
 Ministries          Vegetable
                     Box
Roseland Christian  Fresh Fruit/   Midwest        Chicago      IL              60628        300        $5,400.00
 Ministries          Vegetable
                     Box
Roseland Christian  Precooked      Midwest        Chicago      IL              60628        360       $29,203.20
 Ministries          Meat Box
Rosemont Baptist    Fresh Fruit/   South East     Lagrange     GA              30241      1,920       $36,364.80
 Church              Vegetable
                     Box
Rosenberg Richmond  Fluid Milk     South West     Richmond     TX              77469      1,724        $5,534.04
 Helping Hands
Rosenberg Richmond  Fresh Fruit/   South West     Richmond     TX              77469      1,584       $26,912.16
 Helping Hands       Vegetable
                     Box
Ross & Morgan       Fluid Milk     Midwest        Ross         OH              45013      6,480       $25,920.00
 Ministries
Ross County         Fresh Fruit/   Midwest        Chillicothe  OH              45601      3,700       $75,583.26
 Community Action    Vegetable
 Commis              Box
Ross County         Precooked      Midwest        Chillicothe  OH              45601      1,750       $78,127.50
 Community Action    Meat Box
 Commis
Rossoblu            Combination    Western        Los Angeles  CA              90015         50        $1,362.50
                     Box
Rossville Grade     Fresh Fruit/   Mountain       Rossville    KS              66533        240        $6,216.00
 School              Vegetable      Plains
                     Box
Rotary Club of      Fresh Fruit/   Western        Hanalei      HI              96714        574       $22,386.00
 Hanalei Bay         Vegetable
 Foundation          Box
Rothbury Hall       Fresh Fruit/   Midwest        Rothbury     MI              49452        770       $27,704.60
                     Vegetable
                     Box
Round Lake High     Fluid Milk     Midwest        Round Lake   IL              60073      4,320       $14,342.40
 Sch.
Round Lake High     Fluid Milk     Midwest        Round Lake   IL              60073      4,320       $14,342.40
 School
Round Lake High     Fresh Fruit/   Midwest        Round Lake   IL              60073      2,898      $104,270.04
 School              Vegetable
                     Box
Roxanna De Blanco   Fresh Fruit/   South West     Fort Worth   TX              76131      1,100       $23,110.00
                     Vegetable
                     Box
Roy G. Eversole     Fluid Milk     South East     Hazard       KY              41701      1,200        $4,548.00
 Elem.
Royal Divinity      Fresh Fruit/   South East     Birmingham   AL              35224      3,080       $79,926.00
 Ministries          Vegetable
                     Box
Royal Redeemer      Fluid Milk     Midwest        North        OH              44133        180          $597.60
                                                   Royalton
Royal Valley        Fresh Fruit/   Mountain       Hoyt         KS              66440      1,360       $35,224.00
 School District     Vegetable      Plains
                     Box
Rozelle-Annesdale   Fresh Fruit/   South East     Memphis      TN              38114        594       $14,553.00
 Association--C/O    Vegetable
 Mid South Food      Box
 Bank
Rueben Elementary   Fresh Fruit/   South East     Newberry     SC              29108         50        $1,500.00
                     Vegetable
                     Box
Rural Clincs        Combination    Western        Merced       CA              95348         70        $3,670.80
                     Box
Rural Outreach      Fresh Fruit/   North East     East Aurora  NY              14052        150        $3,427.50
 Center              Vegetable
                     Box
Ruskin High School  Fresh Fruit/   Mountain       Kansas City  MO              64134        720       $18,648.00
                     Vegetable      Plains
                     Box
Ruth Bennett Com.   Fresh Fruit/   Mid-Atlantic   Chester      PA              19013        840       $16,800.00
 Farm                Vegetable
                     Box
Ruth Ellis Center   Fresh Fruit/   Midwest        Highland     MI              48203         68        $1,360.00
                     Vegetable                     Park
                     Box
Ruth's Gleanings--  Fresh Fruit/   South East     Spartanburg  SC              29306        100        $3,000.00
 Mary H. Wright      Vegetable
                     Box
Ruth's Gleanings--  Fresh Fruit/   South East     Pacolet      SC              29372        370       $11,100.00
 Pacolet             Vegetable
                     Box
Ruth's Gleanings--  Fresh Fruit/   South East     Laurens      SC              29360        100        $3,000.00
 SC Empowerment      Vegetable
                     Box
Ruth's Gleanings--  Fresh Fruit/   South East     Spartanburg  SC              29303        420       $12,600.00
 Spartanburg         Vegetable
                     Box
Ryan Outreach       Fresh Fruit/   North East     Wyandanch    NY              11798        840       $20,874.00
                     Vegetable
                     Box
S.E. Side of        Dairy          Midwest        Chicago      IL              60617        150        $3,750.00
 Chicago Food Box    Products Box
S Foundation F      Fluid Milk     South East     Tupelo       MS              38801        180          $718.20
S Foundation F      Fluid Milk     South East     Starkville   MS              39759        360        $1,436.40
S Foundation for    Fluid Milk     South East     Tupelo       MS              38801        900        $3,591.00
 HC
S Foundation for    Fluid Milk     South East     Greenwood    MS              38930        380        $1,480.20
 HC
S Foundation for    Fluid Milk     South East     Greenwoode   MS              38930        800        $3,191.20
 HC
S Foundation for    Fluid Milk     South East     Starkville   MS              39759      2,408        $9,607.92
 HC
S Vrmilon. Centrl.  Fluid Milk     Midwest        Clinton      IN              47842      2,700        $6,075.00
S Wood Emergency    Fresh Fruit/   Midwest        Wisconsin    WI              54494      1,980       $32,670.00
 Pantry              Vegetable                     Rapids
                     Box
S&T HSE/SHFB Vb880  Fluid Milk     South East     Orange City  FL              32763        240          $915.20
S.O.S.              Fresh Fruit/   South East     Key West     FL              33040      2,280       $57,000.00
                     Vegetable
                     Box
S.T.R.O.N.G         Fresh Fruit/   Midwest        Grand        MI              49503         98        $3,526.04
                     Vegetable                     Rapids
                     Box
S4S EM2G Day Camp   Fresh Fruit/   Midwest        Trotwood     OH              45426        128        $2,496.00
 4 Boys              Vegetable
                     Box
S4S Memorial        Fresh Fruit/   Midwest        Dayton       OH              45403         64        $1,248.00
 Chrch. (Kind)       Vegetable
                     Box
SA Elderton Ctr.    Fluid Milk     South East     Elberton     GA              30635         60          $227.40
SA Thomasville      Fluid Milk     South East     Thomasville  GA              31792        864        $3,360.96
 Corp.
SA W VOL/SHFB       Fluid Milk     South East     Deland       FL              32720        192          $733.68
 Vb627
Sabil Food Pantry   Fluid Milk     Western        Tustin       CA              92780        600        $5,994.00
Sabine Food Pantry  Fluid Milk     South West     Pineland     TX              75968        320          $951.80
Sacaton Elementary  Fluid Milk     South West     Sacaton      AZ              85147        144          $676.80
 School
Sacramento Food     Fluid Milk     Western        Sacramento   CA              92374        672        $6,713.28
 Bank
Sacramento Food     Fresh Fruit/   Western        Sacramento   CA              95838     52,920    $1,090,387.20
 Bank                Vegetable
                     Box
Sacred Heart        Dairy          Western        Tacoma       WA              98404        450       $13,500.00
                     Products Box
Sacred Heart        Combination    Western        Tacoma       WA              98404        420       $14,700.00
                     Box
Sacred Heart        Fluid Milk     South West     Nacogdoches  TX              75965        640        $1,994.08
 Cathol
Sacred Heart        Dairy          Midwest        Lorain       OH              44055        425       $10,242.50
 Chapel              Products Box
Sacred Heart        Fresh Fruit/   Midwest        Lorain       OH              44055        475       $12,587.50
 Chapel              Vegetable
                     Box
Sacred Heart Comm.  Fresh Fruit/   Western        San Jose     CA              95110      5,600      $116,600.00
 Service             Vegetable
                     Box
Sacred Heart Major  Fresh Fruit/   Midwest        Detroit      MI              48206        252        $9,066.96
 Seminary            Vegetable
                     Box
Sacred Heart        Fresh Fruit/   Midwest        Detroit      MI              48207        700       $25,186.00
 Parish              Vegetable
                     Box
Sacred Heart        Fluid Milk     South East     Hattiesburg  MS              39401        384        $2,818.56
 School
Sacred Heart        Fresh Fruit/   South East     Hattiesburg  MS              39401        480        $8,112.00
 School              Vegetable
                     Box
Saddleback Church   Dairy          Western        Foothill     CA              92610      4,800      $153,600.00
                     Products Box                  Ranch
Saddleback Church   Fluid Milk     Western        Lake Forest  CA              92630      2,400       $23,976.00
Safe Passage        Fresh Fruit/   Western        Thousand     CA              91360      1,625       $58,500.00
                     Vegetable                     Oaks
                     Box
Safe Place Veteran  Fresh Fruit/   Midwest        Detroit      MI              48224        200        $2,990.00
 Transition          Vegetable
                     Box
Saginaw Baptist     Combination    South West     Ft Worth     TX              76131        200        $6,994.00
 Church              Box
Saginaw Baptist     Fresh Fruit/   South West     Ft Worth     TX              76131        200        $4,660.00
 Church              Vegetable
                     Box
Saginaw County      Fresh Fruit/   Midwest        Saginaw      MI              48601      2,000       $57,500.00
 Comm. Center        Vegetable
                     Box
Sagrada Familia     Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
                     Box
Sagrados Corazones  Combination    Mid-Atlantic   Guaynabo     PR              00965        672       $58,296.00
                     Box
Sahara Temple       Fresh Fruit/   Mid-Atlantic   Braddock     PA              15104        160        $4,800.00
                     Vegetable
                     Box
Saint Augustine     Fresh Fruit/   Mountain       St. Louis    MO              63112        300        $8,250.00
 Wellness Ctr.       Vegetable      Plains
                     Box
Saint Helena Food   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19120         70        $2,268.00
 Bank                                              a
Saint Joseph Pace-- Precooked      Midwest        Mishawaka    IN              46545         12          $476.11
 Trinity H004844     Meat Box
Saint Matthew       Fresh Fruit/   South East     Naples       FL              34112      1,512       $37,044.00
 House               Vegetable
                     Box
Saint Nicholas      Fresh Fruit/   Mountain       St. Louis    MO              63103         48        $1,320.00
 Food Pantry         Vegetable      Plains
                     Box
Saint Philip        Combination    South East     Atlanta      GA              30317        560       $42,588.00
 A.M.E. Church       Box
Saint Sabina        Fresh Fruit/   Midwest        Chicago      IL              60620        160       $10,249.60
 Church              Vegetable
                     Box
Saint Timothy MB    Dairy          South East     Memphis      TN              38115      1,440       $36,000.00
 Church              Products Box
Saint Vincent De    Precooked      South West     Phoenix      AZ              85007      1,440      $148,536.00
 Paul                Meat Box
Saint Williams      Fluid Milk     Mid-Atlantic   Philadelphi  PA              19111        210        $6,804.00
 Church                                            a
Saints Community    Dairy          South West     Metairie     LA              70001        768       $35,143.68
 Church              Products Box
Saints Community    Fresh Fruit/   South West     Metairie     LA              70001        539       $10,294.90
 Church              Vegetable
                     Box
Saira               Fresh Fruit/   South East     St.          FL              32084      5,040      $163,800.00
                     Vegetable                     Augustine
                     Box
Saira               Fresh Fruit/   South East     Palatka      FL              32177      2,520       $81,900.00
                     Vegetable
                     Box
Sal. Army Prescott  Dairy          South West     Chino        AZ              86323        459       $12,163.50
                     Products Box                  Valley
Sal. Army Prescott  Fresh Fruit/   South West     Chino        AZ              86323        460       $10,051.00
                     Vegetable                     Valley
                     Box
Sal. Army/SHFB      Fluid Milk     South East     Daytona      FL              32114        320        $1,212.80
 Ve884                                             Beach
Salas Produce       Fluid Milk     South West     Mabelvale    AR              72103        495       $11,850.30
Salas Produce       Fresh Fruit/   South West     Mabelvale    AR              72103        539       $10,294.90
                     Vegetable
                     Box
Salem               Dairy          Midwest        Canton       MI              48187        400       $11,600.00
                     Products Box
Salem               Fresh Fruit/   Midwest        Canton       MI              48187      1,050       $22,662.50
                     Vegetable
                     Box
Salem COA           Combination    North East     Salem        MA              01970         25          $820.00
                     Box
Salem COA           Precooked      North East     Salem        MA              01970         50        $2,715.00
                     Meat Box
Salem Food Bank     Fresh Fruit/   Western        Salem        OR              97301      1,960       $43,022.00
                     Vegetable
                     Box
Salem High School   Fresh Fruit/   North East     Salem        MA              01970        329        $7,221.55
                     Vegetable
                     Box
Salem Lions Club    Fluid Milk     Midwest        Salem        IN              47167      4,320       $17,280.00
Salem Pantry        Fresh Fruit/   North East     Salem        MA              01970        280        $6,146.00
                     Vegetable
                     Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        150        $4,266.00
 Schools/Bates       Vegetable
                     Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        150        $4,266.00
 Schools/Bentley     Vegetable
                     Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        150        $4,266.00
 Schools/Carlton     Vegetable
                     Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        479       $11,487.55
 Schools/Collins     Vegetable
                     Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        150        $4,266.00
 Schools/Horace      Vegetable
 Mann                Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        374        $9,182.80
 Schools/            Vegetable
 Saltonstall         Box
Salem Public        Fresh Fruit/   North East     Salem        MA              01970        479       $11,487.55
 Schools/            Vegetable
 Witchcraft          Box
 Heights
Salida School       Fresh Fruit/   Western        Salida       CA              95368        462       $12,441.66
 District Child      Vegetable
 Development         Box
Salida Unified      Fresh Fruit/   Western        Salida       CA              95368      1,309       $35,251.37
 School District     Vegetable
                     Box
Salida Unified      Fresh Fruit/   Western        Modesto      CA              95356        231        $6,220.83
 School District     Vegetable
                     Box
Salina              Fresh Fruit/   Midwest        Dearborn     MI              48120        450        $9,506.25
 Intermediate        Vegetable
                     Box
Salina Produce      Combination    South West     Mabelvate    AR              72103      1,440       $50,356.80
                     Box
Salina Produce      Fluid Milk     South West     Mabelvate    AR              72103        315        $7,541.10
Salina Produce      Fresh Fruit/   South West     Mabelvate    AR              72103        735       $17,125.50
                     Vegetable
                     Box
Saline Area Socl    Dairy          Midwest        Saline       MI              48176        288        $7,200.00
 Srvcs               Products Box
Salmon River        Fresh Fruit/   North East     Fort         NY              12934        350        $7,000.00
 Central School      Vegetable                     Covington
                     Box
Salmon River        Fresh Fruit/   North East     Fort         NY              12937      1,155       $23,100.00
 Central School      Vegetable                     Covington
                     Box
Salt Lake City      Fresh Fruit/   South West     Salt Lake    Ut              84104      6,240      $156,000.00
 Mission             Vegetable                     City
                     Box
Salt Lake City      Precooked      South West     Salt Lake    Ut              84104      3,008      $310,275.20
 Mission             Meat Box                      City
Salv. Army Boy/     Fresh Fruit/   South East     Durham       NC              27701        300        $3,450.00
 Girl Club of        Vegetable
 Durham              Box
Salvatioin Army     Dairy          Midwest        Michigan     IN              46360        336       $10,248.00
 Michigan City       Products Box                  City
Salvation Army      Combination    Midwest        Indianapoli  IN              46254        500       $75,000.00
                     Box                           s
Salvation Army      Combination    Western        Spokane      WA              99207        150       $18,000.00
                     Box
Salvation Army      Combination    Mountain       Kansas City  MO              64111        798       $27,906.06
                     Box            Plains
Salvation Army      Dairy          South East     Corinth      MS              38834      1,980       $49,500.00
                     Products Box
Salvation Army      Fluid Milk     South East     Fort         FL              33312        260        $1,017.40
                                                   Lauderdale
Salvation Army      Fluid Milk     South East     Fort Myers   FL              33901        180          $699.80
Salvation Army      Fluid Milk     South East     Bradenton    FL              34203        816        $3,092.64
Salvation Army      Fluid Milk     South East     Sarasota     FL              34236        432        $1,637.28
Salvation Army      Fluid Milk     South East     Knoxville    TN              37917        200          $778.00
Salvation Army      Fluid Milk     South West     Baton Rouge  LA              70805        600        $1,781.00
Salvation Army      Fluid Milk     South East     Wilmington   NC              28401        216          $840.24
Salvation Army      Fluid Milk     North East     East         NY              13224      2,263       $70,107.74
                                                   Syracuse
Salvation Army      Fluid Milk     North East     Syracuse     NY              13224        675       $20,911.50
Salvation Army      Fluid Milk     Mountain       Kirksville   MO              63501        530        $1,192.50
                                    Plains
Salvation Army      Fluid Milk     Midwest        Columbus     OH              43085        600        $1,992.00
Salvation Army      Fluid Milk     Midwest        Columbus     OH              43204        480        $1,593.60
Salvation Army      Fluid Milk     Midwest        Columbus     OH              43205        800        $2,656.00
Salvation Army      Fluid Milk     Midwest        Columbus     OH              43206        360        $1,195.20
Salvation Army      Fluid Milk     Midwest        Columbus     OH              43224        420        $1,394.40
Salvation Army      Fresh Fruit/   South East     Wilmington   NC              28401        700        $8,050.00
                     Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Miami        FL              33142        540        $9,045.00
                     Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Fort         FL              33312      1,512       $37,044.00
                     Vegetable                     Lauderdale
                     Box
Salvation Army      Fresh Fruit/   South East     Bradenton    FL              34203      1,920       $42,240.00
                     Vegetable
                     Box
Salvation Army      Fresh Fruit/   Mountain       Lebanon      MO              65536      1,710       $47,025.00
                     Vegetable      Plains
                     Box
Salvation Army      Fresh Fruit/   Midwest        Warren       MI              48091        348        $5,202.60
                     Vegetable
                     Box
Salvation Army      Fresh Fruit/   Midwest        Bellaire     OH              43906        108        $1,350.00
                     Vegetable
                     Box
Salvation Army      Fresh Fruit/   Midwest        Toledo       OH              43604        333        $4,162.50
                     Vegetable
                     Box
Salvation Army      Precooked      Midwest        Southfield   MI              48075        550       $26,229.50
                     Meat Box
Salvation Army      Combination    Western        Portland     OR              97220      1,080       $37,800.00
                     Box
Salvation Army      Dairy          Western        Portland     OR              97220        800       $24,000.00
                     Products Box
Salvation Army      Fluid Milk     Western        Portland     OR              97220      1,890       $10,017.00
Salvation Army      Fresh Fruit/   Western        Portland     OR              97220      2,100       $56,700.00
                     Vegetable
                     Box
Salvation Army--    Fresh Fruit/   Midwest        Newton       IA              50208        150        $2,175.00
 Newton              Vegetable
                     Box
Salvation Army #2   Fluid Milk     South East     Clearwater   FL              33756        100          $379.00
Salvation Army/     Fresh Fruit/   Mid-Atlantic   Levittown    PA              19055        360        $8,272.80
 Bcoc                Vegetable
                     Box
Salvation Army/     Combination    Western        Boise        ID              83704        160        $7,040.00
 Boise               Box
Salvation Army/     Fresh Fruit/   Western        Boise        ID              83704        235        $6,110.00
 Boise               Vegetable
                     Box
Salvation Army/     Combination    Western        Caldwell     ID              83605        300       $13,200.00
 Caldwell            Box
Salvation Army/     Fresh Fruit/   Western        Caldwell     ID              83605        450       $11,700.00
 Caldwell            Vegetable
                     Box
Salvation Army/     Combination    Western        Nampa        ID              83651        480       $21,120.00
 Nampa               Box
Salvation Army/     Fresh Fruit/   Western        Nampa        ID              83651        723       $18,798.00
 Nampa               Vegetable
                     Box
Salvation Army AL   Fluid Milk     South East     Montgomery   AL              36104      1,048        $4,181.52
Salvation Army      Fluid Milk     South East     Americus     GA              31709        252        $1,005.48
 Amer.
Salvation Army ARC  Fluid Milk     South East     Jacksonvill  FL              32246         80          $319.20
                                                   e
Salvation Army ARC  Fluid Milk     South East     Orlando      FL              32808        580        $2,198.20
Salvation Army      Dairy          Midwest        Ashland      OH              44805        345        $8,625.00
 Ashland             Products Box
Salvation Army      Fluid Milk     South East     Bainbridge   GA              39819        504        $2,010.96
 Bain.
Salvation Army Bay  Dairy          Midwest        Bay City     MI              48708        792       $19,800.00
 City                Products Box
Salvation Army      Fluid Milk     South West     Beaumont     TX              77703        200          $584.00
 Beaumont
Salvation Army      Dairy          Midwest        Bellaire     OH              43906        825       $20,625.00
 Belmont County      Products Box
Salvation Army      Fresh Fruit/   Midwest        Bellaire     OH              43906        512        $9,984.00
 Belmont County      Vegetable
                     Box
Salvation Army      Precooked      Midwest        Bellaire     OH              43906      9,733      $367,907.99
 Belmont County      Meat Box
Salvation Army      Fluid Milk     South East     Birmingham   AL              35234        100          $399.00
 Birm
Salvation Army      Fresh Fruit/   Mid-Atlantic   Brackenridg  PA              15014        480       $14,400.00
 Brackenridge        Vegetable                     e
                     Box
Salvation Army      Fluid Milk     Midwest        Bucyrus      OH              44820         52          $172.64
 Bucyrus
Salvation Army Cap  Fresh Fruit/   Western        Seattle      WA              98101        240        $6,480.00
 Hill                Vegetable
                     Box
Salvation Army      Fresh Fruit/   Mid-Atlantic   Washington   PA              15301        960       $28,800.00
 Catholic Diocese    Vegetable
                     Box
Salvation Army CCC  Fluid Milk     South West     Pasadena     TX              77502      1,512        $4,853.52
Salvation Army      Dairy          Midwest        Centralia    IL              62801         90        $2,677.50
 Centralia           Products Box
Salvation Army      Fresh Fruit/   Midwest        Centralia    IL              62801         90        $2,475.00
 Centralia           Vegetable
                     Box
Salvation Army      Fluid Milk     South West     Corsicana    TX              75110        440        $1,284.80
 Corsicana
Salvation Army      Fresh Fruit/   South West     Corsicana    TX              75110        496        $8,427.04
 Corsicana           Vegetable
                     Box
Salvation Army      Combination    South West     Dallas       TX              75235        500       $17,485.00
 Dallas Services     Box
 of Hope
Salvation Army      Dairy          South West     Arlington    TX              76013      1,200       $54,912.00
 Dallas Services     Products Box
 of Hope
Salvation Army      Dairy          South West     Dallas       TX              75235      1,200       $54,912.00
 Dallas Services     Products Box
 of Hope
Salvation Army      Fluid Milk     South West     Austin       TX              78745        480        $1,401.60
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Dallas       TX              75235      2,859        $8,452.68
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Houston      TX              77002        240          $724.00
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Houston      TX              77007      1,272        $4,083.12
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Houston      TX              77009        756        $2,207.52
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Houston      TX              77064      1,260        $4,044.60
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Houston      TX              77072      1,134        $3,640.14
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Pasadena     TX              77502        392        $1,258.32
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Port Arthur  TX              77642        230          $689.00
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     San Antonio  TX              78204         80          $233.60
 Dallas Services
 of Hope
Salvation Army      Fluid Milk     South West     Tyler        TX              75702        680        $1,985.60
 Dallas Services
 of Hope
Salvation Army      Fresh Fruit/   South West     Arlington    TX              76013      1,450       $29,585.00
 Dallas Services     Vegetable
 of Hope             Box
Salvation Army      Fresh Fruit/   South West     Dallas       TX              75235      4,906       $86,614.44
 Dallas Services     Vegetable
 of Hope             Box
Salvation Army      Fresh Fruit/   South West     Mcallen      TX              78501      1,560       $39,000.00
 Dallas Services     Vegetable
 of Hope             Box
Salvation Army      Fresh Fruit/   South West     Denton       TX              76209        240        $4,077.60
 Denton Corp.        Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Dothan       AL              36301        300        $8,700.00
 Dothan              Vegetable
                     Box
Salvation Army      Fluid Milk     South East     Dublin       GA              31021        252          $981.48
 Dubl.
Salvation Army      Fluid Milk     Midwest        Elyria       OH              44035        180          $597.60
 East Cleveland
Salvation Army      Precooked      Midwest        East         OH              44112        380       $16,847.20
 East Cleveland      Meat Box                      Cleveland
Salvation Army EDS  Dairy          Mid-Atlantic   Pittsburgh   PA              15220      1,100       $20,746.00
                     Products Box
Salvation Army EDS  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15220      6,409      $163,429.50
                     Vegetable
                     Box
Salvation Army      Precooked      Midwest        Muskegon     MI              49442        706       $28,744.09
 EDS--Muskegon       Meat Box
 (Citade.
Salvation Army      Fresh Fruit/   South East     Fort Walton  FL              32549        700       $20,300.00
 Food Pantry         Vegetable                     Beach
                     Box
Salvation Army      Dairy          Midwest        Granite      IL              62040         65        $1,933.75
 Granite City        Products Box                  City
Salvation Army      Fresh Fruit/   Midwest        Granite      IL              62040        130        $3,575.00
 Granite City        Vegetable                     City
                     Box
Salvation Army GW/  Fresh Fruit/   Mountain       St. Louis    MO              63123        720       $23,040.00
 STL Food Bnk        Vegetable      Plains
                     Box
Salvation Army      Fluid Milk     Western        Hanapepe     HI              96716        141          $589.38
 Hanapepe
Salvation Army      Fluid Milk     South East     Hattiesburg  MS              39401      1,120        $4,244.80
 HBUR
Salvation Army      Dairy          South West     Phoenix      AZ              85008      2,988       $79,182.00
 Headquarters        Products Box
Salvation Army      Fresh Fruit/   South West     Phoenix      AZ              85008      4,196       $91,682.60
 Headquarters        Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Henderson    NC              27537      1,501       $38,140.41
 Henderson           Vegetable
                     Box
Salvation Army      Fresh Fruit/   Mid-Atlantic   Ellicott     MD              21042        300        $6,285.00
 Howard County       Vegetable                     City
                     Box
Salvation Army      Fluid Milk     South East     Jackson      MS              39206      1,000        $3,790.00
 Jack.
Salvation Army      Fresh Fruit/   Midwest        Jackson      MI              49201        700       $25,186.00
 Jackson             Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Jacksonvill  FL              32254        500       $12,250.00
 Jacksonville        Vegetable                     e
                     Box
Salvation Army      Fresh Fruit/   South East     Jacksonvill  NC              28546      1,500       $53,565.00
 Jacksonville        Vegetable                     e
                     Box
Salvation Army JC   Fluid Milk     Mountain       Jefferson    MO              65101        930        $2,092.50
                                    Plains         City
Salvation Army KCK  Fresh Fruit/   Mountain       Kansas City  KS              66102         80        $2,072.00
                     Vegetable      Plains
                     Box
Salvation Army      Fluid Milk     Mountain       Columbia     MO              65201        540        $1,215.00
 Kirksvle                           Plains
Salvation Army      Dairy          Midwest        Ashland      OH              44805         65        $1,625.00
 KROC                Products Box
Salvation Army      Dairy          South West     Phoenix      AZ              85040      1,560       $41,340.00
 KROC Center         Products Box
Salvation Army      Fresh Fruit/   South West     Phoenix      AZ              85040      2,040       $44,574.00
 KROC Center         Vegetable
                     Box
Salvation Army L.   Fluid Milk     South West     Lake         LA              70615        240          $709.50
 Ch.                                               Charles
Salvation Army      Fresh Fruit/   South East     Labelle      FL              33935      1,260       $30,870.00
 Labelle             Vegetable
                     Box
Salvation Army      Fluid Milk     South West     Lafayette    LA              70501         52          $151.84
 Lafa.
Salvation Army      Fluid Milk     South East     Lagrange     GA              30240        388        $1,470.52
 Lagr.
Salvation Army      Fluid Milk     South East     Laurel       MS              39440        540        $2,046.60
 Laur.
Salvation Army      Fluid Milk     South East     Leesburg     FL              34748         40          $151.60
 Lee.
Salvation Army      Fluid Milk     Western        Lihue        HI              96766        141          $589.38
 Lihue.
Salvation Army      Fluid Milk     South West     Lufkin       TX              75901      1,063        $3,166.31
 Lufk.
Salvation Army      Fluid Milk     South East     Macon        GA              31206        252          $981.48
 Maco.
Salvation Army      Dairy          Midwest        Mansfield    OH              44902        195        $4,875.00
 Mansfield           Products Box
Salvation Army      Fluid Milk     South East     Marietta     GA              30060        360        $1,364.40
 Mari.
Salvation Army      Dairy          Midwest        Marion       IL              62959        120        $3,570.00
 Marion              Products Box
Salvation Army      Fresh Fruit/   Midwest        Marion       IL              62922         80        $2,200.00
 Marion              Vegetable
                     Box
Salvation Army      Fresh Fruit/   Midwest        Marion       IL              62959        120        $3,300.00
 Marion              Vegetable
                     Box
Salvation Army      Fluid Milk     South East     Melbourne    FL              32901        200          $758.00
 Mel.
Salvation Army      Fluid Milk     Midwest        Evansville   IN              47711        782        $1,759.50
 Milk 2 Plt.
Salvation Army      Fluid Milk     South East     Mobile       AL              36604      4,320       $16,804.80
 Mobi.
Salvation Army      Combination    Western        Modesto      CA              95351        754       $39,539.76
 Modesto             Box
Salvation Army      Fresh Fruit/   Western        Modesto      CA              95351     13,483      $223,790.99
 Modesto             Vegetable
                     Box
Salvation Army      Fresh Fruit/   South East     Chatsworth   GA              30705        560       $11,200.00
 Murray County       Vegetable
                     Box
Salvation Army      Fluid Milk     South West     New Orleans  LA              70121        928        $2,847.80
 NOLA
Salvation Army      Fluid Milk     South East     Ocala        FL              34470        240          $909.60
 Ocal.
Salvation Army of   Dairy          North East     Ogdensburg   NY              13669        225        $9,720.00
 Ogd.                Products Box
Salvation Army of   Fresh Fruit/   North East     Ogdensburg   NY              13669        216        $4,752.00
 Ogd.                Vegetable
                     Box
Salvation Army of   Precooked      North East     Ogdensburg   NY              13669        216       $11,577.60
 Ogd.                Meat Box
Salvation Army of   Dairy          South East     Tupelo       MS              38804        240        $6,000.00
 Tupelo              Products Box
Salvation Army      Dairy          Midwest        Cleveland    OH              44109        270        $6,750.00
 Ohio City           Products Box
Salvation Army      Fluid Milk     South West     Orange       TX              77630        124          $362.08
 Oran.
Salvation Army      Combination    South East     Apopka       FL              32804      1,344      $102,211.20
 Orlando             Box
Salvation Army      Fluid Milk     South East     Panama City  FL              32401      3,600       $14,004.00
 Panama City
Salvation Army      Fresh Fruit/   South East     Panama City  FL              32405      4,250      $123,250.00
 Panama City         Vegetable
                     Box
Salvation Army      Dairy          Midwest        Peoria       IL              61602        100        $2,975.00
 Peoria              Products Box
Salvation Army      Dairy          Midwest        Peoria       IL              61615         75        $2,231.25
 Peoria              Products Box
Salvation Army      Fresh Fruit/   Midwest        Peoria       IL              61602        100        $2,750.00
 Peoria              Vegetable
                     Box
Salvation Army      Fresh Fruit/   Midwest        Peoria       IL              61615         75        $2,062.50
 Peoria              Vegetable
                     Box
Salvation Army      Combination    Mountain       Pittsburg    KS              66762        240        $8,392.80
 Pittsburg           Box            Plains
Salvation Army      Fresh Fruit/   Mountain       Pittsburg    KS              66762        240        $4,068.00
 Pittsburg           Vegetable      Plains
                     Box
Salvation Army      Dairy          South West     Prescott     AZ              86303        480       $12,720.00
 Prescott            Products Box
Salvation Army      Fresh Fruit/   South West     Prescott     AZ              86303        480       $10,488.00
 Prescott            Vegetable
                     Box
Salvation Army      Fluid Milk     South East     Richmond     KY              40475         60          $227.40
 Rich.
Salvation Army      Dairy          South West     Tucson       AZ              85716        192        $5,088.00
 Richey              Products Box
Salvation Army      Fresh Fruit/   South West     Tucson       AZ              85716        144        $3,146.40
 Richey              Vegetable
                     Box
Salvation Army      Fluid Milk     South East     Rome         GA              30161        200          $758.00
 Rome
Salvation Army--    Combination    South East     Clearwater   FL              33759      1,680      $127,764.00
 Ruth Eckerd Hall    Box
Salvation Army      Fluid Milk     Mountain       Sedalia      MO              65301        450        $1,012.50
 Sedalia                            Plains
Salvation Army      Fresh Fruit/   Mountain       Sedalia      MO              65301        520       $13,468.00
 Sedalia             Vegetable      Plains
                     Box
Salvation Army      Dairy          South West     Sierra       AZ              85635        408       $10,812.00
 Sierra Vista        Products Box                  Vista
Salvation Army      Fresh Fruit/   South West     Sierra       AZ              85635        840       $18,354.00
 Sierra Vista        Vegetable                     Vista
                     Box
Salvation Army      Fluid Milk     Western        Los Angeles  CA              90015        105          $798.00
 South Division
Salvation Army      Fresh Fruit/   Western        Los Angeles  CA              90015      2,210       $54,750.00
 South Division      Vegetable
                     Box
Salvation Army Sr.  Fluid Milk     South West     Pasadena     TX              77502        697        $2,237.37
Salvation Army Sun  Dairy          South West     Surprise     AZ              85378        944       $25,016.00
 City                Products Box
Salvation Army Sun  Fresh Fruit/   South West     Surprise     AZ              85378      1,220       $26,657.00
 City                Vegetable
                     Box
Salvation Army      Fresh Fruit/   South West     Surprise     AZ              85378        240        $5,244.00
 Surprise            Vegetable
                     Box
Salvation Army      Dairy          Midwest        Cleveland    OH              44119        225        $5,625.00
 Temple Corps        Products Box
Salvation Army      Fluid Milk     South East     Tifton       GA              31794        256          $995.84
 Tift
Salvation Army      Fresh Fruit/   Western        Turlock      CA              95380      1,155       $31,104.15
 Tlk.                Vegetable
                     Box
Salvation Army TPA  Fluid Milk     South East     Tampa        FL              33613        360        $1,376.40
Salvation Army      Dairy          South West     Tucson       AZ              85703      1,064       $28,196.00
 Tucson              Products Box
Salvation Army      Fresh Fruit/   South West     Tucson       AZ              85703      1,384       $30,240.40
 Tucson              Vegetable
                     Box
Salvation Army      Fluid Milk     South East     Tupelo       MS              38804        360        $1,400.40
 Tupe.
Salvation Army      Fresh Fruit/   Mid-Atlantic   Uniontown    PA              15401        600       $18,000.00
 Uniontown           Vegetable
                     Box
Salvation Army      Combination    North East     Utica        NY              13502        200       $10,350.00
 Utica               Box
Salvation Army      Dairy          North East     Utica        NY              13502        200        $9,900.00
 Utica               Products Box
Salvation Army      Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08360        126        $2,387.70
 Vineland            Vegetable
                     Box
Salvation Army      Fluid Milk     South West     Waco         TX              76706        648        $1,892.16
 Waco
Salvation Army      Dairy          Midwest        Wadsworth    OH              44281      1,550       $37,355.00
 Wadsworth           Products Box
Salvation Army      Fresh Fruit/   Midwest        Wadsworth    OH              44281      1,600       $42,400.00
 Wadsworth           Vegetable
                     Box
Salvation Army--    Combination    South East     West Palm    FL              33409      1,680      $127,764.00
 West Palm Beach     Box                           Beach
Salvation Army      Dairy          Midwest        Cleveland    OH              44111        450       $11,250.00
 West Park           Products Box
Salvation Army      Dairy          Midwest        Cleveland    OH              44143        150        $3,750.00
 West Park           Products Box
Salvation Army      Precooked      Midwest        Cleveland    OH              44111        150        $6,645.50
 West Park           Meat Box
Salvation Army      Fresh Fruit/   Mid-Atlantic   Wilks Barre  PA              17801        150        $3,750.00
 Wil.                Vegetable
                     Box
Salvation Army      Fresh Fruit/   Mid-Atlantic   Wilks Barre  PA              17801        600       $15,000.00
 Wilkesbarre         Vegetable
                     Box
Salvation Army/     Combination    Mountain       Great Falls  MT              59405      2,912      $139,776.00
 Great Falls         Box            Plains
Salvation Army/     Fresh Fruit/   Mountain       Great Falls  MT              59405      4,368      $131,040.00
 Great Falls         Vegetable      Plains
                     Box
Salvation Army--    Dairy          Midwest        Alma         MI              48801         85        $2,465.00
 Alma                Products Box
Salvation Army--    Fresh Fruit/   Midwest        Alma         MI              48801        145        $3,085.00
 Alma                Vegetable
                     Box
Salvation Armyeds   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15220      1,320       $33,660.00
                     Vegetable
                     Box
Salvation Army--    Fresh Fruit/   South West     Fort Worth   TX              76103      2,166       $40,694.84
 Fort Worth          Vegetable
                     Box
Salvation Army--    Dairy          Midwest        Cleveland    OH              44105        970       $24,250.00
 Miles Park          Products Box
Salvation Army--    Precooked      Midwest        Warren       MI              48091        600       $28,614.00
 Warren              Meat Box
Sam Houston Middle  Precooked      South West     Irving       TX              75038      1,440      $148,536.00
 School              Meat Box
Sam Houston St.     Fresh Fruit/   South West     Huntsville   TX              77340      3,072       $52,193.28
 University          Vegetable
                     Box
Samaritan Center    Fluid Milk     Mountain       Jefferson    MO              65101      1,292        $2,907.00
                                    Plains         City
Samaritans Market   Dairy          South East     Fulton       MS              38843        600       $15,000.00
                     Products Box
Samaritas           Fresh Fruit/   Midwest        Westland     MI              48186        400       $11,500.00
                     Vegetable
                     Box
Samson Webber       Fresh Fruit/   Midwest        Detroit      MI              48204        150        $2,242.50
 Academy             Vegetable
                     Box
Samuel FB Morse     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21223        900       $18,000.00
 Rec.                Vegetable
                     Box
San Antonio Food    Combination    South West     San Antonio  TX              78227     14,752      $265,624.64
 Bank                Box
San Antonio Food    Fluid Milk     South West     San Antonio  TX              78227     43,200      $131,364.00
 Bank
San Antonio Food    Fresh Fruit/   South West     San Antonio  TX              78227     25,318      $548,080.29
 Bank                Vegetable
                     Box
San Antonio Food    Precooked      South West     San Antonio  TX              78227     47,139    $2,799,212.49
 Bank                Meat Box
San Benito Food     Fluid Milk     South West     San Benito   TX              78586        648        $1,892.16
 Pan
San Bernardino      Fresh Fruit/   Western        Colton       CA              92324        720       $18,000.00
 County              Vegetable
                     Box
San Bernardino      Fresh Fruit/   Western        San          CA              92407      3,120       $78,000.00
 County              Vegetable                     Bernardino
                     Box
San Clemente Place  Fresh Fruit/   Western        Corte        CA              94925        101        $3,215.84
 Eah Housing         Vegetable                     Madera
                     Box
San Creek           Fresh Fruit/   Midwest        Fishers      IN              46038        290        $5,791.30
 Intermediate        Vegetable
 School              Box
San Diego Food      Combination    Western        San Diego    CA              92121      3,738      $146,529.60
 Bank                Box
San Diego Food      Dairy          Western        San Diego    CA              92121     16,032      $468,455.04
 Bank                Products Box
San Diego Food      Fluid Milk     Western        San Diego    CA              92121     16,800      $167,832.00
 Bank
San Diego Food      Fresh Fruit/   Western        San Diego    CA              92121     48,701    $1,045,267.04
 Bank                Vegetable
                     Box
San Diego Real      Fresh Fruit/   South West     San Diego    TX              78384        500       $12,500.00
                     Vegetable
                     Box
San Francisco De    Combination    Mid-Atlantic   Catano       PR              00962      1,248      $108,264.00
 Sales               Box
San Francisco Food  Combination    Western        San          CA              94107     10,752      $110,745.60
 Bank                Box                           Francisco
San Francisco Food  Combination    Western        San          CA              94124     41,815    $1,448,517.80
 Bank                Box                           Francisco
San Francisco Food  Fluid Milk     Western        San          CA              94105     12,672      $126,593.28
 Bank                                              Francisco
San Francisco Food  Fluid Milk     Western        San          CA              94116      4,224       $42,197.76
 Bank                                              Francisco
San Francisco       Fresh Fruit/   Western        San Rafael   CA              94901     19,604      $539,533.40
 Marin Food Bank     Vegetable
                     Box
San Francisco       Fresh Fruit/   Western        San          CA              94115        200        $5,000.00
 Market              Vegetable                     Francisco
 Corporation         Box
San Francisco       Fresh Fruit/   Western        San          CA              94124        825       $20,625.00
 Market              Vegetable                     Francisco
 Corporation         Box
San Francisco-      Combination    Western        San          CA              94158      1,000       $27,250.00
 Marin Food Bank     Box                           Francisco
San Francisco-      Fresh Fruit/   Western        San          CA              94158      9,700      $244,750.00
 Marin Food Bank     Vegetable                     Francisco
                     Box
San Francisco-      Precooked      Western        San          CA              94124      1,386       $34,303.50
 Marin Food Bank     Meat Box                      Francisco
San Jacinto         Fluid Milk     Western        San Jacinto  CA              92582      6,336       $63,296.64
 Unified School
 District
San Jacinto         Fresh Fruit/   Western        San Jacinto  CA              92583        400       $11,600.00
 Unified School      Vegetable
 District            Box
San Joaquin Dep.    Fresh Fruit/   Western        Stockton     CA              95205      2,695       $72,576.35
 of Aging            Vegetable
                     Box
San Juan Diego      Fresh Fruit/   South West     Pasadena     TX              77503        616       $10,465.84
                     Vegetable
                     Box
San Juan            Fresh Fruit/   South West     Blanding     Ut              84511      5,502      $145,803.00
 Foundation          Vegetable
                     Box
San Lorenzo         Fresh Fruit/   Western        San Lorenzo  CA              94580        510       $10,755.00
 Community Church    Vegetable
                     Box
San Lucas Anti      Precooked      Midwest        Chicago      IL              60622        144       $11,681.28
 Hunger              Meat Box
San Lucas Anti-     Fresh Fruit/   Midwest        Chicago      IL              60622        189        $6,800.22
 Hunger              Vegetable
                     Box
San Martin De       Fresh Fruit/   South West     Sunland      NM              88063         96        $1,872.00
 Porres Church       Vegetable                     Park
                     Box
San Martin De       Combination    Western        Dayton       OR              97114        360       $12,600.00
 Porres Prsh.        Box
San Pedro Ozanam    Fluid Milk     South West     Brownsville  TX              78521      1,296        $3,784.32
 Ce
San Ramon Vusd      Fresh Fruit/   Western        San Ramon    CA              94583      2,079       $55,987.47
                     Vegetable
                     Box
Sanad               Fresh Fruit/   Midwest        Chicago      IL              60629      1,008       $36,267.84
                     Vegetable
                     Box
Sanctuary           Fresh Fruit/   Western        Chalan Pago  Guam            96910         28        $1,680.00
 Incorporated of     Vegetable
 Guam                Box
Sandals Church      Fresh Fruit/   Western        Riverside    CA              92501      2,110       $53,510.00
                     Vegetable
                     Box
Sandy Creek         Dairy          North East     Sandy Creek  NY              13145        360       $15,552.00
 Central             Products Box
Sandy Creek         Fresh Fruit/   North East     Sandy Creek  NY              13145        378        $8,316.00
 Central             Vegetable
                     Box
Sandy Creek         Precooked      North East     Sandy Creek  NY              13145        378       $20,260.80
 Central             Meat Box
Sanger Bible        Combination    Western        Sanger       CA              93657        560       $29,366.40
 Church              Box
Sanger Bible        Fresh Fruit/   Western        Sanger       CA              93657      1,239       $33,366.27
 Church              Vegetable
                     Box
Sankofa Village     Dairy          Mid-Atlantic   Pittsburgh   PA              15208      1,200       $13,200.00
 Community Garden    Products Box
Sankofa Village     Fresh Fruit/   Mid-Atlantic   Homewood     PA              15208        560       $16,800.00
 Community Garden    Vegetable
                     Box
Sankofa Village     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        320        $9,600.00
 Community Garden    Vegetable
                     Box
Sant ESC/SHFB       Fluid Milk     South East     Deltona      FL              32725        160          $606.40
 Ve939
Santa Barbara       Fluid Milk     Western        Santa        CA              93110      1,050       $10,489.50
 County Food Bank                                  Barbara
Santa Barbara       Fresh Fruit/   Western        Oxnard       CA              93036        135        $4,860.00
 County Food Bank    Vegetable
                     Box
Santa Barbara       Fresh Fruit/   Western        Santa        CA              93110     33,698    $1,158,815.50
 County Food Bank    Vegetable                     Barbara
                     Box
Santa Clara         Combination    Western        Santa Clara  CA              95051        560       $29,366.40
 Unified School      Box
 District
Santa Clara         Fresh Fruit/   Western        Santa Clara  CA              95051      2,370       $52,785.60
 Unified School      Vegetable
 District            Box
Santa Clarita       Combination    Western        Santa        CA              91350      1,250       $34,062.50
 Grocery             Box                           Clarita
Santa Cruz Food     Combination    Western        Wastonville  CA              95076      1,050       $55,062.00
 Bank                Box
Santa Fe Community  Fresh Fruit/   South West     Santa Fe     NM              87505      1,296       $25,272.00
 Foundation          Vegetable
                     Box
Santa Fe            Fresh Fruit/   Mountain       Kansas City  MO              64134         80        $2,072.00
 Elementary          Vegetable      Plains
                     Box
Santa Fe            Fresh Fruit/   Mountain       Kansas City  MO              64138        320        $8,288.00
 Elementary          Vegetable      Plains
                     Box
Santa Fe            Fresh Fruit/   Mountain       Overland     KS              66202        720       $18,648.00
 Waystation          Vegetable      Plains         Park
                     Box
Santa Rita Mayor's  Fresh Fruit/   Western        Santa Rita   Guam            96915        960       $57,600.00
 office              Vegetable
                     Box
Santa Ynez Valley   Fresh Fruit/   Western        Solvang      CA              93463      4,325      $155,700.00
 Senior Citizen      Vegetable
 Foundation          Box
Santana Moss        Fresh Fruit/   South East     Medley       FL              33166      2,000       $33,500.00
                     Vegetable
                     Box
Santo Cristo De     Combination    Mid-Atlantic   Carolina     PR              00979        672       $58,296.00
 Los Milagros        Box
Sanzuma             Fresh Fruit/   Western        San Rafael   CA              94901        250        $7,960.00
                     Vegetable
                     Box
Sapps Community/    Fresh Fruit/   South East     Carrollton   AL              35447      1,680       $43,596.00
 Carrolton Service   Vegetable
                     Box
Saranac Lake        Dairy          North East     Saranac      NY              12983        900       $21,600.00
 Rotary Foundation   Products Box                  Lake
 Inc.
Saranac Lake        Fluid Milk     North East     Saranac      NY              12983        567       $17,565.66
 Rotary Foundation                                 Lake
 Inc.
Saranac Lake        Fresh Fruit/   North East     Saranac      NY              12983         30          $600.00
 Rotary Foundation   Vegetable                     Lake
 Inc.                Box
Sauers Cares        Fluid Milk     Mid-Atlantic   Fort         PA              19034         35        $1,134.00
                                                   Washington
Sauers Cares        Fresh Fruit/   Mid-Atlantic   Fort         PA              19034         72        $1,654.56
                     Vegetable                     Washington
                     Box
Saugatuck Public    Fresh Fruit/   Midwest        Douglas      MI              49406        126        $4,533.48
 Schools             Vegetable
                     Box
Saugus Housing      Precooked      North East     Saugus       MA              01906         50        $2,715.00
                     Meat Box
Saugus Veterans     Fresh Fruit/   North East     Saugus       MA              01906      1,008       $22,125.60
 Memorial Sch.       Vegetable
                     Box
Sauk Village        Combination    Midwest        Sauk         IL              60411        396       $38,808.00
                     Box                           Village
Sauk Village        Fresh Fruit/   Midwest        Sauk         IL              60411        305       $11,209.00
                     Vegetable                     Village
                     Box
Saved By Grace      Fresh Fruit/   Midwest        Detroit      MI              48224        300        $8,625.00
 Christian           Vegetable
                     Box
Saving Grace        Fluid Milk     North East     Cattaraugus  NY              14719      4,320       $14,342.40
Saving Grace        Fresh Fruit/   North East     Cattaraugus  NY              14719        150        $3,427.50
 Outreach Inc.       Vegetable
                     Box
Sayers Senior       Fresh Fruit/   Mountain       Potosi       MO              63664        420       $11,550.00
 Center              Vegetable      Plains
                     Box
Sc. Senior Care     Combination    North East     Gloucester   MA              01930         47        $1,786.00
 Inc.                Box
Sc Senior Care      Precooked      North East     Gloucester   MA              01930         50        $2,715.00
 Inc.                Meat Box
SCADCAAA            Combination    South East     Brundidge    AL              36010        560       $42,588.00
                     Box
SCADCAAA            Combination    South East     Troy         AL              36010        560       $42,588.00
                     Box
SCADCAAA            Combination    South East     Georgiana    AL              36033      1,120       $85,176.00
                     Box
SCADCAAA            Combination    South East     Greenville   AL              36037        560       $42,588.00
                     Box
SCADCAAA            Combination    South East     Hayneville   AL              36040        560       $42,588.00
                     Box
SCADCAAA            Combination    South East     Tuskegee     AL              36083      1,120       $85,176.00
                     Box
SCADCAAA            Combination    South East     Union        AL              36089      1,120       $85,176.00
                     Box                           Springs
SCADCAAA Lowndes    Combination    South East     Hayneville   AL              36040        560       $42,588.00
 County Baseball     Box
 Field
Schaumburg Barn     Fresh Fruit/   Midwest        Shaumburg    IL              60193        378       $13,600.44
                     Vegetable
                     Box
Schaumburg          Fresh Fruit/   Midwest        Schaumburg   IL              60169        126        $4,533.48
 Township            Vegetable
                     Box
Schaumburg          Precooked      Midwest        Hoffman      IL              60169        144       $11,681.28
 Township            Meat Box                      Estates
Schaumburg          Precooked      Midwest        Hoffman      IL              60169      1,008       $81,768.96
 Township            Meat Box                      Estates
Schaumburg          Precooked      Midwest        Schaumburg   IL              60169        432       $35,043.84
 Township            Meat Box
Schneerson Center   Fresh Fruit/   Western        San          CA              94121        850       $22,100.00
 Inc.                Vegetable                     Francisco
                     Box
Schoenalls          Fresh Fruit/   Midwest        Southfield   MI              48076      1,450       $21,677.50
 Elementary School   Vegetable
                     Box
School District U-  Combination    Midwest        Elgin        IL              60123         50        $1,173.50
 46 Commissary       Box
School of           Fresh Fruit/   Midwest        Detroit      MI              48205        819       $29,467.62
 Universal           Vegetable
 Practice            Box
Scio School         Fresh Fruit/   North East     Scio         NY              14880        500       $11,425.00
                     Vegetable
                     Box
Scotsdale Baptist   Fresh Fruit/   South West     El Paso      TX              79925        118        $2,301.00
 Church              Vegetable
                     Box
Scott Co.           Combination    Midwest        Scottsburg   IN              47170      2,750      $412,500.00
 Government          Box
Scott Co.           Fluid Milk     Midwest        Scottsburg   IN              47170      4,320       $17,280.00
 Government
Scott County--      Combination    Midwest        Austin       IN              47102      2,750      $412,500.00
 Austin              Box
Scottville Senior   Fresh Fruit/   Midwest        Scottville   MI              49454         87        $1,870.25
 Center              Vegetable
                     Box
Scuola Vita Nuova   Fresh Fruit/   Mountain       Kansas City  MO              64124        320        $8,288.00
 Charter School      Vegetable      Plains
                     Box
SE Christian        Fluid Milk     South East     Louisville   KY              40243      1,332        $2,997.00
 Church
Seamaac Inc.        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19148      3,390       $67,800.00
                     Vegetable                     a
                     Box
Seashore Community  Combination    Mid-Atlantic   Erma         NJ              08204      2,000      $190,000.00
 (Central Food       Box
 Bank NJ)
Seashore Missions   Fluid Milk     South East     Biloxi       MS              39530        948        $3,592.92
Seattle Union       Combination    Western        Kent         WA              98032      2,000       $70,000.00
 Gospel Mission      Box
Seattle Union       Dairy          Western        Kent         WA              98032      2,700       $81,000.00
 Gospel Mission      Products Box
Seattle Union       Fresh Fruit/   Western        Kent         WA              98032     13,951      $296,062.90
 Gospel Mission      Vegetable
                     Box
Sec. Harv. 3        Combination    Western        Kennewick    WA              99336        840       $29,400.00
 Rivers Conven.      Box
Sec. Harv. 3        Dairy          Western        Kennewick    WA              99336      1,100       $33,000.00
 Rivers Conven.      Products Box
Sec. Harv. 3        Fresh Fruit/   Western        Kennewick    WA              99336        840       $22,680.00
 Rivers Conven.      Vegetable
                     Box
Sec. Harv. Deer     Combination    Western        Deer Park    WA              99006        420       $14,700.00
 Park High           Box
Sec. Harv. Deer     Dairy          Western        Deer Park    WA              99006        500       $15,000.00
 Park High           Products Box
Sec. Harv. Deer     Fresh Fruit/   Western        Deer Park    WA              99006        420       $11,340.00
 Park High           Vegetable
                     Box
Sec. Harv. Life     Combination    Western        Spokane      WA              99224        420       $14,700.00
 Cnt. Church         Box
Sec. Harv. Life     Dairy          Western        Spokane      WA              99224        500       $15,000.00
 Cnt. Church         Products Box
Sec. Harv. Life     Fresh Fruit/   Western        Spokane      WA              99224        420       $11,340.00
 Cnt. Church         Vegetable
                     Box
Sec. Harv. Loon     Combination    Western        Loon Lake    WA              99148        900       $31,500.00
 Lake FB             Box
Sec. Harv. Loon     Dairy          Western        Loon Lake    WA              99148      3,025       $90,750.00
 Lake FB             Products Box
Sec. Harv. Loon     Fresh Fruit/   Western        Loon Lake    WA              99148      2,814       $75,978.00
 Lake FB             Vegetable
                     Box
Sec. Harv. Spok.    Combination    Western        Spokane      WA              99202      1,920       $67,200.00
 Fairgrounds         Box
Sec. Harv. Spok.    Dairy          Western        Spokane      WA              99202      1,900       $57,000.00
 Fairgrounds         Products Box
Sec. Harv. Spok.    Fresh Fruit/   Western        Spokane      WA              99202      1,920       $51,840.00
 Fairgrounds         Vegetable
                     Box
Second Alarm Inc.   Fluid Milk     South East     Roswell      GA              30075      2,100        $8,131.00
Second Baptist      Fresh Fruit/   Midwest        Elgin        IL              60123         40        $1,100.00
 Church              Vegetable
                     Box
Second Baptist      Fresh Fruit/   Mid-Atlantic   Beaver       PA              15010        480       $14,400.00
 Church              Vegetable                     Falls
                     Box
Second Baptist      Fresh Fruit/   Midwest        Bay City     MI              48708        600       $12,675.00
 Church              Vegetable
                     Box
Second Baptist      Fresh Fruit/   South East     Union City   TN              38261      1,026       $25,137.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
Second Blessings    Fresh Fruit/   Mountain       Union        MO              63084        535       $14,712.50
                     Vegetable      Plains
                     Box
Second Canaan       Fresh Fruit/   Midwest        Detroit      MI              48213      1,650       $24,667.50
 Baptist Church      Vegetable
                     Box
Second Chance       Fresh Fruit/   Midwest        Southfield   MI              48076        150        $4,312.50
 Covenant            Vegetable
                     Box
Second Ebenezer     Fresh Fruit/   Midwest        Detroit      MI              48212      7,045      $143,893.75
 Church              Vegetable
                     Box
Second Harvest      Combination    Western        San Jose     CA              95134      1,250       $34,062.50
                     Box
Second Harvest      Fluid Milk     South East     Thomasville  GA              31792      4,320       $16,804.80
Second Harvest      Fresh Fruit/   South East     Valdosta     GA              31601      1,000       $23,590.00
                     Vegetable
                     Box
Second Harvest      Fresh Fruit/   Western        San Jose     CA              95134    117,687    $2,000,679.00
                     Vegetable
                     Box
Second Harvest--    Combination    South East     Nashville    TN              37214        560       $42,588.00
 Donelson            Box
 Fellowship
Second Harvest--    Fresh Fruit/   Mid-Atlantic   Nazareth     PA              18064      1,260       $29,610.00
 Lehigh Valley       Vegetable
                     Box
Second Harvest--    Fluid Milk     Western        Pasco        WA              99301     23,760       $56,548.80
 Pasco
Second Harvest--    Fresh Fruit/   Western        Pasco        WA              99301     18,584      $374,260.80
 Pasco               Vegetable
                     Box
Second Harvest--    Combination    Western        Spokane      WA              99202     13,212      $516,786.00
 Spokane             Box
Second Harvest--    Dairy          Western        Spokane      WA              99202      8,875      $266,250.00
 Spokane             Products Box
Second Harvest--    Fluid Milk     Western        Spokane      WA              99202     15,768       $37,527.84
 Spokane
Second Harvest--    Fresh Fruit/   Western        Spokane      WA              99202     38,012      $816,128.42
 Spokane             Vegetable
                     Box
Second Harvest      Dairy          Midwest        Brooklyn     MN              55428      1,475       $88,647.50
 Brooklyn Park       Products Box                  Park
Second Harvest      Precooked      Midwest        Brooklyn     MN              55428      1,265       $84,135.15
 Brooklyn Park       Meat Box                      Park
Second Harvest      Dairy          Midwest        Muncie       IN              47302      1,000       $60,100.00
 East Central        Products Box
 Indiana
Second Harvest      Dairy          Midwest        Muncie       IN              47303      2,625       $63,708.75
 East Central        Products Box
 Indiana
Second Harvest      Fresh Fruit/   Midwest        Muncie       IN              47303      5,366      $110,830.32
 East Central        Vegetable
 Indiana             Box
Second Harvest      Precooked      Midwest        Muncie       IN              47303      8,366      $370,121.93
 East Central        Meat Box
 Indiana
Second Harvest FB   Combination    South West     Metairie     LA              70003      3,240      $274,816.80
 of Grtr. New        Box
 Orleans and
 Acadiana
Second Harvest FB   Combination    South West     New Orleans  LA              70123      9,486      $804,602.52
 of Grtr. New        Box
 Orleans and
 Acadiana
Second Harvest FB   Combination    South West     Lafayette    LA              70501         14        $1,187.48
 of Grtr. New        Box
 Orleans and
 Acadiana
Second Harvest FB   Dairy          South West     Metairie     LA              70003      3,283      $274,622.95
 of Grtr. New        Products Box
 Orleans and
 Acadiana
Second Harvest FB   Dairy          South West     New Orleans  LA              70123      6,480      $542,052.00
 of Grtr. New        Products Box
 Orleans and
 Acadiana
Second Harvest FB   Dairy          South West     Lafayette    LA              70501      2,917      $244,007.05
 of Grtr. New        Products Box
 Orleans and
 Acadiana
Second Harvest FB   Fluid Milk     South West     Lafayette    LA              70501      4,320       $13,240.80
 of Grtr. New
 Orleans and
 Acadiana
Second Harvest FB   Fluid Milk     South West     Metairie     LA              70003     15,840       $77,140.80
 of Grtr. New
 Orleans and
 Acadiana
Second Harvest FB   Fluid Milk     South West     New Orleans  LA              70123      7,920       $38,570.40
 of Grtr. New
 Orleans and
 Acadiana
Second Harvest FB   Fresh Fruit/   South West     Metairie     LA              70003      6,804      $524,782.80
 of Grtr. New        Vegetable
 Orleans and         Box
 Acadiana
Second Harvest FB   Fresh Fruit/   South West     Westwego     LA              70094      1,560       $95,752.80
 of Grtr. New        Vegetable
 Orleans and         Box
 Acadiana
Second Harvest FB   Fresh Fruit/   South West     New Orleans  LA              70123      3,536      $217,039.68
 of Grtr. New        Vegetable
 Orleans and         Box
 Acadiana
Second Harvest FB   Precooked      South West     Metairie     LA              70003      9,781    $1,159,439.74
 of Grtr. New        Meat Box
 Orleans and
 Acadiana
Second Harvest FB   Precooked      South West     Westwego     LA              70094      1,620      $192,034.80
 of Grtr. New        Meat Box
 Orleans and
 Acadiana
Second Harvest FB   Precooked      South West     New Orleans  LA              70123     28,968    $3,409,735.20
 of Grtr. New        Meat Box
 Orleans and
 Acadiana
Second Harvest FB   Precooked      South West     Lafayette    LA              70501      6,387      $757,114.98
 of Grtr New         Meat Box
 Orleans and
 Acadiana
Second Harvest      Combination    South East     Savannah     GA              31404     10,080      $766,584.00
 Food Bank           Box
Second Harvest      Combination    South East     Charlotte    NC              28206     16,128      $201,277.44
 Food Bank           Box
Second Harvest      Combination    South East     Nashville    TN              37228      3,360      $255,528.00
 Food Bank           Box
Second Harvest      Combination    South West     New Orleans  LA              70123     10,752      $123,325.44
 Food Bank           Box
Second Harvest      Dairy          South East     Charlotte    NC              28206      9,536      $311,159.68
 Food Bank           Products Box
Second Harvest      Dairy          Western        Manteca      CA              95337      2,415       $58,249.80
 Food Bank           Products Box
Second Harvest      Dairy          South East     Nashville    TN              37228      2,160       $54,000.00
 Food Bank           Products Box
Second Harvest      Dairy          South East     Camden       TN              38320        300        $7,500.00
 Food Bank           Products Box
Second Harvest      Dairy          Mid-Atlantic   Erie         PA              16501      2,100       $41,118.00
 Food Bank           Products Box
Second Harvest      Fluid Milk     South East     Camden       TN              38320     14,094       $31,711.50
 Food Bank
Second Harvest      Fluid Milk     Midwest        Madison      WI              53718     10,539       $18,970.20
 Food Bank
Second Harvest      Fluid Milk     South East     Nashville    TN              37228     48,112      $114,472.80
 Food Bank
Second Harvest      Fluid Milk     South East     Kingsport    TN              37663      6,938       $17,088.90
 Food Bank
Second Harvest      Fluid Milk     South West     New Orleans  LA              70123     73,008      $223,143.12
 Food Bank
Second Harvest      Fluid Milk     Mid-Atlantic   Erie         PA              16501      2,861       $34,263.90
 Food Bank
Second Harvest      Fluid Milk     Mid-Atlantic   Nazareth     PA              18064        960       $14,217.60
 Food Bank
Second Harvest      Fluid Milk     Mountain       St. Joseph   MO              64505      3,888       $44,925.84
 Food Bank                          Plains
Second Harvest      Fluid Milk     Midwest        Springfield  OH              45503      7,020       $23,306.40
 Food Bank
Second Harvest      Fresh Fruit/   Midwest        Madison      WI              53718     17,850      $231,157.50
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Midwest        Brooklyn     MN              55428     13,464      $174,358.80
 Food Bank           Vegetable                     Park
                     Box
Second Harvest      Fresh Fruit/   South East     Savannah     GA              31404     24,960      $472,742.40
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   South East     Charlotte    NC              28206      1,253       $32,578.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   South East     Nashville    TN              37228      2,100       $54,495.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   South West     New Orleans  LA              70123      6,528      $587,520.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Western        Manteca      CA              95337      3,395       $86,457.91
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Mid-Atlantic   Corry        PA              16407        300        $6,855.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Mid-Atlantic   Erie         PA              16501     10,841      $248,781.55
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Mountain       St. Joseph   MO              64505     24,640      $638,176.00
 Food Bank           Vegetable      Plains
                     Box
Second Harvest      Fresh Fruit/   Midwest        Lorain       OH              44053     18,695      $273,730.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Midwest        Springfield  OH              45503     21,120      $295,680.00
 Food Bank           Vegetable
                     Box
Second Harvest      Fresh Fruit/   Midwest        Youngstown   OH              44509     13,325      $186,550.00
 Food Bank           Vegetable
                     Box
Second Harvest      Precooked      South West     New Orleans  LA              70123     12,768      $632,765.76
 Food Bank           Meat Box
Second Harvest      Precooked      South East     Charlotte    NC              28206      1,274       $51,902.76
 Food Bank           Meat Box
Second Harvest      Precooked      Midwest        Madison      WI              53718     10,080      $381,427.20
 Food Bank           Meat Box
Second Harvest      Precooked      Mountain       St. Joseph   MO              64505     17,488      $638,612.22
 Food Bank           Meat Box       Plains
Second Harvest      Fresh Fruit/   South East     Melbourne    FL              32904      4,800       $52,080.00
 Food Bank--         Vegetable
 Brevard             Box
Second Harvest      Dairy          South East     Kingsport    TN              37663        874       $21,281.90
 Food Bank--         Products Box
 Northeast
Second Harvest      Fluid Milk     South East     Kingsport    TN              37663      7,680       $29,875.20
 Food Bank--
 Northeast
Second Harvest      Fresh Fruit/   South East     Kingsport    TN              37663      6,236      $124,720.00
 Food Bank--         Vegetable
 Northeast           Box
Second Harvest      Precooked      South East     Kingsport    TN              37663      2,752      $110,869.97
 Food Bank--         Meat Box
 Northeast
Second Harvest      Combination    South East     Murfreesbor  TN              37130        560       $42,588.00
 Food Bank--         Box                           o
 Patterson Park
Second Harvest      Dairy          Midwest        Springfield  OH              45503      7,851      $190,543.77
 Food Bank CC&L      Products Box
Second Harvest      Fresh Fruit/   Midwest        Springfield  OH              45503        150        $3,564.00
 Food Bank CC&L      Vegetable
                     Box
Second Harvest      Precooked      Midwest        Springfield  OH              45503     21,856      $897,603.45
 Food Bank CC&L      Meat Box
Second Harvest      Fluid Milk     South East     Charlotte    NC              28206     57,024      $222,298.56
 Food Bank
 Charlotte
Second Harvest      Fresh Fruit/   South East     Maryville    TN              37801      3,000       $60,000.00
 Food Bank East      Vegetable
                     Box
Second Harvest      Dairy          Midwest        Madison      WI              53718     13,584      $339,600.00
 Food Bank Madison   Products Box
Second Harvest      Fluid Milk     Midwest        Madison      WI              53718     10,872       $19,569.60
 Food Bank Madison
Second Harvest      Dairy          Midwest        Youngstown   OH              44509        480       $11,568.00
 Food Bank           Products Box
 Mahoning Valley
Second Harvest      Fresh Fruit/   Midwest        Youngstown   OH              44509        480       $12,720.00
 Food Bank           Vegetable
 Mahoning Valley     Box
Second Harvest      Combination    South West     Ville        LA              70586      1,560      $132,319.20
 Food Bank of        Box                           Platte
 Acadiana
Second Harvest      Fluid Milk     South West     Ville        LA              70586      3,960       $19,285.20
 Food Bank of                                      Platte
 Acadiana
Second Harvest      Fresh Fruit/   South West     Ville        LA              70586      1,560       $95,752.80
 Food Bank of        Vegetable                     Platte
 Acadiana            Box
Second Harvest      Combination    South East     Orlando      FL              32805     24,231    $1,133,853.00
 Food Bank of        Box
 Central Florida
Second Harvest      Fluid Milk     South East     Orlando      FL              32805     15,552       $61,207.68
 Food Bank of
 Central Florida
Second Harvest      Fresh Fruit/   South East     Daytona      FL              32114      9,048      $100,438.80
 Food Bank of        Vegetable                     Beach
 Central Florida     Box
Second Harvest      Fresh Fruit/   South East     Orlando      FL              32805     27,936      $536,810.40
 Food Bank of        Vegetable
 Central Florida     Box
Second Harvest      Precooked      South East     Orlando      FL              32805      1,202       $56,121.38
 Food Bank of        Meat Box
 Central Florida
Second Harvest      Fresh Fruit/   South East     West         FL              32904     16,848      $406,198.80
 Food Bank of        Vegetable                     Melbourne
 Central Florida--   Box
 Brev
Second Harvest      Dairy          Midwest        Springfield  OH              45503      1,365       $33,128.55
 Food Bank of        Products Box
 Clark
Second Harvest      Precooked      Midwest        Springfield  OH              45503        421       $13,316.23
 Food Bank of        Meat Box
 Clark
Second Harvest      Dairy          South West     Thibodaux    LA              70301      1,620      $135,513.00
 Food Bank of        Products Box
 Greater New
 Orleans An.
Second Harvest      Fluid Milk     South West     Thibodaux    LA              70301      2,400       $11,688.00
 Food Bank of
 Greater New
 Orleans An.
Second Harvest      Precooked      South West     Laplace      LA              70068      1,590      $188,478.60
 Food Bank of        Meat Box
 Greater New
 Orleans An.
Second Harvest      Precooked      South West     Thibodaux    LA              70301      1,620      $192,034.80
 Food Bank of        Meat Box
 Greater New
 Orleans An.
Second Harvest      Dairy          South East     Charlotte    NC              28206        513       $12,491.55
 Food Bank of        Products Box
 Metrolina
Second Harvest      Fresh Fruit/   South East     Charlotte    NC              28206     27,875      $637,408.75
 Food Bank of        Vegetable
 Metrolina           Box
Second Harvest      Precooked      South East     Charlotte    NC              28206      5,439      $194,618.57
 Food Bank of        Meat Box
 Metrolina
Second Harvest      Fluid Milk     South East     Nashville    TN              37228     13,824       $53,621.76
 Food Bank of
 Middle Tennessee
Second Harvest      Fresh Fruit/   South East     Nashville    TN              37228     22,944      $472,159.32
 Food Bank of        Vegetable
 Middle Tennessee    Box
Second Harvest      Fresh Fruit/   South East     Nashville    TN              37663      3,082       $61,640.00
 Food Bank of        Vegetable
 Middle Tennessee    Box
Second Harvest      Dairy          Midwest        Lorain       OH              44053      8,760      $219,000.00
 Food Bank of        Products Box
 North Central
 Ohio
Second Harvest      Fresh Fruit/   Midwest        Lorain       OH              44053        960       $25,440.00
 Food Bank of        Vegetable
 North Central       Box
 Ohio
Second Harvest      Dairy          South East     Kingsport    TN              37663      1,260       $46,620.00
 Food Bank of        Products Box
 Northern TN
Second Harvest      Fluid Milk     South East     Winston      NC              27107     12,096       $46,535.04
 Food Bank of NW                                   Salem
 NC
Second Harvest      Fresh Fruit/   South East     Winston      NC              27107     13,950      $243,145.86
 Food Bank of NW     Vegetable                     Salem
 NC                  Box
Second Harvest      Precooked      South East     Winston      NC              27107      1,274       $51,902.76
 Food Bank of NW     Meat Box                      Salem
 NC
Second Harvest      Combination    Western        Foothill     CA              92610      7,488      $283,420.80
 Food Bank of        Box                           Ranch
 Orange County
Second Harvest      Combination    Western        Irvine       CA              92618     21,464      $808,015.60
 Food Bank of        Box
 Orange County
Second Harvest      Dairy          Western        Irvine       CA              92618     24,885      $796,320.00
 Food Bank of        Products Box
 Orange County
Second Harvest      Fresh Fruit/   Western        Foothill     CA              92610     23,741      $581,654.50
 Food Bank of        Vegetable                     Ranch
 Orange County       Box
Second Harvest      Fresh Fruit/   Western        Irvine       CA              92618    141,416    $2,413,980.64
 Food Bank of        Vegetable
 Orange County       Box
Second Harvest      Fresh Fruit/   Western        Anaheim      CA              92807     11,832      $289,884.00
 Food Bank of        Vegetable
 Orange County       Box
Second Harvest      Fresh Fruit/   Western        Manteca      CA              95337      1,800       $39,600.00
 Food Bank of San    Vegetable
 Joaquin             Box
Second Harvest      Fresh Fruit/   Western        San Jose     CA              95134     10,916      $152,824.00
 Food Bank San       Vegetable
 Jose                Box
Second Harvest      Dairy          Midwest        Madison      WI              53718      1,200       $29,124.00
 Foodbank South      Products Box
 Central Wisconsin
Second Harvest      Fluid Milk     Midwest        Madison      WI              53718      6,804       $12,247.20
 Foodbank South
 Central Wisconsin
Second Harvest      Fluid Milk     Midwest        Madison      WI              53718      1,944        $3,499.20
 Foodbank South
 Central Wisconsin
Second Harvest      Fresh Fruit/   Midwest        Madison      WI              53718      2,820       $46,953.00
 Foodbank South      Vegetable
 Central Wisconsin   Box
Second Harvest      Precooked      Midwest        Madison      WI              53718      8,189      $310,950.35
 Foodbank South      Meat Box
 Central Wisconsin
Second Harvest      Dairy          Midwest        Brooklyn     MN              55428     10,880      $292,272.00
 Heartland           Products Box                  Park
Second Harvest      Fresh Fruit/   Midwest        Brooklyn     MN              55428      2,400       $57,600.00
 Heartland           Vegetable                     Park
                     Box
Second Harvest      Precooked      Midwest        Brooklyn     MN              55428     20,160      $762,854.40
 Heartland           Meat Box                      Park
Second Harvest      Dairy          Mid-Atlantic   Nazareth     PA              18064      6,500      $219,310.00
 Lehigh              Products Box
Second Harvest      Fresh Fruit/   Mid-Atlantic   Nazareth     PA              18064        630       $11,938.50
 Lehigh              Vegetable
                     Box
Second Harvest      Precooked      Mid-Atlantic   Nazareth     PA              18064      8,484      $603,551.76
 Lehigh              Meat Box
Second Harvest MN   Dairy          Midwest        Brooklyn     MN              55428     33,476    $2,076,719.30
                     Products Box                  Park
Second Harvest MN   Precooked      Midwest        Brooklyn     MN              55428     17,158    $1,183,191.76
                     Meat Box                      Park
Second Harvest      Fresh Fruit/   South East     Nashville    TN              37228      2,800       $55,916.00
 Nashville           Vegetable
                     Box
Second Harvest      Precooked      Midwest        Grand        MN              55744      2,440       $92,329.60
 North Central       Meat Box                      Rapids
Second Harvest of   Fresh Fruit/   Western        Manteca      CA              95337      2,695       $61,839.47
 Manteca             Vegetable
                     Box
Second Harvest of   Fresh Fruit/   South East     Spartanburg  SC              29307      3,976       $79,400.72
 Metrolina           Vegetable
                     Box
Second Harvest of   Fresh Fruit/   South East     Williamston  SC              29697      3,876       $77,403.72
 Metrolina           Vegetable
                     Box
Second Harvest of   Fresh Fruit/   South East     Orlando      FL              32805      5,040      $163,800.00
 Orlando             Vegetable
                     Box
Second Harvest of   Fresh Fruit/   South East     West         FL              32904      1,260       $40,950.00
 Orlando             Vegetable                     Melbourne
                     Box
Second Harvest of   Fresh Fruit/   South East     Titusville   FL              33780      1,260       $40,950.00
 Orlando             Vegetable
                     Box
Second Harvest of   Combination    Western        San Jose     CA              95125      3,744      $147,888.00
 Silicon Valley      Box
Second Harvest of   Fluid Milk     Western        San Jose     CA              95125      4,224       $42,197.76
 Silicon Valley
Second Harvest of   Fresh Fruit/   Western        San Jose     CA              95134     34,608      $691,121.76
 Silicon Valley      Vegetable
                     Box
Second Harvest of   Fluid Milk     South East     Thomasville  GA              31792     11,424       $44,592.96
 South Georgia
Second Harvest of   Fresh Fruit/   South East     Thomasville  GA              31792      2,500       $51,795.00
 South Georgia       Vegetable
                     Box
Second Harvest of   Precooked      South East     Thomasville  GA              31792      1,274       $51,902.76
 South Georgia       Meat Box
Second Harvest of   Fresh Fruit/   Western        Spokane      WA              99202      7,000      $192,500.00
 the Inland          Vegetable
 Northwest           Box
Second Harvest      Fresh Fruit/   Western        Spokane      WA              99202      1,456       $29,076.32
 Pasco               Vegetable
                     Box
Second Harvest      Fresh Fruit/   Midwest        Logan        OH              43138      1,920       $26,880.00
 Southeastern Ohio   Vegetable
                     Box
Second Harvest      Fresh Fruit/   South East     Thomasville  GA              31792      2,040       $43,287.60
 Thomasville         Vegetable
                     Box
Second Harvest      Fresh Fruit/   South East     Tifton       GA              31794      2,000       $47,180.00
 Tifton GA           Vegetable
                     Box
Second Harvest      Fresh Fruit/   South East     Valdosta     GA              31601      4,640       $97,775.20
 Valdosta            Vegetable
                     Box
Second Harvest      Precooked      South East     Winston      NC              27107      3,481      $136,107.10
 Winston Salem       Meat Box                      Salem
Second Helpings     Combination    Midwest        Indianapoli  IN              46202        300       $45,000.00
                     Box                           s
Second Helpings     Combination    Midwest        Indianapoli  IN              46219        100       $15,000.00
                     Box                           s
Second Helpings     Fluid Milk     Midwest        Indianapoli  IN              46202      3,183       $10,567.56
                                                   s
Second Liners       Fresh Fruit/   South East     Mosspoint    MS              39533        300       $18,000.00
 Mardi Gras Club     Vegetable
                     Box
Second Liners       Fresh Fruit/   South East     Mosspoint    MS              39534        420       $25,200.00
 Mardi Gras Club     Vegetable
 Taronta Gines       Box
Second Missionary   Fresh Fruit/   Midwest        Monroe       MI              48161        210        $3,139.50
 Baptist             Vegetable
                     Box
Second Ward Com.    Fresh Fruit/   Midwest        Delaware     OH              43015        988       $15,486.00
 Ctr.                Vegetable
                     Box
Sede Bahai De       Combination    Mid-Atlantic   Cabo Rojo    PR              00623        150       $14,850.00
 Puerto Rico         Box
Sede Bahai De       Combination    Mid-Atlantic   San German   PR              00683        150        $7,500.00
 Puerto Rico         Box
Sede Bahai De       Combination    Mid-Atlantic   San Juan     PR              00918        576       $49,968.00
 Puerto Rico         Box
Seeds That Feed     Combination    Midwest        Des Moines   IA              50265        252        $8,812.44
                     Box
Seeds That Feed     Combination    Midwest        Des Moines   IA              50265      2,964      $103,651.08
                     Box
Seeds That Feed     Combination    Midwest        West Des     IA              50265        294       $10,281.18
                     Box                           Moines
Seeds That Feed     Dairy          Midwest        Des Moines   IA              50265        360       $16,473.60
                     Products Box
Seeds That Feed     Dairy          Midwest        Des Moines   IA              50265      3,415      $156,270.40
                     Products Box
Seeds That Feed     Dairy          Midwest        West Des     IA              50265        420       $19,219.20
                     Products Box                  Moines
Seeds That Feed     Fresh Fruit/   Midwest        Des Moines   IA              50265      1,086       $19,446.60
                     Vegetable
                     Box
Seeds That Feed     Fresh Fruit/   Midwest        Des Moines   IA              50265      7,290      $130,991.40
                     Vegetable
                     Box
Seeds That Feed     Fresh Fruit/   Midwest        West Des     IA              50265      1,338       $23,730.60
                     Vegetable                     Moines
                     Box
Seekonk COA         Combination    North East     Seekonk      MA              02771         25          $950.00
                     Box
Seekonk COA         Precooked      North East     Seekonk      MA              02771         25        $1,357.50
                     Meat Box
Selma Area FB       Fluid Milk     South East     Selma        AL              36701      1,980        $7,900.20
Selma Area Food     Fresh Fruit/   South East     Montgomery   AL              36108      2,955       $82,740.00
 Bank Mgm.           Vegetable
                     Box
Selma High School   Fresh Fruit/   South East     Selma        AL              36701      6,910      $179,314.50
                     Vegetable
                     Box
Sembrando Semillas  Combination    Mid-Atlantic   Bayamon      PR              00959        672       $66,528.00
 De Esperanza        Box
Seminario           Combination    Mid-Atlantic   San Juan     PR              00921      1,920      $141,864.00
 Evangelico          Box
Seminole Nation     Combination    South West     Seminole     OK              74868      1,056       $36,928.32
                     Box
Seminole Nation     Dairy          South West     Seminole     OK              74868      1,056       $48,322.56
                     Products Box
Seminole Nation     Fresh Fruit/   South West     Seminole     OK              74868      2,215       $43,747.10
                     Vegetable
                     Box
Seneca Baptist      Fresh Fruit/   South East     Seneca       SC              29678      1,500       $45,000.00
 Church              Vegetable
                     Box
Seneca Cty. office  Dairy          North East     Ovid         NY              14521        300       $13,260.00
 Bldg.               Products Box
Seneca Cty. office  Dairy          North East     Waterloo     NY              13165      1,215       $53,703.00
 Bldg.               Products Box
Seneca Cty. office  Precooked      North East     Ovid         NY              14521        336       $18,345.60
 Bldg.               Meat Box
Seneca Cty. office  Precooked      North East     Waterloo     NY              13165      1,323       $72,235.80
 Bldg.               Meat Box
Senior Citizen      Dairy          Midwest        Cleveland    OH              44109        100        $2,500.00
 Resources           Products Box
Senior Friendship   Combination    South East     Fort Myers   FL              33907      2,240      $170,352.00
 Centers             Box
Senior Housing      Fluid Milk     South West     Houston      TX              77009        420        $1,226.40
Senior Meals        Precooked      Midwest        Grand        MI              49505        511       $20,098.20
 Program-Pantry      Meat Box                      Rapids
Senior Nutrition    Dairy          Midwest        Benton       MI              49022        325        $9,425.00
 Services            Products Box                  Harbor
Senior Nutrition    Fresh Fruit/   Midwest        Benton       MI              49022        430        $9,040.00
 Services            Vegetable                     Harbor
                     Box
Seniors First:      Combination    South East     Orlando      FL              32811        280       $21,294.00
 Orlando Main        Box
 office
Serve Inc.          Fluid Milk     Mountain       Fulton       MO              65251      1,242        $2,794.50
                                    Plains
Services of Hope    Dairy          South West     Dallas       TX              75206        300       $13,728.00
 Ellsworth           Products Box
Services of Hope    Fresh Fruit/   South West     Dallas       TX              75206        250        $4,775.00
 Ellsworth           Vegetable
                     Box
Services of Hope    Fresh Fruit/   South West     Dallas       TX              75201      3,080       $77,000.00
 Entities LLC        Vegetable
                     Box
Services of Hope    Fresh Fruit/   South West     Dallas       TX              75232      1,270       $28,800.00
 Entities LLC        Vegetable
                     Box
Services of Hope    Fresh Fruit/   South West     Dallas       TX              75235        300        $5,730.00
 Entities LLC        Vegetable
                     Box
Services of Hope    Fresh Fruit/   South West     Dallas       TX              75236      6,320      $136,469.12
 Entities LLC        Vegetable
                     Box
Services of Hope    Fresh Fruit/   South West     Irving       TX              75063      3,380       $82,730.00
 Entities LLC        Vegetable
                     Box
Services of Hope    Precooked      South West     Dallas       TX              75206      1,521      $156,891.15
 Entities LLC        Meat Box
Services of Hope    Precooked      South West     Dallas       TX              75211      1,536      $158,438.40
 Entities LLC        Meat Box
Services of Hope    Precooked      South West     Dallas       TX              75217      1,440      $148,536.00
 Entities LLC        Meat Box
Services of Hope    Fresh Fruit/   South West     Irving       TX              75062        150        $2,865.00
 Irving              Vegetable
                     Box
Servicios Sociales  Combination    Mid-Atlantic   Dorado       PR              00646        672       $66,528.00
 Luteranos De        Box
 Puerto Rico
Serving the Needy   Fresh Fruit/   South East     College      GA              30349         50        $1,000.00
                     Vegetable                     Park
                     Box
Sesser Youth &      Dairy          Midwest        Sesser       IL              62884        300        $8,925.00
 Family              Products Box
Sesser Youth &      Dairy          Midwest        Sesser       IL              62884        900       $26,775.00
 Family              Products Box
Sesser Youth &      Fresh Fruit/   Midwest        Sesser       IL              62884        300        $8,250.00
 Family              Vegetable
                     Box
Sesser Youth &      Fresh Fruit/   Midwest        Sesser       IL              62884        800       $22,000.00
 Family              Vegetable
                     Box
Set Free Christian  Fresh Fruit/   Western        Riverside    CA              92507        120        $3,480.00
 Fellowship          Vegetable
                     Box
Sevenday Adventist  Fresh Fruit/   South West     Irving       TX              75060      1,280       $21,747.20
 Spanish Chu.        Vegetable
                     Box
Seventh Day         Fresh Fruit/   Midwest        Des Moines   IA              50315        150        $2,175.00
 Adventist Chruch    Vegetable
                     Box
Seventh-Day         Fluid Milk     South West     Dallas       TX              75204      4,304       $12,692.96
 Adventist Church
Seventh-Day         Fresh Fruit/   South West     El Paso      TX              79925        648       $12,636.00
 Adventist Church    Vegetable
                     Box
Sewa Int. Villa     Fresh Fruit/   South West     Houston      TX              77072        400        $3,880.00
 Adora Apts.         Vegetable
                     Box
Sewell Avery        Precooked      Midwest        Sault        MI              49783         94        $3,568.29
 Center              Meat Box                      Sainte
                                                   Marie
Sewickley Valley    Fresh Fruit/   Mid-Atlantic   Sewickley    PA              15143        560       $16,800.00
 YMCA                Vegetable
                     Box
Seymour Christian   Fluid Milk     Midwest        Seymour      IN              47274     16,120       $64,480.00
 Ch.
SF Food Bank Cow    Fresh Fruit/   Western        San          CA              94134      1,568       $31,124.80
 Palace              Vegetable                     Francisco
                     Box
SF Wholesale        Fresh Fruit/   Western        San          CA              94110        100        $2,500.00
 Market              Vegetable                     Francisco
                     Box
SF Wholesale        Fresh Fruit/   Western        San          CA              94124        410       $10,250.00
 Market              Vegetable                     Francisco
                     Box
SF Wholesale        Fresh Fruit/   Western        San          CA              94127         24          $600.00
 Market              Vegetable                     Francisco
                     Box
SF YMCA--Richmond   Fresh Fruit/   Western        San          CA              94121      1,260       $17,640.00
 District            Vegetable                     Francisco
                     Box
SFC Board for the   Fresh Fruit/   Mountain       Farmington   MO              63640         62        $1,705.00
 Development         Vegetable      Plains
                     Box
SH--Greenhouse      Combination    South East     Murfreesbor  TN              37130      1,120       $85,176.00
 Ministries--Sprin   Box                           o
 g Valley Apts.
SH Food Bank--      Combination    South East     Franklin     TN              37064      1,680      $127,764.00
 Graceworks          Box
Sha Arei Chesed     Combination    Mountain       St. Louis    MO              63132        360       $12,589.20
 Shul                Box            Plains
Sha Arei Chesed     Dairy          Mountain       St. Louis    MO              63132        120        $5,491.20
 Shul                Products Box   Plains
Sha Arei Chesed     Fresh Fruit/   Mountain       St. Louis    MO              63132      1,044       $14,815.80
 Shul                Vegetable      Plains
                     Box
Shabach C/O         Fresh Fruit/   Mid-Atlantic   Landover     MD              20785      1,440       $33,091.20
 Capital FB          Vegetable
                     Box
Shady Grove         Fresh Fruit/   South East     Boonville    NC              27011      2,118       $58,245.00
 Baptist Church      Vegetable
                     Box
Shag Community      Combination    Western        Tukwila      WA              98168        405       $14,175.00
 Foundation          Box
Shag Community      Dairy          Western        Tukwila      WA              98168        375       $11,250.00
 Foundation          Products Box
Shag Community      Fresh Fruit/   Western        Tukwila      WA              98168        545       $14,715.00
 Foundation          Vegetable
                     Box
Shalom Adonai Men   Fluid Milk     South East     Charlotte    NC              28211      3,528       $13,899.12
Shalom Center       Dairy          Midwest        Kenosha      WI              53144        270        $6,552.90
                     Products Box
Shalom Center       Dairy          Midwest        Baraboo      WI              53913        330        $8,009.10
                     Products Box
Shalom Center       Fresh Fruit/   Midwest        Kenosha      WI              53144      1,220       $21,738.00
                     Vegetable
                     Box
Shalom Center       Fresh Fruit/   Midwest        Baraboo      WI              53913        200        $3,330.00
                     Vegetable
                     Box
Shalom Center       Precooked      Midwest        Kenosha      WI              53144      1,611       $61,714.05
                     Meat Box
Shalom Center       Precooked      Midwest        Baraboo      WI              53913        243        $8,630.55
                     Meat Box
Share Center Food   Fluid Milk     South West     Terrell      TX              75160        216          $630.72
 Pantry
Share Center Food   Fresh Fruit/   South West     Terrell      TX              75160        672       $11,417.28
 Pantry              Vegetable
                     Box
Share Food Program  Combination    Mid-Atlantic   Philadelphi  PA              19129      6,158      $384,810.00
                     Box                           a
Share Food Program  Dairy          Mid-Atlantic   Philadelphi  PA              19129     28,759      $931,504.00
                     Products Box                  a
Share Food Program  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19128      1,728       $39,709.44
                     Vegetable                     a
                     Box
Share Food Program  Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19129    136,032    $3,297,942.12
                     Vegetable                     a
                     Box
Share Food Program  Precooked      Mid-Atlantic   Philadelphi  PA              19129      2,880      $178,128.00
                     Meat Box                      a
Share Montco        Fluid Milk     Mid-Atlantic   Philadelphi  PA              19128        770       $24,948.00
                                                   a
Share Montco        Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19128      3,456       $79,418.88
                     Vegetable                     a
                     Box
Share Montco        Precooked      Mid-Atlantic   Philadelphi  PA              19128      1,049       $74,625.86
                     Meat Box                      a
Share the Harvest   Fluid Milk     Mountain       Camdenton    MO              65020        952        $2,142.00
 Food Pantry                        Plains
Share the Harvest   Fresh Fruit/   Mountain       Camdenton    MO              65020        336        $9,240.00
 Food Pantry         Vegetable      Plains
                     Box
Share the Table     Fluid Milk     South East     Hampstead    NC              28443        864        $3,360.96
Shared Abundance    Fluid Milk     Midwest        Huntingburg  IN              47542        180          $405.00
Shared Blessing     Fresh Fruit/   Mountain       Bonne Terre  MO              63628      6,982      $192,005.00
 Inc.                Vegetable      Plains
                     Box
Shared Harvest      Dairy          Midwest        Fairfield    OH              45014      3,900       $97,500.00
 Food Bank           Products Box
Shared Harvest      Fluid Milk     Midwest        Fairfield    OH              45014      2,128        $7,554.40
 Food Bank
Shared Harvest      Fresh Fruit/   Midwest        Fairfield    OH              45014      9,330      $154,798.50
 Food Bank           Vegetable
                     Box
Sharehope/          Fresh Fruit/   South East     Hoover       AL              35244      3,680       $95,496.00
 Principio           Vegetable
                     Box
Sharing Life        Fluid Milk     South West     Mesquite     TX              75150     12,597       $36,783.24
Sharing Life        Fresh Fruit/   South West     Mesquite     TX              75150      8,528      $144,890.72
                     Vegetable
                     Box
Sharing Our Src./   Fresh Fruit/   Mountain       Hazelwood    MO              63042        360       $11,520.00
 STL Food Bank       Vegetable      Plains
                     Box
Sharon Hill         Fluid Milk     Mid-Atlantic   Sharon Hill  PA              19079        192        $3,786.24
 Library
Sharpsburg Family   Fresh Fruit/   Mid-Atlantic   Sharpsburg   PA              15215        560       $16,800.00
 Worship Center      Vegetable
                     Box
Shasta Senior       Fresh Fruit/   Western        Redding      CA              96003      2,100       $29,400.00
 Nutrition           Vegetable
                     Box
Shekinah            Precooked      Midwest        Chicago      IL              60827        216       $17,521.92
                     Meat Box
Shekinah Chapel     Fresh Fruit/   Midwest        Riverdale    IL              60827        126        $4,533.48
                     Vegetable
                     Box
Shelby County       Fresh Fruit/   South East     Memphis      TN              38112      2,376       $58,212.00
 Board of            Vegetable
 Education--C/O      Box
 Mid South Food
 Bank
Shelby County Food  Fresh Fruit/   Mountain       Shelbina     MO              63468        555       $15,262.50
 Pantry              Vegetable      Plains
                     Box
Shelby Emergency    Fresh Fruit/   South East     Vincent      AL              35178        400       $11,200.00
                     Vegetable
                     Box
Shelby Fire Dept.   Fresh Fruit/   Midwest        Shelby       MI              48316        350       $10,062.50
                     Vegetable                     Township
                     Box
Shelby Middle       Dairy          Midwest        Shelby       MI              49455      3,311       $96,019.00
 School              Products Box
Shelby Middle       Fresh Fruit/   Midwest        Shelby       MI              49455      6,847      $144,885.25
 School              Vegetable
                     Box
Shelby Mission      Dairy          South East     Shelby       NC              28150        450        $2,250.00
 Camp                Products Box
Shelby Mission      Fluid Milk     South East     Shelby       NC              28150        620        $2,480.00
 Camp
Shelby Mission      Fresh Fruit/   South East     Shelby       NC              28150      2,700       $74,250.00
 Camp                Vegetable
                     Box
Shelby Mission      Precooked      South East     Shelby       NC              28150        765       $14,917.50
 Camp                Meat Box
Sheldon Isd.        Fluid Milk     South West     Houston      TX              77044      1,026       $24,562.44
 Stadium
Shepard Supply      Fresh Fruit/   South East     Moody        AL              35004        720       $18,684.00
                     Vegetable
                     Box
Shepards Heart      Fluid Milk     South West     Waco         TX              76710      2,520        $7,358.40
 Food Bank Waco
Shepards Heart      Fresh Fruit/   South West     Waco         TX              76710      7,392      $125,590.08
 Food Bank Waco      Vegetable
                     Box
Sheperds Hope       Precooked      Midwest        Englewood    IL              60621        144       $11,681.28
                     Meat Box
Sheperd's Hope      Fresh Fruit/   Midwest        Chicago      IL              60621        882       $31,734.36
                     Vegetable
                     Box
Shepherd Community  Combination    Midwest        Indianapoli  IN              46201      1,000      $150,000.00
 Church              Box                           s
Shepherd High       Dairy          Midwest        Shepherd     MI              48883        175        $4,247.25
 School/Food         Products Box
 Service
Shepherd High       Fresh Fruit/   Midwest        Shepherd     MI              48883        175        $4,158.00
 School/Food         Vegetable
 Service             Box
Shepherd Nook Food  Fresh Fruit/   Mountain       Salem        MO              65560      1,625       $44,687.50
 Pantry              Vegetable      Plains
                     Box
Shepherd of the     Fluid Milk     South West     San Antonio  TX              78204        432        $1,261.44
 Hil.
Shepherd of the     Dairy          Western        Central      OR              97502        600       $18,000.00
 Valley Ch.          Products Box                  Point
Shepherd of the     Combination    Western        Central      OR              97502        720       $25,200.00
 Valley Ch.          Box                           Point
Shepherd Public     Fresh Fruit/   Midwest        Shepherd     MI              48883        350       $12,593.00
 Schools             Vegetable
                     Box
Shepherd Supply     Fluid Milk     South East     Odenville    AL              35120      2,000        $7,580.00
 Inc.
Shepherd's Hands    Dairy          Midwest        Brookville   OH              45309         75        $1,875.00
 Pantry              Products Box
Shepherds Hope      Precooked      Midwest        Englewood    IL              60621        144       $11,681.28
                     Meat Box
Shepherds Hope      Precooked      Midwest        Englewood    IL              60621        936       $75,928.32
                     Meat Box
Shepherd's Hope     Precooked      Midwest        Chicago      IL              60621      1,296      $105,131.52
                     Meat Box
Shepherds Hope      Fresh Fruit/   Midwest        Chicago      IL              60621      1,572       $23,501.40
 Food Pantry         Vegetable
                     Box
Shepherd's Hope     Fresh Fruit/   Midwest        Chicago      IL              60621        288        $4,305.60
 Food Pantry         Vegetable
                     Box
Shepherd's House    Fresh Fruit/   Western        Bend         OR              97701        180        $8,460.00
                     Vegetable
                     Box
Shepherds Kitchen   Fresh Fruit/   South West     Snowflake    AZ              85937        800       $19,740.00
                     Vegetable
                     Box
Shepherds Staff     Fresh Fruit/   South East     Loganville   GA              30052      1,400       $26,516.00
 Ministries          Vegetable
                     Box
Shiawassee Hope     Fresh Fruit/   Midwest        Owosso       MI              48867        150        $3,125.00
                     Vegetable
                     Box
Shields Middle      Fresh Fruit/   South East     Birmingham   AL              35234        750       $21,000.00
 School              Vegetable
                     Box
Shiloh Baptist      Fresh Fruit/   South East     Gadsden      AL              35901      1,000       $25,950.00
 Church              Vegetable
                     Box
Shiloh Community    Dairy          Mid-Atlantic   Pittsburgh   PA              15208        400        $4,400.00
 Church              Products Box
Shiloh Community    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15208        120        $3,600.00
 Church              Vegetable
                     Box
Shiloh MBC          Fresh Fruit/   Midwest        Battle       MI              49037         50        $1,056.25
                     Vegetable                     Creek
                     Box
Shiloh Ministry     Fresh Fruit/   South East     Memphis      TN              38134      3,240       $79,380.00
 Inc.                Vegetable
                     Box
Shiloh Missionary   Dairy          South West     Dallas       TX              75041      1,200       $54,912.00
 Baptist Church      Products Box
Shiloh Missionary   Fresh Fruit/   South West     Dallas       TX              75041        300        $6,990.00
 Baptist Church      Vegetable
                     Box
Shiloh Missionary   Fresh Fruit/   South West     Garland      TX              75041        320        $5,436.80
 Baptist Church      Vegetable
                     Box
Shiloh SDA Dorcas   Dairy          Midwest        Chicago      IL              60637         70        $1,750.00
 Soc.                Products Box
Shiloh SDA Dorcas   Precooked      Midwest        Chicago      IL              60637         72        $5,840.64
 Society             Meat Box
Shining Light       Fresh Fruit/   Mountain       Charleston   MO              63834      2,340       $64,350.00
                     Vegetable      Plains
                     Box
Shippensburg        Fluid Milk     Mid-Atlantic   Shippensbur  PA              17257        179        $3,973.68
 Produce &                                         g
 Outreach
Shippensburg        Fresh Fruit/   Mid-Atlantic   Shippensbur  PA              17257        216        $4,963.68
 Produce &           Vegetable                     g
 Outreach            Box
Shiv Shakti Temple  Fresh Fruit/   South West     Houston      TX              77036        320        $5,436.80
 (SEWA)              Vegetable
                     Box
Shop Her Closet     Fresh Fruit/   South East     Bamberg      SC              29003        642       $19,260.00
 Outreach            Vegetable
                     Box
Shoreline Church    Combination    Western        Monterey     CA              93940         72        $3,775.68
                     Box
Shoreline Church    Fresh Fruit/   Western        Monterey     CA              93940        462       $12,441.66
                     Vegetable
                     Box
Shoreline Park      Dairy          South East     Bay Saint    MS              39520         80        $2,246.40
 Baptist Ch.         Products Box                  Louis
Shoreline Park      Dairy          South East     Bay St.      MS              39520        640       $17,971.20
 Baptist Ch.         Products Box                  Louis
Shoreline Park      Fresh Fruit/   South East     Bay Saint    MS              39520        992       $16,764.80
 Baptist Ch.         Vegetable                     Louis
                     Box
Shoreline Park      Precooked      South East     Bay St.      MS              39520      1,512       $62,082.72
 Baptist Ch.         Meat Box                      Louis
Shores Assembly of  Fluid Milk     South East     Ocala        FL              34472        600        $2,274.00
Short Creek Dream   Dairy          South West     Colorado     AZ              86021      1,056       $48,322.56
 Center              Products Box                  City
Shree Swaminarayan  Combination    South West     Sugar Land   TX              77498        400       $13,988.00
 Hindu Temple        Box
Shrewsbury High     Fresh Fruit/   North East     Shrewsbury   MA              01545        336        $7,375.20
 School              Vegetable
                     Box
Shrine of the       Fresh Fruit/   Midwest        Detroit      MI              48206      3,299      $116,709.77
 Black Madonna       Vegetable
 Church              Box
SHSG Tifton         Fresh Fruit/   South East     Tifton       GA              31794      3,120       $59,092.80
                     Vegetable
                     Box
Shuler Manor        Fresh Fruit/   South East     Miami        FL              33142      1,080       $18,090.00
                     Vegetable
                     Box
Shull Early         Fresh Fruit/   Mountain       Peculiar     MO              64078        120        $3,108.00
 Learning Center     Vegetable      Plains
                     Box
Shull Early         Fresh Fruit/   Mountain       Raymore      MO              64078         40        $1,036.00
 Learning Center     Vegetable      Plains
                     Box
Sibley Hospital     Fresh Fruit/   Mid-Atlantic   Washington   Dc              20016      1,800       $36,000.00
                     Vegetable
                     Box
Sickle Cell         Fluid Milk     South West     Tulsa        OK              74126        915       $21,905.10
 Foundation
Sickle Cell         Fresh Fruit/   South West     Tulsa        OK              74126      1,513       $29,072.30
 Foundation          Vegetable
                     Box
Sickle Cell         Dairy          South West     Oklahoma     OK              73111      4,224      $193,290.24
 Foundation OKC      Products Box                  City
Sickle Cell         Fluid Milk     South West     Oklahoma     OK              73111      1,980       $47,401.20
 Foundation OKC                                    City
Sickle Cell         Fresh Fruit/   South West     Oklahoma     OK              73111      5,667       $88,956.30
 Foundation OKC      Vegetable                     City
                     Box
Siempre Vivas       Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00682        250        $9,750.00
                     Vegetable
                     Box
Siempre Vivas       Fresh Fruit/   Mid-Atlantic   Mayaguez     PR              00682         50        $1,950.00
 Resedencia 5B       Vegetable
 Universidad De PR   Box
 Reci
Sierra Vista Child  Combination    Western        Modesto      CA              95357        140        $7,341.60
 & Family Services   Box
Sierra Vista Child  Fresh Fruit/   Western        Modesto      CA              95357        301        $9,491.93
 & Family Services   Vegetable
                     Box
Siersma Elementary  Fresh Fruit/   Midwest        Warren       MI              48091        300        $4,485.00
                     Vegetable
                     Box
Sikh Temple         Dairy          Western        Jurupa       CA              92509      2,400       $70,128.00
                     Products Box                  Valley
Sikh Temple         Fluid Milk     Western        Jurupa       CA              92509      4,224       $42,197.76
                                                   Valley
Silver Lake Church  Fresh Fruit/   Midwest        Pontiac      MI              48341        500        $7,475.00
 of Nazarene         Vegetable
                     Box
Silver Lake         Dairy          Midwest        Traverse     MI              49685        850       $24,650.00
 Elementary School   Products Box                  City
Silver Lake         Fresh Fruit/   Midwest        Traverse     MI              49685        950       $14,997.50
 Elementary School   Vegetable                     City
                     Box
Simon Chapel M.B.   Fresh Fruit/   South East     Como         MS              38619        500        $9,975.00
 Church              Vegetable
                     Box
Simon Parilla/SRA   Fluid Milk     South East     Orlando      FL              32809        360        $1,364.40
Singh Family        Fresh Fruit/   North East     Ozone Park   NY              11435      1,200       $23,964.00
 Charity             Vegetable
                     Box
Sinjana Mayor's     Fresh Fruit/   Western        Sinjana      Guam            96910        600       $36,000.00
 office              Vegetable
                     Box
Sinton Housing      Fresh Fruit/   South West     Sinton       TX              78387        500       $12,500.00
                     Vegetable
                     Box
Siskiyou Community  Fluid Milk     Western        Yreka        CA              96097      4,224       $42,197.76
 Food Bank
Sister City         Fresh Fruit/   Western        Santa        CA              93101        225        $8,100.00
 Foundation SB--PV   Vegetable                     Barbara
                     Box
Sisters Helping     Fresh Fruit/   South East     Gainesville  FL              32609        120        $1,302.00
 Sisters in Need     Vegetable
                     Box
Sitton Elementary   Combination    Western        Portland     OR              97203         60        $2,100.00
 Schl. USDA          Box
Sitton Elementary   Dairy          Western        Portland     OR              97203         50        $1,500.00
 Schl. USDA          Products Box
Sitton Elementary   Fresh Fruit/   Western        Portland     OR              97203        180        $4,860.00
 Schl. USDA          Vegetable
                     Box
Six Flags Great     Dairy          Midwest        Gurnee       IL              60031      2,500       $74,375.00
 America             Products Box
Sixeight Church     Combination    Western        Vancouver    WA              98665        660       $23,100.00
                     Box
Sixeight Church     Dairy          Western        Vancouver    WA              98665        750       $22,500.00
                     Products Box
Sixeight Church     Fresh Fruit/   Western        Vancouver    WA              98665        450       $12,150.00
                     Vegetable
                     Box
Skagit Community    Combination    Western        Sedro        WA              98284      3,780      $132,300.00
 Action              Box                           Woolley
Skagit Community    Dairy          Western        Sedro        WA              98284      2,850       $85,500.00
 Action              Products Box                  Woolley
Skagit Community    Fresh Fruit/   Western        Sedro        WA              98284      3,000       $81,000.00
 Action              Vegetable                     Woolley
                     Box
SKIP Program        Fluid Milk     Mid-Atlantic   Lykens       PA              17048      2,319       $55,050.48
SKIP Program        Fresh Fruit/   Mid-Atlantic   Lykens       PA              17048      7,028      $175,310.10
                     Vegetable
                     Box
SKIP Program        Precooked      Mid-Atlantic   Lykens       PA              17048      1,274       $51,393.16
                     Meat Box
Skyline Brighter    Dairy          South West     Dallas       TX              75227        600       $27,456.00
 Bites               Products Box
Skyline Brighter    Fresh Fruit/   South West     Dallas       TX              75227      2,290       $46,168.60
 Bites               Vegetable
                     Box
Skyline Ranch       Precooked      South West     Dallas       TX              75241      3,102      $319,971.30
                     Meat Box
SLZUSD--Child       Fresh Fruit/   Western        San Lorenzo  CA              94580      1,200       $25,485.00
 Nutrition Dept.     Vegetable
                     Box
Smart Academy       Dairy          Midwest        Cleveland    OH              44105        100        $2,500.00
                     Products Box
Smart Box           Fresh Fruit/   South East     Allendale    SC              29827      1,200       $36,000.00
                     Vegetable
                     Box
Smart Development   Dairy          Midwest        Cleveland    OH              44107        120        $2,892.00
 Center              Products Box
Smart Development   Dairy          Midwest        Cleveland    OH              44135        270        $6,507.00
 Center              Products Box
Smart Development   Fresh Fruit/   Midwest        Cleveland    OH              44107        120        $3,180.00
 Center              Vegetable
                     Box
Smart Development   Fresh Fruit/   Midwest        Cleveland    OH              44135        270        $7,155.00
 Center              Vegetable
                     Box
Smart Moms          Fluid Milk     Western        Escondido    CA              90045      4,200       $41,958.00
SMC Pantry          Fresh Fruit/   Western        Santa        CA              90405      2,800       $70,000.00
                     Vegetable                     Monica
                     Box
SMFB Knight Center  Dairy          South West     Phoenix      AZ              85009        768       $20,352.00
                     Products Box
SMFB Knight Center  Dairy          South West     Phoenix      AZ              85009     10,503      $278,329.50
                     Products Box
SMFB Knight Center  Fresh Fruit/   South West     Phoenix      AZ              85009        592       $12,935.20
                     Vegetable
                     Box
Smith Barbieri      Combination    Western        Spokane      WA              99201      1,507      $180,840.00
 Progressive Fund    Box
Smith Middle        Dairy          Midwest        Troy         MI              48085         80        $2,320.00
 School              Products Box
Smith Middle        Fresh Fruit/   Midwest        Troy         MI              48085        840       $17,290.00
 School              Vegetable
                     Box
Smithton Food       Precooked      Mountain       Smithton     MO              65350         10          $450.00
 Cooperative         Meat Box       Plains
Snack Pak 3 Kids    Fresh Fruit/   South West     Amarillo     TX              79106      6,344      $107,784.56
                     Vegetable
                     Box
Snack Pak 4 Kids    Dairy          South West     Amarillo     TX              79106      2,112       $96,645.12
                     Products Box
Snack Pak 4 Kids    Fluid Milk     South West     Amarillo     TX              79101      5,880       $28,812.00
Snack Pak 4 Kids    Fresh Fruit/   South West     Amarillo     TX              79106      2,995       $54,503.70
                     Vegetable
                     Box
Snack Pak 4 Kids    Precooked      South West     Amarillo     TX              79106      2,232       $94,971.60
                     Meat Box
Snapchef            Fresh Fruit/   North East     Holden       MA              01520         30          $540.00
 Foundation          Vegetable
                     Box
Snoqualmie Vly.     Combination    Western        North Bend   WA              98045         60        $2,100.00
 Food Bank           Box
Snoqualmie Vly.     Fresh Fruit/   Western        North Bend   WA              98045        720       $19,440.00
 Food Bank           Vegetable
                     Box
Snow Cap Comm.      Combination    Western        Portland     OR              97233        240        $8,400.00
 Charites            Box
Snow Cap Comm.      Dairy          Western        Portland     OR              97233        750       $22,500.00
 Charites            Products Box
Snow Cap Comm.      Fluid Milk     Western        Portland     OR              97223      1,050        $5,565.00
 Charites
Snow Cap Comm.      Fresh Fruit/   Western        Portland     OR              97233        600       $16,200.00
 Charites            Vegetable
                     Box
Soboba Band of      Fresh Fruit/   Western        San Jacinto  CA              92583      1,131       $32,799.00
 Lieuseno Indians    Vegetable
                     Box
Soc. of Samaritans  Fluid Milk     South West     Magnolia     TX              77355      3,200        $9,692.00
Soc. St. G/SHFB     Fluid Milk     South East     Edgewater    FL              32141        180          $682.20
 Ve835
Soc. Americana      Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725      1,008       $40,320.00
 Contra El Cancer    Vegetable
                     Box
Society of St.      Fresh Fruit/   South East     Birmingham   AL              35211      1,620       $42,039.00
 Andrew              Vegetable
                     Box
Society of St.      Fluid Milk     South East     Orlando      FL              32803      6,780       $25,825.80
 Andrew Orlando
Society of St.      Fresh Fruit/   South East     Orlando      FL              32809      3,024       $74,088.00
 Andrew Orlando      Vegetable
                     Box
Society of St.      Fresh Fruit/   South East     Lafayette    GA              30728      3,652       $73,040.00
 Andrews--Georgia    Vegetable
                     Box
Society of St.      Fresh Fruit/   South East     Tifton       GA              31793      1,108       $22,160.00
 Andrews--Georgia    Vegetable
                     Box
Society of St.      Fresh Fruit/   South East     Madison      TN              37115      6,768      $135,360.00
 Andrews--Nashvill   Vegetable
 e                   Box
Society of St.      Fresh Fruit/   South East     Madison      TN              37216      6,384      $127,680.00
 Andrews--Nashvill   Vegetable
 e                   Box
Society of St.      Dairy          Midwest        Cincinnati   OH              45206        168        $6,132.00
 Andrews Tikun       Products Box
 Farm
Society of St.      Dairy          Midwest        Cincinnati   OH              45231        252        $9,240.00
 Andrews Tikun       Products Box
 Farm
Society of St.      Fresh Fruit/   Midwest        Des Moines   IA              50314        825       $11,962.50
 Vincent De Paul     Vegetable
                     Box
Society of St.      Fluid Milk     Midwest        Indianapoli  OH              46203      3,240       $10,756.80
 Andrew                                            s
Society of St.      Fresh Fruit/   Midwest        Hammond      IN              46323      1,200       $28,800.00
 Andrew              Vegetable
                     Box
Society of St.      Fresh Fruit/   Mountain       Florissant   MO              63034      3,600       $86,400.00
 Andrew              Vegetable      Plains
                     Box
Society of St.      Fresh Fruit/   Midwest        New Boston   OH              45662      1,200       $28,800.00
 Andrew              Vegetable
                     Box
Society of St.      Fresh Fruit/   Midwest        New          OH              43764      1,200       $28,800.00
 Andrew              Vegetable                     Lexington
                     Box
Society of St.      Fresh Fruit/   South East     Nashville    TN              37115      4,992       $99,840.00
 Andrews--Nashvill   Vegetable
 e                   Box
Society of St.      Dairy          Midwest        South Bend   IN              46613        588       $21,756.00
 Andrews--Cultivat   Products Box
 e Culinary
Society of St.      Dairy          South East     Atlanta      GA              30341        288        $9,504.00
 Vincent De Paul     Products Box
Society of St.      Fresh Fruit/   South East     Atlanta      GA              30341      1,460       $42,000.00
 Vincent De Paul     Vegetable
                     Box
Society of St.      Fresh Fruit/   Western        Seattle      WA              98155         30          $825.00
 Vincent De Paul     Vegetable
 Council of          Box
 Seattle
Sogorea Te' Land    Fresh Fruit/   Western        Oakland      CA              94612        300        $6,562.50
 Trust               Vegetable
                     Box
Soldiers Angels     Fresh Fruit/   South East     Decatur      GA              30030        560       $10,606.40
                     Vegetable
                     Box
Soldiers of the     Combination    Western        Turlock      CA              95380        560       $29,366.40
 Cross               Box
Soldiers of the     Fresh Fruit/   Western        Turlock      CA              95380         77        $2,073.61
 Cross               Vegetable
                     Box
Solid Rock--C/O     Fresh Fruit/   South East     Senatobia    MS              38668        162        $3,969.00
 Mid South Food      Vegetable
 Bank                Box
Solid Rock Church   Fluid Milk     Western        Upland       CA              91786        105          $798.00
Solid Rock Church   Fresh Fruit/   Western        Upland       CA              91786        210        $5,250.00
                     Vegetable
                     Box
Solid Rock          Fresh Fruit/   South East     Garner       NC              27529        514        $6,754.60
 Ministry Intl.      Vegetable
                     Box
Solid Rock Worship  Fresh Fruit/   South West     Corpus       TX              78413      8,832      $150,055.68
 Center              Vegetable                     Christi
                     Box
Solidarity          Fluid Milk     South East     Sandy        GA              30342      1,450        $5,650.50
                                                   Springs
Solomens Cathedral  Fresh Fruit/   Midwest        Detroit      MI              48223        750       $21,562.50
                     Vegetable
                     Box
Solomon House       Fluid Milk     South West     New Iberia   LA              70560      1,460        $4,394.28
Solomon's Temple/   Fresh Fruit/   Mountain       St. Louis    MO              63112        720       $23,040.00
 STL Food Bnk        Vegetable      Plains
                     Box
Solon Senior        Dairy          Midwest        Solon        OH              44139         55        $1,375.00
 Center              Products Box
Solutions           Fresh Fruit/   South East     Fairfield    AL              35064      1,920       $49,824.00
                     Vegetable
                     Box
Solutions           Fresh Fruit/   South East     Birmingham   AL              35234      1,440       $37,368.00
                     Vegetable
                     Box
Some Other Place    Fluid Milk     South West     Beaumont     TX              77701        723        $2,111.16
Somebody Cares      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21234        300        $5,400.00
 Baltimore--N.       Vegetable
 Hilton Street       Box
Somebody Cares      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21234        240        $4,320.00
 Baltimore Oliver    Vegetable
 St. Market          Box
Somebody Cares      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21234        240        $4,320.00
 Baltimore--Stodda   Vegetable
 rd Court            Box
Somebody Cares      Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21234        300        $5,400.00
 Baltimore--W.       Vegetable
 Lafayette Ave.      Box
Somerset COA        Precooked      North East     Somerset     MA              02726         30        $1,629.00
                     Meat Box
Somerset Hills      Fresh Fruit/   Mid-Atlantic   Basking      NJ              07920        200        $3,790.00
 YMCA                Vegetable                     Ridge
                     Box
Somerville YMCA     Fresh Fruit/   Mid-Atlantic   Somerville   NJ              08876        175        $3,316.25
                     Vegetable
                     Box
Somerville/         Combination    North East     Somerville   MA              02143         10          $328.00
 Cambridge           Box
Somerville/         Precooked      North East     Somerville   MA              02143         10          $543.00
 Cambridge           Meat Box
Son Ministries      Fresh Fruit/   Midwest        Dublin       OH              43016        128        $2,496.00
 Cntryside.          Vegetable
                     Box
Sonell              Combination    Mid-Atlantic   Bayamon      PR              00956      4,896      $375,336.00
                     Box
Sonoma Elementary   Fresh Fruit/   Midwest        Battle       MI              49014        200        $7,196.00
                     Vegetable                     Creek
                     Box
Sonrise Baptist     Fluid Milk     South East     Southport    NC              28461        432        $1,680.48
Sonrise Church      Precooked      Mid-Atlantic   Berlin       MD              21811      1,343       $54,176.62
                     Meat Box
Sons of God         Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15204        200        $6,000.00
 Ministries Inc.     Vegetable
                     Box
Sordos Unidos De    Combination    Mid-Atlantic   San Juan     PR              00921        630       $54,138.00
 Puerto Rico         Box
Sorgho Elem.        Fluid Milk     South East     Owensboro    KY              42301      1,233        $2,774.25
Sorters Elem.       Fluid Milk     South West     Porter       TX              77365      1,000        $3,094.00
SOS Community       Fresh Fruit/   Midwest        Ypsilanti    MI              48198        700       $10,465.00
 Services            Vegetable
                     Box
SOS International   Fluid Milk     South West     Roanoke      TX              76262      6,852       $20,007.84
SOS International   Fresh Fruit/   South West     Grand        TX              75050      4,352       $73,940.48
                     Vegetable                     Prairie
                     Box
SOS Local           Fresh Fruit/   South West     Grand        TX              75050      4,500       $71,850.00
                     Vegetable                     Prairie
                     Box
SOSA Eternal Life   Dairy          South East     Jackson      MS              39212      1,920       $53,913.60
 Prayer              Products Box
SOSA Eternal Life   Fluid Milk     South East     Jackson      MS              39212      6,336       $46,506.24
 Prayer
SOSA Eternal Life   Fresh Fruit/   South East     Jackson      MS              39212      4,416       $74,630.40
 Prayer              Vegetable
                     Box
SOSA Eternal Life   Precooked      South East     Jackson      MS              39212      4,032      $165,553.92
 Prayer              Meat Box
SOSA First Baptist  Dairy          South East     Heidelberg   MS              39439        560       $15,724.80
 Church              Products Box
SOSA First Baptist  Fluid Milk     South East     Heidelberg   MS              39439      5,376       $39,459.84
 Church
SOSA First Baptist  Fresh Fruit/   South East     Heidelberg   MS              39439      5,952      $100,588.80
 Church              Vegetable
                     Box
SOSA First Baptist  Precooked      South East     Heidelberg   MS              39439      1,512       $62,082.72
 Church              Meat Box
SOSA Free People    Dairy          South East     Crystal      MS              39059      2,080       $58,406.40
 Mb Churc            Products Box                  Springs
SOSA Free People    Fluid Milk     South East     Crystal      MS              39059      1,152        $8,455.68
 Mb Churc                                          Springs
SOSA Free People    Fluid Milk     South East     Crystal      MS              39212      4,224       $31,004.16
 Mb Churc                                          Springs
SOSA Free People    Fresh Fruit/   South East     Crystal      MS              39059      3,456       $58,406.40
 Mb Churc            Vegetable                     Springs
                     Box
SOSA Free People    Precooked      South East     Crystal      MS              39059      1,848       $75,878.88
 Mb Churc            Meat Box                      Springs
SOSA Helping Hands  Dairy          South East     Greenville   MS              38701        640       $17,971.20
 FP                  Products Box
SOSA Helping Hands  Fluid Milk     South East     Greenville   MS              38701      1,728       $12,683.52
 FP
SOSA Helping Hands  Precooked      South East     Greenville   MS              38701      1,560       $64,053.60
 FP                  Meat Box
SOSA Humphreys Co.  Dairy          South East     Belzoni      MS              39038        640       $17,971.20
                     Products Box
SOSA Humphreys Co.  Fluid Milk     South East     Belzoni      MS              39038      1,728       $12,683.52
SOSA Humphreys Co.  Precooked      South East     Belzoni      MS              39038      1,392       $57,155.52
                     Meat Box
SOSA Life Church    Dairy          South East     Columbus     MS              39701      1,160       $32,572.80
 Gtr.                Products Box
SOSA Life Church    Fluid Milk     South East     Columbus     MS              39701      1,728       $12,683.52
 Gtr.
SOSA Life Church    Precooked      South East     Columbus     MS              39701      1,644       $67,502.64
 Gtr.                Meat Box
SOSA Oseola         Dairy          South East     Hattiesburg  MS              39401        560       $15,724.80
 McCarty             Products Box
SOSA Oseola         Fluid Milk     South East     Hattiesburg  MS              39401      5,568       $40,869.12
 McCarty
SOSA Oseola         Precooked      South East     Hattiesburg  MS              39401        960       $39,417.60
 McCarty             Meat Box
SOSA Samuel Chapel  Dairy          South East     Itta Bena    MS              38941        640       $17,971.20
                     Products Box
SOSA Samuel Chapel  Fluid Milk     South East     Itta Bena    MS              38941      1,344        $9,864.96
SOSA Samuel Chapel  Precooked      South East     Itta Bena    MS              38941      1,548       $63,560.88
                     Meat Box
SOSA St. Mark MB    Dairy          South East     Lake         MS              39092        720       $20,217.60
 Church              Products Box
SOSA St. Mark MB    Fluid Milk     South East     Lake         MS              39092      3,840       $28,185.60
 Church
SOSA St. Mark MB    Fresh Fruit/   South East     Lake         MS              39092      4,032       $68,140.80
 Church              Vegetable
                     Box
SOSA St. Mark MB    Precooked      South East     Lake         MS              39092      1,680       $68,980.80
 Church              Meat Box
SOSA Yazoo Co.      Dairy          South East     Yazoo        MS              39194        320        $8,985.60
 Baptist             Products Box
SOSA Yazoo Co.      Dairy          South East     Yazoo City   MS              39194      1,200       $33,696.00
 Baptist             Products Box
SOSA Yazoo Co.      Fluid Milk     South East     Yazoo        MS              39194        384        $2,818.56
 Baptist
SOSA Yazoo Co.      Fluid Milk     South East     Yazoo City   MS              39194      1,920       $14,092.80
 Baptist
SOSA Yazoo Co.      Fresh Fruit/   South East     Yazoo City   MS              39194        880       $14,872.00
 Baptist             Vegetable
                     Box
SOSA Yazoo Co.      Precooked      South East     Yazoo        MS              39194        588       $24,143.28
 Baptist             Meat Box
SOSA Yazoo Co.      Precooked      South East     Yazoo City   MS              39194        480       $19,708.80
 Baptist             Meat Box
Sothwestern         Fresh Fruit/   South West     Terrell      TX              75160        192        $3,262.08
 Christian College   Vegetable
                     Box
Soul Food Cafe      Dairy          South East     Union City   TN              38261      1,200       $30,000.00
                     Products Box
Soul for Christ     Fresh Fruit/   South West     Dallas       TX              75224      1,200       $20,388.00
 Ministry's Foo      Vegetable
                     Box
Soul Harvest        Fresh Fruit/   Midwest        Hazel Park   MI              48203        200        $5,750.00
 Ministries          Vegetable
                     Box
Soulfull Blessngs   Fresh Fruit/   Mid-Atlantic   Bristol      PA              19007         72        $1,654.56
                     Vegetable
                     Box
Soup Kitchen        Fresh Fruit/   Western        Anchorage    AK              99501        144        $4,024.80
                     Vegetable
                     Box
Soup Kitchen        Fresh Fruit/   Western        Anchorage    AK              99501         52        $1,453.40
                     Vegetable
                     Box
South Carroll Food  Fresh Fruit/   Mid-Atlantic   Eldersburg   MD              21784        250        $5,237.50
 Pantry              Vegetable
                     Box
South Central       Fresh Fruit/   Mid-Atlantic   Chambersbur  PA              17201      3,450       $69,000.00
 Community Action    Vegetable                     g
 Programs            Box
South Central       Fresh Fruit/   Mid-Atlantic   Gettysburg   PA              17325      4,990       $99,800.00
 Community Action    Vegetable
 Programs            Box
South Chicago       Combination    Midwest        Chicago      IL              60617        200       $12,930.00
 Learn               Box
South Dekalb YMCA   Fluid Milk     South East     Decatur      GA              30034        300        $1,137.00
South Drive         Fresh Fruit/   South West     Channelview  TX              77530        192        $3,262.08
 Baptist             Vegetable
                     Box
South Elementary    Fluid Milk     South East     Beechmont    KY              42323      2,124        $4,779.00
South Florida       Combination    South East     Pompano      FL              33069      5,264      $400,327.20
 Hunger Coalition    Box                           Beach
South Florida       Combination    South East     Fort         FL              33301        560       $42,588.00
 Hunger Coalition    Box                           Lauderdale
South Haven Public  Fresh Fruit/   Midwest        South Haven  MI              49090        987       $35,512.26
 Schools             Vegetable
                     Box
South Michigan      Fresh Fruit/   Midwest        Battle       MI              49016      5,916      $124,902.00
 Food Bank           Vegetable                     Creek
                     Box
South Michigan      Precooked      Midwest        Battle       MI              49037        450       $22,882.50
 Food Bank           Meat Box                      Creek
South Middle        Fresh Fruit/   Midwest        Arlington    IL              60005        100        $2,750.00
 School              Vegetable                     Heights
                     Box
South Mountain      Dairy          South West     Phoenix      AZ              85042        201        $5,326.50
 Champion            Products Box
South Mountain      Fresh Fruit/   South West     Phoenix      AZ              85042        200        $4,370.00
 Champion            Vegetable
                     Box
South Mountain      Fresh Fruit/   Mid-Atlantic   Maplewood    NJ              07040      1,827       $34,621.65
 YMCA                Vegetable
                     Box
South Mtn. KROC     Dairy          South West     Phoenix      AZ              85040        432       $11,448.00
                     Products Box
South Mtn. KROC     Fresh Fruit/   South West     Phoenix      AZ              85040        432        $9,439.20
                     Vegetable
                     Box
South Park Baptist  Fresh Fruit/   South East     Birmingham   AL              35211      1,040       $26,988.00
 Church              Vegetable
                     Box
South Park High     Fresh Fruit/   North East     Buffalo      NY              14220        600       $13,710.00
 School              Vegetable
                     Box
South Plains Food   Dairy          South West     Lubbock      TX              79404      7,560      $219,240.00
 Bank Lubbock        Products Box
South Plains Food   Fluid Milk     South West     Lubbock      TX              79404      4,800       $23,520.00
 Bank Lubbock
South Plains Food   Fresh Fruit/   South West     Lubbock      TX              79404     25,258      $504,402.26
 Bank Lubbock        Vegetable
                     Box
South Pleasant      Fluid Milk     South East     Prentiss     MS              39474        900        $3,591.00
 Hill
South Ridge H.S.    Fluid Milk     South West     Phoenix      AZ              85043        432        $2,030.40
South Royalton      Combination    North East     South        VT              05068        201        $5,427.00
 Food Shelf          Box                           Royalton
South School JC     Fluid Milk     Mountain       Jefferson    MO              65101        252          $567.00
                                    Plains         City
South Shore         Fresh Fruit/   Midwest        Chicago      IL              60649        567       $20,400.66
                     Vegetable
                     Box
South Shore         Precooked      Midwest        Chicago      IL              60649      1,008       $81,768.96
                     Meat Box
South Shore         Fluid Milk     Western        Waimanalo    HI              96795        288        $1,203.84
 Christian
 Fellowship
South Side Terrace  Fresh Fruit/   Mountain       Omaha        NE              68107        880       $22,792.00
                     Vegetable      Plains
                     Box
South Suburban      Fluid Milk     Midwest        Joliet       IL              60436     17,280       $59,356.80
South Suburban      Fresh Fruit/   Midwest        Joliet       IL              60436      3,024      $108,803.52
 Center              Vegetable
                     Box
South Suburban      Fluid Milk     Midwest        Joliet       IL              60436      4,320       $14,342.40
 Ctr.
South Texas Food    Dairy          South West     Laredo       TX              78040      4,044      $114,647.40
 Bank                Products Box
South Texas Food    Fluid Milk     South West     Del Rio      TX              78840      3,000        $9,630.00
 Bank
South Texas Food    Fluid Milk     South West     Laredo       TX              78040     28,420       $82,986.40
 Bank
South Texas Food    Fluid Milk     South West     Eagle Pass   TX              78852      5,000       $14,600.00
 Bank
South Texas Food    Fresh Fruit/   South West     Laredo       TX              78040     10,780      $269,500.00
 Bank                Vegetable
                     Box
South Texas Food    Fresh Fruit/   South West     Laredo       TX              78041      1,260       $31,500.00
 Bank                Vegetable
                     Box
South Texas Food    Precooked      South West     Laredo       TX              78040      9,504      $980,337.60
 Bank                Meat Box
South Texas Food    Precooked      South West     Laredo       TX              78041      4,992      $514,924.80
 Bank                Meat Box
South-Central       Combination    South East     Luverne      AL              36049      1,120       $85,176.00
 Alabama Dev. Com.   Box
 AAA
Southeast AL        Fresh Fruit/   South East     Dothan       AL              36521        400       $11,600.00
 Community Action    Vegetable
 Part                Box
Southeast AL        Fresh Fruit/   South East     Dothan       AL              36301        500       $14,500.00
 Community Action    Vegetable
 Part                Box
Southeast AL        Fresh Fruit/   South East     Dothan       AL              36303      2,100       $60,900.00
 Community Action    Vegetable
 Part                Box
Southeast Area      Fluid Milk     South West     South        TX              77587        376        $1,206.96
 Mini.                                             Houston
Southeast Asian     Fresh Fruit/   North East     Worcester    MA              01609        883       $23,872.89
 Coalition           Vegetable
                     Box
Southeast Clergy    Dairy          Midwest        Bedford      OH              44146        130        $3,250.00
 Meals On            Products Box
Southeast Family    Fresh Fruit/   Mountain       Bonne Terre  MO              63628        120        $3,300.00
 Violence Ctr.       Vegetable      Plains
                     Box
Southeast Gwinnett  Fresh Fruit/   South East     Grayson      GA              30017      1,050       $19,887.00
 Co. Op.             Vegetable
                     Box
Southeast Health    Fluid Milk     Midwest        Columbus     OH              43223        540        $1,792.80
Southeast MO F/B--  Fresh Fruit/   Mountain       Cape         MO              63703      1,136       $36,352.00
 Cape Girardea       Vegetable      Plains         Girardeau
                     Box
Southeast MO F/B--  Fresh Fruit/   Mountain       Jackson      MO              63755      1,136       $36,352.00
 Jackson             Vegetable      Plains
                     Box
Southeast MO F/B--  Fresh Fruit/   Mountain       Perryville   MO              63775        560       $17,920.00
 Perryville          Vegetable      Plains
                     Box
Southeast MO F/B--  Fresh Fruit/   Mountain       Sikeston     MO              63801      1,136       $36,352.00
 Sikeston1           Vegetable      Plains
                     Box
Southeast MO F/B--  Fresh Fruit/   Mountain       Sikeston     MO              63801      1,136       $36,352.00
 Sikeston2           Vegetable      Plains
                     Box
Southeast MO F/B--  Fresh Fruit/   Mountain       Ste.         MO              63670      1,136       $36,352.00
 St. Genevieve       Vegetable      Plains         Genevieve
                     Box
Southeast Side      Fluid Milk     Midwest        Chicago      IL              60617      1,080        $3,585.60
Southeast Side      Precooked      Midwest        Chicago      IL              60617        720       $58,406.40
                     Meat Box
Southeast Side of   Fresh Fruit/   Midwest        Chicago      IL              60617        189        $6,800.22
 Chicago Food        Vegetable
 Pantry              Box
Southeast Texas     Combination    South West     Beaumont     TX              77705        400       $13,988.00
 Food Bank           Box
Southeast Texas     Fluid Milk     South West     Beaumont     TX              77705     25,188       $76,468.68
 Food Bank
Southeast Texas     Fresh Fruit/   South West     Beaumont     TX              77705      4,608       $78,289.92
 Food Bank           Vegetable
                     Box
Southeast Texas     Precooked      South West     Beaumont     TX              77705      6,552      $276,690.96
 Food Bank           Meat Box
Southeastern MO     Dairy          Mountain       Sikeston     MO              63801      5,700      $174,302.40
 Food Bank           Products Box   Plains
Southeastern MO     Fluid Milk     Mountain       Sikeston     MO              63801     32,436       $80,789.40
 Food Bank                          Plains
Southeastern MO     Fresh Fruit/   Mountain       Sikeston     MO              63801      1,526       $36,202.60
 Food Bank           Vegetable      Plains
                     Box
Southeastern MO     Precooked      Mountain       Sikeston     MO              63801     18,289      $703,843.25
 Food Bank           Meat Box       Plains
Southeastern        Fresh Fruit/   North East     South        MA              02375        280        $6,146.00
 Regional Sch.       Vegetable                     Easton
                     Box
Southeastern/SOSA   Fluid Milk     South East     Ocoee        FL              34761     21,768       $83,431.92
Southern AAA        Fresh Fruit/   Mid-Atlantic   Dunkirk      MD              20754        250        $5,237.50
 Friendship          Vegetable
                     Box
Southern Crescent   Fluid Milk     South East     Mcdonough    GA              30253      1,920        $7,468.80
 Resource Ministry
Southern Crescent   Fresh Fruit/   South East     Mcdonough    GA              30253        415       $11,800.00
 Resource Ministry   Vegetable
                     Box
Southern            Fluid Milk     South East     Starkville   MS              39759      2,112       $15,502.08
 Foundation for H.
Southern            Fluid Milk     South East     Sturgis      MS              39769        576        $4,227.84
 Foundation for H.
Southern            Fresh Fruit/   South East     Starkville   MS              39759      1,648       $27,851.20
 Foundation for H.   Vegetable
                     Box
Southern            Fresh Fruit/   South East     Sturgis      MS              39769        864       $14,601.60
 Foundation for H.   Vegetable
                     Box
Southern            Precooked      South East     Starkville   MS              39759      3,864      $158,655.84
 Foundation for H.   Meat Box
Southern Hills      Combination    South West     Oklahoma     OK              73139      1,440       $50,356.80
 Church of God       Box                           City
Southern Hills      Dairy          South West     Oklahoma     OK              73139      2,496      $114,216.96
 Church of God       Products Box                  City
Southern Hills      Fluid Milk     South West     Oklahoma     OK              73139        495       $11,850.30
 Church of God                                     City
Southern Hills      Fresh Fruit/   South West     Oklahoma     OK              73139        539       $10,294.90
 Church of God       Vegetable                     City
                     Box
Southern            Dairy          Midwest        Royalton     IL              62983        400       $11,900.00
 Hospitality         Products Box
Southern            Dairy          Midwest        Royalton     IL              62983      1,200       $35,700.00
 Hospitality         Products Box
Southern            Fresh Fruit/   Midwest        Royalton     IL              62983        343        $9,432.50
 Hospitality         Vegetable
                     Box
Southern            Fresh Fruit/   Midwest        Royalton     IL              62983      1,100       $30,250.00
 Hospitality         Vegetable
                     Box
Southern Latin      Combination    South East     Lilburn      GA              30047        560       $42,588.00
 District of         Box
 Assemblies of God
Southern Regional   Fluid Milk     Mid-Atlantic   Vineland     NJ              08360        864       $11,888.64
 Foods Dist.
 Center
Southern Regional   Fresh Fruit/   Mid-Atlantic   Vineland     NJ              08361      3,816       $77,536.08
 Foods Dist.         Vegetable
 Center              Box
Southfield School   Fresh Fruit/   Midwest        Southfield   MI              48033      8,750      $174,737.50
 District            Vegetable
                     Box
Southgate Bd. of    Fresh Fruit/   Midwest        Southgate    MI              48195        850       $18,063.00
 Educ.--Warehouse    Vegetable
                     Box
Southgate Bd. of    Precooked      Midwest        Southgate    MI              48195        600       $21,668.00
 Educ.--Warehouse    Meat Box
Southpark 7Th Day   Fresh Fruit/   South East     Birmingham   AL              35211      1,484       $38,509.80
 Adventist Church    Vegetable
                     Box
Southpoint          Fresh Fruit/   South East     Florida      FL              33034        240        $4,020.00
 Crossing            Vegetable                     City
                     Box
Southport Oak       Fluid Milk     South East     Blng Spg     NC              28461        648        $2,520.72
 Churc.                                            Lks
Southside Academy   Fresh Fruit/   North East     Buffalo      NY              14220        600       $13,710.00
                     Vegetable
                     Box
Southside City      Combination    South West     Fort Worth   TX              76110        400       $13,988.00
 Church              Box
Southside           Fluid Milk     South East     Nortonville  KY              42442        675        $1,518.75
 Elementary
Southside Life      Fluid Milk     Midwest        Toledo       OH              43609        560        $1,859.20
 Station
Southside Life      Fresh Fruit/   Midwest        Toledo       OH              43609        882       $11,025.00
 Station             Vegetable
                     Box
Southside Pantry    Combination    Western        Spokane      WA              99223        480       $16,800.00
 Chri. Ch.           Box
Southside Pantry    Dairy          Western        Spokane      WA              99223        400       $12,000.00
 Chri. Ch.           Products Box
Southside Pantry    Fresh Fruit/   Western        Spokane      WA              99223        480       $12,960.00
 Chri. Ch.           Vegetable
                     Box
Southwest           Dairy          South East     Atlanta      GA              30310        772       $25,476.00
 Ecumenical          Products Box
 Emergency
Southwest           Fresh Fruit/   South East     Atlanta      GA              30310      2,190       $64,500.00
 Ecumenical          Vegetable
 Emergency           Box
Southwest MI        Dairy          Midwest        Benton       MI              49022      1,440       $36,000.00
 Cmmty. Food Bank    Products Box                  Harbor
Southwest MI Food   Dairy          Midwest        Battle       MI              49037      8,448      $211,200.00
 Bank                Products Box                  Creek
Southwest MS OPP    Fluid Milk     South East     Magnolia     MS              39652      7,410       $29,062.50
Southwest           Fresh Fruit/   Midwest        Detroit      MI              48216      1,300       $19,435.00
 Solutions           Vegetable
                     Box
Southwest YMCA      Fresh Fruit/   Mountain       Denver       Co              80236        308        $7,977.20
                     Vegetable      Plains
                     Box
Southwood           Fresh Fruit/   Mountain       Raytown      MO              64138         50        $1,295.00
 Elementary          Vegetable      Plains
 Raytown             Box
Sowing Seeds for    Fresh Fruit/   Western        Pomona       CA              91768      2,635       $58,628.75
 Life                Vegetable
                     Box
Sowing Seeds of     Fresh Fruit/   South East     Marion       AL              36756      1,000       $25,950.00
 Hope                Vegetable
                     Box
Sparta City School  Fresh Fruit/   Midwest        Sparta       MI              49345      1,800       $35,946.00
 District            Vegetable
                     Box
Spartanburg HHFB    Fluid Milk     South East     Spartanburg  SC              29307      2,160        $8,402.40
Spartanburg Mobile  Precooked      South East     Spartanburg  SC              29304        150        $5,624.00
 Meals               Meat Box
Spartanburg Mobile  Precooked      Midwest        Highland     MI              48203         33        $1,339.99
 Meals               Meat Box                      Park
SP-East Pennsboro   Fluid Milk     Mid-Atlantic   Enola        PA              17025        179        $3,973.68
 Education
 Foundation
SP-East Pennsboro   Fresh Fruit/   Mid-Atlantic   Enola        PA              17025         72        $1,654.56
 Education           Vegetable
 Foundation          Box
Special Olympics    Fresh Fruit/   Western        Kalaheo      HI              96741        600       $23,400.00
                     Vegetable
                     Box
Spectrum Health     Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19139         70        $1,400.00
                     Vegetable                     a
                     Box
Spectrum Juvenile   Fresh Fruit/   Midwest        Highland     MI              48203        500       $10,458.00
 Justice Services    Vegetable                     Park
                     Box
Spectrum Juvenile   Precooked      Midwest        Highland     MI              48203        810       $27,654.20
 Justice Services    Meat Box                      Park
Spencer Homes       Fresh Fruit/   Mountain       Omaha        NE              68111        200        $5,180.00
                     Vegetable      Plains
                     Box
Spencer Sr. Cntr.   Combination    North East     Spencer      MA              01562         40        $1,312.00
                     Box
Spencer Sr. Cntr.   Precooked      North East     Spencer      MA              01562         25        $1,357.50
                     Meat Box
SPFC                Fresh Fruit/   South East     Petersburg   FL              33701      6,600      $171,600.00
                     Vegetable
                     Box
Spiritual Vision    Dairy          Midwest        Niles        MI              49120        100        $2,900.00
 Church of God And   Products Box
Spiritual Vision    Fresh Fruit/   Midwest        Niles        MI              49120        100        $2,200.00
 Church of God And   Vegetable
                     Box
Splendoracrtysideu  Fluid Milk     South West     Splendora    TX              77372        120          $350.40
 m
Spokane Food        Combination    Western        Spokane      WA              99201      1,143      $137,160.00
 Fighters            Box
Spring Arbor        Fresh Fruit/   Midwest        Spring       MI              49283        616       $22,163.68
 Church              Vegetable                     Arbor
                     Box
Spring Arbor        Fresh Fruit/   Midwest        Spring       MI              49832        147        $5,289.06
 Church              Vegetable                     Arbor
                     Box
Spring Creek        Fluid Milk     South West     Tomball      TX              77377        400        $1,197.00
 Church
Spring Hill         Fresh Fruit/   South East     Lineville    AL              36266      2,300       $59,685.00
 Baptist Church      Vegetable
                     Box
Spring Hill         Fresh Fruit/   South East     Fayettevill  GA              30215        280        $5,303.20
 Elementary          Vegetable                     e
                     Box
Springdale Baptist  Fresh Fruit/   South East     Memphis      TN              38108      1,026       $25,137.00
 Church--C/O Mid     Vegetable
 South Food Ban.     Box
Springfield         Fresh Fruit/   Mid-Atlantic   Springfield  VA              22151      1,500       $30,000.00
 Christian           Vegetable
                     Box
Springfield         Combination    South East     Panama City  FL              32401      1,344      $102,211.20
 Community Church    Box
Springfield Food    Dairy          Midwest        Springfield  IL              62791      5,960      $177,310.00
 Bank                Products Box
Springfield Food    Fresh Fruit/   Midwest        Springfield  IL              62791      3,375       $92,812.50
 Bank                Vegetable
                     Box
Springfield Food    Fresh Fruit/   North East     Springfield  MA              01104      1,198       $32,315.99
 Policy Council      Vegetable
                     Box
Springwell          Combination    North East     Waltham      MA              02452         20          $760.00
                     Box
Springwell          Precooked      North East     Waltham      MA              02452         20        $1,086.00
                     Meat Box
Sprout Fresh        Fresh Fruit/   Midwest        Pontiac      MI              48341        850       $12,707.50
                     Vegetable
                     Box
Spruce Brighter     Combination    South West     Dallas       TX              75217        450       $15,736.50
 Bites               Box
Spruce Brighter     Fresh Fruit/   South West     Dallas       TX              75217      2,950       $65,585.00
 Bites               Vegetable
                     Box
Square One          Fresh Fruit/   South West     Tulsa        OK              74107      1,900       $34,750.00
 Compassion          Vegetable
                     Box
SREHUP              Combination    Mid-Atlantic   Philadelphi  PA              19147        640       $25,600.00
                     Box                           a
SREHUP              Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19147      1,600       $43,200.00
                     Vegetable                     a
                     Box
St. Fabian Church   Precooked      South East     Hattiesburg  MS              39402        252       $10,347.12
                     Meat Box
St. Adalbert        Fluid Milk     Midwest        Cleveland    OH              44104        180          $597.60
St. Agathas         Precooked      Midwest        Chicago      IL              60623         72        $5,840.64
                     Meat Box
St. Agathas         Precooked      Midwest        Chicago      IL              60623        216       $17,521.92
                     Meat Box
St. Agathas Box     Dairy          Midwest        Chicago      IL              60623        290        $7,250.00
                     Products Box
St. Agnes           Combination    South West     Rattan       OK              74743      1,440       $50,356.80
                     Box
St. Albert the      Dairy          Midwest        North        OH              44133        100        $2,500.00
 Great Parish        Products Box                  Royalton
St. Alexander       Combination    Western        Cornelius    OR              97113      2,190       $76,650.00
                     Box
St. Alexander       Dairy          Western        Cornelius    OR              97113      2,260       $67,800.00
                     Products Box
St. Alexander       Fresh Fruit/   Western        Cornelius    OR              97113        840       $22,680.00
                     Vegetable
                     Box
St. Alfred          Fresh Fruit/   Midwest        Taylor       MI              48180        190        $5,462.50
 Catholic Church     Vegetable
                     Box
St. Aloysius        Precooked      Midwest        Chicago      IL              60622        432       $35,043.84
                     Meat Box
St. Aloysius Food   Fluid Milk     Midwest        Cleveland    OH              44108        872        $2,895.04
 Pantry
St. ALS/Baker City  Combination    Western        Baker        OR              97814        200        $8,800.00
                     Box
St. ALS/Baker City  Fresh Fruit/   Western        Baker        R               97814        200        $5,200.00
                     Vegetable
                     Box
St. ALS/Boise       Combination    Western        Boise        ID              83706      2,900      $127,600.00
                     Box
St. ALS/Boise       Fresh Fruit/   Western        Boise        ID              83706      2,900       $75,400.00
                     Vegetable
                     Box
St. ALS/Nampa       Combination    Western        Nampa        ID              83687        650       $28,600.00
                     Box
St. ALS/Nampa       Fresh Fruit/   Western        Nampa        ID              83687        650       $16,900.00
                     Vegetable
                     Box
St. ALS/Ontario     Combination    Western        Ontario      OR              97914        315       $13,860.00
                     Box
St. ALS/Ontario     Fresh Fruit/   Western        Ontario      OR              97914        315        $8,190.00
                     Vegetable
                     Box
St. Ambrose         Fluid Milk     Midwest        Brunswick    OH              44212      1,700        $5,726.80
St. Andrew AME      Fresh Fruit/   South East     Memphis      TN              38106      1,026       $25,137.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
St. Andrews         Fresh Fruit/   South East     Panama City  FL              32401      1,200       $34,800.00
 Benevolence         Vegetable
                     Box
St. Andrew's        Fresh Fruit/   Western        Santa        CA              93101      1,465       $52,740.00
 Presbyterian        Vegetable                     Barbara
                     Box
St. Anges           Dairy          South West     Rattan       OK              74743        576       $26,357.76
                     Products Box
St. Anges           Fresh Fruit/   South West     Rattan       OK              74743      1,056       $10,243.20
                     Vegetable
                     Box
St. Ann S.          Dairy          Midwest        Baldwin      MI              49304        520       $15,080.00
                     Products Box
St. Ann S.          Fresh Fruit/   Midwest        Baldwin      MI              49304      1,050       $22,050.00
                     Vegetable
                     Box
St. Anne Tacoma     Combination    Western        Tacoma       WA              98408        300       $10,500.00
                     Box
St. Anne Tacoma     Dairy          Western        Tacoma       WA              98408        300        $9,000.00
                     Products Box
St. Anne Tacoma     Fresh Fruit/   Western        Tacoma       WA              98408        300        $8,100.00
                     Vegetable
                     Box
St. Anthony         Fluid Milk     South West     Harlingen    TX              78550        648        $1,892.16
 Catholic
St. Anthony         Combination    Western        Tigard       OR              97223      3,520      $123,200.00
 Catholic Church     Box
St. Anthony         Dairy          Western        Tigard       OR              97223      5,313      $159,390.00
 Catholic Church     Products Box
St. Anthony         Fresh Fruit/   Western        Tigard       OR              97223      5,990      $161,730.00
 Catholic Church     Vegetable
                     Box
St. Anthony         Combination    Western        Portland     OR              97206        240        $8,400.00
 Catholic Pdx USDA   Box
St. Augustine       Fluid Milk     Midwest        Cleveland    OH              44113      2,592        $8,605.44
St. Bartholomew     Fresh Fruit/   South West     Fort Worth   TX              76133        896       $15,223.04
 Catholic Church     Vegetable
                     Box
St. Bernard/        Fluid Milk     South West     Breaux       LA              70517        712        $2,150.96
 Frances                                           Bridge
St. Blase           Precooked      Midwest        Summit       IL              60501        288       $23,362.56
                     Meat Box
St. Blase           Precooked      Midwest        Summit Argo  IL              60501        241       $19,549.92
                     Meat Box
St. Catherines      Fresh Fruit/   Western        Kapaa        HI              96746        620       $24,180.00
 Crossroads          Vegetable
 Christian           Box
 Fellowship
St. Cecilia Church  Combination    Western        Beaverton    OR              97005      2,760       $96,600.00
                     Box
St. Cecilia Church  Dairy          Western        Beaverton    OR              97005      2,490       $74,700.00
                     Products Box
St. Cecilia Church  Fresh Fruit/   Western        Beaverton    OR              97005        840       $22,680.00
                     Vegetable
                     Box
St. Charles--       Fresh Fruit/   Western        Madras       OR              97741        270       $12,690.00
 Madras              Vegetable
                     Box
St. Charles--       Fresh Fruit/   Western        Prineville   OR              97754        285       $13,395.00
 Prineville          Vegetable
                     Box
St. Charles--       Fresh Fruit/   Western        Redmond      OR              97756        280       $13,160.00
 Redmond.            Vegetable
                     Box
St. Charles         Combination    Western        Burlington   WA              98233      2,515       $88,025.00
 Catholic Ch.        Box
St. Charles         Dairy          Western        Burlington   WA              98233      1,410       $42,300.00
 Catholic Ch.        Products Box
St. Charles         Fresh Fruit/   Western        Burlington   WA              98233      1,920       $51,840.00
 Catholic Ch.        Vegetable
                     Box
St. Christine       Fresh Fruit/   Midwest        Detroit      MI              48223        315       $11,333.70
 Christian Service   Vegetable
                     Box
St. Clair Catholic  Fresh Fruit/   Mountain       Saint Clair  MO              63077        190        $5,225.00
 Church              Vegetable      Plains
                     Box
St. Clair Place     Dairy          Midwest        Cleveland    OH              44114        585       $14,625.00
 Apartments          Products Box
St. Clares Food     Combination    Western        Caldwell     ID              83605        280       $12,320.00
 Pantry              Box
St. Clares Food     Fresh Fruit/   Western        Caldwell     ID              83605        350        $9,100.00
 Pantry              Vegetable
                     Box
St. Clemente        Fresh Fruit/   Midwest        Romeo        MI              48065      1,300       $19,435.00
 Church              Vegetable
                     Box
St. Cletus Food     Dairy          Midwest        Lagrange     IL              60525         85        $2,125.00
 Pantry Box          Products Box
St. Cletus Food     Dairy          Midwest        Lagrange     IL              60525         85        $2,125.00
 Pantry Box          Products Box
St. Cloud Comm.     Fluid Milk     South East     Saint Cloud  FL              34769        456        $1,747.44
 Pantr
St. Columbanus      Precooked      Midwest        Chicago      IL              60637        144       $11,681.28
                     Meat Box
St. Columbanus      Precooked      Midwest        Chicago      IL              60637        288       $23,362.56
                     Meat Box
St. Cyprian Food    Dairy          Midwest        Chicago      IL              60634        155        $3,875.00
 Pantry Box          Products Box
St. Cyprian Food    Dairy          Midwest        Chicago      IL              60634        155        $3,875.00
 Pantry Box          Products Box
St. Edward          Combination    Western        Keizer       OR              97303      2,100       $73,500.00
 Catholic Church     Box
St. Edward          Dairy          Western        Keizer       OR              97303      2,050       $61,500.00
 Catholic Church     Products Box
St. Edward          Fresh Fruit/   Western        Keizer       OR              97303        630       $17,010.00
 Catholic Church     Vegetable
                     Box
St. Edwards         Combination    Western        Seattle      WA              98188        360       $12,600.00
 Seattle             Box
St. Edwards         Dairy          Western        Seattle      WA              98188        600       $18,000.00
 Seattle             Products Box
St. Edwards         Fresh Fruit/   Western        Seattle      WA              98188        240        $6,480.00
 Seattle             Vegetable
                     Box
St. Elizabeth       Precooked      Midwest        Chicago      IL              60653        216       $17,521.92
                     Meat Box
St. Elizabeth       Dairy          Midwest        Chicago      IL              60653        200        $5,000.00
 Church SVDP Box     Products Box
St. Elizabeth       Fresh Fruit/   South East     Covington    KY              41011        640       $12,480.00
 Cvngtn.             Vegetable
                     Box
St. Emily           Precooked      Midwest        Mt.          IL              60056        144       $11,681.28
                     Meat Box                      Prospect
St. Emily Box       Dairy          Midwest        Mt.          IL              60056        140        $3,500.00
                     Products Box                  Prospect
St. Fabians         Dairy          South East     Hattiesburg  MS              39402        240        $6,739.20
 Catholic Churc.     Products Box
St. Fabians         Fluid Milk     South East     Hattiesburg  MS              39402        192        $1,409.28
 Catholic Churc.
St. Fabians         Fresh Fruit/   South East     Hattiesburg  MS              39402        192        $3,244.80
 Catholic Churc.     Vegetable
                     Box
St. Fabians         Precooked      South East     Hattiesburg  MS              39402        504       $20,694.24
 Catholic Churc.     Meat Box
St. Florian         Precooked      Midwest        Chicago      IL              60633         72        $5,840.64
                     Meat Box
St. Florian--SVDP   Dairy          Midwest        Chicago      IL              60633        100        $2,500.00
 Food Panty Box      Products Box
St. Francis         Combination    Western        Lakewood     WA              98499        420       $14,700.00
 Cabrini             Box
St. Francis         Dairy          Western        Lakewood     WA              98499        150        $4,500.00
 Cabrini             Products Box
St. Francis         Fresh Fruit/   Western        Lakewood     WA              98499        240        $6,480.00
 Cabrini             Vegetable
                     Box
St. Francis         Fluid Milk     Midwest        Portsmouth   OH              45622        316        $1,049.12
 Catholic
St. Francis         Fresh Fruit/   Western        Honolulu     HI              96817        200        $7,200.00
 Healthcare Hawaii   Vegetable
                     Box
St. Francis         Fresh Fruit/   Western        Honolulu     HI              96820      3,600      $129,600.00
 Healthcare Hawaii   Vegetable
                     Box
St. Francis         Precooked      Western        Honolulu     HI              96820      2,931      $117,240.00
 Healthcare Hawaii   Meat Box
St. Francis         Dairy          South West     Muskogee     OK              74401      2,688      $123,002.88
 Hospital East       Products Box
St. Francis         Fluid Milk     South West     Muskogee     OK              74401        514       $12,305.16
 Hospital East
St. Francis         Fresh Fruit/   South West     Muskogee     OK              74401      2,072       $34,230.00
 Hospital East       Vegetable
                     Box
St. Francis         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21217        150        $3,142.50
 Neighbor Center     Vegetable
                     Box
St. Francis Xavier  Combination    South West     Tulsa        OK              74110      3,552      $124,213.44
 Church              Box
St. Francis Xavier  Dairy          South West     Tulsa        OK              74110      1,632       $74,680.32
 Church              Products Box
St. Francis Xavier  Fresh Fruit/   South West     Tulsa        OK              74110      1,362       $21,502.20
 Church              Vegetable
                     Box
St. Gabriel         Fluid Milk     South East     Mound Bayou  MS              38762        200          $758.00
St. Gabriel Food    Dairy          Midwest        Mentor       OH              44060        345        $8,625.00
 Pantry              Products Box
St. Gabriel Mercy   Fresh Fruit/   South East     Mound Bayou  MS              38762        100        $1,995.00
 Center              Vegetable
                     Box
St. George Greek    Fresh Fruit/   South East     Greenville   SC              29601        650       $19,500.00
 Orthodox Church     Vegetable
                     Box
St. Gregorys        Combination    Western        Long Beach   CA              90815        288       $10,512.00
 Episcopal Church    Box
 Food Bank
St. Henry Catholic  Combination    Western        Gresham      OR              97030      1,440       $50,400.00
 Church              Box
St. Henry Catholic  Dairy          Western        Gresham      OR              97030        400       $12,000.00
 Church              Products Box
St. Henry Catholic  Fresh Fruit/   Western        Gresham      OR              97030        420       $11,340.00
 Church              Vegetable
                     Box
St. Hugh Project    Fresh Fruit/   North East     Huntington   NY              11746      4,326      $172,996.74
 Hope                Vegetable                     Station
                     Box
St. Innocent        Fresh Fruit/   Midwest        Redford      MI              48239         90        $2,587.50
 Orthodox            Vegetable
                     Box
St. Irenaeus        Precooked      Midwest        Park Forest  IL              60466         72        $5,840.64
                     Meat Box
St. Irenaeus Box    Dairy          Midwest        Park Forest  IL              60466         80        $2,000.00
                     Products Box
St. Irenaeus Box    Dairy          Midwest        Park Forest  IL              60466         80        $2,000.00
                     Products Box
St. James AME       Fluid Milk     South East     Savannah     GA              31401      4,104       $15,986.16
St. James Caring    Fresh Fruit/   Mountain       St. James    MO              65559        282        $7,755.00
 Center              Vegetable      Plains
                     Box
St. James Catholic  Fresh Fruit/   Mountain       Kansas City  MO              64116          7          $181.30
 Church              Vegetable      Plains
                     Box
St. James Catholic  Fresh Fruit/   Mountain       Liberty      MO              64116          7          $181.30
 Church              Vegetable      Plains
                     Box
St. James Catholic  Fresh Fruit/   Mountain       North        MO              64116         14          $362.60
 Church              Vegetable      Plains         Kansas
                     Box                           City
St. James Catholic  Precooked      Midwest        Chicago      IL              60616         72        $5,840.64
 Church              Meat Box
St. James Catholic  Combination    Western        Mcminnville  OR              97128      1,380       $48,300.00
 Church              Box
St. James Catholic  Dairy          Western        Mcminnville  OR              97128      1,300       $39,000.00
 Church              Products Box
St. James Cme       Fresh Fruit/   South East     Ensley       AL              35218      3,000       $77,850.00
 Church              Vegetable
                     Box
St. James Food      Fresh Fruit/   Mountain       Potosi       MO              63664        275        $7,562.50
 Pantry              Vegetable      Plains
                     Box
St. James Food      Precooked      Midwest        Chicago      IL              60616        360       $29,203.20
 Pantry              Meat Box
St. James Food      Dairy          Midwest        Chicago      IL              60600        350        $8,750.00
 Pantry Box          Products Box
St. James Ministry  Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15221        120        $3,600.00
 Center              Vegetable
                     Box
St. James Miss.     Fluid Milk     South East     Rowland      NC              28383        350        $1,361.50
 Bapt.
St. James           Fluid Milk     South West     Austin       TX              78721        300          $876.00
 Missionary
 Baptist
St. James           Fresh Fruit/   South West     Austin       TX              78721        256        $4,349.44
 Missionary          Vegetable
 Baptist             Box
St. James Parish    Dairy          Mid-Atlantic   Apollo       PA              15613        213        $4,479.39
 FP                  Products Box
St. Joan of Arc     Fresh Fruit/   Midwest        St. Clair    MI              48080        280        $4,186.00
 School              Vegetable                     Shores
                     Box
St. John African    Fresh Fruit/   South East     Birmingham   AL              35203      1,100       $28,545.00
 Methodist           Vegetable
                     Box
St. John Baptist    Combination    Western        Milwaukie    OR              97222      1,256       $43,960.00
 Catholic            Box
St. John Baptist    Dairy          Western        Milwaukie    OR              97222      2,190       $65,700.00
 Catholic            Products Box
St. John Baptist    Fresh Fruit/   Western        Milwaukie    OR              97222        790       $21,330.00
 Catholic            Vegetable
                     Box
St. John Baptist    Fresh Fruit/   South East     Birmingham   AL              35224      1,480       $38,406.00
 Church              Vegetable
                     Box
St. John Batist     Fresh Fruit/   South East     Sylacauga    AL              35150        960       $24,912.00
 Church              Vegetable
                     Box
St. John Lutheran   Dairy          Mid-Atlantic   Reading      PA              19601        180        $7,200.00
 Helping Harvest     Products Box
St. John Lutheran   Fresh Fruit/   Midwest        Rochester    MI              48307        861       $30,978.78
 Church & School     Vegetable
                     Box
St. John Luthern    Fluid Milk     Midwest        Baldwin      IL              62217        180          $405.00
St. John of the     Dairy          South West     Arlington    TX              76017        800       $36,608.00
 Apostle             Products Box
St. John Praise     Fresh Fruit/   Midwest        Pulaski      IL              62976        600       $16,500.00
 and Worship         Vegetable
                     Box
St. John Pr[a]ise   Fresh Fruit/   Midwest        Pulaski      IL              62976      2,050       $56,375.00
 and Worship         Vegetable
                     Box
St. John UMC A8831- Dairy          Mid-Atlantic   Bridgeton    NJ              08302        300       $12,000.00
 01                  Products Box
St. John UMC A8831- Precooked      Mid-Atlantic   Bridgeton    NJ              08302        240       $14,844.00
 01                  Meat Box
St. John United     Fluid Milk     Midwest        Sunman       IN              47041        216          $864.00
 Church
St. John Vianney    Dairy          Midwest        Mentor       OH              44060        195        $4,875.00
                     Products Box
St. Johns Baptist   Fresh Fruit/   South East     Tuscaloosa   AL              35401      2,220       $57,609.00
 Church              Vegetable
                     Box
St. Johns Catholic  Dairy          Midwest        Howell       MI              48843        352        $8,543.04
 Church              Products Box
St. Johns Catholic  Fresh Fruit/   Midwest        Howell       MI              48843      1,362       $28,102.23
 Church              Vegetable
                     Box
St. Johns Catholic  Precooked      Midwest        Howell       MI              48843        977       $40,784.63
 Church              Meat Box
St. Johns Food      Combination    Western        Portland     OR              97203        240        $8,400.00
 Share USDA          Box
St. Johns Food      Fresh Fruit/   Western        Portland     OR              97203      1,140       $30,780.00
 Share USDA          Vegetable
                     Box
St. John's United   Fresh Fruit/   Midwest        Jackson      MI              49203        420       $15,111.60
 Church Christ       Vegetable
                     Box
St. Joseph          Fresh Fruit/   Mountain       Bonne Terre  MO              63628        450       $12,375.00
 Cathlolic Church    Vegetable      Plains
                     Box
St. Joseph          Dairy          Midwest        Jasper       IN              47546      1,056       $26,400.00
 Catholic Church     Products Box
St. Joseph Church   Combination    Western        Elma         WA              98541        180        $6,300.00
 CCS                 Box
St. Joseph Church   Dairy          Western        Elma         WA              98541        200        $6,000.00
 CCS                 Products Box
St. Joseph Church   Fresh Fruit/   Western        Elma         WA              98541        240        $6,480.00
 CCS                 Vegetable
                     Box
St. Joseph          Dairy          Midwest        Three        MI              49093        500       $14,500.00
 Commission on       Products Box                  Rivers
 Aging
St. Joseph          Fresh Fruit/   Midwest        Three        MI              49093        600       $12,850.00
 Commission on       Vegetable                     Rivers
 Aging               Box
St. Joseph the      Combination    Western        Portland     OR              97233      1,200       $42,000.00
 Worker Cath. USDA   Box
St. Joseph the      Dairy          Western        Portland     OR              97233      2,098       $62,940.00
 Worker Cath. USDA   Products Box
St. Joseph the      Fresh Fruit/   Western        Portland     OR              97233        840       $22,680.00
 Worker Cath. USDA   Vegetable
                     Box
St. Josephs         Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19139        189        $3,581.55
 Baptist Church      Vegetable                     a
                     Box
St. Jude Medical    Fresh Fruit/   Western        Fullerton    CA              92835        240        $6,000.00
 Center              Vegetable
                     Box
St. Jules Catholic  Fluid Milk     South West     Lafayette    LA              70506        412        $1,203.04
St. Julia AME Zion  Fresh Fruit/   South East     Jacksonvill  NC              28540        950       $33,924.50
 Church              Vegetable                     e
                     Box
St. Kevin Food      Precooked      Midwest        Chicago      IL              60617        216       $17,521.92
 Pantry              Meat Box
St. Lawrence        Combination    Western        Raymond      WA              98577        240        $8,400.00
 Church CCS          Box
St. Lawrence        Dairy          Western        Raymond      WA              98577        200        $6,000.00
 Church CCS          Products Box
St. Lawrence        Fresh Fruit/   Western        Raymond      WA              98577        180        $4,860.00
 Church CCS          Vegetable
                     Box
St. Leo the Great   Fluid Milk     Midwest        Cleveland    OH              44109        180          $597.60
St. Louis Area      Dairy          Mountain       Bridgeton    MO              63044     28,508      $721,344.68
 Food Bank           Products Box   Plains
St. Louis Area      Fresh Fruit/   Mountain       Bridgeton    MO              63044     63,792    $1,716,976.00
 Food Bank           Vegetable      Plains
                     Box
St. Louis Area      Fresh Fruit/   Mountain       Montgomery   MO              63361      4,238      $116,545.00
 Food Bank           Vegetable      Plains         City
                     Box
St. Louis Area      Fresh Fruit/   Mountain       Overland     MO              63114        396       $12,672.00
 Food Bank           Vegetable      Plains
                     Box
St. Louis Area      Fresh Fruit/   Mountain       St. Louis    MO              63115        432       $13,824.00
 Food Bank           Vegetable      Plains
                     Box
St. Louis Area      Fresh Fruit/   Mountain       Warrenton    MO              63383        180        $5,760.00
 Food Bank           Vegetable      Plains
                     Box
St. Louis Area      Precooked      Mountain       Bridgeton    MO              63044     33,250    $1,461,102.46
 Food Bank           Meat Box       Plains
St. Louis Public    Fresh Fruit/   Mountain       St. Louis    MO              63115      8,160      $211,344.00
 Schools             Vegetable      Plains
                     Box
St. Luke Baptist    Fresh Fruit/   South East     Ripley       TN              38063        324        $7,938.00
 Church--C/O Mid     Vegetable
 South Food Bank     Box
St. Luke Food       Dairy          South East     Tupelo       MS              38804      1,652       $41,300.00
 Pantry              Products Box
St. Lukes Central   Combination    Western        Boise        ID              83705        200        $8,800.00
 Laundry             Box
St. Lukes Central   Fresh Fruit/   Western        Boise        ID              83705        200        $5,200.00
 Laundry             Vegetable
                     Box
St. Lukes Eagle     Combination    Western        Eagle        ID              83616        125        $5,500.00
 Medical Plaza       Box
St. Lukes Eagle     Fresh Fruit/   Western        Eagle        ID              83616        175        $4,550.00
 Medical Plaza       Vegetable
                     Box
St. Lukes Elks      Combination    Western        Boise        ID              83702        325       $14,300.00
                     Box
St. Lukes Elks      Fresh Fruit/   Western        Boise        ID              83702        325        $8,450.00
                     Vegetable
                     Box
St. Lukes           Fresh Fruit/   South West     La Union     NM              88021        572       $11,154.00
 Episcopal Church    Vegetable
                     Box
St. Lukes Jerome    Combination    Western        Jerome       ID              83338        150        $6,600.00
                     Box
St. Lukes Jerome    Fresh Fruit/   Western        Jerome       ID              83338        150        $3,900.00
                     Vegetable
                     Box
St. Lukes Luthern   Fresh Fruit/   Mountain       Kansas City  KS              66101        240        $6,216.00
 Church              Vegetable      Plains
                     Box
St. Lukes Magic     Combination    Western        Twin Falls   ID              83301      1,800       $79,200.00
 Valley              Box
St. Lukes Magic     Fresh Fruit/   Western        Twin Falls   ID              83301      1,800       $46,800.00
 Valley              Vegetable
                     Box
St. Lukes Mccall    Combination    Western        Mccall       ID              83638        250       $11,000.00
                     Box
St. Lukes Mccall    Fresh Fruit/   Western        Mccall       ID              83638        200        $5,200.00
                     Vegetable
                     Box
St. Lukes Meridian  Combination    Western        Eagle        ID              83642      1,800       $79,200.00
                     Box
St. Lukes Meridian  Fresh Fruit/   Western        Eagle        ID              83642      1,443       $37,518.00
                     Vegetable
                     Box
St. Lukes Mnt Home  Combination    Western        Mountain     ID              83647        175        $7,700.00
                     Box                           Home
St. Lukes Mnt Home  Fresh Fruit/   Western        Mountain     ID              83647        300        $7,800.00
                     Vegetable                     Home
                     Box
St. Lukes Nampa     Combination    Western        Nampa        ID              83687      1,000       $44,000.00
                     Box
St. Lukes Nampa     Fresh Fruit/   Western        Nampa        ID              83687        500       $13,000.00
                     Vegetable
                     Box
St. Lukes Regional  Combination    Western        Boise        ID              83712      2,501      $110,044.00
 Med Cntr Dt         Box
St. Lukes Regional  Fresh Fruit/   Western        Boise        ID              83712      2,501       $65,026.00
 Med Cntr Dt         Vegetable
                     Box
St. Lukes UM        Fluid Milk     South West     Houston      TX              77074         60          $192.60
St. Lukes           Fresh Fruit/   Western        Boise        ID              83702      1,722       $44,772.00
 Washington Group    Vegetable
 Plaz.               Box
St. Lukes Wood      Combination    Western        Ketchum      ID              83340        250       $11,000.00
 River               Box
St. Lukes Wood      Fresh Fruit/   Western        Ketchum      ID              83340        150        $3,900.00
 River               Vegetable
                     Box
St. Malachy         Fluid Milk     Midwest        Chicago      IL              60612        540        $1,792.80
St. Malachy         Precooked      Midwest        Chicago      IL              60612        360       $29,203.20
                     Meat Box
St. Malchy          Precooked      Midwest        Chicago      IL              60612      1,296      $105,131.52
                     Meat Box
St. Maries School   Combination    Western        St. Maries   ID              83861        600       $27,800.00
 Dist. #41           Box
St. Maries School   Fresh Fruit/   Western        St. Maries   ID              83861        100        $3,000.00
 Dist. #41           Vegetable
                     Box
St. Marks           Fluid Milk     South West     New Orleans  LA              70116      3,721       $11,063.10
 Methodist
St. Martin De       Fluid Milk     North East     Providence   RI              02907      4,032        $7,724.16
 Porre's Center
St. Martin De       Dairy          Midwest        Cleveland    OH              44103        130        $3,250.00
 Porres High         Products Box
 School
St. Mary Flagstaff  Dairy          South West     Flagstaff    AZ              86004      5,649      $149,698.50
 Food Center         Products Box
St. Mary Flagstaff  Fresh Fruit/   South West     Flagstaff    AZ              86004      6,240      $136,344.00
 Food Center         Vegetable
                     Box
St. Mary Hospital   Dairy          Midwest        Centralia    IL              62801        350       $10,412.50
                     Products Box
St. Mary Hospital   Fresh Fruit/   Midwest        Centralia    IL              62801        350        $9,625.00
                     Vegetable
                     Box
St. Mary Our Lady   Fresh Fruit/   Midwest        Center Line  MI              48015        200        $2,990.00
 Queen Family        Vegetable
                     Box
St. Mary Parish     Fresh Fruit/   Western        Aberdeen     WA              98520      1,200       $32,400.00
                     Vegetable
                     Box
St. Mary Parish     Combination    Western        Aberdeen     WA              98520      1,440       $50,400.00
                     Box
St. Mary Parish     Dairy          Western        Aberdeen     WA              98520      1,200       $36,000.00
                     Products Box
St. Mary S School   Dairy          Midwest        Lake         MI              49653         90        $2,610.00
                     Products Box                  Leelanau
St. Mary S School   Fresh Fruit/   Midwest        Lake         MI              49653        185        $3,825.00
                     Vegetable                     Leelanau
                     Box
St. Marys Church    Fresh Fruit/   Midwest        Detroit      MI              48210        800       $11,960.00
                     Vegetable
                     Box
St. Mary's          Fluid Milk     South East     Jacksonvill  FL              32206         60          $227.40
 Episcopal                                         e
St. Marys Food      Fresh Fruit/   Western        Boise        ID              83703        175        $5,150.00
 Bank                Vegetable
                     Box
St. Marys Food      Dairy          South West     Phoenix      AZ              85009      2,448       $64,872.00
 Bank Knight         Products Box
 Center
St. Marys Food      Fluid Milk     South West     Phoenix      AZ              85009      8,349       $39,240.30
 Bank Knight
 Center
St. Marys Food      Fresh Fruit/   South West     Phoenix      AZ              85009     22,000      $594,000.00
 Bank Knight         Vegetable
 Center              Box
St. Marys Food      Precooked      South West     Phoenix      AZ              85009      6,144      $633,753.60
 Bank Knight         Meat Box
 Center
St. Marys Food      Dairy          South West     Surprise     AZ              85378      3,909      $103,588.50
 Bank Surprise       Products Box
St. Marys Food      Fluid Milk     South West     Surprise     AZ              85378      3,168       $14,889.60
 Bank Surprise
St. Marys Food      Fresh Fruit/   South West     Surprise     AZ              85378      5,632      $123,059.20
 Bank Surprise       Vegetable
                     Box
St. Marys           Fluid Milk     South West     Flint        TX              75762        180          $525.60
 Magdalene
St. Mary's Roman    Fresh Fruit/   Mid-Atlantic   Gloucester   NJ              08030        441        $8,356.95
 Catholic Church     Vegetable                     City
                     Box
St. Matthew         Combination    Western        Hillsboro    OR              97123      4,607      $161,245.00
 Catholic Church     Box
St. Matthew         Dairy          Western        Hillsboro    OR              97123      3,700      $111,000.00
 Catholic Church     Products Box
St. Matthew         Fresh Fruit/   Western        Hillsboro    OR              97123      1,740       $46,980.00
 Catholic Church     Vegetable
                     Box
St. Matthias        Fresh Fruit/   Mid-Atlantic   Waynesburg   PA              15370        240        $7,200.00
 Parish              Vegetable
                     Box
St. Meinrad Church  Dairy          Midwest        St. Meinrad  IN              47577      2,112       $52,800.00
                     Products Box
St. Meinrad Church  Fluid Milk     Midwest        St. Meinrad  IN              47577      4,500       $10,125.00
St. Michael Food    Fluid Milk     Midwest        Greenville   IN              47124        360          $810.00
 Pantry
St. Michaels        Fluid Milk     South East     Wauchula     FL              33873        240          $909.60
 Parish
St. Moses the       Fresh Fruit/   Midwest        Detroit      MI              48238      1,600       $46,000.00
 Black Church        Vegetable
                     Box
St. Nick Social     Fluid Milk     South West     Jeanerette   LA              70544        400        $1,197.00
 Just.
St. Nicks Alliance  Fresh Fruit/   North East     Brooklyn     NY              11211      2,600       $65,184.00
 Corp.               Vegetable
                     Box
St. Noel Church     Dairy          Midwest        Willoughby   OH              44094        120        $3,000.00
                     Products Box
St. Patrick         Fresh Fruit/   Mid-Atlantic   Canonsburg   PA              15317        600       $18,000.00
 Canonsburg United   Vegetable
                     Box
St. Patrick Parish  Fresh Fruit/   South West     Canutillo    TX              79835        600       $11,700.00
                     Vegetable
                     Box
St. Patricks        Dairy          Western        Canby        OR              97013        500       $15,000.00
 Church              Products Box
St. Patricks        Combination    Western        Canby        OR              97013        240        $8,400.00
 Church              Box
St. Patricks        Fresh Fruit/   Western        Canby        OR              97013        240        $6,480.00
 Church              Vegetable
                     Box
St. Patrick's       Fluid Milk     South East     Dunwoody     GA              30338      1,260        $4,884.20
 Episco.
St. Patricks        Dairy          Midwest        Detroit      MI              48201         75        $2,175.00
 Senior Center       Products Box
St. Patricks        Fresh Fruit/   Midwest        Detroit      MI              48201        750       $17,951.25
 Senior Center       Vegetable
                     Box
St. Paul AME        Fluid Milk     South East     Birmingham   AL              35204        700        $2,653.00
 Church
St. Paul AME        Fresh Fruit/   South East     Birmingham   AL              35204      1,200       $31,140.00
 Church              Vegetable
                     Box
St. Paul Baptist    Fresh Fruit/   Mid-Atlantic   Oakmont      PA              15139        720       $21,600.00
 Church              Vegetable
                     Box
St. Paul Catholic   Fresh Fruit/   South East     Pensacola    FL              32505        300        $8,700.00
                     Vegetable
                     Box
St. Paul COC        Fresh Fruit/   South East     Wilson       NC              27896        144        $5,142.24
 Wilson              Vegetable
                     Box
St. Paul Family     Combination    Western        Boise        ID              83702         50        $2,200.00
 Life Ed Center      Box
St. Paul Family     Fresh Fruit/   Western        Boise        ID              83702         50        $1,300.00
 Life Ed Center      Vegetable
                     Box
St. Paul Lutheran   Precooked      Midwest        Oak Lawn     IL              60453        504       $40,884.48
 Church              Meat Box
St. Paul Lutheran   Dairy          Midwest        Oak Lawn     IL              60453        300        $7,500.00
 Church Box          Products Box
St. Paul Lutheran   Fresh Fruit/   Midwest        Flint        MI              48532        644       $23,171.12
 Schools             Vegetable
                     Box
St. Paul MBC        Fluid Milk     South East     Silver       MS              39663        360        $1,364.40
                                                   Creek
St. Paul Silverton  Combination    Western        Silverton    OR              97381        120        $4,200.00
 Church              Box
St. Paul United     Dairy          Midwest        Cleveland    OH              44128        200        $5,000.00
 Methodist Church    Products Box
St. Paul United     Fresh Fruit/   Midwest        Willoughby   OH              44094        200        $5,300.00
 Methodist Church    Vegetable
                     Box
St. Pauls           Fresh Fruit/   Midwest        Toledo       OH              43604        108        $1,350.00
                     Vegetable
                     Box
St. Pauls AME       Fluid Milk     South East     Macon        GA              31217      7,920       $31,600.80
St. Pauls AME       Fluid Milk     South East     Bolton       NC              28423        960        $3,734.40
 W10888
St. Pauls AME Zion  Fresh Fruit/   South East     Bolton       NC              28423      4,500       $51,750.00
 Church              Vegetable
                     Box
St. Pauls           Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15213        280        $8,400.00
 Cathedral           Vegetable
                     Box
St. Pauls Childr.   Fluid Milk     South West     Tyler        TX              75702        160          $467.20
St. Paul's          Combination    North East     Worcester    MA              01609         70        $2,296.00
 Outreach            Box
St. Paul's          Precooked      North East     Worcester    MA              01609         30        $1,629.00
 Outreach            Meat Box
St. Peter Catholic  Combination    Western        Portland     OR              97266        480       $16,800.00
 Church USDA         Box
St. Peter Catholic  Dairy          Western        Portland     OR              97266        100        $3,000.00
 Church USDA         Products Box
St. Peters Baptist  Fresh Fruit/   South East     Macon        GA              31217      1,920       $36,364.80
 Church              Vegetable
                     Box
St. Peters          Combination    Mountain       Kansas City  MO              64131          8          $279.76
 Catholic Church     Box            Plains
St. Peters          Dairy          Mountain       Kansas City  MO              64131         20          $915.20
 Catholic Church     Products Box   Plains
St. Peters          Fresh Fruit/   Mountain       Kansas City  MO              64131         26          $491.50
 Catholic Church     Vegetable      Plains
                     Box
St. Peters Church   Fresh Fruit/   Midwest        Detroit      MI              48212        100        $1,495.00
                     Vegetable
                     Box
St. Peters Church   Fluid Milk     Mid-Atlantic   Brownsville  PA              15417         17          $206.55
 Food Bank
St. Peters Newberg  Combination    Western        Newberg      OR              97132        480       $16,800.00
                     Box
St. Peters Newberg  Dairy          Western        Newberg      OR              97132        450       $13,500.00
                     Products Box
St. Petersburg      Combination    South East     St.          FL              33701     17,472      $986,025.60
 Free Clinic Food    Box                           Petersburg
 Bank
St. Petersburg      Dairy          South East     St.          FL              33701      3,744      $122,166.72
 Free Clinic Food    Products Box                  Petersburg
 Bank
St. Petersburg      Fluid Milk     South East     St.          FL              33714     17,500       $69,575.40
 Free Clinic Food                                  Petersburg
 Bank
St. Petersburg      Fresh Fruit/   South East     St.          FL              33714      1,320       $34,320.00
 Free Clinic Food    Vegetable                     Petersburg
 Bank                Box
St. Philip Benizi   Fresh Fruit/   South East     Jonesboro    GA              30238        390        $7,386.60
 Catholic            Vegetable
                     Box
St. Philip the      Fresh Fruit/   South West     Arlington    TX              76018        880       $14,951.20
 Apostle Anglican    Vegetable
                     Box
St. Phillip Ame     Fluid Milk     South East     Atlanta      GA              30317        760        $3,032.40
 Chur
St. Pius 5Th        Fresh Fruit/   Mountain       St. Louis    MO              63118         60        $1,650.00
 Church              Vegetable      Plains
                     Box
St. Pius X          Combination    Western        Portland     OR              97229      1,229       $43,015.00
 Catholic Church     Box
St. Pius X          Dairy          Western        Portland     OR              97229      1,250       $37,500.00
 Catholic Church     Products Box
St. Pius X          Fresh Fruit/   Western        Portland     OR              97229        720       $19,440.00
 Catholic Church     Vegetable
                     Box
St. Regis           Fresh Fruit/   Mountain       Kansas City  MO              64138        240        $6,216.00
                     Vegetable      Plains
                     Box
St. Regis Mohawk    Dairy          North East     Hogansburg   NY              13655        180        $4,320.00
 School              Products Box
St. Sabina          Precooked      Midwest        Chicago      IL              60620         72        $5,840.64
                     Meat Box
St. Sabina          Precooked      Midwest        Chicago      IL              60620         72        $5,840.64
                     Meat Box
St. Sabina Church   Fresh Fruit/   Midwest        Chicago      IL              60620        480       $30,748.80
                     Vegetable
                     Box
St. Sabina Church   Precooked      Midwest        Chicago      IL              60620        160       $11,451.20
                     Meat Box
St. Sabina Social   Combination    Midwest        Chicago      IL              60620        160       $10,748.80
 Services            Box
St. Sabina Social   Fresh Fruit/   Midwest        Chicago      IL              60620        480       $30,748.80
 Services            Vegetable
                     Box
St. Stephen the     Combination    Western        Renton       WA              98058        755       $26,425.00
 Martyr Chu.         Box
St. Stephen the     Dairy          Western        Renton       WA              98058        665       $19,950.00
 Martyr Chu.         Products Box
St. Stephen the     Fresh Fruit/   Western        Renton       WA              98058        695       $18,865.00
 Martyr Chu.         Vegetable
                     Box
St. Stephens        Precooked      North East     Lynn         MA              01902         60        $3,258.00
                     Meat Box
St. Stephens        Fresh Fruit/   Midwest        Detroit      MI              48210        400        $5,980.00
 Church              Vegetable
                     Box
St. Stephens Comm.  Fluid Milk     Midwest        Columbus     OH              43219      1,800        $5,976.00
 HS
St. Stephens        Fresh Fruit/   Western        Portland     OR              97229        180        $4,860.00
 Episco. Parish      Vegetable
 USDA                Box
St. Stephens        Fresh Fruit/   South East     East Point   GA              30344      2,260       $45,200.00
 Missionary          Vegetable
                     Box
St. Suzanne Cody    Fresh Fruit/   Midwest        Detroit      MI              48228        650        $9,717.50
 Rouge Comm.         Vegetable
 Center              Box
St. Suzzanes        Fresh Fruit/   Midwest        Detroit      MI              48228        100        $1,495.00
 Development         Vegetable
 Center              Box
St. Teresa CC/Sosa  Fluid Milk     South East     Belleview    FL              34420        608        $2,304.32
St. Theresa Ctr.    Fluid Milk     South West     St.          LA              70582        320          $980.80
                                                   Martinvlle
St. Thomas          Dairy          Midwest        Berea        OH              44017         65        $1,625.00
 Episcopal Church    Products Box
St. Thomas More     Combination    South West     Tulsa        OK              74134      1,440       $50,356.80
 Church              Box
St. Thomas More     Dairy          South West     Tulsa        OK              74134      1,056       $48,322.56
 Church              Products Box
St. Thomas More     Fluid Milk     South West     Tulsa        OK              74134      1,009       $24,155.46
 Church
St. Thomas More     Fresh Fruit/   South West     Tulsa        OK              74134      3,328       $63,612.20
 Church              Vegetable
                     Box
St. Thomas of       Dairy          Midwest        Chicago      IL              60640         70        $1,750.00
 Canterbury Box      Products Box
St. Thomas of       Dairy          Midwest        Chicago      IL              60640         40        $1,000.00
 Canterbury Box      Products Box
St. Vin/SHFB        Fluid Milk     South East     Deltona      FL              32725        300        $1,137.00
 Ve166Ga
St. Vincent De      Combination    North East     Cranston     RI              02920        143        $4,690.40
 Paul                Box
St. Vincent De      Dairy          South East     Biloxi       MS              39530        640       $17,971.20
 Paul                Products Box
St. Vincent De      Dairy          Midwest        East         OH              44112         20          $500.00
 Paul                Products Box                  Cleveland
St. Vincent De      Fluid Milk     South East     Biloxi       MS              39530      1,152        $8,455.68
 Paul
St. Vincent De      Fluid Milk     Midwest        Cincinnati   OH              45214      1,080        $3,585.60
 Paul
St. Vincent De      Fresh Fruit/   South East     Biloxi       MS              39530        384        $6,489.60
 Paul                Vegetable
                     Box
St. Vincent De      Fresh Fruit/   Mountain       Dardenne     MO              63368        380       $10,450.00
 Paul                Vegetable      Plains         Prairie
                     Box
St. Vincent De      Fresh Fruit/   Mountain       Farmington   MO              63640        515       $14,162.50
 Paul                Vegetable      Plains
                     Box
St. Vincent De      Fresh Fruit/   Mountain       Poplar       MO              63901        715       $19,662.50
 Paul                Vegetable      Plains         Bluff
                     Box
St. Vincent De      Precooked      North East     Cranston     RI              02920          5          $271.50
 Paul                Meat Box
St. Vincent De      Precooked      South East     Biloxi       MS              39530      1,008       $41,388.48
 Paul                Meat Box
St. Vincent De      Precooked      Midwest        Youngstown   OH              44503      1,080       $49,136.40
 Paul                Meat Box
St. Vincent De      Fresh Fruit/   South West     Houston      TX              77003        112        $1,902.88
 Paul Blessed        Vegetable
                     Box
St. Vincent De      Combination    Western        Eugene       OR              97402        480       $16,800.00
 Paul Eugene         Box
St. Vincent De      Dairy          Western        Eugene       OR              97402        100        $3,000.00
 Paul Eugene         Products Box
St. Vincent De      Dairy          Midwest        East         OH              44112         60        $1,500.00
 Paul Father         Products Box                  Cleveland
 Michael
St. Vincent De      Dairy          North East     Massena      NY              13662        960       $41,472.00
 Paul Pantry         Products Box
St. Vincent De      Fresh Fruit/   North East     Massena      NY              13662        966       $21,252.00
 Paul Pantry         Vegetable
                     Box
St. Vincent De      Precooked      North East     Massena      NY              13662        966       $51,777.60
 Paul Pantry         Meat Box
St. Vincent De      Combination    Western        Pasco        WA              99301      2,400       $84,000.00
 Paul Pasco          Box
St. Vincent De      Dairy          Western        Pasco        WA              99301      2,600       $78,000.00
 Paul Pasco          Products Box
St. Vincent De      Combination    Western        Salem        OR              97301        720       $25,200.00
 Paul Salem          Box
St. Vincent De      Dairy          Western        Salem        OR              97301      1,925       $57,750.00
 Paul Salem          Products Box
St. Vincent De      Fresh Fruit/   Western        Salem        OR              97301      2,005       $54,135.00
 Paul Salem          Vegetable
                     Box
St. Vincent De      Combination    Western        Vancouver    WA              98661        480       $16,800.00
 Paul Vanc           Box
St. Vincent De      Dairy          Western        Vancouver    WA              98661        300        $9,000.00
 Paul Vanc           Products Box
St. Vincent De      Fresh Fruit/   Western        Vancouver    WA              98661        920       $24,840.00
 Paul Vanc           Vegetable
                     Box
St. Vincent De      Dairy          Midwest        Wadsworth    OH              44281        116        $2,795.60
 Paul Wadsworth      Products Box
St. Vincent De      Fresh Fruit/   Midwest        Wadsworth    OH              44281        117        $3,100.50
 Paul Wadsworth      Vegetable
                     Box
St. Vincent Depaul  Dairy          Mid-Atlantic   Greensburg   PA              15601        235        $4,942.05
 FP                  Products Box
St. Vincent Depaul  Dairy          Western        Bend         OR              97701        188        $5,640.00
 of Bend             Products Box
St. Vincent Depaul  Fresh Fruit/   Western        Bend         OR              97701      1,048       $49,256.00
 of Bend             Vegetable
                     Box
St. Vincent DP      Combination    Western        Seattle      WA              98108        360       $12,600.00
 Georgetown          Box
St. Vincent DP      Fresh Fruit/   Western        Seattle      WA              98108        300        $8,100.00
 Georgetown          Vegetable
                     Box
St. Vincent Food    Fluid Milk     South West     Phoenix      AZ              85003        144          $676.80
 Bank
St. Vincent Food    Dairy          Midwest        Bloomington  IL              61701        200        $5,950.00
 Pantry              Products Box
St. Vincent Food    Fresh Fruit/   Midwest        Bloomington  IL              61701        200        $5,500.00
 Pantry              Vegetable
                     Box
St. Vincent Food    Fresh Fruit/   Western        Reno         Nv              89512      1,120       $22,366.40
 Pantry              Vegetable
                     Box
St. Vincent Food    Combination    Western        Nampa        ID              83687         50        $2,200.00
 Pantry/Nampa        Box
St. Vincent School  Fresh Fruit/   Mountain       Marthasvill  MO              63357        324       $10,368.00
                     Vegetable      Plains         e
                     Box
St. Vincent/Dpaul   Fluid Milk     Midwest        Brazil       IN              47834      1,710        $3,847.50
St. Vnct. Depaul    Fluid Milk     Midwest        Evansville   IN              47711        621        $1,397.25
 Milk 2 Plt
St. William Church  Combination    South West     Durant       OK              74701      1,056       $36,928.32
                     Box
St. William Church  Dairy          South West     Durant       OK              74701      1,632       $74,680.32
                     Products Box
St. William Church  Fresh Fruit/   South West     Durant       OK              74701      2,401       $49,357.70
                     Vegetable
                     Box
St. Winifred Food   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15228        680       $20,400.00
 Pantry              Vegetable
                     Box
St. Agatha's        Fresh Fruit/   Midwest        Chicago      IL              60623        252        $9,066.96
                     Vegetable
                     Box
St. Agnes           Fresh Fruit/   Western        Los Angeles  CA              90805      2,000       $49,500.00
                     Vegetable
                     Box
St. Aloysius        Fresh Fruit/   Midwest        Chicago      IL              60622        126        $4,533.48
                     Vegetable
                     Box
St. Aloysus         Fresh Fruit/   Midwest        Chicago      IL              60622        126        $4,533.48
                     Vegetable
                     Box
St. Augusta Church  Fresh Fruit/   South East     Rocky Mount  NC              27801         15          $535.65
                     Vegetable
                     Box
St. Bernards        Fresh Fruit/   Mid-Atlantic   Riverdale    MD              20737      2,100       $42,000.00
 Catholic Church     Vegetable
                     Box
St. Charles Bend    Fresh Fruit/   Western        Bend         OR              97701        270       $12,690.00
                     Vegetable
                     Box
St. Christopher's   Fresh Fruit/   Mid-Atlantic   New          MD              20784      1,200       $24,000.00
 Episcopal Church    Vegetable                     Carrollton
                     Box
St. Christopher's   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134      2,400       $72,600.00
 Foundation for      Vegetable                     a
 Children            Box
St. Christopher's   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19147        600       $16,200.00
 Foundation for      Vegetable                     a
 Children            Box
St. Christopher's   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134      1,270       $25,400.00
 Hospital for        Vegetable                     a
 Children            Box
St. Columbanus      Precooked      Midwest        Chicago      IL              60637        792       $64,247.04
                     Meat Box
St. Cyprian Food    Fresh Fruit/   Midwest        Chicago      IL              60634        252        $9,066.96
 Pantry              Vegetable
                     Box
St. David's         Fresh Fruit/   Midwest        Southfield   MI              48076      3,200       $63,904.00
 Episcopal Church    Vegetable
                     Box
St. Elizabeth       Fresh Fruit/   Midwest        Chicago      IL              60653        252        $9,066.96
                     Vegetable
                     Box
St. Elizabeth       Precooked      Midwest        Chicago      IL              60653        216       $17,521.92
                     Meat Box
St. Florian         Precooked      Midwest        Chicago      IL              60633         72        $5,840.64
                     Meat Box
St. Francis Xavier  Fresh Fruit/   Midwest        Lagrange     IL              60525        126        $4,533.48
                     Vegetable
                     Box
St. Gabriel Mercy   Fresh Fruit/   South East     Mound Bayou  MS              38762        500        $9,975.00
 Center              Vegetable
                     Box
St. Georges         Fresh Fruit/   South West     George West  TX              78022        460       $11,500.00
                     Vegetable
                     Box
St. Isidore         Fresh Fruit/   South West     Spring       TX              77386      2,480       $42,135.20
 Espiscopal Church   Vegetable
                     Box
St. James           Fresh Fruit/   Midwest        Chicago      IL              60612        126        $4,533.48
                     Vegetable
                     Box
St. James           Fresh Fruit/   Midwest        Chicago      IL              60612        126        $4,533.48
 (Sacramento)        Vegetable
                     Box
St. James Food      Fresh Fruit/   Midwest        Chicago      IL              60612        315       $11,333.70
 Pantry              Vegetable
                     Box
St. John Church     Fresh Fruit/   South East     Birmingham   AL              35203        600       $16,800.00
 Downtown            Vegetable
                     Box
St. John Lutheran   Fresh Fruit/   Midwest        Chicago      IL              60641        126        $4,533.48
 Church              Vegetable
                     Box
St. John's Bread    Fresh Fruit/   North East     Brooklyn     NY              11221      1,232       $29,376.00
 of Life             Vegetable
                     Box
St. Johns Bread of  Fresh Fruit/   South West     Houston      TX              77002      6,144      $104,386.56
 Life M.C.           Vegetable
                     Box
St. John's Church   Fresh Fruit/   South East     Washington   NC              27889        100        $3,571.00
 Food Pantry         Vegetable
                     Box
St. John's Elca     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        250        $5,000.00
                     Vegetable
                     Box
St. Joseph Food     Fluid Milk     Midwest        Menasha      WI              54952      6,960       $17,400.00
 Pantry
St. Joseph Food     Fresh Fruit/   Midwest        Menasha      WI              54952      3,850       $75,075.00
 Pantry              Vegetable
                     Box
St. Joseph the      Fresh Fruit/   Midwest        Wyoming      MI              49509        189        $6,800.22
 Worker Parish       Vegetable
                     Box
St. Joseph the      Fresh Fruit/   Midwest        Wyoming      MI              49548         63        $2,266.74
 Worker Parish       Vegetable
                     Box
St. Joseph's        Fresh Fruit/   Mid-Atlantic   Camden       NJ              08105        522       $25,056.00
 Carpenter Society   Vegetable
                     Box
St. Kevin Food      Fresh Fruit/   Midwest        Chicago      IL              60617        189        $6,800.22
 Pantry              Vegetable
                     Box
St. Luke            Combination    South East     Macon        GA              31211        560       $42,588.00
 Missionary          Box
 Baptist Church
St. Luke the        Fresh Fruit/   South West     Houston      TX              77089      2,304       $39,144.96
 Evangelist          Vegetable
                     Box
St. Lukes           Fresh Fruit/   North East     Jamestown    NY              14701         50        $1,142.50
 Episcopal Church    Vegetable
                     Box
St. Malchy          Fresh Fruit/   Midwest        Chicago      IL              60612      1,386       $49,868.28
                     Vegetable
                     Box
St. Malchy          Precooked      Midwest        Chicago      IL              60612        360       $29,203.20
                     Meat Box
St. Mark            Fresh Fruit/   Midwest        Chicago      IL              60632         32        $1,151.36
                     Vegetable
                     Box
St. Mark            Precooked      Midwest        Chicago      IL              60622        144       $11,681.28
                     Meat Box
St. Marks CME       Fresh Fruit/   Midwest        Battle       MI              49014        189        $6,800.22
 Church              Vegetable                     Creek
                     Box
St. Mary Magdalene  Fresh Fruit/   South West     Humble       TX              77338      1,088       $18,485.12
 Catholic            Vegetable
                     Box
St. Mary Magdelene  Fresh Fruit/   Midwest        Kentwood     MI              49508        504       $18,133.92
 Church              Vegetable
                     Box
St. Mary's          Dairy          Western        Palmdale     CA              93550      2,400       $70,128.00
 Catholic Church     Products Box
St. Mary's          Fluid Milk     Western        Palmdale     CA              93550      5,184       $51,788.16
 Catholic Church
St. Mary's          Fresh Fruit/   Mid-Atlantic   Landover     MD              20784        800       $16,000.00
 Catholic Church     Vegetable                     Hills
                     Box
St. Mary's          Fresh Fruit/   South East     Jasper       AL              35504        900       $25,200.00
 Episcopal           Vegetable
                     Box
St. Mary's Food     Fluid Milk     South West     Surprise     AZ              85009        144          $676.80
 Bank Knight
 Center
St. Mathias Church  Fresh Fruit/   Mid-Atlantic   Lanham       MD              20706        600       $12,000.00
                     Vegetable
                     Box
St. Paul            Fresh Fruit/   Midwest        Chicago      IL              60608        693       $24,934.14
                     Vegetable
                     Box
St. Paul            Fresh Fruit/   South East     Amory        MS              38821        704       $14,044.80
                     Vegetable
                     Box
St. Paul Lutheran   Fresh Fruit/   Midwest        Oak Lawn     IL              60453        504       $18,133.92
 Church              Vegetable
                     Box
St. Paul's Church   Fresh Fruit/   South West     San Antonio  TX              78202      1,536       $26,096.64
                     Vegetable
                     Box
St. Peter Rock      Dairy          South East     Lexington    MS              39194        400       $11,232.00
                     Products Box
St. Peter the       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19123        350        $7,000.00
 Apostle             Vegetable                     a
                     Box
St. Pius V          Fluid Milk     South West     Pasadena     TX              77506        700        $2,247.00
 Catholic Church
St. Pius V          Fresh Fruit/   South West     Pasadena     TX              77506      1,072       $18,213.28
 Catholic Church     Vegetable
                     Box
St. Sabina          Precooked      Midwest        Chicago      IL              60620        144       $11,681.28
                     Meat Box
St. Sebastian       Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15237        120        $3,600.00
 Parish              Vegetable
                     Box
St. Stephen Living  Fresh Fruit/   Mid-Atlantic   Essex        MD              21221        250        $5,237.50
 Faith               Vegetable
                     Box
St. Stephen Mmc of  Fresh Fruit/   Midwest        Detroit      MI              48210        756       $27,200.88
 St. Vincent         Vegetable
                     Box
St. Sylvester       Fresh Fruit/   Midwest        Chicago      IL              60647        126        $4,533.48
                     Vegetable
                     Box
St. Teresa          Fresh Fruit/   Midwest        Chicago      IL              60614        504       $18,133.92
                     Vegetable
                     Box
St. Thomas Aquinas  Fresh Fruit/   South East     Hattiesburg  MS              39401         80        $1,352.00
 Cathol              Vegetable
                     Box
St. Thomas Aquinas  Precooked      South East     Hattiesburg  MS              39401        672       $27,592.32
 Cathol              Meat Box
St. Thomas Moore    Fresh Fruit/   Mountain       Manhattan    KS              66502         30        $1,200.00
 Catholic Church     Vegetable      Plains
                     Box
St. Thomas of       Fresh Fruit/   Midwest        Chicago      IL              60640        126        $4,533.48
 Canterbury          Vegetable
                     Box
St. Vincent De      Combination    Western        Planada      CA              95365        212       $11,117.28
 Paul                Box
St. Vincent De      Dairy          South West     Phoenix      AZ              85003         48        $1,272.00
 Paul                Products Box
St. Vincent De      Fluid Milk     South West     Phoenix      AZ              85003        288        $1,353.60
 Paul
St. Vincent De      Fresh Fruit/   South East     Cullman      AL              35055        140        $3,500.00
 Paul                Vegetable
                     Box
St. Vincent De      Fresh Fruit/   South West     Phoenix      AZ              85003         80        $1,748.00
 Paul                Vegetable
                     Box
St. Vincent De      Fresh Fruit/   Western        Planada      CA              95365        140        $5,156.20
 Paul                Vegetable
                     Box
St. Vincent De      Fresh Fruit/   South East     Memphis      TN              38115      1,512       $37,044.00
 Paul--C/O Mid       Vegetable
 South Food Bank     Box
St. Vincent De      Precooked      South West     Phoenix      AZ              85007      4,999      $515,646.85
 Paul Society        Meat Box
St. Winifred Food   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15228        120        $3,600.00
 Pantry              Vegetable
                     Box
St. Anthony's/Stl   Fresh Fruit/   Mountain       St. Louis    MO              63118        180        $5,760.00
 Food Bank           Vegetable      Plains
                     Box
St. George          Fluid Milk     Midwest        Georgetown   OH              45121      6,480       $25,920.00
 Catholic Church
St. Louis Area      Fresh Fruit/   Midwest        Madison      IL              62060        396       $12,672.00
 Foodbank            Vegetable
                     Box
St. Louis Area      Fresh Fruit/   Midwest        East Saint   IL              62201        396       $12,672.00
 Foodbank            Vegetable                     Louis
                     Box
Staff ES            Fresh Fruit/   South West     Grapevine    TX              76051         40          $764.00
                     Vegetable
                     Box
Staley High School  Fresh Fruit/   Mountain       Kansas City  MO              64156      1,160       $30,044.00
                     Vegetable      Plains
                     Box
Stampede/Escapade   Fresh Fruit/   South West     Houston      TX              77039     12,288      $208,773.12
                     Vegetable
                     Box
Stanford House      Fresh Fruit/   Midwest        Lincoln      MI              48146        750       $21,562.50
                     Vegetable                     Park
                     Box
Stanislaus off.     Fresh Fruit/   Western        Modesto      CA              95354      2,521       $70,741.73
 Ed.                 Vegetable
                     Box
Star Baptist        Dairy          South East     Star         MS              39167        560       $15,724.80
 Church              Products Box
Star Baptist        Fluid Milk     South East     Star         MS              39167      1,099        $4,201.21
 Church
Star Baptist        Fresh Fruit/   South East     Star         MS              39167        624       $10,545.60
 Church              Vegetable
                     Box
Star Baptist        Precooked      South East     Star         MS              39167        252       $10,347.12
 Church              Meat Box
Star of Hope        Fresh Fruit/   South West     Houston      TX              77003        296        $5,029.04
                     Vegetable
                     Box
Star Vista          Fresh Fruit/   Western        San Carlos   CA              94070        101        $3,215.84
                     Vegetable
                     Box
Stark Cty Hunger    Fluid Milk     Midwest        Canton       OH              44212        500        $1,660.00
 TF
State Serve         Combination    South East     Leesburg     FL              34748      1,344      $102,211.20
 Medical             Box
Staton Mill Rd.     Fresh Fruit/   South East     Greenville   NC              27834        144        $5,142.24
                     Vegetable
                     Box
Stay Focused Inc.   Fluid Milk     South East     Birmingham   AL              35211        960        $3,671.20
Stdy. Hnd. Charles  Fluid Milk     South West     Dallas       TX              75215      2,998        $8,754.16
 RC
Stdy. Hnd. Dan      Fluid Milk     South West     Dallas       TX              75214      1,080        $3,153.60
 Rogers
Stdy Hnd. George    Fluid Milk     South West     Dallas       TX              75228      3,148        $9,192.16
 Trt
Stdy. Hnd. Herbert  Fluid Milk     South West     Dallas       TX              75229      3,552       $10,371.84
 MA
Stdy. Hnd. James    Fluid Milk     South West     Dallas       TX              75203      2,858        $8,345.36
 Bowi
Stdy. Hnd. Lee      Fluid Milk     South West     Dallas       TX              75231        812        $2,371.04
 Mcshan
Stdy. Hnd. Leslie   Fluid Milk     South West     Dallas       TX              75211      1,796        $5,244.32
 Ste.
Stdy. Hnd. Martin   Fluid Milk     South West     Dallas       TX              75215        504        $1,471.68
 Ltr.
Stdy. Hnd. NW       Fluid Milk     South West     Dallas       TX              75203      2,716        $7,930.72
 Early
Stdy. Hnd. Paul     Fluid Milk     South West     Dallas       TX              75210      4,000       $11,680.00
 Dunba
Stdy. Hnd. Potter   Fluid Milk     South West     Dallas       TX              75236      8,568       $25,018.56
 HSe.
Stdy. Hnd. Ronald   Fluid Milk     South West     Dallas       TX              75237      3,848       $11,236.16
 Mcn.
Stdy. Hnd. Solar    Fluid Milk     South West     Dallas       TX              75206      2,000        $5,840.00
 Prep.
Steady Hand Elado   Fluid Milk     South West     Dallas       TX              75212      4,936       $14,413.12
 M.
Steady Hand JW Ray  Fluid Milk     South West     Dallas       TX              75204        808        $2,359.36
Steady Hand St.     Fluid Milk     South West     Dallas       TX              75215      1,296        $3,784.32
 Phil
Steelville Food     Dairy          Midwest        Steeleville  IL              62288         15          $446.25
 Pantry              Products Box
Steelville Food     Fresh Fruit/   Midwest        Steeleville  IL              62288         15          $412.50
 Pantry              Vegetable
                     Box
Steeple Town--      Dairy          Midwest        Grand        MI              49504         30          $870.00
 Kitchen Sage        Products Box                  Rapids
Steeple Town--      Fresh Fruit/   Midwest        Grand        MI              49504        120        $2,570.00
 Kitchen Sage        Vegetable                     Rapids
                     Box
Step By Step        Combination    Western        Puyallup     WA              98372        480       $16,800.00
                     Box
Step By Step        Dairy          Western        Puyallup     WA              98372        150        $4,500.00
                     Products Box
Step By Step        Fresh Fruit/   Western        Puyallup     WA              98372        360        $9,720.00
                     Vegetable
                     Box
Stevenson High      Fresh Fruit/   Midwest        Livonia      MI              48152      1,800       $38,025.00
                     Vegetable
                     Box
Stew Pot            Fluid Milk     South East     Jackson      MS              39203        900        $3,591.00
Stewpot             Dairy          South East     Jackson      MS              39203        960       $26,956.80
                     Products Box
Stewpot             Fluid Milk     South East     Jackson      MS              39203        576        $4,227.84
Stewpot             Fresh Fruit/   South East     Jackson      MS              39203      1,296       $21,902.40
                     Vegetable
                     Box
Stewpot             Precooked      South East     Jackson      MS              39203        504       $20,694.24
                     Meat Box
Stewpot Community   Fresh Fruit/   South East     Jackson      MS              39203        500        $9,975.00
 Services            Vegetable
                     Box
Stillmeadow Food    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21229        250        $5,000.00
 Pantry              Vegetable
                     Box
Stine Church        Fresh Fruit/   Midwest        Roseville    MI              48066        100        $2,875.00
                     Vegetable
                     Box
Stockton R-1        Fresh Fruit/   Mountain       Stockton     MO              65785      3,520       $91,168.00
                     Vegetable      Plains
                     Box
Stone Creek Chuch   Fresh Fruit/   Midwest        Urbana       IL              61801         30          $825.00
                     Vegetable
                     Box
Stone Creek Church  Fresh Fruit/   Midwest        Urbana       IL              61801        270        $7,425.00
                     Vegetable
                     Box
Stone Creek Church  Fresh Fruit/   Midwest        Urbana       IL              61802        100        $2,750.00
                     Vegetable
                     Box
Stone Creek Church  Fresh Fruit/   Midwest        Urbana       IL              61802         60        $1,650.00
                     Vegetable
                     Box
Stone Soup Food     Fresh Fruit/   Midwest        Lapeer       MI              48446      3,400       $97,750.00
 Bank                Vegetable
                     Box
Stone Springfield   Fresh Fruit/   South East     Stapleton    GA              30823      1,920       $36,364.80
 Ame                 Vegetable
                     Box
Stonebridge Church  Fluid Milk     South West     The          TX              77382        280          $817.60
                                                   Woodlands
Stoneham COA        Combination    North East     Stoneham     MA              02180         50        $1,640.00
                     Box
Stoneham COA        Precooked      North East     Stoneham     MA              02180         50        $2,715.00
                     Meat Box
Storehouse          Fresh Fruit/   South East     Atlanta      GA              30339      1,400       $26,516.00
 Ministries          Vegetable
                     Box
Stottlemyer Early   Fresh Fruit/   Midwest        Westland     MI              48185        100        $1,495.00
 Child Center        Vegetable
                     Box
Stoughton COA       Combination    North East     Stoughton    MA              02072         37        $1,213.60
                     Box
Stoughton COA       Precooked      North East     Stoughton    MA              02072         38        $2,063.40
                     Meat Box
Stoughton Odonnell  Fresh Fruit/   North East     Stoughton    MA              02072        217        $4,763.15
 Middle Sch.         Vegetable
                     Box
Straight Gate       Fresh Fruit/   Midwest        Detroit      MI              48204      1,300       $19,435.00
 Church              Vegetable
                     Box
Streams of Hope     Fresh Fruit/   Midwest        Grand        MI              49548        600       $18,000.00
                     Vegetable                     Rapids
                     Box
Street Ministries   Fresh Fruit/   South East     Memphis      TN              38122        594       $14,553.00
                     Vegetable
                     Box
Streets of Joy      Fresh Fruit/   South West     Mesa         AZ              85204         80        $2,200.00
                     Vegetable
                     Box
Strongsville City   Fresh Fruit/   Midwest        Strongsvill  OH              44136      1,632       $25,776.00
 Schools MS          Vegetable                     e
                     Box
Sturgis Public      Fresh Fruit/   Midwest        Sturgis      MI              49091        378       $13,600.44
 Schools             Vegetable
                     Box
Suburban North      Fresh Fruit/   Mid-Atlantic   Catasauqua   PA              18032        420        $8,400.00
 YMCA                Vegetable
                     Box
Success Baptist     Dairy          South East     Saucier      MS              39574         80        $2,246.40
 Church              Products Box
Success Baptist     Fresh Fruit/   South East     Saucier      MS              39574        448        $7,571.20
 Church              Vegetable
                     Box
Success Baptist     Precooked      South East     Saucier      MS              39574        996       $40,895.76
 Church              Meat Box
Success Link        Fresh Fruit/   Mountain       Kansas City  MO              64108        600       $15,540.00
 Outreach            Vegetable      Plains
                     Box
Sudanos Produce     Fluid Milk     Mid-Atlantic   Hanover      MD              21076        411        $7,574.73
Sugarhill United    Fluid Milk     South East     Sugar Hill   GA              30518        232          $879.28
Sumiton Church of   Fluid Milk     South East     Sumiton      AL              35148        880        $3,511.20
 God
Sumiton Church of   Fresh Fruit/   South East     Sumiton      AL              35209        900       $25,200.00
 God                 Vegetable
                     Box
Sumpter James Park  Combination    South East     Madison      FL              32340      2,800      $212,940.00
                     Box
Sumter County       Fluid Milk     South East     Americus     GA              31709      3,960       $15,800.40
 Middle
Sun Light Outreach  Fresh Fruit/   South East     Jemison      AL              35085      3,000       $77,850.00
                     Vegetable
                     Box
Sun Prairie         Fluid Milk     Midwest        Sun Prairie  WI              53590      2,151        $3,871.80
 Emergency Food
 Pantry
Sunbeam Family      Combination    South West     Oklahoma     OK              73106      1,440       $50,356.80
 Services            Box                           City
Sunbeam Family      Fluid Milk     South West     Oklahoma     OK              73106        990       $23,700.60
 Services                                          City
Sunbeam Family      Fresh Fruit/   South West     Oklahoma     OK              73106      1,078       $22,853.60
 Services            Vegetable                     City
                     Box
Sunday Suppers      Combination    Mid-Atlantic   Lansdowne    PA              19050        360       $14,400.00
                     Box
Sunday Suppers      Dairy          Mid-Atlantic   Philadelphi  PA              19134         24          $384.00
                     Products Box                  a
Sunday Suppers      Fresh Fruit/   Mid-Atlantic   Lansdowne    PA              19050      1,880       $54,400.00
                     Vegetable
                     Box
Sunday Suppers      Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19134        280        $5,600.00
                     Vegetable                     a
                     Box
Sunnyside/Queens    Fresh Fruit/   North East     Brooklyn     NY              11237      5,086      $122,588.00
 Together            Vegetable
                     Box
Sunrise COG         Fresh Fruit/   South East     Sunrise      FL              33351      2,000       $33,500.00
                     Vegetable
                     Box
Sunset Baptist      Precooked      South West     Grand        TX              75236      1,114      $114,909.10
 Church              Meat Box                      Prairie
Sunset Cap          Fluid Milk     South East     Cosby        TN              37722        400        $1,516.00
 Communit.
Sunset Crossing     Combination    Mid-Atlantic   Washington   Dc              20250        200        $6,994.00
 Apts.               Box
Sunshine Div. Home  Combination    Western        Portland     OR              97230     10,500      $367,500.00
 Delivery            Box
Sunshine Div. Home  Dairy          Western        Portland     OR              97230     10,250      $307,500.00
 Delivery            Products Box
Sunshine Div. Home  Fresh Fruit/   Western        Portland     OR              97230      2,880       $77,760.00
 Delivery            Vegetable
                     Box
Sunshine Div. Main  Combination    Western        Portland     OR              97227      1,860       $65,100.00
 Wh.                 Box
Sunshine Div. Main  Dairy          Western        Portland     OR              97227      1,550       $46,500.00
 Wh.                 Products Box
Sunshine Div. Main  Fresh Fruit/   Western        Portland     OR              97227        780       $21,060.00
 Wh.                 Vegetable
                     Box
Sunshine Div. SE    Combination    Western        Portland     OR              97233      1,920       $67,200.00
 Stark St. USDA      Box
Sunshine Div. SE    Dairy          Western        Portland     OR              97233      1,850       $55,500.00
 Stark St. USDA      Products Box
Sunshine Div. SE    Fresh Fruit/   Western        Portland     OR              97233        660       $17,820.00
 Stark St. USDA      Vegetable
                     Box
Sunshine Pantry     Combination    Western        Beaverton    OR              97005        540       $18,900.00
                     Box
Sunshine Pantry     Dairy          Western        Beaverton    OR              97005        600       $18,000.00
                     Products Box
Sunshine Pantry     Fresh Fruit/   Western        Beaverton    OR              97005        780       $21,060.00
                     Vegetable
                     Box
Super Dollar        Fresh Fruit/   Midwest        Detroit      MI              48219        890       $25,587.50
 Center              Vegetable
                     Box
Support Our Troops  Fluid Milk     South East     Tampa        FL              33610      8,448       $32,017.92
Supported           Combination    South West     Ponca City   OK              74601        672       $23,499.84
 Community           Box
 Lifestyle
Supported           Fresh Fruit/   South West     Ponca City   OK              74601        588       $13,700.40
 Community           Vegetable
 Lifestyle           Box
Surline Elementary  Fresh Fruit/   Midwest        West Branch  MI              48661        378       $13,600.44
 School              Vegetable
                     Box
Sutton Elementrary  Fresh Fruit/   North East     Sutton       MA              01590        224        $4,916.80
 School              Vegetable
                     Box
Sutton High         Fresh Fruit/   North East     Sutton       MA              01590        336        $7,375.20
                     Vegetable
                     Box
SVDP/Boise          Combination    Western        Boise        ID              83714      1,777       $78,188.00
                     Box
SVDP/Boise          Fresh Fruit/   Western        Boise        ID              83714      1,223       $31,798.00
                     Vegetable
                     Box
SVDP/Caldwell       Combination    Western        Caldwell     ID              83606        750       $33,000.00
                     Box
SVDP/Caldwell       Fresh Fruit/   Western        Caldwell     ID              83606        750       $19,500.00
                     Vegetable
                     Box
SVDP/Idaho Falls    Combination    Western        Idaho Falls  ID              83406      1,000       $44,000.00
                     Box
SVDP/Idaho Falls    Fresh Fruit/   Western        Idaho Falls  ID              83406      1,000       $26,000.00
                     Vegetable
                     Box
SVDP/Mountain Home  Combination    Western        Mountain     ID              83647        150        $6,600.00
                     Box                           Home
SVDP/Mountain Home  Fresh Fruit/   Western        Mountain     ID              83647        150        $3,900.00
                     Vegetable                     Home
                     Box
SVDP/Nampa          Combination    Western        Nampa        ID              83687      1,500       $66,000.00
                     Box
SVDP/Nampa          Fresh Fruit/   Western        Nampa        ID              83687      1,500       $39,000.00
                     Vegetable
                     Box
SVDP/Pocatello      Combination    Western        Pocatello    ID              83401        800       $35,200.00
                     Box
SVDP/Pocatello      Fresh Fruit/   Western        Pocatello    ID              83401        800       $20,800.00
                     Vegetable
                     Box
SVDP/Rexburg        Fresh Fruit/   Western        Rexburg      ID              83440        500       $13,000.00
                     Vegetable
                     Box
SVDP/Twin Falls     Combination    Western        Twin Falls   ID              83301        750       $33,000.00
                     Box
SVDP/Twin Falls     Fresh Fruit/   Western        Twin Falls   ID              83301        750       $19,500.00
                     Vegetable
                     Box
SVDP Cle. St.       Fluid Milk     Midwest        Cleveland    OH              44113      1,080        $3,585.60
 Patrick
SVDP Food for       Fluid Milk     Mid-Atlantic   Altoona      PA              16601        960       $14,217.60
 Families Soup
 Kitchen
SVDP Immac. Conc.   Dairy          Mountain       Farmington   MO              63640         --              $--
 FPntry.             Products Box   Plains
SVDP Immac. Conc.   Fluid Milk     Mountain       Farmington   MO              63640      1,071        $2,409.75
 FPntry.                            Plains
SVDP Immaculate     Fresh Fruit/   Midwest        Chicago      IL              60632        252        $9,066.96
 Conception          Vegetable
                     Box
SVDP St. Patricks   Fluid Milk     Western        Canby        OR              97013        525        $2,782.50
SVDP--St. Bernard   Fluid Milk     Mid-Atlantic   Hastings     PA              16646        500        $5,200.00
 Food Pantry
Swampscott COA      Precooked      North East     Swampscott   MA              01907         75        $4,072.50
                     Meat Box
Swansea COA         Combination    North East     Swansea      MA              02777         75        $2,460.00
                     Box
Swansea COA         Precooked      North East     Swansea      MA              02777         75        $4,072.50
                     Meat Box
Swartz Creek        Fresh Fruit/   Midwest        Swartz       MI              48473      1,575       $56,668.50
 Community Schools   Vegetable                     Creek
                     Box
Sweet Home          Fresh Fruit/   North East     Amherst      NY              14228        560       $12,796.00
 Commissary          Vegetable
                     Box
Sweet Home          Combination    South East     Cutler Bay   FL              33157      1,344      $102,211.20
 Missionary          Box
 Baptist Church
Sweetwater Mission  Fluid Milk     South East     Austell      GA              30106     12,712       $49,470.48
Sweetwater Mission  Fresh Fruit/   South East     Austell      GA              30168      2,100       $39,774.00
                     Vegetable
                     Box
Switzerland County  Dairy          Midwest        Vevay        IN              47043        700       $17,500.00
 Schools             Products Box
Switzerland County  Fluid Milk     Midwest        Vevay        IN              47043        750        $3,000.00
 Schools
Sykes Community     Fresh Fruit/   South East     Jackson      MS              39212      2,112       $35,692.80
 Center Ja.          Vegetable
                     Box
Sykes Community     Precooked      South East     Jackson      MS              39212      1,680       $68,980.80
 Center Ja.          Meat Box
Sylvan Retreat      Fresh Fruit/   Mid-Atlantic   Mountville   PA              17554         72        $1,654.56
                     Vegetable
                     Box
Sylvan Union        Combination    Western        Modesto      CA              95355      2,912      $152,705.28
 School District     Box
Sylvan Union        Fresh Fruit/   Western        Modesto      CA              95355      1,967       $56,436.31
 School District     Vegetable
                     Box
Synergy Services    Fresh Fruit/   Mountain       Kansas City  MO              64116        760       $19,684.00
                     Vegetable      Plains
                     Box
Syracuse City       Fluid Milk     North East     Syracuse     NY              13204        673       $20,849.54
 School District
Syracuse Destiny    Dairy          North East     Clayton      NY              14624        300       $12,960.00
                     Products Box
Syracuse Destiny    Dairy          North East     Oneida       NY              13421        780       $33,696.00
                     Products Box
Syracuse Destiny    Dairy          North East     Syracuse     NY              13204        600       $25,920.00
                     Products Box
Syracuse Destiny    Dairy          North East     Watertown    NY              13601        675       $29,160.00
                     Products Box
Syracuse Destiny    Fresh Fruit/   North East     Clayton      NY              14624        336        $7,392.00
                     Vegetable
                     Box
Syracuse Destiny    Fresh Fruit/   North East     Oneida       NY              13421        714       $15,708.00
                     Vegetable
                     Box
Syracuse Destiny    Fresh Fruit/   North East     Syracuse     NY              13204        714       $15,708.00
                     Vegetable
                     Box
Syracuse Destiny    Fresh Fruit/   North East     Watertown    NY              13601        900       $19,800.00
                     Vegetable
                     Box
Syracuse Destiny    Precooked      North East     Clayton      NY              14624        336       $18,009.60
                     Meat Box
Syracuse Destiny    Precooked      North East     Oneida       NY              13421        756       $40,521.60
                     Meat Box
Syracuse Destiny    Precooked      North East     Syracuse     NY              13204        882       $47,275.20
                     Meat Box
Syracuse Destiny    Precooked      North East     Watertown    NY              13601        270       $14,472.00
                     Meat Box
Syracuse High       Fluid Milk     North East     Syracuse     NY              13204      1,350       $41,823.00
 School
Tabernacle Baptist  Fluid Milk     South East     Dothan       AL              36301        600        $2,394.00
Tabernacle Baptist  Fresh Fruit/   Midwest        Saginaw      MI              48601        350        $5,232.50
                     Vegetable
                     Box
Tabernacle Baptist  Fresh Fruit/   South East     Carrollton   GA              30117      1,920       $36,364.80
 Church              Vegetable
                     Box
Tabernacle Baptist  Fresh Fruit/   Midwest        Dayton       OH              45402        256        $4,992.00
 Church              Vegetable
                     Box
Tabernacle Faith    Combination    South East     Apalachicol  FL              32320      1,120       $85,176.00
 Ministries          Box                           a
Tabernacle          Fresh Fruit/   Midwest        Detroit      MI              48208      1,000       $19,970.00
 Missionary          Vegetable
 Baptist Church      Box
Tabernacle NSIP     Fresh Fruit/   Midwest        Detroit      MI              48210         50          $747.50
 Program             Vegetable
                     Box
Tabernacle O        Fluid Milk     South East     Winter       FL              33881        920        $3,582.80
 Praise                                            Haven
Tabernacle of Holy  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19152        140        $4,536.00
 Spirit                                            a
Tabernacle of       Fluid Milk     South East     Surfside     SC              29575      2,200        $8,554.00
 Meeti                                             Beach
Tabernacle of       Fresh Fruit/   South East     Memphis      TN              38104        540       $13,230.00
 Praise--C/O Mid     Vegetable
 South Food Bank     Box
TAGS 9Th Street     Fresh Fruit/   Mountain       Kansas City  KS              66101        440       $11,396.00
                     Vegetable      Plains
                     Box
TAGS--BPU           Fresh Fruit/   Mountain       Kansas City  KS              66106         80        $2,072.00
                     Vegetable      Plains
                     Box
TAGS--Global FC     Fresh Fruit/   Mountain       Kansas City  MO              64124        160        $4,144.00
                     Vegetable      Plains
                     Box
TAGS--Graceway      Fresh Fruit/   Mountain       Raytown      MO              64133        440       $11,396.00
                     Vegetable      Plains
                     Box
TAGS--Providence    Fresh Fruit/   Mountain       Kansas City  MO              64130        160        $4,144.00
 School              Vegetable      Plains
                     Box
TAGS--REAP          Fresh Fruit/   Mountain       Raytown      MO              64138        720       $18,648.00
                     Vegetable      Plains
                     Box
Talbot Family       Fresh Fruit/   Mid-Atlantic   Easton       MD              21601      5,952      $178,560.00
 Network             Vegetable
                     Box
Talladega           Fresh Fruit/   South East     Talladega    AL              35161      3,600       $93,420.00
 Community           Vegetable
 Transformation      Box
Tallahasee Rec.     Fluid Milk     South East     Tallassee    AL              36078      1,979        $7,896.21
 Ctr.
Taller Folklorico   Combination    Mid-Atlantic   Orocovis     PR              00720      2,316      $205,470.00
 Central             Box
Taller Salud        Fresh Fruit/   Mid-Atlantic   Loiza        PR              00772        100        $3,900.00
                     Vegetable
                     Box
Talleres En El      Combination    Mid-Atlantic   Toa Baja     PR              00949        672       $58,296.00
 Poblado             Box
Talofofo Mayor's    Fresh Fruit/   Western        Talofofo     Guam            96915        600       $36,000.00
 office              Vegetable
                     Box
Tamina Comm.        Fluid Milk     South West     Conroe       TX              77385        104          $303.68
 Center
Tamuning Mayor's    Fresh Fruit/   Western        Hagatna      Guam            96932      1,800      $108,000.00
 office--SCC         Vegetable
                     Box
TAP/Legions Field   Fresh Fruit/   South East     Birmingham   AL              35233      9,881      $256,411.95
                     Vegetable
                     Box
Tar River Baptist   Fresh Fruit/   South East     Louisburg    NC              27549      1,600       $18,400.00
                     Vegetable
                     Box
Tarboro Comm.       Fluid Milk     South East     Tarboro      NC              27886      3,240       $12,711.60
 Outreach
Tarboro Comm.       Fresh Fruit/   South East     Tarboro      NC              27866      4,106       $56,439.40
 Outreach            Vegetable
                     Box
TARCOG              Combination    South East     Tanner       AL              35611        840       $63,882.00
                     Box
TARCOG              Combination    South East     Scottsboro   AL              35769        840       $63,882.00
                     Box
TARCOG              Combination    South East     Huntsville   AL              35801        280       $21,294.00
                     Box
TARCOG              Combination    South East     Fyffe        AL              35971      1,120       $85,176.00
                     Box
TARCOG              Combination    South East     Guntersvill  AL              35976      1,120       $85,176.00
                     Box                           e
Tarrant Area Food   Dairy          South West     Ft Worth     TX              76107      2,000       $91,520.00
 Bank                Products Box
Tarrant Area Food   Fluid Milk     South West     Fort Worth   TX              76107     49,080      $143,313.60
 Bank
Tarrant Area Food   Fresh Fruit/   South West     Fort Worth   TX              76107     20,712      $363,356.88
 Bank                Vegetable
                     Box
Tarrant Area Food   Precooked      South West     Fort Worth   TX              76107     14,013    $1,009,048.95
 Bank                Meat Box
Tarrant Area Food   Precooked      South West     Fortworth    TX              76107      7,680      $792,192.00
 Bank                Meat Box
Tarrant City Schs.  Fluid Milk     South East     Tarrant      AL              35217        880        $3,335.20
Tarrant County      Fresh Fruit/   South West     Fort Worth   TX              76104        448        $7,611.52
 Samaritan Housi     Vegetable
                     Box
Tarrant             Fresh Fruit/   South East     Tarrant      AL              35217      1,140       $31,920.00
 Intermediate        Vegetable
 School              Box
Tasby Brighter      Fresh Fruit/   South West     Dallas       TX              75231      3,462       $64,187.88
 Bites               Vegetable
                     Box
Tasmina             Dairy          Mid-Atlantic   Edison       NJ              08817      1,522       $28,552.72
                     Products Box
Tasmina             Dairy          Mid-Atlantic   Edison       NJ              08818        478        $8,962.50
                     Products Box
Tasmina             Fresh Fruit/   Mid-Atlantic   Edison       NJ              08817      2,400       $79,704.00
                     Vegetable
                     Box
Tawas Area School   Fresh Fruit/   Midwest        Tawas City   MI              48763        224        $8,059.52
 District            Vegetable
                     Box
Tawas High School   Fresh Fruit/   Midwest        Tawas        MI              48763         80        $1,760.00
                     Vegetable
                     Box
Tawas High School   Fresh Fruit/   Midwest        Tawas City   MI              48763        160        $3,380.00
                     Vegetable
                     Box
Taylor County       Fresh Fruit/   Mid-Atlantic   Clarksburg   WV              26301        720       $21,600.00
 Family Resources    Vegetable
                     Box
TCRC Community      Fluid Milk     Mid-Atlantic   Philadelphi  PA              19140         96        $1,893.12
 Healing Center                                    a
TCV Food Bank       Combination    Western        Fremont      CA              94536        800       $21,800.00
                     Box
TCV Food Bank       Dairy          Western        Fremont      CA              94536      2,700       $86,400.00
                     Products Box
TCV Food Bank       Fresh Fruit/   Western        Fremont      CA              94536      5,414      $130,460.00
                     Vegetable
                     Box
Team 821            Combination    Mid-Atlantic   Guanica      PR              00653      1,428      $133,140.00
                     Box
Team Inc.           Fresh Fruit/   South East     Port Gibson  MS              39150        500        $9,985.00
                     Vegetable
                     Box
Teen Challenge      Fresh Fruit/   South East     Pensacola    FL              32506        400       $11,600.00
                     Vegetable
                     Box
Teen Transform      Fluid Milk     South West     Marrero      LA              70072        300          $876.00
 Pal.
Tejano Center       Fluid Milk     South West     Houston      TX              77017        820        $2,632.20
Telemundo Plaza     Fresh Fruit/   South East     Atlanta      GA              30345        560       $10,606.40
 Fiesta              Vegetable
                     Box
Temple Baptist      Dairy          South West     Jonesboro    AR              72401        540       $13,500.00
 Church              Products Box
Temple BJBE         Combination    Midwest        Deerfield    IL              60015         50        $1,173.50
                     Box
Temple Center for   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19140        210        $4,200.00
 Urban Bioethics     Vegetable                     a
                     Box
Temple Emmanuel     Fresh Fruit/   South East     Weldon       NC              27890        144        $3,659.04
                     Vegetable
                     Box
Temple of           Dairy          South East     Memphis      TN              38126      1,440       $36,000.00
 Deliverance         Products Box
Temple of Praise    Fresh Fruit/   South West     Rockport     TX              78382        500       $12,500.00
                     Vegetable
                     Box
Temple of Praise    Fresh Fruit/   Midwest        Detroit      MI              48219        504       $18,133.92
 Church              Vegetable
                     Box
Temple of           Combination    North East     Brooklyn     NY              11217      1,000       $45,000.00
 Restoration         Box
Temple of           Fresh Fruit/   North East     Brooklyn     NY              11217      4,880      $171,000.00
 Restoration         Vegetable
                     Box
Temple Roca Firma   Fresh Fruit/   Western        Riverside    CA              92501         20          $580.00
                     Vegetable
                     Box
Temple Science      Fresh Fruit/   Midwest        Detroit      MI              48226      2,394       $86,136.12
                     Vegetable
                     Box
Temple University   Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19140         70        $1,400.00
 Hospital            Vegetable                     a
                     Box
Templeton COA       Combination    North East     Baldwinvill  MA              01436         20          $760.00
                     Box                           e
Templeton COA       Precooked      North East     Baldwinvill  MA              01436         20        $1,086.00
                     Meat Box                      e
Templo Bautista     Fresh Fruit/   South West     Houston      TX              77053        256        $4,349.44
 Hispana             Vegetable
                     Box
Templo Cristiano    Fresh Fruit/   South West     Bedford      TX              76021      1,344       $22,834.56
 Agape               Vegetable
                     Box
Templo Cristiano    Fresh Fruit/   South West     Grand        TX              75050      1,344       $22,834.56
 Agape               Vegetable                     Prairie
                     Box
Templo Cristiano    Fresh Fruit/   South West     Irving       TX              75061     10,056      $170,851.44
 Agape               Vegetable
                     Box
Templo Cristo Es    Fresh Fruit/   South West     La Porte     TX              77571        224        $3,805.76
 El Rey              Vegetable
                     Box
Templo Poder Y      Fresh Fruit/   South West     Humble       TX              77338      7,216      $122,599.84
 Gozo                Vegetable
                     Box
Tennyson Garden     Fresh Fruit/   Western        Hayward      CA              94544         73        $1,496.50
 Faith Manor         Vegetable
                     Box
Tequesta Knoll      Fresh Fruit/   South East     Miami        FL              33125         60        $1,005.00
 Apartments          Vegetable
                     Box
Tequesta Knoll      Fresh Fruit/   South East     Miami        FL              33125         60        $1,005.00
 Apartments          Vegetable
                     Box
Terrell Share       Dairy          South West     Terrell      TX              75160        550       $25,168.00
 Center              Products Box
Testigos De         Combination    Mid-Atlantic   Caguas       PR              00725      7,392      $567,168.00
 Jehovas             Box
Testigos De         Combination    Mid-Atlantic   Guanica      PR              00653      1,974      $178,962.00
 Jehovas             Box
Tewksbury High      Fresh Fruit/   North East     Tewksbury    MA              01876         49        $1,075.55
 Sch.                Vegetable
                     Box
Tewksbury North     Fresh Fruit/   North East     Tewksbury    MA              01876        280        $6,146.00
 St. School          Vegetable
                     Box
Texas Conference    Fresh Fruit/   South West     Houston      TX              77025      1,280       $21,747.20
 of United Met.      Vegetable
                     Box
Texas County Food   Fresh Fruit/   Mountain       Houston      MO              65483        900       $24,750.00
 Pantry              Vegetable      Plains
                     Box
Texas Nutrition FO  Fluid Milk     South West     Penitas      TX              78576        864        $2,522.88
Thankful Hearts     Combination    South East     Pikeville    KY              41501      2,475       $78,408.00
 Food Pantry         Box
The 158 Missions    Fluid Milk     South East     Senoia       GA              30276        664        $2,516.56
The Alliance        Fresh Fruit/   South West     Houston      TX              77081        512        $8,698.88
                     Vegetable
                     Box
The Altres          Fluid Milk     Western        Honolulu     HI              96814     10,571       $44,186.78
 Foundation
The Amazing Grace   Fresh Fruit/   Mid-Atlantic   Catonsville  MD              21228        500       $10,237.50
 Church Intl.        Vegetable
                     Box
The Antelope        Fluid Milk     Western        Lancaster    CA              93535      5,184       $51,788.16
 Valley Union High
 School District
The Assembly of     Combination    South West     Bokoshe      OK              74930      1,440       $50,356.80
 God                 Box
The Assembly of     Fresh Fruit/   South West     Bokoshe      OK              74930        490       $11,417.00
 God                 Vegetable
                     Box
The Badville        Fresh Fruit/   South East     Memphis      TN              38108      1,080       $26,460.00
 Motorcycle Club--   Vegetable
 C/O Mid South       Box
 Food Bank
The Bailey          Fresh Fruit/   Mountain       St. Louis    MO              63117        480       $12,432.00
 Foundation          Vegetable      Plains
                     Box
The Bailey          Fresh Fruit/   Mountain       St. Louis    MO              63132        957       $24,786.30
 Foundation          Vegetable      Plains
                     Box
The Basement        Precooked      Midwest        Warren       OH              44485        180        $8,082.00
 Outreach            Meat Box
The Beacon Food     Fresh Fruit/   Mountain       Fort Scott   KS              66701      2,080       $53,872.00
 Pantry              Vegetable      Plains
                     Box
The Blessing        Fluid Milk     Western        Reno         Nv              89502     84,480      $843,955.20
 Center Inc.
The Bread Basket    Fresh Fruit/   South East     Sanford      NC              27330        842        $9,993.80
                     Vegetable
                     Box
The Bread Shed      Fresh Fruit/   Mountain       Poplar       MO              63902      2,710       $74,525.00
                     Vegetable      Plains         Bluff
                     Box
The Bridge Agency   Fluid Milk     South West     Baton Rouge  LA              70815        640        $1,868.80
The Bridge at       Fresh Fruit/   South East     Spartanburg  SC              29303      1,240       $37,200.00
 Green Street        Vegetable
                     Box
The Canby Center    Combination    Western        Canby        OR              97013        488       $17,080.00
                     Box
The Canby Center    Dairy          Western        Canby        OR              97013      1,350       $40,500.00
                     Products Box
The Canby Center    Fresh Fruit/   Western        Canby        OR              97013      1,200       $32,400.00
                     Vegetable
                     Box
The Caring Center   Fresh Fruit/   South East     Cullman      AL              35058        175        $4,375.00
                     Vegetable
                     Box
The Carpenters      Fresh Fruit/   South East     Spartanburg  SC              29304        230        $6,900.00
 Table               Vegetable
                     Box
The Center          Combination    Mountain       Wichita      KS              67218      5,760      $201,427.20
 Foursquare Church   Box            Plains
The Center          Dairy          Mountain       Wichita      KS              67218      1,056       $48,322.56
 Foursquare Church   Products Box   Plains
The Center          Fluid Milk     Mountain       Wichita      KS              67218      1,617       $38,710.98
 Foursquare Church                  Plains
The Center          Fresh Fruit/   Mountain       Wichita      KS              67218      4,713       $74,645.70
 Foursquare Church   Vegetable      Plains
                     Box
The Center on       Combination    Midwest        Chicago      IL              60613         30        $2,015.40
 Halsted             Box
The Center on       Fresh Fruit/   Midwest        Chicago      IL              60657         30        $1,921.80
 Halsted             Vegetable
                     Box
The Center on       Fresh Fruit/   Midwest        Chicago      IL              60613         30        $1,921.80
 Halsted Senior      Vegetable
 Center              Box
The Centers East    Dairy          Midwest        Cleveland    OH              44103        400       $10,000.00
 Health &            Products Box
The Centers--       Dairy          Midwest        Cleveland    OH              44102        200        $5,000.00
 Gordon Square Elc   Products Box
The Central Pantry  Fresh Fruit/   Mountain       Columbia     MO              65202        400       $10,360.00
                     Vegetable      Plains
                     Box
The Chapel          Fresh Fruit/   Midwest        Grayslake    IL              60030      2,100       $40,950.00
                     Vegetable
                     Box
The Chapel Mobile   Fresh Fruit/   Midwest        North        IL              60064        350        $6,825.00
 Food Pantry Foss    Vegetable                     Chicago
 Park                Box
The Chapel          Fresh Fruit/   Midwest        Mundelein    IL              60060        450        $8,775.00
 Mundelein           Vegetable
                     Box
The Charles         Fluid Milk     Mid-Atlantic   Philadelphi  PA              19131        306        $8,697.12
 Foundation                                        a
The Children Table  Fluid Milk     South East     Archer       FL              32618        864        $3,274.56
The Childrens       Combination    Mountain       Kansas City  MO              64113        150        $5,245.50
 Place               Box            Plains
The Childrens       Dairy          Mountain       Kansas City  MO              64113        300       $13,728.00
 Place               Products Box   Plains
The Childrens       Fresh Fruit/   Mountain       Kansas City  MO              64113        300        $5,085.00
 Place               Vegetable      Plains
                     Box
The Childrens       Fluid Milk     South West     San Antonio  TX              78228        240          $700.80
 Shelt.
The Church in       Combination    South West     Leesville    LA              71446      1,440       $50,356.80
 Rosepine            Box
The Church Maumee   Fresh Fruit/   Midwest        Maumee       OH              43537        216        $2,700.00
                     Vegetable
                     Box
The Church of       Fresh Fruit/   Western        Hayward      CA              94544        920       $23,400.00
 Christ South        Vegetable
 Hayward             Box
The Church of       Fresh Fruit/   Western        Oakland      CA              94605        326        $8,156.00
 Christ South        Vegetable
 Hayward             Box
The Church of       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19149         96        $1,893.12
 Grace To                                          a
 Fujianese
The City of         Fluid Milk     Western        Lancaster    CA              93535      5,184       $51,788.16
 Lancaster
The City of         Fluid Milk     Western        Palmdale     CA              93550      7,776       $77,682.24
 Palmdale Saves
 Program
The Clearinghouse   Dairy          Midwest        Aurora       IN              47001         84        $3,108.00
                     Products Box
The Clearinghouse   Fresh Fruit/   Midwest        Aurora       IN              47001      1,000       $22,338.00
                     Vegetable
                     Box
The Community       Fresh Fruit/   North East     Keene        NH              03431        448        $9,833.60
 Kithcen             Vegetable
                     Box
The Community       Fluid Milk     South West     Gallup       NM              87301      1,920        $9,408.00
 Pantry
The Community       Fresh Fruit/   South West     Gallup       NM              87301      8,862      $234,843.00
 Pantry              Vegetable
                     Box
The Cornerstone     Dairy          North East     Attica       NY              14011        315       $13,923.00
                     Products Box
The Cornerstone     Dairy          North East     Perry        NY              14530        600       $26,520.00
                     Products Box
The Cornerstone     Dairy          North East     South        NY              14569        300       $13,260.00
                     Products Box                  Warsaw
The Cornerstone     Precooked      North East     Attica       NY              14011        315       $17,199.00
                     Meat Box
The Cornerstone     Precooked      North East     Perry        NY              14530        672       $36,691.20
                     Meat Box
The Cornerstone     Precooked      North East     South        NY              14569        336       $18,345.60
                     Meat Box                      Warsaw
The Council of      Fresh Fruit/   Midwest        Port Huron   MI              48060        250        $3,737.50
 Aging               Vegetable
                     Box
The Courageous      Combination    Mountain       Springfield  MO              65803        672       $23,499.84
 Church              Box            Plains
The Courageous      Fresh Fruit/   Mountain       Springfield  MO              65803        588       $11,230.80
 Church              Vegetable      Plains
                     Box
The Courageous      Fluid Milk     Mountain       Rogersville  MO              65742        420       $10,054.80
 Church North                       Plains
The Courageous      Fluid Milk     Mountain       Springfield  MO              65803      2,515       $60,209.10
 Church North                       Plains
The Courageous      Fresh Fruit/   Mountain       Rogersville  MO              65742        637       $12,166.70
 Church North        Vegetable      Plains
                     Box
The Courageous      Fresh Fruit/   Mountain       Springfield  MO              65803      2,416       $34,097.60
 Church North        Vegetable      Plains
                     Box
The Courageous      Combination    Mountain       Rogersville  MO              65742      1,440       $50,356.80
 Church South        Box            Plains
The Courageous      Fluid Milk     Mountain       Rogersville  MO              65742        514       $12,305.16
 Church South                       Plains
The Courageous      Fresh Fruit/   Mountain       Rogersville  MO              65742        539       $10,294.90
 Church South        Vegetable      Plains
                     Box
The Crossing        Fresh Fruit/   South East     Cullman      AL              35055        146        $3,650.00
                     Vegetable
                     Box
The Crossing        Fresh Fruit/   South West     Spring       TX              77381      5,120       $86,988.80
 Church              Vegetable
                     Box
The Davis St.       Fresh Fruit/   Western        San Leandro  CA              94577        650       $13,737.50
 Community Center    Vegetable
                     Box
The Door in Lapine  Dairy          Western        Lapine       OR              97739         60        $1,800.00
                     Products Box
The Door in Lapine  Fresh Fruit/   Western        Lapine       OR              97739         90        $4,230.00
                     Vegetable
                     Box
The Dream Center    Combination    Western        Los Angeles  CA              90026      5,450      $148,512.50
                     Box
The Dream Center    Fluid Milk     Western        Los Angeles  CA              90026      1,440        $6,840.00
The Dream Center    Fresh Fruit/   South East     Raleigh      NC              27604        800        $9,200.00
                     Vegetable
                     Box
The Dream Center    Fresh Fruit/   South East     Raleigh      NC              27616        400        $4,600.00
                     Vegetable
                     Box
The Dream Center    Fresh Fruit/   Western        Los Angeles  CA              90026        100        $2,475.00
                     Vegetable
                     Box
The Dwelling Place  Fresh Fruit/   South East     Memphis      TN              38128        594       $14,553.00
 Christian Church--  Vegetable
 C/O Mid South       Box
The Embassy Church  Dairy          South West     Lancaster    TX              75146        200        $9,152.00
                     Products Box
The Family Center   Fluid Milk     South West     Lexa         AR              72355        495       $11,850.30
 Food Bank
The Family Center   Fresh Fruit/   South West     Lexa         AR              72355        539       $12,558.70
 Food Bank           Vegetable
                     Box
The Fathers House   Fluid Milk     Western        Vacaville    CA              95688      2,112       $21,098.88
 Food Pantry
The Fish of         Combination    Western        Roseburg     OR              97470         60        $2,100.00
 Roseburg            Box
The Food Bank for   Dairy          Mountain       Columbia     MO              65202      5,396      $134,900.00
 Central and         Products Box   Plains
 Northeast
 Missouri
The Food Bank for   Fluid Milk     Mountain       Columbia     MO              65202      4,860       $10,935.00
 Central and                        Plains
 Northeast
 Missouri
The Food Bank for   Precooked      Mountain       Columbia     MO              65201        295       $10,059.50
 Central and         Meat Box       Plains
 Northeast
 Missouri
The Food Bank for   Precooked      Mountain       Columbia     MO              65202      8,905      $353,137.21
 Central and         Meat Box       Plains
 Northeast
 Missouri
The Food Bank for   Precooked      Mountain       Columbia     MO              65203      3,268      $131,566.90
 Central and         Meat Box       Plains
 Northeast
 Missouri
The Food Bank for   Precooked      Mountain       Columbia     MO              65205      1,573       $53,639.30
 Central and         Meat Box       Plains
 Northeast
 Missouri
The Food Bank Inc.  Dairy          Midwest        Dayton       OH              45417     11,340      $328,860.00
                     Products Box
The Food Bank Inc.  Fresh Fruit/   Midwest        Dayton       OH              45402     18,240      $255,360.00
                     Vegetable
                     Box
The Food Bank of    Fresh Fruit/   Mid-Atlantic   Middletown   DE              19709      1,638       $38,493.00
 Delaware            Vegetable
                     Box
The Food Bank of    Fresh Fruit/   Mid-Atlantic   Dover        DE              19901      1,638       $38,493.00
 Delaware            Vegetable
                     Box
The Food Basket     Fluid Milk     Western        Hilo         HI              96720      5,712       $23,876.16
 Inc.
The Food Basket     Precooked      Western        Hilo         HI              96720      6,250      $621,812.50
 Inc.                Meat Box
The Food Pantry at  Combination    South East     Mobile       AL              36604      2,800      $212,940.00
 Central             Box
The Food Project    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21223      1,750       $35,000.00
                     Vegetable
                     Box
The Foodbank Inc.   Precooked      Midwest        Kalamazoo    MI              49007      2,592      $185,509.44
                     Meat Box
The Gap             Dairy          South West     Tucson       AZ              85705        192        $5,088.00
                     Products Box
The Gap             Fresh Fruit/   South West     Tucson       AZ              85705      2,120       $46,322.00
                     Vegetable
                     Box
The Gatehouse       Fresh Fruit/   South West     Grapevine    TX              76051         20          $382.00
                     Vegetable
                     Box
The Gathering       Fresh Fruit/   South West     Dallas       TX              75211      2,064       $35,067.36
 Church              Vegetable
                     Box
The Gathering       Combination    South East     Mcminnville  TN              37110      1,344      $102,211.20
 Place               Box
The Gathering       Dairy          Mountain       Kansas City  MO              64124         24        $1,098.24
 Table               Products Box   Plains
The Gathering       Fresh Fruit/   Mountain       Kansas City  MO              64124         50        $1,038.00
 Table               Vegetable      Plains
                     Box
The Gifted Center   Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15205      1,074       $20,491.92
                     Vegetable
                     Box
The Giving Plate    Dairy          Western        Bend         OR              97701        305        $9,150.00
                     Products Box
The Giving Plate    Dairy          Western        Bend         OR              97702        319        $9,570.00
                     Products Box
The Giving Plate    Fresh Fruit/   Western        Bend         OR              97701        775       $36,425.00
                     Vegetable
                     Box
The Giving Plate    Fresh Fruit/   Western        Bend         OR              97702      1,267       $59,549.00
                     Vegetable
                     Box
The Goodness        Fresh Fruit/   South West     Fort Worth   TX              76137     10,112      $171,802.88
 Project             Vegetable
                     Box
The Greater Dallas  Fresh Fruit/   South West     Balch        TX              75061      1,344       $22,834.56
 Coalition           Vegetable                     Springs
                     Box
The Greater Dallas  Fresh Fruit/   South West     Dallas       TX              75217      7,856      $133,473.44
 Coalition           Vegetable
                     Box
The Greater Dallas  Fresh Fruit/   South West     Dallas       TX              75228      2,304       $39,144.96
 Coalition           Vegetable
                     Box
The Greater Dallas  Fresh Fruit/   South West     Fort Worth   TX              76133        256        $4,349.44
 Coalition           Vegetable
                     Box
The Greater Dallas  Fresh Fruit/   South West     Grand        TX              75050      3,024       $51,377.76
 Coalition           Vegetable                     Prairie
                     Box
The Grove Food      Fluid Milk     South East     Jackson      GA              30233      6,580       $25,596.20
 Bank
The Guiding Light   Fresh Fruit/   South East     Birmingham   AL              35210      5,624      $145,942.80
 Church              Vegetable
                     Box
The Haven Church    Fluid Milk     South West     Sherwood     AR              72120        495       $11,850.30
The Haven Church    Fresh Fruit/   South West     Sherwood     AR              72120        539       $12,558.70
                     Vegetable
                     Box
The Healing Center  Fresh Fruit/   Midwest        Springdale   OH              45246        896       $17,472.00
                     Vegetable
                     Box
The Help Center     Fluid Milk     Mountain       Mexico       MO              65265      2,430        $5,467.50
                                    Plains
The Help Center     Fresh Fruit/   Mountain       Mexico       MO              65265      3,080       $79,772.00
                     Vegetable      Plains
                     Box
The Help Center     Fresh Fruit/   South East     Henderson    NC              27536        320        $8,131.20
 Oxford              Vegetable
                     Box
The Hunger Task     Combination    Midwest        Webster      WI              54893      1,944      $122,400.72
 Force St. Croix     Box
 Tribe
The Hunger Task     Dairy          Midwest        Webster      WI              54893      1,296       $79,525.80
 Force St. Croix     Products Box
 Tribe
The Hunger Task     Fluid Milk     Midwest        Webster      WI              54893      1,620       $50,223.24
 Force St. Croix
 Tribe
The Hunger Task     Precooked      Midwest        Webster      WI              54893      1,296       $89,475.84
 Force St. Croix     Meat Box
 Tribe
The Inspirational   Fresh Fruit/   Midwest        Cincinnati   OH              45216      1,400       $27,958.00
 Bible Church        Vegetable
                     Box
The Joseph          Fresh Fruit/   South West     Haltom City  TX              76117        112        $1,902.88
 Storehouse          Vegetable
                     Box
The Journey Church  Dairy          Mid-Atlantic   Springfield  VA              22150      2,000       $37,500.00
                     Products Box
The Journey Church  Fluid Milk     Mid-Atlantic   Springfield  VA              22150        960       $17,894.40
The Journey Church  Fresh Fruit/   Mid-Atlantic   Springfield  VA              22150      1,000       $24,750.00
                     Vegetable
                     Box
The Ladder          Dairy          Midwest        Shelby       MI              49455         65        $1,885.00
 Community Center    Products Box
The Ladder          Fresh Fruit/   Midwest        Shelby       MI              49455        262        $5,536.50
 Community Center    Vegetable
                     Box
The Latina Center   Fresh Fruit/   Western        Richmond     CA              94805         27          $756.00
                     Vegetable
                     Box
The Light Church    Fresh Fruit/   South West     Willis       TX              77318      3,072       $52,193.28
                     Vegetable
                     Box
The Literacy        Fresh Fruit/   Midwest        Detroit      MI              48243      4,048      $145,647.04
 Center              Vegetable
                     Box
The Lords Diner     Combination    Mountain       Pittsburg    KS              66762         15          $524.55
                     Box            Plains
The Lords Diner     Dairy          Mountain       Pittsburg    KS              66762         20          $915.20
                     Products Box   Plains
The Lords Diner     Fresh Fruit/   Mountain       Pittsburg    KS              66762         40          $721.00
                     Vegetable      Plains
                     Box
The Lords Kitchen   Combination    South West     Rosenberg    TX              77471        350       $12,239.50
                     Box
The Love Kitchen    Fluid Milk     South East     Knoxville    TN              37915        400        $1,556.00
The Lutheran        Fresh Fruit/   North East     Brooklyn     NY              11209      1,722       $61,992.00
 Church of the       Vegetable
 Good Shepard        Box
The Meadowbrook     Dairy          Midwest        L'anse       MI              49946        300        $8,700.00
 Arena C/O Lanse     Products Box
 MOW
The Meadowbrook     Fresh Fruit/   Midwest        L'anse       MI              49946        600       $12,675.00
 Arena C/O Lanse     Vegetable
 MOW                 Box
The Met Church      Fresh Fruit/   South West     Fort Worth   TX              76244        640       $10,873.60
                     Vegetable
                     Box
The Mission at      Combination    Western        Bakersfield  CA              93305     17,568      $682,444.80
 Kern County         Box
The Moore Wright    Combination    Western        Olympia      WA              98507        620       $21,700.00
 Group               Box
The Moore Wright    Dairy          Western        Olympia      WA              98507        600       $18,000.00
 Group               Products Box
The Moore Wright    Fresh Fruit/   South East     Linden       AL              36748      2,220       $57,609.00
 Group               Vegetable
                     Box
The Moore Wright    Fresh Fruit/   Western        Tumwater     WA              98512      2,849       $50,961.68
 Group               Vegetable
                     Box
The Moore Wright    Fresh Fruit/   Western        Olympia      WA              98507        560       $15,120.00
 Group               Vegetable
                     Box
The Movement        Fresh Fruit/   South East     Birmingham   AL              35214      1,020       $26,469.00
                     Vegetable
                     Box
The Neighborhood    Fresh Fruit/   Mid-Atlantic   Easton       PA              18042        420        $8,400.00
 Center              Vegetable
                     Box
The New Missionary  Fresh Fruit/   South East     Rockford     AL              35136      2,120       $55,014.00
 Baptist             Vegetable
                     Box
The Oakcliff        Fresh Fruit/   South West     Dallas       TX              75203        192        $3,262.08
 Veggie Project      Vegetable
                     Box
The Old Timers      Fluid Milk     South East     Manchester   KY              40962      6,750       $15,187.50
 Inc.
The Other Way       Dairy          Midwest        Grand        MI              49503        724       $20,996.00
                     Products Box                  Rapids
The Other Way       Dairy          Midwest        Grand        MI              49504        384        $9,600.00
                     Products Box                  Rapids
The Other Way       Fresh Fruit/   Midwest        Grand        MI              49504      1,400       $50,372.00
                     Vegetable                     Rapids
                     Box
The Palmdale        Fluid Milk     Western        Palmdale     CA              93550      5,184       $51,788.16
 School District
The Pantry          Fluid Milk     South East     Douglasvill  GA              30135      9,504       $37,344.96
                                                   e
The Pantry          Fresh Fruit/   South East     Douglasvill  GA              30135      1,920       $36,364.80
                     Vegetable                     e
                     Box
The Point Church    Fluid Milk     South East     Brandon      MS              39042        720        $2,728.80
The Point Church--  Fresh Fruit/   South East     Raleigh      NC              27603        210        $3,969.00
 IFFFS               Vegetable
                     Box
The Port of         Dairy          North East     East         NY              14612        405       $17,901.00
 Rochester           Products Box                  Rochester
The Port of         Dairy          North East     Rochester    NY              14612      2,996      $132,423.20
 Rochester           Products Box
The Port of         Precooked      North East     East         NY              14612        405       $22,113.00
 Rochester           Meat Box                      Rochester
The Port of         Precooked      North East     Henrietta    NY              14467        420       $22,932.00
 Rochester           Meat Box
The Port of         Precooked      North East     Rochester    NY              14612      2,729      $149,003.40
 Rochester           Meat Box
The Potters House   Combination    South West     Dallas       TX              75236      1,350       $47,209.50
                     Box
The Potters House   Dairy          South West     Dallas       TX              75236      2,000       $91,520.00
                     Products Box
The Potters House   Fresh Fruit/   South West     Dallas       TX              75236      3,148       $77,680.00
                     Vegetable
                     Box
The Promise Land    Fresh Fruit/   Midwest        Detroit      MI              48203        300        $4,485.00
                     Vegetable
                     Box
The Protestant      Fresh Fruit/   South West     Farmington   NM              87401        672       $17,808.00
 Episcopal Church    Vegetable
 United States of    Box
 A.
The Quinn House     Fluid Milk     South East     Lawrencevil  GA              30046        788        $3,055.32
                                                   le
The Rescue Mission  Fresh Fruit/   Mountain       Poplar       MO              63901        680       $18,700.00
                     Vegetable      Plains         Bluff
                     Box
The Ricky Davis     Fresh Fruit/   Mid-Atlantic   Norfolk      VA              23502      2,542       $29,233.00
 Foundation          Vegetable
                     Box
The Road Church     Fresh Fruit/   Midwest        Detroit      MI              48227        285        $8,193.75
                     Vegetable
                     Box
The Rock of         Fluid Milk     South East     Wilmington   NC              28403        240          $933.60
 Wilming
The Saints Pantry   Fresh Fruit/   Western        Shelton      WA              98584         24          $600.00
                     Vegetable
                     Box
The Saints Pantry   Fresh Fruit/   Western        Shelton      WA              98585         48        $1,200.00
                     Vegetable
                     Box
The Saints Pantry   Fresh Fruit/   Western        Shelton      WA              98586         72        $1,800.00
                     Vegetable
                     Box
The Salome          Combination    South West     Dallas       TX              75243        350       $12,239.50
 Foundation          Box
The Salome          Dairy          South West     Dallas       TX              75243        700       $32,032.00
 Foundation          Products Box
The Salome          Fresh Fruit/   South West     Dallas       TX              75243        150        $3,495.00
 Foundation Ham      Vegetable
 Park                Box
The Salvation Army  Fluid Milk     Western        Honolulu     HI              96809        864        $3,611.52
The Salvation Army  Fresh Fruit/   Western        Kaneohe      HI              96744        110        $3,960.00
                     Vegetable
                     Box
The Salvation Army  Fresh Fruit/   Western        Honolulu     HI              96809      6,225      $224,100.00
                     Vegetable
                     Box
The Salvation Army  Fresh Fruit/   Western        Honolulu     HI              96816         60        $2,160.00
                     Vegetable
                     Box
The Salvation Army  Fresh Fruit/   Western        Honolulu     HI              96817        280       $10,080.00
                     Vegetable
                     Box
The Salvation Army  Fresh Fruit/   Midwest        Grand        MI              49503         70        $2,518.60
                     Vegetable                     Rapids
                     Box
The Salvation Army  Fresh Fruit/   Midwest        Traverse     MI              49686         63        $2,266.74
                     Vegetable                     City
                     Box
The Salvation Army  Precooked      Western        Kaneohe      HI              96744         26        $1,040.00
                     Meat Box
The Salvation Army  Precooked      Western        Honolulu     HI              96809      1,122       $44,880.00
                     Meat Box
The Salvation Army  Precooked      Midwest        Canton       OH              44701        780       $34,986.20
                     Meat Box
The Salvation Army  Fresh Fruit/   Western        Barrigada    Guam            96913         60        $3,600.00
 Guam                Vegetable
                     Box
The Salvation Army  Fresh Fruit/   Midwest        Grand        MI              49503         70        $2,518.60
 Kent County Soc     Vegetable                     Rapids
 Ser                 Box
The Salvation Army  Fluid Milk     Western        Ewa Beach    HI              96706        576        $2,407.68
 Oahu
The Salvation Army  Combination    Mountain       Atchison     KS              66002        720       $25,178.40
 of Atchison         Box            Plains
The Salvation Army  Dairy          Mountain       Atchison     KS              66002      1,212       $55,461.12
 of Atchison         Products Box   Plains
The Salvation Army  Fluid Milk     Mountain       Atchison     KS              66002      2,916       $33,694.38
 of Atchison                        Plains
The Salvation Army  Fresh Fruit/   Mountain       Atchison     KS              66002      5,754      $101,467.80
 of Atchison         Vegetable      Plains
                     Box
The Salvation Army  Fresh Fruit/   Midwest        Traverse     MI              49686        224        $8,059.52
 Traverse            Vegetable                     City
                     Box
The Samaritan Ctr.  Fluid Milk     South West     Mandeville   LA              70448        500        $1,518.00
The Sanctuary       Fresh Fruit/   South West     Cleveland    TX              77327      6,144      $104,386.56
 Church              Vegetable
                     Box
The Senior          Dairy          Midwest        Wayne        MI              48184        400       $11,600.00
 Alliance (1C)       Products Box
 Part of AA
The Senior          Fresh Fruit/   Midwest        Wayne        MI              48184      1,050       $18,517.50
 Alliance (1C)       Vegetable
 Part of AA          Box
The Serenity        Fluid Milk     South East     Shelbyville  KY              40065      4,900       $11,025.00
 Center
The Sharing Center  Dairy          Midwest        Trevor       WI              53179         10          $242.70
                     Products Box
The Sharing Center  Fluid Milk     Midwest        Salem        WI              53168      1,944        $3,499.20
The Sharing Center  Fresh Fruit/   Midwest        Trevor       WI              53179        100        $2,304.90
                     Vegetable
                     Box
The Shepherds       Fluid Milk     South East     Conway       SC              29526        620        $2,411.00
 Table
The Smart Box       Fluid Milk     South East     Fairfax      SC              29827        162          $630.18
The Springs         Fresh Fruit/   Midwest        Gladwin      MI              48612        800       $23,000.00
                     Vegetable
                     Box
The Stewpot         Fluid Milk     South West     Dallas       TX              75201      2,600        $7,592.00
The Stonebrook      Fluid Milk     South West     Catoosa      OK              74015        540       $12,927.60
 Project
The Stonebrook      Fresh Fruit/   South West     Catoosa      OK              74015        539       $10,294.90
 Project             Vegetable
                     Box
The Store Heaven S  Fluid Milk     South East     Nashville    TN              37204      2,340        $5,265.00
The Store House     Fresh Fruit/   Mountain       St. Robert   MO              65584      3,040       $83,600.00
                     Vegetable      Plains
                     Box
The Storehouse      Combination    Western        Covington    WA              98042        660       $23,100.00
 USDA                Box
The Storehouse      Dairy          Western        Covington    WA              98042        980       $29,400.00
 USDA                Products Box
The Storehouse      Fresh Fruit/   Western        Covington    WA              98042      1,260       $34,020.00
 USDA                Vegetable
                     Box
The Tabernacle      Combination    South East     Decatur      GA              30035      1,344      $102,211.20
 Church              Box
The Time Is Now--C/ Fresh Fruit/   South East     Memphis      TN              38108        702       $17,199.00
 O Mid South Food    Vegetable
 Bank                Box
The United          Dairy          Mountain       Overland     KS              66223        756       $34,594.56
 Methodist Church    Products Box   Plains         Park
The United          Fresh Fruit/   Mountain       Overland     KS              66223        796       $14,266.20
 Methodist Church    Vegetable      Plains         Park
                     Box
The United          Fresh Fruit/   Mountain       Leawood      KS              66223        640       $10,848.00
 Methodist Church    Vegetable      Plains
 of                  Box
The Universal       Fresh Fruit/   South East     Pompano      FL              33064      1,260       $40,950.00
 Church              Vegetable                     Beach
                     Box
The Upper Room      Fresh Fruit/   Midwest        Coshocton    OH              43812        256        $4,992.00
                     Vegetable
                     Box
The Upper Valley    Combination    North East     White River  VT              05001        394       $10,638.00
 Haven               Box                           Junction
The Village         Dairy          South East     Jackson      MS              39204        560       $15,724.80
 Apartments          Products Box
The Village         Fluid Milk     South East     Jackson      MS              39204        192        $1,409.28
 Apartments
The Village         Fresh Fruit/   South East     Jackson      MS              39204        736       $12,438.40
 Apartments          Vegetable
                     Box
The Village         Precooked      South East     Jackson      MS              39204        252       $10,347.12
 Apartments          Meat Box
The Village Chapel  Fresh Fruit/   Western        Lompoc       CA              93436      1,050       $37,800.00
                     Vegetable
                     Box
The Volunteer Way   Combination    South East     Port Richey  FL              34668      1,904      $144,799.20
                     Box
The Volunteer Way   Fluid Milk     South East     Port Richey  FL              34668      9,072       $36,197.28
The Welcome Table   Fresh Fruit/   South West     Arlington    TX              76016        854       $14,509.46
 Christian Church    Vegetable
                     Box
The Well            Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21226        900       $18,000.00
                     Vegetable
                     Box
The Well Master     Fluid Milk     South West     Manvel       TX              77578        432        $1,261.44
 Rd.
The West Texas      Fluid Milk     South West     Odessa       TX              79761      6,480       $31,752.00
 Food Bank
The Whole Person    Dairy          Mountain       Kansas City  MO              64111         60        $2,745.60
                     Products Box   Plains
The Whole Person    Fresh Fruit/   Mountain       Kansas City  MO              64111          2           $33.90
                     Vegetable      Plains
                     Box
The Word Worship    Combination    Midwest        Park Forest  IL              60466        318       $33,132.00
 Center              Box
The Word Worship    Fresh Fruit/   Midwest        Park Forest  IL              60466        272       $10,624.00
 Center              Vegetable
                     Box
The Worship Center  Fresh Fruit/   South East     Bessemer     AL              35022        840       $21,798.00
                     Vegetable
                     Box
The Worship Center  Fresh Fruit/   South East     Birmingham   AL              35210      1,440       $37,368.00
                     Vegetable
                     Box
The Worship Center  Fresh Fruit/   South East     Birmingham   AL              35210      3,760       $97,572.00
                     Vegetable
                     Box
The Zone Project    Combination    Western        Spokane      WA              99207         50        $6,000.00
                     Box
They Are One        Fresh Fruit/   Western        Marina       CA              93933        100        $1,700.00
                     Vegetable
                     Box
This Generation     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15112        720       $21,600.00
 Connection          Vegetable
                     Box
Thomas Campbell     Combination    Mid-Atlantic   Washington   PA              15301        601       $30,050.00
 Apartments          Box
Thomas Campbell     Fresh Fruit/   Mid-Atlantic   Washington   PA              15301        300        $4,800.00
 Apartments          Vegetable
                     Box
Thomas Co. Middle   Fluid Milk     South East     Thomasville  GA              31792      5,800       $21,982.00
 School
Thomas County       Fresh Fruit/   Mountain       Colby        KS              67701        880       $22,792.00
 Health Dept         Vegetable      Plains
                     Box
Thomas Jefferson    Combination    Western        Federal Way  WA              98001        560       $19,600.00
 High                Box
Thomas Jefferson    Dairy          Western        Federal Way  WA              98001        450       $13,500.00
 High                Products Box
Thomas Jefferson    Fresh Fruit/   Western        Federal Way  WA              98001        540       $14,580.00
 High                Vegetable
                     Box
Thomas Jefferson    Fluid Milk     Mountain       Jefferson    MO              65101        360          $810.00
 Sch. JC                            Plains         City
Thomas Jefferson    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19107        420        $8,400.00
 University          Vegetable                     a
 Hospital            Box
Thomas Middle       Dairy          Midwest        Arlington    IL              60004        384       $11,424.00
 School              Products Box                  Heights
Thomas Middle       Fresh Fruit/   Midwest        Arlington    IL              60004        504       $13,860.00
 School              Vegetable                     Heights
                     Box
Thomas Middle       Fresh Fruit/   Midwest        Arlington    IL              60004        872       $23,980.00
 School              Vegetable                     Heights
                     Box
Thomas Middle       Fresh Fruit/   Midwest        Arlington    IL              60004        504       $13,860.00
 School              Vegetable                     Hgts
                     Box
Thomas Road         Combination    Mid-Atlantic   Lynchburg    VA              24502      3,575      $121,550.00
 Baptist Church      Box
 (Gleaning the
 World)
Thomasville Church  Combination    South East     Thomasville  AL              36784      1,680      $127,764.00
 of God              Box
Thompson Chaple     Fresh Fruit/   South West     Baytown      TX              77520        112        $1,902.88
 CME                 Vegetable
                     Box
Thompson            Fresh Fruit/   Midwest        Southfield   MI              48076         75        $1,121.25
 International       Vegetable
 Academy             Box
Thornton Township   Precooked      Midwest        Harvey       IL              60426      1,080       $87,609.60
                     Meat Box
Thornton Township   Precooked      Midwest        Aharvey      IL              60426        432       $35,043.84
                     Meat Box
Thornton Township   Precooked      Midwest        Harvey       IL              60426      5,184      $420,526.08
                     Meat Box
Thornton Township   Dairy          Midwest        Harvey       IL              60426        360        $9,000.00
 Box                 Products Box
Thorpe Gordon       Fluid Milk     Mountain       Jefferson    MO              65101        162          $364.50
 School JC                          Plains         City
Thorton Township    Fresh Fruit/   Midwest        Harvey       IL              60426      1,386       $49,868.28
                     Vegetable
                     Box
Thousand Hills      Fresh Fruit/   South West     Corinth      TX              76210      1,456       $24,737.44
 Church (Ag)         Vegetable
                     Box
Three in One        Fresh Fruit/   South East     Goldsboro    NC              27534      2,902       $67,315.42
 Family Center       Vegetable
                     Box
Three in One        Fresh Fruit/   South East     Clinton      NC              28328      2,138       $37,611.98
 Family Center       Vegetable
                     Box
Three Island        Combination    Western        Glenns       ID              83623        115        $5,060.00
 Senior Center       Box                           Ferry
Three Island        Fresh Fruit/   Western        Glenns       ID              83623        230        $5,980.00
 Senior Center       Vegetable                     Ferry
                     Box
Three Oaks Public   Dairy          Midwest        Muskegon     MI              49442        115        $3,335.00
 School Academy      Products Box
Three Oaks Public   Fresh Fruit/   Midwest        Muskegon     MI              49442        310        $6,417.50
 School Academy      Vegetable
                     Box
Three Square Food   Fresh Fruit/   Western        Las Vegas    Nv              89115     69,891    $1,750,024.75
 Bank                Vegetable
                     Box
Thrift Store York   Fluid Milk     South East     York         SC              29745        432        $1,680.48
Thurston County     Combination    Western        Tumwater     WA              98512      1,920       $67,200.00
 Food Bank           Box
Thurston County     Dairy          Western        Tumwater     WA              98512      1,600       $48,000.00
 Food Bank           Products Box
Thurston County     Fresh Fruit/   Western        Tumwater     WA              98512      1,500       $40,500.00
 Food Bank           Vegetable
                     Box
Thy Kingdom Come    Fluid Milk     South East     Winter       FL              33880        540        $2,104.60
                                                   Haven
Tigard High School  Combination    Western        Tigard       OR              97224      2,820       $98,700.00
                     Box
Tigard High School  Dairy          Western        Tigard       OR              97224      4,250      $127,500.00
                     Products Box
Tigard High School  Fresh Fruit/   Western        Tigard       OR              97224      2,460       $66,420.00
                     Vegetable
                     Box
Tiger Pantry        Fluid Milk     Mountain       Columbia     MO              65201        450        $1,012.50
                                    Plains
Tillman Middle      Fluid Milk     South West     Phoenix      AZ              85008        200        $1,576.00
Tillman Middle      Fresh Fruit/   South West     Phoenix      AZ              85008        200        $5,500.00
                     Vegetable
                     Box
Time of Refresh     Fluid Milk     Midwest        Terre Haute  IN              47804      2,160        $4,860.00
Tindal Activity     Fresh Fruit/   Midwest        Detroit      MI              48235      1,008       $36,267.84
 Center              Vegetable
                     Box
Tioga County Soil   Fluid Milk     North East     Owego        NY              13827        675       $20,911.50
 & Water
Tippah Co. Good     Dairy          South East     Ripley       MS              38663      1,980       $49,500.00
 Samaritan Ctr.      Products Box
Titus County Cares  Fluid Milk     South West     Mt.          TX              75455        648        $1,892.16
                                                   Pleasant
Titusville Food     Dairy          Mid-Atlantic   Titusville   PA              16354        150        $3,154.50
 Bank                Products Box
TKM Farms--Living   Combination    South East     Belle Glade  FL              33430      1,120       $85,176.00
 Hungry              Box
TLC Cairo           Dairy          Midwest        Cairo        IL              62914        500       $14,875.00
                     Products Box
TLC Cairo           Fresh Fruit/   Midwest        Cairo        IL              62914        325        $8,937.50
                     Vegetable
                     Box
TLC First Student   Dairy          Midwest        Glen Carbon  IL              62034        250        $7,437.50
                     Products Box
TLC First Student   Fresh Fruit/   Midwest        Glen Carbon  IL              62034        150        $4,125.00
                     Vegetable
                     Box
TLC Ministries      Fluid Milk     Midwest        Wellston     OH              45692        720        $2,390.40
TLC Ministries--    Fresh Fruit/   Midwest        Wellston     OH              45692      1,920       $41,068.80
 Wellston            Vegetable
                     Box
TLC Ministries--    Precooked      Midwest        Wellston     OH              45692      1,120       $50,001.60
 Wellston            Meat Box
TLC of Southern &   Dairy          Midwest        Marion       IL              62959        700       $20,825.00
 Central IL          Products Box
TLC of Southern &   Fresh Fruit/   Midwest        Marion       IL              62959      1,050       $28,875.00
 Central IL          Vegetable
                     Box
TLC of Southern     Dairy          Midwest        Marion       IL              62959        350       $10,412.50
 Central             Products Box
TLC of Southern     Fresh Fruit/   Midwest        Marion       IL              62959        350        $9,625.00
 Central             Vegetable
                     Box
TLC Shawnee         Dairy          Midwest        Ulin         IL              62992        600       $17,850.00
 College             Products Box
TLC Shawnee         Fresh Fruit/   Midwest        Ulin         IL              62992        600       $16,500.00
 College             Vegetable
                     Box
TLC--Cairo          Dairy          Midwest        Cairo        IL              62914        500       $14,875.00
                     Products Box
TLW Everybody       Fresh Fruit/   South East     Atlanta      GA              30310        470        $9,400.00
 Eats!               Vegetable
                     Box
TMOC/SHFB Ve207     Fluid Milk     South East     Daytona      FL              32114        240          $909.60
                                                   Beach
TNDC                Fresh Fruit/   Western        San          CA              94102        432       $10,800.00
                     Vegetable                     Francisco
                     Box
TNDC                Fresh Fruit/   Western        San          CA              94103        433       $10,825.00
                     Vegetable                     Francisco
                     Box
TNDC                Fresh Fruit/   Western        San          CA              94109         63        $1,575.00
                     Vegetable                     Francisco
                     Box
TNDC                Fresh Fruit/   Western        San          CA              94110        138        $3,450.00
                     Vegetable                     Francisco
                     Box
TNDC                Fresh Fruit/   Western        San          CA              94158         99        $2,475.00
                     Vegetable                     Francisco
                     Box
Toasted/SRA         Fluid Milk     South East     Orlando      FL              32817        320        $1,276.80
Toco Hills          Dairy          South East     Atlanta      GA              30329        412       $13,596.00
 Community           Products Box
 Ministry Inc.
Toco Hills          Fresh Fruit/   South East     Atlanta      GA              30329      1,570       $44,100.00
 Community           Vegetable
 Ministry Inc.       Box
Todd Grant School   Fresh Fruit/   South East     Darien       GA              31305      1,920       $36,364.80
                     Vegetable
                     Box
Todos Por           Fresh Fruit/   Western        San          CA              94112        994       $25,244.00
 Nicaragua           Vegetable                     Francisco
                     Box
Together Assisting  Fresh Fruit/   Western        San Jose     CA              95122      4,920      $115,620.00
 People              Vegetable
                     Box
Together Ministry   Dairy          South East     Olive        MS              38654        180        $4,500.00
 Center              Products Box                  Branch
Together We Cope    Fresh Fruit/   Midwest        Chicago      IL              60477        252        $9,066.96
                     Vegetable
                     Box
Together We Cope    Dairy          Midwest        Markham      IL              60428        200        $5,000.00
 Box                 Products Box
Together We Cope    Fresh Fruit/   Midwest        Chicago      IL              60477         63        $2,266.74
 (Oak Park)          Vegetable
                     Box
Together We Cope/   Fresh Fruit/   Midwest        Markham      IL              60428        189        $6,800.22
 Bremen Twp.         Vegetable
                     Box
Together We Cope/   Precooked      Midwest        Markham      IL              60428        216       $17,521.92
 Bremens Township    Meat Box
Toledo Gospel       Fresh Fruit/   Midwest        Toledo       OH              43604        225        $2,812.50
 Rescue              Vegetable
                     Box
Toledo              Dairy          Midwest        Toledo       OH              43604      2,680       $64,588.00
 Northwestern Ohio   Products Box
 Food Bank
Toledo              Fluid Milk     Midwest        Toledo       OH              43604      5,400       $19,045.80
 Northwestern Ohio
 Food Bank
Toledo              Fresh Fruit/   Midwest        Toledo       OH              43604     10,840      $207,260.00
 Northwestern Ohio   Vegetable
 Food Bank           Box
Toledo Seagate      Dairy          Midwest        Toledo       OH              43609      4,225      $105,625.00
 Food Bank           Products Box
Toledo Seagate      Fresh Fruit/   Midwest        Toledo       OH              43609      6,880       $96,320.00
 Food Bank           Vegetable
                     Box
Tomah High School   Fresh Fruit/   Midwest        Tomah        WI              54660        250        $3,237.50
                     Vegetable
                     Box
Tomche Shabbos of   Fresh Fruit/   North East     Suffern      NY              10901      2,480       $71,300.00
 Rockland            Vegetable
                     Box
Tomoka/SHFB Ve507   Fluid Milk     South East     Ormond       FL              32174        216          $818.64
                                                   Beach
Toni's Kitchen      Dairy          Mid-Atlantic   Montclair    NJ              07042        334       $11,269.16
                     Products Box
Toni's Kitchen      Fluid Milk     Mid-Atlantic   Montclair    NJ              07042        525       $17,010.00
Toni's Kitchen      Fresh Fruit/   Mid-Atlantic   Montclair    NJ              07042      2,448       $56,255.04
                     Vegetable
                     Box
Topeka High School  Fresh Fruit/   Mountain       Topeka       KS              66612      7,200      $186,480.00
                     Vegetable      Plains
                     Box
Topeka Rescue       Dairy          Mountain       Topeka       KS              66608        180        $8,236.80
 Mission             Products Box   Plains
Topeka Rescue       Fresh Fruit/   Mountain       Topeka       KS              66608      2,600       $61,628.00
 Mission             Vegetable      Plains
                     Box
Topton Mobile       Dairy          Mid-Atlantic   Topton       PA              19562        180        $7,200.00
 Helping Harvest     Products Box
 Food Bank
Torch 180           Dairy          Midwest        Flowerville  MI              48836        350        $8,494.50
                     Products Box
Torch 180           Fresh Fruit/   Midwest        Flowerville  MI              48836        496       $10,540.71
                     Vegetable
                     Box
Torch 180           Fresh Fruit/   Midwest        Fowlerville  MI              48836         87        $2,067.12
                     Vegetable
                     Box
Torch 180           Precooked      Midwest        Flowerville  MI              48836        629       $25,407.37
                     Meat Box
Torch 180           Precooked      Midwest        Fowlerville  MI              48836        158        $6,048.03
                     Meat Box
Torres Martinez     Fresh Fruit/   Western        Thermal      CA              92274      1,545       $38,625.00
 Tribe               Vegetable
                     Box
Torrington Middle   Fresh Fruit/   North East     Torrington   CT              06790      2,300       $45,931.00
 School              Vegetable
                     Box
Total Ministries    Fresh Fruit/   South East     Spartanburg  SC              29302        200        $6,000.00
                     Vegetable
                     Box
Total Ministries    Fresh Fruit/   South East     Greer        SC              29651        800       $24,000.00
                     Vegetable
                     Box
Touch NJ            Dairy          Mid-Atlantic   Cinnaminson  NJ              08077      3,743       $59,888.00
                     Products Box
Touch NJ            Dairy          Mid-Atlantic   Camden       NJ              08102      2,555       $40,880.00
                     Products Box
Touch NJ            Fresh Fruit/   Mid-Atlantic   Blackwood    NJ              08012        945       $19,938.87
                     Vegetable
                     Box
Touch NJ            Fresh Fruit/   Mid-Atlantic   Camden       NJ              08104        504       $11,581.92
                     Vegetable
                     Box
Touch NJ            Fresh Fruit/   Mid-Atlantic   Camden       NJ              08105        576       $13,236.48
                     Vegetable
                     Box
Touch NJ Camden     Fresh Fruit/   Mid-Atlantic   Camden       NJ              08104        504        $9,550.80
 10Th and Lowell     Vegetable
                     Box
Touch NJ Camden     Fresh Fruit/   Mid-Atlantic   Camden       NJ              08102      3,591       $68,049.45
 State Street        Vegetable
                     Box
Touch NJ Food       Combination    Mid-Atlantic   Camden       NJ              08102        480       $45,600.00
 Alliance            Box
Touch NJ            Dairy          Mid-Atlantic   Camden       NJ              08105      1,000       $40,000.00
 Philabundance       Products Box
Touch NJ            Fresh Fruit/   Mid-Atlantic   Camden       NJ              08104        864       $15,802.56
 Philabundance       Vegetable
                     Box
Touch NJ            Fresh Fruit/   Mid-Atlantic   Camden       NJ              08105        864       $15,802.56
 Philabundance       Vegetable
                     Box
Touch NJ River Rd   Fresh Fruit/   Mid-Atlantic   Camden       NJ              08105      1,575       $29,846.25
 Miquels Pharm       Vegetable
                     Box
Town Co. Coop.      Fluid Milk     South East     Hiawassee    GA              30582        300        $1,149.00
 Mnstry
Town Creek Vision   Fresh Fruit/   South East     Leland       NC              28451      2,500       $28,750.00
 Corp.               Vegetable
                     Box
Town of Anguilla    Dairy          South East     Anguilla     MS              38721        480       $13,478.40
                     Products Box
Town of Anguilla    Precooked      South East     Anguilla     MS              38721        744       $30,548.64
                     Meat Box
Town of             Fresh Fruit/   Mid-Atlantic   Bladensburg  MD              20710      3,000       $60,000.00
 Bladensburg         Vegetable
                     Box
Town of Brentwood   Fresh Fruit/   Mid-Atlantic   Brentwood    MD              20722      2,200       $44,000.00
                     Vegetable
                     Box
Town of North       Fresh Fruit/   Mid-Atlantic   North        MD              20722      3,200       $64,000.00
 Brentwood           Vegetable                     Brentwood
                     Box
Town of Planfield   Combination    North East     Plainfield   NH              03781         70        $1,890.00
 Community           Box
 Resource Room and
 Food
TPS Education       Dairy          South West     Tulsa        OK              74114      3,648      $166,932.48
 Service Center      Products Box
TPS Education       Fresh Fruit/   South West     Tulsa        OK              74114      1,078       $25,117.40
 Service Center      Vegetable
                     Box
Trance Formers      Fluid Milk     South East     Bowling      FL              33834        620        $2,449.60
 Inc.                                              Green
Transformado Por    Combination    Mid-Atlantic   Camuy        PR              00627      1,344      $133,056.00
 La Cruz             Box
Transformation      Fluid Milk     South East     Knoxville    TN              37923        240          $925.60
 Chur
Transformation      Fluid Milk     South West     Knoxville    TX              37923        300        $1,149.00
 Chur
Transformation of   Fresh Fruit/   Mid-Atlantic   Randallstow  MD              21133        250        $5,000.00
 Life Center         Vegetable                     n
                     Box
Traveling Library   Fresh Fruit/   Western        Gustine      CA              95322        642       $23,644.86
 Gustine             Vegetable
                     Box
Traveling Library   Fresh Fruit/   Western        Gustine      CA              95322        210        $7,734.30
 Santa Nella         Vegetable
                     Box
Traverse Heights    Dairy          Midwest        Traverse     MI              49686        850       $24,650.00
 Elementary School   Products Box                  City
Traverse Heights    Fresh Fruit/   Midwest        Traverse     MI              49686        400        $6,775.00
 Elementary School   Vegetable                     City
                     Box
Traverse Heights    Fresh Fruit/   Midwest        Traverse     MI              49696        300        $4,485.00
 Elementary School   Vegetable                     City
                     Box
Travis Manion       Fresh Fruit/   Midwest        Chicago      IL              60608        189        $6,800.22
 Foundation          Vegetable
                     Box
TRC Hoover CDC      Fluid Milk     South West     Dallas       TX              75215        900        $2,628.00
TRCDO Harvest       Fresh Fruit/   Midwest        Chicago      IL              60643         63        $2,266.74
                     Vegetable
                     Box
TRCDO Harvest for   Dairy          Midwest        Chicago      IL              60643         40        $1,000.00
 the Wrld Box        Products Box
TRCDO Harvet for    Precooked      Midwest        Chicago      IL              60643         72        $5,840.64
 the World           Meat Box
Treasure Coast      Combination    South East     Fort Pierce  FL              34947      1,904      $144,799.20
 Food Bank           Box
Treasure Coast      Fluid Milk     South East     Fort Pierce  FL              34947     20,736       $82,736.64
 Food Bank
Treasure Coast      Fresh Fruit/   South East     Fort Pierce  FL              34945     25,582      $415,779.00
 Food Bank           Vegetable
                     Box
Treasure Coast      Precooked      South East     Fort Pierce  FL              34946      3,787      $139,301.84
 Food Bank           Meat Box
Tree of Life--      Combination    South East     Talladega    AL              35160        560       $42,588.00
 Rushing Springs     Box
 Baptist Church
Trenton Food        Fresh Fruit/   Mountain       Trenton      MO              64683        725       $19,937.50
 Pantry              Vegetable      Plains
                     Box
Trenton High        Fresh Fruit/   Midwest        Trenton      MI              48183      1,614       $24,129.30
 School              Vegetable
                     Box
Trenton Shumate     Fresh Fruit/   Midwest        Gibraltar    MI              48173        500        $7,475.00
 Middle School       Vegetable
                     Box
Tri County          Fresh Fruit/   South West     Aransas      TX              78336        500       $12,500.00
                     Vegetable                     Pass
                     Box
Tri County of fice  Fresh Fruit/   Midwest        Lansing      MI              48911      1,400       $20,930.00
 of Aging            Vegetable
                     Box
Tri County Schools  Fresh Fruit/   Midwest        Howard City  MI              49329        252        $9,066.96
                     Vegetable
                     Box
Tri State Food      Fluid Milk     Midwest        Evansville   IN              47711      4,488       $12,198.00
 Bank
Tri State Food      Fresh Fruit/   South East     Trenton      GA              30752        500       $10,000.00
 Pantry--Dade Co.    Vegetable
                     Box
Triangle Community  Fluid Milk     South West     Port Arthur  TX              77642      1,200        $3,504.00
Tribal Advocate     Fresh Fruit/   North East     Irving       NY              14081      1,000       $22,850.00
 Seneca Nation       Vegetable
                     Box
Trinity             Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19143        420        $8,400.00
                     Vegetable                     a
                     Box
Trinity             Precooked      Midwest        Chicago      IL              60628      2,016      $163,537.92
                     Meat Box
Trinity Charities   Fresh Fruit/   Midwest        Schaumburg   IL              60173        567       $20,400.66
                     Vegetable
                     Box
Trinity Charities   Fresh Fruit/   Midwest        Shaumburg    IL              60173        189        $6,800.22
                     Vegetable
                     Box
Trinity Charities   Precooked      Midwest        Schaumburg   IL              60173        864       $70,087.68
                     Meat Box
Trinity Church      Combination    South East     Miami        FL              33169      1,344      $102,211.20
                     Box
Trinity Church/STL  Fresh Fruit/   Mountain       Florissant   MO              63031        900       $28,800.00
 Food Bank           Vegetable      Plains
                     Box
Trinity Fellowship  Fluid Milk     South West     Tyler        TX              75705        159          $464.28
Trinity Harvest     Combination    Western        Palmdale     CA              93591      4,150      $113,087.50
                     Box
Trinity Harvest     Dairy          Western        Palmdale     CA              93591      2,950       $87,728.00
                     Products Box
Trinity Harvest     Fluid Milk     Western        Palmdale     CA              93591      8,928       $83,154.24
Trinity Harvest     Fresh Fruit/   Western        Palmdale     CA              93591        850       $21,037.50
                     Vegetable
                     Box
Trinity Klein       Fluid Milk     South West     Spring       TX              77379        494        $1,442.48
 Churc.
Trinity Loaves      Fluid Milk     South West     Trinity      TX              75862        432        $1,261.44
 Ptry.
Trinity Lutheran    Combination    South East     Selma        AL              36703      1,960      $149,058.00
 Church              Box
Trinity Lutheran    Fresh Fruit/   Midwest        Detroit      MI              48207        200        $2,990.00
 Church              Vegetable
                     Box
Trinity Lutheran    Fresh Fruit/   Midwest        Utica        MI              48317         50        $1,437.50
 Church              Vegetable
                     Box
Trinity Missionary  Fresh Fruit/   Midwest        Pontiac      MI              48341        950       $14,202.50
 Baptist             Vegetable
                     Box
Trinity Outreach--  Fresh Fruit/   South East     Lilburn      GA              30047        200        $4,000.00
 Lilburn             Vegetable
                     Box
Trinity Outreach--  Fresh Fruit/   South East     Snellville   GA              30039        370        $7,400.00
 Pantry              Vegetable
                     Box
Trinity Outreach--  Fresh Fruit/   South East     Duluth       GA              30096      1,650       $33,000.00
 Pantry              Vegetable
                     Box
Trinity UMC         Fluid Milk     South East     Talladega    AL              35160        150          $568.50
Trinity UMC         Fresh Fruit/   South East     Talladega    AL              35160        675       $18,900.00
                     Vegetable
                     Box
Trinity United      Fresh Fruit/   South East     Birmingham   AL              35209      1,320       $36,960.00
 Methodist           Vegetable
                     Box
Trinity United      Fresh Fruit/   Midwest        Lapeer       MI              48446      1,200       $28,800.00
 Methodist Church    Vegetable
                     Box
Trinity United      Fresh Fruit/   Midwest        Massillon    OH              44646      1,200       $28,800.00
 Methodist Church    Vegetable
 of Perry Heights    Box
Trinity Worship     Fluid Milk     South East     Haines City  FL              33844      1,200        $4,684.00
 Ctr.
Trinty Miss.        Fluid Milk     South East     Shallotte    NC              28459        648        $2,520.72
 Baptist
Triple MMM          Combination    Mid-Atlantic   San Juan     PR              00920        112        $5,600.00
                     Box
Triton Food Pantry  Fresh Fruit/   Western        La Jolla     CA              92093        480       $12,000.00
                     Vegetable
                     Box
Triump the Church   Fresh Fruit/   South East     Bessemer     AL              35020      4,000      $103,800.00
 and Kingdom         Vegetable
                     Box
Triumph Baptist     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15237        680       $20,400.00
 Church              Vegetable
                     Box
Triumph Church      Fresh Fruit/   Midwest        Detroit      MI              48211        800       $11,960.00
                     Vegetable
                     Box
Triumphant Cross    Dairy          Midwest        St. Clair    MI              48082        200        $6,750.00
 Church              Products Box                  Shores
Triumphant Cross    Precooked      Midwest        St. Clair    MI              48082        200        $9,538.00
 Church              Meat Box                      Shores
Tri-Valley Inc.     Combination    North East     Dudley       MA              01571         98        $3,214.40
                     Box
Tri-Valley Inc.     Precooked      North East     Dudley       MA              01571        145        $7,873.50
                     Meat Box
Trono De Jehova     Fluid Milk     South West     Brenham      TX              77833        400        $1,168.00
Troutdale           Combination    Western        Troutdale    OR              97060        120        $4,200.00
 Elementary          Box
Troutdale           Dairy          Western        Troutdale    OR              97060        200        $6,000.00
 Elementary          Products Box
Troutdale           Fresh Fruit/   Western        Troutdale    OR              97060        120        $3,240.00
 Elementary          Vegetable
                     Box
Trudys Kids         Dairy          South East     Union City   TN              38261         25          $625.00
                     Products Box
True Freedom        Fresh Fruit/   Midwest        Cleveland    OH              44127        677        $9,358.50
                     Vegetable
                     Box
True Gospel         Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21214        250        $5,237.50
 Apostolic           Vegetable
                     Box
True Grace Church   Fresh Fruit/   South West     Grand        TX              75051        936       $15,902.64
                     Vegetable                     Prairie
                     Box
True Hope Baptist   Combination    Western        Boise        ID              83702        285       $12,540.00
 Church Food         Box
True Hope Baptist   Fresh Fruit/   Western        Boise        ID              83702        360        $9,360.00
 Church Food         Vegetable
                     Box
True Life Ministry  Fresh Fruit/   South West     Burleson     TX              76028        400        $7,640.00
                     Vegetable
                     Box
True North          Fresh Fruit/   Midwest        Fremont      MI              49412        315       $11,333.70
 Community           Vegetable
 Services            Box
True Vine           Fresh Fruit/   South East     Birmingham   AL              35217        260        $7,280.00
 Evangelical         Vegetable
                     Box
Truevine Learning   Fresh Fruit/   South East     Raleigh      NC              27610        720       $11,169.00
 Centers             Vegetable
                     Box
Truman Medical      Fresh Fruit/   Mountain       Kansas City  MO              64108      3,240       $83,916.00
 Center              Vegetable      Plains
                     Box
Trustees of Purdue  Fluid Milk     Midwest        Albany       IN              47320      6,000       $24,000.00
 Univ.
Truth Tabernacle    Fresh Fruit/   South East     Rocky Mount  NC              27801        200        $7,142.00
                     Vegetable
                     Box
TSA Chicago Lawn    Precooked      Midwest        Chicago      IL              60629        144       $11,681.28
                     Meat Box
TSA Des Plaines     Fresh Fruit/   Midwest        Des Plaines  IL              60016        189        $6,800.22
                     Vegetable
                     Box
TSA La Villita      Fresh Fruit/   Midwest        Chicago      IL              60623        126        $4,533.48
                     Vegetable
                     Box
TSA Norridge        Precooked      Midwest        Norridge     IL              60706         72        $5,840.64
                     Meat Box
TSA: Chicago Lawn   Fresh Fruit/   Midwest        Chicago      IL              60629        378       $13,600.44
                     Vegetable
                     Box
TSA: Chicago Lawn   Precooked      Midwest        Chicago      IL              60629        144       $11,681.28
                     Meat Box
TSA: Midwest        Precooked      Midwest        Chicago      IL              60612        154       $12,492.48
                     Meat Box
TSA: Norridge       Fresh Fruit/   Midwest        Chicago      IL              60706        126        $4,533.48
                     Vegetable
                     Box
TSA: Norridge       Precooked      Midwest        Norridge     IL              60706         72        $5,840.64
                     Meat Box
TSA: Norridge       Precooked      Midwest        Chicago      IL              60706        144       $11,681.28
                     Meat Box
TSA: Norridge       Precooked      Midwest        Norridge     IL              60706        144       $11,681.28
                     Meat Box
TSA: Norridge Box   Dairy          Midwest        Chicago      IL              60706        280        $7,000.00
                     Products Box
Tualatin            Combination    Western        Tualatin     OR              97062        120        $4,200.00
 Elementary Schl.    Box
Tualatin            Dairy          Western        Tualatin     OR              97062        100        $3,000.00
 Elementary Schl.    Products Box
Tualatin            Fresh Fruit/   Western        Tualatin     OR              97062        460       $12,420.00
 Elementary Schl.    Vegetable
                     Box
Tuba City Ag        Combination    South West     Tuba City    AZ              86045      1,440       $50,356.80
                     Box
Tuba City Chapter   Fresh Fruit/   South West     Tuba City    AZ              86045      4,109      $108,888.50
 House               Vegetable
                     Box
Tucson Unified      Fluid Milk     South West     Tucson       AZ              85719        288        $1,353.60
 School
Tukwila Pantry      Dairy          Western        Tukwila      WA              98168      2,550       $76,500.00
                     Products Box
Tukwila Pantry      Combination    Western        Tukwila      WA              98168      2,700       $94,500.00
                     Box
Tulane Baptist      Dairy          South East     Yazoo City   MS              39194      3,120       $87,609.60
 Church              Products Box
Tulane Baptist      Fluid Milk     South East     Yazoo City   MS              39194        960        $7,046.40
 Church
Tulane Baptist      Fresh Fruit/   South East     Yazoo City   MS              39194      2,896       $48,942.40
 Church              Vegetable
                     Box
Tulane Baptist      Precooked      South East     Yazoo City   MS              39194      3,208      $131,720.48
 Church              Meat Box
Tulip Ch. of God    Fluid Milk     Midwest        Bloomfield   IN              47424      1,080        $2,430.00
Tully High School   Fluid Milk     North East     Tully        NY              13159      1,350       $41,823.00
Tulsa Community     Combination    South West     Tulsa        OK              74112      2,880      $100,713.60
 Service Center      Box
Tulsa Dream Center  Combination    South West     Tulsa        OK              74126      2,592       $90,642.24
                     Box
Tulsa Dream Center  Dairy          South West     Tulsa        OK              74126      1,344       $61,501.44
                     Products Box
Tulsa Dream Center  Fluid Milk     South West     Tulsa        OK              74126      4,392      $105,144.48
Tulsa Dream Center  Fresh Fruit/   South West     Tulsa        OK              74126     18,504      $278,286.00
                     Vegetable
                     Box
Tulsa Teachers      Combination    South West     Tulsa        OK              74114      5,760      $201,427.20
 Hope From the       Box
 Heartland
Tulsa Teachers      Dairy          South West     Tulsa        OK              74114      3,360      $153,753.60
 Hope From the       Products Box
 Heartland
Tulsa Teachers      Fluid Milk     South West     Tulsa        OK              74114        990       $23,700.60
 Hope From the
 Heartland
Tulsa Teachers      Fresh Fruit/   South West     Tulsa        OK              74114      5,217       $97,791.90
 Hope From the       Vegetable
 Heartland           Box
Tunica 10 Point     Fresh Fruit/   South East     Tunica       MS              38676        810       $19,845.00
 Coalition--C/O      Vegetable
 Mid South Food      Box
 Ban
Tunica Pres.        Fresh Fruit/   South East     Tunica       MS              38676        616       $12,289.20
 Odessa              Vegetable
                     Box
Turlock Covenant    Combination    Western        Turlock      CA              95380        560       $29,366.40
 Church              Box
Turlock Covenant    Fresh Fruit/   Western        Turlock      CA              95380        154        $4,147.22
 Church              Vegetable
                     Box
Turlock Gospel      Combination    Western        Turlock      CA              95380        140        $7,341.60
 Mission             Box
Turlock Gospel      Fresh Fruit/   Western        Turlock      CA              95380        378       $10,872.54
 Mission             Vegetable
                     Box
Turlock Unified     Combination    Western        Turlock      CA              95380      1,936      $101,523.84
 School District     Box
Turlock Unified     Combination    Western        Turlock      CA              95382        280       $14,683.20
 School District     Box
Turlock Unified     Fresh Fruit/   Western        Turlock      CA              95380      2,078       $76,532.74
 School District     Vegetable
                     Box
Turlock Unified     Fresh Fruit/   Western        Turlock      CA              95382        576       $21,214.08
 School District     Vegetable
                     Box
Turner Roberts      Fresh Fruit/   South West     Austin       TX              78724      3,800       $64,562.00
 Recreation Cent     Vegetable
                     Box
Turner Station      Fresh Fruit/   Mid-Atlantic   Dundalk      MD              21222        315        $5,969.25
                     Vegetable
                     Box
Turnersville        Fluid Milk     Mid-Atlantic   Blackwood    NJ              08012        960       $17,692.80
Turning Point       Fresh Fruit/   Western        Milwaukie    OR              97222        420       $11,340.00
 Church              Vegetable
                     Box
Turning Point Life  Combination    Midwest        New Castle   IN              47362      2,000      $300,000.00
 Center              Box
Tuscon Community    Fluid Milk     South West     Tucson       AZ              85713      1,440        $6,768.00
 Food Bank
Tutwiler            Fresh Fruit/   South East     Tutwiler     MS              38963        400        $7,980.00
                     Vegetable
                     Box
Tutwiler Canter     Fresh Fruit/   South East     Tutwiler     MS              38963        200        $3,990.00
                     Vegetable
                     Box
Tutwiler Community  Fresh Fruit/   South East     Tutwiler     MS              38963        435        $8,678.25
                     Vegetable
                     Box
Tutwiler Community  Fresh Fruit/   South East     Tutwiler     MS              38963        125        $2,493.75
 Center              Vegetable
                     Box
TVES Bellingham     Combination    North East     Bellingham   MA              02019         40        $1,312.00
                     Box
TVES Blackstone     Combination    North East     North        MA              01535         80        $2,624.00
 Sr. Ctr.            Box                           Brookfield
TVES Charlton       Combination    North East     Charlton     MA              01507         40        $1,312.00
                     Box
TVES Franklin       Combination    North East     Franklin     MA              02038         40        $1,312.00
                     Box
TVES Medway         Combination    North East     Medway       MA              02053        194        $6,363.20
 Housing             Box
Twelve Loaves       Dairy          Mid-Atlantic   New          PA              15066         10          $146.10
                     Products Box                  Brighton
Twelve Loaves       Fluid Milk     Mid-Atlantic   New          PA              15066         60          $107.40
                                                   Brighton
Twiggs Extension    Combination    South East     Dry Branch   GA              31020        560       $42,588.00
 Facs.               Box
Twin Forks Rising   Fresh Fruit/   South East     Hattiesburg  MS              39403        300       $18,000.00
 Community           Vegetable
                     Box
Twin Gardens Brown  Fresh Fruit/   Midwest        Harvard      IL              60033        864       $23,760.00
 Bear                Vegetable
                     Box
Two Rivers Food     Dairy          Midwest        Pittsfield   IL              62363         96        $2,400.00
 Bank Box            Products Box
Two Rivers Head     Fresh Fruit/   Midwest        Elgin        IL              60123         50        $1,375.00
 Start               Vegetable
                     Box
U46 Commissary on   Dairy          Midwest        Elgin        IL              60123      1,076       $32,011.00
 Bowes               Products Box
U46 Commissary on   Fresh Fruit/   Midwest        Elgin        IL              60123      3,016       $82,940.00
 Bowes               Vegetable
                     Box
Ua3                 Fresh Fruit/   North East     New York     NY              10001      1,992       $79,660.08
                     Vegetable
                     Box
UAB Blazers         Fluid Milk     South East     Birmingham   AL              35205        525        $1,989.75
 Kitchen
UAB Blazers         Fresh Fruit/   South East     Birmingham   AL              35205      1,325       $37,100.00
 Kitchen             Vegetable
                     Box
UBIC/SHFB           Fluid Milk     South East     Holly Hill   FL              32117      1,800        $6,822.00
UC Gill Tract       Fresh Fruit/   Western        Albany       CA              94706      1,000       $31,840.00
 Community Farm      Vegetable
                     Box
UCAN Food Bank      Combination    Western        Roseburg     OR              97470        360       $12,600.00
                     Box
UCAN Food Bank      Fresh Fruit/   Western        Roseburg     OR              97470        240        $6,480.00
                     Vegetable
                     Box
UCAP                Dairy          Midwest        Escanaba     MI              49829        300        $8,700.00
                     Products Box
UCAP                Fresh Fruit/   Midwest        Escanaba     MI              49829      1,800       $38,025.00
                     Vegetable
                     Box
UEAG Pantry 1024-   Fluid Milk     Mid-Atlantic   Union        NJ              07083        236        $6,429.12
 01
UEAG Pantry 1024-   Fresh Fruit/   Mid-Atlantic   Union        NJ              07083        648       $14,891.04
 01                  Vegetable
                     Box
UGC Boxville        Combination    Midwest        Chicago      IL              60653        240       $16,123.20
 Oakland Community   Box
 Org.
UGC Boxville Urban  Combination    Midwest        Chicago      IL              60615        300       $20,154.00
 Juncture            Box
UGC Chicago Family  Combination    Midwest        Chicago      IL              60617        200       $13,436.00
 Health              Box
UGC DFSS Trina      Combination    Midwest        Chicago      IL              60639        300       $20,154.00
 Davila Center       Box
UGC Grow Greater    Combination    Midwest        Chicago      IL              60621         40        $2,687.20
 Englewood           Box
UGC Healthy Hood    Combination    Midwest        Chicago      IL              60608        400       $26,872.00
                     Box
UGC Kenwood         Combination    Midwest        Chicago      IL              60653        120        $7,454.40
 Oakland Community   Box
UGC Kenwood         Combination    Midwest        Chicago      IL              60653        240       $16,123.20
 Oakland Community   Box
 Organization Koco
UGC Kenwood         Combination    Midwest        Chicago      IL              60653        360       $22,970.40
 Oakland Community   Box
 Organization Koco
UGC New Life        Combination    Midwest        Chicago      IL              60623        245       $15,219.40
 Community Centers   Box
UGC South Shore     Combination    Midwest        Chicago      IL              60649        600       $40,308.00
 Works               Box
UGC Urban Growers   Combination    Midwest        Chicago      IL              60608        285       $19,146.30
 Collective          Box
UGC Ymen Site       Combination    Midwest        Chicago      IL              60623        585       $39,300.30
                     Box
U[n]iversity of     Fresh Fruit/   Midwest        Dayton       OH              45469        108        $1,350.00
 Dayton Kennedy      Vegetable
 Union               Box
Umatac Mayor's      Fresh Fruit/   Western        Umatac       Guam            96915        840       $50,400.00
 office              Vegetable
                     Box
Umbrella Works      Fresh Fruit/   Mid-Atlantic   Lancaster    PA              17603        144        $3,309.12
                     Vegetable
                     Box
UMOM New Day        Fluid Milk     South West     Phoenix      AZ              85008        144          $676.80
Unaka Community     Fresh Fruit/   South East     Murphy       NC              28906      1,300       $35,750.00
 Development         Vegetable
 Center              Box
Uncle Jerry's       Dairy          South East     Terry        MS              39194        560       $15,724.80
 Farms               Products Box
Uncle Jerry's       Precooked      South East     Benton       MS              39039        420       $17,245.20
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Lexington    MS              39059        336       $13,796.16
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Lexington    MS              39095        588       $24,143.28
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Mendenhall   MS              39114        924       $37,939.44
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Tchula       MS              39169        504       $20,694.24
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Vicksburg    MS              39180      1,760       $72,265.60
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Forest       MS              39194      1,760       $72,265.60
 Farms               Meat Box
Uncle Jerry's       Precooked      South East     Terry        MS              39194      1,084       $44,509.04
 Farms               Meat Box
Uncle Shack Pantry  Fresh Fruit/   Midwest        Chicago      IL              60607        252        $9,066.96
                     Vegetable
                     Box
Uncle Shack Pantry  Precooked      Midwest        Chicago      IL              60607        360       $29,203.20
                     Meat Box
Unified Family      Fresh Fruit/   Midwest        Northwood    OH              43619        558        $6,975.00
 Stars               Vegetable
                     Box
Unified Gov. Meals  Fresh Fruit/   Mountain       Kansas City  KS              66102        240        $6,216.00
 on Wheels           Vegetable      Plains
                     Box
Union Cathedral     Fluid Milk     South East     Valdosta     GA              31601      3,960       $15,800.40
Union Co.           Dairy          South East     New Albany   MS              38652        300        $7,500.00
 Samaritan Center    Products Box
Union County        Fresh Fruit/   South East     Blairsville  GA              30512        600       $12,000.00
 Georgia Schools     Vegetable
                     Box
Union Elementary    Fluid Milk     South West     Tolleson     AZ              85353        760        $5,988.80
 Dist.
Union Elementary    Fresh Fruit/   South West     Tolleson     AZ              85353        860       $23,650.00
 Dist.               Vegetable
                     Box
Union Endicott      Dairy          North East     Endicott     NY              13760        300       $13,260.00
                     Products Box
Union Endicott      Fresh Fruit/   North East     Endicott     NY              13760        378        $8,694.00
                     Vegetable
                     Box
Union Endicott      Precooked      North East     Endicott     NY              13760        462       $25,225.20
                     Meat Box
Union Gospel        Dairy          South West     Dallas       TX              75212        200        $9,152.00
 Mission             Products Box
Union Gospel        Fresh Fruit/   South West     Dallas       TX              75212        100          $970.00
 Mission             Vegetable
                     Box
Union Gospel        Fresh Fruit/   South West     Ft Worth     TX              76102        144        $2,446.56
 Mission             Vegetable
                     Box
Union Hospital      Dairy          Midwest        Terre Haute  IN              47804        360        $9,000.00
                     Products Box
Union Houston       Fresh Fruit/   South West     Houston      TX              77042        128        $2,174.72
                     Vegetable
                     Box
Union Miss.         Fluid Milk     South East     Wilmington   NC              28405        864        $3,368.16
 Baptist
Union--Monroe       Fresh Fruit/   South East     Monroe       NC              28112         20          $378.00
 Middle              Vegetable
                     Box
Union Public        Dairy          South West     Tulsa        OK              74134      1,440       $65,894.40
 Schools             Products Box
Union Public        Fresh Fruit/   South West     Tulsa        OK              74134      2,822       $46,934.20
 Schools             Vegetable
                     Box
Union Rescue        Fresh Fruit/   Western        Los Angeles  CA              90013        960       $21,840.00
 Mission             Vegetable
                     Box
Union--Rockey       Fresh Fruit/   South East     Monroe       NC              28110         15          $283.50
 River               Vegetable
                     Box
Union R-XI          Fresh Fruit/   Mountain       Union        MO              63084      1,760       $45,584.00
                     Vegetable      Plains
                     Box
Union--Sardis       Fresh Fruit/   South East     Monroe       NC              28110         18          $340.20
 Elem.               Vegetable
                     Box
Union--Wingate      Fresh Fruit/   South East     Wingate      NC              28174         20          $378.00
 Elem.               Vegetable
                     Box
United Across       Fluid Milk     Western        Irvine       CA              92618      2,112       $21,098.88
 Borders
 Foundation
United Against      Fresh Fruit/   South East     Vero Beach   FL              32950      1,512       $37,044.00
 Poverty             Vegetable
                     Box
United Against      Fresh Fruit/   South East     Vero Beach   FL              32960      9,072      $222,264.00
 Poverty             Vegetable
                     Box
United Against      Fresh Fruit/   South East     Vero Beach   FL              32967      7,200       $78,120.00
 Poverty             Vegetable
                     Box
United Baptist      Fresh Fruit/   Mid-Atlantic   New          MD              20784      1,300       $26,000.00
                     Vegetable                     Carrollton
                     Box
United Charities    Fluid Milk     South West     Grand        TX              75051        720        $2,125.60
 in Grand Prairie                                  Prairie
United Charities    Fresh Fruit/   South West     Grand        TX              75051        440        $6,017.60
 in Grand Prairie    Vegetable                     Prairie
                     Box
United Charities    Fresh Fruit/   South West     Grand        TX              75051        100        $2,330.00
 Services of Hope    Vegetable                     Prairie
                     Box
United Childrens &  Fresh Fruit/   Midwest        Detroit      MI              48213        100        $1,495.00
 Families            Vegetable
                     Box
United Church       Fresh Fruit/   Midwest        Wyoming      MI              49509        203        $7,303.94
 Outreach            Vegetable
 Ministries          Box
United Community    Fresh Fruit/   South East     Birmingham   AL              35221        300        $8,400.00
 Center              Vegetable
                     Box
United Fellowship   Fresh Fruit/   South East     Midfield     AL              35228        778       $20,189.10
 Community Baptist   Vegetable
                     Box
United Food Bank    Dairy          South West     Maricopa     AZ              85139        144        $3,816.00
                     Products Box
United Food Bank    Dairy          South West     Mesa         AZ              85201      9,720      $257,580.00
                     Products Box
United Food Bank    Fresh Fruit/   South West     Phoenix      AZ              85012         40          $874.00
                     Vegetable
                     Box
United Food Bank    Fresh Fruit/   South West     Maricopa     AZ              85139        140        $3,059.00
                     Vegetable
                     Box
United Food Bank    Fresh Fruit/   South West     Mesa         AZ              85201     13,840      $316,461.20
                     Vegetable
                     Box
United Food Bank    Combination    South East     Plant City   FL              33563      1,120       $85,176.00
 of Plant City       Box
United Food Force   Fluid Milk     South East     Mcdonough    GA              30253     21,600       $81,864.00
United Hands        Fluid Milk     Western        Los Angeles  CA              92582      8,412       $84,035.88
United Harvest      Fresh Fruit/   Mountain       Hastings     NE              68901        200        $5,180.00
                     Vegetable      Plains
                     Box
United Methodist    Combination    Western        Boise        ID              83709         35        $1,540.00
 Church              Box
United Methodist    Dairy          Midwest        Poneto       IN              46781         84        $3,066.00
 Church              Products Box
United Methodist    Fresh Fruit/   Western        Boise        ID              83709         50        $1,300.00
 Church              Vegetable
                     Box
United Methodist    Fresh Fruit/   South East     Gulf Shores  AL              36542        400       $11,600.00
 Church Gulf         Vegetable
 Shores              Box
United Methodist    Fresh Fruit/   Midwest        Grand        MI              49507         93        $3,346.14
 Community House     Vegetable                     Rapids
                     Box
United Sikh         Fresh Fruit/   Western        Jurupa       CA              92509      4,256      $104,272.00
 Mission             Vegetable                     Valley
                     Box
United States       Fresh Fruit/   Mid-Atlantic   Hazleton     PA              18201        810       $20,250.00
 Conference of       Vegetable
 Catholic Bishops    Box
United Upper Nile   Fresh Fruit/   Midwest        Des Moines   IA              50311        200        $2,900.00
                     Vegetable
                     Box
United Way          Fluid Milk     Mountain       Jefferson    MO              65109        972       $11,231.46
                                    Plains         City
United Way          Fresh Fruit/   Midwest        Bluford      IL              62814        200        $5,500.00
                     Vegetable
                     Box
United Way          Fresh Fruit/   Midwest        Piopolis     IL              62859         19          $522.50
                     Vegetable
                     Box
United Way Broward  Fluid Milk     South East     Miramar      FL              33304      9,600       $36,384.00
United Way Catano   Combination    Mid-Atlantic   San Juan     PR              00920      1,152       $99,936.00
                     Box
United Way          Dairy          Midwest        Mt. Vernon   IL              62864        700       $20,825.00
 Corinthian Church   Products Box
United Way          Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        600       $16,500.00
 Corinthian Church   Vegetable
                     Box
United Way--        Dairy          Mid-Atlantic   Cranberry    PA              16319      1,095       $15,997.95
 Cranberry Mall      Products Box                  Township
United Way--        Fluid Milk     Mid-Atlantic   Cranberry    PA              16319      3,430        $6,139.70
 Cranberry Mall                                    Township
United Way De       Combination    Mid-Atlantic   Arecibo      PR              00612      7,932      $723,822.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   Caguas       PR              00725      7,104      $649,200.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   Catano       PR              00962      3,528      $316,344.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   Dorado       PR              00646        672       $66,528.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   Mayaguez     PR              00680     13,740    $1,240,308.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   Ponce        PR              00716     13,056    $1,140,840.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   San Juan     PR              00907      3,456      $299,808.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   San Juan     PR              00909      3,780      $262,500.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   San Juan     PR              00920      1,728      $149,904.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   San Juan     PR              00921     14,112    $1,232,448.00
 Puerto Rico         Box
United Way De       Combination    Mid-Atlantic   San Juan     PR              00975      1,728      $149,904.00
 Puerto Rico         Box
United Way Greater  Fresh Fruit/   North East     Fall River   MA              02720      2,770       $69,250.00
 Fall River          Vegetable
                     Box
United Way Greater  Fresh Fruit/   North East     New Bedford  MA              02740      3,901       $97,525.00
 New Bedford         Vegetable
                     Box
United Way          Fresh Fruit/   Midwest        Carbondale   IL              62901        750       $20,625.00
 Hopewell Baptist    Vegetable
                     Box
United Way Jackson  Fresh Fruit/   Midwest        Jackson      MI              49201      6,600      $189,750.00
                     Vegetable
                     Box
United Way Lansing  Fresh Fruit/   Midwest        Lansing      MI              48912         50        $1,437.50
                     Vegetable
                     Box
United Way Lunch    Fresh Fruit/   Midwest        Allendale    IL              62410        250        $6,875.00
 Wagon               Vegetable
                     Box
United Way Mobile   Dairy          Midwest        Mt. Vernon   IL              62864        150        $4,462.50
                     Products Box
United Way Mobile   Dairy          Midwest        Mt. Vernon   IL              62864        700       $20,825.00
 Market              Products Box
United Way Mobile   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864      1,000       $27,500.00
 Market              Vegetable
                     Box
United Way Mt.      Dairy          Midwest        Mt. Vernon   IL              62864         60        $1,785.00
 Vernon              Products Box
United Way Mt.      Fresh Fruit/   Midwest        Mt. Vernon   IL              62864         60        $1,650.00
 Vernon              Vegetable
                     Box
United Way Mt.      Dairy          Midwest        Mt. Vernon   IL              62864         30          $892.50
 Vernon Elderly      Products Box
United Way Mt.      Fresh Fruit/   Midwest        Mt. Vernon   IL              62864         30          $825.00
 Vernon Elderly      Vegetable
                     Box
United Way of       Dairy          Midwest        Hastings     MI              49058        300        $8,700.00
 Barry County        Products Box
United Way of       Fresh Fruit/   Midwest        Hastings     MI              49058        660       $13,995.00
 Barry County        Vegetable
                     Box
United Way of       Fresh Fruit/   South East     Highland     FL              33846      3,932       $82,572.00
 Central Florida     Vegetable                     City
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07501        512       $10,240.00
 Passaic County      Vegetable
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07501      1,304       $26,080.00
 Passaic County      Vegetable
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07522      1,400       $28,000.00
 Passaic County      Vegetable
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07522      2,100       $42,000.00
 Passaic County      Vegetable
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07524      2,428       $48,560.00
 Passaic County      Vegetable
                     Box
United Way of       Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07524      1,168       $23,360.00
 Passaic County      Vegetable
                     Box
United Way of So.   Fresh Fruit/   Midwest        Nashville    IL              62263        200        $5,500.00
 IL                  Vegetable
                     Box
United Way of So.   Fresh Fruit/   Midwest        Centralia    IL              62801        400       $11,000.00
 IL                  Vegetable
                     Box
United Way of So.   Fresh Fruit/   Midwest        Centralia    IL              62801        150        $4,125.00
 IL Centralia        Vegetable
                     Box
United Way of the   Dairy          North East     Plattsburgh  NY              12901         60        $1,440.00
 Adirondack Region   Products Box
United Way of West  Dairy          South West     Midlothian   TX              76065        400       $18,304.00
 Ellis Count         Products Box
United Way--Oil     Dairy          Mid-Atlantic   Oil City     PA              16301      1,095       $15,997.95
 City High School    Products Box
United Way--Oil     Fluid Milk     Mid-Atlantic   Oil City     PA              16301      5,430        $9,719.70
 City High School
United Way          Dairy          Midwest        Mt. Vernon   IL              62864        200        $5,950.00
 Pleasant Hill       Products Box
United Way          Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        350        $9,625.00
 Pleasant Hill       Vegetable
                     Box
United Way--Rocky   Dairy          Mid-Atlantic   Franklin     PA              16323      1,095       $15,997.95
 Grove               Products Box
United Way--Rocky   Fluid Milk     Mid-Atlantic   Franklin     PA              16323      3,630        $6,497.70
 Grove
United Way Rome     Dairy          Midwest        Dix          IL              62830          9          $267.75
 Meadows             Products Box
United Way Rome     Fresh Fruit/   Midwest        Dix          IL              62830         12          $330.00
 Meadows             Vegetable
                     Box
United Way          Combination    Mid-Atlantic   San Juan     PR              00907      1,728      $149,904.00
 Santurce            Box
United Way So.      Dairy          Midwest        Bluford      IL              62814        100        $2,975.00
                     Products Box
United Way So.      Dairy          Midwest        Piopolis     IL              62859          1           $29.75
                     Products Box
United Way So.      Fresh Fruit/   Midwest        Bluford      IL              62814        100        $2,750.00
                     Vegetable
                     Box
United Way So.      Fresh Fruit/   Midwest        Piopolis     IL              62859          1           $27.50
                     Vegetable
                     Box
United Way So. IL   Fresh Fruit/   Midwest        Piopolis     IL              62859          5          $137.50
                     Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Mt. Vernon   IL              62864        160        $4,760.00
 Angels              Products Box
United Way So. IL   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        160        $4,400.00
 Angels              Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Mt. Vernon   IL              62864        100        $2,975.00
 Angels Assgm        Products Box
United Way So. IL   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        100        $2,750.00
 Angels Assgm        Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Bluford      IL              62814        210        $6,247.50
 Bluford             Products Box
United Way So. IL   Fresh Fruit/   Midwest        Bluford      IL              62814        210        $5,775.00
 Bluford             Vegetable
                     Box
United Way So. IL   Fresh Fruit/   Midwest        Centralia    IL              62801        150        $4,125.00
 Centralia           Vegetable
                     Box
United Way So. IL   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864         20          $550.00
 Christ              Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Mt. Vernon   IL              62864         20          $595.00
 Kingdom             Products Box
United Way So. IL   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864         20          $550.00
 Kingdom             Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Mt. Vernon   IL              62864         20          $595.00
 Kingdom Seed        Products Box
United Way So. IL   Fresh Fruit/   Midwest        Mt. Vernon   IL              62864        170        $4,675.00
 Kingdom Seed        Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Texico       IL              62889         75        $2,231.25
 Mobile              Products Box
United Way So. IL   Fresh Fruit/   Midwest        Texico       IL              62889         25          $687.50
 Mobile              Vegetable
                     Box
United Way So. IL   Fresh Fruit/   Midwest        Texico       IL              62889         75        $2,062.50
 Mobile              Vegetable
                     Box
United Way So. IL   Dairy          Midwest        Piopolis     IL              62859          8          $238.00
 Piopolis            Products Box
United Way So. IL   Fresh Fruit/   Midwest        Piopolis     IL              62859          8          $220.00
 Piopolis            Vegetable
                     Box
United Way Wash.    Dairy          Midwest        Okawville    IL              62271         20          $595.00
 Co. Senior          Products Box
United Way Wash.    Fresh Fruit/   Midwest        Okawville    IL              62271         20          $550.00
 Co. Senior          Vegetable
                     Box
United Way/Boise    Combination    Western        Boise        ID              83702        480       $21,120.00
                     Box
United Way/Boise    Fresh Fruit/   Western        Boise        ID              83702        480       $12,480.00
                     Vegetable
                     Box
United Way/Boise    Fresh Fruit/   Western        Boise        ID              83714        200        $5,200.00
                     Vegetable
                     Box
United Way/         Combination    Western        Caldwell     ID              83605        300       $13,200.00
 Caldwell            Box
United Way/         Fresh Fruit/   Western        Caldwell     ID              83605        450       $11,700.00
 Caldwell            Vegetable
                     Box
United Way/Emmett   Fresh Fruit/   Western        Emmett       ID              83617        288        $7,488.00
 Middle Schl.        Vegetable
                     Box
United Way/Garden   Combination    Western        Garden       ID              83622         60        $2,640.00
 Valley              Box                           Valley
United Way/Garden   Fresh Fruit/   Western        Garden       ID              83622         53        $1,378.00
 Valley              Vegetable                     Valley
                     Box
United Way/         Combination    Western        Horseshoe    ID              83629        178        $7,832.00
 Horseshoe Bend      Box                           Bend
United Way/         Fresh Fruit/   Western        Horseshoe    ID              83629        240        $6,240.00
 Horseshoe Bend      Vegetable                     Bend
                     Box
United Way/Idaho    Fresh Fruit/   Western        Idaho Falls  ID              83402        728       $18,928.00
 Falls               Vegetable
                     Box
United Way/Jerome   Combination    Western        Jerome       ID              83338         77        $3,388.00
                     Box
United Way/Jerome   Fresh Fruit/   Western        Jerome       ID              83338        266        $6,916.00
                     Vegetable
                     Box
United Way/Marsing  Fresh Fruit/   Western        Marsing      ID              83639        300        $7,800.00
 Schools             Vegetable
                     Box
United Way/         Combination    Western        Middleton    ID              83644        150        $6,600.00
 Middleton           Box
United Way/         Fresh Fruit/   Western        Middleton    ID              83644        150        $3,900.00
 Middleton           Vegetable
                     Box
United Way/Notus    Combination    Western        Caldwell     ID              83607        150        $6,600.00
                     Box
United Way/Notus    Fresh Fruit/   Western        Caldwell     ID              83607        150        $3,900.00
                     Vegetable
                     Box
United Way/Parma    Combination    Western        Parma        ID              83660         15          $660.00
                     Box
United Way/Parma    Fresh Fruit/   Western        Parma        ID              83660         45        $1,170.00
                     Vegetable
                     Box
United Way/         Fresh Fruit/   Western        Pocatello    ID              83204        635       $16,510.00
 Pocatello           Vegetable
                     Box
United We All Can   Combination    South East     Hialeah      FL              33142      1,344      $102,211.20
 Community           Box
United We All Can   Combination    South East     Doral        FL              33172      2,688      $204,422.40
 Community           Box
United We All Can   Combination    South East     Miami        FL              33142      5,376      $408,844.80
 Community           Box
 Services
United We All Can   Fresh Fruit/   South East     Miami        FL              33142      4,800       $52,080.00
 Community           Vegetable
 Services            Box
United Zacatecan    Fluid Milk     Western        Hayward      CA              94541      2,112       $21,098.88
 Community
 Development
Unity of Houston    Fresh Fruit/   South West     Houston      TX              77057        679       $18,502.75
                     Vegetable
                     Box
Unity Temple--C/O   Fresh Fruit/   South East     Jackson      TN              38301        540       $13,230.00
 Mid South Food      Vegetable
 Bank                Box
Unity Temple        Combination    South East     Williston    FL              32696      6,720      $511,056.00
 International       Box
Unity Temple of     Fresh Fruit/   Midwest        Detroit      MI              48221        756       $27,200.88
 the Apostolic       Vegetable
                     Box
Unity United        Fresh Fruit/   Midwest        Northwood    OH              43619        666        $8,325.00
 Methodist           Vegetable
                     Box
Universidad De      Combination    Mid-Atlantic   San Juan     PR              00921        216       $21,384.00
 Puerto Rico         Box
 Ciencia Medicas
Universidad Del     Combination    Mid-Atlantic   San Juan     PR              00921        672       $66,528.00
 Sagrado Corazon     Box
Universidad         Combination    Mid-Atlantic   San Juan     PR              00921        672       $58,296.00
 Interamericana      Box
University of Ark   Dairy          South West     Little Rock  AR              72205        576       $26,357.76
 Foundation          Products Box
University of Ark   Fresh Fruit/   South West     Little Rock  AR              72205      1,056       $14,160.00
 Foundation          Vegetable
                     Box
University of       Fresh Fruit/   Midwest        Toledo       OH              43606        450        $5,625.00
 Toledo St. Union    Vegetable
                     Box
University Prep     Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15219      1,074       $20,491.92
                     Vegetable
                     Box
University Prep     Fresh Fruit/   Midwest        Detroit      MI              48207        125        $1,868.75
 Elementary          Vegetable
                     Box
University          Dairy          Midwest        Cleveland    OH              44105        240        $5,784.00
 Settlement          Products Box
University          Fluid Milk     Midwest        Cleveland    OH              44127        800        $2,656.00
 Settlement
University          Fresh Fruit/   Midwest        Cleveland    OH              44105        240        $6,360.00
 Settlement          Vegetable
                     Box
University Yes      Dairy          Midwest        Detroit      MI              48265        200        $5,800.00
 Academy             Products Box
University Yes      Fresh Fruit/   Midwest        Detroit      MI              48235      2,000       $42,250.00
 Academy             Vegetable
                     Box
Uplift Solutions    Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19150      5,229       $99,089.55
 Philly Food         Vegetable                     a
 Rescue              Box
Upper Lakes Foods   Dairy          Midwest        Cloquet      MN              55720      4,800      $137,376.00
                     Products Box
Upper Merion        Fluid Milk     Mid-Atlantic   King of      PA              19406         35        $1,134.00
 Community                                         Prussia
 Cupboard
Upper Room          Dairy          Mid-Atlantic   Philadelphi  PA              19138        780       $26,317.20
                     Products Box                  a
Upper Room          Fresh Fruit/   South East     Fairfield    AL              35064        150        $4,200.00
                     Vegetable
                     Box
Upper Room          Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19138      1,260       $23,877.00
                     Vegetable                     a
                     Box
Upson Lee High      Fresh Fruit/   South East     Thomaston    GA              30286      2,520       $47,728.80
 School              Vegetable
                     Box
Upton Sr. Ctr.      Combination    North East     Upton        MA              01568         40        $1,312.00
                     Box
Upton Sr. Ctr.      Precooked      North East     Upton        MA              01568         40        $2,172.00
                     Meat Box
Upward Community    Fresh Fruit/   South East     Flat Rock    NC              28731        286        $7,865.00
 Center              Vegetable
                     Box
Urban Adamah        Fresh Fruit/   Western        Berkeley     CA              94710        600       $12,850.00
                     Vegetable
                     Box
Urban Agriculture   Fresh Fruit/   Mid-Atlantic   Newark       NJ              07103        250        $5,000.00
 Cooperative         Vegetable
                     Box
Urban Dreams        Fresh Fruit/   Midwest        Des Moines   IA              50314         50          $725.00
                     Vegetable
                     Box
Urban League of     Fresh Fruit/   Midwest        East Saint   IL              62205      1,200       $28,800.00
 St. Louis           Vegetable                     Louis
                     Box
Urban League of     Fresh Fruit/   Mountain       St. Louis    MO              63108      1,810       $57,920.00
 St. Louis           Vegetable      Plains
                     Box
Urban League of     Fresh Fruit/   Mountain       St. Louis    MO              63136         72        $2,304.00
 St. Louis           Vegetable      Plains
                     Box
Urban Light Inc.    Fresh Fruit/   South East     Miami        FL              33150      2,400       $60,000.00
 Dba Envision        Vegetable
 Miami               Box
Urban Mission       Dairy          Midwest        Steubenvill  OH              43952      2,100       $52,500.00
                     Products Box                  e
Urban Mission       Fresh Fruit/   Midwest        Steubenvill  OH              43952      1,408       $27,456.00
                     Vegetable                     e
                     Box
Urban Mission       Precooked      Midwest        Steubenvill  OH              43953      1,080       $49,136.40
                     Meat Box                      e
Urban Neighborhood  Fresh Fruit/   Midwest        Detroit      MI              48209        650        $9,717.50
 Initiative          Vegetable
                     Box
Urban Outreach      Fresh Fruit/   Mid-Atlantic   Washington   Dc              20019      2,400       $48,000.00
                     Vegetable
                     Box
Urban Outreach      Fresh Fruit/   Mid-Atlantic   Landover     MD              20785      4,400       $88,000.00
                     Vegetable
                     Box
Urban Recipe        Fresh Fruit/   South East     College      GA              30337      1,995       $39,900.00
                     Vegetable                     Park
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       St. Louis    MO              63103        108        $3,456.00
 Empowerment C.      Vegetable      Plains
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       St. Louis    MO              63136      1,368       $43,776.00
 Empowerment C.      Vegetable      Plains
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       St. Louis    MO              63106        396       $12,672.00
 Flance Elc.         Vegetable      Plains
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       St. Louis    MO              63116      1,296       $41,472.00
 Sams Meat Mkt.      Vegetable      Plains
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       Jennings     MO              63136        396       $12,672.00
 St.John Nmann.      Vegetable      Plains
                     Box
Urban Strategies/   Fresh Fruit/   Mountain       St. Louis    MO              63106        504       $16,128.00
 Transfiguratn.      Vegetable      Plains
                     Box
Urban Strategies--  Precooked      South West     Alamo        TX              78516      1,536      $158,438.40
 Alamo Comm.         Meat Box
Urban Tilth         Fresh Fruit/   Western        Richmond     CA              94801         48        $1,344.00
                     Vegetable
                     Box
Urban Tilth         Fresh Fruit/   Western        Richmond     CA              94801         42        $1,176.00
                     Vegetable
                     Box
Urban Upbound       Fresh Fruit/   North East     Long Island  NY              11101      2,012       $80,459.88
                     Vegetable                     City
                     Box
USD 101             Combination    Mountain       Erie         KS              66733      1,020       $35,669.40
                     Box            Plains
USD 101             Dairy          Mountain       Erie         KS              66733      1,200       $54,912.00
                     Products Box   Plains
USD 101             Fresh Fruit/   Mountain       Erie         KS              66733      5,884       $83,320.80
                     Vegetable      Plains
                     Box
USD 202 Turner      Dairy          Mountain       Kansas City  KS              66106        480       $21,964.80
                     Products Box   Plains
USD 202 Turner      Fresh Fruit/   Mountain       Kansas City  KS              66106      3,072       $46,454.40
                     Vegetable      Plains
                     Box
USD 231             Combination    Mountain       Gardner      KS              66030      1,320       $46,160.40
                     Box            Plains
USD 231             Dairy          Mountain       Gardner      KS              66030        540       $24,710.40
                     Products Box   Plains
USD 231             Fresh Fruit/   Mountain       Gardner      KS              66030      2,580       $51,546.00
                     Vegetable      Plains
                     Box
USD 252 Southern    Fresh Fruit/   Mountain       Hartford     KS              66854        770       $30,800.00
 Lyon County         Vegetable      Plains
                     Box
USD 258             Dairy          Mountain       Humboldt     KS              66748      1,080       $49,420.80
                     Products Box   Plains
USD 258             Fresh Fruit/   Mountain       Humboldt     KS              66748      4,920       $93,900.00
                     Vegetable      Plains
                     Box
USD 308 Hutchinson  Combination    Mountain       Hutchinson   KS              67501        720       $25,178.40
                     Box            Plains
USD 308 Hutchinson  Dairy          Mountain       Hutchinson   KS              67501        240       $10,982.40
                     Products Box   Plains
USD 308 Hutchinson  Fresh Fruit/   Mountain       Hutchinson   KS              67501      5,348       $86,925.60
                     Vegetable      Plains
                     Box
USD 320 Wamego      Fresh Fruit/   Mountain       Wamego       KS              66547        754       $30,160.00
 Food Service        Vegetable      Plains
                     Box
USD 373             Dairy          Mountain       Newton       KS              67114        600       $27,456.00
                     Products Box   Plains
USD 373             Fresh Fruit/   Mountain       Newton       KS              67114      5,100       $98,040.00
                     Vegetable      Plains
                     Box
USD 375             Dairy          Mountain       Towanda      KS              67144        600       $27,456.00
                     Products Box   Plains
USD 375             Fresh Fruit/   Mountain       Towanda      KS              67144        360        $6,102.00
                     Vegetable      Plains
                     Box
USD 383 Food        Fresh Fruit/   Mountain       Manhattan    KS              66502        506       $20,240.00
 Service             Vegetable      Plains
                     Box
USD 418 Mcpherson   Combination    Mountain       Mcpherson    KS              67460      3,600      $125,892.00
                     Box            Plains
USD 418 Mcpherson   Dairy          Mountain       Mcpherson    KS              67460      2,520      $115,315.20
                     Products Box   Plains
USD 418 Mcpherson   Fresh Fruit/   Mountain       Mcpherson    KS              67460     14,642      $221,561.40
                     Vegetable      Plains
                     Box
USD 440             Combination    Mountain       Halstead     KS              67056        720       $25,178.40
                     Box            Plains
USD 440             Dairy          Mountain       Halstead     KS              67056        600       $27,456.00
                     Products Box   Plains
USD 440             Fresh Fruit/   Mountain       Halstead     KS              67056      2,200       $41,100.00
                     Vegetable      Plains
                     Box
USD 445             Combination    Mountain       Coffeyville  KS              67337        120        $4,196.40
                     Box            Plains
USD 445             Dairy          Mountain       Coffeyville  KS              67337      1,080       $49,420.80
                     Products Box   Plains
USD 445             Fresh Fruit/   Mountain       Coffeyville  KS              67337      1,600       $30,930.00
                     Vegetable      Plains
                     Box
USD 446             Dairy          Mountain       Independenc  KS              67301        960       $43,929.60
                     Products Box   Plains         e
USDA--Central IL    Dairy          Midwest        Springfield  IL              62701      5,100      $127,500.00
 Foodbank            Products Box
USDA--Central IL    Fluid Milk     Midwest        Springfield  IL              62701     15,408       $37,818.00
 Foodbank
USDA--Fairmnt.      Dairy          Midwest        East St.     IL              62201         56        $1,400.00
 Cty. Chrstn. 2      Products Box                  Louis
USDA--Fairmont      Dairy          Midwest        East St.     IL              62201         40        $1,000.00
 City Christian      Products Box                  Louis
USDA--Lake          Dairy          Midwest        Carlinville  IL              62626         54        $1,350.00
 Williamson          Products Box
USDA--Lake          Fluid Milk     Midwest        Carlinville  IL              62626     30,132       $67,797.00
 Williamson
USDA AHA Cheshire   Fresh Fruit/   South East     Atlanta      GA              30324         22          $440.00
 Bridge              Vegetable
                     Box
USDA Aurora Food    Dairy          Midwest        Aurora       IL              60506      3,240      $211,086.00
 Pantry              Products Box
USDA Aurora Food    Fluid Milk     Midwest        Aurora       IL              60506      1,500       $52,575.00
 Pantry
USDA Bronzeville    Combination    Midwest        Chicago      IL              60616        300       $20,154.00
                     Box
USDA Bronzeville    Fluid Milk     Midwest        Chicago      IL              60615        216        $7,570.80
USDA--Buhi          Fresh Fruit/   South East     Doraville    GA              30340      1,540       $30,800.00
 Doraville           Vegetable
                     Box
USDA Campbell       Combination    Midwest        Chicago      IL              60612        200       $13,436.00
 Learn               Box
USDA CJA            Combination    Midwest        Chicago      IL              60644        360       $24,184.80
                     Box
USDA CJA            Precooked      Midwest        Chicago      IL              60644        140       $10,019.80
                     Meat Box
USDA Clean Up Your  Fresh Fruit/   South East     Atlanta      GA              30310        590       $11,800.00
 Act Inc.            Vegetable
                     Box
USDA Collegiate     Combination    Midwest        Chicago      IL              60628         55        $3,694.90
 High School         Box
USDA--Cowart        Fresh Fruit/   South East     Atlanta      GA              30319        150        $3,000.00
 Family YMCA         Vegetable
                     Box
USDA Day Star       Fresh Fruit/   South East     Douglasvill  GA              30135        510       $10,200.00
 Tabernacle          Vegetable                     e
                     Box
USDA Eighteenth     Dairy          Midwest        Chicago      IL              60608      5,280      $132,000.00
 St. Development     Products Box
USDA EMSA           Combination    Midwest        Elgin        IL              60120        125        $8,397.50
                     Box
USDA EMSA           Dairy          Midwest        Elgin        IL              60120         90        $5,863.50
                     Products Box
USDA EMSA           Fresh Fruit/   Midwest        Elgin        IL              60120        100        $6,406.00
                     Vegetable
                     Box
USDA Floyd County   Fresh Fruit/   South East     Lindale      GA              30147        525       $10,500.00
 Schools--Pepperel   Vegetable
 l                   Box
USDA Food Box       Fluid Milk     Midwest        Mccleansbor  IL              62859         90          $202.50
 Hamltn. Co.                                       o
 Senior
USDA Food Box       Fresh Fruit/   Midwest        Chicago      IL              60827         50        $3,203.00
 Openlands           Vegetable
                     Box
USDA Food Box       Precooked      Midwest        Chicago      IL              60827         25        $1,789.25
 Openlands           Meat Box
USDA Food Box Wadi  Fluid Milk     Midwest        Mt. Carmel   IL              62863         54          $121.50
 Mt. Carmel
USDA Food Box       Fluid Milk     Midwest        Carmi        IL              62821        180          $405.00
 White Co. Seniors
USDA Frankfort      Fluid Milk     Midwest        Frankfort    IL              60423        200          $800.00
 Tnshp. Charities
USDA Galapagos      Combination    Midwest        Rockford     IL              61101        300       $20,154.00
 Lower               Box
USDA Galapagos      Fluid Milk     Midwest        Rockford     IL              61101         50        $1,752.50
 Lower
USDA Gary           Dairy          Midwest        Gary         IN              46402        600       $15,000.00
 Methodist Hosp.     Products Box
USDA Gods Food      Fluid Milk     South East     Lexington    KY              40511      9,000       $20,250.00
 Pantry
USDA Good           Fresh Fruit/   South East     Douglasvill  GA              30134      1,210       $24,200.00
 Samaritan of        Vegetable                     e
 Douglas             Box
USDA Grace & Peace  Dairy          Midwest        Chicago      IL              60639      1,920       $48,000.00
 Church              Products Box
USDA--Grady Homes   Fresh Fruit/   South East     Atlanta      GA              30315         50        $1,000.00
 of Light            Vegetable
                     Box
USDA Grady          Fresh Fruit/   South East     Atlanta      GA              30303      1,000       $20,000.00
 Hospital Main Am.   Vegetable
                     Box
USDA Grady          Fresh Fruit/   South East     Atlanta      GA              30303      2,620       $52,400.00
 Hospital Main Pm.   Vegetable
                     Box
USDA Grady Yancey   Fresh Fruit/   South East     Atlanta      GA              30318         90        $1,800.00
                     Vegetable
                     Box
USDA Hands of Hope  Fluid Milk     Midwest        Joliet       IL              60436      1,296       $45,424.80
 Illinois
USDA Highpoint      Fluid Milk     South East     Lagrange     KY              40031        702        $1,579.50
 Charitable Serv.
USDA HSA Belmont    Combination    Midwest        Chicago      IL              60639        320       $20,688.00
                     Box
USDA HSA McKinley   Combination    Midwest        Chicago      IL              60609        159       $10,130.08
                     Box
USDA HSA Mckinley   Dairy          Midwest        Chicago      IL              60609         50        $3,257.50
                     Products Box
USDA HSA McKinley   Fresh Fruit/   Midwest        Chicago      IL              60609         50        $3,203.00
                     Vegetable
                     Box
USDA Hunter         Combination    Midwest        Chicago      IL              60620        200       $13,436.00
 Perkins Learn       Box
USDA Instituto      Fresh Fruit/   Midwest        Chicago      IL              60608        392       $25,111.52
 Main                Vegetable
                     Box
USDA International  Fresh Fruit/   South East     Atlanta      GA              30345        120        $2,400.00
 Rescue Committee    Vegetable
                     Box
USDA Intrinsic      Combination    Midwest        Chicago      IL              60641         10          $671.80
                     Box
USDA JW             Dairy          Midwest        Walkill      IL              61102      1,920       $48,000.00
 Congregation        Products Box
 Support
USDA Kells Park     Fluid Milk     Midwest        Chicago      IL              60624         72        $2,523.60
 Community Council
USDA Korean         Fluid Milk     Midwest        Chicago      IL              60625        100        $3,505.00
 American Senior
 Center
USDA Kosher Milk    Fluid Milk     Midwest        Chicago      IL              60645        563       $19,733.15
 Agudath Israel
USDA Kosher Milk    Fluid Milk     Midwest        Chicago      IL              60645      2,063       $68,513.15
 Agudath Israel
 Devash Farms
USDA Kosher Milk    Combination    Midwest        Chicago      IL              60645        158        $9,814.96
 Agudath of Israel   Box
 Lamers
USDA--LCF Mexican   Fresh Fruit/   South East     Atlanta      GA              30324        560       $11,200.00
 Consulate           Vegetable
                     Box
USDA--LCF Ser.      Fresh Fruit/   South East     Acworth      GA              30101        210        $4,200.00
 Familia             Vegetable
                     Box
USDA Learn 10       Combination    Midwest        North        IL              60064        100        $6,718.00
                     Box                           Chicago
USDA Learn 6        Combination    Midwest        Great Lakes  IL              60088        200       $13,436.00
                     Box
USDA Learn 8 Herro  Combination    Midwest        Chicago      IL              60612        300       $20,154.00
 Campus              Box
USDA Learn 9        Combination    Midwest        Waukegan     IL              60085        300       $19,395.00
                     Box
USDA Legacy         Dairy          Midwest        Chicago      IL              60623        155       $10,098.25
 Chicago             Products Box
USDA LVEJO          Combination    Midwest        Chicago      IL              60621        162       $10,883.16
                     Box
USDA LVEJO          Fresh Fruit/   Midwest        Chicago      IL              60623        162       $10,377.72
                     Vegetable
                     Box
USDA Mercy Care     Fresh Fruit/   South East     Atlanta      GA              30324        150        $3,000.00
                     Vegetable
                     Box
USDA Midway         Fresh Fruit/   South East     Douglasvill  GA              30134        440        $8,800.00
 Resource Center     Vegetable                     e
                     Box
USDA Monark         Dairy          Midwest        Joliet       IL              60436      2,200      $143,330.00
 Baptist Church      Products Box
USDA Muslim Assoc.  Dairy          Midwest        Rockford     IL              61109        288        $7,200.00
 of Grtr. Rfd.       Products Box
USDA N IL Food      Dairy          Midwest        Geneva       IL              60134     28,128      $703,200.00
 Bank Corp.          Products Box
USDA N IL Food      Fluid Milk     Midwest        Geneva       IL              60134     54,124      $216,496.00
 Bank Corp.
USDA Neighbors for  Combination    Midwest        Chicago      IL              60609        400       $25,607.00
 Environmental       Box
 Justice
USDA Neighbors for  Fluid Milk     Midwest        Chicago      IL              60609        500       $16,007.00
 Environmental
 Justice
USDA Neighbors for  Fresh Fruit/   Midwest        Chicago      IL              60609        100        $6,406.00
 Environmental       Vegetable
 Justice             Box
USDA New Hope       Combination    Midwest        Chicago      IL              60623         50        $3,359.00
 Little Village      Box
USDA Old Stone      Dairy          Midwest        Rockton      IL              61072        192        $4,800.00
 Church Rockton      Products Box
USDA Pilsen         Fluid Milk     Midwest        Chicago      IL              60608         40        $1,402.00
 Neighbors
 Community Council
USDA Project Hood-- Dairy          Midwest        Chicago      IL              60637      1,440       $36,000.00
 C/O Pastor          Products Box
USDA Rainey Day     Fresh Fruit/   South East     Atlanta      GA              30331        410        $8,200.00
 Fund                Vegetable
                     Box
USDA River Bend     Dairy          Midwest        Sterling     IL              61081      1,152       $28,800.00
 Sterling            Products Box
USDA UGC Boxville   Combination    Midwest        Chicago      IL              60615        600       $38,790.00
 Urban Juncture      Box
USDA UGC Chicago    Combination    Midwest        Chicago      IL              60617        200       $12,930.00
 Family Health       Box
USDA UGC DFSS       Combination    Midwest        Chicago      IL              60639        300       $19,395.00
 Trina Davila        Box
 Center
USDA UGC Grow       Combination    Midwest        Chicago      IL              60621        200       $13,436.00
 Greater Englewood   Box
USDA UGC Healthy    Combination    Midwest        Chicago      IL              60608        700       $45,508.00
 Hood                Box
USDA UGC Kenwood    Combination    Midwest        Chicago      IL              60653        240       $16,123.20
 Oakland Community   Box
 Organization Ko
USDA UGC South      Combination    Midwest        Chicago      IL              60608        300       $18,636.00
 Shore Works         Box
USDA UGC South      Combination    Midwest        Chicago      IL              60649        300       $20,154.00
 Shore Works         Box
USDA UGC South      Fresh Fruit/   Midwest        Chicago      IL              60608        300       $19,218.00
 Shore Works         Vegetable
                     Box
USDA UGC Stone      Combination    Midwest        Chicago      IL              60623        500       $31,060.00
 Temple Church       Box
USDA UGC Urban      Combination    Midwest        Chicago      IL              60608        585       $37,782.30
 Growers             Box
 Collective
USDA UGC Ymen Site  Combination    Midwest        Chicago      IL              60623        305       $20,085.10
                     Box
USDA Villages of    Fresh Fruit/   South East     Atlanta      GA              30315      1,110       $22,200.00
 Carver YMCA         Vegetable
                     Box
USDA We Love Buhi-- Fresh Fruit/   South East     Austell      GA              30106      2,000       $40,000.00
 Casa Familiar       Vegetable
                     Box
USDA We Love Buhi-- Fresh Fruit/   South East     Atlanta      GA              30341        140        $2,800.00
 CPACS               Vegetable
                     Box
USDA Welcome        Fresh Fruit/   South East     Atlanta      GA              30318      1,180       $23,600.00
 Atlanta 2453        Vegetable
 Coronet             Box
USDA Welcoming      Fresh Fruit/   South East     Atlanta      GA              30318        210        $4,200.00
 Atl. 1505           Vegetable
 Chattahoochee       Box
USDA WIC Komed      Fluid Milk     Midwest        Chicago      IL              60653         15          $525.75
 Holman Health
 Center
USDA WIC Norther    Fluid Milk     Midwest        Chicago      IL              60651          6          $210.30
 Kostner Health
 Center
USDA WIC Winfield   Fluid Milk     Midwest        Chicago      IL              60610         10          $350.50
 Moody Health
 Center
USDA World Vision   Dairy          Midwest        Chicago      IL              60644        960       $24,000.00
 Go USDA             Products Box
USDA YMCA Jeanne    Combination    Midwest        Chicago      IL              60620         50        $3,359.00
 Kenny               Box
USDA/Urban League   Fresh Fruit/   Midwest        East Saint   IL              62201      1,800       $57,600.00
 of St.Louis         Vegetable                     Louis
                     Box
USDA-CFAP KY Dairy  Dairy          South East     Lexington    KY              40503      6,000      $150,000.00
 Development         Products Box
USDA-CFAP Second    Fluid Milk     South East     Maryville    TN              37801      1,890        $4,252.50
 Harvest Fb
USDACV Muller/      Dairy          Midwest        Rockford     IL              61102      3,168       $79,200.00
 Pinehrst. Rckfrd.   Products Box
USDA--Food Box--    Dairy          Midwest        Teutopolis   IL              62467         60        $1,500.00
 Catholic Chariti.   Products Box
USDA--Food Box--    Fluid Milk     Midwest        Teutopolis   IL              62467         54          $121.50
 Catholic Chariti.
USDA--Food Box--    Dairy          Midwest        Teutopolis   IL              62467         60        $1,500.00
 Catholic Charits.   Products Box
USDA--Food Box--    Fluid Milk     Midwest        Teutopolis   IL              62467        486        $1,093.50
 Catholic Charits.
USDA--Food Box--    Fluid Milk     Midwest        Cairo        IL              62914        720        $1,620.00
 Daystar Comm.
 Pan.
USDA--Food Box--    Fluid Milk     Midwest        Bloomington  IL              61701      1,827        $4,110.75
 Eastview Church
USDA--Food Box--    Dairy          Midwest        Marissa      IL              62257      1,200       $30,000.00
 Family Treehouse    Products Box
USDA--Food Box--    Fluid Milk     Midwest        Marissa      IL              62257      2,430        $5,467.50
 Family Treehouse
USDA--Food Box--    Fluid Milk     Midwest        Farmer City  IL              61842        855        $1,923.75
 Farmer City UMC
USDA--Food Box--    Dairy          Midwest        Shumway      IL              62461        180        $4,500.00
 Freedom House       Products Box
USDA--Food Box--    Fluid Milk     Midwest        Greenville   IL              62246        126          $283.50
 Greenville Chrch
USDA--Food Box--    Fluid Milk     Midwest        Mccleansbor  IL              62859        270          $607.50
 Hamltn. Co.                                       o
 Senior
USDA--Food Box--    Fluid Milk     Midwest        Highland     IL              62249        540        $1,215.00
 Hghlnd. Fd.
 Pantry
USDA--Food Box--    Fluid Milk     Midwest        Mt. Vernon   IL              62864        900        $2,025.00
 His Hands Food
USDA--Food Box--    Fluid Milk     Midwest        Geff         IL              62842        270          $607.50
 Hope Ministries
USDA--Food Box--    Fluid Milk     Midwest        West         IL              62896        225          $506.25
 Life Source Ch.                                   Frankfort
USDA--Food Box--    Fluid Milk     Midwest        Mahomet      IL              61853        486        $1,093.50
 Lutheran Church
USDA--Food Box--    Fluid Milk     Midwest        Marissa      IL              62257        558        $1,255.50
 Marissa Fd.
 Pntry.
USDA--Food Box--    Fluid Milk     Midwest        Mascoutah    IL              62258        900        $2,025.00
 Mascoth Fd.
 Pntry.
USDA--Food Box--    Fluid Milk     Midwest        Fairfield    IL              62837      5,832       $13,122.00
 Midwest Food Pan.
USDA--Food Box--    Fluid Milk     Midwest        Murphysboro  IL              62966        594        $1,336.50
 Murpyboro Fd.
 Pan.
USDA--Food Box--    Fluid Milk     Midwest        Olney        IL              62450        405          $911.25
 Olney Good Sam.
USDA--Food Box--    Fluid Milk     Midwest        Monticello   IL              61856        405          $911.25
 Piatt Farm Burau
USDA--Food Box--    Fluid Milk     Midwest        Lawrencevil  IL              62439        270          $607.50
 Sign of Kingdom                                   le
USDA--Food Box--    Fluid Milk     Midwest        Baldwin      IL              62217        360          $810.00
 St. John Luthern
USDA--Food Box--    Fluid Milk     Midwest        Nashville    IL              62263      1,944        $4,374.00
 St. Paul U Church
USDA--Food Box--    Fluid Milk     Midwest        Bloomington  IL              61701      2,268        $5,103.00
 St. Vincent Dpaul
USDA--Food Box--    Fluid Milk     Midwest        Fairfield    IL              62837        405          $911.25
 Wadi Fairfield
USDA--Food Box--    Fluid Milk     Midwest        Mt. Carmel   IL              62863        108          $243.00
 Wadi Mt. Carmel
USDA--Food Box--    Fluid Milk     Midwest        Sparta       IL              62286        513        $1,154.25
 Westminster Ch.
USDA--Food Box--    Fluid Milk     Midwest        Carmi        IL              62821        540        $1,215.00
 White Co. Seniors
USDA--Westside      Fresh Fruit/   South East     Atlanta      GA              30318        370        $7,400.00
 Future Fund         Vegetable
                     Box
Utah Food Bank      Dairy          South West     Salt Lake    Ut              84119        780       $32,760.00
                     Products Box                  City
Utah Food Bank      Fluid Milk     South West     Salt Lake    Ut              84119     11,760       $56,330.40
                                                   City
Utah Food Bank      Fresh Fruit/   South West     Salt Lake    Ut              84119     18,000      $364,500.00
                     Vegetable                     City
                     Box
Utica Community     Fresh Fruit/   Midwest        Utica        MI              48317        800       $17,250.00
 Schools             Vegetable
                     Box
Utica Public        Fresh Fruit/   Midwest        Utica        MI              48317      1,084       $22,899.50
 Schools             Vegetable
                     Box
Utopia              Combination    Western        Kent         WA              98032        860       $30,100.00
                     Box
Utopia              Dairy          Western        Kent         WA              98032        700       $21,000.00
                     Products Box
Utopia              Fresh Fruit/   Western        Kent         WA              98032        900       $24,300.00
                     Vegetable
                     Box
UUJO                Fresh Fruit/   Midwest        Columbus     OH              43215         64        $1,248.00
                     Vegetable
                     Box
Uxbridge St. Ctr.   Combination    North East     Uxbridge     MA              01569         50        $1,640.00
                     Box
Uxbridge St. Ctr.   Precooked      North East     Uxbridge     MA              01569         50        $2,715.00
                     Meat Box
Uzazi Village       Fresh Fruit/   Mountain       Kansas City  KS              66201         80        $2,072.00
 State               Vegetable      Plains
                     Box
Uzazi Village       Fresh Fruit/   Mountain       Kansas City  MO              64110         80        $2,072.00
 Troost              Vegetable      Plains
                     Box
Valley Baptist      Fluid Milk     South West     Mission      TX              78572     18,720       $54,662.40
 Retreat Center
Valley Baptist      Fresh Fruit/   South West     La Feria     TX              78559      2,736       $46,484.64
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     Laredo       TX              78041      1,280       $21,747.20
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     Laredo       TX              78045      1,344       $22,834.56
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     McAllen      TX              78504      3,072       $52,193.28
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     Mission      TX              78572    181,504    $3,683,061.16
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     Portisabel   TX              78578      1,560       $39,000.00
 Retreat Center      Vegetable
                     Box
Valley Baptist      Fresh Fruit/   South West     Roma         TX              78584      2,800       $47,572.00
 Retreat Center      Vegetable
                     Box
Valley Baptist      Precooked      South West     Mission      TX              78572      9,402      $969,816.30
 Retreat Center      Meat Box
Valley Food Bank    Combination    Western        Pacoima      CA              91331      2,700       $73,575.00
                     Box
Valley Food Bank    Dairy          Western        Pacoima      CA              91331        400       $12,800.00
                     Products Box
Valley Food Bank    Fluid Milk     Western        Pacoima      CA              91331        864        $4,104.00
Valley Food Bank    Fresh Fruit/   Western        Pacoima      CA              91331        350        $8,662.50
                     Vegetable
                     Box
Valley Food Bank    Fresh Fruit/   Western        Pacoima      CA              91331      1,568       $38,416.00
 Rescue Mission      Vegetable
 Alliance            Box
Valley Horizon      Fluid Milk     South West     Yuma         AZ              85364        490        $3,861.20
Valley Horizon      Fresh Fruit/   South West     Yuma         AZ              85364      1,090       $29,975.00
                     Vegetable
                     Box
Valley Kingdom      Combination    Midwest        Oak Forest   IL              60452        424       $43,792.00
 Ministries          Box
Valley Kingdom      Fresh Fruit/   Midwest        Oak Forest   IL              60452        324       $12,240.00
 Ministries          Vegetable
                     Box
Valley Mission      Combination    Western        Pocatello    ID              83204        750       $33,000.00
 Food Pantry         Box
Valley Mission      Fresh Fruit/   Western        Pocatello    ID              83204      1,250       $32,500.00
 Food Pantry         Vegetable
                     Box
Valley Wholesale    Fluid Milk     Midwest        Portsmouth   OH              45662        360        $1,195.20
Valverde County     Fresh Fruit/   South West     Del Rio      TX              78840      3,072       $52,193.28
 Precinct 2          Vegetable
                     Box
Vamos               Combination    Mid-Atlantic   Aguas        PR              00703        504       $49,896.00
                     Box                           Buenas
Vamos               Combination    Mid-Atlantic   Arecibo      PR              00612      1,344      $116,592.00
                     Box
Vamos               Combination    Mid-Atlantic   Bayamon      PR              00956        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Caguas       PR              00725        672       $66,528.00
                     Box
Vamos               Combination    Mid-Atlantic   Carolina     PR              00979      1,344      $124,824.00
                     Box
Vamos               Combination    Mid-Atlantic   Guanica      PR              00653        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Guayanilla   PR              00656      1,344      $116,592.00
                     Box
Vamos               Combination    Mid-Atlantic   Humacao      PR              00791        672       $66,528.00
                     Box
Vamos               Combination    Mid-Atlantic   Loiza        PR              00772      2,520      $241,248.00
                     Box
Vamos               Combination    Mid-Atlantic   Manati       PR              00674        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Naguabo      PR              00718        604       $54,896.00
                     Box
Vamos               Combination    Mid-Atlantic   Orocovis     PR              00720        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Ponce        PR              00716      2,016      $191,352.00
                     Box
Vamos               Combination    Mid-Atlantic   Rio Piedras  PR              00925        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Salinas      PR              00751        672       $66,528.00
                     Box
Vamos               Combination    Mid-Atlantic   San German   PR              00683        672       $66,528.00
                     Box
Vamos               Combination    Mid-Atlantic   San Juan     PR              00921      4,704      $424,536.00
                     Box
Vamos               Combination    Mid-Atlantic   Utuado       PR              00641        672       $66,528.00
                     Box
Vamos               Combination    Mid-Atlantic   Vega Baja    PR              00693        672       $58,296.00
                     Box
Vamos               Combination    Mid-Atlantic   Vieques      PR              00765        672       $66,528.00
                     Box
Van Buskirk         Fresh Fruit/   Western        Stockton     CA              95206      1,106       $35,215.04
 Community Center    Vegetable
                     Box
Vandercook Lake     Dairy          Midwest        Jackson      MI              49203        260        $7,540.00
 High School         Products Box
Vandercook Lake     Fresh Fruit/   Midwest        Jackson      MI              49203        504       $18,133.92
 High School         Vegetable
                     Box
Veggielution        Fresh Fruit/   Western        San Jose     CA              95116        240        $7,641.60
                     Vegetable
                     Box
Ventura Park        Combination    Western        Portland     OR              97216        540       $18,900.00
 Elementary USDA     Box
Ventura Park        Dairy          Western        Portland     OR              97216        350       $10,500.00
 Elementary USDA     Products Box
Ventura Park        Fresh Fruit/   Western        Portland     OR              97216        180        $4,860.00
 Elementary USDA     Vegetable
                     Box
Verde Gardens       Fresh Fruit/   South East     Homestead    FL              33033        180        $3,015.00
                     Vegetable
                     Box
Verdigris High      Fluid Milk     South West     Claremore    OK              74019        135        $3,231.90
 School
Verdigris High      Fresh Fruit/   South West     Claremore    OK              74019        343        $7,991.90
 School              Vegetable
                     Box
Verdunvillle        Combination    Mid-Atlantic   Verdunville  WV              25649      3,146      $116,969.00
 Church of God       Box
Vermillion Ele.     Fluid Milk     Midwest        Vermilion    OH              44089        360        $1,195.20
Vermont Food Bank   Dairy          North East     Randolph     VT              05060      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     Wells River  VT              05081      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     North        VT              05150      1,440       $69,120.00
                     Products Box                  Springfiel
                                                   d
Vermont Food Bank   Dairy          North East     Bennington   VT              05201      1,440       $69,120.00
                     Products Box
Vermont Food Bank   Dairy          North East     Brattleboro  VT              05301      1,760       $84,480.00
                     Products Box
Vermont Food Bank   Dairy          North East     West Dover   VT              05356      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     Essex        VT              05452      1,280       $61,440.00
                     Products Box                  Junction
Vermont Food Bank   Dairy          North East     North Hero   VT              05474      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     Shelburne    VT              05482        830       $39,840.00
                     Products Box
Vermont Food Bank   Dairy          North East     Barre        VT              05641     10,770      $516,960.00
                     Products Box
Vermont Food Bank   Dairy          North East     Morristown   VT              05661      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     Middlebury   VT              05753      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Dairy          North East     North        VT              05759      1,280       $61,440.00
                     Products Box                  Clarendon
Vermont Food Bank   Dairy          North East     Lyndonville  VT              05851      2,240      $107,520.00
                     Products Box
Vermont Food Bank   Dairy          North East     Newport      VT              05855      1,280       $61,440.00
                     Products Box
Vermont Food Bank   Fluid Milk     North East     Randolph     VT              05060      2,400       $12,768.00
Vermont Food Bank   Fluid Milk     North East     Wells River  VT              05081      2,880       $15,321.60
Vermont Food Bank   Fluid Milk     North East     North        VT              05150      2,880       $15,321.60
                                                   Springfiel
                                                   d
Vermont Food Bank   Fluid Milk     North East     Bennington   VT              05201      2,880       $15,321.60
Vermont Food Bank   Fluid Milk     North East     Brattleboro  VT              05301      4,080       $21,705.60
Vermont Food Bank   Fluid Milk     North East     West Dover   VT              05356      2,400       $12,768.00
Vermont Food Bank   Fluid Milk     North East     Essex        VT              05452      2,880       $15,321.60
                                                   Junction
Vermont Food Bank   Fluid Milk     North East     North Hero   VT              05474      2,400       $12,768.00
Vermont Food Bank   Fluid Milk     North East     Shelburne    VT              05482      2,264       $12,044.48
Vermont Food Bank   Fluid Milk     North East     Barre        VT              05641     27,360      $145,555.20
Vermont Food Bank   Fluid Milk     North East     Morristown   VT              05661      2,880       $15,321.60
Vermont Food Bank   Fluid Milk     North East     Middlebury   VT              05753      3,000       $15,960.00
Vermont Food Bank   Fluid Milk     North East     North        VT              05759      3,000       $15,960.00
                                                   Clarendon
Vermont Food Bank   Fluid Milk     North East     Lyndonville  VT              05851      3,120       $16,598.40
Vermont Food Bank   Fluid Milk     North East     Newport      VT              05855      2,880       $15,321.60
Vermont Food Bank   Fresh Fruit/   North East     Brattleboro  VT              05301      3,416       $91,487.20
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Randolph     VT              05060        541       $15,418.50
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Wells River  VT              05081      1,260       $35,910.00
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     North        VT              05150      1,260       $35,910.00
                     Vegetable                     Springfiel
                     Box                           d
Vermont Food Bank   Fresh Fruit/   North East     Bennington   VT              05201      1,260       $35,910.00
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     West Dover   VT              05356        810       $23,085.00
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Essex        VT              05452      1,260       $35,910.00
                     Vegetable                     Junction
                     Box
Vermont Food Bank   Fresh Fruit/   North East     North Hero   VT              05474        765       $21,802.50
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Barre        VT              05641     14,119      $407,759.50
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Morristown   VT              05661      1,260       $35,910.00
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Middlebury   VT              05753      1,260       $35,910.00
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     North        VT              05759      1,260       $35,910.00
                     Vegetable                     Clarendon
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Lyndonville  VT              05851      1,845       $52,582.50
                     Vegetable
                     Box
Vermont Food Bank   Fresh Fruit/   North East     Newport      VT              05855      1,260       $35,910.00
                     Vegetable
                     Box
Vermont Food Bank   Precooked      North East     Randolph     VT              05060        896       $64,825.60
                     Meat Box
Vermont Food Bank   Precooked      North East     Wells River  VT              05081      1,024       $74,086.40
                     Meat Box
Vermont Food Bank   Precooked      North East     North        VT              05150      1,000       $72,350.00
                     Meat Box                      Springfiel
                                                   d
Vermont Food Bank   Precooked      North East     Bennington   VT              05201      1,280       $92,608.00
                     Meat Box
Vermont Food Bank   Precooked      North East     Brattleboro  VT              05301      1,780      $128,783.00
                     Meat Box
Vermont Food Bank   Precooked      North East     West Dover   VT              05356        896       $64,825.60
                     Meat Box
Vermont Food Bank   Precooked      North East     Essex        VT              05452      1,280       $92,608.00
                     Meat Box                      Junction
Vermont Food Bank   Precooked      North East     North Hero   VT              05474        896       $64,825.60
                     Meat Box
Vermont Food Bank   Precooked      North East     Shelburne    VT              05482        896       $64,825.60
                     Meat Box
Vermont Food Bank   Precooked      North East     Barre        VT              05641     11,924      $862,701.40
                     Meat Box
Vermont Food Bank   Precooked      North East     Morristown   VT              05661        896       $64,825.60
                     Meat Box
Vermont Food Bank   Precooked      North East     Middlebury   VT              05753      1,280       $92,608.00
                     Meat Box
Vermont Food Bank   Precooked      North East     North        VT              05759      1,536      $111,129.60
                     Meat Box                      Clarendon
Vermont Food Bank   Precooked      North East     Lyndonville  VT              05851      1,152       $83,347.20
                     Meat Box
Vermont Food Bank   Precooked      North East     Newport      VT              05855      1,536      $111,129.60
                     Meat Box
Vernon Baptist      Fresh Fruit/   South West     Houston      TX              77051        256        $4,349.44
 Church              Vegetable
                     Box
Vernor Elementary   Fresh Fruit/   Midwest        Detroit      MI              48235        150        $4,312.50
 School              Vegetable
                     Box
Versailles Nutr.    Fluid Milk     Mountain       Versailles   MO              65084        576        $1,296.00
 Center                             Plains
Veterans Affair     Dairy          Mountain       Kansas City  MO              64131        288       $13,178.88
                     Products Box   Plains
Veterans Affair     Fresh Fruit/   Mountain       Kansas City  MO              64131      1,824       $37,012.80
                     Vegetable      Plains
                     Box
Veterans First      Dairy          South West     Phoenix      AZ              85021        198        $5,247.00
                     Products Box
Veterans First      Fresh Fruit/   South West     Phoenix      AZ              85021        176        $3,845.60
                     Vegetable
                     Box
Veterans            Fresh Fruit/   South East     Cape Coral   FL              33904      4,158      $101,871.00
 Foundation          Vegetable
                     Box
Veterans            Dairy          Mid-Atlantic   Johnstown    PA              15905        350        $7,360.50
 Leadership          Products Box
 Program
Veterans of         Fluid Milk     Western        Anaheim      CA              92805     12,960      $129,470.40
 Foreign Wars
VFW 1000            Fresh Fruit/   Mountain       Independenc  MO              64050        320        $8,288.00
                     Vegetable      Plains         e
                     Box
VFW Berwick         Fresh Fruit/   Mid-Atlantic   Berwick      PA              18603        100        $2,500.00
                     Vegetable
                     Box
VFW Post 1829       Fresh Fruit/   Mountain       Kansas City  MO              64129         80        $2,072.00
                     Vegetable      Plains
                     Box
VFW Post 5789       Fresh Fruit/   Mountain       Lees Summit  MO              64063        320        $8,288.00
                     Vegetable      Plains
                     Box
VFW Post 5789       Fresh Fruit/   Mountain       Lees Summit  MO              64070         80        $2,072.00
                     Vegetable      Plains
                     Box
VFW Post 5925       Fresh Fruit/   Mountain       Warsaw       MO              65355        640       $16,576.00
                     Vegetable      Plains
                     Box
VFW Post 7356       Fresh Fruit/   Mountain       Parkville    MO              64152        320        $8,288.00
                     Vegetable      Plains
                     Box
VFW Post 8932       Fresh Fruit/   South West     Corpus       TX              78418        500       $12,500.00
                     Vegetable                     Christi
                     Box
Victim Services     Fresh Fruit/   South East     Cullman      AL              35056         14          $350.00
                     Vegetable
                     Box
Victorious          Fresh Fruit/   Midwest        Saginaw      MI              48601        850       $12,707.50
 Believers           Vegetable
 Ministry            Box
Victorious Life     Fresh Fruit/   Mountain       Kansas City  MO              64109        980       $25,382.00
 Church              Vegetable      Plains
                     Box
Victorious Living   Fresh Fruit/   South East     Batesville   MS              38606        378        $9,261.00
 Empowerment         Vegetable
 Outreach--C/O Mid   Box
 S
Victory Apostolic   Combination    Midwest        Matteson     IL              60443        252       $26,712.00
 Church              Box
Victory Apostolic   Fresh Fruit/   Midwest        Matteson     IL              60443        366       $13,152.00
 Church              Vegetable
                     Box
Victory Christian   Fresh Fruit/   Mid-Atlantic   White        MD              20695        250        $5,237.50
                     Vegetable                     Plains
                     Box
Victory Christian   Fluid Milk     South West     Oklahoma     OK              73122        495       $11,850.30
 Center OKC                                        City
Victory Christian   Fresh Fruit/   South West     Oklahoma     OK              73122        539       $12,558.70
 Center OKC          Vegetable                     City
                     Box
Victory Christian   Fluid Milk     Mid-Atlantic   Woodbridge   VA              22193        960       $17,894.40
 Ministries
Victory Christian   Fresh Fruit/   Mid-Atlantic   Woodbridge   VA              22193      1,200       $39,852.00
 Ministries          Vegetable
                     Box
Victory Church      Fresh Fruit/   Mid-Atlantic   Cranberry    PA              16066      2,400       $72,000.00
                     Vegetable                     Township
                     Box
Victory Church/STL  Fresh Fruit/   Mountain       Pevely       MO              63070      1,800       $57,600.00
 Food Bank           Vegetable      Plains
                     Box
Victory Community   Dairy          South West     Phoenix      AZ              85017        230        $6,095.00
 Church              Products Box
Victory Community   Fresh Fruit/   South West     Phoenix      AZ              85017        330        $7,210.50
 Church              Vegetable
                     Box
Victory Dream       Dairy          Midwest        Carbondale   IL              62901        407       $12,108.25
 Center              Products Box
Victory Dream       Fresh Fruit/   Midwest        Carbondale   IL              62901        500       $13,750.00
 Center              Vegetable
                     Box
Victory Family      Dairy          Mid-Atlantic   Cranberryto  PA              16066        305        $3,355.00
 Church/412 Food     Products Box                  wnship
 Rescue
Victory for Youth   Fresh Fruit/   South East     Miami        FL              33133        960       $24,000.00
                     Vegetable
                     Box
Victory Indep.      Fluid Milk     South East     Supply       NC              28462      1,122        $4,361.38
 Baptist
Victory Indep.      Fresh Fruit/   South East     Supply       NC              28462        300        $3,450.00
 Baptist             Vegetable
                     Box
Victory Meadow      Dairy          South West     Dallas       TX              75231        450       $20,592.00
 Food Pantry         Products Box
Victory Meadow      Fluid Milk     South West     Dallas       TX              75231        308          $899.36
 Food Pantry
Victory Meadow      Fresh Fruit/   South West     Dallas       TX              75231        700       $10,550.00
 Food Pantry         Vegetable
                     Box
Victory Meadow      Fresh Fruit/   South West     Dallas       TX              75231        150        $2,865.00
 Food Pantry         Vegetable
                     Box
Victory Ministies   Fresh Fruit/   Midwest        Columbus     OH              43213        192        $3,744.00
                     Vegetable
                     Box
Victory Outreach/   Fluid Milk     Mid-Atlantic   Philadelphi  PA              19134        201        $5,295.12
 CFF                                               a
Victory Tabernacle  Fresh Fruit/   South East     Birmingham   AL              35221        220        $4,400.00
                     Vegetable
                     Box
Victory Temple      Fresh Fruit/   South West     Fort Worth   TX              76114        224        $3,805.76
 Ministries          Vegetable
                     Box
Victory Worship     Dairy          South West     Dover        AR              72837        576       $26,357.76
 Center              Products Box
Victory Worship     Fresh Fruit/   South West     Dover        AR              72837        539       $12,558.70
 Center              Vegetable
                     Box
Vida City Church    Fresh Fruit/   South West     Houston      TX              77038      1,520       $25,824.80
 Houston             Vegetable
                     Box
Vida Life           Dairy          Western        Bloomington  CA              92316      2,400       $70,128.00
 Ministries          Products Box
Vida Life           Fluid Milk     Western        Bloomington  CA              92316      5,184       $51,788.16
 Ministries
Vidalia Community   Precooked      South East     Pass         MS              39571        504       $20,694.24
 Mission             Meat Box                      Christian
Villa Aurora        Fresh Fruit/   South East     Miami        FL              33135        240        $4,020.00
                     Vegetable
                     Box
Villa Del Carmen    Combination    Mid-Atlantic   Ponce        PR              00716        298       $18,232.00
                     Box
Villa Santa Maria   Combination    Western        Mt. Vernon   WA              98273        180        $6,300.00
 CCS                 Box
Villa Santa Maria   Dairy          Western        Mt. Vernon   WA              98273        150        $4,500.00
 CCS                 Products Box
Villa Santa Maria   Fresh Fruit/   Western        Mt. Vernon   WA              98273        180        $4,860.00
 CCS                 Vegetable
                     Box
Village Exchange    Fresh Fruit/   Mountain       Boulder      Co              80301        629       $11,322.00
 Center              Vegetable      Plains
                     Box
Village of Dolton   Combination    Midwest        Dolton       IL              60419      2,984      $304,208.00
                     Box
Village of Dolton   Fresh Fruit/   Midwest        Dolton       IL              60419      1,872       $69,444.00
                     Vegetable
                     Box
Village of Park     Combination    Midwest        Park Forest  IL              60466        252       $24,696.00
 Forest              Box
Village of Park     Fresh Fruit/   Midwest        Park Forest  IL              60466        252       $10,080.00
 Forest              Vegetable
                     Box
Village Pantry      Fresh Fruit/   Midwest        Evergreen    IL              60805        504       $18,133.92
 Coalition           Vegetable                     Park
                     Box
Village Pantry      Precooked      Midwest        Evergreen    IL              60805        288       $23,362.56
 Coalition           Meat Box
Village Pantry      Precooked      Midwest        Evergreen    IL              60805        144       $11,681.28
 Coalition           Meat Box                      Park
Village             Fresh Fruit/   Mountain       Overland     KS              66221        240        $6,216.00
 Presbyterian        Vegetable      Plains         Park
 Church              Box
Village             Fresh Fruit/   Mountain       Overland     KS              66221         80        $2,072.00
 Presbyterian        Vegetable      Plains         Park
 Church              Box
Village View Early  Fluid Milk     South East     Summerfield  FL              34491         80          $303.20
Villages at Roll    Fresh Fruit/   Midwest        Cincinnati   OH              45225        675        $8,437.50
 Hill                Vegetable
                     Box
Villas Del          Fresh Fruit/   Mid-Atlantic   Caguas       PR              00725        165        $6,435.00
 Peregrino           Vegetable
                     Box
Vincennes Food      Dairy          Midwest        Vincennes    IN              47591        420       $10,500.00
 Pantry              Products Box
Vincennes Food      Fluid Milk     Midwest        Vincennes    IN              47591      3,402        $7,654.50
 Pantry
Vindeket            Fresh Fruit/   Mountain       Fort         Co              80524      1,568       $31,312.96
                     Vegetable      Plains         Collins
                     Box
Vine and Village    Combination    South West     Little Rock  AR              72204      2,880      $100,713.60
                     Box
Vine and Village    Fluid Milk     South West     Little Rock  AR              72204      1,909       $45,701.46
Vine and Village    Fluid Milk     South West     Little Rock  AR              72205        585       $14,004.90
Vine and Village    Fresh Fruit/   South West     Little Rock  AR              72204      3,631       $65,318.30
                     Vegetable
                     Box
Vine and Village    Fresh Fruit/   South West     Little Rock  AR              72206         96        $2,236.80
                     Vegetable
                     Box
Vine Maple Place    Combination    Western        Seattle      WA              98108         90        $3,150.00
 WC                  Box
Vine Maple Place    Dairy          Western        Seattle      WA              98108         30          $900.00
 WC                  Products Box
Vine Maple Place    Fresh Fruit/   Western        Seattle      WA              98108         49        $1,323.00
 WC                  Vegetable
                     Box
Vineyard Christian  Combination    Mountain       Kansas City  MO              64155      1,134       $39,655.98
                     Box            Plains
Vineyard Christian  Dairy          Mountain       Kansas City  MO              64155      2,448      $112,020.48
                     Products Box   Plains
Vineyard Christian  Fresh Fruit/   Mountain       Kansas City  MO              64155      2,016       $38,505.60
                     Vegetable      Plains
                     Box
Vineyard Christian  Combination    Western        Garden City  ID              83714        560       $24,640.00
 Fellowship          Box
Vineyard Christian  Dairy          Western        Anaheim      CA              92807      2,500       $80,000.00
 Fellowship          Products Box
Vineyard Christian  Fluid Milk     Western        Anaheim      CA              92807      4,320       $20,520.00
 Fellowship
Vineyard Christian  Fresh Fruit/   Western        Garden City  ID              83714        840       $21,840.00
 Fellowship          Vegetable
                     Box
Vineyard Church     Fresh Fruit/   Midwest        Des Moines   IA              50310      1,335       $19,357.50
                     Vegetable
                     Box
Vineyard Community  Dairy          South West     Glendale     AZ              85302        792       $20,988.00
 Charities           Products Box
Vineyard Community  Fresh Fruit/   South West     Glendale     AZ              85302        632       $13,809.20
 Charities           Vegetable
                     Box
Vineyard Community  Dairy          Midwest        Wickliffe    OH              44092        700       $17,500.00
 Church              Products Box
Vineyard Community  Fresh Fruit/   South West     Glendale     AZ              85302         80        $1,748.00
 Church              Vegetable
                     Box
Vineyard Curch.     Fluid Milk     Midwest        Springdale   OH              45246        720        $2,390.40
 Cin.
Vinita Foursquare   Combination    South West     Vinita       OK              74332      2,496       $87,285.12
 Church              Box
Vinita Foursquare   Dairy          South West     Vinita       OK              74332      2,688      $123,002.88
 Church              Products Box
Vinita Foursquare   Fluid Milk     South West     Vinita       OK              74332      1,575       $37,705.50
 Church
Vinita Foursquare   Fresh Fruit/   South West     Vinita       OK              74332      7,794      $128,637.00
 Church              Vegetable
                     Box
Violence in Boston  Fresh Fruit/   North East     Roxbury      MA              02116        210        $5,592.00
                     Vegetable
                     Box
Violence in Boston  Fresh Fruit/   North East     Roxbury      MA              02121        146        $4,228.44
                     Vegetable
                     Box
Virginia Peninsula  Dairy          Mid-Atlantic   Hampton      VA              23661      4,368      $141,610.56
 Food Bank           Products Box
Virginia Peninsula  Fluid Milk     Mid-Atlantic   Hampton      VA              23661      2,304        $8,885.76
 Food Bank
Virginia Peninsula  Fresh Fruit/   Mid-Atlantic   Hampton      VA              23661      7,371      $150,859.80
 Food Bank           Vegetable
                     Box
Virginia S Baker    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21224        900       $18,000.00
                     Vegetable
                     Box
Vision Celestial    Fresh Fruit/   Midwest        Chicago      IL              60647        189        $6,800.22
                     Vegetable
                     Box
Vision Ministries   Fresh Fruit/   Midwest        Toledo       OH              43609        225        $2,812.50
                     Vegetable
                     Box
Visionary Ministry  Fluid Milk     South East     Bessemer     AL              35022      6,120       $23,266.80
Vista Unified SD    Fresh Fruit/   Western        Vista        CA              92083      1,920       $48,000.00
                     Vegetable
                     Box
Viste               Fluid Milk     South East     Lakeland     FL              33801      1,240        $4,879.60
Vivien T. Thomas    Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21223        150        $3,000.00
 Medical Arts        Vegetable
 Academ.             Box
Voac Pines          Fluid Milk     South East     Valdosta     GA              31601        728        $2,759.12
Voase Millenium     Fluid Milk     South East     Cuthbert     GA              39840        840        $3,183.60
 Ctr.
Voase Mobile        Fluid Milk     South East     Mobile       AL              36608      1,260        $4,775.40
Voice of Hope       Fresh Fruit/   South West     Dallas       TX              75212        918       $15,596.82
 Ministries          Vegetable
                     Box
Volunteer Kansas    Combination    Mountain       Independenc  MO              64050      1,470       $51,405.90
 City                Box            Plains         e
Volunteer Kansas    Dairy          Mountain       Independenc  MO              64050      2,088       $95,546.88
 City                Products Box   Plains         e
Volunteer Kansas    Fresh Fruit/   Mountain       Independenc  MO              64050      1,932       $45,015.60
 City                Vegetable      Plains         e
                     Box
W Bridgewater High  Fresh Fruit/   North East     West         MA              02379        497       $10,909.15
 Sch.                Vegetable                     Bridgewate
                     Box                           r
Wagoner County      Combination    South West     Wagoner      OK              74467      2,880      $100,713.60
 Outreach            Box
Wagoner County      Dairy          South West     Wagoner      OK              74467      1,824       $83,466.24
 Outreach            Products Box
Wagoner County      Fresh Fruit/   South West     Wagoner      OK              74467        539       $10,294.90
 Outreach            Vegetable
                     Box
Wagons With         Fresh Fruit/   South East     Holt         FL              32564        750       $21,750.00
 Provisions          Vegetable
                     Box
Waheo Inc.          Fresh Fruit/   Western        Vacaville    CA              95688      2,912       $49,504.00
                     Vegetable
                     Box
Waianae District    Fresh Fruit/   Western        Waianae      HI              96792      5,000      $180,000.00
 Comprehensive       Vegetable
                     Box
Waianae District    Precooked      Western        Waianae      HI              96792      3,924      $156,960.00
 Comprehensive       Meat Box
Wake Co. Co-Op      Fresh Fruit/   South East     Cary         NC              27511        720        $8,280.00
 Cary Pres.          Vegetable
                     Box
Wake Co. Co-Op      Fresh Fruit/   South East     Raleigh      NC              27604        450        $5,175.00
 Dream Cntr.         Vegetable
                     Box
Wake Co. Coop.      Fresh Fruit/   South East     Cary         NC              27511      5,168       $60,675.20
 Kirk of Kildaire    Vegetable
                     Box
Wakefield High      Fresh Fruit/   North East     Wakefield    MA              01880        336        $7,375.20
 School              Vegetable
                     Box
Waldron School      Combination    South West     Waldron      AR              72958      1,056       $36,928.32
 District            Box
Waldron School      Fluid Milk     South West     Waldron      AR              72958      1,138       $27,243.72
 District
Waldron School      Fresh Fruit/   South West     Waldron      AR              72958      3,185       $69,888.70
 District            Vegetable
                     Box
Walker County GA    Fresh Fruit/   South East     Lafayette    GA              30728        700       $14,000.00
 School              Vegetable
                     Box
Walled Lake         Fresh Fruit/   Midwest        Walled Lake  MI              48390      1,600       $33,100.00
 Central             Vegetable
                     Box
Walled Lake         Fresh Fruit/   Midwest        Walled Lake  MI              48390      2,200       $45,512.50
 Western             Vegetable
                     Box
Waller Assistance   Fluid Milk     South West     Waller       TX              77484      1,080        $3,466.80
Walnut Rdge         Fresh Fruit/   South West     Mansfield    TX              76063        128        $2,174.72
 Baptist Church      Vegetable
                     Box
Walpole High        Fresh Fruit/   North East     Walpole      MA              02081        672       $14,750.40
 School              Vegetable
                     Box
Walt Disney Elem.   Fresh Fruit/   Western        San Ramon    CA              94582        154        $4,147.22
                     Vegetable
                     Box
Waltham McDevitt    Fresh Fruit/   North East     Waltham      MA              02452        280        $6,146.00
 Middle Sch.         Vegetable
                     Box
Waltham Plympton    Fresh Fruit/   North East     Waltham      MA              02451         56        $1,229.20
 School              Vegetable
                     Box
Wampanoah Tribe of  Fresh Fruit/   North East     Aquinnah     MA              02535         22          $622.99
 Gay Head            Vegetable
                     Box
Wampanoah Tribe of  Fresh Fruit/   North East     Aquinnah     MA              02536         53        $1,420.05
 Gay Head            Vegetable
                     Box
Wampanoah Tribe of  Fresh Fruit/   North East     Aquinnah     MA              02538         29          $786.86
 Gay Head            Vegetable
                     Box
Wareham COA         Combination    North East     Wareham      MA              02571         27          $885.60
                     Box
Wareham COA         Precooked      North East     Wareham      MA              02571         27        $1,466.10
                     Meat Box
Warehouse of Hope   Fluid Milk     South East     Douglasvill  GA              30134      2,700       $10,233.00
                                                   e
Warehouse of Hope   Fresh Fruit/   South East     Douglasvill  GA              30134      1,910       $36,175.40
                     Vegetable                     e
                     Box
Warm Springs        Dairy          Western        Warm         OR              97761        820       $24,600.00
 Community Center    Products Box                  Springs
Warm Springs        Fresh Fruit/   Western        Warm         OR              97761        840       $39,480.00
 Community Center    Vegetable                     Springs
                     Box
Warm Springs        Dairy          Western        Warm         OR              97761        100        $3,000.00
 Presbyterian        Products Box                  Springs
Warm Springs        Fresh Fruit/   Western        Warm         OR              97761        120        $5,640.00
 Presbyterian        Vegetable                     Springs
                     Box
Warming Workship    Precooked      Midwest        Chicago      IL              60623        144       $11,681.28
 Center              Meat Box
Warming Worship     Fresh Fruit/   Midwest        Chicago      IL              60623        189        $6,800.22
 Center              Vegetable
                     Box
Warming Worship     Dairy          Midwest        Chicago      IL              60623        150        $3,750.00
 Center Box          Products Box
Warren              Fresh Fruit/   Midwest        Warren       MI              48091     14,616      $525,883.68
                     Vegetable
                     Box
Warren City Hall    Fresh Fruit/   Midwest        Warren       MI              48093      2,900       $43,355.00
                     Vegetable
                     Box
Warren Community    Fresh Fruit/   South East     Somerville   TN              38068      2,052       $50,274.00
 Church              Vegetable
                     Box
Warren              Fresh Fruit/   Midwest        Warren       MI              48092      2,100       $44,800.00
 Consolidated        Vegetable
                     Box
Warren County       Fresh Fruit/   South East     Vicksburg    MS              39180      4,136       $82,595.92
 Board of            Vegetable
 Supervisors         Box
Warren County       Precooked      Midwest        Middletown   OH              45005      2,400       $76,599.00
 Meals on Wheels     Meat Box
Warren Family       Precooked      Midwest        Warren       OH              44485        225       $10,236.75
 Mission             Meat Box
Warren Food Pantry  Dairy          Midwest        Warren       IN              46792        252        $9,282.00
                     Products Box
Warren Salvation    Precooked      Midwest        Warren       OH              44483         93        $4,342.17
 Army                Meat Box
Warren Senior       Dairy          Midwest        South Haven  MI              49090         55        $1,595.00
 Center              Products Box
Warren Senior       Fresh Fruit/   Midwest        South Haven  MI              49090        195        $4,053.75
 Center              Vegetable
                     Box
Warren Tower High   Fresh Fruit/   Midwest        Warren       MI              48088        600        $8,970.00
 School              Vegetable
                     Box
Warren Tower High   Fresh Fruit/   Midwest        Warren       MI              48093        300        $4,485.00
 School              Vegetable
                     Box
Warrensville        Dairy          Midwest        Warrensvill  OH              44128         60        $1,446.00
 Heights Ward 4      Products Box                  e
Warrensville        Dairy          Midwest        Warrensvill  OH              44128         30          $723.00
 Heights Ward 4      Products Box                  e Heights
Warrensville        Fresh Fruit/   Midwest        Warrensvill  OH              44128         80        $2,120.00
 Heights Ward 4      Vegetable                     e
                     Box
Warrensville        Fresh Fruit/   Midwest        Warrensvill  OH              44128         40        $1,060.00
 Heights Ward 4      Vegetable                     e Heights
                     Box
Warrensville Hts    Dairy          Midwest        Warrensvill  OH              44128        542       $13,550.00
 City School         Products Box                  e Heights
Washburn Rural      Fresh Fruit/   Mountain       Topeka       KS              66610      5,280      $136,752.00
 High School         Vegetable      Plains
                     Box
Washington          Fresh Fruit/   Western        Seattle      WA              98118        180        $4,950.00
 Building Leaders    Vegetable
 of Change           Box
Washington County   Fresh Fruit/   South East     Plymouth     NC              27962        240        $8,570.40
 CSFP                Vegetable
                     Box
Washington County   Dairy          Mid-Atlantic   Washington   PA              15301      1,000       $18,860.00
 Fairgrounds         Products Box
Washington County   Fluid Milk     Mid-Atlantic   Brownsville  PA              15417        200        $2,200.00
 Food Bank
Washington County   Fresh Fruit/   Mid-Atlantic   Brownsville  PA              15417        750       $12,000.00
 Food Bank           Vegetable
                     Box
Washington County   Fresh Fruit/   South East     Creswell     NC              27928        120        $4,285.20
 Mobile Food         Vegetable
 Pantry              Box
Washington County   Fresh Fruit/   South East     Sandersvill  GA              31082        960       $18,182.40
 Sheriff             Vegetable                     e
                     Box
Washington Cty.     Combination    Western        Beaverton    OR              97006      2,460       $86,100.00
 Services            Box
Washington Cty.     Dairy          Western        Beaverton    OR              97006      2,600       $78,000.00
 Services            Products Box
Washington Cty.     Fresh Fruit/   Western        Beaverton    OR              97006      3,880      $104,760.00
 Services            Vegetable
                     Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85023        655       $17,685.00
 Elementary Acacia   Vegetable
                     Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85053        200        $5,400.00
 Elementary Acacia   Vegetable
                     Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85029        200        $5,400.00
 Elementary Cholla   Vegetable
                     Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85020        100        $2,700.00
 Elementary Desert   Vegetable
 View                Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85053        250        $6,750.00
 Elementary          Vegetable
 Ironwood            Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85023        340        $9,180.00
 Elementary          Vegetable
 Lookout Mountain    Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85015        100        $2,700.00
 Elementary          Vegetable
 Maryland            Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85029        675       $18,225.00
 Elementary          Vegetable
 Mountain View       Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85017        475       $12,825.00
 Elementary          Vegetable
 Ocotillo            Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85017        395       $10,665.00
 Elementary          Vegetable
 Orangewood          Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85051        555       $14,985.00
 Elementary Palo     Vegetable
 Verde               Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85051        200        $5,400.00
 Elementary          Vegetable
 Roadrunner          Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85021        310        $8,370.00
 Elementary Royal    Vegetable
 Palm                Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85029        860       $23,220.00
 Elementary Shaw     Vegetable
 Butte               Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85020        150        $4,050.00
 Elementary          Vegetable
 Sunnyslope          Box
Washington          Fresh Fruit/   South West     Glendale     AZ              85302        385       $10,395.00
 Elementary Sunset   Vegetable
                     Box
Washington          Fresh Fruit/   South West     Phoenix      AZ              85302        150        $4,050.00
 Elementary Sunset   Vegetable
                     Box
Washington Heights  Dairy          Midwest        Battle       MI              49037        360       $10,440.00
 UMC                 Products Box                  Creek
Washington Heights  Fresh Fruit/   Midwest        Battle       MI              49037        660       $13,995.00
 UMC                 Vegetable                     Creek
                     Box
Washington Heights  Fresh Fruit/   Midwest        Battle       MI              49037        189        $6,800.22
 United Methodist    Vegetable                     Creek
                     Box
Washington Whitmer  Fresh Fruit/   Midwest        Toledo       OH              43613      2,133       $26,662.50
 HS                  Vegetable
                     Box
Waste Morongo       Fresh Fruit/   Western        Joshua Tree  CA              92252      2,000       $50,000.00
 Basin               Vegetable
                     Box
Water Street        Fresh Fruit/   Mid-Atlantic   Lancaster    PA              17603        540       $18,480.00
 Ministries          Vegetable
                     Box
Waterford Senior    Fresh Fruit/   Midwest        Waterford    MI              48328        400        $5,980.00
 Center              Vegetable
                     Box
Waterfront Rescue   Fresh Fruit/   South East     Mobile       AL              36603        700       $20,300.00
 Mission             Vegetable
                     Box
Waterfront Rescue   Fresh Fruit/   South East     Pensacola    FL              32505        300        $8,700.00
 Mission Inc. PNS    Vegetable
                     Box
Watermark CDC       Combination    South West     Dallas       TX              75212        300       $10,491.00
 Services of Hope    Box
Watermark CDC       Dairy          South West     Dallas       TX              75212        700       $32,032.00
 Services of Hope    Products Box
Watermark CDC       Fresh Fruit/   South West     Dallas       TX              75212      1,000       $21,830.00
 Services of Hope    Vegetable
                     Box
Watertown City      Dairy          North East     Watertown    NY              13601        146        $6,307.20
 School              Products Box
Watertown City      Fresh Fruit/   North East     Evans Mills  NY              13637         42          $924.00
 School              Vegetable
                     Box
Watertown City      Fresh Fruit/   North East     Watertown    NY              13601        336        $7,392.00
 School              Vegetable
                     Box
Watertown City      Precooked      North East     Evans Mills  NY              13637         42        $2,251.20
 School              Meat Box
Watertown City      Precooked      North East     Watertown    NY              13601        294       $15,758.40
 School              Meat Box
Watertown Food      Fresh Fruit/   North East     Watertown    MA              02472         40        $1,137.60
 Pantry              Vegetable
                     Box
Watertown High      Fresh Fruit/   North East     Watertown    MA              02472        658       $14,443.10
 School              Vegetable
                     Box
Watertown Urban     Dairy          North East     Carthage     NY              13619        240       $10,368.00
 Mission             Products Box
Watertown Urban     Dairy          North East     Watertown    NY              13601        168        $7,257.60
 Mission             Products Box
Watertown Urban     Fresh Fruit/   North East     Carthage     NY              13619        210        $4,620.00
 Mission             Vegetable
                     Box
Watertown Urban     Fresh Fruit/   North East     Watertown    NY              13601        168        $3,696.00
 Mission             Vegetable
                     Box
Watertown Urban     Precooked      North East     Carthage     NY              13619        210       $11,256.00
 Mission             Meat Box
Watertown Urban     Precooked      North East     Watertown    NY              13601        168        $9,004.80
 Mission             Meat Box
Waterville Schools  Dairy          North East     Waverville   NY              13480        360       $17,820.00
                     Products Box
Waterville Schools  Fresh Fruit/   North East     Waverville   NY              13480        360       $10,728.00
                     Vegetable
                     Box
Wattle Park         Fresh Fruit/   Midwest        Battle       MI              49014        280       $10,074.40
 Elementary          Vegetable                     Creek
                     Box
Watts Empowerment   Fresh Fruit/   Western        Los Angeles  CA              90059      2,820       $53,560.00
 Center              Vegetable
                     Box
Waukee Area         Fresh Fruit/   Midwest        Waukee       IA              50263      2,320       $33,640.00
 Christian           Vegetable
 Services            Box
Waupun Food Pantry  Fresh Fruit/   Midwest        Waupun       WI              53963         80        $1,036.00
                     Vegetable
                     Box
Waushara            Fresh Fruit/   Midwest        Wautoma      WI              54982        674       $19,889.74
 Industries          Vegetable
                     Box
Wave Pool Gallery   Fresh Fruit/   Midwest        Cincinnati   OH              45225        192        $3,744.00
                     Vegetable
                     Box
Waxahachie Care     Fresh Fruit/   South West     Waxahachie   TX              75165      1,640       $27,863.60
                     Vegetable
                     Box
Way of Life Church  Fresh Fruit/   South East     Grenada      MS              38901      3,400       $93,500.00
                     Vegetable
                     Box
Way Station         Precooked      Midwest        Youngstown   OH              44502      2,180       $97,488.20
                     Meat Box
Wayland Baptist     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21216        300        $6,285.00
                     Vegetable
                     Box
Wayne Co. Schools   Fluid Milk     South East     Monticello   KY              42633      1,752        $6,640.08
Wayne County 1C     Fresh Fruit/   Midwest        Wayne        MI              48184        350        $5,232.50
                     Vegetable
                     Box
Wayne County        Fresh Fruit/   Midwest        Detroit      MI              48213      1,698       $25,385.10
 Community College   Vegetable
                     Box
Wayne County        Precooked      Midwest        Wooster      OH              44691         90        $4,023.10
 Salvation Army      Meat Box
Wayne Metro         Fresh Fruit/   Midwest        Highland     MI              48203        250        $3,737.50
 Community Action    Vegetable                     Park
 Agency              Box
Wayne Metro:        Dairy          Midwest        Highland     MI              48203        500       $16,875.00
 George Washington   Products Box                  Park
 Carver Academy
Wayne Metro:        Precooked      Midwest        Highland     MI              48203        500       $23,845.00
 George Washington   Meat Box                      Park
 Carver Academy
Wayne Metro: Unity  Dairy          Midwest        Detroit      MI              48204      1,000       $33,750.00
 Baptist Church      Products Box
Wayne Metro: Unity  Precooked      Midwest        Detroit      MI              48204      1,021       $48,691.49
 Baptist Church      Meat Box
Wayne Metro--       Dairy          Midwest        Taylor       MI              48180        500       $16,875.00
 Dwnriver.           Products Box
Wayne Metro--       Precooked      Midwest        Taylor       MI              48180        500       $23,845.00
 Dwnriver.           Meat Box
Wayne Metro--St.    Dairy          Midwest        Dearborn     MI              48125      1,000       $33,750.00
 Alfred              Products Box                  Heights
Wayne Metro--St.    Precooked      Midwest        Dearborn     MI              48125        500       $23,845.00
 Alfred              Meat Box                      Heights
Wayne YMCA          Fresh Fruit/   Mid-Atlantic   Wayne        NJ              07470      1,323       $25,070.85
                     Vegetable
                     Box
Wayside Christian   Fluid Milk     South East     Louisville   KY              40219        540        $1,215.00
 Mission
WDAF TV Love Fund   Dairy          Mountain       Lees Summit  MO              64064      1,872       $85,662.72
 for Children        Products Box   Plains
WDAF TV Love Fund   Fresh Fruit/   Mountain       Lees Summit  MO              64064      2,016       $38,505.60
 for Children        Vegetable      Plains
                     Box
We Care Ministries  Dairy          South East     Martin       TN              38237      1,000       $25,000.00
                     Products Box
We Care We Share    Fluid Milk     Midwest        Lorain       OH              44055        360        $1,195.20
We Don't Waste      Fluid Milk     Mountain       Denver       Co              80216      2,304        $6,727.68
                                    Plains
We Don't Waste      Fresh Fruit/   Mountain       Denver       Co              80216      8,153      $313,514.00
                     Vegetable      Plains
                     Box
We Eat Together     Fresh Fruit/   South East     Ellenwood    GA              30294         80        $1,515.20
 Youth Fou.          Vegetable
                     Box
We Love Buhi--      Fresh Fruit/   South East     Chamblee     GA              30341        400        $8,000.00
 Laventure           Vegetable
                     Box
We Share Hope       Fresh Fruit/   North East     Warren       RI              02885      2,424       $43,632.00
                     Vegetable
                     Box
Weatherford Food    Fluid Milk     South West     Weatherford  OK              73096        495       $11,850.30
 and Rescue
Weatherford Food    Fresh Fruit/   South West     Weatherford  OK              73096      2,134       $32,685.20
 and Rescue          Vegetable
                     Box
Webb City R-7       Fresh Fruit/   Mountain       Webb City    MO              64870      3,120       $80,808.00
                     Vegetable      Plains
                     Box
Webster Bartlett    Fresh Fruit/   North East     Webster      MA              01570        217        $4,763.15
 High Sch.           Vegetable
                     Box
Webster Co. High    Fluid Milk     South East     Dixon        KY              42409      6,093       $13,709.25
 School
Webster Groves      Fresh Fruit/   Mountain       Webster      MO              63119        144        $4,608.00
 High Sch.           Vegetable      Plains         Groves
                     Box
Webster Park Ave.   Fresh Fruit/   North East     Webster      MA              01570        441        $9,679.95
 School              Vegetable
                     Box
Wegienka            Fresh Fruit/   Midwest        Brownstown   MI              48134         75        $1,121.25
 Elementary School   Vegetable
                     Box
Weidman             Fresh Fruit/   Midwest        Weidman      MI              48893        260        $5,527.50
                     Vegetable
                     Box
Weinberg Food Elk   Fresh Fruit/   Mid-Atlantic   Springville  PA              18844        315        $5,969.25
 Lake                Vegetable
                     Box
Weinberg Food       Fresh Fruit/   Mid-Atlantic   Pittston     PA              18640      1,449       $27,458.55
 Pittston            Vegetable
                     Box
Weinberg Food       Fresh Fruit/   Mid-Atlantic   Tunkhannock  PA              18657        378        $7,163.10
 Tunkhannock HS      Vegetable
                     Box
Weinberg Forest     Fresh Fruit/   Mid-Atlantic   Forest City  PA              18421        378        $7,163.10
 City Salvation      Vegetable
 Army                Box
Weinberg Moosic     Fresh Fruit/   Mid-Atlantic   Moosic       PA              18507        378        $7,163.10
 Youth Center        Vegetable
                     Box
Weinberg Salvation  Fresh Fruit/   Mid-Atlantic   Scranton     PA              18505        252        $4,775.40
 Army Scranton       Vegetable
                     Box
Weippe Fire         Fresh Fruit/   Western        Weippe       ID              83553         75        $2,250.00
 Station             Vegetable
                     Box
Welcoming ATL--2    Fresh Fruit/   South East     Mableton     GA              30126        270        $5,400.00
 Acacia              Vegetable
                     Box
Welcoming ATL 4377  Fresh Fruit/   South East     Ellenwood    GA              30288         70        $1,400.00
 Hwy 42              Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     East Point   GA              30344      1,280       $25,600.00
                     Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Forest Park  GA              30297      2,700       $54,000.00
                     Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Atlanta      GA              30319      1,180       $23,600.00
 1155 Woodland       Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Atlanta      GA              30306        440        $8,800.00
 1676 Briarcliff     Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Atlanta      GA              30324        660       $13,200.00
 2572 Lenox          Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Chamblee     GA              30341      2,210       $44,200.00
 3302 Laventure      Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Chamblee     GA              30341        660       $13,200.00
 3354 Burk           Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Atlanta      GA              30319        150        $3,000.00
 3703 Peachtree      Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Hapeville    GA              30354        410        $8,200.00
 558 College         Vegetable
                     Box
Welcoming Atlanta   Fresh Fruit/   South East     Atlanta      GA              30306        290        $5,800.00
 894 Briarcliff      Vegetable
                     Box
Weld County Food    Fluid Milk     Mountain       Greeley      Co              80631      6,336       $15,840.00
 Bank                               Plains
Weld County Food    Fresh Fruit/   Mountain       Greeley      Co              80631      4,500       $96,359.40
 Bank                Vegetable      Plains
                     Box
Well Comm. Church   Fresh Fruit/   Western        Modesto      CA              95355        784       $21,113.12
                     Vegetable
                     Box
Well of Hope        Fresh Fruit/   Mountain       Mineral      MO              63660      2,650       $72,875.00
                     Vegetable      Plains         Point
                     Box
Well of Hope        Fresh Fruit/   Mountain       Patton       MO              63662        300        $8,250.00
                     Vegetable      Plains
                     Box
Wellesley High      Fresh Fruit/   North East     Wellesley    MA              02481         56        $1,229.20
 School              Vegetable
                     Box
Wellesley Middle    Fresh Fruit/   North East     Wellesley    MA              02481        280        $6,146.00
 School              Vegetable
                     Box
Wellfleet Elem.     Fresh Fruit/   North East     Wellfleet    MA              02667        280        $6,146.00
 Sch.                Vegetable
                     Box
Wellness in the     Fresh Fruit/   North East     New York     NY              10024         40          $720.00
 Schools Nyc         Vegetable
                     Box
Wellspring          Dairy          North East     Canandaigua  NY              14424        300       $13,260.00
                     Products Box
Wellspring          Dairy          North East     Clifton      NY              14432        900       $39,780.00
                     Products Box                  Springs
Wellspring          Dairy          North East     Geneva       NY              14456        315       $13,923.00
                     Products Box
Wellspring          Precooked      North East     Canandaigua  NY              14424        336       $18,345.60
                     Meat Box
Wellspring          Precooked      North East     Clifton      NY              14432        636       $34,725.60
                     Meat Box                      Springs
Wellspring          Precooked      North East     Geneva       NY              14456        315       $17,199.00
                     Meat Box
Wellspring Church   Combination    South East     Ruskin       FL              33570      1,344      $102,211.20
 (ARC)               Box
Wellsville School   Fresh Fruit/   North East     Wellsville   NY              14895        800       $18,280.00
                     Vegetable
                     Box
Wendel D. Ley       Fresh Fruit/   South West     Houston      TX              77049      5,932      $100,784.68
 Family YMCA         Vegetable
                     Box
Werner Mobile Food  Dairy          Mid-Atlantic   Werner       PA              19565        180        $7,200.00
 Bank Helping        Products Box
 Harvest
Wesley Chapel       Fresh Fruit/   South East     Wesley       FL              33549        485       $12,125.00
 Lions Foundation    Vegetable                     Chapel
                     Box
Wesley Rankin       Fresh Fruit/   South West     Dallas       TX              75212      1,168       $16,928.32
 Community Center    Vegetable
                     Box
Wesley Youth        Fresh Fruit/   South East     Tchula       MS              39169        400        $7,980.00
 Foundation          Vegetable
                     Box
Wesleyan Chapel     Fresh Fruit/   South East     Rocky Point  NC              28457        200        $2,300.00
                     Vegetable
                     Box
West                Fresh Fruit/   Midwest        Canton       MI              48170        175        $3,543.75
                     Vegetable
                     Box
West ADA District/  Combination    Western        Meridian     ID              83642        250       $11,000.00
 Joint Schl. 2       Box
West Alabama Food   Fluid Milk     South East     Northport    AL              35476      6,048       $23,613.12
 Bank
West Alabama Food   Fresh Fruit/   South East     Northport    AL              35476      7,386      $191,666.70
 Bank                Vegetable
                     Box
West Baton Council  Fluid Milk     South West     Port Allen   LA              70767      1,192        $3,518.92
West Bloomfield HS  Dairy          Midwest        West         MI              48323        120        $3,480.00
                     Products Box                  Bloomfield
West Bloomfield HS  Fresh Fruit/   Midwest        West         MI              48323        240        $5,070.00
                     Vegetable                     Bloomfield
                     Box
West Branch-Rose    Fresh Fruit/   Midwest        Rose City    MI              48654        329       $11,837.42
 City Schools        Vegetable
                     Box
West Bridgwater     Combination    North East     West         MA              02379         25          $820.00
 COA                 Box                           Bridgewate
                                                   r
West Bridgwater     Precooked      North East     West         MA              02379         25        $1,357.50
 COA                 Meat Box                      Bridgewate
                                                   r
West Broadway       Fluid Milk     South East     Madisonvill  KY              42431        900        $2,025.00
                                                   e
West Buffalo        Fresh Fruit/   North East     Buffalo      NY              14213        150        $3,427.50
 Charter School      Vegetable
                     Box
West Columbia       Fluid Milk     South West     West         TX              77486        900        $2,860.00
 Eleme                                             Columbia
West County Caring  Fresh Fruit/   Mountain       Leadwood     MO              63653        660       $18,150.00
 Communities         Vegetable      Plains
                     Box
West County Hope    Fluid Milk     Mountain       Leadwood     MO              63653        486        $1,093.50
 Center                             Plains
West Deerfield      Combination    Midwest        Deerfield    IL              60015         60        $1,408.20
 Township            Box
West Dumas          Combination    South West     Dumas        AR              71639        768       $26,856.96
 Community Family    Box
West Dumas          Dairy          South West     Dumas        AR              71639        576       $26,357.76
 Community Family    Products Box
West Dumas          Fresh Fruit/   South West     Dumas        AR              71639      1,078       $17,787.00
 Community Family    Vegetable
                     Box
West End House      Fresh Fruit/   North East     Allston      MA              02134      1,456       $31,959.20
 Inc.                Vegetable
                     Box
West Essex YMCA     Fresh Fruit/   Mid-Atlantic   Livingston   NJ              07039        630       $11,938.50
                     Vegetable
                     Box
West Haven Homes    Fresh Fruit/   Midwest        Chicago      IL              60609         63        $2,266.74
                     Vegetable
                     Box
West Hertel         Fresh Fruit/   North East     Buffalo      NY              14207        525       $11,996.25
 Academy             Vegetable
                     Box
West Houston        Fluid Milk     South West     Houston      TX              77042      4,320       $13,867.20
 Assistance
West Houston        Fresh Fruit/   South West     Houston      TX              77042      2,936       $49,882.64
 Assistance          Vegetable
                     Box
West Lake           Dairy          Midwest        Westlake     OH              44145         40          $964.00
                     Products Box
West Leyden High    Dairy          Midwest        Northlake    IL              60164        192        $5,712.00
                     Products Box
West Leyden High    Fresh Fruit/   Midwest        Northlake    IL              60164        216        $5,940.00
                     Vegetable
                     Box
West Mass Elder     Combination    North East     Holyoke      MA              01040        231        $7,738.00
 Care                Box
West Mass Elder     Precooked      North East     Holyoke      MA              01040        400       $21,720.00
 Care                Meat Box
West Michigan       Fresh Fruit/   Midwest        Walker       MI              49534        660       $23,746.80
 Academy             Vegetable
                     Box
West Michigan       Fresh Fruit/   Midwest        Kentwood     MI              49508      1,099       $39,542.02
 Asian American      Vegetable
 St. Mary            Box
 Magdelene Chu.
West Mount Sinai    Fluid Milk     South East     Barnesville  GA              30204        152          $576.08
 B.
West Ohio Food      Dairy          Midwest        Lima         OH              45804      6,070      $151,750.00
 Bank                Products Box
West Ohio Food      Fluid Milk     Midwest        Lima         OH              45804      1,800        $6,390.00
 Bank
West Ohio Food      Fresh Fruit/   Midwest        Lima         OH              45804     24,480      $396,720.00
 Bank                Vegetable
                     Box
West Ohio Food      Precooked      Midwest        Dayton       OH              45417      2,592      $185,509.44
 Bank                Meat Box
West Oxford         Dairy          South East     Oxford       NC              27565        546        $2,730.00
 Baptist Church      Products Box
West Oxford         Fluid Milk     South East     Oxford       NC              27565      1,140        $4,560.00
 Baptist Church
West Oxford         Precooked      South East     Oxford       NC              27565      1,145       $22,327.50
 Baptist Church      Meat Box
West Palm Beach     Combination    South East     West Palm    FL              33405      1,120       $85,176.00
 Golf Course         Box                           Beach
West Penn School    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15227        560       $16,800.00
 of Nursing          Vegetable
                     Box
West Platte R-1     Fresh Fruit/   Mountain       Weston       MO              64098        560       $14,504.00
                     Vegetable      Plains
                     Box
West Platte R-II    Fresh Fruit/   Mountain       Weston       MO              64098      1,200       $31,080.00
                     Vegetable      Plains
                     Box
West School JC      Fluid Milk     Mountain       Jefferson    MO              65101         72          $162.00
                                    Plains         City
West Seattle Food   Fresh Fruit/   Western        Seattle      WA              98126      4,560      $123,120.00
 Bank                Vegetable
                     Box
West Side Campaign  Fresh Fruit/   North East     Bronx        NY              10474     12,000      $239,640.00
 Against Hunger      Vegetable
                     Box
West Side Catholic  Dairy          Midwest        Cleveland    OH              44113        250        $6,025.00
 Center              Products Box
West Side Catholic  Fluid Milk     Midwest        Cleveland    OH              44113         40          $132.80
 Center
West Side Catholic  Fresh Fruit/   Midwest        Cleveland    OH              44113        200        $5,300.00
 Center              Vegetable
                     Box
West Side           Dairy          Midwest        Cleveland    OH              44102         65        $1,625.00
 Community House     Products Box
West Side High      Fresh Fruit/   Mid-Atlantic   Newark       NJ              07103      4,130       $82,600.00
                     Vegetable
                     Box
West Smithfield     Fresh Fruit/   South East     Smithfield   NC              27577        100        $1,150.00
 Elem.               Vegetable
                     Box
West Springfield    Combination    North East     West         MA              01089         80        $2,624.00
 Sr. Ctr.            Box                           Springfiel
                                                   d
West Springfield    Precooked      North East     West         MA              01089         80        $4,344.00
 Sr. Ctr.            Meat Box                      Springfiel
                                                   d
West Suburaban      Fresh Fruit/   Midwest        Geneva       IL              60134      1,680       $60,446.40
 Center              Vegetable
                     Box
West Suburban       Fluid Milk     Midwest        Geneva       IL              60134     30,240      $103,377.60
West Suburban       Precooked      Midwest        Cicero       IL              60804         72        $5,840.64
                     Meat Box
West Suburban       Precooked      Midwest        Cicero       IL              60804        144       $11,681.28
                     Meat Box
West Suburban Area  Fresh Fruit/   Midwest        Geneva       IL              60134      1,512       $54,401.76
                     Vegetable
                     Box
West Suburban       Fresh Fruit/   Midwest        Geneva       IL              60134     21,038      $756,947.24
 Center              Vegetable
                     Box
West Suburban       Dairy          Midwest        Geneva       IL              60134      2,400       $58,248.00
 Center F2F          Products Box
West Suburban       Fresh Fruit/   Midwest        Geneva       IL              60134     12,650      $258,899.40
 Center F2F          Vegetable
                     Box
West Suburban       Precooked      Midwest        Geneva       IL              60134     18,210      $677,450.89
 Center F2F          Meat Box
West Suburban Ctr.  Fluid Milk     Midwest        Geneva       IL              60134     34,560      $117,720.00
West View Food      Dairy          Mid-Atlantic   Pittsburgh   PA              15229        400        $4,400.00
 Pantry              Products Box
Westampton          Fresh Fruit/   Mid-Atlantic   Westampton   NJ              08060        504        $9,550.80
 Emercency. Food     Vegetable
 Dist.               Box
Westchester Babe    Fresh Fruit/   Western        Playa Del    CA              90293        160        $4,000.00
 Ruth                Vegetable                     Rey
                     Box
Westchester Food    Fresh Fruit/   Midwest        Westchester  IL              60154        126        $4,533.48
 Pantry              Vegetable
                     Box
Westchester Food    Precooked      Midwest        Westchester  IL              60154        144       $11,681.28
 Pantry              Meat Box
Westchester Food    Dairy          Midwest        Westchester  IL              60154        144        $3,600.00
 Pantry Box          Products Box
Western Carolina    Fresh Fruit/   South East     Asheville    NC              28806      4,500      $144,000.00
 Ministries          Vegetable
                     Box
Western Eagle       Fluid Milk     Western        Temecula     CA              92591      2,100       $20,979.00
 Foundation
Western Egypitan    Dairy          Midwest        Duquoin      IL              62832         60        $1,785.00
 of Duquoin          Products Box
Western Egypitan    Fresh Fruit/   Midwest        Duquoin      IL              62832         60        $1,650.00
 of Duquoin          Vegetable
                     Box
Western Egyptian    Dairy          Midwest        Duquoin      IL              62832        120        $3,570.00
 of Duquoin          Products Box
Western Egyptian    Fresh Fruit/   Midwest        Duquoin      IL              62832        120        $3,300.00
 of Duquoin          Vegetable
                     Box
Western Idaho       Combination    Western        Weiser       ID              83672        320       $14,080.00
 Comm. Action Par.   Box
Western Idaho       Fresh Fruit/   Western        Weiser       ID              83672        320        $8,320.00
 Comm. Action Par.   Vegetable
                     Box
Western Navajo      Dairy          South West     Tuba City    AZ              86045      2,496       $66,144.00
 Nation              Products Box
Western Navajo      Dairy          South West     Tuba City    AZ              86515      2,496       $66,144.00
 Nation              Products Box
Western Navajo      Fresh Fruit/   South West     Tuba City    AZ              86045      2,496       $54,537.60
 Nation              Vegetable
                     Box
Western Navajo      Fresh Fruit/   South West     Tuba City    AZ              86515      2,496       $54,537.60
 Nation              Vegetable
                     Box
Western Slope       Fresh Fruit/   Mountain       Palisade     Co              81526      6,104      $158,093.60
 Location            Vegetable      Plains
                     Box
Western Slope       Fresh Fruit/   Mountain       Basalt       CO              81621      6,748      $174,773.20
 Secondary           Vegetable      Plains
 Location            Box
Westerville Area    Fresh Fruit/   Midwest        Westerville  OH              43081      1,800       $38,502.00
 Resource Ministry   Vegetable
                     Box
Westerville Area    Precooked      Midwest        Westerville  OH              43081        460       $19,205.80
 Resource Ministry   Meat Box
Westminster COA     Combination    North East     Westminster  MA              01473         20          $760.00
                     Box
Westminster COA     Precooked      North East     Westminster  MA              01473         20        $1,086.00
                     Meat Box
Westmoreland        Combination    North East     Westmorelan  NY              13490        280       $14,490.00
 Central School      Box                           d
Westmoreland        Dairy          North East     Westmorelan  NY              13490        460       $22,770.00
 Central School      Products Box                  d
Westmoreland        Fresh Fruit/   North East     Westmorelan  NY              13490        400       $11,920.00
 Central School      Vegetable                     d
                     Box
Westmoreland        Precooked      North East     Westmorelan  NY              13490        400       $30,000.00
 Central School      Meat Box                      d
Westmoreland        Dairy          Mid-Atlantic   Delmont      PA              15626      3,000       $63,090.00
 County Food Bank    Products Box
Westmoreland        Fresh Fruit/   Mid-Atlantic   Greensburg   PA              15601      3,024       $66,477.60
 County Food Bank    Vegetable
                     Box
Westoco Warehouse   Dairy          South West     Miami        OK              74354      3,168      $144,967.68
 Catholic Diocese    Products Box
Westoco Warehouse   Fluid Milk     South West     Miami        OK              74354      1,500       $35,910.00
 Catholic Diocese
Westoco Warehouse   Fresh Fruit/   South West     Miami        OK              74354      1,333       $29,824.10
 Catholic Diocese    Vegetable
                     Box
Westport            Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21230        700       $14,000.00
                     Vegetable
                     Box
Westridge           Fresh Fruit/   Mountain       Raytown      MO              64138         50        $1,295.00
 Elementary          Vegetable      Plains
 Raytown             Box
Westside Christian  Fresh Fruit/   Western        Kekaha       HI              96752        500       $19,500.00
 Center              Vegetable
                     Box
Westside Church     Dairy          Western        Bend         OR              97701        210        $6,300.00
                     Products Box
Westside Church     Fresh Fruit/   Western        Bend         OR              97701        210        $9,870.00
                     Vegetable
                     Box
Westside Food Bank  Fresh Fruit/   Western        Santa        CA              90404      2,800       $70,000.00
                     Vegetable                     Monica
                     Box
Westside            Combination    Western        Turlock      CA              95380        844       $44,259.36
 Ministries          Box
Westside            Fresh Fruit/   Western        Turlock      CA              95380        140        $5,156.20
 Ministries          Vegetable
                     Box
Westside New        Dairy          Western        Bend         OR              97701        200        $6,000.00
 Horizons            Products Box
Westside New        Fresh Fruit/   Western        Bend         OR              97701        200        $9,400.00
 Horizons            Vegetable
                     Box
Westside Sisters    Dairy          Western        Sisters      OR              97759         70        $2,100.00
                     Products Box
Westside Sisters    Fresh Fruit/   Western        Sisters      OR              97759        297       $13,959.00
                     Vegetable
                     Box
Weymouth Food       Fresh Fruit/   North East     Rockland     MA              02370      1,904       $41,792.80
 Pantry              Vegetable
                     Box
Wheeler Chapel      Fresh Fruit/   South East     Courtland    AL              35618      1,000       $28,000.00
 Church              Vegetable
                     Box
Wheeler Mission     Combination    Midwest        Indianapoli  IN              46204        300       $45,000.00
                     Box                           s
Wheeling Chapel     Fresh Fruit/   South East     Lipscomb     AL              35020      1,484       $38,509.80
 Missionary          Vegetable
 Baptist             Box
Wheeling            Fresh Fruit/   Mountain       Aurora       Co              80012        154        $3,988.60
 Elementary School   Vegetable      Plains
                     Box
Wheeling School     Fresh Fruit/   Midwest        Wheeling     IL              60090        441       $15,867.18
 District            Vegetable
                     Box
Wheels of Hope      Fresh Fruit/   Mountain       Junction     KS              66441        115        $4,600.00
                     Vegetable      Plains
                     Box
Whistlestop         Fresh Fruit/   Western        San Rafael   CA              94901        200        $5,000.00
                     Vegetable
                     Box
Whistlestop View    Fresh Fruit/   Mid-Atlantic   Elizabethto  PA              17022         72        $1,654.56
                     Vegetable                     wn
                     Box
White Co. Senior    Dairy          Midwest        Mcleansboro  IL              62859        100        $2,975.00
                     Products Box
White Co. Senior    Fresh Fruit/   Midwest        Carmi        IL              62821        200        $5,500.00
                     Vegetable
                     Box
White Co. Senior    Fresh Fruit/   Midwest        McCleansbor  IL              62859        200        $5,500.00
                     Vegetable                     o
                     Box
White Co. Senior    Dairy          Midwest        Carmi        IL              62821        800       $23,800.00
 Center              Products Box
White Co. Senior    Fresh Fruit/   Midwest        Carmi        IL              62821        550       $15,125.00
 Center              Vegetable
                     Box
White Co. Senior    Dairy          Midwest        McCleansbor  IL              62859        200        $5,950.00
 McCleansboro        Products Box                  o
White Co. Senior    Fresh Fruit/   Midwest        McCleansbor  IL              62859        200        $5,500.00
 McCleansboro        Vegetable                     o
                     Box
White Co. Senior    Dairy          Midwest        McCleansbor  IL              62859        400       $11,900.00
 McCleansboro        Products Box                  o
White Co. Senior    Fresh Fruit/   Midwest        McCleansbor  IL              62859        400       $11,000.00
 McCleansboro        Vegetable                     o
                     Box
White Oak Music     Fresh Fruit/   South West     Houston      TX              77009        960       $16,310.40
 Hall                Vegetable
                     Box
White Oak Music     Fresh Fruit/   South West     Houston      TX              77009        768       $13,048.32
 Hall YMCA           Vegetable
                     Box
White Pony          Combination    Western        Concord      CA              94521        300        $8,175.00
                     Box
White Pony          Fluid Milk     Western        Concord      CA              94521        576        $2,736.00
White Pony          Fresh Fruit/   Western        Concord      CA              94521        300        $7,425.00
                     Vegetable
                     Box
White Pony Express  Combination    Western        Pleasant     CA              95423        900       $24,525.00
                     Box                           Hill
White Pony Express  Dairy          Western        Pleasant     CA              95423        500       $16,000.00
                     Products Box                  Hill
White Pony Express  Fluid Milk     Western        Pleasant     CA              95423      1,152        $5,472.00
                                                   Hill
White Pony Express  Fresh Fruit/   Western        Pleasant     CA              94523      7,270      $111,455.00
                     Vegetable                     Hill
                     Box
White River         Combination    Midwest        Noblesville  IN              46060        350       $52,500.00
 Christian Church    Box
White River Church  Combination    Midwest        Noblesville  IN              46060      2,000      $300,000.00
 of Christ           Box
White Rock Center   Fresh Fruit/   South West     Dallas       TX              75218        184        $3,126.16
 of Hope             Vegetable
                     Box
White Station       Fresh Fruit/   South East     Memphis      TN              38117      1,098       $26,901.00
 Church of Christ--  Vegetable
 C/O Mid South Foo   Box
White Temple        Combination    Western        Long Beach   CA              90804      1,584       $59,760.00
 Baptist Church      Box
Whitefish Center    Precooked      Midwest        Paradise     MI              49768        155        $5,873.97
                     Meat Box
Whitehall High      Fresh Fruit/   Midwest        Whitehall    MI              49461      1,260       $45,334.80
 School              Vegetable
                     Box
Whitehall Middle    Fresh Fruit/   Midwest        Whitehall    MI              49461        840       $30,223.20
 School              Vegetable
                     Box
Whitley Central     Fluid Milk     South East     Williamsbur  KY              40769        480        $1,819.20
 Int.                                              g
Whitley Co. East    Fluid Milk     South East     Williamsbur  KY              40769        300        $1,137.80
 Ele.                                              g
Whitley Co. North   Fluid Milk     South East     Rockholds    KY              40759        430        $1,629.70
 El.
Whitman             Combination    North East     Whitman      MA              02382         28          $918.40
                     Box
Whitman             Precooked      North East     Whitman      MA              02382         28        $1,520.40
                     Meat Box
Whitmire Community  Fresh Fruit/   South East     Whitmire     SC              29178        225        $6,750.00
                     Vegetable
                     Box
Whitney Point High  Dairy          North East     Whitney      NY              13862        720       $31,824.00
                     Products Box                  Point
Whitney Point High  Dairy          North East     Windsor      NY              13862        300       $13,260.00
                     Products Box
Whitney Point High  Dairy          North East     Windsor      NY              13865        270       $11,934.00
                     Products Box
Whitney Point High  Fresh Fruit/   North East     Whitney      NY              13862        714       $16,422.00
                     Vegetable                     Point
                     Box
Whitney Point High  Fresh Fruit/   North East     Windsor      NY              13862        333        $7,659.00
                     Vegetable
                     Box
Whitney Point High  Fresh Fruit/   North East     Windsor      NY              13865        336        $7,728.00
                     Vegetable
                     Box
Whitney Point High  Precooked      North East     Whitney      NY              13862        798       $43,570.80
                     Meat Box                      Point
Whitney Point High  Precooked      North East     Windsor      NY              13862        315       $17,199.00
                     Meat Box
Whitney Point High  Precooked      North East     Windsor      NY              13865        294       $16,052.40
                     Meat Box
Whittemore          Fresh Fruit/   Midwest        Whittemore   MI              48770      1,750       $62,965.00
 Prescott Schools    Vegetable
                     Box
Whittier City SD    Fresh Fruit/   Western        Whittier     CA              90601         80        $2,000.00
                     Vegetable
                     Box
Who So Ever Will    Fluid Milk     Midwest        Edinburgh    IN              46124      3,888       $15,552.00
 Church
WIC Komed Holman    Fluid Milk     Midwest        Chicago      IL              60653         45        $1,577.25
 Health Center
WIC Norther         Fluid Milk     Midwest        Chicago      IL              60651         18          $630.90
 Kostner Health
 Center
WIC Winfield Moody  Fluid Milk     Midwest        Chicago      IL              60610         30        $1,051.50
 Health Center
Wicap Canyon Cap    Combination    Western        Caldwell     ID              83605        140        $6,160.00
                     Box
Wicap Canyon Cap    Fresh Fruit/   Western        Caldwell     ID              83605         20          $520.00
                     Vegetable
                     Box
Wichita and         Combination    South West     Anadarko     OK              73005        288       $10,071.36
 Affiliated Tribes   Box
Wichita and         Dairy          South West     Anadarko     OK              73005      1,344       $61,501.44
 Affiliated Tribes   Products Box
Wichita and         Fresh Fruit/   South West     Anadarko     OK              73005      3,361       $52,759.10
 Affiliated Tribes   Vegetable
                     Box
Wichita Catholic    Fresh Fruit/   Mountain       Wichita      KS              67211      2,156       $45,707.20
 Charities           Vegetable      Plains
                     Box
Wichita Falls Area  Fresh Fruit/   South West     Wichita      TX              76302      2,752       $46,756.48
 Food Bank           Vegetable                     Falls
                     Box
Wichita Schools     Fresh Fruit/   Mountain       Wichita      KS              67219      2,760       $64,308.00
                     Vegetable      Plains
                     Box
Wick Elementary     Fresh Fruit/   Midwest        Romulus      MI              48174        425        $6,353.75
 School              Vegetable
                     Box
Widows Barrel       Fluid Milk     Midwest        Tell City    IN              47586      1,790        $4,027.50
Wiggins Church of   Fresh Fruit/   South East     Wiggins      MS              39577        352        $5,948.80
 God IN              Vegetable
                     Box
Wiggins Church of   Precooked      South East     Wiggins      MS              39577        664       $27,263.84
 God IN              Meat Box
Wil Franklin        Dairy          Midwest        Tilden       IL              62292        500       $14,875.00
                     Products Box
Wilcox Fresh        Combination    Western        Rexburg      ID              83440        525       $23,100.00
 Warehouse           Box
Wilcox Fresh        Fresh Fruit/   Western        Rexburg      ID              83440        525       $13,650.00
 Warehouse           Vegetable
                     Box
Wilkerson Center    Fluid Milk     South West     Dallas       TX              75228        280          $858.20
Wilkerson Center    Fresh Fruit/   South West     Dallas       TX              75228        350        $4,755.00
                     Vegetable
                     Box
Wilkes Elementary   Combination    Western        Portland     OR              97230        120        $4,200.00
 USDA                Box
Wilkes Elementary   Dairy          Western        Portland     OR              97230        250        $7,500.00
 USDA                Products Box
Wilkes Elementary   Fresh Fruit/   Western        Portland     OR              97230         60        $1,620.00
 USDA                Vegetable
                     Box
Wilkinsburg Free    Fresh Fruit/   Mid-Atlantic   Pittsburgh   PA              15221        600       $18,000.00
 Store               Vegetable
                     Box
Wilkinson Center    Fluid Milk     South West     Dallas       TX              75228        740        $2,160.80
Wilkinson Co.       Fresh Fruit/   South East     Mcintyre     GA              31054      1,400       $26,516.00
 School              Vegetable
                     Box
Wilk-Washington     Fresh Fruit/   South East     Washington   GA              30673        472       $10,030.00
 Wilks               Vegetable
 Comprehensive       Box
Wilk-Washington     Precooked      South East     Washington   GA              30673        298       $10,143.92
 Wilks               Meat Box
 Comprehensive
Willa Rawls         Fresh Fruit/   Midwest        Chicago      IL              60653         63        $2,266.74
                     Vegetable
                     Box
Willard Church of   Dairy          Midwest        Willard      OH              44890        500       $12,500.00
 God                 Products Box
Willard Church of   Fluid Milk     Midwest        Willard      OH              44890        540        $1,792.80
 God
William J. Clinton  Combination    South West     Little Rock  AR              72201      2,880      $100,713.60
 Foundation          Box
William J. Clinton  Dairy          South West     Little Rock  AR              72201      1,632       $74,680.32
 Foundation          Products Box
William J. Clinton  Fluid Milk     South West     Little Rock  AR              72201        514       $12,305.16
 Foundation
William J. Clinton  Fluid Milk     South West     Little Rock  AR              72201      1,485       $35,550.90
 Foundation
William J. Clinton  Fresh Fruit/   South West     Little Rock  AR              72201        539       $12,558.70
 Foundation          Vegetable
                     Box
William J. Clinton  Fresh Fruit/   South West     Little Rock  AR              72201      7,431      $124,010.90
 Foundation          Vegetable
                     Box
William Paca        Fresh Fruit/   Mid-Atlantic   Landover     MD              20720      1,100       $22,000.00
 Elementary          Vegetable
                     Box
William Penn Evans  Fresh Fruit/   Mid-Atlantic   Yeadon       PA              19050      1,120       $22,400.00
 Elementary          Vegetable
                     Box
William Penn        Fresh Fruit/   Mid-Atlantic   Darby        PA              19023        560       $11,200.00
 Pennwood Middle     Vegetable
                     Box
William R. Boyd     Dairy          Midwest        Cleveland    OH              44120        250        $6,250.00
 Lodge#79            Products Box
Williams            Fresh Fruit/   South West     Pasadena     TX              77502        384        $6,524.16
 Elementary          Vegetable
                     Box
Williamsburg Isd.   Fluid Milk     South East     Williamsbur  KY              40769        331        $1,254.49
                                                   g
Williamsport Food   Fresh Fruit/   Mid-Atlantic   Williamspor  PA              17701      9,828      $186,240.60
 Bank                Vegetable                     t
                     Box
Williamston HHFB    Fluid Milk     South East     Williamston  SC              29697      4,320       $16,804.80
Williamston         Fresh Fruit/   South East     Williamston  NC              27892      2,250       $61,875.00
 Memorial Baptist    Vegetable
 Church              Box
Willie Thompson     Fresh Fruit/   Midwest        Saginaw      MI              48602      1,200       $17,940.00
 Middle School       Vegetable
                     Box
Willing Heart       Fluid Milk     Mid-Atlantic   Newark       NJ              07103        786       $18,162.72
Willing Heart       Fresh Fruit/   Mid-Atlantic   Newark       NJ              07103      2,016       $46,327.68
                     Vegetable
                     Box
Willow Bay Baptist  Combination    Western        American     ID              83211         50        $2,200.00
 Church              Box                           Falls
Willow Bay Baptist  Fresh Fruit/   Western        American     ID              83211        125        $3,250.00
 Church              Vegetable                     Falls
                     Box
Willow Creek        Fresh Fruit/   Midwest        So           IL              60010        756       $27,200.88
                     Vegetable                     Barrinigto
                     Box                           n
Willow Creek Care   Fresh Fruit/   Midwest        South        IL              60010      1,000       $27,000.00
 Center              Vegetable                     Barrington
                     Box
Willow Creek Food   Fresh Fruit/   Midwest        South        IL              60010         48          $717.60
 Pantry              Vegetable                     Barrington
                     Box
Willow Grove Mall   Fresh Fruit/   Mid-Atlantic   Willow       PA              19090      1,512       $34,745.76
 Parking Lot         Vegetable                     Grove
                     Box
Willow Praise       Dairy          Midwest        Eastlake     OH              44095        100        $2,500.00
 Church              Products Box
Willow Praise       Dairy          Midwest        Willowick    OH              44095        150        $3,750.00
 Church              Products Box
Willow Ridge        Fresh Fruit/   North East     Amherst      NY              14228         70        $1,599.50
 Elementary          Vegetable
                     Box
Willowcreek         Fresh Fruit/   Midwest        So           IL              60010        504       $18,133.92
                     Vegetable                     Barrington
                     Box
Willowcreek         Precooked      Midwest        South        IL              60010        288       $23,362.56
                     Meat Box                      Barrington
Willowcreek         Precooked      Midwest        Barrington   IL              60010        216       $17,521.92
                     Meat Box
Willowcreek         Precooked      Midwest        South        IL              60010      1,152       $93,450.24
                     Meat Box                      Barrington
Wills Creek Church  Fresh Fruit/   South East     Gadsden      AL              35904        240        $6,228.00
                     Vegetable
                     Box
Wilmer Hutchins HS  Fresh Fruit/   South West     Dallas       TX              75241      2,924       $58,517.76
 Brighter Bites      Vegetable
                     Box
Wilmington Church   Dairy          Midwest        Wilmington   OH              45177        300        $7,500.00
 of Christ           Products Box
Wilmington Church   Fresh Fruit/   Midwest        Wilmington   OH              45177        300        $5,991.00
 of God              Vegetable
                     Box
Wilmington High     Fresh Fruit/   North East     Wilmington   MA              01887      1,099       $24,123.05
 School              Vegetable
                     Box
Wimauma Groves CDC  Fluid Milk     South East     Wimauma      FL              33598        120          $460.80
Winchendon COA      Combination    North East     Winchendon   MA              01475         20          $760.00
                     Box
Winchendon COA      Precooked      North East     Winchendon   MA              01475         20        $1,086.00
                     Meat Box
Wind Gap Fire Hall  Fresh Fruit/   Mid-Atlantic   Wind Gap     PA              18091        210        $4,200.00
                     Vegetable
                     Box
Windermere High     Precooked      South East     Windermere   FL              34786        542       $24,237.72
                     Meat Box
Windsor Middle      Fresh Fruit/   Mountain       Imperial     MO              63052      1,120       $29,008.00
 School              Vegetable      Plains
                     Box
Windsor Park        Precooked      Midwest        Chicago      IL              60649         72        $5,840.64
                     Meat Box
Winfield Food       Fluid Milk     Mountain       Winfield     MO              63389        243          $546.75
 Pantry                             Plains
Winfield School     Fresh Fruit/   Mountain       Winfield     MO              63389      1,920       $49,728.00
 District            Vegetable      Plains
                     Box
Wings As Eagles--   Fresh Fruit/   Mountain       Arapahoe     Wy              82510      1,920       $49,728.00
 Wind River          Vegetable      Plains
                     Box
Wings As Eagles     Fresh Fruit/   Mountain       Pine Ridge   SD              57770      6,720      $174,048.00
 Pine Ridge          Vegetable      Plains
                     Box
Wings As Eagles     Fresh Fruit/   Mountain       Rosebud      SD              57570      6,720      $174,048.00
 Rosebud             Vegetable      Plains
                     Box
Wings As Eagles     Fresh Fruit/   Mountain       Pine Ridge   SD              57770        960       $24,864.00
 Rosebud             Vegetable      Plains
                     Box
Winnetonka High     Fresh Fruit/   Mountain       Kansas City  MO              64119      1,420       $36,778.00
 School              Vegetable      Plains
                     Box
Winona              Fresh Fruit/   South East     Winona       MS              38967        616       $12,289.20
                     Vegetable
                     Box
Winona Community    Fresh Fruit/   South East     Winona       MS              38967        355        $7,082.25
 Center              Vegetable
                     Box
Winona Community    Fresh Fruit/   South East     Winona       MS              38967      1,848       $36,867.60
 Pavillion           Vegetable
                     Box
Winston Baptist     Dairy          South East     Louisville   MS              39339        800       $22,464.00
 Church              Products Box
Winston Baptist     Fluid Milk     South East     Louisville   MS              39339        384        $2,818.56
 Church
Winston Baptist     Fresh Fruit/   South East     Louisville   MS              39339      1,440       $24,336.00
 Church              Vegetable
                     Box
Winston Baptist     Precooked      South East     Louisville   MS              39339      2,352       $96,573.12
 Church              Meat Box
Winters             Fresh Fruit/   Western        Winters      CA              95694        294        $5,835.90
                     Vegetable
                     Box
Winters Farm To     Fresh Fruit/   Western        Winters      CA              95694      1,470       $30,027.90
 School              Vegetable
                     Box
Winthrop COA        Combination    North East     Winthrop     MA              02152         20          $760.00
                     Box
Winthrop COA        Precooked      North East     Winthrop     MA              02152         20        $1,086.00
                     Meat Box
Wiregrass Area      Fluid Milk     South East     Dothan       AL              36303      7,128       $28,051.92
 United Way Fd.
 Bank
Wiregrass Area      Fresh Fruit/   South East     Dothan       AL              36303      3,600      $104,400.00
 United Way Fd.      Vegetable
 Bank                Box
With Love From      Fluid Milk     South East     Raleigh      NC              27603      1,296        $4,998.24
 Jesu.
Witnessing God in   Dairy          Midwest        East         IN              46312        300       $19,545.00
 Christ              Products Box                  Chicago
Witnessing God in   Fluid Milk     Midwest        East         IN              46312      1,000       $35,050.00
 Christ                                            Chicago
Wixom Community     Fresh Fruit/   Midwest        Wixom        MI              48393        400        $5,980.00
 Center              Vegetable
                     Box
WNC Communities     Fresh Fruit/   South East     Asheville    NC              28806        685       $18,837.50
                     Vegetable
                     Box
Woburn High         Fresh Fruit/   North East     Woburn       MA              01801        329        $7,221.55
                     Vegetable
                     Box
Wolf Lake           Precooked      South East     Apopka       FL              32712        544       $21,859.76
 Elementary          Meat Box
Wolverine Human     Fresh Fruit/   Midwest        Detroit      MI              48230        100        $1,495.00
 Services            Vegetable
                     Box
Women Against       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19110        420        $8,400.00
 Abuse Inc.          Vegetable                     a
                     Box
Women of Wisdom     Fluid Milk     South East     Winter       FL              33881        280        $1,061.20
                                                   Haven
Women on the Move   Fresh Fruit/   Mountain       Kansas City  KS              66101        400       $10,360.00
                     Vegetable      Plains
                     Box
Women on the Move   Fresh Fruit/   Mountain       Kansas City  KS              66104      1,360       $35,224.00
                     Vegetable      Plains
                     Box
Woodbridge High     Fresh Fruit/   Mid-Atlantic   Greenwood    DE              19950      1,320       $33,000.00
 School              Vegetable
                     Box
Woodhaven High      Fresh Fruit/   Midwest        Brownstown   MI              48134      1,300       $19,435.00
 School              Vegetable
                     Box
Woodlake Assembly   Combination    South West     Bixby        OK              74008      1,440       $50,356.80
 of God              Box
Woodlawn Community  Fresh Fruit/   South East     Birmingham   AL              35212         35          $700.00
 Table               Vegetable
                     Box
Woodsedge           Fresh Fruit/   South West     Houston      TX              77067      1,000       $23,300.00
 Community Church    Vegetable
                     Box
Woodside Church     Fresh Fruit/   Midwest        Pontiac      MI              48342        500        $7,475.00
                     Vegetable
                     Box
Woodside of         Fresh Fruit/   Midwest        Pontiac      MI              48342      1,300       $19,435.00
 Pontiac             Vegetable
                     Box
Woodson/Creswell    Fresh Fruit/   South East     Camden       AL              36726      1,180       $30,621.00
 Imports             Vegetable
                     Box
Woodstock First     Fresh Fruit/   South East     Woodstock    GA              30188        160        $3,030.40
 Baptist             Vegetable
                     Box
Woodward            Precooked      Midwest        Woodward     IA              50276         45        $2,288.25
 Distribution        Meat Box
 Center
Woodworth           Fresh Fruit/   Midwest        Dearborn     MI              48126        400        $8,450.00
                     Vegetable
                     Box
Wooldridge          Fresh Fruit/   South West     Austin       TX              78758      2,992       $50,834.08
 Elementary          Vegetable
                     Box
Wooster Hope        Fluid Milk     Midwest        Wooster      OH              44691     12,960       $43,027.20
 Center
Worcester Boys and  Fresh Fruit/   North East     Worcester    MA              01610        400       $11,376.00
 Girls Club          Vegetable
                     Box
Worcester County    Fresh Fruit/   North East     Shrewsbury   MA              01545      1,477       $32,420.15
 Food Bank           Vegetable
                     Box
Worcester County    Precooked      North East     Shrewsbury   MA              01545        382       $13,206.14
 Food Bank           Meat Box
Word & Praise       Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21215        225        $4,713.75
 Faith               Vegetable
                     Box
Word in Action/CFF  Fluid Milk     Mid-Atlantic   Philadelphi  PA              19140        350       $11,340.00
                                                   a
Word in Action      Fresh Fruit/   Midwest        Detroit      MI              48235         50        $1,100.00
 Christian Church    Vegetable
 Fac                 Box
Word in Season      Fresh Fruit/   South West     Harlingen    TX              78550      1,536       $26,096.64
 International       Vegetable
                     Box
Word of Christ      Fluid Milk     South East     Jackson      MS              39209        768        $5,637.12
 Ministry
Word of Christ      Fresh Fruit/   South East     Jackson      MS              39209      1,552       $26,228.80
 Ministry            Vegetable
                     Box
Word of Christ      Precooked      South East     Jackson      MS              39209      1,260       $51,735.60
 Ministry            Meat Box
Word of Faith CBC   Fresh Fruit/   South East     Birmingham   AL              35210        200        $5,600.00
                     Vegetable
                     Box
Word of Faith       Fresh Fruit/   South East     Kenansville  NC              28349      4,050       $46,575.00
 Ministries          Vegetable
                     Box
Word of God Church  Fluid Milk     South West     Oklahoma     OK              73114      1,485       $35,550.90
                                                   City
Word of God Church  Fresh Fruit/   South West     Oklahoma     OK              73114      2,304       $39,321.60
                     Vegetable                     City
                     Box
Word of God Church  Precooked      South West     Oklahoma     OK              73114      3,038      $313,369.70
                     Meat Box                      City
Word of God         Fresh Fruit/   South East     Raleigh      NC              27610      3,300       $37,950.00
 Fellowship Church   Vegetable
                     Box
Word of Life        Fresh Fruit/   South East     Roxboro      NC              27573      2,000       $23,000.00
                     Vegetable
                     Box
Word of Life        Fresh Fruit/   Western        Oakley       CA              94561        525       $11,655.00
 Christian Fellow    Vegetable
                     Box
Word of Life SDA--  Fresh Fruit/   South East     Memphis      TN              38127        486       $11,907.00
 C/O Mid South       Vegetable
 Food Bank           Box
Word of Truth       Fresh Fruit/   South East     Farmville    NC              27828      1,000       $35,710.00
 Ministries          Vegetable
                     Box
Working in the      Fresh Fruit/   Midwest        Cincinnati   OH              45223        128        $2,496.00
 Neighborhood        Vegetable
                     Box
Working Together    Fluid Milk     South East     Jackson      MS              39204        900        $3,591.00
World Harvest       Combination    Western        Los Angeles  CA              90019        432       $16,934.40
 Charities and       Box
 Family Services
World Harvest Food  Combination    Western        Los Angeles  CA              90005      5,336      $145,406.00
 Bank                Box
World Harvest Food  Fresh Fruit/   Western        Los Angeles  CA              90019      1,200       $30,000.00
 Bank                Vegetable
                     Box
World Metro Child   Fresh Fruit/   North East     Brooklyn     NY              11221      1,400       $27,958.00
                     Vegetable
                     Box
World of            Fluid Milk     Midwest        Cincinnati   OH              45240        180          $597.60
 Deliverance
World of Giving     Combination    North East     Lawrence     NY              11559      1,753       $66,614.00
                     Box
World of Giving     Fresh Fruit/   North East     Inwood       NY              11096      1,080       $35,640.00
                     Vegetable
                     Box
World of Giving     Fresh Fruit/   North East     Lawrence     NY              11559      1,578       $55,144.00
                     Vegetable
                     Box
World of Giving     Fresh Fruit/   North East     Spring       NY              10977      1,680       $44,688.00
                     Vegetable                     Valley
                     Box
World Outreach      Fresh Fruit/   Midwest        Saginaw      MI              48602         80        $1,196.00
 Campus              Vegetable
                     Box
World Relief        Combination    Western        Kent         WA              98032        150        $5,250.00
                     Box
World Relief        Dairy          Western        Kent         WA              98032        120        $3,600.00
                     Products Box
World Relief        Fresh Fruit/   Western        Kent         WA              98032      1,150       $31,050.00
                     Vegetable
                     Box
World Relief        Combination    Western        Spokane      WA              99201        150       $18,000.00
 Spokane             Box
World Vision        Combination    South East     Albany       GA              31701      7,280      $553,644.00
                     Box
World Vision        Fluid Milk     Midwest        Chicago      IL              60644      4,320       $14,342.40
World Vision        Precooked      South West     Grand        TX              75050      1,536      $158,438.40
                     Meat Box                      Prairie
World Vision All    Fresh Fruit/   South East     Jacksonvill  FL              32208      4,536      $111,132.00
 People Intl         Vegetable                     e
                     Box
World Vision        Fresh Fruit/   South East     Anniston     AL              36201      6,048      $148,176.00
 Bethel Anniston     Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Fayettevill  GA              30215      1,512       $37,044.00
 Cornerstone         Vegetable                     e
                     Box
World Vision        Fresh Fruit/   South East     Florence     AL              35633      6,048      $148,176.00
 Galilee Baptist     Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Byram        MS              39272      4,536      $111,132.00
 Greater             Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Memphis      TN              38118      6,048      $148,176.00
 Greater Comm.       Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Byram        MS              39272      1,512       $37,044.00
 Greater             Vegetable
 Deliverance         Box
World Vision        Fresh Fruit/   South East     Jacksonvill  FL              32208      1,512       $37,044.00
 Greater Macedonia   Vegetable                     e
                     Box
World Vision        Fresh Fruit/   South East     Gainesville  FL              32609      1,512       $37,044.00
 Ignite Life         Vegetable
 Center              Box
World Vision Inc.   Fresh Fruit/   South East     Lithonia     GA              30038      9,736      $200,119.20
                     Vegetable
                     Box
World Vision Inc.   Fresh Fruit/   South East     Orangeburg   SC              29115      8,448      $175,776.00
                     Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Southaven    MS              38671      4,536      $111,132.00
 Kingdom Community   Vegetable
                     Box
World Vision        Fresh Fruit/   South East     South Haven  MS              38671      1,512       $37,044.00
 Kingdom Community   Vegetable
                     Box
World Vision        Fluid Milk     Mid-Atlantic   Philippi     WV              26416         48          $946.56
 Philippi
World Vision        Fresh Fruit/   Mid-Atlantic   Philippi     WV              26416      2,016       $46,327.68
 Philippi            Vegetable
                     Box
World Vision--      Precooked      Mid-Atlantic   Pittsburgh   PA              15143      1,274       $51,647.96
 Pittsburgh          Meat Box
World Vision        Dairy          Mid-Atlantic   Sewickley    PA              15143        390       $13,158.60
 Sewickley           Products Box
World Vision        Fluid Milk     Mid-Atlantic   Sewickley    PA              15143         48          $946.56
 Sewickley
World Vision        Fresh Fruit/   Mid-Atlantic   Sewickley    PA              15143      3,168       $72,800.64
 Sewickley           Vegetable
                     Box
World Vision St.    Fresh Fruit/   South East     Dania Beach  FL              33004      3,024       $74,088.00
 Ruth                Vegetable
                     Box
World Vision        Fresh Fruit/   South East     Huntsville   AL              35810      1,512       $37,044.00
 Victory World       Vegetable
                     Box
World Vision--      Fresh Fruit/   South West     Kirbyville   TX              75956      2,560       $43,494.40
 Baumont             Vegetable
                     Box
World Vision--      Fresh Fruit/   South West     Grand        TX              75050     17,680      $300,383.20
 Dallas              Vegetable                     Prairie
                     Box
World Vision--      Precooked      South West     Grand        TX              75050      6,144      $633,753.60
 Dallas              Meat Box                      Prairie
World Vision--      Fresh Fruit/   South West     Del Rio      TX              78840     10,832      $184,035.68
 Delrio/Banco        Vegetable
                     Box
World Vision--Fife  Fresh Fruit/   Western        Fife         WA              98424     11,172      $160,374.06
                     Vegetable
                     Box
World Vision--      Fresh Fruit/   South West     Window Rock  AZ              86515     17,840      $303,101.60
 Navajo Nation       Vegetable
                     Box
World Vision--      Fresh Fruit/   Western        Grandview    WA              98930      1,862       $26,626.60
 Yakima              Vegetable
                     Box
Worship Center of   Fluid Milk     South East     Birmingham   AL              35210      2,160        $8,402.40
 Birming
Worth               Precooked      Midwest        Chicago      IL              60803         72        $5,840.64
                     Meat Box
Worthington         Fluid Milk     Midwest        Columbus     OH              43229        900        $2,988.00
 Resource Pantry
Worthington         Fresh Fruit/   Midwest        Columbus     OH              43229        384        $7,488.00
 Resource Pantry     Vegetable
                     Box
WRAAP Wilm. Resid.  Fluid Milk     South East     Wilmington   NC              28403        432        $1,680.48
Wrentham COA        Combination    North East     Wrentham     MA              02093         55        $1,804.00
                     Box
Wrentham COA        Precooked      North East     Wrentham     MA              02093         55        $2,986.50
                     Meat Box
Wyandotte High      Dairy          Midwest        Wyandotte    MI              48192        100        $2,427.00
 School              Products Box
Wyandotte High      Fresh Fruit/   Midwest        Wyandotte    MI              48192        450        $8,559.00
 School              Vegetable
                     Box
Wyandotte High      Precooked      Midwest        Wyandotte    MI              48192        300        $9,315.00
 School              Meat Box
Wylie Isd.          Fresh Fruit/   South West     Wylie        TX              75098        200        $3,398.00
                     Vegetable
                     Box
Wyoming Main        Fresh Fruit/   Mountain       Evansville   Wy              82636     20,256      $524,630.40
 Location            Vegetable      Plains
                     Box
Xenia Adult         Fresh Fruit/   Midwest        Xenia        OH              45385        180        $3,850.20
 Recreation &        Vegetable
 Srvs. Ctr.          Box
Xenia Adult         Precooked      Midwest        Xenia        OH              45385        105        $4,687.65
 Recreation &        Meat Box
 Srvs. Ctr.
Xenia Area Fish     Dairy          Midwest        Xenia        OH              45385      1,280       $32,000.00
 Fd. Pantry          Products Box
Xenia Area Fish     Fluid Milk     Midwest        Xenia        OH              45385        600        $2,400.00
 Fd. Pantry
Xenia Area Fish     Fresh Fruit/   Midwest        Xenia        OH              45385        256        $4,992.00
 Fd. Pantry          Vegetable
                     Box
Y of Central MD     Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21227      5,400      $113,130.00
                     Vegetable
                     Box
Yad Erza            Fresh Fruit/   Midwest        Berkley      MI              48072      1,860       $27,807.00
                     Vegetable
                     Box
Yake Elementary     Fresh Fruit/   Midwest        Woodhaven    MI              48183         75        $1,121.25
 School              Vegetable
                     Box
YCAP Regional Food  Combination    Western        McMinnville  OR              97128        420       $14,700.00
 Bank                Box
YCAP Regional Food  Dairy          Western        McMinnville  OR              97128      1,350       $40,500.00
 Bank                Products Box
YCAP Regional Food  Fluid Milk     Western        Mcminnville  OR              97128        840        $4,452.00
 Bank
YCAP Regional Food  Fresh Fruit/   Western        Mcminnville  OR              97128      1,030       $27,810.00
 Bank                Vegetable
                     Box
Yes Nature To       Fresh Fruit/   Western        Richmond     CA              94804        249        $6,972.00
 Neighborhoods       Vegetable
                     Box
Yeshiva Derech      Fresh Fruit/   Midwest        Beachwood    OH              44122        215        $5,697.50
 Hatorah School      Vegetable
                     Box
Yeshiva Derech      Fresh Fruit/   Midwest        Cleveland    OH              44118        340        $9,010.00
 Hatorah School      Vegetable
                     Box
Yeshiva Derech      Fresh Fruit/   Midwest        Cleveland    OH              44118        175        $4,637.50
 Hatorah School      Vegetable                     Heights
                     Box
Yigo Mayor's        Fresh Fruit/   Western        Yigo         Guam            96929        600       $36,000.00
 office              Vegetable
                     Box
YMCA                Dairy          Midwest        Royal Oak    MI              48067        300       $10,125.00
                     Products Box
YMCA                Precooked      Midwest        Royal Oak    MI              48067        200        $9,538.00
                     Meat Box
YMCA Garfield       Combination    Midwest        Chicago      IL              60624         50        $3,106.00
                     Box
YMCA High Ridge     Combination    Midwest        Chicago      IL              60645         50        $3,106.00
                     Box
YMCA North          Combination    Midwest        Chicago      IL              60624         50        $3,106.00
 Lawndale YMCA       Box
YMCA--Pav.          Fresh Fruit/   Midwest        Berwyn       IL              60402        441       $15,867.18
                     Vegetable
                     Box
YMCA/Caldwell Y     Combination    Western        Caldwell     ID              83605      1,231       $54,164.00
                     Box
YMCA/Caldwell Y     Fresh Fruit/   Western        Caldwell     ID              83605        589       $15,314.00
                     Vegetable
                     Box
YMCA/Horsethief Y   Combination    Western        Cascade      ID              83611        105        $4,620.00
                     Box
YMCA/Horsethief Y   Fresh Fruit/   Western        Cascade      ID              83611         95        $2,470.00
                     Vegetable
                     Box
YMCA/South Y        Combination    Western        Meridian     ID              83642      1,007       $44,308.00
                     Box
YMCA/South Y        Fresh Fruit/   Western        Meridian     ID              83642        524       $13,624.00
                     Vegetable
                     Box
YMCA/West Y         Combination    Western        Boise        ID              83713      1,166       $51,304.00
                     Box
YMCA/West Y         Fresh Fruit/   Western        Boise        ID              83713        911       $23,686.00
                     Vegetable
                     Box
YMCA/YMCA Ustick    Combination    Western        Boise        ID              83713        308       $13,552.00
 Child Care          Box
YMCA/YMCA Ustick    Fresh Fruit/   Western        Boise        ID              83713        165        $4,290.00
 Child Care          Vegetable
                     Box
YMCA Ann Arbor      Fresh Fruit/   Midwest        Ann Arbor    MI              48103      1,900       $51,865.00
                     Vegetable
                     Box
YMCA Detroit        Fresh Fruit/   Midwest        Royal Oak    MI              48067      1,006       $15,039.70
                     Vegetable
                     Box
YMCA Early          Combination    Midwest        Chicago      IL              60607         30        $1,964.80
 Learning and        Box
 Development
 Center
YMCA Elgin          Fresh Fruit/   Midwest        Elgin        IL              60123        300        $8,250.00
                     Vegetable
                     Box
YMCA Garfield       Combination    Midwest        Chicago      IL              60624        100        $6,718.00
                     Box
YMCA Grand Rapids   Fresh Fruit/   Midwest        Grand        MI              49504      1,200       $17,940.00
                     Vegetable                     Rapids
                     Box
YMCA Grand Rapids   Fresh Fruit/   Midwest        Grand        MI              49546        375        $5,606.25
                     Vegetable                     Rapids
                     Box
YMCA High Ridge     Combination    Midwest        Chicago      IL              60645        100        $6,718.00
                     Box
YMCA Hilltop        Fluid Milk     Midwest        Columbus     OH              43228        540        $1,792.80
YMCA Jeanne Kenny   Combination    Midwest        Chicago      IL              60620        150        $9,824.00
                     Box
YMCA Kelly Hall     Combination    Midwest        Chicago      IL              60651        100        $6,465.00
                     Box
YMCA Kelly Hall     Dairy          Midwest        Chicago      IL              60651        600       $39,090.00
                     Products Box
YMCA Kelly Hall     Fluid Milk     Midwest        Chicago      IL              60651         56        $1,962.80
YMCA Kelly Hall     Fresh Fruit/   Midwest        Chicago      IL              60651        100        $6,406.00
                     Vegetable
                     Box
YMCA Kelly Hall     Precooked      Midwest        Chicago      IL              60651        100        $7,157.00
                     Meat Box
YMCA Learning       Fresh Fruit/   South East     Atlanta      GA              30314        935       $18,700.00
 Center              Vegetable
                     Box
YMCA Malden         Fresh Fruit/   North East     Malden       MA              02148      5,824      $127,836.80
                     Vegetable
                     Box
YMCA Neighborhood   Fresh Fruit/   Midwest        Little       MN              55117        240       $14,160.00
 Center Bix          Vegetable                     Canada
                     Box
YMCA NKC            Fresh Fruit/   Mountain       North        MO              64116        400       $10,360.00
                     Vegetable      Plains         Kansas
                     Box                           City
YMCA North          Combination    Midwest        Chicago      IL              60624         50        $3,359.00
 Lawndale            Box
YMCA North          Combination    Midwest        Chicago      IL              60624         50        $3,359.00
 Lawndale YMCA       Box
YMCA of Barry       Fresh Fruit/   Midwest        Hastings     MI              49058      2,600       $51,922.00
 County              Vegetable
                     Box
YMCA of Barry       Fresh Fruit/   Midwest        Nashville    MI              49073      1,900       $37,943.00
 County              Vegetable
                     Box
YMCA of Central     Fresh Fruit/   Midwest        Urbancrest   OH              43123      1,800       $38,502.00
 Ohio                Vegetable
                     Box
YMCA of Central     Precooked      Midwest        Urbancrest   OH              43123        520       $24,010.30
 Ohio                Meat Box
YMCA of Greater     Fluid Milk     Midwest        Dayton       OH              45406        676        $2,704.00
 Dayton
YMCA of             Combination    Western        Los Angeles  CA              90023      1,400       $38,150.00
 Metropolitan L.A.   Box
YMCA of             Fluid Milk     Western        Los Angeles  CA              90023      4,032       $19,152.00
 Metropolitan L.A.
YMCA of Paterson    Fresh Fruit/   Mid-Atlantic   Paterson     NJ              07505      1,927       $36,516.65
                     Vegetable
                     Box
YMCA of the Pines   Fresh Fruit/   Mid-Atlantic   Medford      NJ              08055        315        $5,969.25
                     Vegetable
                     Box
YMCA Ponce United   Combination    Mid-Atlantic   Ponce        PR              00716      1,620      $142,740.00
 Way De PR           Box
YMCA Rauner         Combination    Midwest        Chicago      IL              60608        150       $10,077.00
 Instituto Health    Box
 and Science
 Academy
YMCA USDA Early     Combination    Midwest        Chicago      IL              60607         10          $671.80
 Learning and        Box
 Development
 Center
YMCA USDA Garfield  Combination    Midwest        Chicago      IL              60624         50        $3,359.00
                     Box
YMCA USDA High      Combination    Midwest        Chicago      IL              60645         49        $3,291.82
 Ridge               Box
YMCA USDA Kelly     Combination    Midwest        Chicago      IL              60651        100        $6,718.00
 Hall                Box
YMCA USDA Kelly     Dairy          Midwest        Chicago      IL              60651        600       $39,090.00
 Hall                Products Box
YMCA USDA Kelly     Fluid Milk     Midwest        Chicago      IL              60651        112        $3,925.60
 Hall
YMCA USDA Kelly     Fresh Fruit/   Midwest        Chicago      IL              60651        100        $6,406.00
 Hall                Vegetable
                     Box
YMCA USDA Kelly     Precooked      Midwest        Chicago      IL              60651         50        $3,578.50
 Hall                Meat Box
YMCA USDA North     Combination    Midwest        Chicago      IL              60624         50        $3,359.00
 Lawndale YMCA       Box
YMCA USDA Rauner    Combination    Midwest        Chicago      IL              60624         50        $3,359.00
                     Box
YMCA Van Buren      Fluid Milk     Midwest        Columbus     OH              43223        300          $996.00
YMCA Wade Walker    Fluid Milk     South East     Stone        GA              30088        650        $2,536.50
                                                   Mountain
YMCA Wade Walker    Fresh Fruit/   South East     Stone        GA              30088      1,380       $27,600.00
                     Vegetable                     Mountain
                     Box
YMCA Wayman Palmer  Fresh Fruit/   Midwest        Toledo       OH              43620        333        $4,162.50
                     Vegetable
                     Box
Ymca/Downtown Y     Combination    Western        Boise        ID              83702      1,305       $57,420.00
                     Box
Ymca/Downtown Y     Fresh Fruit/   Western        Boise        ID              83702        905       $23,530.00
                     Vegetable
                     Box
YMCA--Royal Oak--   Dairy          Midwest        Royal Oak    MI              48067        300       $10,125.00
 Food                Products Box
YMCA--Royal Oak--   Precooked      Midwest        Royal Oak    MI              48067        300       $14,307.00
 Food                Meat Box
Yolo Food Bank      Fluid Milk     Western        Woodland     CA              95776      1,152       $11,508.48
Yolo Food Bank      Fresh Fruit/   Western        West         CA              95605      1,176       $24,166.80
                     Vegetable                     Sacramento
                     Box
Yolo Food Bank      Fresh Fruit/   Western        Woodland     CA              95776     16,184      $296,930.20
                     Vegetable
                     Box
Yona Mayor's        Fresh Fruit/   Western        Yona         Guam            96915        600       $36,000.00
 office              Vegetable
                     Box
York County Food    Fluid Milk     Mid-Atlantic   York         PA              17401      4,032       $57,705.60
 Bank
York County Food    Fresh Fruit/   Mid-Atlantic   York         PA              17401      6,912      $158,837.76
 Bank                Vegetable
                     Box
York County Food    Fresh Fruit/   Mid-Atlantic   York         PA              17402        650       $16,250.00
 Bank                Vegetable
                     Box
York County Food    Fresh Fruit/   Mid-Atlantic   York         PA              17404     20,580      $327,067.16
 Bank                Vegetable
                     Box
York County Food    Precooked      Mid-Atlantic   York         PA              17401      1,808       $62,364.36
 Bank                Meat Box
York High School    Dairy          Midwest        Elmhurst     IL              60126        192        $5,712.00
                     Products Box
York High School    Fresh Fruit/   Midwest        Elmhurst     IL              60126        144        $3,960.00
                     Vegetable
                     Box
Yorkshire Woods     Fresh Fruit/   Midwest        Detroit      MI              48224        374        $9,593.30
 Community           Vegetable
                     Box
Yorkwood            Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21239        900       $18,000.00
 Elementary School   Vegetable
                     Box
You Eat I Eat       Fresh Fruit/   South West     El Paso      TX              79904      2,013       $39,253.50
 Community Food      Vegetable
 Pantry              Box
Young Chances       Fluid Milk     Mid-Atlantic   Philadelphi  PA              19145        573       $17,956.56
 Foundation/CFF                                    a
Young Chances       Fresh Fruit/   Mid-Atlantic   Philadelphi  PA              19145        216        $4,963.68
 Foundation/CFF      Vegetable                     a
                     Box
Young Mens          Fresh Fruit/   Western        Honolulu     HI              96813        475       $17,100.00
 Christian           Vegetable
 Association of      Box
 Honolulu
Younglife           Fresh Fruit/   South East     Chattanooga  TN              37405        576       $11,520.00
                     Vegetable
                     Box
Youngstown Central  Fresh Fruit/   Midwest        Youngstown   OH              44502      2,376       $29,700.00
 Kitchen             Vegetable
                     Box
Youngstown City     Fresh Fruit/   Midwest        Youngstown   OH              44502      5,192       $84,612.00
 Schools Central     Vegetable
 Kitchen             Box
Youngstown City     Precooked      Midwest        Youngstown   OH              44503      1,926       $87,941.16
 Schools Central     Meat Box
 Kitchen
Youngstown          Dairy          Midwest        Youngstown   OH              44502      3,016       $96,542.16
 Community Food      Products Box
Youngstown          Precooked      Midwest        Youngstown   OH              44511         80        $3,592.00
 Salvation Army      Meat Box
Youth Believing in  Combination    South West     Dallas       TX              75243        550       $19,233.50
 Change              Box
Youth Believing in  Dairy          South West     Dallas       TX              75243      1,400       $64,064.00
 Change              Products Box
Youth Believing in  Fresh Fruit/   South West     Dallas       TX              75243      1,150       $25,325.00
 Change              Vegetable
                     Box
Youth Empowerment   Fresh Fruit/   Mid-Atlantic   Perryville   MD              21903        126        $2,387.70
 Source              Vegetable
                     Box
Youth Villages      Fresh Fruit/   South East     Memphis      TN              38134        162        $3,969.00
                     Vegetable
                     Box
Youth World         Fresh Fruit/   South West     Dallas       TX              75116        280        $4,757.20
                     Vegetable
                     Box
Youth World         Fresh Fruit/   South West     Dallas       TX              75232        384        $6,524.16
                     Vegetable
                     Box
Ypsilanti           Fresh Fruit/   Midwest        Ypsilanti    MI              48197      1,200       $43,176.00
 Community Schools   Vegetable
                     Box
Ypsilanti YMCA      Fresh Fruit/   Midwest        Ypsilanti    MI              48197        350       $10,062.50
                     Vegetable
                     Box
Yuba Sutter         Combination    Western        Yuba City    CA              95991      2,008       $78,303.20
 Foodbank            Box
Yuba Sutter         Fluid Milk     Western        Yuba City    CA              95991      1,536       $15,344.64
 Foodbank
Yuba Sutter         Fresh Fruit/   Western        Yuba City    CA              95991      6,157       $86,198.00
 Foodbank            Vegetable
                     Box
Yuma Community      Dairy          South West     Yuma         AZ              85365      9,180      $243,270.00
 Food Bank           Products Box
Yuma Community      Fluid Milk     South West     Yuma         AZ              85365      2,016        $9,475.20
 Food Bank
Yuma Community      Fresh Fruit/   South West     Yuma         AZ              85365      8,011      $212,291.50
 Food Bank           Vegetable
                     Box
Yuma Community      Fresh Fruit/   Western        Planada      CA              95365      1,344       $35,616.00
 Food Bank           Vegetable
                     Box
YWAM Redding        Fresh Fruit/   Western        Redding      CA              96001         77        $2,073.61
                     Vegetable
                     Box
YWCA                Fluid Milk     South West     Houston      TX              77021      1,264        $3,874.16
YWCA Greater        Fluid Milk     Midwest        Cleveland    OH              44103        659        $2,187.88
 Cleveland
YWCA Northeast      Dairy          Midwest        Fort Wayne   IN              46816         54        $1,310.58
 Indiana             Products Box
YWCA Northeast      Fresh Fruit/   Midwest        Fort Wayne   IN              46816         90        $1,754.46
 Indiana             Vegetable
                     Box
YWCA Northeast      Precooked      Midwest        Fort Wayne   IN              46816         76        $3,148.20
 Indiana             Meat Box
YWOTM Faith         Fresh Fruit/   Mountain       Kansas City  KS              66102        160        $4,144.00
 Deliverance         Vegetable      Plains
 Center              Box
YWOTM Miracle       Fresh Fruit/   Mountain       Kansas City  KS              66101        320        $8,288.00
 Temple              Vegetable      Plains
                     Box
YWOTM New Bethel    Fresh Fruit/   Mountain       Kansas City  KS              66101        320        $8,288.00
 Church              Vegetable      Plains
                     Box
YWOTM Urban         Fresh Fruit/   Mountain       Kansas City  KS              66102        160        $4,144.00
 Scholastic Center   Vegetable      Plains
                     Box
YWOTM Village       Fresh Fruit/   Mountain       Kansas City  KS              66104        120        $3,108.00
 Initative           Vegetable      Plains
                     Box
Zakat Fnd. of A.    Fluid Milk     Midwest        Bridgeview   IL              60455      4,320       $14,342.40
Zakat Fnd. of       Fluid Milk     Midwest        Bridgeview   IL              60455      4,320       $14,342.40
 Americ.
Zakat Foundation    Fresh Fruit/   Midwest        Bridgeview   IL              60455      1,512       $54,401.76
                     Vegetable
                     Box
Zakat Foundation    Fresh Fruit/   Mountain       Hazelwood    MO              63042      7,920      $205,128.00
                     Vegetable      Plains
                     Box
Zakat Foundation    Fresh Fruit/   Midwest        Bridgeview   IL              60455      1,610       $57,927.80
 of America          Vegetable
                     Box
Zakat Foundation    Fresh Fruit/   Midwest        Bridgeview   IL              60455      7,980      $287,120.40
 of America          Vegetable
                     Box
Zalma General       Fresh Fruit/   Mountain       Zalma        MO              63787      1,780       $48,950.00
 Baptist Church      Vegetable      Plains
                     Box
Zaman Hope for      Fresh Fruit/   Midwest        Inkster      MI              48141        700       $20,125.00
 Humanity            Vegetable
                     Box
Zaman               Fresh Fruit/   Midwest        Inkster      MI              48141        200        $2,990.00
 International       Vegetable
                     Box
Zavalla Food        Fluid Milk     South West     Zavalla      TX              75980        432        $1,261.44
 Pantry
Zeeland East High   Fresh Fruit/   Midwest        Zeeland      MI              49464        496       $17,846.08
 School              Vegetable
                     Box
Zeeland Public      Combination    Midwest        Zeeland      MI              49464        860       $54,840.00
 Schools             Box
Zeeland Public      Fresh Fruit/   Midwest        Zeeland      MI              49464        150        $5,397.00
 Schools             Vegetable
                     Box
Zelphia's           Dairy          Midwest        Novi         MI              48375        150        $5,062.50
 Community Kitchen   Products Box
Zelphia's           Precooked      Midwest        Novi         MI              48375        100        $4,769.00
 Community Kitchen   Meat Box
Zeta Sigma          Fresh Fruit/   Mid-Atlantic   Baltimore    MD              21218        125        $2,618.75
 Foundation          Vegetable
                     Box
Ziibimijwang Inc.   Fresh Fruit/   Midwest        Petoskey     MI              49770      1,066       $25,584.00
                     Vegetable
                     Box
Zina Christian      Fresh Fruit/   South East     Raleigh      NC              27604      2,010       $24,669.00
 Center              Vegetable
                     Box
Zion Chapel Food    Fresh Fruit/   South East     Ayden        NC              28513        288       $10,284.48
 Pantry              Vegetable
                     Box
Zion Church         Dairy          Mid-Atlantic   Clarion      PA              16214        110        $1,607.10
                     Products Box
Zion Church         Fluid Milk     Mid-Atlantic   Clarion      PA              16214        660        $1,181.40
Zion Compass        Combination    South West     Fort Worth   TX              76107        400       $13,988.00
 Christian Church    Box
Zion Compass        Dairy          South West     Fort Worth   TX              76107        400       $18,304.00
 Christian Church    Products Box
Zion Compass        Fresh Fruit/   South West     Fort Worth   TX              76107        400        $9,320.00
 Christian Church    Vegetable
                     Box
Zion Hill Baptist   Fresh Fruit/   Midwest        Detroit      MI              48205        450       $12,937.50
                     Vegetable
                     Box
Zion Lutheran       Combination    South West     Pasadena     TX              77505        360       $12,589.20
 Church              Box
Zion Lutheran       Fresh Fruit/   South West     Pasadena     TX              77505      1,720       $34,270.80
 Church              Vegetable
                     Box
Zion Mennonite      Precooked      Mid-Atlantic   Souderton    PA              18964        250        $4,500.00
 Church              Meat Box
Zion Temple         Fresh Fruit/   South East     Bolivar      TN              38008      1,026       $25,137.00
 Bolivar--C/O Mid    Vegetable
 South Food Bank     Box
                    Fresh Fruit/   South East     Belle Glade  FL              33430     27,405      $671,422.50
                     Vegetable
                     Box
----------------------------------------------------------------------------------------------------------------

                             [attachment 3]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Trade Damage Estimation for the Market Facilitation Program and Food 
        Purchase and Distribution Program
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
U.S. Department of Agriculture, Office of the Chief Economist
September 13, 2018
Executive Summary
    This paper outlines the methodology USDA employed to estimate the 
level of gross trade damage caused by retaliatory tariffs to U.S. 
agricultural exports by commodity. Those estimates were used to 
determine the Market Facilitation Program (MFP) payment rates and the 
value of commodities to be purchased under the Food Purchase and 
Distribution Program (FPDP). USDA announced (https://www.usda.gov/
media/press-releases/2018/07/24/usda-assists-farmers-impacted-
unjustified-retaliation) these two programs as part of a trade 
mitigation package on July 24, 2018. For more details about the trade 
mitigation programs, visit https://www.farmers.gov/.
    Rulemaking and related documents, including the Cost Benefit 
Analysis (CBA), for the Market Facilitation Program can be found at 
https://www.regulations.gov/docket?D=CCC-2018-0002.
Trade Damage Estimation for the Market Facilitation Program and Food 
        Purchase and Distribution Program
    USDA developed an estimate of gross trade damages to set commodity 
payment rates and purchase levels for the trade mitigation package 
announced on July 24, 2018.\1\ This is the approach often employed in 
adjudicating trade dispute cases. For example, in the U.S.-Country of 
Origin Labeling dispute case, World Trade Organization (WTO) 
arbitrators awarded trade damages of approximately $1 billion to Canada 
and Mexico based on the gross trade value of their lost livestock 
exports to the United States due to the COOL measure.
---------------------------------------------------------------------------
    \1\ See announcement at https://www.usda.gov/media/press-releases/
2018/09/04/usda-launches-trade-mitigationprograms.
---------------------------------------------------------------------------
    The following explanation describes the steps taken to calculate 
the trade damage estimates for the 2018 retaliatory tariffs by Canada, 
China, the European Union (EU), Mexico, and Turkey (for a more detailed 
discussion of the model equations, see Annex 1).

  <bullet> Step 1: Trade value without the retaliatory tariff from a 
        particular country (Exports1).

  <bullet> Step 2: Trade value with the retaliatory tariff from a 
        particular country (Exports2).

  <bullet> Step 3: Take the difference of the two as the ``trade 
        damage'' due to the tariff (Delta).\2\
---------------------------------------------------------------------------
    \2\ This definition also follows the trade damage formula that 
would be theoretically consistent to the interpretation of the WTO 
principle of reciprocity. See Bown, Chad P., and Michele Ruta. ``The 
economics of permissible WTO retaliation.'' The Law, Economics and 
Politics of Retaliation in WTO Dispute Settlement 3 (2010): 149.

    This is illustrated in Figure 1 below, where gross trade damages is 
measured as Delta = Exports1^Exports2.
Figure 1: Value of U.S. exports to retaliatory partner with and without 
        the retaliatory tariff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    For Step 1, we use actual trade in 2017 as a proxy for the expected 
value of trade without the retaliatory tariff (or Exports1) using 
import data from Canada, China, the EU, Mexico, and Turkey.
    From above, we cannot observe the Delta from trade data yet. 
Typically, a WTO dispute is filed, and time lapses and allows the 
observation of lower trade following a disputed measure, but 
implementing a timely program to respond to retaliatory tariffs did not 
allow for multi-year data collection. Therefore, for Step 2, we use a 
global trade model to estimate what the value of trade is expected to 
be after the imposition ofthe tariffs (or Exports2).
    The model estimates bilateral trade flows for each of the 
commodities with assessed tariffs. As a general rule, a given tariff 
will increase the cost of that commodity in the importing country, 
leading to lower demand for the commodity from the exporting country. 
This method reflects the level of the tariffs and the sensitivity of 
the retaliatory partner's import demand to the higher prices caused by 
the additional tariff. Availability of substitute suppliers on the one 
hand (for the retaliating importer) and substitute demanders on the 
other hand (for the U.S. exporter) are also reflected in this approach.
    Subtracting Step (1) from Step (2) provides a measure of gross 
trade damage. Note, the gross trade damage only reflects direct export 
losses due to the retaliatory tariff imposed on the U.S. commodity. 
Indirect or secondary effects from the tariff, such as cross-commodity 
effects are not reflected in the gross trade damage estimate.
    The Food Purchase and Distribution Program's announced purchase 
values were set at the same level of gross trade damage to each 
affected commodity, using the trade model outlined above and reflecting 
the amount of commodity surplus resulting from the gross trade losses.
    In determining the amount of assistance that USDA would make 
available to producers to facilitate marketing of crops affected by 
these retaliatory tariffs and to assist in the development of 
alternative markets under the Market Facilitation Program (MFP), USDA 
divided that estimated trade damage level by 2017 crop year production 
to calculate a per unit rate. We used 2017 trade and production data 
because 2018 data are not final and are months away from being 
complete. Moreover, the 2018 trade data will show a biased impact 
because of the tariffs. Because the goal of the MFP is to provide 
assistance to producers of commodities that have been significantly 
impacted by the retaliatory tariffs, the MFP per unit rate is applied 
to a producer's actual 2018 production levels to generate a producer's 
total payment amount.
    The retaliatory tariffs may be removed at some point through trade 
negotiations and other factors may occur that ultimately help mitigate 
the trade damage to U.S. producers, creating the need for an interim 
step to calculate payments. That interim step led USDA, in consultation 
with the Office of Management and Budget (OMB) and other White House 
offices, to split a producer's 2018 production into two parts. The 
first part was announced on September 4th and payment calculation 
follow the steps above. The second part will be announced, if 
necessary, in December and may account for other factors, such as new 
tariff levels, regional basis effects, or other market conditions that 
may have mitigated some of the trade damages calculated above.
MFP example 1: Sorghum
    Step 1: In 2017, China imported $956 million of sorghum from the 
United States.
    Step 2: With additional 25% tariff, China is estimated to import 
$642 million from the United States.
    Step 3: Estimated gross trade damage = $642 million^$956 million = 
^$314 million Initial MFP rate = $314 million/364 million bushels = 
$0.86/bu.
MFP example 2: Corn
    Step 1: In 2017, China and EU combined imported $309 million of 
corn from the United States.
    Step 2: With additional 25% tariff from both countries, the 
combined imports from the United States is estimated to be $117 
million.
    Step 3: Estimated gross trade damage = $117 million^$309 million = 
^$192 million.
    Initial MFP rate = $192 million/14.6 billion bushels = $0.01/bu.
Annex 1: Trade Model Formulas
    USDA estimated the impacts of retaliatory tariffs using a version 
of the Global Simulation Model (GSIM). GSIM is a standard Armington 
partial equilibrium model of trade developed by Francois and Hall 
(2009).\3\ The model assumes that products are differentiated by 
country, and permits the assessment of tariff changes at the product 
level. Global bilateral trade flows are modeled according to basic 
supply and demand relationships, given an initial equilibrium in a base 
year. The model solves for a new market equilibrium following the 
imposition of the retaliatory tariff, where prices clear excess supply 
and demand conditions to adjust to changes in global bilateral trade 
flows.
---------------------------------------------------------------------------
    \3\ Francois, Joseph, and H. Keith Hall. Global simulation analysis 
of industry-level trade policy: The GSIM model. Institute for 
International and Development Economics, 2009.
---------------------------------------------------------------------------
    The model calculates the expected effect on imports of U.S. 
products by retaliating trading partners. For example, lost U.S. 
exports to China due to a retaliatory tariff imposed on product i is 
calculated as
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the model, M<INF>i,(U.S.,CHN)</INF> is set to actual import 
levels in the base year where the market is assumed to be in 
equilibrium; that amount is taken as the level of imports without the 
retaliatory tariff. Given a tariff, the model simulates a new global 
equilibrium, where Mt<INF>i,(U.S.,CHN)</INF> is the expected level of 
Chinese imports of product i from the United States with the 
retaliatory tariff.
    GSIM is a global model and includes bilateral import demand 
equations for multiple countries/regions. In the model, Chinese import 
demand of product i from the U.S. with the retaliatory tariff would be 
represented as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Where:

  <bullet> t<INF>i,(U.S.,CHN)</INF> is China's additional retaliatory 
        tariff on U.S. product i.

  <bullet> P<SUP>*</SUP><INF>i,(U.S.)</INF> is the U.S. export price 
        for product i and is normalized to one in the initial 
        equilibrium without the tariff. Given the retaliatory tariff, 
        prices are solved iteratively in the model to clear global 
        supply and demand.

  <bullet> s is the constant elasticity of substitution for product i. 
        These are sourced from GTAP and Virginia Tech.

  <bullet> a<INF>i,(U.S.,CHN)</INF> is a preference parameter that is 
        calibrated in the model to match the initial equilibrium.

  <bullet> P<INF>i,(CHN)</INF> is the composite price in China for 
        product i. It represents the overall prices faced by Chinese 
        consumers. Given a retaliatory tariff, prices adjust not only 
        for U.S. exports but for all modeled countries. These new 
        prices are solved iteratively in the model.

  <bullet> E<INF>i,(CHN)</INF> is China's total expenditure on product 
        i, under the new equilibrium with the retaliatory tariff. It is 
        calibrated to match expenditures in the initial equilibrium. 
        Et<INF>i,CHN</INF> also depends upon the composite price index 
        P<INF>i,(CHN)</INF> and the composite demand elasticity and is 
        solved under the new equilibrium.

    The above equation is solved in a full system of equations modeling 
global trade that includes bilateral import demand functions of all 
countries/regions in the model along with supply functions. An 
iterative algorithm is used to find the set of prices that ensures that 
total quantity demanded equals total quantity supplied in all markets 
simultaneously. Once the price vector is solved, the expected change in 
bilateral trade flows resulting from the tariff is calculated.
    The model is calibrated using 2016 data and employs 2017 trade data 
for the base year. Trade damages are calculated by the following 
formula.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Sources for Data and Parameters:

  <bullet> Trade Data: UN Comtrade accessed through the World Bank's 
        Integrated Trade Solution (https://wits.worldbank.org/) and 
        2017 import data from official government customs sources in 
        the countries that imposed retaliatory tariffs, accessed 
        through Global Trade Atlas.

  <bullet> Retaliatory tariffs: official notifications to the WTO or 
        published in official government public notices.

  <bullet> USDA production data: USDA-NASS and USDA-FAS.\4\
---------------------------------------------------------------------------
    \4\ See https://quickstats.nass.usda.gov/ and https://
apps.fas.usda.gov/psdonline/app/index.html#/app/home.

  <bullet> Trade Elasticities: Hertel, T., Hummels, D., Ivanic, M. and 
        Keeney, R., 2007. How confident can we be of CGE-based 
        assessments of Free Trade Agreements? Economic Modelling, 
        24(4), pp. 611-635 and Grant, J., Ning, X., and E. Peterson, 
        2018. ``Trade Elasticities and Trade Disputes: New Evidence 
        from Tariffs and Relative Preference Margins.'' Center for 
---------------------------------------------------------------------------
        Agricultural Trade, Virginia Tech.

  <bullet> Import Demand Elasticities: Vienna Institute: Ghodsi, M., J. 
        Grubler and R. Stehrer (2016), `Import Demand Elasticities 
        Revisited', wiiw Working Paper, No. 132, November, (https://
        wiiw.ac.at/wiiwimport-demand-elasticities-ds-3.html).
                             [attachment 4]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Trade Damage Estimation for the 2019 Market Facilitation Program and 
        Food Purchase and Distribution Program
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
U.S. Department of Agriculture, Office of the Chief Economist
August 22, 2019
Executive Summary
    This paper outlines the methodology USDA employed to estimate the 
level of gross trade damage caused by retaliatory tariffs to U.S. 
agricultural exports by commodity. Those estimates were used to 
determine the 2019 Market Facilitation Program (MFP) payment rates and 
the value of commodities to be targeted for purchase under the 2019 
Food Purchase and Distribution Program (FPDP). The paper also outlines 
the formulas employed to calculate MFP county rates for non-specialty 
crops, as well as national MFP rates for specialty crops, hogs, and 
milk. USDA announced details on those programs on July 25, 2019. For 
more details about the trade mitigation programs, visit https://
www.farmers.gov/manage/mfp. Rulemaking and related documents, including 
the Cost Benefit Analysis (CBA), for trade mitigation programs can be 
found at https://www.regulations.gov/docket?D=CCC-2019-0003.
Trade Damage Estimation for the 2019 Market Facilitation Program (MFP) 
        and Purchase Targets for the Food Purchase and Distribution 
        Program (FPDP)
    On May 23, 2019, the Secretary of Agriculture announced (https://
www.usda.gov/media/press-releases/2019/05/23/usda-announces-support-
farmers-impacted-unjustified-retaliation-and) that USDA would take 
several actions to assist farmers in response to continued retaliation 
and trade disruption. President Trump authorized USDA to provide up to 
$16 billion in programs, in line with the estimated impacts of 
retaliatory tariffs on U.S. agricultural producers and other trade 
disruptions. Further details of the 2019 trade mitigation program were 
announced (https://www.usda.gov/media/press-releases/2019/07/25/usda-
announces-details-support-package-farmers) on July 25, 2019.
    In 2018, USDA developed an estimate of gross trade damages for U.S. 
commodities affected by retaliatory tariffs to establish commodity 
payment rates for the Market Facilitation Program (MFP) and purchase 
targets for the Food Purchase and Distribution Program (FPDP). On 
September 13, 2018, USDA provided a detailed accounting of how those 
gross damage estimates were calculated.\1\
---------------------------------------------------------------------------
    \1\ For details see: https://www.usda.gov/oce/trade/
USDA_Trade_Methodology_Report.pdf.
---------------------------------------------------------------------------
    For the 2018 and the 2019 trade mitigation programs, USDA defined 
economic losses due to the trade actions in terms of gross trade 
damages. Gross trade damages were defined as the total amount of 
expected export sales lost to the retaliatory partner due to the 
additional tariffs. This metric provides one assessment of economic 
loss, and there are other forms of economic injury that could be 
measured. Gross trade damage contributes to the economic cost to the 
producer to adjust to the disrupted markets, manage surplus 
commodities, and expand and develop new markets, consistent with the 
design of the MFP. Further, export sale losses provide the most direct 
link to the retaliatory action(s) and is the single estimate that most 
comprehensively accounts for the full scale of trade impacts. In part 
due to these reasons, it is often employed in World Trade Organization 
(WTO) arbitrations assessing the level of nullification or impairment 
resulting from a measure found to be WTO-inconsistent and is the 
approach applied here.
    For the 2019 program, USDA employed the same methodology to 
estimate gross trade damages, using the same trade model (Global 
Simulation Analysis of Industry-Level Trade Policy) documented in 2018. 
That model simulates the expected reduction in U.S. exports to the 
retaliatory partner market. Gross trade damages are calculated as the 
difference in bilateral trade with the tariff and the baseline (without 
the tariff).
    As with the 2018 trade mitigation programs, the gross trade damage 
estimate is the basis for developing the 2019 MFP payment rates, which 
are detailed in this paper, as well as FPDP purchase targets. The 2019 
programs are designed to aid producers in the disposition of surplus 
commodities; to aid in the expansion of domestic markets; or to aid in 
the development of new and additional markets and uses. Those programs 
are intended for crops or commodities that are negatively impacted by 
trade actions of foreign governments. Specifically, the 2019 MFP 
payments may provide producers with an opportunity to adjust to delays 
in the marketing of their crops and to costs associated with 
reorienting their sales to new and additional markets.
Changes in Retaliatory Tariffs
    The gross trade damage estimate for 2019 takes into account changes 
in retaliatory tariffs since the original damage estimate used for the 
2018 trade mitigation programs. There have been five changes to the 
retaliatory tariffs applied to U.S. agricultural products since the 
2018 damages were calculated:

  (a)  On September 24, 2018, China imposed additional tariffs ranging 
            from five to ten percent on U.S. goods, which were applied 
            to $3 billion of agricultural products not previously 
            impacted by China's retaliatory tariffs. Given the timing 
            of China's action, these tariffs were not included in the 
            trade damage analysis for the 2018 trade mitigation 
            programs.

  (b)  On May 17, 2019, Mexico and Canada agreed to lift all 
            retaliatory tariffs related to the U.S.-imposed Section 232 
            steel and aluminum tariffs. These tariffs covered a broad 
            range of agricultural and food products, including U.S. 
            pork and dairy.

  (c)  On May 21, 2019, Turkey reduced retaliatory tariffs assessed on 
            U.S. products by half in response to changes in U.S.-
            imposed Section 232 tariffs on steel and aluminum from 
            Turkey. Turkey's retaliatory tariffs include some U.S. tree 
            nuts and rice.

  (d)  On June 1, 2019, China increased retaliatory tariffs assessed on 
            the U.S. on almost $2 billion of agricultural goods by an 
            additional five to 15 percent. This new list includes many 
            U.S. horticultural and specialty products.

  (e)  On June 16, 2019, India imposed retaliatory tariffs ranging from 
            2 to 25 percent on U.S. apples, rice, almonds, chickpeas, 
            and other commodities. India had announced retaliatory 
            tariffs on U.S. goods in July 2018 but delayed 
            implementation until June 2019.

    The model commodity coverage was expanded to include the broader 
range of U.S. agricultural products affected by retaliation, as well as 
the increase in (China) or implementation of (India) retaliatory 
tariffs. The model scenarios were also revised to remove the 
retaliatory tariffs that Canada and Mexico lifted, as well as the 
reduction in Turkey's tariffs.
Base Year Changes Account for Long-Standing Distortionary Policies and 
        Longer-Term Impacts
    For the 2018 trade mitigation programs, USDA employed 2017 trade 
data as the base year for projecting trade damages. 2017 was used as 
the 2018 programs' base year because it was the most recent full year 
of trade data available and reflected trade levels prior to the 
imposition of retaliatory tariffs starting in April 2018 for some 
agricultural products.\2\
---------------------------------------------------------------------------
    \2\ In April 2018, China was the first trading partner to impose 
retaliatory tariffs on U.S. agriculture in response to Section 232 
tariffs on aluminum and steel. Nearly all retaliatory tariffs--
including those imposed by China in response to actions under Section 
301 and Section 232, as well as those imposed by the EU, Canada, 
Mexico, and Turkey in response to actions under Section 232, were in 
place by July 2018. India was the only country that announced but did 
not immediately apply retaliatory tariffs on U.S. agricultural products 
in 2018.
---------------------------------------------------------------------------
    For the 2019 trade mitigation programs, USDA employed a longer 
time-series to estimate gross trade damages, by surveying trends in 
U.S. bilateral trade over a 10 year period (2009-2018). For some of the 
commodities affected by tariffs, 2017 was not the most representative 
base year on which to conduct the trade damage analysis. The 10 year 
period for determining a basis for the evaluating the tariff allows 
estimates to account for other contributing variables, such as 
longstanding trade barriers imposed by China and other countries that 
have affected U.S. exports, as well as the longer-term impact of 
prolonged retaliatory tariffs.\3\
---------------------------------------------------------------------------
    \3\ To be clear, the model estimates the impact of the retaliatory 
tariff(s) on a given commodity.
---------------------------------------------------------------------------
    We included 2018 in this time-series, given that for some 
commodities, new market access had only just begun prior to the 
implementation of retaliatory tariffs. For example, in mid-2017, China 
and the United States agreed to improve market access for U.S. beef 
exports to China.\4\ U.S. beef exports began to increase in late 2017 
through the first half of 2018 before declining and leveling-off. U.S. 
beef had been banned from China since 2003, and prior to that ban, the 
United States was the country's largest beef supplier. Therefore, it is 
reasonable to expect that, but for the retaliatory tariffs that China 
imposed on U.S. beef in July 2018, U.S. beef exports to China would 
have continued to increase at a similar (if not higher) level as 
observed in the first half of 2018. Using 2017 as a base year does not 
fully capture the new market access opportunities for U.S. beef.
---------------------------------------------------------------------------
    \4\ On June 12, 2017, USDA announced that it had reached an 
agreement with Chinese officials on the final details of a protocol to 
allow the United States to begin exporting beef to China. See https://
www.usda.gov/media/press-releases/2017/06/12/us-china-finalize-details-
send-us-beef-china.
---------------------------------------------------------------------------
    Other commodities have faced multi-year market access barriers into 
China and other countries that have implemented retaliatory tariffs. In 
recent years, unwarranted regulatory and trade-distorting measures have 
hindered U.S. corn exports to some of these markets, making the 2017 
base year less representative of U.S. export levels.\5\ Moreover, 
products made from corn, such as distillers dried grains and solubles 
(DDGS) and ethanol have been adversely impacted by China's earlier 
decisions to unilaterally increase tariffs (ethanol) and impose anti-
dumping and countervailing duties (DDGS).\6\ Other products facing 
multi-year market access barriers include poultry, rice, and wheat.
---------------------------------------------------------------------------
    \5\ See the USTR Foreign Trade Barriers Reports and the USTR Trade 
Policy Agenda and Annual Reports for more details. The most recent 
reports can be accessed at https://ustr.gov/about-us/policy-offices/
press-office/reports-and-publications/2019.
    \6\ Ibid.
---------------------------------------------------------------------------
2019 MFP Payments and Payment Rates for Non-Specialty Crops
    Given the timing of the 2019 Market Facilitation Program (MFP) 
during the crop year, USDA developed a single rate per acre in each 
county for MFP-eligible non-specialty crops, which include select non-
specialty commodities both directly and indirectly affected by the 
trade dispute, in order to minimize potential distortions.
    Payments to each producer are limited to:

  <bullet> 2018 Farm Service Agency-certified planted acres;

  <bullet> 2018 Farm Service Agency-certified prevented from planting 
        acres (of non-specialty crops); and

  <bullet> 2018 expiring Conservation Reserve Program acreage.

    The specific commodity rates that form the basis of the county rate 
are derived from the gross trade damage estimates. Commodity rates are 
set as the estimated trade damages divided by the average volume of 
production for 2015-17 reported by NASS.
    The county payment rates \7\ were based on historical fixed average 
area and yields as discussed below. The total potential payment amount 
for non-specialty crops is the eligible area multiplied by the non-
specialty county rate per acre. This total payment amount is subject to 
limitations further discussed under the ``Total MFP Payments'' heading, 
beginning on page 7 of the report.
---------------------------------------------------------------------------
    \7\ See https://www.farmers.gov/manage/mfp for rates by county.

                   Non-specialty crops commodity rates
------------------------------------------------------------------------
   Non-specialty crops        Commodity Rate               Units
------------------------------------------------------------------------
         Soybeans                     $2.05                      BU
           Cotton                     $0.26                      LB
          Sorghum                     $1.69                      BU
             Corn                     $0.14                      BU
            Wheat                     $0.41                      BU
             Rice                     $0.63                     CWT
          Peanuts                     $0.01                      LB
                 Lentils              $3.99                     CWT
             Peas                     $0.85                     CWT
      Alfalfa Hay                     $2.81                    TONS
      Dried Beans                     $8.22                     CWT
        Chickpeas                     $1.48                     CWT
------------------------------------------------------------------------

Example of non-specialty crop county rate calculation
    County A has planted an average of 20,000 acres of corn, 10,000 
acres of soybeans, and 1,000 acres of barley. The historical average 
county yield is 180 bu/acre for corn, 60 bu/acre for soybeans, and 50 
bu/acre for barley. The commodity rates under the 2019 MFP for corn and 
soybeans are $0.14/bu and $2.05/bu, respectively. Since there are no 
retaliatory tariffs on U.S. barley, the payment rate for barley is 
$0.00/bu.
    County A's payment rate is calculated as follows:

          Step 1: For each crop in a county, multiply fixed historical 
        acres, fixed historical yields, and the payment rate per unit 
        for each eligible non-specialty MFP crop

      <bullet> County A Corn Damage: 20,000 acres  180 bu/acre  
            $0.14/bu = $504,000

      <bullet> County A Soybeans Damage: 10,000 acres  60 bu/acre  
            $2.05/bu = 
              $1,230,000

      <bullet> County A Barley Damage: 1,000 acres  50 bu/acre  
            $0.00/bu = $0

          Step 2: Sum all calculated values from Step 1

      <bullet> $504,000 + $1,230,000 + $0 = $1,734,000 in total non-
            specialty crop damage

          Step 3: Sum the acres across all eligible non-specialty MFP 
        crops

      <bullet> 20,000 + 10,000 + 1,000 = 31,000 acres

          Step 4: Calculate the county payment rate per acre by 
        dividing the result of Step 2 by the result of Step 3

      <bullet> $1,734,000/31,000 = $56/acre non-specialty crop county 
            payment

    Acres reported to the Farm Service Agency between 2015-2018 are 
used to calculate the historical fixed acres for each crop within a 
county. The 2015-2017 historical fixed county yield is calculated using 
the following cascade:

  1.  RMA county yield,

  2.  NASS county yield, if the RMA county yield is unavailable,

  3.  RMA T-yield, if the both the RMA county yield and NASS county 
            yield are unavailable,

  4.  NASS state yield, if (1)-(3) are unavailable, and

  5.  NASS national yield, if (1)-(4) are unavailable.
Prevent Plant
    2019 planting was characterized by substantial rainfall and cool 
weather that delayed planting of crops across the United States. 
Producers prevented from planting a 2019 non-specialty crop, but who 
planted a CCC-approved cover crop, with the potential to be harvested, 
qualify for a $15 per acre payment.\8\
---------------------------------------------------------------------------
    \8\ https://www.usda.gov/media/press-releases/2019/07/25/usda-
announces-details-support-package-farmers. USDA is not legally 
authorized to make Market Facilitation Program payments to producers 
for acreage that is not planted. However, cover crops planed with the 
purpose of providing animal feed or other marketing purpose are 
eligible for a minimum payment of $15 per acre.
---------------------------------------------------------------------------
Cups and Caps
    The county payment rates per acre are cupped and capped at $15 per 
acre and $150 per acre, respectively.
2019 MFP Payments and Payment Rates for Hogs and Milk
    Hogs: 2019 MFP payments for hog producers are based on live hog 
inventory on a day selected by the applicant between April 1, 2019 and 
May 15, 2019. Eligibility for 2019 MFP payments is again based upon 
independent ownership of the hogs; persons/legal entities that are 
contracted to grow hogs are not eligible for 2019 MFP.

    Calculate the per unit payment rate for hogs:

          Step 1: Calculate the gross trade damage estimate
          Step 2: Subtract the FPDP purchase amount from the gross 
        trade damage estimate to calculate the portion not covered by 
        FPDP
          Step 3: Divide the value from Step 2 by the number of hogs 
        reported in the 2019 March inventory report to calculate the 
        MFP payment rate per hog

    Milk: 2019 MFP payments for dairy producers are based on historical 
production, the same as what was reported for participation in the USDA 
Dairy Margin Coverage Program or its predecessor, the Margin Protection 
Program for Dairy. The ownership share for milk will be as reported to 
FSA for the aforementioned programs for dairy operations that were in 
business as of June 1, 2019. Dairy operations that were not in business 
as of June 1, 2019, are ineligible for MFP.

    Calculate the per unit payment rate for milk:

          Step 1: Calculate the gross trade damage estimate
          Step 2: Subtract the FPDP purchase amount from the gross 
        trade damage estimate to calculate the portion not covered by 
        FPDP
          Step 3: Divide the value from Step 2 by 2017 MPP production 
        to get the MFP payment rate per cwt of milk

                         Hog and Milk MFP Rates
------------------------------------------------------------------------
                 Trade Damage      Units       Production     MFP rate
                   estimate   ------------------------------------------
                 minus FPDP2
                   targeted
    Product        purchase
                    amount         units       (in million     $/units
               ---------------                   units)
                 (in million
                      $)
------------------------------------------------------------------------
        Hogs            $831           head             74           $11
       Dairy            $354            cwt          1,761         $0.20
------------------------------------------------------------------------

2019 MFP Payments and Payment Rates for Specialty Crops
    Similar to the 2018 MFP, producers of an expanded list of specialty 
crops will be eligible for program payments. 2019 MFP payments for 
specialty crops are based on 2019 acres of fruit or nut bearing plants. 
For specialty fruits and ginseng, the payment rate is multiplied by the 
average yields listed on https://www.farmers.gov/manage/mfp.

    Calculate the payment rate for specialty tree nuts:

          Step 1: Calculate and sum all gross trade damage estimates 
        for all specialty tree nuts
          Step 2: Sum bearing acres for all eligible tree nuts using 
        NASS Census data for 2017
          Step 3: Divide total gross trade damages from Step 1 by total 
        acres from Step 2 to get the national tree nut rate ($/acre)

    Calculate the payment rate for specialty fruits:

          Step 1: For each specialty fruit, calculate the gross trade 
        damage estimate
          Step 2: Calculate total production of the fruit crop using 
        2017 Census acreage and RMA yields
          Step 3: Divide the trade damage estimate from Step 1 by 
        average production from Step 2 to get the per unit payment rate 
        ($/lb)

    Calculate the payment rate for ginseng:

          Step 1: Calculate the gross trade damage estimate
          Step 2: Calculate estimated ginseng production using 2017 
        Census data on ginseng acreage and USDA estimate of average 
        yields using industry and academic sources
          Step 3: Divide the trade damage estimate from Step 1 by 
        estimated production from Step 2 to get the per unit payment 
        rate ($/lb)

                        Specialty Crop MFP Rates
------------------------------------------------------------------------
                                     Trade Damage
                                       Estimate
       Specialty Products        --------------------      MFP Rates
                                    (in million $)
------------------------------------------------------------------------
                Tree Nuts *                  $318           $146/acre
     Sweet Cherries (fresh)                  $111            $0.17/lb
             Grapes (fresh)                   $70            $0.03/lb
                Cranberries                   $28            $0.03/lb
                    Ginseng                    $6            $2.85/lb
------------------------------------------------------------------------
* Pistachios, almonds, walnuts, pecans, hazelnuts, and macadamia nuts

Total MFP Payments
    The total payments to producers are subject to payment limitations, 
AGI eligibility criteria, and adjustments to the payment structure.
    2019 MFP payments will be provided in up to three installments. The 
first payment will be guaranteed, and is the higher of 50 percent of 
the total calculated payment or $15 per acre. If CCC determines that a 
second payment is warranted, it will be up to 75 percent of the total 
calculated payment less the amount received in the first payment and 
the second payment period will begin in November 2019. If CCC 
determines that a final payment is warranted, it will be for the 
remaining amount of the total calculated payment, unless otherwise 
adjusted by CCC, and the last payment period will begin in January 
2020.
    For 2019 MFP payments, there will be three separate payment 
limitations for each person or legal entity: \9\
---------------------------------------------------------------------------
    \9\ This excludes a joint venture or general partnership, as 
defined and determined under 7 CFR part 1400.

---------------------------------------------------------------------------
  1.  $250,000 for eligible non-specialty crops;

  2.  $250,000 for eligible specialty crops; and

  3.  $250,000 for hogs and milk.

  4.  No person or legal entity can receive more than $500,000 under 
            2019 MFP.

    Last, if the average adjusted gross income of a person or legal 
entity is greater than $900,000, the person or entity is not eligible 
to receive a MFP payment unless at least 75 percent of the adjusted 
gross income of the person or entity is derived from farming, ranching, 
or forestry related activities. The relevant years used to calculate 
average AGI are the 3 consecutive tax years immediately preceding the 
year before the payment year, which will be the crop year, or the 
marketing year for livestock or dairy. For example, for 2019 the 
relevant years to calculate AGI are the 2015, 2016 and 2017 tax years.
    For more information on the MFP program, please go to https://
www.farmers.gov/manage/mfp. Rulemaking and related documents, including 
the Cost Benefit Analysis (CBA), for trade mitigation programs can be 
found at https://www.regulations.gov/docket?D=CCC-2019-0003.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
